<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[Senate Hearing 106-382]
[From the U.S. Government Printing Office]




                                          S. Hrg. 106-382 , Pt. 1 deg.
 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                        H.R. 2466, 3423/S. 1292

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2000, AND FOR 
                             OTHER PURPOSES

                               __________

                         PART 1 (Pages 1-xxxx)

                       Department of Agriculture
                          Department of Energy
                       Department of the Interior
             John F. Kennedy Center for the Performing Arts
                        National Gallery of Art
                       Nondepartmental Witnesses
                        Smithsonian Institution
           Woodrow Wilson International Center for Scholars
                Department of Health and Human Services
                          Department of Energy
                        Smithsonian Institution

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
54-218 CC                    WASHINGTON : 2000
______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-060259-9




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                HARRY REID, Nevada
ROBERT F. BENNETT, Utah              BYRON DORGAN, North Dakota
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California

                           Professional Staff

                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                          Kurt Dodd (Minority)

                         Administratvie Support

                             Joseph Norrell


                            C O N T E N T S

                              ----------                              

                        Tuesday, March 16, 1999

                                                                   Page
John F. Kennedy Center for the Performing Arts...................     1
National Gallery of Art..........................................     1
Smithsonian Institution..........................................     1
Woodrow Wison International Cenfer for Scholars..................     1

                        Thursday, March 18, 1999

Department of Energy: Office of the Secretary....................    45

                       Wednesday, April 14, 1999

Department of the Interior:
    Office of the Special Trustee................................   129
    Bureau of Indian Affairs.....................................   129

                        Thursday, April 15, 1999

Department of Agriculture: Forest Service........................   187

                        Thursday, April 22, 1999

Department of the Interior: Office of the Secretary..............   315
Nondepartmental witnesses........................................   471


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              


                        TUESDAY, MARCH 16, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton and Stevens.

             JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS

STATEMENT OF LAWRENCE J. WILKER, PRESIDENT

                        NATIONAL GALLERY OF ART

STATEMENT OF EARL A. POWELL, III, DIRECTOR

                        SMITHSONIAN INSTITUTION

STATEMENT OF I. MICHAEL HEYMAN, SECRETARY

            WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

STATEMENT OF LEE H. HAMILTON, DIRECTOR


                             budget request


               opening statement of senator slade gorton


    Senator Gorton. Today we welcome the directors of four of 
our preeminent national cultural institutions to testify before 
the Interior Subcommittee: Larry Wilker of the Kennedy Center; 
Rusty Powell of the National Gallery of Art; Mike Heyman of the 
Smithsonian Institution; and Lee Hamilton, in a new and 
different position from the one he occupied with such 
distinction for so many years, of the Woodrow Wilson Institute 
International Center for Scholars.
    The budget requests submitted by each of these institutions 
for the fiscal year 2000 reflect the challenging budget climate 
within which we all operate. Requested increases from the four 
agencies total $45 million. The major portion of that amount, 
more than $33 million, is composed solely of the uncontrollable 
cost increases, necessary maintenance, and security needs of 
these agencies.
    While this subcommittee once again anticipates struggling 
with the constraints that have faced it in previous years, we 
are aware of our responsibility to provide adequate support to 
those institutions for which the Federal Government has a 
primary responsibility and we will attempt to meet the basic 
requirements of each to the extent the overall budget 
parameters permit us to do so.
    Before we turn to the statements and questions, I want to 
note both a pending departure at the Smithsonian and new 
leadership at the Wilson Center, as I already have. The 
Secretary of the Smithsonian, Mike Heyman, recently announced 
his intention to retire at the end of this year and return to 
California.
    I would like to take this opportunity to thank him for his 
many accomplishments during his tenure at the Smithsonian. He 
will leave an institution that is stronger and more vital 
because of his efforts and he will be missed by everyone here.
    I have already welcomed Lee Hamilton. After leaving a 
distinguished career in the House of Representatives, he has 
taken on an institution which has been surrounded by a certain 
degree of controversy, given the relatively small size of its 
appropriation. I have every confidence in his ability to guide 
the organization into a productive future era.
    Without objection I would like to insert the prepared 
statement of Senator Thad Cochran.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I join you in welcoming this distinguished panel of 
chief officers of our Nation's cultural institutions. Spending in the 
areas of arts and scholarly study are remarkably small compared to our 
total annual budget outlays, but, it is a rich investment.
    I especially want to mention my great appreciation to Mr. I. 
Michael Heyman, who has announced his retirement as Secretary of the 
Smithsonian Institution the end of this year. It has been my great 
honor to serve on the Smithsonian Institution Board of Regents during 
his tenure.
    He is the first Secretary of the Institution who has not been a 
scientist by profession, so he was brave to take on this living 
institution which is more than ``The Nation's Attic.'' His commitment 
to the mission, ``to increase and diffuse knowledge'' could not be more 
genuine, nor his service more effective. He has led the considerable 
reform of how new exhibits are developed and presented; faithful to the 
facts revealed by science and scholarly research, thoughtful and 
socially responsible. This is a difficult balance to achieve. Secretary 
Heyman has managed admirably.
    Under his leadership he has readied the Institution for the 21st 
century. Interactive distance learning, new K-12 education programs, a 
World Wide Web site, world class research across the fields of science, 
affiliations with local museums, a digital catalogue of the 
collections, are all examples of the growth in programing putting the 
Smithsonian experience within reach of all Americans.
    We certainly regret Michael Heyman's leaving, but most whole 
heartedly wish him well and good fortune on his return to California.
    I would also like to thank Larry Wilker, President of the Kennedy 
Center. His testimony describes very innovative programs which make 
Kennedy Center performances available to a wide audience. I'm 
especially grateful for the National Symphony's American Residency 
program, which will send the National Symphony to Mississippi next 
month under a grant from the National Endowment for the Arts. The 
Symphony members will not only perform, but will also engage in 
educational programs in several towns and cities. This is a unique 
opportunity for Mississippians of all ages.
    It is also a good example of how a modest Federal investment pays 
off. By our providing funds at a national level for the nurturing and 
development of world renown artistic training, performance, 
preservation, exhibition, and study, we provide personal opportunities 
to millions of Americans in their own home towns.
    Thank you, Mr. Chairman. I again want to express my thanks to the 
gentlemen on this panel of witnesses and to all the people who serve 
under their direction, for providing enrichment to our lives and 
heritage.

    Senator Gorton. Why don't we work perhaps just from my left 
to my right here? Your written opening statements will be 
included in the record as if read in full. I think it is 
appropriate, for us and for the audience, for each of you to at 
least summarize what you are about and what you hope to 
accomplish in the next year.

                summary statement of Lawrence J. Wilker

    Mr. Wilker. Thank you, Mr. Chairman, and good morning.
    I am Larry Wilker, President of the John F. Kennedy Center 
for the Performing Arts. Appearing with me today on behalf of 
the Kennedy Center are William Becker, General Counsel; Clif 
Jeter, Vice President for Facilities; James Kirkman, Project 
Executive; and Jared Barlage, Senior Liaison Officer.
    I previously have submitted to the Subcommittee my written 
statement concerning the Kennedy Center's activities, 
operations, and fiscal year 2000 budget justification which, as 
I request and you have noted be included in the record of this 
hearing. I appreciate the opportunity to appear before this 
Subcommittee. It may be useful to give a brief background on 
the history of the Kennedy Center.
    The genesis of the Kennedy Center dates to 1955 when 
President Eisenhower initiated efforts to build an appropriate 
performing arts facility in the Nation's Capital. With the 
support of the Congress, President Eisenhower signed into law 
in 1958 an act establishing the National Cultural Center as an 
independently administered bureau of the Smithsonian 
Institution.
    Following the death of President Kennedy in 1963, many in 
the Congress believed that a lively center for the performing 
arts was the most suitable National Memorial to the young 
president who understood that the excellence and freedom 
inherent in the arts would be one of America's lasting 
legacies.
    In 1964, the National Cultural Center was constituted a 
living memorial to President Kennedy, a monument building but a 
memorial also, with performing arts and education activities as 
an essential part of the board's memorial function.
    The Kennedy Center opened in 1971. The Kennedy Center hosts 
over 3,500 performances on its main stages each year and 
thousands of free performances, touring performances, and 
workshops and educational activities throughout the United 
States. The Kennedy Center offers opportunities for everyone to 
participate in the performing arts. The Center commissions 
choreographers, composers, and playwrights to develop new 
American works.
    The Center also has an active program called Imagination 
Celebration to create new works for the stage for young people 
and their families and then tours these works across the 
country. Since 1978, more than 6 million young people and their 
families have attended Imagination Celebration activities.
    The Center's recent production of Tales of a Fourth Grade 
Nothing toured nationally last year with 147 performances in 45 
cities in 21 States. This year, Tales again will be on tour, 
due to popular demand, along with Little Women, which is on 
tour this year with 66 performances in 27 cities in 16 States 
and The Nightingale, which will tour with 80 performances in 25 
cities in 15 States. An estimated audience of over 180,000 
children will see these plays.
    The Kennedy Center's arts in education programs reach more 
than 4 million people across the United States each year and 
are at work in all 50 States. Because everything we do at the 
Kennedy Center is a result of the firm belief that the arts are 
essential to a child's complete education, the Center works 
with partners across the country to improve the quality of 
education through the inclusion of the arts.
    Through the Performing Arts Centers and Schools program, 
the Center brings together school districts and performing arts 
centers in 37 States, forming 67 partnership teams dedicated to 
improving education through professional development for 
teachers. These partners have created over 500 new programs for 
teachers in their own communities.
    The Kennedy Center Alliance for Arts Education Network is 
comprised of 46 state organizations that operate in partnership 
with the Center to work for the inclusion of the arts in every 
child's education. As the national center for the performing 
arts, the Kennedy Center is committed to bringing quality and 
diversity to its stages and the board of trustees places the 
highest priorities on making the arts accessible to all 
Americans.
    Just 2 weeks ago, the Center celebrated the second 
anniversary of the Millennium Stage. The Millennium Stage, 
which hosts free performances seven days a week, 52 weeks a 
year, at 6 p.m. in the Grand Foyer has attracted more than 
400,000 persons since it began 2 years ago. Many of these 
people are new to the Center and some of them are attending a 
live performance for the very first time. Also on this stage, 
the Kennedy Center has presented artists and performing groups 
from throughout the Nation.
    Last year, the Kennedy Center brought the Millennium Stage 
to Capital Hill during the summer months for free concerts on 
the Capital grounds every Tuesday and Thursday at noon. More 
than 4,000 visitors to the Nation's Capital enjoyed these 
concerts, provided for with private funds. The Kennedy Center 
continues its tradition of offering free public events, 
including its Open House and holiday celebration, together 
which host over 60,000 visitors each year.
    Since September, 1971, the Kennedy Center has conducted a 
reduced price ticket program for students, disabled persons, 
senior citizens, enlisted military personnel, and others on 
limited incomes. More than 50,000 individuals each year see 
performances at half price through this program.
    The Center has expanded its reduced price program to offer 
half price day-of-performance tickets to all patrons through 
Ticket Place, a facility the Center established at the Old Post 
Office on Pennsylvania Avenue. The Center also regularly 
schedules pay-what-you-can days, allowing the public to pay 
whatever they can afford for regular performances.
    More than 4.5 million visitors pass through the doors to 
the Kennedy Center each year. Transportation for these visitors 
is facilitated by Show Shuttle, the shuttle bus service funded 
by the Center board through trust funds. More than 700,000 
riders now use this service each year. Roughly half of those 
visitors come to the Center solely to visit the presidential 
memorial.
    To compliment the work of the 650 Kennedy Center volunteers 
who perform or arrange visitor services, plans are currently 
underway for the interpretive program to include informative 
kiosks, displays, printed materials, and a top-notch, 
continuously running wide screen format film telling the story 
of the performing arts in America.
    As we all know, the Internet is an incredible resource 
through which outreach can be increased by leaps and bounds. 
Through the World Wide Web, the Kennedy Center provides 
information for patrons and visitors on the Center's artistic 
and educational programs and its status as a living 
presidential memorial.
    Also, through ArtsEdge, the interactive communication 
network designed to provide practical, easy to access 
information for teachers on arts education, can be put to use 
in the classroom and at home. Perhaps one of the most exciting 
ways the Center is reaching out to people across the country, 
and indeed the world, is by offering live performances on the 
Internet. Beginning April 1, the Kennedy Center will make 
history by harnessing the power of the Internet with live 
broadcasts daily at 6 p.m. Washington time from the Millennium 
Stage, making the performing arts accessible to people 
worldwide.
    Mr. Chairman, I would like to submit a detailed report of 
the many artistic and educational programs and activities of 
the center which reach all 50 States.
    Senator Gorton. It will be accepted.
    Mr. Wilker. Thank you. Now, let me focus on the Center's 
budget and our request for appropriated funds for the fiscal 
year 2000.
    Since the fiscal year 1995, the board has received direct 
appropriations for the operation, maintenance, and repair of 
the facility. The board's statute restricts the use of 
appropriated funds to the basic operational expenses and 
capital repair of the Kennedy Center, which is a Federal 
building.
    The Center is an example of a successful public/private 
partnership at work. The government funds the care and repair 
of the monument building, which is a Federal asset, and the 
trustees raise the funds required for artistic and educational 
programming.
    Of the total annual operating income of $120 million, 
approximately $86 million is derived from ticket sales and 
other earned income and through grants and contributions.
    Federal funds appropriated annually to the Kennedy Center 
comprise two separate accounts: operations and maintenance and 
capital repair. These funds cover basic operational expenses of 
the Federal building, including utilities, housekeeping, minor 
repair and maintenance, security, and interpretive services.
    A portion of these funds is allocated to reducing our 
backlog of many years worth of minor repair work items, 
estimated currently at $9.5 million. Appropriated funds are 
also expended for capital repair and replacement of the 
Center's antiquated building systems, as well as to bring our 
1960's designed facility up to current accessibility and life 
safety codes while maintaining functionality.
    For fiscal year 2000, the Center's request for funding for 
operations and maintenance totals $14 million, a $1 million 
increase over last year's request. This increase is requested 
to address the backlog of minor repair work items while 
maintaining building operations and maintenance at current 
levels.
    The request for the capital repair account is $20 million, 
level with last year's appropriation. This amount will allow 
the Center to move forward with phase two of our comprehensive 
building plan, which includes modifications to the center block 
of the facility to bring it into compliance with ADA codes and 
life safety codes.
    Mr. Chairman, the Kennedy Center board has overseen a 
number of successful capital repair projects, from replacement 
of the main roof and roof terrace to the installation of energy 
efficient heating and cooling systems which replaced the 
obsolete system which was original to the building.
    In October 1997, the board was pleased to reopen the 
renovated Concert Hall, which offers patrons with disabilities 
a totally accessible hall with wheelchair accommodations in all 
sections of the hall. Egress for all patrons has been improved 
and appropriate fire safety systems are now in place.
    This project was on time and on budget, and in fact was $3 
million less than the original government estimate for the 
project.
    For those members of the subcommittee not so familiar with 
the Kennedy Center facility, let me provide a brief description 
just to give you a feel for the size of the Center. The Center 
is open 18 hours a day, 365 days a year. It consists of 1.5 
million square feet of usable space on 17 acres of land.
    It contains six main theaters and two stages for 
performances in the Grand Foyer, three public restaurant 
facilities, nine special event rooms, five public galleries, 23 
elevators and sets of escalators, 2,000 doors, 108 crystal 
chandeliers, 200 valuable paintings, sculptures, tapestries, 
and textiles.
    Mr. Chairman, the board takes most seriously responsibility 
to be good stewards of the Federal assets and the Federal 
operating funds.

                           prepared statement

    On behalf of Jim Johnson, the chairman of the board, and 
all the members of the board, I thank you for the opportunity 
to bring this report of the Center's operations to the 
Appropriations Subcommittee on Interior. I am pleased to answer 
any questions the members of the subcommittee may have. Thank 
you.
    Senator Gorton. Thank you.
    [The statement of follows:]
                Prepared Statement of Lawrence J. Wilker
                              introduction
    On behalf of the Kennedy Center Board of Trustees, I am pleased to 
submit to the Senate Appropriations Subcommittee on Interior the fiscal 
year 2000 budget for appropriated funds for the John F. Kennedy Center 
for the Performing Arts, the nation's center for the performing arts 
and a living presidential memorial. The Center's fiscal year 2000 
budget justification includes $14.0 million for facility operations and 
maintenance, an increase of $1 million over the fiscal year 1999 
request, and includes $20.0 million for capital repair, level with the 
fiscal year 1999 request. Appearing for the first time before this 
subcommittee, I appreciate having this opportunity to provide an 
overview of operations of the John F. Kennedy Center for the Performing 
Arts, an independently administered bureau of the Smithsonian 
Institution.
    A national monument, the Kennedy Center is a living memorial to 
President John F. Kennedy with a mandate to provide leadership in 
America's performing arts and in performing arts education. The Board 
fulfills this mandate with a commitment to providing opportunities for 
all Americans to participate in the excellence and the inspiration 
inherent in the performing arts.
    The Center commissions, produces, and presents diverse performances 
of the highest artistic standards, and then does something that very 
few other performing arts centers are able to do--the Center makes 
these outstanding performances available to the broadest possible 
audience through: national touring programs, free and low-cost 
performances and education activities, and through the World Wide Web. 
Beginning April 1, the Kennedy Center will make history by harnessing 
the power of the Internet with live broadcasts daily at 6:00 PM EST 
from the Millennium Stage, making the performing arts accessible to 
people worldwide.
    Although the monument building is located in Washington, the Center 
is a vital presence in communities throughout the United States through 
its tours of performing companies, grant programs, and educational 
programs, and through its electronic ``stages,'' radio, television and 
the World Wide Web.
                                history
    The Kennedy Center originated with the administration of President 
Dwight D. Eisenhower who envisioned a national center for the 
performing arts in the nation's capital. In 1958, President Eisenhower 
signed into law the bipartisan legislation known as the National 
Cultural Center Act (Public Law 85-874), which established the Center 
as an independently administered bureau of the Smithsonian. Following 
the death of President John F. Kennedy in 1964, Congress named the 
National Cultural Center after the late president. The Center was 
established as a living memorial with a mandate to the Board to present 
performing arts programming and to be a leader in the arts in 
education.
    The original act of 1958 charged the Board of Trustees with 
responsibility for constructing and administering the nation's center 
for the performing arts. The Kennedy Center was constructed between 
1964 and 1971 with a combination of private contributions of $34.5 
million, Federal matching funds of $23.0 million, and $20.4 million in 
long-term revenue bonds held by the U.S. Department of Treasury. Dozens 
of foreign countries gave gifts of building materials, chandeliers, 
artwork and artifacts.
    The facility opened to an eager public in September, 1971, with 
three operating theaters. The public visited the monument in numbers 
that exceeded all expectations. In 1972, Congress authorized the 
National Park Service to provide maintenance, security, and other 
services necessary to maintain the public building. Friends of the 
Kennedy Center volunteers provided visitor and interpretive services, 
as they do to this day.
    Between fiscal year 1972 and fiscal year 1995, the National Park 
Service received direct annual appropriations for the operations and 
maintenance and repair of the presidential monument.
    By 1993, the building showed significant signs of deterioration. 
The Board of Trustees, with the support of the Department of Interior, 
sought a more efficient approach to management of the building, with 
one entity responsible for both tending to the physical plant and for 
the activities of the living memorial. In 1994, with bipartisan support 
from Congress and the administration, legislation was enacted (P. L. 
103-279), which authorized the transfer to the Board of all 
appropriated fund responsibilities, as well as 55 full-time equivalent 
National Park Service employees, and all unexpended balances of funds 
previously appropriated to the National Park Service. The transfer of 
authority was effective October 1, 1994.
    Since the transfer, the Board has prepared, with regular updates, a 
Comprehensive Building Plan, which establishes a program to bring the 
monument up to current life safety and accessibility standards by the 
year 2009.
    We have already accomplished much, with completion of parking 
garage renovations, the replacement of the roof and the roof terrace 
and antiquated HVAC systems, and renovation of the Concert Hall. The 
next major focus of our building rehabilitation program is the Center 
Block of the building, including the Opera House. This 3-year program 
is beginning this fiscal year.
                           board of trustees
    The Center's originating statute (20 U.S.C. 76h) established a 
Board of Trustees to maintain and administer the Center. Since 1996, 
the Chairman of the Board has been James A. Johnson. I, as president, 
direct the day-to-day operations of the Center. Kenneth Duberstein and 
Alma Powell are Vice Chairmen of the Board.
    The Kennedy Center Board of Trustees consists of 49 members: Thirty 
citizen members serving 6-year terms are appointed by the President of 
the United States; nine ex-officio members represent local and Federal 
Government agencies; and ten members represent the legislative branch, 
five each from the Senate and House of Representatives. A list of 
current Board members is submitted with this statement.
    As required by the Kennedy Center Act (20 U.S.C. 761), the Board 
reports annually to the U.S. Congress on both its appropriated fund and 
trust fund operations. In addition, the Board reports annually to the 
Secretary of Education on its national performing arts in education 
activities.
                      the kennedy center building
    The monument from which the Board operates and serves the visiting 
public and the scope of the Board's operations are immense. The 
building is open to the public 365 days each year, from 10:00 a.m. 
until midnight. Of the 4.5 million visitors annually, as many as 
700,000 take advantage of the Kennedy Center's free shuttle bus service 
to and from METRO.
    The building consists of 1.5 million square feet of usable floor 
space and is constructed on 17 acres of land. It contains six operating 
theaters and two stages for free performances in the Grand Foyer, three 
public restaurant facilities, nine special event rooms, five public 
galleries, halls and foyers, 11 rehearsal rooms for rehearsals and 
education programs. The Center's Facility Management staff maintains 
complex heating and cooling systems, 23 elevators and six sets of 
escalators, 133 restrooms, more than 2,000 doors, 13 mechanical rooms, 
108 crystal chandeliers, and 200 valuable paintings, sculptures, 
tapestries and textiles. Support systems in the building often operate 
at capacity in excess of 18 hours a day, seven days a week, 365 days a 
year.
                           sources of income
    Since the start of fiscal year 1995, the Board has been responsible 
for all appropriated and non-appropriated fund activities at the 
Center. The annual operating budget of the Center now is more than $100 
million.
    Performing arts programming and administration represent 80 percent 
of the Center's total operating budget. Ticket sales (50 percent); 
other earned income (20 percent); and grants and contributions (30 
percent) support programming activities of the Board. The Board of 
Trustees raises $30 million in grants and contributions per year, 
roughly the current annual level of direct appropriations, $32 million 
dollars.
    The Center's success is based on a public/private partnership: the 
government provides funding for the care of the monument building--a 
Federal asset, and the Trustees raise all the funding required for the 
artistic and educational programming of the living memorial. Federal 
appropriated funds make up 20 percent of the Center's total operating 
budget. The annual appropriation of approximately $32 million is made 
to the Board of Trustees for the operation, maintenance, and capital 
repair of the building. Appropriated funds are used only for basic 
operational expenses such as utilities, housekeeping, security, minor 
repair and maintenance, and capital repair. I would note for the 
Committee that the Center's authorizing statute specifically prohibits 
the use of appropriated funds for direct expenses incurred in the 
production of performing arts attractions.
                       use of appropriated funds
    Federal funds appropriated annually to the Kennedy Center comprise 
two separate accounts: (1) operations and maintenance, and (2) capital 
repair. The appropriation for the operations and maintenance account 
for fiscal year 1999 was $12,187,000. The capital repair appropriation 
was $20 million, the authorized limit established last year in Public 
Law 105-226 to allow the Board to continue with the Comprehensive 
Building Plan to bring the facility into compliance with fire and life 
safety codes as well as Americans with Disabilities Act (ADA) 
requirements while maintaining the functionality of the structure.
    The Federal appropriations received in the current fiscal year 
cover basic operational expenses of the Federal building, including 
utilities, housekeeping, minor repair and maintenance, security, and 
interpretive services. A portion of these annual operating funds are 
allocated to reducing a significant minor repair backlog that 
accumulated over many years and the cost of which is estimated at $9.5 
million. Appropriated funds are also expended for capital repair and 
replacement of the Center's antiquated building systems. Under our 
capital repair program, we are bringing the building, designed in the 
mid- 1960's, up to current accessibility and fire and life safety codes 
while maintaining the functionality of the facility.
    Since assuming control of building operations, maintenance, and 
capital repairs, the Board has implemented several measures to 
streamline operations and increase efficiencies aspects of appropriated 
fund management. The Board retains the services of the General Services 
Administration for contract and financial management services, engages 
the services of other agencies such as the Army Corps of Engineers and 
the National Park Service to assist in performing various procurement 
functions, and employs an in-house contracting officer to supervise and 
facilitate contracting for goods and services. Policies such as these 
have proven successful in keeping the Center's overhead as low as 
possible.
    During the last fiscal year, the Center completed installation of 
an integrated facility management information system that allows us to 
enhance our performance on a work order by work order basis, and 
promote improved preventative maintenance. The Board has improved 
security operations at the Center by increasing the number of officers 
and upgrading the quality of the guard force.
    The Board's management of the capital repair account has yielded 
the successful completion of many capital repair projects. Since fiscal 
year 1997, the Board has facilitated installation of a new heating and 
cooling system. When it opened in 1971, the Kennedy Center was the 
world's largest all-electric facility and until 1997, was still using 
its original chillers that had become inefficient to the point of 
obsolescence. Other successful projects include the complete 
replacement of the main roof and roof terrace materials--which has 
resulted in a greatly improved roof drainage system, and accessibility 
and fire safety rehabilitation work in the Concert Hall. Both of these 
projects were on time and on budget. The newly renovated Concert Hall 
offers patrons with disabilities a totally accessible hall with 
wheelchair accommodations in all sections of the hall. Egress for all 
patrons had been improved, and appropriate fire safety systems are in 
place.
          fiscal year 2000 operations and maintenance program
    The Center's request for fiscal year 2000 funding for the 
operations and maintenance account totals $14.0 million. This is an 
increase of $1.0 million over the fiscal year 1999 request and is 
consistent with the Kennedy Center's long-range operational plans to 
adequately maintain the structure to avoid increased deferred 
maintained such as that which accumulated from 1971 through 1994. This 
increase in funds is required to address a portion of the backlog of 
minor repair work items facing the Center while maintaining building 
operations and maintenance at current levels. In addition to minor 
repair needs, the operations and maintenance account also covers 
utilities and basic operations and provides for a proactive routing 
maintenance program which over time will alleviate the compounding 
backlog of minor building repairs. A decrease in the budgeted request 
will adversely affect the Center's program to reduce the accumulated 
minor repair backlog, because virtually all other operation and 
maintenance expenses such as electricity and water and sewer, security 
and life safety, building personnel costs are not discretionary. A 
decrease in minor repair expenditures will increase future operating 
and capital repair costs. The operations and maintenance account funds 
personnel compensation and benefits for 49 full-time equivalent (FTE) 
personnel. This FTE level is unchanged from the fiscal year 1999 level. 
The operations and maintenance request reflects a 3.1 percent Federal 
pay-raise adjustment.
                fiscal year 2000 capital repair program
    The Center's request for fiscal year 2000 funding for the capital 
repair program is $20.0 million, level with the fiscal year 1999 
request. This amount will allow the Center to continue with Phase 2 of 
its Comprehensive Building Plan which includes modifications to the 
Center Block of the building to bring the facility into compliance with 
current Americans with Disabilities Act (ADA) requirements and fire and 
life safety codes.
    The capital repair account funds personnel compensation and 
benefits for six full-time equivalent (FTE) personnel. This FTE level 
is also unchanged from the current fiscal year. The capital repair 
request reflects a 3.1 percent Federal pay-raise adjustment
           general accounting office (gao) audit requirement
    Under Public Law 103-279, the 1994 Amendments to the Kennedy Center 
Act, the GAO was required to audit the appropriated fund accounts of 
the Kennedy Center every three years. GAO has concluded its first audit 
since the Kennedy Center assumed responsibility for operations and 
maintenance and capital repair of the building. After reviewing the 
accounts and procedures, GAO reported no problems. Instead, GAO 
recommended that their 3-year audit requirement be terminated because 
it duplicates the annual audit by the Kennedy Center's certified public 
accountant, whose report is submitted to the Congress.
                  kennedy center artistic programming
    Performance and education are our primary goals at the Center. More 
than 3,500 performances are presented annually. Since it opened in 
1971, the Kennedy Center has:
  --produced and presented works by many of America's most talented 
        playwrights;
  --participated in strengthening musical theater through producing and 
        touring revivals of great American musicals and developing new 
        works;
  --diversified its programming through partnerships with local and 
        national performing arts and educational institutions;
  --entered a new and exciting phase in orchestral music with Leonard 
        Slatkin as the artistic director of the National Symphony 
        Orchestra, and in jazz under the direction of Dr. Billy Taylor; 
        and
  --commissioned new works by American playwrights, composers, and 
        choreographers.
    The Kennedy Center has a special responsibility to support, 
present, and produce American artists and places special emphasis on 
American-bred forms like jazz, musical theater, modern dance, and on 
the range of cultural influences that are American. The Kennedy 
Center's commitment to developing new works and nurturing innovative 
artists is also reflected in its theatrical productions and 
commissions, which range from blockbuster revivals of classic American 
musicals to new works for youth and family audiences. (The Center's co-
production of Titanic received the 1997 Tony Award for Best Musical.) 
The Kennedy Center Fund for New American Plays, now in its 13th year, 
has helped develop more than 50 works, including three Pulitzer Prize 
winners, and more recently, a new work by former U.S. Poet Laureate 
Rita Dove, The Darker Face of the Earth, which was produced at the 
Kennedy Center last season.
    The Kennedy Center continues to be a national leader in the 
creation and preservation of American dance. This season marks the 
inauguration of a major 3-year commissioning initiative celebrating two 
of our great American indigenous art forms, modern dance and jazz. 
Already we have presented new works by David Parsons, Pilobolus and 
Paul Taylor. Next month, Kennedy Center audiences will see a 
commissioned world premiere by Bill T. Jones featuring a composition by 
jazz great Fred Hirsch.
    The Kennedy Center's artistic affiliate, the National Symphony 
Orchestra, next month will embark on its seventh American Residency 
program. The NSO will travel to Mississippi for an extended residency 
featuring more than 140 public and in-school performances, master 
classes for young musicians, workshops for teachers, and cultural 
exchanges. In past years, the NSO has conducted residencies in Alabama, 
Alaska, Louisiana, Maine, Montana, Wyoming, and Arizona, bringing the 
orchestra to states not served by major symphony orchestras. During 
last year's residency in Alabama, tens of thousands of people, from 
pre-schoolers to senior citizens, participated in about 150 
performances and educational events. From each of the residency states, 
a local composer is commissioned to create a work for the NSO, a 
teacher is chosen for the intensive Kennedy Center/NSO Teaching 
Fellowship at the Center, and several young music students are chosen 
to travel to the Center for the NSO's month-long Summer Music 
Institute.
                  kennedy center education programming
    For more than two decades, the Kennedy Center has shown through its 
local and nationwide arts education programs that the inclusion of the 
performing arts in a broad-based curriculum dramatically improves the 
quality of a child's educational experience. The Center has played a 
leadership role in making the arts an integral part of the curriculum 
of America's schools, as mandated in the Kennedy Center Act, through 
its professional development programs for teachers; its performances 
for young people and families; its programs that help arts centers and 
their local school districts work together; its professional training 
programs for young musicians, actors, and dancers; its residency 
programs; and much more. All told, the Kennedy Center's programs in 
arts education reach more than 4.5 million people across the United 
States each year.
    The Kennedy Center is working with partners across the nation to 
improve the quality of education through the inclusion of the arts. The 
arts teach discipline, inspire creativity, and help young people to set 
and reach goals. The arts help good teachers teach better and makes 
participating schools' exciting, challenging places for children--
places where they are encouraged to explore, to think creatively, and 
to reach their full potential.
    The leadership of the Kennedy Center in education is in evidence in 
communities across the country. Just a few programs are:
Kennedy Center Performing Arts Centers and Schools Program
    67 participating teams representing 37 States (The Center last 
month hosted its eighth annual meeting in Washington, D. C. Team 
members attended workshops and activities to further strengthen their 
community partnerships).
            Teacher Development Workshops
    Since 1994, the Performing Arts Centers and Schools teams in 
conjunction with the Kennedy Center have presented 202 professional 
development opportunities for teachers in more than 32 States.
Kennedy Center Imagination Celebration On Tour
    The Kennedy Center commissioned and produced three new productions: 
Brothers of the Knight, freely adapted from Twelve Dancing Princesses, 
written, directed, and choreographed by Debbie Allen, and composed by 
James Ingram; Louisa May Alcott's classic Little Women, adapted by 
playwright Paulette Lauder and directed by Albert Takazauckas; and The 
Nightingale, which combined dance, music, martial arts and narration, 
conceived and choreographed by Dana Tai Soon Burgess, written and 
directed by Mary Hall Surface and composed by David Maddox.
    The Kennedy Center's production of Judy Blume's Tales of a Fourth 
Grade Nothing toured nationally last year with 147 performances in 45 
venues in 21 States.
Kennedy Center Alliance for Arts Education Network
    46 independent State Alliance organizations are operating in 
partnership with the Kennedy Center for the inclusion of the arts in 
every child's education.
Kennedy Center American College Theater Festival
    Participation by more than 400,000 college students representing 
more than 600 colleges and universities throughout the United States.
National Symphony Orchestra
    During its 1998 American Residency in Alabama, the NSO participated 
in 150 events in 10 days. This successful residency follows those in 
Alaska, Arizona, Louisiana, Maine, Montana and Wyoming. Next month the 
NSO will travel to Mississippi for its 1999 Residency.
            Summer Music Institute
    Since 1993, 221 high school and college students from more than 22 
States have participated in this program that offers young musicians 
master classes, ensemble training and performance opportunities in 
Washington, DC.
    One of the most exciting things about the Center's education 
activities is that they transcend both the Center itself and the 
classroom. Under a cooperative agreement with the National Endowment 
for the Arts and the U.S. Department of Education, the Kennedy Center 
for several years has been home to ARTsEDGE, an interactive 
communications network designed to provide practical, useful and 
easily-accessible information important to teachers, artists, parents, 
and anyone concerned with the inclusion of the arts in the education of 
young people.
    More than 10,000 visits per day are received on ARTsEDGE. ARTsEDGE 
can be accessed through the Kennedy Center's Home Page on the World 
Wide Web. The Center's Home Page provides complete information for 
patrons and visitors on the Center's artistic and education programming 
and its status as a living presidential memorial. Patrons can now 
purchase tickets directly through the Center's Home Page at: http://
kennedy-center.org.
    In addition, a series of live interactive educational programs 
featuring Kennedy Center artists are broadcast through the Prince 
William County Public Schools Media Network over educational TV cable 
channels to school districts locally and across the country.
                      performing arts for everyone
    More than four and a half million visitors pass through the doors 
to the Kennedy Center each year. Transportation for these visitors is 
facilitated by ShowShuttle, the METRO shuttle service funded by the 
Kennedy Center Board through trust funds. More than 720,000 riders now 
use this service. Roughly half of those visitors come to the Center 
solely to visit the presidential memorial. Twenty-five years after the 
Center first opened its doors to the public as the sole national 
monument to the late president, the Board continuously looks for new 
ways to provide a more engaging and exciting interpretive experience 
for visitors.
    To compliment the work of the 650 Friends of the Kennedy Center 
volunteers who perform a range of visitor services, plans are currently 
underway for the interpretive program to include informative kiosks, 
displays, and printed materials, and a top-notch, continuously running, 
wide-screen format film telling the story of the performing arts in 
America.
    As the national center for the performing arts, the Kennedy Center 
is committed to bringing quality and diversity to its stages and the 
Board of Trustees places the highest of priorities on making the arts 
accessible to all Americans. Just two weeks ago, on March 1, 1999, the 
Center celebrated the second anniversary of the Millennium Stage--where 
free daily performances take place in the Grand Foyer. Two years ago, 
the Center launched ``Performing Arts for Everyone,'' a program 
designed to expand and increase access to the performing arts for local 
area residents and visitors to the nation's capital through free daily 
performances at the Center. Every evening, seven days a week, 52 weeks 
a year, there is a free performance on the Millennium Stage and tickets 
are never required. With this new program, the Center has attracted 
more than 400,000 persons in the last two years, many of them new to 
the Kennedy Center, and some of them attending a live performance for 
the very first time. Last year, the Kennedy Center brought the 
Millennium Stage to Capitol Hill during the summer months for free 
concerts on the Capitol grounds every Tuesday and Thursday at noon. 
More than 4,000 visitors to the nation's capitol enjoyed the concerts 
provided for with private funds.
    The Center also presented artists and performing groups from 49 
States through the State Days series of free performances on the 
Millennium Stage.
    The Kennedy Center continues its tradition of offering free public 
events by sponsoring its annual month-long Holiday Celebration that 
showcases more than 30 local performance groups and attracts more than 
20,000 patrons. The annual Kennedy Center Open House will kick off the 
millennium season in September with a day of free performances on 
stages throughout the building. The Center's larger-than-ever free Open 
House celebration is attended annually by more than 30,000 people.
    Since September, 1971, the Kennedy Center has conducted a reduced-
price ticket program for students, disabled persons, senior citizens 
over age 65, enlisted military personnel, and others on limited 
incomes. More than 50,000 individuals per year see performances at half 
price through this program. The Center has expanded its reduced-price 
program to offer half-price, day-of-performance tickets to all patrons 
through TICKETplace, a facility at the Old Post Office on Pennsylvania 
Avenue. The Center also regularly schedules ``pay what you can'' days 
allowing the public to pay whatever they can afford for regular 
performances.
    With more than 3,500 performances in Washington alone, and hundreds 
of touring performances, workshops, and other activities across the 
country, the Center's doors are open to everyone.
                               conclusion
    Recognizing that the challenges are great, the Kennedy Center is 
enthusiastic about its mission. The Trustees, employees, educators, and 
artists associated with the Kennedy Center are committed to the 
congressional mandate established for this living memorial.
    We are appreciative of the support in Congress for our programs and 
for the unique public/private partnership that is the basis for the 
Center's financial success. I am grateful for this opportunity to 
submit a statement to the subcommittee and would be pleased to respond 
to any questions you might have.
                                 ______
                                 
          1998 American College Theater Festival Participants
                           university/college
University of Alabama, Tuscaloosa, AL
Troy State University, Troy, AL
University of Alabama at Birmingham, Birmingham, AL
Auburn University at Montgomery, Montgomery, AL
University of South Alabama, Mobile, AL
University of Montevallo, Montevallo, AL
Auburn University, Auburn, AL
Huntingdon College, Montgomery, AL
Jacksonville State University, Jacksonville, AL
University of Alaska, Anchorage, AK
Phoenix College, Phoenix, AZ
Glendale Community College, Glendale, AZ
Scottsdale Community College, Scottsdale, AZ
Pima Community College, Tucson, AZ
Eastern Arizona State University, Thatcher, AZ
University of Arizona, Tucson, AZ
Lyon College, Batesville, AR
Philander Smith College, Little Rock, AR
University of Central Arkansas, Conway, AR
University of Arkansas, Little Rock, AR
University of Arkansas at Fayetteville, Fayetteville, AR
Arkansas State University, Beebe, Beebe, AR
Ouachita Baptist University, Arkadelphia, AR
University of the Ozarks, Clarksville, AR
Henderson State University, Arkadelphia, AR
Southern Arkansas University, Magnolia, AR
Arkansas Tech University, Russellville, AR
El Camino College, Torrance, CA
Fullerton College, Fullerton, CA
American River College, Sacramento, CA
City College of San Francisco, San Francisco, CA
Cypress College, Cypress, CA
College of Notre Dame, Belmont, CA
California State University, Fresno, Fresno, CA
Fresno City College, Fresno, CA
California State University, Fullerton, Fullerton, CA
California State University, Dominguez Hills, Carson, CA
California State University, Los Angeles, Los Angeles, CA
Chapman University, Orange, CA
Diablo Valley College, Pleasant Hill, CA
University of California, Berkeley, Berkeley, CA
California Lutheran University, Thousand Oaks, CA
California State University, Stanislaus, Turlock, CA
California State University, Chico, Chico, CA
California State University, Sacramento, Sacramento, CA
Stanford University, Stanford, CA
Loyola Marymount University, Los Angeles, CA
California State University, Hayward, Hayward, CA
Cerritos College, Norwalk, CA
Chabot College, Hayward, CA
Citrus College, Glendora, CA
Concordia University, Irvine, CA
California State University, Bakersfield, Bakersfield, CA
University of Redlands, Redlands, CA
Ventura College, Ventura, CA
Humboldt State University, Arcata, CA
Santa Ana College, Santa Ana, CA
Los Angeles Valley College, Van Nuys, CA
Grossmont College, El Cajon, CA
Cuesta College, San Luis Obispo, CA
Compton Community College, Compton, CA

    Senator Gorton. Before we go to Mr. Powell, we have the 
chairman of the Appropriations Committee here. Since my ability 
to fund each and every one of you will depend on the allocation 
that Senator Stevens provides for me, we will defer to him for 
any remarks that he would like to make.
    Senator Stevens. I'm sorry to be late. I have several 
subcommittees I am going to stop in to visit this morning.
    Mr. Chairman, I am delighted to see so many friends here, 
and sad to hear about your departure, Lee. We'll have to talk 
about that some other time. But, indeed, it is nice to see you 
here in your new capacity representing the Wilson Center.
    I have no questions at the moment.
    Thank you very much.

                Summary statement of Earl A. Powell, III

    Senator Gorton. Mr. Powell.
    Mr. Powell. Thank you, Mr. Chairman, Senator Stevens. It is 
my pleasure to be here with you this morning, and I want to 
thank you for the opportunity to meet with the subcommittee 
about the National Gallery of Art. We are pleased to present 
our fiscal year 2000 budget for the Senate's consideration.
    We have also submitted a longer statement for the record, 
but I will go through an overview of that here and will be 
available, of course, for questions afterwards.
    The National Gallery of Art is dedicated to serving the 
country by preserving, collecting, exhibiting, and encouraging 
the understanding of works of art at an exemplary level. Over 
the years, the Gallery has consistently hired and retained the 
best available curatorial, educational, and management staffs. 
Day-to-day operations support our mission through the care, 
maintenance, and security of the works of art and the 
facilities.
    The National Gallery is unique in the Nation in many ways. 
It is one of the great examples of a public/private 
partnership. It is not only an art museum of the first rank but 
an institution of higher learning created and sustained by 
government and private citizens.
    The Gallery's founder, Andrew W. Mellon, set a standard for 
artistic excellence which the Gallery has consistently 
maintained. Through a joint resolution adopted in 1937, the 
Congress accepted Mr. Mellon's gift to the people of the United 
States and pledged to provide funds for the upkeep, 
administration, and operations of the Gallery, including the 
protection and care of works of art, so that the National 
Gallery would be open to the general public free of charge.
    All works of art in the National Gallery collection have 
been acquired by donation or through purchases with private 
funds. A collection of international stature has been created 
by the generosity of some 2,000 donors who have presented the 
Nation with approximately 100,000 works of art.
    This spirit of philanthropy, coupled with an understanding 
and supportive government, has created a remarkable institution 
in the National Gallery of Art.
    As a further example of this partnership, in the Gallery's 
immediate future is the opening in late May of this year of the 
National Gallery of Art Sculpture Garden which is in 
construction on the Mall. Many of you may have watched its 
emergence over the last several years in the six-acre block 
adjacent to the West Building on Constitution Avenue.
    Designed to offer year-round enjoyment to the public in one 
of the most preeminent locations on the National Mall, the 
Sculpture Garden features flexible spaces to display outdoor 
sculpture in the Gallery's collection. In the winter, the 
fountain will return to an ice skating rink, long a favorite to 
Washington area residents and tourists.
    The Sculpture Garden is made possible by a 1991 agreement 
signed by the National Park Service and the Gallery and 
approved by the National Capital Planning Commission that 
transferred jurisdiction of the site from the Park Service to 
the Gallery. Construction of the National Gallery Sculpture 
Garden has been made possible by a gift from the Morris and 
Gwendolyn Cafritz Foundation.

                        fiscal year 2000 Request

    The fiscal year 2000 appropriation request, in line with 
the Gallery's strategic plan, focuses on two basic areas: 
continued funding at the present no-growth level of our day-to-
day operations and special exhibitions program, plus essential 
monies for the repair, restoration, and renovation of the 
Gallery's two architecturally important buildings.
    The National Gallery's Federal funds request to Congress 
for fiscal year 2000 is $67,749,000, a net increase of 
$3,500,000 compared to the 1999 budget. This includes 
$3,391,000 for mandatory/uncontrollable costs, and $109,000 for 
five FTE's for security of the new Sculpture Garden.
    A major priority for the Gallery is and will continue to be 
the upkeep of the West and East Buildings, important national 
monuments as significant as the great works of art which they 
house. The West Building will be 59 years old in 2000. The East 
Building will be 22 years old.
    It is not surprising, therefore, that the Gallery faces a 
steady ongoing program of repairs and renovations to keep these 
buildings functioning efficiently, securely, and safely.
    Recognizing the need for a planned, comprehensive program 
of building and system repairs and maintenance, a master 
facilities plan was developed for the Gallery in order to 
determine when replacement of a building system or component is 
appropriate for inclusion in future budget requests. $6.3 
million of our total request is for the repair, restoration, 
and renovation account.
    This funding will allow us to work on two groups of master 
facilities plan projects, structural exterior repairs and 
restoration and interior mechanical/electrical equipment 
replacements, plus continued work on the fire protection system 
which is presently underway, as well as the ongoing renovation 
program.
    I am pleased to report that we are nearing completion of 
the West Building's skylight and building automation projects 
and much of the fire protection project. I want to take this 
opportunity to thank the chairman, the subcommittee, and the 
U.S. Senate for the support so crucial to these projects.
    When completed, the skylight project will allow the Gallery 
to reopen all of the permanent galleries in the West Building, 
and it will be the first time in many, many years we will have 
been able to show the entire range of the Gallery's collections 
in that building.
    The fiscal year 2000 special exhibition schedule is an 
ambitious and international one. It will include exhibitions 
such as Art Nouveau 1890-1914, a thematic exploration of the 
first expansive, worldwide modern art movement; The Triumph of 
the Baroque: Architecture in Europe, an architectural models 
show that will present a panorama of architecture in Europe at 
this exciting time, which builds on the very successful 
Renaissance Models exhibition we had several years ago; and 
Monet and the Impressionists at Argenteuil, a selection of more 
than 50 paintings, some of the most lyrical and dazzling 
pictures of the day by the major impressionists, including 
Monet, Manet, and Renoir. The Gallery will also honor Paul 
Mellon with an exhibition focusing on Degas and other works 
drawn from his many gifts to the Nation over many years.
    In 1998, we welcomed over 5.3 million visitors from all 50 
States, the District of Columbia, and U.S. territories and some 
80 foreign countries. The crucial, ongoing support of Federal 
funding makes it possible for the American people and visitors 
from around the world to visit the Gallery 7 days a week, 363 
days a year, free of charge.
    Access to the Gallery's collection and educational programs 
has been increased by the dramatic development of our web site, 
launched just 2 years ago. In calendar year 1998, the Gallery 
Web site had 23,000 to 27,000 visitors per day, bringing our 
resources to national and international audiences. It has won 
innumerable awards for its content as well as its design.
    On the eve of the new millennium, the Gallery looks forward 
to continuing on a path set in place over a half century ago, 
dedicated to the vision and high standards of excellence 
established by Andrew W. Mellon and the 1937 joint resolution 
of Congress.

                           prepared statement

    Mr. Chairman and subcommittee members, the Gallery is very 
appreciative and grateful for your continuing support. I will 
be happy to answer questions following the other testimony.
    Senator Gorton. Thank you very much.
    [The statement follows:]
               Prepared Statement of Earl A. Powell, III
    Mr. Chairman and Members of the Subcommittee, it is my pleasure to 
be here with you this morning. Thank you for the opportunity to meet 
with the subcommittee about the National Gallery of Art. We are pleased 
to present our fiscal year 2000 budget for the Senate's consideration.
    The National Gallery of Art is dedicated to serving the country by 
preserving, collecting, exhibiting, and encouraging the understanding 
of works of art at an exemplary level. Over the years the Gallery has 
consistently hired and retained the best available curatorial, 
educational, and management staffs. Day-to-day operations support our 
mission through the care, maintenance, and security of the works of art 
and the facilities.
    The National Gallery is unique in the nation. It is not only an art 
museum of the first rank but an institution of higher learning created 
and sustained by government and private citizens. The National 
Gallery's founder, Andrew W. Mellon, set a standard for artistic 
excellence which the Gallery has consistently maintained.
    The use of Federal funds to operate the National Gallery stems from 
the 1937 Joint Resolution of Congress, which accepted Andrew W. 
Mellon's unprecedented gift to the people of the United States. Mr. 
Mellon's gift consisted of his art collection, funds to construct a 
building (now the West Building) and an endowment fund. Mr. Mellon 
stipulated that the gift not bear his name so that other Americans 
might ``contribute works of art of the highest quality to form a great 
national collection.''
    The National Gallery is a model of public-private partnership by 
its creation. In accepting Andrew Mellon's gift the Congress, in turn, 
pledged the faith of the United States to provide funds for the upkeep, 
administration, and operations of the Gallery, including the protection 
and care of works of art subsequently acquired by the Board of Trustees 
so that the National Gallery would be open to the general public free 
of charge.
    All works of art in the National Gallery collection have been 
acquired by donation or through purchase with private funds. A 
collection of international stature has been created by the generosity 
of some 2,000 donors who have presented the nation with approximately 
100,000 works of art. This spirit of philanthropy, coupled with an 
understanding and supportive government, has created a remarkable 
institution in the National Gallery of Art.
    As a further example of this partnership, in the Gallery's 
immediate future is the opening in late May of this year of the 
National Gallery of Art Sculpture Garden. Many of you may have watched 
its emergence over the last several years in the six-acre block 
adjacent to the West Building on Constitution Avenue. Designed to offer 
year-round enjoyment to the public in one of the preeminent locations 
on the National Mall, the Sculpture Garden will feature flexible spaces 
to display outdoor sculpture in the Gallery's collection. The garden 
will also provide an elegant yet informal setting featuring new 
plantings of native American species of trees, shrubs, ground cover, 
and perennials. In the winter, the fountain will return to the ice 
skating rink, long a favorite, to Washington area residents and 
tourists. The Sculpture Garden is made possible by a 1991 agreement, 
signed by the National Park Service and the Gallery and approved by the 
National Capital Planning Commission, that transferred jurisdiction of 
the site from the Park Service to the Gallery. Construction of the 
National Gallery Sculpture Garden has been made possible by The Morris 
and Gwendolyn Cafritz Foundation.
    The fiscal year 2000 appropriation request, in line with the 
Gallery's Strategic Plan, focuses on two basic areas: continued funding 
at the present no-growth level of our day-to-day operations and special 
exhibitions program, plus essential monies for the repair, restoration, 
and renovation of the Gallery's two architecturally important 
buildings.
    The National Gallery's Federal funds request to Congress for fiscal 
year 2000 is $67,749,000, a net increase of $3,500,000 compared to the 
1999 budget. This includes $3,391,000 for mandatory/uncontrollable 
costs, and $109,000 for five FTEs for security of the new Sculpture 
Garden.
    A major priority for the Gallery is and will be the upkeep of the 
West and East Buildings, important national monuments as significant as 
the great works of art which they house. The West Building will be 59 
years old in 2000; the East Building will be 22 years old. It is not 
surprising, therefore, that the Gallery faces a steady, ongoing program 
of repairs and renovations to keep these buildings functioning 
efficiently, securely and safely.
    Recognizing the need for a planned, comprehensive program of 
building and system repairs, a Master Facilities Plan was developed for 
the Gallery in order to determine when replacement of a building system 
or component is appropriate for inclusion in future budget requests. 
Providing an organized framework for a comprehensive and effective 
implementation of infrastructure improvements and renovations, the 
Master Facilities Plan will phase in major repairs and systems 
replacements over the next decade. The intent is to successfully 
identify those projects that will ensure the continued high performance 
of the Gallery facilities and to minimize the impact on visitors and 
Gallery programs while proactively maintaining these national monuments 
for many generations to come.
    $6.3 million of our total request is for the Repair, Restoration 
and Renovation account. This sum will allow us to continue work on two 
groups of Master Facilities Plan projects: ``Structural/Exterior 
Repairs and Restoration,'' and ``Interior Mechanical/Electrical 
Equipment Replacements,'' plus continue work on the ``Fire Protection 
System'' as well as the ongoing renovation program. I am pleased to 
report that we are nearing completion of the West Building Skylight and 
Building Automation projects, as well as much of the Fire Protection 
project. I would like to take this opportunity to thank the Chairman, 
the Subcommittee, and the United States Senate for the support so 
crucial to these projects.
    The fiscal year 2000 special exhibition schedule is an ambitious 
and international one. The year includes exhibitions such as: Art 
Nouveau 1890-1914, a thematic exploration of the first expansive, 
worldwide ``modern art'' movement; The Triumph of the Baroque: 
Architecture in Europe 1600-1750, an architectural models show that 
will present a panorama of architecture in Europe at that exciting 
time; and Monet and the Impressionists at Argenteuil, a selection of 
more than fifty paintings by the six major Impressionists--Monet, 
Boudin, Caillebotte, Manet, Renoir, and Sisley--who were fascinated by 
this site in France and who painted many of the most lyrical, dazzling, 
and progressive pictures of the day at Argenteuil. The Gallery will 
honor Paul Mellon with an exhibition focusing on Degas and other works 
drawn from his many gifts to the American public.
    Federal operating funds have a multiplier effect specifically for 
special exhibitions. Private funding from corporate and foundation 
sponsors match Federal dollars to cover exhibition costs. Many museums 
in this country and abroad look to the Gallery to organize and to share 
major special exhibitions. Recent examples of exhibitions originating 
at the Gallery and then traveling to other venues include Van Gogh's 
Van Goghs, now at the Los Angeles County Museum of Art; the Mark Rothko 
survey at the Whitney Museum of American Art in New York; and the M. C. 
Escher graphics exhibition now at Norfolk, Virginia's Chrysler Museum. 
Our current major exhibition of the works of John Singer Sargent will 
be on view this summer at the Museum of Fine Arts, Boston.
    Last year, we welcomed over 5.3 million visitors from all 50 
States, the District of Columbia, and U.S. territories, and from some 
80 foreign countries. The crucial, ongoing support of Federal funding 
ensures the operations of the Gallery and the protection and care of 
the works of art. This support makes it possible for the American 
people, and visitors around the world, to the visit the Gallery seven 
days a week, 363 days a year, free of charge. Access to the Gallery 
collection and educational programs has been increased by the dramatic 
development of our Web site, launched just two years ago. (http://
www.nga.gov). In calendar year 1998, the Gallery web site had 23,000 to 
27,000 visitors per day, bringing our resources to national and 
international audiences.
    On the eve of the new millennium, the Gallery looks forward to 
continuing on the path set in place over a half century ago, dedicated 
to the vision and the high standards of excellence established by 
Andrew W. Mellon and the 1937 Joint Resolution of Congress.
    Mr. Chairman and Subcommittee members, the Gallery is very 
appreciative and grateful for your continuing support. I will be glad 
to answer any questions you may have about the National Gallery, its 
operations, and its programs.

                 Summary statement of I. MICHAEL HEYMAN

    Senator Gorton. Well, at least for the purposes of this 
subcommittee, Mr. Heyman, your swan song.
    Mr. Heyman. Let me start with thanking you very much for 
your kind words. I really regret leaving the Smithsonian 
immensely. It is a wonderful place. But I must say, I also look 
forward to returning to the Bay Area and to renewing my ties 
with the University of California, which is what I will be 
doing.
    My priority as Secretary has been to maintain the quality 
of the programs that we offer and to enhance the visitors' 
experience while touring our museums and utilizing our research 
facilities. Each time I come to a hearing when my colleagues 
and I are together I think how fortunate they are to be dealing 
with one or two buildings.
    I deal with 16 museums, four very large research 
facilities, and a number of others at the National Zoo, all of 
which is extraordinarily exciting, but it is somewhat difficult 
to keep my arms around all of them.

                          Affiliations program

    I have been quite dedicated, as I think many know, to 
sharing the experience that one has, for instance here in 
Washington, with people outside of Washington and to make our 
programs and collections more accessible to the nation. We have 
done that through three programs, two of which have been 
enhanced considerably; in fact, both created during the last 
four and a half years. One of those is the Affiliations Program 
in which we enter into arrangements with local museums or 
museums that are coming into being, and under the right 
conditions, if they can take care of our collections and can 
utilize them well, we are willing to make long-term loans of 
objects. It seems to me this is a win-win game in many ways.
    It is obviously good for the institutions with which we 
work, but it is really very good for the Smithsonian to be able 
to give access to collections which otherwise would probably 
not be seen but rather remain in storage.
    We are dealing now with 23 active affiliations. This 
program began in 1996, or was created then. We have five that 
have been fully implemented and one could watch last week as a 
huge number of huge objects from the collections displayed in 
the Arts and Industries Building started to go up to Bethlehem, 
PA where they will be housed in a new National Museum of 
American Industrial History, a 501(c)3 that has been created. 
It is part of the revival of the city of Bethlehem in 
Pennsylvania.
    A huge building has been dedicated, and at the expense of 
that museum and its supporters we are curating a very large 
show on the history of the American industrial revolution, 
something we never could do in the space that we have here. But 
I think it is going to be a fine show. The curators in the 
American History Museum who are involved in this are very 
excited with the possibility of being able to do that.
    A lot of other affiliation agreements are being discussed. 
I think 15 or 20 years from now we are going to look back and 
think this program was one of the most important that has been 
created in a long time by the Smithsonian in terms of bringing 
our articles, our objects, our artifacts elsewhere.

                           outreach Programs

    We have been doing some very interesting work, as Senator 
Stevens knows, in Alaska. We have very deep collections of 
Alaskan materials. He discovered part of them about 15 years 
ago with one of our fine curators at the National Museum of 
Natural History.
    A lot of those now are on tour and on loan to new museums, 
small museums, many in native villages in Alaska. That is 
turning out to be really a very good program, and an outreach 
program which is very important to us.

          Smithsonian institution traveling exhibition service

    Of course, the Smithsonian Institution Traveling Exhibition 
Service goes on, and enlarges, because it has begun to be able 
to garner some corporate and foundation support for its 
programs. In the packet that I have given to you, you have a 
good description of what the SITES projects are and where those 
tours have been. One of the programs that SITES runs is called 
Museum on Main Street, and it is designed for small, rural 
communities.
    It has 100 participating communities at the moment. If I 
had at my hand, Senator Gorton, the five communities in 
Washington where we are at the moment, I would recite those. 
But that is just an example of the breadth of this program.
    We do other kinds of touring, obviously, as you will find 
out later, if not before, when the National Museum of American 
Art and the National Portrait Gallery are closed because of the 
renovation of the Patent Office building. We will be touring 
major collections from both of those museums around the 
country.

                            Internet access

    We too are very involved in the Internet. We really got 
into that in the last three years or so. It is a bottom-up 
project at the Smithsonian with each of the museums, research 
institutes, and major programs having their home page. They are 
all collected on the Smithsonian Institution home page, but, in 
all, we must have 50 hours of materials on the Internet. It 
covers everything. It covers exhibitions. It covers 
collections.
    Some of it is technically very sophisticated, and becoming 
more so. Right now, we are in the process of putting together a 
virtual show for a millennium exhibition which will echo the 
150th tour that we made a few years ago. The people who have 
been working on this in the central administration and the 
Secretary's office in the Smithsonian are showing a lot of 
ingenuity in terms of the technical abilities to present that 
material.
    The Internet also permits us to deliver not only informal 
education of the sort that I am talking about, but formal 
education also. We are deeply involved with a number of 
projects. Perhaps in the lead at the moment is the National 
Museum of Natural History, which has been creating segments of 
new and old courses which are being used in many contexts.
    One of the most interesting ones is an after-school 
activity for both the normal school period and also during the 
summer. That seems to be working very well.
    This is the time for me to put in a plug for that request 
in the budget for information systems. Because, basically, it 
will enable the Smithsonian to create and enhance the 
infrastructure for the Internet and for collection management. 
It is really absolutely crucial to the growth and the building 
of this outreach kind of activity. I could go on with regard to 
that, but it is all in the testimony which I have submitted.

                              Visitorship

    I would like to highlight just a few of the things that 
have been occurring at the Smithsonian over this past year. I 
am deleting most of this because I would go on much too long. 
But we did record over 31 million visits this past year to the 
museums plus the zoo. That is up about 4 percent from last 
year. Last year we were up about 15 percent from the year 
before. I suspect my colleagues are having the same experience.
    In part, it is because we are all doing wonderful things, 
and in part because a lot more people are coming to Washington, 
which may have something to do with that. But whether or not 
that is the case, the phenomenon is that attendance has been 
going up a lot.

               Star-Spangled Banner preservation Project

    On December 1, 1998, we took down the Star-Spangled Banner, 
which you know is to be conserved and preserved. We took it 
down and it is now in a specially-built container for it. It is 
soon to be moved to a conservation lab where the conservation 
activities will occur.
    That laboratory is designed and has been constructed so 
people can watch the actual preservation and conservation of 
that flag. I think that exhibit in itself, over the 2-year 
period, is going to be a fascinating one and I'll bet you a lot 
of people are going to be interested in seeing that.

                    Smithsonian research institutes

    You know, we have a number of research institutes. The 
Smithsonian started in 1846, and the first Secretary saw it as 
a place of basic research. Soon thereafter, it took on the 
responsibility for being a museum. Those two sets of 
activities, research on the one hand and a museum or exhibition 
on the other--because obviously a lot of research is related to 
exhibition--have gone on since the middle of the nineteenth 
century.
    We have some extraordinary research facilities, including 
the Smithsonian Tropical Research Institute in Panama and the 
Astrophysical Observatory that is located in Cambridge that, 
with Harvard University, runs the Center for Astrophysics. We 
have a number of telescopes in Arizona, and we are in the midst 
of finishing the Submillimeter Array on Mauna Kea in Hawaii. 
SAO is very big-time, as astronomical organizations go.

               Smithsonian environmental research center

    I want to just bring to your attention one that has not had 
quite that fame, which is the Smithsonian Environmental 
Research Center, in Edgewater, MD. One of the reasons that I 
bring it to your attention is that we have just completed a 
building with private funding that permits us to bring student 
groups, school groups, down there in a much better way than we 
could previously.
    SERC is involved with estuarine studies. It is involved 
with the study of water quality. It is involved with the impact 
of uses of land on the quality of water, and the Chesapeake Bay 
is obviously an extraordinary place for doing that.
    One of SERC's very large projects is identifying non-native 
species that come to the Chesapeake in the ballast of ships 
from all over the world, because when they let the ballast go 
which they have picked up in foreign places, out comes not only 
water but a whole variety of kinds of animals and flora.
    At the moment we are looking at non-native species of 
bacteria that can cause cholera. It is a part of the largest 
research project in the United States dealing with the origin 
and the impact of alien invasive species.
    In addition to that, SERC is playing a major role in 
demonstrating that stream-side forests and restored wetlands 
can reduce nutrient runoff into coastal waters. If one can do 
that by the dedication of a relatively small amount of land 
through natural means, the opportunity of being able to carry 
on what otherwise are viewed as inconsistent uses can be 
maximized.

             Smithsonian's fiscal year 2000 budget request

    There is so much more going on in the research institutes 
that I would like to share with you, but time presses. I do 
want to talk a little bit about our request for fiscal year 
2000. We are asking for $447.4 million, which is an increase of 
$35.1 million above the fiscal year 1999 appropriations.
    But remember, our responsibilities include 16 museums, a 
zoo, and a lot of research facilities. Of this amount, $380.5 
million is for salary and expenses and $66.9 million for our 
capital program. And more than half of the S&E requested 
increase is for mandatories.
    The balance, which is $14 million, is for the following: 
one is for $2 million and 14 term positions, not permanent 
positions, at the Dulles Center to work on the restoration of 
aircraft for the Dulles Center when we have raised the money 
and it is built.
    It might seem well in advance of the time that the Dulles 
Center will be completed, but at this level we can renovate 
about four planes a month. If we are going to be in a position 
to really fill up that Dulles Center by the time that it is 
completed, we really should be starting on an enhanced program 
of renovation and restoration right now.
    There is $5 million and 11 positions for the National 
Museum of the American Indian. Most of this request, actually, 
is for the Cultural Resources Center in Suitland and for moving 
the materials that are stored up in the Bronx down to the new 
Suitland Cultural Resources Center, which of course is the 
place where we are storing the million artifacts, all that will 
not be shown in either the Mall Museum or in the New York 
location.
    Some of that money is for the beginning of exhibition 
development for the Mall Museum when it opens before 2003. That 
is my pledge to myself, in any event, that that shall occur.
    I mentioned $5 million that we are requesting for 
collection information systems, essentially to support the 
electronic capture and digitization of object and specimen 
images, which is the base work for everything that we can do 
with regard to electronic communication, and $2 million for 
security system modernization. That $2 million, in addition to 
the $2 million we got in the budget last year and the $4.7 
million that we got in the emergency supplemental that went to 
OMB for Y2K problems, will permit us to finish all of the 
internal electronic systems that we have intended to bring all 
of that up to high operational capacity.
    We probably will be looking for another $3 million to $3.5 
million in the future, but that will be mainly for electronic 
surveillance on the perimeters of buildings, not within them or 
at their entrances, and to permit us also to think about 
whether we want to use more cards for access to portions of 
buildings. We are not sure that we think that is such a good 
idea at the moment, but we want to evaluate that.
    The $2 million this year is going to permit us to finish 
the internal electronic security system which will give us a 
greater sense of comfort. Our experience with security of this 
sort has been excellent. We have lost very few things. We have 
had practically nothing defaced.
    Our insurance rates are about as low as they possibly can 
be for a museum. So we have been very fortunate in that regard. 
Largely, that has been because we have a security force that is 
really excellent.

                            capital Accounts

    The two remaining items are on the capital side: $47.9 
million for R&R and alteration and modification of facilities, 
and then $19 million for construction. The $19 million is to 
finish the National Museum of the American Indian. I think we 
will all be relieved when that occurs. We have run into a 
little problem, as you well know, with respect to the 
architects.
    We have replaced the architects in the sense that we have 
now taken over the lead in the management of that project, but 
we have hired other people to help us. I believe that we are 
going to bring that museum in on time. It looks very, very much 
as if we will.
    Clearly, we are not going to bring it in within the 
original budget, but we are not going to come to the Federal 
Government for any enhancements with respect to construction 
funds. We will find other money somehow in the private sector 
to finish that up.
    We are involved with a lawsuit presently, but my lawyer 
part of me tells me that I shouldn't be too worried and maybe I 
should look forward to collecting a little rather than being in 
a position of liability.

            repair, restoration and alteration of facilities

    That leaves the $47.9 million for R&R. You will recall that 
in the past we have analyzed our whole institutional repair and 
renovation problem. We have indicated that if we got a steady 
appropriation, inflation adjusted, of course, of $60 million, 
we could take care of all of our problems looking forward, and 
by judicious inspection and also the time of the use of the 
facilities. We are very, very confident of that.
    Our request at $47.9 million is all that was possible this 
year. But I have had conversations with the Office of 
Management and Budget and, clearly, if we are not in for major 
construction again, they are optimistic about the possibility 
of including in the President's budget $60 million. I know I 
have gotten a lot of support in the Congress with respect to 
adequate R&R funds.
    The major project that we are indicating that we will be 
proceeding with presently is the complete repair and renovation 
of the Patent Office Building where the National Portrait 
Gallery and National Museum of American Art and the Archives of 
American Art are located.
    The Patent Office Building is the fifth oldest building in 
Washington and it has not had serious work done in it since 
1964. It really needs a complete job.
    We are costing that at $60 million. There are others who 
think we should spend considerably more. But we are hopeful 
that for $60 million we can replace all of the systems, we can 
replace the roof, we can do all of the things that are 
necessary to bring that back, and we can increase the public 
space in the Patent Office building. We are in for $8 million, 
the first of four increments that will be necessary in order to 
fund this.
    There is a request for an advanced appropriation, which 
would permit us, of course, to sign a contract for the whole 
amount. Signing a contract for the whole $60 million at the 
outset would save a lot of money in many ways. I don't know 
whether that is going to be feasible with the Congress.
    But if it is not, I would strongly recommend that there be 
language of assurance in the conference committee report, or in 
the report to the individual houses, that will give us the 
comfort of being able to go forward with a contract for the 
whole.

                     Secretary Heyman's Objectives

    Well, that is about it. I am going to be working very hard 
between now and when I leave at the end of December. I pledge 
myself at least the accomplishment of four objectives. One of 
them is to break ground for the National Museum of the American 
Indian sometime this year, after the budget obviously is 
passed.
    The second one is to make sure that our capital campaign is 
well defined and ready to go. I intend to play some role, in a 
volunteer role after I leave, with respect to that capital 
campaign.
    Third, I want to bring to fruition the acquisition of a 
building someplace downtown which will permit us to carry out 
the plans that we have for the Patent Office building, the 
relocation certainly of a number of the activities that are 
within it so that we can create more public space in the Patent 
Office building.

                           prepared statement

    Finally, I am going to be working very hard on a new 
organization that we just formed, that had its first board 
meeting yesterday, to carry on business enterprises in the 
Smithsonian, hopefully at a level that will return a greater 
amount of unrestricted revenue on the trust side for the 
Institution to use.
    I really appreciate the opportunity to speak to you today, 
and there is a little regret in the fact that this will be my 
last opportunity. Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                Prepared Statement of I. Michael Heyman
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today on behalf of the 
Smithsonian Institution and to present a summary of our activities and 
our fiscal year 2000 budget request.
    As you may know, after considerable deliberation, I have informed 
the Smithsonian Board of Regents that I will step down as Secretary at 
the end of 1999. I do this with regret, of course, but also with 
pleasant anticipation. I regret departing from the Institution that is 
so important in our national life, and from those people who are 
responsible for what it does. But I look forward to returning home to 
California and reestablishing my ties to the University of California 
and the San Francisco Bay Area.
    I have tried to use my years as Secretary to promote a greater 
sense of the combined strength of the Smithsonian as a positive force 
in providing quality research and education programs for the nation. My 
priority as Secretary has been to maintain the quality of the programs 
offered by the Smithsonian and to enhance the visitor's experience 
while touring our museums and utilizing our research facilities. I have 
been equally dedicated to sharing that experience with people outside 
of Washington and to making our programs and collections more 
accessible to the nation. Increasing the Institution's outreach to 
other educational institutions and the general public is crucial in 
meeting this priority.
    Three Smithsonian programs that seek to promote outreach to every 
American have been particularly important to me during my tenure with 
the Institution--the Affiliations Program, the Smithsonian Institution 
Traveling Exhibition Service (SITES), and electronic access to the 
collections. The goal of the Affiliations Program is to promote greater 
public access to the Institution's collections by providing an 
alternative means for their exhibition outside of Washington. Since the 
inception of the Affiliations Program in 1996, there have been more 
than 150 separate inquiries from organizations interested in forming 
affiliations. There are currently 23 active affiliations projects and 
five have been fully implemented. Recently a long-term agreement with 
the National Museum of Industrial History in Bethlehem, Pennsylvania, 
was finalized, and a 19th-century locomotive and hundreds of other 
industrial artifacts from our collections were moved to that site.
    A long-time Smithsonian program, SITES, has been sharing the wealth 
of the Institution's collections, research, and exhibitions with 
audiences around the world through short-term exhibitions of 
collections and representations. Each year, millions of people beyond 
Washington, D.C., experience these programs. SITES popularity has been 
significantly enhanced as it continues to secure substantial corporate 
and foundation support for its programs. Two new projects highlight 
this success: a grant to host an interactive traveling science 
exhibition Microbes: Invisible Invaders, Amazing Allies, which opens 
Memorial Day weekend on the National Mall and an alliance with a theme 
park located in Branson, Missouri, to present the children's geography 
exhibition, Earth 2U, Exploring Geography and the exhibition, American 
Glass: Masters of the Art.
    In recent years, SITES has developed a rural initiative in 
partnership with the Federation of State Humanities Councils. Called 
Museum on Main Street, this program has brought SITES exhibitions to 
more than 100 rural communities across the country and has generated 
tremendous enthusiasm and participation.
    In many ways, Internet-based learning is rapidly changing the 
nature and scope of education in America. The Smithsonian has witnessed 
a dramatic increase in the number of people who access our Internet 
website. At a rate already in excess of 30 million ``hits'' per month, 
our objects, databases, research, virtual exhibitions, lesson plans, 
and visitor services are being made available to schools, businesses, 
libraries, and individuals around the nation and the world. It is our 
goal to bring a large portion of our display collections on-line, 
making it possible for anyone with access to a computer to see and 
study these objects. We believe this evolving technology greatly 
enhances our ability to make Smithsonian programs and museums publicly 
accessible. We are pleased that the Administration has recognized our 
efforts in this area and has identified the Smithsonian as a key 
partner in its Digital Library initiative.
    The cornerstone of these important institutional outreach 
activities is education. The National Museum of Natural History (NMNH) 
is expanding its efforts to become a national hub for science 
education. Last fall, six school districts around the nation began 
testing Mammals in Schools, a program to promote museum-style, object-
based learning in middle school science classes. An electronic 
classroom with two-way videoconferencing links between the Museum's 
exhibition labs and classrooms enables teachers and NMNH scientists to 
assist students as they analyze mammal specimens, study their habitats, 
and build exhibitions based on what they have learned. Electronic field 
trips that simultaneously link several classrooms to Museum science 
labs via videoconferencing equipment are also being developed. For more 
than a year, the Museum has been providing an after-school learning 
program based on NMNH research on the ice age which has been presented 
to more than 10,000 young people in 25 States.
    Also on the education front, the National Science Resources Center 
(NSRC) received a grant in support of its Leadership and Assistance for 
Science Education Reform (LASER) Project. During the next six years, 
LASER will help local leaders introduce and implement inquiry-centered 
kindergarten through 8th-grade science curriculum materials in more 
than 300 school districts that serve approximately one million students 
nationwide. To accomplish this, NSRC has formed partnerships with eight 
regional sites located in Alabama, California, New Jersey, Oklahoma, 
Pennsylvania, Rhode Island, South Carolina, and Washington.
    Now, let me highlight some of the Smithsonian's achievements in the 
past year. We are very pleased to report that there were more than 31 
million visits recorded at the Smithsonian museums and the National Zoo 
in 1998, an increase of more than 4 percent from the 1997 total and the 
highest recorded total attendance since 1984.
    The National Air and Space Museum, the most visited museum in the 
world, attracted almost 10 million visits in 1998. This level of 
attendance last year was due primarily to the success of Star Wars: The 
Magic of Myth, an exhibition commemorating the 20th anniversary of the 
Star Wars trilogy. During its 15-month run, nearly one million people 
viewed the exhibit.
    The Air and Space Museum has also enjoyed the success of the IMAX 
feature Everest at the Langley Theater. Since the movie premiered in 
March 1998, more than 110,000 people have attended, making Everest the 
best-selling film ever in the evening schedule.
    Visits to the National Museum of American Art and the National 
Portrait Gallery increased last year, in part due to the revival of 
downtown Washington and the 7th Street art district. Looking to build 
on this momentum, both Museums are now participating in Third Thursday, 
a monthly art celebration organized by the downtown business and arts 
community, with special evening hours and guest lectures.
    In the past year, a number of exhibitions suggested the array of 
programs available at the Smithsonian: Theodore Roosevelt--Icon of the 
American Century, The Jewels of Lalique, Celebrity Caricature in 
America, Faces of Time: 75 Years of Portraits from Time Magazine, and 
Speak to My Heart: African American Communities of Faith and 
Contemporary Society. Also, a series of concerts was preformed by the 
Smithsonian Jazz Masterworks Orchestra to mark the 100th anniversary of 
the birth of Duke Ellington. In November 1998, the ``Rock Hall'' opened 
at the NMNH, completing the final piece of the major, permanent 
exhibition complex that makes up the Janet Annenberg Hooker Hall of 
Geology, Gems and Minerals.
    On December 1, 1998, the National Museum of American History 
witnessed a virtually flawless ``takedown'' of the Star-Spangled Banner 
from its display in Flag Hall to begin a major conservation and 
preservation project. The History Channel, in collaboration with Museum 
staff, aired a documentary on the history of the flag and the 
preservation project, which is the largest textile conservation project 
ever undertaken by a museum. In October, the preservation project began 
in earnest when walls were erected to enclose the conservation and 
exhibition area, and a NASA expert, using near-infrared spectrometry, 
began assessing the amount of moisture and surface dirt on the flag. 
Currently, the flag is protected in a specially built 30-foot container 
while construction of the conservation lab and exhibition is completed. 
The new space is slated to open in April. Once the flag is relocated to 
the conservation lab, visitors will have the opportunity to observe the 
preservation project in progress.
    After a 4-year renovation, the Cooper-Hewitt, National Design 
Museum and its Design Resource Center in New York re-opened in June 
1998. With its state-of-the-art environmental systems and storage 
equipment, the Center is a model for managing museum collections and 
making them more accessible to the public, while maintaining the 
integrity of the historic structure.
    The Smithsonian Environmental Research Center (SERC) in Edgewater, 
Maryland, ushered in a new era of learning for school groups with the 
opening of its new Philip D. Reed Education Center. The Center also 
doubles as a visitor center, featuring an orientation hall, a teacher 
resource library, office space, and an 80-seat multipurpose room. In 
order to provide school groups and the public with the latest 
information about SERC research, the building will be connected to SERC 
labs via video and audio networks.
    SERC's facility on the Chesapeake Bay provides a unique opportunity 
to study a variety of interconnected ecosystems whose impact is felt 
across the globe. Scientists at SERC have identified non-native species 
of bacteria, from ballast water on ships in the Chesapeake Bay, that 
can cause cholera. This is part of the largest research project in the 
United States dealing with the origin and impact of alien, invasive 
species in coastal and estuarine systems. Non-native species can 
endanger native species, disrupt food chains, and cause environmental 
and infrastructure damage exceeding, according to one estimate, $120 
billion in 1998. This research has produced tools and strategies that 
are being tested as a means to control invasive species. SERC is also 
playing a lead role in research that has demonstrated that streamside 
forests and restored wetlands can reduce nutrient runoff into coastal 
waters. In addition, collaboration with other institutions has enabled 
SERC to find ways to detect and quantify the toxic organism Pfiesteria, 
which can kill fish and poison humans.
    In the past year the Smithsonian has made tremendous advances in 
many other ongoing research efforts. At the Smithsonian Astrophysical 
Observatory (SAO), in partnership with the Harvard College Observatory, 
scientists' have developed low-field magnetic resonance imaging (MRI) 
which extends the technology to areas in the human body that could not 
be imaged previously, such as the lungs and sinuses. This technology 
will have applications ranging from detection of hard-to-reach tumors 
to use by people with pacemakers.
    Research efforts at the Smithsonian benefitted from John Glenn's 
historic return trip to space last fall. The Shuttle flight carried 
Spartan 210, a solar physics experiment package that included an 
ultraviolet coronagraph spectrometer (UVCS) built by SAO, to observe 
the Sun's outer atmosphere. Also, NASA's Submillimeter Wave Astronomy 
Satellite (SWAS) carried an instrument, designed by SAO scientists, to 
observe the heavens in submillimeter radiation and study the birth of 
stars.
    At the Smithsonian Tropical Research Institute (STRI) a study has 
revealed new data on conditions that support species diversity in 
ecological systems such as rainforests, grasslands, coral reefs, and 
lakes. The research conducted in a Panamanian rainforest on Barro 
Colorado Island, has led to developing methods for sustaining 
endangered species that are threatened with depletion and destruction.
    While research and planning for the 1999 Smithsonian Folklife 
Festival, featuring the State of New Hampshire, is well under way, the 
Center for Folklife and Cultural Heritage is still experiencing the 
positive impact of previous years. The 1997 Festival featuring 
Mississippi and the 1998 Festival featuring Wisconsin were both 
replicated back home in the two States last summer. The Folklife Center 
is currently completing work on a cultural education kit for school 
children in the Mississippi Delta growing out of the 1997 Festival. A 
documentary, Wisconsin Folks, based on the 1998 Festival, aired on 
Wisconsin public television stations in December. In the year 2000, the 
Folklife Festival will feature the District of Columbia, the Rio 
Grande/Rio Bravo Basin (largely Texas and New Mexico), and a program on 
Tibetan culture.
    Now to summarize the Smithsonian's request for fiscal year 2000: 
for all operating and capital accounts we seek a total of $447.4 
million, an increase of $35.1 million above the fiscal year 1999 
appropriation. Of this amount, $380.5 million is for Salaries and 
Expenses, and $66.9 million is for our capital program.
    Of the requested increase in the Salaries and Benefits account, 58 
percent is attributable to mandatory costs for sustaining base 
operations and the remainder is for priority program requirements. For 
fiscal year 2000 these program priorities total $14 million and 25 
positions, and include activities related to the Dulles Center of the 
National Air and Space Museum, the Mall museum building of the National 
Museum of the American Indian, access to collections information, and 
modernization of the Institution's security system.
    For the Dulles Center, $2 million and 14 term positions would be 
used for the preparation of artifacts for relocation from the Garber 
Facility in Suitland, Maryland, to the new site in Virginia.
    For the National Museum of the American Indian, $5 million and 11 
positions are required for operational support at the new Cultural 
Resources Center in Suitland, Maryland, the move of objects from New 
York to Suitland, and exhibition development associated with the 
opening of the Mall museum.
    For access to collections information, $5 million is needed to 
support the electronic capture and digitization of object and specimen 
images, enrichment of related data, and storage, as well as retrieval, 
of that material.
    For security system modernization, $2 million is necessary to 
continue replacement of the Institution's current security system, and 
to provide engineering support for and staff training on a new system 
as well as its installation, testing, and documentation.
    In this request the Institution has consolidated its capital 
accounts, thus unifying all repair and restoration activity in one 
account and all construction in a separate account. Within the 
consolidated accounts, $47.9 million is identified for Repair, 
Restoration, and Alteration of Facilities and $19 million is identified 
for Construction.
    The $47.9 million requested for repair and restoration will target:
  --the repair and restoration of buildings on and near the Mall as 
        well as buildings at the National Zoological Park
  --major capital renewal projects at the National Museum of Natural 
        History and the renovation of the old Patent Office Building, 
        which houses the National Museum of American Art and the 
        National Portrait Gallery
    For renovation of the Patent Office Building the Institution 
requires $8 million in fiscal year 2000 and requests advance 
appropriations in order to award a single $60 million contract for this 
project. Receipt of the additional advance funds will allow cost-
effective and time-critical renewal of the structure. We propose that 
$17 million of the advance appropriation become available on October 1, 
2000; another $17 million on October 1, 2001; and $18 million on 
October 1, 2002.
    Finally, in the Construction account, the Institution requests $19 
million for the Mall museum building of the National Museum of the 
American Indian. Of that amount, $13 million will be used to complete 
construction and $6 million will be used to equip the building. This 
final increment of funding will complete the Federal share--two-thirds 
of the building cost--authorized in the legislation enacted on November 
28, 1989. The other third, which totals $36.7 million, has been raised 
through the generosity of individuals, tribes, corporations, and 
foundations in this country and around the world.
    As you can see, Mr. Chairman, 1998 was an active year for the 
Smithsonian and I personally intend to have a very active final year at 
the Smithsonian. There are four chief priorities on my agenda. First, I 
plan on participating in the groundbreaking for the National Museum of 
the American Indian Mall museum this spring and taking all steps 
necessary to assure that it will open before 2003. Secondly, I expect 
to see that the Institution's capital campaign is well-defined. 
Thirdly, I want to bring to fruition the acquisition of an additional 
facility in close proximity to downtown Washington for the activities 
presently located in the Patent Office Building, with settled plans for 
renovation and appropriate organizations and programs. Finally, I 
intend to establish a new organization within the Smithsonian to carry 
on our business activities by appointing its board of directors and, at 
their recommendation, the chief operating officer.
    Mr. Chairman, I appreciate the opportunity to speak with you today, 
and I have enjoyed working with you for the past five years. I would be 
pleased to respond to any questions you and the other Members of the 
Subcommittee may have concerning our fiscal year 2000 budget request or 
on any other matter related to the Smithsonian Institution. Thank you.

                  Summary statement of LEE H. HAMILTON

    Senator Gorton. Mr. Hamilton.
    Mr. Hamilton. Senator Gorton, thank you very much. It is a 
privilege to be here with you, back on Capitol Hill again, and 
with my colleagues this morning.
    I am requesting $6.04 million for fiscal year 2000. And 
that is the same----
    Senator Gorton. Certainly the most modest----
    Mr. Hamilton. Well, Senator, after listening to my 
colleagues make their requests, I have been very tempted to add 
a couple of zeros to that this morning.
    The request is the same as last year. I have only been at 
the Woodrow Wilson Center for a couple of months, so obviously 
I have a lot to learn there. But I have benefitted from a very 
talented staff there and from the scholars and fellows in 
residence, the board of trustees members, and what we call the 
Wilson Counsel, a group of advisors.
    I might say parenthetically that I was very pleased to have 
George Shultz join us on the Wilson Council just a few days 
ago.
    As you know, the Center is now situated in marvelous new 
facilities at the Reagan Building. I hope you and members of 
your staff will feel free to come down. We would be honored to 
have you join us as guests sometime. I certainly want to work 
closely with you and the staff to try to make the Center 
responsive to requests from Capitol Hill.
    I look back with considerable gratitude to the three past 
directors, Ben Read and Jim Billington and Charles Blitzer. As 
you probably know, we were saddened recently by the death of 
Charles Blitzer. He played a very important leadership role in 
bringing the Center to the Ronald Reagan Building.
    I benefit from the wise counsel, of course, of our 
Librarian of Congress, Jim Billington. I have had tremendous 
support from the former Chairman of the Board, Joe Flom, a New 
York attorney, and from the present chairman, Joe Cari, from 
Chicago.
    The Wilson Center is really quite an exciting place to be. 
It is an independent, wide-ranging institute for advanced study 
where vital current issues and their deep historical, cultural, 
and societal backgrounds are explored through research and 
dialogue. I think you might be pleased if you were to drop into 
one of the more than 200 meetings that take place there each 
year. You would find a very objective, non-partisan, free, 
open, dispassionate discourse taking place at the Center. We 
have state-of-the-art communication facilities which enable us 
to reach a large audience.
    My immediate goals are, first, to expand and strengthen the 
activities of the Center, second, to increase its visibility, 
third, to boost the private sector funding, which you and other 
Members of Congress have expressed an interest in. We are well 
on the way to getting that done.
    I also want to ensure that the work done by the Center is 
relevant and coherent, focused, and beneficial both to the 
policy maker and to the scholar.
    It was President Wilson's idea that the scholar and the 
policy maker, or the politician, are engaged in a common 
enterprise. The Center really tries to carry out that basic 
concept. We have had very able leadership by the interim 
director, Dean Anderson, to address the problems and I am very 
pleased to try to take over.
    Let me try to give you a flavor of some of the activities 
at the Center, if I may. We will have during the course of the 
year 150 scholars in the institution. Scholars and thinkers 
really, not all of them from academia. One-third of them will 
be foreigners.
    They work on almost every issue you can think about: 
national security, capital punishment, telecommunications, 
statistical work in the Federal Government, changes going on in 
Iran and Iraq and China, Ukraine, and many other places in the 
world.
    We have got a remarkable group of scholars. We have a young 
woman, a Chinese scholar/journalist working on a biography of a 
Beijing professor who was an early reformer in communist China. 
Her story, incidentally, is worth a few newspaper articles and 
maybe a book in and of itself. She is a remarkable woman.
    We have got a scholar working on telecommunications policy 
and meeting with government officials. We have got another 
scholar working on standards and statistics, working closely 
with the Census Bureau and has been in close touch with 
Congressman Dan Miller's subcommittee.
    We are working with the Close Up Foundation to develop 
three international programs for high school students. These 
programs will be aired nationally through C-Span and they will 
be on the cold war history, on America's role in the post-cold 
war period, and on 21 century environmental challenges.
    We are launching a project on the information revolution 
and its profound impact on the global economy. This rose out of 
meetings I had with entrepreneurs in Silicon Valley not too 
long ago.
    They are deeply concerned, as you very well know, coming 
from the State of Washington, about the relations between that 
industry and government, the private sector and all of the 
concerns that they have with regard to the information 
revolution. The project will be called Sovereignty in the 
Digital Age.
    Senator Lugar, from my home State of Indiana, and former 
CIA director, Jim Woolsey, will come soon to the Center to talk 
on energy security. They had an article in Foreign Affairs on 
that subject just recently. We have a conference coming up on 
space and foreign policy in the next century. All kinds of 
conferences on NATO, the EURO, United States and Taiwan, and 
many, many other programs. And one of our former scholars, here 
recently, has now become the top political advisor to the new 
king in Jordan.
    We have, as you very well know, the Wilson Quarterly, which 
is a unique, popular publication and one of the most widely 
circulated magazines of ideas. It has a circulation of about 
60,000, which is very high for that kind of a magazine. We have 
a Dialogue radio program now heard over 200 public and 
commercial stations.
    It reaches an audience, we think, of about 300,000. A 
number of your colleagues from the Senate will be joining us on 
that Dialogue program in the next few weeks.
    You asked in your opening comments about what direction we 
want to go in the institutions that we represent, those of us 
here at the table. Let me identify several directions for the 
Wilson Center.
    I intend to make the work of the Center more visible, more 
coherent, more focused. We are bringing on a public affairs 
director in a few days now. I know we have to work closely with 
key constituencies in the policy world, including you and your 
colleagues. We are now exploring collaborative programs with 
other institutes and universities and the Library of Congress.
    I think maybe the reason I am at the Wilson Center is to 
try to promote more interaction between the world of scholars 
and the world of the policy maker. And I want to try to do 
that. I want to bring more focus to the work of the Center by 
making it focused more on several themes instead of just going 
into a great variety of topics, an unending number.
    We want to focus on several themes: the U.S. role in the 
world, governance issues, key long-term future challenges, and 
projects that help frame the context and provide essential 
backdrop for some of the key public policy debates that we have 
today in this country.
    Second, I want the Wilson Center to be a very lively place. 
I want it to be an intellectual center. We are going to have 
the NATO Summit in this town in April. A lot of that is going 
to take place in the Reagan Building, and much of it will take 
place at the Wilson Center.
    We will have major events there and bilateral meetings. The 
National Security Advisor is coming to speak. The Secretary of 
State has already been there. She is going to come again. I 
have asked Bob Livingston to come down and talk a little bit 
about his experience as an appropriator. You might have some 
sympathy with his comments, Mr. Chairman.
    David Dreier, the Rules Committee Chairman, is coming down 
to speak to us about the Congress and the rules of the House. I 
am currently trying to get former Speaker Gingrich to come in 
and reflect on his speakership before the scholars at the 
Wilson Center.
    Another thing I want to do is expand some of our programs 
and activities and capabilities. It is probably correct to be 
critical of the Wilson Center. We do not have the kind of 
balance that we should have. For example, I have been appalled 
that we really haven't been doing anything on Africa and very 
little on the Middle East. So I want to bring more balance into 
the programs that we have.
    Some of my colleagues in the House of Representatives have 
scolded me a little bit because we don't have enough diversity 
in the staff and in the program. I think they are right in 
their criticism, and we are going to try to correct that in the 
years ahead.
    Like all of these institutes, or institutions you have been 
hearing about this morning, we have got a lot of modifications 
and modernization steps to take. Anybody dealing with library 
capabilities knows that scholars now are turning more and more 
to the electronic library rather than to the hard cover 
library, and that means a considerable upgrade of our 
facilities and equipment has to be brought about.
    I mentioned we are increasing our fund-raising efforts. We 
have brought on board an outstanding development director, Fred 
Bush, who is doing excellent work in trying to raise additional 
money in the private sector. The Center really is in good 
financial shape. We are on track to have our best year yet in 
unrestricted giving. We have had an investment policy committee 
that has done awfully well.
    We have had a little help, of course, from a bull market 
stock market. But our endowment has gone up substantially. But 
we do not want to rest on our laurels. More than 50 percent of 
the funding of the Center now comes from the private sector, 
and that will surely increase.
    Let me just conclude by saying that I think the Wilson 
Center--at a time when this country is very deeply concerned 
about the quality of political discourse in the Nation--I think 
the Wilson Center gives us a model of how political discourse 
should proceed in a representative democracy.
    It is a place where the world of ideas and the world of 
practice come together. Neither is suppressed and both are 
encouraged. Our premise is that by listening to all points of 
view, stepping back to take a broader view, and engaging in 
discussion and persuasion, a people can make better decisions 
in a representative democracy.
    We believe that at the Wilson Center. We deeply believe in 
the free trade of ideas, that the best test of an idea is its 
power to get accepted in the competition of the market, and 
that in the end better ideas will prevail.

                           prepared statement

    My task, I think, is to make the Center a bright and 
shining intellectual Mecca where we offer a place for 
thoughtful, objective, serious, non-partisan dialogue on the 
toughest issues that this country confronts. And with your help 
and support we will make it a unique presidential monument in a 
city of monuments. Thank you.
    Senator Gorton. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Lee H. Hamilton
    Mr. Chairman, Mr. Byrd, Members of the Subcommittee: It is a 
privilege to have this opportunity to return to the Congress, an 
institution in which I had the honor to serve for over three decades. 
It is also a special, personal pleasure to be with former colleagues. I 
appreciate having this chance to speak in support of the Wilson 
Center's request for an appropriations of $6.04 million for fiscal year 
2000, the same request as last year.
    I have been at the Woodrow Wilson Center for two months. I have 
benefited from the extraordinarily talented staff of the Center, the 
scholars and fellows in residence, and the Board of Trustees and the 
rapidly expanding Wilson Council that George Shultz recently joined. 
The Center is now fully ensconced in its marvelous new facilities in 
the Ronald Reagan Building on Pennsylvania Avenue. I hope each member 
of the Subcommittee and your able staff will visit the new Center.
    I want to work closely with you and your staff. With your help and 
support, I look forward with enthusiasm to the challenge of helping 
this Center do its important work.
    Let me also say at the start that I look back with gratitude to the 
three previous directors--Ben Read, Jim Billington, and Charles 
Blitzer--whose unstinting efforts helped make the Center what it is 
today. We were saddened by the recent death of Charles Blitzer: he 
played a leadership role in bringing the Center to the Ronald Reagan 
Building. I continue to benefit from the wise counsel of Jim 
Billington, the Librarian of Congress and a member of our Board. And I 
also want to commend Joe Flom, the former Chairman of the Board of 
Trustees, for his strong leadership and to express enormous confidence 
in Joe Cari, the new Chairman of the Board.
    As I meet with people around town and with some of my former 
colleagues, I am impressed with the strong support the Center enjoys. 
Scores of policymakers, academicians, and friends of the Center have 
sought me out to express their admiration for the Center's work. These 
people form a remarkable network across the country, indeed across the 
world.
    The Wilson Center is an exciting and vibrant public/private 
partnership. The Center remains Washington's only independent, wide-
ranging institute for advanced study where vital current issues and 
their deep historical and societal background are explored through 
research and dialogue. The Center provides a unique forum for 
objective, non-partisan, free and open, and dispassionate discourse, 
and it has some state of the art communications equipment.
    My immediate goals for the Center are to expand and strengthen its 
activities, increase its visibility, boost its private sector funding, 
and ensure that the work done by the Center is relevant, coherent, 
focused, and mutually beneficial for the policymaker and the scholar.
    I recognize that the Center has had some problems in recent years, 
including the problem of relating its work to current policy issues. 
Steps have been taken under the able leadership of interim Director 
Dean Anderson to address these problems, and I believe that the Center 
is now moving in the right direction.
                        activities at the center
    Let me give some specifics and some flavor of the good and useful 
activity at the Center which you are helping to support:
  --We are hosting a good, even pre-eminent, group of thinkers. 150 
        scholars and fellows will work here at some point during 1999. 
        A third of them will be foreigners. They work on diverse 
        issues: national security, adoption, capital punishment, 
        telecommunications, statistical work in the U.S. Government, 
        Iran, Yugoslavia, economic change in China, the United States 
        and Ukraine, and Iraq.
      We have a Chinese scholar and journalist working on a biography 
        of a Beijing professor who pushed for reform in the earlier 
        Communist years in China. She is a remarkable person whose own 
        story as an advocate of reform is a book in itself.
      I hear many heartening vignettes of our scholars and fellows 
        getting around town and interacting with policymakers. Let me 
        cite two examples. One scholar, working on US 
        telecommunications policy history, meets regularly with Federal 
        Communications Commission colleagues. Another scholar, working 
        on standards and statistics, is engaged in discussions with 
        experts at the Census Bureau on improving statistical work. She 
        has also been in touch with Members of Congressman Dan Miller's 
        subcommittee. I am encouraging more such activity.
    You can find any number of interesting activities taking place at 
the Center:
  --Working with the Close Up Foundation, we are developing 
        international programs for high school students. Programs will 
        start to be aired nationally this spring by C-SPAN. The first 
        three topics are: cold war history, America's role in the post-
        cold war world, and 21st century environmental challenges.
  --We are launching a project on the information revolution given its 
        profound impact on the global economy and on relations between 
        governments and the private sector. This project brings 
        together entrepreneurs, policymakers and scholars. A first 
        series, entitled ``Sovereignty in the Digital Age'', will 
        explore how to balance national sovereignty with the need for 
        new international rules in an age in which the Internet and 
        electronic commerce operate across borders.
  --Senator Lugar and former CIA Director Jim Woolsey will soon discuss 
        their proposal for increasing our energy security in the next 
        century.
  --We will host a March conference on space and foreign policy in the 
        next century.
  --Conferences will also be held on NATO, the EURO and its 
        implications for the United States, the United States and 
        Taiwan, North Korea, Indonesia, China, including China's 
        environmental policies, and several transborder issues, such as 
        informal economies, crime, water issues, and the role of women 
        and of ethnic minorities.
  --The Kennan Institute, which does superb work on Russia, Ukraine, 
        and the Newly Independent States, has opened an office in Kyiv. 
        Several presidential candidates in Ukraine will speak this year 
        at the Center. The Kennan Institute will also have a conference 
        on rural Russia and a major conference on Stalin in the fall. 
        Because of its lengthy association with Russia, the Kennan 
        Institute has a standing and a credibility that few, if any, 
        other American institutions enjoy.
  --The Latin American program has recently organized meetings in 
        Mexico that opened an important new dialogue concerning peace 
        in the Chiapas province. A similar type of effort to forge an 
        internal peace process in Colombia is underway.
  --The Center is often facilitating Track Two, non-official diplomacy. 
        The Center plays this key role because of the deep respect it 
        has gained internationally.
    An important part of the Center's outreach involves not just the 
dozen or so books that the Center will publish a year on policy issues, 
but its journal and radio program.
    The Wilson Quarterly, the Center's journal, is a unique, popular 
publication and one of the most widely circulated magazines of ideas, 
providing a one-stop survey of the world of ideas. Its 60,000-plus 
readers are spread across the country; less than 15 percent of them are 
academics. The Quarterly's recent articles include: America's 
``hyperdemocracy,'' the digital economy, the state of rural America, 
the politics and future of Brazil, the history of money and politics in 
America. The next issue will feature an article on Nelson Mandela's 
five years in office. And the Quarterly's section entitled Periodical 
Observer surveys more than a hundred academic and intellectual journals 
and reviews a few dozen of the more important articles.
    The Dialogue radio program has been extraordinarily successful. 
Dialogue, a forum for the discussion of ideas, is now heard on over 200 
public and commercial stations nationwide, 23 European stations over 
the World Radio Network, and worldwide by way of the Armed Forces Radio 
Network. Its domestic audience is well over 300,000. In the month or 
so, Senators Lugar and Moynihan, former Senator Paul Simon, and Jim 
Woolsey are among the guests on the show.
                    where the center goes from here
    As impressed as I am with what happens at the Center, I think we 
can and will do better. I want to move the Center in several 
directions:
    First, I intend to make the work of the Center more visible, more 
coherent, and more focused: a public affairs director will be in place 
this month to spearhead a more coordinated effort. The Center must work 
closely with its key constituencies in the policy world, including you 
and your colleagues. Collaborative programs with other institutes, 
universities, and the Library of Congress are also being explored.
    Coherence can be achieved through better interaction between our 
visiting scholars and policymakers. The policymaker and the scholar are 
engaged in a common enterprise, said President Wilson, and both can 
benefit by this process.
    I especially want to bring more coherence to the Center's work by 
putting more focus on a few central themes at the core of the Center's 
mission. Let me mention a few such themes:
  --The United States role in the world and issues of partnership and 
        leadership;
  --Governance issues, including such issues as the key features in 
        developing democratic institutions, democratic society, civil 
        society, and civic participation;
  --Key, long-term, future challenges facing the United States and the 
        world, such as limiting the spread of weapons of mass 
        destruction or sustaining global financial stability;
  --Projects that reflect the broad interests of President Wilson; and
  --Projects that help frame the context and provide the essential 
        backdrop for some of our key public policy debates.
    Not all research and program activity can or should fit into this 
or any straightjacket, but broad themes can increase coherence in the 
work at the Center.
    Second, I want the Wilson Center to be a lively place, Washington's 
intellectual center. The April NATO Summit will take place in and 
around the Ronald Reagan Building, and some 60 heads of States may be 
here. We expect to schedule several major events and bilateral meetings 
during the Summit in our facilities. Other speakers are expected soon. 
National Security Advisor Sandy Berger, a Board member, is coming, and 
Secretary Albright, another Board Member and a recent visitor, has 
indicated that she wants to return to speak where she once was a 
scholar-in-residence. I am working to schedule appearances at the 
Center for Newt Gingrich, Bob Livingston, and David Dreier. Foreign 
leaders will also speak at the Center.
    Third, I would like to expand some of our programs, activities and 
capabilities. For example, I want to see the Center do some work on 
Africa and expand work on the Middle East. In the United States 
Program, I am interested in such issues as: why do many Americans not 
vote, how do you increase civic participation, and how do you attract 
better people to government service. Some modifications in the Library 
are also needed to allow for greater use by scholars, and for better 
``electronic library'' capabilities. And while the new facilities at 
the Center contain state of the art communications, I feel the Center 
should work towards an all electronic media infrastructure that can 
significantly enhance our outreach capabilities. Such expansions will 
lead to increased requests at the appropriate time.
    Fourth, we are increasing our fund raising efforts. I know this is 
a key concern of many of you. I am committed to increasing our private 
sector giving, and we will do so under the able leadership of Fred 
Bush, our Development Director, but the Congressional appropriations 
remains the essential base for our fund raising efforts.
    The Center is in good financial shape, and we are on track to have 
our best year yet in unrestricted giving. And thanks to the wisdom of 
our investment policy committee (and with a little help from the bull 
market), our endowment has gone over the $30 million mark.
    But we can't rest on these laurels. More than fifty percent of the 
Center's funding now comes from sources other than those appropriated 
for the Center. That trend toward greater reliance on private funding 
needs to continue. Our future growth will depend in large part on 
successful, private fund raising. I am committed to making several fund 
raising trips around the country in order to expand sources of funding 
for the Center.
                               conclusion
    The Wilson Center provides the model of how political discourse 
should proceed in a representative democracy. The Center is the place 
where the world of ideas and the world of practice come together--
neither is suppressed; both are encouraged. Our premise is that by 
listening to all points of view, stepping back to take a broader view, 
and engaging in discussion, deliberation, and persuasion, people can 
make better decisions in a representative democracy. We believe in the 
free trade of ideas, that the best test of an idea is its power to get 
accepted in the competition of the market, and that, in the end, better 
ideas will prevail.
    Our task is to make the Center a bright and shining intellectual 
mecca: we offer a place for thoughtful, objective, serious, nonpartisan 
dialogue on the key public policy issues of the day. With your 
continued support, the Wilson Center can remain a unique presidential 
monument in a city of monuments.
    Thank you.

                           Budget reductions

    Senator Gorton. Lee, we concluded with you, so perhaps I 
will ask you your questions right now and be finished.
    First, did you have anything to do with the budget 
submission that we have before us now?
    Mr. Hamilton. Not very much. It really was put into shape 
before I got there, and it is transmitted by me to you. It was 
shaped principally by Dean Anderson, who was the acting 
director.
    Senator Gorton. What is your reflection on the reductions 
in the last several years? Has much of that been made up by 
private contributions?
    Mr. Hamilton. Well, I think the serious part of the 
reductions has been the sharp decline we have had in the number 
of scholars we were able to bring on board. We are going to 
make up some of that with private funding. But we have had a 
fairly sharp drop in the number of scholars, especially public 
policy scholars. Too sharp a drop, in my judgment.
    Senator Gorton. Has it been a drop in quality as well as in 
quantity?
    Mr. Hamilton. I do not think so. I am uniformly impressed 
with the quality. We have a very rigorous selection process. I 
think almost any academic panel would look upon our scholars as 
being preeminent. They are very, very good. We are going to 
keep that quality high.
    Senator Gorton. If you have more support, either public or 
private, will a restoration in the number of those scholars be 
your first priority?
    Mr. Hamilton. It will be among my first priorities. We have 
some things that have to be done. I mentioned the library 
electronic facilities. We want to upgrade some of the 
communication facilities. So along with those matters, and 
perhaps a couple of others, the priority would be for the 
scholars, yes.
    Senator Gorton. Your predecessor said that getting everyone 
together under one roof was going to have a very, very positive 
impact. In a sense you weren't that familiar with them 
beforehand, but is that the reaction of----
    Mr. Hamilton. I think so. First of all, we are very proud 
of the facilities. It is a very nice working atmosphere. Having 
everybody together is a tremendous help for us in terms of 
internal communication. I think it will be a tremendous 
advantage for us.
    Senator Gorton. Thank you very much. I have welcomed you 
before. We talked about this toward the end of your last term. 
I think the Wilson Center is very, very fortunate to have you, 
Lee.
    Mr. Hamilton. Thank you.
    Senator Gorton. We are going to be happy to work with you.
    Mr. Hamilton. I appreciate that.

              National Air and Space Museum--Dulles center

    Senator Gorton. Mr. Heyman, I think I will go backwards 
across the panel here. I would like you to tell me a little bit 
more about the Air and Space Museum extension at Dulles. It 
seems to me the schedule is an extremely ambitious one, 
considering the amount of money that has been raised. Is 2003 
realistic? How are we going to get that money?
    Mr. Heyman. Well, I will know better just before I leave 
how realistic that is. We have a very enthusiastic director of 
the Air and Space Museum in Don Engen, and he refuses to view 
any situation pessimistically. He might well be right.
    We have--he, but with our help, has reorganized his 
campaign staff recently and I am considerably more optimistic 
now about its capacities to raise that money.
    But as I say, there are going to be some very big asks made 
in the next 3 to 4 months. If those come in close to the asks 
themselves, then I will be able to report not only optimism but 
optimism based upon some facts. But I am optimistic.
    Senator Gorton. Is $8 million to $10 million a year still 
your best estimate for the operational expenses when it is 
open?
    Mr. Heyman. Well, you know, I have not gone over again how 
we budgeted that. I do know perfectly well that we are going to 
have to come in for some Fderal help with regard to staff, 
especially for maintenance and security.
    What the sources of revenue are going to be for staff over 
time, I am not sure. The more endowment we can raise, 
obviously, the more we are going to be able to make that self-
sufficient. The more that the enterprises out there, parking, 
theaters, restaurants, and shops are really successful, the 
less we will have to be looking for Federal help. But I think 
we will be ready by the next budget cycle to give you some much 
better estimations of what our future requests might be.

                     Smithsonian business ventures

    Senator Gorton. Talk to me for a few minutes about your 
business ventures and the partial spinoff there. Obviously, you 
have been very successful and have the opportunity to be even 
more successful in that connection. But how does it relate to 
the senior management--how does the mix take place?
    Mr. Heyman. Let me start this way: business enterprises, or 
the auxiliary enterprises of the Institution, reached their 
peak someplace in the mid-eighties, and since then they have 
not grown.
    The nets that are realized have really not grown, even 
before inflation adjustment. The dollar figures have been 
pretty steady. We have given an awful lot of thought to whether 
or not those can be enhanced. We have examined, with the help 
of consultants, what other institutions that are somewhat 
similar to ours, nonprofits that carry on some of these kinds 
of activities, have done. We looked at a number of models with 
respect to trying to enhance the success of these auxiliary 
enterprises.
    We put to the Regents three choices. One was that we should 
not do anything; one was that we really ought to spin these off 
and make them a for-profit corporation which is a subsidiary in 
some way to the Smithsonian; and the middle path was to try to 
proceed by getting a new organization internally to carry on 
the activities, which hopefully will enhance the success of 
these enterprises.
    Well, under Howard Baker's sage leadership--you know, 
Howard is a Regent and has been chairman of the Regent's ad hoc 
committee on business--we chose the middle path. So what we are 
doing is, we are putting together a board of directors for the 
business enterprises.
    Those are largely the magazine, the shops, the catalog 
sales, product development and licensing, and whatever it is 
that we are going to do in the media world, mainly in 
television and in film, and also what might go on commercially 
with respect to the Internet.
    We have put together the first half of a board which 
consists of three non-Smithsonian people and three Smithsonian 
people. Actually, it is four and two, because our consultant 
for all of this is a member of that board. But he will be going 
back completely into the private sector pretty soon. They are 
going to select a CEO who has a kind of a background that will 
hopefully help bridge the gap between a very entrepreneurial 
activity and a cultural institution of our sort.
    Obviously, having two Smithsonian members of that board, 
the Under Secretary and Bob Fri, the Director of the Natural 
History Museum, is going to help a lot with respect to that 
kind of coordination.
    As I said, we had our first organizing meeting yesterday. 
The group heard a report from consultants who have been looking 
for potential candidates for CEO and concluded that there are 
some who look good, but they wanted to go a little more broadly 
in terms of the search. Then we will see, when a new CEO comes 
in, with hopefully a lot of advice from some of us in the 
Institution, but really putting them in a kind of separate de 
facto category.
    Final decisions of note still are going to have to go 
through the Secretary. There are issues that will certainly 
still have to go to the Regents. But the Regents and the 
Secretary have concluded that we are going to try to keep our 
hands off the operations, to the extent feasible, in order to 
permit it to enhance itself.
    Now, what will be the result of this? I suspect, for 
instance, just to give one mundane example, we will probably go 
to specialized catalogs as well as a single catalog, and we 
will be looking at practices that others are carrying on.
    Probably our conversations that have been going on now for 
2, 2\1/2\ years with especially film media will get enhanced by 
having people who are more expert in the business as well as in 
the content in those conversations. We might go into additional 
magazines in addition to the Smithsonian Magazine. There are 
just a lot of potential possibilities within the framework of 
what we do presently. I expect that is what will start to 
occur.
    It is a brave venture, from my point of view, to mix these 
cultures. But, you know, there are other places that are doing 
it. The Metropolitan Museum of Art has had some experience with 
that. The National Geographic Society surely is having a lot of 
experience with that presently. Minnesota Public Radio has. 
There have been a number of bench marking opportunities for us, 
which would make one optimistic about the outcome.

                     woodward and lothrop building

    Senator Gorton. Thank you. When you lost the Woodward and 
Lothrop building you lost one possibility for more space. What 
is the alternative?
    Mr. Heyman. Well, there are a number of other suitable 
buildings in that general neighborhood, and we are busy at work 
at the moment making inquiry concerning them. Our probabilities 
are pretty high that we are going to be able to take care of 
most of the problems that we wanted to take care of with 
Woodward and Lothrop.
    The joy of Woodward and Lothrop was not only location but 
its size and being able to come up with 350,000 to 400,000 
square feet, which is sort of the range we need in order to be 
moving over rent-paying activities from other places to help in 
the financing of that building. But there are opportunities 
around and we are spending a lot of energy right this instant 
on exploring those.
    Senator Gorton. I think maybe I will skip over to you, Mr. 
Wilker, because Woodward and Lothrop reminds us of the opera, 
and now you've got it. How has that impacted on the capital 
improvements at the Center?
    Mr. Wilker. Now that the opera has decided to remain at the 
Kennedy Center as its home it has caused us to look again at 
the center block project, since the opera will be the largest 
user of the Opera House, and that is one of the largest 
portions of the center block project.
    We will be in discussions with them over the course of this 
spring to determine what sort of impacts that will have on the 
way we go about doing our accessibility and life safety 
renovations of that particular facility.
    So we haven't delayed the center block project. But we have 
reordered within that the elements that we will take first. So 
we are working on the building systems and other areas and will 
push back the Opera House about a year.
    Senator Gorton. You say they will be the principal user of 
the----
    Mr. Wilker. In terms of dates. They will have about 26 out 
of the 40-week regular season of the Opera House.
    Senator Gorton. You were ecstatic, it seems to me, when you 
described the first renovation of the Concert Hall. It lived up 
to your expectations and everything that you thought would 
happen happened?
    Mr. Wilker. Then some. And more. Not only was it a cost 
effective renovation, but I think from a patron's standpoint, 
in terms of usability, in terms of accessibility, particularly 
for disabled patrons, it was a successful renovation. It has 
been called by many members of the press a model of 
accessibility for cultural institutions in the performing arts. 
So we are very proud of having a facility that is so accessible 
and so user-friendly.
    Senator Gorton. Back when this whole series of projects was 
first proposed, the 10-year plan was supposed to cost $171 
million. How accurate now is that figure?
    Mr. Wilker. We feel very confident that we can remain 
within that figure which we established at the beginning of the 
comprehensive plan. Each year we revisit the plan and update it 
and resubmit it to Congress, and we feel very good about 
staying within that budget.

                 Restrictions on Paul Mellon's bequest

    Senator Gorton. Well, Mr. Powell, you get to be last.
    With Paul Mellon's will, money, and paintings, do you have 
any restrictions on the use of the money or the way in which 
the paintings will be displayed?
    Mr. Powell. The bequest of funding is restricted to the two 
primary areas that Mr. Mellon has always been supportive of, 
which are acquisitions and educational programs. As far as the 
works of art go, we have no particular restrictions in terms of 
an obligation to display them all of the time or not. But they 
will be of such quality that we will want to display as many of 
them as we can.

                               Attendance

    Senator Gorton. In your gratifying and high attendance, how 
do you ascribe the portions of that attendance that are due to 
these very highly publicized special exhibitions as against 
your regular exhibitions themselves? How much have they 
enhanced attendance?
    Mr. Powell. Well, I think the Special Exhibitions Program 
is part of the equation that attracts the public as well as 
scholars. We have had enormously popular exhibitions in the 
last few years. And Secretary Heyman mentioned earlier that the 
attendance at the Smithsonian has been increasing. Ours has 
likewise been increasing incrementally each year. Part of that 
is due to special exhibitions.
    Many people come from outside the Washington area for 
special exhibitions, but the core audience is here. They tend 
to enhance one another. People who come for special exhibitions 
also then usually--I would say the vast proportion of them--go 
to the permanent collections.
    Special exhibitions tend to also attract first-time 
visitors to museums. They might tend to come for a Van Gogh or 
a Sargent and then go on and see other aspects of the museum. 
So they are very much hand and glove.
    Senator Gorton. Do you ever have lines just stretching 
around and around the block on a regular day?
    Mr. Powell. We have lines stretching not quite around the 
block but inside the National Gallery, down in the Rotunda, for 
the Sargent exhibition. Most of those folks seemed to be going 
off into the American and the Northern Galleries afterwards or 
before.

                            art care Funding

    Senator Gorton. One small budget item that I would like to 
ask about. Art care seems to be, as I understand it, $2 million 
less in the way that the budget request came to us than what 
was submitted to OMB. Is that a problem?
    Mr. Powell. We had put in a request for some support for 
the Art Nouveau exhibition----
    Senator Gorton. I see.
    Mr. Powell [continuing]. The millennium exhibition, and 
that did not go forward. But that would not impact on anything 
other than that program.
    Senator Gorton. I see.
    Mr. Powell. We are actively looking for support for that as 
we speak.
    Senator Gorton. All right then. I should like to thank each 
of you for your dedicated service and for the great enthusiasm 
each one of you has shown for his institution, enthusiasm that 
we think is well-warranted. And assuming that the budget 
resolution and Senator Stevens are generous enough, we hope to 
be able to help you out.

                     Additional committee questions

    Senator Gorton. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Bryan L. Dorgan
                     museum of the american indian
    Question. When will the ground-breaking occur and how long will 
construction of the Museum take?
    Answer. The ground-breaking for the National Museum of the American 
Indian Mall museum is scheduled for September 28, 1999. Site 
preparation work will begin this summer. We expect to have a general 
contractor for the building on site by spring 2000. Our projected 
public opening date is December 2002.
    Question. How is the collection being displayed in the interim?
    Answer. The collection is one of the world's largest assemblages of 
artifacts of the indigenous cultures of the Western hemisphere and 
includes nearly one million objects ranging from the Arctic Circle to 
Tierra del Fuego, and includes the Caribbean. Eighty percent of the 
collection is archaeological and 20 percent ethnographic.
    A portion of the collection is on display at the George Gustav Heye 
Center in the Alexander Hamilton U.S. Custom House in Manhattan. The 
Museum also has objects on display in Canada, Alaska, California, 
Virginia, Minnesota, Georgia and New York. And, three inaugural 
exhibitions are being planned for the opening of the Mall museum in 
2002.
    The majority of the collection currently is stored at the Research 
Branch which is located in the Bronx in New York. The Museum has 
initiated the process of relocating the collection to the Cultural 
Resources Center in Suitland, Maryland, which will be the home of the 
collection and serve as a research, conservation program and reference 
center for the Museum. In preparation for the move, a digitized image 
will be taken of each object which will make the collection more 
accessible to the public.
    Question. What is the status of repatriation of Indian remains and 
grave goods (pursuant to Public Law 101-185) held by the Smithsonian?
    Answer. National Museum of Natural History Repatriation Activity.--
Summary reports of potentially sacred or patrimonial objects were 
completed and mailed to all federally recognized tribes in February of 
1997. A total of 170 reports encompassing approximately 40,000 items 
from 193 cultures were produced and mailed to more than 1000 Native 
American organizations. A listing of some 200,000 culturally 
unidentified objects was distributed to the tribes in July of 1997.
    By June 1, 1998, the Repatriation Office completed and distributed 
inventory reports of the human remains and funerary objects held in the 
anthropology collections to all federally-recognized Native American 
tribes, Native Hawaiian organizations, and Alaska Native groups. These 
reports met the NMNH's long-standing commitment to finish an inventory 
of its Native American collection, distribute the results to the 
tribes, and meet the deadline requirements of the 1996 amendment to the 
National Museum of the American Indian Act. More than 1000 reports were 
sent to Tribes, Native Villages, Native Corporations, and other Native 
groups. More than 15,000 cataloged sets of human remains in the 
physical Anthropology collection and more than 230,000 items in the 
archaeology collections were reported in the inventories. Each 
inventory report contained a complete list of all human remains and 
archaeological objects from a specific State or group of States 
depending on the aboriginal territories of the groups involved.
    To date, skeletal remains of more than 3,224 Native Americans have 
been repatriated. By the end of 1999 an additional 1,500 sets of 
remains will be repatriated to tribes in the northern plains. This 
total, almost 5,000, returned by the beginning of the year 2000, 
represents approximately \1/3\ of the collection of Native American 
skeletal remains in the Museum. This number constitutes, by far, the 
largest number of repatriations by any organization in the United 
States. In addition, the NMNH has already returned more than 1,000 
funerary objects, of cultural patrimony, or sacred objects subject to 
repatriation under the law.
    For complete details on the NMNH Repatriation Office and all of its 
activities please visit our web site at: http://www nmnh.st.edu/anthro/
repatriation
    National Museum of the American Indian Repatriation Activity.--The 
National Museum of the American Indian's Repatriation Office has 
developed a strategy for the return of human remains and funerary 
objects to their affiliated indigenous communities at the 
recommendation of the NMAI's Board of Trustees. This plan anticipates 
the Museum repatriating remains directly from the Research Branch, in 
the Bronx, New York, rather than after their relocation to the new 
Cultural Resources Center in Suitland, Maryland. The current time line 
for the relocation of the collection from New York to Maryland is 
approximately five (5) years. The goal during this five year period is 
to facilitate the return of as many previously deaccessioned human 
remains and funerary objects as possible. NMAI staff members 
responsible for the treatment and disposition of the human remains 
agree that this is the most respectful approach to this sensitive 
issue, avoiding any unnecessary handling or disturbance of the human 
remains.
                outreach to areas outside of washington
    Question. What specifically are you doing to increase the 
accessibility of the Smithsonian's collection to people who are unable 
to visit Washington?
    Answer. The Smithsonian Institution lends approximately 200,000 
objects and specimens to over 1,300 domestic and 700 foreign 
institutions annually. Through this lending program, SI has assisted 
thousands of institutions with specific exhibitions and research 
projects. The Board of Regents adopted the Smithsonian Policy on 
Collections-Based Affiliations in September 1996 with the goal of 
dramatically increasing outreach to other educational institutions, and 
thereby a broader public, through longer-term loans that would be paid 
for by a third party.
    At this time, there are 22 active affiliations in 10 different 
States, the District of Columbia and Puerto Rico, and another 12 are in 
negotiation. A large number of 19th century collections from the Museum 
of American History have already been sent on long-term loan to 
Bethlehem, Pennsylvania, to the new National Museum of Industrial 
History.
    The Institution has also begun an aggressive program to digitize a 
large number of the Institution's collections for the purposes of 
research, preservation and increased public access. Digitized images 
will be linked to information on the object, as well as to associated 
exhibits and educational curriculum material. The capabilities of the 
World Wide Web are being utilized to deliver rich data from the 
Smithsonian's vast collections and research on these collections.
    Question. You referred to the SITES program and its outreach to 
rural communities. Can you provide me with a list of the communities 
served by the program? Are there any in North Dakota?
    Answer. SITES' mission is to share Smithsonian collections and 
resources through traveling exhibitions to educational, scientific, 
cultural, and commercial institutions across the United States. Since 
1952, SITES has circulated hundreds of exhibitions to thousands of 
locations in every State in the Union. Through an initiative called 
Museum on Main Street, SITES, in partnership with State humanities 
councils, provides rural museums with top-quality Smithsonian 
exhibitions and related public programs. Since 1994, 112 communities in 
20 States (see list below) have participated in this program, 
enlivening the cultural landscape in isolated communities, and at the 
same time, reaffirming the Smithsonian's role as the ``nation's 
museum.'' The North Dakota State Humanities Council has received 
information on Museum on Main Street, and SITES is awaiting their 
response to the most recent invitation to participate.
    In addition to its Museum on Main Street exhibitions, SITES reaches 
smaller communities through a partnership with the American Library 
Association and through an innovative railroad project called Artrain. 
Two exhibitions from these programs are scheduled for North Dakota: Art 
in Celebration! was presented onboard Artrain in Minot from July 23-26, 
1998; The Jazz Age in Paris: 1914-1940 will be shown at the Fargo 
Public Library from August 19--September 30, 1999. In addition, The 
Prairie Schoolhouse: A Photo Essay was shown at the Plains Art Museum 
in Fargo from November 28, 1998, to January 10, 1999.
                            Rural Initiative
                       participating communities
Butler, AL

Elberta, AL

Monroeville, AL

Scottsboro, AL

Bisbee, AZ

Jerome, AZ

Parker, AZ

Payson, AZ

Corona, CA

Lompoc, CA

Marysville, CA

Tulare, CA

Cartersville, GA

Cordele, GA

Dublin, GA

Gainesville, GA

La Grange, GA

Moreland, GA

Thomasville, GA

Waycross, GA

Boone, IA

Corning, IA

Spencer, IA

Wellsburg, IA

Carrollton, IL

Dixon, IL

Effingham, IL

Galena, IL

Lacon, IL

Lawrenceville, IL

Peru, IL

Pontiac, IL

Union, IL

Boonville, IN

Plymouth, IN

Salem, IN

Vincennes, IN

Arkansas City, KS

Colby, KS

Elkhart, KS

Fredonia, KS

Hiawatha, KS

Highland, KS

Lindsborg, KS

Winfield, KS

Alpena, MI

Caspian, MI

Cass City, MI

Charlotte, MI

Coloma, MI

Escanaba, MI

Grand Haven, MI

Lake City, MI

Milford, MI

Port Huron, MI

Ray, MI

Three Rivers, MI

Doniphan, MO

Madden, MO

Park Hills, MO

West Plains, MO

Auburn, NE

Cozad, NE

Fairmont, NE

Harrisburg, NE

Kidron, OH

McArthur, OH

Paulding, OH

St. Paris, OH

Astoria, OR

Grants Pass, OR

Heppner, OR

Milton-Freewater, OR

Moro, OR

Newport, OR

North Bend, OR

Philomath, OR

Prineville, OR

Brownsville, TN

Butler, TN

Clifton, TN

Greenville, TN

Castle Dale, UT

Delta, UT

Ephraim, UT

Heber City, UT

Kanab, UT

Monticello, UT

Payson, UT

Vernal, UT

Wellsville, UT

Culpeper, VA

Lancaster, VA

Pulaski, VA

Bremerton, WA

Dayton, WA

Goldendale WA

Ilwaco, WA

Metaline Falls, WA

Redmond, WA

Vancouver, WA

Westport, WA

Elkins, WV

Lewisburg, WV

Mannington, WV

Point Pleasant, WV

Ripley, WV

Romney, WV

Sutton, WV

Weston, WV

Wheeling, WV

                            lewis and clark
    Question. As you are aware, the bicentennial of the Lewis and Clark 
expedition is fast approaching. What is the Smithsonian doing to 
commemorate the event? Are any events or programs planned to occur at 
locations along the Lewis and Clark trail?
    Answer. The Missouri Historical Society (MHS) is planning a major 
exhibition to open in St. Louis in January 2004 with loans of up to 
1,000 objects from collections nationwide, and expects to share it with 
up to five museums across the country. Several Smithsonian curators and 
staff members are consulting on content and presentation. SITES is in 
the earliest stages of discussions with the MHS to develop a smaller 
version of the exhibition that can be shown at locations along the 
Lewis and Clark trail.
    The National Museum of Natural History's (NMNH) Natural Partners 
Program is developing several national educational outreach projects 
using the Lewis and Clark theme. These projects will allow students and 
teachers to learn about the Lewis and Clark expedition by incorporating 
object-based learning utilizing the Smithsonian's collections. Several 
of these projects will involve a web site which will contain elaborate 
databases, curriculum, learning games, and project ideas. All of these 
projects will show how scientists conduct their research. The projects 
are as follows:
    Digital Collections Database.--Natural Partners will be digitally 
recreating the natural history specimens, tools, weapons, instruments 
and other objects documented in the Lewis and Clark journals. They will 
develop an access and use strategy of the combined digital collections 
to maximize their value as a research and educational database for 
school children, teachers and scholars. The digitization project will 
be launched in 2002 to coincide with the Lewis and Clark 200th 
anniversary.
    Mammals in the Schools.--Mammals in the Schools will bring mammal 
specimens to the classroom. This project will provide object-based 
learning activities based on the mammals that Lewis and Clark 
encountered on their expedition. Mammals in the Schools will also be 
launched in 2002.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Please describe the extent of the Smithsonian's 
collection related to the history and development of the movie 
industry, particularly California's contribution to this industry.
    Answer. The Photographic History Collection (PHC) in the National 
Museum of American History (NMAH) focuses on the professional and 
amateur developments in the history of the science, technology and art 
of photography. In 1896, the unit was established by the Smithsonian's 
first official photographer, Thomas Smillie. Because PHC arose out of 
the photography-producing unit of the Smithsonian, there has been a 
strong apparatus, process and technological interest in its 100+ years 
of collecting. PHC preserves approximately 150,000 images and 10,000 
pieces of still and moving picture apparatus. The objects in the early 
motion picture apparatus collection in PHC are the roots of today's 
film industry.
    The motion picture apparatus collection in PHC consists of 
approximately 1000 objects of which some 300 pieces (cameras, 
projectors, accessories and patent models) are pre-cinema and early 
motion picture (1790-1915). Films were transferred to the Archives 
Center, NMAH and the Motion Picture Branch at the Library of Congress.
    The question regarding California's contribution to the movie 
industry is more fully answered by the professional historians in 
California, like Herb Farmer at the UCLA archives. The Smithsonian 
recognizes this important history and will continue to work 
collaboratively with places like UCLA to ensure that the Institution's 
collections and expertise reach the broadest possible public.
    Question. The spring 1998 issue of Sixteen Frames, the Journal of 
the Movie Machine Society, reports that the Smithsonian has an 
extensive collection of early American movie apparatus which he 
describes as ``valuable treasures, valuable because these machines so 
eloquently speak the language of American technological thinking. In 
them we find shadows of the long gone men who conceived and built them. 
Some of these treasures have not been seen for years.'' The article 
notes that the public does not have access to this collection in that 
there have been no exhibits.
    What are the plans for preserving this collection?
    Answer. The importance of the pre-cinema and early motion picture 
apparatus collection has re-emerged thanks to the recent efforts of 
John Hiller, a long-time Smithsonian staff member, who has been 
detailed part-time to PHC. Hiller, a California native, and an 
experienced and talented Smithsonian cameraman, has spent the last year 
and a half cataloging, describing and researching the collection. This 
work has resulted in a large database, with images, that will be mapped 
to the museum-wide collection information system database. Eventually 
this database will be available within the Museum and on the World Wide 
Web.
    One of the benefits of Hiller's work has been his networking with 
motion picture and magic lantern societies, connecting with film 
historians and writing articles indicating to researchers, historians, 
scholars, film professionals and students that this collection exists 
and is available for study. The spring 2000 issue of the History of 
Photography Journal, the field's most prestigious and widely read 
periodical, has devoted an entire issue to PHC. Among the articles is 
one by Hiller. His article contextualizes the motion picture apparatus 
collection and its relationship to the rest of the collection.
    The Museum's early motion picture apparatus is stored off-site at 
the Museum Support Center in Suitland, MD with the rest of PHC's 
equipment collection. Over the last seven years, the Museum spent 
considerable time and energy rehousing and cataloging every PHC object 
that went to the Suitland.
    Question. Are there plans to expand it?
    Answer. PHC actively collects in the history of early motion 
pictures as donation and purchase opportunities arise.
    Question. Are there plans to prepare an exhibit for the public or 
otherwise provide the public an opportunity to view the collection and 
learn about the early years of the industry?
    Answer. Like many of the collecting units at the Smithsonian, we no 
longer have a specific gallery in the Museum for permanent exhibitions. 
The Hall of Photography was disassembled in 1992. Those objects and 
others are made available as requested. As we move further into the 
digital age, more of the objects will be publicly accessible. In 1995, 
the Museum curated a History-in-the-News showcase, Magic Lanterns Magic 
Mirrors: A Centennial Salute to Cinema. The virtual exhibition can be 
viewed on the NMAH web site at: http://www.si.edu/nmah/ve/cinema/
cinema.html. There are no current plans for a specific early motion 
picture exhibition. Creating such an exhibition would require extensive 
outside funding. However, the National Museum of American History is 
crafting the exhibition, ``New Views into the Collections'' in which 
PHC objects will be included. The Museum will continue to consider 
loaning objects to appropriate educational institutions for their 
exhibitions. PHC has also made objects available at several conferences 
and lectures for lecture attendees and conference members to view, 
study and discuss. PHC stafff requently answer individual inquiries 
about motion picture apparatus and are amenable to taking researchers, 
scholars, museum personnel and others to visit off-site storage.
    Question. Is there a curator for this collection?
    Answer. The Photographic History Collection department staff 
currently consists of three full-time staffwith the Curator of Graphic 
Arts as Acting Curator of Photography.

                          subcommittee recess

    Senator Gorton. The subcommittee will stand in recess until 
2 p.m., Thursday, March 18, when we will receive testimony from 
Hon. Bill Richardson of the Department of Energy, on energy 
conservation, fossil energy research and development, and other 
DOE programs.
    [Whereupon, at 10:53 a.m., Tuesday, March 16, the 
subcommittee was recessed, to reconvene at 2 p.m. Thursday, 
March 18.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:03 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Campbell, and Byrd.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. BILL RICHARDSON, SECRETARY OF ENERGY
ACCOMPANIED BY DAN REICHER, ASSISTANT SECRETARY OF ENERGY

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. We will start this hearing. I certainly 
want to welcome you, Mr. Secretary. This is your first 
appearance before this subcommittee, though you do spend a fair 
amount of time up here before one committee or another.
    Your fiscal year 2000 budget request for programs under 
this subcommittee's jurisdiction is a mixed bag. On the one 
hand, there is a 33-percent increase for the Energy 
Conservation Program; while a $256 million deferral is 
requested for Clean Coal Technology; a 5-percent decrease in 
the Fossil Energy R&D Program; and no funds for the Naval 
Petroleum and Oil Shale Reserves.
    Each of these requests raises questions that we will get to 
later in the hearing. For now, I would like just to put the 
President's request in its proper context, given where I think 
we are heading in this budget.
    The budget request, as a whole, employs a variety of new 
taxes, fees, and accounting gimmicks to reach a total 
discretionary spending level that is $25 billion above the 
fiscal year 2000 statutory discretionary cap enacted in 1997.
    Very few of the proposals that produce this $25 billion in 
additional spending will be enacted by this Congress, and 
virtually none of that amount is likely to be available to the 
Appropriations Committee when it begins to work on the bill for 
the year 2000.
    The Interior Subcommittee's pro-rata share of this $25 
billion would be about $625 million, which would eliminate a 
large share of the $1 billion increase requested by the 
President for Interior bill programs.
    We are, however, likely to take far more than a pro-rata 
share of this reduction, as it is the intention of the 
Republican leadership to make increases in education and 
defense spending high priorities within the existing caps.
    This ultimately means the subcommittee will be fortunate to 
so much as maintain the fiscal year 1999 funding levels. It is 
also worth noting that the increases in pay costs for federal 
workers and GSA rental rates, items over which this 
subcommittee has very little control, will amount to more than 
$290 million for the Interior bill agencies in fiscal year 
2000.
    These costs must either be funded or absorbed by programs. 
While we will continue to challenge agencies to find ways to 
deliver programs more efficiently, in the context of flat or 
reduced subcommittee allocations, these mandatory cost 
increases leave no room for large program increases, such as 
those contemplated in the President's request for energy 
conservation programs.
    In this environment, Mr. Secretary, we will need your 
assistance and that of your staff in setting priorities. We 
will be compelled to make tough choices, but I firmly believe 
we will make better choices if we have the benefit of your 
expertise and candor.
    Senator Byrd is now here. And Mr. Secretary, I must confess 
to you that right now there is a Kosovo briefing going on 
upstairs in the Capitol. There are two rollcall votes on the 
floor of the Senate, set for approximately 2:30. I am a member 
of the Budget Committee. We will have three votes sometime 
shortly after that.
    So, as a practical matter, I think we have got 30 minutes 
for your statement and for questions. That does not reflect the 
importance of what you have to say or our view of the 
importance of the programs that you are backing here.
    And I, once again, reiterate that we are really going to 
want your help and cooperation as we go through a difficult 
year, and to tell you that from my own personal point of view, 
your response to my requests, since you have been confirmed as 
Secretary, have been thoughtful and--and really reasonably 
affirmative. And I certainly thank you for that and have 
enjoyed our relationship.
    Given our short period of time, Senator Campbell, I would--
--

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Mr. Chairman, I agree with you, we have a 
very short period of time. And I think what I will do is submit 
my questions for the Secretary in writing.
    I just have to say, I am happy to see that he is here and 
healed up pretty well since yesterday's being a witness in 
front of our joint committee. But I did want to say, since I 
will also have to leave, that I have some real concerns.
    I am--I--my friend from New Mexico, by the way, Mr. 
Chairman, we--we voted on the southwest Colorado when I was in 
the House side serving with him on the Interior Committee. He 
was from north New Mexico. And so, we spent a lot of time 
together. And he is very, very knowledgeable about all of the 
things we face out there.
    Today, I would hope that--even though it is not perhaps 
directly in your testimony, that you would reassure us that you 
are absolutely and firmly committed to getting that annum 
sublata done.
    And second, we obviously have this problem with Rocky Flats 
in our State. And I would--he has made it a priority. I think 
that is reflected in the Administration's budget this time, but 
I am concerned with one thing that I am hearing through the 
DOE, that they are talking about building temporary facilities, 
like tents, to store some materials that are radioactive, some 
hazardous, called TRUW or Transuranic Waste. And I want him to 
assure us that that is not going to prolong the closing in 
2006. And that, in fact, it is temporary.
    And also, I understand the DOE is talking about adding more 
work to Rocky Flats. And I cannot understand how you are going 
to put more work into Rocky Flats and still be committed to 
closing it by 2006.
    But I just wanted him to know that I am going to explore 
some language to put in this committee's bill that would 
require that if those temporary facilities are built here, that 
they are safe, they are temporary, and in fact, they will not 
add to the timing of the closures.
    And with that, Mr. Chairman, if I have the time, I might 
ask a few questions later, but I would ask you--the Secretary 
to send his answers back to us if we do not get back to him.
    Senator Gorton. Senator Byrd, you, obviously, are very 
welcome here. As you know, we have rollcalls at--votes at 2:30, 
and then a Budget Committee Markup.
    Senator Byrd. Yes.
    Senator Gorton. So, I think this is going to be a fairly 
short time with the Secretary, but we would be delighted to 
hear what you have to say, because your State is certainly 
affected by this budget.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. Thank you. And thank you, Mr. 
Secretary. You are here to defend the President's budget 
proposal for some of these programs that are very vital to the 
nation. But I am not sure that this budget request is 
defensible.
    The President proposes sizable funding deferrals and 
reductions in the Clean Coal Technology Program and in fossil 
energy research and development, two of the most important 
programs in the Interior bill.
    These two programs are critical to the resolving of climate 
change issues in this country and also overseas, and can 
provide significant sales for U.S. companies abroad.
    In my opinion, the budget request of the Administration 
indicates a lack of understanding about the importance of these 
programs and a lack of cohesive energy and climate change 
policy. And it seems incredibly out of balance with the energy 
research and technology needs to move our country and the world 
into the 21st century.
    Now, taking a close look at Clean Coal Technologies, coal 
is an important, abundant, and cost-effective source of energy 
for our country and the world. And we have made great progress 
in developing technologies for burning coal more cleanly and 
efficiently. But there is more important work to be done.
    About $385 million in program obligations of the original 
plan remain to be funded. Yet the President's budget request 
for fiscal year 2000 proposes a huge deferral of $256 million.
    Does not this deferral and the companion threat of no 
future funding place the program in jeopardy? Deferral sounds 
so harmless. Well, we are just delaying that. Just putting it 
off. You come back next year with your appropriations for it. 
But it is difficult to come back next year and get the 
appropriations, because we have to find offsets next year for 
any appropriations we add.
    So, we make for ourselves real problems for the next go 
around, when we have these deferrals.

                         CLEAN COAL TECHNOLOGY

    So, what assurances can you offer that the Clean Coal 
Technology funds proposed for deferral in the President's 
fiscal year 2000 budget will ever be made available to complete 
the current obligations of the Clean Coal Technology Program?
    Senator Gorton. OK. I think we better give you your--your 
opportunity at this point. And if you would like to answer that 
question as part of your opening statement----

               SUMMARY STATEMENT OF HON. BILL RICHARDSON

    Secretary Richardson. First of all, I am delighted to 
testify before you and this committee, and not on China.
    Second----
    Senator Gorton. Good thinking.

                           prepared statement

    Secretary Richardson I will also not give a 30-minute 
opening statement, which I had.
    Senator Gorton. We'll include that in the record.
    [The statement follows:]
               Prepared Statement of Hon. Bill Richardson
    Mr. Chairman, and Senators, it's my pleasure to be with you to 
discuss the Department of Energy's budget request for fiscal year 2000.
    Thank you for your support in helping ensure that the Department of 
Energy continues succeeding in its missions which are crucial to 
America's future. I know that several of you have major DOE facilities 
in your States and you work closely with our people. In return, we want 
to be good neighbors to you. I plan to spend a lot of time ``on the 
ground'' at these sites. I've already visited more than 25 of our sites 
since coming to the Department this past August. I look forward to 
working closely with you to maximize the value of DOE's presence in 
your States.
    I knew I was taking on an important challenge by coming to the 
Department. For several years now, DOE has been asked to do more for 
the nation while using fewer resources. Our staff has been cut by 25 
percent in less than four years while its responsibilities have grown. 
Also, quite frankly, the Department needs a thorough examination and 
infusion of the same pioneering spirit that enabled it and its 
predecessor agencies to achieve spectacular successes and to benefit 
our nation immensely. As I view DOE today, it doesn't need rebuilding, 
but I think its batteries need a good recharging. That's where I see my 
role. I'm here to help provide a new perspective to the Department and 
to help make it one of our best cabinet agencies.
        science, security and energy: powering the 21st century
    In this year's State of the Union message, the President set a bold 
agenda to lead our nation in meeting the challenges of the 21st 
Century. The Department's capabilities place it at the forefront of 
America's technological advance into the next millennium. This budget 
will enable our people to use DOE's capabilities in science, security 
and energy to power the 21st Century with American ingenuity, 
competitiveness, and technological breakthroughs that will dramatically 
improve our quality of life.
    The President's agenda and budget build on a record of 
accomplishment. For example, just five of the technologies and 
innovations developed through this Committee's funding are responsible 
for over $33 billion in net savings to consumers and businesses--that 
is, energy savings less any additional costs of the associated 
efficiency improvements. The five innovations are: the flame retention 
head oil burner, the efficient refrigerator compressor, building design 
software [DOE-2], the electronic fluorescent lamp ballast, and advanced 
window coatings. All were developed by DOE, and are successful 
commercial products, today holding market shares from 15 to 100 
percent. DOE's total cost to develop these technologies was less than 
$30 million. Our success formula seeks to improve technologies and 
methods and to work with industry, consumer groups, and other 
organizations to accelerate market acceptance of those improvements.
    Another example of the value of federal and private sector 
partnerships in research and development is the Partnership for a New 
Generation of Vehicles (PNGV). DOE is cost-sharing with private 
industry to develop a smarter, smaller, less expensive electric power 
system for the ``car of the future.'' They've already shrunk this 
system from the size of a large suitcase to smaller than a shoe box. 
Now they're working to cut its $10,000 cost to less than $500.
    Our environment is cleaner today than at any time in the past 
quarter century. Still, global climate change poses major environmental 
challenges for the entire world. Our efforts at Kyoto helped negotiate 
an international agreement to reduce greenhouse gas emissions in an 
environmentally strong and economically sound way. Research and 
development, and accelerated use of energy efficient and clean energy 
technologies are major components of the President's Climate Change 
Technology Initiative (CCTI). Even without global climate change, these 
investments are wise national policy, increasing our energy security, 
improving our air quality, and strengthening our national economic 
competitiveness. Our budget seeks to increase support for CCTI programs 
by about 25 percent. Included among this broad and balanced R&D 
portfolio are: clean, advanced fossil energy technologies; carbon 
sequestration; and, energy efficiency applications in the building, 
industry, and transportation sectors.
    We are requesting a 33.4 percent increase for Energy Conservation. 
Programs benefitting the most are in the Building Technology, 
Transportation and Industrial sectors, and the Federal Energy 
Management Program, which will enable us to pursue our ambitious goals 
of: cutting energy use in new homes 50 percent by 2010; lowering power 
bills for America's most energy intensive industries, making them even 
more competitive internationally; continuing cuts in federal energy use 
so by 2005, it's reduced by 30 percent from its 1985 level; 
weatherizing nearly 80,000 homes to make winters warmer and summers 
cooler for low-income residents, while lowering utility bills; and, 
providing ways to cut school energy costs through ``Energy Smart 
Schools''.
    The U.S. is expected to remain dependent on fossil fuels for about 
85 percent of its energy consumption for at least the next 20 years. 
One of the Department's key goals is to ensure that economic benefits 
from low-priced fossil fuels do not come with unacceptable 
environmental costs or energy security risks. Natural gas can play a 
key role in slowing the rate of carbon dioxide emissions and be a 
bridge to a renewable energy future. The programs in this budget 
include a portfolio of activities designed to accomplish this.
    Preserving America's energy security is among the Department's 
chief responsibilities, and one which this Committee has worked hard to 
ensure. Today's world-wide, near-record-low oil prices have adversely 
affected domestic oil production, as well as increased U.S. oil 
consumption, resulting in greater dependency on imported oil. In fact, 
as the world's largest consumer of fossil fuels, the U.S. imported 
about half its 1998 daily oil consumption of 18.7 million barrels.
    The 1973 oil embargo pointed out how vulnerable we had become to 
supply disruptions in foreign oil. Since then, we've diversified our 
suppliers and prepared for unexpected supply disruptions. In fact, with 
this Committee's help, we've stored 561 million barrels in the 
Strategic Petroleum Reserve (SPR). We're requesting $164.0 million to 
operate the SPR in fiscal year 2000, without having to rely on the sale 
of oil. As you know, we are planning to partially refill the SPR with 
federal royalty oil from the Central Gulf of Mexico, which I announced 
two weeks ago. In a cooperative transfer from the Department of 
Interior, we plan to replace about 28 million barrels which were sold 
in fiscal year 1996 and 1997, largely for deficit reduction purposes. I 
feel it makes good business sense to take advantage of today's low oil 
prices to rebuild our reserves. At the same time, we're enhancing our 
national energy security, increasing our strategic assets, and getting 
a very good deal for the American taxpayer. This plan would enable the 
government to add oil to the SPR without an appropriation or any budget 
offsets.
    To concentrate its resources on the most pressing problems, the 
Department's Fossil Energy program has integrated its R&D activities in 
petroleum and natural gas to maximize advantages of technologies that 
benefit both oil and gas production. Examples of this shared R&D 
include advanced seismic technologies, new drilling systems, and more 
cost-effective environmental compliance options. This work could yield 
an extra one million barrels of oil per day and more than two trillion 
additional cubic feet per year of domestic gas production by 2010. 
These expected DOE and industry breakthroughs could ultimately save the 
oil and gas industry $16 billion in environmental compliance costs by 
2010.
                         fy 2000 budget request
    The Department's fiscal year 2000 budget request, before the 
Interior and Related Agencies Appropriations Subcommittee, proposes 
funding of $1.229 billion, a 1.9 percent reduction, or $23.7 million 
below the fiscal year 1999 appropriation. The reduction in budget 
authority is the result of an increased deferral of Clean Coal 
Technology funding, from $40.0 million in fiscal year 1999 to $256.0 
million in fiscal year 2000, and the ability to fund the required $21.2 
million operating budget of the Naval Petroleum and Oil Shale Reserve 
account entirely from prior year balances. A total of $375.0 million is 
proposed for Fossil Energy R&D, offset by $11.0 million in prior year 
balances.
    Within the total request, we are proposing $837.5 million for 
Energy Conservation; a 2.4 percent increase, to $164 million, for the 
Strategic Petroleum Reserve; and an 11.0 percent increase, to $2.0 
million, for Economic Regulation activities. The request for the Energy 
Information Administration rises by 3.0 percent, to $72.6 million. 
Following are highlights of some of the specific activities we are 
proposing for fiscal year 2000.
                           energy efficiency
    The Energy Efficiency programs funded by this Subcommittee improve 
fuel economy of automobiles and other vehicles, increase productivity 
of the nation's most energy-intensive and polluting industries, and 
improve energy efficiency of buildings and appliances. The fiscal year 
2000 budget requests $837.5 million for the Department's Energy 
Conservation programs, an increase of $209.8 million over the fiscal 
year 1999 level. An amendment to the Petroleum Overcharge Distribution 
and Restitution Act, contained in the Omnibus Consolidated and 
Emergency Supplemental Appropriations for fiscal year 1999, transferred 
most of the refined product funds held in escrow for payment of refund 
claims to EE for use in Energy Conservation programs in fiscal year 
1999. As a result, there will be no PODRA funds used for funding EE 
during fiscal year 2000.
    Transportation economies for the 21st Century.--The U.S. 
transportation sector depends on oil for 97 percent of its fuel 
requirements. The Office of Transportation Technologies (OTT) funds 
research, development and deployment of technologies that can 
significantly alter current trends in energy usage. Developing and 
commercializing these innovative technologies and alternative fuels is 
the nation's best strategy for diversifying our use of fuels and 
dramatically reducing criteria pollutants and greenhouse gas emissions 
from the transportation sector. The DOE is a leader in the government's 
Partnership for a New Generation of Vehicles (PNGV) which focuses on 
significantly improving automobile energy efficiency and reducing 
emissions. The fiscal year 2000 PNGV request of $143.1 million, a $15.0 
million increase, will focus on key component technologies, including 
fuel cells, advanced direct-injection engines, exhaust control, 
advanced batteries, and electronic power controllers. An increase of 
$2.8 million in the Clean Cities program, providing $10.7 million for 
fiscal year 2000, will advance infrastructure development to speed the 
deployment of alternative fuels in over 65 communities.
    Industrial energy technologies.--Industry consumes over one-third 
of the energy delivered in the U.S. and spends tens of billions of 
dollars annually for pollution abatement and control. Nine industries 
account for 75 percent of the energy used in manufacturing: forest 
products, steel, aluminum, metal-casting, chemicals, petroleum 
refining, agriculture, mining and glass. These industries also account 
for over 80 percent of pollutant emissions and over 90 percent of the 
waste produced by U.S. manufacturing. The Office of Industrial 
Technologies focuses on developing innovative technologies to assist 
the nation's most energy-intensive industries to become more resource 
efficient and economically competitive, and pollute less. The budget 
requests $171.0 million for the Industries of the Future program. This 
amount reflects a reduced requirement of $21.0 million in the Turbine 
program, which has reached a stage where less government funding is 
needed. Thus, the $171.0 million request actually represents an 
increase in all the remaining Industries programs.
    Improved energy efficiency for building technologies.--America's 
homes and offices consume $232.0 billion worth of energy each year. 
Heating and cooling, lighting, appliances, and equipment account for 
over one-third of U.S. carbon dioxide emissions. The Department is 
requesting $335.9 million for the Office of Building Technology, State 
and Community Programs (BTS), including $88.2 million for Building 
Research and Standards, $41.4 million for Building Technology 
Assistance--non grants, and $154.0 million for the Weatherization 
Assistance Program and $37 million for the State Energy Program. The 
budget allows the Department to implement technology roadmaps and 
provide the next generation of energy-efficient, environment-friendly 
technologies industry requires.
    Federal Energy Management Program.--As America's largest energy 
customer, the Federal Government spends $8 billion each year on energy 
for its facilities and operations. The Federal Energy Management 
Program (FEMP) helps federal agencies identify, finance, and implement 
energy efficiency improvements for their facilities. This saves money 
for U.S. taxpayers through reduced federal energy spending. The FEMP 
request for fiscal year 2000 is $31.9 million, an increase of $8.1 
million over fiscal year 1999.
    Management Improvements.--During the past year, the Department of 
Energy has intensified its efforts to increase competition, achieve 
results-oriented quality and performance program measures, and increase 
efficiencies in management of construction. As part of these efforts, 
the Office of Energy Efficiency and Renewable Energy has been focusing 
on resolving long-standing management issues to increase dividends from 
its investments in new energy technologies. Specific management reforms 
accomplished this past year, and new initiatives, include:
    Strategic Planning for Results and Technology Roadmaps.--EERE is 
developing a results-oriented strategic plan, building on technology 
roadmaps being developed, and focusing on procurement and business 
strategies.
    Increasing Competition and Refining Merit Review Processes.--EERE 
is increasing funds competitively awarded, by issuing both targeted and 
broad-based solicitations for research, development, and demonstration 
proposals, and for information dissemination and outreach. The Broad-
Based Solicitation for Information Dissemination and Outreach, issued 
in December, 1998, has attracted more than 400 applications. We are 
convinced it will bring many new, high quality participants, including 
leading universities and researchers, into DOE's energy-efficiency 
community. Also, in 1998, the Department completed the competition for 
its billion-dollar management and operating contract for the National 
Renewable Energy Laboratory in record time and with an improved focus 
on mission results.
    Managing Smarter.--EERE has reduced its uncosted balances for 
Energy Conservation Research and Development programs by 38 percent 
between the beginning of fiscal year 1996 and the beginning of fiscal 
year 1999. It also has increased the proportion of funding for mission 
functions and reduced the proportion for support costs.
    Strengthening Program Integration.--Recognizing solutions to energy 
challenges often cross sector lines, EERE is increasing integration 
across technologies and across their applications. Two leading examples 
are Bioenergy and the EnergySmart Schools Initiative.
    Leveraging Federal Investments by Expanding Partnerships with 
Federal, State and Other Entities.--EERE is working closely with 
national laboratories, businesses, universities, nonprofit 
organizations, and the Congress to establish R&D priorities, conduct 
high-priority research, facilitate private-sector technology 
deployment, and disseminate information. Their EERE Regional Support 
Offices are strengthening delivery of services at State and local 
levels.
    Increasing Emphasis on Project Management.--As EERE increases its 
role in demonstration projects, it will strengthen its capabilities in 
project management of costs, schedules, and performance.
    Emphasizing Program Evaluation and Continuous Improvement.--EERE 
has discontinued activities that have not met predetermined goals and 
will continue to modify its strategies based on results from its 
program analysis and evaluation.
                 fossil energy research and development
    The fiscal year 2000 request for Fossil Energy Research and 
Development is $375.0 million, including $11.0 million from prior year 
balances for a net fiscal year 2000 request of $364.0 million. This 
level continues investments in advanced technological concepts, such as 
the capture and sequestration of CO<INF>2</INF>, and development of 
advanced, highly efficient, power generation and fuel producing 
technologies that together could reduce, or perhaps nearly eliminate, 
carbon emissions from fossil fuel facilities. In a world nearly 90 
percent dependent on fossil fuels, development of new technologies 
along these lines will help maintain strong economic growth while 
meeting existing and new environmental goals.
    The Department's fiscal year 2000 Natural Gas and Petroleum 
programs continue to emphasize technology transfer, especially to 
independent producers that make up an increasingly large share of the 
domestic oil and gas industry. The fiscal year 2000 program also 
includes support for follow-on advanced oil recovery projects, 
especially where prior field tests have shown that such projects could 
be the difference in keeping oil flowing in fields that otherwise would 
be abandoned.
    Coal.--The fiscal year 2000 request for advanced coal-related R&D 
technologies is $122.4 million, which is basically the same as fiscal 
year 1999. The program will begin to couple progress made to date in 
advanced gasification and combustion systems, coal conversion, and 
environmental controls, with potentially revolutionary approaches to 
carbon sequestration, in a concept called the ``Vision 21 Powerplex.'' 
Its goal is to develop a set of advanced technology modules that could 
be configured into a new class of fuel-flexible facilities for both 
central and distributed energy production in the 2010-2030 time frame. 
These new facilities would be capable of co-producing electric power, 
process heat, and high value fuels and chemicals at peak efficiencies 
with virtually no emissions of air pollutants. The $28.9 million for 
the Vision 21 concept could ultimately be combined with the $9.1 
million in fiscal year 2000 funding elsewhere in the FE R&D budget for 
carbon sequestration, to produce a class of fossil fuel-based energy 
complexes with virtually no environmental impacts outside of their 
physical ``footprints.'' Work also continues on characterizing and 
reducing pollutants such as particulates (PM2.5), air toxics, and 
NO<INF>X</INF> from existing powerplants.
    Petroleum.--The fiscal year 2000 request for Oil Technology 
activities is $50.2 million, an increase from the fiscal year 1999 
appropriation of $48.6 million. The majority of the Department's Oil 
Technology program continues to focus on providing independent 
producers with advances that can keep oil flowing from U.S. reservoirs 
that would likely be abandoned with conventional technology. In the 
fiscal year 2000 budget, funding for a preferred ``Petroleum Upstream 
Management Practices'' (PUMP) program will be initiated, focusing on 
best management practices, data management, and effective environmental 
compliance.
    Gas.--The fiscal year 2000 request for gas-related R&D is $105.3 
million. The supply portion of the Gas budget, $25.9 million, will 
continue to focus on advanced technologies that can locate and produce 
gas that otherwise would be bypassed or unmarketable. In addition, a 
small $2.0 million R&D program in methane hydrates is being initiated 
with the long-term goal of converting the large potential gas hydrate 
resource (estimated at up to 200,000 trillion cubic feet, or over one 
hundred times the amount of US conventional gas resource) into economic 
gas reserves. The gas budget also continues to support two high-
priority power generation technologies--High Efficiency Gas Turbines, 
and Advanced Fuel Cells--that could enhance the future use of natural 
gas, as well as ultimately contribute to higher-efficiency coal-based 
power generation. In the power generation Advanced Gas Turbine program, 
DOE is requesting $41.8 million, which will enable it to complete full-
scale component/subsystem testing and engine manufacturing, and begin 
full speed prototype testing of a new class of gas turbines with 
unprecedented efficiency and environmental performance. DOE is 
requesting $37.6 million for the Fuel Cell program in fiscal year 2000, 
to continue R&D to reduce costs and improve performance for market-
ready systems early in the next decade. In fiscal year 2000, the 
program will begin testing of the first market prototype solid oxide 
fuel cell at commercial sites for distributed power applications. In 
addition, $5.0 million of fuel cell activity is included in the Vision 
21 activity in the Coal program.
                      strategic petroleum reserve
    The Strategic Petroleum Reserve (SPR) remains a crucial element of 
our national energy security policy. The fiscal year 2000 budget 
request for SPR operations and maintenance is $159.0 million, a 1 
percent reduction from the fiscal year 1999 appropriation and a 44 
percent reduction from fiscal year 1996's peak level of $284.1 million. 
These reductions reflect the successful completion in fiscal year 2000 
of the Life Extension Program and Weeks Island Decommissioning, as well 
as the completion of treatment for gas-in-oil by the end of the first 
quarter fiscal year 1998. This 1 percent decrease reflects the 
resumption of post Life Extension Program full standby operations and 
maintenance activities offset by the reduction in funding for the Life 
Extension Program. The fiscal year 2000 budget request for the SPR 
Petroleum Account is $5.0 million. At the end of fiscal year 1998, the 
account's remaining balance of $33 million was capable of supporting 
approximately 55 percent of a full SPR emergency drawdown for a six-
month period. This addition assures the capability to sustain drawdown 
operations for close to four months of the six-month performance 
criteria.
    Although the budget does not request funding for oil acquisition, 
the Administration has determined that the very low price of oil makes 
this an ideal time to replace the oil that was sold during 1996 and 
1997 for budget balancing purposes. In addition to the transfer of 28 
million barrels of federal royalty oil from the Department of Interior, 
I have directed that the remaining unutilized capacity of the SPR be 
offered for private storage, thereby adding oil to the SPR.
                         clean coal technology
    The fiscal year 2000 budget reflects a net amount of $246.0 million 
of previously appropriated budget authority be deferred until fiscal 
year 2001 and beyond. The proposed deferral of funds reflects schedule 
delays, primarily resulting from project restructuring activities. The 
40 active projects have a total cost of $5.7 billion, of which DOE has 
committed $1.9 billion. At the end of fiscal year 2000, 29 projects are 
expected to be completed and one additional project is expected to 
complete operation and begin preparing final reports. Four projects are 
expected to be in operation, three projects in construction, and three 
projects in design. At the end of fiscal year 2000, two projects are 
expected to have outstanding obligation commitments. In fiscal year 
2000, the Clean Coal Program will complete the demonstration of Pinion 
Pine, the third integrated gasification combined cycle project, using 
air-blown gasification and hot gas cleanup for improved thermal 
efficiency; and continued operations of the Polk project in order to 
establish the engineering foundation leading to a new generation of 60 
percent efficient powerplants.
            naval petroleum reserves and oil shale reserves
    The fiscal year 2000 budget of $21.24 million is to be funded 
entirely from prior year balances. No new funds are being requested for 
fiscal year 2000. During the fiscal year, ongoing activities will be 
funded from prior year balances which resulted, in large part, from 
terminating operations at NPR-1 during fiscal year 1998. Fiscal year 
2000 ongoing activities include the continued operation of the Teapot 
Dome Oilfield, the Rocky Mountain Oilfield Testing Center, 
environmental remediation activities at Teapot Dome, environmental and 
cultural resource assessments at NPR-1, with some remediation activity 
anticipated, finalization of NPR-1 equity shares with Chevron, and 
continued oversight of the NPR-2 property and leases.
    Elk Hills School Lands Fund.--Section 3415 of Public Law 104-106 
provides for the settlement of longstanding claims to certain Elk Hills 
lands by the State of California. Under the terms of the settlement, a 
contingency fund has been established in the Treasury for payment of 
nine percent of the net sales proceeds generated from the divestment of 
Elk Hills over a seven-year period. Provided funds are appropriated 
annually, the Department will pay the State of California Teachers' 
Retirement Fund $36.0 million each year for five years which began in 
fiscal year 1999. Any remaining balance due after the five years shall 
be paid in two equal installments in years six and seven unless the 
seventh payment is deferred due to delay in the equity finalization 
process. For fiscal year 2000, the Department is requesting $36.0 
million for the second payment to the State of California Teachers' 
Retirement Fund.
    The Office of Fossil Energy has modified its research and 
development program significantly through the use of the strategic 
planning process and the development of detailed program plans and road 
maps often done in conjunction with the industrial and technical 
communities as well as other portions of the Department.
    Field operations have been successfully consolidated into the 
Federal Energy Technology Center (FETC) which is now fully operational. 
In addition, the privatization of the National Institute of Petroleum 
and Energy Research (NIPER) has been recently completed, reducing the 
costs of conducting oil research and increasing the amounts of funding 
for competitive research.
    With the sale of the giant Elk Hills oil field in California, we 
have begun to significantly reduce the Federal presence in competition 
with the oil industry. The Oil Shale Reserve in Colorado has been 
transferred to the Department of the Interior for leasing and other 
reserves will be transferred or closed in the next several years.
                   energy information administration
    The fiscal year 2000 budget request is $72.6 million which will 
fund EIA data and analysis activities supporting issues related to 
energy use. This level will enable EIA to produce approximately 240 
reports and analyses covering a wide variety of energy issues, respond 
to about 300,000 inquiries and requests for energy information, 
overhaul their energy consumption surveys and continue overhaul of 
their electricity and natural gas surveys and data systems. The 
following programs are included: efficiency and renewable data 
collection and analysis; end-use energy consumption surveys; greenhouse 
gas data collection studies; mid-term energy demand modeling; and 
integrated end-use energy data compilation.
                          economic regulation
    The budget request of $2.0 million, for the Office of Hearings and 
Appeals (OHA), is for processing applications for refunds and for 
related activities arising from the regulatory program initiated under 
the Emergency Petroleum Allocation Act of 1973. OHA will transfer a 
portion of the money collected by the Department with respect to crude 
oil price violations to the Treasury Department for deficit reduction.
                               conclusion
    The Department of Energy's proposed budget for fiscal year 2000 
will provide our scientists and engineers with the tools, facilities 
and processes to help lead this nation into the new millennium. The 
technological breakthroughs which lie ahead will provide improvements 
to the quality of life of all Americans. With your continued support, 
the Department of Energy will produce the science, security and energy 
to power this nation in the 21st Century.

                     CLEAN COAL TECHNOLOGY PROJECTS

    Secretary Richardson. I will go straight into answering 
questions, if that is agreeable to you.
    Senator Gorton. All right. Why don't you answer Senator 
Byrd's question, first----
    Secretary Richardson. Yes; I will.
    Senator Gorton [continuing]. Since he just presented it to 
you.
    Secretary Richardson. Senator Byrd, I do not want you to 
take a signal on the deferral that we are not committed to the 
Clean Coal Technology Projects. The funding being deferred is 
not needed until fiscal year 2001, and later for the two 
remaining projects; one in Illinois and one in Utah, that are 
not fully funded together.
    We have recently approved restructuring and design 
extensions for both of these projects for purposes such as 
obtaining environmental permits. Both projects have adequate 
funding to complete these tasks. We have funded 38 out of the 
40 projects that I believe are out there.
    I want to commit to you, Senator--I know that you care a 
lot about coal--that we will develop cleaner, more efficient 
coal technology. I want you to know that I am committed to deal 
with being more positive and generous toward coal, both in the 
budget and in terms of our policies.
    Senator Byrd. Mr. Chairman, are we asking questions at this 
point or not?
    Senator Gorton. We are. The Secretary sort of just put his 
opening statement on the record, because we only have a few 
more minutes. Would you like a follow-up question on that?
    Senator Byrd. I would like.
    Senator Gorton. Go right ahead.

                 FOSSIL ENERGY RESEARCH AND DEVELOPMENT

    Senator Byrd. Well, I am deeply troubled by the 
implications of this proposed deferral. It appears to be a 
clear indication that the Administration does not understand or 
appreciate the importance of fossil energy and fossil energy 
research.
    This budget proposal sends a signal to the industry and the 
power community that coal is not needed. The deferral, in 
essence, robs one proven and worthy program to pay for other 
increases included in the President's budget.
    The deferral means that the committee will be asked in the 
out years, to find replacement funding for the Clean Coal 
Technology Program. I look forward to working with you and 
other members of the committee to resolve this issue in a 
positive fashion, that leaves no doubt as to the importance of 
coal to our society.
    My follow-up question is this: Why does the President's 
budget include a decrease for fossil energy research? Most of 
the other energy programs show at least modest increases in the 
President's budget. But this program, which is so important to 
the energy stability and health of our nation, is decreased. 
Proposed funding for coal research is down and so is the 
proposed funding for natural gas research.
    Overall, the amount proposed in the President's budget 
request for fiscal year 2000 for the Fossil Energy Research and 
Development Program is $20 million less than was enacted for 
fiscal year 1999.
    Now, why is that?
    Secretary Richardson. Senator, let me just say that I know 
you would have preferred a plus-up in the fossil energy budget, 
relative to the fiscal year 1999 level. I, too, wanted to do 
more for fossil energy, but the budget caps were too tight. We 
did win a victory with OMB, in that we were going to experience 
a deeper cut, but we have come very close to last year's 
request.
    The $364 million requested for fiscal year 2000 in fossil 
energy continues investments in technology, such as the capture 
and sequestration of carbon dioxide, development of advanced 
power generation and fuel producing technologies that could 
reduce carbon dioxide emissions.
    I also want you to look at the recent initiative, Senator, 
that I've done on oil and gas, that involve the Strategic 
Petroleum Reserve, that involve making it easier to drill in 
federal lands, and that involve several other initiatives to 
help the oil and gas industry.
    We also need to consider the multi-billion dollar Clean 
Coal Technology Program, which has been successful over its 
lifetime. As I said, we got $50 million more than what was 
contained in the original passback from OMB.
    But Senator Byrd, I said to you that I was going to be a 
Secretary of Energy that would not turn his back on coal; that 
will do more for coal. I commit to you that when I have full 
control of my budget--in the next cycle, because, as you know, 
I came in September--that you should look at my coal research 
budget. And I think you will be pleased. But we will work with 
you to keep the monies in there, the projects going, and 
recognize the importance of coal in our future.
    Senator Byrd. Well, I appreciate that, Mr. Secretary. And 
we will work together in this regard.
    I just point out, Mr. Chairman, that as I indicated 
earlier, most of the other energy programs show at least modest 
increases in the President's budget. But this program, this 
program which is so important, is decreased. And support for 
the program directly supports FETC. It creates jobs in West 
Virginia. It helps the energy economy of the State. And the 
President's budget for fiscal year 2000 takes the program back.
    We appropriated $384 million to the program for fiscal year 
1999. The President's budget takes it back to $364 million. And 
the DOE request to OMB for the program's fiscal year 2000 
budget, was $440 million. So, I want to give the Secretary 
credit for that, which would be an increase of $55 million 
above the enacted level.
    But anyhow, my time is consumed. I thank you, Mr. 
Secretary. Let us work together and see if we cannot do the 
right thing by coal, because it is going to be very, very 
important. And our Clean Coal Technology Programs are so 
important, if we think about global climate problems and 
change.
    Secretary Richardson. Well, Senator Byrd, you know you have 
persuaded me on that position.
    Senator Byrd. Thank you. Thank you. Thank you.

                FEDERAL AND PRIVATE SECTOR PARTNERSHIPS

    Senator Gorton. One of the areas of endeavor in the 
department, that the department for many years has most 
fiercely defended, has been cooperative research and 
development leading to the actual use of new technologies in 
the market place.
    You talk about some of them in your written statement, but 
I'd like you, if you can, to give me two or three recent 
examples and tell me how, specifically, the department was 
involved; why it got involved in them; and why these advances 
would not have been made if we'd left it to the private sector 
alone.
    Secretary Richardson. Senator, I will answer this question. 
The two that I would say to you is, one is the Partnership for 
a New Generation of Vehicles (PNGV), including support for the 
Northwest Alliance for Transportation Technology.
    This PNGV project, initiated in 1993, is a cost-shared 
partnership whose goal is to develop technologies in 
partnership with industry that would enable a family sedan to 
achieve 80 miles per gallon by the year 2004.
    We are working with industry to development technologies 
which improve fuel efficiency and reduce emissions without 
sacrificing safety. These programs are the hybrid electric 
vehicles, fuel cells, improved engines, and lightweight 
materials. I saw a lot of these at the Detroit auto show.
    But I think one recent development in the lightweight 
materials is the establishment--and I know you are familiar 
with this--of the Northwest Alliance for Transportation 
Technology, which is a combination of industrial partners in 
the northwest United States brought together to improve 
American technology. And I know you have been a leader in this 
area.
    My Assistant Secretary, Dan Reicher, is the expert on this, 
but I think this is our best example. Dan, can you give 
another?
    Mr Reicher. Very quickly, Mr. Chairman, I have two things. 
One are the advanced industrial turbines. These are very high 
efficiency turbines that run on natural gas. And there has been 
very important work done, cost shared between industry and the 
government, to develop these turbines. They are going to make a 
huge difference.
    They are making a huge difference today in industry, 
allowing industry to generate power much more efficiently, and 
in some cases, actually sell it into the grid.
    We feel strongly that the development of these turbines 
either would not have happened or would have been much delayed. 
And there is a big international market for these.
    The second example is gasification technology. This is to 
gasify wastes and other materials from both the forest products 
industry and from agriculture, which will allow us to produce a 
gas that can fire a turbine. And in the forest products 
industry, this is the number one technology priority of that 
industry.
    If this kind of technology could go into that industry, it 
could go from a net user of energy to a net producer of energy, 
and radically change the bottom line for the industry.
    So, those are the two I would say.
    Senator Gorton. Thank you.

                 ELECTRIC POWER INDUSTRY RESTRUCTURING

    Mr. Secretary, wearing another hat or wearing the same hat 
in a different committee, you are very much aware of the 
controversy and the progress surrounding the restructuring of 
the electric power industry, and especially in the marketing of 
power. And I understand, soon we will have a recommendation 
from the Administration on that subject.
    But, of course, the industry has been changing more rapidly 
than the laws have been. It is going on quite rapidly.
    How has that restructuring affected federal energy research 
and development programs? Are--does this have any impact on the 
actual use in the market place of new techniques? And does it 
give us some caution as to whether or not we ought to let some 
of these restructurings work their way out before we know what 
research and development directions we should take?
    Secretary Richardson. Senator, let me say that we think 
that having a federal restructuring bill will improve the input 
and impetus for new technologies.
    As you know, a lot of the States--I think it is 19--have 
already moved with restructuring legislation. We are going to 
have, very soon, a restructuring bill. It is going to include--
I know this is an issue of concern to you--a BPA (Bonneville 
Power Administration) title. We are discussing that.
    And it is generally going to be consistent with the 
recommendation made by the region's governors. So, we will work 
closely with you on that.
    But on the technology issue, Senator, we think that it is 
important that we have a strong effort to improve our energy 
technologies. What we want to make sure is that our objectives 
are consistent.
    Senator Gorton. I have several more, but Senator Campbell, 
you were here, plenty on time. Have you got any questions that 
you would like to put to the Secretary while he is still 
present?

                              ROCKY FLATS

    Senator Campbell. Well, I might just say, Mr. Secretary, 
that I particularly was pleased with the amount of money that 
the Administration has requested, $657 million, to continue the 
clean up with Rocky Flats.
    We had to--this committee put an additional $30 million 
last time around, in addition to what the President had asked. 
So, I think we are in the right direction, but I would like you 
to comment on two things I said in my opening statement.
    By the way, as you probably know, by the time this thing 
gets cleaned up and finally shut down, we will have spent 
something like $500 billion of taxpayers' money that could have 
gone to energy research and developing alternative fuels and 
new technology and all kinds of things to make the lives of 
Americans a little better. We are still stumbling along, trying 
to get that shut down by 2006.
    I would like you to just comment on two things. One, on 
this proposal I heard of putting additional work in there; 
whether that is going to prolong the shut down--the closing of 
Rocky Flats. The second is the so-called temporary locations, 
which I've heard described as tents, which I--they may be in 
some very safe sounding containers, but I have to tell you that 
the communities around Rocky Flats are kind of up in arms about 
the possibility of very, very flimsy or substandard structures 
to house this waste in; some of which obviously is radioactive; 
some of which is hazardous.
    I would like you to comment on both of those things. By the 
way, I understand the difficulty of opening WIPP. We were 
neighbors, and for a long time, your home State was New Mexico. 
I guess if things were turned around, Colorado would not be in 
a particular hurry to accept any kind of waste from New Mexico 
being shipped into Colorado.
    So, I can fully understand the lawsuit that is going on, 
but I would also like you to comment on that; if DOE can do 
anything to help resolve that, so that WIPP can be opened--
those three things.

                      WASTE ISOLATION PILOT PLANT

    Secretary Richardson. Senator, the Judge, hopefully on 
Tuesday, will rule in our favor on the Waste Isolation Pilot 
Plant (WIPP). And we can move waste there. This has been an 
endless bureaucratic delay that----
    Senator Campbell. This coming Tuesday you expect that 
decision to be made.
    Secretary Richardson. Yes. The Department of Energy has 
been precluded bureaucratically by my own State to do its job 
to open WIPP. And I am working vigorously to make sure that 
WIPP opens and it is ready to open.
    Senator Campbell. Does that mean that they can be--
shipments transported immediately after that or is there a time 
frame?
    Secretary Richardson. Yes.
    Senator Campbell. It can be.
    Secretary Richardson. No; I think right after that. And we 
are ready to move right away.
    Senator Campbell. What is the need for temporary 
structures, then?
    Secretary Richardson. Well, if it doesn't open on time--the 
Judge may rule against us. I hope he does not, but we would run 
out of site storage for this waste. In other words, we would 
need temporary storage.
    So, let me just tell you a little bit about the tents. And 
let me, at the start, say to you that if I deem that these 
tents are not safe, I will reassess this decision. I commit 
that to you.
    But I have been informed by the site that these tents were 
previously used to store lower level waste. And these are tents 
that are being reinforced to withstand winds of more than about 
100 miles an hour. These tents----
    Senator Campbell. Winds through Boulder of 130 and 140 that 
tear up planes off of the tarmac, that are chained down.
    Secretary Richardson. If that is the case, and if they are 
unsafe, I will reassess this. But I am told that these are 
stainless steel, red fabric covered structures. It is an 
effective short-term option for us. But I will consult with you 
before I do this.
    You know, WIPP--I have also got an Idaho problem. That is 
not your problem, but it involves----
    Senator Campbell. You have got a lot of problems. 
(Laughter.)
    Secretary Richardson. Now, Senator, I promise you, we will 
have closure on Rocky Flats by 2006. Let me just say that it 
should not be any signal.
    We are accelerating the whole contracting process to meet 
the 2006 standard. I have made no decision on the contract, but 
it is going to be focused on whether we meet the 2006 goal. And 
we are committed to that.
    But Senator, do not listen to the contractor, who is going 
around saying they need more money to meet the 2006 goal. The 
money that I have requested from you, Mr. Chairman, is all they 
need. So, they will come and tell you that they need more. Do 
not believe them.
    Senator Campbell. OK. I will not listen to them. I will 
listen to you. And I am sure the people that live around that 
area will be looking forward to your earliest visit, which you 
promised me, with great anticipation. And I will remind them of 
your promise. Thank you.
    Secretary Richardson. Thank you, Mr. Chairman.

                      ALTERNATIVE-FUELED VEHICLES

    Senator Gorton. Let me go back to research and development. 
I think it was just yesterday's newspapers here that had a 
major story on fuel cells.
    To what extent does the development of fuel cell vehicles 
threaten to overtake the developments that you have talked 
about here with respect to combustion engines and other, you 
know, alternatives? Is it reasonably imminent or so far in the 
future and so expensive that all of these other alternatives 
are justified, as well? And again, when is industry going to be 
able to go on its own on this?
    Secretary Richardson. Well, Senator, we have some goals in 
some years that we want to see these vehicles go commercial on 
the market. We have worked very closely with industry up until 
that point. They are working with us on joint research. Their 
technology is good. They are committed. Their record is good.
    I was in Detroit. I saw what they were doing. I think this 
is a very exciting new technology. Our hope is that in terms of 
time lines, that they meet this goal that has been imposed in 
the agreement they signed with the Administration. Dan?
    Mr. Reicher. Very briefly, Mr. Chairman, I just wanted to 
say that we are 5 years into what is a 10-year research and 
development program under the partnership for a new generation 
of vehicles. We are on track. This is what the co-chairs of 
Chrysler and other auto companies say about the project.
    It is a very strong partnership. With respect to your 
specific question about fuel cells overtaking other 
technologies, I think what we have been able to do in the 
partnership is narrow down, from a whole host of propulsion 
technologies, to essentially two: the so-called hybrid vehicle 
and the fuel cell vehicle.
    Both of those have real market potential; the hybrid 
vehicle somewhat before the fuel cell vehicle. And they are 
very complementary in terms of the next generation of cars to 
be put on the road.
    So, we are down from a much larger stable of propulsion 
technologies that this subcommittee supported. We are down to 
these two. We are making very good progress on both. We have 
healthy competition from across the globe.
    And if it is something that we want to win as a nation, in 
terms of our auto industry, it is something we should continue 
to fund in this very vital partnership.
    Senator Gorton. Thank you. Today 2:30 meant 2:30 on this 
vote, Mr. Secretary. We have a couple more minutes.
    I have one more I would like to put to you now.
    Secretary Richardson. Sure.

                         ENERGY USE MEASUREMENT

    Senator Gorton. Last year, both the House Committee and the 
Senate Committee reports urged the department to make a greater 
effort to increase the use of source measurement techniques in 
departmental programs within the parameters of the law under 
which you operate.
    In part, this reflects the Committee's interest in seeing 
that the measurements used in assessing the relative success of 
various departmental programs reflect as accurately as possible 
the actual public benefits of these programs.
    Have you taken significant steps in response to the 
Committee report language? And are you concerned that measures 
used to assess the success of any of these programs do or do 
not accurately reflect their actual benefits?
    Secretary Richardson. Senator, we are going to continue to 
use methodologies in determining appliance standards that are 
consistent with the applicable statutes. These are what are 
called point-of-use measurements of emissions and energy costs, 
as opposed to looking at the full fuel cycle in a more complex 
way.
    We have taken input from the language and the bill from the 
advisory committees. Mr. Reicher, maybe, can supplement what I 
have said.
    Senator Gorton. Glad you came, Mr. Reicher.
    Mr. Reicher. Very quickly, Mr. Chairman. There is a great 
difference of opinion between essentially--to be very candid--
the natural gas industry and the electric industry over how to 
measure energy, site versus source. And as the Secretary 
indicated, we are looking at both.
    What we are trying to do is actually help broker this 
difference of opinion. We are in the middle of a study right 
now that looks at ways that we can find some common ground in 
this dispute and do a better job of both measuring improvements 
in site energy use, which gets to the efficiency of the 
appliances and the equipment themselves, and also do a better 
job of seeing what kind of impact that has back at the source 
of that energy; what we are doing to the overall use of energy.
    Senator Gorton. When are we likely to see that study?
    Mr. Reicher. In the next couple of months. We put it into 
play shortly after we got the language from you. It is being 
done by the Rand Corporation. They are essentially interviewing 
all the people in what I can only describe as a small holy war 
that is going on with respect----
    Senator Gorton. We are aware of it.
    Mr. Reicher. Yes.
    Senator Gorton. Senator Byrd, would you like to ask one 
more?
    Senator Byrd. I will ask one more. Thank you, Mr. Chairman.

                             CLIMATE CHANGE

    Mr. Secretary, considerable attention is being focused on 
climate change. This is an area in which I have a great 
interest, because of the potential cost to energy users, the 
risks contained in premature decisions, and the possible energy 
and economic impacts from proposed steps to reduce greenhouse 
gas emissions.
    And there is no one answer to these difficult questions; no 
single silver bullet to fix the problem. We need to build upon 
science and research to help resolve the issues. Whatever 
approach we take, must balance fuel diversity, domestic energy 
security, energy efficiency, technological development, and 
economic growth.
    In the next century, the greatest growth in greenhouse gas 
emissions will be in the large developing countries, like China 
and India. This growth provides an opportunity to promote the 
sale of our clean coal technologies abroad, and ensure that 
developing nations become partners in global solutions to 
climate change issues.
    In my opinion, the Department is not doing enough to take 
advantage of this opportunity to help developing countries 
sustain the environment through the sale of our clean coal 
technologies.
    This is my question: What plans does the Department of 
Energy have to facilitate the sale of U.S. clean coal 
technologies abroad and encourage developing nations to install 
and use these clean coal technologies?
    Secretary Richardson. Senator Byrd, we appreciate your 
leadership on this issue. And your resolution with Senator 
Hagel, which basically said that we cannot seriously address 
climate change without developing nations participating; makes 
a lot of sense.
    We are focusing, at the Department of Energy, through 
technology, to deal with developing nations on utilizing clean 
coal technologies. This year, I will convene the Energy 
Ministers of Latin America and Africa, precisely on that point.
    How can we reduce greenhouse gas emissions through a joint 
technology project? And a lot of it is due to your leadership 
and that resolution.
    Second, with China, India, Pakistan, Mexico, Brazil, 
leaders of the developing world, we need to have more 
concentrated strategies. We need to make these countries more 
familiar with American technology by cooperative research and 
development, technical assistance, and workshops. We have to 
have better incentive packages for them--financing--that can 
reduce the costs of these new technologies.
    And we need to continue our research and development 
program. But I can tell you that we got the message that you 
let us have in that resolution by the fact that in the last 
Buenos Aires conference, only Argentina and Kazakstan supported 
us in our efforts.
    So, we need to do more to get more support. So, we commit 
to you a strategy that is already in place to bring technology 
and our expertise in environmental climate change to developing 
countries.
    Senator Byrd. All right. Thank you, Mr. Secretary. I want 
to work with you in this.
    Thank you, Mr. Chairman.

                     Additional committee questions

    Senator Gorton. Well, Mr. Secretary, like Mr. Holyfield, 
you are saved by the bell. And I think you did a somewhat 
better job than he did on Saturday night.
    Secretary Richardson. Senator, I was there. He did lose. I 
was there.
    Senator Gorton. OK.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Slade Gorton
                            accomplishments
    Question. You mentioned in your opening statement a few examples of 
technologies that have been developed with DOE assistance and 
successfully deployed in the marketplace. Can you describe a few of 
these or other examples in more detail, and talk a little bit about how 
specifically the Department was involved, why the Department was 
involved, why these advancements wouldn't have been made without 
federal support, etc.? If possible, please choose examples of successes 
that have occurred in the last year, and pick a number of examples from 
different program areas.
    Answer. Some of the most significant technology developments 
emerging from DOE-sponsored research include the following:
  --Lower-cost pollution controls: In the mid-1980s, the only available 
        technologies for reducing nitrogen oxides (NO<INF>X</INF>)--the 
        pollutant that contributes to smog, ground-level ozone, and 
        acid rain--cost nearly $3,000 per ton of NO<INF>X</INF>. Today, 
        DOE's research and development and Clean Coal Technology 
        efforts have helped develop the low-NO<INF>X</INF> burner which 
        can reduce nitrogen oxides at costs of only $200 per ton.
      Had DOE not been involved in the development of these low-
        polluting burners, utilities would have likely opted for higher 
        cost control options to meet new federal Clean Air regulations 
        and passed the additional costs on to ratepayers. Recent data 
        shows that U.S. utilities have installed one of the three major 
        types of low-NO<INF>X</INF> burners demonstrated in DOE's 
        program on 150,000 megawatts of coal-fired capacity. Sales to 
        date have totaled approximately $2 billion. As utilities make 
        continuing investments to comply with the Clean Air Act 
        Amendments over the next few years, sales are expected to reach 
        270,000 megawatts and total nearly $4.5 billion.
      Another way to control nitrogen oxide pollutants is to create a 
        ``reburn'' zone in the boiler to break down the pollutants into 
        environmentally harmless gases. The first units have used 
        natural gas as the reburn fuel, but recently as part of a DOE 
        project, the feasibility of using micronized coal was shown. As 
        a result, Eastman Kodak in Rochester, New York, has decided to 
        use the technology to meet its NO<INF>X</INF> reduction 
        requirements, not only continuing its use at the demonstration 
        site but installing it on at least two other units after the 
        DOE program is finished.
  --The ``next generation'' of power plants: Until the 1990s, power 
        plants had basically one way to generate power from coal: burn 
        it. In the last few years, DOE's coal technology program has 
        helped pioneer a new, significantly cleaner and more efficient 
        way to use coal to generate electricity. The integrated 
        gasification combined cycle (IGCC) process changes coal into a 
        gas that can be cleaned of virtually all of its pollutant-
        forming impurities, then burns the gas in a gas turbine and 
        captures excess heat for use in a conventional steam turbine 
        generator.
      DOE's Clean Coal Technology Program shared the costs and risks of 
        building the first three commercial-scale test units for this 
        process in the United States--each test unit targeted at a 
        different application in the power market. This year, one of 
        these first-of-a-kind plants--the Tampa Electric IGCC project--
        set a new power production record, generating 325 megawatts of 
        electric power, exceeding its ``nameplate'' capacity of 310 
        megawatts. To date, Tampa's 21st century power system has 
        accumulated more than 11,000 hours of operation on gasified 
        coal. Another of the demonstration plants, in Indiana, produced 
        its millionth megawatt-hour of electricity and processed its 
        500,000th ton of coal in October 1998, both significant 
        accomplishments in proving the operational reliability of this 
        new, super-clean, power generating technology.
      Had DOE not been involved, the innovative technology would have 
        likely been confined to smaller-scale research for several more 
        years, perhaps for a decade or more. DOE's involvement 
        accelerated full-size testing of the process and positioned it 
        for commercial market applications at a time when many nations 
        are looking for cleaner power options to support economic 
        expansion.
  --Smaller oil and gas ``footprints.'' A smaller wellpad is an 
        environmentally better wellpad. DOE's research and development 
        program has given industry a greater number of tools--and the 
        confidence--to use new approaches such as horizontal drilling 
        and, particularly in the last year, ``slimhole'' drilling, to 
        reduce the size of wellpads. If research and development had 
        stopped in the mid-1980s--at the point where many of the larger 
        oil producers in the United States began shifting their 
        attention to more lucrative prospects overseas--today's drill 
        pads in the United States would have covered an additional 
        17,000 acres of land, an area roughly the size of nearly 13,000 
        football fields.
  --Four-dimensional seismic technology. One of the most significant 
        advances in petroleum technology has been the development of 3-
        D seismic imaging--which gives producers the ability to ``see'' 
        potential oil- and gas-bearing formations in three spatial 
        dimensions. But a DOE cost-shared project showed that imaging 
        technology did not have to be limited to only three dimensions. 
        A fourth--time--could be added to reveal entirely new and 
        valuable data about the productive potential of an oil 
        reservoir. In some fields, for example, 4-D seismic showed that 
        reservoirs were actually being replenished by oil migrating 
        upward through natural fractures from deeper sources. Tapping 
        into self-replenishing reservoirs fed by these fracture systems 
        is proving, in many cases, to be significantly more 
        economically attractive than drilling large numbers of deep, 
        expensive holes to less prolific sources. Because of DOE's 
        investment to move the technology out of the laboratory and 
        into practical application, 4-D seismic technology accounted 
        for more than $500 million in commercial oil and gas services 
        in the Gulf of Mexico in 1998.
  --Subsalt seismic imaging. One of the nation's largest oil-bearing 
        regions may have been hidden beneath the large irregularly 
        shaped salt formations the extend beneath nearly 40 percent of 
        the Gulf of Mexico continental shelf. Now, an industry team 
        working in partnership with DOE's Los Alamos National 
        Laboratory is developing advanced seismic processing techniques 
        that increase the resolution of potential oil-bearing 
        formations that lie below the complex salt structures. In the 
        last year, this technology has spurred producers to begin new 
        subsalt wildcat wells. Now over 30 such wells have been drilled 
        by 16 producers. Eight successful discoveries have been 
        reported so far, three of which contain reserves of more than 
        100 million barrels of oil. Industry experts now predict at 
        least a 30 percent success rate for subsalt drilling in the 
        Gulf--a rate that would have been unattainable without DOE's 
        involvement in enhanced seismic processing and modeling 
        techniques.
                             restructuring
    Question. The electric industry continues to undergo major 
restructuring, based on a combination of market forces and actions 
being taken in state legislatures. Federal legislation on this subject 
will again be a topic of considerable debate in this Congress. How has 
the industry restructuring affected federal energy research and 
development programs?
    Answer. The two main ways that incipient and actual electric 
industry deregulation and restructuring has affected federal energy 
research and development programs are as follows:
  --The electric industry has reduced funding for research and 
        development.
      Under regulation, electric companies were for the most part able 
        to pass the costs of research on to their customers, with the 
        approval of regulators. But under restructuring, where 
        competition and profit will depend crucially on reducing costs, 
        electricity companies have decreased their own research and 
        development as well as industry-wide contributions to EPRI. 
        Because EPRI and individual firms cost-share research and 
        development with DOE, federal research and development suffers 
        as well.
  --Products of research and development must be able to compete even 
        more on the basis of cost.
      Although regulated utilities would always prefer to cost 
        minimize, it is also true that if regulators could be persuaded 
        to put costs into rate base, the utility could recover its 
        costs with a profit, even if the equipment wasn't as low cost 
        as it might have been. Now, however, electricity companies will 
        concentrate even more on choosing the cheapest technology that 
        gets the job done. If they were to do otherwise, the result in 
        lost profits would immediately go to their bottom line. Thus 
        there is an even greater sensitivity to using research and 
        development to produce low- cost, emission reducing products or 
        technologies with a longer payback time.
    Question. With the industry in a state of flux, are the new 
technologies being developed in these programs having trouble making it 
into the marketplace?
    Answer. Many Fossil Energy programs are long-range in nature; for 
example, the Vision 21 technologies and carbon sequestration 
activities. The program goals are for these programs to be economic by 
the time they are introduced to market, sometime in the 2010 to 2020 
time frame, depending upon the specific technology involved. Therefore, 
it is too early to judge whether they would have trouble making it into 
the marketplace, but some indicators suggest there should be a strong 
market demand.
    Several recent, shorter-term Fossil Energy research and development 
technologies have been very cost-effective, including low-
NO<INF>X</INF> burners, which reduce NO<INF>X</INF> at a cost about 
one-tenth of previously available post-combustion technology. Low 
NO<INF>X</INF> burners have not had any difficulties in penetrating the 
market. Close to half the existing coal power plants are using them.
    Question. Should we be more conservative in making federal 
investments in energy generating technologies until the industry 
restructuring settles out, and it becomes more clear what types of 
technologies are likely to be accepted in the marketplace?
    Answer. In this period of uncertainty, as electric companies focus 
their energies and dollars on the pressures of restructuring--market 
share, mergers, domestic versus foreign growth, and so on--the need for 
new technologies to provide lower environmental emissions is unlikely 
to wait. Domestic energy needs, too, will continue to grow, as the 
economy continues its remarkable expansion. A good argument can be made 
that, with private industry mostly otherwise occupied, the need for 
federal environmental research and development is high. Longer term, 
60+ percent efficient coal units and 70+ percent natural gas units 
(efficiencies calculated before any credit for use of waste heat), with 
virtually zero-emissions, will take 10 to 20 years to develop. Given 
the desire of citizens to continue to have ever more clean emissions, 
development of these technologies should not be postponed.
               site versus source measurement techniques
    Question. Last year, both the House and Senate committee reports 
urged the Department to make a greater effort to increase the use of 
``source'' measurement techniques in departmental programs, within the 
parameters of current law. This in part reflects the Committee's 
interest in seeing that the measurements used in assessing the relative 
success of various DOE programs reflect as accurately as possible the 
actual public benefits of those programs. What steps has the Department 
taken in response to the Committee report language?
    Answer. The Department has not had to make changes in the 
measurements used to assess the benefits of various programs since the 
Department has always used a number of different measurements to assess 
public benefits. For example, in evaluating the impacts of appliance 
energy efficiency standards, the Department considers the full range of 
impacts, including consumer and national impacts. In the analysis of 
consumer impacts, the Department considers the energy directly consumed 
by the product at the point of use. This, DOE believes, provides useful 
measures to consumers since it can be directly related to information 
readily available, that is, utility bills. In examining the impacts of 
standards on the nation, however, the Department considers the total 
energy consumed over the fuel cycle as well as emissions and energy 
costs. In this manner, the analysis captures the total impact of the 
standards.
    Question. Is the Department concerned that the measures used to 
assess the success of any of its programs do not accurately reflect the 
actual benefits of the programs?
    Answer. The Department believes that its selection of measures 
accurately reflects the benefits of its programs.
                          carbon sequestration
    Question. The fiscal year 2000 budget request includes increased 
funding in a number of programs for research on carbon sequestration 
technologies such as bioprocessing of coal, CO<SUP>2</SUP> storage in 
coal seams, and other novel sequestration techniques. Is the research 
proposed in any way driven by an assumption that the Kyoto Protocol 
will be ratified?
    Answer. Fossil Energy's sequestration research is targeted to 
produce a suite of practical technologies for deployment in the 2015 
timeframe, with significant expansion in scope and reduction in cost 
for sequestration in the following decade. In contrast, emission 
reductions under the Kyoto Protocol are required over the 2008 to 2012 
time period. Hence, the research is not directly related to the Kyoto 
Protocol. However, such technologies could prove useful as we define 
the potentially more difficult long-term goals of stabilizing 
greenhouse gas emissions on the long term. Additionally, several 
sequestration technologies have potential worth pursuing without any 
consideration of the climate issue, as they could increase U.S. energy 
resources when used in conjunction with enhanced oil recovery or 
methane recovery from unmineable coal seams.
    Question. What other agencies are conducting research on carbon 
sequestration technologies?
    Answer. Other government agencies, including the U.S. Department of 
Agriculture (USDA), Department of Interior (DOI), and Environmental 
Protection Agency, are conducting research on various aspects of carbon 
sequestration. USDA and DOI have been represented by the U.S. Forest 
Service (USFS) and U.S. Geological survey, respectively. All of these 
agencies have been actively involved in the production of DOE's draft 
report titled ``Carbon Sequestration: State of the Science.'' In this 
report, USDA has been actively involved in the sections which address 
sequestration in terrestrial ecosystems (soils and vegetation) and 
advanced biological processes. All of the agencies have served in 
drafting and reviewing the report, and have participated a technical 
workshop that was held on this subject in October 1998. In addition, 
DOE is working closely with the USFS to demonstrate enhanced 
productivity from marginal soils by supplying needed nutrients from 
coal combustion by-products such as flyash and flue gas desulfurization 
waste. These products are being applied as a part of a USFS biomass 
mulching research program.
    Question. In your view, is the research proposed by the Department 
likely to result in economically feasible sequestration techniques at 
any time in the foreseeable future?
    Answer. Fossil Energy's sequestration research is targeted to 
produce a suite of practical technologies for deployment in the 2015 
timeframe, with significant expansion in scope and reduction in cost 
for sequestration in the following decade. Our long-term goal for this 
program is to create a portfolio of technologies which can sequester 
hundreds of millions of tons of greenhouse gases per year for under $10 
per ton of carbon equivalent.
    Question. Would these funds be more productively spent on some of 
the other, ongoing research and development programs under this 
subcommittee's jurisdiction that promise near or mid-term efficiency 
improvements that will also help reduce carbon emissions?
    Answer. It is not an ``either-or'' issue. While the Fossil Energy 
strategy reflected in the budget does focus on key long term goals to 
achieve critical public needs and benefits, it also addresses promising 
near and mid-term opportunities to improve efficiency and reduce 
emissions.
    Fossil Energy believes that a balanced portfolio of options is 
necessary to address the climate change issue. Fossil Energy has three 
program elements which address climate change both over the short and 
long term. These are increased efficiency of electric power generation, 
carbon sequestration, and more efficient use and production of natural 
gas. Development of higher efficiency power generation technologies 
will reduce the amount of carbon produced per kilowatt hour generated. 
Research to improve the nation's ability to supply, store, transport, 
distribute and utilize natural gas in an economically efficient and 
environmentally beneficial manner will reduce carbon emissions because 
natural gas is the least carbon intensive fossil fuel. The purpose of 
the Fossil Energy sequestration program is to develop and demonstrate 
technically, economically, and ecologically sound methods to capture, 
reuse and dispose of CO<INF>2</INF>, in the post-2015 time frame. The 
Department believes that resources being requested to pursue improved 
fossil energy technologies are appropriately balanced with resources 
requested to pursue energy efficiency and renewable energy 
technologies.
                          direct liquefaction
    Question. The budget request contains funding for continued bench 
scale research on liquefaction technology, but does not include funds 
for deployment of a demonstration plant. What funding level would be 
required in fiscal year 2000 to support deployment of a demonstration 
plant?
    Answer. On February 15, 1999, the Department solicited proposals to 
perform a feasibility study, research and development and a preliminary 
engineering design of an Early Entrance Coproduction Plant. Industry 
would be responsible for the subsequent detailed design, construction 
and operation of the plant in the 2004 to 2007 time period. The plant 
must be designed to produce some combination of electricity (or heat), 
fuels and chemicals through the gasification and indirect liquefaction 
of coal, alone or in combination with other feedstocks such as wastes 
and biomass. Since there is limited commercial interest in Direct 
liquefaction, the technology is likely to be deployed a number of years 
after the establishment of an indirect liquefaction industry. Thus, the 
bench scale research is directed toward smaller-scale tests with longer 
range perspective. If the Department were to conduct preliminary 
activities for direct liquefaction technology, these activities would 
include feasibility studies, supporting research and site specific 
preliminary designs. These are activities that would create the data 
base needed for U.S. industry to participate in international direct 
liquefaction projects (for example, China).
    Question. Is this something the Department considered during fiscal 
year 2000 budget formulation?
    Answer. The Department's current strategy is to conduct preliminary 
activities for demonstration of an Early Entrance Coproduction Plant 
which would utilize indirect liquefaction technology to produce ultra-
low emission transportation fuels, chemicals and electricity. The 
commercial deployment of direct liquefaction technology in the United 
States is likely to be a number of years later than indirect 
liquefaction, thus the research on Direct Liquefaction is now focused 
on smaller scale laboratory and bench-scale tests. The Department did 
support bench scale and proof-of-concept activity with HTI to conduct a 
feasibility study for a potential demonstration of direct liquefaction 
technology in the Peoples Republic of China. No consideration was given 
to a domestic direct liquefaction demonstration in the United States 
since it is believed that the first liquids plants would be based on 
gasification of carbonaceous feedstocks such as petcoke, wastes and 
coal and, therefore, utilize the indirect conversion route to making 
fuels and chemicals.
                         indirect liquefaction
    Question. The request includes funds to continue feasibility study 
and conceptual design for a pioneer Fischer-Tropsch plant in 
conjunction with an industry consortium. How long does the Department 
anticipate this study will take to complete?
    Answer. On February 16, 1999, the Department issued a solicitation 
for the Early Entrance Coproduction Plant. Proposals were due on April 
30, 1999. The activities to be conducted within this procurement 
include three phases: feasibility and market studies to address the 
technical, economic, and environmental issues associated with the 
proposed plant concept; supporting research; and a site specific 
preliminary design. It is planned to fund at least three teams to 
complete all three phases. Each team's schedule would depend on the 
specific scope of work the team needs to perform prior to doing a 
detailed plant design. However, it is estimated that to conduct these 
three phases would require an average of four years to complete. It is 
estimated that the first phase feasibility study will take 12 to 18 
months to complete.
    Question. Does the Department intend to move to a detailed design 
and construction phase in this program?
    Answer. On February 16, 1999, the Department issued a solicitation 
for the Early Entrance Coproduction Plant. Proposals were due on April 
30, 1999. The activities to be conducted within this procurement 
include three phases: (1) feasibility and market studies to address the 
technical, economic and environmental issues associated with the 
proposed plant concept; (2) supporting research; and (3) a site 
specific preliminary design. The Department has not committed to 
funding the remaining phases that would encompass the detailed 
engineering design, construction and operation of the plant. With the 
information obtained in the first three phases, it is anticipated that 
the industrial teams will be able to obtain private sector funding for 
the detailed design and construction phase of the program. During the 
initial phases, the teams may also identify innovative financing 
strategies.
    Question. If so, when will these stages likely be reached?
    Answer. The objective of the three phase pre-detailed design 
activities is to provide the technical, economic, and environmental 
basis upon which the industrial teams will be able to secure private 
sector funding. It is planned that their plants could be ready for 
detailed design and construction as early as 2003.
    Question. How much will construction of a pioneer plan likely cost?
    Answer. The actual construction cost for an Early Entrance 
Coproduction Plant cannot be accurately established until the three 
preliminary design phases are conducted. The cost will also depend on 
the degree of existing facilities that are available to the industrial 
consortium. Preliminary economic analysis for ``generic'' Early 
Entrance Coproduction Plants'' based on Gasification configurations for 
a power plant and refinery locations provided ballpark estimates of $75 
to $350 million depending upon the availability of existing facilities.
             advanced research and environmental technology
    Question. The request indicates that fuels research focus in this 
program is shifting in part to hydrogen storage for fuel cell 
applications. How will the work that would be supported by the Fossil 
program relate to and be coordinated with the work being supported by 
the Office of Transportation Technologies?
    Answer. The part of the Fossil Energy program that is shifting to 
hydrogen storage methods that may be applied to fuel cell applications 
is twofold; chemical storage and physical storage. The chemical storage 
work is the study of hydrogen release by the decomposition, under mild 
conditions, of coal-derived, hydrogen-containing liquid fuels. The 
physical storage work studies the storage of hydrogen in nano-
structured [structures on the molecular scale] carbons by a sorption 
mechanism. Both would be applicable to fuel cell powered vehicles but 
are also be useful in many other applications of interest to Fossil 
Energy.
    Generally, Fuels Advanced Research and Environmental Technology 
(AR&ET) funds more exploratory work (for transfer to Fossil Energy line 
programs when the technology is ready for further development). The 
Office of Transportation Technologies (OTT) has funded work of a more 
mature nature. For example, OTT (co-funding with the Energy Efficiency/
Office of Power Technology H<INF>2</INF> program) is working on carbon-
fiber-reinforced tanks for storage (Thiokol Corp) of either liquid or 
pressurized gaseous hydrogen for use onboard a vehicle. The advantage 
of carbon is its high strength-to-weight ratio as a fibrous material. 
In this case, the carbon fiber is on a macro-scale, much like 
fiberglass, and is a physical component of a lightweight, hydrogen 
storage tank assembly suitable for vehicle use. The nano-structured 
carbons of AR&ET interest, on the other hand, would be used as storage 
vessel filler material that would hold the hydrogen as a sponge holds 
water, releasing the hydrogen on mild heating or depressurization for 
feeding into the fuel cell. These materials are not yet well understood 
and are much further from being commercialized.
    Fossil Energy and Energy Efficiency/OTT are acutely aware of each 
other's work and are careful about redundancy. Work done by Fossil 
Energy that is applicable to OTT is well known to them; OTT/Office of 
Advanced Automotive Technology is a partner in co-funding the work in 
the chemical storage area. All three programs are coordinated through 
periodic meetings and program reviews.
    Question. The request indicates that the Department will continue 
to work with the Consortium for Fossil Fuel Liquefaction Science 
(CFFLS) in fiscal year 2000. What level of support does the Department 
anticipate providing CFFLS in fiscal year 2000 from the AR&ET program? 
From other departmental programs?
    Answer. The Advanced Research & Environmental Technology budget 
provides $300,000 for this activity in fiscal year 2000 at the 
reference budget level. This is the same funding level provided from 
this budget line in the current fiscal year (fiscal year 1999). In 
addition to the $300,000 budgeted by the AR&ET program, the Indirect 
Liquefaction and Gas-to-Liquids budgets will each contribute $50,000, 
for a total of $400,000 from Fossil Energy programs. No additional 
Departmental funding is provided for this activity.
    Question. Mercury emissions remain a significant problem in the 
utilization of coal. What progress has been made in recent years in 
developing cost-effective mercury control technologies?
    Answer. The Department has developed accurate methods to measure 
specific forms of mercury in flue gases, investigated the 
transformation of mercury in coal combustors, and evaluated numerous 
sorbents for mercury control. Bench- and pilot-scale testing on 
injection of activated carbon in conjunction with conventional 
particulate control devices, novel particulate control techniques that 
work in combination with existing particulate control equipment, and 
concepts that convert elemental mercury in the flue gas to the oxidized 
form are being developed. Significant mercury removals, up to 90 
percent, are possible if most of the mercury is in the oxidized form 
and the power plant is equipped with Wet Flue Gas Desulfurization. 
Results from the pilot-scale tests have provided more definitive 
mercury control cost data, which was incorporated into EPA's Mercury 
Report to Congress. Because all of these concepts are at the pilot 
stage, field testing experience would be needed before 
commercialization and widespread application to the utility industry.
    Question. What barriers remain to deployment of such technologies?
    Answer. The most significant barrier to deployment is developing 
mercury control technologies that have widespread applicability across 
the utility industry. Coal, when combusted, produces several distinct 
chemical forms of mercury, which require specific control strategies. 
For example, subbituminous coals generate mostly elemental mercury 
while combustion of bituminous and lignite coals result in varying 
amounts of oxidized and elemental mercury. Control concepts that can 
reduce emissions of elemental mercury are not effective in reducing 
oxidized mercury. Because different control methods are required to 
capture all forms of mercury in coal combustion flue gases, 
considerable uncertainty exists over the costs of mercury control. More 
research is also necessary to determine the stability of mercury in 
solid or liquid byproducts from potential mercury control technologies 
to ensure that the mercury is not reintroduced to the environment.
    Question. What work is being done in this area in fiscal year 2000 
and in what program elements?
    Answer. The testing of promising mercury control concepts will be 
completed in fiscal year 2000. The Department is planning to request 
proposals to obtain field experience for promising mercury control 
technologies in the fourth quarter of fiscal year 1999. Projects 
selected from this request would be implemented in fiscal year 2000. 
The mercury control technology research and development activities are 
conducted in the Air Toxics/Fine Particulates key activity in the 
Advanced Research and Environmental program.
    In addition, the Environmental programs at the FETC and at 
headquarters are each contributing $50,000 to a multi-agency study of 
mercury exposure and diet in the United States. The collaborative study 
by the Centers for Disease Control and Prevention and the Food and Drug 
Administration, to cost $825,000 over 3 years, is co-funded by EPA, 
FDA, DOE, NOAA, DHHS, and NIEHS. It is scheduled to be completed in 
2001.
                       low emission boiler system
    Question. The reduction in the request for the LEBS program 
reflects the fact that funds have already been appropriated for 
construction of the proof-of-concept facility. What is the status of 
the DB Riley team's effort to obtain the required cost sharing, 
financing, and power sales agreements necessary to enable this project 
to go forward?
    Answer. As of mid-January 1999, $3 million of the $25 million full 
Illinois cost-share has been appropriated. The State of Illinois 
supports this project and has authorized $25.2 million in coal 
development bonds for the project and is committed to providing the 
remaining $22 million necessary to complete this project. The Governor 
of Illinois included the $22 million in his budget for fiscal year 
2000. The Illinois legislature will act on this budget which takes 
effect July 1, 1999.
    The participants have indicated that several conditional letter 
agreements regarding the purchase of the full power output from the 
Prairie Energy Project have been received. Prospective purchasers 
include independent power producers and development arms of U.S. based 
Fortune 500 electric utilities. The project team is currently 
negotiating with prospective power purchasers, but is not able to 
divulge any details due to the confidential nature of these 
proceedings. The participants expect negotiations to be completed in 
the April to May time frame, at which time the results will be made 
public. The project requires private debt financing of $50 million. A 
financial business plan was released to lenders in February 1999. 
Responses from lenders are anticipated in time to have a loan 
commitment by June 1999. Project financing is expected to be complete 
by October 1999.
    Question. If the project proceeds on the schedule currently 
anticipated, does the Department anticipate obligating all of the $3 
million included the budget request during fiscal year 2000?
    Answer. Yes, the Department intends to obligate the $3 million in 
the year 2000.
    Question. For what specific purposes will these funds be used?
    Answer. The funds will be use for Phase IV, the final portion of 
the program, which includes detailed design, construction, and 
operation of a proof-of-concept facility.
    Question. Is the Department aware of the alternative proposal that 
would site the proof-of-concept facility at the Savannah River site in 
South Carolina?
    Answer. Yes, the Savannah River site was offered as an alternate 
site in the DB Riley proposal submitted at the end of Phase II and III.
    Question. Has the Department evaluated this proposal in any detail?
    Answer. Yes, the DB Riley proposal for Phase IV, which included the 
Savannah River site as an alternate site, was evaluated in 1997. The 
Elkhart, Illinois, site was selected on the merits of the proposal.
    Question. If the Illinois site were not viable for some reason, 
would the Savannah River site provide the type of operating information 
required to validate the technology?
    Answer. Because Phase IV is cost-shared between industry and 
government, with industry bearing more than 50 percent of the total 
project cost, to build at any site other than Elkhart, Illinois, is the 
initiative of the DB Riley team, not the Department. Thus, the details 
of constructing and operating a proof-of-concept facility at another 
site would depend on what DB Riley proposes.
                          indirect fired cycle
    Question. $1 million is requested for combustion and furnace module 
development and systems design. How does this work relate to work 
performed in fiscal year 1999?
    Answer. The High Performance Power Systems (HIPPS) program is being 
restructured. Phase III, which originally was to construct and operate 
a prototype HIPPS, has been eliminated. Those elements of HIPPS Phase 
II that are appropriate to Vision 21 will continue. The combustion and 
furnace module development and systems design are among those elements.
    Question. Does this represent a new direction in research, or is 
this simply an ongoing program element being displayed in a different 
manner in the justification?
    Answer. This is not a new direction in research since these 
activities were included as part of the original Phase II program. 
However, the focus of the HIPPS program is geared towards developing 
modules that can eventually be used in Vision 21. Therefore, those 
modules of HIPPS appropriate to Vision 21 will continue.
            advanced research and environmental technologies
    Question. Significant increases are requested for various 
components of the AR&ET program. What additional work will the increase 
requested for Fine Particulate Control enable the Department to do?
    Answer. Additional work will be carried out in: the development of 
cost-effective control technology for both primary fine particulate 
emissions (for example, fly ash) and secondary fine particulate 
precursor emissions (SO<INF>2</INF> and NO<INF>X</INF>); the collection 
and chemical analysis of ambient fine particulate matter; the 
characterization of emissions from coal-based power systems; and the 
assessment of source-receptor relationships.
    Question. At what locations is the Department currently supporting 
particulate monitoring stations?
    Answer. The Department is currently supporting particulate 
monitoring stations in the upper Ohio River valley (southwestern 
Pennsylvania, southeastern Ohio, and northwestern West Virginia); in 
Atlanta, Georgia; in Birmingham, Alabama; in the Big Bend National Park 
in south central Texas; and in the Great Smoky Mountain National Park 
in eastern Tennessee.
    Question. How are decisions made regarding the location of 
monitoring stations in this program?
    Answer. Decisions regarding location of monitoring stations are 
based on discussions with key public and private sector stakeholders 
including USEPA, state and local agencies, and the electric utility 
industry, to meet the Department's overall goal of better understanding 
the relationship between coal-based power generation and ambient air 
quality. Decisions on location of monitoring stations are also made 
based on opportunities to leverage Department funding in ongoing 
monitoring programs such as those in Atlanta, Birmingham, the Great 
Smoky Mountain National Park, and Big Bend National Park, that are also 
designed to provide a better understanding of the potential 
contributions from coal combustion to ambient particulate matter and 
regional haze.
    Question. How is this work coordinated with other federal and state 
agencies doing similar monitoring work?
    Answer. The Department works closely with USEPA and state agencies 
to ensure that its monitoring activities are well coordinated. The 
USEPA serves on the Department's technical advisory committee for the 
monitoring program in the upper Ohio River valley region. DOE and EPA 
also participate together in NARSTO and on the federal Air Quality 
Research Subcommittee. The Department talks with USEPA on a regular 
basis on fine particulate monitoring issues. In addition, DOE has 
established memorandums of agreement with the states of Pennsylvania, 
Ohio, and West Virginia and with the Allegheny County (PA) Health 
Department related to collaboration on fine particulate monitoring in 
the tri-state region, and is also coordinating with the mid-Atlantic 
region Air Management Association, which represents air quality 
managers from several mid-Atlantic states.
    Question. How long do the Department and its partners plan on 
operating these stations?
    Answer. The Department anticipates collaborating with its partners 
on particulate monitoring in parallel with the current fine particulate 
National Ambient Air Quality Standards implementation schedule, which 
calls for the collection and analysis of ambient fine particulates 
through 2005.
    Question. What is the status of funds appropriated in fiscal year 
1999 for Greenhouse Gas Control?
    Answer. The funds are being used to support research efforts under 
two programs related to greenhouse gas control under the Fossil Energy 
portion of the Climate Change technology Initiative: advanced, clean, 
efficient power generation technologies; and carbon sequestration 
research. The Fossil Energy budget for the Climate Change Technology 
Initiative in fiscal year 1999 is $24 million.
    Question. Please provide for the record examples of the types of 
research that has been funded thus far in this program element.
    Answer. Examples of the type of research funded so far include the 
following:
  --$18 million in fiscal year 1999 to initiate research to double the 
        efficiency of coal powerplants and virtually eliminate all 
        emissions, including carbon emissions with sequestration.
  --$6 million in fiscal year 1999 for carbon sequestration research 
        and development. The carbon sequestration work includes 
        technologies to capture and separate carbon dioxide from fuel 
        gas or flue gas, as well as technologies to dispose of the 
        captured carbon dioxide through various approaches, including 
        depleted oil and gas reservoirs, underground saline aquifers, 
        and unmineable coal seams.
    Although not in the CCTI budget, Fossil Energy also has programs to 
reduce greenhouse gas emissions by improving the nation's ability to 
supply, store, transport, distribute and utilize natural gas in an 
economically efficient and environmentally beneficial manner. Natural 
gas emits less carbon dioxide per unit of useful energy than any other 
fossil fuel.
    Question. Will the increase in this program be used for additional 
solicitations, follow-on work on proposals already selected, in-house 
research, or all of the above?
    Answer. The increased funding for the program will be used for all 
of the above. At previous levels of funding for sequestration (below $2 
million per year), the research program was limited to paper studies 
and highly leveraged Fossil Energy contributions to research conducted 
by other organizations. At fiscal year 1999 and 2000 funding levels it 
is possible to take the better concepts emerging from our earlier 
research and conduct small scale field tests and experiments.
              advanced research and technology development
    Question. How does the CO<INF>2</INF> sequestration work being done 
in the Coal Utilization Science program differ from the sequestration 
work being supported from the Advanced Research and Environmental 
Technology, Greenhouse Control program?
    Answer. The sequestration work being done in the Coal Utilization 
Science program has broad crosscutting application and supports all of 
the Fossil Energy Coal and Power Systems programs, including the 
Advanced Research and Environmental Technology program, which focuses 
on more applied areas of sequestration research such as sequestration 
in coal seams and depleted oil and gas reservoirs.
    Question. Does the Department work with other federal agencies and 
programs (such as the National Oceanic and Atmospheric Administration) 
in the Bioprocessing program?
    Answer. The Department works with other agencies and programs to 
coordinate its Bioprocessing program; specifically, the National 
Oceanic and Atmospheric Administration, U.S. Geological Survey, U.S. 
Army Corp of Engineers, and several state agencies.
    Question. Is there a working group or council that coordinates 
federal research in this area?
    Answer. Within the Department of Energy, there is a Bio Energy 
Coordinating Committee that Coordinates research in the biotechnology 
area. The Committee consists of representatives from the Offices of 
Science, Fossil Energy, Energy Efficiency and Renewable Energy, and 
Environmental Management. In addition, within AR&TD there are working 
groups formed within FETC specifically to coordinate and direct this 
research.
    Question. Can you provide for the record some recent examples of 
research supported by the University Coal Research program that has 
proven useful to or incorporated into the principal programs of the 
Office of Fossil Energy Research and Development?
    Answer. Research supported by the University Coal Research program 
supports all of the principal programs in the Office of Fossil Energy's 
Research and Development portfolio. This is accomplished by the active 
involvement of FE headquarters and field staff to identify and develop 
the highest priority research topics to be sponsored under an annual 
grant solicitation to U.S. universities. These research grants have 
resulted in significant accomplishments. An example of one of the most 
recent is highlighted below.
    One of the grants that was awarded in 1996 was to the University of 
Arkansas to investigate the fundamental problems related to the 
electrostatic beneficiation of coal for cost effective sulfur 
reduction. The results from this project led to the development of a 
new laser based instrument called an Electrostatic Spray Dynamics 
Analyzer (ESDA). It was designed to provide clean coal, by 
electrostatically separating the mineral matter from coal in an 
environmentally safe and economic manner. The instrument measures, in 
real time, the magnitude and polarity of electrostatic charge 
distributions on individual particles in air. No such instrument is 
commercially available and the technological development of this 
project, therefore plays a unique role in applications where 
electrostatic properties of particles are employed. These applications 
include spin-off benefits in the areas of powder coating, 
electrophotography (used in copying machines and laser printers) as 
well as in electrostatic beneficiation of coals and minerals.
    Question. Can you provide for the record some recent examples of 
research supported by the University Coal Research program that has 
proven useful to, or incorporated into, the principal programs of the 
Office of Fossil Energy Research and Development? The HBCU program?
    Answer. Generally, this program's focus is not on technology 
applications but rather on support of basic research that is 
appropriate for masters theses and doctoral dissertations. However, 
there are several notable and promising research projects that have or 
promise to move into further research programs at DOE and industry. Two 
recent examples include the following:
  --A project at Hampton University titled ``Attrition-Resistant Iron-
        Based Fischer Tropsch Catalysts'' is being conducted together 
        with the University of Pittsburgh and an industry partner. They 
        have developed, and are seeking to patent, a highly successful 
        new catalyst formulation. This is a candidate project to be 
        incorporated into Fossil Energy's Liquefaction program, should 
        funds be available.
  --A North Carolina A&T University presentation at the recent (March 
        1999) HBCU Symposium in Miami, Florida, entitled 
        ``Dehydrogenation of Cyclohexane in a Palladium-Ceramic 
        Membrane Reactor by Equilibrium Shift,'' produced exciting 
        results for selective production and removal of H<INF>2</INF> 
        for which patents have been applied. This is an extremely 
        important area of research for the Office of Fossil Energy 
        since H<INF>2</INF> separation is an important enabling 
        technology for Fossil Energy's Vision 21 concept.
    Question. What about technologies stemming from this program that 
have been incorporated into actual products currently in the 
marketplace?
    Answer. Though the topics addressed in the annual solicitation for 
the HBCU/OMI program are those that are deemed of specific interest in 
helping the Office of Fossil Energy achieve their research objectives, 
grant awards do not specifically target technology commercialization or 
market entry activities. Instead they support basic research that is 
appropriate for Masters Theses and Doctoral Dissertations.
    Question. Information provided by the Department indicates that a 
portion of Coal Technology Export funds are allocated to non-DOE 
entities such as the Southern States Energy Board, the National 
Association of State Energy Officials, and the United States Energy 
Association. Are these allocations for specific cooperative agreements? 
Dues?
    Answer. All are for cooperative agreements.
    Question. How did these particular entities come to receive these 
funds?
    Answer. They were previously conducting programs funded by states 
and the private sector, which were focused on goals and objectives 
shared by DOE. The Department plans to provide an estimated $325,000 to 
Southern States Energy Board (SSEB) in fiscal year 1999. SSEB is in the 
unique position of being organized specifically to work with the 
legislative industrial and social leaders of the south eastern states 
which represent a major coal producing region. Consequently, they have 
the capability to introduce DOE to key issues, opportunities and 
contacts that have a direct impact on efforts to promote the use of 
coal and coal technology in other countries.
    The Department plans to provide $54,150 to the National Association 
of State Energy Officials (NASEO) to promote peer exchange between U.S. 
and foreign government policy makers relating to information on Coal 
and Power Systems export. NASEO has an existing International PEER 
exchange program in place to facilitate these efforts and, therefore, 
is uniquely qualified to help leverage DOE's program.
    In addition, the Department plans to provided $250,000 to continue 
its cooperative efforts with the United States Energy Association 
(USEA) to promote coordination between the World Energy Conference and 
the International Energy Agency related to improved environmental and 
efficient energy use in China and the Pacific Rim. The USEA has an 
extensive network of cooperative programs with both government and non-
government organization including the China Utility Partnership 
Program, which provide unique capabilities for disseminating 
information and leveraging resources.
    Question. Is allocation of these funds reevaluated on an annual 
basis?
    Answer. Yes, as a requirement of cooperative agreements, an annual 
evaluation of activities is conducted during the year by DOE.
                    great plains gasification plant
    Question. Last week you announced an agreement under which the 
Department would facilitate the construction of a carbon dioxide 
pipeline from the Great Plains Gasification Facility in North Dakota to 
oil fields in Canada. This pipeline would allow the Great Plains 
facility to sell the carbon dioxide that it produces and use the 
revenues from those sales to keep the facility operational. What is the 
value of the tax credits being used to finance this venture?
    Answer. Dakota Gasification Company has the right to claim 
production tax credits generated by operation of the Great Plains 
project during the period January 1, 1999, through January 1, 2002, in 
an amount not to exceed $270 million. However, Dakota Gasification 
Company may only retain net proceeds (gross proceeds from the sale of 
the credits less applicable income taxes paid by Dakota Gasification 
Company) in an amount equal to 90 percent of the capitalized cost of 
the carbon dioxide pipeline project and 100 percent of the capitalized 
cost to improve the plant's environmental performance. Current 
projections of these costs total $140 million. All net proceeds 
generated in excess of this amount will be returned to the government.
    Question. Why did the Dakota Gasification Company waive its right 
to claim Section 29 tax credits when it purchased the gasification 
plant in 1988?
    Answer. Dakota Gasification Company waived its right to claim 
Section 29 tax credit credits as an element to enhance its offer to 
purchase the gasification plant in 1988. The other finalists in the 
bidding process offered a partial waiver of the Section 29 tax credits.
    Question. Did the waiver of the Section 29 tax credits affect the 
sale price of the facility?
    Answer. The offers to purchase the Great Plains facility had 
several different components which included cash payments, revenue 
sharing, full or partial waivers of Section 29 tax credits, and 
commitments to continued operation. All finalists offered at least a 
partial waiver of the Section 29 tax credits.
    Question. What justification exists to essentially reverse this 
waiver?
    Answer. Substantive potential for plant closure existed in 1998. 
Lower than expected gas and commodity prices jeopardized the prospects 
for long term operation and the return of DOE trust funds as well as 
scheduled settlement payments to DOE. The DOE agreed to make a 
``limited release'' of the Section 29 tax credit waiver in order to 
provide the necessary capital to construct a project to compress and 
transport carbon dioxide to be used in tertiary recovery of oil and to 
make additional environmental improvements to the Great Plains Synfuels 
Plant. These projects significantly enhance the prospects for long term 
operation of the Great Plains facility while protecting the 
Government's investment and scheduled payments.
    Question. What arrangements exist to guarantee that the value of 
the tax credits used to finance the pipeline will be repaid?
    Answer. Under the terms of the third amendment to the Asset 
Purchase Agreement, Dakota Gasification Company has an obligation to 
make fixed payments totaling $3.3 million annually. In addition, 
effective January 1, 2002, Dakota Gasification Company is obligated to 
pay a variable payment calculated using an applicable percentage of 
positive cash flows.
    Question. Will the CO<INF>2</INF> purchaser have a binding legal 
obligation to make the $3.3 million annual payments?
    Answer. PanCanadian, the CO<INF>2</INF> purchaser, has an 
obligation to pay Dakota Gasification Company a monthly demand charge. 
Within 10 days of receipt of the monthly demand payments Dakota 
Gasification Company has a binding legal obligation with DOE to make 
the $3.3 million annual payment in monthly installments under the terms 
of the Third Amendment to the Asset Purchase Agreement.
    Question. Is there any financial risk to this portion of the deal 
based on possible changes in oil markets, etc.?
    Answer. The CO<INF>2</INF> agreement is structured as a long-term 
take-or-pay contract with fixed demand payments as well as levels of 
production. Substantial costs are required to terminate the agreement.
    Question. Will the CO<INF>2</INF> demand charges and any positive 
cash flow to Dakota Gasification be deposited in the Treasury, or will 
they be available to the Department of Energy?
    Answer. As with previous receipts (revenue sharing, interest on 
trust accounts, return of principal from trust account funds, and 
settlement payments) the CO<INF>2</INF> demand charges and any payments 
to the Department of Energy of applicable percentage of positive cash 
flows will be deposited in the Treasury as miscellaneous receipts and 
not be available to the Department.
    Question. If no private entity is willing to finance construction 
of the CO<INF>2</INF> pipeline, why is the Department of Energy 
fulfilling this role?
    Answer. The prospects for continued operation of the Great Plains 
facility and return of DOE trust funds and scheduled payments to DOE 
were in jeopardy. A restructured and amended agreement established a 
unique funding plan. DOE agreed to let Dakota Gasification Company use 
the previously waived Section 29 tax credits but required that the 
proceeds only be used to finance the CO<INF>2</INF> project and to fund 
the additional environmental improvements necessary to resolve the 
environmental issues at the plant. These modifications are subject to a 
repayment mechanism that returns the money lost to the U.S. Treasury 
back to the federal government.
    Question. Is construction and operation of the pipeline expected to 
produce any information of scientific value?
    Answer. The construction and operation of the pipeline for use in 
enhanced oil recovery significantly enhances the prospects for 
continued operation of the Great Plains Synfuels Plant. The pipeline 
also develops the capacity for additional enhanced oil recovery 
projects in western North Dakota and Montana. The limited release of 
the section 29 tax credit waiver also provides the funding for 
additional environmental improvements including the installation of a 
wet electrostatic precipitator to resolve pending environmental issues 
and improvements to a first of kind commercial application of an 
ammonia based scrubbing system.
    Question. How specifically does DOE's participation in this project 
relate to the Department's goal and objectives under the Government 
Performance and Results Act?
    Answer. DOE's participation in this project is consistent with 
DOE's strategic goal to promote secure, competitive, and 
environmentally responsible energy systems that serve the needs of the 
public. Specific objectives within this goal include reducing the 
vulnerability of the U.S. economy to disruptions in energy supplies; 
increasing the efficiency and productivity of energy use, while 
limiting environmental impacts; and carrying out information 
collection, analysis, and research that will facilitate development of 
informed positions on long term energy supply and use of alternatives. 
The objectives of the DOE strategic plan are used for reporting results 
under the Government Performance and Results Act.
                          natural gas research
    Question. The budget request includes $1.985 million for methane 
hydrates research. How will these funds be administered?
    Answer. The methane hydrates program will be administered through 
the Office of Fossil Energy (FE). The Office will coordinate its 
activities with the hydrates research and development work of other 
government groups, including the U.S. Geological Survey, Naval Research 
Lab, Minerals Management Service, National Science Foundation, and 
Ocean Drilling Program. In addition, a Management Steering Committee 
(MSC) will be formed, comprising government and private organizations 
that finance methane hydrates research and/or will use the products of 
the program. The MSC will ensure that work under the methane hydrates 
program will complement other work conducted by federal, state, and 
commercial organizations and coordinate with International groups 
conducting hydrates research and development.
    Question. Will the funds be used for in-house work, research 
contracts with other entities, or other types of activities?
    Answer. Funding recipients have not yet been determined but will 
almost certainly include industrial partners; other Government 
organizations (such as the Naval Research Lab, U.S. Geological Survey, 
the Ocean Drilling Program, National Science Foundation, and Minerals 
Management Service); national laboratories; academia and oceanographic 
institutions, including university consortia and the Federal Energy 
Technology Center; and Rocky Mountain Oilfield Test Center. This is 
consistent with the draft Methane Hydrates Research and Development Act 
of 1999, which encourages ``partnerships among government, industry and 
institutions of higher learning.''
    Few, if any, competitive procurements would be possible at the $2 
million funding level, but at higher funding levels anticipated as the 
program matures, open solicitations would be added to the procurement 
mechanisms used to implement the program.
    Question. Given the current state of knowledge regarding methane 
hydrates, could the Department effectively spend more money for 
research in this area if funds were available? If so, how much?
    Answer. Yes, the Department could effectively spend more on methane 
hydrates research in fiscal year 2000. The Department considers the 
fiscal year 2000 Congressional budget request of $1.985 million to be 
the appropriate level of funding. Any proposed funding addition will 
have to be offset by funding reduction elsewhere to maintain the 
discretionary budget cap imposed by the BEA of 1990.
    Question. How would these additional funds be used?
    Answer. While specific procurement plans will not be finalized 
until appropriations have been approved by Congress, the Department 
anticipates that program activities could include the following work, 
depending on the funding level. Most of the funding would be used to 
leverage existing methane hydrates expertise at DOE and other 
government agencies. No competitive solicitations are planned. At the 
proposed $2 million funding level the program would:
  --Initiate databases of hydrate locations and research results,
  --Collect samples and conduct geologic/geophysical studies to define 
        the location and quantities of naturally occurring hydrates,
  --Conduct laboratory and modeling studies of hydrate dissociation,
  --Initiate preliminary seismic evaluation of subsea hydrate structure 
        and strength, and
  --Monitor subsea hydrate sites.
    At a $10 million funding level, for example the program could also:
  --Conduct laboratory studies of the geologic, geochemical, 
        thermodynamic, and acoustic properties of hydrates;
  --Correlate field samples with geologic, geophysical, and geochemical 
        data;
  --Develop predictive models of hydrate formation and dissociation;
  --Site selection and test design for onshore production test;
  --Develop preliminary production process models;
  --Monitor dispersed hydrate sites and the geologic record relative to 
        methane release; and
  --Assess methane hydrate storage options.
    At the higher funding level, the program would issue competitive 
solicitations for work by academia, national labs and industry. 
Multiple approaches would be pursued and varied sites would be studied.
    Question. Funds are requested in the turbine program for 
investigation of mid-size turbine configurations for use in ``Vision 21 
powerplex applications.'' Does the incorporation of turbines into a 
Vision 21-type power system present large technological hurdles that 
will require significant additional research, or can the use of 
turbines in this fashion be accomplished with relatively little 
reconfiguration?
    Answer. Many of the Vision 21 configurations will present large 
technological hurdles for gas turbine integration. For example, current 
ATS turbines have been developed for operation with natural gas. Vision 
21 systems are intended to be fuel flexible--capable of using coal, 
gas, biomass in combination with other fuels. Further development is 
needed to make advanced turbines compatible with these fuels. Another 
example of a major turbine integration challenge would be associated 
with Vision 21 systems employing fuel cells in a hybrid fashion, which 
constrains operating temperatures, pressures, and mass flows. 
Integrating these hybrid systems with a gasifier will be especially 
challenging.
    To meet the aggressive goals set for Vision 21 systems, significant 
effort will be required in both integration and controls as well as in 
improvements in gas turbine performance. Under the proposed Next-
Generation Gas Turbine Systems program, enabling technologies and 
products will be developed to support the Vision 21 program. As clear 
goals and objectives emerge from the Vision 21 program, turbine-based 
concepts will be defined that can be integrated into Vision 21 plants. 
Currently, Vision 21 gas turbine based modules are conceptualized as 
High Efficiency Engines and Turbines (HEET) and are expected to include 
evaluation of ultra-high efficiency systems such as reheat, 
recouperative cycles, hydrogen turbine systems, and intercooled 
advanced cycle systems, adaptation of improvements made for natural-
gas-fueled turbines to coal fuels or other opportunistic fuels, and 
development of ultra- high efficiency power modules using novel or 
innovative concepts for combustion or steam power conversion devices.
    Question. Is this likely to be an area requiring significant 
additional resources in future years, or can the adaptation of turbines 
for this purpose be accomplished with relatively little DOE support?
    Answer. Though there are near-term market spinoffs expected from 
the turbine portion of the Vision 21 program (referred to as High 
Efficiency Engines and Turbines or HEET), industry will not be able to 
the support this longer-term research and development effort on their 
own. In addition, market restructuring has all but eliminated public 
utility research and development efforts related to power generation 
equipment. Government/industry partnerships are needed to induce 
manufacturers to invest in technically risky, longer term, research and 
development efforts.
    Question. The request includes $32.59 million for the Advanced 
Turbine Systems program, a decrease of roughly $3 million from fiscal 
year 1999. Assuming Congress provides the requested amount in fiscal 
year 2000, what will likely be the level of the Department's fiscal 
year 2001 budget request for this program?
    Answer. The Department is currently developing its budget proposal 
for fiscal year 2001. It depends on Congressional Appropriations as 
well as other factors. Thus it is almost impossible to speculate on 
fiscal year 2001 funding levels for a program of this magnitude at this 
time.
    Question. In fiscal year 2002? Do we know yet whether the ATS 
technology developed in this program will actually meet or exceed the 
goals established at the outset of the program?
    Answer. Both Siemens-Westinghouse and General Electric expect to 
meet the goals set forth in the ATS program. Test results, to date, 
indicate that they are on track. It is expected that the full-speed, 
no-load tests and full-scale ATS demonstrations (not being fund by DOE) 
will confirm that the ATS program goals have been met. By fiscal year 
2002, we expect that the utility scale testing will have been completed 
successfully, while the base technology program will continue to 
support improvements on turbine blades, address fuel flexibility, with 
a transition to intermediate scale turbine development.
    Question. The amount requested for the Gas-to-Liquids program 
represents a decrease of $1.5 million from the fiscal year 1999 level. 
Is the amount requested sufficient to maintain work on the ITM SynGas 
program in fiscal year 2000 at the level contemplated in the original 
work plan?
    Answer. No, higher levels of funding were estimated in the original 
work plan.
    Question. If not, how much additional funding would be required to 
do so?
    Answer. The Department considers the fiscal year 2000 budget 
request to be the appropriate level of funding. The fiscal year 2000 
budget currently includes $5.1 million to complete Phase I project 
activities that entail selecting a single membrane material composition 
and developing necessary ceramic-to-metal sealing technology. Phase I 
is scheduled to end during the first quarter of fiscal year 2000. 
Additional funds of about $1.5 million would be required to initiate 
Phase II; DOE does not propose to initiate Phase II in fiscal year 
2000.
    Question. What additional work, if any, could be accomplished in 
fiscal year 2000 if additional funds were provided?
    Answer. If additional funds are provided in fiscal year 2000, we 
would put additional funds on the Ionic Transport Membrane (ITM) 
contract. The ITM project is a three phase, $86 million, 8-year, 
competitively-selected effort directed to the development and 
demonstration of selected ceramic membrane(s) to separate oxygen from 
air and enable the precise partial oxidation of natural gas within a 
single reactor to make a ``synthetic gas'' (syngas), which then can be 
converted to a liquid in a second reactor.
    Air Products and Chemical, Inc. (APCI), the prime contractor for 
the effort, and DOE believe that the present Phase I deadline for 
completion of March 30, 2000 will be met. APCI hopes to more quickly 
move into Phase II work (assuming a go-ahead decision by DOE in late 
1999) with the goal of completing the initial, two major ITM-Syngas 
process tests in less time than the present 3\1/2\ year schedule.
    Question. Does the request include any funding in support of the 
alternative gas-to-liquids technology being developed by a university 
team led by the University of Alaska-Fairbanks?
    Answer. No funding has been requested in the fiscal year 2000 
budget for this work because it will be fully funded with fiscal year 
1998 and 1999 appropriations.
    Question. What is the status of funds appropriated to date for this 
project?
    Answer. On April 16, 1999, DOE announced the award of a 2-year, 
$3.1 million university effort in support of BP Amoco's alternative 
approach to one-step oxygen separation and methane partial oxidation. 
DOE will provide $2.5 million to the University of Alaska-Fairbanks for 
the project. The project will also receive $625,000 in private sector 
cost-sharing. Joining the University of Alaska will be the 
Massachusetts Institute of Technology, the University of Houston, the 
University of Illinois-Chicago, and the University of Missouri-Rolla. 
This project will be fully funded with fiscal year 1998 and 1999 
appropriations.
    Question. The request for the coal mine methane program is level 
with fiscal year 1999. What is the current status of this program?
    Answer. The program is in Phase II which is the design phase of the 
field demonstration of technologies for capturing and using emissions 
from coal mining operations.
    Question. Has there been a downselection of demonstration proposals 
developed in this program?
    Answer. No, downselection has not yet taken place.
    Question. If not, when will this selection be made?
    Answer. Downselection for the field demonstration projects will 
begin in late summer of 1999.
    Question. How many projects is the Department likely to continue 
supporting?
    Answer. The Department plans to choose two projects for field 
demonstration.
    Question. Assuming the amount requested in fiscal year 2000 is 
provided, what will be accomplished in this program in fiscal year 
2000?
    Answer. The program funding for fiscal year 2000 will allow for the 
initial implementation phase of the field demonstrations.
    Question. What is the estimated funding profile for the remainder 
of the program?
    Answer. There will be 50-percent industry cost-sharing with the 
field demonstrations. The estimated funding profile for the remainder 
of the program will be as follows:

        Fiscal year                                               Amount
2000..........................................................  $500,000
2001.......................................................... 1,000,000
2002.......................................................... 1,000,000
2003.......................................................... 1,000,000

    Question. The request proposes a 75-percent increase in Outreach 
and Technology Transfer within Natural Gas Research, but does not 
explain what the increase will accomplish. Why is this increase 
requested?
    Answer. This modest increase of $187,000 would be used to provide 
independent natural gas producers with better information on current 
and upcoming environmental regulatory issues that affect their 
operations and potentially increase their costs. This outreach will 
include information on compliance, reporting, and permitting 
requirements and will provide training for operators on least-cost, 
environmentally protective methods of compliance. Surveys of operators 
have identified the need for better environmental regulatory and 
compliance information as a top priority need of independent producers. 
It is anticipated that the Petroleum Technology Transfer Council and 
possibly others would implement this environmental outreach effort.
                               fuel cells
    Question. The request includes $30 million for continued work on 
two molten carbonate fuel cell systems and one tubular solid oxide fuel 
cell system. Assuming the budget request is provided, what will MC 
Power and ERC accomplish in fiscal year 2000 in their molten carbonate 
development programs?
    Answer. In fiscal year 2000, the budget request for Fuel Cells is 
$37,649,000 for the continuation of the three major development 
efforts, plus an additional $4,950,000 is requested in the High 
Efficiency Integrated Gasification/Combined Cycle program for the 
development of advanced fuel cell systems for Vision 21 gasification/
combustion applications.
    Siemens Westinghouse will test a 250-kilowatt fuel cell turbine 
hybrid system at the National Fuel Cell Research Center in California. 
Siemens Westinghouse will also be involved in development of advanced 
fuel cell systems for Vision 21 gasification/combustion applications.
    ERC plans to complete a 250-kilowatt tall stack test in the grid 
connected mode of operation at ERC's 400-kilowatt test facility, and 
also plans to complete a 2500-kilowatt power plant demonstration at a 
U.S. site. The results of the demonstration will provide the basis for 
a commercial design for a plant in the 250-kilowatt to 3-megawatt size 
range.
    MC Power plans to complete a 250-kilowatt endurance stack test to 
validate the lifetime and performance of stack components that will 
provide the basis of a total plant systems demonstration on the 250- to 
500-kilowatt size.
    Question. What work will likely be done in fiscal year 2001?
    Answer. ERC plans to complete the commercial design for a plant in 
the 250-kilowatt to 3-megawatt size range, and plans to conduct a 
megawatt scale power plant test to validate its commercial design. MC 
Power plans to initiate a 250- to 500-kilowatt plant system 
demonstration to validate its commercial design.
    Question. How much has the Department spent thus far on molten 
carbonate fuel cell development?
    Answer. The Department has provided approximately $364.1 million to 
molten carbonate fuel cell developers through 1998 and expects to 
provide an additional $26.3 million in the current fiscal year.
    Question. What is the Department's estimate of when these 
technologies will be ready for market entry?
    Answer. Commercial entry could occur in the 2003 to 2004 time 
frame, following pre-commercial demonstrations and the completion of 
the current projects.
    Question. When does the Department expect to cease supporting these 
two development contracts?
    Answer. The current contracts are scheduled to end in 2002-2003. As 
with many new technologies, the first generation of commercial fuel 
cells (phosphoric acid fuel cells) have encountered significant hurdles 
competing with low cost, albeit less environmentally pristine, 
conventional technology. However, market studies have indicated that 
even with the high initial costs, there are distributed generation 
markets for these fuel cells, particularly in applications where 
premium power (high quality and reliability) is in demand. The next 
generation (molten carbonate and solid oxide) fuel cells ought to be 
more economically attractive, but significant cost reduction will be 
needed to enable the capture of major market shares. DOE is currently 
assessing the need for an advanced program focused on major reductions 
in cost for fuel cell and balance of plant components.
    Question. Does the Department intend to downselect to one molten 
carbonate contractor during fiscal year 1999 or 2000? If not, why not? 
If so, when?
    Answer. A decision to downselect to one molten carbonate contractor 
has not been made, but that option will be considered in the course of 
a periodic process for evaluating the progress of each of the fuel cell 
developers and their ability to provide their cost share. DOE will 
initiate such a review at the end of May 1999, and a determination 
concerning downselection will occur at that time.
    Question. What would likely become of the technology and data 
developed with DOE support under the terminated contract?
    Answer. The outcome depends on specific contract provisions, 
whether the contractor is a small business or a large business, and the 
value of the technology and data. By statute, small businesses get an 
automatic right to retain title to their inventions and there is no 
specific requirement to obtain DOE's approval to transfer those rights 
to another entity, including a foreign entity. However, the entity 
receiving those rights can only exercise them subject to statutory 
requirements that apply to small businesses, including a requirement 
that products for use or sale in the United States must be 
substantially manufactured in the United States. No such requirement 
applies for use or sale outside the United States.
    Large businesses must obtain a waiver of patent rights from DOE in 
order to retain rights to inventions made with Government funding (that 
is, subject inventions). Advanced waiver clauses require DOE approval 
before transferring patent rights to a foreign company. The large 
business and any entity to which it would transfer patent rights must 
substantially manufacture in the United States and products for use or 
sale in the United States. Violation of this requirement subjects the 
contractor to repay all funds provided by DOE and either license 
subject inventions to a third party U.S.-owned entity who agrees to 
commercialize the technology or return title to subject inventions to 
DOE. There are additional requirements to license background patents 
necessary to practice the technology to the third parties.
    The fuel cell awards also have adequate recognition provisions 
requiring DOE approval of any contract, license, or other agreement 
that transfers fuel cell technology developed at least, in part, with 
government funding to a foreign entity. However, it is not known 
whether adequate recognition provisions are enforceable against a small 
business because there is no such restriction in the statute that gives 
small businesses title to their inventions.
    The contractor can use the data developed under the government 
award for its private purposes as long as its reporting requirements to 
the government have been met. These fuel cell contractors have the 
ability to withhold certain information from public disclosure for up 
to 5 years under the Energy Policy Act. However, there is nothing to 
prevent the contractor from transferring such data under confidential 
arrangements to a foreign entity. The only contractual restrictions on 
the contractor's private use of the data are related to patent and 
security issues, and these restrictions are not likely to impede the 
flow of data to a foreign entity.
    The current value of the technology would be a factor in 
determining whether the contractor would attempt to sell the technology 
and data, and what options DOE might choose to exercise to prevent a 
significant loss of the U.S. taxpayer's investments and loss of the 
technology.
    Question. Have the three principal contractors in the fuel cell 
program each lived up to the cost sharing requirements of their 
individual research agreements?
    Answer. Yes, the principal contractors have lived up to the cost 
sharing requirements. Earlier in this fiscal year, MC Power began to 
fall behind in meeting their cost-share requirements. DOE slowed the 
obligation of funding until the delinquency was corrected. MC Power is 
currently meeting the cost-share requirements.
    Question. Is the Department confident these cost sharing 
requirements will be met in fiscal year 2000?
    Answer. Yes, at this time we are confident.
    Question. Has the Department yet made a decision whether to proceed 
to Budget Period 4 of the research program with MC Power? If not, when 
will this decision be made? Is so, what is the decision and the nature 
of the arrangement for Budget Period 4?
    Answer. No, the Department has funded the cost overrun in Budget 
Period 3. Depending on the progress made in Budget Period 3, a decision 
will be made whether or not to fund Budget Period 4. This decision will 
be made by late spring of 1999.
    Question. How has the Department acted to protect the federal 
investment in the fuel cell program as a result of the Siemens-
Westinghouse merger?
    Answer. Siemens-Westinghouse has agreed to a provision to ensure 
the United States obtains Adequate Recognition. A specific contractual 
clause requires the substantial manufacture of technology first 
developed under DOE's program in the United States and provides for 
verification. In the event that Siemens-Westinghouse does not 
substantially manufacture in the United States, Siemens-Westinghouse 
must repay the U.S. government all monies, with appropriate interest, 
granted to them.
                             oil technology
    Question. The 1998 Strategic Plan for the Office of Fossil Energy 
sets a goal of stopping the decline in domestic oil production by 2005, 
and increasing production by 500,000 barrels per day by 2010. Is it 
possible to achieve this goal if oil prices remain as low as they are 
currently?
    Answer. No, if oil prices remain below about $14 per barrel, we 
believe that it will not be possible to arrest the decline in domestic 
oil production by 2005, and to increase the production by 500,000 
barrels per day by 2010. The sharp decline in oil prices caused DOE 
concern about achieving the stated goal. Therefore, we have initiated 
the Preferred Petroleum Upstream Management Practices (PUMP) program, 
starting with $500,000 requested in fiscal year 2000.
    The original PUMP program was designed to supplement existing DOE 
mid- and long-term research and development through the involvement of 
the nation's oil technology experts in industry, government, and 
academia. The program would focus on integrated and expedited 
application of advanced technologies through field demonstrations, best 
practices, and resolution of environmental and regulatory constraints. 
Strategies are threefold: use known technology mechanisms; regional 
approaches; and integrated solutions to technology, regulatory and data 
constraints.
    Question. Is the additional production needed to achieve this goal 
likely to come predominantly from enhancements to existing wells and 
fields, or from development of new fields?
    Answer. The additional production needed to achieve this goal would 
come mostly from enhancements to existing wells and fields (about 75 
percent of total), and also from the development of new fields and 
field extensions (about 25 percent of total). Additional oil production 
from enhancements to existing wells and fields will result from 
improved oil recovery technologies, and field demonstration of 
technologies, such as the Reservoir Class program. Additional 
production from new fields will result from research on sophisticated 
computational techniques needed for much more accurate reservoir 
characterization and interpretation of seismic data, such as subsalt 
imaging in the Gulf of Mexico.
    Question. Oil development on the North Slope presents a number of 
challenges. What work is being done in the Oil Technology program that 
would lower the cost of recovering heavy oil in locations such as the 
North Slope?
    Answer. The currently ongoing research that directly relates to the 
recovery of heavy oil and that has potential for lowering the cost of 
recovering heavy oil in locations such as the North Slope are as 
follows:
  --Modification of Chemical and Physical Factors in Steam Floods to 
        Increase Heavy Oil Recovery (University of Southern California)
  --Quantitative Methods for Reservoir Characterization and Improved 
        Recovery: Application to Heavy Oil Sands/Fundamental Geoscience 
        Awards (Clemson University)
  --North slope Heavy Oil Recovery (CRADA with BP Exploration, Inc., 
        BDM International)
  --Heavy Oil Recovery Mechanisms (Stanford University, ARCO, Chevron, 
        Texaco, INTEVEP, Amoco, Exxon, Mobil, Elf)
  --Transport and Phase Equilibria Properties for Steam Flooding of 
        Heavy Oils (Prairie View University HBCU grant)
  --Reactivation of an Idle Lease to Increase Heavy oil Recovery 
        through Application of Conventional Steam Drive Technology, 
        Reservoir Class III (University of Utah, ARCO Western, Utah 
        Geological Survey)
  --Increasing Heavy Oil Reserves in the Wilmington Oil Field through 
        Advanced Reservoir Characterization and Thermal Production 
        Technologies, (Reservoir Class III)
  --Removal of Heteroatoms and Metals from Heavy Oils by Bioconversion 
        Processes (Texaco, Exxon, Unocal, Energy Biosystems, Baker 
        Chemicals, Chevron)
  --Fundamental Chemistry of Heavy Oil Thermodynamics (Oak Ridge 
        National Laboratory)
    Past research that directly relates to heavy oil recovery in areas 
such as Alaska, includes the development and demonstration of double 
insulated tubing for steam injection and a downhole steam generator. 
Both are important in areas where permafrost is encountered and both 
were commercialized, but not widely used due to low oil prices.
    Question. In what program elements is this work being performed and 
with what research partners?
    Answer. Projects 1 through 5 below are performed under the 
Exploration and Production Supporting Research; projects 6 and 7 are 
performed under the Recovery Field Demonstration, and; projects 8 and 9 
are performed under Effective Environmental Protection.
  --Modification of Chemical and Physical Factors in Steam Floods to 
        Increase Heavy Oil Recovery (University of Southern California)
  --Quantitative Methods for Reservoir Characterization and Improved 
        Recovery: Application to Heavy Oil Sands/Fundamental Geoscience 
        Awards (Clemson University)
  --North slope Heavy Oil Recovery (CRADA with BP Exploration, Inc., 
        BDM International)
  --Heavy Oil Recovery Mechanisms (Stanford University, ARCO, Chevron, 
        Texaco, INTEVEP, Amoco, Exxon, Mobil, Elf)
  --Transport and Phase Equilibria Properties for Steam Flooding of 
        Heavy Oils (Prairie View University HBCU grant)
  --Reactivation of an Idle Lease to Increase Heavy oil Recovery 
        through Application of Conventional Steam Drive Technology, 
        Reservoir Class III (University of Utah, ARCO Western, Utah 
        Geological Survey)
  --Increasing Heavy Oil Reserves in the Wilmington Oil Field through 
        Advanced Reservoir Characterization and Thermal Production 
        Technologies (Reservoir Class III)
  --Removal of Heteroatoms and Metals from Heavy Oils by Bioconversion 
        Processes (Texaco, Exxon, Unocal, Energy Biosystems, Baker 
        Chemicals, Chevron)
  --Fundamental Chemistry of Heavy Oil Thermodynamics (Oak Ridge 
        National Laboratory)
    Past research that directly relates to heavy oil recovery in areas 
such as Alaska, includes the development and demonstration of double 
insulated tubing for steam injection and a downhole steam generator. 
Both are important in areas where permafrost is encountered and both 
were commercialized, but not widely used due to low oil prices.
    Question. Are there particular problems associated with directional 
drilling and other advanced drilling technology in Arctic conditions?
    Answer. Yes, all drilling projects--vertical and directional--must 
address problems associated with the surface location in addition to 
problems associated with the subsurface reservoir. Drilling projects 
must address diverse, often extreme, surface environments, numerous 
species of wildlife, wilderness, sparse population, remoteness, and 
limited infrastructure: offshore extremes from arctic to subarctic 
climates; earthquakes and associated tsunamis; volcanic activity that 
can result in dust fallout, toxic gases, land slides, floods, tidal 
waves, or other associated hazards. Commercial fishing is an important 
industry in Alaska, and offshore oil exploration must be conducted in a 
manner which does not interfere with these activities. Other challenges 
on the surface which must be met by operators drilling in the Alaska 
offshore areas include: extreme wave heights and long wave periods; 
high tides, high currents, and strong winds; intense storms; the 
remoteness of the Bering Sea and Chukchi Sea; temperatures and 
associated conditions require the use of special steels, safety 
devices, and procedures for the protection of personnel and equipment; 
and annual sea ice and pack ice dictate seasonal operations or drilling 
and production structures. Downhole, there are other issues being 
addressed, such as the following:
  --Refrigerated mud systems are necessary when drilling in areas with 
        permafrost;
  --An independent third party review is required for new or untried 
        technology;
  --Real-time well control equipment and technology, and improved 
        accuracy and sophistication of equipment for monitoring of 
        wellbore and drill string parameters provide early warning of 
        abnormal down hole conditions;
  --Computer application and automation of safety sensing devices and 
        equipment; prediction or detection of abnormal pressure through 
        seismic data analysis or drilling measurements, automated drill 
        pipe handling equipment, and top drive or improved rotary 
        swivel equipment;
  --Avoidance of wellbore collision in areas of high well density; and
  --The use of new wells versus sidetracks; conventional rotary rigs 
        versus coiled tubing drilling unit, horizontal and/or high 
        angle completion profiles versus vertical, short radius 
        directional build profiles versus medium radius; slotted liner 
        completions versus solid and selectively perforated casing, 
        chrome production tubing versus carbon-steel tubing, thru-
        tubing rotary drilling and multi-lateral well designs, ultra-
        slim diameter mud-pulse-telemetry directional drilling tool for 
        application through 3\1/2\-inch tubulars to drill directionally 
        steered 2\3/4\-inch boreholes at Prudhoe Bay using coiled 
        tubing as a directional extension of the horizontal section 
        below the existing 3\1/2\-inch tubing string.
    Question. If so, are these problems the focus of any work being 
performed in the Oil Technology program?
    Answer. Yes, the Department's Oil Advanced Drilling, Completion and 
Stimulation program includes investigation of problems associated with 
surface conditions including miniaturization of equipment both uphole 
and downhole, and problems associated with the reservoir environments 
encountered during the drilling phase. The program includes the 
following projects which have application to drilling in Arctic 
regions:
  --Fiber Optic Sensor Technology Development--optical fiber sensors 
        for the measurement of pressure, temperature, flow, and 
        acoustic waves.
  --Stimulation Research--investigation of advanced acidization 
        treatments, formation consolidation techniques, microbial 
        processes, formation fracturing, and real time seismic data 
        acquisition.
  --Optimization of Horizontal Well Completion--development of 
        guidelines and software to optimize the horizontal well 
        performance.
  --Compact Three-phase Separator--to reduce the amount of surface area 
        needed for fluid separation operations on offshore platforms or 
        onshore situations benefitting from extremely small footprint.
  --Advanced Cuttings Transport Facility--assessment of the ability of 
        aerated and compressible drilling fluids to transport cuttings 
        under various conditions of high temperature and pressure.
  --Tulsa University Drilling Research Program--acquisition of results 
        of experimentation on the ability of aerated and compressible 
        drilling fluids to transport cuttings under conditions of low 
        temperature and pressure.
  --Wellbore Stability and Heat Flow--experimentation and data 
        collection for use in predictive models that will assist in 
        basin development.
    Question. A number of refineries in the United States have been 
operating under EPA waivers for sulfur dioxide emissions. That waiver 
will soon expire, which may have a severe impact on smaller refineries 
that cannot afford costly equipment to reduce emissions. What 
technologies are being developed to lower the cost of reducing sulfur 
dioxide emissions?
    Answer. There are several commercial technologies that are 
available to reduce sulfur dioxide emissions from refineries. These 
technologies are constantly being improved by their developer. The most 
utilized technology is the Claus process. To achieve lower emissions of 
sulfur, two other methods are being used, enhanced Claus conversion 
(for example, BSF, Selectox, Sulfreen, Cold Bed Absorption, Maxisulf, 
and IFP-1 processes) and gas scrubbing (for example, SCOT and Beavon 
processes).
    Question. What departmental programs are supporting this type of 
work?
    Answer. There are no programs which are intended to directly 
support developing technology for capturing SO<INF>2</INF> emissions 
from refineries. The Environmental Systems program has developed a 
number of systems for reducing SO<INF>2</INF> emissions from coal fired 
power plants and this research is ongoing. Some of this technology may 
be useful for reducing SO<INF>2</INF> emitted from refineries also.
    Question. A $500,000 increase is requested for Analysis and 
Planning in the Exploration and Production Supporting Research program, 
but the justification does not explain the purpose of the increase. Why 
are the additional funds necessary?
    Answer. The additional funds will be used to improve the oil and 
gas models used by Fossil Energy. These models are used to assess the 
costs and benefits of competing RD&D initiatives to help pick the most 
beneficial RD&D; to provide metrics to identify the benefits of oil and 
gas programs as part of the presentation of the budgets; and to assess 
the costs and benefits of wide-ranging policy initiatives affecting the 
petroleum industry to support DOE, the Administration, and Congress in 
determining the relative merits of these proposed policies.
    The additional $500,000 requested will be used to: integrate the 
oil and gas models that are currently separate, and add modules for 
offshore, environmental regulations and costs, and downstream 
operations. These improvements will allow the integrated model to more 
accurately simulate how the industry operates in terms of having an 
integrated perspective on oil and gas development. They will also give 
the program the ability to better model new or evolving areas of the 
program--that is, offshore, environmental, and downstream. This will 
provide significant benefits in all three model applications described 
in the previous paragraph.
    Question. What would be the impact if the increase were not 
provided?
    Answer. The immediate and ongoing impact would be the loss of the 
information that comes from these models as described in the three 
types of model applications outlined previously. This information is 
vital to all aspects of the oil and gas programs in terms of providing 
information on the best RD&D paths to choose, metrics information to 
supplement the budget process, and information to support DOE's wide-
ranging policy initiatives. These policy initiatives include: 
environmental issues, financial and tax issues affecting the industry, 
and impacts of federal lands development policies on the domestic 
petroleum industry.
    The longer-term impact would be that, it will be more expensive to 
do these model improvements in the future then it would be to do them 
now. This is because this model development process has been underway 
since 1998 and a group of knowledgeable modeling experts have been 
assembled and trained to do this work. Right now these modelers can do 
this work with maximum efficiency and cost-effectiveness. If this work 
is not funded now those modelers will be moved to other work. Then, if 
it is decided these model improvements should be made some time in the 
future new modelers may have to be assembled and trained, or if the 
same modelers are available, they will have lost the level of knowledge 
they currently have on the workings of the models and will have to be 
retrained.
    Finally, while this is a $500,000 increase in the Analysis and 
Planning budget as compared to the 1999 budget ($3.7 versus $3.2 
million), this is only a $200,000 increase in budget as compared to the 
1998 budget when this modeling initiative began ($3.7 versus $3.5 
million).
    Question. The Department will continue to provide funding for the 
Petroleum Technology Transfer Council in fiscal year 2000. Was it 
originally intended that the Council eventually would become self-
supporting and not rely on Department of Energy funds?
    Answer. The Council was first funded in fiscal year 1993 with the 
intention that after 5 years full support would come from industry.
    Question. If so, when were federal appropriations for the Council 
to cease according to the original program plan?
    Answer. The original plan was to provide federal support for a 5-
year period, with DOE providing most of the funding for the first few 
years. Because of budget constraints, DOE funding for the first 5-year 
period was significantly below the proposed levels. This resulted in a 
longer than anticipated time frame to set up the Council structure.
    Question. What is the current projection of when federal support 
for the Council will cease?
    Answer. The current grant to the Council started May 1998 and ends 
May 2003. At the end of the current grant the Department will evaluate 
the need to continue supporting the Council. Continuation of support 
will depend on the need for the type services that the Council provides 
toward meeting the Department's mission and the ability of the Council 
to remain a strong technology transfer organization to the industry 
without federal support. The Council has been an economical and 
effective tool supporting the Department in meeting its mission by 
assisting in the dissemination of technology developed by the 
Department's research and development programs to the independent 
petroleum producing community.
                           program direction
    Question. The justification indicated that roughly $7.5 million 
will be allocated in fiscal year 2000 for the SBIR and STTR programs. 
How are these funds allocated each year?
    Answer. These funds are set aside, by law, as a percentage of the 
extramural budget (funds other than those used for in house research or 
for salaries). The SBIR offset is 2.5 percent and the percentage of 
funds for STTR programs is 0.15 percent. The funds are then competed.
    Question. What are some examples of the types of activities funded, 
and their relationship to Fossil Energy Research and Development 
program goals?
    Answer. These activities are designed to provide broad support to 
Fossil Energy Research and Development program goals. For Example, the 
SBIR topics are coal and gas turbine systems, and recovery and 
utilization of fossil fuels in SBIR; the STTR topics are 
instrumentation for sampling, measuring and monitoring green house 
gases, coal-fired related pollutants and hydrogen.
    Question. The justification indicates that four additional FTE's 
will be supported in fiscal year 2000 at the National Petroleum 
Technology Office. What is the rationale for these additional 
positions?
    Answer. With the closing of the National Institute for Petroleum 
and Energy Research (NIPER), the workload for the former Bartlesville 
federal employees now located in Tulsa, has increased significantly. In 
order to alleviate some strain on the staff, four federal employees 
from the Elk Hills California Oil Field site were transferred to Tulsa. 
These employees are very knowledgeable of oil industry activities and 
of the Department of Energy.
                    advanced metallurgical processes
    Question. It has been several years since the Albany Research 
Center was transferred from the Bureau of Mines to the Department of 
Energy. Has the transition been successful from the point of view of 
the Fossil Research and Development program?
    Answer. Yes, the program at ARC has been successfully redirected to 
address Fossil Energy research and development needs. This has been 
made possible by extending the cross-cutting research expertise and 
capabilities resident at ARC. In addition, the Fossil Energy research 
efforts at ARC are being effectively leveraged throughout a number of 
other program offices in DOE.
    Question. Is the transition complete?
    Answer. Yes, as new Fossil Energy research program needs developed 
and emerged, and partnership opportunities presented themselves during 
the past three years, appropriate mission priorities at ARC were 
realigned and refocused. Today all activities in the Advanced 
Metallurgical Processes program support Fossil Energy research and 
development goals.
    Question. Does the work currently being performed at the ARC 
directly support the goals of the Fossil Energy Research and 
Development program?
    Answer. Yes, as examples, two primary cooperative research 
opportunities addressing needs associated with the Vision 21 EnergyPlex 
were identified within Fossil Energy and research was initiated at ARC 
late in fiscal year 1998. Those two technology efforts consist of 
gasifier refractory materials research and mineral carbonation for 
CO<INF>2</INF> sequestration research. Support from the Coal Technology 
Research and Development-Advanced Research and Technology Development 
and from the Advanced Power Systems programs is being matched with 
Advanced Metallurgical Processes funding in pursuit of this work during 
fiscal year 1999 and is expected to continue into fiscal year 2000 for 
both of these research areas. Continued and further coordination of the 
ARC program with Fossil Energy research and development goals is being 
accomplished through ARC participation on the Advanced Research Product 
Team at the FETC. It is anticipated that ARC will continue to be a 
significant contributor to critical materials enabling technologies 
needed for future Fossil Energy systems.
    Question. What about other DOE programs?
    Answer. The Albany Research Center's (ARC) approach for integration 
into its parent Office of Fossil Energy includes efforts at 
establishing partnerships with other offices within the Department of 
Energy (DOE) where ARC's core capabilities are relevant and applicable. 
ARC is attempting to create a balanced approach to this integration by 
developing a research portfolio which complements both the Office of 
Fossil Energy and also other offices within the DOE, while at the same 
time retaining current private sector and other government customers. 
An underlying corollary to this strategy is the identification of 
potential future customers having needs which can be met under the 
umbrella of the adaptable and flexible core capabilities of the Center. 
Currently, it is anticipated that ARC will play a significant role in 
the joint Fossil Energy/Energy Efficiency Mining Initiative.
    Question. How much work for others is currently being performed at 
ARC?
    Answer. Research efforts for organizations other than DOE (both 
public and private) is currently being conducted through 19 agreements 
representing a total of $370,000. Work for other DOE offices includes 
EE-OIT for $350,000 and EE-OTT for $225,000. In addition, research is 
being conducted for other programs within Fossil Energy for a total 
value of $600,000.
    Question. What is the total operating budget for ARC in fiscal year 
1999?
    Answer. The total operating budget for ARC in fiscal year 1999, 
excluding specific directed ES&H activities, is $7,300,000.
    Question. How many personnel are currently employed at ARC?
    Answer. Currently 83 personnel are employed at ARC representing an 
FTE level of approximately 81.
                         clean coal technology
    Question. The budget requests a $256 million deferral in Clean Coal 
Technology appropriations. Will this deferral, if enacted, have any 
impact on any remaining go/no-go decisions for projects remaining in 
the program?
    Answer. If the proposed deferral is enacted, it will not impact 
remaining go/no-go decisions. The two projects with remaining go/no-go 
decisions are the Clean Energy Demonstration Project--an Integrated 
Gasification Combined Cycle (IGCC) planned for Illinois and the Clean 
Power From Integrated Coal/Ore Reduction (CPICOR) project--a combined 
steel making and power generation project planned for Utah. For the 
Clean Energy project, the Department recently approved a re-siting of 
the project to Carbondale, Illinois and a restructuring of the team 
members. For the CPICOR project, an extension was necessary due to a 
change in the technology vendor. The next decision point for both of 
these projects is in December 2000, at the start of the construction 
phase. The proposed deferral includes a specific schedule for the 
return of deferred funds that will enable the Department to meet 
funding commitments for these two projects.
    Question. Will the deferral have any impact on outstanding 
decisions on whether to approve project re-siting proposals?
    Answer. The Department recently approved a re-siting/restructuring 
proposal for the Clean Energy Demonstration Project--an Integrated 
Gasification Combined Cycle (IGCC) planned for Carbondale, Illinois. 
The only CCT project without a firm site is the Commercial 
Demonstration of the NOXSO NO<INF>X</INF>/SO<INF>2</INF> Removal Flue 
Gas Cleanup System. The participant for the NOXSO project is in Chapter 
11 Bankruptcy. A suitable host site and participant financing is 
required for this project to continue. Since the full DOE-commitment 
for this project has been obligated, the proposed deferral would not 
impact on the decision to proceed with this project.
    Question. Please provide for the record a description of all 
projects remaining in the program for which go/no-go decisions remain 
to be made, or for which project re-siting is under discussion.
    Answer. There are two projects with remaining go/no-go decisions. 
These projects are the Clean Energy Demonstration Project and the Clean 
Power From Integrated Coal/Ore Reduction (CPICOR) project. Both of 
these projects are in the design phase with construction scheduled to 
begin in December 2000. Project re-siting is required for the 
Commercial Demonstration of the NOXSO NO<INF>X</INF>/SO<INF>2</INF> 
Removal Flue Gas Cleanup System to proceed. The participant for the 
NOXSO project is currently in Chapter 11 Bankruptcy. A suitable host 
site and participant financing is required for the NOXSO project to 
continue.
    The CPICOR project will demonstrate the integration of a direct 
iron-making process with the co-production of electricity using various 
U.S. coals in an efficient and environmentally responsible manner. The 
project will be located at the Geneva Steel facility in Vineyard, Utah. 
The project will utilize the HIsmelt<Register> Technology for producing 
direct reduced iron (DRI) and the high temperature but low Btu by-
product gases from HIsmelt will be used to generate electricity. The 
technology is ideal for both basic oxygen furnace and electric arc 
furnace steel makers and will handle a wide range of ores and coals.
    The Clean Energy project will demonstrate the commercial scale-up 
of the British Gas/Lurgi (BG/L) slagging, fixed-bed gasifier with 
combined-cycle power generation. In addition, the operation of a molten 
carbonate fuel cell (MCFC) on coal gas will be demonstrated. The BG/L 
gasifier utilizes steam, oxygen, limestone flux, and coal to produce a 
coal gas that is cooled and cleaned prior to combustion in a turbine to 
produce electricity. The project will be located at AMEREN 
Corporation's Grand Tower Station in Carbondale, Illinois. The AMEREN 
Corporation intends to provide a 50-percent ownership position in the 
project and provides financial strength and the ability to market the 
electricity.
    The NOXSO project will utilize a dry, regenerable system capable of 
removing both NO<INF>X</INF> and SO<INF>2</INF> in flue gas from coal-
fired utility boilers burning medium- to high-sulfur coals. In the 
process, flue gas passes through a fluidized-bed adsorber containing a 
sorbent for capturing NO<INF>X</INF> and SO<INF>2</INF>. The captured 
NO<INF>X</INF> is released back to the boiler where equilibrium 
processes cause destruction of the NO<INF>X</INF>. The captured 
SO<INF>2</INF> is recovered from the sorbent and used to produce 
elemental sulfur that can be processed to produce liquid 
SO<INF>2</INF>, a saleable by-product. The process is expected to 
achieve SO<INF>2</INF> reductions of 98 percent and NO<INF>X</INF> 
reductions of 75 percent.
    In addition to these go/no-go decisions, the Department anticipates 
requests to share in project cost growth for the Wabash River Coal 
Gasification Repowering Project and the Self-Scrubbing Coal: An 
Integrated Approach to Clean Air project.
    Question. Please provide for the record the 5-Year Obligation 
Timing Profile for the program.
    Answer. The 5-Year Obligation Timing Profile for the Clean Coal 
program is in the table on the following page.

                             CLEAN COAL TECHNOLOGY DEMONSTRATION PROGRAM--FISCAL YEAR 2000--5 YEAR OBLIGATION TIMING PROFILE
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal years--                                         Remaining
                                               --------------------------------------------------------------------------------------------- obligations
                    Project                                                                                                                     fiscal
                                                    1998         1999          2000          2001         2002         2003         2004     years 1999-
                                                                                                                                                 2004
--------------------------------------------------------------------------------------------------------------------------------------------------------
Clean energy..................................  ...........  ............  ............      152,241  ...........        5,389       21,803      179,434
CPICOR........................................  ...........  ............  ............      135,662  ...........        4,969  ...........      140,631
Wabash \1\....................................  ...........        9,000   ............  ...........  ...........  ...........  ...........        9,000
McIntosh 4B...................................       95,672  ............  ............  ...........  ...........  ...........  ...........  ...........
McIntosh 4A...................................       87,295  ............  ............  ...........  ...........  ...........  ...........  ...........
Thermochem....................................        2,799  ............  ............  ...........  ...........  ...........  ...........  ...........
                                               ---------------------------------------------------------------------------------------------------------
      Project Total...........................      185,766        9,000   ............      287,903  ...........       10,358       21,803      329,065
Program Direction.............................       15,000       14,900        14,399        13,919       13,459       13,019       11,597       81,294
                                               ---------------------------------------------------------------------------------------------------------
      Total Obligations.......................      200,766       23,900        14,399       301,822       13,459       23,378       33,401      410,358
                                               =========================================================================================================
FY99 Budget (105-277).........................  ...........      (40,000)       10,000        15,000       15,000  ...........  ...........  ...........
FY00 Request (BA).............................  ...........  ............     (256,000)      189,000       40,000       27,000  ...........  ...........
EOY Unobligated...............................      424,174      360,274        99,875         2,053       43,594       47,216       13,815  ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Remaining obligation requirement shown is for an anticipated cost growth that would require ASFE approval. DOE has obligated all currently committed
  funds.

    Question. What are the principal technology benefits of the two 
Clean Coal projects for which major obligations remain?
    Answer. The two Clean Coal Technology projects that have major 
funding requirements are the Clean Energy Demonstration Project--an 
Integrated Gasification Combined-cycle (IGCC) planned for Illinois and 
the Clean Power From Integrated Coal/Ore Reduction (CPICOR) project--a 
combined steel making and power generation project planned for Utah. 
The British Gas/Lurgi (BG/L) technology being demonstrated in the Clean 
Energy project is a needed addition to the other gasification 
technologies being demonstrated in the CCT program. The BG/L gasifier 
offers the highest cold gas efficiency (over 90 percent) of any coal 
gasification technology. The gasifier does not require elaborate coal 
feed and handling systems, as the preferred coal size is 3 inches and 
has the lowest oxygen requirements of any ``modern'' gasification 
process because of the moderate operating temperature of the gasifier. 
Environmental performance of the BG/L gasifier is expected to be 
superior to other gasifiers or among the best performing. The BG/L 
gasifier in an IGCC system can potentially offer the lowest capital and 
operating costs and highest performance of any of the existing gasifier 
technologies. Also, the integration of a molten carbonate fuel cell 
with the IGCC technology will assist in establishing the foundation for 
high efficiency, Vision 21-type EnergyPlex plants of the future.
    The CPICOR project will demonstrate the HIsmelt<Register> 
Technology for producing direct reduced iron (DRI) with the co-
production of electricity. The principal benefit of the direct-iron 
making technology is the elimination of the need for coke in the iron-
making process. The HIsmelt<Register> process is capable of producing 
high-quality pig iron (over 95 percent iron) by simply mixing run-of-
mine ores and coals in a smelter furnace. No coke, sinter, or pellets 
are required as in a conventional blast furnace. A variety of coal 
types and ore grades can be used in the process. The direct iron-making 
process offers improved economics and reduced emissions over the 
conventional coke oven and blast furnace technology.
    Question. Do the technologies to be demonstrated in these projects 
(projects for which major obligations remain) represent entirely new 
technologies, or are they variations on technologies previously 
demonstrated within the Clean Coal program?
    Answer. The two Clean Coal Technology projects that have major 
funding requirements are the Clean Energy Demonstration Project--an 
Integrated Gasification Combined-cycle (IGCC) planned for Illinois and 
the Clean Power From Integrated Coal/Ore Reduction (CPICOR) project--a 
combined steel making and power generation project planned for Utah.
    The British Gas/Lurgi technology to be demonstrated in the Clean 
Energy project is the fourth utility-scale gasification technology in 
the Clean Coal program. While all four projects are IGCC systems, each 
project demonstrates unique gasification and coal-gas cleanup 
technologies. Since gasification technology is viewed as one of the 
most promising electric power generation options for the future, it is 
vital to demonstrate the leading gasification technologies in a 
commercial operating environment to enable comparisons of performance, 
reliability, and economics.
    The direct iron-making process along with the co-production of 
electricity to be demonstrated in the CPICOR project is unique in the 
Clean Coal program. There have been two other projects awarded in this 
program relating to the use of coal in the steel industry. The 
Innovative Coke Oven Gas Cleaning System for Retrofit Applications 
demonstrated an innovative process for removing hydrogen sulfide and 
ammonia from coke oven gas generated in the production of coke used in 
blast furnaces. The project withdrew from the Clean Coal program when 
coke-making operations were suspended at the host site. The Blast 
Furnace Granulated-Coal Injection System Demonstration project involved 
the use of both granulated and pulverized coal as a blast furnace fuel 
supplement and began operation in late 1995. The coal-injection 
technology reduced the use of coke in the blast furnace but did not 
eliminate its use and did not offer the co-production of electricity. 
While both of these projects were in the steel industry, they were 
completely different technologies than what is planned for the CPICOR 
project.
    Question. As the Clean Coal program winds down, how does the 
Department intend to handle the reduction in personnel supported by CCT 
funds?
    Answer. The Department intends to manage reductions in Clean Coal 
Technology personnel by absorbing those reductions within the overall 
staffing levels provided for Fossil Energy programs under the Strategic 
Alignment Initiatives. Under this approach the CCT personnel would be 
reduced through attrition and transfers to other Fossil Energy 
programs.
    Question. Are all of these personnel likely to be absorbed into 
other Fossil programs through normal attrition and vacancies?
    Answer. The Department anticipates that most of the Clean Coal 
Technology personnel will be absorbed into other Fossil programs 
through the savings achieved under the Strategic Alignment Initiatives. 
Certain Clean Coal Technology activities, such as those related with 
recoupment, will continue for some time beyond the end of the program.
                      strategic petroleum reserve
    Question. You recently announced your intention to use existing 
authorities to use royalty oil to add 28 million barrels to the 
Strategic Petroleum Reserve. Would you provide for the record the 
statutes that provide you with the legal authority to fill the Reserve 
in this manner?
    Answer. The authority to use royalty oil to fill the Strategic 
Petroleum Reserve exists both in the Energy Policy and Conservation Act 
and in the Outer Continental Shelf Lands Act. Section 160 (a)(2) of the 
Energy Policy and Conservation Act (42 U.S.C. 6240) authorizes the 
Secretary of Energy to place in storage, transport or exchange crude 
oil which the United States is entitled to receive in kind as royalties 
from production on federal lands. Section 27(a)(3) of the Outer 
Continental Shelf Lands Act (43 U.S.C. 1353) authorizes the Secretary 
of the Interior to transfer any royalty oil to the Secretary of Energy 
for disposal within the federal government.
    Question. Because the royalty oil being diverted to the Reserve 
would otherwise take the form of a cash royalty payment to the 
Treasury, this proposal will in fact have a cost. Does the use of 
royalty oil in this manner lower OMB's receipts estimates?
    Answer. At the time this initiative was announced, the 
Administration estimated that the Treasury would forego about $370 
million in cash royalty receipts due to this transfer of royalty oil. 
This revenue impact would be spread across fiscal years 1999 and 2000. 
Since that initial estimate, oil prices have increased due to eventual 
impact on the Treasury could be larger.
    Question. Does the use of royalty oil in this fashion manifest 
itself in federal bookkeeping in any manner?
    Answer. Yes, at the time the oil is transferred from the Department 
of the Interior to the Department of Energy and becomes part of the 
Strategic Petroleum Reserve it has a market value. That value will be 
entered into the Department of Energy balance sheet for the Reserve 
that is reported annually as the DOE Accountability Report.
    Question. If not, why not fill the Reserve to capacity in this 
manner?
    Answer. In its Statement of Policy on the Strategic Petroleum 
Reserve issued in May 1998, the Administration determined to conduct a 
study of the Reserve's appropriate size prior to year 2000. That study 
is scheduled for completion this summer. The appropriate method of 
financing inventory expansion would be addressed only if the 
Administration concludes that it should increase the inventory of the 
Reserve above 590 million barrels. However, it is true that use of 
royalty-in-kind oil does have a cost and this would be considered in 
the event that further expansion of SPR was appropriate.
    Question. The budget request includes $5 million for the SPR 
Petroleum Account to bolster emergency drawdown readiness. What is the 
current unobligated balance in the SPR Petroleum Account?
    Answer. The unobligated balance in the SPR Petroleum Account at the 
end of fiscal year 1998 was $33,018,989.
    Question. What is the total amount required to meet 100 percent of 
anticipated emergency drawdown requirements?
    Answer. The estimate to sustain a full 6-month drawdown capability 
is $60,516,000. A maximum rate drawdown requires staff augmentation in 
New Orleans and the sites, an increase in maintenance workload, 
additional posting hours for security subcontractor personnel, and 
significantly higher power costs at the sites. Additionally, 
terminalling/throughput charges are required for pipeline and marine 
deliveries.
    Question. Would the need for additional readiness appropriations 
for the SPR account be obviated if the Department had a mechanism 
whereby it could borrow from the Treasury to cover the costs of a 
drawdown during the fourth quarter of a fiscal year, then repay such 
borrowed amounts from the proceeds from oil sales?
    Answer. If an emerging drawdown of the SPR became necessary, and 
there were insufficient funds available, balances in other DOE accounts 
could be transferred to the SPR oil account.
    Question. Would the Department work with the Committee to see if 
such a mechanism could be developed?
    Answer. The Department will work with the Committee if such a 
mechanism is developed.
                 naval petroleum and oil shale reserves
    Question. No appropriations are requested for the Naval Petroleum 
and Oil Shale Reserves, in anticipation that unobligated balances will 
be sufficient for program operations in fiscal year 2000. What amount 
of unobligated balances were carried over from fiscal year 1998 to 
1999?
    Answer. Unobligated balances carried from fiscal year 1998 to the 
Naval Petroleum and Oil Shale Reserves program in fiscal year 1999 are 
shown on the following page:

NPR-1 and NPR-2 Operations and Maintenance..............     $20,086,100
NPR-3 Operations and Maintenance........................          65,200
Naval Oil Shale Reserves................................       7,496,100
Program Direction (including equity/divestment 
    activities).........................................       6,562,400
                    --------------------------------------------------------
                    ____________________________________________________
        Total NPR.......................................      34,209,800

    Question. What is the current estimated carryover into fiscal year 
2000?
    Answer. The current estimated carryover is about $21.2 million, 
calculated as follows:

Fiscal year 1998 End-of-Year Carryover..................     $34,210,000
Plus fiscal year 1999 Appropriation.....................      14,000,000
Less Anticipated fiscal year 1999 Obligations...........     -27,000,000
Anticipated fiscal year 1999 End-of-Year Carryover......      21,210,000

    Question. Assuming no new appropriations are provided in fiscal 
year 2000, what level of unobligated balances does the program expect 
to have at the end of fiscal year 2000?
    Answer. As much as $25 million of unobligated balances may be 
available at the end of fiscal year 2000, based on de-obligating funds 
from various contracts at Elk Hills. Earlier this fiscal year, we began 
identifying how much money currently found on NPR contracts could be 
considered ``excess'' and redirected for use in other areas of NPR's 
operations. The majority of these contracts were originally put into 
place to support operations at the Elk Hills oil field or its 
divestment. We believe that between $8 and $25 million might be 
available for de-obligation: $5 million from ``inactive'' contracts, $3 
million from revenues generated from the sale of natural gas from Naval 
Oil Shale Reserve No. 3 (which transferred to the DOI on May 1, 1999, 
for leasing), and perhaps as much as $17 million from the former Elk 
Hills oil field management and operating contractor pending the outcome 
of various lawsuits. Whatever money is deemed ``excess'' will be de-
obligated from existing contracts and used elsewhere within the 
program.
    There are a number of ``imponderables'' which will affect the funds 
available at the end of fiscal year 2000 and beyond. First, there are 
numerous lawsuits against the former Management and Operating 
contractor arising from Elk Hills operations that DOE may be 
responsible for paying. This may prevent DOE from de-obligating the 
full $17 million estimated above. Second, as required by several 
agreements associated with the sale of Elk Hills, some environmental 
assessment and cultural resource activities are underway. Depending 
upon the findings, DOE may have to perform some environmental 
remediation work, thus increasing planned expenditures. Finally, the 
finalization of equity with Chevron is an exacting and contentious 
process that, if further delays ensue, could require funding above 
currently planned levels, as shown below:

Estimated Funding Requirements

Estimated unobligated balance, end of fiscal year 1999..     $21,210,000
Obligated balances redirected from contracts............      25,000,000
Estimated balance available, end of fiscal year 2000....      46,210,000
Fiscal year 2000 anticipated obligations................     -21,240,000
Estimated remaining balance, end of fiscal year 2000....      24,970,000

    Question. The justification indicates that $3.3 million will be 
spent for NPR-1 closeout activities, including retirement benefits for 
M&O contractor employees. For how many years will NPOSR appropriated 
funds be required for this purpose?
    Answer. DOE will fund the retirement benefits of some former 
contractor employees as a result of the sale of the Elk Hills oil field 
which caused the termination of all current and future contracts for 
the management and operation of Elk Hills by their employer, Bechtel 
Petroleum Operations, Inc. (BPOI). Consequently, all of the BPOI 
employees were required to find new jobs or to retire. As a result of 
their service, some of these employees had earned the right to post 
retirement or post employment medical and dental benefits. Consistent 
with DOE policy and practice under contracts for management and 
operation of its facilities and sites, DOE is responsible for funding 
such post-retirement medical benefits for these former retirees. (If 
DOE had merely selected a new contractor to operate the Elk Hills oil 
field, then the successor contractor would have been required to 
fulfill this obligation as a part of their operating contract. 
Currently, Bechtel Nevada is administering the BPOI post-retirement and 
post-contract plans through its contract with DOE at Nevada. Funding 
for the BPOI plan is provided from Naval Petroleum and Oil Shale 
Reserve appropriated funds.) The estimate of costs for this obligation 
is up to $1 million annually for up to 40 years for these former 
employees and their eligible dependents.
    Question. The estimated program level for environmental restoration 
at NPR-3 declines in fiscal year 2000 from $3 million to $1.4 million. 
Does the Department anticipate those costs will continue to decline in 
fiscal year 2001?
    Answer. No, but we are not anticipating a sharp increase, either. 
Environmental restoration activity will gradually increase until the 
oil field is eventually abandoned. We have just started the process of 
putting together our fiscal year 2001 budget and early estimates are 
that the program may spend about $2.2 million on environmental 
restoration activities at NPR-3 during that year.
    Question. FTE levels under Program Direction drop by 23. Why do 
associated program levels drop by only $876,000?
    Answer. The overall drop of $876,000 would be more significant if 
it were not for the change in the way the program reports divestment-
related obligations in its fiscal year 2000 budget. While salaries and 
benefits are somewhat reduced in fiscal year 2000, there are slight 
increases in travel and contractual services due to the inclusion of 
divestment expenditures. Most divestment activities, primarily equity 
finalization, are funded from program direction.
    Divestment expenses are paid from funds that were reprogrammed as 
program direction from various operating accounts. Since divestment 
expenditures are paid from prior year funds that had already been 
appropriated, prior budget submissions did not include anticipated 
divestment-related obligations under program direction. In fiscal year 
2000, the program is not seeking any new appropriation of funds for any 
part of its program, but believes that it is prudent to list all 
anticipated obligations for the year--thus causing a less significant 
decrease in program direction than would otherwise be expected.
    Question. Why does the program level for contractor services 
increase by $1.473 million?
    Answer. The increase is mainly due to a change in philosophy by the 
program in reporting the anticipated obligations and does not represent 
an actual increase in obligations from fiscal year 1999. The fiscal 
year 2000 budget for the Naval Petroleum Reserve includes program 
direction funds anticipated to be obligated in support of divestment 
activities, specifically, finalization of equity shares with Chevron. 
In prior years, unobligated balances had been reprogrammed to support 
such divestment activities. Such expenditures were not included in 
previous budget requests because no ``new'' money was being requested 
to support them. The program is still utilizing those reprogrammed 
dollars in support of divestment activities, but have included them in 
the fiscal year 2000 budget because we are describing all of the new 
obligations that may be entered into, and not just those to be made 
from ``new'' money. The program is not seeking any newly appropriated 
funds for fiscal year 2000.
    Question. Does this represent more than just the adoption of the 
seven FTEs from the NPR-3 site?
    Answer. The increase is mainly due to a change in the way the 
program reports its anticipated obligations and does not represent an 
actual increase in obligations from fiscal year 1999. The fiscal year 
2000 budget for the Naval Petroleum Reserve includes program direction 
funds anticipated to be obligated in support of divestment activities, 
specifically, finalization of equity shares with Chevron. In prior 
years, unobligated balances had been reprogrammed to support such 
divestment activities. Such expenditures were not included in previous 
budget requests because no ``new'' money was being requested to support 
them. The program is still utilizing those reprogrammed dollars in 
support of divestment activities, but have included them in the fiscal 
year 2000 budget because we are describing all of the new obligations 
that may be entered into, and not just those to be made from ``new'' 
money. The program is not seeking any newly appropriated funds for 
fiscal year 2000.
                          energy conservation
                    building research and standards
    Question. The justification indicates that the Lighting Research 
and Development program in fiscal year 2000 will support work on hybrid 
lighting systems. Within the $6 million request for Lighting Research 
and Development, how much does the Department plan on devoting to this 
effort?
    Answer. The ongoing industry-driven Lighting Roadmap and the 
analysis on hybrid lighting being done by ORNL this fiscal year will 
provide the guidance for prioritizing activities in this research area. 
Provided the technical and market analysis currently underway supports 
the decision and that the recommendations of the industry-driven 
Lighting Roadmap prioritizes this technology, meritorious proposals for 
hybrid lighting received under the fiscal year 2000 competitive 
solicitation will be funded.
    Question. How would the Hybrid Lighting Partnership be involved?
    Answer. The Hybrid Lighting Partnership is participating in the 
ongoing Lighting Roadmap. If industry agrees in their roadmap 
recommendations that this technology is a priority in meeting its 
vision, hybrid lighting will be offered as one of the topics of 
opportunity in the fiscal year 2000 competitive solicitation. The 
Hybrid Lighting Partnership will have the opportunity to respond to the 
competitive solicitation.
    Question. The Department is requesting additional funds for field 
testing of GAX heat pumps that will lead to commercialization in fiscal 
year 2001. How much will the Department be contributing to this effort 
in fiscal year 1999?
    Answer. The total fiscal year 1999 appropriation for the 
Residential Absorption Heat Pump was $5.91 million. This funding is 
being used for a variety of research, development, and demonstration 
activities. Significant field testing of GAX air conditioners and heat 
pumps is being started in fiscal year 1999. GAX technology is being 
applied to a number of different products planned for market 
introduction over several years. The first production equipment using 
GAX technology will be introduced into the marketplace in 1999 (GAX 
chillers used for air conditioning). This will be followed by 
additional product introductions currently projected for 2001 (mild 
ambient heating and cooling heat pumps) and 2002 (cold ambient heat 
pumps). The GAX family of products is being introduced with the 
simplest to manufacture products being introduced first and the more 
complex products following in order.
    A 180-unit GAX field test is planned to begin in a new subdivision 
(Village Green) scheduled to begin construction in May of 1999. Village 
Green is a ``PATH'' subdivision located in Los Angeles, California. 
This subdivision will be almost 100 percent air-conditioned using early 
production gas-fired GAX air-conditioners. Construction and occupancy 
of the dwellings is scheduled to occur over a 2-year period (1999-
2000). As initial prototype GAX heat pumps (mild ambient heating and 
cooling heat pumps) become available, they will be installed in Village 
Green (likely starting in 2000). The Village Green GAX field test is 
being cost-shared by Southern California Gas Company and Robur Corp for 
50 percent private sector cost-sharing. As pre-production prototype GAX 
hydronic, mild ambient, and cold ambient heat pumps become available, 
they will be placed in field test locations at various sites throughout 
the country in cooperation with natural gas utilities.
    Question. In fiscal year 2000 request level?
    Answer. The fiscal year 2000 request for the residential absorption 
heat pump program is $6.5 million. These funds will be used for the 
residential GAX heat pump and the residential/light commercial ``Hi-
cool'' heat pump. Field testing of at least 12 prototype residential 
GAX heat pumps will begin at various locations. A light commercial 
eight-ton prototype ``Hi-cool'' heat pump will be fabricated and 
laboratory testing will begin.
    Question. What is the level of cost sharing with industry in this 
phase of the program?
    Answer. In the GAX and HI-cool activities, cost share by the 
private sector is 35 percent coming from the manufacturers and the gas 
industry.
    Question. Will funds be requested for additional GAX heat pump work 
in fiscal year 2001?
    Answer. It is anticipated that funds will be requested for GAX heat 
pump work in fiscal year 2001. This would be principally for the 
continuing development of the mild ambient and cold ambient GAX heat 
pump technology along with the associated field testing and 
demonstration. Some fiscal year 2001 funding would be used for 
continuation and completion of field testing started in 1999 and 2000.
    Question. The request also indicates that in fiscal year 2000 the 
department will ``. . . complete field test of the commercial prototype 
and facilitate the commercialization of a 450-ton DCC chiller . . . 
with York International.'' How much will be devoted to this effort in 
fiscal year 2000, assuming the requested level of funding?
    Answer. Fiscal year 2000 funding of $1.5 million would be devoted 
to the Triple-Effect field test to be located in the Government Center 
of Clark County, Nevada. This fiscal year 2000 funding is projected to 
be sufficient to complete the field testing program. This field test is 
being co-funded principally by York International.
    Question. How will the Department ``facilitate the 
commercialization'' of this technology?
    Answer. Commercialization of the technology will be facilitated 
principally through the efforts of the partners in this program during 
and after the field test. For example, the Clark County Government 
Center was selected in part for the accessibility and visibility of the 
test site. In the October 27, 1998, letter of intent for the field 
test, witnessed by the Secretary of Energy Bill Richardson, Clark 
County agreed to cooperate in the publication and dissemination of 
information about the chiller's performance through appropriate media. 
The fiscal year 2000 funding will be used principally for demonstration 
of the Triple-Effect chiller. Specifically, the funding will be used to 
complete design and fabrication of the full size direct gas-fired 
Triple-Effect chiller, installation and testing of the Triple-Effect 
chiller, providing technical assistance and monitoring at the test 
site, analyzing the test data, and documenting the performance in 
published reports. This field test demonstration step is important in 
verifying the efficiency and economic benefits of the Triple-Effect 
chiller technology for large commercial buildings. This dissemination 
of information documenting the predicted substantial energy and 
operating cost savings of the Triple-Effect chiller in actual operation 
should facilitate the commercialization of this technology by York.
    Question. Why is the Department involved at all in the 
commercialization phase of this technology?
    Answer. The Department is principally involved in development and 
demonstration of this technology. Technology transfer activities 
intended to result in accelerating utilization of this emerging 
technology in commercial and institutional buildings through 
information dissemination would only be a small part of the total 
Department effort. This small effort is important to the development of 
this technology, as field verification activities provide information 
on any final technology changes needed to complete the development 
cycle.
    Question. The Committee provided $500,000 in fiscal year 1999 for 
the demonstration of modular fuel cells at federal facilities. How are 
these funds being administered?
    Answer. The funds are being administered under the Office of 
Building Technology, State and Community Programs Fuel Cells for 
Buildings program. Preliminary discussions have been held with a 
potential supplier of the modular fuel cell. Issues of cost-sharing and 
demonstration vs. test and evaluation are being addressed. In addition, 
efforts are underway to identify an appropriate site. A work/test 
proposal is being prepared and this program will begin in fiscal year 
1999.
    Question. The Department has worked with industry since 1997 to 
develop a roadmap for technology improvements in the heating, 
ventilation, and air-conditioning and refrigeration sectors. The 
Department has reportedly been very supportive of this Air-conditioning 
and Refrigeration Technology Initiative (ARTI). Have any funds been 
provided in support of ARTI?
    Answer. Yes, in fiscal year 1998 the Department completed the last 
increment of funding of a successful multi-year program totaling $10.5 
million through ARTI for research and development in Materials 
Compatibility and Lubricant Research. DOE also began work in fiscal 
year 1998 to establish a co-operative agreement with ARTI to initiate a 
new more comprehensive program of research for the twenty-first 
century, referred to as the ARTI 21-CR program. This co-operative 
agreement has recently been approved for funding the ARTI 21-CR 
program.
    Question. If so, how much and from what program elements?
    Answer. Fiscal year 1998 funding was provided to ARTI for the 
Materials Compatibility and Lubricant Research program from the Space 
Conditioning and Refrigeration program.
    Question. If not, does the Department intend to allocate any funds 
for this purpose in fiscal year 1999?
    Answer. In fiscal year 1999, $1 million will be provided to support 
the ARTI 21-CR Research and Development program. Funding will come from 
the Space Conditioning and Refrigeration program and the Technology 
Road Maps and Competitive Research and Development program.
    Question. Are any funds included in the fiscal year 2000 request 
for this purpose?
    Answer. Yes, funds are included in the fiscal year 2000 request 
under both the Technology Road Maps and Competitive Research and 
Development program activity, and the Space Conditioning and 
Refrigeration program for the ARTI 21-CR program. The level of funding 
will be dependent on the level of appropriations for these program 
elements.
                    lighting and appliance standards
    Question. The Department is seeking a $6.5 million, 100-percent 
increase for the Lighting and Appliance Standards program, which 
follows on a $1 million increase provided in fiscal year 1999. What 
specifically will be accomplished in the Codes and Standards program in 
fiscal year 1999?
    Answer. The Department plans to issue Notices of Proposed 
Rulemakings (NOPR) for energy efficiency standards for ballasts, 
clothes washers, and residential water heaters. A final rule for energy 
efficiency standards for gas kitchen ranges and ovens will also be 
issued in fiscal year 1999. The Department also plans to issue NOPRs 
for test procedures for dishwashers, commercial furnaces, boilers, 
water heaters, air conditioners, and heat pumps. A final rule for large 
electric motors test procedures will be issued in fiscal year 1999. 
This effort is a priority of the Assistant Secretary and an aggressive 
schedule to complete the activities has been adopted by the office.
    Question. What rulemakings will be issued in fiscal year 2000? In 
fiscal year 2001?
    Answer. Standards rulemaking activities are determined through a 
prioritization process which solicits public input. The selection 
process for fiscal year 2000 and 2001 has not been completed yet. 
However, in fiscal year 2000 the Department expects to publish the 
following:
  --Both an advance Notice of Proposed Rulemaking and NOPR proposing 
        energy efficiency standards for residential central air 
        conditioners;
  --Final rules for energy efficiency standards for ballasts, clothes 
        washers, residential water heaters; and
  --Final rules for test procedures for dishwashers; commercial 
        furnaces, boilers, water heaters, air conditioners, and heat 
        pumps; and distribution transformers.
    In fiscal year 2001, the Department expects to issue a final rule 
for energy efficiency standards for residential central air 
conditioners and NOPRs proposing standards for the following commercial 
equipment: furnaces, boilers, water heaters, air conditioners, heat 
pumps, and distribution transformers. If sufficient funds are 
available, the Department would also conduct a study to determine the 
potential energy savings that might be realized if standards were 
established for high-intensity discharge lamps and small electric 
motors, as directed in the Energy Policy Act.
    Question. If the program is held to the fiscal year 1999 funding 
level, what work would not be accomplished in fiscal year 2000?
    Answer. Increased investments in buildings technology research, 
development, pre-commercial deployment and codes and standards are of 
critical importance to meeting the energy and environmental challenges 
of our times and the next century. However, we realize the existence of 
budget constraints and will work closely with the committee staff to 
identify priorities.
    Question. The Committee recognizes the effort the Department has 
put into reforming the Codes and Standards program, but given the 
contentious history of the program, why is the Department in such a 
rush to issue so many rulemakings in fiscal years 2000 and 2001?
    Answer. In many instances the Department is more than 5 years 
behind the rulemaking schedule established by Congress. The Department 
is trying to catch up with this schedule because of the huge economic 
and environmental benefits which these standards will produce for 
consumers and the nation. By the year 2010, the cumulative national 
effect of standards for five appliances (refrigerators, dishwashers, 
clothes washers, clothes dryers, and room air-conditioners), will be 
5.9 quads of primary energy savings and $24 billion (in 1997 dollars) 
in savings to consumers. The standards we are currently working on for 
ballasts and water heaters as well as the revisions to the clothes 
washer standard will collectively generate additional savings equal to 
or greater than the 5.9 quads and $24 billion. The funds requested in 
fiscal year 2000 will enable the Department to accelerate the analysis 
and rulemaking regarding energy conservation standards for commercial 
furnaces, boilers, central air conditioners, heat pumps and water 
heaters.
                   federal energy management program
    Question. Information provided by the Department indicates that 
federal energy use has been reduced by 17 percent from 1985 and that 
the Department's goal is to reach the 20-percent level by fiscal year 
2000. Is any of the 17-percent gain attributable to a reduction in 
space occupied by the federal government since 1985?
    Answer. No, the Energy Policy Act of 1992 specifies that the goal 
is to be measured by energy use per gross square foot, which is a 
measure of efficiency. Progress toward the goal is calculated using 
reported current year energy use divided by current year square footage 
in goal buildings.
    Question. Is any of the gain attributable to efficiency gains from 
closure of old facilities or the movement from old to new facilities 
that would have taken place regardless of the existence of the Federal 
Energy Management Program (FEMP)?
    Answer. Yes, renewal of the building stock is one component of 
efficiency change. However, the extent of change attributable to these 
circumstances is not calculable, as agencies report only aggregate 
square footage and energy use; individual buildings are not tracked 
other than those excluded from the goal calculation. Some of the 
increased efficiency in new federal buildings can be attributed to FEMP 
efforts to promote energy efficient new construction through design 
assistance activities, designation of federal showcase facilities, 
collaborative efforts with GSA, as well as the established federal 
building code.
    Question. Have these statistics been verified by entities outside 
of the Department?
    Answer. No, there is no requirement or funding for independent 
third party verification or audit of these statistics. Third parties 
have examined the annual reports to Congress, have commented on 
progress toward established goals, and have made suggestions for 
improvement. These reviews, however, have not actually audited or 
verified the reported data.
    Question. Is the primary goal of the FEMP program to reduce energy 
costs to the federal government, or to reduce energy consumption 
generally?
    Answer. The FEMP program is structured to save both energy and 
energy costs. Federal energy management goals established by the Energy 
Policy Act of 1992 and Executive Order 12902 are energy efficiency 
improvement goals, measured in BTU per gross square foot reductions 
from a 1985 baseline. The achievement of these goals is to be 
accomplished in a life- cycle cost effective manner, as specified in 
the code of federal regulations.
    Question. What are the Department's Government Performance and 
Results Act performance measures for the program?
    Answer. The Department's Government Performance and Results Act 
performance measures for FEMP are the Energy Policy Act goal of a 20-
percent reduction in energy use per gross square foot of goal building 
area by 2000, and the Executive Order 12902 goal of a 30-percent 
reduction in the same measure by 2005. Both are measured against a 1985 
baseline. Intermediary performance measures are focused on putting in 
place, and implementing Energy Savings Performance Contracts that 
enable agencies to invest in efficiency, renewable and advanced 
technologies.
    Question. Is the 17-percent reduction in energy use calculated 
using primarily ``source'' or ``site'' based techniques?
    Answer. Progress toward the goal is measured in site energy.
    Question. How do you respond to criticisms that energy savings 
since 1985 measured on a ``source'' basis are close to 0 percent?
    Answer. When measured on a primary energy (source-based) basis, 
energy consumed in fiscal year 1997 in federal buildings per square 
foot was 4 percent below the fiscal year 1985 baseline. Source-based 
measures effect the reporting of electricity and steam consumption and 
include the consumption of resources used to generate and transport the 
energy to the point of use. As such, source-based calculations are an 
estimate based on the average heat content of those constituent fuels 
and the generation efficiency. The FEMP uses 11,600 Btu per 
kilowatthour of electricity to estimate primary energy consumption for 
electricity used. This is compared to the heat content of a site-
delivered kilowatthour of 3,412 Btu. Using a source-based measure of 
consumption increases the proportion of electricity in the fuel mix by 
more than three fold, resulting in a consumption trend that more 
closely mirrors that of electricity. Electricity intensity increases in 
federal buildings peaked in fiscal year 1994, at 17 percent above 
fiscal year 1885 consumption per square foot. Since fiscal year 1994, 
however, electricity intensity in federal buildings has decreased more 
than 4 percent.
    The federal government uses site-based energy accounting because 
federal agencies can measure and report based on their site metered and 
billed consumption. This method is direct and accurate, comparable 
across regions, and readily converted into economic terms. While 
program goals have been set on a site energy basis, we have tried to 
provide additional direction to federal energy managers. All federal 
energy management decisions are to be based on a life- cycle cost 
basis. The Interagency Energy Policy Committee has provided guidance 
instructing that energy projects that save source (total) or site 
energy should be completed where there are cost savings to the 
government. The choice whether to switch from one energy source to 
another, where the source versus site issue arises, is left to 
individual agencies and sites, based on all relevant factors and local 
conditions they face when making that decision.
    The success of federal energy management is reflected in an 
estimated program impact of approximately $900 million (1997 dollars) 
in annual energy cost savings in 1997 from the 1985 baseline. Total 
reduction in the energy bill for federal buildings was $2.16 billion in 
1997 from 1985 levels, reflecting all factors influencing buildings 
energy use (that is, reductions in square footage, energy price 
reductions, building retirement and new construction, changes in 
mission, and changes in equipment).
    Question. Can the Department do more to ensure that the FEMP 
program promotes both cost savings and reductions in energy use 
measured on a ``source'' basis?
    Answer. The FEMP program supports the pursuit of all life-cycle 
cost-effective energy efficiency, renewable energy, and advanced 
technology investments by federal energy managers. The Interagency 
Energy Policy Committee has provided guidance instructing that energy 
projects that save source (total) or site energy should be completed 
where there are cost savings to the government. The choice of whether 
to switch from one energy source to another is left to individual 
agencies and sites, based on all relevant factors and local conditions.
    Question. I understand the Administration is actively considering 
an Executive Order designed to ensure that federal agencies move 
aggressively to implement energy management projects that provide both 
cost savings and reductions in energy use. What is the status of this 
Executive Order?
    Answer. A draft Executive Order is being prepared by the Office of 
the President at this time.
    Question. Pursuant to language included in the Interior 
appropriations bill several years ago, the Department can be reimbursed 
by other agencies for work performed in the FEMP program and use such 
reimbursements for additional work within the program. The budget 
justification estimates total reimbursements to be $1.2 million in 
fiscal year 1999 and $3.5 million in fiscal year 2000. Will the 
Department's estimates for fiscal year 1999 hold up?
    Answer. The status of reimbursements for FEMP technical and 
contracting services associated with the Super-ESPC program as of March 
30, 1999, is as follows:

Funds in hand.................................................  $203,000
Billed or billable............................................   460,000
Anticipated near-term.........................................   330,000
Anticipated long-term........................................\1\ 200,000

\1\ Approximate at fiscal year-end.

Total available and anticipated receivables are approximately $1 million 
by year-end.

    Question. To what level does the Department estimate such 
reimbursements will rise in the future?
    Answer. At this time the Department estimates that up to $36 
million in direct and indirect costs associated with servicing the FEMP 
Super-ESPC contracts could be recovered by reimbursement by customer 
agencies through fiscal year 2005. The actual amount recovered is 
dependent upon the extent to which agencies choose the FEMP Super-ESPCs 
as a financing mechanism, and the extent to which agencies need to 
access FEMP's technical resources in support of their efficiency 
projects. Additional amounts of reimbursables are anticipated from 
support of agencies technical needs associated with utility-financed 
projects. The FEMP will be closely monitoring the federal market 
response to the various available financing mechanisms, and adjusting 
its budget requests to reflect infrastructure, staffing, and 
contractual requirements to meet demands for FEMP technical assistance 
and Super-ESPC use. The distribution of receipts of reimbursable funds 
across the performance period is dependent upon the timing of demand 
for FEMP services and whether or not agencies choose up front or 
delayed reimbursement of the Department for those services.
    Question. Can this Committee at some point anticipate a budget 
request for FEMP that will be level or actually decline from the 
previous year based on the availability of these reimbursements?
    Answer. Among the chief assumptions were meeting the Executive 
Order 12902 fiscal year 2005 30-percent goal, full funding of the 
budget requests, and sufficient market demand for FEMP Super-ESPCs to 
generate the projected reimbursable funding stream. Appropriations 
significantly less than those requested in fiscal year 1999 resulted in 
lower FEMP levels of ESPC services and delivery order activity, and 
proportionate loss of reimbursable activities and funds, which delays 
and decreases the potential for lower budget requests in the out years.
    Lower than expected demand for FEMP Super-ESPCs in the early years 
would also decrease the potential of receipt of reimbursed funds, and 
subsequent decreases in budget requests. The federal market of 
alternatively financed energy efficiency and renewable energy projects 
is dynamic, and FEMP will closely monitor the market and adjust its 
budget requests to reflect the level of demand for FEMP technical and 
contracting services accordingly. The fiscal year 2000 budget request 
includes funding to support alternative finance approaches to mobility 
energy efficiency, water conservation, and efficiency in federal leased 
space. These are new activities that will require appropriations 
support over and above the fiscal year 1999 appropriations level.
    Lower outyear appropriations requests for FEMP alternative 
financing activities are possible, given adequate appropriations in 
early years to establish a base of reimbursable activities, and 
sufficient utilization of FEMP services and contracts by agencies. 
Additional appropriations requests in the out years are possible for 
new, currently unknown, initiatives associated with energy and cost 
savings opportunities in the federal government. The FEMP will strive 
to hone its program to the highest value activities, and to submit 
budget requests aligned with achieving the greatest benefit to the 
government in terms of energy and costs savings outcomes.
    Question. The FEMP program now has in place ``Super Energy Savings 
Performance Contracts'' in various regions to facilitate the 
development of energy savings at federal sites. How much actual work 
has been contracted with this mechanism thus far?
    Answer. Seven projects have been awarded under the Super-ESPCs for 
the U.S. Coast Guard, the Federal Aviation Administration, the General 
Services Administration, the U.S. Forest Service, the Department of 
Veterans Affairs, and the National Aeronautics and Space 
Administration. These projects are being financed with over $27.5 
million of private sector funds. The projects will result in gross 
savings of $57 million. The contractors' investments will be paid from 
these savings.
    Question. Is progress to date as great as predicted by the 
Department in presenting its fiscal year 1999 budget request?
    Answer. Progress to date is on track. There are currently about 190 
delivery orders signed, in progress, or supported by FEMP under the 
Super-ESPCs. Several of those cover multiple facilities which have been 
bundled together under a single delivery order. This bundling will make 
the contracts easier to administer for both the government and the 
energy service company. Of the 190, about 62 have already either signed 
delivery orders (7) or selected a specific a contractor (55) to 
evaluate the facility and prepare a proposal specifically tailored to 
the site. Within the 190, we have some Department of Defense sites we 
have worked with to move toward a delivery order. Some of those sites 
are likely to use the contracts that the Army and Air Force have 
awarded but the results will still be the same, the agency will realize 
energy savings and cost savings.
    We do not expect to ``close'' each of the delivery orders we now 
have in process, but since starting the Super-ESPC process, we are 
continually responding to new requests for delivery order assistance. 
Our projection for 1999 reflects our estimate of the total number of 
agency requests for support in developing delivery orders.
    Question. If not, why not?
    Answer. We now have lessons learned that will help to speed up 
project implementation. The ESPC process is a new way of doing business 
for the federal government. We are working with agencies' technical, 
contracting, legal, and budget personnel to guide them through the 
process. One additional delay in the delivery order process was caused 
by agencies developing processes for required notifications to Congress 
for projects with cancellation ceilings in excess of $750,000. Since 
most agencies are now signing their first ESPC delivery orders 
requiring Congressional notification, they are having to set up 
processes within their organizations to manage the notification. This 
usually slows the first delivery orders and improves somewhat in later 
orders. However, DOE intends to submit a legislative recommendation to 
raise the notification limit from $750,000 to some higher level, yet to 
be determined, in order to minimize these delays in future.
    Question. Is there anything that this Committee can do to encourage 
other federal agencies to pursue energy savings contracting more 
aggressively?
    Answer. Yes, the FEMP has been given the authority to accept funds 
from agencies for assistance they receive from FEMP for achieving 
energy efficiency through Super-ESPCs. The cost the Department is 
seeking to recover from other agencies is quite modest, from $10,000 to 
$50,000 for a delivery order, depending on the level of services 
required by a particular federal site. These costs are far less than 
what it would cost an agency to develop and implement an energy savings 
performance contact from scratch. In addition, the time from initiation 
to completed project is greatly reduced through utilization of the 
existing FEMP-based contracts. In spite of these advantages some 
agencies and sites are reluctant to commit to use of the contracts 
because of reimbursement requirement, citing lack of funding or an 
unwillingness to lose part of their projected savings. The Committee 
could be helpful if it encouraged all agencies to utilize FEMP services 
and the private sector energy savings performance contracts.
                      transportation technologies
    Question. Within the limitations of its funding allocation, this 
subcommittee has been supportive of the Partnership for a New 
Generation of Vehicles (PGNV) program. How does progress within the 
program to date measure against the goals established at the outset of 
the program?
    Answer. Today, at the halfway point, we consider the PNGV to be a 
successful partnership. When PNGV began, some said that the auto 
manufacturers and government could not work together. Five years of 
cooperation have proven the skeptics wrong. This unprecedented 
partnership is now viewed by many as a model for government and 
industry working together to meet technology challenges of national 
importance. The program is on schedule. As planned, research and 
development activities have been narrowed to those technologies 
identified as ``most promising'' by the technology selection process in 
1997. Concept cars employing these technologies are under development 
and expected in 2000. Pre-production prototype vehicles are due in 
2004. The concept cars displayed by companies at the January 1999 North 
American International Auto Show in Detroit include technologies 
developed or enhanced through the PNGV program and provide public 
evidence that significant progress is being made. We expect that many 
PNGV technologies will be used in sport utility vehicles, pickups, and 
medium and heavy trucks, not just mid-sized sedans.
    Question. A focus of the Transportation program has been 
development of ``clean diesel'' engines that would increase efficiency 
and lower emissions of sport utility vehicles. What are the significant 
barriers remaining in the development of `clean diesel' engines that 
would be affordable and acceptable to consumers?
    Answer. The major remaining technical challenge is to reduce the 
exhaust emissions of the diesel engine to near-zero levels, to meet 
upcoming California Air Resources Board and Environmental Protection 
Agency standards. The specific emissions-related barriers that require 
further federal research and development support are reductions of 
nitrogen oxides and particulate matter. An advanced formulation, low-
sulfur fuel is also critical to overcoming these barriers. High volume 
use of diesel-powered passenger cars in the European market will 
continue to drive reduction of engine cost, but fuel injection and 
emission control system costs will increase in the near-term to meet 
these more stringent requirements. Other factors important for consumer 
acceptability such as noise, vibration, cold starting ability, and 
acceleration are being addressed primarily by engine manufacturers.
    Question. Who are the Department's major partners in this effort?
    Answer. The major Department of Energy industry partners include 
the three principal U.S.-based automakers, General Motors, Ford, and 
Daimler-Chrysler. Within the federal government, the Department of 
Commerce, Environmental Protection Agency, Department of Defense, and 
several other federal agencies are included in the Partnership for a 
New Generation of Vehicles (PNGV). In parallel with research being 
carried out directly with, or through, PNGV participants, additional 
research and development programs are being established under cost-
shared agreements directly with major suppliers. For example, in June 
1999, DOE expects to award contracts to Detroit Diesel Corporation and 
the Cummins Engine Company, two major U.S. diesel engine manufacturers, 
to develop emission control systems for diesel passenger cars which can 
also be scaled up for light truck applications. Through recent DOE 
initiatives, working relationships also are being established among 
DOE's national laboratories and four major catalyst manufacturers--
ASEC, Johnson-Matthey, Degussa, and Engelhard--through the 
Manufacturers of Emission Controls Association, to integrate and test 
state-of-the-art emission control components.
    Question. At what point in the development process will the federal 
government step out of the picture and let the industry ``go it 
alone''?
    Answer. Compression-ignition, direct-injection (CIDI) engine 
technology efforts under the Partnership for a New Generation of 
Vehicles (PNGV) follow a research and development roadmap, including 
schedules and technical targets, developed in cooperation with the PNGV 
Four-Stroke, Direct Injection (4SDI) Technical Team. This team is 
composed of scientists and engineers from the auto industry, federal 
government agencies, and federal laboratories who specialize in such 
areas as combustion and emission control systems. To ensure that the 
CIDI effort is focused on the candidates most likely to achieve the 
objectives, go/no-go decision milestones have been incorporated within 
the technology development schedule. Technology development will 
continue beyond a decision milestone only if the technical targets for 
that milestone have been achieved. Failure to achieve the targets will 
result in project termination or revision of the roadmap. Once the 
desired performance has been validated, and the established targets 
achieved, federal research efforts will conclude and each industry 
partner will determine where, and in what configuration, the technology 
will be commercialized.
    Question. There has been significant media attention this week on 
the fuel cell automobiles being produced by Daimler-Chrysler, Ford, and 
other automakers. What are the significant barriers remaining in the 
development of fuel cell cars that will be affordable and acceptable to 
consumers?
    Answer. Fuel-flexible fuel cell systems that can operate on 
gasoline or advanced petroleum-based fuels are considered by DOE 
necessary for the successful early introduction of fuel cell vehicles. 
This relates simply to the issue of fuel availability. To date, no fuel 
cell developer or auto company has built an automotive-size integrated 
fuel cell system operating on gasoline. Beyond that, the cost of the 
automotive fuel cell system is currently estimated at ten times higher 
than that needed to be competitive with the internal combustion engine. 
Significant barriers are as follows:
  --On-board fuel processing technology that can meet system 
        efficiency, size, weight, start-up and transient response 
        targets.
  --Lack of low-cost, high-volume fabrication processes for fuel cell 
        systems and components.
  --Integration of fuel processor, fuel cell stack, and balance of 
        plant components needed to enable successful resolution of 
        system level issues such as durability, freeze-thaw 
        performance, and thermal/water management.
    Question. To what extent does the development of fuel cell vehicles 
threaten to ``overtake'' developments in advanced combustion engines, 
alternative fuel vehicles, and other advanced transportation 
technologies?
    Answer. The extent to which fuel cell vehicles will succeed in the 
marketplace, thus ``overtaking'' competing technologies, is dependent 
on a number of factors that include: price of fuel, emissions 
regulations, mass production cost, progress of competing technologies, 
fuel cell technical progress, foreign activity, and the economy. The 
difficulty in predicting these factors makes it impossible to 
accurately forecast if and when fuel cell technology will be 
commercially available in vehicles. Lowering the cost of fuel cells to 
compete with technologies which primarily have only technical barriers, 
such as advanced internal combustion engines, suggests it will be a 
number of years before fuel cell vehicles move beyond the concept and 
prototype stages. However, each technology has significant development 
risks sufficient to prohibit identification of a clear winner at this 
stage. The benefits of fuel cells--extremely high efficiency, very low 
emissions, and utilization of renewable and alternative fuels--make a 
compelling case that the technology will ultimately succeed.
    Question. Is the development of practical and affordable fuel cell 
technology so far in the future that these other technologies are 
likely to have a life span in the market that will justify the federal 
investment in them?
    Answer. The Department has structured the investment in 
transportation technologies to be complementary. These technologies are 
not necessarily in direct competition, where one technology will 
``win'' over another. For example, our work in electric vehicles 
(motors, batteries and power electronics) is directly applicable to 
compression-ignition, direct- injection (CIDI) hybrids, gasoline 
hybrids and fuel cell vehicles since all are electric drive vehicles 
that require those components. Technologies other than fuel cells in 
which the federal government is investing to improve vehicle fuel 
economy and emissions are likely to have shorter term payoffs.
    In the case of fuel cells versus other advanced technologies such 
as CIDI, it is likely that the fuel cell will have significant market 
penetration later due to cost considerations. As fuel cells enter the 
market, different technologies will likely start to dominate certain 
market segments (that is, sport utility vehicles, automobiles, and 
vans). Full conversion over to a single technology, presuming that a 
clear ``winner'' emerges, will take at least a few decades.
    Question. At what point in the fuel cell development process will 
the federal government step out of the picture and let the automobile 
industry ``go it alone''?
    Answer. Fuel cell research and development activities are currently 
conducted under the PNGV program; the completion strategy is based on 
achieving established targets and transferring the technology to 
America's automakers and their suppliers to ensure a viable, 
competitive domestic fuel cell industry. The federal government should 
step out of the fuel cell development picture when the established 
targets of cost, efficiency, and performance are met or when the 
likelihood of meeting those targets falls below an acceptable level in 
light of other alternative technologies.
    Question. The Transportation program has been working with the 
Northwest Alliance for Transportation Technologies (NATT), a consortium 
of aluminum and titanium producers, truck manufacturers, Boeing, the 
Pacific Northwest National Laboratory, and others. Are you familiar yet 
with the work being done by NATT?
    Answer. Yes, the Office of Transportation Technologies (OTT), in 
the Office of Energy Efficiency and Renewable Energy, has worked with 
NATT since its inception in 1997, and has supported NATT's activities 
which are helping to accomplish OTT's mission.
    Question. Is it your impression that NATT is making a valuable 
contribution to Department of Energy programs?
    Answer. Yes, the NATT's expertise in aluminum, magnesium, titanium, 
metal-matrix composites, glazing, and polymer-matrix composites has 
provided an important dimension to the materials research and 
development work supported by OTT. Its collaboration with industry in 
the Northwest also bodes well for more rapid commercialization of 
developed technologies.
    Question. What is the status for funds appropriated for NATT in 
fiscal years 1998 and 1999?
    Answer. In fiscal year 1998, $2.39 million of the Lightweight 
Materials funds were committed and distributed to NATT for automotive 
applications. The Lightweight Materials program within the Office of 
Advanced Automotive Technologies (OAAT) has committed $3,725,000 to 
NATT in fiscal year 1999; all but $575,000 has actually been sent to 
NATT. the Office of Heavy Vehicle Technologies (OHVT), has been sent to 
NATT, for Cooperative Research and Development Agreements (CRADA) 
activities.
    Question. Have all such funds been obligated to research contracts?
    Answer. The $575,000 of committed research funds yet to be 
distributed to NATT from OAAT's fiscal year 1999 program resources are 
planned for specific research projects. Of funds already provided to 
NATT, $250,000 are for NATT program management; that amount will not be 
obligated to research projects. All OHVT funds for NATT are to be 
obligated to specific research project areas that are currently being 
planned and are nearing CRADA status.
    Question. What are some of the specific research areas being 
targeted by NATT, and how do these research areas relate to PNGV 
program goals?
    Answer. Specific research areas targeted by NATT under the OAAT 
program for automobiles include aluminum, magnesium, titanium, metal-
matrix composites, glazing, and polymer-matrix composites. The work 
accomplished in all these areas all contributes to the PNGV goal of 40-
percent vehicle weight reduction at comparable cost. These areas 
contribute to high structural strength, with no degradation in 
durability and reliability, and are also important for achieving a high 
efficiency, 10-mile-per-gallon heavy truck in the OHVT program.
    Question. Does the fiscal year 2000 budget request include funds 
for NATT?
    Answer. Yes, funding for NATT is in the Lightweight Materials 
Technology program request within the Materials Technologies program 
managed by OTT.
    Question. If so, how much and in what program elements?
    Answer. Funding proposed for NATT in fiscal year 2000 is 
$3,175,000. These funds are in the Lightweight Materials Technology 
portion of the transportation programs request. Specific research areas 
to be addressed by the fiscal year 2000 work will again include 
aluminum, magnesium, titanium, metal-matrix composites, glazing, and 
polymer-matrix composites.
    Question. How will the proposed reduction in Lightweight Materials 
Research impact the NATT program?
    Answer. Ongoing efforts will be ``stretched out'' over more years 
at reduced annual funding. Industry partners may be asked to assume 
higher cost-share on more mature projects. No new projects will be 
started.
                        industries of the future
    Question. The budget request for the Industries of the Future 
program includes a large increase ($9 million) for the Forest Products 
program. This increase will fund demonstrations of black liquor 
gasification technology that would substantially lower NO<INF>X</INF>, 
SO<INF>2</INF> and CO<INF>2</INF> emissions from paper mills and would 
make these mills much more energy efficient. Can you tell me a little 
more about this project?
    Answer. The Department of Energy has partnered with the Forest 
Products industry to develop a research and development strategy, known 
as Agenda 2020. Through this effort technology roadmaps have helped 
prioritize research and development areas that offer the most 
significant benefits for the industry and the nation. Demonstration of 
black liquor and biomass gasification systems are considered key 
elements that can provide a pathway to an energy sustainable future. 
Multiple gasification technologies are needed to meet the diverse needs 
of the industry and achieve the energy and environmental goals of the 
nation. There are risks associated with demonstrating these 
technologies that one company alone cannot endure and therefore 
justifies government participation. The fiscal year 2000 President's 
budget request for Energy Conservation includes a $9 million increase 
for biomass and black liquor gasification; this funding will support 
the initial year of a competitive solicitation for multi-year field 
evaluations.
    Question. How many demonstrations does the Department intend to 
fund?
    Answer. The planned release of the fiscal year 2000 solicitation is 
dependent on favorable House and Senate appropriation marks. Proposals 
submitted to the solicitation will be evaluated by merit and program 
policy review committees. Selections will be made based upon the 
outcome of the reviews and availability of appropriated funds. The $9 
million that was requested in fiscal year 2000 can support up to 
multiple technologies in the initial year.
    Question. Why this many?
    Answer. Due to a variety of gasifiers, feedstocks and processing 
technologies several demonstrations performed simultaneously (rather 
than sequentially) are necessary to provide the industry adequate 
information to make timely decisions for replacing their aged boiler 
infrastructure (40 to 50 years old).
    Question. Who are the industrial partners and what is the level of 
non-federal cost sharing?
    Answer. Naturally, the industrial partners will depend on the 
outcome of the fiscal year 2000 solicitation. However, the Forest 
Products industry has proposed an initiative which has aligned several 
key paper companies with gasification suppliers. Champion International 
Corporation is teaming with Kvaerner Chemrec AB to develop a 
pressurized Oxygen-Blown Black Liquor Gasification and Integrated 
Combined Cycle system. This project has recently been selected for 
funding in fiscal year 1999 for preliminary engineering designs, cost 
estimates and supporting analyses, which will be used to determine the 
economics of demonstrating integrated gasification combined cycle 
technologies in pulp mills. Georgia-Pacific Corporation, together with 
StoneChem, Inc, is proposing to demonstrate a Steam Reforming Black 
Liquor gasification system. This project is being considered for 
funding in fiscal year 1999, as well. Weyerhaeuser and FERCO are 
working together to demonstrate biomass gasification combined cycle 
systems to replace inefficient power and lime kiln boilers. Babcock and 
Wilcox has also discussed interest in black liquor gasification. 
Proposals for the fiscal year 2000 solicitation will require a minimum 
of 50 percent industry cost-share.
    Question. How long will the program last?
    Answer. A gasification program that fully supports the Forest 
Products industry will be approximately 5 to 8 years in duration, 
depending on allocation of appropriated funds. Milestones will be 
incorporated into project schedules and go/no go decisions will be 
established throughout the life of the projects.
    Question. What will the fiscal year 2001 funding requirements be?
    Answer. Total cost per demonstration project is estimated to be $50 
to $60 million over five to six years. The fiscal year 2001 funding 
requirements will be based upon the amount of appropriated funds in 
fiscal year 2000, number of projects ready for design phase versus 
implementation, and levels of cost sharing from a variety of sources.
    Question. What are the barriers to industry development and 
demonstration of this technology without federal support?
    Answer. As with all initial large-scale process technologies, 
installations will require larger capital costs than subsequent units 
and will incur larger initial operating expenses. Without DOE cost 
share, the risks associated with implementing gasification technologies 
are too burdensome for one company to withstand. Additionally, industry 
is working with the Environmental Protection Agency (EPA) to acquire 
innovative technology waivers for MACT II regulations. Since the new 
technologies provide significant environmental benefits, it is expected 
that the EPA will grant leniency for the host sites to comply with 
these rules. However, if this does not occur, the advancement of these 
demonstrations may be jeopardized.
    Question. What is the relationship of this program to the 
Department's Bioenergy Initiative?
    Answer. The gasification effort is part of a broader Bioenergy 
Initiative, which will accelerate the use of fuels, energy crops, and 
feedstocks in power generation, industrial processing and manufacturing 
and transportation activities. The Bioenergy Initiative research and 
development will produce an array of technologies that will enable 
production from a variety of energy crops of multiple products (fuels, 
power, and chemicals) for various markets in different regions. In this 
way, a ton of biomass could be as fungible as a barrel of oil today. 
This effort will provide an integrated, long-term strategy with the 
chemical, forestry, agricultural and energy communities and will help 
strengthen the nation's energy and economic security, protect the 
environment and revitalize rural America. Successful demonstration of 
gasification technologies in the forest products industry will provide 
a springboard for applications in other industries and bioenergy areas, 
such as the agricultural sector.
    Question. Do any funds in the budget request outside of the Forest 
Products program support the black liquor gasification project? If so, 
how much and in what programs?
    Answer. There are no other requests outside of the Forest Products 
program that support black liquor gasification activities. The $9 
million increase within the fiscal year 2000 President's budget request 
for Energy Conservation appropriation will support the initial year of 
a competitive solicitation for multi-year field evaluations.
    Question. The budget request also includes increases for the Mining 
($3 million) and Agriculture ($4 million) industry programs that were 
initiated in fiscal year 1999 and a $1 million request to restart the 
Petroleum Refining industry program. What is the status of the Mining 
Industry Technology ``roadmapping'' process? Of the $2 million 
appropriated in fiscal year 1999?
    Answer. The Mining Industry of the Future is currently soliciting 
50 percent cost-shared proposals from industry, academia, and national 
laboratories to address the needs identified in the ``Mining Industry 
Roadmap for Crosscutting Technologies''. This roadmap, available from 
both the National Mining Association and the DOE Office of Industrial 
Technologies, provides a prioritized list of needed technologies 
identified by both hardrock and coal mining industry partners in the 
United States. The funds appropriated in fiscal year 1999 will be 
directed to the national laboratories in order to start addressing 
these needs as soon as possible.
    Question. What is the status of the Agriculture industry technology 
``roadmapping'' process? Of the $2 million appropriated in fiscal year 
1999?
    Answer. Our industry and grower partners convened two roadmapping 
sessions late last summer in Indianapolis, Indiana. The first focused 
on current crops in current processing systems; the second focused on 
modified plants for new processing methods. Over one hundred experts 
from both the public and private sectors attended or participated in 
the review process for the draft roadmap. The roadmap was published in 
February and is being used in the Agriculture Team's first solicitation 
for proposals now underway. We are seeking new research and development 
ideas from the high priority targets identified by industry in the 
processing and utilization categories. Proposals are due by April 23rd 
and we plan to make our selections for financial awards by June 9th.
    Question. How is the Agriculture program being coordinated with 
other Department of Energy biomass programs and with the Department of 
Agriculture?
    Answer. The Office of Industrial Technologies' Agriculture Team is 
a member of the broader Office of Energy Efficiency and Renewable 
Energy (EERE) Bioenergy Team, and as such, is a full participant in the 
planning and activities of that new initiative. Representatives of 
EERE, as well as the Department's Office of Science, have been invited 
to key Agriculture Team events, such as the roadmapping workshops last 
summer; they also were given the opportunity last year to review the 
draft strategic vision and technology roadmap.
    Similarly, there is a broad and active web of interaction and 
collaboration between the Agriculture Team and the U.S. Department of 
Agriculture (USDA). Various agencies at USDA have attended key meetings 
sponsored by the Agriculture Team and offered comments on key 
documents. The Agriculture Team likewise attends on a regular basis 
meetings of the USDA's Biobased Products Coordinating Council; 
participated in the Council's strategic review last fall; and, visited 
recently the USDA's National Center for Agricultural Utilization 
Research in Peoria, Illinois, to expand contacts collaboration with 
scientists at that premier facility. We are also exploring the 
possibility of adding a USDA staff member to the DOE Merit Review 
Committee for the Agriculture Team's first solicitation for research 
proposals.
    Question. What types of research will be funded in this program?
    Answer. The Agriculture Team will be guided in its research funding 
decisions by the suggestions and priorities set by its industry and 
grower partners. They came together voluntarily last year to form the 
Executive Steering Group, an informal oversight body responsible for 
producing the technology roadmap for Renewables Vision 2020. The group 
also recommended that the Agriculture Team focus its first solicitation 
on the roadmap barrier areas of processing and utilization; the team 
agreed. Those categories contain research and development targets for 
bioprocessing, bioseparations, and biocatalysis; all proposed projects 
also have to meet our office missions of reducing energy use and waste. 
We will be looking to establish a balanced portfolio of research 
projects, ranging from short to long term in duration and with a broad 
array of partners and topics to advance the strategic goals of the 
renewable bioproducts industry.
    Question. How is this research distinct from research being funded 
by the Department of Agriculture or other DOE programs?
    Answer. No other program in the federal government duplicates the 
unique research and development focus and decision-making process of 
the Office of Industrial Technology Agriculture Team. We are targeting 
100 percent of our research funding to the high priority targets 
established by our industry and grower partners in their published 
technology roadmap for renewable bioproducts. These targets are tied 
directly to the ambitious long-term goals set by the private sector for 
the use of crops, trees and agricultural wastes as basic chemical 
feedstocks for a wide range of consumer goods, such as plastics, paints 
and adhesives. Research projects also have to result in significant 
energy efficiency gains and reduction of wastes. Our solicitations are 
competitive and open to the public. The solicitations require teaming 
and 50 percent cost-sharing for proposals. Proposed projects will be 
screened and reviewed by a mix of industry and federal experts, 
including from the USDA.
    Question. Given the existence of the Agricultural Research Service 
with USDA, why is the Department of Energy involved in this area of 
research at all?
    Answer. The basic philosophy guiding the 1995 Memorandum of 
Understanding between the Departments of Agriculture and Energy was 
that the skills and technologies of the two departments are largely 
complementary and can be brought together to benefit the industry and 
agriculture of this country. The USDA's Agricultural Research Service 
(ARS) celebrates a proud tradition of research successes, but its 
focus, mission, and method of operations are nonetheless quite 
different than the ``Industries of the Future'' program's Agriculture 
Team. ARS is the main research arm for the USDA and that research is 
done basically by its own federal employees. In the area of renewable 
bioproducts, the Agricultural Research Service has tended to focus more 
on basic plant sciences and crop production issues, rather than on the 
efficient processing or utilization of those plants; the latter 
categories have traditionally been the strong suits of the Energy 
laboratories, with their expertise running more to the core physical 
sciences, high-speed computing, and sensors and controls. Moreover, the 
Agriculture Team's focus is energy-related and seeks new research ideas 
from the public through open, competitive solicitations. The 
Agriculture Team is working closely with a unique coalition from the 
agricultural, chemical and forestry communities across-the-board.
    To reach industry's stated goal of winning 10 percent of the market 
for basic chemical feedstocks from plants--a five-fold increase in just 
2 decades--will require the sustained and concerted efforts of a 
multitude of groups from both the public and private sector across the 
country; not just the ARS, but other relevant offices at USDA, as well 
as the DOE and possibly other federal and state agencies, academia, 
environmentalists, industry, and farmers. Much more inter-disciplinary 
collaboration and cross-fertilization of approaches also will be 
crucial to grow this new industrial sector. Success will require new 
mixes of talent and equipment. One part of one federal agency working 
alone will not be able to bring all of the necessary talent, equipment, 
ideas and funds to bear in the time required to help reduce our 
increasing reliance on imported oil.
    Question. Are there any specific barriers to USDA funds being used 
for research at DOE's national labs?
    Answer. No, there are not, but USDA would have to meet the rules 
and regulations governing ``Work for Others'' or any other type of 
technology transfer mechanisms, just like any other organization. The 
USDA can even propose to fund a portion of the work at a laboratory for 
a project to be submitted under the Agriculture Team's current 
solicitation, given that all the requirements of that Request for 
Proposals are met.
    Question. I understand that the Environmental Protection Agency is 
releasing a proposed rule that would dramatically reduce the amount of 
sulfur allowed in gasoline. Given that current sulfur reduction 
technologies are expensive and energy intensive, this rule could have 
significant impacts on the cost of gasoline and the amount of energy 
used to produce gasoline. What kind of research is the Department 
supporting to address this challenge?
    Answer. The Office of Industrial Technologies has been supporting 
pioneering research in gasoline biodesulfurization since fiscal year 
1997. This technology is likely to have lower capital and operating 
costs than the conventional technology, hydrodesulfurization, and, as 
such, has the potential to meet industry needs for a low cost 
technology which is also less energy intensive and retains the quality 
and value of the gasoline by not degrading octane. Over $1.8 million 
has been committed to this project since inception in fiscal year 1997.
    Additionally, the Office of Fossil Energy is supporting three 
research and analytical efforts within the Oil and Gas and Coal and 
Power programs, to produce cleaner transportation fuels. The Gas-to-
Liquids program is concentrating on the development of ceramic membrane 
technology for combined air separation to produce oxygen and partial 
oxidation of natural gas to produce a lower cost synthesis gas. This 
synthesis gas could be used to produce ultra-clean transportation fuels 
which contain no sulfur or aromatics. The Oil program is supporting 
activity for effective environmental protection. It includes 
identifying various pollutants such as sulfur in petroleum, and 
developing process technology to reduce these potential pollutants more 
efficiently and at lower cost.
    The Advanced Clean Fuels Research Program for Indirect Liquefaction 
is supporting development of technology to convert synthesis gas from a 
variety of feedstocks, including coal, petroleum coke and refinery 
bottoms, to ultra-clean diesel and gasoline fuels. These fuels would 
not contain sulfur or aromatics and therefore would achieve 
significantly lower regional emissions of SO<INF>2</INF>, Volatile 
Organic Compounds, NO<INF>X</INF>, and particulate matter when blended 
with conventional transportation fuels.
    Question. In what programs is such research being proposed in 
fiscal year 2000 and at what amounts?
    Answer. Gasoline biodesulfurization is being pursued through the 
OIT Petroleum Industries of the Future (IOF) Program. $1 million has 
been proposed for all OIT IOF Petroleum projects in fiscal year 2000. 
The industry-formulated roadmap will prioritize industry needs. This 
will determine the percentage of total proposed budget to be allocated 
to this project in fiscal year 2000.
    The Fossil Energy Oil and Gas funding request for fiscal year 2000 
includes $5.3 million for gas-to-liquids and $3.4 million for effective 
environmental protection identification and development activities 
related to sulfur and other regional and global pollutant reduction. 
The Advanced Clean Fuels Research budget, also managed by DOE's Office 
of Fossil Energy, includes $6.6 million for indirect liquefaction 
activities to produce ultra-clean transportation fuels.
    Question. Does the budget include funds for research on 
biodesulfurization of coal? If so, in what programs and in what 
amounts?
    Answer. No funds are included in the OIT budget for 
biodesulfurization of coal research.
    Question. Has the petroleum industry identified this technology as 
a research priority in its industry ``vision'' process?
    Answer. The ``Technology Vision of the U.S. Downstream Petroleum 
Industry'' notes the prospect that bioscience will be increasingly 
introduced into refining operations as this technology advances. It 
states further that bioprocessing may be able to provide environmental, 
performance and cost benefits in fuel processing that the refining 
industry seeks and singles out the biodesulfurization of fuels as being 
a research priority in its vision.
                        advanced turbine systems
    Question. The budget request for the Advanced Turbine Systems 
program within the Office of Industrial Technologies is $12 million 
below the fiscal year 1999 level, reflecting the fact that the ATS 
program is nearing completion. How much has the federal government 
invested in the ATS program to date?
    Answer. The federal government has invested $151 million dollars in 
the Advanced Turbine Systems program (industrial) to date.
    Question. What has been the level of industry cost sharing?
    Answer. Overall program cost share is 50 percent. Specifically, 
Solar Turbines cost share is 69 percent, Allison Engines cost share is 
38 percent. The materials base technology program cost share is 
approximately 25 percent
    Question. Do we yet know whether the technology developed in this 
program will meet or exceed original program goals?
    Answer. The Department is confident that the advanced engine 
developed in this program will exceed the 40-percent efficiency goal 
and demonstrate single digit emissions. Thus far, cost, reliability, 
maintainability, durability and availability remain on target to meet 
goals. Once the technology demonstration is completed, the Department 
will confirm.
    Question. Is the Department and its industry partners confident 
that the technology developed in this program will move rapidly into 
the marketplace?
    Answer. The Department and its industry partners are confident that 
most of the technology is already moving into the marketplace. 
Technology, such as the Mercury 50, Solar Turbines Advanced Turbine 
Systems is well position to move rapidly in the market with its orders 
booked for 1999 and the year 2000. Other sub-system technologies 
including coatings and low sulfur alloy development are currently being 
incorporated in the supplier base. For example, Howmett and PCI are 
currently processing alloys with the low sulfur technology developed 
under the program. Sub-system advanced technologies such as ceramics 
and catalytic combustion will not move rapidly into the market without 
additional funding.
                   energy information administration
    Question. The budget request for EIA includes funds to develop 
better modeling capabilities for international carbon mitigation 
analysis. How many years does EIA anticipate it will take to develop 
this capability to the planned level?
    Answer. Assuming receipt of the requested funding in fiscal year 
2000, EIA will need an additional 2 years to complete the development 
and integration of the modeling enhancements to attain the planned 
analysis capabilities level.
    Question. Does EIA anticipate future increases in funding 
requirements beyond that requested in fiscal year 2000?
    Answer. EIA does anticipate investment funds will be needed beyond 
that requested in fiscal year 2000. Specifically, EIA anticipates $1.0 
million will be needed in fiscal year 2001, and $500,000 will be needed 
in fiscal year 2002 representing the minimum level needed to develop 
the modeling capabilities required to provide reliable assessment of 
carbon mitigation alternatives and reliable assessment of our potential 
trading partners mitigation efforts. As with any analysis or modeling 
effort, this level of funding provides a certain capability. Additional 
funding could provide additional regional detail, a longer forecast 
time horizon, additional policy analysis capabilities, or a faster 
development schedule.
                           ramjet technology
    Question. The Committee has been monitoring the development of 
technology that applies ramjet technology from the aerospace industry 
to electric power generation. The Committee further understands that a 
prototype of this technology has been constructed, and that a proposal 
has been submitted to the Department to test this prototype engine 
using coal mine methane as a fuel. Is the Department aware of this 
proposal?
    Answer. An unsolicited proposal was received from Ramgen by the 
Department several weeks ago. The three-phase, 3-year effort would 
demonstrate the use of the Ramgen engine on coal bed methane.
    Question. What is the status of the proposal?
    Answer. The Federal Energy Technology Center is in the process of 
reviewing the proposal.
    Question. What are the potential benefits of successfully 
demonstrating and deploying this type of technology?
    Answer. The market potential for the Ramgen engine would be a full 
range of distributed generation applications ranging from unit sizes of 
750 kilowatts to 40 megawatts. The Ramgen engine design is expected (by 
Ramgen) to allow capital costs which are one-third lower than 
equivalent power systems. Ramgen also expects the engine to have the 
ability to operate on a wide range of fuels while maintaining high 
efficiency and low nitrous oxide emissions.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                       the role of fossil energy
    Question. What percentage of the energy needs of the United States 
are currently supplied by fossil fuels?
    Answer. In 1997, the latest year for which complete data are 
available, fossil fuels (coal, petroleum, and natural gas) accounted 
for 85 percent of the nation's energy needs.
    Question. What percentage of the nation's energy needs are fossil 
fuels expected to supply in the year 2020?
    Answer. According to the Energy Information Administration's (EIA) 
Annual Energy Outlook 1999 reference case, fossil fuels are expected to 
supply 90 percent of the nation's energy needs by 2020.
    Question. What percentage of the energy needs of the world are 
currently supplied by fossil fuels?
    Answer. In 1996, the latest year for which complete data are 
available, fossil fuels accounted for almost 86 percent of the world's 
energy needs.
    Question. What percentage of the world's energy needs are fossil 
fuels expected to supply in the year 2020?
    Answer. According to the EIA's International Energy Outlook 1998 
reference case, fossil fuels are expected to supply 89 percent of the 
world's energy needs by 2020.
    Question. How much electricity does the United States currently 
generate each year? How much does the world generate?
    Answer. In 1997, the last year for which complete data are 
available, the United States generated 3.5 trillion kilowatthours of 
electricity. Total world electricity generation in 1996, the last year 
of complete data, was 13.1 trillion kilowatthours.
    Question. What is the projected annual electricity generation for 
the United States and the world by the year 2020?
    Answer. EIA projects in its Annual Energy Outlook 1999 reference 
case that electricity generation will be 4.8 trillion kilowatthours in 
2020. EIA's International Energy Outlook 1998 reference case projects 
total world electricity consumption will be 23.1 trillion kilowatthours 
in 2020. Assuming a similar ratio between generation and consumption as 
existed in 1996, generation would then be about 25.2 trillion 
kilowatthours in 2020.
    Question. How much electricity in the United States is currently 
generated by coal-fired power plants each year?
    Answer. EIA estimates coal-fired utility power plants generated 1.8 
trillion kilowatthours of electricity in 1997.
    Question. How much electricity will be generated from coal in the 
year 2020?
    Answer. EIA's Annual Energy Outlook 1999 reference case projects 
that coal-fired generating units will produce 2.4 trillion 
kilowatthours of electricity in 2020.
    Question. What are comparable numbers for the world?
    Answer. EIA's International Energy Outlook 1998 reference case 
estimates world coal consumption for electricity generation in 1995 to 
have been 51 quadrillion (quads) British thermal units (Btu) and a 
projected 87 quads Btu in 2020. Based on an average of 10,500 Btu per 
kilowatthour of electricity generated, total coal-fired generation 
would have been approximately 4.8 trillion kilowatthours in 1995, 
rising to 8.3 trillion kilowatthours in 2020.
    Question. How many gigawatts of new coal-fired capacity are 
projected to be built in the United States in the next 20 to 50 years?
    Answer. Between 1997 and 2020, EIA's Annual Energy Outlook 1999 
reference case projects that 31 gigawatts of coal-fired generating 
capacity will be built in the United States. EIA does not project 
beyond 2020.
    Question. How many gigawatts of current coal-fired capacity are 
expected to receive major rehabilitation?
    Answer. EIA does not project major rehabilitation for coal-fired 
generating units. It is assumed that plants are maintained at 
sufficient operating condition through their annual maintenance plans. 
It is generally assumed in EIA's projections that coal plants will 
operate at least 45 years, with extensions of up to 20 years depending 
on the cost of competing new technologies. In EIA's Annual Energy 
Outlook 1999 references case, approximately 3 gigawatts of coal-fired 
generating plants are projected to retire between 1997 and 2020. EIA 
projections do not go beyond 2020.
    Question. Are generating costs projected to decline over the next 
20 years for coal-fired and gas-fired power plants; and if so, by how 
much?
    Answer. Generating costs (fixed and variable operating costs, 
including the cost of fuel) are projected to decline for coal-fired gas 
plants, but to rise slightly for gas-fired plants between 1997 and 
2020. EIA estimates that the operating costs of a typical coal steam 
unit running at a 70-percent capacity factor will decline by about 27 
percent from 1997 to 2020, to about 1.4 cents per kilowatthour produced 
from an estimated 1.9 cents in 1997. For a natural gas combined- cycle 
unit, the operating cost is expected to go up slightly, from 2.2 cents 
per kilowatthour to 2.3 cents per kilowatthour, mainly because of 
higher fuel costs (all costs are in 1997 dollars). The decision to 
build new generating capacity will also be based on capital costs, 
which are approximately twice as high for coal as they are for natural 
gas.
    Question. In the transportation sector, what percentage of energy 
consumption is currently met with fossil fuels? How does that 
percentage change in the next 20 years?
    Answer. In 1997, fossil fuels accounted to 99.5 percent of energy 
consumption in the transportation sector. By 2020, EIA's Annual Energy 
Outlook 1999 reference case projects that fossil fuels will account for 
98.3 percent of total transportation energy consumption, due to 
additional consumption of ethanol and electricity.
    Question. What can the Department of Energy do in the future to 
better educate and inform the other parts of the Administration as to 
the importance of and the economic and environmental benefits of the 
fossil energy research program?
    Answer. We believe that DOE has successfully worked within the 
Administration to convey fossil energy information and analyses. For 
example, our development of a ``state-of-the-science'' analysis of 
carbon sequestration technology--in preparation for ``roadmapping'' a 
coordinated research and development program--was developed jointly 
with the DOE Office of Science, in close cooperation with other federal 
agencies, such as the Department of Agriculture, in addition to others. 
Our research and development efforts in alternative liquids from both 
coal and natural gas are being linked closely with the development of 
high-efficiency, cleaner engines in DOE's Partnership for New 
Generation Vehicles overseen by the DOE Office of Energy Efficiency. 
Our efforts in methane hydrates research are being planned as an 
Administration-wide effort involving the U.S. Geological Survey and the 
Naval Research Laboratory. Recently our Federal Energy Technology 
Center signed a ``memorandum of understanding'' with the U.S. Office of 
Surface Mining to apply fossil energy technologies to mitigate acid 
mine drainage and other environmental concerns associated with mining.
                      fossil energy research--coal
    Question. What is the future of coal as an energy source for both 
domestic and international energy markets, and how does the fiscal year 
2000 budget proposal contribute to this future?
    Answer. According to estimates by the Energy Information 
Administration, domestic consumption of coal will increase 28 percent 
between 1996 and 2020. During the same period, coal consumption in the 
rest of the world is expected to increase 80 percent. Beyond 2020, coal 
use is expected to continue to increase at a substantial rate, 
especially in developing Asia. These projections assume implementation 
of current environmental regulations. They do not consider, for 
example, new regulations for meeting PM 2.5 ambient air quality 
standards in the United States or possible future climate change 
mitigation requirements.
    The fiscal year 2000 budget anticipates such requirements and will 
contribute to reducing the environmental impacts of coal use as well as 
reducing the cost of electricity generated from coal. Vision 21 coal-
fired power plants will generate electricity 10 percent cheaper than 
current coal technology while producing near-zero emissions of 
SO<INF>2</INF>, NO<INF>X</INF> and particulate. Our cost goal for 
reducing CO<INF>2</INF> emissions, should that be required, is $10 per 
ton of carbon. These low emission characteristics will become 
especially important in a world with a greatly increased population 
combined with global efforts to reduce greenhouse gas emissions. Long-
term economic, yet environmentally sound, energy from coal will 
contribute to growth of the domestic economy as well as economies of 
developing nations.
    Question. What is the long-range role of coal as an energy source 
for this country and the world?
    Answer. In the coming decades, coal use is expected to increase 
substantially in the United States and increase even more rapidly in 
developing nations which have economies and populations that are 
growing rapidly. According to the Energy Information Administration, 
domestic coal use will increase 28percent by 2020 while increasing 80 
percent in the rest of the world.
    Coal is an attractive fuel because it is relatively plentiful in 
many countries, including the in the United States, and low in cost. 
However, coal use also presents environmental problems. In the past, 
collaborative research and development between DOE and industry have 
found solutions to these types of problems. It is our belief that we 
can continue to enable the United States to enjoy the benefits of low 
cost coal use by development of additional technologies to protect the 
environment.
    Question. How many years worth of coal reserves and resources does 
our country have?
    Answer. The U.S. Geological Survey (USGS) has recently developed 
estimates of the U.S. coal resource. The USGS publication, Coal 
Availability Studies: A New Look at Resource Estimates, available from 
the USGS web site, indicates that the coal demonstrated reserve base is 
475 billion tons, or enough to meet projected energy needs for almost 
200 years, based on current production rates (not all of the reserve 
base is recoverable). The current production rate for coal in the 
United States is 1.1 billion tons per year.
    Question. How many years worth of natural gas?
    Answer. The USGS has recently developed estimates of the U.S. 
natural gas resource base. A publication available from the USGS web 
site, A Summary of the U.S. Geological Survey 1995 National Assessment 
of Oil and Gas Resources, indicates that the Unites States has 1,073 
trillion cubic feet of recoverable gas. The natural gas reserves are 
roughly equivalent to 55 years of supply based on current production 
rates of approximately 19 trillion cubic feet per year.
    Question. What are some of the success stories associated with coal 
research and development funded by the Department of Energy?
    Answer. Below are listed several success stories of the DOE Coal 
Research and Development and Clean Coal Technology (CCT) programs. The 
CCT successes--mostly demonstrations of pre-commercial, new 
technologies--could not have occurred without earlier DOE research and 
development. The research and development successes that culminated in 
CCT demonstrations include the following:
  --Low NO<INF>X</INF> burners: Far less expensive than preceding 
        technology for removing NO<INF>X</INF> (oxides of nitrogen, 
        precursors of smog) emissions, about one-half of U.S. coal-
        fired capacity today has these burners. Sales to date are about 
        $1.5 billion, and will likely double by January 1, 2000.
  --Atmospheric Fluidized Bed power plants: DOE/industry investments in 
        this clean technology have resulted to date in at least $9 
        billion in domestic and foreign sales ($6.2 billion domestic, 
        $2.8 billion foreign).
  --Advanced Scrubbers: Three advanced scrubbers have been demonstrated 
        by DOE, one of which earned Power magazine's 1993 Power Plant 
        of the Year award.
  --Tomorrow's Power Plants (Integrated Gasification Combined Cycle, or 
        IGCC, and Pressurized Fluidized Bed, or PFBC): These pre-
        commercial, virtually pollution-free plants have the potential 
        of far higher efficiencies (thus, 20 to 40 percent lower 
        CO<INF>2</INF> levels).
  --The Rosebud SynCoal<greek-T><greek-M> and Encoal<greek-T><greek-M> 
        processes are two different ways to upgrade low-rank coals to 
        cleaner, more efficient fuels. Both processes are being 
        marketed worldwide.
    DOE supported coal research and development successes that occurred 
with no involvement with the CCT program include the following:
  --Microcel coal cleaning, now a commercial technology worldwide.
  --Super 9 Chrome Alloy, which allows increased efficiency in power 
        plants because of its ability to withstand higher heat than 
        predecessor materials.
  --Tomorrow's Gas Turbines, initiated in 1992, has already resulted in 
        many new commercial components to increase efficiencies of 
        turbines, using either natural gas or gasified fuels.
  --The ASPEN Model, fully commercialized computer software for energy/
        chemical firms.
  --Toughened Ceramics, which increase efficiencies in many energy and 
        power uses.
  --Neural Networks for Pollution Control (GNOCIS system), which 
        continually adjusts boiler firing conditions, reducing 
        NO<INF>X</INF> emissions by 15 percent while increasing 
        efficiency. GNOCIS will be installed at 21 U.S. sites this 
        year.
  --Several spinoff applications, including components for a better, 
        safer artificial heart, and technology now used for more cost-
        effective aluminum recycling, with other possible applications, 
        including vitrification of low-level radioactive waste.
                     advanced clean fuels research
    Question. The fiscal year 2000 budget request includes a 22-percent 
decrease below the fiscal year 1999 enacted level for coal preparation 
and a 48-percent decrease below the fiscal year 1999 enacted level for 
Direct Liquefaction. What is driving the reductions proposed for these 
programs?
    Answer. In the fiscal year 2000 budget request, the Advanced Clean 
Fuels Research program continues its transformation to a focus 
primarily upon the environment. Its emphasis is on affordable, ultra-
clean, low emission transportation fuels, composite solid feedstocks 
which incorporate biomass, and light-weight, high-strength premium 
carbon products which will:
  --Enable U.S. vehicle manufacturers to meet more stringent vehicle 
        emissions standards,
  --Improve the nation's regional air quality by reducing emissions of 
        SO<INF>2</INF>, NO<INF>X</INF>, Volatile Organic Compounds, and 
        particulates, and
  --Reduce potential global climate change gases.
    The activities proposed are market driven to insure program 
relevancy, highly leveraged with private cost-sharing dollars, and of 
significant interest to industry. The budgets proposed are appropriate 
to continue this refocus in fiscal year 2000. In line with this 
thinking, emphasis is being placed on Indirect Liquefaction 
technologies that will permit:
  --Coproduction of highly efficient electric power, ultra-low 
        emissions transportation fuels, and strategic chemicals;
  --Development of a ``new generation'' of ultra-clean transportation 
        fuels, compatible with the existing infrastructure, which are 
        to be used in advanced high efficiency engines being developed 
        by the Office of Transportation Technologies' PNGV and heavy 
        vehicle programs; and
  --Production of hydrogen from fossil resources without CO<INF>2</INF> 
        by-product generation (since many now believe fossil fuels are 
        the primary resource capable of enabling the ``hydrogen 
        economy'').
    The Direct Liquefaction program is primarily looking toward the 
development of longer term advanced research activities, and the Coal 
Preparation program is primarily emphasizing environmentally preferred 
feedstocks, premium carbon products, and the development of 
precombustion Hazardous Air Pollutants removal technologies (for 
example, mercury).
    Question. Is either of these programs being de-emphasized?
    Answer. Current Direct Liquefaction Technology is being de-
emphasized because there is little commercial interest in this 
technology at this time and little prospect to its use domestically. 
Advanced research aimed at significant, innovative changes to direct 
liquefaction concepts is being emphasized instead. The Coal Preparation 
program is being re-focused to emphasize environmentally preferred 
feedstocks, premium carbon products, and the development of 
precombustion HAP's removal technologies (for example, mercury). The 
budget proposed is appropriate to continue this refocus in fiscal year 
2000.
    Question. What research activities would be undertaken if coal 
preparation was funded at a level of $5 million above the fiscal year 
1999 level?
    Answer. If additional funds in the amount of $5 million were made 
available, research would be initiated in advanced, cross-cutting 
separations technologies, and sensors and controls applied to all 
phases of mineral mining, extraction, and processing. Additionally, 
currently sponsored work would be increased in the use of coal as a 
non-fuel resource (that is, premium carbon products), the development 
of coal/waste/biomass composite fuels, the development of coal 
combustion by-product separation and use, and the development of 
technologies permitting the precombustion control of HAPS (for example, 
mercury).
    The Advanced Separations Technology Initiative ($2 million) would 
incorporate work for enhanced, environmentally benign processing 
operations designed to minimize wastes and reduce costs. The Advanced 
Sensors and Controls Technology Initiative ($2 million) would 
investigate the development of non-intrusive diagnostics, directed 
toward resource mapping, and sensors and controls for ``smart'' mining 
machines.
    Additional funds ($1 million) would also be used to expand the 
number of Phase II projects participating in our existing Grand 
Challenge program component, as well as the number of projects 
participating in our premium carbon products from coal program 
component, both currently sponsored program activities. In the Grand 
Challenge area funds would be used to support the development of coal/
waste/biomass composite fuels, the development of coal combustion by-
product separation and use, and the development of precombustion HAPS 
control technologies. These on-going activities are cost-shared by 
industry at more than 50 percent, and will be demonstrated at 
commercial sites. In the production of premium light-weight, high-
strength carbon products from coal funds will be used to sponsor 
additional cost-shared, industry-driven projects as part of the 
Consortium for Premium Carbon Products from Coal.
    Question. What would be the benefits of these activities?
    Answer. The work supported in the development of innovative 
concepts for coal preparation would produce several benefits. Advanced 
Separations Technology Initiative will develop technology that can 
support sustainable mining operations characterized by near zero 
wastes, reduced ground-water pollution, and improved energy 
efficiencies. Advanced Sensors and Control Technology Initiative will 
permit rapid discovery and exploitation of coal resources and other 
minerals while minimizing the production of excess wastes. When linked 
to ``smart'' mining machines and their attendant sensor arrays, 
innovative diagnostic technologies will reduce costs of coal and 
minerals production and minimize environmental impacts by combining 
resource mapping, real-time recovery, and on-site processing.
    Strong industry, cost-shared, participation in each of the Phase II 
projects of the Grand Challenge program, as well as in the projects of 
the premium carbon products from coal program, is accelerating the 
identification and development of innovative technologies that, when 
developed, will expand markets, ensure market relevance, and instigate 
early commercialization of technologies that will expand the use of 
coal as a source of energy in an environmentally responsive manner.
    The work ongoing in the area of Coal Liquefaction has been 
refocused to develop technologies and processed to produce affordable, 
ultra-clean, low emission transportation fuels that will: enable U.S. 
vehicle manufacturers to meet more stringent vehicle emissions 
standards; improve the nation's regional air quality by reducing 
emissions of SO<INF>2</INF>, NO<INF>X</INF>, Volatile Organic Compounds 
(VOC), and particulates generated by the transportation sector; reduce 
potential global climate change gases; enable the coproduction of 
highly efficient electric power, ultra-low emissions transportation 
fuels, and strategic chemicals; produce a ``new generation'' of ultra-
clean transportation fuels, compatible with the existing 
infrastructure, which can be used in advanced engines being developed 
by the Office of Transportation Technologies PNGV and heavy vehicle 
programs, to significantly increase their efficiency and performance.
    Question. The fiscal year 2000 budget request proposes to increase 
funding for Indirect Liquefaction. A portion of this funding is to 
initiate advanced shift, separation research for hydrogen preparation. 
What benefits would come from this higher funding level?
    Answer. The Advanced Clean Fuels Research program (of which 
indirect liquefaction is a significant portion) continues to emphasize 
the production of next generation ultra-low emission fuels, and the 
development of multiple feedstock, multiple-product, energy 
coproduction plants. In the ultra-low emission fuels area, we are 
developing gasification based Fischer-Tropsch and oxygenated fuels, 
fuel blendstocks, and fuel additives capable of achieving EPA's 2012 
vehicle emission targets (that is, 1 gram NO<INF>X</INF>, 0.05 gram/
bhp/hr particulates) when used in combination with advanced diesel 
engine power plants currently under development. In the coproduction 
plant area, we are developing gasification based plants capable of 
using coal (or coal in combination with other feedstocks such as 
petroleum coke, refinery bottoms, refinery wastes, and biomass), and of 
economically coproducing low emission clean fuels, strategic chemicals, 
and electric power (for either export or internal consumption).
    The increased funding requested will be used to perform technical, 
economic, and market analysis, preliminary concept design and initial 
supporting research for at least three gasification based coproduction 
concepts (to be sited at an existing refinery, chemical plant, and 
power plant), each capable of using multiple feedstocks, and producing 
multiple products; and to initiate development a ``new generation'' of 
advanced ultra-low emission transportation fuels to be used in advanced 
vehicles systems, such as the highly efficient diesel engines for 
sports/utility, light truck, and passenger vans currently being 
developed by the Department's Office of Transportation Technologies.
    DOE will also continue to develop key supporting technologies, such 
as those which can economically produce low cost hydrogen and synthesis 
gas from fossil feedstocks, while concomitantly reducing the amount of 
CO<INF>2</INF> produced. The hydrogen preparation activity intends to 
develop advanced separations technology capable of producing low cost 
hydrogen from mixed gas streams, and from synthesis gas in a clean and 
affordable manner.
    These activities will keep to foster lower cost clean fuels and 
improved regional air quality with reduced emissions of SO<INF>2</INF>, 
NO<INF>X</INF>, VOC, and particulates. Each of these program components 
is market driven and highly leveraged with participant cost sharing in 
order to insure program relevancy and industry interest.
    Advanced Clean/Efficient Power Systems
    Question. The fiscal year 2000 budget proposed $3 million to 
complete Phase IV of the Low Emission Boiler System (LEBS) program 
which involves the design construction and operation of a proof-of-
concept facility. This project, known as the Prairie Energy Project, 
will operate as a source of independent power and will serve as a 
showcase for LEBS technology. What is the total estimated cost of the 
Prairie Energy Project?
    Answer. The total cost of Phase IV of the LEBS program is $127 
million. The estimated cost of the proof-of-concept facility alone is 
$113 million.
    Question. How much of this project is cost-shared?
    Answer. DOE is funding 27 percent of the project's cost.
    Question. What are the other sources of funding beyond DOE's 
contribution of $34 million in fiscal years 1998, 1999, and 2000?
    Answer. The sources of funds for LEBS Phase IV in 1998, 1999, and 
2000 are as follows:

                                          LEBS PHASE IV FUNDING SOURCES
                                             [In million of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal years--
                               Source                                 Other  ---------------------------  Total
                                                                      years     1998     1999     2000
----------------------------------------------------------------------------------------------------------------
U.S. DOE...........................................................        1       15       15        3       34
State of Illinois..................................................  .......  .......        3       22       25
Owner..............................................................       11        1        3        3       18
Lender Debt........................................................  .......  .......  .......       50       50
                                                                    --------------------------------------------
      Total........................................................       12       16       21       78      127
----------------------------------------------------------------------------------------------------------------

    Question. How much of the total estimated cost of the project is 
for construction versus non-construction?
    Answer. The total cost of Phase IV of the LEBS program is $127 
million. The estimated construction cost of the proof-of-concept 
facility alone is $113 million. Thus, non-construction represents $14 
million of the project.
    Question. When will the effort be completed?
    Answer. Commercial test operations are scheduled to be complete in 
December 2001. The LEBS Phase IV is scheduled to be complete in June 
2002.
    Question. Why is DOE involved in developing this power plant which 
will operate commercially after the test phase?
    Answer. This technology developed competitively in a partnership 
between government and industry, reduces NO<INF>X</INF> (an ozone 
precursor) and SO<INF>X</INF>, and is more efficient (less greenhouse 
gas per kilowatt) than existing technology. To facilitate early 
commercial use and showcase the technology the DOE cost-shared the 
design, construction and test operation of a proof-of-concept facility.
    Question. A significant increase is being proposed in fiscal year 
2000 for the Integrated Gasification Combined Cycle. What would these 
funds be used for?
    Answer. The fiscal year 2000 budget request of $38.661 million 
represents a 19-percent increase over the fiscal year 1999 
appropriation of $32.388 million for the Integrated Gasification 
Combined Cycle (IGCC) Program. This increase in funding ($6.273 
million) would support the research and development needs for the 
Vision 21 program. The Vision 21 program is geared to the development 
of energy plants of the future that will be highly efficient facilities 
producing an array of energy products while simultaneously achieving 
near-zero discharge of solid, liquid, and gaseous pollutants. The 
energy products include electrical power, steam for industrial heating, 
hydrogen, environmentally superior liquid fuels, and premium chemicals. 
Gasification-based technologies being developed in the IGCC program are 
major ``building blocks'' of the Vision 21 energy plants from which 
these energy products can be produced. Gasification must become more 
feedstock flexible, that is, capable of processing all carbon-based 
materials including coals of all ranks, petroleum coke and residuals, 
industrial and municipal waste, and blends, while simultaneously 
producing a high quality, extremely clean synthesis gas that can be 
integrated with downstream advanced technologies such as hydrogen 
membranes, synthesis gas conversion, fuel cells, advanced combustion, 
and future ``H'' class gas turbines.
    Specifically, the increase in funding will be used to continue 
development of the advanced transport gasifier at the Wilsonville PSDF; 
complete construction and shakedown of the Gas Processing Development 
Unit at FETC; investigate advanced gas cleaning technologies for ultra-
clean synthesis gas for integration with fuel cell and co-production 
technologies; develop ion transport membranes for low-cost oxygen 
production from air; develop membrane technology for high-temperature 
hydrogen separation; investigate concepts for CO<INF>2</INF> 
concentration; develop advanced fuel cell systems for coal-based 
gasification/combustion applications in conjunction with gas-based fuel 
cell system development; and conduct experimental investigations on the 
co-feeding of coal with various carbon-based feedstocks. The IGCC 
funding profile is as follows:

                          IGCC FUNDING PROFILE
                        [In thousands of dollars]
------------------------------------------------------------------------
                                            Fiscal years--
                Activity                ----------------------   Change
                                            1999       2000
------------------------------------------------------------------------
Program Management Support.............        223        381       +158
Gasification Systems...................     11,244     14,045    + 2,801
Gas Cleaning & Conditioning............      2,605      3,761    + 1,156
Products/By-products Utilization.......      1,050        700       -350
System Analysis........................      3,791      3,524       -267
Vision 21 Support......................     13,475  \1\ 16,25    + 2,775
                                                            0
                                        --------------------------------
      Total............................     32,388     38,661     +6,273
------------------------------------------------------------------------
\1\ $4,950 included for Fuel Cell for Vision 21.

    Question. What is the Federal Energy Technology Center's role in 
this program?
    Answer. The Federal Energy Technology Center (FETC) is responsible 
for the implementation and administration of all research and 
development activities for the Integrated Gasification Combined Cycle 
(IGCC) Program. These activities include both in-house research and 
cooperative developmental efforts with industrial stakeholders. FETC's 
in-house research team continues to conduct both laboratory and bench-
scale particulate removal and sorbent research for power generation 
applications and is expanding into the production of ultra-clean 
synthesis gas for Vision 21 applications. The capabilities of FETC's 
new Gas Processing Development Unit at Morgantown, West Virginia, are 
also being expanded to investigate advanced gas cleaning methods for 
integrating gasification technology with the Vision 21 energy plants. 
FETC's scientists have also become an integral part of the advanced 
hydrogen separation membrane development effort, focusing on the 
evaluation and performance testing of high temperature membranes being 
developed by ANL and ORNL for the separation of hydrogen from shifted 
synthesis gas. In addition, as a result of their prior experience in 
CO<INF>2</INF> hydrates, FETC in-house scientists are assisting in the 
development of a low-temperature approach for separating hydrogen from 
shifted synthesis gas via the formation of CO<INF>2</INF> hydrates. 
FETC's IGCC Product Team is responsible for strategic program 
development, planning, and outreach, while project managers administer 
the individual research and development contracts with various 
technology developers.
                               vision 21
    Question. Explain the concept of the Department's ``Vision 21 
Energy-Plex.''
    Answer. Vision 21 is a government-industry-academia collaboration 
to develop technology that will effectively remove all environmental 
concerns associated with the use of fossil fuels for producing 
electricity and liquid transportation fuels and will almost double the 
efficiency of coal powerplants. The approach is to develop technology 
modules that respond to key public needs (for example, the production 
of clean burning transportation fuels, clean, efficient, affordable, 
electricity generation from all of our fossil fuels, alleviating 
municipal waste issues by using this waste as a feedstock) and can be 
integrated into a variety of configurations to meet specific market 
needs in multiple applications (for example, electricity generation, 
fuels/chemicals coproduction, cogeneration). Vision 21 builds on a 
portfolio of technologies already being developed, including clean coal 
combustion and gasification, turbines, fuel cells, and fuels synthesis. 
To these, the Vision 21 program adds other critical or ``enabling'' 
technologies such as membrane gas separation, advanced combustion 
technologies, and alternative fuel utilization technologies.
    Vision 21 is part of the Department of Energy's work to maintain 
our nation's economic prosperity by ensuring a future supply of 
affordable, clean energy. The specific performance targets, costs, and 
timing for Vision 21 plants are as follows:

  SPECIFIC PERFORMANCE TARGETS, COSTS, AND TIMING FOR VISION 21 PLANTS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Efficiency-Electricity Generation......  60 percent for coal-based
                                          systems (based on fuel HHV);
                                          75 percent for natural gas-
                                          based systems (LHV) with no
                                          credit for cogenerated steam.
Efficiency-Combined Electricity/Heat...  Overall thermal efficiency
                                          above 85 percent; also meets
                                          above efficiency goals for
                                          electricity.
Efficiency-Fuels Only Plant............  When producing fuels such as H<INF>2</INF>
                                          or liquid transportation fuels
                                          alone from coal, 75 percent
                                          fuels utilization efficiency
                                          (LHV).
Environmental..........................  Near zero emissions of sulfur
                                          and nitrogen oxides,
                                          particulate matter, trace
                                          elements, and organic
                                          compounds; 40-50 percent
                                          reduction in CO<INF>2</INF> emissions by
                                          efficiency improvement; 100
                                          percent reduction with
                                          sequestration.
Costs..................................  Aggressive targets for capital
                                          and operating costs and RAM;
                                          products of Vision 21 plants
                                          must be cost-competitive with
                                          market clearing prices when
                                          they are commercially
                                          deployed.
Timing.................................  Major benefits, e.g. improved
                                          gasifiers and combustors, gas
                                          separation membranes, begin by
                                          2006 or earlier; designs for
                                          most Vision 21 subsystems and
                                          modules available by 2012;
                                          Vision 21 commercial plant
                                          designs available by 2015.

    Question. What is the goal of ``Vision 21'' and how does it fit 
into the overall Coal Power program?
    Answer. The primary goal of the Vision 21 program is to close to 
double the efficiency of coal power plants and to effectively remove 
all environmental concerns associated with the use of fossil fuels for 
producing electricity, liquid transportation fuels, and high value 
chemicals. The approach is to develop and integrate high-performance 
technology modules to create energy plants which are cost competitive, 
with zero emissions, and which allow us to responsibly and cost 
effectively use all of our abundant fossil resources.
    Vision 21 builds on the technological successes in the current Coal 
and Power Systems, Natural Gas, and Fuels programs. The aggressive 
goals set for Vision 21 systems demand innovative approaches along with 
dramatic improvements in cost and performance of our technologies. 
Early spinoffs from the Vision 21 program are expected to provide near-
term economic and performance benefits to the U.S. economy in general 
and to the DOE sponsored energy products in particular.
    Question. What program activities are supported by the key 
technology program elements of the Coal and Power Systems program?
    Answer. Our economic future depends on a supply of affordable 
electricity to run our factories and heat and light our offices and 
homes, and on clean fuels for transportation. The bottom line is that 
the United States will need to rely on fossil fuels for the major share 
of its electricity and transportation fuels well into the 21st century. 
To achieve radical improvements in the performance of fossil fuel-based 
power systems and to virtually eliminate environmental issues as a 
barrier to fossil fuel use will require a new paradigm for the 
development of both technology and systems that incorporate the 
technology. Vision 21 is the Department of Energy's role in helping to 
maintain our nation's economic prosperity by ensuring a future supply 
of affordable, clean energy.
    Vision 21 activities are supported by the Integrated Gasification 
Combined Cycle (IGCC), Pressurized Fluidized Bed (PFBC), Fuel Cells, 
Indirect Fired Cycle/High Performance Power Systems (IFC/HIPPS), 
Advanced Turbine Systems (ATS), Advanced Research and Technology 
Development (AR&TD) and the Advanced Clean Fuels (ACF) programs. Under 
the IGCC program, Vision 21 activities include: advanced oxygen, 
hydrogen, and carbon dioxide separation technologies; advanced gas 
cleaning technologies for fuel cell application; advanced IGCC/fuel 
cell system studies; experimental investigation on co-firing fuels. The 
PFBC program will support Vision 21 activities which include co-firing 
with carbon neutral fuels, cycle studies which examine carbon dioxide 
recycle, oxygen enrichment, and integration of fuel cells and other 
components. In the fuel cell program, Vision 21 efforts are focused on 
performance enhancement and cost reduction of fuel cell hybrid systems. 
Some advanced heat exchanger work and combustion studies in IFC program 
will directly support the Vision 21 program. The ATS program will fund 
fuel flexible and high efficiency turbine work for Vision 21. The AR&TD 
program will continue research toward the Virtual Demonstration Plant, 
CO<INF>2</INF> capture, and sequestration in support of Vision 21 power 
and fuels complex; will conduct systems analysis of Vision 21 concepts 
to identify critical research areas; will implement projects to develop 
critical enabling technologies for advanced power and fuel systems in 
support of Vision 21 and incorporate the results into the Virtual 
Demonstration. Finally, the ACF program will study options for 
incorporating fuel and chemical modules in Vision 21 plants and conduct 
research on fuel and chemical production aspects of Vision 21 
technologies.
    Question. How much is included in the fiscal year 2000 budget for 
each of these program activities in fiscal years 1998, 1999, and 2000?
    Answer. The funding for Vision 21 from each of the program areas is 
listed in the following table:

                            VISION 21 FUNDING
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                  Fiscal years--
                Program                 --------------------------------
                                            1998       1999       2000
------------------------------------------------------------------------
IGCC...................................  .........     14,000     16,250
PFBC...................................  .........  .........      1,600
Fuel Cells.............................  .........  .........      5,085
IFC....................................  .........      1,000      1,000
ATS....................................  .........  .........        800
AR&TD..................................  .........      2,990      3,457
ACF....................................  .........  .........        575
                                        --------------------------------
      Total............................  .........     17,990     28,767
------------------------------------------------------------------------

    Question. If there is an increase in fiscal year 2000 over the 
fiscal year 1999 enacted level, explain what the increase is for.
    Answer. Our economic future depends on a supply of affordable 
electricity to run our factories and heat and light our offices and 
homes and on clean fuels for transportation. The bottom line is that 
the United States will need to rely on fossil fuels for the major share 
of its electricity and transportation fuels well into the 21st century. 
To achieve radical improvements in the performance of fossil fuel-based 
power systems and to virtually eliminate environmental issues as a 
barrier to fossil fuel use will require a new paradigm for the 
development of both technology and systems that incorporate the 
technology. Vision 21 is the Department of Energy's role in helping to 
maintain our nation's economic prosperity by ensuring a future supply 
of affordable, clean energy.
    In fiscal year 2000, increases in Vision 21 activities occur in all 
program areas except the IFC. The PFBC, Fuel Cell, ATS, and ACF 
programs had no dollars specifically for Vision 21 activities in fiscal 
year 1999. The IGCC fiscal year 2000 higher funding level for Vision 21 
activities will be used to increase levels of effort in advanced gas 
separation, gas cleaning, fuel cells integration, and co-firing 
investigations. Fiscal year 2000 funds in the PFBC program support co-
firing with carbon neutral fuels, cycle studies which examine carbon 
dioxide recycle, oxygen enrichment, and integration of fuel cells and 
other components. In the fuel cell program, the fiscal year 2000 Vision 
21 funds support efforts which are focused on performance enhancement 
and cost reduction of fuel cell hybrid systems. Vision 21 fiscal year 
2000 ATS program funds support fuel flexible and high efficiency 
turbine work. In the AR&TD program, work on advanced materials for 
hydrogen and oxygen separation membranes progresses from the initial 
solicitation stage of fiscal year 1999 to working on breakthrough 
concept in fiscal year 2000. Finally, with fiscal year 2000 Vision 21 
funds, the ACF program will study options for incorporating fuel and 
chemical modules in Vision 21 plants and conduct research on fuel and 
chemical production aspects of Vision 21 technologies.
                  fossil energy research--natural gas
                            methane hydrates
    Question. The fiscal year 2000 budget proposes $1,985,000 for 
methane hydrates research and development. What specifically will these 
funds be used for?
    Answer. While specific procurement plans will not be finalized 
until appropriations have been approved by Congress, the Department 
anticipates allocating the funding as follows:
  --Approximately 50 to 55 percent would be used for characterizing 
        methane hydrate reservoirs. This will involve geologic, 
        geochemical, microbiological, and thermodynamic studies of 
        hydrates, the development of a data base documenting hydrate 
        locations and research results, and collection and analysis of 
        Arctic and marine hydrates.
  --Approximately 20 to 25 percent will be used for laboratory tests 
        and to develop models of the ways hydrates dissociate. This 
        research would be a precursor to developing specific production 
        technologies.
  --Approximately 15 to 20 percent would go to developing sensors and 
        monitoring subsea hydrate sites to determine what role hydrates 
        may be playing in the release of methane that could contribute 
        to global climate change.
  --Approximately 15 to 20 percent would be used for seismic and well 
        logging to evaluate subsea hydrate zone structure and strength. 
        This will be important information to assess safety and sea 
        floor stability issues.
    Question. Who will perform the work?
    Answer. Funding recipients have not yet been determined but will 
almost certainly include industrial partners, other government 
organizations (such as the Naval Research Lab, U.S. Geological Survey, 
the Ocean Drilling Program, National Science Foundation, and Minerals 
Management Service), National Laboratories, academia and oceanographic 
institutions including university consortia, the Federal Energy 
Technology Center, and the Rocky Mountain Oilfield Test Center. This is 
consistent with the draft Methane Hydrates Act of 1999, that has been 
reported out of the Committee on Energy and Natural Resources, which 
encourages ``partnerships among government, industry and institutions 
of higher learning.''
    Question. Why is this work important?
    Answer. As much as 200,000 trillion cubic feet of methane may exist 
in hydrate systems in the U.S. permafrost regions and surrounding 
waters. This is over a hundred times greater than the estimated 
conventional U.S. gas resource. The volume that may be economically 
producible is unknown. However, these enormous resources, if proven, 
have significant implications for U.S. energy security and global 
environmental issues, particularly global climate change. In addition, 
because the bulk of these methane hydrates are located on federal 
lands, gas production would provide significant resources through 
royalties and leases.
    The United States will consume increasing volumes of natural gas 
well into the 21st century, and methane hydrates can contribute to a 
reliable and low-cost domestic supply. Gas demand is expected to grow 
substantially throughout the first half of the 21st century because of 
an expanded transition to a role as a transportation fuel or a 
competitive source of transportation liquid fuel (gas-to-liquids 
conversion) and hydrogen for fuel cells.
    The technology to locate and safely produce methane from hydrates 
does not currently exist, and industry is unable to conduct the 
necessary research and development. In the current low oil and gas 
price environment, there is almost no industry research for methane 
production from hydrates. DOE's fossil energy research and development 
program, including methane hydrates research and development, is 
developing advanced concepts that are well beyond the timetables and 
performance goals of private sector research and development.
                           coal mine methane
    Question. The fiscal year 2000 budget request includes $500,000 to 
continue the coal mine methane project. How does this program fit into 
the Natural Gas Research and Development program?
    Answer. The Natural Gas Research and Development program seeks to 
develop and demonstrate for commercial readiness, technology by which 
economical gas supplies can be produced and made available for 
productive domestic utilization. The Coal Mine Methane program 
addresses technology needed to harness and utilize methane that is 
naturally released in the course of underground mining of coal.
    Question. What is its objective?
    Answer. The Coal Mine Methane program objective is to ensure that 
coal producers have a documented knowledge base of how methane released 
in the course of underground coal mining can be economically captured 
and utilized in productive ways. Accordingly, the program has 
requested, through a competitive process, proposals to design and 
demonstrate advanced means by which mine released methane can be 
captured and readied for commercial use and/or directly used.
    Question. How much is required in the out years to complete this 
program?
    Answer. Outyear budget estimates for the 50-percent cost shared 
program to completion are estimated at $1 million each year from 2001 
to 2003. This will allow the completion of no more than two projects.
                       advanced turbines programs
    Question. The fiscal year 2000 budget includes $41.8 million in 
fiscal year 2000 for the Advanced Turbines program, which is $2.7 
million less than the amount appropriated for fiscal year 1999. How 
does this lower level of funding affect the program's schedule?
    Answer. The lower funding level in fiscal year 2000 is due to the 
ATS Utility program nearing completion. No slippage in the current 
schedule, due to funding level, is expected. However, due to the 
acquisition of Westinghouse by Siemens, there may be some delays in the 
Siemens-Westinghouse program.
                               fuel cells
    Question. The fiscal year 2000 budget proposes $37.6 million for 
Fossil Energy's fuel cell program which is a decrease of $6.6 million 
(15 percent) below the fiscal year 1999 level. What impact will this 
lower level of funding have on the program?
    Answer. No significant impacts are expected to result from the 
reduction because the decreases are largely offset by increases in fuel 
cells in other Fossil Energy program areas; for example, $4.95 million 
in the High Efficiency Integrated Gasification Combined Cycle program 
is for the development of advanced fuel cell systems for Vision 21 
gasification/combustion applications, in conjunction with gas-based 
fuel cell systems development. In addition, no funding was requested in 
fiscal year 2000 to continue the multi-layer ceramic technology 
initiative for fuel cells because awards for that effort are scheduled 
to occur in the July-August 1999 time frame although the work will 
continue through most of fiscal year 2000.
                    fossil energy research--offsets
    Question. What is the rationale for proposing to use $11 million of 
prior year balances to offset the fiscal year 2000 budget request for 
Fossil Energy Research and Development?
    Answer. The effort to provide funding for high priority projects in 
the Fossil Energy program, it was thought that prior year balances 
would become available to cover future budget activities.
    Question. What was the $11 million originally budgeted for and what 
will not be accomplished as a result of using these funds to offset the 
fiscal year 2000 budget request?
    Answer. These carryover funds resulted from two types of actions. 
First, through the contract closeout process, approximately $4 million 
has been recovered from contracts that are no longer active. Second, as 
a result of delays in the procurement process, various amounts from 
Coal, Oil and Gas programs were not obligated by the end of fiscal year 
1998. However, these funds will be obligated during fiscal year 1999. 
We believe that additional procurement delays will occur in fiscal year 
1999, and additional contracts will be closed out to make available 
sufficient funding at the end of fiscal year 1999 to cover this offset.
    Question. Before taking into account the use of prior year 
balances, the Department of Energy is providing a $9 million (2 
percent) decrease from the fiscal year 1999 enacted level for Fossil 
Energy Research and Development in fiscal year 2000. The fiscal year 
2000 budget request for Energy Conservation Research and Development is 
a $121 million (23 percent) increase over the fiscal year 1999 enacted 
level. Was there consideration given to using prior year balances to 
offset the increase being proposed in the Energy Conversation budget? 
If so, how was the decision reached? If not, why not?
    Answer. Yes, consideration was given to using prior year balances 
in the Energy Conservation budget request. In fact, the Energy 
Conservation account is offset by balances from the Biomass Energy 
account.
                         clean coal technology
    Question. What is the Department's rationale for proposing a net 
$246 million deferral in fiscal year 2000 for the Clean Coal Technology 
program?
    Answer. Only two Clean Coal Technology projects have remaining 
funding requirements. These projects are the Clean Energy Demonstration 
Project--an IGCC project planned for Illinois and the Clean Power From 
Integrated Coal/Ore Reduction (CPICOR) project--a combined steel making 
and power generation project planned for Utah. DOE recently approved 
project restructuring and design phase extensions for both of these 
projects. These extensions were necessary to complete teaming 
arrangements, perform design activities, and to obtain environmental 
permits. Both projects already have adequate funding to complete these 
tasks. Since funds for the construction phase will not be needed until 
fiscal year 2001, DOE has proposed to defer these funds until they are 
needed to meet project commitments.
    Question. What is the impact of the fiscal year 2000 deferral on 
the out years?
    Answer. DOE's fiscal year 2000 request has proposed a specific 
schedule for the return of the deferred funds that will enable DOE to 
meet funding commitments for the two CCT projects with future funding 
requirements. DOE has proposed that the deferred funds be made 
available starting with $189 million in fiscal year 2001, $40 million 
in fiscal year 2002, and $27 million in fiscal year 2003. Provided the 
deferred funds are made available to DOE following this schedule, there 
will be no adverse impacts to the CCT program.
    Question. What happens if the net $246 million deferral is accepted 
and the outyear repayment of this deferral is not provided?
    Answer. If the funds proposed for deferral in fiscal year 2000 are 
later rescinded, DOE would not be able to fulfill the existing funding 
commitments as defined in the Cooperative Agreements for two projects: 
the Clean Energy Demonstration Project and the Clean Power From 
Integrated Coal/Ore Reduction (CPICOR) project. These projects would 
not proceed if federal funds were not available. Since these 
Cooperative Agreements require at least 50 percent industry funding, 
private-sector investments in these projects would also be lost and 
there could be resulting litigation.
    Question. What is the current status of the Clean Coal Technology 
projects and what are some of the recent milestones in the program?
    Answer. The CCT program currently has 40 active or successfully 
completed projects. Twenty projects have successfully completed all 
requirements and three additional projects have completed operation and 
are preparing final reports. Of the remaining 17 projects, 9 are in the 
operation phase, 1 is in construction, and 7 are in the design phase.
    Below are listed several success stories of the DOE Coal Research 
and Development and Clean Coal Technology (CCT) programs. The CCT 
successes--mostly demonstrations of pre-commercial, new technologies--
could not have occurred without earlier DOE research and development. 
Research and development successes that culminated in CCT 
demonstrations include the following:
  --Low NO<INF>X</INF> burners: Far less expensive than preceding 
        technology for removing NO<INF>X</INF> (oxides of nitrogen, 
        precursors of smog) emissions, about one-half of U.S. coal-
        fired capacity today has these burners. Sales to date are about 
        $1.5 billion.
  --Atmospheric Fluidized Bed power plants: DOE/industry investments in 
        this clean technology have resulted to date in at least $9 
        billion in domestic and foreign sales ($6.2 billion domestic, 
        $2.8 billion foreign).
  --Advanced Scrubbers: Three advanced scrubbers have been demonstrated 
        by DOE, one of which earned Power magazine's 1993 Power Plant 
        of the Year award.
  --Tomorrow's Power Plants (Integrated Gasification Combined Cycle, or 
        IGCC, and Pressurized Fluidized Bed, or PFBC): These pre-
        commercial, virtually pollution-free plants have the potential 
        of far higher efficiencies (thus, 20 to 40 percent lower 
        CO<INF>2</INF> levels).
  --The Rosebud SynCoal<greek-T><greek-M> and Encoal<greek-T><greek-M> 
        processes are two different ways to upgrade low-rank coals to 
        cleaner, more efficient fuels. Both processes are being 
        marketed worldwide.
    Some of the recent project specific milestones include the 
following:
  --Delivery of the 18-cylinder engine for the coal diesel project 
        (January 1999). The coal diesel project will demonstrate the 
        performance and durability of a coal-fueled diesel engine 
        during 6,000 hours of operation.
  --Completion of the first year of operation for the Healy combustors 
        project (January 1999). The advanced slagging combustors is 
        demonstrating reliable and low-emission operation on a blend of 
        run-of-mine and waste coal.
  --Completion of the Pneumatic Fuel Project for the Rosebud project 
        (January 1999). The Pneumatic Fuel Project was needed to 
        improve the handling of the SynCoal<Register> product, allowing 
        the participant to enter into a long-term supply agreement with 
        a utility customer.
  --Approval of proposed restructuring/resiting of the Clean Energy 
        project (December 1998). The restructuring/resiting approval 
        significantly improved the likelihood for a successful 
        demonstration of the British Gas/Lurgi gasification technology 
        and the operation of a fuel cell on coal gas.
  --Completion of the third year of operation for the Wabash River 
        project (November 1998). During the third year of operation, 
        the syngas facility had an availability over 72 percent and a 
        capacity factor of approximately 68 percent.
  --Approval of new technology vendor for the CPICOR project (October 
        1998). The new technology vendor will enable the direct 
        production of iron without the use of coke along with the co-
        production of electricity, providing an economic and 
        environmental advantage over the traditional coke and blast 
        furnace technology.
  --Completion of long-term testing of micronized coal reburning for a 
        cyclone boiler (September 1998). The micronized coal reburning 
        technology offers an economical approach for reducing 
        NO<INF>X</INF> emissions with minimal boiler modifications.
  --Completion of the operating phase for the NYSEG flue gas cleanup 
        project (June 1998). The project demonstrated an advanced wet 
        scrubber with high sulfur capture efficiency in combination 
        with low NO<INF>X</INF> burners that resulted in a system with 
        minimal power requirements, zero waste water discharge, and the 
        production of usable byproducts instead of wastes.
  --Completion of final reports for four environmental control projects 
        during calendar year 1998:
    Enhancing the Use of Coals by Gas Reburning and Sorbent 
Injection.--Project demonstrated NO<INF>X</INF> reductions of at least 
60 percent and SO<INF>2</INF> reductions of at least 50 percent on two 
different boiler configurations.
    Demonstration of Advanced Combustion Techniques for a Wall-Fired 
Boiler.--Project demonstrated 50 percent NO<INF>X</INF> reduction using 
low NO<INF>X</INF> burners, advanced overfire air, and the use of an 
advanced instrumentation and control system.
    Evaluation of Gas Reburning and Low-NO<INF>X</INF> Burners on a 
Wall-Fired Boiler.--Project demonstrated 70 percent reduction in 
NO<INF>X</INF> emissions using Foster Wheeler's low-NO<INF>X</INF> 
burners and gas reburning.
    LIFAC Sorbent Injection Desulfurization Demonstration Project.--
Project demonstrated a utility retrofit of a high sulfur-removal 
technology that produced a dry solid waste product.
    Question. Given the rescissions that have been made to the Clean 
Coal Technology program and the proposed deferral for fiscal year 2000, 
is there sufficient funding for its successful completion?
    Answer. Of the 40 projects in the Clean Coal Technology program, 38 
projects are fully funded. The two projects with remaining funding 
commitments will not require additional funding until fiscal year 2001. 
Provided the deferred funds are made available in the out years as 
proposed, DOE will have sufficient funding for the successful 
completion of the CCT Program. Prior rescissions were achieved through 
savings resulting from project restructuring and project withdrawals.
    Question. How many projects are yet to be completed and what is the 
current plan to complete them?
    Answer. Of the 40 projects in the Clean Coal Technology (CCT) 
program, 20 projects have successfully completed all requirements and 3 
additional projects have completed operation and are preparing final 
reports. Of the remaining 17 projects, 9 are in the operation phase, 1 
is in construction, and 7 are in the design phase.
    Of the nine projects currently in the operation phase, only the 
Custom Coals project is anticipated to have difficulty completing 
remaining activities. Recently, the Custom Coals' processing facility 
was sold at auction and the new owner of the facility has approached 
DOE about completing the CCT project.
    The Coal Diesel project is the only project in the construction 
phase. The diesel engine was delivered to the project site in January 
1999. In April 1999, the participant indicated that a significant 
funding shortfall is anticipated for the project and that project 
activities have stopped until additional funds are identified. DOE 
previously has already committed to provide nearly the full 25 percent 
cost growth maximum allowed in the Clean Coal Program. Additional 
funding from DOE over the 25 percent maximum is not allowed by law. If 
the participant cannot secure additional project funding, the coal-
fueled diesel technology may not be demonstrated.
    A total of seven projects are in the design and permitting phase. 
Three of these projects have been delayed due to protracted contract 
negotiations between the project participants and the technology 
suppliers. DOE believes the parties are close to reaching agreements 
and the projects will be moving forward as planned. Two additional 
projects were recently granted extensions to allow for restructuring 
activities. While these projects are early in the design and permitting 
phase, DOE believes these projects are on track to begin construction 
activities within 2 years. The two remaining projects are the 
ThermoChem project in Baltimore, Maryland, and the NOXSO project. The 
ThermoChem project was recently granted approval to proceed with a 
reduced-scope project and the project is ready to initiate construction 
activities. The participant for the NOXSO project is in Chapter 11 
bankruptcy. A suitable host site and participant financing is required 
for this project to continue.
    Question. Do you plan to terminate any ongoing Clean Coal 
Technology projects?
    Answer. No projected terminations are planned. The Department is 
committed to the successful completion of all ongoing Clean Coal 
projects.
    Questions: What are your plans if significant cost overruns occur 
in any of the projects?
    Answer. Cost overruns in the Clean Coal Technology program are 
capped by legislation. If cost overruns occur they would be evaluated 
for merit and the existing cost overrun reserve of $13 million could be 
utilized. In addition, if any of the existing projects terminate, the 
excess funds related to those projects would be available as an overrun 
reserve.
    Question. Is the Clean Coal Technology program producing results?
    Answer. The Clean Coal Technology (CCT) program has and continues 
to produce results that are changing the face of the electric power 
generation industry and other major coal use industries. Of the 40 
active projects, 23 have completed operation, 20 of which have 
submitted final reports. These reports are made available to the public 
and a bibliography is produced and updated to aid interested parties. 
The reports represent a comprehensive compilation of timely information 
invaluable to the utility sector and other coal users faced with 
increasingly stringent air pollution standards.
    Below are listed several success stories of the DOE Coal Research 
and Development and Clean Coal Technology (CCT) programs. The CCT 
successes--mostly demonstrations of pre-commercial, new technologies--
could not have occurred without earlier DOE research and development. 
Research and development successes that culminated in CCT 
demonstrations include the following:
  --Low NO<INF>X</INF> burners: Far less expensive than preceding 
        technology for removing NO<INF>X</INF> (oxides of nitrogen, 
        precursors of smog) emissions, about one-half of U.S. coal-
        fired capacity today has these burners. Sales to date are about 
        $1.5 billion.
  --Atmospheric Fluidized Bed power plants: DOE/industry investments in 
        this clean technology have resulted to date in at least $9 
        billion in domestic and foreign sales ($6.2 billion domestic, 
        $2.8 billion foreign).
  --Advanced Scrubbers: Three advanced scrubbers have been demonstrated 
        by DOE, one of which earned Power magazine's 1993 Power Plant 
        of the Year award.
  --Tomorrow's Power Plants (Integrated Gasification Combined Cycle, or 
        IGCC, and Pressurized Fluidized Bed, or PFBC): These pre-
        commercial, virtually pollution-free plants have the potential 
        of far higher efficiencies (thus, 20 to 40 percent lower 
        CO<INF>2</INF> levels).
  --The Rosebud SynCoal<greek-T><greek-M> and Encoal<greek-T><greek-M> 
        processes are two different ways to upgrade low-rank coals to 
        cleaner, more efficient fuels. Both processes are being 
        marketed worldwide.
    Of the 23 completed projects, 9 demonstration projects continued in 
commercial operation. Almost all the environmental control device 
demonstrations have completed operations. The resultant body of 
information represents the largest demonstration database ever compiled 
on advanced environmental controls. The technologies incorporated in 
the database cover the full range of potential utility applications. 
The fact that it contains demonstration-based data enables potential 
users to assess cost and performance of the various options for their 
site-specific situations. Movement of the technologies into the 
commercial market underscores the value of the data.
    The Tri-State Generation and Transmission Association, Inc., Nucla 
Station repowering project provided the database and operating 
experience requisite to making atmospheric circulating fluidized-bed a 
commercial technology option at utility scale. Through the Ohio Power 
Company's repowering of the Tidd Plant (70 megawatts), the potential of 
pressurized fluidized-bed combustion as a highly efficient, very low 
pollutant emission technology was established and the foundation laid 
for commercialization (through extensive documentation of the 
operational, environmental, and cost performance). Three Integrated 
Gasification Combined-Cycle projects, representing a diversity of 
gasifier types and cleanup systems, are producing information on a new 
approach to coal use that could revolutionize the power generation 
industry. The projects are attracting interest from utilities 
worldwide.
    ENCOAL recently completed documenting their successful 
demonstration of a unique technology that produces both clean, high 
energy density solid and liquid fuels from low-rank coal. Demonstration 
data enabled the technology supplier to conduct five feasibility 
studies in three countries that have high potential for resulting in 
commercial projects. Data coming out of the ongoing demonstration of 
the Liquid Phase Methanol process (LPMEOH<greek-T><greek-M>) suggests 
that coproduction of electricity and methanol may provide a clean, 
cost-effective energy option. A project with Bethlehem Steel 
Corporation is providing proof that coal can be substituted for coke 
for a significant portion of the carbon requirement in steelmaking, 
enabling a major reduction in pollutant emissions.
    DOE is making every attempt to disseminate the results of the 
demonstrations to customers and stakeholders. The annual Clean Coal 
Technology Demonstration program: Program Update briefly summarizes 
progress and accomplishments on all ongoing projects and, for projects 
that have completed operations, provides a more extensive summary of 
results. A Clean Coal Technology Demonstration Program: Project Fact 
Sheets document updates project information mid-year. The annual Clean 
Coal Technology Conference and associated proceedings provide a yearly 
snapshot of how each of the active projects is progressing along with 
an in-depth presentation of technical findings. The CCT Compendium 
provides an electronic database, incorporating the CCT program 
publications that can be accessed on the Internet (http://www.lanl.gov/
projects/cctc).
    Question. What are some of the recent major accomplishments 
associated with the Clean Coal Technology program?
    Answer. The Clean Coal Technology (CCT) program enabled the utility 
industry to respond cost effectively to the first wave of 
NO<INF>X</INF> control requirements imposed and has positioned the 
utility industry to respond to NO<INF>X</INF> control requirements in 
the 21st century. Under Title IV, Phase I of the Clean Air Act 
Amendments of 1990 (CAAA), NO<INF>X</INF> emission limits were 
established for wall- and tangentially-fired boilers, effective January 
1, 1996. The CCT Program not only positioned industry to respond to the 
regulations with low-NO<INF>X</INF> burners, but provided valuable 
input to the regulatory process by furnishing realtime data. Similarly, 
the CCT Program has been instrumental in preparing the utility industry 
for Title IV, Phase II CAAA NO<INF>X</INF> control requirements, 
effective January 1, 2000, addressing the balance of the boiler types 
and imposing more stringent requirements on wall- and tangentially-
fired boilers. Also, the technologies demonstrated under the CCT 
program have positioned the utility industry to respond to even tougher 
NO<INF>X</INF> emission standards, effective in May 2003, recently 
imposed on 22 states and the District of Columbia in an EPA ``SIP 
Call.'' Technologies demonstrated include combustion modification 
control technologies, such as low-NO<INF>X</INF> burners and coal- and 
gas-reburning, and post-combustion NO<INF>X</INF> control methods, such 
as selective catalytic reduction and selective non-catalytic reduction. 
To date, over one-third of coal-fired generating capacity in the United 
States has installed low-NO<INF>X</INF> burners, with sales exceeding 
$1.5 billion.
    The CCT Program has also provided a portfolio of SO<INF>2</INF> 
control technologies to enable utilities to respond cost effectively to 
year 2000 CAAA emission levels. Technologies are available for the full 
range of units from small space-constrained boilers to large, 
relatively new boilers. The technologies also span a range of costs 
commensurate with performance, but significantly less than conventional 
technologies existent before the CCT Program. For example, the two 
advanced wet flue gas desulfurization technologies demonstrated under 
the CCT Program redefined the state-of-the-art for sorbent-based 
scrubbers by: halving operating costs and significantly reducing 
capital costs; producing by-products instead of waste; and mitigating 
plant efficiency loses by using high-capture-efficiency devices.
    The CCT Program was instrumental in commercializing atmospheric 
circulating fluidized-bed combustion (ACFB) technology through the Tri-
State Generation and Transmission Association, Inc., project in Nucla, 
Colorado. An industry consortium joined with DOE to fully evaluate the 
potential of the technology for utility application. The results and 
the attendant comprehensive database served to establish ACFB as a 
commercial offering, which has realized an estimated 9.5 gigawatts of 
capacity installation worldwide. Today, every major boiler manufacturer 
offers an ACFB system in its product line. Power magazine has called 
fluidized-bed coal combustion ``the success story of the last decade in 
the power generation business. This success [is] perhaps the most 
significant advance in coal-fired boiler technology in more than half a 
century.''
    Pressurized Fluidized-bed Combustion (PFBC) technology is also 
beginning to make market penetration as a result of work performed at 
The Ohio Power Company's Tidd Plant. The CCT Program demonstration and 
associated development work have resulted in several commercial sales, 
including a 360-megawatts unit in Japan and a 220-megawatt unit in 
Germany. The technology represents a new generation of advanced power 
systems, with efficiencies far higher than conventional coal-fired 
systems and pollutant emissions far below new source performance 
standards, without need of add-on emission controls.
    Three Integrated Gasification Combined-cycle (IGCC) demonstration 
projects, representing a diversity of gasifier types and cleanup 
systems, are pioneering the introduction of a new approach to power 
generation. Two of the technologies are currently operating in a 
commercial dispatch mode, gaining invaluable performance data. The 
units are attracting worldwide interest because of their potential to 
significantly improve efficiency, reduce pollutant emissions, and serve 
as building blocks for even more advanced systems.
    ENCOAL recently completed successful demonstration of a coal 
processing technology capable of producing a high energy density solid 
fuel and a liquid product from low-rank coal. The solid fuel is low 
enough in sulfur to be considered a compliance fuel; that is, capable 
of meeting CAAA standards for 2000. Also, the solid product has 
demonstrated combustion characteristics that enable reduced 
NO<INF>X</INF> emissions. The liquid product has most potential as a 
chemical feedstock, but can be used as a low-sulfur boiler fuel. 
Efforts are progressing toward establishing a commercial plant in the 
United States and detailed feasibility studies have been carried out in 
Indonesia and Russia.
    The Liquid Phase Methanol process (LPMEOH<greek-T><greek-M>) being 
demonstrated at the Eastman Chemical Company in Kingsport, Tennessee is 
showing promise as a cost effective means of coproducing electricity 
and methanol. Continued stable production of methanol at or beyond 
design rates from high-sulfur bituminous coal suggests that IGCC with 
LPMEOH offers a very clean, highly efficient means of using high-sulfur 
coal in chemical and electricity production.
    Demonstration of granular-coal injection at Bethlehem Steel's Burns 
Harbor blast furnace operations is proving that coal can replace up to 
40 percent of the coke requirement in ironmaking. This has significant 
environmental and cost ramifications. Coke production in the United 
States has been severely cut because of the magnitude and extent of 
resultant pollutant emissions. Steel producers have had to rely on 
foreign coke, which is often of poor quality. Granular-coal injection 
allows substitution for much of the coke. Emissions from the injected 
coal are controlled in the blast furnace.
    Question. What lessons have been learned from the Clean Coal 
Technology program that could be applied in the future?
    Answer. The Clean Coal Technology (CCT) program has proven to be an 
effective means by which the government can work cooperatively with the 
private sector in developing and introducing new technologies into the 
commercial marketplace. Several guiding principles evolved during the 
implementation of the program which could be applied to future programs 
meeting the following conditions: the objective is to place a product 
into the commercial marketplace; the technology has evolved to the 
stage where the private sector is willing to fund at least 50 percent 
of the project costs; and the projects are large enough to truly 
reflect its intended commercial configuration under commercial 
operating conditions. The principle lessons learned during the CCT 
program are as follows:
  --A strong and stable up-front commitment by the government is needed 
        for the life of the projects.
  --The technical agenda is determined by industry not the government 
        with industry given the flexibility to use their expertise and 
        innovation to define the technology and to propose a project in 
        response to the government's defined objective. Multiple 
        solicitations spread over a number of years enabled the CCT 
        program to address a broad range of national needs with a 
        portfolio of evolving technologies.
  --At least 50 percent cost-sharing throughout all project phases 
        demonstrated industry's commitment to fulfilling the project 
        objective and to confirm the market potential continued over a 
        period of time.
  --Allowing for cost growth to be shared at the ratio of the original 
        agreement recognized the risk involved in first-of-a-kind 
        demonstration while confirming the need for industry's 
        commitment to share in the total cost of the project.
  --Industry retains the real and intellectual property rights in order 
        to avoid relinquishing their competitive position in 
        technologies developed to the point of demonstration.
  --Roles of the government and industry are clearly defined with 
        industry responsible for technical management of the project 
        and government supporting the project as long as project 
        milestones and terms and conditions of the negotiated 
        cooperative agreement are met.
  --Industry must be committed to commercialize the technology and make 
        the technology available to potential users on reasonable 
        commercial terms.
                             climate change
    Question. A recent study by Pacific Northwest National Laboratory 
assessed the most cost effective ways for the world to control the 
buildup of greenhouse gases in the atmosphere. Their preferred scenario 
controlled greenhouse gas at lowest cost, thereby providing for 
continued economic growth. In this least cost scenario, world 
utilization of fossil energy doubles while about half of the carbon 
dioxide produced is sequestered. Given the large role that 
sequestration could play in cost-effectively reducing emissions, does 
the Department's fiscal year 2000 budget request adequately fund the 
carbon sequestration program?
    Answer. Much of the Department's budget for climate change related 
work is in the area of increased energy efficiency and in the 
development of renewable and other no-carbon forms of energy. Fossil 
Energy has two related programs in this area: advanced, clean efficient 
power generation technologies and carbon sequestration research. 
Sequestration is a relatively new carbon mitigation strategy and the 
current budget request reflects its developmental status. If practical 
low-cost sequestration options can be developed, millions of tons of 
carbon could be reduced, and the United States and the world might 
avoid drastic shifts in fuel use or severe economic penalties. 
Sequestration is the only carbon mitigation option that is completely 
compatible with the existing energy infrastructure.
    The requested budget is an attempt to balance competing budget 
priorities, and reflects a relatively near-term focus for climate 
change mitigation research. A longer term focus with emphasis on 
capping atmospheric concentrations of greenhouse gases, as suggested by 
the study you referenced, would likely favor greater resources for 
carbon sequestration options.
    Question. Is it technologically possible to develop cleaner, more 
efficient systems to produce electricity from fossil fuels?
    Answer. Yes, we agree with the conclusions of the Pacific Northwest 
Lab Study that economically viable, clean, very high efficiency, fossil 
fueled electric generation systems, which can sequester carbon in a 
cost-effective manner are possible. The Department's Vision 21 program, 
coupled with carbon sequestration, is a government-industry-academia 
collaboration aimed at bringing these generation systems to commercial 
readiness.
    Question. Under almost any scenario, fossil fuels will continue to 
dominate the power generation sector both domestically and 
internationally for a very long time. If ultra-high efficiency power 
generation technologies coupled with carbon sequestration were used for 
all new plants built in the United States over the next 50 years, what 
would the impact be on reducing greenhouse gas emissions?
    Answer. The Office of Fossil Energy has conducted a screening 
analysis of the impact on carbon emissions if ultra-high efficiency 
natural gas and coal-fired power plants began to deploy in 2005 and 
2010, respectively. The generation efficiency of new gas-fired plants 
reached 70 percent by 2015 and the efficiency of new coal-fired plants 
coming on line reached 60 percent by 2020. Sequestration technology was 
assumed to be available for all new plants coming on line after 2020. 
Under these assumptions, carbon emissions from U.S. electricity 
generation in 2050 would be reduced from 850 million metric tonnes of 
carbon per year to 75 million metric tonnes per year--a 91-percent 
reduction. In this scenario, carbon emissions from power generation 
have not fallen to zero because some power plants built before 2020 are 
still assumed to be in the inventory. If there were an incentive to 
retire those remaining plants which do not have carbon sequestration, 
carbon emissions from power generation could be zero in 2050. In 1995, 
carbon emissions from this sector were 495 million metric tonnes per 
year.
    Question. Assume that the Energy Conservation program in the 
Department of Energy is successful and that the United States achieves 
energy efficiency halfway between current U.S. and European levels. 
This is a reasonable goal in view of the vastly higher energy prices in 
Europe and the broader geographical expanses in the United States. If 
successful, how much could this program reduce the projected growth in 
U.S. greenhouse gas emissions over the next 50 years?
    Answer. If successful, the programs of the Office of Energy 
Efficiency and Renewable Energy at the Department of Energy are 
expected to achieve a significant reduction in the projected growth of 
greenhouse gas emissions over the next 50 years. In the Department's 
analysis conducted for the Government Performance and Results Act 
(GPRA), its energy efficiency programs are projected to yield annual 
carbon savings of over 200 million metric tons of carbon equivalent by 
the year 2010. The GRPA analysis does not extend beyond 2010; however, 
the Department is presently conducting a study which will look at the 
benefits of energy efficiency and renewable technologies to 2020. A 
focus of this study will be an analysis of the energy, environmental, 
and economic impacts of different public policies and programs, and the 
identification of policy implementation pathways that can form the 
basis for national solutions to those challenges. We expect that this 
report will be published by September 1999.
    There are few studies which examine the impact of energy efficiency 
technologies beyond the year 2020. One such study is entitled Energy 
Innovations: A Prosperous Path to a Clean Environment, (Alliance to 
Save Energy, American Council for an Energy-Efficient Economy, Natural 
Resources Defense Council, Tellus Institute, and Union of Concerned 
Scientists, 1997). By using energy efficiency and renewable 
technologies, the study claims there is the potential for carbon 
emissions to drop to 45 percent below 1990 levels by the year 2030. The 
authors state that such a reduction could be attained by a set of 
program and policies that could guide our economy toward lower cost, 
less polluting, more secure, and more sustainable ways of producing and 
using energy. The authors maintain that technological progress would be 
the cornerstone of such an achievement.
    Question. The fiscal year 2000 budget request includes $2.1 billion 
in its Energy Resources business line. Fossil Energy Research and 
Development is funded at $163 million. These advanced systems, when 
fully commercialized, could reduce energy usage by 10 quads per year 
and combined with sequestration could reduce carbon emissions by over 
750 million tons per year. The fiscal year 2000 budget request for 
Energy Conservation is $837 million, and this technology could reduce 
carbon emissions by 400 million tons and reduce energy usage by 20 
quads. Overall, these technologies appear to have a similar impact. In 
light of this, is the allocation of resources in the Department's 
fiscal year 2000 budget request appropriate?
    Answer. First, we should note that the request for the Fossil 
Energy Research and Development account is $364 million, not $163 
million. That also does not include funding on- going Clean Coal 
projects. The comparable number for Energy Conservation--the research 
and development component without weatherization and state formula 
grants is $646 million, so the actual difference in funding is 
substantially less than it appears.
    The allocation of funding within the Department's fiscal year 2000 
budget request is based on analysis of how each program can contribute 
to the nation's multiple energy goals as articulated in the National 
Energy Strategy. Both fossil energy and energy conservation programs 
are important to meeting these goals. However, increased investments in 
energy efficiency technologies are the most cost-effective means of 
meeting the broad set of national energy goals. The increase proposed 
for energy conservation reflects this fact.
    Question. Please describe what Climate Change Technology Initiative 
activities are included in the fiscal year 2000 budget for Fossil 
Energy.
    Answer. Fossil Energy has two related programs contained in the 
Climate Change Technology Initiative (CCTI): advanced, clean, efficient 
power generation technologies, and carbon sequestration research. The 
FE budget for the CCTI in fiscal year 1999 was $24 million; in fiscal 
year 2000 the budget request is $37 million. The main components of the 
budget request are as follows:
  --$18 million in fiscal year 1999 ($28 million in fiscal year 2000) 
        to make advanced natural gas and coal powerplants' more 
        efficient and compatible with carbon sequestration (IGCC, PFB, 
        Fuel Cells, Turbines).
  --$6 million in fiscal year 1999 ($9 million in fiscal year 2000) for 
        carbon sequestration research and development. This includes 
        exploratory research on innovative approaches to sequestering 
        carbon, research to investigate a spectrum of techniques for 
        sequestration of carbon in geological formations, and initial 
        efforts to conduct field study and small scale experiments to 
        gather ``real world'' data on the fate of sequestered carbon.
    Question. What other activities are funded in the Fossil Energy 
budget which will contribute to reducing greenhouse gas emissions?
    Answer. The Fossil Energy technologies most focused on climate 
change mitigation are those identified under the Climate Change 
Technology Initiative, and include Vision-21 technologies and 
sequestration technologies. However, the remaining power systems 
budget, including coal and natural gas fueled systems, will also lead 
to lower cost and more efficient electricity generating technologies, 
which translates to lower carbon dioxide emissions. These technologies 
include indirect fired cycles, integrated gasification combined cycle, 
pressurized fluidized bed, fuel cells, and advanced gas turbines. Other 
activities funded in the Fossil Energy budget which will contribute to 
reducing greenhouse gas emissions include programs to reduce greenhouse 
gas emissions by improving the nation's ability to supply, store, 
transport, and distribute natural gas in an economically efficient and 
environmentally beneficial manner, because natural gas is the least 
carbon-intensive fossil fuel.
    Question. Why does the fiscal year 2000 budget request for the 
Climate Change Technology Initiative reflect a 53-percent increase in 
Fossil Energy Research and Development while the overall Fossil Energy 
Research and Development budget for fiscal year 2000 is $20 million 
below the fiscal year 1999 enacted level?
    Answer. Most of the funding shown for climate change research and 
development is part of an integrated coal research and development 
program focused on developing technologies for using coal in the 
cleanest and most efficient manner possible, while at the same time 
reducing the cost of energy. This research and development effort 
responds to key public needs and would be pursued with or without 
climate change considerations. The increased amount for climate change 
reflects a change in the nature of the work associated with our Vision 
21 clean power program: inclusion of some fuel cell work in the climate 
change category and an increase in long range work on carbon 
sequestration. The overall reduction in the Fossil Energy's budget 
reflects two items: a $12 million decrease in the Low Emission Boiler 
System (LEBS) program, which is being completed; and the use of $11 
million in obligated balances from fiscal year 1998 to offset new 
appropriations requirements. The remainder of the program is consistent 
with fiscal year 1999 levels.
    Question. What role does the Department of Energy have in the 
development of climate change policy?
    Answer. The Department has been an active participant in the 
interagency process that has developed and supported the 
Administration's climate change policy. DOE was an early and strong 
supporter of flexible, market-based mechanisms, which include 
international emissions trading and the Clean Development Mechanism, 
have become central to the U.S. climate policy and were incorporated in 
the Kyoto Protocol. DOE was also a successful advocate for the 
inclusion of all major greenhouse gases and carbon sinks in any 
international agreement.
    DOE funding and technical expertise led to the development of the 
Second Generation Model, which in one of the economic modeling tools 
used by the Council of Economic Advisers to assess the potential 
impacts of international climate agreements on the U.S. and world 
economy. DOE's five-lab study of the potential of technology to reduce 
greenhouse gas emissions helped lead the Administration to boost its 
budget request for climate-related energy research and development, and 
to propose selected incentives for investment in new energy 
technologies. DOE continues to be an active participant in the U.S. 
team participating in international climate change negotiations and in 
the interagency process that continues to develop and refine U.S. 
policy in this area.
    Question. What role does clean coal and other fossil fuel 
technology research and development have in developing a sound climate 
change policy?
    Answer. Current programs in three areas in the Office of Fossil 
play a role in developing a sound climate change policy. These are 
increased efficiency of electric power generation, carbon 
sequestration, and more efficient use and production of natural gas. 
Development of higher efficiency power generation technologies will 
reduce the amount of carbon produced per kilowatthour generated. In 
addition, both the Integrated Gasification Combined cycle (IGCC) 
technology and the fuel cell technology, which have been under 
development for several years, can produce a concentrated 
CO<INF>2</INF> waste stream which requires minimal processing prior to 
reuse or disposal.
    The purpose of the Fossil Energy sequestration program is to 
develop and demonstrate technically, economically, and ecologically 
sound methods to capture, reuse and dispose of CO<INF>2</INF>. Fossil 
Energy also has programs to reduce greenhouse gas emissions by 
improving the nation's ability to supply, store, transport, distribute 
and utilize natural gas in an economically efficient and 
environmentally beneficial manner. This will be accomplished by taking 
advantage of opportunities to develop technology for increasing supply 
from both conventional and unconventional sources.
                    federal energy technology center
    Question. In December 1996, as part of the Department of Energy's 
Strategic Realignment Initiative, the Morgantown, West Virginia, and 
Pittsburgh, Pennsylvania, research centers were consolidated into one 
Federal Energy Technology Center with two coequal locations. Another 
aspect of the Strategic Realignment Initiative was an agreement that 
efforts would be made to make better use of the Federal Energy 
Technology Center's expertise in the execution of various DOE programs, 
not only those funded by the Office of Fossil Energy. What efforts have 
been taken to ensure that the Federal Energy Technology Center 
portfolio of programs is widely mixed?
    Answer. The Federal Energy Technology Center (FETC) has undertaken 
efforts to broaden the portfolio of programs since the consolidation 
including new program initiatives in environmental technology, energy 
management services, and water quality. These efforts have helped FETC 
to apply its extensive in house technical and managerial expertise to 
other DOE activities.
    Question. What are the total dollars and staffing associated with 
each source of funding provided to the Federal Energy Technology Center 
for fiscal years 1998, 1999, and 2000?
    Answer. The total dollars and staffing associated with FETC's 
primary sources of funding are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal years--
                                               -----------------------------------------------------------------
                                                     1998 Budget           1999 Budget          2000 Request
               Source of Funding                      authority             authority      ---------------------
                                               --------------------------------------------
                                                 Dollars      FTE      Dollars      FTE      Dollars      FTE
----------------------------------------------------------------------------------------------------------------
Fossil R&D (FE) \1\...........................        488        481        607        504        600        482
Environmental Rest. and Waste Management (EM)          94         66         64         65         54         51
 \2\..........................................
Former BOM \3\................................  .........  .........  .........  .........  .........         14
Energy Efficiency (EE)........................         29  .........         22  .........         20  .........
Other, DOE....................................         11  .........          8  .........          8  .........
Other, non-DOE................................         34  .........         16  .........         16  .........
                                               -----------------------------------------------------------------
      Total...................................        656        547        717        569        698        547
----------------------------------------------------------------------------------------------------------------
\1\ FTEs reflect authorized levels for Fossil R&D, including Clean Coal Technology.
\2\ Prior to fiscal year 2000, EM provided funds for 29 FTEs that were transferred to the FETC from the former
  Bureau of Mines (BOM). In fiscal year 2000, EM will only fund 15 of these FTEs, with no funding in fiscal year
  2001.
\3\ Former BOM FTEs requiring funding in fiscal year 2000.

    Question. Is the funding in the budget request adequate to fully 
support the efforts being un dertaken at the FETC in fiscal year 2000?
    Answer. The Fossil Energy funding request for salaries in the 
fiscal year 2000 budget is adequate to fully support the employees on 
board at the FETC. A proposed reduction of $1.5 million in the 
Environmental Management funding will place about 14 employees at risk. 
The FETC intends on pursuing reimbursable work to compensate for this 
loss of funding.
    Question. What activities are proposed in the fiscal year 2000 
budget request for the Federal Energy Technology Center to undertake in 
support of the DOE offices of Environmental Ma nagement, Energy 
Efficiency, and Defense programs?
    Answer. The FETC's efforts on behalf of the Environmental 
Management program for fiscal year 2000 include the following:
  --Support the remediation and waste management of Environmental 
        Management sites through the development, demonstration and 
        deployment of environmental technologies by private sector 
        industries and universities.
  --Develop, demonstrate and deploy technologies to reduce life-cycle 
        costs/mortgages and reduce risk to the public/workers/
        environment for the deactivation, decontamination and 
        decommission of DOE's contaminated surplus facilities.
  --Operate Environmental Management's Center for Acquisition and 
        Business Excellence (CABE), to provide all aspects of business, 
        cost engineering, and project management assistance to 
        Environmental Management headquarters and DOE wide 
        Environmental Management program.
  --Environmental Management program direction funds to support FTEs, 
        and related travel and supplies for FETC performed 
        Environmental Management work.
    For Energy Efficiency programs:
  --Technical and project management support for the Energy Star 
        program, Rebuild America program, and the cooperative research 
        and development program to advance energy efficient building 
        equipment and envelope technologies.
  --Technical and project management support for the Mining Industry of 
        the Future.
  --Project Management for Energy Efficiency/Fossil Energy jointly 
        funded programs to convert natural gas to clean fuels for the 
        transportation sector.
  --Project Management for Energy Efficiency/Fossil Energy joint funded 
        industry/University Consortium for the Advanced Turbine System 
        program.
    For Defense programs:
  --FETC will provide Defense program technical, environmental, 
        management, quality assurance, and engineering support to the 
        Office of Tritium Production, in the Commercial Light Water 
        Reactor (CLWR.) project, the Accelerator Production of Tritium 
        Project (APT) targets, and the Tritium Extraction Facility at 
        DOE's Savannah River site. This work includes the support of 
        the EIS for the CLWR Project Alternative.
                     appliance efficiency standards
    Question. What statute governs how appliance efficiency standards 
are set by the Department of Energy?
    Answer. The Department of Energy's appliance standards program is 
conducted pursuant to Title III, Part B of the Energy Policy and 
Conservation Act, 42 U.S.C. 6291-6309.
    Question. Does this statute require the Department of Energy to 
determine appliance efficiencies based on measurements of site energy 
usage?
    Answer. The statute requires that in prescribing new efficiency 
standards, the Department determine the maximum efficiency level that 
is technologically feasible and economically justified. In determining 
whether the standard is economically justified, the Department is to 
consider the costs/benefits to the consumer. The measures of energy 
efficiency and energy use are, by statute, based on the energy consumed 
at the point of use and these are the measures of energy use that are 
used in the consumer analyses, for example, life-cycle-cost.
    Question. Does the Department of Energy appliance efficiency 
standards program adhere to this statute?
    Answer. Yes, when considering a new efficiency standard, the 
Department not only determines the consumer life-cycle-costs savings, 
but also carefully evaluates the impact of a new standard on 
manufacturers, the potential energy savings to the nation, impacts on 
gas and electric utilities and the environmental benefits of the 
proposed standard, as prescribed by the statute.
    Question. Is the Department of Energy developing any plans to 
change how it measures appliance energy efficiencies for the purpose of 
setting energy standards?
    Answer. The Department is always looking for ways to improve the 
analysis used as a basis for establishing new efficiency standards. In 
1996, the Department undertook an effort to revamp the way it does 
standards rulemaking and established new procedures in the Appliance 
Standards Process Rule issued July 15, 1996. At that time the 
Department established an Appliance Standards Advisory Committee to 
advise it on efficiency standards rulemaking issues. One of the 
recommendations made to the Department by the Advisory Committee was to 
use the full range of consumer marginal energy prices rather than a 
national average price in examining the impact of standards on consumer 
life-cycle-costs. Similarly, the Department intends, with stakeholder 
input, to use a range of energy price forecasts and energy conversion 
factors and associated emission reductions based on electric power 
generation displaced by standards rather than averages, for the 
standards analysis.
    Question. From an appliance buyers perspective, isn't the actual 
energy cost to the user at the site of use the most important variable 
for setting appliance standards?
    Answer. DOE believes site energy prices provide the most useful 
measure to consumers since these can be directly related to information 
readily available, that is, utility bills.
    Question. Is the Administration's interest in setting ``source'' 
efficiency standards rather than ``site'' efficiency standards for 
appliance energy usage a back door approach to trying to implement the 
Kyoto protocol or a government plan to encourage fuel switching?
    Answer. The Department is not implementing the Kyoto Protocol 
through either a backdoor or front door approach. The Department is not 
changing the basis on which efficiency standards are set from ``site'' 
to ``source.'' The statute requires that the Department determine the 
consumer life-cycle-costs, which are based on site energy prices, and 
national energy savings, which is measured as source energy savings, 
when prescribing a new energy efficiency standard. The Department has 
always done this and will continue to do this in the future. 
Furthermore, the Department considers the likely impact new standards 
will have on fuel switching to try to find ways to minimize fuel 
switching.
    In response to direction from the Senate and House Interior 
Appropriations Subcommittees in their fiscal year 1999 appropriations 
bills, the Department is analyzing the site versus source issue. 
However, no changes in the basis for setting efficiency standards are 
anticipated at this time and none will be considered without extensive 
consultation with Congress and the relevant stakeholders.
    Question. I understand that the Department of Energy has contracted 
with the Rand Corporation to do a study of site measurements versus 
source measurements with regards to appliance efficiency standards. Why 
has the Department of Energy undertaken to do this study?
    Answer. The Office of Energy Efficiency and Renewable Energy (EERE) 
has contracted with the Rand Corporation to provide EERE with an 
independent assessment of the implications of measuring energy using 
site or source measurements. The main outcome will be a quantitative 
assessment of the impacts that may be associated with the different 
measurement approaches as a means of providing objective information to 
DOE for addressing future policy issues. The study will not focus on a 
particular standard and goes beyond the appliance standards to include 
issues in measuring energy use in homes.
    Question. Why did the Department of Energy chose the Rand 
Corporation for this study?
    Answer. The Department contracted with Rand because Rand has a long 
history of providing objective information to policy makers addressing 
major national policy problems. While high-quality, objective research 
on national security became the institutions first hallmark, today Rand 
researchers continue to operate objectively on a broad front, assisting 
public policy makers at all levels and private sector leaders in many 
industries. Rand brings a unique perspective to informing this debate, 
one that is independent and grounded on rigorous analysis and 
objectivity. Rand's process is inclusive and open, which provides for 
inputs from all interested parties.
    Question. How much will the study cost? What funds are being used 
for the study (please be specific)?
    Answer. The study will cost about $110,000 and is using fiscal year 
1998 funding provided for Assistant Secretary cross-cutting activities.
    Question. When will the study be complete?
    Answer. We expect the study to be completed by the end of June 
1999.
    Question. How does the Department of Energy plan to use the results 
of this study?
    Answer. The Department will use the results of this study to both 
inform it's own position on this complex issue and to begin a new round 
of stakeholder discussions on the appropriate use of site and source 
energy measurement in various programs and policies. Hopefully, the 
study results will be able to replace some opinions with measured and 
verified facts.
    Question. Can the Department of Energy make any use of the results 
of the study without federal authorizing legislation?
    Answer. The information can inform issues related to Energy Star 
homes and the joint DOT/FTC Energy Guide labeling system, as well as 
coordination with states that have varying degrees of codes and ratings 
for homes. It can help shape future analysis for appliance standards 
and help inform the dialogue with stakeholders.
                     clean coal technology program
    Question. Doesn't this ``deferral,'' and the companion threat of no 
future funding, place the program in jeopardy?
    Answer. The proposed deferral reflects a rescheduling of outyear 
funding for the Clean Coal Technology program. It is the Department's 
intent to use these funds as they become available if Congress approves 
the deferral language as proposed in the budget. If for some reason 
such funds did not become available, it would indeed jeopardize the two 
projects affected by the proposed deferral.
    Question. Did the Department of Energy include this deferral in 
funding for the Clean Coal Technology program in its budget submission?
    Answer. The Department requested a deferral of $59 million in its 
fiscal year 2000 OMB budget request. The deferral amount was later 
increased in recognition of the schedule delays encountered in the 
Clean Energy and CPICOR projects.
    Question. What assurances can you offer that the Clean Coal 
Technology funds proposed for deferral in the President's fiscal year 
2000 budget will ever be made available to complete the current 
obligations of the Clean Coal Technology program?
    Answer. The Department has stated before this committee and others 
that we are committed to completing the clean coal projects and meeting 
our obligations under the project agreements. We have proposed specific 
language in our fiscal year 2000 budget request which provides for the 
deferred funds to be returned in subsequent fiscal years to ensure 
timely completion of project funding.
             fossil energy research and development program
    Question. Mr. Secretary, why does the President's budget include a 
decrease for fossil energy research?
    Answer. The Fossil Energy fiscal year 2000 budget request was about 
$20 million below the fiscal year 1999 appropriation. Part of this 
reduction is due to the fact that the Low Emission Boiler Systems 
program which was funded at $15 million in fiscal year 1999 has been 
fully funded, thus only $3 million was needed for this project in 
fiscal year 2000. The remainder of the reduction is attributed to 
reductions in Congressionally added funds for Fuel Cells ($2 million), 
and reductions in the Advanced Turbines Program ($2 million), and the 
Gas-to-Liquids Program ($2.0 million), both of which are adequately 
funded.
    Question. Did you request an increase in this program for the 
fossil energy program above the fiscal year 1999 enacted level in your 
budget submission to OMB? Why wasn't the increase supported?
    Answer. Yes, the Department submitted a $439,000,000 request to the 
Office of Management and Budget for the Fossil Energy Research and 
Development account. The increase was not supported because of the 
Administration's commitment to stay within the budget caps and because 
other priority projects were ranked higher in the allocation of limited 
dollars within the President's budget.
    Question. Isn't it true that fossil energy and research on fossil 
energy are critical to our future? Don't you agree that the fossil 
energy research program managed by your Department provides major 
benefits to energy users through lower costs from more efficient 
systems and effective fuels, to the environment through the development 
of cleaner fuels and technologies that reduce greenhouse gas emissions, 
and to the nation by enhancing national security and providing economic 
advantages to U.S. companies?
    Answer. I agree with you. Fossil fuels--coal, oil, and gas--supply 
85 percent of U.S. energy, and that figure could approach 88 percent by 
2015. Our fossil energy research and development program can benefit 
energy consumers by reducing the costs of additional pollution controls 
that will likely go into effect over next 10 years under the Clean Air 
Act Amendments, perhaps lowering costs to ratepayers by $5 to $7 
billion per year. In addition, beyond just cost savings for pollution 
controls, our research and development program to develop higher 
efficiency power systems, fueled by both goal and natural gas, could 
reduce the cost of electricity by 10 to 20 percent compared to 
currently-available conventional power generating technology.
    Over the longer term, in the post-2015 time frame, our research and 
development could lead to a pollution-free power plant fueled by coal 
and other fuels. We may also be able to develop ways to sequester 
greenhouse gases, preventing their buildup in the atmosphere, at costs 
several orders of magnitude below the likely costs of the limited 
carbon control approaches available today. We are also working on new 
technologies that can diversify our domestic supplies of natural gas 
and as a result, keep natural gas prices affordable even as demand for 
natural gas escalates in the future.
    Cost reduction is also a major objective of our oil technology 
program, although the price impact on consumers is often overshadowed 
by global oil price trends that are outside of our control. 
Nonetheless, research and development that reduces costs in our 
domestic oil fields has the beneficial effect of making available U.S. 
resources that might otherwise have been uneconomical to produce. This 
research and development can also reduce the oil- and gas-related 
environmental regulatory costs incurred by state and federal agencies. 
Overall, in fact, our oil and gas technology research and development 
program could potentially save as much as $16 billion in environmental 
regulatory and compliance costs by 2010, allowing these dollars to be 
directed toward additional domestic oil and gas exploration and 
production.
    There are also environmental benefits beyond just regulatory cost 
savings. More accurate oil and gas exploration technologies can ensure 
a greater success rate in finding producible resources, reducing dry 
holes and associated environmental disturbances. Better drilling 
technologies--for example, horizontal and slimhole drilling systems--
can significantly reduce the surface ``footprint'' of oil and gas 
operations. New oil and gas waste treatment technologies can 
significantly reduce the amount of wastewater and other production 
wastes that must be handled and disposed of properly.
                       climate change activities
    Question. Mr. Secretary, what plans does the Department of Energy 
have to facilitate the sale of U.S. clean coal technologies abroad and 
encourage developing nations to install and use these clean coal 
technologies?
    Answer. The Department considers international deployment (that is, 
sales) of improved U.S. technologies important both for the global 
environmental benefits that accrue, and for the benefits which flow to 
the U.S. economy. U.S. clean coal technologies are inherently lower in 
emissions of traditional pollutants, such as sulfur dioxide and 
nitrogen oxides. In addition, they are also more efficient than 
conventional coal technologies, which makes them lower in carbon 
dioxide emissions and reduces pressure on global climate change.
    The Office of Fossil Energy has a number of efforts to assist in 
the deployment of clean coal technologies in developing countries, 
particularly in China and India which are projected to increase coal 
use substantially over the next decades. For example, in China we are 
working with the Chinese government, and U.S. and Chinese universities, 
and have created the U.S.-China Center for Energy and Environmental 
Technology. This center will facilitate information exchanges between 
the U.S. and China and promote U.S. technologies for use in China's 
energy sector. Types of activities covered include identification of 
market opportunities in China and U.S. technology capabilities; 
training and education related to the environment, technology, and 
financing of projects; and assistance by U.S. experts on energy and 
environment. In India, the Office of Fossil Energy has conducted 
workshops on coal beneficiation and other clean coal technologies. In 
addition, the Department has supported trade missions to specific 
countries, and continues to participate in international conferences 
and other fora where the advantages offered by advanced technologies 
are addressed.
    The Department is also considering various incentives which would 
aid in the accelerated deployment of advanced technologies abroad. We 
have offered technical advice to the World Bank, which is considering 
implementing such incentives on a limited scale, and we are examining a 
package of incentives proposed by U.S. coal stakeholders. These 
incentives include investment tax credits, performance guarantees, and 
production credits for a limited number of advanced, high efficiency 
coal-based technologies.
    Question. Do you agree that no realistic or effective solutions 
regarding climate change and the reduction of greenhouse gas emissions 
can ignore the domestic and international importance of coal as a power 
source and of clean coal technologies for reducing greenhouse gas 
emissions?
    Answer. Yes, we agree. Fossil fuels provide more than 85 percent of 
the energy consumed in the United States and 75 percent of the world's 
energy and are key to both developed and developing countries economic 
growth projections. Combustion of these fuels, to varying degrees, 
creates greenhouse gases. Current programs in two areas in the Office 
of Fossil Energy reconcile the prevalence of coal use and greenhouse 
gas reduction. These are: increased efficiency of electric power 
generation, and carbon sequestration. Development of higher efficiency 
power generation technologies will reduce the amount of carbon produced 
per kilowatt hour generated. In addition, the Integrated Gasification 
Combined cycle (IGCC) technology and the fuel cell technology, which 
have been under development for several years, can produce a 
concentrated CO<INF>2</INF> waste stream which requires minimal 
processing prior to reuse or disposal. The purpose of the Fossil Energy 
sequestration program is to develop and demonstrate technically, 
economically, and ecologically sound methods to capture, reuse and 
dispose of CO<INF>2</INF>.
                    federal energy technology center
    Question. Mr. Secretary, you have indicated over the past few 
months that you would welcome a visit to the Morgantown site of the 
Center. I want to encourage you to fit such a visit into your schedule. 
I think you would find it very rewarding and stimulating. Do you think 
such a visit might occur in the near future?
    Answer. I had the pleasure of visiting the Federal Energy 
Technology Center's (FETC) Pittsburgh site on October 6, 1998. During 
my visit, I held a meeting with all of the employees from both 
Pittsburgh and Morgantown--some of the Morgantown employees were there 
in person and others participated through TeleVideo. I was asked that 
very question during my visit--whether or not I would visit the 
Morgantown site--and my answer was ``yes.'' A visit to the site is 
still on my agenda for the near future.
    Question. Will you work with your immediate staff to include the 
Center more completely in climate change issues?
    Answer. The FETC already plays a crucial role in supporting 
development of low or no carbon emission technologies. However, until 
recently, the contribution such technologies could make to a future 
with restrictions on carbon emissions has not been explicitly factored 
into detailed studies of mitigation strategies.
    We intend to more fully involve the Office of Fossil Energy, and 
FETC in particular, in comprehensive, integrated analyses of mitigation 
strategies. This will allow us to make use of the large existing base 
of knowledge within FETC in advanced gas turbines, fuel cells, carbon 
sequestration, and advanced coal-fired power system concepts, such as 
Vision 21.
    Comprehensive, integrated analyses of mitigation strategies would 
compare a range of energy-supply and end-use technologies, exploring 
the benefits and costs on a common basis. This common basis would 
incorporate a variety of criteria into the evaluation, including 
economic criteria, environmental benefits, and the pursuit of other 
acknowledged national goals.
    Question. Would you please provide for the record your thoughts as 
to how these activities can receive greater emphasis in developing 
future budgets for the defense environmental restoration and waste 
management program?
    Answer. In a carbon-managed future, all new technologies should be 
developed recognizing of their full impact on carbon emissions. These 
technologies (for Environmental Management) need to be evaluated for 
their possible impact. In addition, it is probable that innovative low 
carbon emission technologies could benefit by transferring knowledge, 
techniques, and sensors from this arena to development of energy 
technology.

                          subcommittee recess

    Senator Gorton. Thank you very much for coming. The 
subcommittee will stand in recess until 9:30 a.m., Wednesday, 
April 14, when we will receive testimony from Kevin Gover, 
Asst. Sec. Bureau of Indian Affairs.
    [Whereupon, at 2:40 p.m., Thursday, March 18, the 
subcommittee was recessed, to reconvene at 9:30 a.m, Wednesday, 
April 14.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              


                       WEDNESDAY, APRIL 14, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Domenici, Burns, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                     Office of the Special Trustee

STATEMENT OF THOMAS M. THOMPSON, ACTING SPECIAL TRUSTEE 
            FOR AMERICAN INDIANS

                        Bureau of Indian Affairs

STATEMENT OF KEVIN GOVER, ASSISTANT SECRETARY
ACCOMPANIED BY MIKE ANDERSON, DEPUTY ASSISTANT SECRETARY

                             Budget request

               opening statement of senator slade gorton

    Senator Gorton. Good morning. We will bring to order the 
Interior Subcommittee with the third of its hearings for the 
fiscal year 2000 budget request for agencies funded through the 
subcommittee.
    This morning we will hear testimony on the Bureau of Indian 
Affairs and the Office of the Special Trustee for American 
Indians.
    Mr. Gover, I want to welcome you to your second hearing 
before this subcommittee as the Assistant Secretary for Indian 
Affairs and acknowledge publicly your efforts over the course 
of the last year and a half. I am very pleased, as I have told 
you privately as well, about the opportunities we have had to 
work together.
    Your candor and intellect, and forcefulness for that 
matter, provide me with valuable insights in connection with my 
work as subcommittee chairman. You are a welcome change for the 
way I thought that the bureau was run for a number of years.
    Mr. Thompson, we want to welcome you to your first hearing 
as the Acting Special Trustee for American Indians. I know both 
of you have been compelled to testify before several committees 
in both the House and Senate during the course of the last 
couple of months. I appreciate your taking time to be with me 
here today.
    I would ask Mr. Thompson to present the budget of the 
Office of Special Trustee first. Then after we have had an 
opportunity to direct questions to Mr. Thompson and Mr. Gover 
on the Office of the Special Trustee and the Trust Management 
Improvement Project, we can move on to the Bureau of Indian 
Affairs.
    I want to remind my colleagues that the special trustee 
does not report to Assistant Secretary Gover. Authority flows 
directly from the Secretary of the Interior to the special 
trustee. The BIA, however, is involved in our government's 
efforts to clean up trust management. As Mr. Gover can attest 
personally, Judge Lamberth is not drawing much in the way of 
distinction between the two agencies and their responsibilities 
for addressing the problems of trust management.
    For the moment, I would like to put the President's request 
for these two agencies in context, given where this 
subcommittee may be headed in fiscal year 2000. The President's 
budget is replete with initiatives that require passage of 
separate authorizing or taxing legislation, and very few of 
those initiatives are likely to be enacted by this Congress.
    In addition, the President's budget overall is $25 billion 
above the fiscal year 2000 statutory cap on discretionary 
spending enacted in 1997. The Interior Subcommittee's pro rata 
share of this $25 billion is about $625 million, which, if 
eliminated, will cut out much of the $1 billion increase 
requested by the President for interior bill programs.
    We are likely to get more than a pro rata share of this 
reduction, as it is the intention of Congress to secure 
increases in education and defense spending within the caps. 
This means that for most interior bill programs, we will be 
fortunate even to maintain fiscal year 1999 funding levels. In 
total, the budget request for the BIA is $1.9 billion, a $156 
million increase over the fiscal year 1999 level, roughly 9 
percent.
    Major increases are requested for law enforcement and 
education, two areas to which I have committed my support.
    The Office of the Special Trustee is requesting to more 
than double its budget, a total of $100 million compared to 
$39.5 million provided for this year. This figure does not 
include $21.8 million requested by the office in supplemental 
funds. We have not completed work on the supplemental but are 
acutely aware of the troubles at the Office of the Special 
Trustee.
    As members of this committee and subcommittee know, I have 
made every effort to increase funding for tribal programs paid 
for by this subcommittee since I became chairman.
    The chart provides indicates where we have gone since 1996. 
The future health and welfare of the next generation of Indian 
children depends on adequate education, health care and on safe 
communities. The chart outlines the funding provided by the 
committee for the BIA and IHS since 1996.
    For example, I took the initiative to increase the 
appropriation of the Indian Health Service by $35 million over 
the President's request last year. I would like to continue to 
focus the subcommittee's limited resources within targeted 
areas during the upcoming appropriations process. As I 
mentioned, however, the task will be made doubly difficult this 
year. And I am looking forward to hearing from both of you.
    Mr. Gover and Mr. Thompson, I hope you will work with us to 
identify the most important priorities for your agencies. We 
will be compelled to make tough choices, but I believe we will 
make better decisions if we have the benefit of your expertise 
and candor.
    It may very well be that the two of us who are here now, 
Senator Burns and I, may be the only ones here. We have 
conflicting hearings. I know that Senator Campbell is in a 
closed oversight hearing in the Energy and Natural Resources 
Committee on Chinese espionage at the Department of Energy. In 
fact, both of the members who are here are members of that 
committee as well. I suspect that Senator Burns may want to 
spend some time there.
    So please do not take the relatively sparse attendance at 
this hearing as an indication that there is not great interest 
in the work that both of you do. That interest is very much 
there.
    With that, Senator Burns, do you have anything that you 
would like to----

               opening statement of senator conrad burns

    Senator Burns. Well, thank you, Mr. Chairman. I have no 
statement. But I think you laid it out pretty well when we all 
start to set our priorities in Indian country. Of course, we 
are all very, very much interested in the problems of the 
trustee and what will finally become of that. I think we have 
the responsibility now to reform that in how it is kept.
    I was very distressed when I found out that there are 
accounts all over the country, rather than one account or one 
central place that controls or is a watchdog of that money. I 
think the chairman is very, very much aware of our problems 
right now and we need to fix them as soon as possible.
    Another one of our big problems is safety and law 
enforcement. I hear that everywhere I go in Indian country. All 
the citizens of Montana that talk to me, that seems to be one 
of their primary concerns.
    Then I drop from there to education. Without a doubt, we 
have one of the best educators there is in this country. I 
would put Joe McDonald up on the Flathead Reservation, the 2-
year college up there, against anybody. I have never seen a man 
so dedicated to education. He runs a great, great school.
    When you get great leaders like that, I think it tells us 
that there is something going on that is very, very good. I 
have some problems with the infrastructure of education, 
because we have to build a couple schools. We have children 
that are absolutely sitting on top of one another, and that is 
not a learning environment. We must correct that situation. I 
have committed all the resources that I know how to address 
those areas, because education, law enforcement, and safety are 
primary, if we are to see people progress in this great 
country.
    So I think the chairman has laid out his priorities very, 
very well and the responsibility that this Government has, and 
also the responsibility that tribal governments have in 
fulfilling these areas of great concern.
    So, Mr. Chairman, thank you very much. I look forward to 
listening to the witnesses. I am going to duck out and go up to 
the other hearing. I suppose you were going to do about the 
same thing. It seems like we are not short of work here after 
coming back after a 2-week break.
    Thank you, Mr. Chairman.

                summary statement of thomas m. thompson

    Senator Gorton. Mr. Thompson, we would like to hear from 
you now.
    Mr. Thompson. Thank you, Mr. Chairman, Senator Burns.
    I appreciate the opportunity to present the Office of 
Special Trustee's fiscal year 2000 budget to the committee. As 
Secretary Babbitt has stated in previous testimony to the 
House, the reform of Indian trust management is his highest 
priority. He is saying that every day at the Interior 
Department. He has appeared before various committees with us 
and as our point man, as Senator Burns knows, to support this 
effort. Time and again he has expressed his commitment to clean 
up this problem on his watch.
    With this committee's assistance, I would like to talk a 
little bit about some of the things we have done in the last 
year to show you that we have been using the resources provided 
by the committee to make improvements and to start on this 
rather long journey we have to go on.
    As you know, the Department published its High Level 
Implementation Plan, its general road map to the reform of 
Indian trust management, in July of last year. It basically 
covers in general terms 13 areas that need to be worked on in 
some detail in order for the Department to meet its trust 
responsibilities as outlined in the Indian Trust Reform Act of 
1994.
    The sub-projects are scattered across five different line 
bureaus and offices of the Department of Interior who have 
major responsibilities for administration and management of 
Indian trusts. That includes the Office of Special Trustee in 
its oversight role and some line authority, certainly the 
Bureau of Indian Affairs with major responsibilities for land 
management and title control.
    In addition, we have the Minerals Management Service 
responsible for royalty collections, the Bureau of Land 
Management dealing with issues on lease inspection, rail 
inspection, and then the Office of Hearing and Appeals, who 
deals with probate issues for the Department.
    We have made substantial progress since last year. We 
successfully ran a pilot of the new trust fund accounting 
system, the replacement system for the basic trust accounting 
system that BIA had developed some 30 years ago. We piloted 
that project in Phoenix, Sacramento, and Juneau in August of 
last year.
    In January of this year, we move it onto the Albuquerque 
and Navajo areas. At the end of February, we converted all of 
the tribal accounts.
    Today we can tell you that about $2.7 billion of the $3 
billion in trust is on the new system. The new system is 
exciting to us because it is commercial, off-the-shelf 
technology, provided by SEI Investments of Oaks, Pennsylvania. 
This company provides about 40 percent of the technology for 
trust management across the country to the 7,000 banks that do 
this sort of business. They are a major provider, and they are 
right on the edge of technology.
    We have asked them to provide the system and to operate it 
for us. We provide the data; they provide the reports back to 
us. It is a major advance. It gives us a lot more power and 
authority.
    With contractor assistance before we did this conversion, 
we went to work on cleaning up the individual trust account 
file jackets, so that when we looked at a file on the system, 
we could back it up with the documentation. A key problem that 
has been identified time and again is the issue of records 
management, or the lack of records management, on this issue 
over time.
    With the work of another contractor, Data Comm Sciences, we 
have gone through nearly 311,000 file jackets. We have cleaned 
up about 250,000 of those file jackets at this point. Not 
unexpectedly, we found problems. Nearly half of those file 
jackets are missing essential documents that a normal trustee 
would find in a jacket in a bank or such an account.
    At this point, we expect to finish this work with the 
contractor, the pre-conversion work, in June of this year. The 
work is on time, ahead of schedule, and, believe it or not, 
under budget. This work as expected, is identifying other 
cleanup work that we will have to address as part of the post-
systems conversion effort. And we have a similar effort working 
forward.
    About a year after we began our work, BIA started its work 
on its new system, the trust asset and accounting management 
system. That system contract was let to a major developer of 
trust system software, Artesia Company out of Dallas, Texas.
    They are now in the design process prior to beginning the 
pilot of that system in June of this year in the Billings area 
of BIA. Again, this is a commercial, off-the-shelf system that 
is being modified somewhat to meet BIA's requirements, 
principally in the area of land title and title information.
    BIA also awarded a cleanup contract to work in the Billings 
and Juneau areas. That work began in February of this year.
    In another arena, BIA commenced a pilot to work on the 
fractionization problem. With the help of the Congress, we 
received $5 million in fiscal year 1999 and are beginning the 
work to purchase the small interests caused by the 
fractionization of lands over the last 120 years out of the 
General Allotment Act of 1887.
    The BIA expects to purchase some 20,000 to 30,000 small 
pieces of land owned by interest owners in the Minneapolis 
area. The proposal is to start to consolidate those pieces of 
land and roll them back in to the tribe.
    Once the fund to pay for the land is reimbursed, we will 
turn those lands over to tribes, who will operate them in a 
much more efficient manner than we can do with upwards of 1,100 
owners on a single 80-acre tract.
    In addition, we have managed to make all of these systems 
Y2K compliant, with the help of the contractors, obviously. We 
have continued our other work on improving internal controls 
with daily reconciliations with Treasury on the cash balances, 
a central----
    Senator Gorton. Are you telling me that you are one of the 
government agencies that is not going to have any Y2K problems 
whatsoever?
    Mr. Thompson. I can tell you OST will not have any Y2K 
problems. We are ahead of the power curve on that. I believe 
Kevin will probably tell you pretty much the same thing, as far 
as the trust accounts are concerned.
    Senator Gorton. Right. Thank you.
    Mr. Thompson. A success story for a change.
    In addition, we have all been training the people on trust 
business. We have set up a central lock box for returned checks 
when they go out without an address that is current and 
accurate. We have contracted for annual audits. We have also 
contracted for centralized safekeeping of investment 
securities.
    We are also working to propose a methodology to address the 
historic multi-million dollar imbalance on account variances 
between the Department of Interior and the Treasury Department 
that has existed for decades.
    You will note that many of these initiatives are being 
handled by contractors, people who are well-versed in trust 
practices and trust business, people that we do not have to 
train on how to do this sort of job.
    The fiscal year 2000 request is $100 million, as you noted. 
It is a little over $90 million for OST, of which about $40 
million will go directly to BIA to support their trust 
improvements. There is an additional request for $10 million 
for continuation of the land consolidation pilot that I 
mentioned earlier. It is a $60 million increase. We understand 
the issues with the budget caps.
    This is the single largest increase for any office or 
bureau in the Department of Interior, reflecting the 
Secretary's and management's commitment to fixing Indian trust 
management on the Secretary's watch.
    We will spend $65 million for trust improvements, which is 
an increase of $48 million over this year. This reflects the 
fact that these systems are coming on line in both OST and BIA. 
We will acquire and upgrade trust management accounting 
systems, finish cleanup of the account data in the pre-
conversion stage, and work on eliminating backlog and probate 
and other such functions.
    As you mentioned, Mr. Chairman, we have requested a 
supplemental. We have had some success in the House in getting 
those amounts recognized. The money is essential if BIA is to 
continue moving forward in its data cleanup effort. It is 
obviously essential and of interest to Mr. Gover and the 
Secretary and to me, because it is going to be needed to 
support our work with Judge Lambert or the Special Master who 
was appointed to oversee our efforts to produce documents in 
the Cobell v. Babbitt litigation.
    I have to also mention that we are obviously feeling an 
impact of this litigation. The logistics and the manpower 
required to support this effort and to work on this litigation 
is rather massive. The commitment is certainly there. It was an 
embarrassment for which we apologized. We do not plan to make 
the mistake twice.
    Of course, that requires the commitment of resources and 
the commitment of people who are already strained working on 
trust improvements and carrying out the daily business of the 
Department.

                           prepared statement

    We expect there will be some impact on some of these 
schedules. We do not see the overall schedule slipping, but we 
will have to do some internal adjusting to make this thing 
happen.
    Mr. Chairman, I would like to conclude my remarks now and 
respond to any questions you or the committee would have.
    [The statement follows:]
                Prepared Statement of Thomas M. Thompson
                              introduction
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to present the President's fiscal year 2000 
budget request for the Office of the Special Trustee for American 
Indians (OST). The total 2000 request for OST is $100 million, $90.025 
million for OST and $10 million for Indian Land Consolidation. This is 
a $60.5 million increase over the 1999 enacted level of $39.5 million, 
and the single largest percentage increase for any bureau or office in 
the Department.
    In addition, OST also has requested fiscal year 1999 supplemental 
funding totaling $21.8 million; $6.8 million for the trust fund 
improvements based on the High Level Implementation Plan; and $15 
million for additional expenses related to the class action lawsuit, 
Elouise Pepion Cobell et. al. v. Bruce Babbitt et al.
    The Secretary has stated in his testimony previously before this 
Committee that one of the highest priorities of the Administration is 
to successfully resolve the Indian trust fund management problems that 
have accumulated over the last 70 years. The Secretary has also 
committed to clean up this problem on his watch.
                indian trust management reform progress
    I am happy to report that with this Committee's assistance, much 
has been accomplished since OST appeared before the Committee last 
year. Most significantly, the Department developed and published its 
High Level Implementation Plan, a general roadmap to the 13 Sub 
Projects which comprise the Department's Trust Management Improvement 
Project. The Plan contains information on and describes each of the Sub 
Projects, responsible Bureaus and Offices, supporting tasks, critical 
milestones, work plans, resource estimates and accountable officials. 
Substantial progress has been made, including:
  --Following a successful Pilot in Phoenix, Sacramento, and Juneau, 
        OST is implementing a new commercial off-the-shelf Trust Funds 
        Accounting System to administer all 300,000 Tribal and 
        Individual Indian Monies (IIM) accounts and investments. 
        Albuquerque and Navajo areas were converted in January 1999, 
        and all tribal accounts were converted in February 1999. The 
        balance of accounts will be converted by December 1999. This is 
        an off-the-shelf, and contractor operated system provided by 
        SEI Investments Company of Oaks, Pennsylvania.
  --With contract assistance, OST has gathered, organized, and updated 
        systems data for more than 237,000 of the estimated 300,000 IIM 
        File Jackets in conjunction with the new Trust Funds Accounting 
        System. The entire pre-conversion data cleanup will be 
        completed by June 1999.
  --The Bureau of Indian Affair's (BIA) has contracted with Artesia 
        Data Systems of Dallas, Texas, for a new Trust Asset and 
        Accounting Management System (TAAMS) to replace BIA's aging, 
        antiquated, and non standardized automated systems for land 
        title operations and land and lease management functions. The 
        system will be piloted in the Billings area beginning in June 
        1999, and the balance of areas are expected to be converted by 
        December 2000.
  --BIA awarded a data cleanup contract for Billings and Juneau areas 
        in February 1999. BIA is utilizing the same contractor 
        currently finishing the pre conversion data cleanup for OST in 
        this initial effort. BIA's pre conversion data cleanup process 
        is expected to be completed by December 2000.
  --The Department's automated trust systems and accompanying 
        infrastructure have been made Year 2000 Compliant.
  --OST has contracted for a central lockbox for returned checks to 
        ensure control and timely redeposit to trust accounts.
  --OST has contracted for training of 70 employees within OTFM in 
        commercial trust management operations and practices through 
        the Cannon Financial Institute, one of the industry's leading 
        training firms for commercial trust banks.
    Many of these initiatives are either being accomplished by 
contracting, or assisted by contractors, not just hiring additional 
employees. Indeed, an estimated 74 percent of fiscal year 1999 
obligations for trust management improvements will be through 
contracts.
    It should be noted that as a result of the Cobell v Babbitt 
litigation and other requirements, the Department is currently 
evaluating its ability to maintain the above schedules.
              fiscal year 1999 supplemental appropriations
    As you are aware, the Department has two fiscal year 1999 
supplemental requests totaling $21.8 million. The 2000 budget included 
a $6.8 million request for supplemental funding in 1999 to implement 
the Trust Management Improvement Project. We appreciate the 
Subcommittees inclusion of this request in its supplemental bill. The 
pace of obligations for the trust management improvement project (TMIP) 
has increased, as the most significant Sub Projects have passed from 
the planning phase to the implementation phase. In particular, about 
$34 million in contracts for BIA and OST data cleanup, TFAS, TAAMS, 
records management, training, and other TMIP Sub Projects will be 
renewed or let in 1999. Given these pending obligations, the Department 
estimates that currently available funding for implementation of the 
trust management improvement project will be fully committed by the 
third quarter of 1999. Reprogramming flexibility provided by Congress 
in fiscal year 1999 to meet unfunded TMIP needs has allowed the 
Department to reduce its TMIP shortfall from a high of $16.2 million at 
the beginning of 1999 to a current shortfall of $7.3 million. 
Supplemental funding of $6.8 million will cover most of this shortfall, 
and the balance of the shortfall can be met through other means.
    An additional supplemental request in the amount of $15 million was 
transmitted to support Department-wide estimated fiscal year 1999 costs 
of the IIM litigation.
    Mr. Chairman, as you know, Federal District Court Judge Lamberth 
found Secretary Babbitt, Secretary of the Treasury Rubin, and Assistant 
Secretary Gover in contempt for failing to comply in a full and timely 
manner with certain discovery orders. These matters and the claims of 
approximately 300,000 IIM account holders remain before Judge Lamberth. 
The basis for his decision is a matter of public record. The Department 
has apologized to the court for the government's failures in this 
litigation and intends to do all that we can to be fully responsive to 
the Court's orders. The government recommended the appointment of a 
Special Master, as a way of addressing many of the discovery issues 
that have proven to be difficult. The Special Master will oversee the 
discovery process and administer document production, compliance with 
court orders, and related matters.
    As a result of the ruling, there will be significant additional 
costs to BIA, OST, MMS, BLM and the Solicitor's Office in searching for 
and producing documents of predecessor accounts and other documents 
previously thought to be beyond the scope of the original request. A 
portion of these costs can be funded from resources previously 
requested, and appropriated by Congress, for document production 
related to performing a statistical sample. The $15 million 
supplemental will cover the balance of the Department's costs, as well 
as other costs stemming from the litigation, primarily, the cost of 
document production for the anticipated statistical sample.
    In regards to the supplemental request, Mr. Chairman, these funds 
are needed to cover our current best estimate of anticipated costs. I 
can tell this Committee that numerous staff members from OST, BIA, the 
Solicitors Office, Minerals Management Service, Bureau of Land 
Management and the Department have spent thousands of hours, often late 
into the night and on weekends working on this case. In many cases, 
these are the same staff responsible for daily ongoing responsibilities 
in meeting the milestones and achievements of the High Level 
Implementation Plan. While supplemental funding will greatly enhance 
the ability of the Department to meet litigation demands without 
comprising trust reform efforts, the litigation does have an indirect 
impact on reform efforts because many of the employees involved in 
fixing the system also have responsibilities for producing documents 
stemming from the IIM litigation. Additionally, because plaintiffs are 
seeking an as yet undefined, new system for trust fund management that 
may be different from either the system in place and/or the systems 
envisioned by the High Level Implementation Plan, this case places 
substantial demands on the Department in terms of trial preparation, 
responses to plaintiff discovery requests, depositions, and testimony. 
While the Department is, to the extent possible, utilizing contract 
assistance and deploying staff from other program areas to assist in 
meeting litigation demands and trust reform schedules, these demands do 
place significant workloads on the Department's employees.
    The House has included the total $21.8 million in its pending 
supplemental. While we greatly appreciate the Senate's provision of 
$6.8 million in its supplemental, we respectively request your support 
for the additional $15 million in Conference. Without funding, the 
Government's ability to adequately defend this case will be severely 
compromised, and the Government will face substantial risks of 
additional court sanctions for failure to meet court ordered 
activities.
                    fiscal year 2000 budget request
    The budget request for Program Operations, Support and Improvements 
is $88.4 million an increase of $50.5 million over the 1999 enacted 
level. Of this amount $65.3 million will be available for continued 
implementation of the trust management improvement project, an increase 
of $42.9 million over 1999, net of a $5.1 million transfer from BIA.
    The OST request also includes $5.2 million to support settlement 
and litigation activities, and $10 million for continued implementation 
of the Indian Land Consolidation Pilot, which will commence in 1999 on 
three reservations in Wisconsin. The pilot is aimed at consolidating 
highly fractionated interests in allotted Indian lands, to improve the 
economic productivity of and reduce the cost of administering these 
lands. The 2000 request will allow the pilot program to be expanded to 
one or more additional reservations. While funded under OST, BIA will 
continue to lead pilot implementation.
Improvement initiatives
    The 2000 request provides a total of $65.3 million for trust 
management reform activities of OST, BIA, and the office of Hearing and 
Appeals, which will be necessary to continue systems contracts already 
in place, eliminate programmatic backlogs, and strengthen support 
functions. Specifically, the request provides:
  --$21.8 million to replace BIA's key trust management systems (lease 
        management, accounts receivable, land records, and trust 
        resources management) by the end of 2000 and related pre 
        conversion data cleanup costs.
  --$12.6 million to eliminate appraisal and probate backlogs in BIA 
        and OHA to ensure trust beneficiaries receive timely 
        distributions of trust assets.
  --$16.4 million for OST's off the shelf trust fund accounting system 
        that will be installed nationwide by the end of 1999, and 
        related post conversion data cleanup.
  --$14.5 million for strengthening support functions: internal 
        controls, records management, policies and procedures and 
        training.
  --Approximately $50 million of the $65 million requested for trust 
        management improvements or 75 percent of these funds will be 
        obligated through contracts.
Operations
    The OST's budget includes $17.9 million to be utilized to conduct 
day-to-day operations of financial trust activities at the Office of 
Trust Funds Management (OTFM) including the field staff and support 
services. Included in the request is an additional $.7 million for 
fixed costs such as pay raises, and space costs paid to the General 
Services Administration and other fixed costs.
Settlement & litigation support
    An increase of $1.9 million is requested to fund the Office of 
Trust Litigation Support and Records ongoing activities in litigation, 
including Cobell vs. Babbitt document production requirements and 
funding needed to prepare and begin implementation of a Tribal 
settlement legislative proposal.
Executive direction
    The budget provides $1.6 million for Executive Direction, which 
supports staffing of the immediate Office of the Special Trustee and 
includes $250,000 for support of the Intertribal Monitoring Association 
and $85,000 for the Advisory Board. These groups advise the OST on 
trust funds matters. The funding for the OST staff will be essential 
for the implementation of the trust improvement efforts.
    This concludes my opening statement, Mr. Chairman. I will be 
pleased to answer questions of the Subcommittee.

                        fiscal year 2000 funding

    Senator Gorton. Well, Mr. Thompson, you have given us a 
wonderful report of very real success. But, of course, the 
better the report is, the more relevant the question becomes. 
Assuming that you get your supplemental, if your year 2000 
appropriation is no larger than this year's together with the 
supplemental, will you not be able to keep up the same degree 
of progress?
    Mr. Thompson. What it will do is retard our ability to roll 
out these systems further than we have them right now. BIA will 
not be able to take the trust asset and accounting management 
system beyond the pilot in Billings area. That will rule out 
for the rest of the BIA as scheduled for year 2000. The funding 
we have now supports only the initial stages of that system.
    We are in the process of rolling out the trust fund 
accounting system in the OST office. We will have to re-look 
and decide if we can move it out into all of the BIA offices 
with the amount of funding we have right now. I do not believe 
we can do that.

                         future budget requests

    Senator Gorton. Would there be major increases beyond the 
year 2000 or will you be able to get all of these initiatives 
accomplished with this appropriation?
    Mr. Thompson. We would expect that the request for 
appropriations in future years will come down. This is the peak 
year by the way the schedule was set up. It peaks because we 
have major systems development and major cleanup activities 
occurring at the end of 1999 and through 2000. That is not to 
say that the work will all be done, but this clearly is the 
peak year. We will bring the figure down from 2001 on out.
    Senator Gorton. Well, whatever our ability to do that, I 
can tell you that we will work with the House to come up with 
an appropriate supplemental for you.
    Mr. Thompson. We cannot ask for anything more.

                    consolidation of trust functions

    Senator Gorton. We do think you have started out on your 
proposed course of action very, very well. Is the process of 
consolidating and gathering trust functions into your office 
complete?
    Mr. Thompson. The effort to consolidate trust functions is 
centered on our internal business of operating the trust fund's 
management side. As you know, the Secretary in 1997 said that 
we were going to make these reforms under the current 
organizational structure. That is, we would not move to the 
structure recommended by the former Special Trustee, Paul 
Homan, who recommended we take these functions out of the 
Department of the Interior.
    The Secretary wants to try and work this out internally. 
That is why you see Kevin Gover and I sitting arm in arm here 
at the table. It is working well now. Time remains to see how 
it is going to work in the future.
    In our case, we are moving to consolidate some of our 
accounting business in the Albuquerque office of the trust 
fund's management. Included in that is moving to centralize the 
data entry. We are also moving to centralize our trust records 
at a single site in Albuquerque.

                     staff support for improvements

    Senator Gorton. Mr. Gover, maybe this part of the question 
is for you: Has the Secretary created all the new support 
offices he needs to address trust management reform?
    Mr. Gover. I believe that we have, Mr. Chairman. We have 
established a separate project team to attack the Cobell versus 
Babbitt document production. Within, of course, Tom's 
organization there are various project teams to work on their 
elements of the overall project.
    Within BIA, we have established a similar structure, where 
we have project directors on each of our three primary projects 
and then an overall director of our trust management 
activities.
    So I believe that structurally we are in the right position 
now. Maybe it really should have been done sooner, but we are 
ready now. Tom is right, that if we can get this money in 
fiscal year 2000, then by the end of fiscal year 2000 we will 
be so far along that I think we would be able to declare a 
success in overhauling the system.

                               gao report

    Senator Gorton. Back to you, Mr. Thompson. In a report, a 
draft report, to Chairman Campbell, the GAO is critical of 
Interior's trust improvement plan, especially with respect to 
computer systems. What can you tell us, or what can either of 
you tell us, about these concerns and the way in which they 
have been responded to?
    Mr. Thompson. Sure. Mr. Chairman, the GAO has been working 
closely with us over the past year and a half as we move 
forward in this process. Their draft report, which the 
Department has responded to, had recommendations in two areas. 
One dealt with the manner in which the high level 
implementation plan was put together and rolled out, for which 
I was responsible.
    The second deals with the manner in which the BIA is 
planning and moving forward with its implementation of the 
trust asset and accounting management system. Our basic problem 
with the GAO report is that it is looking at a point in time 
that is probably 9 months ago and does not reflect what has 
happened----
    Senator Gorton. Would you have sent your own criticisms to 
Mr. Homan?
    Mr. Thompson. I am sorry, sir?
    Senator Gorton. I say is that--well, let us see. It is 
about 9 months ago, is it not, when you were Deputy Special 
Trustee, that you were critical of some trust management 
aspects of the plan?
    Mr. Thompson. Yes, and let me turn to that quickly. That 
was a note that I wrote to Mr. Homan the day before I presented 
the high-level plan for publication to the Department.
    Senator Gorton. I see.
    Mr. Thompson. In that I addressed what I considered to be 
risk to success in the way some of the plans were put together 
and the approach that some of those plans laid out. They 
reflected my professional opinion, my experience in the 
Department. Basically, the Secretary and the Department 
recognized those issues, pointed out that it was a very 
aggressive plan, and decided to move forward with the plan.
    There are lots of ways to do a plan, lots of ways to put a 
system out. That reflected my personal view.
    Senator Gorton. But you are saying that the GAO report was 
as of about that time.
    Mr. Thompson. That is correct. The GAO report, to go back 
to that, basically thought that the high-level implementation 
plan should have had more background and design documentation 
behind it. They were looking for some historical documents in 
our view that did not exist and that they thought should be 
developed before we move forward.
    With the Cobell litigation, with the time frame and 
commitment of the Secretary, we felt it was worth the minimal 
risk to move forward with a high-level plan and supplement that 
plan downstream with more detailed project plans, which we have 
done in many situations.
    The other issue that the GAO brought forward was the 
approach to developing the trust asset and accounting 
management system. They had very specific criticisms of that 
approach. In the sense of many people in the Department, 
including the Chief Information Officer, those views reflected 
a methodology for systems development that was basically 10-12 
years old.
    It was the sort of comments and the sort of concerns you 
would raise if you were developing a major mainframe computer 
system, where you develop all of the software from the ground 
up, from scratch, and you did not understand the functions that 
you were trying to take care of.
    In the case here, since we are buying these systems from 
commercial vendors who do this job every day, we felt 
comfortable that they had probably proven the systems and had 
dealt with the issues that the Department had not and had the 
foresight to see. It is a bit of a risk, but it was worth the 
risk in the view of the departmental management.

                             iim litigation

    Senator Gorton. I do not know which one of you this 
question is primarily addressed to. But apparently Judge 
Lamberth has set a trial date for June 10. Is that earlier than 
you expected? And does that have any impact on your budget 
request?
    Mr. Thompson. It is certainly earlier than we had hoped. It 
does not impact our budget request. The production of documents 
does not have to be completed before that trial. So in that 
respect, it is not affected.
    Mr. Gover. The impact from my perspective, Mr. Chairman, is 
that the trial, this trial, is on the adequacy of the high-
level implementation plan. We made commitments that we plan to 
move forward to correct in these 13 areas. We have done work in 
several of them successfully. Of course, driving those plans, 
supporting those plans, are the resources to do the job. They 
will watch very carefully our success in front of this 
committee.

                           land fractionation

    Senator Gorton. Give me a little bit more, if you will, Mr. 
Thompson, about the fractionation of Indian lands and trust 
management. You gave me a certain statistic with respect to 
Minnesota. Repeat that and tell me how widespread that is and 
what your long-range plan is in connection with it.
    Mr. Thompson. I may ask for some help from Kevin on this.
    Senator Gorton. That is fine.
    Mr. Thompson. Basically in 1887, Congress passed the 
General Allotment Act, which basically divided lands into 
allotments of 160, 80 and 40 acres. The intention was to give 
this land to Indian tribal members as an allotment, and then in 
25 years deed those lands to these tribal members, these 
individual Indians.
    However, the land never was deeded to these indiviual 
Indians and remains in trust. Therefore, without further 
guidance, we ended up with what is called fractionation. As the 
Indian population died intestate, the land became divided among 
the heirs. Basically, it gives each heir undivided interest in 
a parcel of land.
    I do not have the statistics at my fingertips about where 
we sit exactly. There are thousands and thousands of such 
interests.
    Senator Gorton. We were just handed this chart.
    Mr. Thompson. Yes. This gives you an idea of what happens 
over five generations. This is what happens to the ownership of 
the land over four or five generations, also.
    Mr. Gover. What we do know is that the average piece of 
Indian allotment property now has 40 owners. That is the 
average. Some have literally over 1,000. Those are, obviously, 
the oldest allotments and tend to be in the Great Lake states.
    Senator Gorton. What policy change is proposed to deal with 
that?

                       fractionation legislation

    Mr. Gover. Primarily the fractionation legislation that was 
actually introduced, I believe, in the House last year. We have 
asked again for the Indian Affairs Committee to consider this 
legislation. It would establish a revolving loan fund that 
would allow us to acquire from willing sellers the small 
interests. The interests, the loan, the money used to purchase 
the small interests, would be repaid out of revenues generated 
from the property itself. At the point it was----
    Senator Gorton. Well, now, would the BIA own those 
interests then?
    Mr. Gover. We would then turn the interest over to the 
tribe.
    Senator Gorton. OK.
    Mr. Gover. So the idea is to consolidate ownership in the 
tribe itself.
    Senator Gorton. So there would no longer be an allotments 
to individuals----
    Mr. Gover. Right.
    Senator Gorton [continuing]. Of those lands.
    Mr. Gover. Yes.
    Senator Gorton. The income that the tribe received from the 
lands would go to pay off the loans.
    Mr. Gover. Correct, and replenish----
    Senator Gorton. Then after that would be tribal interest.
    Mr. Gover. Right. That is right.
    Senator Gorton. Thank you.

                           budget priorities

    Mr. Thompson, and for both of you, I appreciate your 
testimony in this regard. I think given the nature of the 
budget problems with which we are faced, I am going to need you 
to think and at least privately communicate with us what the 
situation would be with respect to programs, if you do not get 
that full $100 million, you know, what your priorities are, 
what would come first or what would drop off first. We need to 
understand that.
    I would like very much to get this job done just as rapidly 
as you would. I just do not know whether I will be granted an 
allocation that is sufficient to do it. So we are going to need 
the help of both of you in setting priorities.
    With that, this portion of the hearing is over. Mr. 
Thompson, you and your people can leave or stay and listen, as 
you will, but your time is done. If you have more important 
things to do, we certainly understand that.
    Mr. Thompson. Thank you, Mr. Chairman. We will drop back 
here and wait a few more minutes to see if any other questions 
arise in this area to support Kevin.
    Senator Gorton. Fine.
    Mr. Thompson. Thank you for your time.

                    summary statement of kevin gover

    Senator Gorton. With that, Mr. Gover, we will hear your 
opening statement on general BIA matters.
    Mr. Gover. Thank you very much, Mr. Chairman. With me is 
Michael Anderson, the Deputy Assistant Secretary for Indian 
Affairs.
    Let me first thank the chair for all of the candor and the 
cooperation that we have received in the past year, 
particularly for the help we received in the fiscal year 1999 
budget.
    We are able to accomplish some important things with the 
additional law enforcement money and with the money that goes 
to the land consolidation pilots, so that we can prove this 
concept that if we go out and start buying these small 
interests, we can begin closing accounts, reducing 
administrative costs and reconsolidating land in tribal 
ownership.
    Let me make it as clear as Mr. Thompson did that the trust 
program is our top priority. Obviously, when we deal in many 
areas of human need, it is difficult to designate a single 
priority. Yet, it is clear to us that unless we attack this 
particular problem of trust management with everything we have, 
we are not going to get it done.
    We have seen halting starts in the past, where they got 
halfway through a reform and for some reason it just never 
crossed the finish line. So we are anxious to do everything 
that we possibly can in that area. To that end, as I stated 
before the committee on the other side, if other things have to 
suffer, they simply have to suffer in order for us to 
accomplish this objective.
    Having said that, we also appreciate the constraints within 
which the committee has to operate and know that not every 
request can be granted. We do want to designate our priorities 
to the committee, both in the trust area and in other program 
areas.
    Our two other priorities beyond trust are the same as 
yours. They are law enforcement and education. We have made a 
request for an additional $20 million for our law enforcement 
programs. Last year's money has been very effectively spent. As 
we promised the committee, less than 10 percent went to the 
creation of the new regional administration for law 
enforcement. Over 90 percent went to uniformed officers, 
criminal investigators, prison guards, and equipment and 
services for the tribes.
    The $20 million we are requesting this year would again be 
spent in a variety of ways, I think ideally on more uniformed 
officers. This would be the first priority. We have also put in 
a specific request for some high-grade radio equipment. One of 
the things that is happening to our officers is far too often 
they find themselves out of touch without any backup.
    That is due to distances, due to terrain, but mostly due to 
an old system that we have been sort of holding together for a 
number of years. With these new radios, we would be able to 
ensure that our officers are never alone in the field, or at 
least not out of communication with assistance.
    Let me also note for the record, Mr. Chairman, that in the 
past year, three tribal and BIA law enforcement officers died 
in the line of duty. In each case, they were car accidents, 
usually related to very long hours and the long distances that 
tribal police and BIA officers are forced to work.
    Turning next to schools, we have asked for increases in 
both the area of construction and school operations. If forced 
to choose between the two, I am confident that the problem with 
facilities is our most severe problem at this point.
    In the past year, we find ourselves responding to various 
crises in our facilities, whether it be a sprinkler system that 
does not work to much more serious issues, like PCB 
contamination in our classrooms.
    We had another incident where there was a very severe lead 
contamination to an entire school campus because of old heating 
equipment and some poor methods of disposing of the ash from 
the boiler.
    So as Senator Burns said earlier, our schools no longer 
represent in many cases an effective learning environment. 
While I am very pleased with the kind of progress that our 
instructional program is making in terms of educational 
reforms, in terms of the quality of the teachers and the 
personnel involved with the schools, we are basically providing 
a modern education in sub-modern facilities. We are very 
anxious to do something about that.
    Under the proposal we made this year, were the committee to 
grant our request and the necessary authorizing legislation be 
enacted, we would be able to complete the school construction 
priority list that has existed since 1992. The last of the 16 
schools could all be begun, not completed.
    But certainly the funds for all those schools could be 
committed in fiscal year 2000, so that we could turn our 
attention to the known backlog of other schools that need to be 
replaced.
    We estimate a minimum of 60 other schools that have to be 
replaced at a cost of a minimum of $1 billion. We realize that 
those are very large numbers.
    Senator Gorton. What share of all Indian students do these 
schools educate, as against the general public school systems 
of the states in which they are located?
    Mr. Gover. About 10 percent of all Indian students are in 
BIA schools, about 53,000 students.
    Senator Gorton. What determines those 10 percent? Are they, 
generally speaking, located far from an available public 
school?
    Mr. Gover. They do tend to be----
    Senator Gorton. How is it broken down?
    Mr. Gover. They do tend to be extremely rural. Of course, 
there was a time when BIA had schools at virtually every 
location, on every reservation. As time has passed and most of 
the reservations become far less remote, the Congress has 
chosen to provide that the kids would go to public school.
    The schools that remain, though, are, in general, in places 
like the Navajo Nation in the desert Southwest, in the northern 
great plains, and tend to be very remote from public schools.
    Senator Gorton. The public school districts that encompass 
Indian reservations and educate Indian children are 
beneficiaries of impact aid, are they not?
    Mr. Gover. Yes, they are. But without going into a 
dissertation on Impact Aid, it is not having all of the effect 
that one would expect, certainly not a dollar-per-dollar effect 
because of the equalization formulas that are in place in some 
states.
    So Impact Aid is good in the sense that it is additional 
resources for a school system, but it is not a dollar-for 
dollar addition to operating budgets in those school districts. 
So still, the public school districts are finding it extremely 
expensive to educate reservation children. Yet they continue to 
do so for 90 percent of the kids.
    Senator Gorton. Please go on.
    Mr. Gover. Let me mention quickly, Mr. Chairman, two 
committee directives that we received in the fiscal year 1999 
appropriations legislation, and report on their progress. 
First, again, let me apologize for the fact that we have not 
produced the TPA report by the April 1 date. We are very close 
to completing that work.
    We spent a good 9 months working with a workgroup 
consisting of tribal leaders, tribal program directors and BIA 
personnel, to develop some information that I think you are 
going to find very useful in understanding just how it is we 
allocate TPA.
    We think that it turns out that, in general, TPA is 
allocated in a rational way. There are exceptions, and we will 
point some of those out for the benefit of the committee, along 
with some suggestions on how those disparities ought to be 
dealt with.
    The committee also directed us to prepare a report on tort 
liability. We have again been working with tribal leaders and 
others to develop that report. We will be sending out a survey 
instrument to all of the tribes and to their insured by the end 
of this week. We expect a pretty quick return on that. It is 
not a complicated survey. We are very hopeful of having their 
report available to the committee by mid-summer.
    So we are making progress in both areas. We wish we might 
have moved a little faster, but we are doing the best that we 
can.
    So with that, Mr. Chairman, we obviously have a number of 
other specific requests that are all in the written statement. 
Let me just mention one relatively small ticket item, which is 
that we request the reestablishment of the Office of Alcohol 
and Substance Abuse Prevention. It is a $400,000 request.
    What we would like to do is simply to keep this issue on 
the front burner. It is a primary problem in most Indian 
communities. It is, in my mind, the single largest obstacle to 
real progress in the social and economic condition of 
reservation Indian people.
    While it is not appropriate for BIA to administer a large 
programmatic initiative to fund tribes to do this, it does seem 
to us that there is a place for the Bureau in the coordination 
of the many agencies in the Federal Government that fund these 
sorts of activities.
    We have established both a governmental workgroup and a 
tribal leader workgroup looking at these issues. They will 
produce two documents. One is a directory of resources 
available from the Federal Government for all aspects of 
alcohol and substance abuse prevention and treatment. Second, a 
catalog of successful tribal programs that have been identified 
by our tribal workgroup, most of whom are people who are 
themselves in recovery from alcoholism or addiction.
    Senator Gorton. Would such an office not be more 
appropriate in the Indian Health Service?
    Mr. Gover. We think that--well, first of all, the Congress 
has directed the establishment of an office in BIA. IHS does 
have a major initiative, but we have been working closely with 
them. We believe that should be the centerpiece of the effort.
    As I say, we do think there is a role for the Bureau in 
coordinating the various agencies throughout the Government. 
There are alcohol and substance abuse prevention funds 
everywhere from the Justice Department to the Housing and Urban 
Development, the Department of Education, and the White House.
    We found that they do not talk to each other a lot. We 
found that it has been a good place for us to be the ones to 
convene everyone so that we can coordinate our activities in 
working with the tribes a little better.

                           prepared statement

    Most of all, Mr. Chairman, I think it just sends an 
important message to Indian Country that it is part of the 
business of the Bureau of Indian Affairs to deal with this 
critical problem. To not have an effort, even if a small one, 
sends exactly the wrong signal, because this is the most 
disabling malady in virtually any Indian community in the 
country.
    With that, Mr. Chairman, I would be happy to answer any 
questions.
    Senator Gorton. Thank you.
    [The statement follows:]
                   Prepared Statement of Kevin Gover
    Good morning, Mr. Chairman and members of the Subcommittee: The 
Bureau of Indian Affairs (Bureau) is the primary agency of the Federal 
Government charged with the responsibility to administer Federal Indian 
policy and to fulfill the Federal trust responsibility for American 
Indian Tribes, Alaska native villages and Tribal organizations. Federal 
Indian policy and the trust responsibility are derived from the special 
legal and political relationship between the Tribes and the Federal 
Government. This unique (legal and political) relationship is rooted in 
American history. Much of Federal Indian policy evolves around this 
``special'' relationship which is often broadly expressed in terms of 
legal duties, moral obligations and expectancies that have arisen from 
the historical dealings between Tribes and the Federal Government.
    Today, the Bureau provides services directly, or through Self-
Determination contract, grant and compact agreements with Tribes, to 
more than 1.2 million American Indians and Alaska Natives in 31 states. 
The scope of Bureau programs is extensive and covers virtually the 
entire range of state and local government services.
    More importantly, the Bureau's programs are funded and operated in 
a highly decentralized manner with more than 90 percent of all 
appropriations expended at the local level with an increasing amount 
operated by Tribes and Tribal organizations under contracts or self-
governance compacts. In addition, the Bureau administers more than 43 
million acres of Tribally-owned land, more than 11 million acres of 
individually owned land held in trust status and 443,000 acres of 
Federally-owned land.
    The Bureau's most basic responsibilities are its trust obligations 
and facilitating Tribal self-determination. However, while the 
protection of trust resources is a fundamental responsibility, Tribal 
communities struggling to meet the basic needs of their communities 
must compete for the same limited resources the Bureau uses to protect 
trust resources. The Bureau's success relies on judiciously balancing 
these competing mandates.
                              organization
    The Bureau has two service components reporting to the Assistant 
Secretary-Indian Affairs:
    The Deputy Commissioner for Indian Affairs has line authority over 
12 Area Offices, 83 Agency offices, three subagencies, six field 
stations, and two irrigation project offices. The Deputy Commissioner 
provides program direction and support through the Directors for the 
Offices of Tribal Services, Trust Responsibilities, Law Enforcement, 
Economic Development, Management and Administration, Indian Gaming, and 
the Facilities Management and Construction Center.
    The Director of the Office of Indian Education Programs supervises 
26 education line officers stationed throughout the country and two 
post-secondary schools. During the 1997-98 school year, the Office of 
Indian Education Programs supported the operation of 115 day schools, 
56 boarding schools, and 14 dormitories which house Indian children who 
attend public schools.
    The Bureau's headquarters offices are located in Washington, D.C. 
and Albuquerque, New Mexico. The Bureau's organization and regions are 
outlined in the justifications. As a highly decentralized organization, 
nearly 95 percent of Bureau's staff work is performed in schools, Area 
and Agency offices, and other field locations.
    In fiscal year 1996, the Office of Trust Funds Management was 
transferred from the Bureau to the Office of Special Trustee pursuant 
to Secretarial Order 3197.
    At the end of fiscal year 1998, the Bureau's total employment was 
9,687 full-time equivalents.
                    fiscal year 2000 budget summary
    The 2000 budget request for the Bureau is $1,902,054,000 in current 
appropriations, an increase of $155,626,000 above the 1999 Enacted 
level. The budget stresses the resources Tribes need to provide basic 
reservation programs and develop strong and stable governments, ensure 
accreditation of Bureau schools, address critical infrastructure needs, 
and meet the Secretary's trust responsibilities. The Bureau continues 
to keep administrative costs low; more than 9 of every 10 dollars 
appropriated to the Bureau is provided directly to programs on Indian 
reservations. The request allows the Bureau to attain its goals which 
are designed to meet the commitment to American Indians and Alaska 
Natives as outlined in its Strategic Plan and annual performance plans.
    The fiscal year 2000 budget request for the Bureau seeks to 
maintain core existing programs on behalf of our trust responsibilities 
and commitments to facilitate self-determination for American Indians 
and Alaska Natives. While the Bureau has evolved in its role as trustee 
for the American Indian and Alaska Natives from the paternalism of the 
1800's to its role today as partner, Tribes continue to turn to the 
Bureau for a broad spectrum of critical and complex programs 
administered either by the Tribes or the Bureau--from an education 
system for more than 53,000 elementary and secondary students; to 28 
Tribally Controlled Community Colleges; to law enforcement and 
detention services on more than 200 reservations; to social services 
programs for children, families, the elderly and the disabled; to 
management of the forest, mineral, fishery and farmland resources on 
trust land; to the maintenance of more than 25,000 miles of roads on 
rural and isolated reservations; to economic development programs in 
some of the more depressed areas in the nation; to the implementation 
of legislated land and water claim settlements; to the replacement and 
repair of schools; and to the repair of structural deficiencies on high 
hazard dams. The joint Trust and Federal responsibilities are daunting 
as the Bureau strives to uphold the President's commitment to the 
American Indian and Alaska Native; Indian Country needs in every 
program are massive.
                      operation of indian programs
    For fiscal year 2000, the total request for Operation of Indian 
Programs is $1,694,387,000, an increase of $110,263,000 over the fiscal 
year 1999 Enacted level.
Tribal priority allocations (TPA)
    TPA provides the principal source of funds for local units of 
Tribal Government, most of which are small and lack independent 
resources to meet the increasing costs of Tribal government operations. 
Beginning with fiscal year 1998, TPA comprises nearly half of the 
Bureau's operating budget. Increased funding in TPA is consistent with 
the Bureau's Strategic Plan and Annual Performance Plan. For fiscal 
year 2000, the TPA activity is funded at $716,139,000, an increase of 
$17,131,000 over the fiscal year 1999 Enacted level, which will help 
Tribes address some of the unmet needs in these basic programs. 
Shortfalls in these programs have become particularly serious with the 
reductions in this activity since 1995.
    Program increases proposed in this budget submission include 
$2,058,000 for New Tribes to support 8 new Tribes as they begin to 
establish viable Tribal government operations. Federal recognition, 
supervision and support over some Tribes was terminated by an Act of 
Congress. Others may not have become Federally recognized because they 
made no treaty with the United States prior to 1871 when treaty-making 
was prohibited by the Congress; or they may have negotiated a treaty 
which was not ratified by the Senate. A Federal court ruled in 1975 
that the United States has a trust responsibility to existing Tribes, 
regardless of whether the Government has acknowledged that 
responsibility by past Federal actions or previous recognition of the 
Tribe.
    An increase requested for Contract Support will provide $6,447,000 
over the 1999 Enacted level. In fiscal year 1998, the Bureau was able 
to provide only 80.34 percent of contract support needs, which has 
resulted in significant concern, anger and hardship with Tribes 
throughout Indian Country. Tribes are discussing the possibility of 
retrocession of programs back to the Bureau because appropriations are 
not sufficient to meet the rates as negotiated between the Tribes and 
the Office of the Inspector General. Given the downsizing at the 
Central, Area and Agency level that resulted from the severe budget 
reductions in fiscal year 1996, the Bureau has neither the staff nor 
the funding to resume Tribally-operated programs. The end result of 
retrocession would be no services provided to Indian families and 
communities, which is in direct conflict with the President's 
commitment of self-determination to Tribes. Given the level of budget 
reductions and increasing populations in Indian communities throughout 
the country in recent years, Tribes are challenged every day to 
maintain even level services.
    An increase of $3,000,000 is proposed for Small Tribes to support 
the operation of viable Tribal Governments in the State of Alaska. The 
requested funds will go entirely to small Tribes in the State of Alaska 
to move those Native Alaskans toward the Task Force recommended minimum 
level of funding of $200,000. An increase of $2,048,000 is requested 
for Welfare Assistance geared towards its Tribal Work Experience 
Program (TWEP) component. TWEP programs are administered by the Tribes 
for eligible general assistance recipients to provide these Indian 
individuals with the resources and means to gain proper work experience 
and job skills needed to successfully compete in the job market. It is 
an investment in recipients today to move them towards self-sufficiency 
tomorrow.
    An increase of $2.0 million is requested for Adult Care Facility 
Rehabilitation to bring 7 adult long-term care facilities on the Navajo 
Reservation to standard condition. Once the standard is attained, the 
facilities are eligible for funding of their operation and maintenance 
costs from the State Medicare, Medicaid, and other programs.
Other recurring programs
    The prominent theme for the new millennium described by the 
President is the education of our children. The Bureau is responsible 
for the only major domestic elementary and secondary education system 
operated by the Federal Government. As such, it is incumbent that this 
system reflects the high standards President Clinton has set for all 
education. The request for school Operations, which will fund schools 
and dormitories serving more than 53,000 elementary and secondary 
students in 23 States, is $503,568,000, a program increase of 
$27,482,000 over the fiscal year 1999 Enacted level. The increase will 
ensure that schools can deliver quality education and provide safe and 
adequate transportation for an estimated increase in enrollment. 
Increases are also proposed in facilities operations, facilities 
maintenance, and administrative cost grants to encourage the 
continuation of schools going into grant status and under Tribal 
control.
    The budget increases operating grants to the 28 Tribally controlled 
community colleges by $7,100,000 over fiscal year 1999. The colleges 
have been successful in providing Indian youth with college degrees and 
eventual professional employment. They also promote entrepreneurship on 
reservations.
    An increase of $1.0 million is requested to assist Tribes in the 
return of the bison to Indian homelands and for the prudent development 
and management of bison herds and habitat on Indian reservations. Bison 
are sacred to American Indians and represent a powerful symbol of 
America and its heritage as a Nation.
Non-recurring programs
    The budget includes trust investments crucial to program 
performance in the out years. The request level for the Bureau's 
environmental management program is $9,809,000, an increase of $3 
million more than appropriated in fiscal year 1999, to begin to address 
an estimated $200 million backlog of environmental cleanup work in 
Indian communities throughout the country. The EPA has demonstrated a 
vigorous interest in the Bureau's environmental compliance in recent 
years and has directed its enforcement actions at Bureau locations. The 
request level will provide the resources for the Bureau to conduct 
baseline assessments of all Bureau facilities and operations by the end 
of fiscal year 2002. An additional $1,247,000 is requested for 
endangered species to increase the number of Federally listed 
threatened and endangered species as well as support Tribal 
participation in species recovery. An additional $1,100,000 is 
requested for the Navajo-Hopi Settlement Program to provide services in 
areas that have been under served as a result of the Navajo-Hopi 
disagreement. Other program increases include $4,002,000 for Water 
Rights Negotiation, $1,000,000 for Federal Energy Regulatory Commission 
re-licensing activities.
Other programs
    An additional $400,000 is proposed for the establishment of the 
Office of Alcohol and Substance Abuse Prevention to help stem the flow 
of alcohol abuse and illegal drugs in Indian Country. An increase of 
$900,000 is requested for a post secondary school, the Southwestern 
Indian Polytechnic Institute, to handle the increased need for 
resources due to its rising curriculum and enrollment.
                              construction
    The request for the Bureau Construction appropriation is 
$174,258,000, with $108,377,000 for Education Construction. The Bureau 
will continue to make progress in eliminating the unobligated balances 
in Construction facilities projects. Increased emphasis on Tribal 
contracting for projects will be supported by the Bureau's Facilities 
Management and Construction Center awarding and approving officials 
until the Tribes and Agencies are fully trained to take over the 
construction contracting challenge.
                          special initiatives
Law enforcement in indian country
    Fiscal year 2000 represents the second year of the multi-year 
Presidential Initiative on Law Enforcement in Indian Country, a 
jointeffort by the Bureau and the Department of Justice (DOJ), to 
combat the rising crime rates in Indian Country to fulfill the 
Presidential directive to the Secretary of the Interior and the United 
States Attorney General to work with Tribal Leaders to improve public 
safety in Indian Country.
    Pursuant to the Final Report of the Executive Committee for Indian 
Country Law Enforcement Improvements, significant investment by the 
Government is necessary to stem the increasing problem of crime in 
Indian Country. In simple terms, current resources are inadequate; 
continued infusion of manpower and financial resources are necessary to 
ensure that Indian communities receive the same quality and quantity of 
law enforcement services as their non-Indian counterparts.
    The initial investment in fiscal year 1999 for the Initiative 
provides the foundation from which the Bureau can begin addressing the 
shortages in law enforcement, but much more resources are needed to 
adequately respond to the concerns as outlined in the Final Report. The 
requested increase of $20.0 million continues to build on this 
foundation while complementing the efforts of the DOJ to maximize the 
use of the Federal dollar.
                             tribal courts
    Going hand in hand with increasing the resources for law 
enforcement in Indian Country is the ability of Tribal Governments to 
handle the accompanying increase in caseloads; the fiscal year 2000 
increase requested is $2,565,000. More than 250 Tribal justice systems 
and courts of Indian offenses (serving 40 Tribes) are supported by 
Bureau funds. These Tribal courts must face the same issues State and 
Federal courts confront every day, such as child sexual abuse, alcohol 
and substance abuse, gang violence, and violence against women. Tribal 
court systems have historically been under funded and understaffed. 
With the Presidential Initiative on Law Enforcement in Indian Country 
underway to improve law enforcement services in Indian Country, it is 
essential that additional support be provided to Tribal courts as it is 
expected with the effort to clean up crime, Tribal courts caseloads 
will increase dramatically. Tribal courts must have the capacity to 
adjudicate the resulting criminal cases and resolve disputes. This 
effort complements the Department of Justice's efforts to provide one-
time (competitive) grant support to Tribes.
    In addition, Public Law 103-176, the Indian Tribal Justice Act, 
recognizes the situation in Indian Country to improve its judicial 
function to assist in keeping law and order for its constituency. The 
Bureau's requested increase will also focus on providing initial 
funding to Tribes for implementation of the Act.
                      alcohol and substance abuse
    Another factor in the efforts to reduce crime is the influence and 
effect of alcohol and substance abuse in Indian Country. An additional 
$400,000 is requested in fiscal year 2000 to establish the Office of 
Alcohol and Substance Abuse to provide training and technical 
assistance on prevention efforts and implementation by Tribes of their 
Tribal Action Plans regarding programs designed to reduce the incidents 
of alcohol and substance abuse in their communities.
                         education construction
Replacement school construction
    Eight-two percent of the Bureau's building square footage is 
education space; the majority of the buildings are old and often in 
poor condition. With the Bureau responsible for the only major domestic 
elementary and secondary education system operated by the Federal 
Government, it is vital that we provide adequate facilities for this 
Nation's Indian school children to obtain an education. Research has 
demonstrated that placing instructional and residential programs in 
facilities that do not meet health and safety codes distract from the 
educational program. A point made by the President in Executive Order 
13096, which calls for creating educational opportunities for American 
Indian and Alaska Native students in our nation.
    To this end, the fiscal year 2000 request provides for a requested 
level of $39,859,000 for replacement of two schools--Seba Dalkai and 
Fond du Lac Ojibway--on the existing priority list for school 
replacement. As the President has stated in his call for modernization 
of our schools, it is through construction that our Nation will begin 
to meet our generation's historic responsibility to create 21st century 
schools. Schools may be operated directly by the Bureau or operated by 
Tribal organizations under the contracting authorities of Public Law 
93-638, as amended, or Public Law 100-297 grant.
    The Bureau's request is an intricate part of the President's 
education agenda which seeks to reduce class size and help communities 
renovate and build new schools. The request is also part of the 
Department's 5-Year Maintenance and Capital Improvement Plan.
    The Bureau is moving forward to eliminate its code and standard 
deficiencies, currently estimated for school-related facilities alone 
at approximately $743.0 million; the Bureau's total facilities backlog 
for education and non-education facilities is nearing the $1.0 billion 
mark. Projects included in the Plan outline the comprehensive strategy 
of the Department to address the most critical needs in the Bureau's 
backlog of construction and maintenance requirements. It is the most 
in-depth analysis and display of the enormity of the dire situation 
facing the Bureau in trying to maintain its facilities for the 
consumers we serve. It is a comprehensive list, causing the Bureau to 
reassess and validate its many facilities located throughout the Nation 
to fully capture the challenge we face in maintaining our 
responsibilities for Bureau-owned facilities and providing for safe and 
health environments for our constituency. The requested funding level 
of $39,859,000 for replacement school construction, a key factor in the 
success of the President's revitalization of Indian education, will 
greatly assist in reducing the mounting backlog of construction needs.
School bond initiative
    An increase of $30 million is requested in fiscal year 2000 for 
school construction to enable Tribes and/or Tribal organizations to 
defease qualified school construction bonds by ensuring the repayment 
of principal to bond holders. This proposal is part of the 
Administration's school modernization initiative to provide school 
repairs and replacement in needy public school districts throughout the 
country. Funding for additional school construction or repairs is 
proposed as part of the second year of the Administration's facilities 
restoration initiative. These funds emphasize the Administration's 
commitment to the long-term stewardship of Federal lands and 
facilities.
            secretary's trust management improvement project
    Over $37 million is requested in the Office of the Special 
Trustee's 2000 Budget for the Bureau's components of the Trust 
Management Improvement Project's High Level Implementation Plan. Since 
the Plan's publication last July, BIA has been making steady progress 
in its trust reform efforts. Most significantly, in December 1998, the 
Bureau contracted with Artesia Data Systems of Dallas, Texas, for a new 
Trust Asset and Accounting Management System to replace the aging and 
antiquated automated systems for land title operations and land and 
lease management functions. The system will be piloted in the Billings 
area in June 1999, and the balance of areas are expected to be 
converted by December 2000. Additionally, in February, the Bureau 
awarded a data cleanup contract for Billings and Juneau areas. BIA's 
pre-conversion data cleanup process is expected to be completed by 
December 2000.
    This concludes my opening statement, Mr. Chairman. I will be 
pleased to answer questions of the Subcommittee.

                            law enforcement

    Senator Gorton. You started with law enforcement, so I will 
start with law enforcement, too. Tell me the source of all law 
enforcement funds. Are the funds that are appropriated by this 
subcommittee the only funds that go into law enforcement on 
Indian reservations? Do some come from the Department of 
Justice or some other Federal programs?
    Mr. Gover. All three of those. The primary and the largest 
source of funding is the Office of Law Enforcement Services. 
Those funds are spent on the reservations in three ways, either 
by the Bureau directly--and we do maintain our own police 
forces.
    Our own BIA personnel carry out the law enforcement 
function in many communities--through self-determination 
contracts, where the tribe contracts with us using funds we 
provide to provide those law enforcement services in the 
community, and finally through self-governance compacts, which 
are similar to the contracts in that we provide the funding for 
the tribe to carry out the services themselves.
    In addition, we have done a survey, based on your question 
to me last year, and found that at least $30 million additional 
dollars are put into tribal law enforcement programs by the 
tribes themselves. That is a partial number, because we have 
not heard from every tribe. But of the, I believe it was, 150 
tribes we did get responses from, we know that they are 
contributing at least $30 million in addition to what the 
Bureau provides.
    Finally, the Department of Justice was provided $88 million 
by the Congress last year to support reservation law 
enforcement. I believe $30 million to $35 million of that was 
for uniformed officers on the reservations. That in total comes 
to probably around $160 million, $170 million.
    Senator Gorton. Did the tribes get all the money they were 
entitled to out of the Department of Justice funds?
    Mr. Gover. Not yet. But the grants--the time for when those 
grants go out has just arrived. So those grants will begin to 
be made this month, in fact.
    Senator Gorton. How do you determine the distribution of 
the funds that go to the tribes themselves, either by contract 
or to self-governing tribes, as opposed to your own BIA people? 
I rather suspect you have applications for more money than you 
can distribute, do you not?
    Mr. Gover. We do. In the past year what we have had to do 
is focus on the BIA-operated programs. Approximately 60 percent 
of the $20 million increase went to the BIA programs. They 
tended to be the least, or the most, understaffed and under-
funded in the country. So we did do that.
    Plus the tribes are eligible for the Justice Department 
grants and Bureau of Indian Affairs programs are not. So given 
that the tribes had other options and the BIA had none, we 
thought it important to bring the BIA programs up to at least a 
level where we do not have single officer locations out there. 
That was all too common prior to fiscal year 1999.
    Senator Gorton. I do remember your testifying to that last 
year. To refresh my recollection, are the BIA officers 
generally used on smaller reservations? Is there any 
correlation between the size of the reservation and whether it 
has its own officers or yours?
    Mr. Gover. Some correlation. It tends to be the smaller 
reservations, but there are many exceptions to that 
observation. We do provide law enforcement services on several 
of the larger reservations.
    Senator Gorton. Let us go now to education. You said it is 
my priority and yours as well, although we have the triple 
problem of attempting to determine how much goes to operations, 
how much to construction and how much to repair. By my notes, 
Congress has provided funding for 10 of the 16 schools on the 
BIA's replacement school priority list. The remaining 6 would 
cost, we understand, about $111 million. You have asked for $40 
million for 2 of those.
    In requesting funds for Seba Dalkai and Fond du Lac, the 
Bureau skipped over Shiprock in New Mexico and the Tuba City 
school. I understand that Tuba City's design is not complete, 
but Shiprock would be ready for construction. Concerned tribes 
have contacted us, and I am sure you, about this.
    I have had the general feeling that we ought to follow the 
priority list, rather than to deal with this in any kind of 
political fashion. Can the funding be phased in such a way as 
to follow the priority list?
    Mr. Gover. Mr. Chairman, I actually do not know the answer 
to that. I can certainly ask our construction staff if that is 
a possibility. That is a good idea. We would prefer not to skip 
over a school. I think very simply the decision was made that 
even though the money to construct the schools were smilar, it 
was better to build two schools than just one. Had we gone with 
Shiprock, that would have been a single school in the 
construction program in fiscal year 2000.
    Senator Gorton. Will we get the same answer from you next 
year?
    Mr. Gover. Let me find out if we can phase that in, because 
I think that is an excellent compromise to having to chose 
between the schools.
    [The information follows:]
                 Phased Funding for School Construction
    Full funding for an entire capital project is preferable, 
particularly if the project cannot be divided into more than one useful 
segment. The replacement schools that are proposed in the fiscal year 
2000 President's budget are designed as single integrated structures. 
Providing phased funding could result in construction scheduling delays 
and lack of functional facilities to house the students in a timely 
manner. Also, Tribes that undertake construction or repairs through 
contract of grant are reluctant to accept phased funding because of 
difficultly in sub-contracting phases of a project. There is the 
potential for different companies being awarded sub-contracts on phased 
projects, which would interfere with one another and the overall 
continuity of construction of the facilities. Of the two schools 
proposed for replacement in the budget request, one is being contracted 
with the Seba Dalkai School Board, Inc. and the other is proposed for a 
grant award with the Fond du Lac Ojibway Tribe. In addition, 
incremental funding for a capital asset, in which funds could be 
obligated to start the segment (or project), despite the fact that the 
funds are insufficient to complete a useful segment or project, is 
inconsistent under Office of Management and Budget Circular A-11, 
Preparation and Submission of Budget Estimates.
    Shiprock Alternative School is scheduled to completer design in 
September 1999, thus the school would be ready for construction funding 
as early as fiscal year 2000. Although, phasing is not recommended, the 
school construction could be addressed in the same manner as Pyramid 
Lake and Sac and Fox School were in the fiscal year 1998 
appropriations.

                                schools

    Senator Gorton. I can certainly sympathize with your 
problems. The highest priority I find in members of my 
subcommittee is always the school in their state.
    Mr. Gover. Yes; well, two schools represent four votes. 
[Laughter.]
    Senator Gorton. Both here and there, I assume.
    Now, you have already told us that for the long range you 
have a billion dollars' worth of school construction. For how 
many schools?
    Mr. Gover. For at least 60 that we know we have to replace. 
We are very close, in fact, we have delivered to OMB the report 
that I guess it was this subcommittee that requested it last 
year, a 5-year plan for doing away with or eradicating the 
backlog. We expect that to be ready, again, before the end of 
the month. The committee will have that available as well.
    The bottom line, of course, is money. We are trying and 
using every advantage that the scoring system offers to try to 
generate more funds in as painless a way as possible and 
without diminishing other priorities. But, for example, the 
additional $30 million that we request beyond the $30 million 
that you mentioned will support about $70 million to $75 
million in bonding.
    It would allow the principal repayment of $70 million to 
$75 million in bonds, if the President's School Construction 
Initiative were enacted.
    Senator Gorton. Well, that is a good question, and of 
course a big if.
    Mr. Gover. Yes.
    Senator Gorton. Do you know where that legislation is at 
this point?
    Mr. Gover. I do not. I do not know. I am not aware that 
there has been a sponsor. I am sure that the legislation is 
prepared, because I have seen it. But I do not even know that 
it has been sent to the Congress yet.
    Senator Gorton. Was the Bureau an active part in drafting 
that bonding legislation?
    Mr. Gover. We were in the sense that once the idea began to 
make the circuit around the various agencies, we were certainly 
allowed our input. I think our comments were taken seriously 
and reflected in the legislation.
    Senator Gorton. Where would the money come from to repay 
the bonds?
    Mr. Gover. The money to repay the bonds would--basically 
what we would do is take this $30 million and invest it so that 
in 15 years, it would represent the amount necessary to pay off 
the principal of the bonds, whatever that might be. That is why 
I say the $30 million would support about $70 million to $75 
million in bonds, because we would invest it, and repay the 
bonds at the end of 15 years.
    Senator Gorton. You would invest it where?
    Mr. Gover. In Federal securities, obviously in T-bills and 
that sort of thing, so they are no-risk investments. The 
interest payments on those bonds come in the form of tax 
credits to the bondholders. That is the idea behind the 
President's initiative.
    So for that $30 million, the tribes would be able to issue 
over $70 million in bonds. That would allow for that much 
school construction. That is why we say we could finish the 16-
school priority list in fiscal year 2000 were the authorizing 
legislation to be enacted and were the committee to grant our 
request.
    Senator Gorton. Let us go on to school repair. Are we even 
keeping up with repair and maintenance and remodeling needs?
    Mr. Gover. No. We are losing ground in repair as well. What 
you see in the request that is before you, represents only the 
most critical health and safety needs. It does not represent 
the money that we need to properly maintain these facilities.
    One of the questions the Congress has to ask and that we 
have to address is, it will make no sense for us to build a lot 
of new schools only to have them fall into disrepair and fall 
far short of their useful life. So we really are talking about 
a major commitment.
    Even were the Congress to fund all the school construction 
that is necessary, the maintenance requirements would be large, 
but well worth it. It is better than replacing all these 
schools. One of the reasons we need to replace so many schools 
is they were never properly maintained.
    Senator Gorton. Before going on, I would just like to say I 
do not have any particular questions about school operations, 
but obviously the day-to-day operations, the teachers, your 
recruitment and the like, is vitally important as well. Part of 
the excruciating nature of dividing up an inadequate amount of 
money for all of our programs, both within Indian programs and 
across our subcommittee's jurisdiction, is just that. It is 
setting priorities of money needs to various entities.
    Obviously, my statement is the same to you as it was to the 
special trustee. You have heard this before. It really is 
doubtful that all of these initiatives are going to pass that 
are of a legislative nature, or that we are going to have the 
kind of money that I would consider quite appropriate for the 
Department of Interior programs.
    So again this year as we had last year, we are going to 
need your help, at least informally, in setting priorities.
    Senator Dorgan is here now. Each of the members who has 
been here has either two or three hearings going on at the same 
time. Both the one on the Olympics and the one at the 
Department of Energy are hearings of committees on which I am a 
member.
    So, Senator Dorgan, I think I will simply turn it over to 
you for whatever statement you would like to make. When you are 
finished, you may adjourn the hearing, unless someone else is 
here. If that is the case, you can turn it over to them.
    Senator Dorgan. Well, Mr. Chairman, thank you. I will be 
able to conduct a fair amount of business in your absence. 
[Laughter.]
    Senator Gorton. In my absence, I suspect you will. You do 
not have a sufficient quorum to spend any money, though.
    Senator Dorgan. You are right. You are correct.
    Senator Gorton. So we will trust you.
    Senator Dorgan [presiding]. You are correct about that. 
[Laughter.]
    Let me just mention to you that I have been at the Commerce 
Committee hearing and following this have to go to the hearing 
on the Energy Committee and the security at the labs. That is 
why I was not here for the statement.
    I have read Mr. Gover's statement, and I appreciate 
especially the work that you have done as subcommittee chairman 
on these issues. I would like to ask a couple questions. Thank 
you very much for your courtesy.
    Mr. Gover, let me focus just for a moment on Indian 
schools. Then I want to talk to you just for a moment about 
housing, as well, and health care. But on schools, the chairman 
indicated, and you know well, that we face a tremendous 
backlog. Frankly, the administration budget, I think at your 
urging, finally does begin to take some steps, halting steps, 
and probably inadequate steps, but some steps in the right 
direction.
    With these steps, we are not going to get to where we need 
to get to to make sure that these young children who are our 
responsibility, our trust responsibility, are being served the 
way we should serve them from an educational standpoint. Let me 
just mention a couple of schools for you. I could mention 
schools in other states that I know about as well, but let me 
mention the ones in North Dakota.
    At the Ojibwa Indian School there is report after report 
after report that tells us that these children are going to 
school in circumstances that are not appropriate and, in many 
cases, not safe.
    As you know, the central school building there is over 100 
years old and has been condemned. So the result is that you 
have all these kids placed in trailers.
    I have been there. I have seen exposed wiring. I have seen 
conditions that should not exist. We have reports that describe 
the circumstances. Some day, God forbid, there will be a fire 
in the middle of the winter that will sweep through those 
portable trailers, and there will be loss of life, loss of 
young lives. Everyone will scratch their heads and say: How did 
that happen?
    It happened because the Congress and the administration 
have not responded with the resources necessary to give those 
kids what they deserve, a school that is safe and a school that 
is good for their education needs.
    The Standing Rock School. I was at the Standing Rock 
School, as you know, last year. I worked with you extensively 
on that. Instead of worrying about their ABCs, those kids are 
worrying about PCBs. I mean, that school was closed. Those kids 
were all herded to the gymnasium with temporary partitions. 
When I grabbed the partition, you could swing them 6, 8, 12 
inches. I worried that those partitions would fall on those 
kids.
    We had to spend months and months cleaning up a PCB mess in 
a school, and that school still needs apparently anywhere from 
$8 million to $10 million investment.
    Cannon Ball Elementary School. That is not your 
responsibility, but it is a school just north of Fort Yates 
that has no tax base. A little third grade girl named Rosie 
said to me as I toured the school--it has 140 kids, two 
bathrooms and one water fountain and no capability to hook a 
computer into the Internet, over-crowded classrooms, a terrible 
situation. The bulk of that school has been condemned. One of 
the rooms they have to evacuate about weekly because of sewer 
gas coming up into the rooms these kids are using.
    The little girl said to me, ``Mr. Senator, can you build me 
a new school?''
    Well, regrettably, I cannot do that by myself. But that 
young third grader walking into a classroom is not well-served. 
Her future is not served by our lack of responsibility here to 
the needs of her and her classmates.
    So I just want to say to you that this need exists in a 
very critical way. We are not, the administration and the 
Congress are not, taking aggressive enough steps to meet it. In 
the majority budget that was just passed, Senator Domenici, I 
believe, added provisions for up to $200 million more in school 
construction above the administration budget. But we have to 
tell the President and OMB, and you know this, Mr. Gover, that 
this is a priority.
    Those children cannot fend for themselves. They are our 
responsibility. We have trust responsibility for them. The fact 
is we should be ashamed, we should be ashamed, for having put 
off the needed investments to make sure these kids are going to 
safe schools and good schools.
    It is unfair to these children, unfair to young second and 
third graders and fourth and fifth graders, to send them into 
classrooms that do not adequately prepare them and do safeguard 
them.
    So I just want to put in my statement again this year that 
I appreciate that you have gotten the administration to move in 
a halting way to add some things here. In fact, I know it is 
your work, because I worked with you to have the administration 
make certain that part of this school modernization program 
would apply to Indian schools as well. That only happened 
because we pushed to make that happen.
    But can you give me some response to how we not just get 
rid of this backlog or get rid of the list--no one even knows 
how the list was developed--but then how do we go beyond that 
to do what is necessary to meet our responsibility?
    Mr. Gover. Well, first, Senator, I agree with everything 
you have just said. As you know, we have advocated within the 
administration to increase the commitment to Indian schools. I 
am scared to death that what is ultimately going to happen is a 
tragedy like you described. Then everybody is going to say: 
Well, we have got to do something. You know, let us go fix 
this.
    But it is too late at that point. I do believe, and I will 
say this in defense of the administration, we made a certain 
request last year. We did not get what we asked for. We are 
reluctant to make a request that goes far beyond anything we 
have ever received until we start seeing the incremental 
increases that we have been asking for.
    I will also say that the total request this year represents 
$100 million in school construction. That is a lot. Yet that is 
not enough. That is not enough, but it is a lot. It is much 
more than has been thrown into the problem in the past.
    We are going to send the committee a report that will 
describe the schools that we believe need to be replaced, that 
estimates the amounts. It basically says: Here is what has to 
be spent in order to achieve this result of putting every BIA 
pupil in a safe school.
    From there, Senator Dorgan, I find it very frustrating that 
we even have to explain the obligation the United States 
undertakes when it chooses to have an elementary school. It 
offends me that--for example, we begin to look at the DOD 
school system that is maintained for military dependents. As 
one would expect, they have a sparkling school system, 
wonderful buildings, excellent teacher pay, and a great 
program.
    The only other school system the United States is 
responsible for directly are the BIA schools. Yet for some 
reason, notwithstanding the resources that go into the DOD 
schools, the BIA schools go begging year after year after year.
    One is left to draw the unfortunate conclusion--and I have 
had tribal leaders and school administrators say to me, ``Is it 
because we're Indians?'' I mean, how can they do this? How 
could the United States, the richest country in the world, do 
this to schools that it is responsible for?
    I will continue to push OMB. I will add that OMB has to 
clear the report we are going to send you that addresses this 
5-year plan. I am going to need your help to push these 
proposals through the administration. But I think, Senator, we 
just continue to make these points over and over again. I would 
love to have a conversation with the President about this, 
because I know he would not stand for it, if he knew this. But 
getting that message to the President is difficult.
    Senator Dorgan. Well, it is the President. It is this 
President, the past President, the one before him. It is the 
Congress, this Congress and every Congress before it, that has 
not met its responsibility. Just in recent weeks I toured a 
school on a military base, a wonderful school, one I was proud 
to see.
    I was proud of the teachers. I was glad that the students 
had the capability they had. These young tykes were showing me 
how they were doing all kinds of work on the Internet. What a 
great school, and what a wonderful thing for these students.
    Then I go to Ojibwa or I go to the gymnasium at Standing 
Rock and see the difference. I think, you know, it is the same 
responsibility that we have, and we are not meeting it. It is a 
tragedy for these young children. It is not their fault. I 
mean, it is not their fault they live in circumstances, in many 
cases, in circumstances of poverty where there is not an 
adequate tax base.
    We ought not walk a second or third grade young woman like 
Roseie through a school door and have to be ashamed of the 
school that young child enters when that school is our 
responsibility. We have a responsibility to do something about 
that.
    I would hope--incidentally, when you talk about OMB, I 
would hope that with Mr. Lew and others you would say to them: 
Here is what we need. None of this incremental nonsense. Here 
is what we need next year, now, in this budget to fix the 
schools and repair the schools and build the schools necessary 
to meet our responsibility to these kids. If they say, well, 
that is something we cannot even entertain, let us have a fight 
about that. But at least let us fight about the real number.
    You know, last fall in the omnibus appropriations bill that 
passed, $1 billion in emergency funds was stuck in for national 
missile defense, $1 billion that was not asked for, was not 
needed, was not requested by the Defense Department. I checked 
just in the last week, they could not use the $1 billion.
    They found a way to put $600 million of it in national 
missile defense contracts in very unique and creative ways, but 
it was creative to do that because they did not want it and did 
not need it, said they could not use it. The Congress said, 
``We demand we give you $1 billion more for national missile 
defense.''
    So even being very creative, they were able to find $600 
million to stick it in some of these little accounts; $400 
million they could not even use.
    Now that is last October, a priority by some here saying: 
National missile defense, the sky is the limit. We are willing 
to throw money at it. But education of Indian kids, sorry, that 
is just not a big priority. That is wrong.
    Now, Senator Domenici is coming in the room, and he has 
spent a lot of time and effort on this issue as well. We need, 
in my judgment, with this Congress and this administration, to 
confront this issue in a very significant and aggressive way to 
meet our responsibility to these kids.
    Let me just go to one other point, and then I know Senator 
Domenici will want to talk about this.
    Senator Domenici, we have been talking about education, 
repair, construction of these schools and the responsibility, 
the administration's budget, the responsibility of the 
administration and Congress in the recent two decades or so on 
this issue.
    I want to just turn to one other point. I have been trying 
to arrange a meeting at the White House, as you know, and we 
had to cancel it. It was scheduled for last Monday with Indian 
tribal leaders and others, talking about the emergency that 
exists in housing and health care.
    I told on the floor of the Senate a story about Sarah Swift 
Hawk, who, on January 2, died on the Rosebud Reservation. She 
was a grandmother. She went to bed at night in a house. Where 
windows would have been, there was thin plastic sheeting 
covering the holes. There was one cot. So the grandmother used 
the cot. Four children and the mother and father, they slept on 
the floor with two blankets, huddled together. The grandmother 
slept on the cot.
    It was 45 below zero that night. The next morning when they 
woke up, they found Sara dead, frozen to death. That is not in 
a third world country. That is here. That is in our country, 
and circumstances where we have a housing emergency as well in 
many of these areas.
    It is almost unthinkable, a house without windows, without 
adequate furniture, without heating. You have a grandmother 
laying on a cot freezing to death on January 2. I mean, it is 
just unthinkable. You read about this in third world countries, 
but not here.
    So we have this housing emergency. I have been deeply 
involved in trying to move houses that are going to be 
destroyed from military bases. We have saved hundreds of them 
from being bulldozed over. Instead, we are moving them to 
reservations. But we need money for infrastructure to hook them 
up to water and sewer and to heat.
    So all of these things represent just an overwhelming need: 
housing, health care, education. I have to confess to you, 
there are many times over the recent years I have thought, you 
know, the best thing is probably just to decide to let us 
abolish the Bureau of Indian Affairs. Let us just flat out 
abolish it. I do not know of anybody that has been able to come 
and grab the reins and make much of a difference.
    It probably pains you to hear that from me. I know you are 
trying very hard. But frankly, we do not have the resources. 
The resources have not been put into these accounts. I am not 
convinced that the BIA is not so bureaucratic it could not 
effectively use them anyway.
    So I just have this terrible frustration about the 
emergencies that I think exist in education for these innocent 
children, who so much deserve our help, and housing and health 
care. The stories, I could go on for an hour about what I have 
seen in housing and health care.
    You know, I hope that we can find a way to add substantial 
resources. I hope one day somebody would decide that sticking 
$1 billion in a program that nobody asked for and they cannot 
use would be much less a priority than using that money to help 
children and help others who are suffering immensely on some of 
these reservations.
    Mr. Gover. Well, again, Senator, I agree with most of what 
you said. I do think there is some good news here. For one 
thing, we have overhauled the way that the BIA spends its 
education construction money and reduced the amount of time it 
takes for us to build a school from 7 years down to 3 years and 
even manage to build one school in a single year, from design 
to ribbon cutting.
    That is very much to the credit of the Facilities 
Management and Construction Center, who literally have 
overhauled the way they do their business.
    Second, we are going to be begin to take new applications, 
applications for replacement school construction, for the first 
time since 1992. Now that is in anticipation that we are going 
to see some substantial funds so that we can complete the 
existing priority list. But nevertheless, at least we can begin 
to have that next generation of schools. So schools like Ojibwa 
can know that they are on the list at long last and that the 
trailers are not a permanent condition.
    I, too, wish that we had all the resources we need just to 
meet the basic human needs in Indian Country. We know that we 
fall far short. The TPA report that we will be providing later 
this month will demonstrate that very clearly.
    If it were up to me, we would get three times the money we 
get. I do believe we could spend it and spend it well. Most of 
our funds still go directly to the tribes so that they can 
provide the services. We would love for all of our service 
operations on the reservations to be handled by the tribes 
themselves.
    I think that if we got more money, more tribes would 
contract. The BIA has to be unique in the sense that the more 
money we get, the smaller our agency becomes, the fewer Federal 
employees there are, because that means the tribes are taking 
over these programs. That is what we want to see.
    So I sometimes get this overwhelming sense of despair, when 
you see the scope of the problems that exist in Indian Country. 
But I do not see that giving up is an option. So we will 
continue to try.
    Senator Dorgan. I am not suggesting giving up. I am 
suggesting being much, much more aggressive and trying to find 
a way in which we in Congress and the administration can 
understand our responsibility does not allow us to compromise 
on this issue. You cannot compromise on what you must provide 
for education purposes for these young children. They are our 
responsibility.
    You make the point, and I think it is absolutely accurate, 
and probably Senator Domenici has done the same thing. You go 
to a school on a military base and it is a wonderful school. 
You go to a school 50 miles away on an Indian reservation, in 
which we have the same responsibility, but they are different 
kids, and you find deplorable conditions.
    Now that is intolerable, and it ought to change. We must 
stop it.
    Let me call on my friend, Senator Domenici.
    Senator Domenici. Thank you very much. Are you the acting 
chairman this morning?
    Senator Dorgan. I have done a lot of business in the 
absence of the real chairman. He indicated that we should 
continue our questioning and then adjourn the hearing.
    Senator Domenici. Well, first, Mr. Secretary, let me 
apologize to you for being late. I would share with everyone 
the reason I was not here is we are having a closed hearing 
with reference to the espionage efforts by the People's 
Republic of China versus our nuclear weapon secrets. It is 
obviously a very serious problem. I called in a couple times to 
make sure you had not gone before I could get here.
    First let me say--if no one has said it, I will. If 
somebody else said it, it deserves being said again--you are 
doing a good job. You are very forthright with Members of the 
Congress. It is your objective to indicate where we cannot do 
what Indian people ask us to do, and you indicate clearly to us 
what you think we ought to do that we are not doing, and I 
compliment you for that.
    I think the Bureau is being run a little better, and thank 
you for that.
    Mr. Gover. Thank you.
    Senator Domenici. I do not think any good comes from saying 
we will solve the problem by getting rid of the Bureau of 
Indian Affairs. I think you were speaking figuratively, but 
what we need to do is make it work right.
    Now, we could get to a point where BIA cannot be as 
productive as it ought to be. Then we might get you up here and 
ask for some major way to change it. I do not think that date 
is too far away.
    Now having said that, let me just say, last year in the 
appropriations process, not merely in the budget resolution, we 
put language in the Interior report asking the President of the 
United States, and thus you--you cannot act without OMB's 
permission--to submit a school construction plan. We asked you 
to produce for us a 5-year plan to totally take care of the 
school construction needs in Indian country for BIA schools. 
Now we were not joking. We said we think if you do it, Mr. 
President, the President of the United States, we think 
Congress would fund it.
    Now frankly, I have to say, the administration fell far 
short of that. In fact, I do not think we still have a 5-year 
plan to build all the schools that need to be rebuilt and the 
major construction and maintenance issues that are there, 
which, incidentally, could be more than $1.2 billion, according 
to some estimates.
    Now what we got instead was, in my opinion, a very meager 
proposal regarding Indian school construction. I am not blaming 
you, Mr. Secretary. You have to do what you are told. I would 
not be surprised if, in the exchange of information that 
occurred, as you went through your two or three cycles with 
OMB, that you probably on behalf of the Indian people asked for 
a lot more money for Indian school construction than was given 
to you.
    But to come up with this small increase and then say we 
could participate in some bonding issue, when we are kind of 
bonding ourselves because it is the Government issuing bonds--
well, we do that when we spend more than we take in. We borrow 
money.
    So why would we have some special way to treat the taxpayer 
differently on those bonds? There are other bonds that are out 
there, if we want to incur debt. Just add it to that. We do not 
even have to incur debt. We have a surplus.
    So, look, I want to say to the Indian people, I do not know 
how much we will get this year. But we are trying very, very 
hard to get substantially more than the President suggested, to 
get on a path that we can tell you and tell Americans we are 
going to meet this responsibility once and for all. We are 
going to stop putting other priorities ahead of it.
    Now for anybody that does not believe this was not given a 
priority, then I would ask how come the President in his budget 
could have some 80 new programs and spend, you know, scores of 
millions of dollars for new things and not fund this need.
    I mean, I think a simple proposition could have been: 
Before we start anything new, could we take care of this? That 
would not have been a very difficult proposition. Frankly, you 
could have found the money, because you found the money in your 
budget for these other things.
    So I am very disturbed. I am sure my good friend, Senator 
Dorgan, is going to join me on appropriations in trying to get 
the maximum amount appropriated. But Senator Slade Gorton is 
going to be faced with a very difficult problem, because he has 
many, many things in that bill that Americans insist upon: Fish 
and Wildlife, Bureau of Land Management, National Park Service, 
all the management things that are out there on the public 
domain, and many other things.
    We recommended the highest priority be given to a $200 
million appropriation by him in his bill. That does not mean he 
has enough money for it. It depends on a lot of other things. 
But we will be fighting for it, and we will continue to push 
the administration to give us a plan.
    Now, I have a number of parochial questions, and I am not 
going to burden this entire crowd with some further New Mexico 
issues. I am just going to give them to you for a response.
    Mr. Gover. OK.
    Senator Domenici. I think you know the questions, and I 
think you know the answers. It would be nice to have the 
answers as soon as possible from your Department.
    Now having said that, I also think we have some very 
excellent institutions wherein Indian people are getting 
educated for today's job market. I would hope that because we 
are short of money, that we do not penalize those that are 
doing a good job.
    I mean, we have a number of them in our state. We have a 
number of them in Indian country that are technical vocational 
schools that in today's market are producing trained young 
Indian people so they can go into $25,000, $30,000, $35,000 
start-up jobs in high tech industries. I mean, those schools 
are working in Albuquerque. They are working in Shiprock. They 
are working in other places.
    I hope you keep in mind that when the schools work, we have 
to keep them going. We have to try to get the rest of the 
Indian country to follow suit in these areas of appropriate 
training for today's job market. There should not be such 
difficulty in terms of employment among our Indian people, 
although they would have to move distances to take the jobs.
    Right now the most difficult problem for American business, 
believe it or not, is that it cannot find enough trained 
workers. I mean, if you put out a poll among medium-sized 
American business, and asked what is the principal impediment 
to growth, they will say, ``We cannot find enough workers to 
fill the jobs.''
    The jobs may take a year's training, but that is a truism, 
what I just said. Frankly, that should provide some very good 
opportunities, like it is to everybody.
    I am going to close on this and just ask you one question. 
What is the status of the 5-year construction planning effort? 
I am hearing reports that there is a two-tier plan that is 
being developed. The first tier would be to allocate about $100 
million a year to the backlog. The second tier would be to give 
the full cost of upgrading all BIA elementary and secondary 
schools.
    Is this the case? Could you briefly tell us what all this 
means?
    Mr. Gover. Yes. I am not familiar with this two-tier 
concept. That may be something that was under consideration at 
one point. We have now received from the construction staff a 
5-year plan to address repair or replacement of all Bureau-
funded schools. I misspoke earlier. I said it was OMB. It is 
actually under review in the Department. It will go to OMB this 
week or early next week. That means we should have the report 
to the committee by the end of the month.
    I do not see any way around spending a lot of money. If we 
are going to do it in 5 years, that means, you know, assuming 
it is $1 billion, that is $200 million a year. I have not heard 
anything about a tiered approach.
    It may be we want to sort of ramp up so that in the first 
year we are less than $200 million, but in year five we are 
over $200 million, so that we can expand our ability to spend 
the money.
    But there is no alternative to spending an awful lot of 
money on this issue. I think it is overdue. It still astonishes 
me, as I was discussing with Senator Dorgan earlier, that we 
have to explain this to anyone in the administration or 
elsewhere, that this is a Federal responsibility.
    While certainly we appreciate being included in the 
Presidential Initiative, in the Bonding Initiative, the tribes 
are asking a very insightful question, which is, why should 
they issue bonds and incur long-term debt for Federal 
facilities? It does not make any sense for the poorest 
communities in the country to incur debt on behalf of the most 
powerful Government and the richest nation in the world.
    So we are not where we need to be. I do feel free to say 
that Assistant Secretary John Berry agrees that we are not yet 
where we need to be, and that he will--he has been a great 
advocate for the Indian schools. We keep trying, and we 
appreciate all the help that you are providing. We will just 
keep beating on this drum until somebody listens.
    Senator Domenici. Well, you make the best point. Whatever 
responsibility the U.S. Government has to help with public 
education in America, it is clearly optional on the part of the 
U.S. Government.
    We have gone from helping public education with 10 percent 
of the national budget of public education to 6 percent, back 
up to 8 percent, because we feel like we ought to put something 
in the local institutions that are not Federal, that belong to 
counties, districts, school districts, and states.
    But it is pathetic when we neglect the only one we are 
obligated to pay for--and if we do not, no one will. I mean, 
who will? I mean, it is our job. So we are doing all that, 
proposing to help the inner city schools rebuild. Yet here we 
sit with the only school system that belongs to the U.S. 
Government, except the military, and we do not pay for it.
    So you have to make that point with these people. If we 
need to get them over here, even OMB, we can haul them over 
here and set them out front and ask them: What in the world are 
you thinking about in terms of priorities? I mean, I would be 
glad to do that.
    If you think it would help, let us ask the chairman and 
bring them over here. We will bring in our good friend from 
OMB, Mr. Lew. He will explain. He will explain it well. If you 
have this big a crowd, it would be nice, though. He will have a 
sense that we worry about it.
    With that, I am going to turn the hearing back to our 
acting chairman for me to go to another hearing, and I assume 
you are about ready to go.
    Senator Dorgan. Mr. Chairman, I am just going to ask one 
additional question, or make one additional point. Then I am 
intending to leave as well.
    But I wanted to make a point--well, let me also agree 
that--I did not say at the start of my conversation that when 
we went through the process of confirmation for your 
appointment, we had some lengthy discussions. I agree with 
Senator Domenici that you have done a good job under difficult 
circumstances. I have confidence that you have the right 
instincts and urges to do the right thing. I hope we can get 
you the resources to help.
    But let me just mention the issue of the Indian schools, 
such as the Wahpeton Indian School. In Wahpeton, North Dakota--
I do not remember how many of those schools we have across the 
country, but the Wahpeton School, for example, is a boarding 
school that houses a lot of children who are sent there from 
all across the country, in many cases by tribal courts and 
others, children from troubled backgrounds, dysfunctional 
families, are sent to this boarding school.
    We need to have a therapeutic model there in order to help 
these children, because only part of their need is education. 
Part of it is also to respond to some of the serious problems 
they are confronting. We do not yet have a full therapeutic 
model to meet all those children's needs.
    To describe what kind of children these are, Joyce Burr, 
the woman who is the superintendent down at the Wahpeton 
School, told me of a young grade schooler who asked if he could 
stay at the school while the school is closed down over 
Christmas, he would be willing to pay for whatever meals he 
had, because he had no place to go, no family, no home.
    So he said, ``Could I just stay here alone at the school, 
if I would be willing to pay for whatever I eat, just to have a 
place to be over Christmas?''
    I mean, that is the kind of circumstances that students 
face. Schools like this have an awful time trying to meet their 
responsibilities, because it is not just education. It is 
therapeutic. They need the psychologists and the trained 
experts to help these kids deal with their needs.
    I hope you will help us also push for the resources 
necessary to do that.
    Mr. Gover. Senator Dorgan, I am grateful for that question. 
I have noticed the same thing. I mean, I do not have a large 
background in Indian education, but it became immediately 
apparent to me in seeing some of the situations that we have at 
several of our boarding schools that we need exactly what you 
describe, a therapeutic program.
    These kids are troubled young people. What we are doing for 
them is simply inadequate. I have asked the Acting Director of 
the Office of Indian Education Programs--I will not say I asked 
him. I will give him credit.
    He came to me and said, ``I want to work on such a 
therapeutic model. I want to work with IHS and see if we can 
find the resources to give these kids the kind of assistance 
they need.''
    So we will bring you a--I do not want to say a proposal, 
because it may not require money. It may just be a matter of 
using the money we have a little smarter. But understanding 
that these are not ordinary students and they need some 
additional assistance. But we will bring you a report on this 
matter by summertime, I would say.
    Senator Dorgan. That is very helpful. Would you also pass 
on to Assistant Secretary Berry that we appreciate his work? I 
know of his support on these issues. I think it is important to 
have him there fighting and working to try to resolve them as 
well.
    Mr. Gover. I will do so.

                     Additional committee questions

    Senator Dorgan. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to the Office of Special Trustee
             Question Submitted by Senator Pete V. Domenici
    Earlier this year, Assistant Secretary Gover, in his prepared 
testimony on the President's fiscal year 2000 budget request for the 
Bureau of Indian Affairs before the Indian Affairs Committee, noted the 
Bureau was proposing a transfer of $5.068 million in base funds to the 
Office of the Special Trustee (OST) to begin implementation of the High 
Level Implementation Plan for the Trust Management Improvement Project 
(TMIP), with increased funding for the Bureau's responsibilities under 
the plan being sought in OST's fiscal year 2000 request, which, from 
his submitted testimony for today's hearing, appears to exceed $37 
million.
    The Senate has provided $6.8 million in the Supplemental for TMIP, 
but also directed that no funds will be spent in fiscal year 1999 to 
implement Secretary Babbitt's Order No. 3208, which would reorganize 
the Office of the Special Trustee.
    Finally, the Office of Special Trustee's fiscal year 2000 budget 
request is $100 million, an enormous increase of $60.5 million over the 
1999 enacted level of $39.5 million, with much of the requested 
increase going to the trust management improvement project.
    I know that you share our deep concern with the extraordinary 
problems that have been uncovered with respect to Indian trust 
accounts. Regrettably, it appears that the costs associated with 
solving these problems continue to escalate. While I appreciate the 
encouraging update you have provided in your testimony, I would like 
for you to clarify for the Committee, if possible, the bottom line for 
solving these problems.
    Question. Specifically, can you provide the Committee with your 
best estimate as to WHEN you expect to complete the reform of the 
system and what do you anticipate to be the Total Cost, including any 
expenditures required for litigation and settlement costs?
    Answer. The Department shares the concern of the Congress regarding 
the problems in trust fund accounts and is committed to resolving these 
long standing problems. Systems reform as outlined in the High Level 
Implementation Plan will substantially be implemented by the end of the 
year 2000, if the President's fiscal year 2000 budget request for the 
Office of the Special Trustee is provided and a successful pilot of 
BIA's replacement lease management, accounts receivable, land records, 
and trust resource management systems is completed. Specifically, OST 
will complete nationwide implementation of the Trust Funds Accounting 
System (TFAS) by May 2000. Pending completion of the pilot, BIA plans 
to complete implementation of the Trust Asset and Accounting Management 
System (TAAMS) in the Area Offices by September 2000. Due to the 
extensive data clean-up requirements in the Bureau of Indian Affairs, 
implementation of the Trust Asset and Accounting Management System in 
some locations may not be fully operational until approximately June 
2001.
    While it is true that the Department is requesting increased budget 
authority for trust reform efforts in 2000, the Department does not 
concur with the characterization that costs for trust reform continue 
to escalate. On the other hand, costs to support litigation may very 
well continue to escalate. Additionally, court decisions stemming from 
the phase of the case that began trial June 10, 1999, could impact the 
costs of reform.
    In July 1998, the Department completed its High Level 
Implementation Plan (HLIP) for the Trust Management Improvement Project 
subsequent to the submission of the fiscal year 1999 President's Budget 
to Congress. At HLIP's completion, the Department recognized that 
fiscal year 1999 cost estimates for HLIP implementation exceeded the 
amount requested in the 1999 President's Budget. Congress recognized 
this situation, and provided the Department increased flexibility in 
fiscal year 1999 to reprogram funds to meet any unfunded HLIP needs. 
This flexibility allowed the Department to reduce it's HLIP shortfall 
from a high of $16.2 million at the beginning of 1999 to $7.3 million 
at the time the Department forwarded its fiscal year 1999 supplemental 
request to the Office of Management and Budget. While cost estimates of 
the various sub-projects continue to change, overall, the total 
estimates of HLIP have not changed significantly. At the time the 
President's Budget was submitted, the cost estimates to implement BIA, 
OHA, and OST components of HLIP in 2000 was $65.3 million; and the 2001 
estimate was $34.1 million. The Department expects to have revised cost 
estimates when it updates HLIP this summer.
    Litigation costs cannot be reasonably estimated at this time for a 
number of reasons. The retrospective portion of Cobell v. Babbitt is 
still in the discovery phase of the case, and the Department could have 
substantial additional costs to support this aspect of the litigation. 
The Department continues to face the possibility that the court could 
order an accounting for each individual Indian's trust fund account. 
The Department could also face additional litigation from tribes in the 
absence of tribal trust fund settlement legislation.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    I am disturbed by Secretary Babbitt's January restructuring of the 
Office of Special Trustee. Specifically, I call into question the 
independence of the Office in the wake of the restructuring.
    In March, I sent a letter to the Secretary regarding your March 3, 
``certification'' that the department's budget and reform plan would 
enable the Secretary to meet his trust responsibilities. But 8 months 
earlier you were very critical of the planned reforms and thought they 
were so bad you wrote ``I am grateful that I'm not responsible for 
implementing the plans.''
    Question. Are my fears about lack of independence confirmed by 
these events?
    Answer. No, these are unrelated actions. The July 1998 note to 
Special Trustee Paul Homan expressed concerns about the adequacy of 
project planning and efficacy of project approaches by BIA in support 
of the High Level Implementation Plan. The Department and Secretary 
acknowledged these problems and, the aggressive nature of BIA's 
schedule in approving the Plan, and committed to additional management 
oversight. The ``certification'' memorandum of March 1999 simply 
attests to the Department's requirement and need for $100 million in 
fiscal year 2000 to continue implementation of reforms contained in the 
High Level Implementation Plan necessary to enable the Secretary to 
meet trust responsibilities under the Reform Act. The memorandum 
clearly indicates the Acting Special Trustee's view that the Department 
is not yet in full compliance with the trust obligations as defined in 
the Reform Act.
    Language I proposed to the Supplemental Appropriations bill would 
suspend the implementation of the Secretarial Order restructuring the 
OST, but would allow reform efforts to proceed.
    Question. Why is the Department opposed to this provision?
    Answer. The Special Trustee's statutory responsibilities are 
outlined in the American Indian Trust Fund Management Reform Act. The 
Secretarial Order in no way alters the Special Trustee's statutory 
authorities and responsibilities and is designed to strengthen the 
organization with the establishment of the Principal Deputy Special 
Trustee/Chief Operating Officer concept which places total 
responsibility for all operations, reforms, and other activities in a 
single position reporting directly to the Special Trustee who, in turn, 
continues to report to the Secretary.
    The proposed amendment may preclude the Department from 
implementing these planned improvements and may be contradictory to the 
intent of existing law. It could be construed to require the Department 
to:
  --Abolish the position of Principal Deputy Special Trustee;
  --Abolish the Office of Trust Litigation Support and Records; and
  --Restore the position of Deputy Special Trustee for Operations.
    Elimination of the Principal Deputy Special Trustee and return to 
the previous reporting relationship with the Office of Trust Funds 
Management would negatively impact day-to-day oversight of field 
operations. This organizational alignment, placing a principal deputy 
to manage day-to-day operations, is an approach that is used in nearly 
every other bureau and office in the Department. Additionally, given 
that many employees are involved in both day-to-day operations and 
implementation of the High-Level-Implementation Plan, abolishing the 
Principal Deputy Special Trustee would leave the organization with no 
single day-to-day manager in place who is held accountable for both 
trust reform and day-to-day operations. The Department is engaged in an 
aggressive reform effort and subject to significant workloads stemming 
from the Cobell v. Babbitt litigation. The absence of a single day-to-
day accountable manager could seriously jeopardize the Department's 
ability to achieve trust management reform and also meet litigation 
demands.
    If the language is construed to eliminate the Office of Trust 
Litigation Support and Records Management it could have significant 
adverse impacts on the Department's ability to meet litigation demands 
and continue making progress in reform efforts. Trust records 
management and litigation support are areas of significant importance 
to the Department. The Office is charged with specific responsibilities 
that will permit it to concentrate on the monumental effort required to 
meet immediate litigation demands as well as effecting needed reform to 
Indian trust records management. Prior to the Secretarial Order, the 
office operated under an informal organization led by a Special 
Assistant to the Special Trustee, with staff detailed from the Office 
of Trust Funds Management. The Special Trustee had proposed 
establishment of a similar, larger office in 1998; establishment of the 
Office was deferred until more progress was made on an agreed upon 
records management approach. Continuation of this informal organization 
would blur lines of authority and responsibility, and hamper the 
ability of the Department to respond to litigation demands and achieve 
records management reforms.
    In May 1999 the Assistant Secretary Policy, Management and Budget, 
Assistant Secretary Indian Affairs, and Acting Special Trustee agreed 
upon a joint records management plan, including a single office--the 
Office of Trust Litigation Support and Records Management being 
responsible for day-to-day records management operations of both BIA 
and OST, hiring, training and managing records officers, developing 
records management policies and procedures.
    We expect to receive a GAO report in the days ahead that is very 
skeptical of the High Level Implementation Plan. Specifically, it 
charges that the technology and systems chosen are not properly 
coordinated and will not do the job. We were originally told the Plan 
would cost $147 million from 1997 through 2000, with $60 million on 
improving management systems.
    Question. Have we seen the high-water mark in terms of requests to 
fix, once and for all, the trust funds problem at Interior?
    Answer. It is estimated that funds requested in fiscal year 2000 to 
address trust fund reform, including data clean-up and systems 
implementation are a peak level. While operational costs for the 
systems will be needed in the out-years, these costs will be less than 
the amounts needed in fiscal year 2000. However, fixing the trust 
problems goes far beyond just implementing new systems and data-
cleanup. Trust funds problems are not fully resolved until two other 
significant issues are also addressed, compensating tribal and 
individual Indians for any deficiencies in past management of trust 
funds and Fractionation of Indian Lands. It is likely that these two 
additional requirements will also involve substantial costs.
    Question. Along with Senator Murkowski, I introduced a bill to 
allow tribes to use their discretion to pull their identifiable 
balances out of the Department and invest them in qualified banks to 
increase the rate of return on that money. As you work to clean up 
documents and determine accurate account balances, shouldn't tribes 
have this option?
    Answer. The Department strongly supports tribal withdrawal of trust 
funds pursuant to Title II of the American Indian Trust Fund Management 
Reform Act of 1994 (the Act). S. 739 is intended to meet similar 
objectives by providing opportunities for tribes to have their trust 
funds managed by banks in order to receive increased rates of return. 
However, the Department strongly opposes the mechanism proposed in S. 
739 to achieve this objective, as the Secretary would maintain 
significant responsibilities for monitoring and oversight of funds that 
would no longer be in the Secretary's control. The Department believes 
S. 739 is counter to principles of self-determination.
                                 ______
                                 
           Question Submitted to the Bureau of Indian Affairs
              Questions Submitted by Senator Slade Gorton
                 school construction bonding initiative
    You are requesting $30 million as seed money for a bonding 
initiative to assist tribes in building new schools. The BIA has been 
included as a very small part of the Administration's fiscal year 2000 
School Modernization Initiative, which seeks the renovation of public 
schools throughout the U.S. by providing Federal tax credits in lieu of 
interest payments to those investing in school bonds. For the BIA 
schools, the Administration proposes that Congress give the Tribes 
authority to issue up to $200 million in bonds in each of the next two 
years, a total of $400 million, for the repair or replacement of 
Bureau-funded schools in their communities.
    Question. Did the Bureau actively participate in formulating the 
bonding initiative? Were the Tribes consulted, and what do they think?
    Answer. The Bureau held several meetings with the Departments of 
Education and Treasury concerning steps that would be necessary in 
implementing the bill. Treasury staff outlined the eneral process that 
would be followed in implementing this legislation. The Department and 
the Bureau will continue to consult with these agencies and outside 
experts in this field. As a part of BIA's preparing to implement this 
proposal, a Five-Year Education Deferred Maintenance and Construction 
Plan and School Replacement Guidelines have been developed. A 
prioritized list of replacement schools projects will be completed in 
September, 1999, and the new list can be added to what remains of the 
fiscal year 1993 list of the highest priority 16 schools that needed 
replacement.
    The Tribes did not participate directly in the initial discussions 
on the Bonding Initiative. They have shared their views with the Bureau 
since its introduction ranging from those that were in favor of the 
Initiative to others that were concerned about an equitable 
distribution in the allocation of the bonding authority between Tribes.
    This initiative requires the passage of legislation that is the 
jurisdiction of the Finance Committee.
    Question. What's the status of the legislation?
    Answer. Senate Bill 223 was introduced in the Senate on January 19, 
1999, and has been referred to the Senate Committee on Finance. The 
Bureau is not aware of companion legislation in the House, to date, 
however, it is anticipated soon.
    As of six weeks ago when staff were briefed on the Initiative, the 
Bureau had not determined specifically how this Initiative would work 
with the Tribes.
    Question. What do you think about the initiative?
    Answer. The Bureau favors the Bonding Initiative as it would 
increase the funding authority available for addressing the huge 
backlog of priority health and safety deficiencies in Bureau-funded 
school facilities.
    The Initiative would allow a creative solution to addressing the 
educational backlog of facilities needs by leveraging private capital. 
The initiative anticipates the investment of the community into bonds 
that would finance the construction of schools.
    Question. Given the poverty in much of the Dakotas and in other 
parts of Indian Country, who is going to invest in these bonds?
    Answer. Investors would be affluent individuals, companies, or 
foundations, primarily non-Indians, who acquire the bonds to receive 
benefit of tax credits. With the payment of the principal guaranteed by 
a fund set aside for that purpose and tax credits in lieu of interest 
payments, the Bureau believes the bonds will be attractive to many 
investors. Thus, the Bureau will not be looking to needy communities to 
invest in these bonds.
    The Administration proposes that we put $30 million in escrow in 
fiscal year 2000 to assist the Tribes in paying off the $200 million in 
bond principal. The BIA would then seek another $30 million in fiscal 
year 2001 for the second $200 million worth of bond principal. The BIA 
estimates that if it is provided $30 million for fiscal year 2000, $72 
million would be available for principal repayments in 15 years. Growth 
is based on the assumptions of 6 percent annual interest rate; 15 year 
life of the bond; and monthly compounded interest.
    If $72 million will be available to repay $200 million in bonding 
authority, $128 million of bonding authority will remain.
    Question. The BIA's briefing materials state that the remaining 
authority would be available to ``Tribes able to secure principal 
through other sources.'' What does that mean? How will it be determined 
how the $72 million in bonding authority is allocated among Tribes?
    Answer. The Bureau's $30 million proposal in its budget for fiscal 
year 2000 will grow to an estimated $75 million over a 15-year period 
at 6 percent interest, thus leaving roughly $125 million of bonding 
authority still available in fiscal year 2000. This estimated $125 
million in remaining bonding authority will allow those Tribes not 
allocated a portion of the Bureau's $30 million program to use the 
remaining authority to pursue other creative solutions to addressing 
school construction needs, such as partnering or cost sharing.
    With regards to allocation of the bonding authority, schools with 
critical health and safety needs are the Bureau's priority. The Bureau 
will continue to use what remains of the list of 16 Replacement Schools 
established by the Congress in fiscal year 1993. Additional schools 
will be added to the list of sixteen after being identified through a 
priority ranking process to be completed by September, 1999. Facilities 
Improvement and Repair Projects that may be eligible will continue to 
be ranked based on their code and standard deficiencies.
    Question. Has BIA determined who will determine which Tribes are 
eligible for ``assistance'' in paying off the bond principal? Will any 
Tribes be declared ineligible because they can afford to pay the 
principal completely from other sources?
    Answer. No determinations have been made as to which Tribes will 
participate in the Bonding Initiative program. The Bureau will first 
use the new authority to complete what remains of the list of 16 
replacement schools established by the Congress in fiscal year 1993. 
Additional schools will be added to this list after being identified 
through a priority ranking process to be completed by September, 1999. 
Facilities Improvement and Repair Projects that may be eligible will 
continue to be ranked based on their code and standard deficiencies.
    Question. Will the Tribes be allowed to replace any BIA schools on 
their reservations, or will they be confined to replacing only the 
oldest schools? What are the criteria for a school to be eligible?
    Answer. Tribes selected to participate in the Bonding Initiative 
program will be selected based on their proposals to replace schools 
that meet the Bureau's priority of replacing schools with critical 
health and safety needs. The Bureau will first focus on replacing the 
remaining schools on the list of 16 replacement schools established by 
the Congress in fiscal year 1993; additional Bureau-operated and funded 
elementary and secondary schools will be added to this list after being 
identified through a priority ranking process to be completed by 
September, 1999. Facilities Improvement and Repair (FI&R) Projects that 
may be eligible will continue to be ranked based on their code and 
standard deficiencies.
    The Bureau's budget justifications state that the ``Secretary would 
have the discretion to select which bond proposals would be eligible to 
receive funding from the $30 million.''
    Question. On what would the Secretary rely to select proposals that 
are eligible for assistance?
    Answer. As stated previously, a school would have to be one of the 
185 schools operated or funded by the Bureau and would have to be on 
Bureau established Replacement School or FI&R list. The Tribe would 
have to apply for bonding authority and be approved by the Bureau. The 
school's proposal would be evaluated based on its ranking on the 
replacement or FI&R lists.
    The Department of the Interior does not have the authority to 
invest the $30 million the Bureau is requesting. According to those who 
briefed staff, the funds would be allocated to the Tribes for them to 
invest.
    Question. Which office will have oversight responsibility to assure 
bondholders that they will get their principal in 15 years? Will there 
be limitations on where Tribes' escrow can be invested? Will these 
investments be government-backed?
    Answer. As sovereign nations the Tribes have the oversight 
responsibility to assure bondholders of return of the principal in 15 
years.
    While there are currently no restrictions on where the Tribes' 
escrow can be invested, the Administration has recommended an amendment 
to the Internal Revenue Code to provide for restrictions to the kinds 
of sinking funds that can be used to fund school construction. The 
Treasury Department has already recommended that the bond issues be 
invested in Federal securities or in State and Local Government 
Securities (SLGS). These investments are government-backed.
    Question. What will the Federal government's liability be to 
bondholders on the principal?
    Answer. The Federal Government will have no liability, except to 
establish guidelines that assure that Tribes invest in only certain 
security instruments and to monitor Tribal investments.
                     school improvement and repair
    This Committee has provided significant increases for school 
improvements and repairs over the last several years because repair and 
maintenance are critical to getting the BIA schools out of the cycle of 
dilapidation and replacement. We provided increases of $8 million in 
both fiscal years 1998 and 1999, taking funding from $24 million to $40 
million in two years.
    Nevertheless, the backlog appears to be growing. The estimate in 
1998 was $695 million and now stands at $743 million.
    Given the growing backlog, it would make sense to me to increase 
funding for School Facilities Improvement and Repair. But the funding 
request is $4 million lower for this program for fiscal year 2000, $36 
million rather than the $40 million we provided last year.
    Question. Why has the Bureau requested fewer funds for school 
repairs for fiscal year 2000?
    Answer. The Bureau's fiscal year 2000 request for education 
construction funding is the highest since 1992. Quite often, replacing 
a school is a more cost effective measure than Facilities Improvement & 
Repair (FI&R). The replacement of the Seba Dalkai and Fond du Lac 
schools will produce a reduction in the maintenance backlog, because 
those costs are foregone by replacement.
    Also, the $30 million requested in the President's Budget for the 
bonding initiative would result in a significant reduction in the 
maintenance backlog overall. Current budgetary limitations on 
appropriations preclude a major infusion of funds due to the existing 
and competing overwhelming needs and requirements on a Bureau-wide 
basis. Ideally, if new construction is possible to reduce the backlog, 
it will have a corresponding reduction on FI&R needs.
    Last year, when we realized we would not be able to fully fund all 
of the requested increases for programs, you and I worked together to 
focus on education and law enforcement programs. I am still committed 
to those program areas. We still have much to accomplish.
                          chief leschi school
    Question. What is the status of the various investigations at Chief 
Leschi School? I understand that a whistle blower at the school alleged 
that the school received about $1.5 million more than it should have 
for bus transportation miles that were claimed but were not accurate. I 
understand that the FBI and the U.S. Attorney's Office began an 
investigation in early 1998 and that this past January the BIA and U.S. 
Attorney met with the Puyallup Tribe.
    Answer. According to the Deputy Assistant Inspector General for 
Investigations, this case remains under active investigation. The OIG 
has requested that the Committee direct specifics concerning the case 
to their office.
    Question. How much do you think the school owes the government? 
Does the BIA intend to recover misappropriated funds? When?
    Answer. The School owes the Federal Government in excess of $4 
million, which includes interest. Because of the ongoing investigation, 
the Bureau has been requested to delay collection actions by the U.S. 
Attorney. The recovery of these funds will be coordinated with the 
Offices of Inspector General, the Solicitor, and the U.S. Attorney. At 
this time, the Bureau cannot state with certainty what amount may be 
recovered.
    I also understand that, as a result of the transportation funding 
controversy, BIA conducted a review of Chief Leschi's programs.
    Question. What are the results of that review?
    Answer. The Bureau's Office of Indian Education Programs (OIEP) 
conducted a program review of the Chief Leschi School. The review 
included school administration, school operations, Indian School 
Equalization Programs, and consolidated school reform plan. The 
significant findings of the OIEP review included:
    1. Budget.--There was no record that the school year 1998-1999 
budget had been submitted for approval to the School Board. Since 
converting to grant status, the School has operated under one grant 
agreement with annual amendments, which make reconciliations difficult.
    2. Procurement.--Procurement procedures and forms need updating. 
Purchase orders contained only vague descriptions of items to be 
bought.
    3. Construction.--The School, without Bureau approval, used ISEP 
funds in excess of $2.0 million to construct the School's auditorium.
    4. Administrative Cost Grant.--The School was overpaid $546,400 in 
administrative grant funds for the school years 1993-1994 through 1997-
1998 because of the overpayment of the transportation funds.
    5. Personnel.--Despite a School policy that work days be limited to 
7 hours, 179 employees worked and were paid for 8-hour days.
    6. Pay Scale.--The School has used several pay scales the last two 
school years that were not equitable or based on experience and 
qualifications. The School has not provided retirement benefits to 
staff for the past 3 years, which has been cited by some staff as the 
reason for leaving.
    7. School Board.--The School Board has not provided adequate 
oversight and direction for the operation of the School.
    8. School Operation.--There appears to be a loss of focus on the 
objective of providing quality education for Indian children which has 
resulted in increased problems with discipline, violence, and drugs. 
School enrollment has declined. Some staff members question the quality 
and level of expectation of the School's curriculum and the textbooks 
and material. There is no approved organization chart. Supervisory 
responsibilities and chain of commands are not identified clearly.
    9. Indian School Equalization Program.--Record keeping in this area 
was good. The School counted 639 students in grades K through 12 during 
count week; all but 11 student records had the required documentation.
    10. Consolidated School Reform Plan.--Implementation of the plan 
has been sporadic and inconsistent. Despite extensive revisions over 
the past two years, implementation plans were set aside this year. The 
revised plan has not been distributed widely or discussed with the 
staff.
    Question. What academic standards must Chief Leschi meet?
    Answer. The Chief Leschi School must meet either regional 
accrediting standards or State standards. The school is currently 
accredited by the State of Washington.
    Congress provided $27 million for design and construction of the 
Chief Leschi School. Despite having been told that before funds were 
expended and work was done, the Tribe's construction contracts exceeded 
the amount available by about $2 million.
    Question. What is the status of that situation?
    Answer. The School's single audit reports and the Department's 
Office of Inspector General identified total construction expenditures 
of $31,873,131. This includes construction, furnishings, and interest. 
The September 24, 1998, financial report submitted by the School listed 
the total Federal share of expenditures through September as 
$28,845,942. The Bureau has paid $25,822,182 for the construction of 
the School. The Bureau has required the School to contract with a CPA 
firm to review the construction billings to determine the actual cost 
of construction and the Federal share, based upon the scope of work 
approved by the Bureau.
    Sadly, as a result of these investigations, some parents have 
pulled their children out of the school, and enrollment has declined in 
the last year from 758 students to 639 students. I regret that parents 
have had to do it, and yet I understand why they would do it. I fully 
support the complete investigation of these problems. You can count on 
my support.
    Question. Finally, could the BIA please explain the per student 
funding allocation at Chief Leschi School. Specifically, is the school 
claiming both a per pupil BIA allocation and a per pupil Washington 
allocation for every Washington resident student? As I understand it, 
all of Chief Leschi's students are Washington residents and most are 
Native Americans. Is this double-dipping? Is that typical of BIA 
schools?
    Answer. The Chief Leschi School System (School System) and the 
Puyallup School District have entered into a local agreement. This 
agreement provides that Indian students within the public school's 
boundaries are to be counted for funding purposes by the public school 
district. The school district receives State education funds for these 
students. A portion of these funds are kept by the public school for 
administrative purposes with the remainder going to the School System. 
The School System did enroll the students and provide the basic 
academic program. The State deems this to be a legal arrangement under 
State law. The School System is reviewing the local agreement to decide 
if it will be continued in the future. This is not a typical 
arrangement for other Bureau schools.
                 unlawful investments by grant schools
    In December 1998, the Inspector General submitted to Congress its 
Final Report on ``Investments and Deposits of Grant Funds by Schools 
Operated by Indian Tribes and Tribal Organizations''. The objective of 
the survey was to determine whether schools invested BIA grant funds in 
accordance with law.
    The IG found that at least 18 of the 41 schools reviewed did not 
invest Bureau grant funds in accordance with the law requiring that 
grant funds be invested only in obligations of the United States or in 
obligations or securities that are guaranteed or insured by the United 
States.
    At least three schools lost grant funds of about $691 thousand that 
were invested in obligations, securities, and accounts which were not 
adequately insured or guaranteed.
    Question. What is being done to recover those funds?
    Answer. The Bureau does not have the authority to recover the 
funds. Certain provisions of the Indian Self-Determination and 
Education Assistance Act (Public Law 93-638, as amended), which are 
incorporated into the Tribally Controlled Grant School Act, bar the 
Bureau from disallowing grant expenditures identified in Single Audits 
unless notice has been given within one year of receipt of the school's 
Single Audit report.
    The Office of the Inspector General (OIG) relied on the Single 
Audit reports for its audit. All of the audits in question had been 
submitted to the OIG more than one year prior to the date of the OIG 
report. On October 8, 1998, the Bureau requested an opinion from the 
Office of the Solicitor (SOL) based on the following scenarios:
    ``If a Single Audit Report accurately identifies inappropriate 
charges to or conditions concerning Bureau awards but does not 
specifically question the charges or identify a reportable condition, 
does the issuance of a subsequent audit report by OIG/GAO that 
identifies the same inappropriate charge serve as a basis for the 
Bureau to initiate collection action?''
    ``If a Single Audit Report which was accepted by the OIG contains 
insufficient information, and subsequent OIG/GAO analysis questions 
costs in a later audit report, may BIA initiate collection action?''
    In a March 16, 1999, response to this request, the SOL's response 
was that neither of the situations described above would serve as a 
basis for the Bureau to initiate collection actions.
    Question. When recovered, will these funds be available for other 
education programs?
    Answer. Any recovery of disallowed costs is credited to the 
appropriation account that was originally charged with the obligation 
and the availability of funds is governed by the availability of the 
original appropriation. Thus, recovery of funds charged to a no-year 
account would be available for future obligation. The appropriations 
for school operations are available for obligation from July 1 of one 
fiscal year through September 30 of the subsequent fiscal year. So, for 
example, funds available for obligation on July 1, 1997, would have to 
be repaid prior to September 30, 1998, in order to be available for 
obligation. Since the Grant School legislation only requires that 
schools submit audits every other year, it is highly unlikely that any 
funds would ever be recovered within the timeframe allowed for re-
obligation of available funds.
    Question. Given the IG Report that almost half of the schools 
surveyed did not know the law or were not following the law, what is 
the Bureau doing to address the problem?
    Answer. When the Bureau received the draft IG report, the Director, 
Office of Indian Education Programs, contacted each of the Education 
Line Officers who award grants and instructed them to include in the 
grant award the specific restrictions contained in statute governing 
the investment of grant funds. The restrictions are now contained in 
all grants to schools.
    Question. Could this situation--investment in uninsured 
securities--be repeated in the proposed construction bond program?
    Answer. No, the terms of the school bonding initiative reiterate 
this policy that limit the funds being invested to only specific 
Government securities.
    Question. Do you think misinvesting is a widespread problem, or a 
case of ``a few bad apples?''
    Answer. The failure to maintain advanced Federal funds in accounts 
fully covered by depository insurance or collateral is fairly wide 
spread among grant schools, self determination Tribal contractors and 
self governance compact Tribes. In an effort to improve compliance with 
the law, the Bureau has included special audit testing requirements in 
the Single Audit Compliance Supplement which is issued by the Office of 
Management and Budget. Unfortunately, the Bureau learns of these 
improper investments only long after the time when Single Audits are 
submitted. Moreover, some Tribes and school boards maintain that the 
Bureau has no authority to limit investments and even that it cannot 
sanction failures to comply with the Single Audit Act. In its efforts 
to reduce Bureau interference in the affairs of the Tribes and school 
boards, the Congress has deprived the Bureau of the ability to oversee 
vigorously the use of appropriated funds.
                            law enforcement
    The per capita rate of violent crime involving Indian victims is 
estimated to be more than twice as high as the national average. 
Arrests of Indians for alcohol- related offenses in 1996 were also more 
than double the national average. These statistics are devastating.
    In response, Congress provided $95.3 million for law enforcement in 
Indian country in fiscal year 1999, a $20 million increase over fiscal 
year 1998. These funds are part of a joint effort Congress is funding 
through the Department of Justice to improve law enforcement in Indian 
Country.
    Question. To what degree is the Department of Justice involved in 
the initiative in Indian Country? How is the distribution of funding 
among reservations determined?
    Answer. Both the Department of Justice and the Bureau continue to 
combine efforts in combating the rising crime rate in Indian Country. 
The Bureau continues to concentrate on providing direct permanent 
resources to both Bureau and Tribal programs, while the Department of 
Justice (DOJ) continues to concentrate on providing grants to Tribes. 
In FY1999, DOJ appropriations total $88.7 million for Indian Country 
criminal justice programs; included in this level is $34.0 million for 
construction of new detention facilities. In the past three years, DOJ 
has provided $68.0 million to Tribes to hire additional police officers 
through its COPS program. Since the Bureau is not eligible for DOJ 
grant funds, the Bureau has concentrated on providing resources to 
those programs still operated by the Bureau.
    While the $20 million in new funds appropriated in fiscal year 1999 
to the Bureau is very helpful, it only allows the Bureau to begin 
addressing the most basic of identified needs. Therefore, Bureau funds 
were made available to existing Tribal 638 contracts, Tribal self-
governance compacts and to Bureau-operated law enforcement programs on 
a ``neediest of the needy'' basis. Some criteria for determining need 
included: population, land base, crime statistics, current levels of 
funding and staffing, and equipment. No fiscal year 1999 Initiative 
funds were used to start up new law enforcement programs; instead, with 
the need so great, the Bureau focused on improving existing law 
enforcement programs.
    Question. How much of the law enforcement services are the Tribes 
providing through contracting?
    Answer. There are 203 law enforcement programs in Indian Country 
operated by the Bureau, Tribal 638 contracts, and Tribal self 
governance compacts. Of this total, at least 13 Tribes fund their own 
law enforcement programs and 93 law enforcement programs are contracted 
through Public Law 93-638, as amended.
    Question. Are the Tribes getting any direct funding from the 
Department of Justice's programs?
    Answer. In fiscal year 1999, DOJ was appropriated $88.7 million for 
Indian Country criminal justice grant programs. Prior to fiscal year 
1999, DOJ provided $68.0 million to Tribes to hire additional police 
officers under its grants programs, such as COPS. DOJ continues to 
concentrate on providing direct grants to Tribes to fund police officer 
positions along with related police equipment through its COPS grant 
program.
    The Ramah Navajo case is evidence that other agencies, including 
the Department of Justice, refuse to pay their share of contract 
support to the Tribes. This has come back to haunt the Bureau, which 
has been held liable for the contract support of other Federal 
agencies. I understand that some Tribes are unable to participate in 
the ``COPS'' program because Justice refuses to pay contract support.
    Question. What are your recommendations regarding the failure of 
agencies to pay their share of contract support?
    Answer. The Bureau cannot meet its own contract support obligation, 
much less those of other agencies, within the current budgetary 
constraints. We believe other Federal agencies should pay their own 
contract support costs to the Tribes. Tribes have expressed their 
positions that participation in DOJ's COPS program was limited, not 
because of the lack of contract support, but because they could not 
guarantee retention of COPS-funded police officer positions after the 
grant period expired or the availability of funds to properly outfit 
the officer. A number of Tribes also advised the Bureau they could not 
meet the matching funds requirement for DOJ grants and therefore did 
not apply for the grants.
    For fiscal year 2000, the Bureau is requesting another $20 million 
increase for law enforcement. Of that amount, roughly $12 million is 
for personnel: new uniformed officers, dispatchers, investigators and 
detention personnel. The request includes $2.5 million for replacement 
of police vehicles.
    Question. How many more years of substantial increases in law 
enforcement do you anticipate? Will the Administration continue to keep 
this a priority beyond the initiative?
    Answer. The Presidential Initiative on Law Enforcement in Indian 
Country is a four-year initiative. At the end of the four-year 
Initiative, if funding is increased each year, both the Bureau and DOJ 
will have addressed the core law enforcement issues in Indian Country. 
While the Administration will leave office before the Initiative is 
concluded, we hope our successors will continue to support law 
enforcement as a priority program.
                            contract support
    You are requesting $22.8 million in program increases for TPA. Half 
the increase, $11 million, is for new and existing contracting. Last 
year, we struggled with the problems of contract support and imposed a 
one-year moratorium on new and expanded BIA and IHS contracts.
    Last year Congress provided an $8 million increase for contract 
support to close the gap between the obligation and the discretionary 
funding available. With the increased funding, the Bureau is able to 
pay about 83 percent of contract support in fiscal year 1999.
    You're requesting a $6 million increase this year.
    Question. Will this increase cover contract support at 100 percent 
of your obligation? If not, what can you tell us about the one-year 
shortfall you would have, and what's the status of the total multi-year 
shortfall in contract support?
    Answer. The Bureau estimates that the fiscal year 2000 request 
level will allow the Bureau to meet approximately 84 percent of Tribes' 
contract support fund need in fiscal year 2000, with an estimated 
shortfall of $23.3 million.
    On December 4, 1997, the Department of the Interior Board of 
Contract Appeals issued its decision in Alamo Navajo School Board Inc. 
and Miccosukee Corporation v. Bruce Babbitt, Secretary of the Interior. 
The Board held that the Miccosukee Corporation was entitled to full 
funding of contract support costs, notwithstanding an appropriations 
cap, under the Indian Self- Determination and Education Assistance Act. 
The United States filed an appeal of the Board's decision with the U. 
S. Court of Appeals for the Federal Circuit on October 26, 1998. The 
appellees recently filed briefs with the Court and all parties are 
awaiting further instructions from the Court.
    Because of the growing shortfall and the lawsuits that have been 
filed on the unmet obligations, we imposed a moratorium last year on 
new and expanded contracts. This year, you are asking us to lift the 
moratorium and provide $5 million for new contracts.
    Question. When you know you aren't asking for enough to pay 
contract support for existing contracts, and this shortfall subjects 
the government to liability, why are you asking Congress to lift the 
moratorium?
    Answer. The moratorium on contracting Bureau programs did not and 
will not address the real problem, which is full funding for existing 
ongoing contractors. The Indian Self Determination (ISD) Fund has fully 
funded the contract support needs of new Tribal contractors. As the 
Bureau pointed out during the Congressional appropriations process last 
year, new and expanded contracting is not the problem. The Bureau 
distributes the ISD Fund on a first-come, first-serve basis. Once the 
funds have been completely distributed, contracting Tribes must wait 
until the next available appropriations before they receive Contract 
Support Funds (CSF). In addition, the $5 million request for the ISD 
Fund has historically been sufficient to meet the total requests for 
new contracting. The Bureau also proposed in its previous budget 
request to transfer the ISD monies to the main CSF to assist in 
covering the new contractors from the previous year.
    At the request of the Bureau, we have placed a cap on the amount of 
BIA funding available for the payment of contract support since 1994. 
Without the cap, the Bureau would have had to reprogram funds away from 
Tribes that have chosen to continue to receive services directly from 
the Bureau. Now, there are several lawsuits pending related to contract 
support. The Bureau has reached a partial settlement in the Ramah 
Navajo case for $76.2 million. That settlement covers contract support 
claims through 1993, when we first implemented a cap on contract 
support.
    Question. What's the status of this settlement?
    Answer. On May 14, 1999, the District Court for the District of New 
Mexico entered Partial Final Judgement in favor of the class for a 
total of $79,903,529 inclusive of pre-judgement interest and attorney 
fees but exclusive of post judgment interest. The Partial Settlement 
represents damages for indirect costs for the years 1989 to 1993. The 
Judgement Fund is to pay, but certain issues (like whether the 
Department will have to reimburse the Judgement with its operation 
funds) is not ripe and the Court retained jurisdiction to hear the 
issues if and when they arise.
    The Court awarded attorney fees in the sum of 11 percent of the 
Gross Common fund (which equals $8,338,000), plus 11 percent of the 
post judgement interest earned on the Common Fund. The Court also 
awarded $170,036.37 for costs.
    Claims still pending are years 1994 to present (years in which 
there was an appropriation cap on contract support costs) and an 
equitable claim for how the Department determines indirect cost rates 
in the future.
    The settlement of Ramah will be paid initially out of the Judgment 
Fund. The Contract Disputes Act, which is the law used by the 
plaintiffs in their suit, requires repayment by the BIA. Briefing 
materials from the BIA budget office state that ``the actual 
responsibility for reimbursement is still under discussion.''
    Question. What is the status of a determination of the Bureau's 
source of reimbursement?
    Answer. The settlement of Ramah will be paid initially out of the 
Judgment Fund within the Department of Justice. The Contract Disputes 
Act, which is the law cited by the plaintiffs in their suit, requires 
repayment by the Bureau. The actual responsibility and plan for 
reimbursement is still under discussion, but the Bureau may have little 
choice except to cover the repayment from appropriations, thus 
adversely impacting Tribal and Bureau programs.
    Question. What is the status of litigation regarding the 
sufficiency of the cap language the Bureau has had for the last six 
years?
    Answer. On December 4, 1997, the Department of the Interior Board 
of Contract Appeals issued its decision in Alamo Navajo School Board 
Inc. and Miccosukee Corporation v. Bruce Babbitt, Secretary of the 
Interior. The Board held that Miccosukee Corporation was entitled to 
full funding of contract support costs, notwithstanding an 
appropriations cap, under the Indian Self-Determination and Education 
Assistance Act. The United States filed an appeal of the Board's 
decision with the U. S. Court of Appeals for the Federal Circuit on 
October 26, 1998. The Bureau understands that the appellees have very 
recently filed briefs with the Court and all parties are waiting 
further instructions from the Court.
    Currently, the Indian Self-Determination Act is inflexible. The 
Secretary has no discretion to decline to enter into a contract--even 
if no funding exists to cover the costs of the contractual obligation.
    Question. Would the Administration support an amendment to the 
Indian Self- Determination Act resolving the contract support shortfall 
by giving the Secretary discretion to refuse to enter into contracts 
when insufficient annual funding is available?
    Answer. No, as denoted in a previous response, new contracts are 
not a problem when Congress grants the Bureau's request for the ISD 
Fund. However, if the Committee is referring to terminating contracts 
with existing Tribal contractors in order to meet 100 percent of the 
Contract Support Fund (CSF) need, the Bureau would be put in a very 
difficult predicament. The Bureau distributes CSF for existing 
contractors based on Congressional direction requiring equitable 
distribution of the available funds on a pro rata basis. Should the law 
be amended to take such action, existing regulations would have to be 
modified and difficult decisions would have to be made as to which 
Tribal contracts would remain in place and receive CSF funds. Efforts 
in the past to modify the regulations in response to the 1994 
amendments to the 638 law took 18 months and an estimated $500,000 in 
Bureau funds to complete the process. These kinds of resources are not 
available within the Bureau's limited budget. The more appropriate 
response is to continue allowing the Tribes to contract in their 
discretion. The Tribes are aware of the shortage in funding, and take 
on these obligations understanding the problem. The Congress should 
continue to make clear, however, that the Bureau will not be liable for 
payment of contract support beyond the amount appropriated for that 
purpose.
    If the moratorium is lifted, according to budget justifications, 
the BIA expects about 50 new or expanded contracts in fiscal year 2000.
    Question. What are the Bureau's estimates on the saturation point--
when will all the interested Tribes have taken everything they're 
interested in? Do you have estimates on the final, total contract 
support costs?
    Answer. During the hearing, the Bureau provided testimony that 
addressed the number of new Tribal contracts/compacts which may be 
awarded within the next five years. Based on a recent polling of the 
Tribes and Bureau locations addressing historical trends, the Bureau 
believes that Tribal contracting and compacting of Bureau programs may 
be leveling off due chiefly to the level of appropriations available in 
the Bureau's budget. The Indian Self Determination and Education 
Assistance Act authorizes Tribes, not the Bureau, to determine whether 
and when to enter into new contracts. Therefore, the Bureau cannot 
predict with any certainty what new contracts/compacts will be awarded 
and to the amount of CSF required for such contracts/compacts. The 
Bureau believes the majority of Tribes interested in contracting and 
compacting are now doing so based on the level of appropriations 
available in the Bureau's budget. Any increases in the contracting 
level will result from Tribes adding to their contracting/compacting 
volume and/or contracting by newly recognized Tribes. For fiscal year 
2000, the projected CSF requirements totals approximately $145 million.
    When a tribe takes over all programs and services, it enters into a 
compact that results in, for lack of a better term, a block grant to 
the tribe. As part of that block grant process, the tribes have been 
successful in negotiating for funds equal to a percentage of a Bureau 
employee, even though, in reality, significant numbers of employees 
must remain to provide services to the tribes, usually the less 
sophisticated, poorer tribes, which are not contracting with the BIA.
    Question. What kinds of discussions are going on in the Bureau or 
in Indian Country related to the fact that, in contracting, the winners 
tend to be those Tribes that got ``in the door first,'' and are the 
more sophisticated Tribes; and the losers are, again, the Tribes that 
truly rely on the Bureau for services?
    Answer. Following the directives contained in the fiscal year 1998 
Conference Report on Bureau appropriations, the Assistant Secretary--
Indian Affairs established a joint Bureau/Tribal Task Force to review 
and determine a distribution method for allocation of available Tribal 
Priority Allocation (TPA) funding for fiscal year 1998. This initial 
workgroup evolved into a separate workgroup, the BIA/Tribal Workgroup 
on Tribal Assessment, to focus on the development of accurate and 
meaningful data to address funding inequities, unmet Tribal needs, and 
funding shortfalls. This effort is currently being finalized, thus 
results are not yet available. Once completed, the report will be 
submitted to the Committees.
    Question. You have established a Bureau/Tribal Workgroup on 
Contract Support Costs in conjunction with the National Congress of 
American Indians. What is the status of this workgroup? When will we 
receive its recommends? Can you share any of the ideas with us today?
    Answer. The Workgroup is currently finalizing two reports on the 
issue for submission to the Congress. One report will focus on the 
position of the National Congress of American Indians (NCAI) and a 
second will reflect the Bureau's recommendations through its efforts 
with the Workgroup. The Bureau's report is expected to be sent to the 
Committees by mid-summer. Several significant concerns will be 
addressed in both reports that have been a matter of contention for 
years, including such issues as the payment of direct contract support 
costs, establishment of each Tribe's contract support requirement, and 
the current pro rata distribution.
    BIA distributes contract support on a pro rata basis, so that any 
shortfall in funds is spread evenly over all contracting Tribes. The 
IHS chose to fully fund the oldest contracts and puts the rest of the 
contracts into a ``queue'' where they remain unfunded until increases 
are obtained. I agree with the Bureau's pro-ratadistribution method.
    Question. Is this pro rata method up for discussion or change under 
any of the findings and efforts of the contract support cost workgroup?
    Answer. The issue of the current pro rata method was one of the 
topics considered by the joint Workgroup. While the final report of the 
Bureau has yet to be finalized and submitted, the Bureau's report will 
not recommend a change in the pro rata distribution method.
                        water rights litigation
    The Administration is requesting a $4 million increase for water 
rights litigation and negotiations. This is a fairly significant 
increase over the $11 million we provided last year.
    Question. Can you tell us what the Bureau has been accomplishing 
with funding in this account, and tell us about the status of efforts 
in water rights negotiations around the country?
    Answer. Adequate water rights negotiation and litigation funding is 
critical to carrying out the United States' core trust responsibility 
of protecting Indian water resources. Negotiation and litigation 
funding is used to conduct various evidentiary studies necessary to 
support the United States' claims to water on behalf of Tribes. Failure 
to adequately prepare and support such claims may subject the United 
States to actions for breach of trust. Furthermore, in many instances, 
water rights litigation is initiated by states or individual non-Indian 
water users; the United States is named as a defendant in such cases 
and the only alternatives are litigation or negotiation. If funds are 
not made available for negotiating settlements, they will have to be 
expended in typically costly litigation, which often extends over 
decades. While both litigation and negotiation have attendant costs, 
the benefit of a settlement is that the needs of both Indians and non-
Indians can be met. Conversely, in litigation, there may be no 
mechanism by which the needs of the ``losing'' party can be met. The 
Department believes that workable solutions secured through negotiation 
rather than litigation serve the best interests of both Indian and non- 
Indian citizens alike, and that funding this effort is well worth the 
investment.
    Specifically, funding from the Water Rights Litigation and 
Negotiations account is used to support the ongoing efforts of 18 water 
rights claims negotiation teams, as well as 15 settlement 
implementation teams, in California, Arizona, Colorado, Oregon, 
Washington, Idaho, Montana, Nevada, Utah and New Mexico. For each 
unique Indian water rights claim where the state and non-Indian parties 
have formally indicated their willingness to work toward settlement, a 
Federal negotiating team with representatives from the various involved 
Federal agencies has been established. Each Federal team, working with 
the other parties, attempts to reach a negotiated settlement that will 
to the maximum extent possible prevent disruption of existing water 
uses while simultaneously preserving future Tribal water use and 
development. The Department is mindful of the fact that $4 million is a 
significant increase relative to the $11 million appropriated in fiscal 
year 1999, but it is noted that the President's budget requests over 
the past 6 years have averaged $15.2 million, and demand among the 
Bureau's stakeholders for that funding has averaged $23.7 million.
    Additionally, the Department views this increase in funding as 
critical because it is prudent to address Indian water rights claims 
sooner rather than later. The Department's experience has shown that 
delay in addressing Indian claims ultimately leads to significantly 
increased costs to the United States in the future. In part, this is 
because non-Indian parties increasingly use more and more water in 
systems in which Tribal rights have not been quantified and/or 
implemented, and as they do so, they come to rely on using water that 
may actually belong to a Tribe. As long as residential and commercial 
dependence on such Tribal water exists and grows, it is impractical to 
assert a Tribe's valid claim to the water, and thus more and more 
difficult to resolve competing claims. In sum, the longer non-Indian 
dependence persists and expands over time, and as water becomes more 
scarce, the more costly settlements are likely to be.
    Question. Are we nearing the end of water rights disputes with the 
Tribes?
    Answer. The Department is involved in negotiations in most of the 
major general stream adjudications across the West. At present, there 
are 18 active water rights claims negotiation teams in 10 states. While 
the Department is hopeful that these negotiations will result in 
successful settlements, it is difficult if not impossible to predict 
the timeline that these complicated undertakings will follow. Whereas a 
handful of these claims may be ripe for settlement within the next 18 
months, others, though they may be ardently pursued, may require 
several years or more before they approach a final settlement.
    In addition, the Department cannot reliably anticipate when states 
or individuals may initiate new general stream adjudications or other 
water related litigation. There are hundreds of Tribes in the West that 
may have valid claims which have not yet been asserted for any number 
of reasons. However, as the population in the West grows and as cities 
and their attendant development expand, it is very likely that more 
Tribal water claims will surface. It is therefore difficult to assess 
when disputes over Tribal water rights may reach an end, but it would 
be misleading to say the end is near.
                        environmental management
    The Administration is requesting $9.8 million for environmental 
management, compared to $3 million provided for fiscal year 1999. The 
budget justifications state only that the Department ordered the BIA to 
develop the program and conduct assessments of all Bureau facilities by 
2002.
    Question. Can you be more specific about what this funding is for?
    Answer. Prior to fiscal year 1999, the Bureau was annually 
appropriated approximately $3.7 million under a program element 
entitled Waste Management. In fiscal year 1999, the Bureau was 
appropriated $6.7 million for its environmental programs: $3.7 million 
under the Waste Management line item and an additional $3 million under 
a new program element entitled Environmental Cleanup. For fiscal year 
2000, the Bureau decided to combine those two program elements into 
one, entitled Environmental Management, to more accurately reflect the 
Bureau's vast array of environmental expenses--some of which do not 
neatly fall under the ``waste management'' or ``environmental clean-
up''. This reflects the Bureau's commitment to aggressively managing 
its environmental responsibilities.
    Thus, the $9.8 million requested in fiscal year 2000 in the newly 
combined line item is a $3.1 million increase over the fiscal year 1999 
appropriation.
    The requested increase of $3 million will be used for two main 
purposes. First, it will fund the clean-up of open dumps in Indian 
Country either as part of the Interagency Solid Waste group chaired by 
the Environmental Protection Agency (EPA), in response to requests for 
assistance from Tribes, and/or where the Bureau has contributed to an 
open dump and therefore may have some responsibility for closing it. 
The Bureau expects that the majority of the additional $3.1 million 
requested will fund solid waste projects. (The Indian Health Service 
has estimated that it will require $120 million to close approximately 
1,200 open dumps in Indian Country.)
    Second the increase will fund the corrective actions that are found 
to be necessary under the Bureau's environmental auditing program. The 
Bureau will not know the exact magnitude of those costs until it 
actually performs the audits, but audits conducted in fiscal years 1998 
and 1999 required corrective actions costing between $100,000 and 
$1,000,000 per quarter. Thus, it is possible that four quarters of 
audits in fiscal year 2000 could lead to total corrective action 
expenses as high as $4 million. The increased funding will pay for a 
portion of these corrective actions.
    Question. Can you explain why $3.8 million of the $6.8 million 
increase are identified as ``uncontrollable'' changes?
    Answer. The $3.8 million reflected under ``Uncontrollable and One-
Time Change'' consists of a transfer of $3,771,000 from the Waste 
Management program element to the Environmental Management program 
element to properly align the environmental programs in the budget 
structure as outlined in the previous response; $38,000 is also 
included for pay raises. The increase requested for fiscal year 2000 
for the program is the same as that requested and appropriated for 
fiscal year 1999: $3 million.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Assistant Secretary Gover, I have been impressed with the 
cooperation from your office in addressing the problem of deteriorating 
BIA elementary and secondary schools. Last year this Subcommittee asked 
for a report on the extent of the problem and a five year plan to 
address the problem.
    Question. What is the status of that planning effort? I hear 
reports that a two tier plan is being developed. The first tier would 
allocate about $100 million per year to the backlog; the second tier 
plan would give us the full cost of up-grading all BIA elementary and 
secondary schools. Do you have an estimate of when this Subcommittee 
will have this information?
    Answer. In Senate Report 105-227, the Bureau was directed to 
develop an alternative administrative plan to complete the repair, 
renovation, and reconstruction (including new construction), of all 
education facilities in five years, on an annual basis. The Department 
submitted this plan to the Committees on June 8, 1999.
    Question. Among the 16 top priority BIA schools for replacement, 
the Shiprock Alternative School was next on the national list for 
funding, yet it was skipped over in the President's budget, and a BIA 
school in Minnesota (Fond du Lac Ojibway) was recommended for funding. 
Please give this Subcommittee a brief explanation for this action. Is 
there any possibility that the Shiprock Alternative School construction 
program could be funded in the fiscal year 2000 budget?
    Answer. The Bureau's fiscal year 2000 Budget request did not 
include construction of the Shiprock School because design of the 
project will not be completed until Fall, 1999. The Fond du Lac School 
project is presently being designed by the Tribe and will be ready for 
construction in June, 1999. Additionally, inclusion of the Shiprock 
Alternative project at its full funding level would have required the 
Bureau to offset the Shiprock costs in the Education Facilities 
Improvement Repair construction program, leaving only approximately $10 
million in the program. This would have negatively affected the 
Bureau's ability to provide portable classrooms and make repairs that 
attribute to the nearly $1 billion backlog of repair work in Bureau 
facilities, including roofing and repair projects, minor improvement 
projects, and address environmental problems in and around Bureau 
facilities. Fifty-one schools would have been affected as opposed to 
one school, Shiprock.
    In response to funding the Shiprock Alternative School construction 
program in fiscal year 2000 within the President's budget request, 
funds would have to be reduced from either the Fond du Lac project or 
by reducing the number of repair and improvement projects. The Bureau 
is opposed to taking such action. OMB Circular A-11 requirements 
related to phasing of capital improvements requires that capital 
improvement segments, if phased, must be usable when completed. The 
Shiprock Alternative School Board, working with their architect, is 
developing a phasing plan, but have indicated that it will not be 
available until sometime in May, 1999. Consequently, the Bureau does 
not have the phasing scope or costs per phase at this time. Funding for 
site work such as utilities, grading and earthwork, paving/parking, and 
access roads as a phase is not considered to be a funding phase option 
because it will not result in a complete and useable facility. 
Secondly, the Fond du Lac school situation presents real and potential 
risks to the students and staffs. It is critical that the Bureau 
advocate for construction and completion of Fond du Lac school as soon 
as possible so that the risk of loss of life can be minimized.
    There are several post-secondary BIA schools in New Mexico that 
have some fundamental concerns.
    Question. For over a decade now, the Crownpoint of Technology in 
New Mexico on the Navajo Nation has been struggling to meet annual 
operating costs. How is it that the United Tribes Technical College 
(UTTC) in North Dakota continues to receive line item funding in the 
BIA budget while CIT does not? This is of particular concern to me as 
the number of full time students in class, the number graduating, and 
the number placed in jobs is consistently higher at CIT. Is there a 
legislative change necessary to place CIT on equal footing with UTTC 
for BIA funding? If so, would you please provide this Subcommittee with 
such a recommendation?
    Answer. The United Tribes Technical College (UTTC) is a Tribally-
controlled residential vocational school founded in 1969. It is 
accredited by the North Central Association of Colleges and Schools at 
the Certificate and/or Associate of Applied Science level, offering 
eight certificate programs, 11 Associate of Applied Science Degrees, 
and provides pre-school, K-8 and day care services for families with 
dependent children. It also provides counseling, placement, medical 
services and other support services, all focused on the unique social 
and cultural context of its students. UTTC also works in cooperation 
with the State Welfare to Work program to provide work related and 
child care services for State referred Temporary Assistance for Needy 
Families recipients. This year the college is celebrating 30 years of 
academic and cultural excellence. In that time, the College has 
graduated over 10,000 Indian students from more than 45 Federally 
recognized Indian Tribes across the nation.
    The UTTC has been funded by the Bureau for 20 years to provide 
training services to eligible Indians from across the nation. 
Initially, for many years, appropriations for UTTC were earmarked by 
the Congress. After several years, the Bureau included the funding in 
its annual budget request to Congress. Appropriation for UTTC is under 
specific statute--Indians- Employment on or Near Reservations (Public 
Law 959), with a ceiling of $3.5 million to be appropriated annually.
    Crownpoint college is similar to UTTC. The Bureau would not object 
to funding for Crownpoint, but not at the expense of UTTC. There could 
be separate authorizing legislation for Crownpoint, or as a second 
option, the ceiling of $3.5 million in the current authorizing law for 
UTTC could be increased. A third option the Congress might consider is 
revising the authorizing statutes for the Tribally Controlled Community 
Colleges to include UTTC and Crownpoint, with increased appropriations 
to accommodate all the schools.
    Question. The Southwest Indian Polytechnic Institute (SIPI) has a 
large and growing student population of over 650. SIPI's success rate 
is very high, above 85 percent job placement rate. To keep their 
accreditation, a new science building is needed. Would you please tell 
this Subcommittee how the BIA views capital needs like this one in 
terms of responsibility and possible funding assistance?
    Answer. Capital needs at the Southwestern Polytechnic Institute 
(SIPI) in terms of responsibility and possible funding assistance can 
be addressed separately from the replacement school construction 
priority setting process. In the fiscal year 1991 Senate Report, the 
Committee indicated, ``With respect to the facility requirements of the 
post secondary schools (SIPI and Haskell), the Committee concurs with 
the recommendation of the House that master plans, rather than priority 
ranking process for education facilities, be used to address the 
comprehensive facility requirements at these locations.'' Both schools 
have completed facilities master plans. The Bureau will work with SIPI 
to develop a plan for the review and implementation of the Bureau-
approved Master Plan, and work toward implementation of the first 
increment of work in the initial fiscal year 2001 budget request.
    Question. The Dine College campus in Shiprock, New Mexico, had a 
severe fire last year, and I thank you for your prompt emergency 
assistance. Now Dine College is planning a new campus at a different 
location in Shiprock with costs estimated to be in excess of $40 
million. Can you give this Subcommittee any guidance about how the 
plans for such a campus and its related funding might be possible? 
Could you also explain to this Subcommittee where the responsibility 
lies for capital improvements at this and other Dine college campuses 
(8 total)?
    Answer. The Dine College is not on the Bureau's construction 
priority list. The Navajo Community College and the Tribally Controlled 
Community Colleges all have specific Congressional legislative 
authority that governs their respective post-secondary institution as 
stated in the fiscal year 1991 Senate Report. Many of these 
institutions have been authorized to establish foundations as a 
mechanism to solicit the private sector for contributions and 
investment for their operations. Portions of the philanthropic gifts 
and other non-Federal funding sources could be placed in interest 
bearing accounts and applied to facilities and related infrastructure 
needs.
    On another topic, I am very interested in the proposed law 
enforcement budget for next year. As you may have heard, there is a 
virtual heroin epidemic in Rio Arriba County and northern Santa Fe 
County. The per capita heroin death rate is the highest in the nation 
in this area.
    Question. Are there any plans to allocate some of the proposed new 
law enforcement funds to help the affected Pueblos in the area, like 
San Juan, Santa Clara, San Ildefonso, Nambe, and Pojoaque?
    Answer. The core focus of the Presidential Initiative on Law 
Enforcement in Indian Countryhas been to address the ever evolving law 
enforcement needs in Indian Country. In fiscal year 1999, a survey of 
law enforcement needs in Indian Country was conducted by the Bureau to 
determine the ``neediest of the needy''. Based on the results of that 
survey, an additional $92,000 of Initiative funds were provided to the 
Pueblo of San Juan, Pueblo of Santa Clara, and the Pueblo of Pojoaque 
to replace 4 vehicles with mileage over 100,000. Additionally, the 
Bureau provided $285,000 to the Northern Pueblos Agency to hire 3 
uniformed officers, replace 3 vehicles, and obtain needed equipment 
such as body armor and weapons. The Agency provides direct law 
enforcement services to the Pueblo of Nambe and the Pueblo of 
Ildefonso. In fiscal year 2000, the Bureau will again assess the law 
enforcement needs in Indian Country and make distributions based on 
those findings, taking into account the assistance provided in fiscal 
year 1999. Should the Congress provide the fiscal year 2000 increase of 
$20 million, the Bureau will continue to strengthen law enforcement 
programs across the nation. Thus, based on the factors denoted, the 
Pueblos may be eligible to receive additional assistance in staffing 
and equipment needs.
    Question. Is there a planned juvenile detention center in northern 
New Mexico for the Eight Northern Indian Pueblos?
    Answer. The Bureau developed a priority list of 17 detention 
centers which was published in the Federal Register on December 30, 
1993; the Northern Pueblos Detention Facility was ranked 15 on this 
list. To date, only the top five priority projects have been provided 
appropriations by the Congress. As part of the Presidential Initiative 
on Law Enforcement in Indian Country, funding for construction, 
modernization and repair of detention centers in Indian Country is 
included in the Department of Justice's (DOJ) budget request(s) and 
therefore no funds were requested in the Bureau's request for 
construction of detention facilities in Indian Country in fiscal year 
1999 or fiscal year 2000. In fiscal year 1999, DOJ was appropriated $34 
million for this purpose. DOJ's budget request for fiscal year 2000 
includes another $34 million for the construction of detention 
facilities in Indian Country. The Bureau has provided DOJ with its 
construction priority list (which includes the Northern Pueblos 
facility) and has urged DOJ to consider its existing priority lists 
because a great deal of time, energy and funds have already been 
invested to identify, plan and design some of the facilities. The 
Bureau will continue to encourage DOJ to give consideration to the 
projects identified on the Bureau's priority list.
    The Tribal Priority Allocation (TPA) system remains a vital issue 
for most Tribes. In New Mexico, you mentioned to me that you were 
interested in a pilot program of accountability for these TPA funds. I 
now have a request for completing the planning for Nambe Pueblo as an 
initial pilot ``needs-based'' program. This small pueblo now receives 
less than $200,000 in TPA funds annually. Yet they seem to believe that 
your pilot accountability program will allow them to request almost $9 
million for the first year of a three year effort to meet their needs.
    Question. With at least five other pueblos (of the Eight Northern 
Indian Pueblos) looking at the Nambe example and planning similar 
increases, this pilot accountability model of yours could easily 
balloon into requests exceeding $100 million per year for these 
northern New Mexico Pueblos alone. How do you envision this 
accountability pilot working, and is it your plan to encourage such 
huge increases in funding to make it work?
    Answer. The pilot you are referring to is not a Bureau initiative; 
it is the effort of the Eight Northern Indian Pueblos Council (NIPC). 
The Bureau is interested in the effort for two reasons. First, it is 
presented as a needs-based approach to Tribal budget requests. Second, 
it is portrayed as increasing accountability and reporting 
accomplishments that support the Government Performance and Results 
Act. The Bureau has not been provided with a final Nambe Pueblo plan 
and has not discussed the cost estimates. The Bureau does not have a 
plan to include this proposal in the fiscal year 2000 request and has 
told Nambe representatives and the NIPC that large increases in funding 
are not likely. The Assistant Secretary--Indian Affairs has further 
stated that he will not support the plan if it takes funds away from 
other Tribal governments.
    Question. Do you support the pilot TPA effort in northern New 
Mexico as a way to make a statement about full funding of each and 
every statutory requirement supported by TPA funds? Is there a 
misunderstanding about this pilot effort that has raised the hopes of 
getting such large annual increases? Do you see the statutory 
requirements being cited to support these increases as different from 
other statutory requirements to achieve other national goals? For 
example, the Housing Act of 1936 envisions a safe and sanitory home for 
each and every American, yet Congress has never been able to fully fund 
the national housing need.
    Answer. The Bureau has not provided support to the proposal other 
than attending a briefing on the proposal and acknowledging the 
Bureau's support for a needs-based approach to requesting TPA funds. 
The Bureau has not encouraged NIPC or Nambe to believe that their 
approach would result in any significant increase in funding. The 
Bureau was told that the Northern Pueblos were interested in this 
approach even if no additional funding was provided because it was a 
logical, rational approach to requesting funds. The Bureau has seen no 
presentation of statutory requirements and would not see a difference 
between what is presented to the Senator and requirements for other 
national goals.
    Question. Finally, is the ``need based'' program pilot at Nambe 
Pueblo an idea encouraged by you as an alternative to current TPA 
commitments as a national pilot? What are the conditions for your 
support of this pilot TPA accountability program at the Eight Northern 
Indian Pueblos?
    Answer. The only encouragement provided to Nambe and NIPC was that 
their approach as explained was a tangible example of a needs-based 
approach to determining a Tribal budget request. The request would be 
supported by analysis of Tribal needs, meet Tribal membership concerns, 
and provide a mechanism for a Tribe to prioritize usage of financial 
resources from various sources, not just the Bureau. It seemed very 
consistent with the efforts of the TPA Workgroup on Tribal Needs 
Assessment in attempting to provide a mechanism to distribute future 
TPA increases, except that Nambe had considerably more Tribal 
involvement, greater details, and was broader than just TPA funding.
    The Assistant Secretary and his representatives have stated that 
the Bureau will not support the Nambe proposal if it takes funding away 
from other Pueblos, Tribes in New Mexico, or Tribes elsewhere in the 
nation. If additional TPA funds were available and Nambe had a viable 
needs- based plan for allocation of a part of those funds, the Bureau 
would support a pilot to test both the ability to satisfy the needs and 
report accomplishments under such a system. In addition, it would be 
necessary that any Tribe contract for the programs if the Tribes are 
truly going to be responsible for implementation of a needs-based plan.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. Has the TPA Work Group developed ways to quantify the 
core serviceneeds of an average Tribal government so that they can be 
used to provide a ``Benchmark'' for allocation TPA funds?
    Answer. The Workgroup on Tribal Assessment of Needs established a 
subgroup that attempted to determine standards for a variety of Tribal 
needs. The purpose was to establish a benchmark that would allow for 
the best distribution of future TPA increases by allocating funds to 
Tribes where the need is greatest. The Workgroup attempted to determine 
standards for all programs within TPA, including Tribal government, but 
also the human service and trust related programs. Development of a 
benchmark for Tribal government became the most challenging part of the 
effort. For the most part, the Workgroup used either industry standards 
or similar governmental programs as the basis for a benchmark to 
determine need. In the case of a Tribal government, it is exceedingly 
difficult to find a similar model, such as a state or local government, 
and acquire enough data to make a reasonable comparison. In addition, 
many Tribes, like local governments, have a variety of funding 
resources to support their activities beyond TPA funding. Even when a 
model of a Tribal government is described and defined, it will not be 
clear that the TPA budget category should be providing funding for all 
the activities.
    Question. I recently introduced legislation (S. 612) to require all 
federal agencies, not just the BIA and IHS, to identify and quantify 
Tribal needs and to submit that information to Congress so we have a 
better idea of what needs there are and whether they are being met or 
not. Does the Administration favor this approach? Could you provide us 
your comments on that bill?
    Answer. The Administration will support a needs-based approach to 
funding Tribes. However, the Bureau is not in a position to commit the 
Administration's support for S. 612 at this time. The Bureau will 
develop comments on S. 612 and clear them through the Office of 
Management and Budget (OMB) and other agencies while establishing an 
Administration's position on S. 612 as written.
    Question. I am very concerned about the ability of the Department 
to put in place proper trust management systems. I am even more 
concerned, frankly, that because the trust funds mess has gone on for 
so long that Congress gets fed up and stops providing money to fix the 
problem. What confidence do you have that the ``High Level 
Implementation Plan'' will provide a workable Trust funds system?
    Answer. The High Level Implementation Plan (HLIP) provides a road 
map to a comprehensive, coordinated, inter-Bureau effort to correct the 
many well-documented problems associated with the Department's 
management of Indian Trust funds. The HLIP incorporates supporting 
tasks, critical milestones, work plans, resource estimates and 
accountable officials who are charged with the responsibility to ensure 
its success. The HLIP was implemented under the guidance and oversight 
of the Trust Management Improvement Steering Committee, chaired by the 
Secretary of the Interior with membership including the Assistant 
Secretary--Indian Affairs, Assistant Secretary -Land and Minerals 
Management, Assistant Secretary--Policy Management and Budget, Special 
Trustee for American Indians, Solicitor and Chief Information Officer. 
The bureaus are individually responsible for implementing trust 
management improvement activities in their respective line 
organizations. On behalf of the Secretary, the Assistant Secretary--
Policy, Management and Budget conducts semimonthly meetings with top 
bureau officials to report on the activities associated with the plan 
and to deal with any resource issues, roadblocks, or other matters. 
Since the approval of the HLIP by the Secretary, there are notable 
successes evident in the Plan's Sub projects. The Department is 
confident the HLIP is an appropriate mechanism to articulate the 
strategies to address the longstanding Trust management system 
problems.
    Question. On April 28 the Indian Affairs Committee will have an 
oversight hearing on the BIA's Capacity and Mission to determine 
whether we are asking the Bureau to do too much, or the wrong things or 
whatever. In the next 10 years do you see the Bureau primarily as a 
service provider or a technical assistance provider?
    Answer. Currently, Bureau programs are approximately 50 percent 
under contract, compact, or grant. In the next 10 years, the Bureau 
will continue to be in transition and serving both as a service 
provider and provider of technical assistance. The ``mix'' of each role 
depends largely on how much funding is provided for Bureau programs.. 
The primary impediment to Tribes' interest in taking programs under 
contract or compact is that funding is insufficient to properly execute 
those programs. Nonetheless, as Tribes secure funds from other sources, 
Tribes continue to accept the responsibility for additional programs so 
the Bureau will continue to turn programs over to Tribes once the 
contract/compact moratorium is lifted. It is clearly the intention of 
the Bureau to encourage Tribes to manage their own programs and reduce 
the Bureau's role to providing technical assistance and a Federal 
Government contact for the government-to-government relationship 
promised the Tribes.
    Question. Public Law 93-638 has been very successful for the Tribes 
that have chosen to administer their own programs. Should Congress 
require that all Tribes provide services by administering self 
determination contracts and compacts? If not, how long can the Bureau 
continue to be an effective service provider to non-contracting Tribes?
    Answer. The Congress should not require Tribes to provide services 
or to establish Tribal consortia that provide services. At the same 
time, it does become increasingly difficult for the Bureau to function 
as an adequate service provider. The most difficult problem exists 
where most of the Tribes in an Agency or Area decide to contract but a 
single Tribe remains, requiring direct Bureau provision of service. 
Fortunately, this is the exception rather than the rule. In places such 
as the Aberdeen Area and the Billings Area, most of the Tribes continue 
to expect services to be provided by the Bureau. They view that service 
as a right guaranteed by the Federal Government and would only consider 
assuming responsibility for providing service if significant increases 
in funds were available. This allows the Bureau to be reasonably 
effective and take advantage of a larger scale operation. In those 
places where only a few Tribes demand direct service, the Bureau will 
have to continually reorganize to provide services where they are 
needed.
    Question. Can you briefly explain the proposed regulations on ``Fee 
to Trust Land Acquisitions'' by Indian tribes?
    Answer. The proposed regulation will amend the current fee-to-trust 
acquisition regulation found at 25 CFR 151 as follows:
    A. The proposed regulation will make acquisitions in trust easier 
for individual Indians and Tribes when the property is located on-
reservation. Each applicant will still have to comply with the 
following factors: (a) existence of statutory authority to take lands 
into trust; (b) the need for additional land in trust status; (c) state 
how the land will be used; (d) supply title insurance or abstract of 
title; and (e) provide information that allows the Secretary to comply 
with the National Environmental Policy Act and Hazardous Substances 
Determinations. Applicants will not be required to address the impact, 
jurisdictional issues, taxation, or regulatory issues affecting the 
state and local governments. In other words, the Secretary will lean 
toward a more favorable decision to Tribes acquiring lands in trust 
inside their reservations.
    B. The proposed regulation will make acquisitions in trust more 
difficult for Tribes when the property is located off-reservation. The 
applicant will still have to comply with all the current factors for 
on-reservation acquisitions, which are: (a) authority; (b) need; (c) 
proposed use; (d) for individuals, amount of land already owned and 
decree to which the individual needs assistance in handling his 
affairs; (e) impact on the state and local governments; (f) 
jurisdictional problems and potential conflicts; (g) whether the Bureau 
is equipped to discharge additional responsibilities; and (h) provide 
information that allows the Secretary to comply with the National 
Environmental Policy Act and Hazardous Substances Determinations.
    In addition, the applicant must also address: (1) the past, 
present, proposed use of the land, and any future anticipated uses of 
the land; (2) the location of the land in relation to the reservation, 
Bureau's Agency, Bureau Area Office, and the State boundary; (3) impact 
to local governments from loss of tax revenues; (4) any agreements with 
the state or local governments for payments of lost revenues; (5) 
ability of local governments to provide public safety services (fire 
protection and emergency medical services); (6) past, present, and 
future law enforcement on the land; (7) an analysis of road capacity 
and traffic impacts; (8) impacts on available water supply and local 
utilities; and (9) impact on local sanitation and sewage services. In 
other words, the Secretary will lean toward a more favorable decision 
to the non-Indian community when Tribes are acquiring lands in trust 
outside their reservations.
    C. Lands that are contiguous to a Tribe's reservation will be 
considered as off-reservation for acquisition purposes.
    D. The proposed regulation allows Tribes without reservations to 
establish a ``Tribal Land Acquisition Area'' which will be considered 
as on-reservation for purposes of acquiring lands in trust.
    E. There are new provisions for Congressionally-mandated 
acquisitions.
    F. The Secretary will continue to not take lands into trust in 
Alaska except for the Metlakatla Indian Community.
    G. The Secretary will not take lands into trust until all 
administrative and judicial appeals are exhausted.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                    land consolidation pilot program
    Three Wisconsin Tribes have been identified to participate in the 
Land Consolidation Pilot Program. These Tribes have expressed a number 
of concerns about the implementation of the pilot program, and in 
particular, are concerned that BIA has set up the pilot program in a 
manner that unduly limits the role of the Tribes.
    Question. The tribes have indicated that key parcels of land are 
being overlooked. Why have the tribes been prevented from identifying 
parcels of land for acquisition?
    Answer. The Appropriation language specifically states:
    ``For implementation of a pilot program for consolidation of 
fractional interests in Indian lands by direct expenditure or 
cooperative agreement, $5,000,000 to remain available until expended, 
of which not to exceed $250,000 shall be available for administrative 
expenses: Provided, That the Secretary may enter into a cooperative 
agreement, which shall not be subject to Public Law 93-638, as amended, 
with a tribe having jurisdiction over the pilot reservation to 
implement the program to acquire fractional interests on behalf of such 
tribe: Provided further, That the Secretary may develop a reservation-
wide system for establishing the fair market value of various types of 
lands and improvements to govern the amounts offered for acquisitions 
of fractional interests: Provided further, That acquisitions shall be 
limited to one or more pilot reservations as determined by the 
Secretary: Provided further, That funds shall be available for 
acquisition of fractional interests in trust or restricted lands with 
the consent of its owners and at fair market value, and the Secretary 
shall hold in trust for such tribe all interests acquired pursuant to 
this pilot program: Provided further, That all proceeds from any lease, 
resource sales contract, right of way or other transaction derived from 
the fractional interest shall be credited to this appropriation, and 
remain available until expended, until the purchase price paid by the 
Secretary under this appropriation has been recovered from such 
proceeds: Provided further, That once the purchase price has been 
recovered, all subsequent proceeds shall be managed by the Secretary 
for the benefit of the applicable tribe or paid directly to the 
tribe.''
    The Bureau has met with Tribal officials from each of the three 
Tribes and discussed the project, Tribal participation, why the program 
was developed and its intended objective of producing a measurable 
reduction in fractional interests on the three Reservations. It is 
vital that the Tribes participate in the program to assist the Bureau 
in achieving the objectives of the pilot project and to seize increased 
economic opportunity on lands that are consolidated into Tribal 
ownership.
    To that end, the Tribes have been offered funding to assist the 
Bureau in a number of functions which will be necessary to effect the 
transactions. Given the importance of achieving success with this 
project and since it is a pilot demonstration, it is critical that the 
focus be on the reduction of small fractional interests as opposed to 
expanding the pilot to accommodate certain interests which are not 
entirely devoted to this goal.
    The Tribes are permitted to identify certain tracts as long they 
meet the intended goals and objectives of the project. The Bureau has 
not received any requests from the Tribes indicating their priorities, 
nor have they communicated any preference, in such acquisitions. The 
purpose of the project is to reduce and, in some cases, eliminate 
fractional interests for tracts of land on these Reservations. As long 
as the Tribes' priorities are aligned with this requirement, the Bureau 
will accommodate them. The difficulty exists with attempting to 
implement the project in such a way that would provide the most cost 
effective process in reducing fractional interests. The bottom line is 
to purchase as many small fractional interests as possible. If the 
project's focus is allowed to shift to interests which are larger, this 
would defeat the purpose of the project resulting in a smaller impact 
on the reduction of record keeping responsibilities for the Bureau. The 
project's primary objective is not to be a means for land acquisition 
but rather to reduce and eliminate a pervasive problem of Indian land 
titles and management. Certainly, one of the benefits is that the 
Tribes will obtain ownership and control of properties that would have 
continued to be unproductive and a drain on existing resources.
    Question. What role does the Bureau envision the tribes playing in 
future acquisition decisions? Does BIA intend to maintain the same 
level of control over future land consolidation projects?
    Answer. This project is a pilot and any future projects will be 
somewhat dependent on its outcome. It is too early in the 
implementation of this project to determine and provide any clear 
indication as to how future possible projects will be addressed. 
However, it is important that the Tribal Governments participate in the 
process to assist the Bureau in obtaining a successful result. After 
the requirements and results are determined for this project, contracts 
with Tribes could be considered as another approach that could be used 
for future allocations.
    Question. According to the tribes, there are key parcels of land 
that have ownership of less than three percent. Why has the threshold 
been set at less than two percent?
    Answer. The priority for acquiring less than two percent interests 
is because they constitute the highest percentage of all interests in 
these properties. They also represent the largest number of record 
keeping responsibilities for the Bureau and result in additional 
probates, leases, right-of- ways, financial accounts, etc. The Bureau 
has not ruled out acquiring interests above the two percent level, as 
long as it fits within the goal of overall reduction. For example, if 
an individual has multiple two percent interests and has a number of 
interests in the two to five percent range, it would be reasonable to 
attempt to purchase all of that person's interests to prevent further 
fractionation.
    Question. What would BIA's position be on a provision to permit 
Tribes to contract for the pilot project under Public Law 93-638?
    Answer. This project is a pilot and any future projects will be 
somewhat dependent on its outcome. It is too early in the 
implementation of this project to determine and provide any clear 
indication as to how future possible projects will be addressed. 
However, it is important that the Tribal Governments participate in the 
process to assist the Bureau in obtaining a successful result. After 
the requirements and results are determined for this project, contracts 
with Tribes could be considered as another approach that could be used 
for future allocations. However, the Bureau would consider contracting 
only on terms that ensure that our primary objectives are addressed. 
Acquisition of land for the Tribes is not the primary objective. 
Instead, the primary objectives are the consolidation of unproductive 
interests and the reduction of administrative costs.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                           indian trust funds
    In 1996, five Native Americans filed suit against the Clinton 
administration for mismanaging billions of dollars in trust funds held 
for Indians. BIA funnels $500 million a year into 300,000 trust 
accounts held by individual Native Americans.
    Much of the money cannot be accounted for, but BIA contends that a 
massive records overhaul will correct the problem.
    In a recent ruling, U.S. District Judge Royce C. Lamberth found 
Secretaries Babbit and Rubin in contempt for withholding trust fund 
records and other documents during the hearing. The judge assigned a 
Special Trustee, Mr. Thompson, to monitor the financial dealings of BIA 
and correct the problem.
    Question. What are your plans to overhaul the records management 
system for Indian trust accounts?
    Answer. The plaintiffs in the Cobell v. Babbitt have requested that 
we produce all records (title reports, leases, probate orders, etc.) 
related to their individual trust accounts, including those of their 
predecessors dating to the original trust patents issued in the late 
1800's. Judge Lamberth ruled Secretaries Babbitt and Rubin and the 
Assistant Secretary-Indian Affairs in contempt due to our failure to 
produce all trust fund documents for five named plaintiffs and their 
predecessors in interest. The judge assigned a Special Master, Mr. Alan 
Balaran, to oversee the discovery process and administer document 
production compliance with court orders and related matters. The costs 
to produce documents for the five-named Plaintiffs and thier 
predecessors in interest based on the Government's definition of 
predecessor is estimated to be $13 million. The definition of 
predecessor remains before the Special Master for decision. The 
Solicitor has advised that the definition advocated by the Plaintiffs 
would add thousands of individuals to the definition. If Plaintiffs 
prevail, the costs to produce these documents will increase by tens of 
millions.
    In accordance with the American Indian Trust Fund Management Reform 
Act of 1994, the Special Trustee is charged with trust fund reform 
oversight. Mr. Thomas Thompson is currently serving as the Acting 
Special Trustee while the Administration conducts a search to fill the 
post permanently. In April 1997, the Special Trustee submitted his 
``Strategic Plan to Implement the Reforms Required by the American 
Indian Trust Fund Management Reform Act of 1994''. Notwithstanding the 
Secretary's reservations about certain aspects of the Strategic Plan, 
the Secretary and the Special Trustee agreed that selected trust system 
improvements and data clean up efforts in the Strategic Plan should 
proceed. The approach selected to implement the Secretary's decisions 
on portions of the Special Trustee's Strategic Plan is centered on 13 
major Sub Projects outlined in the Department of the Interior's High 
Level Implementation Plan. This Plan outlines the comprehensive, 
coordinated, inter-Bureau effort to correct the many well- documented 
problems associated with the Department's management of Indian trust 
funds. Implementation of this Plan will cost $136 million through 
fiscal year 2000.
    Presently, the Office of the Special Trustee and the Bureau of 
Indian Affairs are developing and implementing two systems--the Trust 
Funds Accounting System and Trust Assets Account Management System--
which will facilitate management of trust funds and trust land 
transactions. Records management considerations are being incorporated 
into the information system development. For example, all existing 
electronic information systems will have their data and documentation 
scheduled under the Federal Records Act requirements.
    In addition, the Secretary's High Level Implementation Plan 
contains a Records Management Sub project to resolve Indian Affairs 
long standing records management weakness in the Bureau. The scope of 
the Sub project includes Indian Affairs records policy, management, 
storage, access, control and disposition and electronic records-
keeping, including imaging technology. The Sub project was further 
refined based on a recent study of the Bureau and Office of Special 
Trustee's (OST) records management activities. The recommendations and 
actions to be taken to implement each of the recommendations that 
resulted from the study follow. While OST has requested $7.4 million in 
fiscal year 2000 to reform Indian Affairs records management, senior 
officials from the BIA, OST and the Department will share in the 
responsibility of overseeing the reform efforts. Please see attached 
High Level Implementation Plan--Records Management Sub Project.
    Question. What is BIA doing to compensate the Native Americans 
whose trust accounts have been lost?
    Answer. In November, 1997, the Department submitted its 
recommendations for settlement of disputed Tribal trust fund accounts 
to the Congress. The recommendations were based on the Tribal 
Reconciliation Project, a five-year, $21 million study of Tribal 
accounts undertaken by Arthur Anderson, LLP under the supervision of 
the Department. The Department drafted legislation and, after a series 
of consultation meetings with Tribes, submitted the proposal to the 
Congress. The Administration's proposal envisioned immediate payment of 
known errors, a good faith settlement offer to all Tribes with trust 
accounts that did not accept the good faith settlement offer, and 
finally, litigation for those circumstances where a settlement could 
not be reached. It was introduced by Congressman Miller by request on 
April 30, 1998 (H.R. 3782). A joint hearing of the Senate Indian 
Affairs Committee and the House Resources Committee was held on the 
proposal on July 22, 1998. The Inter Tribal Monitoring Association 
(ITMA) offered its own proposal as well. The 105th Congress ended 
without the adoption of any Tribal settlement legislation. Departmental 
officials have met several times this year with ITMA representatives to 
discuss principles for a new consensus settlement bill. The Department 
invites active involvement of the Congress in developing Tribal Trust 
Funds settlement legislation.
    The administration of Individual Indian Monies accounts for 
individual Indians is the subject of the Cobell v. Babbitt et. al. 
litigation. While Plaintiffs in this lawsuit contend that they have 
claims for recovery of ``lost'' funds and/or for damages for alleged 
mismanagement of trust lands (or other assets), this lawsuit does not 
involve a claim for monetary relief. Lawsuits for such claims have yet 
to be filed.
                more teachers in native american schools
    In an effort to reduce class size in Native American Communities, 
Education Secretary Riley has introduced a program to train 1,000 
teachers to teach in Native American communities.
    The BIA Office of Education Programs will receive $3.46 million 
from the Department of Education's Class Size Reduction Program for the 
173 schools funded by BIA. Although the funds are to target reducing 
class size in grades one through three, each BIA-funded school is 
eligible to participate.
    At this time, the Department of Education feels funds should be 
distributed based on student enrollment. However, if this method of 
distribution is used, only 62 of the 173 Bureau funded schools will 
receive enough money to hire one teacher.
    Question. How does the BIA propose the money from the program be 
distributed?
    Answer. The Bureau is working with the Department of Education 
(Department) on the distribution methodology for the Class Size 
Reduction program funds. The Department is currently requiring that 
these funds be distributed to schools based on enrollment and level of 
poverty. As BIA's 185 schools qualify for the free and reduced lunch 
program and as high poverty schools the Bureau is working with the 
Department to re-evaluate its distribution method.. In addition, the 
Bureau funds many schools with small enrollments due to the isolation 
and rural conditions where Bureau schools are located. If funds are 
distributed based on enrollment, the Bureau will have some schools 
receiving only $900, which is not sufficient to effect a reduction in 
class size. The Bureau is recommending that the funds be distributed 
equally to each school. This would result in each school receiving 
approximately $20,000, which in some locations is enough to hire a 
beginning teacher. The Bureau will continue to work with the Department 
on this issue.
                             ishi's remains
    Three weeks ago, I wrote a letter to the Smithsonian's Museum of 
Natural History Director regarding the repatriation of the remains of 
Ishi, the last of the Yahi Indians.
    For over 80 years, it was widely believed that Ishi's entire body 
was cremated by officials at the University of California, Berkeley 
after his death from tuberculosis. But in February, two historians 
found that a Berkeley anthropologist offered Ishi's brain to the 
Smithsonian.
    Ishi's remains are currently stored in a formaldehyde tank at the 
Smithsonian Institution's Maryland storage facility. The discovery has 
angered American Indians in Northern California, and around the nation, 
who believe that an Indian's spirit cannot travel to the afterlife 
unless his remains are buried whole. The rest of Ishi's body was 
cremated and buried in a cemetery in Colma, California.
    Museum policy dictates that Native American remains can only be 
returned to ancestors of a person's tribe. However, Ishi was the last 
of his tribe.
    Question. The Smithsonian can only return Ishi's remains to Indians 
with close cultural, linguistic and dietary ties to Ishi's people. What 
can the BIA do to help in the search for possible ancestors of the Yahi 
tribe?
    Answer. Under the Native American Graves Protection and 
Repatriation Act (NAGPRA), remains are returned to the Tribe with which 
they have a close cultural affiliation. This distinction is 
significant, because the closest affiliation may, in fact, be a quite 
distant relationship. Under NAGPRA, museums are responsible for 
determining which Tribe has the closest cultural affiliation to a given 
set of remains. The Bureau has no statutory or regulatory role in that 
process. The Bureau may, however, serve as a source of information for 
museums who are seeking to make determinations of closest cultural 
affiliation.

                          subcommittee recess

    Senator Dorgan. Thank you all very much for appearing. The 
subcommittee will stand in recess until 9:30 a.m., Thursday, 
April 15, when we will receive testimony from Mike Dombeck, 
Chief, U.S. Forest Service, and James R. Lyons, Under 
Secretary, Natural Resources and Environment, USDA.
    [Whereupon, at 10:57 a.m., Wednesday, April 14, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
April 15.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              


                        THURSDAY, APRIL 15, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Domenici, Burns, 
Bennett, Byrd, and Kohl.
    Also present: Senator Craig.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENTS OF:
        JAMES R. LYONS, UNDER SECRETARY, NATURAL RESOURCES AND 
            ENVIRONMENT
        MIKE DOMBECK, CHIEF
ACCOMPANIED BY:
        VINCETTE GOERL, DEPUTY CHIEF, CHIEF FINANCIAL OFFICER
        RON STEWART, DEPUTY CHIEF, PROGRAMS AND LEGISLATION
        GLORIA MANNING, ACTING DEPUTY CHIEF, NATIONAL FOREST SYSTEM
        ROBERT LEWIS, DEPUTY CHIEF, RESEARCH AND TECHNOLOGY DEVELOPMENT
        CLYDE THOMPSON, DEPUTY CHIEF, BUSINESS OPERATIONS
        JANICE MC DOUGLE, ACTING DEPUTY CHIEF, STATE AND PRIVATE 
            FORESTRY

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. Good morning. As we begin this hearing I am 
delighted to welcome as witnesses Jim Lyons, Under Secretary 
for Natural Resources and the Environment, of the Department of 
Agriculture, and Mike Dombeck, Chief of the Forest Service, 
both of whom are familiar with this subcommittee and have been 
here frequently before.

                           budget resolution

    Before we take up the Forest Service budget request for the 
fiscal year 2000, let me make some observations about the 
current fiscal climate in which this subcommittee is required 
to do its work. Based on a budget resolution, which will be 
passed later today, the total for non-defense discretionary 
spending available for the entire appropriations subcommittee 
will be less than a freeze level. This subcommittee can expect, 
therefore, that its allocation will also be less than last 
year's.
    Accordingly, I do not see how the Congress can provide more 
than the $1 billion increase proposed by the President for this 
year's Interior and related agencies' bill. It is against this 
backdrop that we must examine the Forest Service budget.

                       budget and accountability

    After the various gimmicks are set aside, the President 
proposes to increase the agency's budget by $172 million over 
1999. Even if we were not faced with the current budget 
constraints, it is increasingly difficult for members in either 
the House or Senate to support such large increases in the 
Forest Service budget. There is a widespread feeling that the 
Forest Service has not become accountable when it becomes to 
policy issues or how it spent its money.
    For example, the Forest Service's financial statements have 
been subject to an annual audit by the USDA Inspector General 
and the General Accounting Office since fiscal year 1991. The 
agency has yet to receive a clean audit opinion despite 
repeated promises to improve its performance. Moreover, in 
January 1989, the General Accounting Office added the Forest 
Service to its list of agencies at ``high risk'' of waste, 
fraud, abuse and mismanagement due to the unreliability of the 
agency's financial statements.
    The agency does not fare much better when it comes to 
fulfilling its policy mission. Indeed, the Forest Service seems 
each year to move farther and farther away from its statutory 
mission of multiple-use to one solely of preservation. The 
agency's year 2000 budget proves the point. While the Service 
proposes large increases in many of its non-commodity programs, 
the only program slated for a significant decrease is the 
timber program.
    Let us review some of these programs in a little more 
detail. First, there is $53 million in increases for the 
purchase of conservation easements and for USDA rural business 
loans as a part of the administration's land legacy smart 
growth initiative; second, $37 million in increases for 
research in the areas of vegetation management and wildlife and 
aquatic habit; and third, $23 million more for fish and 
wildlife habitat management.
    As I said, the only Forest Service program slated for a 
large decrease is timber sales. Apparently, the 75 percent 
decrease in timber harvest levels on Forest Service lands since 
1990 does not fit with the agency's agenda, because the fiscal 
year 2000 budget proposes to cut the timber sales program by 
another $30 million and reduce its harvest level an additional 
400 million board feet, and that is not all.
    By the Forest Service's own estimates the agency's recently 
announced interim rule implementing a moratorium on road 
building in roadless areas will also serve to delay 170 million 
to 260 million board feet currently planned for offer in fiscal 
years 1999 and 2000.
    Other funding priorities in this budget raise troubling 
questions. The Forest Service wildfire preparedness program, 
which performs critical work concerning human safety and the 
protection of Federal and private property, were frozen at last 
year's levels. But according to the agency's own formula this 
represents a 7-percent decrease in the preparedness level.
    I do not see the merits of this decision when recent data 
compiled by the GAO shows that 39 million acres of national 
forest lands in the interior west are a tinderbox. Likewise, 
the agency's decision to fund the recreation management program 
at last year's level in the face of ever-increasing demand for 
recreation by the public raises questions about how the agency 
is allocating its resources. I find it difficult to reconcile 
increases of 600 percent for programs that focus on acquiring 
easements on private land with the decision to hold level or 
cut many of these other critical programs that serve existing 
forest service lands.
    Do not misunderstand me. Acquisition programs like Forest 
Legacy have done good work on the Mountains-to-Sound Greenway, 
and other projects across the country, but the magnitude of the 
proposed increase in this program in light of other funding 
needs seems excessive.

                          budget restructuring

    Finally, at last year's hearing we discussed the issue of 
budget restructuring. Chief Dombeck and Mr. Lyons, along with 
then Chief Operating Officer Francis Pendolfi emphasized the 
need for significant budget restructuring as a necessary part 
of fiscal accountability for the Forest Service.
    Last year's bill directed the Forest Service to eliminate 
the general administration line item as a part of larger budget 
restructuring proposals that the agency would work out with 
Congress prior to your submission of the fiscal year 2000 
budget. I see that this budget still contains the general 
administration line item, and that the fiscal year 2000 budget 
includes only minor restructuring.
    It does not seem that budget restructuring has been taken 
seriously. At a minimum the Forest Service has disregarded the 
explicit direction of Congress. As I said last year, while we 
may disagree on some policy issues, I believe that we should be 
able to work together on a budget restructuring proposal that 
will enhance the Forest Service's ability to account for 
appropriated dollars and get work done on the ground. I look 
forward to hearing from you about any proposals the Forest 
Service is working on in this area.
    With that, I will turn to my distinguished ranking 
Democratic member, Senator Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman. Let me ask a 
question about the Wood Education and Resource Center. The 
President's budget request for the Forest Service funds for the 
center is $1.5 million, which covers basics such as salaries, 
but not much else.
    In fiscal year 1999, at my request, and with the direction 
of this committee and the Congress, the Forest Service took 
over the Hardwood Training Center and renamed it the Wood 
Education and Resource Center. We added $2.5 million directly 
to the fiscal year 1999 appropriation for that center. It is 
now being operated by the State and private forestry part of 
the Forest Service, but the Forest Service has also formed a 
partnership between the Wood Education and Resource Center. 
Were you asking for questions at this point, Mr. Chairman?
    Senator Gorton. Well, basically, I was letting people have 
their opening statements, and I will let the two witnesses 
testify first, Senator Byrd.
    Senator Byrd. Fine. Let me just postpone the remainder of 
my statement and question until you are ready for that.
    Senator Gorton. OK. Senator Burns.
    Senator Burns. I have no statement. Mine will come in the 
form of questions, Mr. Chairman. I am just absolutely ecstatic 
and elated waiting in anticipation of the witnesses before us.
    Senator Gorton. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. I am sure the witnesses are as well. Thank 
you, Mr. Chairman, I appreciate the opportunity for an opening 
statement. I want to welcome Secretary Lyons and Chief Dombeck. 
I have met with them both in anticipation of their testimony, 
and I have appreciated the way in which they have always kept 
the lines of communication open and worked with me on issues 
relating to Utah.
    I must raise one issue generally, which I have raised with 
them privately, but need to get on the record, which I think 
may not be a parochial issue, and from the chairman's opening 
statement does not sound to me like it is completely parochial.

                             FOREST HEALTH

    The Forest Service's new direction seems to be aimed at 
eliminating timber sales. We have a forest health crisis in the 
Dixie National Forest. Over 200,000 acres of the forest have 
been decimated by beetles, and there is concern that the Forest 
Service has not done enough to stop the decimation, and the 
problem is that the local mills are starving, for lack of wood, 
and by coincidence the local forest is starving too, because 
the beetles are not being dealt with, and the cutting down of 
trees that would stop the infestation of the beetles is not 
being allowed.
    There are those that have gone so far as to say that, in an 
effort to prevent timber sales, which seems to be the mission 
of the Forest Service currently, or some portions of the Forest 
Service, they are allowing a condition that is destroying the 
forest, and we will end up with neither forest nor forest 
sales.
    So that is an issue we think we ought to pursue, and I am 
looking forward to hearing from the witnesses on that and other 
issues relating to the timber sale question that the chairman 
raised.
    Senator Gorton. Thank you.
    I think at this point we should hear from the witnesses. I 
believe Mr. Lyons, you are schedule to go first.

                summary statement of Hon. James R. Lyons

    Mr. Lyons. That is correct, Mr. Chairman.
    Senator Gorton. Fine.
    Mr. Lyons. Thank you very much, sir. It is a pleasure to be 
here this morning and to be joined by Senators Byrd, Burns, and 
Bennett to discuss issues related to the Forest Services fiscal 
year 2000 budget.

                    forest health and sustainability

    Last year when I testified before the subcommittee I 
emphasized that despite the many contentious debates we have 
had over Forest Service management issues, I believe the 
Congress and the administration agree in many more areas than 
we disagree, at least in terms of our overall goal of 
protecting the health and sustainability of the nation's 
forest, and we worked together last year over the fiscal year 
1999 appropriations debate, and I think worked out some very 
contentious issues.
    For example, as you know, Mr. Chairman, we worked very 
closely with you to try to resolve issues over conveyance of 
the Wind River Nursery of Skamania County in exchange for 
county lands while protecting the research values of the Wind 
River Experiment Station, and I think that project is 
proceeding nicely.
    I think there may be some technical changes to what we 
agreed to last year, but I think all parties are in agreement 
that we can get this issue resolved.
    Similarly, we worked diligently to finalize a complex land 
exchange between the Mount Baker-Snoqualmie and Wenatchee 
National Forest and Plum Creek Timber Company, which I think is 
going to benefit both the company and the public in that region 
of the country. We also worked closely with Congress on a range 
of broad national issues.
    One of those, of course, was the forest health issue, and 
we are pleased with your granting us the authority to develop 
an experimental program we call the Stewardship Contracting 
Program to help improve forest health in collaboration with 
local interests through long-term contracts designed to address 
forest health concerns. I think in a number of instances, 
although we agreed to disagree in others, we were able to work 
together to accomplish some very important things.
    This year's budget, despite the concern we have for the 
overall budget resolution and the atmosphere in which we are 
working, would recommend a 6.5-percent increase in our 
appropriations over the 1999 appropriations act. The budget 
continues to emphasize critical investments necessary for the 
management, restoration, and protection of the agency's 192 
million acres of public lands as well as needed reinvestments 
in the State and private arena, as well as in the research 
programs.

                        lands legacy initiative

    There are a number of initiatives that were identified in 
the budget that I would like to highlight for the members of 
the subcommittee. First of all the President's budget includes 
a new Lands Legacy Initiative, which you referenced in your 
opening statement, Mr. Chairman. The Lands Legacy Initiative is 
a $1 billion Federal program which includes about $218 million 
in Forest Service funding.
    It is an initiative that focuses on working with States, 
local governments, and willing partners to protect great 
places, conserve open space for recreation and wildlife, and to 
preserve forests, farmlands, and coastal areas.
    Currently, 30 million people live within an hour's drive of 
national forest system lands, and that has changed dramatically 
the management and the pressures that are placed on our forest 
supervisors.
    Recently, the front page of the Portland Oregonian, for 
example, highlighted a decision by the Mount Hood National 
Forest supervisor to reevaluate a proposal to limit hiking on 
the parts of the forest's wilderness lands. When the supervisor 
proposed to limit access the public outcry was such that he 
elected to pull back and take another look at how to better 
manage the recreation use on the Mount Hood, which is growing 
at an exponential rate.
    The national forests adjacent or in close proximity to 
cities like Seattle, Portland, San Francisco, Los Angeles, 
Boise, Salt Lake, Albuquerque, Boston, and Durham, New 
Hampshire, and many others are increasingly challenged to meet 
the multiple and expanding needs of customers who also share in 
the ownership of these resources.
    Two elements of the President's Lands Legacy Initiative 
would support the acquisition of long-term conservation 
easements, the forest lands, and open space threatened by 
development. To be clear, these programs are to be used only to 
acquire lands and interest in lands on a willing seller basis, 
but we believe additional investments in the Forest Service's 
land acquisition and the Forest Legacy program are critical 
components of the fiscal year 2000 budget.

                      puget sound map photographs

    I want to also highlight another element of the Lands 
Legacy Initiative, Mr. Chairman, by use of satellite photos. I 
will put that up now. I believe, Mr. Chairman, you are very 
familiar with this part of the world.
    Senator Gorton. I can tell what that is a map of.
    Mr. Lyons. I thought you would. What is interesting about 
this map, and I want to credit American Forests for working 
with the Forest Service in putting this information together, 
is that there has been a tremendous loss of tree cover in the 
Puget Sound region over the past few years. In fact, the total 
loss during this time period has been 37 percent of the tree 
cover in that particular region.
    I think this helps to illustrate the point that the loss of 
forest cover and rapidly urbanizing environments like Seattle 
is a risk to watersheds, to viewsheds, and in general, the 
quality of life in the region. You are all too familiar, Mr. 
Chairman, and, in fact, I realize that you recently had a 
hearing on issues related to salmon and salmon listings in the 
region, this deforestation and the extent to which it is 
occurring is one of the issues that is exacerbating concerns 
related to future salmon habitat.
    Now, the Forest Service administers programs designed to 
work with communities to help maintain forest cover, to 
preserve open space, and those quality-of-life elements that 
are disappearing from the Puget Sound region. The specific 
program I am referring to is the Urban and Community Forestry 
Program.

                      urban and community forestry

    It is one of the programs we have proposed for an increase 
in funding this year, and hopefully for permanent funding, 
should the Land and Water Conservation Fund [LWCF] legislation 
be authorized this year by the Congress.
    It is a program that is vital to helping communities help 
themselves protect their national resources, whether they are 
in their communities, neighborhoods, or backyards. I want to 
point out that we also have active Urban and Community Forestry 
Programs in all 50 States, especially in the Salt Lake area, 
that I know Senator Bennett is very familiar with.
    Just 3 weeks ago, Mr. Chairman, as I mentioned to you when 
Mike and I came to visit, I was part of a wetlands restoration 
effort on the Dwuamish estuary, and I would acknowledge, as you 
pointed out, that we are not likely to save the Dwuamish 
estuary through one wetlands restoration effort.
    I think the participation in that restoration work does a 
lot to not only engender community spirit, but a greater 
understanding of the role that communities can play in long-
term conservation.

                        clean water action plan

    The President's fiscal year 2000 goal for the Clean Water 
Action Plan is to further enhance Forest Service programs which 
assure that all the nation's lands, not just the National 
Forest lands, provide clean water, healthy fish and wildlife, 
as well as sustain the production of goods and services the 
public demands from our forested lands. Certainly, the debate 
over salmon and the future of listed species of salmon, 
steelhead, and bulltrout has brought the issue of watershed 
health and watershed protection to national focus.

                          insects and disease

    Equally important to watershed health would be appropriate 
investments in sustainable forestry, particularly, as Senator 
Bennett pointed out, where insects and disease have killed 
thousands of acres of productive forest lands, oftentimes 
leaving a powder keg of dead and dying trees awaiting ignition.
    I know some of the members have seen this forest risk map 
that we are displaying now. I want to refer in particular, for 
an example, to the insect and disease problems we are facing in 
Northern Idaho. In recognition of the problems reflected by the 
threat in Northern Idaho, we are working cooperatively with the 
State to limit the impact of bark beetles on high-value stands, 
particularly in recreational and wildland-urban interface areas 
where the risk of wildfire to life and property is significant.
    We are using various means to address the beetle 
infestation, as well as removing currently infested trees, 
conducting thinning, and establishing field breaks to reduce 
hazardous fuels, and to restore stands to a drought resistant 
and insect and disease tolerant situation.

                           payments to states

    The fiscal year 2000 budget contains additional initiatives 
as well. As was proposed last year, the administration again 
intends to forward legislation to stabilize payments to States. 
I believe it is essential to provide these payments through a 
process that does not link the output of forest products to the 
education of our rural school children or the quality of roads 
used by their parents.
    On this subject, Mr. Chairman, unfortunately, the debate is 
centered around the future of the timber sale program, as if 
this is the only issue at hand, but I would implore the 
Congress to take a different look at the issue. The reality is 
that this issue is about education.
    Is it right to continue to balance the education of 
thousands of children in rural communities on the backs of the 
timber sale program? If you asked a parent of one of these 
children if they were more comfortable with a stable funding 
base for their children's education needs, as opposed to 
funding that depended on future Federal timber sales, they 
might provide you with a different perspective.

                                 roads

    Let me briefly focus on one additional issue, Mr. Chairman, 
and that is the Forest Service Road System. The fiscal year 
2000 budget seeks an increase in funding of about $23 million 
for the maintenance of roads important to rural transportation, 
as well as investments that will help obliterate roads that are 
no longer needed or beyond repair. Although we are pleased with 
this increase, it is important to emphasize that the 
maintenance and capital improvement needs of the Forest Service 
road system continues to grow. This chart helps to illustrate 
that fact.

                              maintenance

    As you can see, the annual maintenance needs for our road 
system today are about $568 million compared to the fiscal year 
1999 funding level of just about $100 million. Until we close 
this gap, either through increased funding or reducing the size 
of the road system, the $8.4 billion backlog in forest road 
maintenance will continue to grow significantly each year.
    Mr. Chairman, I want to end my remarks by restating that I 
am confident that with your support we can work together to 
build a Forest Service program that accomplishes the long-term 
land health objectives that we have, that helps to ensure 
delivery of clean water, provides quality access, assures 
diverse recreational opportunities for all Americans, and helps 
to preserve and protect the natural legacy that we are 
entrusted to manage.

                           prepared statement

    I recognize, Mr. Chairman, that the numbers are tight, and 
we are going to face a very difficult challenge, but as you 
demonstrated in the past, I am confident with your continued 
leadership we will be able to get through this issue as well, 
and I look forward to addressing any questions that the 
subcommittee may have.
    Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                  Prepared Statement of James R. Lyons
    Chairman Gorton, Senator Byrd, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
Forest Service's proposed budget for fiscal year 2000.
                               background
    Last year when I testified before this Subcommittee, I emphasized 
that despite many contentious debates we have had on Forest Service 
management issues, Congress and the Administration agree more than we 
disagree on our goals for the sustainable use of our national forests. 
Despite differences regarding budget priorities and the environmental 
riders which were part of the fiscal year 1999 appropriations debate, 
we worked together to develop a bill which moved the Forest Service 
forward to resolve some of the contentious issues we faced in 
addressing high priority watershed and forest health concerns.
    Let me note some examples of this cooperation: In your home State 
of Washington, Mr. Chairman, we worked closely with you to convey 
portions of the Wind River Nursery to Skamania County in exchange for 
county lands while protecting the research values of the Wind River 
Experimental Forest. We worked with you to finalize a complex land 
exchange between the Mt. Baker-Snoqualmie and Wenatchee National 
Forests and the Plum Creek Timber Company which will enhance recreation 
opportunities, improve wilderness management, and result in more 
efficient administration of Forest Service and Plum Creek lands. We 
also worked closely with Congress on broad national issues including 
developing an experimental program for end results contracting to 
improve forest health in collaboration with local interests. We jointly 
addressed the sensitive issue of anchor bolts in wilderness areas by 
increasing public involvement as part of the decision making process. 
As these examples show, I continue to believe we have common interests 
and greater agreement than disagreement, although I'm sure we'll be 
involved in tough debate again over this year's budget.
    As for the Forest Service fiscal year 2000 budget, it would provide 
for an overall increase in discretionary appropriations of 6.5 percent 
compared to the fiscal year 1999 Appropriations Act. The budget 
continues to emphasize critical investments necessary for the 
management, restoration, and protection of the agency's 192 million 
acres of public lands. In addition, the budget proposes a substantial 
increase of $37.2 million to enhance the agency's leading role in 
Forest and Rangeland Research. Finally, the budget also proposes 
increases in selected State and Private Forestry programs, which are 
key components of the agency's management portfolio that has been 
largely overlooked.
                        presidential priorities
    The President has proposed several initiatives in the fiscal year 
2000 budget, as well as continued investment in the Clean water Action 
Plan, first initiated as part of the fiscal year 1999 budget.
    The President's budget includes a new Lands Legacy Initiative, the 
largest one-year investment ever made in the preservation of America's 
lands. The Lands Legacy Initiative is a $1 billion Federal program, and 
includes $217.6 million in Forest Service funding. The initiative 
focuses on working with States, tribes, local governments, and willing 
private partners to protect great places, conserve open space for 
recreation and wildlife, and to preserve forests, farmlands, and 
coastal areas.
    Currently, 30 million people live within an hour's drive of 
national forest system lands. The pressures on these lands to meet 
growing recreation demand are tremendous. Recently the front page of 
the Portland Oregonian highlighted a decision by the Mount Hood 
National Forest Supervisor to reevaluate a proposal to limit hiking on 
parts of the forests' wilderness lands. Limits were proposed to 
maintain the wilderness character of these hiking experiences, yet 
public outcry required a new look at the proposal.
    National forests adjacent or in close proximity to cities like 
Seattle, Portland, San Francisco, Los Angeles, Boise, Salt Lake, 
Albuquerque, Boston, Durham, NH and many others are increasingly 
challenged to meet the multiple and expanding needs of customers who 
also share in the ownership of these resources.
    In New England, for example, the Forest Service has made judicious 
use of limited land acquisition funds to purchase key recreation areas 
and lakefront properties to ensure continued public access. The Lake 
Tarleton acquisition completed last year in partnership with the Trust 
for Public Land provides one good illustration of how limited 
acquisition dollars can have a large impact in the region.
    Similarly, in partnership with the governors of Maine, New 
Hampshire, Vermont, and New York, the Forest Service has committed 
funds from the Forest Legacy program to aid in acquisition of key 
timber and utility lands that are now being put up for sale in large 
blocks. This is the same program, Mr. Chairman, that we've used in 
partnership with the Mountains to Sound Greenway Trust and other land 
conservation groups in the Pacific Northwest to preserve important 
recreation areas and hiking trails such as those that line the 
Interstate 90 corridor.
    Two elements of the President's Lands Legacy Initiative would 
support the acquisition of long term conservation easements of 
forestlands and open space threatened by development. To be clear, 
these programs are used only to acquire lands and interest in lands on 
a willing seller basis. But we believe additional investment in the 
Forest Service's land acquisition and Forest Legacy programs are 
critical components of the fiscal year 2000 budget.
    I want to also highlight another element of the Lands Legacy 
initiative by use of satellite photographs. I'm sure you recognize this 
part of the world, Mr. Chairman. It's the Puget Sound region and the 
three photos illustrate the degree to which tree cover has disappeared. 
In fact the total loss in this time period has been 37 percent of tree 
cover in the 24 years between 1973 and 1997 as growth occurred in the 
area. I want to thank American Forests for providing me with these 
photos to help illustrate the point that the loss of forested cover in 
rapidly urbanizing environments like Seattle is a risk to the 
watersheds, viewsheds, and, in general, to the quality of life of the 
region. The Forest Service administers programs designed to work with 
communities to help maintain forest cover, preserve open space and 
those quality of life elements that are disappearing in the Puget Sound 
region. The specific program I am referring to is the Urban and 
Community Forestry Program and it is one of the programs proposed for 
increases (and, hopefully, permanent, funding) in the President's 
budget.
    This program is vital to helping communities help themselves 
protect the natural resources in their communities, neighborhoods, and 
backyards. Just three weeks ago, I participated in a project to restore 
a wetland in the Dwuamish estuary in the industrial part of Seattle. I 
know you know that area, Mr. Chairman. I won't suggest to you that we 
can bring back the Dwuamish entirely, but I can assure you that the 50 
or so schoolkids who participated in the project and the Federal, 
State, and local partners who joined in probably got more benefit out 
of the project than the watershed. Projects like this occur every year 
in communities in every State in the nation and the Urban and Community 
Forestry Program makes that possible. This program needs your continued 
and expanded support.
    The President's fiscal year 2000 goal for the Clean Water Action 
Plan is to further enhance Forest Service programs which assure that 
all the nation's lands, not just National Forest lands, provide clean 
water, healthy fish and wildlife habitat, as well as the sustain 
production of goods and services that the public demands of our 
forested lands. Certainly the debate over salmon and the future of 
listed species of salmon, steelhead, and bulltrout has brought regional 
if not national focus to the importance of clean water. It is important 
to keep in mind the fact that approximately 25 percent of the water 
that flows in the west originates in the national forests. Yet the 
health of many national forest watershed has been adversely affected by 
excess roading, logging, and the management activities whose cumulative 
effects are a cause for concern.
    Equally important to watershed health will be appropriate 
investments in sustainable forestry, particularly where insect and 
disease have killed thousands of acres of productive forests leaving a 
powderkeg of dead and dying trees awaiting ignition. For this reason, 
renewed focus is being placed on investments in thinning forest lands 
and treating devastated watersheds through tree removal and prescribed 
fire.
    I know some Members of the Committee have seen the forest risk 
maps. Let me refer to the insect and disease map now. Note the severe 
problem in Northern Idaho as identified by the large red area. In 
recognition of this problem the Forest Service is working cooperatively 
with the State of Idaho to limit the impact of the bark beetles in high 
value stands in recreational and wildland/urban interface areas using 
pheromones to manipulate local beetle populations. The Forest Service 
is proposing watershed restoration work on National Forest System lands 
to improve forest health by removing currently infested trees, reducing 
the build-up of hazardous fuel, and implementing stand treatments to 
restore stands to drought resistant and insect and disease tolerant 
species composition with greater proportions of white pine, western 
larch, and ponderosa pine.
    The fiscal year 2000 budget contains additional initiatives. As was 
proposed last year, the Administration again intends to forward 
legislation to stabilize payments to States. I believe it is essential 
to provide these payments through a process that does not link the 
output of forest products to the education of our rural school children 
or the quality of the roads used by their parents. If enacted, the 
legislation will result in long-term predictability of payments needed 
by the States and counties of America.
    On this subject, Mr. Chairman, I implore the Congress to take a 
different look at this issue. Unfortunately, some would have this be 
another debate over the future of timber harvests on the national 
forests. But this describes the issue in too narrow a context.
    The reality is that this issue is about education. Is it right to 
continue to balance the education of thousands of children in rural 
communities on the back of the timber sale program? If you asked a 
parent of one of those children if they were more comfortable with a 
stable funding base for their children's education needs as opposed to 
funding that depended upon future Federal timber sales, they might 
provide you with a different perspective. And that's not to say that 
the Administration and the Forest Service are not committed to a 
sustainable timber supply from the national forests. We've made clear 
our opposition to ``zero cut.'' But the uncertainties of timber supply, 
dictated by budgets, an annual debate in the halls of Congress, public 
opinion, and local challenges are such that greater certainty is needed 
in terms of the payments to counties for education.
    Let me briefly focus on the forest road system. The fiscal year 
2000 budget seeks increased funding of $22.6 million for maintenance of 
roads important to rural transportation, and to obliterate roads no 
longer need or beyond repair. Although we are pleased with this 
increase, it is important to emphasize that road needs are significant 
and the backlog of deferred maintenance and capital improvement needs 
continues to grow. Let me show you a chart that depicts this. As you 
can see the annual maintenance needs for our road system today is $568 
million as compared to a fiscal year 1999 funding level of $99 million. 
Until we close this gap, either through increased funding or reducing 
the size of the road system, the $8.4 billion backlog will continue to 
grow significantly each year.
    Finally, the President's budget includes a significant increase in 
funding for the Forest Service's Research Program. Research and sound 
scientific information are the foundations for natural resource 
management and critical elements in guiding future natural resource 
management decisions. As recommended in the recent report of the 
Committee of Scientists, we are seeking to enhance our research 
investments to build a stronger link between science and management. 
The proposed increases in research funding in the President's fiscal 
year 2000 budget are vital links to a sound scientific foundation for 
sustainable forest management.
                                summary
    Mr. Chairman, I will end my remarks simply by restating that I am 
confident that with your support we can work together to build a Forest 
Service program that accomplishes long-term land health objectives, 
delivers clean water, provides quality access, assures diverse 
recreational opportunities for greater numbers of Americans, and 
continues providing strong livelihoods for communities for generations 
to come.
    I know that the numbers are tighter and therefore, the challenges 
even greater. But, we've done it before and, with your continued 
leadership, will do it again. I look forward to working with you in 
constructing the fiscal year 2000 budget; the agency's first step 
toward its second century of conservation leadership.
    Thank you for the opportunity to address you today. I would be 
pleased to answer any questions you may have.

                   summary statement of mike dombeck

    Senator Gorton. We will hear first from Mr. Dombeck.
    Mr. Dombeck. Thank you, Mr. Chairman. Senator Byrd, 
committee members, I appreciate the opportunity to be here to 
talk about our Forest Service programs.
    I have with me the Deputy Chief of the Programs of the 
Forest Service, Vincette Goerl, Deputy Chief, Chief Financial 
Officer; Ron Stewart, Programs and Legislation; and we also 
have Gloria Manning, from National Forest System; Robert Lewis, 
from our Research and Technology Development; Clyde Thompson, 
Business Operations; and Janice McDougle, from State and 
Private Forestry.
    I have been in the job now about 2 years, just a little bit 
over that. In fact, it has been an interesting ride, seeing the 
evolution and being part of the controversy of natural resource 
management in the United States, and the issues that the Forest 
Service has been involved in, and as one who likes history, it 
is interesting to see that many of the controversies we are 
dealing with today are very similar to the controversies that 
the first chief of the Forest Service, Gifford Pinchot, dealt 
with. I think one of the premises that I like to keep in mind 
is that we need to maintain our view on the long-term interest 
and health of the land and the communities that are dependent 
upon the land.
    The 2000 budget that we will be discussing, I will be happy 
to highlight some of those areas, but one thing that strikes 
me, especially over the last couple of decades, is that the 
makeup of our demographics, the urban growth in the United 
States, the continual change in stress on local communities, 
that fewer people are viewing the national forest as a 
warehouse of commodities to be taken to market, and more people 
are putting values on the overall health of watershed 
management, forest health, and the moralistic values that the 
forest ecosystems provide in this country.
    The ensuing controversy that I mentioned has emanated in 
many, many ways, and I am sure we will discuss many of those 
ways soon, but some people look to you, the Congress, to fix 
problems that they see depending on how their interests are 
affective. Others push appeals to the limit, so the agency can 
get on with either producing timber or not producing it, 
depending upon their point of view, and still others ask the 
courts to resolve land use policies through litigation, and 
oftentimes we find ourselves as the wrestling mat waiting for 
someone else to focus on resolving our issues.
    I am hopeful that this budget and the continuing dialog 
that we can have by working more closely with local 
communities, with the communities of interest, will enable us 
to move forward in the long-term health of the land, because 
healthy watersheds, as the Organic Administration Act points 
out, as well a sustainable supply of timber are important to 
what we do on national forests.
    In fact, I am one who believes that there is room for a 
reasonable flow of outflows of timber, livestock, water, the 
recreation opportunities, the many, many other wildlife 
habitats that are dependent upon national forests.

                               watersheds

    I want focus on water and what watersheds do for us just a 
moment here with this graphic. It is interesting to note that 
of the world's water supply, .008 percent is renewable fresh 
water. This is the very water that agriculture, that humanity 
is dependent upon, in a sense, this tiny drop of the entire 
amount of water that is on the globe, and we have increasing 
urban pressures, increasing populations, and increasing uses of 
this water.
    If we could take a look at the next graphic we can see that 
the national forests are the largest single source of water, 
making up about 14 percent, and then if we take a look at all 
the forest lands of the United States, about 66 percent of the 
runoff comes from all of these lands. The fact is that the best 
water quality in the United States is coming off of our 
forested lands. These are also the anchors for many of our 
aquatic species that we have concerns over.
    It is also interesting to note that 60 percent of the 
nation's runoff occurs east of the Mississippi, and about 70 
percent of that occurs from private forest lands. The picture 
is somewhat different in the West.
    For example, in California, national forests occupy about 
20 percent of the State of California; yet, 50 percent of the 
runoff that occurs in the State of California comes off of 
National Forest System lands, and water, of course, is one of 
the issues that will be of increasing importance to all 
Americans as time marches on.

                            timber harvests

    Now, as we move through the debate, there are those that 
advocate we move to the timber harvest outputs of 10 years ago, 
and then there are those that promote zero cut. My reaction to 
that is, we need to have a little more realism in the debate. 
In fact, the budget proposals provide funding for outputs, 
which we believe are consistent with land health.
    I do not visualize timber harvests of 10 years ago, and 
also I do not visualize a wealthy nation like the United States 
and the science that we have being totally dependent upon 
third-world nations that have lesser environmental protections 
than ours, so I believe a sensible timber program is important, 
and the fact is, we have the best science, the best 
technologies in the world here in the United States, and it is 
important that we work together to move the debate forward.

                     sustainable forest management

    I would like to now move to sustainable forest management. 
I just recently returned from a trip to California where I was 
at the Eldorado National Forest, but this is a similar 
situation that I believe Senator Bennett spoke of, and I know 
in every State in the West at least we had this type of 
situation.
    This was the Cleveland fire. It occurred in 1992. We lost 2 
lives, 22,000 acres, 3,500 acres of Spotted Owl habitat, 41 
homes, and other buildings burned. It destroyed the Eldorado 
Canal, which supplied water to local communities on the 
Eldorado.
    Now, if we could take a look at the next graphic. Note the 
island that was left behind. There were several islands like 
this left behind. The reason that we have these, if you will, 
inclusions that survive is because of management practices that 
have occurred on that land, prescribed burn, those types of 
things, and we need to apply this type of technology every 
place that we can, and the fact is, that watershed, for a time, 
lost a great portion of its watershed function, and yet in the 
areas where we see the inclusions of green, the soils survived, 
watershed function was maintained at least in part, and we can 
apply these kinds of technologies and need to be applying these 
technologies every place we can, and we can afford to.
    Now, if we could take a look at the next graphic, this is 
another shot on the Eldorado National Forest. This is a before 
picture, before management practices were applied, in this 
case, thinning some level of harvest that was economic, by the 
way. Now, let us take a look at it after.
    We see we have a situation here, if we have a tough fire 
year, which we are going to have in many parts of the country 
this year, like in your State, Senator Domenici, it is 
exceedingly dry right now, we may experience a fire there, but 
it is likely that it will not be a stand-replacing fire, that, 
in fact, the next step in the management practice there would 
be to do a prescribed burn, and then enter into a routine of 
prescribed burn, and the appropriate level of management to 
move forward.
    Let us just take a look at the last one. I was at this spot 
just a couple of weeks ago, and I believe that if we could all 
get out in the field and look at some of these things that many 
of the things that we discuss in our hearings and other places 
like this that we could reach agreement. The fact is that we 
need to apply the best technologies.
    What we have on the right-hand side of the road is a fairly 
healthy situation, where we have applied the science and the 
management techniques. On the left-hand side of the road we 
basically have problems that need to be addressed and we need 
to make investments in those areas.

                        financial accountability

    I just like to spend a few minutes, Mr. Chairman, making 
some comments about accountability and financial management. I 
do not think there is another chief of the Forest Service that 
has had more hearings on financial management accountability 
than I have, and I have only been on the job for 2 years, and 
we have gotten the message, believe me, and we are in the 
process of moving forward in a variety of things. I have 
Vincette Goerl here to talk in detail about those things.
    No. 1 is, I feel it is important for the Forest Service to 
do what it has to do internally with regard to administrative 
procedures, streamlining what we can streamline before we come 
to the Congress and ask for changes. We have begun to do many 
of those things. For example, we have eliminated retroactive 
redistribution, we have reformulated work activity codes and 
management codes, we have eliminated, if you will, almost a 
million management codes that Vincette will talk about soon.
    The business of financial management and accountability 
also involves behavioral changes. You have an organization that 
has a very decentralized culture, and that is the way resource 
management should be, because watersheds and ecosystems are 
different in one part of the country than another, but the fact 
is a credit and a debit is the same wherever we go, so we are 
working hard conducting training sessions and those kinds of 
things to make sure that our accounting systems are what they 
should be.
    I was part of getting a clean financial audit for the 
Bureau of Land Management when I worked there a few years ago, 
and Vincette Goerl comes highly qualified, was part of the 
Custom Service getting a clean financial audit, is currently 
the president-elect of the D.C. Chapter of the Association of 
Government Accountants, the National Finance Chair of the 
Business and Professional Women's Club, and I have made 
financial management and accountability as an equal priority to 
resource management in the Forest Service by basically creating 
a chief financial officer side of the organization that deals 
with the business management side that Vincette Goerl is a part 
of, as well as maintaining the natural resources side of the 
program through the Associate Chief for Natural Resources and 
deputies associated with that.

                        multiple-use management

    So we have a lot of ways to go on budget structure. We want 
to work on that, but I just in closing want to say that 
multiple-use management is alive and well.
    The balances may be different, but the fact is our 192 
million acres of national forest, we have 380,000 miles of 
roads, $30 billion worth of infrastructure, 74,000 authorized 
uses, 23,000 developed recreation sites.
    We have 35 million acres of wilderness, we have 5.8 billion 
board feet of timber under contract. We graze about 2.1 million 
animal unit months. We have 960 hard-rock mining operation 
proposals that were approved in 1998. We have about 3,400 
operations, minerals operations, that we administer. We have 
about 500 energy operations, 859 million recreation visits to 
the national forest.
    What we have in this organization that oftentimes is under 
fire, is we have the best forest and rangeland research 
organization in the world. We have some of the best technical 
assistance that we provide to State agencies through our State 
and private forestry program. We have the best wildland fire 
fighting organization in the world.

                           prepared statement

    My hope is that our resource policy debates do not detract 
from the need to streamline, to focus on what is good for the 
land, and I think we all want a smooth running operation that 
is efficient, that is effective, and I am sure that is a goal 
that we share, Mr. Chairman, and with that I will ask that my 
statement be entered into the record, and we would be happy to 
answer any questions you might have.
    Senator Gorton. Both your written statement that of Mr. 
Lyons will, of course, be included in the record.
    [The statement follows:]
                   Prepared Statement of Mike Dombeck
    Chairman Gorton, Senator Byrd, and members of the Subcommittee, 
thank you for the opportunity to appear before you this afternoon to 
discuss the Forest Service's proposed budget for fiscal year 2000.
    In February, I addressed our employees in Missoula Montana about 
the state of the Forest Service. I would like to review some of those 
remarks today as I discuss the proposed budget for the Forest Service.
    I am honored to have served as Chief of the Forest Service for over 
two years. During this time, I have had the pleasure to be a part of 
the continuing evolution in the direction of the Forest Service. I have 
come to appreciate that many of the conflicts we face today over 
management of natural resources are very similar to the conflicts faced 
by the agency's first Chief, Gifford Pinchot. What made the Forest 
Service unique under his leadership was a set of conservation values 
that were not always popular, but which reflected the long term 
interest of land health. Mr. Chairman, as in the days of Gifford 
Pinchot, the values put forth in the President's fiscal year 2000 
budget emphasize long term health of the land.
    In my testimony today I want to concentrate on the values of 
healthy land by elaborating on some key areas: 1) the major changes 
reflected in the President's budget that set a new leadership direction 
for the Forest Service; 2) how the Forest Service Natural Resource 
Agenda reflects these values; and 3) how we are addressing important 
accountability issues. Let me first address some overall perspectives 
about where the Forest Service has been and where the Secretary and I 
want to take it in the future.
    Over the last decade there has been a significant change in how 
society views conservation values. Many people have ceased viewing 
publicly owned resources as a warehouse of outputs to be brought to 
market and instead have begun assigning greater value to the positive 
outcomes of forest management.
    The result of such change is that we often find ourselves caught in 
the middle between competing interests. Some look to you, the Congress 
to ``fix'' the legislation that they perceive has negatively affected 
their interests. Others push to limit the number of appeals, so the 
agency can get on with producing timber or stopping timber production, 
as the case may be. Still others ask courts to resolve land use 
policies through litigation.
    Too often we find ourselves waiting for someone else to resolve our 
issues for us. I think that must end. The budget we are going to talk 
about today sets the framework for the Congress, the Administration, 
the States, local governments, and private parties to begin working 
together in a new way to collaboratively resolve conservation 
conflicts. The central premise of our approach is that by restoring and 
maintaining a healthy land base on public and private lands alike, we 
can ensure that our children, and their children's children enjoy the 
benefits of land and water.
    Mr. Chairman, with healthy watersheds as a foundation, there is 
room for a reasonable flow of outputs; timber and livestock 
specifically, but many other products also. There is and will be the 
ability to produce cleaner water. There is a land base which will allow 
us to set aside additional places untrammeled by human beings, and 
there is an ability and a necessity to preserve now and for generations 
to come, additional open spaces before such spaces are fragmented or 
degraded due to private land development, urban sprawl, and other such 
issues.
    For those who advocate a return to timber outputs of 10 years ago, 
or those who advocate a ``zero cut'' philosophy, I say it is time to 
inject realism into the debate. The President's budget provides funding 
for outputs which are consistent with land health. I can not visualize 
a circumstance when such outputs will ever be at the level of 10 years 
ago, but I say to the other side of the spectrum, timber harvest will, 
and should continue. The President's budget contains innovations that 
recognize the ability of people to restore ecosystems from those 
already degraded, using modern science and technology, where people 
have either contributed to poor land health by over using the land, 
built roads in unstable or overly steep terrain, or prevented natural 
processes such as fire. We can improve the health of these areas, and 
do so by not only allowing the removal of forest products but by 
demonstrating in some cases such activities can contribute to forest 
health. The more timber harvest contributes to ecological 
sustainability, the more predictable timber outputs will be. This 
budget presents a solid balance that if enacted will help accomplish 
these goals.
    The Forest Service serves many people. With our 192 million acres, 
383,000 miles of roads, $30 billion infrastructure, 74,000 authorized 
land uses, 23,000 developed recreation sites, tens of thousands of 
dispersed recreation sites, and 35 million acres of wilderness, the 
national forests are many things to many people. The Forest Service has 
the premier Forest and Rangeland Research organization in the world 
which is involved in research to improve land health and to improve the 
experiences enjoyed on the land by Americans.
                  specifics of the president's budget
    The President's budget creates a new focus on State and Private 
Forestry programs. Over time, our leadership capacity to assist those 
who manage the more than 500 million acres of forests outside of the 
national forest system has diminished. One of our greatest 
contributions to society will be our ability to bring people together 
to provide technical assistance and scientific information to States, 
private landowners, and other nations of the world. The fiscal year 
2000 proposed budget contains an increase of $80 million in State and 
Private Forestry, and $37 million in Forest and Rangeland Research to 
increase our involvement in this critical collaborative role. Consider 
that we have been spending about $2 billion annually to manage the 192 
million acres of national forest land, yet spend less than $200 million 
in support of the 500 million acres of State managed and privately 
owned lands.
    With this budget, support to State and locally managed lands and 
non-industrial private lands dramatically increases. The budget 
proposes $218 million for the Lands Legacy Initiative, which will make 
new tools available to work with States, tribes, local governments, and 
private partners to protect great places, to conserve open space for 
recreation, and wildlife habitat; and to preserve forest, farmlands, 
and coastal areas. This $218 million is part of the President's bold 
Government wide initiative to provide $1 billion for the Lands Legacy 
Initiative.
    The President's budget also continues support for key programs 
initiated with the fiscal year 1999 budget by targeting an increase of 
$89.4 million for the Clean Water Action Plan to maintain priority 
attention to the health of watersheds on Federal, State, and private 
lands. Let me show you two displays which graphically emphasize the 
importance healthy watersheds, not only on the National Forests, but 
from all forested lands. As the first graphic shows the total readily 
available fresh water represents less than 1 percent of the total world 
supply. It is truly a precious resource. The second chart shows that 
although water from the National Forests is important, only 14 percent 
actually originates from the National Forests. The vast majority 
originates from other forested lands in the United States. I believe 
this clearly shows the importance of the President's Clean Water Action 
Plan.
    Forest and Rangeland Research programs are an important aspect of 
emphasis in the President's budget. In addition to funds to support 
global climate issues, an additional $14 million is proposed for the 
Integrated Science for Ecosystem Challenges project which addresses 
science and technology needs related to ecological systems.
    The President is also proposing as part of this budget several new 
legislative initiatives. Most notably, a proposal similar to one put 
forward last year, to stabilize payments to States and counties by 
separating payments to counties from a reliance on receipts generated 
by commodity production. At the beginning of my testimony, I noted the 
need to manage outputs from the national forests in a manner consistent 
with land health. In doing so, emphasis for producing those outputs has 
changed. For example, today a significant number of timber sales are 
sold for stewardship purposes rather than pure commodity objectives. 
There is an increase in the sale of dead or dying timber. In these 
cases receipts are less than were experienced several years ago. I 
expect this trend to continue particularly in the west. What we are 
asking is, why should the richest country in the nation finance the 
education of rural schoolchildren on the back of a controversial 
Federal timber program? The Forest Service has a stewardship 
responsibility to collaborate with citizens to promote land health. 
Collaborative stewardship implies an obligation to help provide 
communities with economic diversity and resiliency so they are not 
dependent on the results of litigation, the whims of nature or 
unrelated social values to educate their children and pave their roads. 
We need to work together so States and counties can anticipate 
predictable payments on which to base education and road management 
decisions.
                        natural resource agenda
    The President's budget contains many important initiatives. It also 
contains a broad program of funding for management of national forest 
lands. Just one year ago I announced the Natural Resource Agenda, which 
is a comprehensive science based agenda that will lead management of 
the agency into the 21st century. As an integral partner with the 
Government Performance and Results Act, this agenda focus on four 
areas; (1) watershed health and restoration, (2) sustainable forest and 
grassland ecosystem management, (3) the national forest road system, 
and (4) recreation.
    I want to highlight briefly our emphasis in each of these areas. A 
retired Forest Service employee offered me some advice a while back. He 
said, ``if you just take care of soil and water, everything else will 
be OK.'' Multiple use does not mean we should do everything on every 
acre simply because we can. We must protect the last best places and 
restore the rest. Forest Service lands are truly the headwaters of 
America. They contain riparian, wetland, and coastal areas that are 
essential for the nation's water supply and prosperity. The President's 
budget provides an increase of $48.6 million included in programs such 
as wildlife habitat management, watershed improvements, fisheries 
habitat management, rangeland vegetation management, threatened and 
endangered species habitat management, and State and private forest 
health programs. These increases will allow the Forest Service to make 
important watershed restoration and protection efforts.
    Restoration and maintenance of watershed health is contingent on 
quality land management planning. As you know, the Committee of 
Scientists has issued final recommendations on forest planning. The 
Committee's recommendations will be used to prepare a draft planning 
rule so that future forest plans will support how we will:
  --provide an informed collaborative basis for decisions about 
        management activities, protection objectives and restoration 
        potential;
  --provide for the protection, maintenance, and recovery of native 
        aquatic and riparian-dependent species and prevent the 
        introduction and spread of nonnative species;
  --provide for monitoring to insure we accomplish our objectives in 
        the most cost-effective manner;
  --include the best available science and research, in a collaborative 
        manner with interested citizens; and
  --provide opportunities to link social and economic benefits to 
        communities through restoration strategies.
    I believe our new planning approach will be invaluable in breaking 
the forest planning gridlock that is hampering national forest 
management in so many areas.
    A second area of the Natural Resource Agenda is sustainable forest 
and grassland management. The President is proposing a billion dollar 
initiative to protect open space, benefit urban forests, and improve 
the quality of life for the 80 percent of Americans living in urban and 
suburban areas. Through sustainable forest and grassland management, 
the Forest Service will play an essential role in accomplishment of 
this initiative. The President's budget provides an increase of $113 
million in State and Private and Research programs which are integral 
to protecting and restoring the lands and waters that sustain us. We 
will collaborate with State fish and wildlife agencies, State 
foresters, tribes, and others to develop conservation and stewardship 
plans for an additional 740,000 acres of non-industrial private 
forestland. We will help States protect an estimated 135,000 additional 
acres of forestland through acquisitions and conservation easements. We 
will acquire environmentally sensitive lands through the Land and Water 
Conservation Fund, and we will include nearly 800 more communities in 
efforts to conserve urban and community forests. In addition, 300,000 
more hours of conservation training will be provided to local 
communities.
    Mr. Chairman, I am truly excited about budgetary emphasis in 
sustainable forest and grassland management through cooperation and 
collaboration. This emphasis will carry into many programs including 
fire management where we will employ fire as a tool to give priority to 
high-risk wildland/urban interface areas where people, homes and 
personal property are at risk. An excellent example of this need can be 
understood if we examine the 1992 Cleveland Fire on the Eldorado 
National Forest. This fire tragically claimed two lives, destroyed 
22,500 acres including 3,400 acres of Spotted Owl habitat, and burned 
41 homes and other buildings. In addition, the fire destroyed the El 
Dorado Canal which supplied water to the local communities of Pollock 
Pines and Camino. In examining this fire, we found there were several 
areas of large trees which survived despite the intense flames. Here 
topsoils were not destroyed and watershed functions continued, at least 
in part. These trees survived because prescribed burns over the 
previous 13 years had removed fuels sufficiently to prevent intense 
heat that would have otherwise destroyed these trees.
    Based on the lessons learned about the benefits of this active 
management, the Eldorado National Forest identified 17 other areas 
where forest health projects could avert similar fire disasters through 
the use of innovative contracting techniques which involved selling 
commercial timber as well as removing small diameter trees. The timber 
stand which was left provided extensive wildlife and fisheries habitat 
and substantially reduced the fire hazard. Not only was forest health 
improved, but the timber sales produced positive economic results. The 
agency collected $3 million in receipts from an investment of $430,000. 
When the positive effect on the economy is considered this effort to 
protect land health resulted in a total economic benefit of $4,300 per 
acre on an investment of $165 per acre. Let me show you some graphics 
which highlight this very successful effort. I don't want to portray a 
situation where all such circumstances will result in positive economic 
return, but I do want to point out how in many cases we have the chance 
to improve forest health and support the local economy.
    As a result of this and other experiences we understand that 
resources must be devoted to using fire and other tools, such as 
thinning, to reduce accumulated fuels adjacent to urban and wilderness 
areas alike, to aid threatened and endangered species, and to help 
lower long term costs of suppressing wildfires and protect public 
safety. The stewardship end-result contracting authority which this 
Subcommittee included in the fiscal year 1999 Appropriations Act, gives 
us similar opportunities to employ innovative contracting techniques to 
improve forest health.
    Now I would like to turn to one of the more challenging aspects of 
the Natural Resource Agenda. That involves management of the National 
Forest Road System. As you know, on February 11, I announced an interim 
suspension of road construction in most roadless areas of the national 
forest system. We offer this time-out to reduce the controversy of 
roadless area entries in order to reduce damage to a road system which 
is already in disrepair.
    A personal source of frustration is that few people or interest 
groups are focused on the issue of our existing road system as opposed 
to the roadless area issue. Yet if we care about restoring the 
ecological fabric of the landscape and the health of our watersheds, we 
must concentrate on areas that are roaded in addition to those that are 
not. Let me show you a display which I believe clearly displays the 
need to focus attention on the existing road system, not roadless 
areas. As the chart shows, of the total estimated road program that 
would have occurred in the absence of a suspension only 262 of 9,210 
miles, or 3 percent of roads planned for reconstruction or construction 
would be affected, and only 221 million board feet of 5.7 billion board 
feet, or 4 percent of the planned timber sale volume would be affected.
    The President's budget proposes a $22.6 million increase in the 
road budget, primarily for maintenance. The agency has an estimated 
road maintenance backlog of over $8 billion. Meanwhile we are only 
maintaining 18 percent of our roads to the safety and environmental 
standards to which they were built. With the proposed funding level in 
the fiscal year 2000 budget, we will increase by 50 percent from 1998, 
the miles of road to be decommissioned or stabilized. We will increase 
the percentage of forest roads maintained to standard from 18 percent 
to 24 percent.
    With roads that could encircle the globe many times, our road 
system is largely complete. Our challenge is to shrink the system to a 
size we can afford to maintain while still providing for efficient and 
safe public access in a manner that protects land health.
    Over the year, we will develop a long term road policy with three 
primary objectives: (1) develop new analytical tools to help managers 
determine where, when or if to build new roads, (2) decommission old, 
unneeded, unauthorized, and other roads that degrade the environment, 
and (3) selectively upgrade certain roads to help meet changing use 
patterns on forests and grasslands.
    Management of roads is very important to local communities that 
rely heavily on these roads for livelihoods and rural transportation. I 
expect decisions about local roads to be made by local managers working 
with local people and others who use or care about our road system. We 
will obviously continue to provide access to and through forests. 
However, it is clear that we simply cannot afford our existing road 
system.
    The fourth element of the Natural Resource Agenda involves 
recreation. The President's budget provides strong support to the 
recreation program. With appropriated funds totalling $288 million, and 
additional funds provided from the recreation fee demonstration project 
receipts and the ten percent road and trail fund, this program will 
continue to provide strong support to the 800 million annual visitors 
which we expect to increase to 1.2 billion over the next 50 years.
    The Forest Service recreation strategy focuses on providing 
customer service and opportunities for all people. The successful 
recreation fee demonstration program has served many people at the 
sites operated under the program through improved visitor experiences 
and repair and upgrade facilities which were badly in need of 
attention. I strongly support continuation of this program. I do want 
to pass on one caution lest this program is viewed as an answer for 
reducing future recreation discretionary funds. The recreation fee 
demonstration program serves many people in a limited number of 
recreation sites. The Forest Service recreation program is highly 
dispersed. It is the place for a family drive or hike on a Sunday 
afternoon, a weekend camping trip, or a week long grueling hike in the 
rugged backcountry. Many of these experiences do not lend themselves to 
a recreation fee demonstration type program. In fact, less than 10 
percent of forest recreation visits occur at fee demonstration sites. 
As the backyard playground for many Americans, it is essential we 
maintain a recreation program that allows enjoyment of the national 
forests without charge in addition to fee programs in limited areas.
    A key part of enhancing this dispersed recreation is through our 
wilderness management program. The President's budget includes an 
increase of $7 million for protection and restoration of natural 
conditions in wilderness and to mitigate the impacts of high use areas 
adjacent to large population centers. The wilderness legacy is a crown 
jewel. I am committed to increasing the Forest Service commitment to 
the Wilderness Act and intend to give more emphasis through increased 
land management planning and re-establishment of a national wilderness 
field advisory group.
    Each of the four emphasis areas of the Natural Resource Agenda 
links directly to one or more of the goals of the Results Act Strategic 
Plan. I am pleased that the President's budget supports this plan for 
moving forward.
                     forest service accountability
    Successful implementation of the President's initiatives and the 
Natural Resource Agenda is dependent on having the trust of Congress 
and the American people. To be trusted, we have to be accountable for 
our performance. We have to be able to identify where our funds are 
being spent, and what America is receiving in return. We have to do 
this as efficiently as possible in order to assure that a maximum 
amount of funds are spent on the ground for intended purposes without 
being diverted for unnecessary overhead.
    Mr. Chairman, as you know, the Forest Service has had problems with 
accountability in the past. We have been the subject of more than 20 
oversight reports and internal studies. We have been resoundingly 
criticized for having poor decision making, either bloated or 
inaccurate overhead costs, and non-responsive accounting systems. While 
some of this may be exaggerated, I fully acknowledge that some is true. 
We've got the message. We will improve dramatically. Let me highlight 
several initiatives that are now underway.
    First and most importantly, I have made it clear through 
organization changes and personal statements that the business and 
financial management functions of this agency are equally as important 
as attention to managing the resources. I have placed business 
management professionals in operations and financial management 
positions. We have established a Chief Operating Officer at the 
Associate Chief level which reports directly to me, thus placing our 
business management functions on an operating level equal to that of 
our natural resource functions. We have brought in a new Chief 
Financial Officer at the Deputy Chief level to implement the Foundation 
Financial Information System. This is her top priority, with a goal of 
achieving a clean financial opinion from the General Accounting Office 
as soon as possible.
    It is also time to reform our budget structure. I want to work with 
the Congress and the Administration to design a budget structure that 
reflects the work we do and the Results Act Strategic Plan on which the 
Natural Resource Agenda is based. The current budget structure does not 
support the integrated work necessary to restore and maintain land 
health while promoting ecological sustainability.
    In order to ensure accountability while implementing a new budget 
structure, we will employ land health performance measures to 
demonstrate that we can have a simplified budget and improve water 
quality, protect and restore more habitat, and improve forest ecosystem 
health.
    In fiscal year 2000 we will begin to implement reforms to our trust 
funds. We will examine alternatives for trust fund management in the 
future to avoid unintended incentives to pursue forest management 
activities that are not consistent with land health objectives.
    For the first time, at the direction of Congress, we have developed 
and implemented standard definitions for indirect costs which are in 
full compliance with the Federal Accounting Standards Advisory Board. 
These definitions have been reviewed by several oversight groups. Based 
on these definitions, for the first time we have accurately determined 
indirect expenses for the agency, which during fiscal year 2000 we 
project to be 18.9 percent.
    As you know, the issue of indirect costs, often referred to as 
overhead, received extensive attention during the 105th Congress, as 
did the poor quality of our financial system and records. I want to 
make a specific request as your Committee examines our budget in the 
coming year. I ask for your patience and support in rectifying much of 
our accountability problems. The Forest Service's financial management 
and reporting of overhead took a decade or more to fall into disrepair. 
It will take more than a year to fix the problem. Let me emphasize that 
we are devoting extensive resources to implementing new financial 
systems, improving our audit processes, and improving decision making. 
The resources we devote to make these fixes involves expenditures of an 
overhead type nature. As we concentrate on cleaning up our problems, we 
need to have flexibility without legislated limitations which could 
prevent us from being successful.
    In my testimony today, I have reviewed the President's initiatives, 
discussed the Natural Resource Agenda, and described our intent to 
improve agency accountability. In conclusion, I want to say that a 
Forest Service that meets the needs of the American people and restores 
and preserves the health of the nations forests and rangelands, is a 
goal we all strive for. I'll leave you with some thoughts based on Aldo 
Leopold's Sand County Almanac:

          Let us recommit ourselves to an invigorated nation and land 
        ethic. An ethic that recognized that we cannot meet the needs 
        of people without first securing the health, diversity, and 
        productivity of our lands and waters. An ethic that understands 
        the need to reconnect our communities--both urban and rural--to 
        the lands and waters that sustain them. An ethic that respects 
        that the choices we make today influence the legacy that we 
        bequeath to our children and their children's children.

    That concludes my remarks. I would be pleased to answer any 
questions you may have.

                   wood education and resource center

    Senator Gorton. Now, Senator Byrd, why do you not go on 
with your questions. I have extensive ones, so I am going to 
wait until last, and other members can stay if they wish, but 
you can go ahead.
    Senator Byrd. Thank you very much.
    Chief Dombeck, the President's budget request includes I 
believe $1.5 million for the Wood Education and Research 
Center, near Princeton, West Virginia, as part of the State and 
private forestry budget, but the current funding for the Center 
is $2.5 million. Now, does that mean that there is a reduction 
of $1 million from its fiscal year 1999 budget?
    Mr. Dombeck. Let me ask Janice McDougle, who is responsible 
for that program area, to give you the details on that, 
Senator.
    Senator Byrd. All right.
    Ms. McDougle. Yes, Senator, there is a reduction of $1 
million from fiscal year 1999's budget. What I would like to 
say about this is that in 1998 we had a budget in our economic 
action programs of about $11 million. In 1999, it went from $11 
million to $16 million, and we are appreciative of that, but 60 
percent of that $16 million were earmarks. This is a national 
program that serves many forest-dependent programs, and it does 
not go very far.
    We think that with the help of the partners that we have at 
the Center we can leverage those dollars for 2000.
    Senator Byrd. I believe the $2.5 million is what I added, 
is it not----
    Ms. McDougle. That is correct.
    Senator Byrd [continuing]. For the fiscal year 1999 
appropriations.
    Ms. McDougle. Yes, sir.

     institute of hardwood technology transfer and applied research

    Senator Byrd. Now what you have here, you formed a 
partnership between the Wood Education and Resource Center and 
the Princeton Research Lab, which is located near the Center. 
This partnership is called the Institute of Hardwood Technology 
Transfer and Applied Research.
    We have been having a lot of problems with the Wood 
Education and Resource Center, that was not making a go of it, 
so I worked with the Forest Service to have the Forest Service 
try to make something out of it that would recompense the 
taxpayers for the money they invested in it.
    I cannot understand how we can do that if you are going to 
reduce the $2.5 million that we had there last year, meaning 
fiscal year 1999, reduce it by a million dollars, to $1.525 
million. I cannot understand how we are going to do that.
    Ms. McDougle. It is our understanding, as has been in the 
past, that eventually the Center would be self-sufficient. We 
think we have made substantial progress since the fiscal year 
1999 budget in terms of partnerships. We have developed 
partnerships with the Department of Energy----
    Senator Byrd. I am interested in this one item right here. 
Tell us about the partners in the Institute.
    Ms. McDougle. What is it that you want to know? I am sorry.
    Senator Byrd. Well, I asked a question. Please explain the 
Institute for Hardwood Technology Transfer and Applied Research 
concept, and the partnership between the Princeton Research Lab 
and the Wood Education and Resource Center. You say we think we 
are making a lot of progress with partners in the various 
institutes, or whatever, and I asked the question, are there 
any other partners in this institute?
    Ms. McDougle. Yes.
    Senator Byrd. What are they?

                         institute partnerships

    Ms. McDougle. The Department of Energy, West Virginia Army 
National Guard, West Virginia Forestry Association, West 
Virginia Wood, the technology center, and the University of 
Morgantown.
    Senator Byrd. How many people do you have working here at 
this Wood Education and Resource Center?
    Ms. McDougle. I am not sure of the number we have there at 
this time.
    Senator Byrd. Well, if we do not know how many people we 
have there, how can we say we can stand a $1 million reduction?
    Ms. McDougle. We believe that we can maintain the Center 
and leverage those dollars in fiscal year 2000.
    Mr. Dombeck. What we can do, Senator, is we will be happy 
to provide you a breakdown of the partnerships, the 
contributions, as well as the employee roster.
    Senator Byrd. Would you come to my office and talk with me 
about this item?
    Mr. Dombeck. I would be happy to.
    Senator Byrd. I want to understand why we are reducing this 
by $1 million. We are just starting. We just put one foot 
forward this year. I am trying to make something out of this 
particular center. The Princeton Research Lab has been there 
for probably 30 years, the wood marketing research center, and 
I got the first $250,000, or perhaps it was $400,000, for it 
more than 30 years ago, and that has been doing a good job.
    But then we added this other facility, it was not paying 
its way, and I suggested the Forest Service take it over and 
work with the two facilities and see if we cannot make some 
money there for the Forest Service, and here we start out the 
very first year after we have created this complex, the very 
first year we cut it $1 million. That is not going to fly here. 
It is not going to fly, not here in this subcommittee. We have 
to have some explanation for that, do you understand that? Do 
you?
    Mr. Dombeck. Yes.
    Senator Byrd. All right. So let us have a little visit in 
my office. I want you to explain this in detail to me. Now, do 
I have time for one more question, Mr. Chairman?
    Senator Gorton. You certainly do.

                      monongahela national forest

    Senator Byrd. I want to pick up on what you were saying 
about watershed restoration, Mr. Dombeck. The watersheds of the 
Monongahela National Forest have been degraded by past logging 
practices and wild fires, which have resulted in heavy loads of 
fine sediments clogging its streams.
    Restoration of these watersheds is important to improving 
the wild trout populations and attendant recreational 
opportunities. Almost 80 percent of West Virginia's native 
trout streams lies within the Monongahela National Forest.
    The Monongahela National Forest has identified 25 
watersheds that need to be assessed for restoration needs. The 
State of West Virginia has identified four watersheds partly 
within the Monongahela National Forest that need restoration. 
The Monongahela National Forest has spent a total of $2.1 
million in the past 2 years on watershed restoration projects.
    Now, I commend you on your emphasis on the need for water 
supply and pointing out that a very high percentage of the 
water supply that we can use that is potable and drinkable 
comes from the national forest. Is that what you said?
    Mr. Dombeck. Yes.
    Senator Byrd. The Monongahela National Forest is one of the 
Forest Service units that desperately needs these dollars to 
correct old problems and restore some of the important fish and 
aquatic resources in West Virginia. While we have started to 
make progress in restoring these watersheds, you still have a 
way to go.
    How much have you recommended as an increase in watershed 
improvements in your budget request?
    Mr. Dombeck. Nationwide, the watershed health and 
restoration items specifically are about $48 million. Now, I 
also want to point out that many of the other areas that 
influence this, and this relates to our budget structure like 
the roads program----

                         watershed improvements

    Senator Byrd. I do not want to hear that right now, and I 
do not mean to be discourteous to you. I only have a very 
limited amount of time. What is your total increase for 
watershed improvements in this budget request?
    Mr. Dombeck. About 13 percent for watershed health and 
restoration.
    Senator Byrd. In dollars how much is that?
    Mr. Dombeck. About $48 million.
    Senator Byrd. How much is that over 1999?
    Mr. Dombeck. It is about a $10 million increase.
    Senator Byrd. $10 million. Now, what is the process for 
determining which regions will get a portion of the increase?
    Mr. Dombeck. What we are involved in with out budget 
process is taking a look at the regional allocations, and I can 
give you some breakdowns of regional allocations, but I might 
ask Gloria Manning, who runs the national forest system, to 
give you that breakdown.

                      regional allocation criteria

    Ms. Manning. Senator Byrd, what we have is, we have 
allocation criteria that the regions got together with us and 
set the criteria. It is based on the resources that are there, 
the population, condition of the resources, and we allocate 
from the Washington office, based on that, to the regional 
office, and then the regional office, in turn, takes their 
criteria, which we do not have with us today, but we can 
furnish you, to decide which forests get what percent.
    Also, I would like to add that we are working with the 
States, once they identify the priority watersheds, to focus 
that money that we do have to those priority watersheds.
    Senator Byrd. All right. So much for the process. How much 
is the region, I believe it is region number nine, is it not, 
the Monongahela? Are we in region number nine?
    Ms. Manning. Yes.
    Senator Byrd. How much is going to that region?
    Ms. Manning. I do not know the percentage that would 
actually go to--the total percentage, but in fiscal year 1999 
it was $3.667 million.
    Senator Byrd. So now you have asked for a $10 million 
increase in watershed improvements, right?
    Ms. Manning. Right.
    Senator Byrd. How much of that is going to region number 
nine?
    Ms. Manning. I do not have the breakdown for that. I will 
have to get that to you.
    Senator Byrd. Well, do you not expect questions like that 
from this subcommittee?
    Ms. Manning. Yes, sir; we do, but I only had it broken down 
by the whole category, which is soil, water, and air, with me.
    Senator Byrd. Well, this is another area we need to talk 
about. I am glad to hear your emphasis on the importance of 
water, and our need for cleaning up the nation's water, and I 
want to know more about what you are doing in region number 
nine, in particular. So thank you very much, for the moment.
    Senator Gorton. Thank you, Senator.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. We do have a change 
going on in the management of the forest, recreation. America 
wants to recreate here, they do not want to harvest a renewable 
crop. We understand that.

                             forest access

    But does America know that they cannot get in the forest 
anyway, Mr. Dombeck? I mean they are limited to the access on 
the forest, all of America. I mean if they have to operate 
under the same rules that we do, who live locally, is that 
true?
    Mr. Dombeck. Well, one of the things with the National 
Forest is that you do not have to worry about no trespassing 
signs, and from the standpoint of that sort of limitation, 
there are accesses open. I am sure you have a follow-up in----
    Senator Burns. Well, no, but I am OK with the no 
trespassing signs, but----
    Mr. Dombeck. You are talking about vehicle access.
    Senator Burns [continuing]. There are trespassing signs, 
are there not? There are times that you cannot get on the 
forest. Times when nobody can get on the forest.
    Mr. Dombeck. Well, there are limitations with regard to 
fire closure, with activities that may result in resource 
damage, and things like that.

                                 roads

    Senator Burns. But the majority of the people who would 
like to--there are some people who would like to enjoy the 
forest and cannot get on it, because large areas are closed. 
This increase in the road fund that you are getting, you are 
going to close roads, is that correct? You are going to 
continue to close roads, and remove culverts as seen in those 
photos?
    Mr. Dombeck. There will be some road closures through the 
local road management programs, that is correct.
    Senator Burns. In other words you are jerking culverts out, 
you are building tank traps, you do not want any access onto 
our forest lands.
    Mr. Dombeck. The objective, though, is looking at the 
resource protection and the long-term benefits of the land.
    Senator Burns. We are going to put that ahead of access for 
the rest of America. Now, this all sounds funny in Chicago, and 
New York, and Philadelphia, that this is your land, we are 
going to let you visit it, and we are going to let you enjoy 
it, and we are going to manage these resources, yet when they 
go out there, they cannot get on it. Some can, there are 
hikers, but some of the older people cannot get on it, because 
you cannot drive on those roads, they are closed off.
    What I am saying is, as a renewable resource we are growing 
more wood than we are cutting. I realize that there are some 
areas for watershed health that should be protected and not 
developed in those areas. I do not want to get that hard, but 
all of America cannot get on that forest.
    We have some people out West, Mike, to be right honest with 
you, that will be just like an old Yellowstone bear, we will 
have to stand alongside the road and let some of these folks 
pitch us a hamburger every 5 years just to live.
    There is no balance here. Jim, I will talk to you later. 
There is no balance here. That is what I am saying. I mean any 
time that you allow this to go on on your national forests and 
allow this kind of erosion to take place, because you do not 
want access on there, I think is a little extreme.
    We have some folks out there, some conservation people and 
water management people that are very concerned about this. I 
would be happy to work with you on this. I am trying to be as 
nice as I possibly can.

                           prepared statement

    By the way, I have a statement I want to submit for the 
record.
    Senator Gorton. It will be done.
    Senator Burns. Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Conrad Burns
    Thank you Mr. Chairman for the opportunity to address the committee 
this morning. As you are aware, we have had a number of hearings on 
this budget request in both the full Energy and Natural Resource 
Committee and the Subcommittee on Forests and Public Land Management.
    At the risk of boring the witnesses, I want to reiterate my concern 
with the direction the Forest Service has been taking recently. Montana 
has vast quantities of our land tied up under the ownership of the 
Forest Service, the BLM and the National Park Service. In the past 
these agencies were generally tolerated as being good neighbors. They 
were our friends and we were able to make a living off the land. We 
harvested timber, we extracted minerals and we were able to support our 
communities with the money we made off of oil and gas. They weren't 
glamorous jobs, but they paid well and they allowed Montanans to make 
an honest living. They made Montana what it is today.
    Now the Forest Service, under pressure from groups who have never 
set foot in Montana, is drastically changing how we use the land. Or 
rather, how we don't use the land. We can't log, we can't mine, we 
can't explore for oil and gas. In a nutshell, they have declared an 
economic war on the West. Don't think it is a coincidence that 
Montana's per capita income is now at the absolute bottom of the heap 
when compared to the rest of the United States. Natural resource jobs 
were the best paying jobs in the State. Now they are gone.
    The Forest Service is also pushing recreationists of the land. They 
have shut down numerous areas to snowmobiles. Now they are working on 
shutting off all off road travel throughout Montana, North and South 
Dakota. I have even heard plans of restricting hikers out in Oregon. 
When will it stop?
    I asked Chief Dombeck a very simple question when I met with him 
earlier this year. I asked; if they want to leave the land as God 
intended, then why do they need to give them any money? They aren't 
managing the land. In our Energy and Natural Resource Committee 
hearings it was pointed out that fewer Forest Service dollars are 
actually spent on the land each year, despite increasing budget 
requests. What are we getting for our money?
    I challenge you to travel to Libby, Montana and explain to the 
taxpayers up there why we should increase the Forest Service's budget. 
Libby is on the verge of becoming a ghost town. Used to be a booming 
timber town. Now the timber industry is virtually gone and the Forest 
Service's main action seems to be to keep us off the land. They put up 
gates, rip out roads and culverts, and stop recreation. Now, Secretary 
Babbitt wants to radically increase the amount of land that gets burned 
though prescribed fires. Now we are supposed to give the Forest Service 
funding to burn the lumber that could keep our towns alive. It is 
ridiculous and I am not going to stand here and watch it without a 
fight.
    I urge my colleagues on both sides of the aisle to really look at 
what is happening. We all know that, nationally, it is more popular to 
say we are protecting everything, but look at what is going on. We have 
an agency out of control that is running my State, and many others, 
into the ground. It's time for a change in direction and I will work my 
hardest to see that we begin those changes through the Appropriations 
process. This administration is too arrogant to comply with Congress' 
direction if we do it any other way.
    Thank you again, Mr. Chairman, for this opportunity to address the 
committee.

                                beetles

    Senator Burns. That is where I am coming from. As far as 
Mr. Bennett is concerned here on the beetles, we have been 
arguing about beetles on the Yaak and the Kookenai for 10 years 
and got nothing done, 10 years, and he thinks he is going to 
get it done the first year, according to Mr. Lyons. I will 
guarantee you that he is not going to get his done. It will 
burn. It will burn first.

                           payments to states

    As far as the net proceeds that goes back to counties, that 
is just a tax that the Government pays for owning land in that 
county. Every other taxpayer pays taxes, too.
    Now, if you want to go out and explain to that person that 
lives in, let us say, Polebridge, MT, we are going to rely on 
an annual appropriations for a payment sort of like PILT. You 
are familiar with PILT, payment in lieu of taxes, that the BLM 
participates in if we are going to rely on that road, and on 
those proceeds, we need a guarantee the Government will fully 
fund the program. I will guarantee you this Government has 
never funded PILT to the 100 percent of what it has authorized 
yet. Not yet.
    You get some accountant out there at the Forest Service 
that says, ``Well, maybe we ought to use that money for 
something else, that we really do not want to pay our amount of 
taxes to the local government.''
    Balance, that is what I am looking for. I am not going to 
go into anything specific, but I am looking for some balance. 
If you want to manage this like a park, let us turn the forests 
over to the National Park Service. We have parks and we have 
forests, and forests are managed for multiple use, and that is 
not what is happening now. I am sorry. I just get more and more 
disgusted every day.
    Now, you said you wanted a year. Give me a year. Well, old 
friend, your year is about up. We are in two. I just want to 
see some balance, that is all I want to see. You hold up that 
thing on Puget Sound on tree disappearance. Tell those people 
to move. Is anybody going to go out there and tell those people 
to move?
    On those trees, any time that you see an increase of 
people, you are going to see the loss of trees sometimes. You 
can put up the same land SAT here in Washington, DC.

                             forest access

    The U.S. Fish and Wildlife can go out there and tell you 
what they--you cannot keep them off the forest, but they can 
keep everything off the forest. You want to put them grizzles 
down there. I will tell you what, it is pretty sad--I just want 
to give you a for instance on what this has caused up at 
Whitefish and Kalispell, MT.
    When a man stands there on his front porch on his land, 
with a little old video camera and watch wolves carry off his 
calf crop, 25 cows and 30 calves this spring, and there is 
nothing he can do about it, and he only runs 175 cows. Do you 
want to put a face on something? I will put a face on it. He 
took pictures of it. The director of NASA sat right there and 
watched that same film.
    He said, ``Why don't you shoot the wolf?'' Well, No. 1, 
there are only six of them. Of course, six rounds could do a 
lot of work. But you cannot do it. The people that live there, 
is there no feeling for the people who live there? None. We are 
not there according to the Fish and Wildlife Service. We were 
just kind of born there. But I am looking for some balance, 
Mike, and it is not there. I am very, very upset about this. I 
look at this, and this is stupidity, out and out stupidity.
    Thank you, Mr. Chairman. I will find something to ask a 
question about pretty soon. But that is what you are going to 
get your road money for is to dig more holes in the Earth and 
make tank traps. If you want to be run like a park, we will put 
you under the park department. We do not need two different 
outfits out there.
    Senator Gorton. I am going to go back and forth. I am going 
to go to Senator Kohl, who has only a relatively few questions, 
and another engagement.
    Senator Kohl.

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you, Mr. Chairman. Unlike other members 
of this subcommittee whose States have extensive Federal forest 
land, 90 percent of the forest land in Wisconsin is not 
federally owned.
    In addition, in the State of Wisconsin, forest lands are 
owned by more than a quarter of a million private owners, and 
so the Forest Service cooperative programs of State and private 
forestry are of a great interest to me.

                               gypsy moth

    I would like to ask you a question about the Gypsy Moth. 
This year we are facing a serious problem with the spread of 
Gypsy Moth across Wisconsin and much of the Northeast. In the 
past Gypsy Moth infestations have not been a problem for 
Wisconsin.
    Our harsh winters have usually been too severe for the 
moths and their larvae to survive; however, the past few mild 
winters have resulted in a dramatic increase in Gypsy Moth 
population that has been devastating trees across Eastern 
Wisconsin.
    In 1998, 18 counties in Wisconsin were guaranteed and 
another 13 counties were in transition. In 1999, it is 
anticipated that more than half of the State will be affected 
by Gypsy Moth and will require traps and treatment sites. So my 
question to you is: What is the Forest Service doing to slow 
the spread of Gypsy Moth?
    Mr. Dombeck. Well, overall we have made significant 
investments in research and are making progress with biological 
controls, like a fungus agent that works with the control, but 
also working with States in applying the technologies. In fact, 
I will ask Janice McDougle, from our State and Private Program 
to elaborate on the Gypsy Moth program.
    Janice.
    Ms. McDougle. Senator, in 1998, the Forest Service was 
appropriated $3.5 million for our Slow-the-Spread program. In 
1999 we got a little over $4 million. The President's budget 
for fiscal year 2000 is the first time that, if appropriated, 
we will be fully funded to address this issue.
    This program is one that we are extremely proud of. It has 
been able to reduce and delay the speed of the Gypsy Moth 
spread by 60 percent. It is wildly popular with the States, 
with the regional and national planning boards, the National 
Association of State Departments of Agriculture, National 
Association of State Foresters, and American Nursery and 
Landscape Association, who also fully support the full funding 
of the $8 million. Without that we have learned that we cannot 
be effective in reducing the spread.
    Senator Kohl. All right. I have requested funds for forest 
health management programs, and if the subcommittee agrees, and 
I hope they will with those additional funds, then I hope that 
you will put this money to good use in working to prevent the 
spread of Gypsy Moth, and I think you feel that way, too.
    Ms. McDougle. Yes. Thank you.

                          regional office move

    Senator Kohl. Last question. As you may know I have had 
concerns over the proposal which reappeared in this year's 
budget submission to move the Forest Service's regional office 
from Milwaukee to Madison. I am surprised to see this again.
    As I understand it, the GSA has addressed your recent 
concerns about rent, and that by fiscal year 2000 the rent in 
Milwaukee will be reduced by 18 percent. Does the Forest 
Service have any current plans with respect to relocating the 
Milwaukee office?
    Mr. Dombeck. Senator, not at this time. In fact, Tom 
Hamilton, who is the Director of the Forest Products Laboratory 
in Madison, as well as Regional Forester Bob Jacobs, have 
withdrawn that proposal. So I assume if any additional activity 
occurs in that, while we will make sure that your staff is 
involved, and I assume that that dialogue will occur locally.
    Senator Kohl. Thank you. Mr. Chairman, I appreciate your 
allowing me to ask these questions.
    Senator Gorton. Thank you.
    Senator Bennett?
    Senator Bennett. Does Senator Stevens want to come in here 
and----
    Senator Stevens. I would, if you would allow me. I only 
have two questions.
    Senator Gorton. All right.

                       tongass record of decision

    Senator Stevens. Mr. Lyons, I understand you issued a 
decision yesterday, a Final Record of Decision [ROD]. Let me 
see if I can summarize what I understand it to be, that you 
have issued a Final Record of Decision, rather than deciding 
the appeals before you and remanding the plans of the chief 
forester.
    I understand you have revised the 1979 plan for the 
Tongass, and you believe that there is no further need for 
public review or comment or a national environmental impact 
statement [EIS], because your decision yesterday replaces the 
regional forester's 1997 decision in its entirety; thus, in 
effect, the regional forester's 1997 decision is nullified as 
if it never existed. Would you say that is a fair summation of 
what you have done?
    Mr. Lyons. No, that is not quite accurate, Mr. Chairman.
    Senator Stevens. Tell me what is wrong.
    Mr. Lyons. We actually did decide the appeals that were 
pending. There were 33 appeals pending on the 1997 ROD that was 
issued by the regional forester at the time, Phil Janek, but we 
elected to rewrite and issue a new ROD simply to have a 
comprehensive record and to show in context how we had 
addressed all those appeals issues.
    Senator Stevens. Is that a revision of the 1979 plan?
    Mr. Lyons. It is a revision of the 1997 ROD. The 1979 plan, 
I suppose that would be accurate.
    Senator Stevens. The Record of Decision.
    Mr. Lyons. It is a modification of the 1997 ROD that was 
issued by----
    Senator Stevens. What happens to the 1979 plan?
    Mr. Lyons. Well, this supersedes--this is the Final Record 
of Decision on that plan.
    Senator Stevens. It is the Final Record of Decision, so 
your action really nullifies everything that has taken place 
since that time, right?
    Mr. Lyons. No, sir; it does not. It is a response to the 
appeals that have been raised, so what it does is it modifies 
some of the decisions that were made in 1997, and then renders 
a final decision based on the appeals of the 1997 decision.
    So it is not a totally new document in any way. It is 
simply a modification responding to the appeals, taking into 
account the issues that were raised in the 1997 EIS.

                       tongass timber reform act

    Senator Stevens. Well, this is the appropriations 
committee. Let me put it this way. The regional forester's 
decision in 1997 has been pending now for 2 years. It is my 
judgment that what you have done is you have revised the 1979 
plan. This is 1999. We have been working on that now, you have 
been working on that for 20 years. This is April 15. This is 
tax day. This is the day people pay their taxes. You spent $13 
million, and now you have taken action which is contrary to the 
Tongass Timber Reform Act, and you have taken action in a way 
that unfairly deprives these people an opportunity to be heard.
    I really do not have any more questions. I just want to 
make a statement to you. I am sorry that I agreed to clear your 
nomination. You and I had a talk, and you told me you were 
going to be fair to people in Alaska. I think this is the most 
unfair decision I have seen in my 31 years in the Senate.
    I have never seen a man destroy the lives of people as much 
as you have in the Tongass. I can tell you, as long as I am 
here, you will not be cleared for anything again. I was at the 
Interior Department at one time, as you know, and the concepts 
of integrity, honesty, and judgment are just absolutely 
frustrated by what you did yesterday.
    I can tell you, as far as I am concerned, I am going to do 
everything I can to reduce the appropriations for the Forest 
Service, maybe even transfer it to the Interior Department. You 
have destroyed the timber industry in my State, and we have no 
need for a Forest Service without a timber industry. You are a 
division of recreation now. There is no longer any 
justification for the existing Forest Service, and I intend to 
offer some amendments along those lines--severe reductions in 
this Forest Service.<plus-minus>
    I urge you all to study it, $13 million spent on the 
process was totally eliminated by the decision yesterday which 
revised a plan that was put forward but never approved in 1979. 
I am sorry, but I find it impossible to ask questions of a 
person that would make a decision like that.
    Senator Gorton. Well, Senator Bennett, now it is your turn.

                           payments to states

    Senator Bennett. Maybe I should have gone first and let 
that come later. Let me raise a philosophical question that may 
not be as incendiary as either Senator Burns or Senator 
Stevens, but in your testimony you discussed the 
administration's proposal to decouple the 25 percent fund from 
timber sale receipts, and I think the comment was that the 
timber program should not finance the education of the nation's 
rural school children.
    I am sympathetic with that philosophic point of view, that 
while we have challenges for education, for the nation's rural 
school children, and we look for money wherever we can find it, 
and I am sure that is the attitude that drove this original 
decision, whenever it was made, I can understand that sometimes 
the connection between the two gets a little tenuous.
    The philosophical problem I have is this, if education is 
going to be primarily a local financial responsibility, it 
should obviously make sense to keep the local economy as strong 
as possible, and the continual destruction of the local 
economy, particularly with respect to loggers, truck drivers, 
and mill workers, as the timber sales are cut back, puts that 
much of a bigger educational burden on the local school 
districts.
    So my plea to you, and I would like your reactions once 
again, there are no actions that Government can take that do 
not produce side effects.

                       balanced forest management

    While many times all of us love to give speeches about how 
pure our motives are and how wonderful our actions are, all of 
us are subject to the criticism that we do not pay enough 
attention to the side effects, and the desire to be responsive 
to the environmental groups that have a religious objection to 
logging may play well in certain circumstances, but the side 
effects are to destroy the economies of these rural areas, and 
then raise the issue of, well, what do you do about education 
for their children and the impact, the very human impact, of 
these economic decisions.
    Mr. Dombeck, you stressed that multiple-use is alive and 
well in the modern forest service, and I am sure you have 
gotten now the flavor of those of us who represent States where 
timber sales are important, and they are not nearly as 
important to me in Utah as they are in some other States, but 
you get the frustration, I am sure, that comes as we see these 
kinds of situations on the ground.
    I agree with you that we all ought to get on the ground. I 
have gone on the ground. I have gone through the Forest Service 
by horseback. I still remember. Certain portions of my 
posterior remind me from time to time. I am not used to riding 
horses for the length of time that I did.
    I have been out on BLM land, and quite frankly I have seen 
where Federal land management practices are less than optimum, 
and that in many cases, land management practices on private 
land exceed the benefit of land management practices on Federal 
land, where the land is healthier if it is not in Federal 
hands, where the land is healthier if it is in the hands of 
those who are decried as predators and exploiters.
    There is more education, there is more wildlife, and there 
is more diversity, bio-diversity, on many of the privately 
managed lands in my State than there are on the federally 
managed lands, and the frustration that comes out of economic 
destruction with some of the timber processes, and the land 
degradation, leave some of us with the sense that we are in 
Alice in Wonderland somewhere in these areas.
    Now, I know you are a thoughtful land manager, and you have 
right motives and the right desires here, listen to what I am 
saying and react so that all of us can get a better sense of 
where the Federal direction in this administration wants to go 
to achieve some kind of sensible, scientific, multiple-use on 
all of these lands.
    Mr. Dombeck. Well, we are really talking about the topic of 
balance, I think, as was Senator Burns in his comments, and I 
think there has been a struggle throughout the entire century 
as to what is the best balance that the nation reacted to, the 
condition of the watersheds at the turn of the century, and 
passed the legislation like the Organic Administration Act, the 
Wheats Act, and move it on through. This is the debate that 
will follow us for many, many years.
    As Jack Thomas told me when he talked to me about this job, 
the former chief, as being probably one of the toughest jobs 
with regard to balance with sort of all sides converging, and 
we are essentially many times a wrestling mat, and I struggle 
with questions like why is it that starting about in the 1960's 
and the 1970's that actually the third branch of Government 
began to become more involved in national resource management 
decisions, as we had increases in litigation and things like 
that, and the major decline in the forest timber harvest 
programs, for example, in the Pacific Northwest that occurred 
as a result of the Spotted Owl issue, and the real question 
was, well, how much old-growth do we want to have left in the 
United States, and those kinds of things. So where is it then 
that one goes? I believe in a couple of things. No. 1 is we 
have to apply the best science that we have, and No. 2, that we 
have to keep our eye on the long haul, on the major issues, and 
as we do that we need to be as empathetic and as positive in 
our approach in providing assistance and working with local 
communities through transitions, because transitions have 
always occurred and they will continue to occur, and they are 
never really very much fun for anyone who is involved in those 
kinds of transitions.

                     transitional forest management

    In fact, this agency, as all public land managers are 
involved in this kind of transition today, where we have 
increases in demands for water, and one of the few ways that we 
can enhance water quality, water quantity, is through our good, 
sound watershed management practices, and active management is 
part of that, because when people say to me what are the two or 
three most serious forest management problems that you see in 
the United States today I would give you three.
    No. 1 is the invasion of exotic species, and that problem 
will continue to increase, because we are basically in a 
boundary-less world from the standpoint of ecosystems, with the 
international trade, and products moving every direction every 
day, and that will continue, and it will be a very serious 
problem for us to deal with. The more we can make investments 
in things like Gypsy Moth research that Senator Kohl asked 
about, the better.
    The second issue is the one that I talked about with the 
graphics, largely in the Intermountain West, where they 
overstocked stands, off-site species, the result of 70 years of 
total fire suppression, and then when we do get a very, very 
dry year, we are going to have a catastrophe, and that is going 
to happen, and we have to then apply the best science we can to 
mitigate that, and the graphic, I think, of the Cleveland fire 
depicted that well.

                               education

    But the third area is one that we do not talk about very 
much, and that is the whole area of education. Bringing a 
broader group of the American public into really understanding 
what is important rather than sort of us being whipsawed 
between the ends of the spectrum to those that think it is a 
sin to cut a tree, between those that perhaps want to cut them 
all, and education I think is, as our population grows, and we 
move into the information age, something that in natural 
resources we are going to have to make more investments in, so 
we can move forward on the land, because people are ultimately 
the delivery system, the local communities, the resource 
managers that are there, the community of interest that--the 
owners of all the public lands. So I guess I would respond 
philosophically in that way.
    Senator Bennett. I have two quick comments, and I apologize 
if they are presumptuous. First, I am interested in your 
description of those who think it is a sin to cut a tree and 
those who want to cut them all. I have never met anybody who 
wants to cut them all. I have met a lot of people who think it 
is a sin to cut a tree.
    I am very distressed, you talk about education, with 
children who come home from grade school in tears because a 
tree was killed for them to have a bed to sleep in. I think we 
do a tremendous disservice when we let that kind of notion go 
forward that somehow it is better for a tree to be left there 
to stand so that it can burn than it is to harvest it so that a 
child can have a bed made out of wood, and a new tree planted, 
this is, in fact, a renewable resource, and there is nothing 
immoral about cutting a tree, but we are having a lot of 
propaganda now that says it is absolutely immoral.
    It is like the folks who talk about first amendment rights 
for animals. I do not want to get off on this. My sister 
teaches in the Montgomery County Schools and she sees essays 
coming through about first amendment rights for animals, and 
she says, freedom of speech for cows, the rights to assemble 
peacefully for badgers, and what she finds out is that the 
school children know nothing about the first amendment, but 
they keep hearing all of this information about animal rights. 
I think that is a very bad balance in the educational system. I 
will get off that.
    You talk about education. As I say, this is presumptuous of 
me, but that is one of the prerogatives of being a Senator. Can 
I give you a homework assignment? There will be a test at the 
end of the hour. Can I ask you to read a book called, ``In a 
Dark Wood,'' by Austen Chase? I know in the environmental 
community Austen Chase's name is absolute anathema, but before 
you decide that everything he says is nonsense will you do him 
the courtesy of reading what he has to say? I think it is the 
best analysis--by the way, he is a philosophy professor. He has 
taught at Harvard.
    Can I ask you to read that book and then maybe we can have 
another conversation about balance, direction, and unintended 
consequences on the national forest?
    Thank you for your good humor and your indulgence. Thank 
you, Mr. Chairman.
    Mr. Dombeck. I would be happy to. In fact, this is one of 
the best assignments I have ever received from the Senate.
    Senator Bennett. It is pretty heavy going from time to 
time. It is not easy.
    Mr. Dombeck. In fact, I am traveling to a couple of 
national forests next week so I have some time in the air that 
is about the only time one seems to have these days, so I would 
be happy to read the book.
    Senator Bennett. Thank you. Thank you, Mr. Chairman.
    Senator Gorton. Senator Domenici, are you ready?
    Senator Domenici. Am I ready?
    Mr. Dombeck. I am ready for the assignment.
    Senator Domenici. You just run out of gas sitting here. I 
came so refreshed, ready to ask so many questions, and then the 
distinguished chairman made me wait 2 hours to have a question, 
and he called on all kind of people before me. It is like I am 
not busy around here, I do not matter.
    Anyhow, I wanted to tell you, Senator, that if this is your 
hearing room, the clocks on the wall are confusing. That one 
says it is seven-minutes-of-eleven, this says ten. Do you think 
you are going to leave them there so that when the time changes 
one will be right again, or what?
    Senator Gorton. That is correct. Daylight Savings Time has 
not gotten that far west.
    Senator Domenici. Well, I want to tell you, I did not set 
my clocks ahead nor my watch on Easter, and I had planned to 
have my family over for an 11 a.m., brunch, and got up at 7:30 
a.m., and put a leg of lamb in the oven and a couple of other 
things and went back to bed, and sleeping away there, knowing I 
had a lot of time, and I heard a doorbell, and I said, ``Oh, 
let's let them ring. Who the hell could that be?'' In about 5 
minutes we heard one of our daughter's beautiful voices, 
``Mama, Papa, we are here.''
    Well, we were having brunch and we were still in bed, but 
anyway, we ate 1 hour and 15 minutes later than we should have, 
and a good time was had by all, and I am asking questions about 
1 hour and 20 minutes later than I thought, and I am going to 
have a good time.

                        environmental litigation

    Let me ask you, Mr. Chairman, in their presence if you 
would listen to me on a couple of things and see if you could, 
as your bill proceeds through, provide some assistance. First, 
I would like to ask this Department of the Federal Government 
to submit to this committee how much has been spent in New 
Mexico, Arizona, and Utah, and break it down, on environmental 
litigation. I would like you to also tell us how much the 
courts awarded to environmental plaintiffs in litigation 
involving your department.
    Now, Mr. Chairman, since you have jurisdiction over the 
other entities that are part of this litigation, like Fish and 
Wildlife, like BLM, I would wonder if you would mind or think 
it relevant to submit a similar question to them in my behalf.
    I would share another question with you, another 
observation, and I think they are aware of this as it affects 
their Department.
    When an environmental group or a conservation group, I do 
not say this with any--I think I am just stating a group of 
people, I am not passing judgment, but when they litigate with 
the Forest Service over such a thing as Spotted Owl habitat, or 
when a group in my State litigates over a silver minnow in a 
river that, while I was growing up, ran dry many, many years, I 
lived 10 or 12 blocks from it, and the purpose of the 
litigation is to make the river run wet all year so we can 
protect a silver minnow, which is an endangered species, or 
could be, and the suits never include those people who are 
adversely affected. You read some of them. It will be such and 
such environmental group versus Fish and Wildlife.
    Now, I believe that is wrong, and I believe we ought to 
think together about how do we make it such that the affected 
parties can get in that lawsuit. Now, I know this is a big 
issue, because the plaintiffs in these causes resist mightily 
the court letting any of them, and they may even have a little 
precedent on their side. I do not know.
    But it seems to me if you are a cattle permittee, we did 
not add to that extreme, there are actually groups who want no 
grazing on the public domain and there are groups who want it 
just like it was 50 years ago, or 30 or 40 years ago, and we 
are required to do some balancing, but the plaintiff does not 
want the permittee in the lawsuit, even though when it is 
finished it adversely affects them, and this kind of lawsuits 
on the silver minnow and its right to use much of our stored 
water for its protection in a desert State in a middle of a 
drought, which is this year, the city of Albuquerque ought to 
be part of that litigation. They are going to take their water.
    The farmer and ranchers in that valley ought to be a part, 
and I would like you to think with me about that and see if we 
might use your appropriation bill to make them at least such 
that they can petition to be in, not indispensable, as you and 
I remember it, but it may be necessary.
    Now, having said that, first, you tried to get a hold of me 
and I missed you and you missed me, and I will make myself a 
available today on the telephone. I do not expect you to talk 
to me about whatever you wanted to speak to me about on the 
telephone.

                           drought assessment

    But I do want to know, do you have an assessment of the 
condition of drought in the State of New Mexico? Have you been 
advised by your experts what it looks like in our State?
    Mr. Dombeck. Yes, we have. In fact, we are part of the 
drought commission that has been meeting at least on a biweekly 
basis, watching very carefully through all of the Ag programs, 
and the Forest Service has been part of that.
    Senator Domenici. We are in serious jeopardy----
    Mr. Dombeck. Yes.
    Senator Domenici [continuing]. Of having one of the worst 
droughts we have ever had, is that correct----
    Mr. Dombeck. Yes.
    Senator Domenici [continuing]. Because we do not have much 
snow left up in places which feed our rivers. Are you prepared 
to tell us or could you prepare to tell us from your 
Department's standpoint what you think we might need by way of 
some extraordinary type of assistance so that we might prepare 
ourselves? Is there anything we could be doing in advance?
    We just have to sit by and watch this drought come, but we 
know some things are going to happen. We know water wells are 
going to be in trouble, we know crops are going to have 
problems. Could you share that with us today, or could you 
share it with us personally at another time?

                          fire risk assessment

    Mr. Dombeck. Well, I can make a few comments, but I think 
it would be very beneficial to provide that kind of information 
to people who could be affected; for example, things like with 
fire risks beyond what they normally are, because of the 
drought.
    I sure hope people are taking care of the fuel loads that 
might be close to their buildings, any of their buildings, 
things like that, making sure that we are following the 
groundwater table trends, the aquifer trends, and those that 
perhaps could have problems with water are aware that they are 
near some level of risk. I think there are a wide variety of 
things.
    I think this sort of moves into this area of education that 
Senator Bennett and I were philosophizing about. If you would 
like, Janice McDougle can speak I think in more detail to the 
fire situation that could occur.
    Senator Domenici. If you would, submit for the record the 
fire assessment, and if there is anything that you need by way 
of emergency to get ready in advance I would hope you would 
submit it quickly, because we are going to have one or two 
supplemental bills going through, and just as sure as we are 
sitting here, the State of New Mexico is going to have some 
extraordinary government expenses about 3 or 4 months from now, 
because this drought is going to take place about half-way 
through the summer or less from what we understand already. Can 
you ask your Department----
    Mr. Dombeck. Of course, NRCS, also oversees, is right now 
doing a similar assessment, so why do we not pull together a 
comprehensive assessment for you and----
    Senator Domenici. I would very much appreciate it. If you 
need some other sister departments----
    Mr. Dombeck. We have already talked to James LeWitt, FEMA, 
for example. Why do we not try to organize something and get it 
to you as quickly as possible in terms of the overall----

                              in-holdings

    Senator Domenici. All right. I would appreciate it. The 
President has a $1 billion program called the Lands Legacy 
Initiative. What percentage of that funding or land 
acquisition, if we do set that in motion, would go towards the 
purchase of existing in-holdings from willing sellers?
    Mr. Lyons. Let me point out Senator Domenici that the 
actual acquisition portion of the funds in this proposal that 
would go to the Forest Service is $118 million. In terms of 
actual in-holding acquisitions, we have a breakdown, and it may 
be better if I gave you that detail later on. We have actually 
prioritized each acquisition that would be covered by the $118 
million.
    Senator Domenici. Mr. Chairman, I wonder if you would 
inquire of the departments like this one that are part of the 
proposed acquisition, expenditure of $1 billion, how much, if 
any, do they intend to use for in-holdings within the lands 
that they have jurisdiction over that should already have been 
purchased, but are sitting there, with people waiting to be 
paid for their in-holdings, if we could get that from each of 
them.
    Senator Gorton. We will be happy to make that request, and 
we will not get a responsive answer. They will say they do not 
know.
    Senator Domenici. I mean look at the $1 billion, you know 
what land they are buying, they are either buying in-holdings 
or they are not buying it, but anyway, I appreciate it.
    I want to say I am not very sanguine about another billion 
dollars being spent on a legacy of lands when we still owe 
hundreds of millions of dollars to property owners in America 
for in-holdings in national parks, national monuments, and 
other things, and we have not paid them for it yet. You did not 
want to comment on this, did you?

                      land acquisition priorities

    Mr. Dombeck. I would like to say to the chairman, I think 
we can provide that information through our prioritization of 
land acquisition projects, which are in-holdings and the 
objectives of each of the acquisitions that are proposed. We 
will be happy to provide that.
    Senator Domenici. Mr. Chairman, do you consider the billion 
dollar program, maybe you do not want to answer yet, do you 
think it has any chance of proceeding with any large amounts of 
money being put in it?<plus-minus>
    Senator Gorton. I believe it needs an authorization, and I 
do not believe that your budget is going to give me the money.
    Senator Domenici. I am thinking that is the case. 
[Laughter.]
    But I am thinking also, you know, that before we set about 
on many of these new initiatives, we ought to look at some 
initiatives that we ought to be doing to help the communities 
that are land-locked by Federal land.
    In northern New Mexico more than anything we need a change 
in the legislation to permit a local community to acquire some 
acreage from the BLM or the Forest Service for a land disposal 
site, for an expansion of community service buildings. I mean 
they are just like this, with public land around them, and we 
have minimal opportunity for them to acquire Federal land, and 
it is very difficult. In fact, I have been passing legislation 
to get them that.
    There are three of them we have already passed this year. 
That should be ministerial. It should be they applied, there is 
a need, it does not harm the forest, and it is diminimus in 
size.
    So if you could look into that, I would like to expand the 
current definitions by statute so that we could help the 
communities instead of doing some new things, when they are 
sitting there wondering what is wrong with us. Do you 
understand the problem we have, Mr. Lyons?
    Mr. Lyons. Yes, I do, Senator Domenici. As you know, we 
have some limited authorities, but we would be glad to sit down 
with you and look at specific cases and see how we might make 
adjustments.
    Senator Domenici. I appreciate it. I have about five 
parochial questions and I do not believe there is anyone from 
the press of New Mexico covering this hearing. Some of you-all 
may have thought your press was covering it a while ago, but I 
am just going to submit mine. Thank you. I appreciate your 
hospitality.
    Senator Gorton. Senator Craig.

                Opening statement of Senator Larry Craig

    Senator Craig. Mr. Chairman, I have had the opportunity of 
being an observer here this morning for quite some time, like 
my colleague from New Mexico, and I say that with a certain 
amount of reaction to the Chief and to the Secretary, because 
while I have not heard any detailed questions this morning, I 
have heard a huge outpouring of frustration, and in some 
instances, anger.
    I would have to think that ought to be recorded amongst you 
as being relatively significant, because you are dealing with 
Senators from large public land States, in which there are 
large forest land holdings, Federal land holdings.
    In my lifetime of living in and around the forests, and 
with Forest Service green suits sitting at our dinner tables, 
at our ranches, working with us cooperatively, and this has 
been going on since my grandfather homesteaded there and was 
anxious to establish a Federal forest reserve along with BLM to 
protect the public lands, I have never known such frustration 
or anger.
    We sit back here, and you sit back here, and some sit back 
here and pull strings and design a grand new national scheme 
based on some people's image, and in most instances it denies 
the relationships that other chiefs have understood and known 
as a result of the Organic Act between the public land and the 
immediate communities of interest in a broad national spectrum 
and in a broad national understanding. Whether it is the 
Senator from Utah, or New Mexico, or Alaska, or Washington, or 
this Senator from Idaho, what you hear today is frustration, 
and in some instances, absolute anger, and we are simply 
projecting from our population bases what we hear, communities 
dying, families without jobs, schools without money, all based 
on former or existing policy that does not appear to be working 
under the current constraints.
    Now, I understand what you are doing, and some of it I 
disagree with, and we have dealt with that already head on. We 
have had two hearings on your budget before the Energy 
Committee and before my subcommittee, and I will deal with a 
few more details today, but first of all, out of that 
frustration let me state a positive note.

                           douglas fir beetle

    First of all, let me thank you for your decision as it 
relates to the Douglas Fir Beetle in the Panhandle and in the 
Colville Forests. While you may be trying to reflect a broader 
perspective of the population's interest in our public lands, 
we should never deny the obvious of disease and the ability to 
react to that in good management, because while it may be 
politically popular to react in some of the ways you are 
reacting, if it does not prescribe good management in a 
reasonable sense or in a scientific or knowledge-based sense, 
we somehow have to balance that out, and I think you are doing 
that with the Douglas Fir Beetle.
    We have an epidemic on our hands, so we could see 300,000 
or 400,000 acres infested, and broad landscapes turning red out 
there in the near future. You have given us a chance to deal 
with 4,000 acres immediately in an emergency sense. We are 
looking at I think an additional 21,000 and we are working it 
through the NEPA process, and we hope that that is done in an 
expeditious way. It is critical.
    Can I go ahead with questions now?
    Senator Gorton. Yes. It is your turn.
    Senator Craig. All right. Let me walk you-all through a 
couple of questions that have dealt with the past budgets and 
current budgets.

           interior columbia basin ecosystem management plan

    As you know there was a lot of debate over the 
implementation of the Interior Columbia Basin Ecosystem 
Management Plan, and I think part of the criticism circles 
around the lack of inclusion of the local governments in that 
planning process, or an inclusion that would appear to be an 
exclusion or a jettison of some of their concerns and some of 
their input.
    Consequently, language was included in the fiscal year 1999 
appropriations bill, directing you to include affected States 
and local governments in the process by developing a new 
approach to the plan. What is the Forest Service doing to 
ensure that the affected States and local governments are 
included in that process? Chief? Jim? Either one.

                           public involvement

    Mr. Lyons. Senator, let me point out that both as a result 
of conversations that Mike and I had with you and Subcommittee 
Chairman Gorton, as well as the commitments we made in writing, 
we have followed through and are in the process of reissuing an 
EIS supplemental so that we can engage in further dialogue 
about options for management of the lands in the Interior 
Columbia Basin. As a part of that, outreach to the affected 
counties and communities is continuing.
    As you know, there continues to be a great deal of debate 
about that. I know we have taken to heart the notion that 
sufficient flexibility has to be built into any management 
decision so that local conditions can be reflected in those 
decisions.
    That is what we are seeking to accomplish in this new EIS 
and the alternative that will be chosen, while at the same time 
recognizing that we are dealing with a regional challenge in 
listings of some stocks, trout, steelhead, salmon, and dealing 
with other landscape-level issues, such as the forest health 
concern that you just identified.
    It is a difficult challenge. It provides sufficient 
guidance to deal with those regional issues, while at the same 
time the flexibility to make sure that local managers can make 
decisions that are responsive to local conditions. But we have 
taken that to heart. We will be issuing an EIS and moving 
forward with another comment period to address these concerns.
    Senator Craig. Well, I hope you are sensitive to it, 
because while some of our stakeholders have used existing law 
as trip wires, I have a feeling that there is a growing concern 
out there because the Forest Service has really kind of ground 
to a halt in any kind of activity decision making, that if this 
one does not work, a whole new set of stakeholders are going to 
use it as a trip wire, and we will see another decade of 
gridlock on our public lands and the concern of the Chief that 
the third branch of Government will be the decision maker who 
is going to be out there, unless we can gain a majority here in 
the Congress that will work with us and then we will simply 
start mandating again in public policy and clarifying that.
    I know what you are trying to do, but your credibility with 
the collaborative process or inclusion process is at stake on 
this one.
    Mr. Lyons. We recognize that, Senator.

                             noxious weeds

    Senator Craig. Chief Dombeck, as you know, noxious weeds 
are a serious problem on both public lands and private lands. 
You talked about those invaders a moment ago. I am in the 
process of taking, I have the permission of all 50 States' 
Departments of Agricultures now, we are introducing a noxious 
weed bill, and we are using some of the President's Executive 
order in it.
    I do not think 18 months of talk is anything necessary 
anymore. We all know what is needed, and we need to come to 
people like the chairman and others and put some money behind 
it and maybe some new policy, and my bill will do that.
    It is a serious problem, and some of your lands are 
habitat, if you will, or they are harboring. The Plant 
Protection Act of 1999 that I have introduced will focus on 
efforts in the Federal land a better fight on this concern, and 
APHIS will be given expansion of its authorities to move, and 
it will be the lead Government agency.
    I have declared an all-out war on weeds in the West, and I 
was absolutely amazed at the army that appeared out of the 
weeds to fight, because we recognized what is going on out 
there finally, and I did it, because of the interest of the 
State, only to find out that 50 States immediately stood up and 
said, oh, thank you very much, somebody is finally speaking out 
on a problem that most have been silent on or at least limited 
on.
    I guess my question to you will be: Are you willing to join 
in that fight?

                            invasive species

    Mr. Dombeck. Yes, we will. In fact, as I said, one of the 
major problems with resource management across the country is 
the invasive species, and it is true all over the country. It 
is not only the Starthistle, or the Nap Weed, or the Leafy 
Spurs in the West, you have Mellowluke in the Everglades, and 
Kudzu in the Southeast, and it is Gypsy Moth, Asian Long Horn 
Beetle.
    We could go on and on and list problem species, and I would 
also hope that as you move that forward that you would take a 
look at the research needs, because one of our best defenses 
against this, of course, is to avoid the problem of coming to 
our shores to begin with, but then once it is here, the more it 
can be isolated the better, and we are making increased 
investments in research with regard to these, but the need is 
much greater.
    Senator Craig. Well, if we can bring State, Federal, and 
local universities, private resources together, and there are 
some of the new biological efforts that are underway, makes 
some sense, this is something that we just need to spend more 
time at working, I suspect, harder.
    Mr. Dombeck. Our technology transfer capabilities in our 
work, with strong support from the State foresters, I know the 
land commissioners are all going to be in town next week, the 
State land commissioners, and----
    Senator Craig. Well, I have been working with them, and 
they are very excited about a greater coordinated effort. I 
hope we can get there.

                            prescribed burns

    It is my understanding that some prescribed burns are 
planned for the Boise National Forest. I will only say as an 
added commentary, I find it fascinating that the Secretary of 
the Interior is out flying over the Boise Forest prescribing 
burns instead of the Chief of the Forest Service.
    I said to the press in Idaho, ``Do not listen to Bruce 
Babbitt, he does not manage the Forest Service, he just thinks 
he does.'' I trust you two will continue to do that. Anyway, he 
was out there getting great press over burning down the Boise.
    I do not think that is going to happen, but anyway, last 
year we put language in your appropriation bill, directed line 
officers to see to it that commercially viable and harvestable 
timber is not burned, recognizing that fire is necessary and we 
ought to be doing some burning out there to create our uneven-
ages, and our mosaics, and the health of our forests.
    Be that as it may, that was to be done and the public was 
to be consulted in that. What is being done on the Boise 
National Forest to ensure that you are complying with that 
language?
    Mr. Dombeck. What I can do is give you--I cannot give you 
the specifics of what is being done on the Boise, but we would 
be happy to check with Dave Rittenhaus and get back with you.
    Senator Craig. I wish you would, and we will chat with 
Dave, too. All of a sudden, when I saw the Secretary out 
talking about burning the Boise, I thought maybe he has not 
read the law, but then again, not too surprising on that issue.

                            prescribed fire

    Mr. Dombeck. I try and reinforce that fire is a natural 
part of the system----
    Senator Craig. Absolutely.
    Mr. Dombeck [continuing]. And we need to understand that, 
but our assessment is that about 10 percent of our at-risk 
acres can be burned without some other kind of treatment, 
whether it is mechanical thinning, salvage, harvest, some type 
of other fuel reduction mechanisms. So we need the whole regime 
to be applied. Not one of those single methods is the answer in 
itself.
    Senator Craig. Well, we agree on that. We absolutely agree 
on that, but there is a frustration. If there is commercial 
timber out there, and our mills are setting idle, and our 
people are without work, and our mill operators or loggers are 
without work, and we are burning commercially valuable timber 
for the sake of forest health, when we could be thinning and 
cleaning, we have a problem, and we have a little more pouring 
out of anger, and then you are going to hear a little more 
anger coming over this dais at you, so that is why that 
language is in the bill, now law, and we hope you look at that 
to make sure that we are working in that direction.
    Chief, an issue that has come to my attention, which I 
think disturbs me, is the discrepancy between the Forest 
Service's funding for the timber sale program and the funding 
for timber roads.

                         roads and timber sales

    Numbers from your agency show that you provide one level of 
funding for timber sales and another level for timber roads, 
which is I think inconsistent. Based on numbers we received 
from you, on a national level, the various regions requested 
$48 million in road money to support a timber offer level of 
about 2.5 billion board feet. The agency is providing about $35 
million to accomplish that level. Why is there such a large 
discrepancy?
    Mr. Dombeck. I can get you the numbers in detail, but here 
is my view of that. First, in all areas I do not think we have 
a program area where our region is getting all that it has 
requested. We have heard requests for increased funding in 
programs here this morning, and other places----
    Senator Craig. Sure.
    Mr. Dombeck [continuing]. So that is a given, but also I 
believe some of the requests likely involve a request for road 
support, for overhead, for other things that may not directly 
be road construction. The second thing I believe occurred was 
that through the conference report last year that harvest was 
increased by about 200 million board feet, and dollars were 
added, I believe, to the forest management program, but to my 
knowledge I do not think those dollars, commensurate dollars' 
were added to the roads program. I believe that is correct, 
right, Ron?
    Mr. Stewart. That is correct.
    Mr. Dombeck. But we will give you a breakdown of that.
    Senator Craig. Well, we need that, because if these are 
accurate, you cannot make those timber targets, and I say this, 
I have been told that there has been a particular problem in 
region ten.
    According to reports from the region, roughly one-third of 
their fiscal year 1999 timber program may be in jeopardy, 
because it was not given enough money for roads. Are you aware 
of that problem?
    Mr. Dombeck. I am not aware of that one, no.
    Senator Craig. That is pretty significant. I mean I 
understand the dislocations of numbers, but when you set 
targets, then you ought to be able to back them up with the 
necessary tools to at least under normal, reasonable 
circumstances meet those targets.

                      tongass land management plan

    Jim, let me pursue with you only briefly the issue of the 
Tongass. I am not going to be as impassioned as my colleague 
from Alaska, because I guess for the simple reason that the 
Tongass is not in Idaho, but at the same time I have followed 
that episode in that process before the committee of 
jurisdiction that I chair and working with Senator Murkowski 
for a good number of years.
    I must tell you that yesterday I think my reaction would be 
that we found the Tongass Land Management Plan is so 
significant as a final decision that it warrants the signature 
not from the regional forester, not from the Chief of the 
Forest Service, but yourself as the Under Secretary of 
Agriculture.
    What I am trying to understand about this process is 
process, because your credibility rests on process on both 
sides, all stakeholders, and how we get it defined, and how we 
understand appeals, and the credibility of those appeals, and 
working our way up and down the ladders from the region to the 
chief's office, and back down.
    I got a strange feeling that all of a sudden somebody 
walked in and just went, chunk, and whatever happened below 
does not count any more, I am going to make a decision from the 
top, that is it, take it, or sue me.
    If that is the case, I can understand why the senior 
Senator from Alaska was so exorcized, because our credibility 
around here is one of being believable, and trusting, and that 
processes that are prescribed as law work. So let me walk you 
through some questions that I am concerned about, because, 
first, I can assume that your decision involved no 
participation from the Council of Environmental Quality or 
other White House offices, as George Frampton testified before 
the House the day-before-yesterday.
    Mr. Lyons. That is correct.

                         administrative appeals

    Senator Craig. Were the administrative appeals you decided 
yesterday first filed on September 24, 1997?
    Mr. Lyons. I believe--I could not tell you the specific 
date, but those are the appeals that were filed on the 1997 
plan, that is correct.
    Senator Craig. Do not the Forest Service regulations 
indicate that the agency will try to decide these appeals 
within 160 days?
    Mr. Lyons. That is correct, and as you know, we were 
delinquent in doing so on litigation related to that issue.
    Senator Craig. In light of the extraordinary delay for a 
response, have not some of the appellants maintained that you 
have constructively denied their appeals and sought redress in 
the Federal district court?
    Mr. Lyons. I think that is the litigation I was 
referencing, Senator.
    Senator Craig. What will you tell the court about their 
claims, and how will the Government advise the court to deal 
with those claims that have been resolved by yesterday's 
decision?
    Mr. Lyons. Well, we had told the court previously that we 
intended to resolve the appeals issue as expeditiously as 
possible, and, in fact, that was one of the reasons that I 
elected to take the appeals. As Senator Stevens pointed out, it 
has been over a decade that this issue has been debated, and, 
therefore, I was attempting to expedite resolution by simply 
moving past the chief's appeal level to bring this to closure, 
and then if the----
    Senator Craig. Then how about the claims that were not 
resolved by your decision yesterday?
    Mr. Lyons. I think we addressed all the appeals that were 
raised yesterday, either individually or as they were 
consolidated, as I think the appellants were aware of.
    Senator Craig. So you tried to persuade the court to 
dismiss all claims, even though some may still be substantively 
relevant, and force these appellants to refile.
    Mr. Lyons. Well, there is no right of further appeal, as 
you know. When I elect to take----
    Senator Craig. I guess that is right. It is just sue now.
    Mr. Lyons. Well, one of the reasons to resolve this issue, 
and this is a unique decision, but not unprecedented, is to try 
and bring these issues to closure as quickly as possible.
    Senator Craig. Will you try to get the courts to dismiss a 
suit if one comes?
    Mr. Lyons. Well, I think we----
    Senator Craig. One is pending. You have one pending now.

                      tongass land management plan

    Mr. Lyons. Yes, and I think our argument would be, though I 
am not the Department of Justice, that the final decision 
rendered yesterday should resolve that pending suit.
    If I could make one point, Senator, and that is, I think we 
all agree that this issue has gone on long enough, and that 
there was need to seek resolution. We had, in fact, received a 
request from some staff that this issue be remanded.
    We felt we could work within the issues that were raised in 
the original EIS, that the public had an opportunity to comment 
on within the alternatives that were presented in the EIS to 
address the relevant and I think significant issues raised by 
some of the appellants to render----
    Senator Craig. I think all of us are frustrated by time, 
Jim, but why would it not be appropriate under the current 
process to allow the pending litigation to proceed to a 
conclusion on any issues unresolved or any new matters that 
might be raised as a result of your decision yesterday?
    Mr. Lyons. Well, Senator, I think my view was that we can 
go on and discuss this issue forever. It was about time for 
someone to make a decision and move on with the debate, which 
will now be addressed in the form of the district court.
    As far as the claim that the public had not had adequate 
opportunity for input, I point out that there was extensive 
comment on the 1997 EIS, there has been comment throughout this 
whole process, and so we dealt with issues which were in the 
context of the----
    Senator Craig. Will you allow the court to continue? I mean 
you----
    Mr. Lyons. Well, the court will make that decision.
    Senator Craig. Pardon?
    Mr. Lyons. I said I guess the court will make that 
judgment.
    Senator Craig. What will the Government recommend? I mean 
obviously you are going to recommend something.
    Mr. Lyons. I assume we will recommend that we want to be 
able to proceed, and to implement the 1999 decision, which was 
a modification of the 1997 ROD issued by Phil Janek.
    Senator Craig. OK. Let me see if I can summarize your 
rationale for proceeding the way you have, that is, issuing the 
Final Record of Decision rather than deciding the appeals and 
remanding the plan to the chief or to the regional forester. As 
I understand, and Jim, you probably ought to listen to this----
    Mr. Lyons. I am sorry.
    Senator Craig. As I understand it, you are justifying this 
course of action by asserting that your decision is a revision 
of the 1979 plan, and there is, therefore, no need for further 
public review or comment or NEPA analysis, because your 
decision yesterday replaces the regional forester's 1997 
decision in its entirety, thus the regional forester's 1997 
decision is nullified as if it never existed. Is this a fair 
summation of how you would justify your course of action?
    Mr. Lyons. No. As I mentioned, Senator Stevens, I do not 
think that is a correct characterization of what was done.
    Senator Craig. OK.
    Mr. Lyons. What we did was, we decided the appeals that 
were pending, I decided the appeals that were pending, with 
regard to the 1997 Record of Decision, and modified--both 
affirmed the 1997 decision and modified it in response to the 
issues raised by the appellants, and a ROD was issued simply to 
provide for those issues to be described in context.
    So it was a matter of simply trying to, if you will, 
present the entire story, as opposed to simply presenting a 
response to each individual appeal, which is another way in 
which we could have presented it.

                    forest plan development process

    Senator Craig. Has not your course of action blurred the 
process normally followed to first develop a forest plan under 
the National Forest Management Act, second, conduct 
environmental analysis under NEPA, and third, later hear 
appeals of final decisions in such a way that it is hard to 
follow the logic behind just exactly what you did yesterday, or 
put differently, is yesterday's decision a final National 
Forest Management Act plan, or is it a response to appeals on 
what was a final National Forest Management Act plan? I do not 
think it can be both at the same time, so what is it?
    Mr. Lyons. Well, as I said, Senator, I think what we did 
was, we resolved the issues that were raised by appellants with 
regard to the 1997 plan, and modified that plan in rendering a 
Final Decision yesterday. That is, I believe, fully consistent 
with the forest planning process.
    We went through public review, a NEPA process, there was 
public comment on that, a Record of Decision was issued in 
1997, it was subject to appeal, and I simply resolved the 
appeals yesterday.
    Senator Craig. It is arguable to say that you just rewrote 
a new plan, or you just wrote a new plan.
    Mr. Lyons. I do not think we should confuse the mechanism 
we used to issue a Final Decision with whether or not it was 
simply a resolution of the appeals issues.
    Senator Craig. OK.
    Mr. Lyons. It is not a wholly new plan, it is an 
affirmation of the 1997 plan, with modifications.
    Senator Craig. Well, let us assume for a moment that we 
accept your rationale, that you were really making a final plan 
decision, describe for me how, without engaging expert 
communications, you had sufficient information for a decision, 
even though you could not even talk to the people in the 
regional office who wrote the plan, that does not now exist.
    Mr. Lyons. We had a sizeable record, as you might imagine, 
having been accumulated over a decade, from which to work. We 
assembled a team of individuals with expertise relevant to the 
issues raised by appellants and with some knowledge and 
experience of Alaska issues, that team then worked with the 
existing record to address the issues raised by appellants, and 
to help guide me in making this Final Decision.
    Senator Gorton. Senator Craig, I am pretty quick going to 
have to intervene.
    Senator Craig. OK. I have a couple more, and I will quit.
    Senator Gorton. OK.
    Senator Craig. Thank you. I think it is important that we 
get this for the record, because, Mr. Chairman, I am very 
concerned that the Under Secretary's decision yesterday is 
precedent-setting in very significant legal ways, and because I 
think that we as policymakers and the prescription of process 
was sought and denied in a significant way yesterday. So let me 
ask this question.

                      record of decision authority

    Do you as the Under Secretary even have the authority to 
approve a Record of Decision under 36 CFR 21910C-1, 
specifically calls for the regional forester to prepare a 
record of decision for a plan?
    Mr. Lyons. I do not know that I can answer that question, 
Senator. I frankly do not understand it. I know the Secretary 
has final authority to render a Decision on the appeals that 
were filed on the 1997 decision, and that is what we exercised 
yesterday under our appeals rule.
    Senator Craig. OK. Well, let me ask one last question, and 
then I am going to bring it back to the chairman, because I 
want the chairman to understand what I am trying to do here.
    Mr. Lyons. And I am trying to understand.
    Senator Craig. Maybe it will justify his patience. In every 
appeal decision that I have reviewed, the decision resulted in 
either affirming the plan or remanding it to the deciding 
officers for changes. In every instance with which I am 
familiar where these changes were major, they were construed to 
require a significant plan amendment.
    This is triggered both by NFMA public participation and 
NEPA environmental analysis requirements. Are you trying to 
tell me that the changes that you made in the 1997 Record of 
Decision or in the 1979 Record of Decision, whichever you claim 
to be changing, were insufficiently major that they did not 
involve a revision or a significant plan amendment?
    Mr. Lyons. What I am telling you Senator is that we worked 
within the scope of the record that already existed and 
evaluated it in making the decision to affirm the 1997 plan, 
with modifications, and that is what we did yesterday.

           interior columbia basin ecosystem management plan

    Senator Craig. Well, my concluding thought, Mr. Chairman, 
as it relates to ICBEMP, or our regional ecosystem analysis, I 
believe dangerous precedent was set yesterday, in that while we 
have created, or the Forest Service has caused to be created by 
NEPA and NFMA, a rather complicated process, with tiers of 
decision making that are relatively clear cut now, but when 
these kinds of actions occur, what happens to all of the kinds 
of energies that we in our communities put into efforts like 
ICBEMP, and if some group decidedly disagrees, whether they are 
in the majority or the minority, but they happen to be 
consistent with the politics of the office, and I am talking 
about your office or the Chief's office, you make these kinds 
of decisions, and it appears to me that you have denied the 
process.
    Now, I am no lawyer, and my guess is we will find that out 
over due time, but it is kind of like I cannot get my way, so I 
am going to do it anyway. Now, that is how I have to read these 
kinds of decisions. Now, you know the credibility gap we, you 
and I, are into right now on efforts like ICBEMP.
    I think your action yesterday had a real chilling impact 
well down into the lower 48 when it comes to these decision 
making processes. That is why I was very curious as to your 
thinking and how it aligns.
    Mr. Lyons. Senator, I would simply respond by saying that 
the issues related to the appeals on the Tongass were decided 
in a manner that I think is fully consistent with regulations, 
in order to allow us to move on to implementation of what we 
think is a solid plan.
    I do not view those in the context of ICBEMP, and I think 
further discussions we have had both with you and Senator 
Gorton, we are going to continue to work through that process 
to try and, of course, be true to NEPA and NMFA, and the other 
processes in which we are bound to operate, and also to seek 
opportunities for public input involvement to hopefully come up 
with a sound plan that has broad regional and community 
support.
    Senator Craig. OK. Thank you.
    Mr. Chairman, thank you for your patience.

                      puget sound map photographs

    Senator Gorton. Mr. Dombeck, would you get your assistant 
to put out those three Puget Sound map photographs? Maybe right 
in a row, at the base of the dais here. Oh, they are all in 
one. You can just put them back the way they were before.
    I think you all know that I try to be understanding and 
relatively calm, perhaps more so than some of my colleagues 
over some of our policy differences, but I have to tell you, 
Mr. Dombeck, I regard those photographs as fraudulent.
    The color scheme seems to be designed to show that green is 
good and black is bad, and that basically what has happened 
there has been such a huge urbanization as to destroy the 
environment, but the selection of colors is rather peculiar. On 
the map on the left, one of the large black areas, of course, 
is the metropolitan part of the city of Seattle itself, but the 
largest black area is Mount Rainier National Park.
    Now, no map or photograph that is designed to educate is 
going to have the ice and snow on the top of Mount Rainier in 
the same color as the metropolitan downtown area of the city of 
Seattle.
    Now, I have lived in that area for more than 40 years, and 
it certainly is growing rapidly, and between the first 
photograph and the last there has probably been a doubling of 
the population, but you are trying to illustrate to us, it 
seems to me, that the environment of the area has been 
irrevocably destroyed.
    Again, the very use of black is, of course, negative. It 
sort of looks like, coming from the Forest Service, that we had 
a wonderful set of forests and they have all burned down at the 
same time.
    In fact, when I look at the detailed copies of the map I 
have here, I will give you two illustrations. In the city of 
Seattle itself, within the city limits of Seattle itself, the 
clear implication of the difference between the first 
photograph and the last photograph is that three of the four 
largest parks in the city of Seattle have been destroyed. They 
are green on the left map, they are black on the right map.
    Now, I know that those three parks have not been destroyed. 
In fact, if anything, they have more tree cover now in 1999 
than they did 24 years earlier.
    My family's vacation home is on one of those two islands in 
the upper left-hand corner in all three of the maps. In the map 
on the left, 1977, that area is mostly green. In the one on the 
right, both of those islands look more thickly settled and more 
totally destroyed than does the central district of the city of 
Seattle. They are for all practical purposes entirely black. 
Now, that is not true on Canano Island and on the south side of 
Whidbey Island.
    So you have presented to me a set of photographs that I can 
only say very bluntly are fraudulent. They do not show land 
use, they do not show the state of vegetation, and I will be 
damned if I know what they do show. We try to work together on 
things like this, and I am given this kind of stuff, it is 
supposed to mean something.
    It does not mean anything, and I sure hope that you are not 
showing these around to prove some cause or another. That is 
just flat out wrong, and if you want to use photographs like 
that, let us have them shown meaningfully, and colored areas 
that are totally different from one another, in a different 
fashion.
    I do not know where that green, yellow, black color scheme 
came from, but it does nothing but obstruct an understanding of 
what has taken place in a rapidly growing, mostly, but not 
entirely major metropolitan area in the United States.
    You can take it down, if your assistant will, but I hope 
when you go back to your office you will destroy it, or come up 
with something that is more meaningful than what you have shown 
us here today.

                            crown jewel mine

    Now, I have a wide range of questions. I may ask a couple 
of them. I do not have time for all of them, but I do want to 
cover another action in your case, Mr. Lyons, that has taken 
place in just the last couple of days, for which I suppose you 
are prepared, and it has to do with Crown Jewel, specifically, 
and mining regulations, generally,
    Two years after this administration, in January 1997, 
approved a Record of Decision, after that Record has been 
successfully defended by the Forest Service in a Federal 
district court, after the company concerned has spent $80 
million on the project, after more than 50 permits have been 
obtained, after the direction of the Washington Department of 
Ecology stated, and I quote: ``No other proposal has received 
this level of environmental scrutiny,'' a letter that you 
signed together with three others, presumably by the Interior 
Department's solicitor, John Leshy, pulled the rug out from 
under the entire project, rendered an opinion directly contrary 
to the U.S. Forest Service manual, and has not only destroyed 
that project, and perhaps the company that did so, but 
apparently has had the impact in national markets of causing 
almost every mining company in the United States that operates 
largely now on public lands to have a tremendous loss in the 
value of their securities and grave warnings about their 
future.
    I guess I have to ask you, Mr. Lyons, no private person 
could ever act in this fashion. Does not the Government of the 
United States owe at least a minimal degree of fairness to 
people who operate in good faith pursuant to the laws, and for 
that matter, the regulations that the Forest Service has 
kindled?
    How possibly can the Government justify, simply justify on 
the basis of the most minimal standards of justice, a decision 
of this nature?
    Mr. Lyons. I agree with the concern about fairness, Mr. 
Chairman. I would simply explain that the letter that was 
signed by myself, our general counsel, Charlie Walls, as well 
as the Solicitor of Interior, John Leshy, and Assistant 
Secretary Bacca, was the result of a legal interpretation of 
the 1872 Mining Act by the Department of Interior, and as you 
know, Interior has jurisdiction over subsurface rights related 
to the National Forests, so based on their guidance and their 
interpretation of the amount of surface occupancy that is 
provided for under the 1872 Mining Act, we were sending that 
letter to the company in question.
    Senator Gorton. Then it does not represent your own or your 
own Department's independent analysis of the law.
    Mr. Lyons. Well, it represents the guidance we have 
received, based on Mr. Leshy's legal decision----
    Senator Gorton. Please answer the question. Does it 
represent your view and your Department's view of the law?
    Mr. Lyons. It represents what I have been told is an 
appropriate interpretation of the law.
    Senator Gorton. Does it mean that you will now change your 
regulations in the Forest Service manual to the extent that 
that manual is diametrically, takes a diametrically contrary 
point of view?
    Mr. Lyons. Well, I think it raises a number of policy 
questions, Mr. Chairman, that we are currently assessing. This 
is obviously a new interpretation rendered by Mr. Leshy that 
serves as the basis for this decision.
    Senator Gorton. Are you going to engage immediately in a 
new rule making on that subject?
    Mr. Lyons. I have asked for an analysis of the 
implications.
    Senator Gorton. Well, I want to go back and ask the first 
question again. Do you believe that there is the remotest 
degree of justice or fairness in the Government of the United 
States acting in this way with respect to an individual 
applicant or for that matter with respect to the wide range of 
companies that now apparently are operating in a way 
inconsistent with this interpretation?
    Mr. Lyons. Well, I would agree, Mr. Chairman, it would have 
been preferable to have some sense of this interpretation 
sooner in the process.
    Senator Gorton. That really is not a very good answer. Does 
not the Government of the United States owe organizations like 
that some minimal degree of fairness?

                     interpretation of mining laws

    Mr. Lyons. I agree, Mr. Chairman. I also have to 
acknowledge that we are responsible for implementing the law, 
and if this is what the appropriate legal interpretation of the 
law is, not being a lawyer, then I have to follow it.
    Senator Gorton. Then are you recommending to us that we 
reverse this interpretation as a part of our bill this year?
    Mr. Lyons. No, sir, I am not doing that.
    Senator Gorton. So you think that this interpretation is 
not only required by law, but it is fair and to be continued.
    Mr. Lyons. I believe it is consistent with the law. I am 
not going to make a judgment about the fairness.
    Senator Gorton. You do not think fairness falls within your 
assignment or job.
    Mr. Lyons. I think it does, Senator, and I think it would 
have been fairer to give the company some forewarning that this 
was likely to be the interpretation of the 1872 Mining Act as 
it affected their proposal. Nevertheless, this is the 
interpretation that has been rendered, and that is what we have 
communicated to the----
    Senator Gorton. It is an interpretation that has been 
rendered and one that you do not want changed by statute.

                        mining act implications

    Mr. Lyons. You asked if I was recommending that in the 
context of the fiscal year 2000 budget. I am not, and I am 
asking now for an interpretation of the implications of this, 
both for existing operations and future operations.
    I think there has been tremendous debate about the 1872 
Mining Act in this Congress. There are a lot of issues I think 
we would like to revisit in the 1872 mining law. If in that 
context we were addressing issues, this is one we might 
address.
    Senator Gorton. Well, I can only give the editorial comment 
that I hope Mr. Lyons that I would have had the courage to 
resign rather than to sign such a letter that does such an 
injustice.

                         high-risk agency list

    Mr. Dombeck, you did try to cover your various 
accountability problems in your opening statement, but I want 
you more specifically to respond to the General Accounting 
Office's statement earlier this year adding the Forest Service 
to its list of agencies of high risk of waste, fraud, abuse, 
and mismanagement. Do you agree or disagree with the 
assessment?
    Mr. Dombeck. Well, based upon their criteria I will agree 
with GAO's assessment. Let me ask my chief financial officer if 
she would like to provide an interpretation or additional 
information.
    Ms. Goerl. The listing of the financial management concerns 
that the Forest Service is a high risk, when you view the basis 
for which they make those determinations, would seem fair, in 
view of the past actions that GAO has listed in terms of their 
criteria for that. So it was actually not that surprising for 
me to learn that we were put on the high-risk list, in view of 
my past experience.
    Senator Gorton. When you come back here next year will you 
be off that list?
    Ms. Goerl. I think that the GAO likes to reserve that you 
have to get a clean opinion for a couple of years before they 
would determine that the long-term health of the financial 
management program is enough that they would remove you from 
the list, and that has also been their past history.

                         general administration

    Senator Gorton. Mr. Dombeck, last year's conference report 
directed you to eliminate the general administration line for 
this budget, but you have one. When are you going to comply 
with that direction?
    Mr. Dombeck. Also let me ask Vincette to address that.
    Ms. Goerl. I think that improvement in the budget structure 
is essential to improving our accountability, and I believe we 
did forward one change this particular year in public asset 
protection and management.
    I think what we have to do before we do significant budget 
reform is to ensure that we have a sound financial basis and a 
financial system in place, which we do expect to have by 
October 1, 2000. However, we did forward for discussion and 
dialogue a proposed budget structure that we would like to have 
discussions with you and the Congress over the next couple of 
months, so that we can come back in 2001 with a renewed budget 
structure that would consider the general administration as 
well.

                        budget structure reform

    What we did in that particular proposal that we forwarded 
with the budget justification is link it back to what I think 
is very important, the strategic plan is long-term outcome 
measures, with current performance plan, products, and services 
we expect to do in the current year with the new budget 
structure.
    I think that that is essential, along with a strong 
financial infrastructure to ensure that we can report against 
that. We would be very pleased to work with you on that 
structure together.
    Senator Gorton. Given the length of this hearing and given 
the fact that I have 30 or 40 more questions by staff, I think 
we will submit the balance of them to you.
    Senator Bennett. Mr. Chairman, I came back to hear you.
    Senator Gorton. You missed the good part. [Laughter.]
    It went first.
    Mr. Lyons. Mr. Chairman, if I could just have one second.
    Senator Gorton. Yes.

                      puget sound map photographs

    Mr. Lyons. Since I was the one who raised the issues 
related to the photographs of the Puget Sound area I would like 
to have an opportunity perhaps to address your concerns at a 
later time and maybe come up and visit with you, but I want to 
assure you there is no intent, and I do not concur that those 
photos are fraudulent, but rather I think the black areas you 
identified simply reflect areas where there are no trees, 
which, of course, is why Mount Rainier shows up black.
    I would like to have an opportunity to explain to you how 
those photos were developed and in their utility at least in 
guiding us in terms of some of the work we are doing in the 
area, and I certainly did not mean to offend you in presenting 
that information.
    Senator Gorton. You will have that opportunity, Mr. Lyons.
    Senator Craig. Mr. Chairman----
    Senator Gorton. Yes.

                              mining laws

    Senator Craig [continuing]. It is not that I want the last 
word, but I agree with you and I am glad you pursued the issue 
of the letter that both Secretary Lyons and Solicitor Lechey 
signed. I worked on mining law for a long while, I have read 
the letter, I have read the context and understand it 
generally, and my reaction is simply this, I guess I am a 
little sorry that Jim got caught up in it. Mr. Leshy has had an 
agenda for the mining industry for a long time, it is well 
known. He has gone around the country giving political speeches 
about it for a long while.
    I kind of view this as a way of dragging the industry 
kicking and screaming to this administration's vision of reform 
of the 1872 mining law. The great tragedy is, of course, that 
it may well destroy companies and all of that, but then again, 
I guess that is relatively insignificant when one pursues one's 
politics.
    Thank you.

                     Additional committee questions

    Senator Gorton. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Slade Gorton
                                  fire
    The Subcommittee is very concerned about the fire risk on Forest 
Service lands, particularly in the interior West. GAO Associate 
Director for Energy, Resources and Science Issues Barry Hill testified 
recently that as many as 39 million acres of the interior West's 
national forests are a ``tinderbox.'' However, the budget request for 
fire preparedness, is the same as last year. This represents only 67 
percent of the optimal level of MEL (Most Efficient Level). This is 
down from 74 percent last year. Your own budget states:
    At the lower protection levels associated with a smaller percentage 
of MEL, there is increased risk of injury and loss of life to both the 
public and to firefighters, due to reduced staffing levels and 
decreased availability of firefighting resources.
    Question. How can the agency justify lowering the preparedness 
level in light of these facts?
    Answer. The president's fiscal year 2000 budget will allow the 
Forest Service to field an effective initial attack suppression force. 
There may be fewer initial attack resources available, but they will 
not be delayed in their action. Having fewer initial attack resources 
available may result in more escaped fires, higher suppression costs, 
and damage to resources. Much of this depends on the overall severity 
of the fire season.
    Question. For the last 10 years, what was the level of funding for 
Fire Preparedness and what percent of the Most Efficient Level did it 
represent?
    Answer. The level of funding and percent of Most Efficient Level 
fluctuates from year to year. The 10-year averages for fiscal years 
1990 to 1999 are $259 million for Fire Preparedness (WFPR) which 
equates to an average of 87 percent of Most Efficient Level (MEL).

------------------------------------------------------------------------
                                                             Percent  of
           Fiscal year                 WFPR         MEL          MEL
------------------------------------------------------------------------
1990.............................        176.2        196.2           90
1991.............................        179.9        200.1           90
1992.............................        187.5        219.5           85
1993.............................        247.9        275.3           90
1994.............................        257.7        294.2           88
1995.............................        285.1        311.4           92
1996.............................        295.3        328.0           90
1997.............................        319.3        341.0           94
1998.............................        319.3        390.0           82
1999.............................        324.9        430.0           76
10 Year Average..................        259.3        298.5           87
------------------------------------------------------------------------

    Question. The Department of Interior (DOI) is funding its Fire 
Preparedness operations at 83 percent of the MEL, why is there such a 
discrepancy between Forest Service funding and DOI?
    Answer. The Forest Service funding in terms of MEL was comparable 
to DOI up through the fiscal year 1998 budget year, and has averaged 87 
percent over a ten-year period. Decreases in program level have 
occurred very recently as balances with other equally important 
programs within the Forest Service occur, while program and 
inflationary cost continue to arise. In addition, DOI's budget 
allocation was more generous than the Forest Service's.
    Financing a higher percent of MEL should manifest itself as more 
available initial attack firefighters. Depending upon the severity of 
the fire season, the size of firefighting organization available for 
initial attack purposes that is funded by a lower percent of MEL in 
fire preparedness could result in more escaped fires, increased costs 
of fire suppression, and greater changes to resource values.
    Question. Does this mean that DOI is more concerned about limiting 
damage from fire than the Forest Service?
    Answer. No. Both DOI and USDA are equally concerned about limiting 
damage from fire as evidenced by continuing interagency efforts to 
improve wildland fire policy and program implementation. But, again, 
DOI's overall allocation was higher, giving that agency the ability to 
fund the program more aggressively.
    Question. Are there any problems caused by this discrepancy in the 
level of preparedness between the Forest Service and DOI?
    Answer. The Interior and Agriculture Departments have an effective 
working relationship, which has not been affected in prior years by 
different funding levels, and should not be affected in fiscal year 
2000.
    Question. Are the costs for maintaining the same percentage of MEL 
increasing more rapidly for the Forest Service than the DOI? If so, 
why? What can be done to resolve this problem?
    Answer. Yes. The Forest Service organizations and program is larger 
than DOI's, therefore issues are magnified in relation to budget. 
Implementation of actions recommended in various management review 
studies, since the catastrophic fire season of 1994, has resulted in 
increased costs primarily related to personnel, safety and training. 
Also, in the past, fire programs were heavily dependent on shared 
personnel from other program areas such as timber, wildlife, and 
engineering. As these programs decrease, fulltime fire positions are 
needed and greater fixed costs are required to maintain basic program 
capability.
    The Subcommittee is also concerned about how the Forest Service is 
planning to reduce the fire hazard on Western forestlands in the 
future. Last year, the Congress fully funded the hazardous fuels 
reduction program ($67,000,000). However, the GAO recently testified 
that ``the Forest Service lacks a cohesive strategy for reducing fuels 
on our National Forests'' and that the Forest Service current plans may 
significantly underestimate the number of acres on which fuels must be 
reduced annually to adequately reduce fire hazards.
    Question. Is GAO correct in its assessment? If GAO is incorrect, 
why?
    Answer. The GAO testimony was based on a draft report, which was 
subsequently released in April 1999 as GAO/RCED-99-65. In the Forest 
Service letter offering comments on the draft which is included on 
pages 50 and 51 of the final report, we state that: ``We feel that the 
GAO report is very comprehensive and does a good job of covering the 
problem. GAO has effectively portrayed the existing forest conditions 
that exist throughout much of the interior West forests. We agree with 
the principal findings of the report.''
    We have a strategy in place to accomplish our fuel reduction 
program. We will complete a plan similar to the one suggested in the 
report that will provide a more accurate estimate of the acres at risk 
and a cohesive plan to address the problem. However, not all acres in 
the entire system will be treated as this may require management 
activities that may jeopardize other ecological or human values. Acres 
treated will be decided after the appropriate science, environmental, 
and public input.
    Question. What is the current Forest Service strategy for reducing 
fuels on the National Forests?
    Answer. The Forest Service's long-term trend is to increase the 
fuel reduction to 3 million acres by 2005. Reduction of fuels is 
through a combination of treatment methods including prescribed burning 
and mechanical treatments. In addition, the plan noted above will 
outline all Wildland Fire and NFS programs that contribute to meeting 
this objective. The Forest Service has undertaken a Risk Assessment 
effort to identify high-risk areas and opportunities for priority 
treatments. We will use the information from the assessment process to 
help prioritize the allocation of funds and to address future funding 
requirements.
    Question. What are the Forest Service's specific plans to address 
the serious fire hazards in the interior West? Does the budget 
adequately reflect the significance of this problem?
    Answer. The Forest Service has undertaken a Risk Mapping effort to 
identify high-risk areas and opportunities for priority treatments. The 
President's fiscal year 2000 Budget includes $65 million for hazardous 
fuel reduction. This level of funding is in line with the planned 
increases in funding needed to increase accomplishment from 350,000 
acres per year in fiscal year 1994 to 3.0 million acres per year in 
fiscal year 2005.
    Question. On how many acres of land must fuels be reduced annually 
in order to adequately reduce fire hazards?
    Answer. The long-term goal is 3 million acres per year by 2005. The 
Chief has testified that 39 million acres of critical forested 
ecosystems are in an unhealthy condition and are at a greater risk of 
severe damage from fires. As the risk assessments are completed we 
expect a more accurate figure, but feel that at least 3 million acres 
per year of accomplishment is needed to address the problem.
    Question. On how many acres of land are fuels reduced using the 
following methods: (1) mechanical treatments, (2) prescribed burning, 
and (3) timber sales? Please break these numbers out by Region. What 
are the average costs for each of these treatments on a per acre basis? 
Please provide these numbers broken out by Region.
    Answer. We do not collect hazardous fuel reduction accomplishment 
data by type of treatment, such as numbers of acres treated by burning 
versus those treated by mechanical means. The fiscal year 1998 cost per 
acre by region, averaged for all types of treatments, is as follows: R-
1 $52; R-2 $68; R-3 $62; R-4 $52; R-5 $124; R-6 $73; R-8 $12; R-9 $56; 
R-10 $240. In fiscal year 1998 over 932,000 acres of the 1.4 million 
acres accomplished were in R-8; which contributed to a national average 
cost to $33. Timber sales are not reported in this category.
    Question. What is the agency's assessment of the fire risk in New 
Mexico?
    Answer. We are in close contact with the southwest Regional Office 
(AZ and NM). While parts of the Region are in extreme fire danger, 
other portions have received precipitation which has moderated 
conditions. The potential for a more active than normal wildland fire 
season is greater than normal, so we have been working with the Region 
to minimize fire risk.
    Question. How does the current situation compare to prior years?
    Answer. Current conditions reflect those seen in 1996. That year 
was characterized by an early start to the wildland fire season which 
had more large wildfires than normal, and had a length longer than 
normal.
    Question. What additional actions is the agency taking to respond 
to the increased fire hazard caused by the drought?
    Answer. Beginning in March, the Forest Service has used the 
Severity authorization to support deployment and early hiring of fire 
prevention and firefighting resources in the Region. To date, $4 
million has been sent to the Region. This money is used to offset 
extreme fire danger conditions that occur from time to time across the 
country. The southwest Region is using the severity authorization to 
hire their fire prevention and initial attack firefighting resources 
earlier than normal. The Forest Service, States of Arizona and New 
Mexico, Bureau of Land Management, and the National Park Service are 
coordinating their activities in regards to fire prevention, public 
service announcements, and deployment of firefighting resources. 
Severity authorizations will allow the Forest Service and States to 
minimize the risk of wildland fire occurrence.
    Fire lookouts are in place and initial attack resources are 
deployed throughout the Region.
    Question. What, if any, plans are there for the Forest Service to 
take advantage of advanced satellite technology used by other agencies 
to detect and fight fires?
    Answer. The Forest Service does utilize some of the satellite 
remote sensing from other government agencies, such as National Oceanic 
Atmospheric Administration (NOAA), National Aeronautic and Space 
Administration (NASA) , and the military.
    Question. What obstacles does the agency face in attempting to 
access this technology? Would the use of such technology increase costs 
to the fire program?
    Answer. We have not encountered any obstacles to date, and would 
not expect any increased cost to utilizing these technologies unless 
the agencies providing the service were to begin charging for the 
information.
    Question. Would particular regions of the country benefit more than 
others from the use of this more advanced technology, i.e., more remote 
areas where there is a less significant Forest Service presence on the 
ground?
    Answer. We have a fairly reliable detection system for most regions 
of the country. The technology would be most useful for mapping 
existing large fires.
                               recreation
    According to the agency's budget, the Forest Service is the largest 
supplier of outdoor recreation in the Nation with close to 900 million 
visitors annually. The agency's own projections are that demand for 
recreation is increasing rapidly. The Service has also stated that the 
business of recreation can provide similar economic benefits to 
communities that prior uses, like timber, did. Indeed, the budget 
states that, ``Tourism and recreation provide economic contributions 
equal to, if not greater than, traditional public land uses.''
    Question. If demands on the recreation program are increasing 
significantly and it supports economic benefits to local communities, 
why is the Recreation Management request frozen at last year's level?
    Answer. Recreation is just one of many programs funded by the 
Forest Service budget. It is one of the emphasis areas in the Forest 
Service Natural Resource Agenda. The other emphasis areas are: roads, 
watershed health and restoration, and sustainable forest management. 
Other agency priorities identified by Secretary Glickman and Under 
Secretary Lyons in the hearing before the House Interior Appropriations 
Subcommittee on March 10, 1999, are lands legacy; research; and 
accountability.
    The Administration has also proposed a series of legislative 
proposal that should help provide for long-term funding stability for 
much of the recreational program's activities (e.g. concession reform 
legislation).
    Recreation is just one of many programs funded by the Forest 
Service budget. In fiscal year 2000 the Agency has five major 
priorities: watershed health; roads; lands legacy; research; and 
accountability. While it is true that recreation programs are funded 
near the fiscal year 1999 level, other activities of lesser priority 
are proposed for funding decreases.
    Question. What economic impact will this have on communities that 
depend on recreational use of the National Forests to generate revenue?
    Answer. Since the Recreation Management budget has remained flat we 
see no change. However, over time because of the backlog in maintenance 
and the effects of inflation on a level budget there could be some 
decline in the quality of recreation experience for visitors. In 
addition, many private tourism/recreation related businesses (outfitter 
guides, resorts, concessions and lodges, etc.) rely on quality forest 
landscapes for their market niche in local, national and sometimes 
international tourism markets.
    Question. While the Recreation Management line item was held level, 
the budget asks for an additional $7,000,000 for Wilderness Management. 
What is the historic wilderness recreation use over the last 10 years?
    Answer. The agency believes that funding for wilderness has not 
been what it needed to be over the past decade to maintain pristine 
conditions that the public expects and the law requires. Therefore, an 
increase was made to help bring it up to a responsible level.
    The estimated wilderness use for the Forest Service, over the last 
10 years of available data, are reported below:

                              [In millions]

                                                    Estimated Wilderness
        Year                                                   RVD's \1\
1986....................................................      11,489,709
1987....................................................      11,634,201
1988....................................................      12,022,736
1989....................................................      12,221,059
1990....................................................      12,288,321
1991....................................................      12,356,925
1992....................................................      12,667,430
1993....................................................      12,815,143
1994....................................................      13,889,700
1995....................................................      13,862,800
1996....................................................      13,889,700

\1\ ``Recreation Visitor Day'' is a statistical reporting unit 
consisting of 12 visitor hours. A visitor hour is the presence of a 
person on an area of land or water for the purpose of engaging in one or 
more recreation activities during a period time aggregating 60 minutes.

    Question. What is the top priority for the agency with respect to 
wilderness recreation use?
    Answer. To provide, consistent with management of the area as 
wilderness, opportunities for public use, enjoyment, and understanding 
of the wilderness, through experiences that depend upon a wilderness 
setting. Also, with an ever increasing population, people expect the 
Forest Service to provide outstanding opportunities for solitude or a 
primitive and unconfined type of recreation.
    Question. What is the increase in the number of wilderness areas 
created and managed over the last 5 years?
    Answer. Seventy-six wildernesses were created in the five year 
period 1993-1998. Eight of these are managed by the USDA Forest 
Service, four are jointly managed by the Forest Service and the Bureau 
of Land Management, and the remaining 73 are managed by the Bureau of 
Land Management or the National Park Service. There are currently 624 
wildernesses in the National Wilderness Preservation System.
    Question. Is recreational use in wilderness areas increasing more 
than use in other areas of the National Forests? If so, by how much?
    Answer. Records do not exist that permit an accurate comparison of 
National Forest recreation and wilderness recreation use trends. 
Recreation use estimates are not available beyond 1996; from 1994 
through 1996, a comparison of the rate of increase of recreation use in 
wilderness and in other areas of the National Forests, expressed in 
recreation visitor days, shows:

------------------------------------------------------------------------
                                                              Recreation
                                                 Wilderness      use
                     Year                        recreation    (outside
                                                    Use      wilderness)
------------------------------------------------------------------------
1994..........................................       13,889      835,238
1996..........................................       14,512      859,210
Percent Increase 1994-1996....................          4.4          2.8
------------------------------------------------------------------------

    This comparison would indicate that wilderness recreation use is 
increasing at a greater rate (4.4 percent) than National Forest 
recreation use (2.8 percent).
    Question. How does the magnitude of economic benefits that local 
communities derive from wilderness use compare to the rest of the 
recreation program?
    Answer. The Forest Service has not calculated a comparison of 
economic benefits to local communities derived from wilderness use as 
compared to the rest of the recreation program. Such a comparison would 
be difficult for a number of reasons; one reason is that many people 
visit wilderness and other national forest areas in the same trip; the 
economic benefits are therefore not distinct to one area or the other. 
The question also limits the source of the economic benefit to the 
actual on-site, recreation visitation activity and excludes other 
wilderness or national forest sources of economic benefit, such as 
effect on the value of surrounding private lands (and resultant tax 
base).
    In terms of total gross magnitude, one can presume the economic 
benefits to communities from wilderness use is less than that from the 
rest of the recreation program for the following reasons: (1) total 
numbers of recreationists (in 1996, estimated recreation visitor days 
in wilderness were 14,512 million, compared to 859,210 million for 
general National Forest recreation), and (2) total land area 
(designated wilderness is only approximately 18 percent of the National 
Forest System). However, areas such as the Boundary Waters Canoe Area 
in Minnesota, and other large wildernesses where people need to pack in 
such things as canoes, other equipment, and food, may benefit more 
economically per wilderness visit than those where people drive through 
a national forest and stop only briefly.
    Question. Estimates from the agency indicate that the use of 
concessionaires has increased by 70 percent over the last decade. Prior 
to the implementation of the Recreation Fee Demonstration program, how 
did the Forest Service treat monies it received from concessionaires 
vis a vis the 25 percent payments to states, i.e., were these monies 
subject to the 25 percent payments?
    Answer. Prior to the Recreation Fee Demonstration program, all 
rental fees for concession based authorizations were subject to the 25 
percent payments to states. The exception were authorizations issued 
under the Granger/Thye Act, which allows permit holders to do work on 
government owned structures they occupy in lieu of fees. Campground 
concessions are the activity most associated with the Granger/Thye Act.
    Question. What, if any, portion of receipts from concessionaires 
could be retained for administrative or other costs by the Forest 
Service prior to the Recreation Fee Demonstration program?
    Answer. As mentioned above, the Granger/Thye Act allows for the 
permit holder to do work on government owned facilities they occupy. In 
some cases, the permit holder funds the agency to conduct the work for 
them. This is generally the case when the agency has the expertise to 
do the work. The Land and Water Conservation Fund Act allows for 15 
percent of fees collected to be retained by the unit to cover the cost 
of collecting such fees.
    Question. If a portion could be retained, what statutory authority 
provided for this?
    Answer. See answer to previous question.
    Question. What economic impact has the implementation of the 
Recreation Fee Demonstration program had on the 25 percent Fund 
payments to states? What are the future impacts likely to be?
    Answer. Congress exempted the Recreation Fee Demonstration program 
from the 25 percent Payment to States requirement when it passed Public 
Law 104-134 in 1996. In the fiscal year 1999 and 2000 budgets, the 
Administration proposed legislation that would provide a historic level 
of return to States as a replacement for the 25 percent payment to 
States statutory authority.
    In fiscal year 1998, the Forest Service Recreation Fee 
Demonstration program reduced historic payments to States by an 
estimated $1 million, as $4 million of historic fee sites were 
converted to Fee Demo Projects. Approximately $16 million in new fees 
collected in fiscal year 1998 were never subject to the 25 percent 
payment requirement. Recreation contributions to historic payments to 
States make up less than 1 percent of total historic returns--the bulk 
of payments have come from Agency commodity programs.
    If in the future all remaining Agency managed recreation fee sites 
were transferred to the Fee Demonstration Program, historic payments to 
States would be further reduced by approximately $1.4 million (25 
percent of the remaining $5.4 million of historic receipts not 
currently covered by Fee Demo).
    Question. What would the impact be of making receipts from the 
Recreation Fee Demonstration program subject to the 25 percent Fund 
payments to states? (Please provide a specific estimate of the fiscal 
impacts on the program.)
    Answer. In fiscal year 1998, the Forest Service collected $20.8 
million gross recreation fee demonstration receipts. If that entire 
amount was subject to a 25 percent return to States assessment, 
approximately $5.2 million would be available to the States. This 
figure would increase as future receipts increased. Note that Agency 
available funds would decline by the same amount, limiting Agency 
ability to provide visible improvements desired by fee paying visitors. 
This could greatly reduce public support for the fee system and might 
cause future reductions in receipts.
    In fiscal year 1998, costs for the Forest Service to collect and 
process the fees collected were about 17 percent of gross receipts. If 
25 percent of receipts are shifted to the States only 58 percent of the 
gross fees paid by the recreating public would be available to spend on 
recreation maintenance and improvements. Moreover, when the public 
visits, many are in-state and county residents who may be paying sales 
and income taxes to the state and counties. Also, out of state visitors 
are utilizing local hotels, restaurants and other facilities which help 
counties and states. If the forests cannot use the money to maintain 
the quality of these sites, people may choose to recreate elsewhere. 
Therefore, the local governments would lose the greater economic 
benefit of the people temporarily residing in these communities.
    Question. Does the Forest Service have the discretion to do this 
now, or would it require statutory authorization?
    Answer. Public Law 104-134 explicitly exempts Recreation Fee 
Demonstration receipts from the 25 percent payment to States statutory 
authority. The Forest Service does not have the authority to give 25 
percent of recreation fee demonstration receipts to the States. It 
would take new legislation to remove the exemption.
    Question. Recently, the Department of Labor (DOL) issued a ruling 
that will require Forest Service concessionaires to pay wages to their 
employees as set out in the Service Contract Act. What is the impact of 
this decision on the Recreation program?
    Answer. It is too early in its implementation to make any 
predictions on levels of impacts. Possible effects include no bids due 
to some offerings now being uneconomical, and where there are bids, bid 
amounts could be reduced to cover the increased costs.
    Question. What are the Forest Service's estimates on the number of 
concessionaires who would not re-bid on existing contracts if they are 
required to pay wages pursuant to the Service Contract Act?
    Answer. It is too early to make any estimates on impacts. Each 
concession offering is unique in its content, therefore the Agency has 
no basis to make estimates. To date pursuant to the Service Contract 
Act, five offerings have been awarded and three offerings did not 
receive bids.
    Question. What would be the impact on the Forest Service budget, if 
the agency has to operate these areas out of appropriated dollars?
    Answer. For reasons stated above, a value can not be calculated. 
However, should concession opportunities receive no bids and the agency 
field unit determines the campground should remain open to meet public 
demands, appropriated funds could be used. Currently, the agency is 
developing data to determine what it costs the agency to operate 
campgrounds. Preliminary information is anticipated to be available in 
July of 1999.
    Question. What, if anything, is the Forest Service doing to 
mitigate the effects of the Department of Labor's decision on the 
Recreation program?
    Answer. Because the level of effects is not known the agency has 
multi-faceted approach: (1) Implement the Service Contract Act 
requirements as existing authorizations come due. This will require a 
minimum five years cycle time. (2) Use the Recreation Fee Demonstration 
program as a safety net to allow operation of selected sites by the 
agency should no bidders come forward. As a temporary safety net, the 
agency is using the Recreation Fee Demonstration program in funding 
operations by allowing fees collected to be used, without further 
appropriation for site operations. (3) Over the next two years analyze 
the effects and adjust the program with a focus to maintain the 
concession campground program within the constraints of statutes and 
regulations.
    Question. Last year, the agency instituted a national policy 
banning fixed anchors in wilderness areas of the national forests 
without any public input. Subsequently, the agency postponed 
implementation of this national ban while it goes through a negotiated 
rulemaking process which includes the public, climbers and 
environmentalists.
    What is the current status of this process?
    Answer. The Forest Service is involved in a negotiated rulemaking 
process to determine the appropriate limits on the placement of fixed 
anchors for climbing in wilderness areas of national forests. The 
following items have been developed by the Forest Service and are 
awaiting approval by the Department of Agriculture: We are awaiting 
approval from the Department of Agriculture on the FACA requirements 
for the negotiated rulemaking and the Notice of Intent (NOI). Upon 
approval, the NOI will be published in the Federal register, and the 
public will have the opportunity to nominate members to the committee. 
The names of committee members will then be published in the Federal 
Register and announced through news releases. News releases and FS 
Today website postings will also be used to announce committee meetings 
and progress on the rulemaking.
    We are targeting September through October 1999 as the timeframe 
for committee meetings, November 1999 for the final committee 
recommendations, and June 2000 for the publication of a final rule in 
the Federal Register.
    Question. What is the likelihood that a policy can be developed 
which satisfies all stakeholders?
    Answer. This question is best answered by reading the Convening 
Report, ``The Potential for a Negotiated Rulemaking on Fixed Anchors 
for Climbing in Wilderness Areas Administered by the Forest Service'', 
January 27, 1999, by Philip J. Harter, Mediation Consortium. The Forest 
Service contracted with Mr. Harter for this report as the first phase 
of the negotiated rulemaking. Mr. Harter investigated all aspects of 
the fixed anchor in wilderness issue and interviewed many of the 
stakeholders; his findings, impressions and recommendations are 
included in the Report. The conclusion of the Report acknowledges that 
there are significant aspects of the fixed anchor issue that will make 
it difficult to reach agreement, but states, ``In sum, not only does a 
negotiated rulemaking appear feasible, it appears to be the recommended 
procedure. But, a reg-neg will be successful only in developing a 
policy to manage the use of fixed anchors. Negotiated rulemaking is not 
the means to issue a rule prohibiting them altogether nor to announce 
that there will be no restrictions whatever. If, as an initial matter, 
the Forest Service determines that the Act or its internal policies 
require either of these endpoints, then reg-neg is not the route to 
take.''
    The Forest Service is committed to the success of a negotiated 
rulemaking to draft a rule for fixed anchors in wilderness, working for 
an outcome that is recognized as a success for all stakeholders.
    Question. A few weeks ago, news accounts reported that the Forest 
Service is considering limiting hikers on some of the most popular 
trails in the Mt. Hood National Forest by as much as 90 percent. More 
recently, it has been reported that the Forest Service is re-thinking 
its proposal.
    What is the current status of proposals to limit access on the Mt. 
Hood National Forest?
    Answer. Over the last five years, the Mt. Hood National Forest has 
worked with a variety of interested people and groups in workshops, 
field trips, camp trips and interviews to prepare an environmental 
assessment (EA) to address how to best protect wilderness character in 
the Mt. Hood, Mark O. Hatfield and Salmon-Huckleberry Wildernesses. The 
draft EA was released in January 1999. The Forest then invited 
interested publics to review and comment on the proposal. Information 
was provided through mailings, web sites, open houses, direct contacts 
and other means. Written comments to the proposal were due on April 1, 
1999.
    The Mt. Hood National Forest is now evaluating over 600 written 
comments and input received, including those from over 400 people who 
attended three public meetings. Preliminary impressions include that 
there is broad public support for limiting use to protect physical 
wilderness resources. However, there is considerable opposition to 
maintaining solitude standards in areas that have historically 
experienced much higher levels of use, such as the south side Mt. Hood, 
climbing in the Mt Hood Wilderness, and on the Ramona Falls trail.
    The Mt. Hood National Forest is still working on the analysis of 
public comment and, based on that comment, a new draft EA will not be 
ready for public review until late November, at the earliest.
    Question. How much of the proposed policy is based on tangible on-
the-ground impacts which have degraded the resource versus subjective 
notions of solitude?
    Answer. The proposed Mt. Hood National Forest policy was based on 
approximately 50 percent on-the-ground impacts and 50 percent on the 
need to provide opportunities for solitude. The basis of the proposal 
varied and depended on the needs and conditions on individual sites. 
Examples include the south side Mt. Hood, a durable terrain (ice and 
rock) with high use levels (over 600 climbers on a May or June weekend) 
where the proposed limit was predominately based on limiting 
encounters, and on trails and popular camping sites where problems with 
vegetation trampling, soil compaction, and excessive human debris are 
the factors limiting use.
    Question. How does the Forest Service define solitude, if at all?
    Answer. National Forest Service Wilderness Policy (Forest Service 
Manual 2320) does not contain a definition of solitude. The solitude 
component of wilderness management originates from the Wilderness Act 
of 1964, which defines wilderness in part as an area that ``has 
outstanding opportunities for solitude or a primitive and unconfined 
type of recreation;'' (Public Law 88-577, Sec. 2 (c)(2)). The American 
Heritage Dictionary (Houghton Mifflin Co., 1982), defines solitude as, 
``The state of being alone or remote from others; isolation,'' but 
acknowledges in explanatory notes, ``Solitude implies the absence of 
all other persons but is otherwise not very specific.'' Individual 
wildernesses treat the concept of solitude, with public participation, 
during the planning process. A Limits of Acceptable Change approach is 
often used. Solitude is defined according to specific opportunities and 
resources for each wilderness, and standards identified for focusing 
management on protecting wilderness resource values and providing 
quality wilderness experiences for visitors.
    Question. If solitude is used as basis for establishing the maximum 
numbers of visitors, what is the methodology for measuring ``solitude'' 
and determining the appropriate level of visitors?
    Answer. The methodology has developed from work conducted by Forest 
Service scientists, wilderness managers' experience, and years of input 
by wilderness visitors and interested others. Although there have been 
a few attempts to study wilderness visitors' perceptions of solitude 
directly, most research has focused on number of encounters between 
groups rather than on solitude. Researchers have typically assumed that 
opportunities for solitude should generally increase as encounters with 
other groups decrease. Because numbers of encounters can be more 
directly influenced by management actions than solitude can, managing 
the number of encounters has become the most accepted means of managing 
opportunities for solitude. Wilderness staffs can manage the number of 
encounters informally, by such means as suggesting to visitors 
alternative trailheads to reduce numbers at one that is overused, or 
rerouting trails to change travel patterns (and therefore encounters) 
along popular routes. Formal controls, such as a permit system limiting 
the total number of visitors in the wilderness at any one time, are 
generally the last to be imposed.
    Question. To what extent does the agency base public access 
decisions in wilderness areas nationwide on the concept of solitude 
versus physical degradation of the resource?
    Answer. There is no National policy or standard as the basis of 
public access decisions in wilderness and we have no plans to establish 
such a policy. Since the early 1980's the Forest Service has used the 
``Limits of Acceptable Change (LAC)'' planning and management process 
developed by Forest Service wilderness researchers to address 
recreation use in wilderness as part of the forest planning process. 
Both the concept of solitude and the physical degradation of the 
resources are considered. The LAC process provides for local decisions 
including public involvement on a wilderness by wilderness basis to 
determine the limits of recreation use and environmental impact that a 
wilderness should sustain within the framework of the Wilderness Act.
                          roadless moratorium
    In January of last year, despite the request of a number of members 
from both the House and Senate, to work with the Forest Service in 
developing a revised road policy, the agency unilaterally issued a 
proposed policy imposing a moratorium on road construction in roadless 
areas.
    Question. What, if any, timber sales or road building were done in 
any areas defined by this proposed policy over the last 15 months? 
Please provide a complete list of all National Forests in which timber 
sales or road building took place in areas defined by the proposed 
policy issued in January, 1998.
    Answer. We do not have a list of projects that took place within 
areas covered by the proposed interim roads rule published in January, 
1998, since the policy was proposed and did not apply to, or affect, 
any projects in fiscal year 1998. We did not collect information 
pertinent to projects that may have been subject to the roads rule 
since the rule was not in effect.
    In late January, just before the Service announced the roadless 
moratorium the agency briefed a number of Senate staff and suggested 
that the impact of the moratorium in fiscal year 1999 would be the 
cancellation of between 160 and 240 MMBF of timber sales. A press 
release issued by the agency suggested that about 200 MMBF of fiscal 
year 1999 timber sale volume would be canceled.
    Question. How much volume has been, or is now likely to be, 
canceled in fiscal year 1999?
    Answer. The numbers quoted in the preface to the question need to 
be clarified. These were estimates for the entire 18-month period 
affected by the suspension based on the environmental assessment and 
preliminary estimates from the field. Following publication of the 
interim rule in the Federal Register on February 12, 1999, each 
national forest evaluated their proposed projects to determine which 
projects would be suspended. This analysis was completed in early 
March. The forests identified timber sales with an estimated volume of 
about 219 million board feet that would be subject to the suspension 
over the next 18 months. Of this amount approximately 96 million board 
feet was tentatively scheduled to be offered for sale in fiscal year 
1999 and subject to the suspension. The remaining 123 million board 
feet was identified from timber sales subject to the suspension and 
proposed for offer in fiscal year 2000. A final volume estimate is not 
possible before the end of the fiscal year because forests have the 
ability to modify sales affected by the policy or substitute future 
sales for any delayed sales.
    Question. Please provide the following information: (1) Copies of 
the 6-month and 12-month Periodic Timber Sale Program Announcements 
generated by each forest that has, or will be, canceling timber sales 
in fiscal year 1999; (2) a copy of the revised 6-month and 12 month 
Periodic Reports which were generated after the Roadless Moratorium was 
announced; and 3) an explanation of why each sale was, or will be 
canceled tied to the different land classifications included in the 
Moratorium.
    Answer. Projects are delayed or curtailed for a number of reasons, 
such as, cost of implementation, lack of feasibility, lack of funds, 
environmental risk, or public opposition. In order to address the 
potential impacts resulting from the interim rule, each forest 
evaluated their proposed projects in light of the interim rule. Each 
affected project was identified along with the miles of road 
construction and reconstruction and any timber volume associated with 
suspended timber roads.
    Please refer to Enclosure 1, on following pages.
    [GRAPHIC] [TIFF OMITTED] T06AP15.001
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.002
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.003
    
    Question. How much volume and on which forests were timber sales 
canceled due to roadless area concerns in fiscal year 1998? In support 
of the agency's answer, please provide the following information for 
the fiscal year 1998 timber sale program: (1) Copies of the six and 
twelve month Periodic Timber Sale Announcements generated on each 
National Forest in fiscal year 1997 and fiscal year 1998; and (2) a 
list of sales, and volume of those sales, which were scheduled to sell 
in fiscal year 1998 but that were not offered. Please include an 
explanation on whether or not the canceled sale(s) fall within any of 
the classifications that are included in the Roadless Moratorium. This 
information should be displayed on a forest by forest and sale by sale 
basis.
    Answer. Projects were delayed or curtailed for a number of reasons 
in fiscal year 1998, such as cost of implementation, lack of 
feasibility, lack of funds, environmental risk, or public opposition. 
The interim rule on the temporary suspension of road construction and 
reconstruction in unroaded areas was not adopted until March 1, 1999, 
therefore, fiscal year 1998 projects could not have been delayed 
because of the interim rule.
    Question. Please also provide a listing of the average stumpage 
price paid for sales sold in fiscal year 1998 on these forests for any 
forest that did not fulfill their target (as articulated in the 
Periodic Timber Sale Program Announcements for fiscal year 1998).
    Answer. There were no sales subject to Section 3006 of the fiscal 
year 1998 Supplemental Appropriations Act, since the interim rule was 
not in effect for fiscal year 1998. Therefore, a report on compensation 
was not applicable.
    Section 3006 of the fiscal year 1998 Supplemental Appropriations 
bill required the Forest Service to compensate counties for funds lost 
as a result of delayed or halted timber sales caused by the roadless 
moratorium in fiscal year 1998 and fiscal year 1999. The agency was to 
report the amount needed for such compensation to the Appropriations 
Committee. The Committee has not received a report from the Forest 
Service.
    Question. Has the agency done an analysis of how many sales were 
delayed or halted over the last fiscal year as a result of the roadless 
policy and what impact this had on 25 percent fund payments to 
counties?
    Answer. There were no fiscal year 1998 timber sales subject to 
Section 3006 of the fiscal year 1998 Supplemental Appropriations Act, 
since the interim rule was not in effect for fiscal year 1998. 
Therefore, a report on compensation was not applicable.
    Question. If no such activity occurred, does that not, in fact, 
mean that there were timber sales halted as a result of the roadless 
policy and that the affected counties are entitled to compensation from 
the Forest Service?
    Answer. See answer to previous question.
    Question. The Forest Service's own estimates are that 170-260 
million board feet will be delayed or halted by the interim rule 
implementing the roadless moratorium in fiscal year 1999 and fiscal 
year 2000. How much will be delayed or halted in fiscal year 1999? How 
much will be delayed or halted in fiscal year 2000?
    Answer. The estimate of 170-260 million board feet stated in the 
question was a preliminary estimate based on the environmental 
analysis. Following publication of the interim rule in the Federal 
Register on February 12, 1999, each national forest evaluated their 
proposed projects to determine which projects would be suspended. This 
analysis was completed in early March. The forests identified timber 
sales with an estimated volume of about 219 million board feet that 
would be subject to the suspension over the next 18 months. Of this 
amount approximately 96 million board feet was tentatively scheduled to 
be offered for sale in fiscal year 1999 and subject to the suspension. 
The remaining 123 million board feet was identified from timber sales 
subject to the suspension and proposed for offer in fiscal year 2000. A 
final volume estimate is not possible before the end of the fiscal year 
because forests have the ability to modify sales affected by the policy 
and substitute future sales for any delayed sales.
    Question. Is the agency preparing a report to the Appropriations 
Committee for fiscal year 1999 on the impacts to county payments of the 
roadless moratorium? When will this report be issued?
    Answer. Yes, the agency will document the amount of any payments 
resulting from timber sales suspended because of the interim rule on 
road construction and reconstruction in unroaded areas in conformance 
with Section 3006 of the fiscal year 1998 Supplemental Appropriations 
Act. The payment can not be calculated until after the end of the 
fiscal year in order to take into consideration any substitute timber 
sales, as recognized in Section 3006 (b)(2)(A)(ii). The Committees on 
Appropriations will be notified and requested to approve the use of 
funds for any payments as soon as practicable after the end of the 
fiscal year in accordance with Section 3006 (b)(2)(B).
                        financial accountability
    Recently, GAO testified that there are serious problems with 
implementing the agency's new Foundation Financial Information System 
(FFIS) accounting system which is critical to obtaining a clean audit 
opinion of the Forest Service's financial statements. In fact, GAO 
stated that because of problems with the system in the three Regions 
where it is being piloted, implementation has been postponed from 
October 1, 1998 until October 1, 1999.
    Question. Will this system be implemented agency-wide by the end of 
this fiscal year? Before it is implemented agency-wide will the agency 
be able to demonstrate that it works satisfactorily in any of the pilot 
Regions?
    Answer. Yes. Implementation of FFIS agency-wide for the Forest 
Service will begin on October 1, 1999 for fiscal year 2000. 
Implementing a new accounting system within the Forest Service is a 
complex task, requiring continuous identification and resolution of 
operational and technical issues. FFIS pilot testing within two Forest 
Service regions and one Forest Service research station has been 
operational and ongoing since October 1, 1997. These efforts have 
provided Agency managers with a wealth of knowledge on the operation 
and maintenance of FFIS. Knowledge gained and lessons learned from 
implementation efforts within pilot units have been incorporated into 
strategies for full, Agency-wide implementation of FFIS. Also, complete 
end-to-end and user acceptance testing of those FFIS system attributes 
which were not used and tested by pilot units, but will be used during 
Agency-wide implementation of FFIS, will be conducted prior to moving 
FFIS to an Agency-wide production environment on October 1, 1999. The 
agency will continue to evaluate and learn from the pilot testing 
effort right up to and into agency-wide implementation in fiscal year 
2000.
    Question. When will the agency be able to obtain a clean financial 
opinion? Besides implementation what are the primary obstacles to 
obtaining a clean opinion? What is the agency doing to remove these 
obstacles?
    Answer. Our goal is to have a ``clean'' or unqualified audit 
opinion on the agency's fiscal year 2000 financial statements. We 
recognize that this is an enormous challenge given the amount of change 
that needs to take place. One potential obstacle to obtaining a clean 
opinion could be the inconsistent application of financial management 
principles and procedures. One of the most important changes being 
implemented in fiscal year 2000 is the use of the primary purpose 
principle for funding work and the charging of expenditures. This 
change will reduce the number of lines of accounting in the system 
which will increase accountability and improve system response time. 
The agency has invested significant time and energy to ensure that this 
change is implemented correctly. A video, video guide and 
implementation document containing rationale, definitions and examples 
have been developed and distributed across the agency. An intra-agency 
web site has also been established which will contain all of this 
information as well as field-generated questions and agency-approved 
answers. Even though this shift to primary purpose is requiring many in 
the agency to re-think how they plan, fund and account for work, we are 
confident that this change will be implemented consistently and not 
prevent us from obtaining a clean audit opinion.
                                  gpra
    Question. What specific steps has the Chief taken as head of the 
agency to achieve performance-based management within the agency, as 
required by the Government Performance and Results Act?
    Answer. A series of steps are necessary to fully implement these 
measures agency-wide. As explained in our fiscal year 2000 Budget 
Justification, we are in the process of establishing an inter-
disciplinary team of specialists from all levels of the agency to 
ensure implementation of these measures. This team will develop an 
implementation plan, assign responsibility for completing tasks, and 
have coordination and oversight responsibilities. A number of specific 
implementation tasks may be worked on by that team. Tasks will include 
defining performance measures, identifying units of measure, developing 
protocols and standards for measuring and collecting, evaluating and 
reporting information. The agency also intends to work with an outside 
contractor to ensure that information system needs for implementing 
these performance measures are in place and compatible with other 
systems, including our new financial management system, FFIS.
    The agency's leadership is identifying the key long-term measures 
that will be focused on in fiscal year 1999. It is expected that these 
measures will be implemented as appropriate in fiscal year 2000. During 
fiscal year 2000, another set of measures will be worked on for 
implementation in fiscal year 2001.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. The performance elements of the agency's senior executive 
service contain accomplishment targets for each of the GPRA performance 
indicators which tie directly back to the goals and objectives in the 
Forest Service GPRA Strategic and Performance Plans.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. As mentioned above, SES employees receive targets for each 
of the GPRA performance measures. They are held accountable for 
achieving their assigned performance goals. In addition, field unit 
performance accomplishments from the previous year are used to assign 
performance goals and distribute funding to the field units in the 
following year. Those units that demonstrate the ability to perform are 
assigned higher targets and may be more competitive for higher funding 
in subsequent years.
    Question. How did program performance factor into decisions about 
the funding the agency request in fiscal year 2000? Please provide 
examples.
    Answer. Each year the starting point for the President's Budget is 
based upon prior year accomplishment information. This forms the basis 
for the instructions to the field. Field units respond with any changed 
conditions, shifts in emphasis, etc. which is considered along with 
other information to develop the national levels for both funding and 
outputs. An example would be Noxious Weeds treated acres, The 
Washington Office proposed 67,000 acres as a starting point. The field 
responses indicated 51,410 acres the fiscal year 2000 request is 56,000 
acres to be accomplished.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. Using the Natural Resource Agenda, the Agency is able to 
emphasize the Results Act's goals and objectives such as Watershed 
Restoration and Recreation. We continue to refine our allocation 
criteria which allows for a more accurate reflection of regional 
workload which in turn provides for a better starting point in future 
budget proposals.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. To the extent possible, GPRA performance indicators, are 
linked directly to a specific GPRA goal and objective, and where 
possible link to a single budget line item.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. The fiscal year 2000 Budget Justification includes a 
section on budget structure reform. Please refer to Table 2, Outcome-
based Performance Measurement structure.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. To the extent possible, performance measures with reliable 
data are used in the fiscal year 2000 Performance Plan. In several 
instances however, new measures are included which will require several 
years of data collection before performance trends can be evaluated.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The agency is in the process of developing sound, 
scientific protocols for those measures that are currently not 
measured. Where measurement protocols exist, the agency is completing 
the necessary inventories to establish baseline data against which 
accomplishments can be compared.
    Question. How will the agency's future funding requests take into 
consideration actual performance compared to expected or target 
performance.
    Answer. Actual performance from previous years is used as a 
starting point for distributing targets and funding in subsequent 
years. Efforts are being made to reduce the variation or disparity 
between targets (or projections) and actual accomplishments including 
greater emphasis to line-officer performance standards.
                       state and private forestry
    The budget for the State and Private Forestry program proposes to 
spend $62 million in Land and Water Conservation funds for the Forest 
Legacy, Urban & Community Forestry, and Stewardship Incentives 
activities.
    Question. Will the agency send proposed legislative language to the 
authorizing committees to permit expenditure of these funds in this 
fashion, or is it the agency's position that the appropriations 
committee will provide it with this authority as part of the budget? 
What is the agency's rationale for this decision?
    Answer. Language is included in the fiscal year 2000 Budget 
Justification.
    Question. The budget proposes spending $50 million in State and 
Private on the Forest Legacy program which acquires conservation 
easements. This is a 600 percent increase over last year's level. What 
is the basis for providing a 600 percent increase in Forest Legacy when 
the agency has stated that there is an $8 billion backlog in road 
maintenance and a $1 billion backlog in recreation facilities 
maintenance on the lands that are already under its management 
authority?
    Answer. The President's Budget balances many important priorities 
to assure sound management across all the nation's forests. The support 
for the Forest Legacy program responds to increased demands from the 
private sector to maintain threatened habitat types and unique 
ecosystems. Since the 1996 Farm Bill, the majority of Forest Legacy 
acquisitions are in fact made by the States, not the Federal 
government. The current project list contains $85 million worth of 
potential Forest Legacy acquisitions, located in several different 
states. Some of the States have several projects on the list, others 
have only one.
    Question. Why shouldn't the agency place more emphasis on 
management of lands already under its stewardship before spending large 
amounts on the acquisition of easements on private lands?
    Answer. The Forest Service mission is to both care for federal 
lands and to assist private landowners, in cooperation with state 
partners, in the management of private forests. The Forest Legacy 
program operates in most participating states with an emphasis on 
conservation easements on private forests, leveraging additional non-
federal funds to assure the conservation of unique and valuable forest 
lands. Legacy tracts lie within the priority areas identified when the 
state conducts an assessment of need when joining the program. 
Management of acquired tracts and easements is supported by the 
relevant state or local organization. Thus, the Forest Legacy Program 
focuses on keeping important forests in productive, private ownership 
while protecting the forest from development and fragmentation, in a 
cost-effective manner for the American public.
    We should take care of the lands we currently administer while 
acquiring the priority lands that will help the Forest Service meet it 
mission and provide for future public recreation demands. The Forest 
Service land acquisition program provides lands critical for wildlife 
habitat, watershed protection, outdoor recreation opportunities and 
improved management efficiency of adjacent National Forests.
    Question. The fiscal year 2000 budget justification states that 
over half of the funds for the Forest Legacy program are for national 
commitment and the Washington Office. What national commitment will be 
funded out of this program? How much will go to the Washington Office 
for overhead/indirect expenses?
    Answer. In keeping with the established fiscal year 2000 allocation 
process, one half of the funds will be allocated in the initial 
allocation and the balance will be allocated later to support the 
national Forest Legacy Program priorities. Please refer to pages 353 
and 354 of the fiscal year 2000 Budget Justification.
    Question. Six Regions of the Forest Service do not participate in 
the Forest Legacy program. Will states in these Regions participate in 
the future? When?
    Answer. Eight Forest Service (FS) regions (1, 2, 3, 4, 5, 6, 8, 
10), the Northeastern Area (NA), and the International Institute of 
Tropical Forestry (IITF) are the responsible field units for 
administering the Forest Legacy program. Seventeen states and 
territories from five (4, 5, 6, NA, IITF) of these ten FS units 
currently participate in the program and will be joined this fall by an 
additional six states (TN, SC, NC, MT, MN, PA), including states from 
two FS Regions (1, 8) not currently in the program. At that time there 
will be seven of ten FS units represented. Six additional states (NM, 
IA, VA, OH, GA, WI), including a state from one FS Region (3) not 
currently in the program, are interested in the program and may choose 
to prepare an Assessment of Need plan in the next year. We expect that 
a year from now eight of ten FS units will be represented.
    Question. The agency has requested a $15,000,000 increase in the 
Stewardship Incentives Program. What is the state-by-state breakdown of 
funds provided under the SIP program for fiscal years 1995-1998? What 
is the planned breakdown for fiscal year 2000?
    Answer. Please refer to enclosure 2, on following pages.
    [GRAPHIC] [TIFF OMITTED] T06AP15.004
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.005
    
    The fiscal year 2000 President's budget includes $5 million for the 
Stewardship Incentives Program and $10 for the Smart Growth Initiative.
    Question. Based on agency projections, what are the long term 
effects on future timber production from this program which are 
attributable to the increase in requested funding? What is the total 
number of landowners that will receive funding?
    Answer. SIP is a multi-resource program, increasing the ability of 
landowners to implement a wide variety of forest stewardship practices 
such as fish and wildlife habitat enhancement, recreational 
improvements, forest stand improvements, agroforestry, and many others. 
While we track the numbers of acres on which SIP practices are 
implemented, including forest stand improvement and reforestation, we 
do not keep statistics on the program's effects on timber production.
    Since its inception in 1991, the SIP program has enabled the States 
to assist over 36,000 landowners (an average of 5,000 landowners each 
year).
    Question. According to industry statistics, the majority of 
timberland is in private ownership (not including timber industry 
ownership). What statistics are available to identify how the SIP 
program improved productivity from these lands? If so, what do these 
statistics show?
    Answer. The Stewardship Incentive Program (SIP) assists landowners 
to implement multi-resource priorities on non-industrial private forest 
land. The wide variety of practices that can be cost-shared through SIP 
include reforestation and afforestation, forest improvement, wildlife 
habitat enhancement, soil and water protection and enhancement, forest 
recreation enhancement, agroforestry, and fisheries enhancement. As of 
October 1998, close to 3.5 million acres had benefited from the 
application of one of these practices.
    The importance of USDA cost-sharing programs to the sustainable 
management of non-industrial private forests (NIPF) is great. According 
to the Sampson and DeCoster report ``Public Programs for Private 
Forestry'', USDA forestry cost-share programs have funded almost 40 
percent of all tree planting on NIPF lands in recent years. There is 
also documented evidence that, in the southern region, where NIPF 
owners hold the majority of the productive pine forest lands, both 
cost-sharing and tax credits are important in achieving reforestation 
after harvest.
    Question. Since fiscal year 1996, from which line items has the 
International Programs activity been funded? Please provide a break-out 
for each year.
    Answer. Please refer to enclosure 3, on following page, for a 
funding distribution for international activities.
[GRAPHIC] [TIFF OMITTED] T06AP15.006

    Question. What are the indirect and direct costs for each line item 
within the State and Private Forestry program? Please provide a 
complete breakout. Within these two categories please also provide a 
narrative identifying what the bulk of the costs are attributable to, 
i.e., salary, rent, travel, personnel, etc.
    Answer. Current estimates for fiscal year 2000 are--

------------------------------------------------------------------------
                                   President's
                                      budget       Direct      Indirect
------------------------------------------------------------------------
Forest Health, Federal...........       40,325       38,105        2,220
Forest Health, Cooperative.......       21,400       21,294          106
State Fire Assistance............       31,509       31,411           98
Volunteer Fire Assistance........        2,001        2,000            1
Forest Stewardship...............       28,830       26,122        2,708
Stewardship Incentives...........       15,000       14,993            7
Forest Legacy....................       50,012       49,982           30
Urban & Community Forestry.......       39,540       39,360          180
Economic Action Programs.........       16,305       16,023          282
Pacific NW Assistance............        7,000        6,706          294
                                  --------------------------------------
      Total......................      251,922      245,996        5,936
------------------------------------------------------------------------

    About 2 percent of the State & Private Forestry appropriation will 
be spent on indirect costs.
    About 59 percent of the indirect portion will be spent on salary 
and benefits; 5 percent, travel; 10 percent on rents, communications, 
and utilities; 3 percent, supplies and materials; 3 percent, equipment; 
and 21 percent on other services. About 20 percent of the direct 
portion will be spent on salaries; 3 percent, travel; 60 percent, 
grants and agreements; and 17 percent on other services.
                                research
    Question. The fiscal year 2000 budget proposes a $37,000,000 
increase for research. What are the top priorities for the research 
program for fiscal year 2000?
    Answer. Forest Service Research and Development needs to retain an 
array of scientific disciplines to address a range of important natural 
resource research issues. Our program is described in the fiscal year 
2000 Budget Justification for the Committee on Appropriations under 
four program areas: Vegetation Management and Protection research; 
Wildlife Fish, Water, and Air Research; Resource Valuation and Use 
Research; and Forest Resources Inventory and Monitoring Research. The 
Budget Justification outline program emphasis in these areas.
    Major areas of interest in the President's fiscal year 2000 Budget 
include: Threatened, Endangered, and Sensitive Species ($10 million); 
Application of Mathematical Programming and Computer Simulation to 
National Forest System (NFS) Planning ($5 million); Non-native Invasive 
Species ($5 million); Climate Change Technology Initiative ($6 
million); Global Change Research Program ($6 million); Ecosystem 
Productivity ($5 million); Inventory and Monitoring ($4 million); and 
Demonstration of Ecosystem Management Options (DEMO) ($1.2 million).
    Question. How have the priorities for the research budget changed 
from that proposed last fiscal year?
    Answer. The Forest Service remains committed to maintaining a 
strong research base capable of addressing the Nation's many competing 
priorities. Some of the increases requested, such as an additional $4 
million for forest inventory and monitoring, were also agency 
priorities last year with which Congress concurred. Some increases are 
new this year, such as the additional $10 million for wildlife and fish 
research, and represent new support within the Administration, to keep 
pace with the growing need for more research in these areas. Other 
proposed increases, such as the proposals for global change research 
and climate change technologies, represent continued Administration 
support for ongoing inter-agency science initiatives. The fiscal year 
2000 President's Budget represents a balanced set of priorities that 
collectively serve important Congressional, interest group, agency, and 
Administration priorities.
    Question. How much of the Research budget is devoted to funding of 
work by other entities like private and public universities?
    Answer. Over the past 5 years, approximately 8 to 10 percent of our 
total budget has been used to fund cooperative research with experts at 
private and public colleges and universities. Of the $37.2 million 
increase proposed in the fiscal year 2000 President's Budget, we 
estimate that $10.2 million (27.4 percent) would be used to fund 
cooperative research with universities through existing research grants 
and agreements authorities. The collaborative research envisioned 
extends across all research areas.
    Question. Is there other work being done by the Forest Service that 
could effectively be done by Universities. Please identify the 
particular work and the amount of money being proposed in this year's 
budget for this activity.
    Answer. America's forest research capacity is of significant 
concern to us. Since 1982, Forest Service Research & Development 
research capacity has decreased by 50 percent. Anecdotal evidence from 
our university collaborators indicates that their capacity has also 
declined this decade. Industry and interest group research capacity 
ranges from limited to non-existent. Our concern over this shrinking 
capacity led us to commission a study by the National Research Council 
to formally document the scope of the situation and recommend areas 
where research capacity needs to be buttressed and rebuilt--at 
universities and in the Forest Service--to meet America's forest 
research needs in the 21st Century. We expect this study to be 
completed prior to Congress considering the fiscal year 2001 
President's Budget. Results from that study will provide a clearer and 
more specific answer to this question than can be given today.
    At present, when in-house scientific capacity does not exist or the 
existing work load does not permit for the research to be done, we seek 
expertise from university scientists through cooperative grants and 
agreements. Over the past 5 years, approximately 8 to 10 percent of our 
total budget has been allocated to colleges and universities for Grants 
and Agreements. Of the $37.2 million increase proposed, we estimate 
that $10.2 million (27.4 percent) will be used for cooperative research 
with universities.
    Question. Given the possibility of leveraging funds, shouldn't the 
agency attempt to maximize the amount of work it funds at these 
institutions? If not, why?
    Answer. In addressing natural resource issues, we carefully 
determine the most appropriate level of collaboration with university 
partners. Leveraging occurs in a number of ways. We share some research 
equipment with universities, which enables them and us to accomplish 
work that we would not be able to afford to do separately. We provide 
field research sites on our experimental forests for university 
researchers. For example, there are over 125 university collaborators 
working with us at Hubbard Brook Experimental Forest, New Hampshire. 
Because many of our research units are co-located on university 
campuses, we leverage each other's expertise in a number of ways, such 
as having our scientists serve as graduate student advisors and hosting 
university scientists on sabbaticals. A major strength of in-house 
Forest Service research is our ability to pursue long-term studies. 
Field experiments installed on the Bartlett Experimental Forest, New 
Hampshire, in the 1930s are still being actively followed by a third-
generation of agency researchers. University institutional capacity to 
do research over extended periods is significantly lower than Forest 
Service capacity. Graduate students only work on a single project for 3 
to 5 years. Further, new university professors who are struggling to 
gain tenure in 3 to 7 years need to show immediate results and 
immediate impact and thus have little initial interest in picking up 
long-term studies of their predecessors unless results are close at 
hand. These factors predispose universities to conduct relatively 
short-term, often low-risk, research in contrast to the longer-term, 
higher-risk research often undertaken by the Forest Service. Given 
these differences, we do try to utilize university professors and 
graduate students in situations where there are mutual benefits to both 
of us so that the federal investments are leveraged to the extent 
possible. By doing so, we strengthen and nurture strong partnerships 
with universities.
    Question. The Forest Inventory program currently operates on a 10-
12 year cycle. What would be the cost to the program of conducting the 
inventory on 5-year cycle?
    Answer. Agriculture Research, Extension and Education Reform Act of 
1998l passed last June mandated that a Strategic Plan be prepared 
describing how the Forest Service could put its national FIA/FHM 
inventory program on an annualized 5-year cycle. This Plan submitted to 
Congress on April 7, 1999 indicates that this inventory cycle 
implemented uniformly for the entire country would cost $82 million 
annually. Conference language accompanying this Bill does allow 
departure from this cycle when deemed appropriate by State Foresters, 
and based on State Forester preferences, a program costing $56 million 
is preferred. This program would provide a base Federal program with a 
7-year cycle east of the Great Plains and 10-year cycle west of the 
Great Plains (except for interior Alaska where a longer cycle is 
acceptable). Some States in the East plan to augment Federal 
appropriations by contributing their own funds and people to the 
program, which will lower the cycle to 5 years in participating States.
    Question. Are there particular factors peculiar to individual parts 
of the country that favor a longer or shorter cycle? Please identify 
these factors and discuss their application to the various regions of 
the country.
    Answer. Yes. Several factors provide opportunities to consider 
varying plot remeasurement periods and in turn cost of operations. 
Areas with low rates of growth or vegetative change and areas with 
extremely poor access offer possibilities for longer intervals between 
measurements while rapid growth rates and easy access would suggest 
shorter periods. Examples of such areas might include the juniper lands 
of the interior west and interior Alaska for longer remeasurement 
periods or lower sampling intensity and the South with its faster 
growth rates would be a candidate for shorter remeasurement periods.
    Question. Which states currently share the costs of the inventory 
program?
    Answer. States currently cost sharing for FIA/FHM inventory work in 
fiscal year 1999 are Maine, Virginia, South Carolina, Georgia, Alabama, 
Kentucky, Tennessee, Florida, Arkansas, Missouri, Minnesota, Indiana, 
and Wisconsin. Total financial support from these States in fiscal year 
1999 is about $3.8 million.
    Question. In what Regions is inventory work being on National 
Forest lands being paid for from the National Forest System 
appropriation? What is the total amount being paid in these Regions?
    Answer. Although the level of commitment and amounts of funding 
differ among Regions, all Regions made some commitment to national FIA/
FHM grid inventory in fiscal year 1999. Each Region determines the 
priority for this inventory work separately. Regions 8, 9, and 10 have 
had long-standing agreements to fund data collection on national 
forests by Station inventory crews. The annual cost of these agreements 
is $1,127,000 in fiscal year 1999. A new agreement with Regions 1, 2, 
3, and 4 is in the final stages of negotiation and has already been 
approved by three Regional Foresters. This master agreement will 
replace a number of separate agreements with individual national 
forests and Regions and strengthen the consistency of data collection 
procedures and comparability of results across Regions. The annual cost 
of this master agreement is $1,854,000. Regions 5 and 6 currently 
collect their own data, causing some difficulties with consistency and 
comparability of data. The estimated cost of having Station crews 
collect the data in Regions 5 and 6 would be $1,290,000. These figures 
just represent the cost of collecting FIA program data. It would cost 
an additional $2 million to collect forest health monitoring (FHM) 
program information on all national forests.
    Question. Why isn't there a standard national policy governing 
payment for inventory work done on national Forest System lands? Is a 
standard policy being considered by the agency?
    Answer. NFS does not consider this work to be a national priority 
and allows funding and priority to be determined at the Regional level. 
Each year the FIA/FHM grid inventory work on NFS lands must compete 
against all other NFS priorities for funding. While the work is 
considered important in those Regions who have signed annual agreements 
with Stations, at this time there is no standard agency policy for 
funding this work on NFS land. Stakeholder concerns about the lack of 
consistency and comparability of data from national forests led the 
Second Blue Ribbon Panel Report on Forest Inventory to recommend that a 
standard policy be created. Forest Service Research & Development 
endorses that recommendation because it takes considerable Station 
effort to negotiate individual agreements and to repair inconsistencies 
in the data that could be otherwise devoted to reducing the inventory 
cycle.
    Question. If all inventory work being done on National Forest 
system lands were paid for by the National Forest system appropriation, 
what would the total expense to the NFS appropriation be?
    Answer. Total cost for covering NFS lands at standard sampling 
intensity would be $6,271,000 annually. This would include both the FIA 
and FHM detection monitoring grid plot data collection.
    Question. What percentage of the Research Budget is devoted to 
activities that directly enhance the productivity of forest lands and 
utilization of wood fiber? Please identify specific work and associated 
costs. How has this percentage changed over the last 10 years?
    Answer. We have readily available detailed records for the last 5 
years under the new Research Budget Attainment Information System 
(RBAIS) that does a better job of tracking research funding. 
Information for previous years is available but was not categorized in 
a way to easily obtain the information that was requested.
    For the fiscal year 1995-2000 President's budget, 34 to 38 percent 
of the total research budget was devoted to productivity of forest 
lands and utilization of wood fiber. While this represents a fairly 
constant percent, the amount of actual funding increased by 20 percent, 
($66.5 to $80 million.)
    Refer to enclosure 4, on the following page, for a detailed list of 
the research work and funding history.

                               ENCLOSURE 4.--RESEARCH FUNDING FOR ENHANCEMENT OF PRODUCTIVITY OF FOREST LANDS AND UTILIZATION OF WOOD FIBER, FISCAL YEAR 1995-2000
                                                                                     [Dollars in thousands]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                            Fiscal year
                                                              Fiscal year           Fiscal year           Fiscal year           Fiscal year           Fiscal year               2000
                                                                  1995     Percent      1996     Percent      1997     Percent      1998     Percent      1999     Percent  President's  Percent
                                                                                                                                                                               budget
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Vegetation Mgmt. & Protection Res.:
    1.2 Silvicultural Applications..........................      $15,701        8      $13,884        8      $14,850        8      $16,238        9      $14,958        8      $17,317        7
    1.4 Forest & Rangeland Mgmt.............................        8,976        5        9,333        5       13,924        8       13,868        7       13,479        7       16,428        7
    1.6 Forest Operations Engineering.......................        4,404        2        4,009        2        3,833        2        3,457        2        3,415        2        3,762        2
    1.7 Insects/Diseases/Exotic Weeds.......................       19,403       10       18,024       10       19,253       11       19,121       10       19,584       10       24,972       11
Resource Valuation & Use Res.: 3.5 Forest Prod. Util. &            18,054        9       16,702        9       16,310        9       15,477        8       15,517        8       17,700        8
 Processing.................................................
                                                             -----------------------------------------------------------------------------------------------------------------------------------
      Subtotal Prod. & Util. Wood Fibers....................       66,538       34       61,952       34       68,170       34       68,161       36       66,953       35       79,879       35
Other Research..............................................      126,971       66      116,048       65      111,616       62      119,635       64      130,491       66      154,765       66
                                                             -----------------------------------------------------------------------------------------------------------------------------------
      Total research........................................      193,509  .......      178,000  .......      179,786  .......      187,796  .......      197,444  .......      234,644  .......
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. The fiscal year 1999 Interior Appropriations bill 
included language that required 5 full-time employees be stationed in 
Sitka to establish a wood utilization Laboratory. Is there funding in 
the fiscal year 2000 budget for this operation? If not, is the Forest 
Service still committed to having this facility fully operational with 
5 FTE's in fiscal year 2000. What is the agency's schedule for 
establishing the lab?
    Answer. There is no funding in the fiscal year 2000 budget for the 
Sitka Laboratory. Because of the delay in the fiscal year 1999 
appropriation, the fiscal year 2000 Department Allowance had already 
been established, and the Forest Service could not add the need to its 
Agency Request. Funds committed to date total $748,000 from the 
Washington Office Research & Development budget. Under the direction of 
the Pacific Northwest Research Station (PNW), a highly qualified senior 
researcher has been detailed to Sitka for one year as acting team 
leader; a technical and administrative support person is on board; an 
Economist for marketing and economics expertise will report June 1, 
1999; and a personnel recruitment outreach effort is currently in 
progress for the remaining positions, including a permanent team 
leader.
                         legislative proposals
    Question. The Forest Service budget includes $111 million in 
savings from several legislative proposals. However, only sketchy 
details of these proposals are contained in the budget justification. 
When will these proposals be sent to the Congress? Will all of them be 
sent at once? Why is it taking so long for the Administration to send 
these proposals to the Congress?
    Answer. We expect that the Administration's legislative proposals 
described in the fiscal year 2000 budget will be submitted to Congress 
in the very near future. These proposals will most likely be submitted 
in a single package. Because this package will include the budget-
related proposals from all the executive departments, additional time 
has been required to complete the materials for submission.
    Question. Are there other legislative proposals that the Forest 
Service is working on that are not included within the scope of this 
year's budget that would have the effect of increasing revenue to the 
Forest Service? If so, what are these proposals? What are the agency's 
projections with respect to the amount of revenue that could be 
generated? When will these proposals be finalized?
    Answer. The Forest Service does not have other proposals that we 
intend to submit related to the fiscal year 2000 budget. There may be 
preliminary proposals at various stages of internal review that we 
might submit in future budgets, but it would be premature to describe 
those at this point.
    Question. Another legislative proposal concerning the Forest 
Service involves stabilizing payments to counties which have National 
Forest lands. Last year, the Administration proposed to fix these 
payments by formula and decouple them from timber sales. This proposal 
went nowhere. Will the agency send up the same proposal as last year?
    Answer. We are proposing a broader special payment formula base, 76 
percent of the average three highest years between 1986 and 1995. Under 
the proposal, no state would receive a lower payment than the fiscal 
year 1998 payment, and no state would be able to receive greater than a 
25 percent increase above the fiscal year 1998 payment. Most recently 
Secretary Glickman indicated that he would recommend Administration 
support for an amendment to be offered by Congressman Peter DeFazio of 
Oregon which would provide 100 percent of the average of the three 
highest payments received between 1985 and 1999 adjusted annually for 
inflation assuming acceptable offsets can be identified.
    Question. When will this proposal be sent to Congress?
    Answer. The proposal was submitted to Congress on June 7, 1999.
    Question. How will this proposal be funded?
    Answer. Through offsetting revenues elsewhere in the General Fund 
of the Treasury.
    Question. How much did each county receive in revenue from their 25 
percent share of timber receipts for the years 1986 through 1996? 
Please provide an itemized breakdown for each county.
    Answer. Please refer to enclosure 5, on the following pages.
    [GRAPHIC] [TIFF OMITTED] T06AP15.007
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.008
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.009
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.010
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.011
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.012
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.013
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.014
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.015
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.016
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.017
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.018
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.019
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.020
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.021
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.022
    
    [GRAPHIC] [TIFF OMITTED] T06AP15.023
    
    Question. Critics argue that decoupling removes any accountability 
from the Forest Service to use active management tools like timber 
harvesting. How does the agency answer this charge?
    Answer. The Forest Service will continue to be held accountable for 
resource management decisions to the Congress, under existing statutes 
and regulations and to the public after enactment of a stabilization 
proposal just as the Forest Service would have been prior to enactment 
of a stabilization proposal. The decoupling affects not only timber 
harvest, but other commodity programs such as minerals, non-recreation 
special uses, and grazing. The Forest Service is accountable to 
Congress and the public for managing all of these activities, 
regardless of what happens to the Agency's decoupling proposal.
    Question. A number of groups have circulated a proposal which 
contains an ``either/or'' provision that would set the payments to 
counties at the larger of either the amount they would receive based on 
the actual harvest or the statutory formula level. Would the agency 
support such a proposal? If not, why not?
    Answer. The Administration does not support such a provision. The 
Administration does not believe that resource management decisions 
should be a factor in local school district decisions about whether 
schools remain open or should be closed. The unpredictable nature of 
such issues as to whether, and which, timber sales are awarded and 
harvested, does not provide a stable foundation for local budgeting 
purposes.
                             timber program
    Question. By far, the largest decrease in the Forest Service fiscal 
year 2000 budget is in the Timber Sales program. The agency proposes to 
reduce the Timber Sales program by $30 million which will reduce the 
timber harvest level by another 400 million board feet in fiscal year 
2000. Isn't this level far below the allowable sales quantity contained 
in the agency's existing forest plans?
    Answer. The fiscal year 2000 President's Budget proposes a $29.3 
million reduction from the final fiscal year 1999 appropriation. 
However, the fiscal year 1999 final appropriation includes $19.229 
million in Congressional earmarks that put the fiscal year 1999 final 
appropriation above the requested level. Much of this additional 
funding did not result in additional capability to offer timber sale 
volume in fiscal year 1999. The timber volume expected to be produced 
in fiscal year 2000 is 2.25 billion board feet with the regular timber 
sale program, a reduction of 261 million board feet from the expected 
fiscal year 1999 level. These levels are significantly under the 
approximate 7.3 billion board feet of ASQ identified in the forest 
plans. Congress has not funded full implementation of the forest plans 
for any program and the Administration has not requested this because 
many plans are outdated.
    Question. If the forest plans do not establish the appropriate 
timber harvest level, how does the agency determine what level of 
harvest it will fund?
    Answer. The forest plans establish the allowable sales quantity 
(ASQ) as the average annual chargeable volume that could be planned for 
sale during the first decade of the forest plan. These volume levels 
could be offered if no other constraints are placed on timber sales 
following plan finalization, and if adequate funding is provided. Since 
many of these plans need revision, there are several forests that now 
have additional constraints that further limit their timber sale 
capability below the established ASQ levels. In addition, Congress has 
not funded the Forest Service to accomplish full forest plan 
implementation for any program. Thus, our agency timber sale offer 
levels are calculated based upon considerations of these constraints 
and the actual funding levels provided.
    Question. If the funds were provided, how much additional volume 
could the Forest Service prepare?
    Answer. We have identified the ability to produce an additional 290 
million board feet under the regular program if the funds were 
provided.
    Question. To achieve this level, how much additional funding would 
be required?
    Answer. To achieve an additional 290 million board feet under the 
regular program would require about $19.4 million in timber sales 
management funds, plus $4.7 million for engineering support. The 
average unit costs of $65.99 per MBF for timber sale preparation plus 
$16 per MBF for engineering support are reasonable unit costs to use 
for any additional increase over the volume capability provided in the 
fiscal year 2000 President's Budget.
    Question. Aren't timber sales the most cost effective way of 
addressing the fire hazard and forest health problems caused by overly 
dense tree stands, an especially significant problem in the interior 
West? Can the agency afford to thin these millions of acres relying 
solely on other methods?
    Answer. Timber sales are oftentimes more expensive to plan and 
administer than other types of vegetative treatments--e.g., prescribed 
burning, use of chemical herbicides, and mechanical treatments such as 
cut-and-leave. However, commercial timber sales generate revenues that 
can help to offset, in whole or part, any sales preparation and 
administration costs that the government incurs. As a result, timber 
sales are oftentimes the ``least net cost'' method of achieving 
different vegetative management goals. This fact was clearly shown in 
an August, 1994 agency report entitled ``Evaluating the Use of Timber 
Harvest on 19 National Forests: An Exploratory Study of Below-Cost 
Timber Sale Issues and Changing Management Conditions''. This study 
found that if plan goals such as improving forest health, reducing 
forest fuels, and creating desired wildlife habitat conditions were 
kept constant, eliminating the agency's ability to use commercial 
timber sales as a management tool would, in most instances, increase 
rather than decrease net operating costs.
    Many of the stands in need of treatment to address fuel loading and 
forest health concerns will have to be mechanically thinned before they 
can be prescribed burned. The agency recognizes this fact and is 
responding in several ways. One response is the new ``Forest Ecosystem 
Restoration & Improvement'' line item that has been included in the 
President's proposed budget for fiscal year 2000 at a level of $15 
million. These funds would be used, in part, to thin timber stands that 
presently have little or no commercial value. Another response is the 
agency's initiative on ``Watershed Restoration and Fire Protection 
Through Small Diameter Utilization''. This is a joint National Forest 
System, State and Private Forestry and Research undertaking that is 
designed to take a comprehensive look at what can be done to improve 
the utilization of small diameter and currently under-utilized 
material. Under the structure of this initiative, and consistent with 
the authorities provided by Congress in Section 347 of the Omnibus 
Consolidated Appropriations Act for fiscal year 1999, the agency is 
also presently testing an array of new processes and procedures that 
could enhance its ability to effectively and efficiently manage small 
diameter, low value material. This testing is occurring through a 
series of 28 stewardship contracting demonstration pilots being 
implemented around the country.
                                 icbemp
    Question. Last year, many frustrations were expressed over the 
Interior Columbia Basin Ecosystem Management Project (ICBEMP) project. 
Many of the people in the affected region felt that their concerns were 
not listened to by the agencies involved in the project. The 
Administration is now conducting a supplemental EIS on the project. How 
is this process proceeding? What feedback has the agency received from 
local communities within the projects boundaries?
    Answer. The preparation of the supplemental draft EIS is going 
quite well. Project staff and Regional Executives have been meeting 
with State, Resource advisory councils, County, and Tribal officials to 
discuss the progress made in the preparation of the supplement. We do 
not expect significant feedback from local communities until we release 
the supplement for public review and comment in September.
    Question. What is the agency's schedule for completing the 
supplemental EIS and issuing a Final Record of Decision on this 
project?
    Answer. A supplemental draft EIS is scheduled for release in 
January 2000 and the Record of Decision issued in fall of 2000.
    Question. What was the total cost of this project? How much will be 
spent in fiscal year 2000?
    Answer. Actual agency costs through fiscal year 1998 and projected 
costs for fiscal year 1999 total $46.4 million of which Forest Service 
cost totals $35.4 million. The fiscal year 2000 President's Budget 
includes $5.2 million to develop the Supplemental and Final EIS and 
Record of Decision. The Forest Service portion of the fiscal year 2000 
cost would be $3.5 million.
    Question. How much will it cost to fully implement the Final Record 
of Decision?
    Answer. We will not know the estimated cost for implementing the 
final decision until we know what that decision is. At the time the 
Supplemental Draft EIS is issued we will have the estimated costs for 
each alternative.
                        land management planning
    Question. The Committee of Scientists recently issued its 
recommendations for improvements to the National Forest System Land and 
Resource Management Planning Process. How will these recommendations 
affect the completion and substance of the new forest planning 
regulations?
    Answer. The Forests Service is considering the full text of the 
Committee's Report in the development of the proposed planning 
regulation.
    Question. When will the agency finalize its new forest planning 
regulations? What, if any, impact will the new regulations have on the 
Forest Service budget?
    Answer. Our goal is to have a final regulation by early CY 2000, 
depending on when the proposed rule is out for public comment. We do 
not expect the final regulation to impact the Forest Service budget.
    Question. Will the new regulations make the forest planning process 
more or less expensive?
    Answer. The new regulation would create efficiencies and lead to 
better decisions. Our expectation is that future planning would be less 
expensive. We are continuing to evaluate this, however.
    Question. Does the Forest Service intend to more closely link its 
future forest plans to its budget and to performance measures?
    Answer. The agency is working to ensure that future forest plans 
will be developed using consistent assumptions and procedures for 
incorporating budget information into the development and evaluation of 
alternatives. This will make forest plan information more useful in the 
development of national budgets.
    With regard to performance measures, annual planned levels of 
performance are based on field knowledge of resource needs and 
capabilities. This information comes from regional and local 
assessments and forest or other local plans and will form the basis for 
the annual set of outcomes, products and services addressed in the 
agency's GPRA Strategic Plan goals and objectives.
                            law enforcement
    Question. What portion of the law enforcement budget is devoted to 
cooperative agreements with local governments for the provision of law 
enforcement services?
    Answer. There are two types of cooperative law enforcement 
agreements that the Forest Service utilizes with local governments. The 
first type is the Cooperative Law Enforcement Patrol Agreements. The 
amount anticipated to be expended on these agreements in fiscal year 
1999 is $5,339,000. The second type is Cooperative Law Enforcement Drug 
Enforcement Agreements and the Forest Service expects the cost for 
these agreements to be $832,000 in fiscal year 1999. The expenditures 
for the regular patrol and drug enforcement agreements equates to 
approximately 9.5 percent of the NFLE budget line item.
    Question. Could the Forest Service rely more on local governments 
to furnish law enforcement services and reduce its costs?
    Answer. The Forest Service is currently preparing a response to 
language contained in Senate Report 105-227 dated June 26, 1998. When 
that response is submitted, it should answer this question.
    Question. What, if any, complications or concerns are there with 
relying on local entities to provide such services? To what extent may 
state and local law enforcement personnel enforce federal law?
    Answer. The Forest Service is currently preparing a response to 
language contained in Senate Report 105-227 dated June 26, 1998. When 
that response is submitted, it should answer this question.
    Section 2915(f) of legislation which established the Midewin 
National Tallgrass Prairie (Title XXIX of Public law 104-106) provides 
that receipts collected may be used for administrative activities. 
These activities include law enforcement. The Subcommittee expects the 
Midewin unit to eventually become self-sufficient with receipts earned. 
Part of this self sufficiency is to provide public safety services 
through internal Forest Service law enforcement staffing.
    Question. Are any internal law enforcement activities funded 
through Midewin receipts? If so, at what level? If not, why not?
    Answer. No internal law enforcement activities are currently funded 
through rental or user receipts. Rental receipts are primarily used for 
prairie improvements and are declining. Sufficient user receipts have 
not been collected to date. However, in future years as user receipts 
increase, law enforcement activities can be funded.
    Question. The Subcommittee understands that law enforcement costs 
have increased substantially as a result of additional entitlements 
including special law enforcement pay and retirement costs. In order to 
maintain a base level of services without reducing cooperative law 
enforcement programs, what level of additional funding is required to 
offset these increased costs?
    Answer. The additional entitlements that the Subcommittee makes 
reference to are Law Enforcement Availability Pay for the criminal 
investigators and Administratively Uncontrollable Overtime for the law 
enforcement officers. To maintain a base level of services without 
reducing cooperative law enforcement programs, additional funding in 
the amount of $5,390,000 would be required. This level is based on 
fiscal year 1999 costs and does not include expected cost of living 
increases for fiscal year 2000.
    Question. Certain law enforcement activities, including unplanned 
events and emergencies, apparently can not be planned for or 
anticipated, yet cause budgetary impacts to the program. What are these 
unplanned or emergency events? What has been the budgetary impact of 
these events in the past three years? What would be the 
Administration's position on language which authorizes use of any funds 
available to the Forest Service for law enforcement activities in the 
event of unplanned events or emergencies?
    Answer. Unplanned events and emergencies include the search for 
Eric Rudolph, the recent search and rescue efforts associated with the 
death of one of our own officers, assistance provided during the FBI 
search for the three women abducted near Yosemite National Park, 
natural disaster occurrences where Forest Service law enforcement 
personnel have assisted the United States Marshal Service, timber sale 
protests, the bison issue in Western Montana, the Sturgis motorcycle 
rally, large group gatherings, arson task forces, 2002 Olympic 
preparation, and directed projects such as protection of public lands 
from the impacts of immigration along the Southwest Border.
    The documented costs for these events and emergencies for fiscal 
year 1997, fiscal year 1998, and through March of fiscal year 1999 have 
total $4,756,000. It is estimated that another $1,000,000 has been 
spent, but not specifically designated in the accounting system.
                                general
    The Subcommittee has been informed that the Malheur National Forest 
had a positive net growth rate of approximately 300 million board feet 
per year in 1993 and that now in 1998 the forest reports they are 
experiencing negative net growth as a result of fires, insect and 
disease events which have occurred during the Administration's tenure 
as the stewards of the Malheur National Forest. And that a large 
salvage sale designed to salvage timber from a large burn on that 
forest was canceled because part of that salvage sale is in RARE 11 
Roadless area which has twice been released for management in the 
Malheur National Forest land management plans.
    Question. Is this correct? If so, doesn't this suggest modification 
of the agency's current roadless policy is necessary?
    Answer. The Malheur National Forest is unaware of any report or 
inventory done in 1993 that states a positive net growth of 
approximately 300 million board feet for that year, nor has the Forest 
published a report on net growth for 1998.
    The information for growth rate for the current Malheur National 
Forest Land and Resource Management Plan is based on a 1980 inventory. 
This inventory showed an annual growth rate of 130,124 MBF for trees 
over 9'' dbh to a 6.0'' top diameter and an estimated 5 year mortality 
of 215,055 MBF. A current vegetation survey completed in 1994 showed an 
annual growth rate of 163,330 MBF and an estimated 5 year mortality of 
717,275 MBF for trees over 9'' dbh to a 6.0'' top diameter. Further 
inventory data was collected in 1998, however this information has not 
yet been analyzed.
    The area burned by the Summit Fire in 1996 includes two former RARE 
II areas that are allocated by the 1990 Malheur National Forest Land 
and Resource Management Plan to uses that allow non-scheduled timber 
harvest under certain conditions (Wildlife Emphasis and Scenic Area). 
While these lands are not normally available for timber management, the 
Record of Decision for the Final Supplemental to the Environmental 
Impact Statement for the Summit Fire Recovery Project calls for harvest 
of 50 MMBF from the total fire area. This harvest includes 23 MMBF from 
former RARE II areas (6 MMBF from Jumpoff Joe and 17 MMBF from 
Greenhorn Mountain) and has not been cancelled.
    Question. The Forest Service fiscal year 2000 budget justification 
references a possible proposal to put the timber trust funds on budget. 
What percent of your agency's spending authority is provided by the 
following trust funds: Brush Disposal, the timber salvage sale trust 
fund, and the Knutson-Vandenberg Fund?
    Answer. The fiscal year 2000 budget justification does indicate 
that we would work with Congress in fiscal year 1999 to determine 
whether or not making these three trust funds a part of the annual 
appropriation process would improve disclosure, accountability, and 
incentives for natural resource management. The Brush Disposal fund is 
0.6 percent, Salvage Sale Fund is 3.7 percent, and Knutson-Vandenberg 
is 4.1 percent of the total Forest Service budget. Although these 
percentages seem quite small when compared to the total dollar figure 
for the agency, when the salvage sale fund is compared to the operating 
budget for timber sales it represents 40 percent and when it is 
compared to total National Forest System budget it is 10 percent. 
Similarly, for the K-V fund it represents 61 percent of the 
reforestation and timber stand improvement operating budget and 10 
percent of the National Forest System budget.
    Question. What are the advantages of putting these funds on budget? 
Given the current fiscal constraints, wouldn't putting these funds on 
budget raise the likelihood that less money would be provided for the 
work currently funded out of these trust funds?
    Answer. Placing these funds under the normal appropriations process 
accomplishes improving disclosure for the use of the funds and greater 
accountability as well as eliminating any perception that they are an 
incentive for a higher harvest level.
    If these three trust funds were placed ``on budget'' and we did not 
receive in-kind replacement funds through the appropriations process, 
there would be less work accomplished. Some items that may not be 
accomplished include reforestation and the treatment of insect and 
disease problems.
    Question. If less money were provided to perform work currently 
funded by the trust funds, what would the impact be to the timber 
program, reforestation, and other environmental restoration activities?
    Answer. For the salvage sale fund, unless sufficient funds are 
appropriated to replace our current salvage fund account, the sale of 
salvage material in emergency situations in some cases could be 
affected because funding might not be available to expedite timber sale 
preparation and harvest administration. In addition, we manage this 
fund with some flexibility to reallocate funding to a particular 
geographic area in response to an unplanned, catastrophic event without 
impacting other Regions. However, once appropriated funds are allocated 
to the Regions and ultimately to the forests, it becomes much more 
difficult to reallocate funds to meet emergency situations without 
severe impacts to those units relinquishing the funding.
    The regular timber sale program may also be reduced if the K-V fund 
is not replaced by appropriations for needed reforestation following 
regeneration harvests. NFMA requires the Agency to make a determination 
prior to a regeneration harvest that the lands can be adequately 
restocked within 5 years of final harvest. Thus, if an area will not 
regenerate naturally following harvest, it must be seeded or planted, 
and K-V funds are customarily collected to accomplish this work. 
Without appropriations to replace the K-V collections already made, and 
needed in the future, all necessary regeneration work could not get 
done. Once this occurs, the agency would begin modifying its 
silvicultural prescriptions in favor of lower volume intermediate 
thinnings rather than higher volume regenerations harvests that would 
be unsound if regeneration could not be assured. Currently about one-
half of all K-V funding goes for reforestation projects.
    Not replacing the K-V funds with appropriations would also impact 
our ability to carry out other renewable resource management activities 
such as timber stand improvement (TSI), wildlife habitat improvement, 
soil and watershed improvement, and recreation and range improvements. 
Currently about 25 percent of all K-V funding is used for timber stand 
improvement activities and another 25 percent is used for wildlife, 
fish, soil, watershed, recreation and range improvements.
    Not replacing funds for brush disposal work following timber 
harvest would place this requirement on timber sale purchasers to treat 
the activity fuels associated with their timber sales. For purchasers 
to do this themselves would result in less revenue being received for 
the timber sold because the purchasers would have to reflect this 
additional requirement in their bids.
    Question. The Chief recently told the audience at the North 
American Wildlife and Natural Resource Conference in San Francisco that 
he planned to re-initiate the national-wilderness field advisory group. 
Where in the Forest Service budget is this group authorized and what 
funds will be used to pay for the operating expenses of this group?
    Answer. The wilderness field advisory group will consist of Forest 
Service employees involved in wilderness management. The purpose of 
this group will be to advise upper level management regarding 
wilderness issues. The funding for this is included in the agency's 
wilderness management program budget as this function is directly 
related to enhancement of the Forest Service wilderness management 
program.
    Question. Recently, the Forest Service announced that it had 
unilaterally extended the deadline for completion of the EIS on the 
Sierra Nevada Ecosystem Plan (SNEP). Last year's Interior 
Appropriations bill required that this be completed by July 31, 1999. 
Why is this deadline being extended? Why weren't the relevant 
Congressional committees consulted?
    Answer. Our intent has been the same as the Committee's since the 
initial agreement: to complete the Sierra Nevada Framework 
Environmental Impact Statement (EIS) as quickly as possible. It became 
increasingly evident that due to the complexity of the analysis, 
evaluation of public comments and consultation with the Fish and 
Wildlife Service that we would be unable to make the July 31 date. It 
was our intent to consult with members of Congress prior to the public 
notification of a new target date to complete the EIS. To that end we 
consulted with the local representative for Congressman Doolittle, who 
has served as the key contact for California, about the need for the 
additional time to complete the EIS in a thorough and professional 
manner. We believed this would provide the needed notification. We 
regret the misunderstanding and have taken steps to insure this will 
not happen in the future. This includes sharing weekly briefing papers 
and increasing the number of briefings with Congress.
    Question. What, if any, impacts will the decision to extend the 
time frame for preparation of the SNEP have on the Quincy Library pilot 
program? Will the Quincy Library pilot program be affected in any other 
ways by the SNEP?
    Answer. The timeframe extension for completion of the EIS portion 
of the Sierra Nevada Framework Project did not delay preparation of the 
DEIS for the Herger-Feinstein Quincy Library Group (HFQLG) pilot 
program. The Record of Decision and the FEIS were signed on August 20. 
Project specific planning and implementation are ongoing since release 
of the Record of Decision. Concerning the SNEP Framework D EIS effort 
and the HFQLG project, the current intent is to treat the HFQLG area 
separately for the duration of the HFQLG pilot project. However, it is 
possible that some of the issues addressed in the Sierra Nevada 
Framework DEIS, including wildlife habitat management and riparian 
guidelines, may require some changes to the HFQLG pilot project.
    The committee has received information that facilities on the North 
Kaibab Ranger District in Fredonia, Arizona are inadequate.
    Question. Does the agency currently have plans to replace those 
facilities?
    Answer. The Kaibab National Forest Facilities Master Plan, approved 
in 1993, identifies the need for new office, shop, and storage 
facilities to replace the obsolete existing facilities. They range in 
age from 20 to 35 years old. Replacement of these facilities will 
likely be the next major project submitted by the forest for capital 
investment funding but that opportunity is several years off.
    Question. How many full time employees are located at the station? 
How many temporary employees are located there during the summer?
    Answer. At present there are 37 full time employees and 6 temporary 
employees at the station. There are 40-50 temporary employees located 
at other field stations on the District.
    Question. What is the total space requirement? What is the total 
vehicle parking and warehouse storage space requirements? What is the 
total area space requirements for grounds, parking, storage, and 
facilities?
    Answer. Our space needs are as follows:
        Office--10,700 square feet
        Shop and Storage--10,200 square feet
        Vehicle Parking--45 visitor and employee spaces, 50 government 
        vehicles including heavy equipment
        Area Space Required 10--acres
    Question. What is the estimated cost if new facilities were 
constructed by the agency?
    Answer. $2,750,000 assuming utilities are available at the lot 
line, $3,000,000 if they are within \1/4\ mile. Both estimates include 
design and contract administration costs but not overhead.
    Question. If the city of Fredonia were to construct adequate 
facilities, would the Ranger District be prepared to lease those 
offices and support facilities?
    Answer. No. Due to budget constraints it is not feasible for the 
Ranger District to vacate government-owned facilities and move into 
leased facilities. At current fair market leasing rates we estimate the 
annual lease payments would be approximately \1/3\ of the Ranger 
District's annual budget for all of the facilities described earlier.
    Question. How could the agency participate with Fredonia in 
determining design criteria?
    Answer. We would commit the services of Forest Service architects 
and engineers to work with the city to determine the design criteria.
    Question. Could the agency contract directly with the city or would 
the agency have to advertise for competitive bids?
    Answer. The agency would have to advertise for competitive bids. 
Federal regulations prohibit the agency from entering into a sole 
source, non-competitive procurement with the city unless it can be 
justified this is in the best interest of the government.
    Question. Salmon recovery is a major issue in the Pacific 
Northwest. What cooperative efforts and through what specific programs 
is the agency assisting other federal, state, and local agencies in 
this recovery program?
    Answer. The USDA Forest Service has been and is involved in a 
number of on-going cooperative and collaborative efforts in the Pacific 
Northwest for the restoration of Pacific salmon habitat and 
populations. We are partnership the states, tribes, and other Federal 
agencies involved with the Northwest Power Planning Council to develop 
the multi-species framework plan for the Columbia River Basin. We are 
part of the Federal Caucus where all Federal agencies are pooling their 
resources to address anadromous fish issues. We are participating in 
the development of the 4H's paper to address Hydropower, Hatcheries, 
Habitat, and Harvest lead by the National Marine Fisheries Service. We 
are part of the Interagency Implementation Team (IIT) made up of 
representatives of the USFWS, FS, BLM and NMFS to implement the 
Biological Opinions on the Northwest Plan. At a local level individual 
Forests are providing expertise to local watershed restoration groups.
    Question. How much funding has been spent relative to salmon 
recovery in the last three years? What are the projected expenditures 
for this program over the next three years?
    Answer. In Oregon, California and Washington, $30.1 million has 
been allocated to anadromous fisheries over the past three years. In 
Alaska $15.1 million has been expended over the same time period. It is 
anticipate that $33 million will be expended over the next three year 
in Oregon, California and Washington and $17 million in Alaska. 
Additional funds such as watershed and soils also benefit anadromous 
fish.
                                 ______
                                 
               Question Submitted by Senator Ted Stevens
    In fiscal year 1999, Congress appropriated $170 million for the 
State and Private Forestry Program.
    But after reviewing both your actual expenditures in fiscal year 
1998 and your projected costs in fiscal year 1999, it appears that a 
lot of the money is being eaten up in federal salaries to administer 
the grants and federal overhead expenses.
    According to the USDA National Finance Center accounting records 
for 1998:
  --You had 642 employees running the program.
  --Their salary and benefit costs exceeded $35 million.
  --Agency staff spent another $5 million flying around to different 
        states to look at state and private projects.
  --Another $7 million was spent for federal rent and other indirect 
        costs.
  --A total of $42 million was spent in overhead at the federal level--
        or about a quarter of the available funds. And once grants were 
        made to states and others, they also have overhead expenses.
    Only $104 million of the $170 million budget was provided to states 
and private foresters through grants and the Stewardship Incentives 
Program.
    Question. Wouldn't it make more sense to block grant this program 
to the states and let them decide how to use the money? It would save 
well over $40 million in federal overhead expenses. It would get the 
resources to the states faster because they wouldn't have to waste time 
filling out paperwork to apply for funds. It would let them, as opposed 
to Washington bureaucrats, set their own priorities. And, most 
importantly, it would maximize the resources that are allocated on the 
ground to improve forestry practices.
    Answer. At the present time, State and Private Forestry authorities 
do not enable issuance of block grants to States. Block grants would 
provide the States with unlimited discretion as to how they expend and 
account for funds, regardless of the purpose for which the funds are 
appropriated by Congress and granted to the States. While recognizing 
the need to address different priorities in different regions and 
States, one dimension of the Federal role is to assure that program 
priorities of national importance, which address a range of needs and 
customers and are advanced in a coordinated effort.
    Administration budget proposals and Congressional appropriations 
underscore this role, and the determining the appropriate mix of 
different programs and expanded budget line items. The shift toward 
performance based budgeting reinforces the need to associate budget 
allocations with planned program outcomes. Financial management 
responsibility requires agency accountability for appropriate 
expenditure of federal funds.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                 surplus land disposal/inholder relief
    A very large portion of the President's proposed budget includes 
funding for a ``Lands Legacy Initiative,'' which predominantly 
considers land acquisition throughout the Natural Resources agencies. I 
worked diligently with the Administration last year for legislation on 
federal acquisition and management of a unique piece of property in New 
Mexico, and I appreciate the value of public ownership of special 
property. Over 30 percent of New Mexico is in federal ownership. 
However, I have always advocated federal maintenance of the property 
the government already owns, and providing relief to those who have 
waited years for federal purchase of their property.
    Question. What percentage of the funding for land acquisition in 
your proposed budget would go towards the purchase of existing 
inholding from willing sellers?
    Answer. The Forest Service will use approximately 90 percent of the 
funds for the purchase of inholdings within the National Forest System 
boundaries. The approximate 10 percent for lands that would not go 
towards inholdings would go towards lands outside of but adjacent to an 
existing National Forest boundary as directed under Section 7 of the 
Land and Water Conservation Fund Act of 1965. All purchases will be 
negotiated and consummated only with willing sellers.
    Question. Do you have an inventory of inholdings available and 
awaiting purchase by the Department?
    Answer. There is no inventory of all inholdings. There is 
information available on projects proposed in the President's budget 
for the Land and Water Conservation Fund. For example, in fiscal year 
2000 for Pacific Northwest Streams the President proposed $6.0 million. 
Information was provided to both the Senate and House Appropriation 
Committees on acres acquired to date, what acres are proposed for 
acquisition if fiscal year 2000 funding is available, and what are 
future needs. This type of information was provided on all projects 
proposed in the President's budget.
    I also worked very hard with the Administration last year on 
legislation which would facilitate disposal of surplus federal property 
and provide relief for inholders. My legislation would allow the 
proceeds from sales of disposal property by DOI and the Forest Service 
to be used for purchase of inholder properties from willing sellers who 
have been waiting to sell to the federal government. You would be able 
to purchase these properties without coming to Congress each time.
    Question. Do you support this proposed legislation?
    Answer. S. 1184, ``National Forest System Community Purposes Act.''
    The Forest Service strongly opposes S. 1184 for the following 
reasons: (1) adequate statutory authority exists to make lands 
available for recreation and other public purposes; (2) taxpayers will 
not receive fair market value for their assets; and (3) the purposes 
for land conveyance are too broad in scope.
    There are several existing authorities by which National Forest 
lands can be made available for community purposes. Under the Townsite 
Act, the Secretary of Agriculture may convey, for fair market value, up 
to 640 acres of land to established communities located adjacent to 
National Forests in Alaska and in the eleven contiguous western states. 
Within certain limits, the Sisk Act of 1967 authorizes the Secretary of 
Agriculture to exchange lands with states, counties, or municipal 
governments or public school districts for lands or lands and money. 
Moreover, the Secretary of Agriculture can exchange National Forest 
lands with state and local governments under authority of the General 
Exchange Act of 1922. The Secretary of Agriculture also has existing 
authority to accommodate public uses on National Forests through 
permits and leases.
    These authorities have some common themes in the management and 
disposition of Federal lands:
  --Balancing of Interests.--The conveyances of federal land are based 
        on considerations made by our managers to assure that the 
        benefits of conveyances outweigh the public objectives and 
        values of keeping lands in Federal ownership.
  --Assuring compatible uses.--Terms and conditions may be imposed by 
        the federal land manager to assure that lands will be used for 
        their intended purposes and will not result in undue 
        environmental damage.
  --Consideration.--Lands are conveyed for fair market value, assuring 
        the public full reimbursement for its assets.
    S. 1184 changes these existing authorities by allowing the disposal 
of National Forest lands for less than fair market value. Congress 
established the public policy generally mandating the receipt of fair 
market value for the conveyance or use of the Federal lands, most 
clearly stated in the Independent Offices Appropriations Act and the 
Federal Land Policy and Management Act. It is sound fiscal management 
to get value received in return for value granted. Further, the general 
public should benefit from the use and disposition of the public's 
land. The Administration objects to legislation that would reverse that 
policy by opening the door to less than fair market value consideration 
for the disposition of National Forest lands.
    In addition, we are concerned about the breadth of purposes for 
which S. 1184 authorizes conveyance of National Forest lands. The scope 
of application will allow wholesale disposal of highly valuable 
National Forest lands for nominal fees.
                       rural community assistance
    A very large portion of the President's proposed budget includes 
funding for a 11 Lands Legacy Initiative,'' which predominantly 
considers land acquisition throughout the Natural Resource agencies. 
Out of President's $1 Billion Lands Legacy Initiative for fiscal year 
2000, $268 million represents USDA's portion.
    Over 30 percent of New Mexico is in federal ownership. We have many 
small communities completely surrounded by forest lands, who are 
dependant on their resources for survival. In recent years, communities 
such as Taos have been assisted by small grants from the Forest 
Service's rural community assistance programs. Unfortunately, 
communities like this are now being told there is no longer funding for 
these kind of programs. I do find it interesting that the Forest 
Service's proposed budget focuses its State and Private Forestry 
Program towards presidential priorities such as land acquisition, while 
programs state foresters and local communities benefit from on the 
ground are shrinking.
    Question. Please provide for me a breakdown of what portion of the 
fiscal year 2000 budget will be going to support community programs, 
compared to what is requested for land acquisition.
    Answer. The fiscal year 2000 Forest Service budget includes $40.04 
million for Urban and Community Forestry programs, $16.305 million for 
Economic Action Programs, and $7.0 million for Pacific Northwest Rural 
Community Assistance programs, for a total of $63.345 million that 
supports community capacity building, growth, and development.
    The fiscal year 2000 budget also includes $50.012 million for the 
Forest Legacy program, to protect private forest land from conversion 
to non-forest uses. The land remains privately owned when conservation 
easements--the program's primary tool--are used. The Forest Service 
delegates the administration of federally owned easements to the 
States, and when the easement is acquired in the name of the State, it 
becomes their responsibility.
    The fiscal year 2000 budget also includes $118 million in the Land 
Acquisition budget.
    Question. Of the amount requested for land acquisition in the 
Forest Service Budget, what portion is expected to go to purchase 
existing inholdings?
    Answer. Approximately 90 percent of the funds requested for land 
acquisition will go toward the purchase of existing inholdings within 
National Forest System boundaries. All of the dollar amount requested 
is within the authorizations of the Forest Service as all lands to be 
purchased are either in or adjacent to Forest Service management 
boundaries.
              four corners sustainable forestry initiative
    I supported a grassroots effort last year to establish sustainable 
community-based forest enterprises. The Four Corners Sustainable 
Forestry Initiative, consisting of State foresters, community and 
tribal leaders, and non-profit organizations, received $500,000 in 
fiscal year 1999 to begin a five year effort to encourage forest 
restoration and risk reduction in cooperation with the Forest Service. 
This is exactly the type of community program that benefits forest 
dependant rural communities that I mentioned earlier.
    Question. Please provide me an update on this initiative?
    Answer. The Four Corners Sustainable Forestry Initiative has 
established a steering committee with representatives from each of the 
four states as well as tribal representatives. The committee also 
includes representatives of federal, state and local governments, non-
profit associations, and private businesses. The steering committee has 
initiated three primary activities to achieve its goal of encouraging 
forest restoration, maintenance, and risk reduction through 
sustainable, community-based forest enterprises, as follows:
    Assessment.--A contractor team has been selected to undertake an 
assessment of the current status of Four Corners region forest 
resources, wood products industry, current and potential markets for 
small diameter timber, and socioeconomic conditions and demographics 
relating to the development of a forest restoration infrastructure. The 
assessment will gather and synthesize currently available information 
on the above topics in a manner which will help Initiative partners 
communicate forest restoration needs to the public. This information 
will also be used in the development of a long term strategy to achieve 
forest restoration and economic development goals. A report is to be 
completed by August 1999, for presentation at the Taos Roundtable.
    Demonstration projects.--A request for proposals has been released 
for projects that demonstrate innovative techniques and approaches to 
community-based forest restoration. Demonstration projects can be 
undertaken by individuals, government entities, non-profit 
organizations, and businesses. Projects will be selected based on their 
ability to meet the goals of the Initiative in a measurable way. More 
than 20 proposals are expected to be received, with requests for 
funding greatly surpassing the $275,000 in funding available for this 
year's funding cycle.
    Sustainable Forestry Roundtable.--The steering committee has begun 
planning a Roundtable conference for August 25-27 in Taos, New Mexico. 
The goal of the conference is to bring together a wide variety of 
stakeholders to review the results of the assessment, develop a long-
term strategy for forest restoration and rural economic development in 
the region, create partnerships for the development of new forest 
restoration enterprises, and educate people about the latest in 
sustainable forestry technologies.
    The Initiative is also building a broader network of resource 
providers to assist in the development of a forest restoration 
infrastructure in the Four Corners region.
    Question. Since these kind of projects have such potential benefit 
for so many communities at so little cost, why has funding requests in 
Forest Service Economic Action programs dropped?
    Answer. The Economic Action Program funding level in fiscal year 
2000 is proposed at $16.305 million. This is $1 million less than the 
fiscal year 1999 enacted level of $17.305 million. However, the fiscal 
year 1999 enacted level included $6.745 million of Congressional 
earmarks which were outside the Economic Action Program components. 
Thus, the effective level of funding for Economic Action Program 
delivery in fiscal year 1999 was $10.56 million. The proposed fiscal 
year 2000 budget proposal for Economic Action Programs represents a 54 
percent increase over that amount.
                carson national forest drainage problem
    The Town of Taos contacted me last year regarding flooding problems 
resulting from storm drainage in the Paseo Del Canon drainage channel. 
The majority of the drainage area which contributes to the flow in this 
channel comes from land owned by the Forest Service in the Carson 
National Forest. Taos applied to the Forest Service for a grant under 
the Rural Community Assistance Program. The Forest Service responded 
that while the Town's proposed solution to the problem was an excellent 
proposal, the Forest Service did not have adequate funding to address 
the problem. $1 million was provided in fiscal year 1999 to allowing 
for lining of this channel, covering the costs of the Forest Service's 
share of liability.
    Question. Please provide a status report on this project.
    Answer. The Town of Taos is in the process of developing NEPA 
requirements, Army Corp of Engineers permits, if needed, and other 
necessary preparatory work. As soon as this work is completed, the 
grant for the one million dollars will be issued.
                    southwest conservation strategy
    In December 1997, Secretary of Interior Bruce Babbitt, Secretary of 
Agriculture Dan Glickman, and Environmental Security Undersecretary of 
Defense Sherri Goodman unveiled a ``strategy'' for natural resource 
management and endangered species issues in Arizona and New Mexico.
    The Regional Director of the U.S. Fish and Wildlife Service in 
Albuquerque, New Mexico is apparently ``co-chairing'' this multi-agency 
effort with the Regional Forester of the Forest Service, Eleanor 
Townes.
    In the President's proposed fiscal year 2000 budget, once again, 
multiple agencies are funding this Southwest strategy. I have had many 
constituent inquiries as to the status and accomplishments of this 
strategy. I asked you to provide details of funding for this strategy 
in the February 25, Energy and Natural Resources Committee Hearing. 
(Note: We do have these answers, since NFS provided the answers to 
questions 213 through 216 as part of Senate Energy hearing questions.)
    Question. Specifically how much of the Forest Service's Budget 
request is planned to go towards this strategy in fiscal year 2000?
    Answer. No special funds are designated for the Southwest Strategy. 
Costs associated with this effort are coming from existing allocations.
    Question. Have any recovery issues have been identified for 
immediate attention?
    Answer. The focus for immediate actions regarding implementation of 
the Endangered Species Act (ESA) has been to improve interagency 
coordination. One of the best products of the Southwest Strategy to 
date is Section 7 (ESA) consultation streamlining. As a result of 
improved communication and increased coordination through the Southwest 
Strategy, the U.S. Fish and Wildlife Service and the Forest Service 
completed the biological assessment needed for programmatic 
consultations regarding on-going management of hundreds of grazing 
allotments in record time. As a result, permittees were provided with 
information more quickly regarding the need for changes, if any, in on-
going livestock grazing management on the allotments.
    Due in large part to the Southwest Strategy, the States of New 
Mexico and Texas, the U.S. Fish and Wildlife Service, and the Bureau of 
Land Management developed an agreement to conserve the Pecos pupfish. 
The fish was proposed for federal listing under the Endangered Species 
Act. New Mexico Lieutenant Governor Bradley recently credited his 
interaction with the Southwest Strategy as a rationale for signing the 
agreement.
    Another example of a collaborative response to species recovery is 
the involvement of participating agencies in a programmatic approach to 
ESA Section 7 consultation for fire-related management activities. 
These activities are helping to restore ecosystems in Arizona and New 
Mexico, and contributing to the recovery of the Mexican spotted owl and 
certain other species listed under the ESA.
    The Southwest Strategy is working with the U.S. Fish and Wildlife 
Service, Luke Air Force Base and other Department of Defense training 
activities on the Barry M. Goldwater Range and Cabeza Prieta National 
Wildlife Refuge to accomplish recovery activities for endangered 
species. The Barry M. Goldwater Executive Committee and the Southwest 
Strategy Regional Executive Committee are working in cooperation on 
this and other issues.
    Question. Has the strategy ``team'' made any decisions regarding 
actions to be taken, and, if so, have they collaborated with state and 
local agencies?
    Answer. The Regional Executive Committee of the Southwest Strategy 
has agreed to support existing collaborative efforts in Arizona and New 
Mexico and to facilitate the development of new efforts. Increased 
collaboration with tribes, states, and local agencies has occurred and 
is continuing. The groups have been asked how they want to increase 
collaboration with federal agencies and what issues they would like to 
discuss. For example, New Mexico Lieutenant Governor Bradley and the 
Regional Executive Committee agreed to meet on a regular basis. The 
Committee's desire is to identify and regularly meet with cabinet level 
state officials who have a shared interest in natural resource issues. 
Through these types of efforts, the Southwest Strategy seeks to do a 
better job of ensuring that state, tribal, and local interests are 
incorporated in planning for work that the involved federal agencies 
already are mandated to conduct and for which they have appropriations, 
and that opportunities to share information, expertise, and assistance 
can be expanded.
    Question. Have stake holders been alerted or involved in 
development of this strategy?
    Answer. Yes. Numerous formal and informal contacts and 
presentations have been made with local level existing collaborative 
efforts, as well as state and local government agencies and tribal 
governments. Some of the organizations include the Eastern Arizona 
Association of Counties, New Mexico Association of Counties, Arizona 
Board of County Supervisors, and the Arizona Round Table. Meetings with 
tribal executives have occurred in each state. Southwest Strategy 
Regional Executives attended a Catron County Citizens Council field 
tour. The Southwest Strategy also sponsored training in the 
collaborative process in Safford, Arizona. Additional training sessions 
are planned for Cloudcroft, and Espanola, New Mexico. The South Central 
Mountain Resource Conservation and Development Council, covering 
Lincoln and Otero Counties, is co-hosting the Cloudcroft workshop with 
the Lincoln National Forest.
                 u.s. forest service--litigation costs
    There has been a question on my mind for quite some time as I look 
at the work of the public lands agencies of the Department of Interior 
and the U.S. Forest Service that have a significant presence in the 
West. That question is:
    Question. How much money has been spent in New Mexico and Arizona--
Region 3--and since Senator Bennett is also present, I would add in 
Utah--on environmental lawsuits?
    Answer. Responding to lawsuits requires the effort of many 
employees in addition to those who specialize in litigation. For 
example, line officers, project managers, resource specialists, 
scientists, and clerical support are often involved at various times 
depending on the demands of a particular case. The Forest Service does 
not keep records of costs for each lawsuit so we are answering this 
question by estimating the salary for staff time required to respond to 
cases. Estimates were made for all cases involving challenges under 
environmental laws (e.g., NFMA, NEPA, ESA). Using fiscal year 1998 as 
the base, Forest Service costs in New Mexico and Arizona (Region 3) are 
estimated at $1,900,000. fiscal year 1998 costs in the State of Utah 
are estimated at $230,000.
    Question. In these lawsuits, how much has been awarded to the 
plaintiffs?
    Answer. Fees were only paid on one lawsuit during fiscal year 1998. 
This was a case in Region 3 where $16,905 was paid under the Equal 
Access to Justice Act.
    I raise this issue because it's beginning to seem as if the federal 
government is paying more on legal fees, court costs, and settlements 
of lawsuits than on managing the actual natural resources over which 
they have custodianship for the American people. The American people 
are also the taxpayers paying these legal bills.
    A second issue I'll mention comes to mind because of the possible 
listing of the silvery minnow as an endangered species. In this case, 
the litigation has been brought by environmental groups against the 
federal government, but the people who are likely to be most adversely 
affected in this litigation, which could include the City of 
Albuquerque, for example, are never given any consideration in the 
lawsuit. I don't think that makes much sense, and this issue should be 
given some attention by Congress.
    I note, Mr. Chairman, that Interior Secretary Babbitt will be 
before the Subcommittee next week. I think these are appropriate 
questions to be asked of the Department of Interior agencies as well.
               u.s. forest service--southwestern drought
    The Forest Service is behind in its forest management activities 
nationwide, such as prescribed burns, that could help mitigate fire 
danger in our natural forests. In the Southwest, we are looking down 
the barrel of what could be one of the worst drought years ever. I know 
that you, Chief Dombeck, have been trying to reach me by phone, and 
we've missed each other, but I need to be advised on what you are doing 
regarding drought and fire danger in the Southwest.
    Question. Please tell me what specific measures are being taken to 
mitigate fire danger in New Mexico this fire season.
    Answer. To date, using our Severity authorization, the Forest 
Service has sent $4 million to our southwest Region. This money is used 
to offset extreme fire danger conditions that occur from time to time 
across the country. The southwest Region is using the severity 
authorization to hire their fire prevention and initial attack 
firefighting resources earlier than normal. The Forest Service, States 
of Arizona and New Mexico, Bureau of Land Management, and the National 
Park Service are coordinating their fire prevention activities, public 
service announcements, and deployment of firefighting resources. Fire 
lookouts are in place and initial attack resources are deployed 
throughout the Region.
    Question. Please explain what assistance you will need from 
Congress, especially in appropriations, to address fire danger and 
other drought-related disasters this year.
    Answer. The President's Budget and the available contingency funds 
should be adequate to cover the increased fire disaster needs.
    Question. Please promptly provide a review of what you are doing 
for fire assessment in conjunction with other agencies--particularly 
the NRCS and FEMA.
    Answer. The Forest Service is working with the States of Arizona 
and New Mexico, as well as with other Federal agencies, to coordinate 
fire prevention efforts, public service announcements, firefighting 
resource deployment, and fire detection programs. The States of Arizona 
and New Mexico are working with FEMA to obtain grants to preposition 
firefighting resources. Interagency Coordination Centers are monitoring 
fire danger conditions and planning deployment of resources based on 
these conditions. The Forest Service has provided Seasonal Severity 
financing so that fire prevention personnel, fire detection lookouts, 
firefighters, and equipment can be hired earlier than normal. This has 
been done in cooperation and coordination with the States of Arizona 
and New Mexico, the Bureau of Land Management, and the National Park 
Service.
    I raise this issue because we need to know now what can be done in 
advance of any drought-related disasters this summer.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
                                general
    I am getting the impression that the Forest Service is closing off 
a lot of public lands in Montana through various administrative actions 
such as the: road closure moratorium; hard rock mining moratorium on 
the North Slope; and proposed Off-Highway Vehicle (OHVs) ban on certain 
public lands.
    Question. Since the Forest Service was established to manage these 
public lands for multi-use, what specific actions are you taking to 
foster multi-use of these public lands?
    Answer. The President's budget provides a balance of initiatives 
supporting broad nationwide goals as well as emphasis on protecting and 
restoring the health of National Forest forests and rangelands. We 
believe the funding emphasis contained in the President's budget is 
important for America and, as the table of selected performance 
indicators below shows, will continue to provide balance.

          USDA FOREST SERVICE--SELECTED PERFORMANCE INDICATORS
------------------------------------------------------------------------
                                               Fiscal years--
                                  --------------------------------------
                                       1998         1999         2000
                                    estimated    estimated    estimated
------------------------------------------------------------------------
Estimated Estimated Estimated           26,459       22,633       22,600
 Recreation Special Use Permits
 (number)........................
Recreation Visitor Days (million)          344          347          347
Timber Volume Sold (million cubic        569.6        701.0        614.4
 feet)...........................
Grazing allotments (number)......        4,113        4,389        4,000
Watershed Improvements (acres)...       38,497       20,000       30,165
------------------------------------------------------------------------

    I understand that the Forest Service is again proposing to de-
couple timber receipts from payments to counties. This concerns me 
since this proposed action appears to violate the principle of helping 
local communities.
    Question. What policies has the U.S. Department of Agriculture 
considered to stabilize annual Federal payments to the counties with 
public lands? What specific policies and/or programs have you 
considered to maintain the economic viability of these counties?
    Answer. The Administration has proposed legislation which would 
establish a permanent fixed formula payment which would provide local 
governments more money and greater predictability than current reliance 
on revenue from unpredictable timber sales.
    In addition, Secretary Glickman has recently indicated he would 
strongly recommend the President support an amendment by Rep. DeFazio 
to pending de-coupling legislation sponsored by Rep's. Deal and Boyd 
which would provide a payment equal to the average of the three highest 
payments received by the states between 1985 and the present. This 
would include an annual adjustment to reflect changes in the consumer 
price index. This payment would result in a nationwide payment of $443 
million in fiscal year 2000, $201 million more than the states would 
receive under current law.
    While the Forest Service and other Federal agencies such as the 
Rural Development Administration in USDA and the Economic Development 
Administration in the Department of Commerce have programs that provide 
loan or grant assistance to economically disadvantaged communities, 
these are not intended to take the place of private sector development 
spurred by a healthy economy.
                            new burn policy
    Question. Given that Secretary Babbitt has announced an aggressive 
new policy to increase the number of acres burned throughout the West, 
what is the Forest Service's response to this DOI policy?
    Answer. USDA, Forest Service and DOI are all signatories of the 
1995 Federal Wildland Fire Management Policy. Our policies are 
essentially the same. The Forest Service has increased the number of 
acres treated to reduce hazardous fuels. Since 1994 we have increased 
our hazardous fuels treatment from approximately 380,000 acres annually 
to 1.48 million treated in 1998. Our treatments include a balance of 
prescribed fire and mechanical treatments.
    Question. What is your assessment of the fire condition of the 
National Forests this year going into the summer burn season?
    Answer. Generally, a normal season throughout the country, except 
for the southern part of the country that is affected by La Nina. 
Potential exists for an above normal fire season in the southwest, 
Texas, and Florida.
    Question. What does this mean for Montana in the number of acres 
burned and communities affected?
    Answer. Based on early indicators Montana could have a near normal 
fire season.
    Question. Are you saying that if communities can't get enough 
timber to harvest, maybe they can get enough timber to burn? Somehow 
this seems backward to how best to manage the lands. Why not increase 
the number of selective timber cuts to reduce the underbrush?
    Answer. The Forest Service does not plan to award communities 
contracts to burn forestland. Burning is intended to reduce fuels that 
pose the risk of catastrophic wildfire. In many cases, prescribed 
burning would not be feasible unless it is preceeded by mechanical 
removal of both commercial and non-commercial trees. This work would 
not necessarily reduce the amount of brush, which could not be sold 
anyway. Thus, prescribed burning to remove brush may still be necessary 
to complete the task of fuels reduction.
                      forest stewardship contracts
    Question. I understand that certain activities that would have 
normally be conducted, are being folded under the new Forest 
Stewardship contracts authorized in last year's appropriations act. In 
doing this, you avoid sharing 25 percent of any receipts received by 
these activities with the counties. I am very concerned about this 
situation since it further reduces the traditional support by the 
Forest Service.
    Answer. There has been no deliberate attempt to shift work to the 
stewardship pilots in order to avoid the need to make 25 percent 
payments to states and counties. Congress enacted Section 347 of the 
Omnibus Consolidated Appropriations Act for fiscal year 1999, which 
authorized the Forest Service to enter into no more than 28 stewardship 
end-results contracts. The purpose of these ``pilot-test'' contracts is 
to evaluate an array of new processes and procedures intended to give 
national forest managers greater administrative flexibility to 
implemented needed ecosystem restoration and maintenance treatments 
while simultaneously meeting the needs of local and rural communities. 
Under the legislative language, any receipts received from these 
contracts are to be ignored for purposes of determining the 25 percent 
payments due states and counties. This provision was included in the 
legislation to provide a better basis for evaluating the potential 
usefulness of the ``goods for services'' concept. For the most part, 
the stewardship pilots are being carried out in situations where, 
because of the limited commercial value of the timber to be harvested, 
a standard timber sale cannot be used. Given these situations, if 25 
percent of receipts were returned to states and counties, little or no 
residual would be available for performing desired ecosystem 
restoration and maintenance work. The agency feels that in most 
instances the economic benefits that will flow from the projects that 
are conducted--e.g., the employment and income that is generated--will 
probably be more important to states and counties than the 25 percent 
payments. This issue highlights the need to address 25 percent payments 
from these kinds of projects before deciding whether or not to make 
``goods for services'' a permanent practice.
                       road and mineral closures
    Question. I am concerned that more roads in the National Forests 
are being closed to the public. Also many existing roads are 
deteriorating and causing problems with erosion into streams. What are 
your policies to repair existing roads on the National Forests as 
opposed to closing them? What are your plans to repair existing roads 
in Montana and how many miles of existing roads will be closed by your 
fiscal year 2000 Budget request?
    Answer. If a road is needed for management of the National Forest, 
the road is retained on the road system. The fiscal year 2000 road 
maintenance budget of $123 million covers only about 22 percent of the 
identified annual repair and maintenance needs of $568 million. The 
maintenance funding we do receive is directed toward high priority 
safety and environmental protection work.
    Some existing roads, if needed for long term National Forest 
management, are put into a storage category by closing to protect the 
road from use and reduce maintenance costs. Other existing roads that 
are not needed for National Forest management are programmed for 
decommissioning as funds become available.
    In fiscal year 2000, Montana will reconstruct approximately 410 
miles of its existing transportation system. This is 1.4 percent of the 
road miles. In addition to the reconstruction activities that are 
ongoing, forests within Montana are also analyzing the transportation 
system and identifying those components that should be decommissioned 
or closed. In fiscal year 2000, we are projecting that 218 miles of 
classified roads and an additional 65 miles of unclassified roads 
within Montana will be decommissioned or closed.
    Question. The mineral withdrawal of 430,000 acres of National 
Forest land in Montana has raised a lot of attention. Why wasn't this 
action pursued through the normal forest planning process? Will this 
mineral withdrawal affect exiting mining operations on these lands and 
if so, how?
    Answer. The Forest Plan was completed in 1986, before any claims 
had been staked in this area. However, this proposal must be consistent 
with the Forest Plan or the Plan must be amended. The lands have not 
actually been withdrawn. They have been segregated, or temporarily 
closed to establishing new mining claims for a two-year period. During 
that time a study will be done to determine whether to withdraw the 
lands. The proposal will be subject to public review and, if the 
decision is made to withdraw the lands, Congress will be notified and 
will have 90 days to review the decision.
    The current two-year segregation, and the possible withdrawal of 
these lands, are both subject to valid existing rights. As such, the 
only affect on existing or proposed operations will be a relatively 
short delay to determine whether the operator has valid existing 
rights, the most important element of which is that there must be 
evidence as of the date the segregation order was published in the 
Federal Register that a valuable mineral deposit had been discovered.
                   smoke jumpers ceremony in montana
    I am very interested in this summers upcoming memorial of the 
anniversary of the 16 smoke jumpers killed in Mann Gulch Fire in the 
Helena National Forest. I have been contacted by many citizens in 
Montana asking about what is the Forest Service's plans participation 
in this memorial event.
    Question. Since Montana is the home of the Forest Service smoker 
jumpers, I'm sure you are going to be involved, right? What are the 
Forest Service plans to participate in this summers memorial event?
    Answer. The Forest Service is planning the ceremony. The Helena 
National Forest has the lead.
    Question. I think it would be great if you made a good presence at 
this event. I understand the Forest Service is reluctant to do a 
ceremonial jump? Is that true and is there any help that I could give 
you to support this event?
    Answer. We are planning to do a ceremonial jump. But we cannot 
commit more than 1 or 2 jumpers because that is the height of the fire 
season.
                     forest service reorganization
    I have received a number of letters this year about a proposed 
reorganization of your human resources office. Now I support less 
government, however, I am concerned about the impact your plans may 
have on not only local citizens employed by the Forest Service but also 
the services the Forest Service provides to local Federal employees. 
Whether you realize it or not, your office in some communities are the 
only real Federal office that provides information and support services 
to these retired people. I am concerned about this reorganization and 
will provide you a letter soon outlining my concerns.
    Question. However, what are the current status of this 
reorganization? I expect you to advise me of your final plans before 
your release them formally. Is that acceptable?
    Answer. The agency is developing a model to deliver Human Resource 
(HR) services which keeps HR specialists at field locations providing 
personalized service to local management, employees, and the public. 
Local line officers will determine the number and location of these 
``local HR advisors.'' Specifically the proposal:
    1. keeps local HR advisors at local sites to provide support to 
local managers, employees and the public,
    2. simplifies and lessens the workload of these local HR advisors 
by providing experts in service centers to deal with complex or rarely 
performed activities,
    3. provides employees with expert advice offsite in selected areas 
such as retirement counseling and self service options like changing 
tax exemptions, and
    4. performs processing work which does not need to be performed 
locally at operation centers.
    We believe this model has the best of all worlds. It improves the 
quality of our services, keeps HR advisors at local sites, minimizes 
need to move employees to other jobs, and is efficient.
    An advisory group is recommending to Forest Service management that 
we ``test'' this model in our Denver and Atlanta regions. After a one- 
to three-year test, the Forest Service will make a final determination 
regarding expanding this model Service-wide. Prior to implementing this 
model on a Service-wide basis, we will consult with you.
                   new legislation for more revenues
    I am very interested in your proposed legislative changes to 
provide more revenue for the Forest Service. However, we haven't 
received any language yet.
    Question. Are you going to provide us with any proposed language? 
If so when could we expect it?
    Answer. The Administration's legislative proposals described in the 
fiscal year 2000 budget were submitted to Congress on May 19, 1999 and 
July 9, 1999.
    Question. Also since these legislative proposals are designed to 
provide $111 million in offsetting receipts, what are your plans to cut 
your own budget if these legislation proposals doesn't get enacted this 
year?
    Answer. The Forest Service submitted it program proposals to the 
Department in accordance with normal schedules. The timing of agency 
involvement in the legislative proposals which contribute to the 
estimated savings of $111 million varied with the specific proposals. 
As the Subcommittee is aware proposals concerning special forest 
products and concession reform have been in the development stage for 
more than a year. Other proposals contributing to the $111 estimated 
savings have been in development for a shorter period of time. The 
Forest Service provided specialized expertise to the development of 
these proposals and the development of estimates of revenue or other 
savings. This dialog has been ongoing as part of the routine budget 
development process.
    Question. I understand your legislative proposal would decouple the 
sharing of Forest Service natural resource (e.g. timber, mining, 
grazing) receipts with the states. If this is so, wouldn't this create 
more disincentives for people to utilize the vast wealth of natural 
resources found on Forest Service lands?
    Answer. The Administration's stabilization proposal would not 
create any disincentives to make decisions relating to resource 
utilization. There are many other factors that affect resource 
utilization decisions that are unrelated to payments to states.
    Question. Is this another attempt to lock up the public lands in 
the west from any further development such as that being proposed with 
the mining moratorium on the Rocky Mountain Front?
    Answer. The decision to initiate a payments to states stabilization 
proposal was not influenced by, or connected to, decisions relating to 
the mining moratorium. The Agency has long considered delinking 
revenues from forest resources.
    Question. Also why do you propose to share less Forest Service 
receipts with the states when, on the other hand, you propose in your 
budget to increase Forest Service receipts?
    Answer. Overall projected Forest Service receipts are expected to 
decline by approximately $57 million in fiscal year 2000. Under the 
Administration payments to states stabilization proposal, and per the 
President's Budget Justification, states would receive approximately 
$27 more in fiscal year 2000 than they would receive under current law. 
The formula allows states to select the high three years over a ten-
year span. Therefore, the states could select the years that generated 
the highest revenues as their basis for annual receipts.
    Question. How would you pay for the annual payment to states if you 
do not tie them to Forest Service natural resource receipts?
    Answer. The payment would be made from offsetting receipts out of 
the General Fund of the Treasury.
    Question. If you use annually appropriated funds, won't that limit 
future funding for the U.S. Forest Service to stay within budget caps 
while making annual payments to the states?
    Answer. The proposal would not rely on annually appropriated funds 
but would be a permanent payment set by statute.
    How can I be assured that you will not decrease the annual payments 
to the states if annual budget caps are reduced?
    Neither the Forest Service nor OMB would have discretion over the 
amount of the payment once it is enacted into law by Congress. The 
payment would continue at the set amount without further action by the 
Administration or the House and Senate Committees on Appropriations. 
The only way that the payment could be reduced or changed in any way 
would be if, in the future, Congress chose to amend or repeal the 
statute.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                     wood education resource center
    Public Law 105-277, Making Omnibus Consolidated and Emergency 
Supplemental Appropriations for fiscal year 1999, provided for the 
transfer to the Forest Service of the Hardwood Technology Center in 
Mercer County, West Virginia. This transfer was effected on November 
20, 1998 and the name of the center has been changed to the Wood 
Education Resource Center. Since the official transfer, the Forest 
Service has begun a process of restructuring and reorganizing the 
center to promote the sustainable use of eastern hardwood resources 
through the development of an institute of hardwood technology 
transfer. I am pleased that the Forest Service is moving ahead quickly 
to carry out the directions of the Congress for this facility and would 
like more information as to its progress in achieving the goals of the 
transfer.
    Please describe the structure and organization of the new center:
    Foreword.--The following questions and answers speak specifically 
to the Institute of Hardwood Technology Transfer and Applied Research 
and the Wood Education and Resource Center. The following definitions 
are important to the understanding of both the questions and associated 
answers:
  --The Wood Education and Resource Center. This is the new name of the 
        former Hardwood Technology Center located in Gardner, West 
        Virginia (across the street from the Forestry Sciences 
        Laboratory). It is referred to in the question and answers as 
        the Center. The Center is the property of the USDA Forest 
        Service, United States Government.
  --State and Private Forestry Liaison. The existing position of the 
        Northeastern Area, located at Princeton, West Virginia, 
        designed to integrate the cooperative programs, especially the 
        Economic Action Programs, into applied research, technology 
        transfer, and education.
  --The Forestry Sciences Laboratory. The existing organizational unit 
        at Princeton, West Virginia consisting of three major Research 
        Work Units with a regional and national focus on hardwood 
        utilization and economic information.
  --The Institute Concept. The original concept whereby the USDA Forest 
        Service (both State and Private Forestry and Research and 
        Development) and the original Hardwood Technology Center would 
        coordinate planning, work activities and collaborate on shared 
        outcomes. This concept was discussed in a paper prepared by the 
        Director of the Northeastern Area and presented to Congress in 
        May 1996.
  --The Institute. This is the name of the newly formed Institute of 
        Hardwood Technology Transfer and Applied Research. The 
        Institute consists of the Wood Education and Resource Center, 
        appropriate State and Private Forestry (S&PF) functions, 
        including the current S&PF liaison position, and the Forestry 
        Sciences Laboratory of the Northeastern Research Station. The 
        Institute will work much the way that was described in the 
        original concept. A new organization will not be configured, as 
        we traditionally do. The Directors of the Northeastern Area and 
        Northeastern Research Station will provide overall guidance and 
        leadership. The overall point of contact for the Institute to 
        the headquarters of the Forest Service is the Director, 
        Northeastern Area.
    Question. What are the major functions of the center and how do 
these functions fit into the overall goals of the Forest Service?
    Answer. The focus of the Center, under an overall vision of 
improved hardwood stewardship, will be to advance technologies and 
ideas; promote effective applications; build partnerships; promote 
community sustainability; and disseminate timely, accurate, relevant 
information. The operating principles of the Center will include 
leading edge technical assistance and high quality customer service; 
collaboration; and community development. The short-term strategy for 
the Center will focus on training seminars; conferences; and developing 
grants for applied research. Examples of this applied research will 
include light on the land harvesting technology that reduce 
environmental impacts; improved primary processing; improved secondary 
processing; and, improved market-oriented information. The long-term 
strategy calls for the Center to be operated by a private group under 
the close guidance and counsel of the Directors, within the framework 
of the Institute.
    Initially the Center was designed to assist small, independent 
operators to get established in the secondary hardwoods processing 
industry through training in leading-edge technology in hardwood 
manufacturing as well as product demonstration produced with world-
class technology and equipment. Some of these original objectives will 
be retained, but now within a much broader and expanded framework.
    A major goal of the USDA Forest Service is sustainability through 
adequate forest stewardship, including the wise use of wood fiber to 
extend the resource. The vision of the Center and the Institute focus 
on the wise, expanded use of America's hardwood forest. The Institute 
and Center are unique and clearly augment the agency's mission of 
caring for the land and serving people.
    Question. What are the major assets of the center?
    Answer. The existing Center consists of a 23,000 square foot 
facility for training, equipment time-sharing, and office space and a 
38,000 square foot dimension mill for additional equipment time-sharing 
and selected manufacturing (component parts; finger jointing; and 
veneer splicing). The Center contains a variety of leading-edge wood 
processing equipment and a core staff of five employees. The Center was 
transferred to the USDA Forest Service, Northeastern Area, on November 
20, 1998 and is now the property of the United States Government.
    Question. Who is providing the leadership for the new center? Who 
is the point of contact for the new center to the headquarters of the 
Forest Service?
    Answer. Currently, the leadership of the Center is under the State 
and Private Forestry liaison, Mr. Al Steele, located at Princeton, West 
Virginia. Mr. Steele is an employee of the Northeastern Area, State and 
Private Forestry, USDA Forest Service. Mr. Steele's telephone number is 
(304) 487-1501. The point of contact for the Center to the headquarters 
of the Forest Service is Mr. Michael T. Rains, Director, Northeastern 
Area, State and Private Forestry. Mr. Rains can be reached at (610) 
975-4103.
    Eventually, a contractor under the overall guidance of the State 
and Private Forestry liaison position will help operate the Center. The 
search for a contractor is now underway.
    Question. What are the appropriation sources and levels for the 
center in fiscal year 1999 and proposed for fiscal year 2000 in the 
President's budget? Are there any other sources of funds? If so, what 
are they?
    Answer. The appropriation source for the Center is the Interior and 
Related Agencies Appropriation Subcommittee. Funds are provided to the 
USDA Forest Service, State and Private Forestry, through the Economic 
Action Programs budget line item. fiscal year 1999 funding for the 
Center was $2,500,000.
    The fiscal year 2000 President's proposed budget will continue 
funding for the Center at $2,500,000, within the Economic Action 
Programs of State and Private Forestry, USDA Forest Service.
    In the future, some funding could come from earnings generated by 
the Center. The fiscal year 1999 Appropriations Bill provided adequate 
authority to retain any funds earned to help augment the operations of 
the Center and/or offset future Federal appropriations. Since fiscal 
year 1999 is the initial year of the restructured Center, it is 
estimated that there will be little or no outside earnings to report.
    Question. What are the major assets of the new institute?
    Answer. In addition to the Center, the Institute includes program 
components and associated resources of the Forestry Sciences Laboratory 
at Princeton, West Virginia as well as the appropriate State and 
Private Forestry functions. Accordingly, any resources and existing 
partnerships associated with these two mission areas, including the 
laboratory facilities at Princeton, are assets available to the 
Institute.
    Question. Who is providing the leadership for the new institute? 
Who is the point of contact for the new institute to the headquarters 
of the Forest Service?
    Answer. A new Institute organization will not be configured, as we 
traditionally know. The Directors of the Northeastern Area and 
Northeastern Research Station will provide overall guidance and 
leadership while maintaining the separate Research and Development and 
State and Private Forestry mission areas. Day-to-day on-site work will 
be under the guidance of the State and Private Forestry liaison 
position (Mr. Al Steele) and the Project Leader at the Forestry 
Sciences Laboratory, Dr. John Baumgras, both located at Princeton, West 
Virginia.
    As with the Center, the point of contact for the Institute to the 
headquarters of the Forest Service is Mr. Michael T. Rains, Director, 
Northeastern Area, State and Private Forestry.
    The Mission of the Institute is to promote sustainable use of the 
eastern hardwood resource.
    The Scope of work is development and transfer of information and 
technology to benefit forest-based communities and industry.
    The Vision is efficient and environmentally responsible use of 
eastern hardwood forests.
    The Goal of the Institute is to create a focal point for training 
and collaborative problem solving to advance:
  --Sustainable economic development using eastern hardwood resources.
  --Mitigation of environmental impacts from hardwood harvesting, 
        processing, and disposal.
  --Improved competitiveness of hardwood products industry.
    Formal focus groups will help refine and further shape these 
objectives.
    Question. What are the appropriation sources and funding levels for 
the institute in fiscal year 1999 and the proposed for fiscal year 2000 
in the President's budget? Are there any expectations for other funding 
for fiscal year 2000? If so, what are they?
    Answer. The appropriation source for the Institute is the Interior 
and Related Agencies Appropriation Subcommittee and any outside 
earnings that may be generated through the Center. Appropriated funds 
are provided to the USDA Forest Service for both the Research and 
Development and State and Private Forestry mission areas. Within State 
and Private Forestry, the Economic Action Programs budget line item is 
the traditional funding program source. In fiscal year 1999 the funding 
level for the Institute was $3,600,000. This included the Conference 
Report Earmark of $2,500,000 within State and Private Forestry Economic 
Action Programs line item, an additional $200,000 from the same line 
item for the S&PF liaison position, and $900,000 for the Forestry 
Sciences Laboratory's related work.
    The fiscal year 2000 President's proposed budget for the Institute 
is $3,600,000. This includes $1,525,000 for the operation of the 
Center, $200,000 for the State and Private Forestry liaison position 
and $975,000 for technology transfer from the Economic Action Programs 
(the forest products conservation and recycling program component), and 
a continued component of $900,000 for the Forestry Sciences Laboratory 
from the Research and Development appropriation. Net earnings from the 
Center are estimated to total about $200,000 in fiscal year 2000 and 
could be used to offset appropriations required in subsequent years.
    Question. What non-Forest Service partners are included in or being 
sought for inclusion in the institute? Are any West Virginia State 
agencies participating? Are any academic institutions, such as near-by 
Concord College, connected to the institute? What industry groups are 
interested in becoming more closely involved in the institute?
    Answer. Partnerships with other wood-based training and technical 
assistance organizations are currently being developed. These include 
the West Virginia Wood Technology Center at Elkins, West Virginia, West 
Virginia University, West Virginia Development Office in Charleston, 
and the West Virginia Division of Forestry.
    State and Private Forestry has met with the West Virginia's 
Governor's Office to help ensure full and effective collaboration with 
all potential interests. The West Virginia Forestry Association is 
participating with the Institute in a needs survey of West Virginia 
wood using industries.
    Other actions have been taken to make more effective use of the 
facilities. Recent commitments have been made with the West Virginia 
Army National Guard to use the Center for Distance Learning and to 
further assist Concord College in the same venture. Distance Learning 
is the use of the latest Internet and videoconference technology to 
more efficiently link long distance customers.
    Current work with focus groups will continue to identify additional 
opportunities to extend the contributions of the Institute. We expect 
to develop potential partnerships with other local colleges and 
Universities in the surrounding region.
    The goal is to make the Institute national in scope. All actions of 
the Institute and the Center will continue to target national 
associations and groups as working partners to advance a cohesive 
hardwood stewardship mission.
    Question. What are the processes by which industry and academia can 
help make the dream of the institute a reality?
    Answer. The formal focus groups will be an important mechanism. In 
addition, industry, academia, other state, Federal, and local 
government entities, and private groups will be encouraged to work 
directly with the USDA Forest Service, Northeastern Area and 
Northeastern Research Station, to ensure adequate input into the vision 
of the Institute. Mr. Steele and Dr. Baumgras will ensure the process 
is adequate, and well communicated.
    Question. What progress has been made to developing and hosting 
focus groups as part of the road mapping and strategic planning 
exercise?
    Answer. Specific contractors have been identified and contracts for 
services have been signed. The next step will be the design of the 
focus groups by the contractors. Focus groups are expected to convene 
in June through mid-July of this year.
    Question. When do you believe that sufficient input and analyses 
from the focus groups will complete such that you can share the 
results?
    Answer. We will begin to document and share results of the focus 
groups almost immediately after their completion. However, while focus 
groups will ultimately play a key role in defining many high priority 
actions and costs, indications are there will be significant 
participation and input from outside the focus groups as we shape the 
final vision and mission of the Institute. It is expected that most of 
the input and analyses will be completed by October through December 
1999.
    Question. What do you project the budget needs of the center and 
the institute will be in the future years beyond fiscal year 2000?
    The estimated fiscal year 2000 budget for a operational Institute 
is as follows:

------------------------------------------------------------------------
                                     Proposed    Additional
           Mission area               budget       needs        Total
------------------------------------------------------------------------
S&PF Liaison.....................     $200,000  ...........     $200,000
WERC.............................    1,525,000     $975,000    2,500,000
Forestry Sciences Laboratory.....      900,000  ...........      900,000
                                  --------------------------------------
      Total, Institute...........    2,625,000      975,000    3,600,000
------------------------------------------------------------------------

    Estimated fiscal year 2000 revenue from the Center will be about 
$200,000. Revenues could be used to offset future years' 
appropriations. This is an update of the table dated November 23, 1998.
    If the net revenue projections are correct, the funds could be 
applied to help augment the Center, typically capital reinvestment, or 
to help offset Federal funding needs.
    It is estimated that the fiscal year 2001 net revenues will range 
from about $400,000 to a maximum of $500,000. If these projections are 
accurate and offsets to Federal funding are applied, a total of 
$3,100,000 would be required in fiscal year 2001 and the immediate 
future to fully operate the Institute--$900,000 for the Forestry 
Sciences Laboratory; $200,000 for the State and Private Forestry 
liaison; and $2,000,000 for a fully operational Center. The fiscal year 
2001 budget requirement may need refinement as the goals and objectives 
of the Institute are better defined as a result of analysis of inputs 
from the focus groups.
                      seneca rocks visitor center
    The Seneca Rocks area of the Monongahela National Forest hosts more 
than 250,000 people annually and is one of the busiest Forest Service 
visitor center sites in the eastern region. It is located within a 4-
hour drive of one-third of the nation's population. I understand that 
great progress has been made on the new visitor center at Seneca Rocks, 
which is scheduled to officially open this summer complete with 
exhibits. I am concerned, however, that the Forest Service will not 
provide sufficient recreation management resources for operating this 
wonderful new center.
    Question. Please provide a 6-year (fiscal year 1995--fiscal year 
1999 enacted and fiscal year 2000 proposed) budget table showing the 
funds made available in the recreation management budget line item for 
the national forest system, the eastern region (region 9), the 
Monongahela National Forest, and the Seneca Rocks Visitor Center.
    Answer.

                                              RECREATION MANAGEMENT
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal years--
                                                     -----------------------------------------------------------
                                                        1995      1996      1997      1998      1999      2000
----------------------------------------------------------------------------------------------------------------
FS..................................................   159,426   164,256   164,314   170,318   144,953   144,953
Region 9............................................    17,412    18,044    15,594    16,402    14,212    14,125
Monongahela.........................................     1,695     1,558     1,349     1,108     1,058       974
Seneca Rocks........................................        85        85        87        90       132       227
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2000 figures for the FS and R9 are based on the 
numbers that appear in the fiscal year 2000 Budget Justifications for 
the Committee on Appropriations. The Monongahela's number represents 
their average percent of the Region's recreation funds.
    The operation costs for the Visitor Center for fiscal year 1995-
1998 are for a small temporary center. This center has been staffed by 
a Center director and 3 to 5 Senior Conservation Service Enrollees 
(SCSEP). The Forest is presently transitioning to the new center which 
is a much larger facility. In addition to higher utility costs the 
fiscal year 2000 proposed budget includes funds for two additional 
permanent staff which are needed to provide high quality visitor 
services.
    Question. Is the new visitor center still on track to open 
(complete with exhibits) this summer?
    Answer. Yes, it is still on track. The latest estimate from USDA 
Design Services is for exhibits to be delivered to the site in June 
with installation in late June through early July. The grand opening of 
the facility is tentatively scheduled for mid to late July.
    Question. What private sector partners are involved in the exhibits 
and operations of the new visitor center?
    Answer. At this time the Forest has secured the following partners:
  --Pendleton County Historical Society has placed a display in the 
        exhibition hall.
  --Seneca Trails Art Guild is exhibiting tradition art and craft 
        materials.
  --A local mountain music group is providing music once a month 
        throughout the year.
  --Friends of Seneca, Seneca Rocks Climbing School, and Seneca Rocks 
        Mountain Guides are assisting with the funding and installation 
        of the climbing wall, will provide some instruction, and are 
        involved in the partners' exhibits.
  --Augusta Heritage Center, Davis and Elkins College has provided an 
        exhibit and assistance in marketing programs and classes at the 
        Center.
  --West Virginia Trout Unlimited is scheduled to teach classes this 
        year.
  --West Virginia Office of Tourism is providing funds to pay for two 
        visitor service staff .
  --Potomac Highlands (an organization supporting tourism based 
        businesses) will provide and maintain a brochure rack.
  --Snowshoe Mountain Resort is working with the National Forest 
        Foundation and Forest to furnish one area in the Center.
  --West Virginia University is assisting in providing seasonal student 
        interns at the Center.
    Question. What has been the level of local involvement in plans for 
operating the new visitor center?
    Answer. The Forest has provided tours for the center (both during 
the building construction phase and before it opened to the public) and 
has kept the local public informed of the plans for the center. The 
local public has provided numerous suggestions which are being 
evaluated at this time. Many local artisans are scheduled to 
demonstrate their craft this summer. Also local artisans are exhibiting 
examples of Appalachian art and craft products in the Center.
    Question. What is the status of plans to create an institute at the 
Seneca Rocks Visitor Center?
    Answer. The project to create an institute at the Visitor Center is 
moving forward. The Forest partners have scheduled six classes for the 
1999 season. As the program continues to develop the Forest partners 
hope to add more classes in 2000. Lack of enabling legislation limits 
greater Forest Service participation in the institute.
    Question. What is the status of the partnership established at the 
Seneca Rocks Visitor Center between the Forest Service and the National 
Forest Foundation?
    Answer. The formal partnership between the Forest and the National 
Forest Foundation (NFF) has ended (as of April 30, 1999). However, 
local personnel, who formerly worked for the National Forest 
Foundation, continue to work with the Forest, as volunteers, in the 
development of the interpretive plan and restoration of the Sites 
Homestead through recruitment and use of other interested volunteers.
    Question. NFS What will be the hours of operation for the new 
Seneca Rocks Visitor Center for fiscal year 2000? What will be the 
hours operation for the Cranberry Glades Nature Center for fiscal year 
2000?
    Answer. The hours of operation for the Seneca Rocks Visitor Center 
are 9:00 AM to 4:30 PM seven days a week. In the summer the Center will 
be open until 6:00 PM. If budgets allow, it will remain open on a daily 
basis year-round. If not, it will be open on weekends only (10 AM to 4 
PM) after Thanksgiving and remain open only on the weekends until April 
2000.
    Cranberry Mountain Nature Center hours of operation are as follows:
        January-April--Saturday and Sunday 10:00 AM to 4:00 PM
        May/Sept--Friday, Saturday, Sunday 9:00 AM to 5:00 PM
        Memorial Day-Labor Day--9:00 AM to 5:00 PM seven days a week
        October 1-21st--9:00 AM to 5:00 PM seven days a week
        October 22-31st--Friday, Saturday, Sunday 9:00 AM to 5:00 PM
        November--Saturday and Sunday 10:00 AM to 4:00 PM
        December--Closed
                monongahela national forest radio system
    The Monongahela National Forest has a totally inadequate radio 
system that places employees and the public at risk in fire and other 
emergency situations. The current low-band system is obsolete, 
unreliable, and requires high maintenance. This is of particular 
concern because decreases in staffing levels have made it necessary to 
send out more and more individual employees without partners. In 
addition, many parts of the Monongahela National Forest are in ``dead 
spots'' where no current radio capabilities exist due to previous 
requirements for low-band instrumentation dictated by the presence of 
the Green Bank Observatory operated by the U.S. Navy.
    Question. Have advancements in the ability of Navy at the Green 
Bank Observatory to filter out undesirable radio waves made it possible 
for the Monongahela National Forest to switch over to a high-band radio 
system?
    Answer. Yes, the National Radio Astronomy Observatory (NRAO) 
personnel informed Forest Service personnel in 1997 of upgrades to 
electronic equipment which will filter out radio waves in the high band 
frequencies which are assigned for use on the Mononghala National 
Forest.
    Question. Would such a high-band radio system improve the coverage 
on the Monongahela National Forest and provide for better employee and 
visitor safety?
    Answer. Yes, the target for the new system would be 90 to 95 
percent coverage. The existing system is in the range of 65-75 percent 
when all base and repeater stations are working properly. In addition, 
the new system will provide radio communications for all air operations 
which is extremely important for fire detection and suppression, 
natural disaster response, and search and rescue.
    Question. What would it cost to design and implement a new high-
band radio system on the Monongahela National Forest?
    Answer. The cost to design and implement a new high-band radio 
system is estimated to be $500,000. The fiscal year 2000 President's 
Budget does not include funding for this activity.
                 allocation of funds among the regions
    Over the past four years, the funding for the National Forest 
System (NFS) has increased by about four percent. This translates into 
about a one percent increase on average each year, which does not 
provide sufficient funds to cover fixed cost increases such as 
salaries, utilities, and rents. During the same time frame, NFS funding 
for the eastern region (Region 9) has decreased by almost three 
percent, and NFS funding for the Monongahela National Forest has 
decreased by about thirteen percent.
    Question. Please verify that these numbers are correct.
    Answer. The following information is provided for the past four 
year period 1996-1999. In 1996, funding for the National Forest System 
was 1.256 billion dollars. In 1999, funding for the National Forest 
System was 1.298 billion dollars. This represents an increase of 
approximately 3 percent over a four year period.
    In 1996, National Forest System funding to Region 9, was 106.5 
million dollars. In 1999, initial funding from National Forest Systems 
to Region 9, was 102 million dollars. Road Maintenance funds totaling 
7.3 million dollars were transfered from NFS to the Construction 
Appropriation. An additional allocation of 1-million dollars was added 
from Washington Office carryover funds to offset costs associated with 
management of the Midewin Tall Grass Prairie Unit. The final 1999, 
total of 103 million dollars (NFS only) represents a reduction to the 
Eastern Region in NFS funding of approximately -3 percent.
    In 1996, NFS funding to the Monongahela was 7.256 million dollars.
    In 1999, NFS funding to the Monongahela was 7.654 million dollars.
    This represents an increase of approximately 5 percent for the 
four-year period.
    Question. Why has the NFS funding for the eastern region decreased 
more than the rest of the National Forest System?
    Answer. Funding to Regions will vary from year-to-year based on 
changes in the Regions' programs. National Forest funds are allocated 
based on allocation criteria that every Region was involved in 
developing. These are reviewed on an annual basis for most programs, 
and adjustments are made where needed. In 1999, Congress moved Road 
Maintenance Program dollars from the NFS Appropriation to 
Reconstruction/Construction, which caused the Eastern Region's NFS 
Appropriation to drop by 7.3 million dollars. When added back for 
comparison purposes, the Region's 4-year trend (1996-1999) for National 
Forest System funding indicates an increase of approximately 3 percent.
    Question. Why has the NFS funding for the Monongahela National 
Forest decreased more than the NFS funding for rest of the eastern 
region?
    Answer. The information provided by the Eastern Region indicates 
that from 1996-1999, National Forest System funding for the Monongahela 
did not decrease, but actually increased by approximately 5 percent. 
Construction funding for the Monongahela has decreased during that 4-
year period, but that is primarily due to an earmark for construction 
of the Seneca Rocks Visitor Center, which has been completed.
    Question. What is the general process by which the Forest Service 
allocates its funding to the regions? What modifications does the 
Forest Service anticipate to this process, to the criteria upon which 
the process is based, and to the data applied to the criteria?
    Answer. The Forest Service uses a set of budget allocation criteria 
which considers multiple factors pertinent to agency resource 
management needs. This criteria varies by budget line item. We expect 
modification to the allocation criteria in the future for two reasons:
  --As the agency implements financial accountability reforms, a key 
        element of this process is the application of ``primary 
        purpose'' expenditures. With primary purpose, only a single 
        line of accounting will be charged for an activity. This 
        differs from the present process where several line items can 
        be charged. As a result we anticipate needing a realignment of 
        funds between line items. Correspondingly a change will also be 
        needed in the criteria.
  --The Forest Service is pursuing a significant change in budget 
        structure. Assuming there is such a change, the criteria will 
        need to be modified to reflect the new structure.
    Question. Please describe the degree and extent to which the Forest 
Service is satisfied with its NFS budget allocation process. Does the 
Forest Service use the concept of ``base-level'' budgeting in devising 
its NFS budget request and allocating its NFS funds? If not, why not?
    Answer. The agency is satisfied with the existing budget allocation 
criteria. No ``cookbook'' approach to allocating funds can be totally 
responsive to agency needs and changing priorities. However, the 
agency's criteria does provide for adjustment in allocations consistent 
with the need to recognize national priorities and emerging issues. 
Accordingly the criteria are adequate for the existing budget 
structure.
    Question. Please provide a single table showing the actual amounts 
that each region received from the Forest Service through the 
allocation process for the NFS and reconstruction/construction accounts 
for fiscal year 1998 and fiscal year 1999 as well as estimates of what 
each region will receive from the Forest Service based on the 
President's budget request for fiscal year 2000.
    Answer. Please see enclosure 6, on following page.

                      ENCLOSURE 6.--FISCAL YEARS 1998 AND 1999 FINAL ALLOCATIONS AND FISCAL YEAR 2000 PRESIDENT'S BUDGET ALLOCATION
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal years--
                                                  ------------------------------------------------------------------------------------------------------
                                                                1998                             1999                                2000
                      Units                       ------------------------------------------------------------------------------------------------------
                                                     National
                                                      forest     Reconstruction/  National  forest   Reconstruction/  National  forest   Reconstruction/
                                                      system      Construction         system         Construction         system         Construction
--------------------------------------------------------------------------------------------------------------------------------------------------------
Region 1.........................................      115,203            13,892           108,169            29,682           104,080           40,270
Region 2.........................................      110,353            13,586           104,624            25,566           102,781            33,275
Region 3.........................................      103,297            12,572            97,000            27,401            97,919            33,298
Region 4.........................................      128,397            15,407           125,633            31,487           125,393            38,318
Region 5.........................................      184,233            19,984           170,171            40,527           160,627            51,513
Region 6.........................................      217,028            31,747           178,702            46,988           166,681            67,043
Region 8.........................................      139,514            21,392           129,461            33,435           124,182            37,113
Region 9.........................................      109,778            15,367           103,436            19,597           103,269            27,353
Region 10........................................       68,791            13,859            76,859            19,488            66,428            19,494
Washington Office................................      153,645             7,680           178,526             9,630           154,794             8,437
Forest Products Laboratory.......................        1,624               225             1,507               600             1,394             1,485
International Institute of Tropical Forestry.....          820               199               782               975               472               965
Intermountain Research Station...................        3,261               498           ( \1\ )           ( \1\ )           ( \1\ )           ( \1\ )
North Central Forest Experiment Station..........        1,468               268             1,391             1,108             1,297               257
Northeastern Area and Station....................          404             3,006             3,741             5,225             2,878               841
Pacific Northwest Research Station...............        3,702               235             2,414               994             1,121               649
Pacific Southwest Forest and Range Exper. Sta....        2,117               449             1,900             1,599             1,394             1,466
Rocky Mountain Research Station..................        4,733               375             7,455               405             5,130               680
Southern Research Station........................        5,393               270             5,093               774             4,143             1,035
                                                  ------------------------------------------------------------------------------------------------------
      Total, allocations.........................    1,353,761           171,011         1,296,864           295,481         1,223,983          363,492
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ In fiscal year 1999 the Intermountain Research Station was consolidated with the Rocky Mountain Research Station.

    Question. What suggestions do you have for helping ensure that the 
President's budget request and the appropriations act do not contain 
any unanticipated and unexpected reductions at the Forest level?
    Answer. The Forest Service is committed to accomplishing a maximum 
amount of work on the ground and maximizing the amount of available 
funding for this purpose. The agency recently implemented standard 
definitions for indirect expenses, which will enable quality assurance 
reviews of areas where indirect expenses appear to be excessive. These 
guidelines are consistent with the Federal Accounting Standards 
Advisory Board definitions. With effective management of indirect 
expenses, unanticipated and unexpected reductions at the forest level 
can be minimized. In addition to management of indirect expenses, 
careful management of personnel stationed in the Washington Office and 
Regional units is necessary to assure maximum availability of funds for 
field expenditures. Although some additions to headquarters and 
regional office staffing have been necessary to rectify accountability 
issues, the agency remains committed to keeping these increases to a 
minimum.
    Question. What suggestions do you have for helping ensure that all 
the regions and forests of the National Forest System receive a clear, 
sound, and understandable budget request that can be supported by the 
Congress?
    Answer. The agency believes that a ``clear, sound, and 
understandable budget request'' is challenging to submit under the 
present budget structure. The recent study conducted by the National 
Academy for Public Administration concurs that the present structure 
does not reflect the work being accomplished on the ground. There is an 
urgent need to develop a budget structure that reflects the integrated 
nature of the work performed. Currently the agency proposes a budget 
(within the 6 principle appropriations) that includes 21 budget line 
items and 35 expanded budget line items. This structure does not 
recognize the fact that work performed at the ground level delivers 
multiple benefits. The Agency will be working with the Administration 
and Congress to develop a budget structure that reflects the integrated 
work performed.
                     west virginia research centers
    The Forest Service operates three research labs in West Virginia: 
Princeton, Parsons, and Morgantown. According to information I have 
been given, these three research labs are supported at last year's 
level in the President's budget request for operations (Princeton, 
$2,234,000; Parsons, $1,747,000; Morgantown, $1,766,000). At the same 
time, I understand that an additional unallocated decrease is contained 
in the President's budget that might reduce the funding for these labs.
    Question. What are the full staffing levels for each of these 
research centers?
    Answer. Following are the full staffing levels for the West 
Virginia Research Centers for fiscal year 2000. The number of full-time 
equivalent employees is being held at the same level as fiscal year 
1998 and fiscal year 1999:
        Morgantown--14 FTEs
        Parsons--21 FTEs
        Princeton--19 FTEs
    Question. Please provide a table showing the actual funding and 
staffing levels for these three research centers over the past ten 
years.
    Answer. Please see enclosure 7.
                             [enclosure 7]
                     West Virginia Research Centers
    The Forest Service operates three research labs in West Virginia: 
Princeton, Parsons, and Morgantown. According to information I have 
been given, these three research labs are supported at last year's 
level in the President's budget request for operations (Princeton, 
$2,234,000; Parsons, $1,747,000; Morgantown, $1,766,000). At the same 
time I understand that an additional unallocated decrease is contained 
in the President's budget that might reduce the funding for these labs.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                      Princeton              Parsons             Morgantown
           Fiscal year appropriation           -----------------------------------------------------------------
                                                 Funding    Staffing   Funding    Staffing   Funding    Staffing
----------------------------------------------------------------------------------------------------------------
1990..........................................     $1,960         31     $1,037         24     $2,345         17
1991..........................................      2,116         34      1,526         24      2,402         18
1992..........................................      2,238         32      1,590         26      2,524         19
1993..........................................      2,140         32      1,711         26      2,543         19
1994..........................................      2,143         34      1,674         28      2,521         17
1995..........................................      2,091         27      1,791         28      2,098         16
1996..........................................      1,184         25      1,786         24      1,766         13
1997..........................................      2,234         23      1,747         24      1,766         14
1998..........................................      2,234         19      1,747         21      1,766         14
1999..........................................      2,234         19      1,747         21      1,766         14
2000 PB.......................................      2,234         19      1,747         21      1,766         14
----------------------------------------------------------------------------------------------------------------

    Question. Please verify that the President's budget request, after 
all reductions and additions are factored in, does support these three 
research facilities at the staffing and funding levels contained in the 
budget enacted for fiscal year 1999.
    Answer. The Forest Service intends to maintain the same level of 
funding to all three facilities in West Virginia as requested in the 
fiscal year 2000 President's Budget, and will maintain staffing levels 
to the extent possible given increases in salaries and fixed costs.
                   highland scenic highway landslides
    Two landslides were discovered in April 1997 on the fill slopes of 
the Highland Scenic Highway in the Monongahela National Forest. In 
early summer 1997, one of the slides encroached onto the aggregate 
shoulder of the road. The Monongahela National Forest, with assistance 
from the Federal Highways Administration, developed a preliminary 
estimate of $1.4 million to repair both slides after site visits in 
August 1997. After review, this estimate was lowered to $935,000 and 
this amount was made available to the Forest in fiscal year 1998 to 
repair the slides. The Forest entered into a memorandum of 
understanding with the Army Corps of Engineers (Huntington District) in 
June 1998 to perform the actual design of the repairs and oversee its 
construction. Upon an in-depth analysis, using some of the fiscal year 
1998 appropriated funds, the Corps determined that the slides were far 
more extensive in size and scope than initially estimated.
    Question. Why was the size and scope of the slides (and 
consequently the greater amount of work required) not determined 
earlier in the process?
    Answer. The two slides were discovered in the second half of fiscal 
year 1997. At that time, funds were not available to perform a detailed 
analysis to determine the cause of the slides and design the repair. 
Forest engineering personnel, with assistance from a Geotechnical 
Engineer from the Federal Highway Administration, Eastern Federal Lands 
Highway Division, developed the initial cost estimate based on survey 
data and a visual analysis of the slides. The estimates did not have a 
very high confidence level because of the many unknowns related to 
subsurface conditions of the slide areas. When the Army Corps of 
Engineers, under agreement with the Forest, performed an in-depth 
analysis of each slide the proposed designs were larger in scope than 
originally estimated. This additional work was needed to restore 
stability to the fill slopes.
    Question. What is physically required to repair the two landslides 
and stabilize the slope and surface of the Highland Scenic Highway?
    Answer. The recommended repair method for both slides is the same. 
The only difference is in the volume of material to be removed and 
replaced. The requirements are as follows:
  --Construct an access road from the Highland Scenic Highway to the 
        toe of the slide. This will be utilized to remove unsuitable 
        material and for delivery of rock backfill.
  --Excavate and remove unsuitable material and construct a stable 
        foundation for rock backfill.
  --Install perforated pipe underdrains to remove excess water.
  --Place rock backfill, in layers, from foundation elevation to top of 
        slope.
  --Place aggregate base course on excavated road and shoulder.
  --Pave and stripe disturbed sections of the Highland Scenic Highway.
    Question. What is the current estimate for the cost to repair the 
landslides that threaten the Highland Scenic Highway? What funds are 
currently on hand to be used to address these costs? How much 
additional funding is needed?
    Answer. The estimated cost for the repair of Slide #1 is 
$1,400,000. The estimated cost for the repair of Slide #2 is 
$1,235,000. The Huntington District of the U.S. Army Corps of 
Engineers, under agreement with the Forest, is providing engineering 
services, the contractor, and administration of the construction 
contract for the repair of Slide #2. The project is being funded by 
$935,000 in fiscal year 1998 CNES funds allocated to the Forest for 
this project, and $300,000 in CNRD funds from the fiscal year 1999 
Forest allocation.
    The Forest does not have any additional fiscal year 1999 funds to 
allocate for the repair of Slide #1. $1,400,000 in additional funding 
is needed to repair Slide #1 on the Highland Scenic Highway.
    Question. Is the Forest Service satisfied with the evaluation by 
the Corps of Engineers and with its role in accomplishing the task of 
repairing the road and stabilizing the slope?
    Answer. The Forest is satisfied with the engineering services 
provided by the U.S. Army Corps of Engineers. They have a highly 
skilled and experienced staff of specialists. The Corps has been 
working closely with Forest engineering personnel through the design 
phase to develop a cost effective repair for each slide. The repair 
project on Slide #2 has started and the Forest is satisfied with the 
professional management of the project by Corps of Engineers personnel.
        elk river limited partner land acquisition and donation
    The Monongahela National Forest has been approached by the Elk 
River Limited Partnership about a potential sale and donation. As part 
of an agreement between the two groups, Elk River Limited Partnership 
is proposing to sell a 731-acre inholding to the Monongahela National 
Forest Service and to donate substantial mineral (coal, not oil and 
gas) holdings to the Forest Service as part of its liquidation 
proceedings. These holdings include the rights to mine deep coal on 
about 53,000 acres (these rights will revert to U.S. ownership in 
2035), mostly underneath lands of the Monongahela National Forest. The 
731 acres to be purchased by the Forest Service in connection with this 
donation are located in the Cheat Bridge area along the Shavers Fork 
River. The West Virginia Chapter of the Nature Conservancy is helping 
to negotiate and facilitate the sale and donation.
    Question. Are the proposed 731 acres to be acquired in fee simple 
totally within the boundaries of the Monongahela National Forest.
    Answer. Yes. It is bordered on three sides by National Forest 
System lands.
    Question. What is the estimated cost of acquiring the 731 acres in 
fee simple from the Elk River Limited Partnership? What funds are on 
hand for helping to meet this cost? What additional funds are needed?
    Answer. The estimated costs would be $650,000; $275,000 will allow 
completion of the acquisition. The remaining funding to be acquired is 
available from other sources.
    Question. Will the Forest Service incur any additional liabilities 
by acquiring these lands and accepting the mineral holdings as a 
donation?
    Answer. Yes, we will incur additional liabilities associated with 
monitoring the rehab areas. We are willing to accept the liability.
     watershed restoration needs of the monongahela national forest
    The watersheds of the Monongahela National Forest have been 
degraded by past logging practices and wildfires, which have resulted 
in heavy loads of fine sediments clogging its streams. The Monongahela 
National Forest has identified twenty-five watersheds that need to be 
assessed for restoration needs. The State of West Virginia has 
identified four watersheds partly within the Monongahela National 
Forest that need restoration. Restoration of these watersheds is 
important to improving trout populations and attendant recreational 
opportunities. Almost eighty percent of West Virginia's native trout 
streams lie within the Monongahela National Forest.
    Question. NFS Please provide a table showing the amounts 
appropriated and provided to the Monongahela National Forest for 
watershed improvements (assessments and restorations) over the past 4 
years (including for fiscal year 1999).
    Answer. Please see enclosure 8, on the following page.
    [GRAPHIC] [TIFF OMITTED] T06AP15.024
    
    Question. How much more funding is estimated to be required to 
complete the assessments and to restore the remaining degraded 
watersheds on the Monongahela National Forest?
    Answer. Comprehensive watershed assessments and specific cost 
estimates are not available at this time, but a 1998 estimate by the 
Monongahela National Forest indicates that at least $17.6 million is 
needed to restore watersheds across the Forest. In addition to actual 
restoration costs, it is further estimated that about $60,000 per year 
over the next five years is needed to properly conduct watershed 
assessments to identify overall needs. In addition, specific project 
design costs are expected to cost $80,000 per year as assessments are 
completed.
    Question. What level of funding is included in the President's 
budget request (including the proposed $10 million increase for 
watershed improvements) for this watershed assessment and restoration 
work on the Monongahela National Forest?
    Answer. Watershed funding for the Monongahela National Forest in 
the President's Budget is projected at $342,000. This includes $163,000 
for Soil, Water and Air Operations (NFSO) and $179,000 in Watershed 
Improvement funds (NFSI).
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. What laws or changes to regulation have allowed the USFS 
to use a budget development and allocation process that doesn't appear 
to consider Forest Plan implementation as the driving need?
    Answer. There is no law or regulation that directs the Forest 
Service to consider or not consider forest plans as a part of the 
budget development and allocation processes. The agency's budget 
development process results in regional submissions of program funding 
mixes and performance information for a range of total funding levels 
established by the Washington Office. These total funding levels 
reflect a reasonable set of increases and decreases around the most 
recent President's Budget. This gives the Washington Office a range of 
production capabilities and associated program costs, all of which 
implement Forest Plans. This information is used to develop the 
specific budget proposals contained in the agency request package that 
is sent to the Department. Upon enactment of an appropriations bill, 
funds are allocated to regions using allocation criteria for each 
program. These criteria reflect workload and complexity factors related 
to each program that were identified and agreed to by field units. They 
are designed to provide an objective starting point for making an 
equitable distribution of funds to regions that will assist in 
implementing the direction established in forest plans. The funds 
allocated to the field are influenced by many factors such as 
congressional earmarks, presidential initiatives, and other new 
initiatives and uncontrollable exigencies that are not reflected in 
forest plans. These items are also taken into consideration when field 
level allocations are made. We believe that the current budget 
development and allocation processes consider many factors, including 
meeting the goals of forest plans.
    Question. There has been a lot of discussion that a new budget 
process is being developed that is somehow linked to Strategic 
Planning. What assurances do we have that this new budget process will 
meet the essential requirement that individual Forest Plans will be a 
consideration during the development and allocation of the budget?
    Answer. The Government Performance and Results Act (GPRA) of 1993 
directs each federal agency to develop annual performance plans that 
link direction in its Strategic Plan to the budget through outcome-
based performance measures. Goals and objectives from the agency's 
Strategic Plan will be incorporated into revisions of Forest Plans. 
Forest Plans will provide resource information that is used in 
developing subsequent revisions to the agency's Strategic Plan. Forest 
Plans will also continue to be used as the tool to determine the 
management direction for a particular administrative unit and be the 
basis for Forest-level budget submissions.
    Question. Most people agree that there are many problems with 
allocation by budget criteria. Why is the Forest Service still 
utilizing an allocation system that doesn't appear to meet the needs of 
the Forests and their customers?
    Answer. The Forest Service has used a criteria based approach for 
allocating funds in the Agency's budget process for several years. This 
criteria-based approach was developed in response to field concerns 
about equity in developing constraints for formulating outyear budgets 
and allocating current-year funds. The criteria establish a visible and 
rational basis for allocating resources by identifying differences 
among regions in their resource conditions, programs of work and other 
elements. Budget criteria also improve internal and external 
communications because they help focus attention on program goals and 
objectives by using key resource conditions and planned or actual 
accomplishments to allocate funds. While we feel that the current 
approach is vastly superior to how allocations were made prior to use 
of criteria, we recognize that the criteria have not pleased everyone. 
It is a formulaic approach and appears too rigid. However, it is 
important to remember that, at the national level, the formula-driven 
results are only the starting point for a completed allocation process. 
Adjustments to the results can and should be made to reflect changing 
conditions, unexpected situations, and agency-wide priorities. The 
criteria were never intended to eliminate or reduce management 
discretion or prerogative to review and adjust the results. The only 
requirement is that adjustments be documented in the Program Budget 
Advice, our allocation document. A similar approach is now being used 
in most regions. With our criteria-based allocation approach, the 
internal and external debates about equity are now focused on specific 
criteria or types of criteria. While we recognize the need to continue 
refining the basis for our allocations, we also feel that no approach 
or set of criteria used to distribute scarce resources will always make 
everyone happy.
    Question. Is the Forest Service considering development of a new 
budget allocation process?
    Answer. The Forest Service is working on a number of efforts that 
will eventually affect how resources are allocated. In fiscal year 2000 
the agency is implementing a new financial management system (FFIS) and 
will be using a different concept for planning work and charging 
expenditures called Primary Purpose. The primary purpose concept will 
shift some responsibilities among programs and could affect the 
criteria used to allocate funds in some programs. Our new financial 
system will allow us to better align expenditures with work which 
should eventually allow us to use unit costs in conjunction with 
performance information to allocate funds. The agency is also working 
with the Congress and the Administration to simplify our budget 
structure. The consolidation of funding sources, coupled with a greater 
reliance on performance measures to assess agency performance, will 
necessitate a change in the basis for allocating funds. Whether this 
basis will still be referred to as criteria or something else will be 
determined later.
    Question. Last year, the Stewardship Incentives Program was not 
funded. What effect has this had on the ability of the U.S. Forest 
Service or state forestry departments to work with private landowners 
to develop sustainable forestry practices?
    Answer. SIP encourages landowners to adopt a wide variety of 
sustainable forestry practices including fish and wildlife habitat 
improvement, recreational improvements, timber stand improvements, 
agroforestry and others. Many of these practices provide benefits that 
extend beyond the boundaries of the ownerships on which they are 
implemented. SIP fills a somewhat unique niche in the Forest Service 
and State array of services to non-industrial private forests in that 
it allows the provision of cost-shares to landowners who otherwise 
might be unlikely to initiate such practices. Since its inception in 
1991, the SIP program has enabled the States to assist over 36,000 
landowners (an average of 5,000 landowners each year). Without SIP, the 
ability to encourage landowners to adopt sustainable forestry practices 
will be severely reduced.
    Question. On those lands that receive technical or financial 
assistance from U.S. Forest Service Cooperative Programs, how much 
board feet is produced annually? How does the cost of production on 
those lands compare to production on public forest lands?
    Answer. The Stewardship Incentive and Forest Stewardship Programs 
support the sound stewardship of non-industrial private forest (NIPF) 
lands. The Forest Service 1993 RPA Timber Assessment Update estimated 
that in 1991 approximately 4,238 million cubic feet of softwood and 
5,252 million cubic feet of hardwood (i.e. a total of 9,490 million 
cubic feet) was harvested from NIPF lands. A rough conversion to board 
feet would be: 21,190 million (softwood); 26,260 million (hardwood); 
and 47,450 million (total).
    There are no national figures available comparing the cost of 
timber production from NIPF lands with that of production on public 
lands. Timber production costs vary significantly from region to region 
depending upon nature of terrain, tree species, and other ecological 
factors, as well as cost of labor and level of management. It has 
generally been asserted that the cost of timber production on federal 
lands is higher than that on State government or private lands.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Chief Dombeck, last week a bipartisan group of seven 
members of Congress wrote you expressing concerns with implementation 
of the Quincy Library Group legislation. What is the Forest Service 
doing to address those concerns?
    Answer. The Agency recently met with staff from offices of 
concerned Members and Committees to answer their questions. That 
discussion proved productive and helpful. The Agency is also responding 
directly to the concerns in a letter that the Members should receive 
shortly.
    Question. The Forest Service has told the Quincy Library Group and 
my staff that it interprets the Quincy Library Group legislation to 
preclude any planning for fuel breaks prior to completion of the 
Environmental Impact Statement. Under this interpretation, it is 
possible that no fuel breaks will be constructed until 2001. Such a 
slow implementation of the law certainly was not Congress' intent, and 
I am pleased to see that in a memo dated April 8, the Forest Service 
now says they will begin planning for Quincy Library Group projects 
this year. When do you intend to begin such planning? Will fuel breaks 
be constructed in fiscal year 2000?
    Answer. It is true that planning for specific projects will happen 
after a decision is reached through the EIS/NEPA process. However, the 
Agency's intent is to both plan for and begin implementing Quincy 
Library Group projects in fiscal year 2000. In addition, the Forests 
are doing more generalized planning in fiscal year 1999 not 
specifically related to the decision that will come from the EIS, but 
helps set the stage for implementation of QLG projects.
    Question. The Forest Service says it will only plan Quincy Library 
Group projects this year as staff resources and funding allow. Since 
the Forest Service received $8 million to implement the Quincy Library 
Group project in fiscal year 1999, and since the Forest Service informs 
my staff that the Environmental Impact Statement will cost only $2 
million, doesn't it seem that funding is sufficient for extensive 
planning to occur this year?
    Answer. The priority in fiscal year 1999 is the completion of the 
Environmental Impact Statement by 8/17/99. Funds not expended in fiscal 
year 1999 for the EIS effort will be carried over to fiscal year 2000 
and be used for the planning and implementation of individual projects.
    Question. Is the Forest Service on schedule to complete the 
Environmental Impact Statement by August 17, 1999--the date mandated by 
the legislation?
    Answer. The Record of Decision for the HFQLG was signed on August 
20.
    Question. How will the Sierra Nevada Framework Environmental Impact 
Statement impact the Quincy Library Group pilot project? It is of 
paramount importance that the pilot project be implemented as fully as 
possible.
    Answer. The timeframe extension for completion of the EIS portion 
of the Sierra Nevada Framework Project did not delay preparation of the 
DEIS for the Herger-Feinstein Quincy Library Group (HFQLG) pilot 
program. The Record of Decision and the FEIS were signed on August 20. 
Project specific planning and implementation are ongoing since release 
of the Record of Decision. Concerning the SNEP Framework D EIS effort 
and the HFQLG project, the current intent is to treat the HFQLG area 
separately for the duration of the HFQLG pilot project. However, it is 
possible that some of the issues addressed in the Sierra Nevada 
Framework DEIS, including wildlife habitat management and riparian 
guidelines, may require some changes to the HFQLG pilot project.
    Question. Given the Administration's support for the Quincy Library 
Group legislation, why doesn't the President's budget include any funds 
specifically to implement the Quincy Library Group project?
    Answer. The President's fiscal year 2000 budget includes $5.4 
million that would be used specifically to implement the Quincy Library 
Group Project in fiscal year 2000. This represents the base level 
funding for the Forests involved. In addition, $6 million from the $8 
million Congressional earmark funding in fiscal year 1999 will carry 
over to fiscal year 2000 and be available to fund QLG projects.
    Question. In 1997 President Clinton committed $25 million in new 
money over two years to restore the environment at Lake Tahoe. But that 
two year period has expired, and in fiscal year 2000 the President is 
requesting only about $5 million for environmental projects at Lake 
Tahoe, including $4.2 million for the Forest Service. What steps are 
you taking to ensure that Tahoe remains a priority area for water 
quality improvements and fire risk reduction?
    Answer. Success in meeting the environmental challenges posed at 
Lake Tahoe will rely heavily on building and maintaining collaborative 
relationships among individuals and organizations linked to the Lake. 
These cooperative efforts will allow the Agency and others to make the 
most effective use of the dollars allocated. The Forest Service 
continues to support a range of collaborative efforts with those goals 
in mind, including the Federal Advisory Committee, the Federal 
Interagency Partnership, interagency watershed assessments, the Forest 
Health Consensus Group, and collaborative efforts with the Washoe 
Tribe.
    Question. I am currently writing a bill that would authorize $30 
million annually over 10 years to improve water quality and reduce the 
risk of catastrophic wildfire at Lake Tahoe. Will the Administration 
support this bill as a way to protect and restore one of America's most 
special places?
    Answer. The Administration remains committed to restoring and 
maintaining the health of Lake Tahoe's ecosystems while providing high 
quality recreational experiences. We would carefully consider any 
legislation that achieves the Administration's environmental protection 
goals for Lake Tahoe.
    Question. How did the Forest Service decide on the five areas of 
emphasis for the Sierra Nevada Conservation Framework Environmental 
Impact Statement?
    Answer. Initially, a number of concerns were identified in the 
Sierra Nevada Science Review by a team of scientists building on 
previous works, such as the Sierra Nevada Ecosystem Project report of 
1996. In the Science Review, a set of conservation priorities were 
determined from these concerns using a set of screening criteria (new 
information, broad-scale concerns, urgency for attention, ability to 
affect through national forest management, and problems that were not 
well addressed elsewhere). This set was refined and adjusted, taking 
into consideration public comment and other factors, resulting in the 
five emphasis areas.
    Question. What was the impetus for launching the Conservation 
Framework project?
    Answer. The Framework was a response to concerns on two levels. On 
a broader Sierra- wide level, a variety of recent efforts (most notably 
the 1996 Sierra Nevada Ecosystem Project report), reinforced the 
conclusion that because the Sierra Nevada's problems were complex, 
interrelated, and multi-jurisdictional, they demanded an exceptionally 
high level of cooperation and collaboration among a broad spectrum of 
interests if they were to be addressed effectively. A primary goal of 
the Framework is to work toward that higher level of collaboration. At 
the same time it was also recognized that the Land Management Plans for 
the national forests across the Sierra needed to be updated in light of 
new information and to improve consistency of management. The current 
EIS portion of the Framework effort is aimed at meeting this need.

                          subcommittee recess

    Senator Gorton. I thank you very much. The subcommittee 
will stand in recess until 9:30 a.m., Thursday, April 22, when 
we will receive testimony from the Honorable Bruce Babbitt, 
Secretary of the Interior.
    [Whereupon, at 11:57 a.m., Thursday, April 15, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
April 22.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              


                        THURSDAY, APRIL 22, 1999

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:33 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Cochran, Domenici, 
Burns, Campbell, and Byrd.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. BRUCE BABBITT, SECRETARY OF THE 
            INTERIOR

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. Mr. Secretary, welcome to your fifth 
appearance before this subcommittee and in support of the 
Department of Interior's budget request. It is a very real 
pleasure to see you here again.
    The fiscal year 2000 budget request for the Department of 
the Interior can only be classified as generous. The request is 
more than $7.75 billion for departmental agencies under this 
subcommittee's jurisdiction, an increase of 11 percent. The 
increase would put funding for Interior programs fully $1 
billion over the fiscal year 1998 enacted level.
    Mr. Secretary, there are a large number of programs under 
the Department's jurisdiction that I would be happy to see 
receive increases, but the sheer magnitude of the Department's 
request, the number of new programs it contains, and the nature 
of the broader budget in which the request is contained make it 
difficult to take it seriously.
    Lest anyone in this room need reminding, we are still 
functioning under the statutory spending caps passed by the 
Congress and signed into law by President Clinton in 1997. The 
President's fiscal year 2000 budget employs a variety of new 
taxes, fees, and accounting gimmicks to reach a total 
discretionary spending level at least $25 billion above the 
statutory discretionary cap for the year 2000.
    Few of the proposals that generate this $25 billion in 
additional spending will be enacted in this Congress, and 
virtually none of that amount is likely to be available to the 
Appropriations Committee when it begins marking up fiscal year 
2000 spending bills.
    Indeed, this subcommittee is still waiting for the Forest 
Service to submit legislative proposals for which the 
President's budget claims some $111 million worth of savings. I 
do not think we will ever see the proposals. In any case, the 
subcommittee will be fortunate to so much as maintain fiscal 
year 1999 funding levels, much less receive a $760 million 
increase.
    Many have speculated that spending caps will be raised this 
summer. This may or may not happen. But to the extent that the 
caps are raised, there are any number of program areas that 
will compete for these additional funds. Just 2 or 3 weeks ago 
we would have talked about education, defense, health care, and 
the like.
    Now the list is about to be overwhelmed by the war in 
Kosovo, which in the view of the chairman is going to have a 
seriously adverse impact on discretionary spending for other 
programs. I cannot imagine that this Congress is going to 
follow President Johnson's example of attempting to finance 
both guns and butter at the same time.
    I make this point, Mr. Secretary, in the hope that you will 
share with us today some of your priorities that will help us 
make the difficult decisions that lie ahead at least a little 
bit less difficult. Is continuing to fund the basic operation 
needs of your agencies the number one priority or are you 
willing to take reductions in existing functions to fund some 
of the new programs that are proposed?
    I hope you will take this remark as a compliment and not a 
criticism, but it is not clear that you had to make any of 
these difficult choices in developing your budget request. It 
looks as though you got just about everything that you asked 
for.
    That said, Mr. Secretary, we look forward to hearing from 
you today. A full text of your statement will be included in 
the record so that you can summarize your opening remarks and 
leave that much more time for questions.
    And with that, for opening statements I will of course turn 
to my friend and ranking Democratic member, Senator Byrd.

              Opening statement of Senator Robert C. Byrd

    Senator Byrd. Thank you, Mr. Chairman.
    Mr. Secretary, the fiscal year 2000 budget request for the 
Department funded by this subcommittee is $759 million more 
than was appropriated for the current fiscal year. This 
represents an 11 percent increase in funding, as has been 
pointed out by our distinguished chairman, from $7.01 billion 
appropriated for fiscal year 1999 to $7.77 billion requested 
for fiscal year 2000.
    We look forward to your testimony today in support of your 
budget. The Committee on Appropriations' overall funding level 
is $536 billion in budget authority, which according to the CBO 
is $10 billion below a freeze.
    While it is unlikely that the budget allocation for this 
subcommittee will allow for an increase in your budget, much 
less one of the magnitude proposed in the President's request. 
I assure you that Chairman Gorton and I, insofar as I am able 
to do so as the minority member, will do the best that we can 
to secure an allocation for this subcommittee sufficient to 
fund the highest program priorities in your Department.
    I applaud your persuasiveness in achieving an 11 percent 
increase for your programs in the President's budget. However, 
such eloquence in support of program increases will come to 
naught in Congress without a higher allocation than is 
expected.
    The Interior Appropriations Subcommittee expects to have to 
craft a spending bill for fiscal year 2000 that has a tightly 
constrained bottom line and your help, Mr. Secretary, in 
identifying spending priorities at lower funding levels than 
included in the President's request will be appreciated.
    Thank you.
    Senator Gorton. Senator Campbell.
    Senator Campbell. Mr. Chairman, I think since I have a 
conflict I will just go when I have the time to ask the 
Secretary some questions.
    Senator Gorton. OK. Senator Burns.

                           Prepared statement

    Senator Burns. I have a written statement too, Mr. 
Chairman. Thank you.
    To alert the Secretary, we will be dwelling on George W. 
Beaver and a little coal in southeastern Montana.
    Thank you.
    [The statement follows:]
               Prepared Statement of Senator Conrad Burns
    Mr. Chairman, thank you for the opportunity to address the 
committee this morning. I appreciate having the opportunity to spend 
another morning with Secretary Babbitt.
    As you well know, we continue to have a number of disagreements 
with how the agencies under Secretary Babbitt's control are being 
managed. It is no coincidence that Montana's per capita income has 
plummeted in relation to the rest of the country while the Clinton 
Administration has waged war on Montana's industries. In the western 
portion of the state our logging industry has been virtually shut down 
by the actions of the agencies under the control of the man sitting 
before us.
    I receive reams of letters asking why Congress has not done 
anything to rein in the Department of the Interior and the U.S. Forest 
Service, but every time we try to do anything President Clinton forces 
a government shut-down. The administration continues to more forward 
with an arrogance rarely witnessed in public service. After expressing 
our concern in past exchanges with Secretary Babbitt, the situation 
only seems to worsen. Recent decisions by his employees have ominous 
implications for the future of the West.
    One recent decision, the Leshy decision on the Crown Jewel mine 
application, will make mining a thing of the past in the United States. 
No one knows what the impact will be on a global basis, but those of us 
from mining states know that it means the death of many of our 
communities. Add to this a roadless moratorium that is killing the 
timber industry, wolf reintroductions that are crippling the livestock 
industry, Endangered Species Listings that make farming almost 
impossible, and you begin to see a picture that is extremely bleak for 
those of us trying to make an honest living off the land.
    Everyone sitting here that has heard me in prior committee hearings 
with Bruce has already heard the tune I am singing. Let me add some new 
comments. Let's talk about our Tidal Basin Beaver. You all know the 
beaver that I am talking about. The beaver that chopped down the cherry 
tree. We'll call him George W. Beaver. The National Park Service says 
the Tidal Basin is prime beaver habitat. Well, then why did we move 
George and his family out? Because it was inconvenient. If we tried to 
do that in the West, Bruce Babbitt and his disciples would have run us 
up a flag pole first, and sued us second. They would have asked for an 
Environmental Impact Statement. They would have asked us why we had the 
audacity to move an animal out of its habitat. But here, in mighty 
Washington, D.C. we don't have to abide by those rules. Those are just 
for the little people out in Montana who don't know any better.
    Another example is the proposed rebuilding of the Wilson Bridge. 
Seems we are a little behind in the environmental assessments necessary 
to make the project fly. The answer some people are coming up with is 
that we need to pass legislation to exempt them from complying with all 
the laws so the project will stay on schedule. Forget it. Learn to live 
by the rules you have subjected to rest of us to. We miss deadlines 
everyday because of your laws, now join us in mutual frustration. Maybe 
you will begin to see just how ludicrous the system has become. I hope 
we find an endangered species right where you plan to put your on-ramp. 
Maybe we will finally see some action on Endangered Species Act reform 
if the commute to Washington is disrupted over a subspecies of beetles.
    Mr. Chairman, I hope you sense my frustration. Secretary Babbitt 
and his agencies are real good at telling us what to do and then 
turning a deaf ear when problems arise. We have asked him to listen 
since he first sat in front of us. He continues to refuse to act on our 
problems, and when the same laws affect urban areas a loophole is 
always discovered. It's too bad small, independent logging companies 
aren't offered the same loopholes. It is time to send a message to 
Secretary Babbitt. If you keep ignoring us, we are going to hit you 
where it hurts. In the budget. I don't care if you want to grandstand, 
but something has got to change. The lives of too many Montanans are 
being ruined by the actions of our land management agencies.

                Summary statement of Hon. Bruce Babbitt

    Senator Gorton. All right. We get to you pretty rapidly, 
Mr. Secretary. There seems to be a great deal of anticipation.
    Secretary Babbitt. Mr. Chairman, with those overwhelmingly 
positive and generous remarks from all members of the 
committee, let me see if I may briefly respond.
    The President's budget includes a nearly 11 percent 
increase. Now, the question you posed is what is it and what 
kinds of offsets and reductions would we propose in an 
alternative scenario. I would remind the committee respectfully 
that of the budget of this Department 80 percent is in fixed 
personnel costs and overhead. Eighty percent.
    The numbers of employees in the Department, from the peak 
when I first came before this committee in 1993, have been 
reduced by 12,000. That is about 15 percent. There is nothing 
left in that. We have cleared out the Washington office. We 
have flattened our organizational structures and taken really 
extreme steps.
    This year's budget does have a personnel increase in it, 
which accounts for a modest piece of that $759 million. The 
increase in personnel that is proposed would bring our 
personnel levels back to the level of 1986, 14 years ago.
    I respectfully suggest that our responsibilities in terms 
of the national parks, visitors, public lands, the 
administration of the Endangered Species Act, mineral leasing 
are self-explanatory in terms of our needs. We cannot scale 
back personnel. We simply cannot. It would be short-sided, 
counterproductive, and I think indefensible for me to advocate 
that.
    So that takes us, it seems to me, to what are the increases 
in the President's budget. I would like to mention two. The 
first one you are all familiar with. It is the Lands Legacy 
Program. Now, I confess paternity as to this program.
    It is our feeling, and has been and was last summer, that 
this Congress and this Government should attempt to go back and 
capture the intent of the original land and water conservation 
legislation that was passed these many years ago. The idea 
being, as I understand it, that $900 million of Federal 
receipts from the expansion of off-shore oil production would 
be made available on an annual basis for, in the broadest 
sense, mitigation, a sense of protection and acquisition of 
important natural resources.
    As we all know, that promise has--implied promise at the 
very least--has never really been fulfilled. That is very 
simply what is behind the President's proposal for a Lands 
Legacy Program of $1 billion a year to be set up on a permanent 
funding basis, with approximately 50 percent of that revenue to 
be subverted or granted directly to the States for important 
preservation projects such as the northern forests in New 
England and a whole variety of other really very urgent State 
conservation issues.
    Within that $1 billion Lands Legacy Program, in terms of 
increases in our budget, I think there are approximately $350 
to $400 million. So in terms of the requested increase in our 
budget, half of it is the Interior share of the Lands Legacy 
Program.
    There is one other item in the budget that I must 
inevitably single out which accounts for a substantial amount, 
and that is a $50 million increase in the Indian Trust Funds 
administration.
    I do not propose to go into the full history of Indian 
Trust Fund administration, which originated--the roots go a 
long way back. The issues originated on March 3, 1849. We are 
dealing, I think, with the help of Congress, up front and 
forthrightly with a massive attempt to try to sort this thing 
out.
    Not withstanding the occasional admonitions from various 
quarters around this town and the press reports, we are making 
strong, significant progress. I would be happy to elaborate on 
that, but I----
    Senator Gorton. That was the subject of a previous hearing.
    Secretary Babbitt. OK. The important thing is that in order 
to meet the court deadlines, the court mandates, and to keep 
this on track, we really must find some way to have that 
additional $50 million.
    Perhaps I should stop right there. I would simply say that 
generally I think things are moving along well. Our Y2K 
compliance is 100 percent. We have all of our systems up. They 
have been tested by outside advisers in a redundant manner. 
They are up and ready to go.
    This past year we have had clean audits Department-wide for 
the second consecutive year. We are making excellent progress 
in the Everglades. It is a large item in this budget this year. 
There is a GAO report out. I believe, again, that would be the 
subject of a separate hearing.

                           prepared statement

    I just want to say that I think the GAO report is helpful 
and that the suggestions contained in it are issues that need 
attention, particularly in terms of the long-range direction 
and governance of this project after the Congress gets the 
Corps of Engineers restudy this summer.
    Mr. Chairman, perhaps I should stop right there and submit 
myself to your tender mercies.
    [The statement follows:]
                  Prepared Statement of Bruce Babbitt
    I am pleased to appear before the Subcommittee on Interior and 
Related Agencies to present the fiscal year 2000 budget for the 
Department of the Interior.
    The 2000 budget is a landmark budget because it will be the first 
budget of the new century, and because it is a bold and forward looking 
statement by the President of the importance of resource and Indian 
trust stewardship. Focused around the theme, ``Guardians of the Past; 
Stewards for the Future,'' the 2000 budget will allow us to make 
important investments in land and resources, and to meet our 
responsibilities to Tribes.
    As we approach the 150th anniversary of the creation of the 
Department of the Interior, this budget gives us cause for optimism and 
sets a new direction for the next 150 years. Since I became Secretary 
in 1993, this Department has aggressively streamlined operational 
programs and processes to improve efficiency and the delivery of 
services to the public. As a result, we are more unified, more clear in 
our purpose and mission, and are well-positioned to undertake the 
challenges of the next century.
    The Department's activities are a part of the day-to-day lives of 
all Americans and touch on all aspects of the economic and cultural 
life of this Nation. Every year 379 million people, more than the 
population of the United States, visit our National Parks, National 
Wildlife Refuges and public lands. The 445 million acres of lands that 
this Department manages are a source of meaningful outdoor and 
educational experiences for these visitors. In addition, we supply 
water to approximately 31 million people throughout the west and 
provide services and support for self-determination to 1.2 million 
American Indians and Alaska Natives.
    This broad mandate for the Department of the Interior had its 
genesis with the creation of the Home Department, which was established 
in March 1849 to house agencies concerned with the management of 
domestic issues. Since that time, the mission of the Department has 
been shaped by the changing needs of the American people, evolving from 
the Home Department of the 19th century, through the bygone eras of 
great westward expansion, the conservation age at the beginning of the 
20th century, the Great Depression and Civilian Conservation Corps 
years, and the post World War II baby boom. Today the principal mission 
of the Department is the conservation and management of natural and 
cultural resources, the protection and encouragement of Indian self-
determination, and the fulfillment of Federal trust responsibilities to 
American Indians.
    Driven by the strong, continuous growth of the economy and the 
public's appetite for outdoor recreation and outdoor experiences, the 
Department has evolved new approaches that consider the twin goals of 
growing the economy and protecting and restoring the Nation's natural 
and cultural resources. We have made great strides in recent years by 
embarking on the restoration of precious ecosystems in a way that 
enriches neighboring communities, resulting in the following success 
stories:
  --in South Florida we are working in partnership with the State and 
        others to restore the Everglades, recreating the 17,000 square 
        mile sea of grass;
  --we continue our work with States, Tribes, communities, and private 
        landowners to implement new, innovative approaches to the 
        Endangered Species Act. For the first time in 60 years we have 
        healthy, reproductive populations of gray wolves in Yellowstone 
        National Park;
  --we are embarking on the fifth year of Forest Plan implementation, 
        demonstrating how cooperative partnerships between Federal 
        agencies and local interests can effectively promote wise land 
        stewardship; and
  --in partnership with the State of California, we completed the 
        purchase of the 7,400-acre Headwaters ancient redwood forest, 
        the largest stand of privately-owned ancient redwoods in the 
        country.
    In addition, the Department has developed five-year plans for 
maintenance and construction to improve management and accountability 
for the Department's infrastructure and to focus funding on the highest 
priority health and safety and resource protection needs. We are proud 
of these accomplishments and appreciate the Subcommittee's support of 
these efforts.
                            budget overview
    The 2000 budget requests $8.7 billion in funds subject to annual 
appropriation. This request is fully funded within the President's 
balanced budget and includes an increase of $832 million, or 11 
percent, over 1999 funding levels. An estimated $2.2 billion will be 
provided in permanent appropriations.
    For Department programs under the jurisdiction of theSubcommittee, 
the request for annual appropriations is $7.8 billion for 2000. This is 
an increase of $717 million in current budget authority from total 
appropriations provided in the 1999 Interior and Related Agencies 
Appropriations Act.
    Within this increase, $139 million or 18 percent of the increase is 
requested for uncontrollable cost increases in order to continue 
Departmental programs at current operational levels in 2000. The 
budget:
  --proposes funding for the President's Lands Legacy Initiative, to 
        protect America's land resources and establish a new 
        partnership with States, Tribes and local governments;
  --provides resources for broad-based restoration efforts including 
        public lands restoration and science tools to support these 
        efforts, continuation of our successful ecosystem restoration 
        efforts, restoration of species and cultural resources, and 
        facilities repair and rehabilitation; and
  --requests funding to continue to improve life in Indian Country 
        through enhanced education programs, school construction, law 
        enforcement, Tribal buffalo programs, and aggressive efforts to 
        resolve trust management problems.
    The level of staffing proposed for 2000 is comparable with 
employment levels in the Department in 1987. The 2000 budget proposes 
to increase staffing by only two percent, as compared to the increased 
funding request of 11 percent. The Department will continue to operate 
efficiently, having taken an aggressive approach to streamlining, 
reducing headquarters staffs and management layers, reengineering 
processes, and improving the efficiency and effectiveness of our 
program delivery at the field level. Between the period 1993-1997, 
staffing was reduced by 15 percent. The new staff we are requesting for 
2000 will focus on direct service to the public and on-the-ground 
restoration.
                              lands legacy
    At the start of the century, President Theodore Roosevelt called on 
Americans to save the best of our natural endowment for all time. His 
legacy is seen across the country in parks, forests, and wildlife 
refuges. President Clinton's Lands Legacy Initiative renews America's 
commitment to its natural environment. This 2000 budget proposal 
provides significant new resources to protect local green spaces and 
increases protection for our oceans and coasts. It recognizes that 
carrying out this commitment must include not only resources for 
Federal land acquisition, but also resources directed to States, local 
communities, and Tribes to address their local needs in their own ways. 
The interagency Lands Legacy Initiative provides roughly equal amounts 
of funding for Federal land acquisition and funds to States, local 
communities, and Tribes for acquisition and other conservation 
purposes. The initiative includes $900 million from the Land and Water 
Conservation Fund (LWCF), marking the first time any Administration has 
requested the full $900 million authorized to be deposited in LWCF in 
its annual budget. The initiative includes $579 million for Department 
of the Interior programs, which is an increase of $84.5 million from 
the 1999 level.
    The Lands Legacy Initiative includes $295 million for Federal land 
acquisition by Interior, an increase of $84.5 million over current year 
levels. With this infusion of funding, we have an opportunity to 
preserve aspects of our natural and cultural legacy for all time. Our 
efforts will focus particularly on five major areas, including the 
California Desert, Civil War Battlefields, the Lewis and Clark Trail, 
refuges in the Northern Forest, and the Everglades. Funding for these 
five areas totals $163.7 million. An additional $130.3 million is 
requested for land acquisition in other areas to protect priority 
natural and cultural resources, like the addition of 31 acres at 
Florida's Pelican Island National Wildlife Refuge, established as the 
first refuge by President Theodore Roosevelt in 1903.
    A total of $80 million, an increase of $66 million, will allow 
States and localities to continue to grow while conserving and 
recovering imperiled species. Funding will be provided to States and 
local communities for habitat conservation planning and land 
acquisition, candidate conservation agreements, Safe Harbor Agreements, 
and other collaborative strategies to help communities deal with the 
pressures of economic growth in a context of declining habitat. This 
proposal is a win-win approach to species protection, as it will 
provide incentives for landowners to protect plants and wildlife on 
their property and will accelerate the States' ability to restore 
declining species in time to keep them off the endangered species list.
    The Lands Legacy Initiative includes $150 million for a LWCF 
competitive grants program that will assist States, local communities, 
and Tribes to preserve green space. This is an opportunity for us to 
establish new partnerships with States, Tribes, and local governments 
to enrich our cities, towns, and suburbs. In America today there is a 
resurgent sense of the need to preserve open space and the quality of 
life in our communities, and this program can provide dramatic results 
by leveraging Federal funds with non-Federal sources. This proposal 
will allow us to work with the Congress on framing a viable program 
that will result in increased open spaces, greenways, and other areas 
for outdoor recreation, urban parks, wildlife habitat, and coastal 
wetlands.
    Open space protection is gaining momentum at State, regional, and 
local levels as a means to protect farmland, maintain natural 
surroundings, and combat sprawl. Across the country in ballot measures, 
the American people are supporting the need for local p lanning and 
protection that guides development and the establishment and protection 
of open space. The 2000 budget includes $50 million for matching grants 
to States and Indian Tribes to support open space planning. An 
additional $4 million is proposed for matching grants and technical 
assistance for the restoration of parks in economically distressed 
urban communities.
                               livability
    The Lands Legacy Program is complemented by a second Administration 
initiative, the Livability Agenda, which encompasses a broad array of 
issues that relate to quality of life, including transportation, safe 
streets and economic competitiveness. The Li vability Agenda proposes 
that the federal government work in partnership with local communities 
to protect green space for wildlife and recreation, ease traffic 
congestion, and pursue regional ``smart growth'' strategies.
    The President's fiscal year 2000 budget request to support major 
livability programs, includes $39.5 million for an interagency 
Community/Federal Information Partnership that will accomplish two 
primary objectives. First, approximately 60 percent of the funding will 
be available as competitive, matching grants to local, regional, and 
national non-Federal agencies and organizations to build local capacity 
to use GIS technology. Second, the remainder of the funding will be 
used to improve public access to geographic information residing in 
federal agencies. Six pilot projects have been launched and are 
designed to show how geospatial data and maps from various government 
agencies can help communities make sound decisions about local issues 
such as watershed and water quality management, disaster preparedness 
and recovery, and land use planning. The Department has a lead role in 
this partnership and under this program, USGS would receive $10 
million, and BLM, $2 million.
                              restoration
    At the turn of the century the concept of preservation was firmly 
adopted by the American public. Deeply rooted in the ideals of 
President Theodore Roosevelt, John Muir, and Aldo Leopold, preservation 
was the clarion call that created a national imperative to preserve 
wilderness, wild and scenic rivers, national parks, and wildlife 
refuges. These national treasures are an admirable and important legacy 
and we are the guardians of that legacy. Moving beyond our 
responsibilities for stewardship of these national treasures we have 
come to understand the importance of the entire landscape that extends 
outside the boundaries of our public lands.
    Migratory birds follow historic flyways in their routes from summer 
to wintering habitat that know no park, refuge, or other boundary. 
Salmon and trout move in rivers and streams in a natural rhythm that 
links to a world that existed before boundaries were established. To 
protect these wild stocks and heal the land, we have to understand that 
all the components of an ecosystem are interconnected. Cut too many 
trees in the headwaters of a stream, and you send a pulse of sediment 
into the current impacting aquatic life. Our role as guardians of the 
past and stewards for the future compels us to approach issues and 
identify solutions on a landscape scale. This budget proposes 
significant resources to restore public lands and work outside these 
boundaries in the restoration of fish, wildlife, and natural 
communities.
                          restoring ecosystems
    The President's Northwest Forest Summit in April, 1993 brought us a 
new vision for approaches that serve nature and the Nation's economic 
future. This vision recognizes that understanding landscapes as 
complex, living, and integrated systems can result in better ways of 
living on and prospering from the land, while protecting species and 
preserving nature's special places. Over the last six years the 
Administration has implemented three large scale restoration efforts 
that embrace this vision using new methods, partnerships, and renewed 
public participation. The 2000 budget includes $68.1 million for the 
Department to press ahead with implementation of the Northwest Forest 
Plan. The Department will also continue to lead the Administration's 
efforts to restore two priority watersheds, the Florida Everglades and 
California's Bay-Delta.
    Since 1993, when the South Florida Ecosystem Restoration Task Force 
was established, over $955 million in Federal funds and $1.5 billion in 
State funds have been directed to this project, which is the largest 
watershed restoration effort ever undertaken. We recently completed 
negotiations to acquire the 50,000 acre Talisman properties and have 
issued a draft multi-species recovery plan addressing the habitat and 
individual needs of 68 listed species. In 2000, the Department's 
request for Everglades restoration totals $151.5 million, an increase 
of $7.4 million over 1999, which will support park and refuge 
operations, hydrologic modeling, multi-species recovery, research, land 
acquisition, and construction of the Modified Water Delivery Project 
for Everglades National Park.
    The 2000 request for the Energy and Water Development bill also 
contains $75 million to continue implementation of the California Bay-
Delta ecosystem restoration program and $20 million to initiate high 
priority activities to address water use efficiency, water quality, and 
watershed management issues.
               restoring parks, refuges and public lands
    In NPS, FWS, BLM, and OSM increased funding is requested for 
operational programs in order to conduct restoration activities.
  --NPS is requesting an increase of $25 million for management of 
        natural resources which will accelerate efforts to acquire data 
        on natural resources, completing all natural resource 
        inventories in seven years. NPS will control 11,000 additional 
        acres of exotic species annually (a 43 percent increase) and 
        restore an additional 150 acres disturbed by mines, roads, and 
        other facilities that are no longer in use.
  --For FWS, an increase of $18.1 million will fund habitat restoration 
        projects on 200 refuges and eradication of invasive, nuisance 
        species on 48 refuges. Planned projects will restore historic 
        wetland habitat, endangered species habitat, and unique 
        ecosystems.
  --BLM will dedicate an increase of $10.9 million to rangeland 
        improvements and an aggressive weed control effort to sustain 
        productive landscapes.
  --OSM is requesting $25.3 million to increase by 15 percent the 
        reclamation of land damaged by past mining practices to 
        productive use and to restore water resources contaminated by 
        acid mine drainage.
    The wildland fire program will promote ecosystem health, while 
lowering the risk of severe fires and long-term suppression costs. In 
2000, the request of $350.9 million will allow us to treat more than 
one million acres of land and reduce hazardous fuel loads, a tripling 
of effort since this program began.
                                science
    In 1996, we consolidated the science and technology functions of 
Interior. As a result, the USGS is able to provide a full spectrum of 
scientific expertise to the Department, other agencies, and the public. 
This multi-disciplinary expertise is critical to the effectiveness of 
our land management and restoration programs supporting the development 
of advanced tools including modeling, decision support systems, and 
monitoring protocols. The 2000 budget includes $18.5 million in new 
funding to aggressively respond to the science needs of land management 
bureaus and provide the tools that are needed for wise stewardship of 
the landscape.
                           restoring species
    The near extinction of the buffalo and the extinction of the 
passenger pigeon at the end of the 19th century brought an end to the 
American myth of endless abundance. As President of the United States, 
Theodore Roosevelt created five national parks, four big game refuges, 
and 51 national bird reservations in order to preserve natural 
resources which were, in his view, an essential part of the American 
landscape and culture. As we approach the end of the 20th century, the 
importance of protecting and restoring ecosystems and individual 
species components of ecosystems is widely accepted. The Congress 
enacted landmark legislation including the Bald Eagle Protection Act, 
the Endangered Species Act, the Marine Mammal Protection Act, and the 
African Elephant Conservation Act in recognition of the importance of 
protecting and recovering individual species as components of healthy, 
viable ecosystems.
    Through partnerships with States, local communities, and non-profit 
groups, and expanded involvement with private landowners, the 
Department has been able to more effectively protect threatened and 
endangered species, while allowing economic development to proceed. The 
efforts of the FWS, Forest Service, and State of Nevada in the Spring 
Mountains exemplify our new approach to endangered species 
conservation. In these snow capped mountain ranges, these three 
agencies have come together to craft a conservation agreement that will 
safeguard 57 rare and sensitive species while accommodating the growing 
numbers of recreational visitors.
    The 2000 budget includes $115 million for FWS endangered species 
operations, an increase of $24.1 million to expand the use of 
innovative tools that protect species and permit sound economic 
development. In partnership with States, local communities, non-profit 
groups and private landowners, FWS will utilize candidate conservation 
agreements to keep species off the list of threatened and endangered 
species, expand habitat conservation planning to allow economic 
development to proceed while protecting species on private lands, 
continue the no-surprises policy to assure private landowners that 
agreements jointly negotiated will be honored, conduct streamlined 
consultations, and increase Safe Harbor Agreements to ensure that 
community and species goals can be met. This operational funding level 
is supported by the request of $80 million for the Cooperative 
Endangered Species Conservation Fund that I described earlier.
    More than 160 parks provide important, protected habitat to restore 
endangered species. At least 168 Federally-listed species occur on NPS 
lands and are the subject of over 2,000 recovery tasks assigned to the 
National Park Service. Recovery tasks include wolf re-introduction in 
Yellowstone National Park, control of exotic species in Hawaiian parks, 
and public education and law enforcement patrols for endangered species 
collectors. The 2000 budget includes $4 million for native and exotic 
species management which will, in part, address recovery of species 
including the Kemp's ridley turtle and the black-footed ferret which 
depend on the National Park System for their survival.
    In 1986 Congress enacted revisions to the Federal Power Act of 1920 
that changed the relicensing process for the nation's 2,600 privately-
owned hydroelectric dams. These changes required the consideration of 
fish and wildlife, energy conservation, and rec reational 
opportunities, and have led to modifications in dam operations to 
increase stream flows, installation of fish passage facilities, and 
protection of local riparian lands. We successfully demonstrated the 
success of modifying dam operations to restore habitat and recreational 
uses without negatively impacting power and water use with the flooding 
of Glen Canyon Dam in 1996. The 2000 budget requests $7.6 million to 
restore native fisheries including acceleration of hydropower 
relicensing review activities. Through a collaborative process with dam 
operators and other stakeholders, FWS will use a balanced approach to 
address fisheries needs while meeting needs for power, agriculture, and 
recreation. A companion request of $3.9 million will fund on-the-ground 
restoration projects to be matched by organizations such as Trout 
Unlimited and $1 million for the National Fish and Wildlife 
Foundation's efforts in fisheries restoration.
                 focus on emerging biological problems
    In 1915, the Sierra Nevada in California was filled with the sound 
of croaking frogs and toads. Biologists who surveyed the amphibians 
recorded one species, the western toad, as ``exceedingly abundant.'' 
When researchers revisited the study sites in 1995, they recorded only 
one adult western toad and a small group of tadpoles. Amphibians are 
the ``canary in the coal mine'' for ecosystems, letting us know with 
their disappearance that something is wrong. The 2000 Interior budget 
proposes to increase fundi ng by $8.1 million in order to investigate 
the causes for amphibian population declines.
    Called the ``rain forests of the sea,'' coral reefs are one of the 
most biologically complex and diverse ecosystems on earth, providing 
habitat for one-third of all marine fish species. In addition, coral 
reefs provide a protective barrier for shorelines and are crucial to 
the tourism industries of many States and territories. President 
Clinton recently signed an Executive Order establishing the U.S. Coral 
Reef Task Force to coordinate interagency efforts to protect and 
restore our coral reefs. The 2000 budget for Interior includes $7.2 
million for coral reef protection, management, and restoration.
    The geographic and ecological areas that encompass Alaska and 
Hawaii are unique and rich in natural resources. These areas share 
other common qualities in that they are remote and are home to species 
and habitats that are found nowhere else. In a focused program to 
address the unique problems and restoration challenges in Alaska and 
Hawaii, the Department is requesting $4.4 million to conduct natural 
resource protection and restoration activities, and expand public use 
and educational opportunities.
                      safe visits to public lands
    The Department manages an extensive infrastructure to meet the 
needs of 379 million visitors to national parks, national wildlife 
refuges, and other public lands. Well-maintained facilities are 
critical to the safe enjoyment of these visitors and to the safety of 
45,000 employees and 53,000 students attending BIA schools. In 1999 the 
Department proposed an aggressive Safe Visits to Public Lands 
Initiative to improve management and accountability for the 
Department's infrastructure and focus funding on highest priority 
health and safety and resource protection needs.
    The Department has developed a five-year plan that provides a 
framework for improved planning and management of maintenance and 
construction programs. The plan provides an improved understanding of 
the scope of deferred maintenance and a baseline to monitor progress 
toward correcting health and safety and resource deficiencies at 
Departmental facilities. In order to implement the plan, the 
Department's 2000 budget includes $910.1 million, including $555.8 
million in maintenance and $354.3 million in construction, an increase 
of $51.2 million, or six percent, over 1999.
    One final component of the restoration theme is the Save America's 
Treasures program. The Subcommittee worked with us last year to 
initiate a program that provides matching grants to public-private 
partnerships to preserve America's cultural treasures and increase 
opportunities for learning. The 2000 budget includes $30 million to 
continue this program. In addition, the 2000 budget includes $15 
million for badly needed repairs to preserve structures of great 
historic significance at historically black colleges and universities 
and $5 million to develop a national digital library of records of 
American achievements in history and arts and sciences.
               seven generations into the future and past
    When deliberating an issue, American Indians take into 
consideration lessons learned by past generations and the potential 
impact on future generations. This simple, yet sage approach provides 
an important framework for current policy decisions. The 2000 budget 
request for the Bureau of Indian Affairs is $1.9 billion, an increase 
of $155.6 million above the 1999 enacted level, providing increases for 
educational programs, school facility construction, law enforcement, 
natural resources management, and other priority funding needs.
    Throughout Indian Country, children are learning in schools that 
present serious health and safety threats. Many schools have leaky 
roofs, peeling paint, overcrowded classrooms, and inadequate heating 
and cooling systems that impede students' ability to learn. In spite of 
improved efficiencies, BIA's education repair needs are growing and now 
exceed $740 million. In 2000, the Administration is proposing a School 
Bonding Initiative that will provide $400 million in bonding issuance 
authority over two years. Tribal governments will be able to use this 
authority to issue bonds to investors who will receive tax credits for 
the life of the bond in lieu of interest. To help Tribes participate in 
this Initiative, $30 million is included in the BIA's 2000 budget 
request. The 2000 request also includes $75.9 million to replace Seba 
Dalkai School in Arizona and Fond Du Lac Ojibway School in Minnesota 
and to complete repair work at existing facilities.
    An Executive Order on American Indian and Alaska Native Education 
sets forth six goals to improve academic performance and reduce the 
dropout rate for Indian students, including improved reading and 
mathematics, increased school completion, improved science education, 
and expanded use of education technology. The 2000 budget for School 
Operations includes an investment of $503.6 million in support of these 
goals, to cover increased costs for teachers, transportation of 
children to schools, and expanded operations to respond to a growing 
student population. The budget also provides a $7.1 million increase 
for operating grants to 28 tribally controlled community colleges. 
These colleges are a critical component of efforts to help Native 
Americans secure professional employment and promote entrepreneurship 
on reservations.
    American Indians are victims of violent crimes at more than twice 
the rate of all U.S. residents, while tribal law enforcement receives 
only one-fourth the resources of comparable rural law enforcement 
agencies. In order to combat rising crime rates in Indian Country, a 
multi-year program was initiated in 1999, implementing a plan developed 
by Interior and the Department of Justice, in collaboration with tribal 
governments. The 1999 appropriation provided $20 million for BIA and 
$89 million in Justice grant funding to begin to improve tribal law 
enforcement programs. The 2000 budget includes $20 million increase for 
the second year of this initiative, which will allow BIA to increase 
the number of criminal investigators and uniformed police, upgrade 
radio systems, and strengthen detention center services. The Department 
of Justice is requesting $124.2 million in 2000 to strengthen law 
enforcement programs and direct funding to drug testing and treatment, 
juvenile justice, assistance to tribal courts, and detention center 
construction.
    A close spiritual and cultural connection exists among the buffalo, 
American Indians, and the ecosystem of the plains. For thousands of 
years the buffalo took care of Indian people, providing warmth, food, 
and a way of life. Tribes are reestablishing herds of buffalo, and over 
the last ten years have created hundreds of jobs by raising buffalo. To 
strengthen tribal efforts to bring back the buffalo, a $1 million 
increase is requested in the 2000 budget to be used to support tribal 
buffalo programs, rangeland management, and related economic and 
development efforts.
                  tribal trust management improvement
    One of the highest priorities of the Administration is to 
successfully resolve the Indian trust fund management problems that 
have accumulated over the last 70 years. I have committed to clean up 
this problem on my watch. Significant progress has already been 
achieved as the Office of the Special Trustee has initiated action to 
replace key systems for lease management, accounts receivable, land 
records, and trust resources management, and is installing an 
accounting system.
    The 2000 budget requests $100 million to continue the 
implementation of trust management improvements, which will provide an 
increase of $50.5 million for trust reform activities. The budget 
includes $10 million for continued implementation of the Indian Land 
Consolidation Project, which will commence on three reservations in 
1999. The 2000 budget increase of $5 million will allow the pilot 
program to be expanded to one more reservation in 2000. Beginning in 
2000 we will make a significant change in the budgetary classification 
of tribal trust funds, approximately $2.1 billion of tribal trust funds 
will be reclassified as non-budgetary, similar to the classification of 
individual Indian money accounts.
                               conclusion
    I believe that the 2000 budget for the Department of the Interior 
sets a bold, new direction for the new millennium and the next 150 
years of operation of this Department. I look forward to working with 
you on this budget and resolving the challenges that come our way 
throughout the year.
    This concludes my statement. I will be happy to answer any 
questions you may have.

    Senator Gorton. There is a vote on the floor of the Senate 
at 11:30, which is in effect the terminus of this hearing. As 
usual, with the large number of questions I have, I am going to 
defer my own until last. So for any other member who is still 
here, I am going to take the last part, so there should be some 
limitation.
    I am going to recognize Senator Byrd first for questions. I 
know my three Republican colleagues who are here now, each of 
them has one kind of priority or another. You were here in the 
order of Campbell, Burns, Domenici, but if you want to settle 
among you any different order of being recognized, you can do 
that in the next couple of minutes.
    With that, Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. I will operate on 
the 5 minute----
    Senator Gorton. That is awfully restrictive. I just ask you 
to--ask the members to be reasonable.
    Senator Byrd. Yes. OK. You are about the most sensible 
chairman I have seen around here in a long time. I find it kind 
of hard to confine myself to 5 minutes. [Laughter.]
    That is no reflection on the other chairmen. They are fine, 
too.

                               corridor h

    Mr. Secretary, you are one of my favorites, too.
    Let us talk about Corridor H. Mr. Secretary, would you 
report on the status of the Keeper's response to West Virginia 
on determination of eligibility for Corridor H?
    Secretary Babbitt. Senator, as the subcommittee may know, 
having been summoned to your office and horsewhipped in, I 
might say, appropriate fashion some months ago, I responded by 
making a trip to Charleston to meet with the Governor of West 
Virginia, summoned in the Keeper, and have paid close attention 
to this issue.
    I think we are making progress. On April 16 the Park 
Service completed its evaluation of the two requests that were 
submitted back in March by the Federal Highway Administration. 
The Park Service completed its evaluation and at this time 
there are no requests for determinations of eligibility pending 
before the Keeper. We have that part of this problem, I 
believe, taken care of.
    Senator Byrd. Let me compliment you on the attention that 
you have given to this matter and on the suggestions that you 
have made. I think you have been very helpful.
    For this Corridor H package, did the Keeper withhold any 
final action pending receipt of additional information or 
overturn any of the eligibility determinations made by the 
State?
    Secretary Babbitt. Senator, I believe of the 33 properties 
that were submitted, there were three where there was 
insufficient information. The Keeper, I think, on those has 
asked the Federal Highway Administration to provide the 
material. I think that no eligibility determinations were 
overturned, because one small boundary change and this 
remaining information, I believe, is the one additional thing 
that we need to dispense with. Actually, there are a couple of 
those.

                        keeper responsibilities

    Senator Byrd. What additional responsibilities does the 
Office of the Keeper have with regard to completing Corridor H?
    Secretary Babbitt. Well, first, the Keeper needs to 
complete the final action on those three properties once we get 
the information from the Federal Highway Administration. I 
believe the Highway Administration will also be submitting a 
request for determination of eligibility for the Coketon area, 
which the FHA, I think, has said they will submit in the next 2 
weeks.
    Once these evaluations are completed, the Keeper's role in 
Corridor H will terminate.
    Senator Byrd. Once the State has submitted the additional 
material as requested by the Keeper for the three items 
included in the March 8 package, how long will it take the 
Keeper to rule on those three items?
    Secretary Babbitt. Senator, the Keeper, under the 
regulations, is required to respond within 45 days from the 
date of receipt of that material by the Keeper.
    In this case, I think the review period is going to be 
shorter, basically because the Keeper is essentially familiar 
with the properties in question. They have not yet seen the 
documentation for Coketon, and that will require perhaps a 
little more detailed review. But as a result of our little 
session some months ago, I believe that the Keeper understands 
that the deadlines will be met with no exceptions.
    Senator Byrd. I remain unconvinced that the Keeper should 
have the power to overturn decisions of the State in 
determinations of eligibility. If the State has an approved 
historic preservation program and the State historic 
preservation officer rules in agreement with the appropriate 
Federal agency that a particular property is or is not eligible 
for inclusion in the National Register, then the Keeper's 
review and ruling appear to be superfluous and wasteful.
    It seems to me that this is another case where the Federal 
Government is abrogating State rights and responsibilities and 
bogging down the process in additional red tape and costing the 
taxpayers additional dollars.
    Our discussions on this matter, Mr. Secretary, over the 
past several years have focused on the need for speeding up the 
process of making determinations of eligibility. I realize that 
the process is to a certain extent dictated by regulation and 
that to change regulations is a time consuming process itself.
    In your reply of February 9 of this year to my letter of 
October 22 of last year you indicated an additional position 
would be delegated to making determinations of eligibility, for 
which I thank you, but that other ways of expediting the 
process were either not possible or practical.
    Would you please provide for the record a table showing the 
number of determinations of eligibility that were made by the 
Keeper for each of the past 5 years, the number of 
determinations of eligibility that were eligible for an 
expedited review under current regulations, and the number of 
expedited reviews conducted by the Keeper?
    Secretary Babbitt. Senator, I would be happy to do that.
    [The information follows:]
  Determinations of Eligibility by the National Register of Historic 
                                 Places
                     determinations of eligibility
    The National Register of Historic Places made determinations of 
eligibility on 1,013 properties during fiscal years 1994 through 1998 
in response to requests from Federal agencies. This total is displayed 
by fiscal year as follows:

                                                       Determinations of
        Fiscal year                                          eligibility
1994..............................................................   104
1995..............................................................    89
1996..............................................................    43
1997..............................................................   164
1998..............................................................   613

                            expedited review
    National Park Service regulations (36 CFR 63.3) provide that when 
agencies and State Historic Preservation Officers ``agree that the 
property is eligible for inclusion in the National Register,'' the 
Keeper of the National Register shall make determinations of 
eligibility within 10 working days of receipt of the request. All other 
properties are evaluated within 45 days of receiving adequate 
documentation.
    The NPS cannot provide the total number of determinations of 
eligibility that were eligible for an expedited review, or the number 
of expedited reviews conducted during the last five years. The National 
Register Information System (NRIS) database cannot currently identify 
10-working-day determinations of eligibility or properties that SHPOs 
and Federal agencies agree are eligible. In conjunction with work to 
update the NRIS and make it Y2K-compliant, however, the NPS will be 
able to report on these determinations in the future.

                     determinations of Eligibility

    Senator Byrd. Making accurate and efficient determinations 
of eligibility is absolutely critical to moving forward on many 
State and Federal projects, not just in West Virginia but all 
across our land, and yet it is clear from the budget 
justification for the National Park Service that making 
determinations of eligibility is not a priority of the National 
Register Program.
    The listed priorities are, and I quote, ``improving public 
access to the National Register, expanding and improving the 
data in the National Register database, and improving the 
archiving of records.''
    Given the ramifications and costs to the taxpayer 
associated with delays in eligibility determinations, why are 
these determinations not being given the highest priority of 
the National Register Program?
    Secretary Babbitt. Senator, the National Register was set 
up in a rather complex and information intensive process. As 
these properties come up they are identified through the 
eligibility process. The most important part of this is the 
mandatory review period that applies to nominations and 
determination of eligibility.
    I cannot change that. But I do believe that your question 
about resources is warranted and that we have learned from this 
process. I think it is important that we try to make certain 
that we are devoting the resources necessary to get this done. 
I cannot justify the delays that have occurred in the past.
    Senator Byrd. Very well. Mr. Chairman, I have one more 
question, if I may proceed with that one.
    Senator Gorton. Go ahead.

           Role of Advisory Council for Historic Preservation

    Senator Byrd. Mr. Secretary, I understand that you also 
serve on the Advisory Council for Historic Preservation. The 
State of West Virginia has indicated recently its growing 
concerns with this council's impact rulings on Corridor H. What 
is your opinion as to the role of this council in completing 
Corridor H?
    Secretary Babbitt. Senator, I think the bottom line is that 
the council does not have statutory authority to impact or 
delay projects. I acknowledge that litigants frequently use the 
council's opinions in litigation. That is a statutory reality.
    I think the original purpose of this council was to try to 
facilitate, kind of move in and give technical assistance and 
facilitate. I am not sure that has always worked out that way. 
I would certainly be ready and willing to, on behalf of the 
Department, review any concerns that could be addressed either 
through regulation or statutory changes.
    Senator Byrd. Very well. Thank you very much, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Campbell.
    Senator Campbell. Mr. Chairman, Senator Domenici has to--he 
has another very tight commitment.
    Did you want to ask a question before I go on?
    Senator Domenici. I would really ask if I could ask two 
questions. I have to preside at a committee hearing at 10:00 
o'clock, and I will be a little late to that.
    Senator Gorton. Fine, fine. Go ahead.
    Senator Domenici. Thank you.

                           new mexico drought

    Mr. Secretary, I am going to submit some questions to you 
with reference to the drought in the State of New Mexico, which 
will essentially be asking you if you can make sure there is a 
coordination of all of the Federal agencies, some under you, as 
to what might be done.
    We are--we are clearly--I do not know if you know this, but 
we are destined this year to have the worst drought we have 
ever had. Our rivers are going to run dry, and a lot of things 
are going to happen that are very, very bad. I will ask you 
about that in detail.
    But now I want to raise an issue that is related to the 
drought and share it with you with reference to the Endangered 
Species Law, and I think you are aware of this.
    Mr. Secretary, New Mexico, like Arizona, is a very arid 
State. Folks here in the Beltway are primarily unaware of the 
critical needs for water out there in the West. We are very 
grateful that you come from out there and you know about these 
needs.
    With the lack of snow pack and precipitation in New Mexico, 
we are going to have a drought. In fact, parts of the Rio 
Grande River which you are familiar with, which historically 
has gone dry at various times, may dry up as early as this 
week, believe it or not.

                     endangered species water needs

    The traditional stresses of water users are only made more 
difficult by litigation regarding the needs for the silver 
minnow endangered species. A recent notice of intent to sue by 
the Forest Guardians and others--that is an entity in New 
Mexico--threatened to force the release of stored water in any 
of Heron, El Vado, Abiquiu, and Cochiti Reservoirs to 
maintain--quote, ``to maintain the riparian habitat necessarily 
for the survival,'' of the silver minnow and the willow 
flycatcher.
    I am concerned about water necessary for the survival of 
New Mexico, our cities which use that water, our irrigators 
which have--as you know, under our water system, they have 
primacy as per the time they applied it to the ground, and they 
own much of that water.
    In the lawsuit which sought to force immediate critical 
habitat designation, you, as the Secretary of Interior, in the 
lawsuit which I will make available to you, you argued that the 
Department did not have the data necessary to determine water 
amounts needed for the fish.
    Fish and Wildlife Service Director Rappaport-Clark stated 
in an affidavit that: The Service must comply with NEPA 
requirements and perform an economical analysis of the impacts. 
The EIS would likely be needed which would require more time 
for the habitat designation. The Environmental--the ESA 
requires that the Service, when designating critical habitat, 
take into consideration the economic impacts of specifying any 
particular area as critical.
    I wonder if you would share with the committee, as soon as 
you can, answers to the following questions, and if you could 
answer them right now, it would be very helpful.
    Secretary Babbitt. I would be happy to. I would be happy 
to.
    Senator Domenici. Without scientific data available for the 
minnow, water needs, nor reliable economic analysis, will not 
the Department need additional time to follow through and find 
out what the needs are? You have stated that in the lawsuit, 
but would you tell the committee if that is the case?
    Secretary Babbitt. Well, Senator, if I may----
    Senator Domenici. Please.
    Secretary Babbitt [continuing]. I would like to step back 
and frame this issue and then specifically answer your 
question.
    Senator Domenici. Sure.
    Secretary Babbitt. Senator, I do not think it is any secret 
that we have not had much luck in our relationship in finding 
common ground in New Mexico.
    Senator Domenici. No.
    Secretary Babbitt. But this is another tough problem being 
served up, and let me just say that notwithstanding our 
failures in the past, I intend to do everything I can to see if 
we can work our way through this.
    Now, let me say this also: I believe that our failure to 
work out a reasonable relationship is in some ways due to the 
underlying fact that in New Mexico, more than any other western 
State, including Alaska, Colorado, Montana and Washington, 
these issues are characterized by intransigence on both sides.
    I have never worked in an environment in which the natural 
resource users have been so rigid and inflexible; and I would 
say exactly the same thing of the environmental groups. Now, it 
is in that context that we must deal with this problem.

              mandated use of critical habitat designation

    I have voiced my concerns about the way that we are 
mandated to use the designation of critical habitat under the 
Endangered Species Act. It does not work. It does not produce 
good results. It should be modified, because the courts are 
driving us to front-end determinations which, more properly, 
should be incorporated in recovery plans at the back end when 
we, in fact, have the information.
    Now, the courts have laid out a set of case decisions here 
that have put us in a straitjacket. They are not going to give 
us the kind of time we need because the act does not allow it. 
So that is just the bottom line.
    Do we need more time? Yes. But the Endangered Species Act 
does not give it to us. The courts do not give it to us. We are 
going to proceed with declaring critical habitat. I would 
prefer not to. It is not productive. It is incendiary, and it 
will be in this case.
    Now, finally, let me say, and then I will back off, that I 
believe that there are solutions available here. It is going to 
take some movement by those middle ground irrigation districts. 
They do not have a reputation for water use efficiency. There 
are many ways, I believe, that we could work something out. 
They have not shown the flexibility that we have found in other 
places, like in Eastern Washington, in Colorado, and elsewhere.
    The environmentalists may, in fact, be making--not ``may, 
in fact,'' but are, in fact, making some unreasonable demands 
about their version of what the hydrology of the Rio Grande 
Valley ought to be like.
    I would like to continue attempting the work. I have talked 
with the Bureau of Reclamation. I believe we have some water 
resources that are going to allow us to stagger through this 
season, with a little bit of flexibility.
    Senator Domenici. Thank you very much.
    I know I used a lot of the committee's time.
    But I compliment you on your statement, and I--while I do 
not necessarily agree with your characterization of my fellow 
New Mexicans as being intransigent and the worst in America, as 
you have just phrased it, but--but I do believe that something 
is terribly bad in the way the courts are handling this 
situation because you have to close down a river to users 
without knowing what the habitat--what the water is needed for 
the--what water is needed for the endangered species.
    It is an impossibility. Maybe we could fix that here. It 
probably would bring the world down on our necks, even if we 
tried to do what he suggested. But we ought to think about 
that.

                              water rights

    Let me make sure that everybody understands the seriousness 
of this problem. I grew up within eight blocks of this river. 
For many years of my younger days, I used to walk to this 
river, and many times it was dry.
    So for those who are used to rivers in your State or in 
Alaska that run all year long and were having arguments about 
salmon fish habitat, we do not have that. We have a river that, 
for much of the time, does not have any water in it.
    On the other hand, we built storage places that make it 
better now. We do have more water, and we have a different 
water system than most of you. Our water system is based upon: 
The first one to use it and apply it to a beneficial use owns 
it, and they own it as of the date they did it. They are 
valuable; you can sell those rights.
    Now, the problem we have is that the endangered species 
comes along with litigants who know how to use the courts, and 
they say, regardless of those water rights, you have to save 
the fish, the minnow.
    Now, the minnows have survived, I believe, during eras that 
I have told you about. When there is no water running in the 
river, they have survived in some other place in the river 
where there is water.
    Now what we have is a drought and rivers that do not always 
run wet, and we have at the worst possible time a lawsuit 
against him and his Department saying, ``Create an endangered 
species, Mr. Judge,'' and now ordering them to try to get water 
out of the reclamation projects, even if they have to dump our 
lakes that are there for irrigation purposes and other things, 
to save the minnow.
    Now, that is a very frustrating position for a State to be 
in, and for a Senator, when the Endangered Species Act is a 
national law. I do not know whether we want them to go to court 
and see if they really have water rights under the Endangered 
Species Law.
    That is a nice question. Everybody has been kind of dancing 
around it, except for a couple of courts--you could guess 
where--from California, California Circuit. They have kind of 
ruled that they have water rights even though they are not part 
of New Mexico's water ambiance at all.
    The Secretary is indicating that perhaps people have been 
intransigent regarding their water rights. I can tell you they 
may have been. But if you were under the gun all of the time 
about whether you are going to have enough water even though 
you own it, you would be kind of nervous about sharing it with 
anybody.
    I think that is kind of what happened, and then put on the 
800,000-population city which gets its water from an 
underground aquifer that is fed by this river, and they own a 
lot of water in order for their future, and you have a real 
tough situation. So I may need the Senators' assistance.
    But I will tell you for now, Mr. Secretary, I hope you are 
not alluding, in terms of intransigence, to your and my 
difficulties earlier in your Secretarial term. They are there, 
and they are acknowledged, and they will kind of be wounds for 
a long time on both of us.
    But this is a new ball game with a new problem, and I 
clearly intend to work with you if you will work with me to see 
if we can find a way to get through this on a temporary basis 
until we can fix it up in some permanent manner.
    Thank you very much.
    Senator Stevens. Senator, would you yield just for 1 
minute?
    Senator Domenici. I am finished. Thank you.
    Senator Stevens. My friend, I think that is the most 
enlightened statement about the Endangered Species Act that I 
have heard from any administration official since that act was 
passed, and I was here when it passed. I am going to get a copy 
of that, and I do believe that we can work on that basis.
    The one thing that I was going to say to the Senator from 
New Mexico, though, is if the collision is worse in his State 
than it is in mine, do you wear armor when you go into New 
Mexico? [Laughter.]
    Senator Domenici. Well, that is why I think he is 
exaggerating. Your State is the bad State. [Laughter.]
    Senator Stevens. Would the Senator yield to me just--I have 
a committee to chair, too.
    Mr. Secretary, just two short things. I do not want to take 
much time, because I have to go. And I know we are holding up 
the people who have been here before me.

                           north star project

    But the Fish and Wildlife Service has gone against the 
recommendations of the EPA, the Coast Guard, the Corps of 
Engineers, and the State and local governments on the North 
Star project, which was the one possibility of substantial 
employment in my State this summer.
    I am sure we all know, because of the low oil price, our 
economy is screeching to a halt. I would urge you to see if 
there is any way that we can avoid the litigation that is 
obviously going to come if we cannot resolve this issue.
    It has gone back to the Corps of Engineers now, as I 
understand it, to consider the objections of the Fish and 
Wildlife Service. To my knowledge, they are the only agency, 
State, Federal, or local, that objected to this project. It was 
substantially worked out with EPA and the Corps, but now the 
Fish and Wildlife Service has intervened.
    I am not asking you for a commitment now. I am just asking 
you to review it and see if there is any way that it can be 
resolved.

                  national petroleum reserve of alaska

    My question is on the National Petroleum Reserve of Alaska. 
There are bids scheduled for May 5. We have an enormous merger 
coming now between BP and ARCO. It will be a subject for 
continual review by the Federal Trade Commission, and others, 
including our State. Other States are involved in it too.
    I have looked into it now. The proponents of that merger 
are each bidding under conditions that have been approved by 
the FTC. They are not merged yet. But I hear that there may be, 
because of the merger, some inclination on the part of your 
Department to delay those bids. Now, this is another area of 
substantial interest to independent oil people in Alaska. The 
bid areas are close enough to the pipeline that transportation 
is available.
    Is there any truth to the rumor that you might postpone the 
May 5 bid?
    Secretary Babbitt. Senator, this is the first I have heard 
of it. And unless there are some facts that I do not know, the 
answer is it is going to happen on May 5.
    Senator Stevens. Good. Thank you very much.
    Thank you, gentlemen.
    Senator Gorton. Well, Senator Campbell, you have been very 
generous. But we are going to----
    Senator Campbell. Does that give me an extra 5 minutes?
    Actually, I came in today for this hearing with the 
intention of being quiet, refined, and civil. And Senator 
Domenici started the momentum going. So the heck with it, I 
guess I will just have to pile on too. [Laughter.]
    He brought up something dear to my heart, and that is what 
I think flies in the face of common sense. That is how we 
administer the Endangered Species Act. I listened to you very 
carefully, and I have to take at least some exception about the 
water people, and particularly ranchers, are somewhat 
intransigent.
    I have to tell you that in my part of the county the San 
Juan National Forest is right next to where we live. There is a 
natural migration, as an example, back in that area of mountain 
lions. Ranchers worry about that a little bit. There have been 
some attacks on people jogging, as you know, in Colorado. Yet I 
do not know one single rancher that is really upset about the 
increase in mountain lions in our area. They just accept it.
    Even though some of them lose sheep, they lose animals some 
times, they sort of accept that. But that is a natural 
migration. They are coming back in.

                             canadian lynx

    Now, let me compare that to the relocation of the Canadian 
lynx that are being put in the San Juan National Forest. I do 
not know if you have been following the press, but I think 
there have been about 8 or 10 put in there now. Of that number, 
5 have died. They have starved to death.
    The Fish and Wildlife were told by ranchers that since 
these lynx live primarily on snowshoe hares--there are not very 
many of them down there. There are not very many of those kinds 
of rabbits. They have done autopsies on these cats, because 
they have collars on them, and they have found that they all 
starved. Only one of them caught a rabbit.
    A couple of them had caught squirrels. And, in fact, one of 
them had gotten into it with a coyote and had part of the 
remains of a coyote inside of him.
    To me, when you relocate animals by force it is a real 
mixed bag. I do not know what it is costing. I remember hearing 
that to relocate the wolves up in Senator Burns' country it was 
about $100,000 a wolf. So I would imagine the cats are costing 
about the same amount.
    What kind of common sense is it to gather up these cats in 
Canada, put them in an area they are unfamiliar with and then 
watch them starve to death? In fact, even some of the 
environmental groups and the animal rights groups are calling 
it sentences of death to these cats.
    I do not know where we are going with that. But when we did 
one hearing with the Forest Service, in committee, I asked them 
is it going to endanger any of our logging sales. And they told 
me 14 sales had been canceled since the introduction of these 
cats.
    What we are obviously worried about is the cats are being 
put in there by force, relocating them. They are dying. Is 
there a chance of them then being put on the threatened or 
endangered list which would further endanger our sales of 
timber which results in less payments for the counties that 
need that money?
    Could you reflect on these cats a little bit? Then we will 
talk about mice.
    Secretary Babbitt. Senator, the lynx project is a project 
undertaken, to the best of my knowledge, in the exclusive 
control of the sovereign State of Colorado.
    Senator Campbell. Say that again.
    Secretary Babbitt. It is a Colorado project.
    Senator Campbell. Yes. It is a Colorado project. But is it 
not being administered by the Fish and Wildlife?
    Secretary Babbitt. They may be cooperating, but it is not 
our project and it is not mandated by Federal law.

                     preble's meadow jumping mouse

    Senator Campbell. I am getting some mail from the Town of 
Castle Rock, that it planned to build a new center for a police 
department, a commissioner's office, and so on. They tell us 
that they cannot do it because since the Preble's meadow 
jumping mouse have been put on the threatened list on the front 
range, that it is just holding up literally any building.
    Yet, to my knowledge, that was not put on with any 
scientific proof about how few there are. It was put on simply 
because they do not see them around much. Would you comment on 
that?
    Secretary Babbitt. Sure. It was put on the list as a result 
of an adequate and thorough scientific effort. It was listed 
properly. I went out there and stood up with the Governor and 
said the Endangered Species Act is working. What the listing of 
this mouse is about is the destruction of riparian areas on the 
front range.
    There is no need to develop on the front range by 
destroying wetlands. I believe that most people in Colorado and 
in the Denver area understand that.
    This is not a moratorium on development or expansion. It is 
an application of the Endangered Species Act that I think is, 
first, scientifically valid; second, in the best interests of 
Colorado, its citizens, and its developers; and, third, that is 
and will continue to be acknowledged by most planners and 
developers on the front range.
    Now, with respect to the Castle Rock issue, I believe that 
has been resolved. But it is a cautionary incident about the 
need to be careful about locating in wetlands. There are not 
that many wetlands on the high plains and the Colorado front. 
This listing affects, I would guess, a few percent of the land 
in the Denver area--in the front range at the very most.
    Senator Campbell. OK. I will not belabor that.

                           indian trust fund

    In your presentation you mentioned the Indian Trust Fund 
appropriation of $50 million. The primary use of that money, is 
that going to be for staffing to try to straighten out those 
records?
    Secretary Babbitt. It is going to be for compliance with 
court ordered discovery and production.
    Senator Campbell. I imagine compliance is going to mean 
that you are going to have to hire a bunch of people to be able 
to do the compliance. After you comply with it, what then 
happens? Do they remain as permanent employees or what?
    Secretary Babbitt. Senator, the answer is I cannot tell 
you. But it does not necessarily follow.
    Senator Campbell. OK. Thank you.

                            animas-la plata

    Maybe the last comment too is on the Animas-LaPlata. We 
have talked about that over the years.
    Could you tell the committee what the current status of 
negotiations are between the tribes and the Department on 
fulfilling what they call Animas-LaPlata, light, ultra light, 
extra light and all of those?
    Secretary Babbitt. Senator, once again I take 
responsibility and paternity for ultra light. That was a 
proposal that I personally went out and made in response to the 
requests of the Colorado delegation that we try to work 
something out. We have laid a proposal on the table. I believe 
that for----
    Senator Campbell. Are you getting any closer to an 
agreement with the tribes and the water users?
    Secretary Babbitt. The tribes, I believe, are quite 
affirmative. We have some remaining issues with the water 
users, and I believe that we are making some progress.
    In the spirit of candor which is pervading this hearing, 
let me say this. I believe that those negotiations are flagging 
from time to time because of the perception by some parties 
that they can end run the process and go back to the old time 
proposal directly in the U.S. Congress.
    Senator, if you were to go out there and say to them I want 
you to close on a mutually acceptable deal, it would get done 
as long as they think they still have a chance, the various 
groups. Mr. Chairman, you can see that I have been here 7 years 
and am a lame duck. I guess lame duckery tends to sort of 
inspire reckless candor. [Laughter.]
    Senator Campbell. Well, get that water project built and we 
will have a place for your retirement as a duck.
    Secretary Babbitt. Senator, it will be built.
    Senator Campbell. Well, I do not want to take any more 
time, but I do want to tell you that I have told folks out 
there, including the water users, I am not going to have any 
more to do with it until they reach some kind of an agreement 
and they have it signed in iron clad terms with the Department 
and the administration.
    Secretary Babbitt. Senator, if you do that I am confident 
that we can get a project.
    Senator Campbell. I have told them that.
    Secretary Babbitt. OK.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Gorton. Senator Burns.
    Senator Burns. Mr. Secretary, thanks for coming down this 
morning.

                              otter creek

    I want to ask a question with regard to Otter Creek. Have 
you made a counter proposal to the State of Montana for the $10 
million worth of coal?
    Secretary Babbitt. I have spoken directly with the Governor 
and shown him a map and said I would be ready and willing to 
discuss alternative mineral right deals.
    Senator Burns. He has those proposals in his hand.
    Secretary Babbitt. He has written me a letter saying that 
he does not want to negotiate.
    Senator Burns. Where do we go from here then?
    Secretary Babbitt. Well, the law, as I read it, says that 
in 2001 if we have not reached a deal the default provision 
will be conveyance of the Otter Creek property.
    We are opposed to that. I believe that the Otter Creek 
property is not a good site for mineral development. I stated 
that up front. It should be kept from coal production and put 
into other uses. We are opposed to giving that property. If we 
do not have an agreement by 2001, and Congress does not respond 
to our request to amend the law, there is a default provision.
    Senator Burns. What do you think it should be used for?
    Secretary Babbitt. I believe that the Otter Creek area 
should--that the BLM property there should be administered, in 
consultation with the community, for multiple uses. The problem 
with coal mining is it is an exclusive use. The other multiple 
uses are gone once you start scraping up coal.
    Senator Burns. Do you look in the reclamation areas that 
are not too far from those leases? Are they back into multiple 
use now?
    Secretary Babbitt. I have seen some very nice reclamation 
in Montana. There is no question about it. Up in the Powder 
River Basin and in those areas it is quite appropriate.
    We have, in fact, offered Montana a variety of choices up 
in those areas, because coal mining is very appropriate.
    Senator Burns. This is compliant coal and sought after by 
the power companies throughout the United States so they can 
get in compliance with the Clean Air Act. With the ability to 
reclaim, and to even make the land more productive than before 
the mining took place, I fail to see the reasoning why you 
would just seal it off. Is there something else that we do not 
know about?
    Secretary Babbitt. Senator, there are a variety of mineral 
leasing studies and land use plans. In all of those, the ones 
that have been done over the last 20 or 30 years, is one 
assumption.
    That is that we should mine these coal resources in an 
orderly way across the landscape rather than hopping, skipping, 
and jumping across a lot of areas that have many other values. 
There is plenty of room on BLM land.
    Senator Burns. When was your last coal sale off of BLM?
    Secretary Babbitt. I would have to look that up and get 
back to you.
    Senator Burns. I think it has been about 25 or 30 years.
    Secretary Babbitt. I would be happy to get back to you. 
There is no lack of coal mining on BLM land. I will tell you 
that.
    Senator Burns. Well, we are looking at a way to fix this, 
because a little deal was struck with Congress and with this 
administration on that coal mine up there. Now we are finding 
that the administration wants to backpedal on the deal. I find 
that very hard to accept, even with your statement supporting 
multiple use, that the transfer has not been made.
    Secretary Babbitt. Senator, we oppose the transfer. We will 
comply with the law and seek to change it.

                        off-stream storage sites

    Senator Burns. In light of the problems that they are 
having in New Mexico with the Endangered Species Act, and 
looking at the face of a drought, should we be about our way in 
developing new off-stream storage sites?
    Secretary Babbitt. Senator, it entirely depends. I mean, 
that is what Animas-LaPlata is, and we are developing. But I 
would say that, west wide, what we should be doing is making 
more efficient use of the water as the first alternative.
    Senator Burns. You do not think we should be supplying any 
more diversions for storage?
    Secretary Babbitt. That is not what I said. I said that we 
are working on the Animas-LaPlata Project. We have looked at a 
variety of projects in Montana in connection with the Rocky 
Boys water settlement and are prepared to do so. We have not 
ruled it out.
    I do think, as Senator Gorton is aware, that there are some 
places in the west where dams should come down.
    Senator Burns. I am not talking about damming. I am talking 
about diversion for storage. Not damming any stream, not any 
live stream. In other words, if this water storage increases 
and enhances our in-stream flow and creates habitat and other 
wetlands, why are we not doing that?
    Secretary Babbitt. Well, we are.
    Senator Burns. Where?
    Secretary Babbitt. Animas-LaPlata.
    Senator Burns. One in the whole west?
    Secretary Babbitt. Well, I would be happy to get you a list 
of all of the issues that we are looking at that relate to off-
stream storage.
    [The information follows:]
                           Off-Stream Storage
    The Bureau of Reclamation has occasionally developed off-stream 
storage as a feature of its projects. Currently, Animas-La Plata is the 
only project for which Reclamation is actively planning an off-stream 
storage facility. In addition, the CALFED Bay-Delta Program, in which 
Reclamation is participating, is evaluating a number of potential off-
stream storage sites.

                            george w. beaver

    Senator Burns. What did we do with George W. Beaver?
    Secretary Babbitt. Well, I am afraid that I have never 
heard of George W. Beaver.
    Senator Burns. Well, the little beaver that chewed down 
your cherry trees.
    Secretary Babbitt. The beaver who chewed down the cherry 
trees. Well, let me say Mrs. Chenoweth has filed a petition to 
list that beaver as a geographical sub-area. As you know, I 
give equal respect to all requests from all 535 members of the 
U.S. Congress.
    So the answer is that a petition has been filed under the 
Endangered Species Act, and it will be accorded full and 
careful consideration.
    Senator Burns. Going on to some way to control the 
population, would you consider some wolves down there? 
[Laughter.]
    Secretary Babbitt. The wolves, I must say, are doing 
terrific.
    Senator Burns. They really are. They are eating very well.
    Secretary Babbitt. They are indeed. It is great.
    Senator Burns. Our cattle.
    Secretary Babbitt. Elk.
    Senator Burns. That too. They are doing very well.

                      grizzly bear reintroduction

    Tell me about your plans for the reintroduction of the 
grizzly back into the Bitterroot-Selway.
    Secretary Babbitt. Senator, the same answer as last year. I 
do not mean to be disrespectful, but we have discussed this 
before. There is a reintroduction plan, and the Fish and 
Wildlife Service proposes to go forward subject to the will of 
the U.S. Congress.
    Senator Burns. Without any----
    Senator Campbell. Will the Senator yield just for a moment?
    Senator Burns. Yes.
    Senator Campbell. Mr. Secretary, if you--maybe you do not 
have the answer to this, but if you reintroduce grizzlies into 
an area and somebody gets injured or killed by that grizzly is 
the Federal Government liable?
    Secretary Babbitt. Well, it depends.
    Senator Burns. On what?
    Secretary Babbitt. The laws of negligence and the laws 
which imply a duty of reasonable care in administering----
    Senator Campbell. If a person is just out there walking 
around and a grizzly attacked him and hurt him, then the 
Government could be liable. But if the person was aggravating 
the bear, then maybe you couldn't. Is that kind of----
    Secretary Babbitt. Well, that is kind of the question that 
I pose to my son over the dinner table as he heads off to law 
school. That is what the legal profession prospers on--posing 
those kinds of questions to judges.
    Senator Burns. Who recommended that profession to that 
young man? [Laughter.]
    Senator Campbell. Thank you, Mr. Secretary.
    Secretary Babbitt. I know I have failed in my 
responsibility as a father.
    Senator Burns. Well, I think there could be some negligent 
abuse here.
    Secretary Babbitt. Senator, I do not----
    Senator Burns. But the reintroduction of the bear though 
finds very little local support up there. I know we have gone 
through some of these hearings. If I thought it was good for 
the bear then that would be fine. But I am not really sure it 
is good for either the bear or the people that live there.
    I want to go back--we have more mountain lions than we have 
ever had. We have more predators now, Mr. Secretary. When you 
can take pictures in an ordinary little homegrown video camera 
of wolves packing off your calves and your sheep, and they lay 
out there on that little flat across the creek from a guy's 
cabin and lambing barn just waiting for another calf to drop, I 
do not know how we deal with this.
    I do not know how we deal with this, but it has a profound 
effect on how we make a living in that particular area of my 
State. I find nobody that is very sensitive to that. I guess I 
am just making an appeal that we cannot end up--like, when I 
first went to Montana and went through Yellowstone Park. There 
were a lot of bears that stood alongside the road, and a 
gathering of cars, they would take pictures. They would toss 
the bear a hamburger.
    Today there aren't as many bear jams. But I do not want to 
end up being that bear, waiting for some person to drive along 
and throw me a hamburger every now and again.
    We have got to have some way to make a living. I do not 
find understanding of that fact prevalent in the Department 
right now. This delay on the coal is a cumulative thing, let us 
put it that way, that makes us very nervous. For your salute 
out there we may provide it. Who knows. But I want somebody in 
the Department, in your Department, to become sensitive to the 
people who live there.

              rock creek parkway telecommunications tower

    Now, you have denied a placement of a tower for telephone, 
cell phones, on Rock Creek Parkway. Is that true?
    Secretary Babbitt. It is my understanding that the National 
Capital Planning Commission denied that license.
    Senator Burns. Well, but you had a--you played a role in 
that.
    Secretary Babbitt. Senator, I must, in all seriousness----
    Senator Burns. Well, not you personally but your 
Department.
    Secretary Babbitt. Let me finish, because this town is a 
pretty contentious, suspicious place these days.
    I have, after much deliberation and consultation with my 
solicitor, recused myself from any consideration of cell phone 
towers on public lands of any kind. I respectfully decline to 
discuss that in any way.
    Senator Burns. Well, I just want to----
    Secretary Babbitt. I will refer you to somebody in the 
Department who can.
    Senator Burns. OK. We are going to pass an enhanced 911 
bill this year which allows those folks making emergency calls, 
911 calls from cell phones, to be automatically located. I am 
wondering if the people understand what they have done when you 
deny a tower site when it comes to public safety and under 
those kinds of conditions.
    So it is just not in the west. It is also here in 
Washington, D.C. I want to make that very clear that we think 
that public safety and emergency tools for the American people, 
if it is available, is very, very important. That tower would 
be a part of that grid that locates 911 calls, emergency calls.
    So we will keep taking care of those wolves as we best know 
how, but I would like to see a little more sensitivity out of 
the Department of Interior to people, and because I do not have 
very many wolves that vote.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Cochran.

                 commendation to park service employees

    Senator Cochran. Mr. Chairman. Mr. Secretary, one of the 
things that I enjoy doing very much when I am out driving 
around my State or in other States is stopping at National Park 
Service facilities and looking at the exhibits and listening to 
the Park Service officers talking about the historical 
significance of the place, whatever it is, whether it is a 
Civil War battle site or George Washington's home place in 
Virginia. I must say that I think that we owe words of 
commendation to those who make those facilities a pleasure to 
visit through their patience and their thoughtful treatment of 
visitors.
    My experience--and they did not know I was a U.S. Senator--
I try not to let them know that while I listen and ask 
questions along with the others who are there. I have really 
been impressed, and maybe in recent years more so than in the 
past, with the quality of the people and their dedication and 
their hard work who I encounter in these stops at these sites.
    I pass that on. I know you do this sort of thing all of the 
time, but they know who you are and they are very nice to you. 
They don't have any idea who I am. Occasionally I will sign the 
book, but I try to do it as I am leaving so I am gone by the 
time they say my gosh, that was a U.S. Senator.
    In my home State, for example, you have got some really 
outstanding leadership at the Vicksburg National Military Park. 
Terry Winchel is the historian, and he does a wonderful job on 
tours and just in making sure people appreciate the history 
that surrounds the Vicksburg National Military Park. The park 
superintendent, Bill Nichols, also comes to mind.
    Recently, I had an opportunity to be in Vicksburg for the 
rededication of monuments to two of the founding commissioners 
of that national military park, one of whom was a former 
Confederate general, Steven D. Lee, from Columbus, MS; the 
other Gen. William Rigby, a Union general who shared the 
responsibility for administering that park for its first 30 
years of its existence.
    But the whole point is, both of these Park Service 
officials gave talks at the ceremonies and they were very 
impressive. Everyone who attended enjoyed this event very, very 
much. I did not make a speech, but I listened. So I pass on 
those words of commendation to those individuals. There are 
many others I could single out.

                   natchez trace parkway maintenance

    We also have resources under the jurisdiction of the 
National Park Service in our State that need more attention in 
terms of maintenance and upkeep, I know this is true all over 
the country. But I worry about the deteriorating condition of 
the Natchez Trace Parkway, for example.
    I am told that it takes resurfacing about every 20 years of 
a parkway such as the Natchez Trace Parkway to maintain it in a 
safe and sound condition, and that during the last 20 years 
only 41 miles of the parkway in our State have been resurfaced.
    This parkway is almost 500 miles along. Of course, it goes 
through Alabama and Tennessee as well as Mississippi. I wonder 
if you could inquire of the Park Service people or your budget 
officer whether or not you have requested in this budget any 
funds for resurfacing and maintenance of the Natchez Trace 
Parkway and whether or not that will be enough to maintain that 
parkway in a safe condition for those who are traveling it.
    Secretary Babbitt. Senator, I think you are going to see 
some considerable progress there. The reason is that in the 
Schuster Transportation bill last year we got a--with the help 
of Senator Thomas and others of you, we got a significant bump 
up for road maintenance for the National Park System. That is 
really where we have to look. It is not in this budget but in 
the Transportation budget. I think we got an extra $60 million.
    I cannot promise all of it for the Natchez Trace, but I 
hear you and I think we will have some coming.
    Senator Cochran. I am aware that in the TEA-21 bill there 
is an increase in funding for what is called Federal Lands 
Highway Programs and you do have access to those new funds. I 
hope you will undertake to allocate whatever is needed to the 
Natchez Trace Parkway.
    I am sure others will compete for those funds too. You are 
going to have to set up priorities. I just hope you will take a 
careful look at the past neglect of resurfacing at the Natchez 
Trace Parkway and take that into account as you assign 
priorities.

                  lower mississippi river 10-year plan

    There is one other concern that I want to raise, and that 
is something called the U.S. Fish and Wildlife Service's 10-
year plan for the lower Mississippi River. One thing that I 
want to ask is whether or not there is such a plan and what 
does it entail?
    It would be good if we could include in the record--and I 
know you do not have all of this in front of you right now--
some explanation of this 10-year plan for the lower Mississippi 
River. There are some, particularly those who live alongside 
the river, who are worried about what new Federal regulations 
may be imposed on them and the lands that they own all of a 
sudden without much notice or opportunity to discuss or hear 
about these plans.
    One other question that I would like to have answered for 
the record is whether any additional legal authorization is 
planned to be requested of the Congress, or does authorization 
exist already for the Fish and Wildlife Service to develop a 
plan that would restrict the use of lands along the Mississippi 
River?
    If so, to what extent can we expect a plan to provide new 
regulations? What funding will be needed to carry out this 
plan? These are questions that I hope can be answered for the 
record.
    Secretary Babbitt. Senator, I would be happy to provide 
detail. Just a very brief rejoinder. But to the extent that 
there is a 10-year plan, it would have to be carried out within 
the existing organic laws of the Fish and Wildlife Service.
    So I do not anticipate as a general matter that there would 
be any land use restrictions unless they were specific 
applications of the Endangered Species Act or something else.
    With regard to the lower Mississippi River, let me just 
phase out of this by saying I believe the day is coming for an 
urgent look by the U.S. Congress at the lower Mississippi 
River. The delta and the wetlands in Louisiana are simply 
disappearing. The legislation that has been passed and the 
funding that is available has really been just kind of Band-
Aids.
    Obviously those issues relate to the management and 
operation of the river all of the way up through Mississippi as 
well.
    [The information follows:]
                  Lower Mississippi River 10-Year Plan
    A 10-Year Plan for the Lower Mississippi River was developed by the 
U.S. Fish and Wildlife's Lower Mississippi River ecosystem team to 
identify a course of action for the U.S. Fish and Wildlife Service's 
efforts for conserving and managing what is considered the Nation's 
largest wetland ecosystem. The Plan will allow the Service to integrate 
diverse program activities on an ecosystem basis and thus more 
effectively identify actions needed to address the decline of critical 
fish and wildlife resources, including the restoration of federal trust 
species, in the Lower Mississippi River basin. The planned actions 
will: (1) protect and manage National Wildlife Refuge units and 
National Fish Hatchery units; (2) maintain viable populations of native 
fish and wildlife species; (3) provide for migratory bird habitat; (4) 
accelerate coastal habitat conservation and restoration; (5) restore 
and manage floodplain fisheries; and (6) increase public awareness and 
outreach.
    The Plan does not call for additional federal regulations to be 
placed upon the users of the River or those who live within its basin. 
No new legal authorization is required to fully implement the Plan. 
Current legislative authorities for the Service identifies 
responsibilities for the protection and conservation of fish and 
wildlife resources.
    The Service has already achieved significant accomplishments in the 
restoration of fish and wildlife resources in the Lower Mississippi 
River Valley. In fiscal year 1999, restoration and enhancement efforts 
included the rehabilitation of: 4,550 acres of moist soil habitat, 
3,960 acres of wading/shorebird habitat, 36,700 acres of fall/winter 
water on agricultural lands, 5,000 acres of forested habitat, 4,150 
acres of marsh, and 125 acres of native grassland. Over 50 agreements 
with Government and nongovernment partners were initiated. Working with 
the Agriculture Department's Natural Resource Conservation Service over 
12,000 acres of bottomland hardwoods were planted and Service personnel 
assisted with conservation planning for over 30,000 acres in the 
Wetlands Reserve Program. Over 40,000 paddlefish were tagged and 
released in the Lower Mississippi River. Efforts were initiated to 
restore riparian/wildlife corridors and nonpoint source pollution 
reduction projects on major Lower Mississippi River tributaries. The 
Lower Mississippi Valley Joint Venture of the North American Waterfowl 
Management Plan and the Lower Mississippi River Conservation Committee 
continue to work with the U.S. Army Corps of Engineers to cooperatively 
utilize Geographic Information System technology to cost effectively 
develop and implement natural resource planning efforts.

    Senator Cochran. Let me say that in the case of Louisiana, 
most of that is marshland. That has been a big problem for a 
long time and continues to be probably the most significant 
wetlands loss problem in the country.
    I am going over after I leave here to make some remarks at 
something called Earth Day celebration on the Mall and talk 
about what is being done in agriculture to try to ensure that 
agriculture practices are compatible with our environmental 
concerns.
    I plan to point out that my State of Mississippi has made 
the most significant strides in restoring wildlife habitat and 
wetlands by using the Wetlands Reserve Program and other 
programs such as the Wildlife Habitat Incentives Program. We 
are very anxious to do more to help ensure that we protect 
wetlands in our State.
    We are doing that voluntarily, so I do not know what this 
Mississippi River plan is going to do to try to improve upon 
the progress that is already being made. I hope we do not have 
somebody come in and try to reinvent our efforts and change it 
in a way that will make it worse rather than better. We are 
making a lot of good progress.
    Secretary Babbitt. Senator, I will respond to you. Let me 
just say that I acknowledge your efforts and there are a lot of 
people who are very grateful for your efforts on these river 
and wetland issues, your leadership in the North American 
issues and the council, and the use of the agricultural 
programs.
    I think it is really working and that we are really 
improving enormously the habitat availability in the lower 
Mississippi River Valley. It is very impressive.
    Senator Cochran. Thank you, Mr. Secretary.
    Senator Gorton. You created a great deal of interest in 
members of the committee in your response to Senator Domenici 
in what you would like to do and the way in which you thought 
the Endangered Species Act ought to be administered and what 
you felt the courts would require you to do. As a matter of 
fact, I have never seen quite that degree of attention to one 
of your comments on the part of Senator Stevens.

                            kempthorne bill

    Were the changes that you spoke to as being desirable 
included in last year's Kempthorne bill?
    Secretary Babbitt. Senator, they were not.
    Senator Gorton. Are they simply ideas of your own or are 
they incorporated in or are they likely to be incorporated in 
any formal recommendation you or the administration makes to 
the Congress?
    Secretary Babbitt. Senator, I have no intention of making 
any recommendations to Congress. We labored long and hard. I 
personally put in, I would say, a couple of hundred hours in 
leading and working in drafting sessions on the Kempthorne 
bill.
    There was an enormous disappointment because the leadership 
of the Senate said no way is this bill coming to the floor. In 
the absence of a leadership commitment, there is no way that we 
can ever make any progress on this. I say that regretfully 
because we made an enormous effort and it is just not going to 
happen.
    Senator Gorton. Let me just follow up on that. Now, you 
said the specific proposal you made was not a part of the 
Kempthorne bill.
    Secretary Babbitt. That is correct.
    Senator Gorton. Was the Kempthorne bill something of which 
you approved?
    Secretary Babbitt. Yes.
    Senator Gorton. Well, I think you have given me excellent 
answers on that question. I do not know whether we could get 
such a commitment this time around. It is my own view that his 
frustration over all of the more hours than you put into it is 
the primary reason that Senator Kempthorne is our Governor. But 
many of us would like to make progress in that connection.

                           budget priorities

    You spoke to three subjects in your opening statement, Mr. 
Secretary. First, the personnel and the general administration 
of the Park Service. You did that before Senator Cochran was 
here. But I think that his tribute to many of the people who 
work for you, under the circumstances you described, is 
particularly noteworthy. It is a matter greatly to your credit 
that that kind of reaction is as broad and general as it is 
given those circumstances.
    The second subject to which you spoke, of course, was a 
Land's Legacy, the wide range of bills. The third was the 
necessity to do something with respect to the trusteeship 
relation with the Indians and the various trust properties.
    In that connection, the Land's Legacy and the earmarking of 
certain funds outside of the control of this subcommittee is a 
matter for a different committee than this one.
    I did attend the committee hearing on those matters, and I 
must say, as much as I favor many of the ideas contained in 
them, I was rather frustrated by Members of Congress, and for 
that matter the administration, who say by golly, we are not 
going to break the caps.
    We are going to save Social Security first and we are going 
to spend a billion a year on these various matters that can 
only come out of the Social Security trust fund, unless we pass 
new taxes or other policy changes, the possibility of which 
seems to me to be somewhere between remote and none.
    So I come back to the very point that Senator Byrd made. 
When we start through this whole process we are not going to 
have anything like the amount of dollars that he and I would 
like for many of your very legitimate policy recommendations. 
We are going to have to try to set up priorities.
    I agree with you with respect to the Indian Trust. I hope 
there is a way for us to find money to get that job 
accomplished, because it is one that has a beginning, a middle, 
and an end, and is not a permanent increase, one hopes, when we 
solve the problem.
    But I guess the dilemma that I am going to face with 
Senator Byrd and with everyone else is, if we do not have 
enough money, is the most important aspect of our job to keep 
going what you have, to try to see to it that we are managing 
the properties, especially in the National Park Service but 
also in your other areas of responsibility, in a way that 
brings the kind of credit and compliments that Senator Cochran 
set out even at the expense of many of the acquisitions and 
many of the new programs that not only you but most of us would 
like to engage in or to finance?
    Secretary Babbitt. Senator, three thoughts. I do not 
propose or advocate that we can fund the Lands Legacy program 
by offsets from the Interior budget for the reasons I have 
explained.
    Senator Gorton. Right.

                          problem with offsets

    Secretary Babbitt. We have had a strong working 
relationship over all of these years and we have affected a lot 
of important savings in our budget. But we have got this 
personnel wall and I am not prepared to support offsets that 
result in personnel cuts.
    As I look at the programs in that other remaining piece, I 
cannot do that either. We cannot cut science programs. We 
cannot start scaling back on construction and maintenance, 
which is another small portion of it. So the answer is there is 
no solution there.
    The Indian Trust Fund issue has to be done. I cannot offer 
any offsets for that. I simply cannot. Now, in previous years I 
think we have kind of dissolved this hearing by mutual pledges 
to keep looking. Of course, I offer that. I must say that the 
cupboard is, in year 7 of my tenure, really bare in terms of 
offsets.
    Senator Gorton. Well, I believe it is myself. That was the 
reason for my question. I guess I find the chairmanship of this 
subcommittee to have been a great pleasure when I was able to 
grant a large number of specific program requests from almost 
every colleague I have, all 99 of them.
    But it looks to me this year that I may have to be the 
Grinch if we are going to keep you operating in the way you 
are. I do not think you are going to find us trying to find a 
lot of this money out of further elements and your 
administration of the lands for which you are already 
responsible.
    But, inevitably that means, and especially if we try to 
find the $50 million for the Indians in this fashion, we are 
going to have an extremely tight budget on everything else. I 
take your answer to be that first things first, and first 
things are what we are doing now.
    Secretary Babbitt. Senator, I understand. I do not want to 
step above my pay grade, but the Lands Legacy Program is in the 
context of an administration budget which I believe makes 
sense. Now I recognize the Kosovo issue. But let me just say 
now that we have reached a balance in the larger sense, in 
budget accounts, I feel quite strongly that there ought to be 
room for this Lands Legacy Program. There is, in fact, an 
enormous amount of member interest which is reflected in a 
whole variety of bills which have been filed. I recognize your 
dilemma as subcommittee members, but I do think that the debate 
must and should go beyond the confines of the traditional 
process.
    Senator Gorton. Yes. So I guess it is your view, as it is 
mine, that if we are going to engage in these ambitious new 
programs there must be another source of money for them, not 
the traditional discretionary appropriations from this 
committee out of which you have run your general operations.
    Secretary Babbitt. Well, that, in my opinion, should not 
entirely discount the process of such a distinguished 
subcommittee chairman and ranking minority member carving out a 
larger 603-B allocation.
    Senator Gorton. No. It certainly will not. We will do the 
best we possibly can.

                  recreation fee demonstration program

    A few questions on the Recreation Fee Demonstration 
Program. The Park Service especially, within the Department, 
has had some criticism for not making Fee Demonstration funds 
available for actual projects in a timely manner. Is this a 
legitimate criticism? If so, why and what is being done?
    Secretary Babbitt. Senator, I have heard some of that. 
Knowing the way we operate, I suspect that there is probably 
some truth to that.
    I guess what I should say is I will be happy to look into 
it. I do not have a better answer at this point.
    [The information follows:]
                  Recreation Fee Demonstration Program
 timeliness of approving projects funded with recreation demonstration 
                              fee receipts
    Department of the Interior position: In actuality, approval of the 
projects funded through Recreation Demonstration Fees has been as 
timely as possible given the fact that the program is new. Agencies 
have needed time to develop expenditure-approval procedures and set up 
accounting systems to manage the funds. In the two full fiscal years 
the program has been in operation (1997 and 1998), the three 
participating Interior agencies have collected over $189 million in 
Recreation Fee receipts. It takes time to plan and implement 
expenditure projects. Some of the smaller units are saving their fees 
until they have enough for sizable projects. Nevertheless, the Agencies 
are improving the rate of project accomplishment.
    The Department is working with the Interior agencies to ensure 
accountability by instituting procedures for management of the fee 
demonstration receipts, including procedures governing the approval, 
expenditure, and reporting on the projects. The Department and the 
agencies are working to streamline the approval process.
              program coordination among the four agencies
    Department of the Interior position: It is true that the GAO's 
evaluation of the fee demo program concluded that there is a need for 
greater coordination among the four agencies involved. The Department 
plans to review Recreation Fee Demonstration sites for ensuring 
coordination wherever feasible and appropriate. Agency fee managers are 
meeting on a regular basis to discuss plans, problems, and solutions 
related to greater coordination of the program. On January 6, 1999, the 
Assistant Secretary for Policy, Management and Budget proposed an 
internal review of all fee demonstration sites throughout the 
Department to determine where coordinating and consolidating fees is 
feasible and appropriate.

                               gao report

    Senator Gorton. A related question, of course, is that 
there are--the GAO report said that there is a lack of 
coordination among the four agencies that are involved, which 
leads to a certain degree of inefficiency. Have you examined 
that element of the GAO's concern?
    Secretary Babbitt. I have, and I think there are some 
unresolved issues there. The place where we are seeing that 
most is with the Golden Eagle Pass.
    The National Park Foundation has come in, just as an 
example on this coordination, with a study which suggests that 
if the Park Service were to sell a park system pass we could 
get tens of millions of dollars every year in purchases which 
were not made for economic reasons, but were made for saying I 
am a supporter of the National Park Service. There would be 
enormous sort of pizazz for that kind of card.
    It runs into conflict with the arrangements for the Golden 
Eagle Pass, which is a system-wide one which will never have 
the same cache, if you will. It just is not, because it is a 
public lands pass that does not carry that. I would like to get 
that sorted out.
    The other issue I think that comes up is, to the extent 
that we start wrapping too much into a pass and making it too 
broad, I think we provoke some resistance, understandable out 
west particularly, from people who say with this project we 
were not indicating our support for fees to go on public lands.
    I think we ought to be real careful to stay away from that, 
because I understand that and I agree that we should not get 
into this fee for access syndrome.
    Those are kind of the cross-currents that I do not have an 
answer to. I would like to get the Park Service one worked out. 
I think there is a lot of money there.
    Senator Gorton. Is there legislation for the program for--
--
    Secretary Babbitt. Yes. There is legislation. I think it is 
at OMB right now, which means it will appear sometime in the 
coming century. But, seriously, I believe that there will be 
legislation out in the light of day during this calendar year.
    Senator, let me say that John has just told me the Park 
Service, anticipating your earlier question, has approved $199 
million in projects which covers fees collected through the 
first couple of months of this year. They have apparently heard 
your question.
    Senator Gorton. I believe there is also something in the 
GAO report about whether or not we should earmark as high a 
percentage of those fees for the park in which they are 
collected. On the other hand, it has always seemed to me that 
that was one of the reasons that it has the degree of public 
acceptability that it did. Do you have any comment?
    Secretary Babbitt. Senator, I would back away from that 
figure very reluctantly for the public acceptability reason and 
the bureaucratic acceptance of the program.
    We have learned in the past that if there is not a direct 
incentive in a park for people to collect fees, all of a sudden 
they do not get collected. People are shortening the hours, and 
you have more and more of those times when a sign says go 
through. So I would be cautious about changing it.

                automated land and mineral record system

    Senator Gorton. A completely different subject. Recently, 
GAO testified that the Bureau of Land Management had spent some 
$411 million on an automated land and mineral record system 
over the course of the last 15 years, but that the software 
component of it, $67 million, has serious problems or is a 
complete failure. Can anything be salvaged? What are we going 
to do?
    Secretary Babbitt. Senator, the $67 million is gone. It has 
been discarded. It has no value.
    I made a mistake when I came here. The ALMRS Program was 
either 2 or 3 years underway, and I briefly considered 
scrapping it. It was a big mistake not to have done it.
    Now, what is the lesson? The lesson is that we have gone 
through a period in which modernizing systems was being done by 
reference to 1960s information processing and software 
companies who were still peddling the old 1960s giant 
centralized CPU-driven systems. I regret that I did not step up 
to that and scrap it.
    Now, the remaining $400 million, $350 million or whatever 
it is, is usable and useful. It is not going to meet the 
original thing, but it consists of records which in fact are 
being converted and which are in fact in data processing 
systems which can be used.
    There is an important lesson here, and I think OMB deserves 
recognition. They have caught onto this and they have started 
to get onto the agencies. The answer is no big central, 
expensive systems. They are obsolete, and people are still 
peddling them.
    Now, if I may anticipate your next question, are we coming 
up on another one of these with the Indian Trust records? The 
answer is an adamant no. After a lot of pushing and shoving we 
have firmly established that the so-called TAAMS system is an 
off-the-shelf deal. It is totally decentralized, and I am 
absolutely confident it is going to work.
    Now, why is that? Because we went out to the oil industry 
and bought an oil industry package that these guys use for 
essentially all of the same kinds of stuff. It can be put up in 
modules. It can be operated independently. It can be hooked up. 
But there is no grand design, and I think that is the lesson.
    Senator Gorton. I hope that lesson is institutionalized in 
the Department in a way that it will survive your lame duckery. 
If you are able to accomplish that goal, you will have made a 
major contribution.

                             indian gaming

    There has been an on-going war, obviously, over Indian 
gaming operations and compacts. You very promptly used the fact 
that Congress did not totally pass a supplemental 
appropriations bill by March 31 to issue final regulations on 
the subject. On the assumption that that supplemental 
appropriations bill passes and is signed by the President some 
time in the next month with that provision included in it, what 
will your response be?
    Secretary Babbitt. You are referring to the moratorium 
provision.
    Senator Gorton. Yes.
    Secretary Babbitt. Senator, I do not think it is a good 
idea. I think it is a mistake by all of the various 
stakeholders to be advocating these kinds of moratoriums. It 
does not serve anybody's interest. Now, let me explain why.
    The reason we put those regulations out and did it so 
quickly and affirmatively is we have got to get this issue into 
the courts in the most orderly, concise way we can, because we 
do not have a majority in favor of anything in the Congress. 
The next best thing is to get it into the courts and see if 
they will give us some direction rather than just telling us 
that it is inappropriate.
    Now, in the course of structuring that litigation, it will 
be up to the Justice Department to decide whether or not to 
stay pending applications' consent to a kind of injunctive 
relief. Let me just say that we have no intention of rushing 
into the application of these regulations.
    I much prefer to say to this committee and to the Congress 
let us just try to stay together, expedite the litigation, use 
ADR to the extent we can, keep talking, and we will keep you 
apprised. A moratorium drags us back into this adversary 
relationship. It may or may not be necessary. It puts me back 
into the advocates box. You put up a moratorium and I am, I 
think, properly and inevitably driven into an adversary 
position. I do not want to be there.
    Senator Gorton. You have answered my second and most 
important question. It is not your view then that you want to 
create an irrevocable situation on the ground before our court 
has made a decision.
    Secretary Babbitt. That is correct.

                 biological resources division in usgs

    Senator Gorton. At this point in time do you consider the 
creation of the Biological Resources Division in USGS a 
success?
    Secretary Babbitt. Senator, I absolutely do, and I am most 
grateful for your assistance in getting it.
    Senator Gorton. What role do you play in coordinating its 
activities with those of the land management agencies?
    Secretary Babbitt. Well, I try to stay out of it. We 
formed, a couple of years ago, a science council inside the 
Department where the land management agencies and the GS meet 
about four times a year to try to get some togetherness going 
and to try to figure out ways to draw the line between basic 
wide-ranging science and site specific applied science. For 
example, if the North Rim Trail in the Grand Canyon has been 
washed out and is a pile of rubble, and we have some indication 
that was due to the fact that it was not located in the right 
place, it was on a fault line or whatever, before we 
reconstruct the trail we would like to get a geologist out 
there.
    They ought to have a geologist to do that in a big park. A 
BRD should not be doing that, that kind of micro although very 
important science.
    What we try to do is sort those things out and set up a 
kind of system to start moving priorities out at a BRD that 
have a lot of input from land management agencies.
    Senator Gorton. Last week we had the Forest Service and the 
Department of Agriculture in front of us, Mr. Secretary. I went 
after them on something that I think is really more your 
responsibility.

                 crown jewel mine application rejection

    It is my view that your solicitor's opinion which resulted 
in a rejection of the Crown Jewel application, whatever the 
court may ultimately say as to its legality, is clearly not the 
way in which a Government ought to treat its citizens.
    When a company or a group of companies has spent at least 
half a dozen years, maybe 8, and $80 million, has gone through 
a record of decision, has had the record of decision upheld by 
the courts, has dozens--I cannot remember the number right 
now--of permits granted, and literally is told to come in and 
pick up its permit and then the next morning is told it is not 
there because we have changed the rules, I think personally 
that we reach an ethical or a moral position that just is not 
the way that any person or any government ought to treat its 
citizens after that kind of investment. I would like your 
comments on that.
    You know, you reverse your manuals, you reverse the rules, 
you reverse what has gone on, Lord knows, I suppose for this 
entire century more or less, after the fact.
    Is there not quite a distinction between saying well, in 
the future as people start down this road here are going to 
bend the rules--but to apply it in that fashion and in a 
fashion which I understand has caused the stock value of a wide 
range of other companies engaged in mining on public lands to 
have collapsed considerably. It seems to me it would be a 
terrible way to use the powers of Government.
    Secretary Babbitt. Senator, I appreciate your concerns. 
This is an issue which is in the courts all of the time. Does a 
ruling have retroactive or prospective application? What about 
the transition cases?
    No. 1, the existence of this issue has been no secret. It 
has been widely known in the industry. Permits have been 
granted in the past, not because there was a policy, but 
because nobody was paying any attention. I mean, it was kind of 
a failure to enforce the law, not a reinterpretation of the 
law.
    I guess I would counsel the company to look at the 
functioning of its lawyers and consider to what extent they had 
notice and should have notice, because the law, I think, is 
quite clear.
    The opinion has been out there for 18 months. But I 
understand it was perceived as a change. I would suggest it was 
not a change, but it did say, for the land management agencies, 
you have got to quit ignoring this law.
    Now, last, there are other tracks that this company can 
take. They can apply for a site lease under FLPMA. In the past, 
a number of companies have used land exchanges. That is a 
little more cumbersome. You don't get a title that way. But 
they can apply for a FLPMA land lease.
    Senator Gorton. A few minutes ago, Mr. Secretary, I leaned 
over to Senator Byrd and said one of the refreshing elements of 
having you in front of us against what we just had a week ago 
is that when you are asked a question we get an answer, whether 
we like it or not. Senator Byrd walked out of the hearing last 
week because he was not getting answers.
    I must say, you are pushing me pretty close to the edge on 
that one. I think that is a highly bureaucratic answer and that 
it does not change my view that this was an extraordinary 
unfairness. I have no way of predicting how the litigation will 
come out on this.
    I do not believe the alternative you set up to me is a 
practical alternative in the real world. I would just have to 
say it will, I suppose, ultimately be decided in the courts. 
But that really is not the way people ought to be treated by 
their Government.

                                  dams

    Where are we with respect to dams? We had an opportunity, 
you and I, last year when, reflecting back on it, a lot more 
money was going to be available than there is in this 
appropriations bill to make dramatic moves with respect to the 
Elwha in exchange for some significant protections for dams on 
the Columbia and Snake Rivers that ultimately floundered not 
over what I understood your view to be with respect to Federal 
dams but with respect to nonfederal dams that are far more 
important to the economy of the Pacific Northwest than even the 
four dams on the Snake are.
    Are we going to be able to reach any agreement that will 
allow us to go forward on the Elwha, even at a somewhat slower 
speed than we would have had when we started last year, and 
provide a degree of protection and public consent with respect 
to major decisions on the Columbia and Snake Rivers, or are we 
going to continue with an administration position that will 
allow no conditions other than those which actually state 
present law?
    Secretary Babbitt. Senator, I have given this a lot of 
thought since we had those conversations last year, and I am 
not prepared to support or advocate a linkage. I have gone to 
school on this issue a little bit.
    Just as one example, the FERC licensing of dams is 
derivative from a huge debate in earlier years in this U.S. 
Congress in which Theodore Roosevelt himself laid out the case 
for the Federal licensing and periodic relicensing of dams. It 
has worked well. I just think it is inappropriate to freeze a 
system that is working over apprehensions that I think are 
entirely unjustified.
    Now, another event that I think has crystallized my 
thinking in the last year is the emerging agreement over the 
Condit Dam on the White Salmon River in your part of the 
country. We are about ready to sign off on an agreement that is 
acceptable to all of the parties. In the context of this 
history, I just do not see the need for this and I would oppose 
it.
    Senator Gorton. That Condit Dam remark, of course, is 
exactly what we want in connection with anything else that we 
do, something that is reasonably acceptable to all parties. Of 
course, it is exactly what many of our public utility districts 
and other public entities fear is not going to be available to 
them. The simple oral assurance that nothing is going to happen 
is insufficient for them or for me.
    Secretary Babbitt. I understand, and I think we have a flat 
out difference of opinion. It can be argued both ways, but I 
believe that history and reality argue for using the existing 
system and that it has never led to an inappropriate result, 
and I do not think it is going to.

                            Salmon recovery

    Senator Gorton. Finally, none of the $100 million allocated 
for coastal salmon recovery in the Northwest is recommended by 
the administration for the Interior budget, though last year 
the $20 million that was appropriated for that purpose did come 
from the Interior budget, and there may very well be some more 
this year. Do you have any suggestions as we go through this 
process for ensuring that this money gets to the ground to 
local conservation groups and is used efficiently?
    Secretary Babbitt. Senator, two or three thoughts. The $20 
million in our budget last year was a tough hit for the Fish 
and Wildlife Service, because I think it can be viewed as 
having offset implications.
    There is going to be a lot of resistance, which I think is 
entirely justified, for loading this money into our budget in 
light of the conversation that we have just had here. So I 
recognize your prerogative. I urge you to go easy because that 
is the nature of the beast.
    As I listen to the debate about the Pacific Northwest, I am 
confused. We have not yet converged on a salmon recovery vision 
for the Northwest. But, with all respect, we are not going to 
get it by handing this back to the states. We are going to get 
it by some kind of convergence. So I express some skepticism, 
but without really being able to offer you an alternative 
vision. We are not there yet.
    One thing I would leave with you, and that is that I think 
that the science piece of this is one area where we ought to 
put together a coordinated effort. That ought to be relatively 
easy to do.
    Rather than handing off science money to Washington and 
Oregon Federal agencies, I think we could quite easily reach a 
kind of coordinated virtual view of how we do that. Researchers 
are good at it. Scientists know how to do it. It is a very 
small step.
    Senator Gorton. Senator Byrd, do you have anything else you 
would like to add?
    Senator Byrd. Mr. Chairman, I have a few questions which I 
would like to submit for the record. If the Secretary would 
provide answers I would appreciate it very much.
    Other than that, let me thank you for your typical 
courtesy. I have served on your subcommittee here for quite 
some time. I find always that you are very courteous to the 
other members. You allow them to proceed with their questions 
while you take on the heavy duty work of staying around and 
doing the rest of it by yourself, closing up the door and 
locking it, turning the lights out. I appreciate that. I just 
wanted to call attention to that in the record.
    Also, I want to say to the Secretary that I have been 
around this Hill now for 47 years. This is my 47th. Abraham was 
175 years old and Jacob was 180--no. Wait a minute.
    Abraham was 175, Isaac was 180, Jacob was 147, and Joseph 
was 110. Strom Thurmond is 96, I believe, or 95. But I have 
been around a long time. I think this is the finest Secretary 
of the Department of the Interior that I have had experience 
with. He does not always please us with his answers, but he is 
pretty forthright, even more so than most secretaries of most 
departments, may I say. You will never find one that is as 
forthright as the blade of an ax, but this secretary comes 
pretty close. I want to thank him for the good work he has 
done. [Laughter.]
    Thank you, Mr. Chairman.
    Senator Gorton. You are welcome.
    Mr. Secretary, you are never going to get a better 
compliment than that.
    The only amendment that I might have to make to your 
remarks, Senator Byrd, is that I am afraid that it may be this 
administration that is turning out the lights, not me.

                     Additional committee questions

    Thany you very much. There will be some additional 
questions which will be submitted for your response in the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Slade Gorton
                        Departmental Management
           government performance and results act--department
    Both GAO and the Department's Inspector General have repeatedly 
reported on the lack of consistent, accurate, and reliable data from 
the Park Service and other Interior agencies on the scope and extent of 
deferred maintenance on the resources they are responsible for 
protecting. The performance plans for the Park Service, Bureau of Land 
Management, and other Interior agencies have performance goals that 
attempt to measure progress towards addressing their deferred 
maintenance needs.
    Question. What is the Department doing to ensure that the quality 
of data developed by the respective agencies will overcome the 
deficiencies it has had in the past so that useful, valid measurements 
of performance can be determined?
    Answer. The Department of the Interior and its bureaus have 
embarked on a number of initiatives to improve the quality of 
facilities management information.
    In fiscal year 1998, the Department developed standardized 
definitions to help resolve some of the inconsistencies among the ways 
annual maintenance, deferred maintenance, and capital improvement 
(construction) are reported. In addition, a set of standardized 
information was defined for describing deferred maintenance and capital 
improvement projects in the budget formulation process. These standards 
were used in the development of the fiscal year 2000 Five-Year 
Maintenance and Capital Improvement Plan which has been submitted to 
the Congress. The Department also intends to begin a facilities 
condition assessment process starting in fiscal year 2000. Through this 
process we hope to validate our facilities inventory, obtain a more 
definitive measure of the magnitude of deferred maintenance throughout 
the Department, and develop facilities condition metrics. It is 
expected that the condition assessment process will take approximately 
five years to complete one full cycle on all facilities.
    In fiscal year 1999, a maintenance management system selection team 
composed of bureau representatives has been chartered to assess the 
availability and feasibility of using commercial off-the-shelf (COTS) 
software for facilities maintenance management within the Department. 
The team is currently evaluating the requirements of current system 
users and potential users. The software functionality needed at large, 
complex locations as well as at the many smaller, less complex 
locations is being defined. An assessment will then be made of how well 
the requirements can be satisfied by commercial software and which 
requirements will require customized software solutions. Standardized 
facilities management data elements for the Department are also being 
defined as part of this effort.
    Collectively, these efforts will provide the facilities management 
information needed to assure valid performance management.
    Question. What specific steps have you taken as the head of the 
Department to achieve performance-based management within your agency, 
as required by the Government Performance and Results Act?
    Answer. The Department has taken a number of steps over the past 
several years to move toward performance-based management and an 
orientation toward results. We have organized cross-departmental 
management groups to ensure that the Department is focused on 
performance, and we are using performance information to help guide 
management practices. For instance, the Department has instituted a 
quarterly data reporting system to track progress toward achieving our 
annual GPRA performance goals. Each bureau reports to the Department on 
a quarterly basis on each of its annual performance goals. This system 
is a source of continuous information about performance, and allows 
Departmental and bureau managers to identify areas needing additional 
management attention. The Interior Management Council, which consists 
of the Deputy Directors of Interior's bureaus and offices and 
Departmental management offices, also reviews GPRA implementation 
issues on a regular basis.
    Although the current fiscal year is the first year in which we are 
operating under a GPRA annual performance plan, we are already finding 
utility in the performance information generated through the GPRA 
process. In many cases, we have used performance information and 
projections as a meaningful factor in managing our programs. For 
example, the National Park Service has developed park-specific 
strategic plans and annual performance plans for each of its units as a 
means to set a consistent and measurable set of goals for the 
organization. In addition, we have established performance goals for a 
number of cross-cutting areas of national concern, including the South 
Florida Ecosystem Restoration Program, the Northwest Forest Plan, and 
the Wildland Fire Program. We are currently participating in a pilot 
program through the Natural Resources Performance Management Forum, a 
consortium of natural resource agency planners, to develop a more 
coordinated federal planning approach to clean water management. In 
addition, the Department is searching for ways to improve our planning 
processes and streamline our GPRA plans. The fiscal year 2000 annual 
plan contained significantly fewer goals and measures than the fiscal 
year 1999 plan. Interior plans to revise its strategic plan by March 
2000. In this revision, we plan to streamline our plans and goals even 
further.
    Question. How are your senior executives and other key managers 
being held accountable for achieving results?
    Answer. Building accountability for results is one of the key 
elements in successfully implementing GPRA, and Interior is taking 
steps to link individual accountability with results. For example, 
Interior's SES performance appraisal system has been closely tied to 
the goals and objectives in the Department's GPRA strategic plan. The 
Department's October 16, 1998 guidance on developing SES performance 
agreements for 1998-1999 stated, in part: ``the performance elements 
and standards included in the individual 1998-1999 SES performance 
agreements must reflect the initiatives, commitments, and goals 
included in the Department's ``Government Performance and Results Act 
Fiscal Year 1999 Annual Performance Plan.'' The guidance addresses the 
need to directly link mission outcomes with the individual performance 
of the Department's senior managers. In addition, the Department is 
taking action throughout the year to build accountability. The 
Department is currently conducting GPRA review meetings with each of 
Interior's bureaus. The meetings are attended by senior managers from 
the bureaus and from the Departmental management offices. During these 
meetings, the group reviews bureau quarterly performance information 
and discusses a wide range of performance management issues.
    Many of our bureaus are also building accountability processes 
tailored to their own management systems and cultures. For example, the 
National Park Service has included GPRA performance elements in all 
performance appraisals for all park superintendents and supervisors. 
This has focused the attention of field-level managers on the goals and 
objectives that have been established for their areas of responsibility 
through the strategic planning process.
                  recreation fee demonstration program
    The Department has now been administering the recreation fee 
demonstration program for several years.
    Question. Can you describe for the Subcommittee how much revenue is 
being generated in this program for the three participating Interior 
agencies?
    Answer. In the two full fiscal years the program has been in 
operation, 1997 and 1998, the three participating Interior agencies 
have collected $189,580 thousand in rec fee demonstration receipts.
    Some criticism has been leveled at the Department, particularly the 
Park Service, for failing to make fee demonstration funds available for 
actual projects in a timely manner.
    Question. Why has this been the case?
    Answer. In actuality, approval of the projects funded through fees 
has been as timely as possible given the fact that the program is new. 
Agencies have needed time to develop expenditure-approval procedures 
and set up accounting systems. It also takes time to plan and implement 
expenditure projects. Some of the smaller units are saving their fees 
until they have enough for sizable projects. Nevertheless, the Agencies 
are improving the rate of project accomplishment.
    Question. What is the Department doing to ensure fee demo funds are 
available in a reasonable time frame, while maintaining adequate 
oversight of the program as a whole?
    Answer. The Department is working with the agencies to ensure 
accountability by instituting procedures for management of the fee 
demonstration receipts, including procedures governing the approval, 
expenditure, and reporting on the projects. The Department and the 
agencies are working to streamline the approval process.
    The GAO's evaluation of the fee demo program concluded that there 
is still insufficient coordination among the four agencies involved, 
and that this lack of coordination has in some cases resulted in 
duplicate or overlapping fee structures in areas where there are 
multiple public land units.
    Question. Do you think this is a valid criticism?
    Answer. The Department concurs that more coordination is needed. 
The Department plans to review Recreation Fee Demonstration sites for 
ensuring coordination wherever feasible and appropriate.
    Question. What is being done within the Administration to respond 
to this criticism?
    Answer. Agency fee managers are meeting on a regular basis to 
discuss plans, problems, and solutions related to greater coordination 
of the program. On January 6, 1999, the Assistant Secretary for Policy, 
Management and Budget proposed an internal review of all fee 
demonstration sites throughout the Department to determine where 
coordinating and consolidating fees is feasible and appropriate.
    The GAO also suggested that Congress may wish to consider reducing 
the amount of fee revenues that remain in the collecting unit, thereby 
increasing the amount available for other units.
    Question. What is your response to this suggestion?
    Answer. The Department appreciates the significant benefits brought 
about as a result of the Recreation Fee Demonstration Program, and 
recognizes that the program was established as a pilot only three years 
ago. The Department believes there may be room for improvements to the 
program, such as perhaps reducing the share of the collecting units in 
order to provide a greater share to the other units. The Department 
would like to work with the Appropriations Committees to determine the 
best approaches for improving the program.
    Question. Do you have any other observations about the fee program 
that you would like to share?
    Answer. The fiscal year 2000 budget includes an increase of $2.5 
million in the NPS budget for management of the Recreation Fee Program. 
This increase is critical to providing sufficient staff to ensure the 
program maintains accountability as well as timely expenditure of 
funds.
    Question. Does the Administration intend to propose specific 
legislation to permanently authorize a fee program based on the fee 
demo program?
    Answer. This is under consideration, given that the original 
program was intended to be temporary. The Department would like to work 
with the Appropriations Committees to determine the best approaches for 
permanent authorization.
                            five year plans
    The Department has submitted to the Committee a series of 5 year 
plans to address the deferred maintenance and construction backlogs of 
the three Interior land management agencies, the Geological Survey, and 
the BIA. As part of this process, the Department and the individual 
bureaus have spent considerable time in identifying the maintenance 
backlogs of those agencies based on a consistent set of definitions.
    Question. Are the 5 year plans delivered to the Subcommittee based 
upon a common set of definitions for maintenance backlog that enables 
this subcommittee to fairly judge the relative needs of these agencies?
    Answer. The 5-year plans are based on a common set of definitions 
developed by the bureaus and DOI for maintenance needs. However, the 
Department did not seek to compare the merits of individual projects 
across bureau lines because of the varied Congressionally mandated 
bureau missions that requires emphasis on different goals.
    Question. How is the Department balancing the need to establish 
uniform criteria and standards for bureau maintenance plans against the 
need to avoid adding another layer of bureaucracy or duplication to 
agency planning efforts?
    Answer. During the initial year of the first 5-year plan, both the 
bureaus and the Department were heavily involved in detailed feedback 
and reviews because of the first-time ever use of common definitions 
across the bureaus. Because this required some of the bureaus to 
redefine terms, Departmental oversight was essential in assuring 
consistent use of terms and scoring of projects among the bureaus. By 
working cooperatively with the bureaus in developing criteria and 
standards and in preparing 5-year plans, the Department is able to 
avoid duplication of effort. The bureaus nominated projects for 
inclusion in the 5-year plans.
    Question. Describe the Department's role (as opposed to individual 
bureaus) with respect to developing the 5 year plans.
    Answer. Bureaus nominated and scored projects in the 5-year plans. 
Then the Department reviewed projects for consistency with definitions 
and scores attributed to each. If an individual project did not appear 
to be consistent with definitions/weighting factors, the Department 
sent it back for reassessment/better descriptions to the bureaus and 
then re-reviewed it.
    Question. What will be the Department's role in ensuring that 
bureaus are true to their plans?
    Answer. The commitment of Assistant Secretary--Policy, Management, 
and Budget John Berry in fiscal year 1999 continues. On a project-by-
project basis, the Department and bureaus annually will report 
completions by project after the end of the fiscal year as well as any 
changes to the project list based on (1) work already completed, (2) 
unfunded emergency work that required immediate attention, (3) changes 
resulting from unforeseen site conditions, and (4) work that no longer 
needs to be accomplished. In addition, the fiscal year 2000 request 
includes funding put in place maintenance management systems that will 
facilitate this tracking and reporting.
    The 5 year plans identify roughly $2.4 billion worth of projects, 
including, for example, $1.13 billion for the Park Service.
    Question. Based on the 5 year plan, is it now safe to say that the 
maintenance backlog for the Park Service is $1.13 billion?
    Answer. No. The five year plan represents reviewed and approved 
repair/rehabilitation and line item construction projects that have 
been identified as priorities. While the majority of these projects are 
deferred maintenance projects, they do not represent the entire 
National Park Service backlog of deferred maintenance.
    The NPS currently estimates an identified deferred maintenance 
backlog of about $3.54 billion as reported in the 1998 Chief Financial 
Officers report, including facilities, costs for housing, paved roads 
and bridges and dams. However, this total is only a conceptual cost 
estimate based on costs for similar work accomplished by the 
construction industry and past National Park Service estimates. This 
estimate was prepared without a fully defined scope of work, and 
without a complete inventory and condition assessment of the facilities 
managed by the National Park Service. Since the actual cost of 
correcting deferred maintenance cannot be known until a comprehensive 
inventory and condition assessment has been completed, and a fully 
defined scope of work has been developed, this amount is by necessity a 
very general, or Class C, estimate. In addition, this backlog includes 
only the deferred facility maintenance projects reviewed and approved 
by NPS and listed in the Project Management Information System, and 
does not include projects identified as backlog by parks but not yet 
reviewed by NPS.
    Also, this estimate is for maintenance repairs to existing 
structures as a snap shot of their current condition. It does not 
include the funding level needed in order to maintain those facilities 
at an acceptable level once their condition has been restored. Because 
this estimate is so uncertain, it is difficult to use as a measure of 
performance in addressing deferred maintenance needs. Instead, we 
intend to use our 5-year plans to monitor progress in completing 
priority construction and facility maintenance projects.
    Keeping with the Park Service, the 5-year plan includes a numeric 
rating for most of the projects included in the plan. There are a few 
exceptions, however, where projects are given a ``special'' or ``NA'' 
rating. Examples of these would be the utilities repair at Glen Echo, 
rehabilitation of the Carderock Stables in the C&O Canal National 
Historic park, and construction of an Environmental and Education 
Center at Virgin Islands National Park.
    Question. Why is a numeric rating for these projects not included 
in the plan? How did such projects come to be included in the plan? 
Don't you think the scattering of such unrated projects throughout the 
plan diminishes the integrity of the plan itself?
    Answer. Not all projects in the 5-year program list competed for 
priority in the Choosing by Advantage (CBA) system. However, this 
situation is not unique to the current 5-year construction program. In 
most NPS budget requests, there are projects that are sufficiently 
compelling to NPS/DOI officials that they are selected over projects 
that competed for and received an NPS priority. The projects in the 
program marked as ``special'' or ``NA'' did not compete in the CBA 
process, but were included due to special circumstances or needs.
    An explanation for each of the projects designated as ``special'' 
or ``NA'' follows:
    (1) Everglades National Park, Modify Water Delivery System. This 
project is an ongoing Administration initiative, is critical to the 
Everglades Restoration Project, and is of such size and complexity that 
it could not compete reasonably with other NPS projects in the CBA 
process.
    (2) Olympic National Park, Restore Elwha River Ecosystem. The same 
explanation as provided for the Everglades project applies to this 
project.
    (3) Cape Hatteras National Seashore, Complete Lighthouse 
Relocation. This project was initiated before the CBA process was in 
use. A policy decision was made that ongoing projects did not have to 
compete in the new CBA system. This allows projects that received 
priority consideration under the former system to be completed.
    (4) Independence National Historical Park, Complete Rehabilitation 
of Merchants Exchange Building. Like the Cape Hatteras project, this 
project was initiated in a prior year and ranked under the old system.
    (5) George Washington Memorial Parkway, Glen Echo Utilities. This 
project did not compete in the CBA process but was included because it 
presents an excellent opportunity to partner with the State and local 
government to solve major utility system problems at the park. The 
Federal share of this project will be only \1/3\ of the total project 
cost. In this case, the benefit of the sizeable match of nonfederal 
funds was determined to outweigh other criteria used in the CBA 
process.
    (6) San Francisco Maritime National Historical Park, Rehabilitate 
Schooner, C.A. Thayer. This project was evaluated and ranked using the 
CBA process. It received very high ranking as a resource protection 
project. However, because of the heavy emphasis placed on health and 
safety, this project was not scheduled until fiscal year 2002. In the 
course of finalizing the fiscal year 2000 budget, NPS and Departmental 
officials determined that this resource could not wait until 2002 to 
receive attention. Also, there is a public campaign now underway by the 
park's cooperating association to raise funds to contribute to saving 
the ship. The fund-raising effort will be enhanced by demonstrating the 
Federal commitment to attain its share of the funds as soon as 
possible.
    (7) Chesapeake and Ohio Canal National Historical Park, Carderock 
Stables. This project consists of construction of a new stable area for 
the United States Park Police (USPP) horse-mounted unit at the 
Carderock Picnic Area in Maryland. This horse mounted USPP unit patrols 
the towpath of the C&O Canal National Historical Park, and is the 
primary law enforcement presence in the park along 22 miles of towpath 
between the beginning of the canal in Georgetown and Riley's Lock in 
Seneca, Maryland. The unit was formerly staged at Glen Echo Park in 
Maryland, but needs relocation during reconstruction of the utilities 
at the park. Temporary quarters for this unit has been established at 
Edgewater Stables in Rock Creek Park for the past three years. This 
facility serves as a training center for the USPP horse mounted units 
and is currently overcrowded with the addition of the unit from Glen 
Echo. This project did not compete for priority through the CBA process 
in the NPS review session that took place during the summer of 1998. 
The project was later reviewed by NPS and DOI officials, however, and 
found to be critical to the protection of the visitors along the canal 
and inserted it into the 5-year program.
    (8) Virgin Islands National Park, Environmental and Resource 
Preservation Center. This project is for the construction of an 
environmental heritage center that will provide interpretive exhibits 
and interactive displays, an environmental classroom for the visiting 
public and local students, a venue for craft demonstrations, and 
program office space, equipment storage and a meeting room for use by 
park partners. Visitation at the park has risen dramatically in recent 
years and will double within two years with the advent of the Eagle 
Class cruise ships. Additionally, there is a growing need for park 
education programs for area youth in environmental awareness and 
responsibility. Interpretive programs for local schools have increased 
over 200 percent both in the field and in the classroom through an 
acclaimed environmental heritage program. Many groups have been turned 
away highlighting the need for increased programming and facilities. 
Facilities to house and support these programs do not exist. The 
project was not in the CBA priority review process. The criteria 
applied in the CBA and DOI priority setting process weighs heavily in 
favor of health, safety, and resource protection projects. This project 
would not have scored high in that review. Nonetheless, NPS and DOI 
officials determined that the lack of visitor facilities at this park 
coupled with the significant and increasing visitor use justified 
overriding the strict application of the NPS/DOI priority setting 
system.
                    land and water conservation fund
    A series of legislative proposals have been introduced that would 
permanently appropriate a portion of the Outer Continental Shelf oil 
and gas revenues for a wide variety of programs; land acquisition, 
Stateside grants, the UPARR program, historic preservation, endangered 
species programs, etc. Not surprisingly, these are some of the programs 
that generate the most interest in the Interior bill.
    Question. Are you concerned at all, Mr. Secretary, that enactment 
of such legislation could have a detrimental effect on other 
Departmental programs?
    Answer. No. The Lands Legacy Initiative would appropriate the full 
authorized amount of annual receipts credited to the Land and Water 
Conservation Fund from offshore oil drilling to conservation efforts. 
The other programs within Interior do not rely on the Land and Water 
Conservation Fund to secure their funding. Those programs should 
continue to receive the appropriate level of funding this year and into 
the coming years.
    Question. Assuming that funds currently appropriated for these 
programs would be ``backed out'' of this Subcommittee's allocation 
should such legislation be enacted, do you think future Members of 
Congress, future OMB Directors, and future Presidents will remain 
interested in protecting what remains of the Department's discretionary 
programs, whether it be BIA operations, Departmental Management, or the 
Office of Surface Mining?
    Answer. Yes. The Administration believes that it is likely the 
Congress, future OMB Directors, and future Presidents will continue to 
be as interested as they are now in appropriating funding to national 
parks, refuges, BIA operations, and the Department's other 
discretionary programs. These programs continue to support activities 
authorized by the Congress and are important to Administration goals 
including: protection and conservation of the Nation's natural and 
cultural resources; stewardship of Indian trust responsibilities; 
management of public lands; providing recreational and educational 
opportunities; and many others.
                                 fines
    Question. For each of the land management agencies under your 
jurisdiction, are civil and/or criminal fines assessed and collected by 
those agencies deposited in the Treasury, or are such fines retained by 
the collecting agency? To the extent fines are collected under various 
authorities, please describe those authorities, to which agencies they 
apply, and the treatment of collected fines pursuant to those 
authorities.
    Answer. The authorities, types of activity for which fines and 
penalties may be imposed and their disposition, and fiscal year 1998 
collections are shown in the following table.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        Treatment and use
              Bureau                    Statutory authority \1\             Activity fined \2\                 \3\              Fiscal year 1998 \4\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bureau of Land Management.........  Mineral Leasing Act, as amended  Failure of operator to comply    Deposited to          $69 thousand.
                                     and supplemented (30 U.S.C.      with regulations, terms of any   Treasury General
                                     181 et seq.), the Act of May     lease or permit, and             Fund, 14-1099,
                                     21, 1980 (30 U.S.C. 301-306),    requirements of any notice or    Fines, penalties,
                                     the Mineral Leasing Act for      order; failure of operator to    and forfeitures Not
                                     Acquired Lands, as amended (30   install blowout preventer or     Otherwise
                                     U.S.C. 351-359), the Act of      other equivalent well control    Classified.
                                     March 3, 1909, as amended (25    equipment, drilling without
                                     U.S.C. 396), the Act of May      approval or causing
                                     11, 1938, as amended (25         disturbance on Federal or
                                     U.S.C. 396a-396q), the Act of    Indian surface preliminary to
                                     February 28, 1891, as amended    drilling without approval, and
                                     (25 U.S.C. 397), the Act of      failure to obtain approval of
                                     May 29, 1924 (25 U.S.C. 398),    a plan for well abandonment
                                     the Act of March 3, 1927 (25     prior to commencement of such
                                     U.S.C. 398a-398e), the Act of    operations; failure of
                                     June 30, 1919, as amended (25    transporter to permit
                                     U.S.C. 399), R.S. 19441 (43      inspection for proper
                                     U.S.C. 1457), the Attorney       documentation by any
                                     General's Opinion of April 2,    authorized representative;
                                     1941 (40 Op Atty. Gen. 41),      failure or refusal to permit
                                     the Federal Property and         lawful entry or inspection;
                                     Administrative Services Act of   willful or knowing failure to
                                     1949, as amended (40 US.C. 471   notify the authorized officer
                                     et seq.), the National           . . . after any well begins
                                     Environmental Policy Act of      production on which royalty is
                                     1969, as amended (42 U.S.C.      due or resumes production . .
                                     4321 et seq.), the Act of        . ; willful or knowing
                                     December 12, 1980 (94 Stat.      submission of false,
                                     2964), the Combined              inaccurate or misleading
                                     Hydrocarbon Leasing Act of       reports, notices, affidavits,
                                     1981 (95 Stat. 1070), the        records, data or other written
                                     Federal Oil and Gas Royalty      information; and willful or
                                     Management Act of 1982 (30       knowing removal,
                                     U.S.C. 1701), the Indian         transportation, use, or
                                     Mineral Development Act of       diversion of any oil or gas
                                     1982 (25 U.S.C. 2102), and       from any Federal or Indian
                                     Order Number 3087, dated         lease site without valid legal
                                     December 3, 1982, as amended     authority to do so.
                                     on February 7, 1983 (48 FR
                                     8983) under which the
                                     Secretary consolidated and
                                     transferred the onshore
                                     minerals management functions
                                     of the Department, except
                                     mineral revenue functions and
                                     the responsibility for leasing
                                     of restricted Indian lands to
                                     the Bureau of Land Management.
Bureau of Land Management.........  Title I of the Interior part of  43 U.S.C. 1735(a). Any moneys    Deposited to 14X5017  Information not available.
                                     the Omnibus Consolidated         received by the United States    as an available
                                     Appropriations Act, 1999         as a result of the forfeiture    receipt. (Besides
                                     (Public Law 105-277) Provided,   of a bond or other security by   fines, penalties,
                                     That notwithstanding any         a resource developer or          and forfeitures,
                                     provision to the contrary of     purchaser of permitee who does   deposits to this
                                     section 305(a) of Public Law     not fulfill the requirements     account include:
                                     94B579 (43 U.S.C. 1735(a)),      of his contract or permit or     charges for
                                     any moneys that have been or     does not comply with the         administrative
                                     will be received pursuant to     regulations of the Secretary;    expenses and other
                                     that section, whether as a       or as a result of a compromise   costs related to
                                     result of forfeiture,            or settlement of any claim       processing
                                     compromise, or settlement, if    whether sounding in tort or in   applications for
                                     not appropriate for refund       contract involving present or    use and disposal of
                                     pursuant to section 305(c) of    potential damage to the public   public lands and
                                     that Act (43 U.S.C. 1735(c)),    lands shall be credited to a     resources, for
                                     shall be available and may be    separate account in the          monitoring,
                                     expended under the authority     Treasury and are hereby          construction,
                                     of this Act by the Secretary     authorized to be appropriated    operation, and
                                     to improve, protect, or          and made available.              termination of
                                     rehabilitate any public lands                                     facilities in
                                     administered through the                                          conjunction with
                                     Bureau of Land Management                                         use authorizations,
                                     which have been damaged by the                                    and for
                                     action of a resource                                              rehabilitation of
                                     developer, purchaser,                                             damaged.).
                                     permittee, or any unauthorized
                                     person, without regard to
                                     whether all moneys collected
                                     from each such action are used
                                     on the exact lands damaged
                                     which led to the action.
Fish and Wildlife Service.........  Lacey Act P. L. 97-79 16 U.S.C.  Importation, exportation,        Deposited and         Civil--$710.3 thousand.
                                     3371-3378.                       transportation, sale or          credited to a        Criminal--$31.4 thousand.
                                                                      purchase in interstate or        general fund
                                                                      foreign commerce, of fish and    account 14X1611,
                                                                      wildlife taken or possessed in   Resource
                                                                      violation of state, federal,     Management.
                                                                      Indian tribal or foreign laws.   Obligated for
                                                                                                       rewards and
                                                                                                       temporary storage
                                                                                                       of evidence.
Fish and Wildlife Service.........  Endangered Species Act 16        Importation, exportation,        Deposited and         Civil--$86.7 thousand
                                     U.S.C. 1531-1544.                taking or commercialization in   credited to an        Criminal--$141 thousand.
                                                                      interstate or foreign commerce   appropriated
                                                                      of fish, wildlife, or plants     general fund
                                                                      that are listed as threatened    account 14X1611,
                                                                      or endangered species.           Resource
                                                                                                       Management.
                                                                                                       Obligated for
                                                                                                       rewards and
                                                                                                       temporary storage
                                                                                                       of evidence.
Fish and Wildlife Service.........  Migratory Bird Treaty Act16      Pursuit, hunting, killing,       Collected into an     $3,716.8 thousand.
                                     U.S.C. 703-712.                  capturing, possessing, buying,   unavailable receipt
                                                                      selling, purchase, or barter     account, 14-5241,
                                                                      of any migratory bird,           then warranted and
                                                                      including the feathers or        spent as an
                                                                      other parts, nests, eggs, or     available receipt
                                                                      migratory bird products.         in 14X5241, North
                                                                                                       American Wetlands
                                                                                                       Conservation Fund.
                                                                                                       Obligated for the
                                                                                                       purposes of the
                                                                                                       North American
                                                                                                       Wetlands
                                                                                                       Conservation Act,
                                                                                                       16 U.S.C. 4406.
Fish and Wildlife Service.........  Not specifically identified....  Fines assessed by the courts in  Deposited to          $31 thousand.
                                                                      suits brought for trespass,      Treasury General
                                                                      and accidental or malicious      Fund14-1099.
                                                                      environmental damage; and
                                                                      suits under the Debt
                                                                      Collection Improvement Act.
National Park Service.............  NPS authority is derived from    Violation of regulations         The Ranger            Traffic related citations,
                                     16 U.S.C. 1, which gives the     necessary for safe management    Activities Division   $3,294 thousand.
                                     Secretary authority to issue     of the National Park System.     of the National      Non-traffic related
                                     any regulations necessary for                                     Park Service does     citations, $2,616 thousand.
                                     the safe management of the                                        not collect
                                     National Park System. In park                                     criminal fines; the
                                     areas under the legislative                                       fines go to the
                                     jurisdiction of the United                                        Central Violations
                                     States, NPS enforces 16 U.S.C,                                    Bureau, U.S.
                                     18 U.S.C, 21 U.S.C, 25 U.S.C.                                     Department of
                                     and 42 U.S.C. as well as 33                                       Justice. The courts
                                     CFR, 36 CFR, 40 CFR, 43 CFR                                       assess civil fines,
                                     and 50 CFR.                                                       and if any money is
                                                                                                       received by the
                                                                                                       NPS, it is usually
                                                                                                       as reimbursement of
                                                                                                       expenses. Civil
                                                                                                       fines are credited
                                                                                                       to NPS
                                                                                                       appropriations as a
                                                                                                       reimbursement of
                                                                                                       expenses.
National Park Service.............  22 Stat. 243, chapter 389,       The same powers and duties as    United States Park    $6,670.5 thousand.
                                     August 5, 1882; 41 Stat. 364,    the Metropolitan Police in       Police does not
                                     chapter 1, section 3, December   Washington, D.C. Also, on and    collect criminal
                                     5, 1919; 45 Stat. 721, May 23,   within the roads, parkways,      fines; the fines go
                                     1928; 46 Stat. 482, May 29,      and other Federal reservations   to the Central
                                     1930; 62 Stat. 81, March 17,     in the environs of the           Violations Bureau,
                                     1948, and Public Law 94-458,     District of Columbia over        U.S. Department of
                                     90 Stat. 1939, October 7, 1976.  which the United States has,     Justice. Tickets
                                                                      or shall hereafter acquire,      written or fines
                                                                      exclusive or concurrent          imposed for parking
                                                                      criminal jurisdiction, the       (or similar
                                                                      United States Park Police        violations) in the
                                                                      shall have the power and         District of
                                                                      authority to make arrests for    Columbia
                                                                      violation of any Federal law     metropolitan area
                                                                      or regulations issued pursuant   go the D.C. Bureau
                                                                      to law. In 1976, the Secretary   of Traffic
                                                                      of the Interior was authorized   Adjudication or
                                                                      to designate certain officers    other local
                                                                      of employees of the Department   governments. Civil
                                                                      of the Interior who shall        fines are assessed
                                                                      maintain law and order and       by the courts, and
                                                                      protect persons and property     if any money is
                                                                      within areas of the National     received by the
                                                                      Park System.                     NPS, its is usually
                                                                                                       as reimbursement of
                                                                                                       expenses.
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Authority under which fines are collected (provide P.L and Stat., or U.S. Code citations).
\2\ Description of activity for which fines are imposed.
\3\ Deposited to General Fund--deposited to special fund, but subject to appropriation; or retained and spent either as an available receipt or as an
  offsetting collection credited to an appropriation. If use is authorized, describe how the revenue may be used.) Specify account symbol and title.
\4\ Collections--Actual amount of fines collected in fiscal year 1998.

 independence for functions of contract rate setting and audit in the 
                               department
    Within the Department of the Interior, the Office of the Inspector 
General both establishes the contracting rates and audits them. In 
contrast, the Department of Health and Human Services' Division of Cost 
Allocation sets contracting rates for thousands of contractors. Audits 
of rates are conducted by a different office. The GAO has raised the 
issue of independence of the two functions.
    Question. Shouldn't the rate setting function and the auditing 
function be independent of one another? The Office of Policy and Budget 
is the obvious place for rate-setting, and the issue has come up in the 
past. Why hasn't the Department established independence for these 
functions?
    Answer. The Office of Inspector General (OIG) negotiates cost rates 
with approximately 350 Indian organizations, 50 state agencies, 20 
insular government organizations, and five non-profit organizations. In 
general, however, the OIG does not conduct audits of the tribes or 
other grantees. Under the provisions of the Single Audit Act, certified 
public accountants from the private sector audit the expenditure of 
Federal funds by grantees and Indian tribes. When there are specific 
requests to the OIG to conduct audits related to overhead rates, such 
as close-out of a construction contract, the OIG usually arranges for 
these audits to be conducted by the Defense Contract Audit Agency.
    In 1989 the Department proposed to transfer the function of 
negotiating indirect cost rates from the Office of Inspector General to 
the Office of the Assistant Secretary--Policy, Management and Budget. 
The Inspector General and the Assistant Secretary for Policy, 
Management and Budget supported the transfer on the basis that the 
negotiation of indirect cost rates is a program function. However, 
Indian Tribes did not support the transfer, as expressed in a May 5, 
1989, letter from then-Senator Quentin Burdick to Senator Robert Byrd 
which stated:

          ``Tribes oppose the transfer on a number of grounds. They 
        have found negotiations with the Inspector General's Office to 
        be a fair and objective process. They are concerned that if the 
        function is transferred, it will be used as a vehicle for 
        cutting the budget justification. . . . I request that in the 
        Interior appropriations bill for fiscal year (fiscal year) 
        1990, the Committee prohibit the transfer of the indirect cost 
        function to the Office of the Secretary. I enclose bill and 
        report language that would accomplish this result.''

    No funds were provided for the transfer in fiscal year 1990.
    The Department has not thoroughly revisited this question since 
that time. We do believe it is acceptable to have both functions in one 
organization. The segregation of duties does not require that the 
functions be performed by independent organizations--just by separate 
individuals--or subject to supervisory review when there may be 
inadequate segregation of duties. All OIG audits are subject to several 
levels of supervisory review, and there are further checks and 
balances, since the OIG does not have the authority to compel action by 
bureaus.
    In any case the Department believes that it can not change the 
process for negotiating the rates until the Ramah Navajo Chapter v. 
Babbitt lawsuit is resolved. On May 8, 1997, the Tenth Circuit Court of 
Appeals ruled in Ramah that the method used to negotiate indirect costs 
by the Inspector General violated Public Law 93-638 (the Indian Self-
Determination and Education Assistance Act, as amended). [The Bureau of 
Indian Affairs equates indirect costs to contract support. Contract 
support represents the amount of funds which the Bureau annually 
estimates Indian organizations will need to administer Public Law 93-
638 contracts]. As a result of the decision in Ramah, the Department 
must either change the method for negotiating indirect costs or develop 
a different system for estimating the amount of contract support. In 
that regard, the Assistant Secretary for Indian Affairs and the 
National Congress on American Indians are currently preparing their 
recommendations for changes to the system for determining contract 
support. Until a decision on a new system is made, the District Court 
has authorized only the ``continued negotiation of indirect cost rates 
under the system in place prior to the Tenth Circuit decision.'' (Civil 
No. 90-0957, Order of District Court for the District of New Mexico, 
November 4, 1997.)
    Before a transfer could be implemented, the Department would have 
to consult with tribal governments, in accordance with the President's 
Memorandum for the Heads of Executive Departments and Agencies, dated 
April 29, 1994. The Memorandum requires each executive department and 
agency to ``consult, to the greatest extent practicable and to the 
extent permitted by law, with tribal governments prior to taking 
actions that affect federally recognized tribal governments.''
                       Bureau of Land Management
                                 almrs
    Recently GAO testified that BLM has spent over $411 million on this 
project over the last 15 years but the $67 million software component 
of this system has serious problems.
    Question. Can any part of this software be salvaged so that it 
meets users' needs, or is it a total loss?
    Answer. The BLM is conducting an analysis, with the assistance of 
an outside expert third party contractor, of the developed system to 
determine what parts might be used and at what cost. Initial 
assessments indicate that some parts of the ALMRS software performed 
well, met user requirements, and probably could be salvaged for future 
use. The results of this analysis are expected to be available by mid-
summer.
    The ALMRS project relied on a combination of custom software and 
commercial off-the-shelf software. The new technologies we acquired 
(Internet access, reporting database, user-friendly query tools, etc.) 
have been incorporated into the Y2K-compliant Legacy Rehost 2000 
Project and will be used for future land and resource information 
systems. Furthermore, commercial off-the-shelf software we purchased is 
currently being used in BLM's overall data management and development 
of the Spatial Display and Query Module.
    While we are not deploying ALMRS as originally conceived, we 
collected a significant amount of user requirements, documented 
critical business processes, and defined information requirements that 
will be useful in any future development efforts. The BLM also 
benefited from establishing data standards, and from collecting, 
analyzing, and cleaning up the legacy data. The Geographic Coordinate 
Data Base (GCDB) we built will be critical to be able to spatially 
display land information in the future. This data is currently being 
used throughout BLM and by the public and will be used in future 
systems.
    Question. What are BLM's recommendations on how to proceed with the 
automation of its record systems?
    Answer. Our recommendation is to build on the lessons learned from 
the ALMRS project and proceed in a deliberate and thorough manner to:
  --re-validate our users' business needs;
  --re-engineer our business processes before automating them;
  --carefully analyze our options, including risks, costs, and 
        benefits, before selecting a course of action;
  --obtain outside expertise in areas of critical technical skills;
  --adopt a management methodology that clearly identifies risks and 
        prevents proceeding to subsequent steps until the risks and 
        problems of previous steps are addressed and resolved and also 
        establishes reliable, achievable plans and schedules;
  --involve users continuously throughout the development, testing, 
        implementation, and operations and maintenance phases of any 
        new efforts;
  --build new systems in a more incremental, modular fashion; and
  --identify opportunities for partnering, such as with the U.S. Forest 
        Service on common lands data, where we have similar needs.
    The overall emphasis of the recommendations above is to give the 
BLM sufficient time and resources to enable BLM to organize and manage 
for improved results in the next generation of projects.
    Question. What are the costs associated with these recommendations?
    Answer. Since the analysis of a number of different options on how 
to proceed and the identification of the re-usable parts of the 
previous investments is still underway, it is not possible to provide 
an accurate estimate of future costs at this time. We expect to be able 
to answer this question in the near future.
    Question. Based on its experience with ALMRS, does BLM plan to 
improve the process by which it makes acquisition decisions for 
information technology? If so, how will this process be improved?
    Answer. Yes, the BLM does plan to improve its information 
technology acquisition decision process. The BLM will incorporate a 
system life cycle methodology to maximize the value of system 
acquisition, integration and mitigate the risks. The Bureau will be 
directed to adopt a rigorous, structured process to select, control and 
evaluate its information technology investment compliant to the 
Clinger-Cohen Act. The BLM has already established the Information 
Technology Investment Board, consistent with the recommendations of the 
Federal Chief Information Officers (CIO) Council, for this purpose. An 
Investment Analysis will be conducted before a system is developed to 
ensure sound capital investment decision making. The BLM has been 
advised to use the Software Engineering Institute's Capability Maturity 
Model approach to assess information technology capabilities in system 
acquisition, increase long term management training, and augment 
information technology skills from consulting firms.
    The Department has provided guidance in project management, 
information technology infrastructure, and software development 
methodologies. The BLM is re-validating its business needs with its 
users and customers, guided by the requirements of the Clinger-Cohen 
Act. The Bureau is carefully reviewing its business processes to 
identify opportunities to re-engineer those processes to streamline 
them, reduce the time they take, reduce costs, and improve customer 
service. Recognizing the need to obtain and retain technical talent to 
oversee software development, BLM is building its project management 
and technical skills for information technology projects. The BLM has 
retained several outside expert contractors to assist in its planning 
efforts and assessment of needs, and to recommend the means to meet 
those needs in the future. The Y2K compliant approach to BLM's legacy 
land and mineral systems will meet immediate requirements. The BLM is 
reexamining its long-term land and mineral program needs and evaluating 
the potential gap between these needs and the Y2K systems. The BLM will 
then acquire and/or develop systems and technology to support any unmet 
high priority needs.
    The BLM is conducting an analysis, with the assistance of an 
outside third party contractor, of the developed system to determine 
what parts might be used and at what cost. This type of analysis is 
also taking place on BLM's Legacy Rehost 2000 Project. The BLM has 
asked its users to validate the Bureau's objectives and prioritize key 
business processes. These efforts will form the basis to recast BLM's 
concept of operations. However, more analysis needs to take place to 
clearly identify the systems and modules that need to be developed, 
including the National Integrated Land System. This analysis will 
include a detailed business analysis and a return on investment 
analysis.
    Users will be continuously involved from the project's inception 
and will identify the business requirements. The users will also review 
the information technology response to the requirements, the test 
script preparation, the testing, the training material preparation as 
well as the presentation. Finally they will become responsible for user 
support for the system.
    The BLM is adopting the Managed Evolutionary Development (MED) 
methodology to develop systems. MED is conducted by producing 
successive iterations of specified documents at each stage of a 
project. These documents identify uncertainties which translate into 
risk. MED requires that analysis be conducted to reduce the risk before 
a project may proceed. The BLM is contracting with Mitretek to assist 
in implementing MED. Mitretek will also provide quality assurance to 
ensure that all tasks and risks are identified and that appropriate 
mitigation is applied.
    Future development will follow these principles:
  --design, testing, and fielding will be done in modules;
  --``off-the-shelf'' software will be used as much as possible;
  --software will be designed with performance requirements and 
        maintainability built in from the beginning; and
  --project management will use risk management techniques to ensure 
        investments in new modules does not begin until risk and 
        uncertainty has been reduced to a reasonable level.
    This modular type of approach will not be as prone to excessive 
delays or cost overruns because each module will be small enough to 
manage well, and the duration short enough so that reliable estimates 
can be made at the beginning of the module development.
                        coalbed methane permits
    BLM's oil and gas program continues to experience significant 
growth due to industry's interest in coalbed methane in the Rocky 
Mountain states, particularly Wyoming. Documents from BLM indicate that 
the agency expects that in Wyoming alone 1100-1200 additional 
applications for permits to drill (APDs) will be received each year 
over the next five years. According to BLM's budget only enough funding 
is requested to process 200 more APDs across the entire nation.
    Question. How does the agency plan to address the increased number 
of APDs for coalbed methane in Wyoming and other Rocky Mountain states?
    Answer. BLM's oil and gas program is experiencing significant 
growth due to industry's interest in coalbed methane. BLM's projections 
indicate over 8,700 APDs may be filed in a four state area in the next 
four years.
    In Wyoming, the BLM is reallocating personnel and resources from 
some of their current assignments to handle part of the anticipated 
coalbed methane workload. However, that will not allow the BLM to fully 
process all of the coalbed methane applications. The BLM will have to 
forego other work throughout the State to meet these needs.
    In Utah, the BLM has no additional staff that it can allocate to 
this growing workload, and therefore the BLM is unable to process all 
the APDs in a timely fashion. In Wyoming and Utah, we have informed 
industry of expected delays in processing requests for approval. In 
Montana, Colorado, and New Mexico, the BLM is utilizing existing 
personnel to complete environmental documents for coalbed methane areas 
in anticipation of a large increase in coalbed methane APDs and 
associated workload.
    As part of the fiscal year 1999 Emergency Supplemental 
Appropriation, an additional $1.0 million was redirected from other BLM 
funds to assist in the development of coalbed methane. The Bureau does 
not explicitly budget for development of coalbed methane. At present, 
permit review and associated work is funded from the ``Oil and Gas 
Management'' subactivity, for which BLM requested a modest increase--to 
$55,326,000--in the fiscal year 2000 budget request. The magnitude of 
increased industry demand for coalbed methane was not anticipated at 
the time the President's budget was prepared. However, some additional 
work on processing CBM requests can and will be accommodated within the 
amount included in the 2000 request for Oil and Gas Management.
    Question. How many additional applications for permits to drill 
(APDs) for coalbed methane does the agency expect in fiscal year 2000 
versus fiscal year 1999?
    Answer. Based on the BLM's and industry's projections, the BLM 
anticipates approximately 8,700 APDs for coalbed methane to be filed 
between fiscal year 1999 and fiscal year 2003. In 1999 and 2000, the 
BLM anticipates receiving about one third of this work, primarily in 
Wyoming, Utah, and Montana.
    Question. How much additional money is needed to process all 
expected APDs?
    Answer. The BLM currently estimates that the costs to address 
priority coalbed methane activity could range as high as $4 to $5 
million in fiscal year 2000. It is estimated that Wyoming could use as 
much as $2-$2.5 million for its activities, primarily leasing and 
processing of APDs. The remaining costs will be split between Utah, 
Montana, Colorado, and New Mexico to complete any necessary NEPA 
requirements and permitting work for APDs.
    Question. Shouldn't a high priority be placed on processing APDs, 
since the earlier wells go into production the sooner the royalty 
revenue can be collected?
    Answer. The BLM recognizes the need to process APDs and all other 
approvals in a timely manner as these decisions impact revenue and 
other public interests. However, this unanticipated high level of 
industry activity will not allow the BLM to meet its usual standards 
for timely processing of all post lease applications. The BLM will 
continue to make every effort to process APDs in the shortest time 
possible.
    Question. What is the impact of increased activity in the permit 
processing for coalbed methane on other aspects of the agency's energy 
and minerals program? How does BLM plan to address these impacts over 
the long-term?
    Answer. As funds and personnel are shifted to APD processing, other 
post-APD and other work may become backlogged. The BLM will seek budget 
increases if shifts alone are not able to meet the demand. Budget 
increases would allow BLM to hire additional personnel to process the 
anticipated APD workload.
                            grazing permits
    Due to the ``Comb Wash Decision'' issued by the Interior Board of 
Land Appeals in 1997, the BLM must now conduct NEPA compliance and Land 
Use Plan conformance reviews before re-authorizing livestock grazing 
permits or leases. According to the agency's budget justification 1,000 
permits which are due to expire in 1999 will have to be addressed in 
2000. This is in addition to the 1,900 permits that will expire in 
2000. The BLM has requested $2.5 million more to handle this workload.
    Question. Is $2.5 million sufficient to complete the environmental 
review of all the grazing permits that will expire in fiscal year 2000?
    Answer. The proposed $2.5 million requested in the fiscal year 2000 
President's Budget, when combined with existing BLM resources, will 
provide sufficient funding to compile and analyze the data necessary to 
review and complete the permits expiring in fiscal year 2000.
    Question. If all permits set to expire in 2000 will not be 
processed, why is the Administration proposing to delete language from 
last year's Interior Appropriations bill which provided that grazing 
permits that would otherwise expire are renewed on the same terms and 
conditions until BLM completes the processing of the permit?
    Answer. The BLM expects to have the backlog completed by the end of 
fiscal year 2000 and be able to keep pace with expiring permits in 
fiscal year 2001 and beyond.
    Question. Does the Administration have another proposal to address 
expiring permits in fiscal year 2000?
    Answer. The BLM is making every effort to achieve the timely 
completion of environmental review/permit renewal prior to their 
expiration. The BLM plans to address the renewal reviews during a 5 to 
6 month period between the end of the grazing season in 1999 (for most 
operations this is November 1999) and the beginning of the 2000 grazing 
period (April 2000 for most operators), or a similar lead time before a 
permit expires. This strategy will enable the BLM to use lead time for 
completing renewal actions, provided there are no fiscal year 1999 
permit renewals carried over from 1999 having resulted from commitment 
of work forces to an active fire fighting season, emergency fire 
rehabilitation demands or increases in litigation/appeal workload.
    Question. Does this mean that if the BLM doesn't complete the 
environmental review of grazing permits that the holders of these 
permits will be thrown off the public lands?
    Answer. The BLM is exploring all options within applicable laws and 
regulations to avoid disrupting permittees' or lessees' grazing 
operations in cases where it appears that permit renewal will not be 
completed in a timely manner.
                                  fire
    The Department of Interior is funding its Fire Preparedness 
operation at 83 percent of the Most Efficient Level (MEL), while the 
Forest Service is funding its preparedness operations at 67 percent of 
MEL.
    Question. Does this discrepancy between the Forest Service funding 
and DOI funding create any problems in fire fighting? If so, what 
problems?
    Answer. The magnitude of any impact depends on the severity of the 
fire season. The number and type of fire suppression resources and 
support are planned for the average annual workload. When the 
firefighting resources available, regardless of the agency source, are 
less than those planned for the average annual workload, at the most 
efficient level (MEL), more fires will escape initial attack. These 
fires may become large, and consequently both suppression costs and 
damages could increase dramatically. The MEL is the least total cost of 
preparedness, suppression, rehabilitation, and resource losses. 
Although no agency is being provided full MEL funding, as the 
percentage of MEL funding decreases, the amount of fire suppression 
resources that agencies have will decrease accordingly. More fires will 
escape initial attack leading to a greater total workload for the 
interagency fire community. For years, the five federal agencies with 
wildland fire management programs (BLM, BIA, FWS, NPS and USFS) and the 
States have coordinated and cooperated on all wildland fire activities. 
The fire community shares their resources, both in the initial attack 
phase and for large fires, and all of the agencies endorse the 
``closest forces'' and ``total mobility'' firefighting concepts. When 
events such as dry lighting storms occur, there are often an 
overwhelming number of multiple ignitions resulting in wildland fires. 
Adequate response to these situations is especially dependent upon 
interagency assistance. When one agency's funding is significantly less 
than MEL, especially if they are a large agency such as the Forest 
Service, there could be a direct and immediate impact on the total fire 
community.
    Question. As the costs of fire increase in terms of property damage 
and suppression costs, how is the MEL affected? In other words, will it 
cost more to maintain the same level of the MEL in the future? What are 
the agency's projections over the next five years to maintain the 
current level of MEL?
    Answer. The MEL-based fire management organization is designed to 
manage the average annual wildland fire workload most effectively and 
efficiently, at the least total cost, in accordance with land 
management objectives. Total cost is defined as the sum of the costs of 
preparedness, suppression, rehabilitation, and damages. As populations 
shift and grow, and there are more values at risk in wildlands, more 
preparedness resources will be required to maintain a given level of 
protection. Technology changes, to maintain efficiency and ensure 
safety, will require enhancements in engines, aircraft, global 
positioning systems, radios, and remote sensing capabilities. These 
improvements could increase the costs of preparedness. Inflation of the 
costs of goods and services used in the emergency sector have increased 
at a greater rate than the overall national average. Due to factors 
such as these, the MEL has increased over the last ten years, for the 
four Interior agencies, at an average annual rate of slightly less than 
seven percent. We anticipate a five to six percent annual increase over 
the next five years. Somewhat slowing the growth in preparedness costs 
is an expected counteracting effect from the Interior and Agriculture 
Departments' fuels treatment programs. As fuel loads are reduced when 
more and more Federal acreage is managed by use of prescribed burns and 
mechanical means, the Departments expect that the rate of increase in 
preparedness costs will slow. Whether that drop in costs will take 
place within the next five years is a question still being researched.
    Question. What is the BLM's strategy for addressing the wildland 
fire issues in the urban interface?
    Answer. The BLM has cooperatively initiated a fire awareness/
education campaign in many parts of the country where the wildland/
urban fire interface issues are significant. This effort is tied to 
State Forestry programs, and local, city, and county Fire Departments. 
The BLM is also initiating a program to formally increase cooperative 
training and sharing of wildland suppression resources with key Rural 
Fire Departments (RFDs) that have intermixed suppression 
responsibilities with BLM. While grass and brush is the most common 
vegetation on BLM lands, it does not present the classic fuels build-up 
situation found on forested land. Where BLM forest and woodlands exist, 
the emphasis is on conducting prescribed burns and mechanical 
treatments that will result in hazardous fuels reductions in the urban 
interface. The intermix of public and private lands poses significant 
management challenges to the BLM. Much of this intermix does not fit 
the ``classic'' interface situation characterized by long, continuous 
boundaries between public and private lands. Rather, the BLM intermix 
can be characterized as a complex mixture ranging from small parcels, 
with extensive public--private land boundaries located right up to the 
edges of developed subdivisions and towns, blending into larger parcels 
and higher percentages of public land the farther you go from developed 
centers. Because of this situation it is imperative that BLM, the RFDs, 
and the land owners work together to reduce hazards and improve 
suppression effectiveness. The BLM has worked to develop Fire Safety 
Councils and Fire Prevention Cooperatives to solve local problems. The 
BLM has also completed workshops with our Field Offices to perform a 
hazard risk analysis and identify where losses may be the greatest, 
focusing on intervention in these areas. At the national level, the BLM 
was instrumental in providing a technical advisor for the creation of 
the recent IMAX film on wildfires. Actions such as these, along with 
the development of an Internet web page (www.firewise.org), provide 
local communities, homeowners, and fire departments with important 
technical information on how to assess their risks and take actions to 
protect their properties. In summary, this is a long term challenge, 
for all of the Interior fire management bureaus, that is being 
addressed cooperatively. Success will be measured through awareness, 
partnerships, and on the ground mitigation measures that are 
periodically repeated.
                          crown jewel project
    Based on a recent Department of Interior Solicitor's opinion, the 
Plan of Operations at the Crown Jewel mine in Washington state was 
denied. This was after the EIS and Record of Decision for the project 
were finalized and upheld in court against a legal challenge. The 
company involved has invested over $80 million in the project to date.
    Question. Did the Department of Interior take into account the 
advanced state of the project and fairness to the companies involved 
when it sent the letter revoking the Record of Decision?
    Answer. The Solicitor's Opinion regarding the mill site acreage 
limitation in the Mining Law of 1872 was issued on November 7, 1997--
more than sixteen months before the Departments of the Interior and 
Agriculture notified Battle Mountain Gold Company (BMG) by letter dated 
March 25, 1999 that the proposed Crown Jewel plan of operations could 
not be approved. The issuance of the Opinion, including the fact that 
it would be applied to pending proposed plans of operations, was 
reported in the mining industry trade press shortly after it was 
issued. When the Solicitor met with representatives of Battle Mountain 
Gold Company on March 3, 1999 to discuss the history of the proposed 
project, the company's representatives acknowledged that they were 
aware of the November 1997 Solicitor's Opinion shortly after it was 
issued.
    The Opinion does not propose a novel interpretation of the law. As 
the March 25, 1999, letter to BMG states:

          ``After careful and thorough consideration of your arguments, 
        we believe that it is appropriate to apply the mill site 
        limitation to this project for two reasons. First, we have no 
        authority to enlarge the rights granted under the Mining Law; 
        that power is reserved to Congress. Second, the mill site 
        limitation is not, as BMG's March 9 letter argues, comparable 
        to the proposed part 3809 regulations, which contain 
        substantive changes in the requirements for mining operations 
        that would justify a transition period. As the Solicitor's 
        Opinion notes, the limitations on mill sites in the Mining Law 
        have been widely appreciated by mining industry lawyers for 
        decades. Adherence to the Mining Law's limitation on allowable 
        mill site acreage by all mining claimants thus should not 
        thwart any legitimately-held expectations.''

    Question. Does the Revocation Letter embody or create a rule that 
the Department of Interior will apply to every pending plan of 
operations? If so, what is the rule?
    Answer. The March 25, 1999 letter to BMG did not create any new 
rule or policy. It reflects limitations on mill sites that have been 
mandated by the Mining Law since 1872, as explained in the November 
1997 Solicitor's Opinion. The Solicitor's Opinion advised BLM not to 
``approve plans of operations which rely on a greater number of 
millsites than the number of associated claims being developed unless 
the use of additional lands is obtained through other means.'' As to 
other proposed plans of operations, this advice will continue to apply.
    Question. Before the Revocation Letter was sent, had the rule ever 
been applied to a pending plan of operations?
    Answer. As mentioned in the 1997 Solicitor's Opinion, limitations 
on mill sites in the Mining Law have been widely appreciated by mining 
industry lawyers for decades. See Attached Solicitor's Opinion, at 12-
14; see also 4 American Law of Mining Sec. 110.03[1] (2d. ed. 1987) 
(``Because of the relatively uncertain tenure of mill site claims, few 
miners choose mill sites as a location for permanent mining support 
facilities.'') The decision with respect to the Crown Jewel mine is the 
first occasion since the Solicitor's Opinion was issued that the mill 
site limitation in the Mining Law has been applied to disapprove a 
proposed plan of operations.
    Question. Did the Department of Interior study the effect of the 
rule on the mining industry?
    Answer. Because the mill site limitation is imposed by statute, the 
Department has no discretion to refrain from applying the law based on 
its effect on the mining industry. The effect of the limitation on the 
industry has been considered in numerous publications cited in the 
Solicitor's Opinion. See, e.g., Office of Technology Assessment, 
``Management of Fuel and Nonfuel Minerals in Federal Land, at 127 
(April 1979) (cited in S olicitor's Opinion at 13).
    Question. Does the rule conflict with the BLM manual?
    Answer. The following discussion on this point appears in the 1997 
Solicitor's Opinion:
    The first regulations issued by the General Land Office in 1872 
stated unequivocally: ``The law expressly limits mill-site locations 
made from and after its passage to five acres, but whether so much as 
that can be located depends upon the local customs, rules, or 
regulations.'' Mining Regulations Sec. 91, June 10, 1872, Copp, U.S. 
Mining Decisions 1270, 292 (1874) (emphasis in original).
    The current BLM regulation on millsite patenting continues to refer 
to the five acre limit, and is fairly interpreted to prohibit locating 
more than one five-acre millsite in connection with each mining claim:

          [P]arties holding the possessory right to a vein or lode 
        claim, and to a piece of nonmineral land not contiguous thereto 
        for mining or milling purposes, not exceeding the quantity 
        allowed for such purpose by R.S. 2337 . . . may file in the 
        proper office their application for a patent, which application 
        . . . may include, embrace, and describe . . . such 
        noncontiguous millsite. 43 C.F.R. Sec. 3864.1-1(b) (emphasis 
        added).
    The regulation speaks of millsites exclusively in the singular: a 
party holding the right to ``a'' mining claim and ``a piece of 
nonmineral land'' may apply for a patent, and shall describe ``such . . 
. millsite'' in the application. There is no suggestion in the 
regulation that more than one millsite may be patented in connection 
with a mining claim.
    BLM's Handbook for Mineral Examiners, on the other hand, currently 
provides that ``[a]ny number of millsites may be located but each must 
be used in connection with the mining or milling operation.'' BLM 
Handbook for Mineral Examiners, H-3890-1, Ch. III Sec. 8 (Rel. 3/17/
89). The handbook cites no authority for this interpretation.
    This provision may come from a handbook that is often used by BLM 
mineral examiners: Terry Maley's Handbook of Mineral Law (5th ed. 
1993). In this handbook Maley, himself a BLM mineral examiner, states:

          There is no specific direction in the Federal law or 
        regulations concerning how a millsite may be located or how 
        many mill sites may be located. . . . [T]here is no limitation 
        to the number of mill sites that may be located as long as each 
        mill site is properly ``used or occupied'' for ``mining or 
        milling purposes.'' Id. at 191.
    No authority is cited for these statements. There is no legal 
analysis or discussion of the legislative history, regulations and 
caselaw related to this provision. These assertions may, however, 
explain why some BLM field offices apparently have, in recent years, 
ignored the limitations of the Mining Law and BLM's regulations.
    BLM's Instruction Memorandum dated August 17, 1998, sets up a 
procedure to apply the Solicitor's Opinion to pending plans of 
operations.
    Question. In what circumstance is the Instruction Memorandum being 
used?
    Answer. The Instruction Memorandum provides policy guidance for BLM 
staff reviewing proposed plans of operation that do not comply with the 
mill site limitations in the Mining Law. It does not apply to lands 
administered by the Forest Service.
    Question. Was the Instruction Memorandum procedure followed in 
issuing the Revocation Letter to Battle Mountain?
    Answer. Most of the lands encompassed by the proposed Crown Jewel 
project are National Forest lands; consequently, BLM's Instruction 
Memorandum had little application to this project.
                          wild horse and burro
    Last year's Appropriations bill required the Wild Horse and Burro 
Advisory Board to file a report with the Subcommittee by March 1, 1999 
regarding the cost, efficacy, and social acceptability of various 
methods of controlling horse and burro populations.
    Question. When will this report be issued? What are the key 
findings of this report on these issues?
    Answer. The Advisory Board report to the Appropriations Committee 
was forwarded to the Appropriations Committees on May 21, 1999.
    The Board has met a total of five times since its inception in 
January 1998, focusing heavily on off-the-range issues such as 
adoption, marketing strategy, animal training, gelding and program 
management. This level of scrutiny by the Board was necessary to 
address the problems associated with the large number of older and 
difficult to adopt animals in holding facilities. Despite the off-the-
range focus, the Board did discuss and offer some recommendations for 
on-the-range issues such as immuno-contraception and euthanasia. The 
report incorporates these recommendations and their status.
    A key policy recommendation made by the Board addressed when and 
how euthanasia should be used on unhealthy animals. BLM issued and 
implemented policy on the humane destruction of unhealthy animals, 
including those animals residing on the Prairie National Wild Horse 
Refuge in Oklahoma.
    The Board will concentrate on issues affecting on-the-range 
management of wild horses and burros for the remainder of its term, 
addressing this issue in depth in the final report.
    Question. What, if any, changes to the program might result from 
the findings contained in the report?
    Answer. The Board did not specifically recommend changes to the 
program regarding population control. However, BLM continues to pursue 
immuno-contraceptive research. The BLM began research in 1992 on 
immuno-contraception as a technique for managing fertility in wild 
horse populations. The researchers are focused on developing an immuno-
contraceptive vaccine requiring only one injection that is effective 
for three or more breeding seasons and can be applied to meet specific 
herd management criteria. Currently a single injection, one year 
vaccine, with an efficacy rate of greater than 90 percent is being used 
and analyzed as a management tool.
    BLM initiated field management studies of the one-year vaccine in 
Nevada beginning in November 1998, in the Antelope, Antelope Valley, 
Monte Cristo Sand Springs East and Sand Springs West Herd Management 
Areas. These field trials have two objectives: (1) evaluate the 
reformulation of the vaccine designed to improve its efficacy; and (2) 
evaluate application of the vaccine on a population-wide basis to slow 
reproduction by at least 50 percent. BLM treated a total of 761 mares 
with the vaccine.
    In November 1999, BLM will implement field trials of the two year 
vaccine requiring one injection. Final results of these trials will not 
be available until fiscal year 2001. It is estimated that between 1,500 
and 2,000 mares can be treated each year depending on gathering needs, 
weather conditions, availability of the vaccine, and budget. Of these 
constraints, the most limiting is vaccine availability. The current 
research team, under contract with BLM, is the only source of the 
vaccine. Their ability to produce the vaccine in quantities needed by 
BLM for widespread application will require hiring additional personnel 
and is dependent on BLM funding. The vaccine drug costs approximately 
$80.00 per application.
    As recommended by the Board, BLM is providing vaccine application 
training through the contractor to BLM Wild Horse and Burro 
Specialists. The first formal training is scheduled to take place in 
Billings, MT, during August of 1999.
    Knowledge gained from current research efforts on herd health and 
dynamics will dictate the scope at which BLM implements widespread 
application of the vaccine. In compliance with the National 
Environmental Policy Act (NEPA), planned gathers along with site-
specific fertility control applications (HMA level) will be subject to 
complete analysis of the potential affects on herds, and on other 
associated resource values.
    Question. What is the current status of the adoption part of the 
program? Has the backlog of corralled animals been reduced? How many 
animals per year for the next three years does the agency expect to 
provide for adoption?
    Answer. As directed by Public Law 105-83, the Department of the 
Interior and Related Agencies Appropriations Act, 1998, the BLM 
utilizes the competitive bid process for adoption events where 
appropriate. Over 60 percent of the adoption events held thus far in 
fiscal year 1999 were conducted using competitive bid. This percentage 
will continue to increase with time. Unrelated to adoption method 
(i.e., competitive vs. non-competitive), the number of animals adopted 
over the last several years has decreased due to a general decline in 
public demand for wild horses. To compensate for the decline in demand, 
BLM has increased both marketing efforts and the number of adoption 
events, improving visibility of the animals and the program. An 
additional challenge facing the program is that approximately 500 
unadopted animals have been in the adoption system over six months even 
though BLM is using all means available to improve the animal's chances 
of being adopted. Efforts included gelding, training, gentling and 
individual advertising on the Internet. BLM is currently considering 
other innovative options.
    BLM has implemented a selective removal policy that requires the 
removal of only those animals that are five years old and younger from 
the range in order to provide animals that are more desirable to 
adopters. The average number of animals maintained in holding 
facilities has decreased because BLM is controlling the number of 
animals removed from the range. These removal policies are contingent 
on the flow of animals through the facilities to willing, eligible 
adopters. A reasonable projection for animals to be removed over the 
next few years with a static adoption market averages approximately 
7,300 to 8,500 animals per year. The projected number of mares BLM will 
treat with the immuno-contraceptive vaccine is 1,500 to 2,000 per year.
    Adoption and fertility control currently remain the only available 
tools for population control on the range. In spite of efforts to 
improve the adoption program and the use of the fertility control 
measure, populations will likely increase at a rate higher than our 
capability to remove and adopt excess animals. As a result range 
resources and herd health will be at risk.
                   national petroleum reserve--alaska
    Question. What is the current status of the proposed lease sale in 
the NPR-A? Will the sale occur as scheduled? If not, why not?
    Answer. The NPR-A lease sale was held on May 5, 1999, offering 431 
tracts on approximately 3.9 million acres. We received high bids 
totaling $104,635,728 for 133 tracts covering 867,450.39 acres. The 
overwhelming number of bids was focused in the northeast corner of the 
lease sale area on tracts rated by the BLM as having high potential for 
oil and gas.
    Question. What is the expected level of interest in this project 
from industry? What impact will the additional work load created by the 
NPR-A have on other aspects of the BLM's oil and gas program in Alaska? 
Has the agency requested sufficient funds for the Alaska office so that 
its other programs will not be impacted?
    Answer. The BLM expected some interest in tracts with high oil and 
gas potential, and less interest on a few of the low potential tracts. 
The number of bids received and the tracts receiving bids exceeded our 
expectations. If this new leasing results in increased discoveries, we 
anticipate an additional workload in development and compliance 
activities but currently the program is working within its budget 
constraints and is effectively balancing its priorities.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance-based management within the agency, as 
required by the Government Performance and Results Act?
    Answer. The Director has produced a 5-Year Strategic Plan which 
lays out long-term direction for BLM, as well as Annual Performance 
Plans which define performance measures and establish target levels of 
accomplishment for each measure. These plans have been incorporated 
into the fiscal year 2000 President's Budget request to the Congress. 
The BLM's budget documents anticipated performance levels for major 
program areas.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. Top-level managers have program and strategic goals 
incorporated into their performance reviews and evaluations. Senior 
Executives are also held accountable for accomplishing the work 
identified in the annual budget. Since 1997, BLM has published Annual 
Reports documenting performance related to mission goals, stewardship 
assets, and finances. BLM is beginning to provide incentives for 
improving employee and organizational performance, exemplified in part 
by holding offices responsible for meeting performance goals via 
budgetary incentives.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. BLM developed a Management Information System to track and 
report performance and customer satisfaction information. This 
information will be available to all managers, and can be used to 
compare performance within organizational units. These data can be 
accessed throughout the year, enabling the BLM to inquire about areas, 
offices, or organizations that are achieving below expectations. 
Performance-based information has raised the BLM's goals from measuring 
completion of project work to evaluating whether the project work is 
effective in helping the BLM reach its program or mission goals. 
Performance measures and data collection improvements will be completed 
over the next few years to provide better management information which 
can affect decision-making.
    Question. How did program performance factor into decisions about 
funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. Budget increases for initiatives and programs were tied to 
performance goals in the fiscal year 2000 Annual Performance Plan. 
Funding requests were illustrated with expected changes in performance 
and workload accomplishments. Where funding increases were requested, 
programs showed corresponding improvements in performance. Where 
funding was level and technologies, automation, or process efficiencies 
themselves could not improve BLM's ability to improve performance, 
performance was shown to be level or declining.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. BLM has made an effort to tie funding to performance goals 
and the work needed to achieve these goals. This has had an effect of 
focusing program work to those areas that have the greatest impacts on 
improving performance. The implementation of a Management Information 
System has enhanced the agency's ability to track work, financial data, 
and accomplishments, resulting in a better understanding of the 
linkages and how to direct funding to get the best results. In some 
areas, process improvements and organizational changes have been 
implemented to improve performance. In other cases, organizations have 
had to shift work priorities to achieve performance targets.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. BLM's budget structure often does not directly relate to 
performance goals or performance measures/results. It is more directly 
related to programs, work processes, or outputs. The BLM has initiated 
an Activity Based Costing (ABC) process to help break down the costs of 
achieving individual activities and tasks. From this information BLM 
believes it can roll up these costs to better reflect the achievement 
of specific performance goals and/or measures.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. As BLM gains experience in the use of ABC they may develop 
recommendations to modify its budget structure to improve the linkages 
between budget development and budget execution. At this time BLM is 
not recommending changes.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. At this time, only one or two measures have not yet 
established a baseline. BLM is working on these few measures with hopes 
of obtaining the required information by the end of 1999.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. Data collection is currently underway for all measures. BLM 
is increasing the reliability of all measures by improving the data 
specifications which define the required accuracy and boundaries for 
data collection. This is a continual improvement process. In some 
cases, new goals and measures are being considered for which data is 
more reliable and the measures can better drive management decisions.
    Question. How will the agency's future funding request take into 
consideration actual performance compared to expected or target 
performance?
    Answer. Program funding is directly related to BLM's ability to 
accomplish work. The effectiveness of this work is evaluated using 
actual performance information. Actual performance data will aid in 
identifying opportunities for BLM programs or offices to improve 
efficiencies or where additional funding is required to achieve desired 
outcomes. BLM will continue to be challenged in directing its limited 
funding to strategic mission accomplishments based on their ability to 
get the most performance for the least amount of funding. Actual 
performance data along with financial records and management leadership 
will be used to re-direct future funding requests.
                             central hazmat
    Question. On how many sites is the department conducting activities 
funded by the Central Hazardous Materials program? How many of these 
sites are on the National Priority List?
    Answer. The Department is funding work at eighteen sites. Six of 
these sites are on the NPL with one site likely to be added in the next 
year. Of the six NPL sites, the Department is listed as the lead agency 
at three sites.
    Question. What are the agency's estimates of the costs to clean up 
all the sites it is responsible for on the NPL? Where are they located?
    Answer. Current estimates for the completion of cleanup of NPL 
sites where the Department is the lead agency range from $83.9 million 
to $88 million. These sites are located at the Great Swamp NWR 
(Operable Unit 3) in New Jersey, the Crab Orchard NWR in Illinois, and 
the closed Lee Acres Landfill in New Mexico. Cost recovery has been 
completed at Great Swamp Operable Unit 3. Cost recovery and cost 
sharing work is on-going at the remaining two sites.
    Question. What efforts is the department making in terms of 
collecting funds from other Principal Responsible Parties?
    Answer. The Department has substantially expanded its efforts to 
the recovery of response costs from potentially responsible parties 
(PRPs) having liability for some or all of the response costs incurred 
in cleaning up releases on Departmental lands. The Office of the 
Solicitor has created a separate branch, the Branch of Federal 
Facilities Compliance (BFFC), to spearhead the legal efforts associated 
with recovering costs or persuading PRPs to perform cleanup at the 
direction of the Department. This effort includes close work both with 
the Department of Justice( DOJ) and with the U.S. Environmental 
Protection Agency (EPA) to identify and to pursue PRPs. Our efforts are 
currently focused on the Cuyahoga NRA, OH and the Crab Orchard NWR, IL.
    Case development or negotiations with PRPs is underway at more than 
a dozen sites under the jurisdiction of the Department. In addition, 
preliminary investigations to identify PRPs have been or are being 
initiated by the bureaus at dozens of other sites around the country 
including abandoned mines, landfills, and other hazardous substance 
release sites. To facilitate these investigations, BFFC staff have been 
providing training and consultation to bureau field staffs.
    Many of these efforts show great promise for success but the time 
frame for realizing such success is long, often measured in years. It 
is premature to evaluate these efforts in terms of only monetary 
results accomplished. Groundwork laid by the PRP pursuit efforts 
involving consistent legal support and policy guidance, better record 
keeping and enhanced cost estimation are all necessary steps needed to 
ensure future success and concomitantly are the stepping stones for 
overall program success.
    Question. How successful have these efforts been?
    Answer. To date, settlements with PRPs have resulted in savings to 
the Department of over $40 million. In addition, negotiations with PRPs 
are ongoing at several sites where the Department's objective is to 
reach settlements that combined will result in further savings of 
millions of dollars.
    Question. What are the Department's estimates for the amount of 
money that can be collected from PRPs in future years?
    Answer. The Department does not have an estimate of the amount of 
money that can be collected from PRPs. The variables that affect this 
figure include: (1) what costs we will incur; (2) what sites have 
viable PRPs; and (3) what percentage of costs at each of those sites we 
will recover from PRPs.
    Question. Could the bulk of the necessary cleanup work ever be paid 
for through monies received from PRPs? If so, when?
    Answer. No, the Department does not believe that funds from PRPs 
will ever eliminate the need for cleanup funds through direct 
appropriations. It is the policy of the Department that the polluter 
pays for site contamination. This policy includes Departmental 
oversight costs as well as the actual cleanup cost. All settlements 
must be approved by DOJ. Aggressive PRP pursuit and settlement 
negotiations have resulted in savings of over $35 million. 
Appropriations since the CHF was established are $57 million, so the 
work completed to date totals approximately $92 million.
    In addition to the recovery of funds, the Department also pursues 
cost contribution actions against PRPs. Cost contribution claims must 
be proved by demonstrating the specific percentage of liability is 
properly allocated to each PRP, based on a variety of factors related 
to each PRPs involvement at a site. Given the fact that at many 
Department sites, PRP activity occurred decades ago and the 
availability of records or other proof is often limited or nonexistent, 
this is a more demanding, time consuming and costly approach to site 
liability allocation than is required of EPA. The DOJ has advised the 
Department that this approach will be required at most CHF projects due 
to our landowner status.
    The goal of the Department is to increase the percentage of savings 
relative to appropriation. However, we are not able to say that the 
bulk of the cleanup funds will be received from PRPs at this point in 
the program due to the significant variables mentioned previously.
                                general
    The Subcommittee has received information that current facilities 
for the agency's Arizona Strip District are inadequate.
    Question. Are there current plans to improve or replace those 
facilities? What would be the estimated cost?
    Answer. The administrative facilities for the Arizona Strip 
District are in St. George, Utah. These facilities are new and are 
meeting all administrative needs. There are currently no plans to 
improve or replace these facilities.
    Question. If the City of Fredonia constructed office space for the 
Forest Service to be leased by the North Kaibab Ranger District, would 
a similar arrangement for the BLM as part of a government complex be 
considered favorably? What, if any, problems would there be with such 
as arrangement?
    Answer. As stated above, the headquarters for the Arizona Strip 
District are new and are located in St. George, Utah. In addition, BLM 
has another administrative site in the City of Kanab, which administers 
public lands in southern Utah; additionally, the U.S. Forest Service 
has an existing facility in Fredonia. Typically, administrative support 
for the BLM's Arizona Strip District is provided by either one of these 
facilities, therefore the BLM does not see a need for a separate 
facility in Fredonia at this time.
                      Minerals Management Service
                          offsetting receipts
    Over one-half of the Mineral Management Service's budget for fiscal 
year 2000 is derived from offsetting receipts which come from rents 
collected by the agency on federal leases. The Department has proposed 
increasing the existing cap on these receipts in fiscal year 2000 from 
$100 million to $124 million.
    Question. How have lower oil prices affected the agency's 
projections for how much it will collect in offsetting receipts for 
fiscal year 2000? Will the agency collect more than $124 million?
    Answer. At the time of the initial estimate, $124 million seemed a 
reasonable target. Recently oil prices have been very uncertain. This 
was evident at the recent Gulf of Mexico sale which resulted in $3.57 
million in additional offsetting collections as compared to $17.14 
million from the same sale last year and $18.9 million from the sale 
the year before. After adjusting for the decline in oil prices and 
incorporating data from the most recent Gulf of Mexico sale, MMS now 
projects offsetting collections in fiscal year 2000 to be approximately 
$115 million. The actual amount of the shortfall could be affected by 
future sales.
    Question. How would the agency make-up the shortfall in its budget 
if the cap on offsetting receipts is raised to $124 million? What 
agency activities would be affected the most?
    Answer. If the projected shortfall of approximately $9 million 
materializes, we would delay implementation of the Royalty 
Reengineering Initiative and reduce environmental studies.
                               valuation
    Question. What is the current status of discussions between 
industry and the agency regarding proposed valuation regulations? What 
is the likelihood that a resolution can be reached concerning valuation 
and the duty to market which satisfies all stakeholders?
    Answer. In response to many requests from Members of Congress and 
parties interested in moving the process forward to publish a final 
rule, on March 4, 1999, the Secretary announced plans to reopen the 
comment period for the Federal oil valuation rule.
    On March 12, MMS reopened the comment period for 30 days until 
April 12. MMS also announced three public workshops to discuss 
resolution of outstanding issues on the rule. The workshops were held 
in Houston, Texas on March 24, in Albuquerque, New Mexico on March 25, 
and in Washington, D.C. on April 6 and 7. Representatives from 
industry, States, and public interest groups all presented various 
proposals at these workshops. On April 12, MMS extended the comment 
period an additional 15 days to April 27.
    Now that the comment period has ended, we will evaluate and give 
consideration to all of the proposals and comments received at the 
workshops and in the written comments. However, until we finish our 
review of all of the comments submitted, we cannot comment on the 
likelihood that a resolution can be reached that satisfies all 
stakeholders. We remain committed to assuring that the American 
taxpayer receives full market value for its mineral resources.
    The fiscal year 1999 Emergency Supplemental Appropriations extended 
the moratorium on the valuation of crude oil until October 1, 1999.
    Question. What impact has the agency's decision to extend the 
comment period had on the time frames for issuing the new valuation 
regulations?
    Answer. The result of MMS's decision to extend the comment period 
resulted in review of additional comments received. Furthermore, the 
fiscal year 1999 Emergency Supplemental Appropriations extended the 
moratorium, which will delay publishing another proposed rule until 
fiscal year 2000.
    Question. What are the agency's current projections on how much 
additional money will be paid in the form of royalties by industry 
under the new regulations? How has the lower price of oil affected 
these estimates, if at all?
    Answer. In its February 1998 proposal, MMS's analysis of 1996 data 
showed the proposed Federal oil valuation rule would have had an 
economic impact of approximately $66 million in increased royalty 
collections annually. These estimates were based on a comparison of 
Federal oil royalties received in 1996 for both onshore and offshore 
production to those we would have expected under the provisions of the 
February 1998 proposal. The Indian oil valuation rule would have an 
annual impact of approximately $4 million as estimated by a similar 
comparison.
    The lower price of oil has not impacted this estimate because the 
difference between market prices and the posted prices used by industry 
to pay their royalties has remained relatively fixed as prices have 
dropped. Regardless, we are pleased for the domestic petroleum industry 
to see that oil prices have rebounded in recent weeks.
    Question. What specific measures is the agency taking to help 
producers most affected by low oil prices? Are any other measures under 
consideration?
    Answer. MMS issued a proposed rule on January 12, 1999, that will 
provide six relief options for marginal properties. This rule will save 
industry over $1.2 million per year in reporting costs alone. On 
February 4, 1999, the Department announced that it would grant relief 
to small oil operators producing on public lands by allowing them to 
suspend operations for up to two years without losing their leases.
    The MMS has updated two Notices to Lessees (NTL) to help the 
domestic industry adjust to and survive low prices. By issuing the two 
NTL's, MMS has taken two important steps to ease the number of early 
abandonments and to lower the threshold needed to qualify for royalty 
relief.
    For the second time in five months, MMS lowered price forecasts 
used by existing leaseholders that apply for deepwater royalty relief. 
Fields in water deeper than 200 meters in the Central and Western Gulf 
of Mexico (GOM), that demonstrate economic need at these prices, 
qualify for suspension of royalty payments. MMS has reduced its 1999 
estimate price to better reflect prices companies are currently 
experiencing.
    MMS has revised its guidelines for those applying for deepwater and 
end-of-life royalty relief. In addition, MMS has identified the need 
for relief outside these formal programs. Under the formal process, for 
instance, a lessee who has invested significant resources to lower 
production costs would be required to wait at least a year before 
applying for end-of-life royalty relief. Under the new approach, a 
lessee who has made a commitment of capital and meets additional 
criteria would be able to apply immediately during this period of low 
oil prices. End-of-life royalty relief and exceptional circumstance 
relief are aimed at situations where resources would be prematurely 
abandoned without the relief being granted.
    MMS is now paying interest to lessees when they overpay royalties. 
MMS issued a proposed rule on the appeals process on January 12, 1999. 
MMS is also revamping its appeals process to streamline it, resolve 
disputes within 33 months, and allow lessees to self-bond.
    MMS will continue its dialogue with oil and gas operators about how 
best to deal with low oil price environment and is analyzing other 
actions for possible adoption.
                              destin dome
    Question. What is the current status of the Destin Dome project 
located off the Alabama and Florida coastlines? When will the coastal 
zone management determination be finalized?
    Answer. The MMS will complete the draft EIS on the Destin Dome 
project in July 1999. The draft EIS will be filed with EPA in July/
August 1999 and released to the public. The public hearings on the EIS 
will be held in August/September 1999.
    The State of Florida's coastal zone review was received by MMS on 
February 18, 1998. The State objected to Chevron's consistency 
findings. Chevron appealed the State's objection to NOAA on April 3, 
1998. The State filed a request with NOAA on May 6, 1998, to hold a 
public hearing on the objection. The proposed hearing is tentatively 
scheduled for the fall of 1999 in Pensacola, FL. NOAA published a new 
Federal Register Notice advising that the public comment period will be 
extended until 30 days following the appeal hearing. NOAA will accept 
comments within 30 days of the appeal public hearing. A date for a 
final decision on the State's Coastal Zone Management objection is 
unknown.
    Question. What is the State of Florida's position on this project? 
How has the agency worked with the State of Florida on this issue?
    Answer. The State has objected to the project and has found it 
inconsistent with the Florida Coastal Management Program. The State's 
finding of inconsistency was based on (1) the lack of sufficient 
information and analyses, (2) insufficient time to review responses to 
the State's earlier requests for additional information, (3) failure to 
supply requested information, and (4) inconsistencies with provisions 
of Florida Statutes. Florida laws enacted in 1989/1990 prevent oil and 
gas activities in State territorial waters. In 1991, Florida adopted a 
policy to prevent oil and gas activities within 100 miles of its coasts 
due to the potential for impacts to marine, coastal, land and economic 
resources.
    The MMS consulted with the State and Chevron in December 1997 in an 
attempt to get all parties to agree to a revised CZM consistency time 
frame. However, agreement could not be reached. Subsequently, the MMS 
has consulted with the State throughout the preparation of the draft 
EIS on technical issues of concern and responded to numerous questions 
raised on every aspect of the project.
    Question. What, if any, estimates does the agency have for the 
total gas reserves located on this lease? If fully developed, what 
would be the expected royalty income to the United States from this 
project?
    Answer. Destin Dome unit consists of 11 blocks, of which 2 have 
been drilled. Preliminary mapping indicates resource and reserve 
potential of between 425 billion cubic feet and 3 trillion cubic feet 
of natural gas. Our estimate for royalty income, over the life of the 
project (at \1/6\ royalty and between $1.75 and $2.00/million cubic 
feet), is between $12 5 million and $1.0 billion.
                        international activities
    Question. The agency's fiscal year 2000 budget proposes an increase 
of $250,000 to participate in international fora. What specific 
conferences and what international organizations does the agency plan 
to participate in during fiscal year 2000? What activities will this 
additional money pay for?
    Answer. Fiscal year 2000 funds will be used to participate in 
meetings of the International Organization for Standards (ISO).
    In August 1998, MMS became an active participant in the U.S. 
Technical Advisory Group (TAG) to ISO Technical Committee 67 
(Materials, Equipment and Offshore Structures for Petroleum and Natural 
Gas Industries).
    In fiscal year 2000 we plan to participate in the ISO Subcommittees 
dealing with Pipeline Transportation (SC2), Drilling and Completion 
Fluids and Cements (SC3), Drilling and Production Equipment (SC4), and 
Offshore Structures (SC7), as well as Line Pipe (SC1), Casing, Tubing, 
and Drill Pipe (SC5), and Processing, Equipment and Systems (SC6).
    In addition, the budget request will support our participation in 
conferences and workshops for other standards-developing organizations 
and International Fora including the International Maritime 
Organization (IMO) and the London Convention. Issues having a direct 
impact on U.S. offshore oil and gas operations, such as standards for 
drilling mud discharges, platform removal requirements, and Floating 
Production Storage and Offloading facilities are currently being 
discussed in these fora.
    Question. To what extent does the agency currently participate in 
such international organizations? How much is spent? What are the 
particular benefits to the U.S. government and to industry of MMS 
participation?
    Answer. MMS' participation in the ISO has been limited in the past 
due to budget constraints. As a result, MMS has not always been able to 
ensure that a U.S. perspective is considered as international standards 
have been developed. MMS incorporates standards into our regulations to 
address changes in offshore oil and gas technology as appropriate. 
Hence, MMS must participate in the meetings of the ISO in order to 
ensure that these standards address U.S. operating requirements. 
Several other agencies within the U.S. Government, such as the Coast 
Guard and the Department of Energy, have specific monies appropriated 
for these types of international activities.
    The MMS believes it is critical to participate in international 
fora such as the International Maritime Organization and the London 
Dumping Convention. As we addressed in our previous response, the 
issues being discussed in these fora have a direct impact on U.S. 
offshore oil and gas operations.
    Question. The agency's fiscal year 2000 budget states that it will 
use $250,000 from data conversion funds to pay for international 
activities. What will be the impact on the data conversion efforts? How 
long will these conversion activities be extended because of the 
decrease in funds?
    Answer. Progress is being made on the data conversion efforts. The 
most complex effort focuses on correcting historical well data. Since 
the initial estimates were made, MMS has found the project to be much 
more complicated and controversial than first expected. Consequently, a 
contract was issued for a pilot effort to further scope out the 
problems, examine MMS processes, and develop a statement of work for 
the full contract. Since that time, MMS has integrated the results of 
that pilot effort into a proposal for a full contract. We anticipate 
issuing a procurement solicitation to determine qualified bidders in 
May/June 1999. Thus, MMS is satisfied that redirecting $250,000 in 
fiscal year 2000 is viable. At this time, it is premature to predict 
how long, or if, the conversion activities would be extended because of 
redirecting $250,000 in fiscal year 2000. Any extension in the project 
may end up being more a result of the complexities of the project 
rather than a result of redirecting $250,000 for international 
activities in fiscal year 2000.
                    marine minerals research center
    The agency proposes eliminating funding for the marine mineral 
research center at the University of Mississippi.
    Question. Why is funding for this program being eliminated when 
much of the focus of the research at the university involves deep water 
issues which appear to be increasingly important? Isn't work being done 
at the university helpful in learning about important issues relating 
to deepwater development in the Gulf of Mexico?
    Answer. The Marine Minerals Research Centers (MMRCs) were 
reauthorized under the Marine Minerals Resources Research Act of 1996, 
and placed under oversight and management of the Department of the 
Interior. The MMRC at the University of Mississippi was funded in the 
amount of $600,000 in fiscal year 1999. The mission of the MMRC is to 
conduct research on the exploration and extraction of minerals from the 
seabeds of the continental shelves, deep ocean, and arctic regions, 
including deepwater research.
    The MMS recognizes the importance of the investigations and 
technological development that this center pursues, particularly the 
longer term research. However, due to higher research priorities for 
oil and gas exploration and extraction MMS is proposing to eliminate 
MMRC funding in fiscal year 2000.
                             reengineering
    The agency's budget proposes a large increase to support its 
reengineering efforts.
    Question. How is this effort proceeding? Are all the scheduled 
deadlines being met? Are any unanticipated issues arising?
    Answer. The Reengineering Initiative is proceeding consistent with 
the project implementation action plan and schedule. The acquisition 
strategy and approach being used has been well received by the vendor 
community. Contract award is scheduled for September 1999 for the 
financial system and relational database management system. Completion 
of the installation is scheduled for September 2001. Procurement action 
to acquire the compliance component will begin in fall 1999.
    To date, MMS has not experienced any unanticipated issues.
    Question. What are the agency's current estimates of how soon this 
effort will pay for itself through more efficient, accurate collection 
of royalties? Will the reengineering effort reduce the costs of 
collection to MMS? If so, how? And how much?
    Answer. MMS estimates that upon completion, the investment in RMP 
systems modernization can be recovered in two years. Expected benefits 
of approximately $19 million annually will be realized through 
increased revenues and operational cost savings. The operational cost 
savings components of the benefit estimates are expected in the areas 
of simplified reporting and improved systems efficiencies. Simplified 
reporting is expected to reduce MMS costs by approximately $1.5 million 
annually. With the implementation of simplified reporting changes, MMS 
estimates significant improvements in overall reporting efficiency, and 
a reduction in reporting burden to royalty payors of 40 percent. Upon 
full implementation, improved systems efficiencies are expected to 
reduce MMS costs by approximately $2 million annually and increase 
revenue collection by approximately $15 million. An integrated 
accounting system that would eliminate many stand alone, personal 
computer based, applications and a fully deployed relational database 
management system are the major contributors to the projected costs 
savings.
                            royalty-in-kind
    Question. How are the agency's royalty-in-kind projects proceeding? 
What, if any, conclusions can be drawn from the pilots to date?
    Answer. MMS's royalty-in-kind projects are going well and are 
proceeding on schedule. To date we have sold crude oil in Wyoming in 
two successive auctions and moved gas from section 8(g) leases to 
offshore Texas. While it is too early to draw conclusions, one 
important message that is being demonstrated by the pilots is that 
royalties from leases with small and marginal production, and oil 
production not connected to pipeline systems, are clearly unattractive 
for the Federal government to take in kind. Further, in the limited 
cases where the logistics are attractive, the Federal government can 
realize some benefit by delivering natural gas to Federal facilities 
for direct consumption.
    Question. Under what circumstances does RIK make good economic 
sense for the government? When, if ever, does it not?
    Answer. This is the question that the RIK pilot programs have been 
designed to help answer. Conceptually, since under RIK the government 
must bear costs now borne by the lessee, unless we can sell the 
production more effectively than the lessee, the Government will lose 
revenue. The ability to aggregate some of our production as well as the 
ability to sell our production further downstream may help to offset 
these higher costs. Until the pilots have run their course, however, we 
will not know whether these offsetting benefits exist, or if they do, 
whether they will be sufficient to prevent us from losing revenue. RIK 
can only make sense on a case by case, lease by lease, basis. If we 
have learned anything to date, it is that every circumstance is 
different and no generalized rules for RIK seem to apply. Flexibility, 
discretion, and choice are essential for a successful RIK program. 
Without them, RIK can not make good economic sense.
    Question. Wouldn't moving to an RIK system nationally resolve the 
current disputes concerning valuation for royalty purposes? What 
potential problems, if any, would there be if such a system were 
implemented nationally?
    Answer. The potential is that it would just replace one set of 
royalty disputes with others. Transportation cost issues would remain, 
and royalty revenue audits would be replaced by royalty production 
volume audits, as well as by audits of marketing contractors and others 
providing services to the Government necessary for RIK. The main 
potential problem, if an RIK system were implemented nationally, would 
be loss of revenue to the Nation. Based on what we have learned from 
our RIK pilot programs, a mandatory system across the Nation may not be 
economically viable.
                            sand and gravel
    The fiscal year 2000 budget states that charging a fee to Virginia 
Beach was the first time the Secretary used his discretionary authority 
to assess a fee.
    Question. Will this fee be charged to all future participants in 
the sand and gravel program?
    Answer. A fee of $198,000 was charged for the use of 1.1 million 
cubic yards of OCS sand to nourish Sandbridge Beach. Public Law 103-426 
authorizes MMS to negotiate agreements for the use of OCS sand and 
gravel, e.g., to support beach nourishment project construction, and to 
assess a fee for its use. Assessing a fee is discretionary, and the 
decision will be made on a case-specific basis, except that no fee is 
assessed against a Federal agency. MMS policy is to assess a fee 
consistent with the criteria established in the law, and exceptions are 
expected to occur only for limited circumstances. The precise case(s) 
for exceptions to a fee cannot be defined in advance because a judgment 
is required, for each situation, that either the public interest 
benefits from the use of OCS sand warrant no fee, or that a fee would 
be so burdensome as to prevent construction of an otherwis e acceptable 
project.
    Currently, in both the Senate and House versions of the Water 
Resources Development Act of 1999 (S. 507 and H.R. 1480) there is a 
provision that would prohibit MMS from assessing fees. S. 507 also 
provides for reimbursement for any fees paid to MMS (i.e., the fee paid 
by Virginia Beach).
    Question. What is the criteria for deciding to charge a fee and for 
determining the amount of the fee? How do these fees compare to what 
other owners of sand and gravel charge?
    Answer. Consistent with congressional intent, future requests for 
use of OCS sand will include fee assessments as part of the negotiated 
terms. As described above, any decision not to assess a fee would be 
based on specific circumstances, and would be limited.
    Public Law 103-426 provides direction that the assessment of a fee 
balance resource value with public interest served--the fee is to be 
``based on an assessment of the value of the resources and the public 
interest served by promoting development of the resources.''
    In October 1997, MMS prepared, and distributed widely, guidelines 
on how we will determine fees. The guidelines were prepared as internal 
guidance for MMS employees, when negotiating agreements, but were also 
shared with the public to assist governmental sponsors with planning 
for project costs and funding. The guidelines were reviewed and found 
acceptable by the Secretary's OCS Policy Committee. Under the approach 
developed in the guidelines, assessment of fees first requires a 
determination of the resource value. A current estimate of market value 
is determined based on an assessment of what other owners of sand and 
gravel charge. But the law provides that the public interest served by 
the project also be considered in the determination. Therefore, MMS 
provides for adjustments to the estimated resource value to reflect 
public benefit from project construction, like hurricane and storm 
damage reduction, wetlands restoration, habitat restoration, etc. To 
reflect public benefits in the fee determination, the guidelines 
provide a discount for State and local government based on the same 
percentage (typically 65 percent) used to represent the congressionally 
mandated Federal share of the costs of shore protection project.
                            alaska projects
    Question. What is the current status of the Liberty and North Star 
projects in Alaska? Have all necessary permits been issued?
    Answer. The Northstar Project is still awaiting permits. The 
Northstar Production Island is located in State of Alaska waters, but 
the reservoir underlies both State and federal waters. The State of 
Alaska and the North Slope Borough have approved the project. The 
controlling permit to start construction is the Corps of Engineers 
(COE) 404 permit (dredge and fail). The U.S. Fish and Wildlife Service 
objected to the COE draft decision with regard to the pipeline route 
and elevated the decision to COE headquarters. The final COE decision 
was alternative two, which was the preferred British Petroleum 
Pipeline, a nd a 404 permit was issued.
    The MMS has begun to complete its process for the Development 
Production Plan and accompanying oil discharge contingency plan.
    EPA issued the National Pollutant Discharge Elimination System 
(NPDES) on May 21, 1999, and the effective date is June 21, 1999.
    The Liberty Project and reservoir are entirely within OCS waters 
but with the pipeline routing going through State of Alaska waters and 
lands. BP submitted a Development Production Plan to the MMS in early 
1998. Because of the delays to Northstar, last fall BP asked that MMS 
delay issuance of the draft EIS until after decisions on Northstar. 
This month BPAmoco has delayed its estimated production startup for 
Liberty until 2003. MMS, the Corps of Engineers, and BPAmoco have 
decided to hold facilitated meetings with the permitting agencies to 
discuss development options for Liberty, especially regarding the 
pipeline designs, to try to ensure all issues are identified up front. 
Under this approach, the Draft EIS will be completed in late spring 
2000.
    Question. What other agencies are involved in the review of these 
projects? What, if any, obstacles remain for these projects to enter 
the production phase? What is expected royalty income for the United 
States from these projects?
    Answer. Federal agencies involved in the review of both projects 
include the Corps of Engineers (COE), EPA, U.S. Fish and Wildlife 
Service, the Minerals Management Service, and the National Marine 
Fisheries Service. State of Alaska agencies and the North Slope Borough 
are also involved in reviewing both projects. The COE was the lead 
federal agency for the Northstar EIS. MMS is the lead agency for the 
Liberty EIS.
    The Northstar Project must obtain permits from the COE to construct 
the gravel island and pipeline. All agencies concurred that the project 
and pipeline were safe; however, some disagreement existed on the 
routing of the pipeline. If the COE finally approves the BPAmoco plan 
and pipeline route, gravel island construction should proceed in the 
winter of 2000. If the COE chooses another pipeline route, the 
applicant will have to amend its plans, and the State and North Slope 
Borough will have to reopen their reviews of the new route.
    Liberty is still at the beginning of its permitting process. 
BPAmoco will need all State, Borough, and federal permits for the 
project. Some agencies have asked for a review of alternative pipeline 
designs for Liberty, and the facilitated process will be used to define 
options to review.
    Royalties from federal production at Northstar are estimated at $75 
million for the life of the field. Because these leases are within the 
8(g) zone, an estimated $20 million will be shared with the State of 
Alaska. Royalties from federal production at Liberty are $178 million. 
Because these leases are within the 8(g) zone, an estimated $48 million 
will be shared with the State of Alaska.
    Question. What are the agency's future expectations with respect to 
leasing in Alaska?
    Answer. MMS surveyed the industry in late 1998 regarding their 
views on Alaska leasing. The Beaufort Sea remains the area of most 
interest, especially the central Beaufort in the area closest to 
infrastructure. Because of the amount of development activity, State 
sales, and the NPRA sale, industry expressed interest in a one-year 
delay for the next OCS Beaufort Sale, and MMS will delay the sale to 
fiscal year 2002. The State of Alaska will continue to offer its 
Beaufort State waters for lease, and future federal sales can 
complement the areas offered by the State. Industry holds a good 
inventory of leases in State and Federal waters with a number of good 
prospects for development. MMS has and will continue to assist the BLM 
on lease management for the NPRA, and expects interest to continue.
    Companies expressed a longer term interest in Cook Inlet, the 
Chukchi Sea, and the Gulf of Alaska. They asked that these areas remain 
available in the next 5 Year Plan, but did not see a need for sales in 
these areas in the next few years. Thus MMS will postpone sales in 
these areas until the next 5 Year Plan.
                            deepwater issues
    Question. Given the complex issues related to deepwater drilling 
and production, what is the anticipated budgetary impact on the 
agency's Leasing and Environmental Assessment, and Environmental 
Studies program in the future? How do the costs of preparing a sale and 
providing all necessary review through the production stage in 
deepwater compare to costs for other sales?
    Answer. No impact is expected on the portion of our operating 
budget devoted to conducting lease sales. Lease sales are traditionally 
``area-wide'' in scope, and this has not changed due to deepwater 
leasing. However, increased lease administration workload due to the 
great increase in leased tracts, and the more complex issues associated 
with industry business practices for these expensive ventures, may 
strain our budgetary resources.
Environmental assessment
    The complexity and increased level of activity of oil and gas 
activities in deep water have had considerable impact on the 
environmental assessment-related workload in the Gulf of Mexico OHS 
Region. Numerous National Environmental Policy Act (NEPA) documents are 
currently under preparation regarding deepwater activities. An 
Environmental Assessment (EA) is nearly completed that addresses 
activities unique to operations in deepwater, and a contract for 
preparation of an Environmental Impact Statement (EIS) has just been 
awarded to evaluate the potential impacts of the possible use of 
floating, production, and offloading systems (FPSO's) in the Gulf. 
Additional evaluations are needed for several major topics, including 
riserless drilling, fate and effects of potential oil spills from 
deepwater blowouts, chemical product usage, and the storage and 
offloading of hydrocarbons during initial well testing. These 
evaluations are expected to be prepared in-house, but are currently on 
hold due to workload constraints. The Office of Leasing and Environment 
in the Gulf of Mexico Region has recently reorganized to support 
efforts to re-engineer work processes for greater efficiency. As the 
re-engineered work processes mature, we hope to be able to resume work 
on these important environmental protection projects in addition to 
coordination and assessment of site-specific deepwater plans.
Environmental studies program
    With the deepwater supplemental budget of $4,000,000 for fiscal 
year 1998, 14 new studies were started which focused on GOM deepwater 
issues. In fiscal year 1999, 8 new deepwater studies have been 
initiated for another $4,000,000. Elements are now in place for a 
strong deepwater program which provides information for our many NEPA 
responsibilities. But, following this initial effort, the cost of 
maintaining a maturing deepwater program will increase. A major 
deepwater physical oceanographic study of the processes of the slope 
and rise is in planning with estimated costs for funding exceeding $10 
million. An extensive deepwater benthic study will cost about $5 
million. Meeting our environmental responsibilities in deepwater areas 
will be a challenge given the expense of performing studies in that 
environment.
Costs of preparing a sale
    As noted above, the costs for preparing a sale that includes 
deepwater tracts is virtually the same as the costs for preparing 
previous sales, since all sales since 1983 have been ``area-wide.''
    Operating costs for administering deepwater leases are the same as 
for other sales. But, the many leases and related activities 
(especially, bonds and assignments) due to the record-breaking, 
deepwater-focused sales of the last few years have increased our 
workload.
    There has been a significant increase in the data costs for 
deepwater lease sale tract evaluations compared to the costs associated 
with evaluation efforts on the shelf. This is due to the fact that deep 
water is a frontier area. In many cases no historical data is available 
with which to evaluate the area. The real problems come with the need 
for reprocessed seismic data (converting 2D data to 3D data) in subsalt 
areas of the deep water and the effort to identify which companies have 
reprocessed data. Additional time is needed for the evaluation of this 
reprocessed data.
Costs of environmental reviews
    Assessing plans in deep water is more complex and more demanding in 
time and financial resources than for similar plans in shallow water 
where the agency has years of experience evaluating industry activity. 
Most of the additional cost of assessing plans in deep water is related 
to the increased cost of obtaining deepwater environmental data and 
information, and the additional time and effort required for staff to 
evaluate and understand the potential impacts associated with 
industry's use of new technology to operate in the harsher conditions 
of the deepwater Gulf of Mexico.
Costs of operational reviews
    As a result of the significant differences and technological 
complexities of each facility and the fast tracking of each project in 
deep water, compared to similar activity on the Continental shelf, the 
agency now requires the submittal of Deepwater Operations Plans (DWOPs) 
for all projects in water depths greater than 1,000 feet and for all 
subsea completions. This three-part plan covers the life of the project 
from the conceptual phase of the project to final abandonment.
    In addition, the enormous cost of deepwater projects has led 
operators into a position which sometimes favors quick recovery of 
investment at the expense of long-term conservation considerations. To 
address this issue the agency now requires the submittal of 
Conservation Information Supplements with all DWOPs. Reviews of these 
documents require a broader and deeper knowledge and understanding of 
petroleum geology, geophysics, and engineering, as related to every 
facet of reservoir management, in order to ensure the conservation of 
petroleum resources.
    Due to the increased technology and costs associated with deepwater 
exploration and development, applications and formation of units have 
significantly increased. The passage of the Deepwater Royalty Relief 
Act (DWRRA) signed into law on November 28, 1995, has generated 
applications for deepwater royalty relief that require extensive 
reviews and evaluations. Co-development of deepwater leases and units 
has greatly complicated suspension of production reviews and approvals. 
In deepwater, significantly greater changes in pressure and temperature 
conditions occur during production; and hydrocarbons behave very 
differently, sometimes forming solids that cause uneven production. 
Therefore, production measurement and, consequently, the review of 
associated industry proposals are more complicated in deepwater leases. 
There are also policy issues, such as deep water royalty rate relief, 
to be considered in the review that make the review itself more 
complex.
    The impact of royalty relief associated with ``new'' leases in deep 
water has caused a significant increase in manpower needs associated 
with new field identification and evaluation. The field determination 
process in deep water is much more rigorous since the inception of the 
DWRRA, as there is increased scrutiny by oil and gas industry analysts 
of this determination process. The increased scrutiny is due to the 
enormous amount of royalty-free production (17.5 to 87.5 million 
barrels of oil equivalent depending on water depth) associated with 
each field determination. As a result of the significance of these 
field determinations, the deepwater fields are evaluated much more 
thoroughly using 3-D seismic data and digital well logs.
                              inspections
    Question. How does the increased level of activity in deep water 
affect the agency's inspection program? How does the number of 
incidents of noncompliance (INC's) in deep water compare to other 
areas? With more activity in deep water which is farther offshore, will 
more inspectors be needed to maintain current safety levels?
    Answer. In contrast to shallow water production activity on the 
Continental shelf, where procedures are now routine and equipment is 
``off the shelf'', deepwater technology is continuously evolving. The 
hardware and procedures to drill, produce, and ultimately abandon 
operations in deepwater represents the most advanced and unique 
technology that the industry currently employs. The review, approval, 
and inspection of this new technology demands state- of-the-art 
training for all those currently involved in the operational review 
process. Because of the evolving nature of these deepwater projects, 
additional training will be necessary as the technology continues to 
advance. Staffing requirements will also necessarily evolve to keep 
pace with the deepwater trends. As the number and complexity of these 
deepwater facilities continues to increase, the skill base of the 
organization will need to be assessed to insure that, not only is there 
a sufficient number of properly trained employees, but also that the 
agency skill mix is appropriate. The use and implementation of this new 
technology demands new technical specialties, and MMS must insure that 
these specialties are captured in the workforce.
    To date, the number of incidents of noncompliance for deepwater 
activity is much less than for similar types of operations on the 
shelf. The newer and more automated facilities in deep water are also 
staffed at higher levels as compared to facilities on the shelf.
    However, as reflected in MMS's budget request for fiscal year 2000, 
we do need some additional resources for the inspection effort, 
including an additional helicopter. Deepwater facilities are farther 
from shore requiring longer flight times. This degrades inspector 
efficiency because significantly more time is consumed in transit to 
the remote locations. The larger, more complex, facilities often 
require a team of inspectors versus single inspectors, and deepwater 
platforms are often in less densely populated areas without an existing 
infrastructure. This results in additional transit time between 
structures. At the same time, the increase in activity and the remote 
location of facilities in deep water has led to new inspection 
strategies including sampling inspections and overnight stays of 
inspectors at deep water facilities to increase inspection efficiency 
and effectiveness. As the number of facilities increase in deep water, 
it may again become necessary to increase inspection personnel and to 
acquire additional/upgraded helicopter resources to accomplish the 
agency mission.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance based management within the agency, as 
required by the Government Performance and Results Act.
    Answer. The Director of MMS has continually demonstrated the 
leadership and commitment necessary for effective implementation of the 
Government Performance and Results Act. The Director has established a 
standing GPRA team to coordinate and facilitate the MMS transition to 
performance based management. This team, comprised of managers and 
staff from across MMS, is guided and directed by the MMS Quality 
Council (MMS Director and Associate Directors) in implementing GPRA and 
performance management. The Director's immediate involvement has 
provided the leadership that is critical to successful performance 
management. Our approach at MMS is driven top down as well as bottom up 
with involvement and accountability being created at all levels 
throughout the organization.
    Question. How are the agency senior executives and other key 
managers being held accountable for achieving results?
    Answer. GPRA annual performance goals have been included as a 
performance element in the Senior Executive Service Performance 
Agreements for 1999. Through these agreements, the senior executives 
will be held accountable for achieving GPRA results as part of their 
overall performance review. We are currently evaluating the development 
of subordinate measures to the GPRA goals that can be used to further 
cascade down and hold managers and employees accountable for their 
contributions to the performance of the organization.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. The MMS is continuing to gain more experience and a broader 
understanding of performance based management and is making real 
progress in the use of performance information in managing the agency. 
For example, the Royalty Management Program (RMP) has developed and 
began using a performance matrix in fiscal year 1997. The matrix 
includes GPRA measures and other measures that managers find useful in 
managing the program. The information is updated and used monthly by 
the RMP Quality Steering Committee to manage resources and monitor 
progress toward annual goals. In addition, MMS is gathering available 
performance information and data, on a quarterly basis, on each of the 
goals contained in its fiscal year 1999 annual performance plan. This 
information forms the basis for discussion among senior managers in the 
Bureau and at the Department on progress toward achieving our annual 
goals. This active monitoring highlights where we are exceeding our 
goals and where we may be falling behind and provides the opportunity 
to make mid-course management corrections.
    Question. How did program performance factor into decisions about 
funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. In the fiscal year 2000 budget request and annual 
performance plan, MMS attempted to link program performance to budget 
changes. Each mission goal section contains a discussion of the impact 
of fiscal year 2000 budget changes on the accomplishment of that 
particular goal. For example, in fiscal year 2000 MMS, in conjunction 
with its reengineering initiative, is requesting funding to upgrade 
RMP's information technology systems. The systems currently in use are 
too old and inflexible to efficiently support redesigned business 
processes or changing mission requirements such as expanded Royalty-in-
Kind programs. The mix of aging mainframe-based systems and substantial 
changes needed to support reengineered business processes represents a 
major risk to future systems reliability and operational stability. 
These factors jeopardize the programs ability to meet its performance 
objectives for accurate and timely disbursement of receipts and for 
compliance with royalty regulations. Therefore, additional funding was 
requested to upgrade the technology and systems to support these goals.
    The GAO review of the fiscal year 2000 Annual Performance Plan and 
budget highlighted, as an effective portrayal of resources and 
performance, the MMS effort to identify funding and full time 
equivalent staffing for each performance goal and provide a narrative 
that identified how the resources were being used. For example, in 
support of the goal for ensuring safe mineral development on the outer 
continental shelf, the budget justification was explicit that 
approximately $45.469 million and 338 full time equivalents (FTEs) with 
backgrounds in petroleum engineering, offshore production and 
operations, geology, computer and statistical analysis, management, and 
various support services were required to successfully fulfill the 
programmatic results. The GAO complimented MMS's descriptive 
information relating resources to goals.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. Keeping in mind that fiscal year 1999 is the first year 
that a strategic plan and performance goals are in place under the 
Government Performance and Results Act, the MMS, like other agencies, 
is beginning to identify opportunities and make changes in its 
processes and programs to better address its performance goals. The 
offshore program has established teams to look at issues that effect 
our goals. For instance, an oil price team has been working to 
determine the effect of low oil prices on fair market value. Also, in 
support of our environmental and safety goals MMS is evaluating ways to 
disqualify operators who have traditionally demonstrated poor safety 
and environmental records. Additionally, MMS is developing a Safety and 
Environmental Program (SEMP) which is designed to give companies more 
latitude in the manner in which they meet safety targets while still 
meeting the outcomes needed for MMS to achieve its safety and 
environmental goals. The Royalty Management Program is developing 
operational models that will reengineer their processes to directly 
support their strategic goals. The Royalty Management Program has 
established partnerships with key stakeholders to allow their 
participation in the development of reengineered compliance and asset 
management processes.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. The MMS annual performance plan for fiscal year 2000 links 
the goals contained in the plan to the budget activities by using a 
``GPRA program activities structure'' which was developed by 
aggregating and disaggregating the program activities included in the 
P&F schedules against the GPRA program activities used in the annual 
plan. The GPRA program activities used by MMS were the MMS mission 
goals. Each discussion of a mission goal in the annual performance plan 
includes a listing of related budget accounts and an estimate of the 
total aggregate funding for that goal.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. Currently there is not a one-to-one relationship between 
budget accounts and activities in the budget justification and the 
goals contained in the annual performance plan. This lack of alignment 
results in budget accounts supporting multiple goals and goals being 
accomplished with funding from several budget accounts. Realigning the 
budget account and activity structure with the goals contained in the 
strategic and annual plans is premature at this time. However, this 
linkage is made in the annual performance plan as explained in the 
previous answer.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. The MMS has focused over the past year on making sure that 
data for all measures contained in the fiscal year 1999 annual 
performance plan will be available and reliable. Baselines have been 
established for 100 percent of the 22 measures contained in the plan. 
MMS has worked extensively to put the methodology and systems in place 
to gather, analyze, and report its performance information in an 
accurate and timely manner. At this time MMS anticipates having 
reliable data for all its goals available in time for the March 2000 
report. However, measures relative to oil and gas production and 
reserves as well as oil spills and accidents from offshore operations 
rely on external sources for information. While delays are not 
anticipated in getting this information from the external sources, a 
prolonged delay would affect our ability to report complete information 
for a few goals.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The data is expected to be available.
    Question. How will the agency's future funding requests take into 
consideration actual performance compared to expected or target 
performance?
    Answer. In its first GPRA strategic plan, published in fiscal year 
1997, the MMS established long term targets for each of its goals. As 
we begin to get actual performance data, we will evaluate each goal and 
our ability to achieve the targeted performance, not only for that 
year, but also for future years. Future targets, as well as future 
resource needs, will be evaluated and adjusted based on these 
evaluations. Future funding requests will reflect the need to shift 
funding resources to ensure effective performance.
                        Office of Surface Mining
                             aml increases
    The budget justification for the Office of Surface Mining states 
that the singular highlight of its fiscal year 2000 budget is the 
Administration's proposal for a multi-year effort to fund the Abandoned 
Mine Lands (AML) program at a level commensurate with fee receipts by 
2003. The agency proposes a $25 million increase for these activities 
for fiscal year 2000.
    Question. What level of increases in the AML program does the 
agency forecast over the next three years to get to the level of 
receipts?
    Answer. We project that fee receipts will be approximately $317 
million in fiscal year 2003. This is approximately a $100 increase over 
the fiscal year 2000 request. While budgets for the out-years have not 
yet been developed, one scenario would be for approximately equal 
increases over the next three years to reach the level of fee receipts.
    Question. Will proposed increases in the AML program over the next 
three years mean that the agency will propose decreases in other 
programs as an offset? If so, what activities will be affected and to 
what extent?
    Answer. It is not clear at this time how proposed increases in the 
AML program will be funded in fiscal year 2001-2003 or if offsets will 
be necessary. If offsets are needed the Department will determine the 
necessary offsets as each fiscal year's budget request is developed 
based on a review of all accounts to determine where offsets can best 
be made.
    The agency's fiscal year 2000 budget justification states that $22 
million of $25 million increase for AML reclamation program will be 
directed to states and tribes doing projects that support the 
President's Clean Water Action Plan (CWAP).
    Question. What criteria are used to determine whether a project is 
a Clean Water Action Plan project?
    Answer. An AML project that would correct conditions such as acid 
mine drainage from abandoned gob piles, sedimentation of streams as 
waste piles erode, and acid mine drainage formed as water enters 
underground mine workings and emerges as a pollutant, as well as other 
of the CWAP key action items, would be a project that is consistent 
with the President's Clean Water Action Plan. A State/Tribe would state 
in its grant documents that the increased funds would be used for such 
projects.
    Question. Would any states or tribes be ineligible for a part of 
this increase because they do not currently have CWAP projects. If so 
what states or tribes?
    Answer. Every time a State or Tribe cleans up an AML site there is 
a positive aspect on associated waters. Moreover, based on a staff 
review of unreclaimed sites listed in the Abandoned Mine Land Inventory 
System, and discussions with States and Tribes, we believe that all 
have eligible problem sites that could be reclaimed in support of the 
President's Clean Water Action Plan. Thus, we anticipate that all State 
or Tribe AML programs will be eligible for a part of this requested 
increase.
    The Subcommittee is concerned about the funding of the Small 
Operator Assistance Program (SOAP).
    Question. What level of funding is necessary to fully support this 
program for fiscal year 2000? How many operators will receive funding 
from this program in fiscal year 2000?
    Answer. We believe that we will have sufficient funds in fiscal 
year 2000 to support 170 operators expected to request assistance. The 
funds will be a combination of: (1) the requested appropriation of $1.5 
million; (2) recoveries from closed out projects; and (3) unexpended 
funds from the fiscal year 1999 approved reprogramming of $2.08 
million. Further, if necessary, adjustments will be made in some grant 
periods. With the recently approved reprogramming, OSM will obligate 
more than $4 million in SOAP operational grants to States during fiscal 
year 1999. These grant awards, obligated during fiscal year 1999 but 
with budget periods lasting through part of fiscal year 2000, are 
expected to result in unexpended funds which will be used in fiscal 
year 2000. The fiscal year 2000 request of $1.5 million plus 
anticipated recoveries and carryover are projected to total 
approximately $4 million, sufficient to fund the program until fiscal 
year 2001.
    Question. What are the agency's projections for the next three 
years in terms of number of operators who will participate in the 
program and the amount of money needed to fully fund it?
    Answer. The numbers of operators expected to be assisted are:

        Fiscal year                                            Operators
2000..............................................................   170
2001..............................................................   172
2002..............................................................   174

    The best current estimate is that approximately $4.0 to $4.5 
million is needed to fund SOAP operational expenses for a 12-month 
period. The States and OSM now are forming a team to conduct an in-
depth review of the ongoing funding needs for this program. Requests 
for fiscal year 2001 and beyond will be based on the results of joint 
review and the work to develop a formula-based approach to determining 
actual one-year funding needs.
                     appalachian streams initiative
    The agency's fiscal year 2000 budget proposes a $3,000,000 increase 
for Appalachian Streams Initiative.
    Question. How much additional Acid Mine Drainage (AMD) could be 
remediated with this additional funding? How many states currently 
receive funds through the ASI program? Will more states receive money 
if increased funds are provided?
    Answer. We anticipate that remediation will start on up to 42 
Appalachian Clean Streams projects (planning, design, or construction) 
in fiscal year 2000 with this increase in funding. Once funds are 
appropriated, the States will select those projects to be funded 
through the grant program. Currently, 12 states receive funds through 
the Clean Streams program. These States are Alabama, Illinois, Indiana, 
Iowa, Kentucky, Maryland, Missouri, Ohio, Pennsylvania, Tennessee, 
Virginia, and West Virginia. These are the States that historically 
have participated in the program.
    Question. To what extent, have ASI funds been leveraged with state 
and private funding? Does the agency plan to utilize more leveraging in 
the future? What are the goals and expectations?
    Answer. At this time, the ratio of appropriated funds to leveraged 
funds is approximately 1:1. This includes partners' funds committed for 
activities within the watershed of the specific project. There also are 
numerous instances of in-kind services being provided for which a 
dollar value has not yet been established. The in-kind services, for 
example, project design or the use of construction equipment, are 
significant in certain cases. Our goal is to continue expanding the 
number of non-government partners and to increase leveraging capability 
with cooperators to a 1:1.4 ratio. We anticipate that for fiscal year 
2000 approximately 60 percent of the total funds involved in the 
projects will be from other than OSM's Appalachian Clean Streams 
Initiative.
                           contractor offsets
    Question. When will the agency issue new rules concerning the 
offset of contractor's reclamation costs by allowing the contractor to 
remove and sell coal incidental to reclamation efforts?
    Answer. The final rule was published in the Federal Register 
(Volume 64, number 2, page 7471) on February 12, 1999.
    Question. What were the main issues raised by the public comment on 
the proposed rules?
    Answer. The AML Enhancement rule has as its goal to use coal that 
can be recovered at abandoned mine sites to help finance the cost of 
the reclamation. By allowing the reclamation contractor to sell this 
coal and keep the proceeds, we are reducing the overall cost of the 
project to the government. This stretches the limited AML dollar, 
making money saved on these types of projects available for additional 
projects. The rule also can have an impact on helping to keep small 
operators in business, since many are involved in remining efforts. For 
these reasons, the great majority of commenters supported the rule. Two 
commenters were concerned that this rule could allow for remining to be 
conducted under the AML program when it should be conducted under a 
Title V permit.
    Question. How will the agency's final rule respond to these 
concerns?
    Answer. The final rule contains significant safeguards. In order to 
proceed, the regulatory authority first has to determine that the site 
is not likely to be remined under the Title V regulatory program. This 
determination is made after taking into account the economic and 
technical feasibility of remining the area. It is made in a 
consultation between the Title V and the Title IV authorities. We also 
reiterated the many environmental protections already in place in the 
AML program and pointed out the additional safeguards we added to the 
regulations for these specific types of AML sites.
                         state minimum funding
    The Abandoned Mine Reclamation Act of 1990 establishes a minimum 
State grant funding level of $2,000,000 per State. However, since 
fiscal year 1995 funding for the program has been limited to $1,500,000 
per State. The agency recommends increasing the minimum State share to 
$2,000,000.
    Question. Is there sufficient high-priority work in each State that 
increasing each State's minimum share will not reduce efforts to 
complete highest priority work nationwide? What would be the impact, if 
at all, on the agency's other work if this increase were provided?
    Answer. Based on our review of the unreclaimed sites listed in the 
Abandoned Mine Land Inventory System, currently all States eligible for 
minimum program level, with the exception of New Mexico, have 
sufficient high-priority work to cover the requested $2,000,000 minimum 
program level. In the case of New Mexico, the State is determining if 
there are additional eligible coal high priority sites that should be 
added to the Inventory. If not, the State would receive only the amount 
needed to reclaim the listed unfunded high-priority eligible sites. 
There will be no impact on other OSM work if this increase is provided.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance-based management within the agency, as 
required by the Government Performance and Results Act (GPRA)?
    Answer. The Director has taken several significant steps to 
establish a comprehensive process for achieving performance-based 
management within OSM including: (1) defining specific outcome-based 
measures that relate to mission responsibilities; (2 ) developing 
reliable cost data on critical OSM activities and initiatives; (3) 
aggressively pursuing feedback from customers and stakeholders on OSM's 
performance; (4) cascading performance measurement throughout the 
organization; and (5) holding manager's responsible for accomplishing 
specific objectives that support the agency's overall goals.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. Resources are allocated to managers in support of the goals 
and objectives outlined in our strategic plan and they are held 
accountable through their individual performance agreements.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. We manage our program activities by:
  --defining performance outputs by program activity;
  --holding managers accountable through individual performance 
        agreements;
  --assigning unique account codes to identify costs for each output;
  --applying indirect administrative overhead costs to programs; and
  --providing program cost data to managers to determine if measures 
        are meaningful and if appropriate priorities are being 
        identified.
    Question. How did program performance factor into decisions about 
the funding the agency re quested in fiscal year 2000? Please provide 
examples.
    Answer. Through consultation with our stakeholders, we identified 
increased funding for the reclamation of abandoned mine lands as a 
strategically critical high priority. As a result, we have proposed a 
$25 million increase in the AML reclamation program to aggressively 
accelerate the restoration of abandoned mine sites adversely affected 
by past coal mining practices. Performance measures showing the on-the-
ground results in terms of additional acres reclaimed and streams 
cleaned were used to support OSM's request for increased funding in the 
fiscal year 2000 budget. Specifically, we estimate that an additional 
1,800 acres of AML land and hazards would be reclaimed with the 
additional requested funding.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. We have made the following program changes and enhancements 
based on increasing our program performance:
  --reallocated resources to the AML program to accomplish reclamation 
        now, rather than later--an additional 1,800 acres of hazardous 
        lands to be restored beginning in fiscal year 2000;
  --emphasized our Clean Stream Initiative to increase the use of non-
        agency funds to undertake reclamation;
  --introduced the AML Enhancement Initiative--a revision of Federal 
        regulations to allow coal mine operators to reclaim AML sites 
        without significant additional cost to the AML fund or the 
        government;
  --established a high priority issues identification program of 
        outreach to all of our employees to determine what regulatory 
        and reclamation issues need to be addressed;
  --enhanced our outreach to our stakeholders (States, industry, 
        citizen and environmental groups) to continually improve our 
        programs and services;
  --established a succession planning initiative for workload/workforce 
        analysis, due to aging workforce and changing roles for OSM, to 
        recommend long-term resource allocation.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. There is a direct link between OSM's annual performance 
goals and the strategic plan and OSM's budget request to Congress. Our 
new appropriation account structure is based on ``business lines'' 
identified in the strategic and annual plans. These business lines more 
clearly reflect the activities that we do in carrying out our mission 
and in meeting our goals. At this program activity level, there is a 
one to one relationship with appropriation account codes and 
performance measures.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. There are no further changes to the appropriation structure 
required at this time. We are making internal changes by redefining 
program activities and definitions to facilitate activity based cost 
accounting and to be able to associate costs with performance outputs. 
We are accomplishing this by amending our internal organizational and 
accounting codes.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. We are currently collecting data for all our current 
performance measures which will be available for the first performance 
report.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. We continue to work with the States to improve the 
reliability of their data and are adjusting our own performance data as 
necessary. We collect performance data from 26 States, many having 
slightly different reporting systems and interpretations of the data 
requirements. We are working together to remedy the differences.
    Question. How will the agency's future funding request take into 
consideration actual performance compared to expected or target 
performance.
    Answer. We will shift our program focus and revise future budget 
requests, where necessary, to accomplish more effective performance 
output with the most efficient investment of our resources.
                        U. S. Geological Survey
                  competition with the private sector
    Question. Last year, this Subcommittee heard complaints that USGS 
was providing or seeking to provide a variety of commercial services to 
Federal and non-federal entities in direct competition with the private 
sector. As a result, language was included in both the fiscal year 1999 
Senate Report and the Statement of the Managers urging USGS to review 
its practices and use the services of the private sector wherever 
feasible and cost-effective. Please describe what, if any, action has 
been taken at the Department level to assure that GS is not competing 
unfairly with the private sector. Are there specific areas where 
improvements have been made to existing practices?
    Answer. The USGS has used private sector services for many years, 
having begun to emphasize the use of contracting in the early 1980's as 
a valuable option for achieving program objectives. In 1992, the USGS 
formally endorsed this business practice with a written policy to use 
private sector services in all cases where appropriate. For the past 
few years, the USGS has been working with Congress, particularly the 
Appropriations Committees of both the Senate and the House, to ensure 
that map and digital data production activities conform with 
Congressional expectations for the use of private sector services by 
Federal agencies. Both Congress and industry advocacy groups have 
expressed appreciation of USGS efforts in this arena. In fiscal year 
1999, the USGS will spend over $32 million to acquire geospatial data 
through the use of private-sector firms.
    The Secretary of the Interior, under the Federal Advisory Committee 
Act, established the Advisory Committee on Water Information (ACWI) 
chaired by the Department of the Interior's Deputy Assistant Secretary 
for Water and Science. During an August 1998 meeting, ACWI established 
a task force to examine the content and the conduct of the Federal-
State Cooperative Water Program (Coop Program) of the USGS. The Task 
Force, comprises a balanced representation of 22 members from Federal, 
regional, State, tribal, local, and municipal government agencies, and 
the private sector. The Task Force selected Mr. Larry Rowe, Western 
Water Company, San Bernadino, California, as its Chairperson and Mr. 
Fred Lisnner, Manager, Ground Water and Hydrology Department, Oregon 
Department of Water Resources, Salem, Oregon, as Vice-Chairperson.
    Under the Terms of Reference, the Task Force is addressing four 
topics, including ``conduct of work.'' Nearly all of the work in the 
Coop Program is performed by USGS scientists and technicians. This 
arrangement is designed to enhance quality control, provide national 
consistency in data collection and methods of analysis, and provide a 
stable core of experienced water scientists nationwide. The Task Force 
is considering whether this arrangement might be improved without 
sacrificing its benefits; what is the appropriate relationship with the 
private sector, States, universities, etc.; and what would be the 
implications of altering current work arrangements on the unique 
qualities of the Coop Program and water management nationwide. The 
American Institute of Professional Geologists (AIPG) and the American 
Consulting Engineers Council (ACEC) have made statements of concern 
about competition to the ACWI. Prior to and after the August 1998 ACWI 
meeting, the USGS has had meetings and correspondence with AIPG and 
ACEC on this issue. The Task Force convened two panels of private 
sector individuals, including representatives from AIPG and ACEC, to 
discuss the issue of competition and to define the appropriate role of 
the USGS. The Task Force will complete its work by the end of June 1999 
with a report of findings that ACWI will use as the basis of 
recommendations on modifications or enhancements to the Coop Program. 
The ACWI will announce the availability of the draft report for public 
review and comment in the Federal Register before transmitting the 
final report to the Director of the USGS.
    Question. The Federal Activities Inventory Reform Act passed by 
Congress last year mandates that each department and agency provide an 
annual inventory of its commercial activities to the Office of 
Management and Budget. The deadline for submission of this inventory is 
June 30, 1999. Are preliminary lists of these activities for DOI 
bureaus, including GS, available at this time? What has this data 
demonstrated to you in terms of the Department's contracting procedures 
and outsourcing practices?
    Answer. The Department's scheduled due date for submissions from 
the Bureaus is June 15. Information is not yet available on which to 
draw conclusions.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance-based management within the agency, as 
required by the Government Performance and Results Act?
    Answer. The Director has refocused the strategic and annual plans 
which has:
  --established common goals that are being implemented across the 
        organization;
  --encouraged integration, synergy, and shared measures among 
        scientific disciplines; and
  --ensured that every measure is part of a chain of cause and effect 
        linkages that measure m ovement of the organization in its 
        strategic direction.
    Customer-involvement is the focus of the new plan's strategic 
direction and permeates all aspects of the plans. Further, aggregation 
in the new strategic and annual plans has substantially reduced the 
number of Business Activities or mission goals from eight to two, 
strategic or long-term goals from 67 to two, and performance measures 
from 112 to 10. In addition, the USGS has developed and begun using a 
web-based Intranet system for gathering performance information, and 
monitors and evaluates progress internally as part of their Budget 
Execution Review process and with the Department Planning Office as 
well.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. The USGS has developed an accountability framework with 
specific performance targets and is in the process of implementing them 
throughout the organization with full intent of holding senior 
executives accountable. Executive Leadership Team meetings held twice a 
year bring all USGS senior executives, regional directors, and selected 
program managers together to discuss progress in advancing their 
strategic direction and achieving targeted performance and outcomes. 
Their long-term goal is to reinforce the strategic plan through the 
rewards system, linking the reward of individual or team contributions 
to the achievement of the strategic direction and goals.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. Progress is reviewed with senior managers at quarterly 
program and budget reviews and is reported quarterly to the Department. 
As more performance information becomes available, management decisions 
will increasingly derive from it.
    Question. How did program performance factor into decisions about 
the funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. The fiscal year 2000 budget request was formulated on the 
basis of the strategic plan and addresses both of the USGS mission 
goals.
    The Hazards mission goal which focuses efforts on predicting and 
monitoring hazardous events in near real time is being advanced by the 
Real-Time Hazards request for an increase of $5.45 million. Funding 
will be used to accelerate instrument modernization and expand the use 
of real-time telemetry that allows rapid notification of emergency 
response agencies that deal with natural disasters. The baseline rate 
of improvement of the flood and earthquake networks is 100 streamgages 
telemetered per year and 20 improved earthquake sensors installed per 
year. The request will add telemetry to an additional 150 streamgages 
and install an additional 80 earthquake sensors. Increasing 
availability and accessibility of hazards information is also being 
promoted with an $8 million increase requested for a Disaster 
Information Network.
    The Environment and Natural Resources mission goal (focusing 
efforts on expanding understanding of environment and natural resources 
issues on regional, national, and global scales and enhancing 
predictive/forecast modeling capabilities) is being advanced by the 
Integrated Science request for an increase of $17.4 million to 
intensify multidisciplinary scientific support for Department of the 
Interior issues, and Community/Federal Information Partnerships request 
for an increase of $10 million for coordinated interagency efforts to 
make new information and tools readily available to local communities.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. In addition to the specific program change examples cited 
in the previous answer, the USGS has refocused its strategic plan to be 
customer driven. This commitment follows through in the USGS budget and 
accompanying annual plan with increased emphasis on providing natural 
science data and research that meet the highest priority needs of 
customers in fulfilling their missions. This focus strengthens USGS' 
contribution to the resolution of complex issues and strengthens USGS' 
tie to the outcomes achieved by their customers through science-based 
decisionmaking.
    Returning to the Integrated Science example, in providing science 
for a changing world, the Department has a planned outcome that 
resource managers will make decisions based on accurate, reliable, and 
impartial scientific information. One of the strategies to achieve this 
outcome is to ensure that the scientific research program focuses on 
understanding, assessing, and monitoring ecosystems to provide 
scientific understanding and technologies needed to support sound land 
and resource management. In fiscal year 2000, a DOI-wide process is 
being piloted with NPS, FWS, and BLM to assess the status of current 
science support, identify gaps and cross-bureau applications, formulate 
priorities for USGS research in support of land management needs and 
obtain land management bureau input for defining GPRA metrics and 
science outcomes. The request provides the first step in establishing a 
broad partnership with these Federal managers to enhance scientifically 
sound management of the lands and resources under their stewardship.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. The GPRA Program Activity concept is used to better relate 
goals to the existing budget structure, to present both budget and 
performance information in a more issue-focused way, and to enhance the 
plan's informative value. The two mission goals from the USGS refocused 
Strategic Plan are used as the GPRA Program Activities in the Annual 
Performance Plan. Each mission goal or GPRA Program Activity has one 
associated long-term goal which identifies target levels and the time 
frame of performance for the Strategic Plan. Each of the Strategic 
Plan's long-term goals has one associated annual goal which identifies 
the annual performance increment necessary to achieve the long-term 
goal as well as any change proposed to result from program and budget 
initiatives. Each annual goal has five performance measures--a total of 
ten for the entire Annual Plan.
    The GPRA Program Activity concept captures the contribution of all 
program activities to a common mission requirement by applying a single 
set of annual goals and performance measures across all five of USGS' 
budget activities: National Mapping Program; Geologic Hazards, 
Resources, and Processes; Water Resources Investigations; Biological 
Research; and Integrated Science. The two remaining activities, Science 
Support and Facilities, support all programmatic activities and their 
funding is distributed on a prorata basis to the two GPRA Program 
Activities. The funding contributions of each programmatic budget 
activity to achieving these mission goals are identified in each 
Activity Summary in the fiscal year 2000 budget and discussed further 
in the fiscal year 2000 Annual Plan. Conversely, the performance 
targets are disaggregated to show the contribution of each budget 
activity to each GPRA Program Activity in tables in the Appendix of the 
fiscal year 2000 Annual Plan.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. The basic activity structure of USGS budget has been in 
place for most of the USGS' 120 year existence. Because much of the 
budget structure predates GPRA, it does not optimize linkage of 
resource amounts to performance goals. For the fiscal year 2000 budget 
submission USGS added a budget activity, Integrated Science, to the 
budget structure, and consolidated facilities costs as well as bureau 
level administrative costs. These changes improve the presentation of 
GPRA performance information, and are designed to begin migration of 
the budget structure to a more meaningful and useful format and 
position the organization to better link resource needs and 
performance. As USGS continues to gain experience in communicating, 
budgeting, and implementing their initial strategic plan, budget 
structure changes that will optimize resource and performance linkage 
may be developed.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. The USGS believes that reliable performance data will be 
available for the fiscal year 1999 performance report due March 2000.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The USGS will continue to verify and validate performance 
data and measures.
    Question. How will the agency's future funding requests take into 
consideration actual performance compared to expected or target 
performance?
    Answer. As actual performance data become integrated into the 
performance planning process which accompanies budget formulation, 
progress toward achieving strategic (long-term) goals will be monitored 
and funding requests adjusted to direct resources in a manner that will 
achieve stated goals.
                       Fish and Wildlife Service
                 sportfish restoration grants to states
    TEA21 increased the Boat Safety transfer to the Coast Guard from 
$20 million in 1998 to $64 million in 1999. TEA21 also authorized a new 
program for outreach with a first year cost of $5 million. The total 
reduction of $49 million comes from the Sport Fish Restoration Grants 
program. TEA21 was intended to replace the Coast Guard's discretionary 
appropriation for Boat Safety with a permanent source of funding. It 
calls for $64 million to be transferred from the Sport Fish Restoration 
Account to the Boat Safety Account in 1999, instead of $20 million 
under previous authorization. Members of Congress asked OMB to allow 
the $64 million for fiscal year 1999 to be taken from current year 
receipts in the Aquatic Resources Trust Fund instead of being 
transferred from the Sport Fish Restoration Account. OMB determined 
that this was not authorized. Most states have prepared budgets for 
fiscal year 1999 based on a preliminary apportionment of SFR grants 
which did not take into account the $64 million deduction. The 
reduction equates to about two months' funding. The Fish and Wildlife 
Service advises that a legislative solution is required if the States 
are to receive relief this fiscal year.
    Question. What is the status?
    Answer. A legislative solution would be required to amend the 
language in TEA21 that caused a 22 percent reduction in the Sport Fish 
Restoration (SFR) Fund Final Apportionment to the states for fiscal 
year 1999. The FWS has met with representatives of the state fish and 
game departments and advised them of administrative alternatives 
available for any near-term state budget shortfalls. The following four 
administrative actions were recommended:
    1. Use any leftover obligation authority from fiscal year 1998 to 
proceed until October 1999, when the fiscal year 2000 SFR apportionment 
becomes available.
    2. De-obligate funds remaining for projects in which the original 
amount obligated exceeded actual project costs.
    3. Defer major obligations such as equipment purchases, awarding of 
contracts, etc., until October 1999.
    4. Defer awarding major contracts for boating access projects until 
October 1999. (The minimum 15 percent expenditure of SFR funds for 
boating access applies to the state's 5-year average expenditure for 
boating access, not to the annual expenditure for boating access.)
    Question. When can we expect to see a legislative proposal from the 
Administration that fixes the problem?
    Answer. The Department does not plan to develop a legislative 
proposal on this issue since the administrative alternatives provide 
workable solutions this fiscal year. The increase in the amount of the 
Boat Safety transfer is a one-year problem in fiscal year 1999 only.
                         refuge revenue sharing
    Question. What is the status of efforts to address problems in the 
Fish and Wildlife Service's refuge revenue sharing program?
    Answer. The National Wildlife Refuge Fund has provided less than 
the 100 percent entitlement payments each year since fiscal year 1981. 
For most refuges, the entitlement payment formula is based on appraised 
market value of the lands that had been purchased. Over the past 
decades these lands have increased in market value. Because the FWS 
acquires additional lands each year, the total number and amount of 
payments have also increased over this period.
    In fiscal year 2000, the Fish and Wildlife Service has requested 
$10 million in appropriations to supplement the estimated $6 million in 
net receipts that will be available for refuge revenue sharing 
payments. The combined $16 million will cover about 53 percent of the 
full, formula-based, entitlements ($30 million). Since the national 
refuges are managed for the protection of wildlife and their habitats, 
the generation of additional receipts from timber harvesting, grazing, 
and other economic activities are limited by compatibility statutes and 
regulations. Because of other policy and program priorities and fiscal 
constraints, the FWS fiscal year 2000 budget could not shift an 
additional $14 million to the refuge revenue sharing program to meet 
the full entitlement payments. The FWS will consider other options in 
its fiscal year 2001 budget plans.
    It should be noted, however, that the national wildlife refuges 
bring other economic benefits to communities through public visitation, 
as well as the refuges' employment and purchases of supplies and 
services. These benefits are highlighted in a recent study, Banking on 
Nature: The Economic Benefits to Local Communities of National Wildlife 
Refuge Visitation. A copy of this report is provided to the Committee 
on Appropriations.
    Question. Why hasn't the Administration requested full funding for 
this program?
    Answer. In fiscal year 2000, the FWS estimates that $30 million 
would be needed to fully fund the refuge revenue sharing program. An 
annual appropriation of $24 million would be needed to supplement the 
projected $6 million in net receipts collected by the refuges. The FWS 
fiscal year 2000 budget requests $10 million in appropriations. Because 
of policy priorities, the FWS could not propose shifting $14 million 
from other ongoing program needs to the refuge revenue sharing program 
for meeting the full entitlement payments.
    Question. Does the Administration intend to submit a legislative 
proposal to address inequities in the existing refuge revenue sharing 
program?
    Answer. At this time, the Department does not plan to submit a 
legislative proposal that would change the existing pro rata formula 
used to distribute refuge revenue sharing payments to counties.
                 government performance and results act
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance based on management within the agency, as 
required by the Government Performance and Results Act?
    Answer. Recently, the FWS Director issued an annual performance 
goal accountability memorandum to all Regional Directors which commits 
the Regional Directors to meeting the performance measure targets in 
the fiscal year 1999 annual performance plan. These targets were 
established by the Washington Office program managers and revised based 
on input from the regional offices. So far, the Service has only 
reported performance data for first quarter of fiscal year 1999. The 
FWS is in the process of developing a performance planning and 
management system. The objective of this system is to manage a business 
system based on goals and performance measures throughout all regions 
of the U.S. Fish and Wildlife Service. As the FWS continues to record 
accomplishment data, it will be in a better position to integrate the 
results of performance in the management process.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. The senior executives of the FWS are held accountable for 
delivery of the annual performance goals through two mechanisms. First, 
each senior executive commits to key performance objectives for the 
year in a performance agreement with the Director. One of the key 
performance objectives is the provision of sound leadership in 
strategic planning and in development of performance goals and measures 
to achieve desired outcomes. The second mechanism is issuance of the 
Director's memorandum of annual performance goal accountability. This 
memorandum provides the final fiscal year annual performance goals and 
performance targets and the regional contributions necessary to 
successfully meet those targets.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. The FWS has reported performance data for the first quarter 
of fiscal year 1999. Many of the FWS performance measures can only be 
reported annually. For example, migratory bird populations status is 
collected at the end of the year through annual surveys, and all refuge 
operational data is collected nationally at the close of each fiscal 
year through the Refuge Management Information System. Through the 
second quarter of fiscal year 1999, the FWS has reported on eight 
performance measures. The FWS expects to increase the number of 
measures that it reports quarterly as it develops a performance 
planning and management system. With this system, FWS managers will be 
able to track, analyze, and report on the annual performance goals. 
Thus, the FWS will be in a better position to use performance 
information to manage the agency after completing its first year of 
reporting.
    Question. How did program performance factor into decisions about 
the funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. In the FWS's fiscal year 2000 budget submission to the 
Congress, each major program was linked to one or more fiscal year 2000 
annual performance goals and related performance measures. Also, each 
proposed fiscal year 2000 program increase contained a separate section 
entitled, Relationship to Performance Goal, which describes how the 
proposed increase would contribute to one or more annual performance 
goals.
    For example, in the Habitat Conservation program, the Coastal 
Program is requesting a $1.5 million increase. These additional 
resources will contribute directly to the FWS's annual performance goal 
2.3.1, which seeks to improve the fish and wildlife populations 
focusing on trust resources, threatened and endangered species, and 
species of special concern by enhancing and/or restoring, or creating 
wetlands, uplands and riparian habitats partnerships and other 
conservation strategies.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plan?
    Answer. The FWS is actively engaged in continuous improvement 
opportunities through reengineering current processes and program 
delivery mechanisms. One such improvement was the refocusing and 
streamlining of the FWS's first Strategic Plan. In this revision, eight 
long-term goals and 60 performance measures were incorporated into a 
broader set of outcome goals that the FWS could more clearly articulate 
its contribution to the public. In this first year of full bureau-wide 
participation in the GPRA performance management process, the FWS has 
been pursuing quarterly monitoring and reviewing performance 
measurement data to assure successful delivery of our annual goal 
commitments. It should be noted that the FWS's ability to meet its 
strategic and annual goals is directly related to receiving 
appropriations consistent with the budget request.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. The FWS has linked its proposed fiscal year 2000 program 
increases to the fiscal year 2000 annual performance. For example, each 
proposed fiscal year 2000 increase has a separate section entitled, 
Relationship to Performance Goals, which describes how the proposed 
increase would contribute to one or more annual performance goals. The 
FWS's base budget is linked to the three FWS Mission Goals, not to the 
Annual Performance Goals.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. The long-term and annual performance goals for the FWS 
provide strategic (horizontal) approach to delivery of various programs 
and activities of the FWS. Therefore, there is no direct alignment or 
linkage of the budget structure with the goal structure.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. The FWS anticipates that reliable data will be available 
for all performance measures necessary to report the successful 
accomplishment of the fiscal year 1999 annual performance goals in the 
annual performance report due March 2000.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The FWS anticipates that reliable data will be available 
for all performance measures necessary to report the successful 
accomplishment of the fiscal year 1999 annual performance goals in the 
annual performance report due March 2000.
    Question. How will the agency's future funding request take into 
consideration actual performance compared to expected or target 
performance?
    Answer. Because the FWS recently completed a revision of the 
Strategic Plan, which set new goals and baselines, it was not 
appropriate to take into consideration performance related to the 
funding request for fiscal year 2000. During the development of the 
funding request, the existing strategic plan was streamlined to ensure 
more meaningful performance goals and performance measures.
                         National Park Service
                      construction program reform
    Under direction from this Subcommittee, the Department has 
undertaken significant reforms of the Park Service construction 
program.
    Question. What is the status of the Department's efforts to 
implement the reforms recommended by the National Academy of Public 
Administration and this subcommittee?
    Answer. The National Park Service has made the following progress 
in implementing the National Academy of Public Administration (NAPA) 
recommendations:
    NAPA Recommendation 1. Contract out about 90 percent of the design 
work and all of the construction supervision and inspection.
    The Denver Service Center (DSC) is working on approximately 60 
percent of the construction line item program. Parks and Regions do the 
remaining percentage. In fiscal year 1999, the DSC split between 
Architectural/Engineering (A/E) contracts and in-house work is 
approximately 50/50. This ratio exists because DSC's workload is still 
representative of continuing prior year work that cannot efficiently be 
converted to an A/E contract. In fiscal year 2000, the DSC split is 
proposed to be 85 percent A/E and 15 percent in-house; the remaining, 
continuing work at Sequoia National Park will put DSC slightly beyond 
the 10 percent threshold. By fiscal year 2001, DSC will meet NAPA's 
prescribed 90 percent/10 percent program split.
    In fiscal year 1999, the park/region split between A/E and in-house 
work is 53/47. In fiscal year 2000, the park/region split is proposed 
to be 95 percent A/E and 5 percent in-house. In fiscal year 2001 the 
park/region split is proposed to be 87 percent A/E and 13 percent in-
house.
    Construction inspection/supervision is being done by contract. 
Eight employees (down from 45 in August, 1998 and approximately 60 a 
year ago) remain in the field to complete current phases of 
construction inspection through December 1999. By the end of fiscal 
year 1999, Denver Service Center will have completed current 
construction contracts and returned all field staff to Denver except 
for two people. These two people are assigned to projects that will not 
be complete until fiscal year 2000.
    NAPA Recommendation 2. Improve DSC's management of A/E firms 
performing design activities.
    DSC has begun to involve A/E firms as team members during the pre-
design phase of projects. This provides for a more seamless transition 
from pre-design to design. To form a more effective partnership with A/
E firms, DSC has established the process of asking for the A/E's input 
prior to writing the scope of services for their work. DSC is holding 
more discussions in lieu of passing paperwork back and forth, thus 
cutting down on the time it takes to get the firm under contract. Once 
the A/E firm is in full production of plans and specifications, the DSC 
project manager and pre-design team members remain as part of the team 
to assure that the programming phase is understood and the design 
intent is carried through.
    NAPA Recommendation 3. Utilize A/E firms that have experience in 
the general locale of the project and that have solid reputations.
    Following Public Law 92-582 (the ``Brooks Act'') procedures, the 
most technically qualified firm is selected for any given project. 
Utilizing this selection process, DSC has increased the weight of two 
significant selection criteria: geographic location (and/or expertise) 
to the site and past performance. Any new contract awards will be based 
on both geographic proximity and solid reputations. In addition, 
utilizing some of DSC's large, nationwide, indefinite-quantity 
contracts, DSC is able to place design task orders with the most 
appropriate firm from a geographic standpoint.
    Examples of compliance with this recommendation include A/E 
contracts presently being let in the northeast portion of the country. 
DSC will be selecting firms from Boston, Philadelphia, and Washington, 
D.C. to accomplish design work in those areas. Denver Service Center 
will also be awarding contracts to very competent design firms in some 
of these areas utilizing the 8(a) program of the Small Business 
Administration.
    NAPA Recommendation 4. Adopt standardized design and construction 
practices, and obtain professional services to prepare standard design 
drawings and specifications.
    Specific work has not started on this recommendation. The Service 
has prepared a scope of services for preparing standardized designs but 
has not begun the project. The NPS Development Advisory Board is 
collecting comparative cost data on facilities that will be useful on 
this project.
    NAPA Recommendation 5. Make planning and management of contracts a 
critical and major function of the DSC.
    DSC has made major changes in contract methodology. DSC is using 
competitive negotiation procedures in lieu of low bid awards. This 
allows the selection of construction contractors based on their 
expertise in the locale, past performance and experience, as well as 
price. DSC has streamlined this process to the point that it can be 
accomplished in the same timeframe as sealed bidding. DSC is involving 
construction management firms not only in on-site inspection services 
but also in estimating, reviewing of bidding documents, and value 
analysis. As each project begins, DSC is looking at ``design/build'' as 
well as other innovative ways to accomplish the work. Currently, DSC 
has two successful ``design/build'' projects underway. DSC has also 
used formal partnering on some of our larger construction projects, 
such as the Franklin Roosevelt Memorial.
    NAPA Recommendation 6. Assign responsibility and accountability for 
line item construction projects to the park superintendents and give 
them training.
    Curriculum is being developed to train superintendents in how to 
oversee an overall construction program in their park. Four courses are 
scheduled for this year.
    Beginning in fiscal year 1999, new processes are in place for the 
allocation of construction planning and construction management related 
funding. In the past and continuing in the future, funding for the 
line-item construction projects (actual construction dollars) were 
allocated to the Regional Offices, in accordance with the amounts in 
the NPS line-item budget. In fiscal year 1999, funding for construction 
planning and construction management activities will be allocated in a 
similar fashion.
    Regional Offices, parks, the Denver Service Center and the Harpers 
Ferry Center will identify funding needs for the planning and 
construction management program. Project needs will be reviewed by the 
Washington Budget Office in order to determine if they are commensurate 
with the funding sources authorized. As the projects proceed, funding 
will be requested by the lead project office from the Regional Office 
for each activity related to that project. The Region will request the 
specific amount related to award of an A/E contract, purchase order, or 
some other procurement need, from the Washington Budget Office. Once 
that has been approved, the funding will be allocated to the Regional 
Office. As a result, superintendents and the Regional Director have 
responsibility for ensuring that the funds requested are within the 
NAPA percentages, are being requested for authorized activities (A/E, 
other contracted services), and are within the confines of the original 
project budget.
    NAPA Recommendation 7. Establish a National Park Service project 
management control system to provide visibility of project status.
    The tracking system that the Committee directed the National Park 
Service to establish is currently in place for monitoring and tracking 
projects in which DSC is involved. The system is being monitored for 
effectiveness and usability. Feedback from DSC users indicates that the 
system is working well and provides information in a variety of 
formats. After additional user evaluation, the system will be studied 
for expansion in fiscal year 2000 to include tracking of all National 
Park Service projects.
    A group of four construction management professionals reporting to 
the NPS Associate Director for Professional Services is in place to 
manage the NPS project management control system and to exercise 
oversight of the line-item development program for the Director.
    NAPA Recommendation 8. Establish an external review group to assess 
line-item construction projects for functional suitability and cost-
effectiveness.
    The Director has established and appointed an external review group 
to review line-item construction projects. The group of ``Advisors to 
the Director'' will consist of five primary advisors and three 
alternates with diverse backgrounds in policy and budget 
administration, cultural and natural resources, architecture, 
historical architecture, landscape architecture, and engineering.
    The eight advisors are:
  --David Morehouse--Special Assistant to the Deputy Secretary, 
        Wisconsin Department of Natural Resources
  --James Caufield--Chief Architectural Services, Pennsylvania 
        Historical and Museum Commission
  --Yvonne Ferrell--Director, Idaho Department of Parks and Recreation
  --David Freeman--Chief Engineer, Georgia Department of Natural 
        Resources
  --Rodney Stokes--Chief, Parks and Recreation, Michigan Department of 
        Natural Resources
  --Gary Bush--Chief, Office of Landscape Architecture, California 
        Department of Transportation
  --James Kirkman--Project Director, Kennedy Center
  --Alice Morehouse--Deputy Division Administrator, Wisconsin 
        Department of Transportation
    An orientation session for the special advisors is planned in 
April. The advisors began the review of projects at the May meeting of 
the NPS Development Advisory Board (DAB). During DAB meetings the 
advisors will review and fully participate in discussions of the 
presented projects. Findings and recommendations of the advisors will 
be reported to the NPS Director for follow-up and action. NAPA
    Recommendation 9. Base fund the DSC civil service activities that 
support the general management planning and line-item pre-design and 
project management activities.
    DSC is base funded in fiscal year 1999 for activities associated 
with the line-item program. The dollars provided by Congress will 
support 151 FTE. Non-base funding support for 109 FTE comes from the 
General Management Plan Program, Federal Highway Administration, and 
other reimbursable sources.
    NAPA Recommendation 10. Use standard estimation factors in 
developing the line-item program.
    All line-item projects for fiscal year 2000 and beyond are 
estimated and will be managed within the NAPA guidelines.
    NAPA Recommendation 11. To control NPS housing costs, compare the 
estimated costs with the Tri-services Military Family Housing Cost 
Model prior to budget submission and prior to construction.
    The NPS is using the Tri-Military Cost Model, as recommended by 
NAPA, beginning with the upcoming construction cycle. Where the cost 
estimates exceed 10 percent of the model estimate, NPS would require 
the park superintendent to justify additional costs and obtain approval 
from the Director before proceeding with the construction.
    Based on the NAPA recommendations that 90 percent of the planning, 
construction management and construction should be contracted out, the 
Committee directed that the Denver Service Center staff be reduced by 
50 percent. In order to help achieve that goal, the Committee provided 
buyout authority and encouraged transfers to parks or Regional Offices.
    Implementation of these reforms will require personnel reductions 
at the Denver Service Center.
    Question. How are these reductions being made?
    Answer. Reductions have been made and will continue to be made 
utilizing a combination of buyout authority, transfers to other 
National Park Service offices and parks and to other Federal agencies, 
and lastly, through reductions-in-force.
    Question. What have been the personnel levels at Denver for the 
past two fiscal years, what is the personnel level now, and what is the 
anticipated personnel level at the end of fiscal year 1999?
    Answer. The authorized personnel ceiling for the Denver Service 
Center was 493 full time equivalency positions prior to the 
implementation of the NAPA recommendations. The current employment 
ceiling is 292, and the anticipated ceiling by the end of fiscal year 
1999 is 260.
    Question. Assuming the levels in the President's budget request, 
what will happen to personnel levels in fiscal year 2000?
    Answer. Personnel levels for the Denver Service Center for fiscal 
2000 will remain at the proposed end of fiscal year 1999 level--260 
full time equivalency positions.
    Question. How many Denver personnel are likely to be absorbed into 
other Park Service program areas?
    Answer. Through February 28, 1999, 126 employees have transferred 
to other positions within the NPS and other Federal agencies. 
Outplacement services that were established to assist employees find 
employment elsewhere will remain in force for the foreseeable future; 
at this time it is unknown how many employees will eventually be 
absorbed into other N PS organizations before the end of fiscal 1999.
                    land and water conservation fund
    Section 6 of the Land and Water Conservation Act authorizes the 
``Stateside'' program as a formula grant program for land acquisition 
and other recreation purposes. The Administration's budget essentially 
rewrites this section of the LWCF Act by requesting $50 million for 
competitive land use planning grants, and $150 million for a 
competitive grant program in which funds could only be used for land 
acquisition.
    Question. Why are you proposing to recreate the Stateside program 
as a competitive grant program?
    Answer. The Administration believes that the State grant program is 
an excellent means of leveraging Federal dollars with State and local 
matching funds, that such State and local projects will reduce 
pressures to acquire additional units for the Federal system, and that 
such units will slow the growth of Federal operating funds for new 
units.
    Question. Do you think you or your staff can make better decisions 
than the States about local conservation and recreation needs?
    Answer. Criteria for grant selection will be developed through a 
public process where input will be obtained from all interested 
parties, including State and local governments, and the Congress. 
Further, proposals to implement priorities cited in State, regional, 
and tribal plans, addressing open space preservation, smart growth 
strategies/urban sprawl management, park and recreation needs, and 
wildlife conservation will be given priority consideration. With the 
limited funds available, it is thought that the best projects nation-
wide should be funded. For instance, criteria could take account of the 
lack of Federal recreational lands in many States and allocate funds to 
those areas with the greatest unmet need.
                      natural resources initiative
    The budget request includes a $14 million increase for the Natural 
Resources Initiative, which in large part is focused on creating an 
inventory of the natural resources existing in parks and implementing 
measures to protect those resources.
    Question. What is the relationship between the Park Service and the 
Biological Resources Division of the U.S. Geological Survey in 
implementing this initiative, and in generally supporting the science 
needs of the park system?
    Answer. The National Park Service identifies its research, 
inventory and monitoring, and resource management needs and plans and 
implements management activities to restore, preserve, and protect its 
natural resources. Examples of such activities include: using standard 
protocols to inventory parks for birds, mammals, reptiles, amphibians, 
and vascular plants; restoring disturbed areas such as abandoned mines 
and roads by establishing appropriate soil characteristics and planting 
native plants; applying pesticides or mechanical controls to invasive 
species; protecting the nesting sites of endangered species from 
disturbance; reviewing and approving plans or permits for activities 
that may adversely affect park resources and seeking appropriate 
controls and restrictions to avoid impacts; restoring a native species 
to an area from which it has been extirpated; and monitoring the health 
of the resources and the results of management actions. These are the 
types of activities proposed for funding in the NPS Natural Resource 
initiative.
    The U.S. Geological Survey assists the NPS in three principal 
fashions: it develops protocols for inventory and monitoring for NPS 
and others to implement; it conducts research that is broadly 
applicable to NPS management needs, such as new techniques for 
restoring specific plant species or for controlling invasives; and it 
conducts research to meet the specific management needs of specific 
parks. The U.S. Geological Survey also provides some technical 
assistance to help parks concerning their resource management 
activities, such as consulting about which methods should be employed.
    Question. Will any of the funds requested for this initiative flow 
to BRD? If not, why not?
    Answer. No. A significant portion of the NPS fiscal year 2000 
increase is for the Inventory and Monitoring Program. Research elements 
of the program were transferred from the NPS with funding when the 
National Biological Service, now BRD, was created. These were protocol 
development and the regional scale vegetation mapping program, which 
had national applications. The BRD continues to conduct these portions 
of the program with the funding that was transferred with the program 
responsibilities. The NPS retained responsibility and funding for 
purchasing data such as digital cartographic data and for conducting 
routine surveys using approved protocols. The NPS fiscal year 2000 
budget would accelerate these latter activities. The funding would not 
go to BRD, although some of the data are purchased from the USGS and 
from other Federal agencies, specifically the Natural Resource 
Conservation Service (for soils maps).
    Another example of related, but not overlapping, responsibilities 
with fiscal year 2000 budget implications is funding for high priority 
park projects. The NPS Natural Resource Preservation Program (NRPP) was 
designed originally to meet the highest natural resource needs of parks 
and is allocated competitively each year under careful criteria, using 
field evaluation panels. This fund was split into Research and Resource 
Management, the former portion going to BRD, when it was originally 
formed. The NRPP remaining in the NPS implements resource management 
activities; biological research is specifically ineligible as this is 
conducted by BRD.
    The USGS/BRD consults with the NPS and other bureaus to determine 
bureaus needs in their budget formulation process. The NPS requests BRD 
to seek increases for those functions that the Biological Resources 
Division performs on behalf of the National Park Service.
    Question. Does BRD currently perform work in support of the park 
system purposes for which the Natural Resource Initiative funds are 
being requested?
    Answer. No. As indicated above, the Biological Resources Division 
currently performs related functions, but not those for which fiscal 
year 2000 NPS funds are requested. The natural resource initiative 
addresses on-the-ground application of research in order to address in-
park resource management activities.
    The request indicates that $6.5 million of the $8 million increase 
requested for Inventory and Monitoring will fund biological 
inventories.
    Question. Would this increase be used to create new full-time 
science positions within the Park Service, to reimburse BRD for work 
performed on the Park Service's behalf, for contracts with universities 
or other non-Federal entities, or some combination of the above?
    Answer. Of the proposed $8 million, most would be used for site-
specific biotic surveys by the NPS. These surveys use accepted 
protocols. One means by which the BRD is assisting the NPS and other 
bureaus is by compiling information on acceptable protocols.
    It is anticipated that most of this NPS work would be performed 
through cooperative agreements with universities. Up to seven positions 
to manage the cooperative agreements would be established in the field. 
This will allow more effective partnerships at a local level with area 
colleges and universities. In addition, some resource management 
positions will eventually be established in parks to carry out 
monitoring programs designed by BRD, for about $2 million. Once the 
research and design work is completed, the BRD turns over the operation 
of the monitoring programs to the NPS, since operation involves routine 
sample collection, not normally undertaken by research scientists. 
There are several such programs now in the design stage using BRD funds 
that will shortly be ready for the NPS to take over. Finally, a small 
amount of the increase would be used to complete nonbiological surveys. 
Some of this funding will go to other Federal bureaus and agencies to 
purchase data sets that parks can use in daily operations.
    A Park Service concept paper in support of the Natural Resources 
Initiative states that ``Service leadership must have unimpeded access 
to advice from resource professionals.''
    Question. How is the Service leadership currently impeded from 
access to such professionals?
    Answer. The NPS lacks sufficient trained professional resource 
management personnel to carry out resource management applications 
itself, and also lacks staff to leverage assistance from others. 
Examples include assessing invasive species problems and carrying out 
necessary control measures (such as pesticide application and 
mechanical removal), identifying endangered species on NPS lands, 
working with the Fish and Wildlife Service to assure that the Park 
Service is carrying out appropriate protection and recovery measures, 
and other management applications.
    The NPS is also impeded from taking full advantage of the 
information generated by the scientific community, both in academia and 
the Federal sector. Again, this is largely due to the lack of dedicated 
staff for making appropriate use of available information. To assure 
close coordination with the BRD and with academia in meeting land 
management science needs, new cooperative efforts at universities are 
being tested. The Cooperative Ecosystems Studies Units (CESU) are one 
vehicle for making connections between the NPS and its needs and the 
research community. By placing representatives of Federal research 
agencies and Federal research users on campuses, increased 
collaboration between the researchers and the research-users will 
result. And, land managers will be able to consolidate their research 
needs, further eliminating chances of duplication. Also, NPS personnel 
will have access to training, libraries, and a broad range of technical 
assistance from academic personnel. This requires only one NPS person 
stationed at a CESU, and eventually, about 16 CESUs. The NPS intends, 
through its natural resource initiative, to develop effective, more 
ways to increase access to available expertise.
    Within the Natural Resource Initiative, $1.5 million is requested 
to implement the Resource Protection Act.
    Question. How does this request relate to the funds requested for 
the department-wide Natural Resource Damage Assessment (NRDA)?
    Answer. The National Park Service request is for implementation of 
the Park System Resource Protection Act (16 USC 19jj). The Park System 
Resource Protection Act is a separate authority, distinct from the 
Department of the Interior's Natural Resource Damage Assessment (NRDA) 
Program, authorities which arise primarily from the Clean Water Act as 
amended by the Oil Pollution Act (OPA), and the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA). The 
Department-wide program supports all bureau activities related to 
damages resulting from oil spills or releases of hazardous substances.
    Question. How does the NRDA statute differ from the Resource 
Protection Act?
    Answer. The NRDA statute allows the Secretary to conduct 
restoration and recover damages for injuries to natural resources under 
the ownership, management, or control of the Department resulting from 
the release of oil or hazardous substances into the environment. The 
Park System Resource Protection Act allows the Secretary to recover 
damages for injuries to any park system resource, from any cause as 
long as the Federally-owned park resource is within the boundaries of a 
unit of the National Park System. The Park System Act thus allows the 
Secretary to collect for damages to cultural resources and park 
facilities, as well as to natural resources, resulting from any kind of 
incident that causes injury and not just resulting from an oil spill or 
hazardous substance. As a result, the Park System Resource Protection 
Act is unique in its application to National Park Service resources. It 
is narrower than OPA or CERCLA because the Act's application is limited 
to damages to Federally-owned and NPS managed resources within units of 
the National Park System. It is broader than OPA or CERCLA because it 
applies to all resources and to damages arising from any source. 
Recoveries under the Act must be used for restoration, replacement, or 
acquisition of the equivalent of the damaged resource.
                          vanishing treasures
    An increase of $994,000 is requested for the Vanishing Treasures 
program.
    Question. With only $197,000 of this request going to ``managed 
emergency projects'' (for a total of $821,000) why is $103,000 required 
for ``Project Management and Oversight''?
    Answer. Only $2,000 of the $103,000 increase request for ``Project 
Management'' is for program oversight. The remainder of this part of 
the total Vanishing Treasures increase request includes the cost for an 
engineer/conservator position, who will be stationed at an as yet 
undetermined park, and will not be a program oversight position.
    Question. What would be the function of the Engineer/Conservator 
position, and how will the role of this person be different from that 
of the additional park staff that have been hired with funds already 
appropriated for Vanishing Treasures and transferred to park base 
budgets?
    Answer. Most of the personnel hired to date are considered ``hands-
on'' staff charged with the specific responsibility of preserving 
Vanishing Treasures resources on a day-to-day basis. The primary 
purpose of the Engineer/Conservator position is to develop a program of 
engineering and structural monitoring evaluation of problems in 
prehistoric and historic ruins, and hazardous rock and soil masses. 
This is a highly specialized position that will be park-based and 
dedicated to providing assistance to the Vanishing Treasures parks. 
Some of the primary tasks performed would include assessment of the 
structural soundness of Vanishing Treasures resources, developing 
systems to detect movement and settlement of individual structures and 
the environment that they are built within, developing effective and 
efficient monitoring systems, assessment of the effects of ground and 
air vibrations on Vanishing Treasures resources, and developing, 
designing, and installing bracing systems for unsupported walls. This 
position will work directly with park preservation specialists and 
managers to inspect resources to determine needs, project planning, 
programming, implementation, and training.
                       repair and rehabilitation
    A $5 million increase is requested for the Repair and 
Rehabilitation program.
    Question. Why is $2 million of this request to be allocated to the 
National Capital Region, thereby providing a single region with a more 
than 60 percent increase?
    Answer. Due to the short deadline for the fiscal year 1999 repair 
and rehabilitation project call, the National Capital Region was not 
able to adequately document all of the Region's project needs. The 
fiscal year 2000 repair and rehabilitation request better represents 
the National Capital Region's needs as it is based on an inventory of 
the total health and safety needs within each Region, the ability to 
obligate funds and complete projects in a timely manner, and the number 
of assets in ``poor condition'' within each Region.
                              park police
    Section 801 of the National Parks Omnibus Management Act of 1998 
requires that a task force be appointed to report on Park Service law 
enforcement needs, including the needs of the U.S. Park Police.
    Question. What is the status of Park Service implementation of this 
provision? When will the report be available?
    Answer. The task force has been appointed and work on the report is 
well underway. The report is expected to be sent to the Secretary in 
August, with the due date to Congress of November 13, 1999, set by 
Section 801 of the Act. The report will include a separate analysis for 
the United States Park Police, as required by the Act.
    The National Park Service Director, to whom the Secretary delegated 
responsibility, has appointed a task force composed of field and 
management personnel from many professional backgrounds, and from the 
United States Park Police. The Director has authorized a task directive 
to guide the study that seeks economy by conducting the process in-
house. Accuracy and objectivity are to be ensured by stipulating that 
all recommendations be drawn from data or base information that may be 
independently verified by the critical reviewer.
    Question. What are the telecommunications needs of the Park Police?
    Answer. A recent study performed by the National Park Service Radio 
Managers and Office of Information Resources Management staff 
identified the following short-term United States Park Police needs: 
improve the system's preventative maintenance; adjust telephone line 
interfaces and augment and better train communications staff; contract 
an engineering firm to analyze the radio system; and provide 
alternatives to correct cited problems including the conversion to 
narrowband operations and the availability of commercial and leasing 
options. The cost of the initial short-term needs has been estimated at 
$255,000. This amount is proposed for funding in fiscal year 2000 in 
the Construction and Major Maintenance appropriation.
    Long-term needs include implementing the results of the engineering 
study to include newer ``trunking'' technology and an increase of 
technical staff to include the New York and San Francisco Field 
Offices. It was further recommended that a Computer Aided Dispatch 
system be implemented to improve Park Police response time, automatic 
identification of callers, and officer location information. The cost 
to implement the long-term needs is estimated at over $13 million and 
will be addressed through funding proposals over a number of years.
    Question. How much has been spent on meeting those needs in fiscal 
year 1998 and fiscal year 1999?
    Answer. To date, the United States Park Police has spent less than 
$50,000 for this conversion.
    Question. How much will be dedicated for this purpose in fiscal 
year 2000, assuming the request level, and from what sources?
    Answer. The cost of the initial short-term USPP needs has been 
estimated at $255,000 and is proposed for funding in fiscal year 2000 
in the Construction and Major Maintenance appropriation account. The 
funds will be used to improve the system's preventative maintenance; 
adjust telephone line interfaces and augment and better train 
communications staff, contract an engineering firm to analyze the radio 
system, and provide alternatives to correct cited problems including 
the conversion to narrowband operations and the availability of 
commercial services and leasing options.
    The increase requested for ``Special Parks'' includes $2,661,000 
for the Park Police: $800,000 to operate and maintain the new 
helicopter and $1,861,000 to establish a higher base level for officer 
training.
    Question. At the request level, is the training of new officers 
likely to keep pace with officer attrition in fiscal year 2000 and 
fiscal year 2001?
    Answer. It is expected that the budget request will allow training 
to keep pace with the attrition rate.
    Question. Will the rate of attrition likely be exceeded?
    Answer. Funding is requested at a level intended to increase the 
number of Park Police officers, taking attrition into account. The NPS 
would like to build to an on-board strength of 625 officers, about 70 
more than is expected to be on-board at the end of fiscal year 1999. 
With $500,000 provided in fiscal year 1999, the proposed increase of 
$1.861 million for fiscal year 2000 would establish a base amount of 
$2.361 million dedicated to funding two recruit classes annually. Given 
the current rate of attrition, and the approval of the fiscal year 2000 
increase request, the fiscal year 2000 and fiscal year 2001 recruit 
classes would allow the Park Police to reach a level of 625 sworn 
officers.
    Question. Assuming the requested funding is provided in fiscal year 
2000 and maintained in future years, when does the Park Service 
anticipate that the Park Police will reach fully authorized staffing 
levels?
    Answer. There is no ``authorized'' level of officers for the Park 
Police. The NPS has identified a need for 625 officers. The proposed 
increase for fiscal year 2000 would establish a base amount dedicated 
to funding two recruit classes annually. Given the rate of attrition 
and the current on-board strength, it would take three to four recruit 
classes beginning in fiscal year 2000 to reach 625 due to the current 
rate of attrition caused by retirements.
    Further requirements will be evaluated, with base funding for 
permanent salaries and support requested as needed. The base funding 
for the two recruit classes would remain to run subsequent classes. The 
Service believes this plan will allow the USPP staffing needs to be 
addressed in the most efficient and expeditious manner.
    Question. Assuming additional funds beyond the requested amount 
were available, what is the maximum amount of training that could be 
provided within the limitations of existing infrastructure, both in 
terms of numbers of recruiting classes and trainees?
    Answer. The National Park Service has identified a need for 625 
officers. Given the rate of attrition and the current on-board 
strength, it would likely take at least three to four recruit classes 
beginning in fiscal year 2000 to reach this number due to current high 
rate of attrition caused by retirements.
    The National Park Service's budget request for fiscal year 2000 
includes an important request to provide base funding for two recruit 
classes per year. This increase of $1.861 million, coupled with 
$500,000 provided in fiscal year 1999, would establish a base amount 
dedicated to funding two recruit classes annually. Plans are to conduct 
two recruit classes a year for the foreseeable future, should the 
funding request in fiscal year 2000 for base funding for recruit 
classes be approved. The $2.361 million would be used to cover salary 
costs for the 48 park police cadets (each class will contain 24 
candidates) during their training, travel, lodging expenses, initial 
uniform, equipment issuance, applicant physicals, background 
investigations, and incidental costs incurred at the Federal Law 
Enforcement Center (FLEC). At the conclusion of training, the new 
officers will fill existing funded vacancies. The funding for the 
recruit classes would continue to remain available for two more recruit 
classes every year, as needed. We believe this plan will allow the USPP 
staffing needs to be addressed in the most efficient and expeditious 
manner.
    Assuming additional funds were available to cover training costs, 
including the salary costs during training, a third training class 
could be undertaken. Additional funding to cover the permanent base 
salaries for this class at the conclusion of training might be 
necessary and would have to be addressed through the normal budget 
process. However, given current funding constraints, the NPS believes 
that the plan to implement two classes annually represents the best 
approach to raising the sworn officer strength to a minimum of 625.
    Question. What funds beyond those requested would be required to 
sustain training at this level?
    Answer. One additional Park Police training class for 24 trainees 
would cost an estimated $1,180,000 annually during the period of 
training.
                                presidio
    The budget request for the Presidio is reduced to $5,850,000, a 
reduction of $4,239,000. This reduction flows from the continued 
transfer of responsibilities from the Park Service to the Presidio 
Trust.
    Question. Does this Department anticipate that the request for 
Presidio operations will decline further in fiscal year 2001? If so, by 
how much?
    Answer. The Department does not anticipate that the request for 
Presidio operations will decline further in fiscal year 2001.
    Question. At what level will funding requirements for the Presidio 
likely stabilize?
    Answer. The $5.85 million request for fiscal year 2000 is the 
stabilized long-term funding level. It meets the NPS continuing, long-
term obligation to provide for Area A operational and site management 
expenses, including law enforcement, fire protection/emergency medical 
services, public safety dispatch, maintenance and facility management, 
utilities, administrative and management support, legal support, 
resource management, planning and compliance. The fiscal year 2000 
request also meets the NPS obligation set forth in the law establishing 
the Presidio Trust, to provide for visitor orientation and 
interpretation on all Presidio lands.
    Question. What is the current FTE level at the Presidio supported 
by Park Service appropriations?
    Answer. The fiscal year 1999 Presidio budget provides for an FTE 
level of 115.
    Question. What is the current level supported by the Presidio Trust 
through reimbursements?
    Answer. In fiscal year 1999 the total FTE supported by the Presidio 
Trust through reimbursements is 53. Thirty-seven of this 53 FTE is for 
United States Park Police (USPP) law enforcement, through an 
arrangement mandated by the Trust law. In addition to USPP services, 
the NPS is providing the following other services in fiscal year 1999 
to the Presidio Trust on a reimbursable basis: maintenance (through 
December 31, 1998 only), environmental remediation management, 
environmental and cultural compliance, special park uses/special events 
management, planning and professional services, Advisory Commission 
support services, and miscellaneous administrative support.
    Question. What is the FTE level anticipated at the end of fiscal 
year 1999? Fiscal year 2000?
    Answer. Current projections are that the NPS will utilize 115 FTE 
during fiscal year 1999. In fiscal year 2000, the NPS level will 
decrease to 73 FTE funded by NPS appropriations. Most of the decrease 
is due to the shift of 75 percent of the funds for the Presidio Fire 
Department and public safety dispatch operation from the NPS to the 
Presidio Trust within the fiscal year 2000 budget. In fiscal year 2000, 
the total FTE funded through reimbursable agreements is expected to be 
74, which includes the current 37 law enforcement FTE plus an 
additional 37 FTE for public safety dispatch services. The NPS does not 
anticipate the Presidio Trust to request any other reimbursable support 
over and above the 74 FTE.
    Question. How have the personnel reductions been handled to date in 
terms of numbers of RIFs, personnel maintained with Presidio Trust 
funds, etc.?
    Answer. The Presidio Trust law specified that no National Park 
Service employees would lose their jobs as a result of its 
implementation. The NPS, therefore, developed a Servicewide, voluntary 
priority placement program. This program, combined with retirements, 
the availability of a voluntary separation incentive, and hiring of NPS 
employees by the Presidio Trust, enabled the NPS to meet its downsizing 
targets. A major factor in the Service's success was its building of a 
high level of flexibility within the Golden Gate NRA /Presidio 
organization in anticipation of the need to downsize. Because it met 
its downsizing target for the Presidio, the NPS was able to suspend its 
priority placement program in March 1999. (The outplacement effort 
resulted in 22 career employees accepting voluntary separation 
incentives, 12 career employees being placed in other NPS units, and 45 
career employees accepting positions with the Trust). Aside from the 
already discussed reimbursable agreements with the Trust, no other NPS 
personnel are ``maintained'' with Trust funds.
    Question. Is the Department confident that the request for the 
Presidio represents the lowest funding level possible while still 
providing for appropriate Park Service management of Area A?
    Answer. The Department is confident that the fiscal year 2000 
request represents the lowest funding level that will provide for Area 
A management expenses, and provide for visitor orientation and 
interpretation expenses on all Presidio lands as mandated in the Trust 
law. It should be noted that NPS responsibilities for Area A today are 
far different from its responsibilities for the lands permitted to the 
Golden Gate National Recreation Area pre-base closure. Area A today is 
325 acres, more than double the pre-closure acreage permitted to GGNRA 
(even without including 423 acres offshore). Area A concentrates 
exceptional natural, recreational, and scenic resources, intense 
visitor use, and a host of complex and active planning and 
transportation issues. And unlike during the Army's tenure at the 
Presidio, the NPS is responsible for all operational, management, and 
supporting expenses. Virtually all recreational visits to the Presidio 
(an estimated 3 million annually) involve visits to the bluffs, trails, 
and beaches of Area A. Area A also includes the $25 million Crissy 
Field park development (including restored wetlands) which is being 
funded through a major community fundraising effort. As the very 
visible ``front yard'' of the Presidio, a safe and well maintained Area 
A is essential to Trust leasing efforts.
    Question. What would be the impact of an additional reduction of 
$500,000 in the Presidio's fiscal year 2000 budget?
    Answer. A large component of the fiscal year 2000 request is 
essentially ``fixed'' expenses, representing the Area A share for 
Presidio-wide law enforcement, fire protection and emergency medical 
services, and public safety dispatch. Other fixed costs are for NPS 
utility and facility management expenses. The impact of a $500,000 
reduction would, therefore, need to be absorbed by the remaining 
programs, including maintenance, interpretation/visitor services, 
resource management, and administrative support. An estimated eight to 
ten positions would need to be cut. This would reduce Area A services 
below existing levels for many functions. When the NPS negotiated the 
split of functions and dollars with the Presidio Trust beginning in 
fiscal year 1999, with the exception of three additional maintenance 
workers added for Crissy Field, no programs were increased. Existing 
funding levels were divided between the NPS and Trust depending on who 
had the responsibility to provide each function. To absorb a $500,000 
reduction, the following cuts would need to be taken:
  --Reduce Area A maintenance by 20 percent. This eliminates two 
        positions. Affected would be beaches, trails, and other highly 
        visited areas, including the new Crissy Field park area during 
        the critical new plant establishment phase.
  --Reduce interpretive and education programs conducted cooperatively 
        with school districts, and reduce operations of the William 
        Penn Mott Visitor Center. This would result in a decrease of 25 
        percent, or two positions.
  --Reduced oversight of the Natural Resources Stewardship program 
        which mobilizes community volunteers to provide 100,000 
        volunteer hours annually to restore and protect wetlands, 
        riparian habitat, creeks, rare and endangered species habitats, 
        resulting in a decrease of 20 percent, or one position.
  --Curtail public and prospective tenant access to the museum 
        archives, and reduce access, preservation, and accountability 
        for the extensive museum collection transferred to the NPS from 
        the Army. This would be a decrease of 15 percent, or one 
        position.
  --Eliminate NPS oversight of approximately $25 million in 
        environmental remediation activities in Area A, under a 
        Memorandum of Understanding between the Army, Presidio Trust, 
        and the NPS. Curtail ability to exercise NEPA and NHPA 
        obligations with respect to Area A projects and planning, as 
        well as cooperating agency role with respect to Area B. There 
        would be a decrease in budget and contracting office support. 
        (Eliminates up to four management and administrative support 
        positions.)
    Additionally, to outplace the additional employees would 
necessitate the reactivation of the suspended Servicewide employee 
outplacement program and require re-identification of positions to be 
potentially eliminated.
    Impacts of this cut could still be greater, given current 
uncertainties in negotiations with the Presidio Trust on setting 
utility rates and other charges impacting the NPS.
                          energy conservation
    The justification indicates that a super energy savings performance 
contract is under development at Yosemite National Park.
    Question. What is the status of this effort?
    Answer. The park was in contract negotiations with the Department 
of Energy and The Bentley Company for eighteen months discussing and 
making modifications to the detailed energy study for the energy 
conservation project. The Delivery Order was signed by Yosemite 
National Park on April 15, 1999, by the Department of Energy in late 
April, and signed by The Bentley Company on April 29, 1999. Anticipated 
construction completion date is January, 2000.
    Question. What types of projects does the Park expect to undertake 
pursuant to this contract?
    Answer. Projects include lighting retrofits or replacement of 
lights in offices, campgrounds, and workshop stations throughout 
Yosemite National Park. In the campgrounds, the addition of a ``down'' 
lighting system will protect the night skies of Yosemite.
    All PCB's (polychlorinated biphenyl's), contaminated capacitors and 
heavy metals such as mercury (from lamps) will be removed from the site 
and incinerated or recycled in accordance with applicable Environmental 
Protection Agency and State of California requirements.
    A voltage upgrade for the El Portal Maintenance Complex and the El 
Portal Wastewater Treatment Plant will be completed whereby Yosemite 
National Park will install their own distribution asset to replace 
equipment provided by the local utility. The new distribution assets 
will change the point at which the utility meters the park's electrical 
service. The utility will then charge a reduced rate reflecting the 
absence of a utility-owned distribution asset serving that location.
    The park will install variable frequency drives on aerator systems 
at the El Portal Wastewater Treatment Plan. This will modulate the 
speed of the motors based on the monitored response provided by the 
oxygen sensors.
    A variable air volume conversion will be completed and a new set of 
dampers installed to vary the amount of supply air being delivered.
    The park will install a temperature based, air-side economizer on 
the air handling unit in the El Portal Wastewater Treatment Plant 
building.
    A boiler will be replaced at the Valley District Building. The 
existing boiler, #2 fuel oil-fired boiler, provides steam and hydronic 
hot water for heating as well as domestic hot water at less than 75 
percent efficiency. The new, higher efficiency boiler (90 percent 
efficiency) will reduce operating costs through an increase in 
efficiency over the existing boiler. The new boiler will be connected 
to the propane tank that will replace the old diesel tank oil burner. 
This new boiler can be modified for future conversion to natural gas 
that could be a future consideration.
    Finally, time of day controllers will control airflow for the 
existing HVAC system.
                     facility condition assessments
    The request includes a $2.5 million increase for the Park Service 
to initiate a detailed condition assessment of Park Service assets.
    Question. How will this $2.5 million project improve upon the 
current system, whereby asset protection, repair and rehabilitation 
needs are presumably assessed by park staff on a continual or annual 
basis and addressed through the budget formulation and new five-year 
planning process?
    Answer. Currently, inventory and condition assessment of National 
Park Service facilities and infrastructure is performed inconsistently 
and without uniformity. Because of this, the data generated are not 
considered to be uniformly reliable.
    The intention of the National Park Service is to institute a 
Servicewide program to collect detailed information on the most 
critical assets. This facilities inventory condition assessment 
information will provide a baseline against which remediation progress 
can be measured, which in turn will provide performance indicators upon 
which to base future management decisions and planning. The Service 
proposes to start an inventory condition monitoring process in fiscal 
year 2000 and include a more comprehensive needs assessment to assist 
the Service in determining which facilities are mission-critical and 
which could be excessed from our inventory. This process will 
acknowledge that, given limited fiscal resources, not every asset in 
the Park Service will receive the same level of attention, but will 
allow us to identify the most critical. Further, the Service will 
monitor the percentages of facilities improved from poor or failed 
condition, to good condition, as our principal performance measures and 
indicators in determining the efficacy of NPS regional maintenance 
programs.
    Question. Would these funds be better spent on actual repair and 
rehabilitation of park assets known to be in need of such work?
    Answer. The NPS first needs to establish an institutionalized 
Servicewide asset management program that includes a comprehensive 
needs assessment system to document an accurate inventory and condition 
assessment of National Park Service facilities needs that will fully 
identify deferred maintenance requirements in all national park areas. 
This will provide management with the necessary information upon which 
to base future management decisions and planning, as well as with sound 
data to measure progress.
                                  y2k
    The fiscal year 1999 Omnibus Appropriations Act included funds to 
address the Y2K computer problem.
    Question. How much has the Park Service received from this fund to 
date?
    Answer. The National Park Service has received $19,464,000 in Y2K 
Emergency Appropriations funding.
    Question. Has the availability of these funds obviated the need to 
use other funds appropriated in fiscal year 1999 for information 
systems or other related purposes? If so, how much?
    Answer. The NPS had estimated a total need of $45,000,000 to 
replace computers and computer related systems with Y2K related 
problems. The availability of Y2K Emergency Appropriations will not 
obviate the need to use other funds appropriated in fiscal year 1999 
for information systems or other related purposes.
    Question. Have these funds been reprogrammed for other purposes?
    Answer. No.
    Question. Has the availability of these funds obviated the need for 
any of the funds requested for fiscal year 2000 for information systems 
and related purposes?
    Answer. The availability of Y2K Emergency Appropriations will not 
obviate the need for any of the funds requested in fiscal year 2000, 
which include funds for the support of new web-based information 
systems (the Project Management Information System and the Operations 
Formulation System), continuation of the program to modernize equipment 
(especially in parks), and participation in the Department's financial 
systems integration. In addition, other information management 
requirements remain, such as the need to purchase software site 
licenses and enhanced system security.
                     external administrative costs
    The justification lists a number of unbudgeted GSA space rental 
adjustments, for which an increase of $1.471 million is requested?
    Question. What is the cause of the $444,000 increase at Santa 
Monica NRA?
    Answer. In April 1998, the headquarters and visitor center for the 
Santa Monica Mountains National Recreation Area were relocated from 
Agoura, California to Thousand Oaks, California under a GSA lease 
program. The new facility provides 5,576 square feet of additional 
space to accommodate a larger visitor center, office space for 25 
additional employees over the next five years, and an expanded visitor 
parking area. GSA space rental charges will total $444,000 per year for 
the Thousand Oaks location. The budget inadvertently included the total 
need without factoring in the current cost ($301,655) to lease the 
Agoura facilities. The budget overstated the additional need for Santa 
Monica for the Thousand Oaks location by this amount. The increase 
amount requested should be $142,345 rather than the $444,000 requested 
in the budget. But this apparent savings will likely be offset by other 
changes not always within the control of the NPS. For example, since 
the fiscal year 2000 budget was submitted, the NPS has determined that 
the Accounting Operations Center must be relocated from its current 
location in Reston, Virginia to another facility nearby, due to 
longstanding and unresolved problems with the current building and 
landlord. This move will result in an increased annual rent of 
$400,000.
    Question. How does the request for increased rental space at Brown 
v. Board of Education National Historic Site relate to the Monroe 
School rehabilitation project?
    Answer. The space provides for ranger offices, a library/resource 
room for researchers and visitors, and a video/exhibit room that 
accommodates groups of 50 to the site. Visitation to Brown vs. Broad 
has increased 160 percent since fiscal year 1997 and the rental space 
allows the park to accommodate this increase until the Monroe School 
rehabilitation project is completed.
    Question. Will the rental space be required once the Monroe School 
project is completed?
    Answer. No. The planning for the rehabilitation of the Monroe 
School had identified space on the 2nd floor to be allocated for 
administrative and ranger offices, along with a visitor exhibit area to 
be located on the 1st floor. This project is scheduled to be completed 
in 2002.
    The justification indicates that the $25,000 requested for leased 
space at the C&O Canal NHP is being sought in lieu of funds for 
construction of a new facility.
    Question. How does this request relate to the Construction funds 
appropriated in fiscal year 1999 for the C&O Canal?
    Answer. The fiscal year 1999 funding approved for the new visitor 
center at Cumberland, Maryland in the amount of $1.2 million in fiscal 
year 2000 is to design and fabricate exhibits for expanding the visitor 
center at Cumberland, Maryland. None of these funds are for building 
construction or building renovation. The $25,000 is requested to pay 
for the lease of the physical space from the Canal Place Preservation 
and Development Authority.
    Question. Why is the Park Service both using funds to build or 
rehabilitate the visitor space as well as paying increased rent?
    Answer. The Service is not using funds to both build or renovate a 
visitor center and pay for increased rent. The fiscal year 1999 
appropriation was for the design and fabrication of exhibits that will 
be installed in leased space owned by the Canal Place Preservation and 
Development Authority (CPDA), a Maryland State Heritage area designee. 
The Canal Place Preservation and Development Authority is responsible 
for the renovation of the Western Maryland Railroad Station, 13 Canal 
Street, Cumberland, Maryland. The lower floor of the building will be 
devoted to depicting the history of the area with emphasis on the 
Chesapeake and Ohio Canal and its importance in the Cumberland area. 
CPDA is responsible for renovating and refurbishing the building 
proper. This space will be rented by the NPS under an approved plan for 
the Western Maryland Railroad Station via a cooperative agreement. CPDA 
is renting the space to the NPS at a greatly reduced rate to foster the 
presentation of history in western Maryland.
    The budget request includes an increase of $25 million for 
``special park'' operations.
    Question. By what process was this list of park operational 
increases developed? Who was involved, and over what time period was 
the list developed?
    Answer. The specific park operational increases included in the 
fiscal year 2000 budget represent the highest priority needs of the 
Service as identified by its park managers. The priority setting 
process begins in the February/March time frame at the park level, 
almost a year prior to the submission of the NPS budget request to 
Congress.
    The park superintendent and other park professionals are in the 
best position to evaluate the relative merit and urgency of the need at 
their park. After the park identifies all unfunded needs over the 
coming five-year period and enters the requests into the Servicewide 
database for unfunded operational requirements--the Operations 
Formulation System--``park priorities'' are then set by park 
management. All increases at the park level are considered in the 
context of the park's Annual Performance Plan and the NPS Strategic 
Plan, as mandated by the Government Performance and Results Act.
    In the April/May time frame, the requests are reviewed at the 
appropriate Regional Office, where increases are ranked and prioritized 
by senior managers and executive committees of park superintendents, 
based on the urgency of the requirement, as well as on initiatives 
contained in the Departmental budget guidance and the budget priorities 
set forth by the NPS Director and the National Leadership Council. The 
funding requests are then forwarded to NPS headquarters where they are 
reviewed and evaluated for appropriateness in schedule, adequacy and 
accuracy of information, and consistency with policy. A Servicewide 
list of park increases is developed by the budget staff during late May 
and early June. Regional ``allocations'' for this Servicewide list are 
based on many factors, including the proportion of the operational 
funding level of a region to other regions, the soundness of the 
requests, the number of parks in a specific region, the types of park 
in a region, consistency in meeting certain initiative and policy 
requirements, and the total identified requirements of the parks within 
a particular region. In general a region such as the Pacific West 
containing a greater number of parks, including many of the most 
complex and larger parks in the System, would receive a greater 
proportional share of the increase than the smaller Midwest Region, for 
example.
    Once a preliminary list is developed, the increases are reviewed 
and approved by top NPS management, the Department and OMB. Though some 
specific new increases may come to light, or surface to match an 
initiative, the list submitted to Congress accurately represents NPS 
priorities within the context of overarching Administration initiatives 
and current fiscal constraints.
    Question. Please provide for the record lists of special park 
increases that would be provided if only a $10 million or $15 million 
increase were to be provided.
    Answer. All of the $25 million in park increases requested in the 
Budget Justifications represent high priorities of the Service. Should 
budget allowances preclude funding of the entire list of increases, the 
NPS has identified the following list of increases, totaling 
approximately $12 million, to be most urgent.

                         [Dollars in thousands]
------------------------------------------------------------------------
               Park                      Funding request         Amount
------------------------------------------------------------------------
American Memorial Park............  Improve Park Operations          $95
                                     and Protect Resources.
Big Cypress NP....................  Manage 146,000 Acres of          353
                                     New Lands.
Biscayne NP.......................  Restore and Protect Coral        320
                                     Reefs.
Boston African American NHP.......  Maintain and Operate             250
                                     Restored Historic
                                     Structures.
Buck Island Reef NM...............  Improve Law Enforcement          110
                                     to Protect Coral
                                     Resources.
Cumberland Island NS..............  Protect and Interpret            300
                                     Plum Orchard Mansion.
Denali NP and Preserve............  Expand Visitor Services          300
                                     and Increased Visitation.
Devils Postpile NM................  Enhance Visitor Services          75
                                     and Protect Resources.
Dinosaur NM.......................  Provide Partnership              144
                                     Support.
Dinosaur NM.......................  Enhance Visitor                  114
                                     Experiences.
Dry Tortugas NP...................  Establish Resources              240
                                     Monitoring for Coral
                                     Reefs.
Eugene O'Neill NHS................  Maintain Resource and             50
                                     Provide Interpretation.
Everglades NP.....................  Establish Oversight Team         250
                                     for South Florida
                                     Projects.
Fort Clatsop NM...................  Provide for National             240
                                     Bicentennial Event.
Fort Union Trading Post NHS.......  Provide for National              84
                                     Bicentennial Event.
Grand Portage NM..................  Maintenance Program               32
                                     Support.
Hawaii Volcanoes NP...............  Restore Science Program          165
                                     to Protect Resources.
Home of FDR NHS...................  Complete Funding for              80
                                     Operations of Top
                                     Cottage.
Homestead NM of America...........  Provide for National              28
                                     Bicentennial Event.
Independence NHP..................  Maintain Historic                499
                                     Structures and Grounds.
Jefferson National Expansion        Provide for National              80
 Memorial                            Bicentennial Event.
Kaloko-Honokonau NHP..............  Improve Park Operations          250
                                     and Protect Resources.
Kaloko-Honokonau NHP..............  Protect and Monitor              100
                                     Marine and Water
                                     Habitats.
Kalaupapa NHP.....................  Establish Coral Reef.....  .........
Klondike Gold Rush NHP............  Operation and Maintain 15        287
                                     Restored Historic
                                     Buildings.
Klondike Gold Rush-Seattle NHP....  Improve Visitor Safety            50
                                     and Park Operations.
Knife River Indian Villages NHS...  Provide for National              97
                                     Bicentennial Event.
Lewis and Clark NHT...............  Provide for National             300
                                     Bicentennial Event.
Marsh-Billings NHP................  Establish Conservation           270
                                     Study Institute in New
                                     Park.
Missouri NRR......................  Provide for National             128
                                     Bicentennial Event.
Natchez Trace Parkway.............  Provide for National              60
                                     Bicentennial Event.
Nez Perce NHP.....................  Provide for National             160
                                     Bicentennial Event.
Niobrara NSR                        New Park Operations on           449
                                     Niobrara Scenic River.
National Park of American Samoa...  Initiate Coral Reef              125
                                     Monitoring Programs.
Palo Alto Battlefield NHS.........  Provide Site                      61
                                     Interpretation and
                                     Visitor Services.
Petroglyph NM.....................  Develop Visitor Services         111
                                     for Additional
                                     Management Areas.
Petroglyph NM.....................  Protect and Maintain             165
                                     Ceded Management Areas.
Richmond NBP......................  Operate Visitor Center...        250
Saguaro NP........................  Provide for Protection           423
                                     and Study of New Lands.
San Juan Island NHP...............  Provide Resource                  78
                                     Protection.
Springfield Armory NHS............  Implement Resource               185
                                     Protection Program.
Theodore Roosevelt NP.............  Provide for National             135
                                     Bicentennial Event.
Trail of Tears NHT................  Improve Cultural                  57
                                     Resources Interpretation.
United States Park Police.........  Establish Base Funding         1,861
                                     for Officer Recruit
                                     Classes.
United States Park Police           Maintain Aviation                800
                                     Operational Upkeep.
Virgin Islands NP.................  Provide Swimming Safety/         300
                                     Sanitary Beach
                                     Facilities.
Virgin Islands NP.................  Protect Primary                  385
                                     Resources, Including
                                     Coral Reefs.
War in the Pacific NHP............  Develop Coral Reef                85
                                     Management Program.
White Sands NM....................  Implement Resource               161
                                     Protection Program.
Wrangell-St. Elias NP and Preserve  Provide Services for             495
                                     Increased Visitation.
Yellowstone NP....................  Provide Ecosystem                300
                                     Coordination.
                                                              ----------
      Total.......................  .........................     12,007
------------------------------------------------------------------------

    At the $16 million level, the following increases would rank next 
highest in priority, and would be additive to the previous listing:

                         [Dollars in thousands]
------------------------------------------------------------------------
               Park                      Funding request         Amount
------------------------------------------------------------------------
Badlands NP.......................  Actively Manage and             $238
                                     Monitor Black-Footed
                                     Ferrets.
Bent's Old Fort NHS...............  Maintain Natural and             108
                                     Cultural Resources.
Canyon de Chelly NM                 Implement Archeological          100
                                     Preservation Program.
Casa Grande Ruins NM..............  Implement Permanent               50
                                     Resource Management
                                     Program.
Cane River Creole NHP.............  Implement Resource               150
                                     Management and
                                     Protection.
Cane River Creole NHP.............  Statutory Aid for Cane           100
                                     River Heritage
                                     Commission.
Charles Pinckney NHS..............  Expand and Improve                75
                                     Educational Services.
Christiansted NHS.................  Improve Visitor Services         165
                                     at 6 Historic Buildings.
Denali NP and Preserve............  Establish Essential              500
                                     Telecommunications
                                     Operations.
Fort Laramie NHS..................  Halt Deterioration of            145
                                     Historic Park Structures.
Gates of the Arctic NP and          Educate and Involve              291
 Preserve.                           Public in Wilderness
                                     Planning.
Hubbell Trading Post NHS..........  Enhance Maintenance and           67
                                     Curatorial Activities.
Lowell NHP........................  Preserve Significant             500
                                     Historic Resources.
Mammoth Cave NP...................  Provide Increased Sewage         220
                                     Costs for New Facility.
Minute Man NHP....................  Protect Threatened               333
                                     Archeological Sites.
Mississippi NRR...................  Operate Partnership               93
                                     Facilities in Science
                                     Museum.
Point Reyes NS....................  Protect Critical Natural         106
                                     Resources.
Redwood NP........................  Manage and Protect               490
                                     Endangered Species.
Timucuan Ecological and Historic    Operate and Maintain New         354
 Reserve.                            Boat Docks.
                                                              ----------
      Total.......................  .........................      4,085
------------------------------------------------------------------------

    $1.3 million is included within the special parks initiative for 
activities related to the Lewis and Clark bicentennial.
    Question. Is it the Park Service's intention to pull these 
increases out of those parks' base budgets following the bicentennial 
for allocation elsewhere?
    Answer. The Lewis and Clark bicentennial covers the years until 
2006. Activities commemorating the historic event will continue to 
build throughout the next seven years. The increases, which focus on 
education programs related to the significance of the expedition and 
its impact on the growth of the United States, will be incorporated 
into the daily operating programs of each of the parks. The NPS will 
evaluate the situation at each park as the end of the bicentennial 
comes closer to determine if the funds should remain in each park's 
base budget.
    Question. Is the increase requested for the Gateway Visitor Center 
at Independence NHP still necessary based on the estimated completion 
date of the visitor center itself?
    Answer. The Gateway Visitor Center is now scheduled to open in 
fiscal year 2001. At this time it does not appear likely that the 
$425,000 increase will be necessary during fiscal year 2000. When 
opened, the full annual NPS operational share of the Gateway Visitor 
Center remains unchanged at $1.7 million.
    Question. What was the genesis of the Conservation Study Institute 
proposed to be established at Marsh-Billings-Rockefeller NHP?
    Answer. Mary F. and Laurance S. Rockefeller gave the park to the 
United States ``so that the story of the conservation history of this 
country may be told and spread throughout the land.'' Public Law 102-
350 (1992), ``The Marsh-Billings National Park Establishing Act'', 
directed the National Park Service ``to interpret the history and 
evolution of conservation stewardship in America.'' In 1993, the NPS 
and the Woodstock Foundation, convened a group of 50 conservation 
professionals from within and outside the National Park Service who 
recommended the new park develop a center as a key part of its 
interpretive and educational program for ``on-going research, 
conferences, and training in conservation stewardship, and using new 
technologies to provide access to primary resources related to the 
history and evolution of conservation in America.'' The 1999 Marsh-
Billings-Rockefeller National Historical Park General Management Plan 
and Final Environmental Impact Statement recommended that the Institute 
work with the University of Vermont to ``create opportunities for 
dialogue, inquiry, and lifelong learning in conservation history.''
    Question. Given the often cited operating shortfalls for routine 
maintenance and visitor service activities throughout the park system, 
why is this a priority?
    Answer. The Institute is a fundamental component of Marsh-Billings-
Rockefeller National Historical Park's interpretive, visitor service, 
and educational program on stewardship and environmental leadership, 
reaching a broad audience of park visitors, students, educators, and 
professionals. This is a priority for accomplishing the park's core 
mission as defined in its enabling legislation and general management 
plan.
    Question. What would the University of Vermont be contributing to 
this effort?
    Answer. The University of Vermont's School of Natural Resources is 
contributing expertise in conservation history, and the related 
disciplines of conservation biology, management of natural resources 
and forestry, tourism, recreation management, social science, historic 
preservation, and geographic information systems. In addition, the 
University is assisting the park's educational efforts with state-of-
the-art facilities for distance learning and computer technology. The 
University is contributing matching funds to involve faculty and 
graduate students in collaborative research with the park.
    Question. Why is $93,000 requested to operate partnership 
facilities at the Science Museum of Minnesota when the Park Service did 
not receive the funding requested in fiscal year 1999 to participate in 
this facility?
    Answer. At the time the budget was submitted, the NPS was 
optimistic of obtaining funding for the areas within the Science 
Museum--the Mississippi River National Center and the Mississippi River 
Exhibition Gallery. The Service is still investigating other avenues 
for funding. Nevertheless, the role and responsibilities of the NPS in 
interpreting the Mississippi River watershed would remain intact 
regardless of whether the NPS had a presence in the new Science Museum 
of Minnesota. The only question would be the means and location of the 
interpretation.
    Question. How is the Greater Yellowstone Coordinating Committee 
currently financed?
    Answer. The Greater Yellowstone Coordinating Committee is not 
currently financed. The participating members contribute to high 
priority projects from their operating funds.
    Question. What agencies other than the Forest Service and Park 
Service would be brought into the ecosystem planning and coordinating 
process?
    Answer. The Greater Yellowstone Coordinating Committee plans to 
include the following agencies as members: The Jackson Elk Refuge, the 
Bureau of Land Management, and the U.S. Fish and Wildlife Service.
    Question. Is this the highest priority operating need identified by 
Yellowstone National Park?
    Answer. No, this is not the highest priority operating need for 
Yellowstone National Park. However, Yellowstone managers recognize the 
importance of establishing a proactive, ecosystem-based approach to the 
management of natural resources in the greater Yellowstone area. As a 
result, Yellowstone managers agree that the establishment of a Greater 
Yellowstone Coordinating Committee Coordinator represents a high 
priority for both the National Park Service and the Forest Service.
                  national recreation and preservation
    The justification indicates that all ongoing river studies will be 
complete in fiscal year 2000.
    Question. How many additional studies are likely to be initiated in 
fiscal year 1999 and fiscal year 2000?
    Answer. No new river studies were initiated in fiscal year 1999 and 
none are certain of beginning in fiscal year 2000.
    Question. Does the Park Service expect a reduction in workload 
within this program beyond fiscal year 2000 as a result of the current 
river studies being completed?
    Answer. No. Studies for potential additions to the National Wild 
and Scenic Rivers System and the National Trails System are funded from 
the same account. The Old Spanish Trail study will continue in fiscal 
year 2000 and the Service anticipates one new trail study to be 
authorized this year, the ``Star Spangled Banner Trail,'' sometimes 
referred to as the ``War of 1812 Trail.'' This account also provides 
for other program needs and activities including management direction 
for river and trail studies and management planning and coordination 
with other agencies with responsibilities for river and trail studies.
    The justification indicates that publication of final rules 
regarding the National Natural Landmark program will be followed by 
distribution of the rules to affected landowners, and that the legal 
mandate for Section 8 report expires after 1999.
    Question. Has issuance and distribution of the final rules 
occurred? If not, when will this likely occur?
    Answer. No. Issuance in the Federal Register is expected to occur 
in May, 1999. Distribution will start within 10 days after that 
publication.
    Question. What are the significant changes in administration of the 
landmark program embodied in the new regulations?
    Answer. Significant changes in the administration of the National 
Natural Landmark (NNL) program include the following:
  --Owners of sites under consideration for possible national natural 
        landmark designation are fully notified in advance of such 
        consideration and have the opportunity to comment on the 
        proposals. (This was always the general operating protocol but 
        it is now more explicit in the regulations).
  --There is no entry onto private lands for purposes of new national 
        natural landmark evaluation without written permission. (This 
        was always the general operating protocol but it is now more 
        explicit and requires ``written'' rather than verbal 
        permission).
  --No property receives the national natural landmark designation if 
        the owner requests within a specified period of time that their 
        land not be designated. (This was ambiguous in the old 
        regulations).
  --Owners of existing national natural landmarks can have the 
        designation removed if they do so as specified in the 
        regulations and within a specified time period.
  --The National Park System Advisory Board will review all future 
        designations. (This was the procedure used in the 1970s and is 
        being reinstituted).
    The effects of national natural landmark designation are described.
    Question. Does the Department intend to prepare a Section 8 report 
for 2000?
    Answer. No decision has yet been made as to whether the Department 
will prepare a Section 8 report for 2000.
    Question. With the release of the revised regulations and the 
uncertain status of the Section 8 reporting requirement, why are 
program needs not reduced?
    Answer. Since there has been a moratorium on listing activity since 
1989, the NPS expects a significant workload in evaluating new national 
natural landmark proposals once the final rules are published and 
distributed. Many designation proposals were in the final review 
process in 1989 and others were in earlier stages of consideration. 
These site evaluation reports will require updating per specifications 
in the new regulations. In addition, a few sites will be given priority 
to receive new onsite evaluations. Over the longer term, other sites 
that have never received onsite evaluations will need them. In the 
short-term, the Service also expects a significant workload responding 
to national natural landmark owner questions and requests.
    Finally, the fact that Section 8 reports are no longer required to 
be submitted to Congress does not mean that the NPS no longer has any 
interest in NNL conditions. National Park Service staff periodically 
visited these locations as a routine program procedure before the 
Section 8 requirement became law in 1976. With or without a formal 
Section 8 report, the NPS expects that its most significant workload 
will continue to be in maintaining contact with national natural 
landmark landowners, maintaining a general awareness of the condition 
of NNLs, and answering questions about existing national natural 
landmarks.
        national center for preservation technology and training
    Nearly $2 million was allocated in fiscal year 1999 for the 
National Center for Preservation Technology and Training in 
Natchitoches, Louisiana.
    Question. How is the work conducted at the Center distinct from 
work performed at other Park Service training facilities?
    Answer. The National Center for Preservation Technology and 
Training (NCPTT) in Natchitoches, Louisiana, serves as a research and 
development office within the National Park Service, and undertakes 
work through three components: research, training, and information 
management. The center researches and develops new preservation 
technologies, trains in new preservation technologies and advanced 
skills, and develops and dis tributes technical information.
    The work of the Center's training component is distinct from the 
work of other NPS training facilities in three chief ways: mission, 
audience, and partners.
    Mission: The training work of the National Center for Preservation 
Technology and Training focuses on (1) interdisciplinary approaches to 
preservation, including historic architecture, historic landscapes, 
archeology, objects and materials conservation and history, (2) turning 
advanced preservation research into preservation training 
opportunities, and (3) researching new training technologies and 
technology transfers applicable to training.
    Audience: In addition to NPS employees, NCPTT's training audience 
includes practitioners in State and local government agencies, and 
private practitioners.
    Partners: The National Center for Preservation Technology and 
Training training projects are completed in partnership with 
universities, non-profit and professional organizations, Federal State 
and local government agencies, and private practitioners.
    Question. Could efficiencies be gained from collocating the Center 
with other NPS facilities or programs?
    Answer. National Park Service programs that are devoted to 
archeology or historic architecture or training are distributed 
throughout the United States, and NCPTT shares expertise and projects 
with these programs. Although some efficiencies might be gained from 
co-locating the National Center for Preservation Technology and 
Training with another NPS facility or program, even greater 
efficiencies are gained from continuing and enhancing NCPTT's 
collaborations with the broad range of related Park Service programs 
and col leagues across the United States.
    Within the Statutory or Contractual Aid activity, the Park Service 
proposes to continue support for some entities while terminating 
support for others.
    Question. What criteria does the Park Service and/or the Department 
use in determining which of these programs will be included in the 
budget request?
    Answer. The primary consideration for continuing support for items 
within the Statutory or Contractual Aid activity is whether a 
particular entity has proper authorization. In recent years, the NPS 
has also begun to place a lower priority on statutory aid funding for 
organizations that could potentially be capable of self-sufficiency. 
This policy is expected to be continued in coming years, as funding is 
shifted to the support of legislatively established heritage areas.
                        save america's treasures
    A number of changes have been proposed in the statutory language 
relating to the Save America's Treasures program.
    Question. Does the Park Service plan to review or change the grant 
criteria that were used to allocate funds provided in fiscal year 1999?
    Answer. The criteria used to allocate fiscal year 1999 funds were 
primarily set by Congress in the language of the appropriations bill. 
The justification for the fiscal year 2000 language states that part of 
the reason for the requested changes in statutory language is to ``open 
up the eligibility criteria to also include non-Federal entities.''
    The justification states part of the reason for the requested 
changes in statutory language is to ``open up the eligibility criteria 
to also include non-Federal entities.''
    Question. Aren't non-Federal entities proposed to receive a 
significant portion of the funds appropriated in fiscal year 1999?
    Answer. Yes. The nonfederal entities that are proposed to receive 
funds in fiscal year 1999 were all submitted through the following 
three Federal agencies: Institute of Museum and Library Services 
(IMLS), National Endowment for the Arts (NEA), and National Endowment 
for the Humanities (NEH).
    By law, the National Archives and Records Administration and the 24 
Federal agencies, departments, and organizations funded through the 
fiscal year 1998 Interior and Related Agencies Appropriations Act were 
eligible to compete for Save America's Treasures funding. Although 
eligible to compete, IMLS, NEA and NEH are granting organizations that 
do not own intellectual and cultural artifacts or historic structures 
and sites, for which funding was provided. The House and Senate 
Appropriations Committees agreed that, for fiscal year 1999, these 
three agencies could accept applications from nonfederal entities, 
review the applications for completeness and eligibility for funding 
under the Save America's Treasures guidelines and project selection 
criteria previously approved by the House and Senate Appropriations 
Committees, rank the applications according to the Project Selection 
Criteria, and forward selected applications to the NPS as their 
agencies' submissions to compete for the national program awards.
    The following examples illustrate that each agency's mission, 
authorities, programs, and guidelines enable it to administer grants to 
nonfederal entities for the full spectrum of intellectual and cultural 
artifacts and historic structures and sites eligible for Save America's 
Treasures funding. These examples are meant to be indicative, not 
comprehensive.
Institute of Museum and Library Services
    Under its Conservation Project Support program, the IMLS awards 
matching grants for a broad range of conservation activities. 
Applications for grants in the categories of Treatment and 
Environmental Improvement are particularly analogous to the types of 
applications received through the Save America's Treasures program. In 
addition, the guidelines for treatment grants state that an applicant 
may request funds ``to conserve, preserve, or stabilize collections and 
historic structures.''
National Endowment for the Arts
    In the authorizing legislation for the NEA (20 CFR 26), the 
Congress declares that ``the Federal Government must transmit the 
achievement and values of civilization from the past via the present to 
the future,'' a philosophy echoed in the President and First Lady's 
multi-faceted Save America's Treasures initiative, of which the Federal 
grants are one component. The legislation further defines ``the arts'' 
to include music, dance, creative writing, architecture, film and 
video, traditions practiced by the diverse peoples of this country, and 
numerous other disciplines (Section 952(b)). Finally, the legislation 
grants the NEA the authority ``to develop and enhance the widest public 
knowledge and understanding of the arts'' (Section 952(d)) and to 
renovate facilities (Section 952(d)(2)).
National Endowment for the Humanities
    The NEA funds the full spectrum of cultural and historic resources 
for which it received Save America's Treasures applications, in 
particular through its Division of Preservation and Access and Office 
of Challenge Grants. Preservation and Access grants include support of 
the preservation of intellectual content and the stabilization of 
material culture collections, including through the proper housing and 
storing of objects and the improvement of environmental, security and 
safety systems that preserve collections. The Office of Challenge 
Grants provides funds for direct capital expenditures in cases of 
compelling need that clearly relate to improvement in the humanities.
         historically black colleges and universities (hbcu's)
    The justification indicates that roughly half of the $7 million 
appropriated in fiscal year 1999 for restoration of historically black 
colleges and universities has been awarded to specific institutions.
    Question. Have additional funds been awarded since submission of 
the budget request? If so, how much and to which institutions? If not, 
when will these awards be made?
    Answer. The second round of fiscal year 1999 HBCU grants (totaling 
$3.304 million) will be apportioned in June 1999, based upon the onsite 
condition assessments currently being completed by a multi-disciplinary 
team of historic preservation experts employed under a Cooperative 
Agreement with the Georgia Institute of Technology.
    Question. Does the Park Service anticipate that all of the funds 
requested for fiscal year 2000 will be awarded to specific institutions 
during fiscal year 2000?
    Answer. Yes, all funds will be awarded during fiscal year 2000 to 
the HBCUs listed in section 507 of the Omnibus Parks and Public Lands 
Management Act (Public Law 104-333).
    Question. Is work at these sites likely to commence during fiscal 
year 2000?
    Answer. Yes.
    Question. Are matching funds available for all of the funds 
appropriated for fiscal year 1999?
    Answer. Yes, we believe that the required nonfederal matching funds 
are available.
    Question. Are matching funds likely to be available in fiscal year 
2000 for the funds requested in the fiscal year 2000 budget request?
    Answer. Yes, to our knowledge, the required nonfederal matching 
funds will be available.
    Question. Have any funds been awarded to institutions that have not 
secured a non-Federal match? If so, why?
    Answer. No funds have been awarded to institutions that have not 
secured a nonfederal match.
    Question. Why have some institutions been awarded grants in excess 
of the levels authorized in Public Law 104-333?
    Answer. There is authority to fund above specific school 
authorization amounts within the total program authorization amount, if 
a condition assessment identifies such a need. Of the 12 HBCUs listed 
in section 507 of Public Law 104-333, two Alabama HBCUs (Concordia 
College and Stillman College) received amounts in excess of the levels 
stipulated. At Concordia, $200,000 was authorized, but $276,842 was 
awarded to repair Bakke Hall. At Stillman, $250,000 was authorized and 
$295,649 was awarded to repair Snedecor Hall. In both cases, the 
decision was deemed necessary to ensure that critical preservation 
needs were addressed, that additional funding would not be required, 
and to guarantee that these buildings would be made safe and usable at 
the completion of the project. These funding decisions were made based 
upon the recommendations of the professional and experienced condition 
assessment teams assisting in this initiative. The total amount awarded 
in excess of the specified levels ($122,491) was drawn from the $6.1 
million that was not earmarked for specific HBCUs in the overall $29 
million authorization.
                      national constitution center
    The Statement of Managers accompanying the fiscal year 1999 
conference report included language urging the City of Philadelphia and 
the National Constitution Center to enter into a binding legal 
agreement under which the City would take responsibility for operation 
of the Center should the Center itself fail to be self-sustaining as 
planned.
    Question. Is the Department aware of any such agreement being 
drafted or under discussion?
    Answer. The Department of the Interior has been advised by the 
National Constitution Center (NCC) that a ``binding legal agreement'' 
is not possible due to the City of Philadelphia's Home Rule Charter. 
The City cannot obligate funds beyond a given legislative year. The 
City has, however, appropriated $5 million dollars for fiscal year 2000 
as further evidence of its good faith intention to stand behind the 
project.
    The NCC has commissioned an accounting firm to evaluate its 
projected income and operating expenses. The draft study has confirmed 
the NCC's projections and anticipates an operating surplus for the 
facility. This study, however, has not yet been evaluated by the NPS.
               everglades modified water delivery system
    The Justification indicates that $52 million has been appropriated 
for the Modified Water Delivery System at Everglades National Park.
    Question. How much of this amount has been obligated to date?
    Answer. The total amount obligated for the project to date is 
$33,614,906.
    Question. How much is expected to be obligated by the end of fiscal 
year 2000?
    Answer. An estimated $70 million, inclusive of obligations by the 
Corps of Engineers for infrastructure project obligations and of 
Everglades National Park for project management related costs, is 
expected to be obligated by the end of fiscal year 2000, if the 
President's budget request is enacted.
    Question. Are all of the completed projects within this program 
currently operational? If not, why not?
    Answer. The only project features that have been completed 
associated with the Modified Water Deliveries Project are the S-355 A&B 
structures and the raising of the Tigertail Indian camp. Both of these 
features are operational. The S-355A&B can release water into the L-29 
canal as intended but current operations and water level conditions in 
the region dictate that these structures not discharge any water. When 
regional conditions change to allow use of these structures, they will 
be operated to release water from Water Conservation Area 3B into L-29 
and Northeast Shark Slough.
    Question. What specifically will be done with the funds requested 
in fiscal year 2000?
    Answer. The fiscal year 2000 funds will be used to:
  --Perform engineering analyses and design for seepage control 
        features along the L-30/L-31N alignment (S-356 pump station 
        feature);
  --Perform hydrologic modeling and feature designs for conveying water 
        from Water Conservation Area 3A to Water Conservation Area 3B 
        (L-67 A&C project features);
  --Perform engineering analyses and design associated with the raising 
        of Tamiami Trail between L-30 and L-67 extension;
  --Complete NEPA compliance of the flood mitigation component for 8.5 
        Square Mile Area; and
  --Remove derelict roads in the East Everglades.
                         construction projects
    The justification states that a portion of the funds requested for 
Fort Sumter will be used to clean up contaminates that have leaked onto 
NPS lands.
    Question. Why is the Park Service paying for this cleanup?
    Answer. As the Federal land manager of property on which releases 
of hazardous substances have occurred, the NPS has both the obligation 
and authority to respond to the releases in order to protect human 
health and the environment. Further, the NPS has the obligation to 
respond, assess, and restore injuries to park system resources 
resulting from the releases. Consequently, the NPS has proceeded with 
response actions at the tour boat facility. In addition, these response 
actions have been required for obtaining approval from State and 
Federal regulatory agencies to proceed with construction of the 
facility. A full investigation and remediation of the adjacent Calhoun 
Park Area site is being addressed by the South Carolina Electric and 
Gas Company (SCE&G).
    Question. Will the Park Service be reimbursed for these costs?
    Answer. The NPS is working with the DOI Solicitor and the 
Department of Justice to pursue recovery of all response costs and 
other damages. Approval of the NPS request for costs and damages, and 
authority to proceed to negotiations and/or litigation is being 
processed within the Justice Department. Although the time frame is not 
certain, approval is expected to occur in the near future. We will then 
seek reimbursement from responsible parties, including SCE&G. The South 
Carolina Electric and Gas Company has indicated an interest in 
resolving this matter without litigation. We expect to recover most, if 
not all, costs.
                             glen echo park
    The justification indicates that $12 million in non-Federal funding 
will be available for the rehabilitation of facilities at Glen Echo 
Park.
    Question. What is the proposed source of the non-Federal funds?
    Answer. There are three proposed sources of non-Federal funding 
that will be available for the rehabilitation of facilities at Glen 
Echo Park. The sources are the Montgomery County and State of Maryland 
governments, and the Glen Echo Park Foundation.
    Question. How much of this amount is currently in-hand?
    Answer. To date, the Glen Echo Park Foundation has collected 
$270,000.
    Question. How much is expected to be available by fiscal year 2000?
    Answer. There should be $5,600,000 available in fiscal year 2000 if 
funding from all parties, State, County and Federal governments, is 
approved. The State of Maryland legislature has approved $1,300,000 for 
fiscal year 2000, contingent on receipt of matching federal dollars. 
The State has also given commitment for the full $6,000,000 over the 
next three years. Montgomery County is also committed to funding the 
project.
    Question. Have any non-Federal funds been spent on this project to 
date? If so, how much?
    Answer. No non-Federal funds have been spent on this project to 
date.
                              fdr memorial
    Funds are requested to ``fulfill the Federal Government's 
commitment to construct an addition to the Franklin Delano Roosevelt 
Memorial that would provide recognition of President Roosevelt's 
disability.''
    Question. Given that the use of Federal funds for this project 
directly contradicts the statute which authorized the addition to the 
Memorial, what has changed since passage of that Act that justifies 
Federal dollars being used for construction?
    Answer. The Franklin Delano Roosevelt (FDR) Memorial, which was 
constructed using a combination of appropriated and privately raised 
funds, was dedicated on May 2, 1997 by President Clinton. On July 24, 
1997, President Clinton signed into law an act that directed the 
Secretary of the Interior to plan for the design and construction of a 
permanent addition to the FDR Memorial. The National Park System 
Advisory Board established the Franklin D. Roosevelt Memorial Committee 
to advise the Secretary on appropriate recognition. Working with the 
designer of the FDR Memorial, Lawrence Halprin, the committee 
unanimously recommended a plan for the addition, which achieves that 
recognition while remaining consistent with the design criteria 
established for the entire memorial by the Franklin Delano Roosevelt 
Memorial Commission and the Commission of Fine Arts. The plan was 
accepted by Secretary Babbitt and announced by Vice President Al Gore 
on July 2, 1998. The forecourt will be created by Lawrence Halprin, 
Robert Graham, sculptor of the memorial's First Inaugural and Social 
Programs, and master stone carver John Benson, who designed the letters 
and carved the inscriptions in the memorial.
    The main entrance to the memorial will be reconfigured to create a 
forecourt that will be integrated into the whole with the same granite 
paving and walls, bronze sculpture, inscriptions, seating areas, 
lighting fixtures and landscape plantings used throughout the memorial. 
Located in the new forecourt will be a human scale statue of President 
Roosevelt in the small wheelchair he invented. The statue will be 
freestanding and located at grade to depict FDR as a person who was 
paralyzed, used a wheelchair, and was President of the United States. 
The granite wall behind the statue will contain associated bas-relief 
sculpture and carved quotations reflecting FDR's life before he became 
President. The artwork is bronze, placed in relationship to an 
extension of the large granite wall that acts as the spine of the 
memorial. The location of the forecourt is chronologically consistent 
with the order of the four outdoor rooms of the memorial, which 
represent the four terms of his presidency.
    The preliminary estimate for the project is $5 million, which 
includes both construction of the forecourt and acquisition of the 
artwork. The artwork--bronze sculpture and stone carving--will be 
funded through private donations of $1.5 million. The preliminary 
estimate for the design, engineering, and construction of the forecourt 
is $3.5 million. Construction costs include demolition and site 
preparation, substructure, pilings, a 74-foot long, 12-foot high 
granite wall to contain the artwork, a pair of granite seating walls 
totaling 142 feet, 2,600 square feet of granite paving, site furniture, 
utilities, lighting, landscape plantings, and irrigation.
    Existing law requires that the addition be constructed with private 
funds. The National Organization on Disability (N.O.D.) has agreed to 
raise $1.6 million for acquisition of the artwork and inscriptions, 
maintenance fund, and to cover the cost of fundraising. The Secretary 
is seeking authorization and an appropriation in the fiscal year 2000 
budget for the remaining $3.5 million necessary to construct the 
forecourt into which the artwork will be placed.
                              dams removal
    $12 million is requested for projects related to the removal of the 
Elwha Dam.
    Question. Have funds appropriated for purchase of the dam been 
obligated? If not, why not?
    Answer. To date $29,915,000 has been appropriated for acquisition 
of the Elwha and Glines Dams, as authorized by Public Law 102-495. A 
small portion ($75,000) of these funds have been obligated at this time 
to begin the hazardous materials survey work required prior to 
acquisition of lands. Additionally, it is anticipated that a request 
for proposal for title services will be advertised in June, 1999, and 
funds will be obligated for title services. The source of these funds 
is $415,000 appropriated in Title V of the fiscal year 1998 Interior 
and Related Agencies Appropriations Act and identified as ``transaction 
costs'' over and above the amount of $29.5 million identified in Public 
Law 102-495 as the purchase price of the Projects (Section 3(b)).
    Per Public Law 102-495, Section 3(a), ``Effective sixty days after 
submission to the Congress of the report referred to in section 3(c), 
the Secretary [of the Interior] is authorized to acquire the Elwha and 
Glines Canyon Projects, and all rights of the owner and local 
industrial consumer therein, subject to the appropriation of funds 
therefor: Provided, That the Secretary shall not acquire the projects 
unless he has determined pursuant to subsection (c) that removal of the 
Project dams is necessary for the full restoration of the Elwha River 
ecosystem and native anadromous fish and that funds for that purpose 
will be available for such removal within two years after 
acquisition.'' in accordance with this clause, the actual purchase of 
the Projects may not occur until the Secretary has determined that 
funds are available for removal of the dams and restoration of the 
ecosystem.
    The National Park Service is diligently working to complete all 
steps of the acquisition process which may be done beforehand. This 
will allow obligation of the moneys to purchase the Projects as soon as 
funds for removal have been appropriated.
    Question. Why should Congress appropriate $12 million towards the 
removal of a facility it does not own?
    Answer. Congress should appropriate $12 million so that the 
Secretary may determine that the removal of the dams and restoration of 
the ecosystem can be accomplished pursuant to the requirement of Public 
Law 102-495.
                      everglades land acquisition
    The justification indicates that the ``Land Acquisition Limitation 
Amount Remaining'' for Everglades NP and Grant to the State of Florida 
is ``not applicable''.
    Question. Is there any limitation in existing law on either land 
acquisition in Everglades National Park or for grants to the State of 
Florida?
    Answer. There is no limitation in existing law for either 
Everglades National Park or for grants to the State of Florida.
                         equipment replacement
    The request includes an increase of $4,463,000 for the Equipment 
Replacement program, but does not explain how this increase will be 
used.
    Question. For which of the three components of the Equipment 
Replacement program, as identified in the justification, will these 
funds be used.
    Answer. $3,000,000 of the increase request will be used to continue 
the Service's modernization of its information resources management 
equipment and programs, and to cover the costs associated with annual 
maintenance fees in maintaining equipment and software. This program 
was not funded by Congress in fiscal 1999. The remaining increase of 
$1,463,000 will be used to further the Service's efforts to comply with 
provisions contained in the Omnibus Reconciliation Act of 1993 which 
directed Federal agencies to convert all civilian Federal radio systems 
to the new technology known as ``narrowband.''; if accepted by 
Congress, total funds available for this program in fiscal year 2000 
would then be $2.5 million as $1.037 million was appropriated in fiscal 
year 1999 and is the ``base'' upon which this increase is being 
requested.
                 government performance and results act
    Question. How is your Department using performance information to 
manage the agency?
    Answer. On a park-by-park basis, performance information is used to 
identify strengths/weaknesses and monitor public perception. 
Servicewide, the information is utilized to analyze programmatic and 
resource needs.
    Question. How did program performance factor into your decisions 
about the funding you are requesting in fiscal year 2000? Please 
provide examples.
    Answer. Because the Service will not be able to use actual fiscal 
year 1999 performance until the end of this fiscal year (the first year 
required), it was not incorporated in the fiscal year 2000 request.
    Question. What specific program changes have you made to improve 
performance and achieve the goals established in your strategic and 
annual plans?
    Answer. There has been park-by-park improvements in park goal 
setting. The NPS has set Servicewide goals, developed standard 
performance indicators, and established a process for reporting 
performance.
    Question. How does your budget structure link resource amounts to 
performance goals?
    Answer. The budget structure is based on function and does not 
directly link resource amounts to performance goals. However, NPS 
Strategic Plan data bases include information to link resource amounts 
to performance goals.
    Question. What, if any, changes to the account and activity 
structure in your budget justification are needed to improve this 
linkage?
    Answer. To establish a direct linkage, the NPS budget structure 
would need to reflect the mission rather than how the mission is 
accomplished. There may be options to explore to improve the linkage 
without changing the budget structure.
    Question. Does your fiscal year 2000 Results Act performance plan 
include performance measures for which reliable data are not likely to 
be available in time for your first performance report in March 2000?
    Answer. The Service expects reliable data for all goals except for 
the one regarding water quality. That goal is now being reworked for 
inclusion in a revised NPS Strategic Plan that will be finalized by the 
end of the year.
    Question. If so, what steps are you planning to improve the 
reliability of these measures?
    Answer. All goals need to have objective, measurable performance 
indicators. The water quality goal is being rewritten to accomplish 
that, and other goals are being analyzed to improve the measurability 
and significance of their performance indicators, as needed.
    Question. How will your future funding requests take into 
consideration actual performance compared to expected or target 
performance?
    Answer. We believe and expect that future funding requests will 
use, and be affected by, GPRA performance data, but cannot say how 
until we have those data at the end of fiscal year 1999. There are 
currently processes in the NPS GPRA system that allow for the changing 
of targets in annual performance plans based on changing conditions, 
including those caused by differences in expected versus actual 
appropriations.
    Question. To what extent do the dollars associated with specific 
agency performance goals reflect the full costs of all associated 
activities performed in support of that goal?
    Answer. There currently exist processes to reflect the full costs 
of resources being used by goal, both at the park and servicewide 
levels. The Service, however, is working to improve the linkage by 
which central office and other indirect spending is associated with 
specific agency performance goals.
    Question. For example, are overhead costs fully allocated to goals?
    Answer. Yes, they are, but improvements to this process are still 
being refined.
                        park service acquisition
    Question. The Park Service requests $5.7 million for Gettysburg 
National Military Park. Is this funding for the tower?
    Answer. As of March, 1999, appropriated funds in the amount of $5.1 
million are available for land acquisition at Gettysburg National 
Military Park. It is expected that some of these funds combined with 
some of the funds included in the fiscal year 2000 request for land 
acquisition at the park will be used to acquire the Gettysburg National 
Tower. However, an appraisal of the tower property has not yet been 
completed and approved by the service.
    Question. Do we have a willing seller and an agreed-upon price for 
the tower? If not, what do you recommend be done?
    Answer. Though the owner has indicated an interest in selling the 
tower property, the Service has not yet obtained and approved an 
appraisal of the property. Negotiations to acquire the property cannot 
begin until an appraisal is approved by the Service. The Service hopes 
that negotiations, once commenced, will be successful in permitting 
acquisition of the tower property for the amount of the approved 
appraised value. If not, the Service is permitted to file a complaint 
in condemnation and have the Court determine the just compensation 
required for acquisition of the property.
                          park service housing
    A March, 1999 report by the General Accounting Office assessed Park 
Service progress in the implementation of its employee housing policy. 
The GAO found ``some evidence to suggest that park managers have not 
accepted the new housing policy or the need to minimize the agency's 
housing inventory.'' The GAO also noted that there is a disincentive to 
implementing alternatives to in-park housing, as the funding for many 
alternatives would come from park operating budgets.
    Question. What is the Park Service doing to implement its revised 
housing policy?
    Answer. The National Park Service has begun to implement its 
revised housing policy. In response to Congressional direction the 
Service also undertook a park by park review of its housing needs based 
on the revised policy. Through this first phase (needs assessment) of 
the process, once the policy had a chance to be field-tested, there 
were instances where parks were able to apply the policy as written. 
Fifty-one parks have identified an excess in housing and have begun to 
reduce their inventories. In addition, 12 parks have located 
alternative housing which has resulted in those parks no longer needing 
employee housing on-site, which will result in inventory reductions.
    But there were other situations where park managers expressed 
serious concerns regarding their ability to fulfill their mission-
related duties that must be further explored in order to fully 
implement the revised housing policy.
    Over the next few weeks, in conjunction with the continuation of 
the three-phase housing evaluation, which includes the physical 
inspection of units, Deputy Director Galvin will work with a group of 
senior level managers and regional representatives. This group will 
look at the stated housing policy and issues that include: housing 
assignments for cooperators; volunteers, and unpaid staff; housing 
assignments to protect historic structures; clarification of policy 
relating to response time and deterrence; and consistency of required 
occupancy assignments. The group will address whether or not 
refinements are necessary to interpret broader policy guidance.
    Additional inventory reduction decisions are anticipated in 
conjunction with the completion of the Condition Assessments. Final 
decisions on housing reductions will reflect a cost/benefit analysis 
for each park, which will allow managers to explore housing 
alternatives, where feasible, depending on mission need and facility 
condition findings.
    Question. What is being done or what can be done to remove 
disincentives that may lead park managers to rely too much on in-park 
housing?
    Answer. The NPS has completed the first phase in the evaluation of 
housing need. This needs assessment phase identified some alternatives 
to in-park housing. The next phases will be to identify the condition 
of housing inventory and conduct a cost/benefit analysis to aid in 
determining the best use of existing housing units. After these steps 
have been accomplished the NPS fully intends to explore further 
alternative approaches with the private sector. The NPS has not 
finished the process.
    Several parks have explored the feasibility of such alternatives as 
leasing in the private sector in lieu of on-site construction. We will 
continue to pursue alternatives
    Question. Does the Park Service agree that these disincentives 
exist?
    Answer. There may not be sufficient incentives for park managers to 
seek non-park housing.
    The NPS will continue to examine the costs and benefits of housing 
alternatives taking into account the unusual demands in isolated parks 
and the practice of relying on private markets for employee housing.
    Question. What can this Committee do to help remove these 
disincentives?
    Answer. The NPS hopes to work with the Congress to address the 
needs of the Housing Program, realizing that employee housing is 
intertwined in many other NPS programs. Changes to the housing program 
may ultimately affect other programs such as the historic leasing 
program, the employee relocation program, and the volunteer-in-parks 
program; and NPS goals such as diversity, retention, and recruitment.
    Principal reasons for not implementing some of the alternatives are 
budget structure issues, use of existing structures to meet historic 
preservation, resource protection, and/or visitor protection 
objectives. There may be a disincentive for a park since funding to 
lease housing and administrative space from the private sector, for 
example, would come from park operating funds and would compete for 
funding against all other park operating needs, while funding for 
housing is currently derived from the centralized construction account. 
Often, identified alternatives are not implemented largely due to cost/
benefit analysis from either the viewpoint of the Service or potential 
partners or both. Many alternatives have significant budgetary 
implications.
    We hope that Congress will work with the NPS to develop incentives 
for park managers to explore and possibly implement alternatives. 
Implementing alternatives is sometimes not simple or within currently 
available resources or legal authorities of the agency.
    The NPS may propose new housing programs on a pilot basis or a 
demonstration program at a park site where the cost of housing in the 
private sector has proven to be prohibitive for essential seasonal 
employees. The NPS will examine the costs and benefits of housing 
alternatives, taking into account the unusual demands of isolated parks 
and the practice of relying on private markets for employee housing.
    Question. Does the Park Service agree with the suggestion by some 
park managers that the housing needs assessment is attempting ``to 
address a problem that does not exist''?
    Answer. GAO Reports and Inspector General audits have indicated 
that there is a problem. The NPS agreed that it would be beneficial to 
the agency to have an outside determination of need, and to have 
extensive information on the private housing markets near park areas.
    The Service hopes Congress will consider and appreciate the 
significant portion of work already accomplished and the commitment 
shown by many top managers. NPS hopes that Congress will support the 
NPS as we continue the process.
    The Contractor retained to conduct the housing needs assessment 
arrived at a far different needs assessment about total housing needs 
than did park managers.
    Question. Has the Park Service developed an official agency 
position regarding the total housing need that narrows or eliminates 
this gap?
    Answer. The NPS's main goal is the same as Congress' goal that we 
have a carefully thought out, prudent, and justifiable basis for 
building and maintaining employee housing where appropriate. As stated 
earlier, the NPS is currently, in conjunction with the other phases of 
the housing evaluation, looking at the stated housing policy and the 
need for refinement or amplification of that policy.
    It must be stressed that the Service will not be removing 
structures that are in good condition, where the economic analysis 
favors continued use. In those instances where the contractor and park 
managers are in agreement with the numbers of units needed the park can 
immediately take necessary steps to reduce inventory. In instances 
where there is a difference between the contractor findings and the 
park, no action will be undertaken until all three phases of the 
process are complete. Further decisions as to the future of any units 
may need to wait until the other phases of the evaluation have been 
accomplished. However, it must be stressed that as the NPS works to 
reach manageable decisions regarding housing management the NPS will 
not be able to develop an official agency position on an appropriate 
number of total housing units needed Servicewide that will be fixed. 
The additions of new park areas, park expansions, changes in park need, 
based on mission-related activities, and changes in local market 
availability will prohibit the NPS from identifying an appropriate 
number of housing units needed that will not change. Park managers will 
continue to re-evaluate their housing needs and will be expected to use 
feasible cost/beneficial alternatives and reduce inventory where 
possible. The NPS housing need will be evaluated on a regular basis, 
and it is not unreasonable to expect that the need will change during 
these evaluations, either in the form of a reduction or increase in 
inventory.
    Question. If not, will this be done?
    Answer. As stated above, the NPS is working steadfastly at reaching 
a justifiable number of housing units, however, this number will not be 
static. NPS housing needs that will provide adequate necessary services 
for the protection of Government property while taking into account the 
availability of private-sector housing and the mission of the park will 
require a continual re-evaluation. Not only will NPS needs likely 
change but also the availability of private sector housing will 
probably change. Measures have been put into place already that will 
require park managers to re-evaluate their needs based on private 
market availability every two years, and when funding is requested that 
need will be re-evaluated on a annual basis.
                        Bureau of Indian Affairs
                  contract support on tribal contracts
    The federal government, particularly the Indian Health Service and 
the Bureau of Indian Affairs, is facing severe financial penalties from 
litigation related to contract support costs for contracts with tribes. 
The Bureau, which has been contracting with tribes longer and which 
has, up to this point, refused to negotiate or pay direct costs such as 
workers compensation and unemployment, is in slightly better position 
than the Indian Health Service, which does pay direct costs. However, 
as part of the recent discussions between tribes and the federal 
government to address the problems, the Bureau is re-evaluating its 
position on direct costs. A decision to begin paying direct costs could 
further obligate the federal government between $10 and $30 million a 
year, according to the General Accounting Office.
    Question. Please address any re-evaluations the Bureau and the 
Service might be making. Why did the Administration fail to request 
full funding for contact support?
    Answer. The Bureau is working in collaboration with the Indian 
Health Service and Tribes and expects to release a report on contract 
support in June, 1999. As part of this process, the Bureau has been re-
evaluating the payment of direct contract support costs at the request 
of Tribes who are requesting payment of these costs, including 
potential increases in the amount required to cover such costs. The 
Bureau is in the process of finalizing its report on this issue. As the 
report is not yet finalized, results are not yet available.
    The Bureau's fiscal year 2000 budget request includes an increase 
of $6,109,000 for Contract Support, which will meet approximately 84 
percent of Tribes' contract support need in fiscal year 2000. Competing 
priorities in the Bureau's budget did not allow all categories of needs 
to be requested for funding at the 100 percent level. Contract Support 
is just one of many under funded programs and priorities identified 
within the Bureau's budget. To fully fund one program would mean less 
funding for other priority programs. There are just not sufficient 
resources within the target funding levels to meet all the needs in 
Indian Country.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance based management within the agency, as 
required by the Government Performance and Results Act?
    Answer. The Bureau developed a Strategic Plan in 1997 and is 
currently amending the Strategic plan in accordance with the 
requirements of the Government Performance and Results Act (GPRA) and 
guidance developed by the Departmental Performance Management Office. 
The Plan sets forth mission goals for each budget sub-activity level 
and outli nes performance management areas for each.
    Recognizing the importance of achieving the intent of GPRA, the 
Bureau established an office to serve as the primary strategic planning 
contact for the Bureau to coordinate and provide oversight on GPRA 
efforts. To ensure participation on a nationwide basis throughout the 
Bureau, each of the Bureau's 12 Areas and all Central Office 
directorates have established GPRA coordinators. The staff serve key 
functions and are responsible for the collection and submission of 
quarterly performance data as well as serve as the first line of 
analysis in determination of goal achievement. This was part of the 
first phase of implementation of GPRA on a Bureau-wide basis.
    Meetings have been held with the GPRA coordinators nationwide to 
ensure full compliance with the Strategic Plan and Annual Performance 
Plan. In addition, senior Bureau managers have taken an active role in 
working to achieve the success of these efforts. With quarterly reports 
underway, the Bureau has been able to target areas needing refinement 
to achieve improved measurement of performance activities needed to 
achieve the Bureau's mission.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. The Bureau has efforts underway to incorporate the 
achievement of the GPRA performance goals within individual performance 
plans for staff at all Bureau levels. Senior managers are held 
accountable for the submission of quarterly performance data within the 
prescribed time lines as well as other GPRA requirements with a 
reflection of compliance affecting their individual performance 
reviews.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. The Bureau is providing quarterly reports to the Department 
which outlines its progress towards goal achievement. The Bureau 
reviews these reports to determine its current state of affairs with 
regard to goal achievement. The report allows program managers to 
determine what areas of their program may be falling short of goal 
attainment and subsequently allows focus on these areas to accomplish 
the goal.
    Question. How did program performance factor into decisions about 
the funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. The Mission goals in the Performance Plan were developed at 
the budget subactivity level and all areas of the Bureau's fiscal year 
2000 budget request relate to achievement of the mission and the 
accompanying goals. Requested increases were directly related to 
attainment of the performance goals outlined in the fiscal year 2000 
Annual Performance Plan. Denoted below are examples of the direct 
correlation between the Annual Performance Plan and the fiscal year 
2000 budget request:
  --$2,565,000 was requested for Tribal Courts to allow for the 
        implementation of Stage 2 of the 5- year plan to meet the 
        requirements of the Indian Tribal JusticeAct. Goal 
        01.01.02.01.00.
  --$1,292,000 was requested to support increasing the number of 
        Endangered Species benefiting from the Endangered Species 
        program. Goal 03.07.01.05.00.
  --$2,000,000 was requested to support rehabilitation of Adult Care 
        Facilities to allow them to qualify for State Medicare Provider 
        status, which would allow their current funding to be available 
        to offset other human services needs. Goal 02.02.01.03.00.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. With the Strategic Plan and the Annual Performance Plan 
established for the Bureau, program managers are refocusing their 
efforts on how to accomplish the goals and overall mission of the 
Bureau. Key in this effort has been changes in the instruction provided 
to field staff on the front line of providing Bureau programs to Tribes 
on what is to be achieved and focused on as well as reporting 
requirements for compliance.
    The Bureau continues to maintain an open forum with the Bureau's 
GPRA coordinators, providing not only dialogue on the current state of 
affairs, but also in providing training to improve their development in 
attaining the goals set forth in the Plan. This has allowed valuable 
input from field staff (``the front line'') in refining the goals to 
reflect the performance to be achieved and improve accountability for 
field participation in performance achievement.
    The Bureau utilizes the quarterly reports to assess attainment of 
the established goals. Using this information, the Bureau will continue 
to focus on areas in need of refinement to achieve its mission as well 
as ensure accountability of its program managers throughout the Bureau.
    Question. How does the agency's budget structure link resource 
amounts to performancegoals?
    Answer. The organization of the Bureau's fiscal year 2000 Annual 
Plan and its fiscal year 2000 budget request reflects the Department's 
approach to improve and streamline the Plan to improve its link with 
the budget. The Plan presents the Bureau's goals and measures, 
consistent with the core of the Strategic Plan and budget proposal. The 
Bureau's Plan includes a section in each goal category which lists the 
related budget accounts and activitie s which tie back to the Bureau's 
budget structure.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. To have a total mirror comparison between the Bureau's 
budget structure and the Annual Performance Plan, a major overhaul of 
the current budget structure would be required. The Plan is structured 
on its foundation of the Mission Goals and accompanying annual goals 
which crosses many of the current budget categories in the existing 
budget structure. The budget structure is based on recommendations 
adopted by the Joint Task Force on Reorganization of the Bureau of 
Indian Affairs based on its intent to illustrate how funds were 
distributed and expended.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. Several of the goals established in the Bureau performance 
plan only collect data for actual statistical figures on an annual or 
mid-year basis.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The Bureau's reporting efforts for fiscal year 1999 have 
included providing quarterly narrative status for the goals. These 
narratives outline the Bureau's efforts and progression toward 
attainment of the goal targets and allows for review of program 
performance for potential areas of default.
    Question. How will the agency's future funding requests take into 
consideration actual perf ormance compared to expected or target 
performance.
    Answer. The Bureau will take into consideration the degree of 
attainment of the goals in the Annual Plan to determine what action is 
necessary to improve performance.
                       Office of Insular Affairs
                             virgin islands
    Question. According to the agency's budget justification, the 
Virgin Islands has been running deficits in excess of $100 million 
since fiscal year 1996. Recently, the Island's fiscal problems have 
gotten even worse. Indeed, just this month, Department of the Interior 
officials informed staff that the Virgin Islands' government would 
likely not meet its full payroll obligations. What, if anything, is the 
Department of the Interior doing to assist the Virgin Islands' 
government with this fiscal crisis?
    Answer. Long before the Virgin Islands' current fiscal crisis, the 
Department of the Interior identified weaknesses in the Virgin Island 
government's financial management apparatus and provided resources to 
address the problem. The Department of the Interior sought and received 
a fiscal year 1996 Supplemental Appropriation of $9,450,000 to address 
the destruction of then DOI-owned Water Island from Hurricane Hugo 
($3,790,000) and the financial management deficiencies in the local 
government. We informed the Government of the Virgin Islands that the 
supplemental request had been approved and asked them to prepare 
proposals indicating how funds could be utilized to improve financial 
management. In July 1996, a team of OIA officials met with Government 
of the Virgin Islands officials and proposals were later submitted by 
representatives from Finance, Internal Revenue, Public Works, Office of 
Management and Budget, the Roy Schneider Hospital, and the University 
of the Virgin Islands. The supplemental funds for financial management 
improvements were broken down in the following manner: $3,000,000 for 
VI Department of Finance, $1,092,000 for VI Bureau of Internal Revenue, 
$1,200,000 for USDA Graduate School, and $20,000 for the VI Office of 
Management and Budget.
    These amounts went toward comprehensive financial management 
systems improvements including the purchase of software and hardware 
for computer systems upgrades and training. Although the immediate 
purpose of the emergency supplemental funding was to strengthen the 
Virgin Islands government's ability to effectively and accurately 
manage and account for the infusion of FEMA disaster assistance, these 
investments made permanent improvements in the Virgin Island 
government's financial management capabilities. More recently, in June 
1997 at the request of former Governor Schneider, OIA provided the 
Virgin Islands government assistance to develop an immediate-term 
action plan for fiscal recovery. On June 5, 1997, OIA awarded the 
Virgin Island's $275,000 for that effort and stipulated that if OIA was 
satisfied with the immediate-term plan, additional funds would be 
provided in fiscal year 1998 for the completion of a five-year fiscal 
recovery plan. The Virgin Island's selected Consultants for Resource 
Evaluation (CORE), a Washington, D.C. based management consulting firm, 
to develop the immediate-term action plan. OIA was pleased with the 
immediate-term fiscal recovery plan submitted by CORE. They have 
instituted aggressive procedures for the collection of back taxes from 
both individuals and businesses, the hospital instituted procedures to 
collect monies owed by individuals and insurance companies, and the 
Virgin Islands renegotiated the insurance premium cost for insuring 
government property. In addition, the island government analyzed the 
possibility of privatizing or leasing certain government functions such 
as the VITRAN public transportation.
    On April 10, 1998 DOI provided the Virgin Islands $650,000 for 
Phase II of the VI Fiscal Recovery Plan. Phase II calls for the 
implementation of a comprehensive five-year action plan which will lead 
to fiscal recovery. The five-year plan will include an economic 
development strategy and an offshore private sector investment 
development strategy. The efforts of CORE were applauded by Governor 
Turnbull's new administration. OIA's most recent efforts with respect 
to the Virgin Islands' latest fiscal crisis are discussed in the next 
response.
    Question. Does the Department have any other proposals besides 
permitting the Virgin Islands to keep all of the U.S. excise tax on 
rum, that would help the government with its financial problems?
    Answer. Secretary of the Interior Bruce Babbitt and Governor 
Charles Turnbull met in January 1999 to discuss the plight of the 
Virgin Islands. Their discussions resulted in the establishment of a 
Joint Virgin Islands/Federal Fiscal Recovery Task Force. The Federal 
group is comprised of representatives from the White House, the 
Department of the Interior, and FEMA. The objective of the task force 
is to develop additional ideas and options for addressing the Virgin 
Islands' fiscal crisis. Such options include, but are not limited to 
enhancing natural resources in the Virgin Islands to spur tourism and 
to consider the possibility of providing debt relief to the Virgin 
Islands' government for FEMA Community Disaster loans from Hurricanes 
Hugo and Marilyn.
    In addition, in response to a request from Governor Turnbull, the 
Department has agreed to help fund the preparation of the 1998 
financial statement and a Single Audit of 1995. The urgency of this 
request was underscored by an OIG report last September on deficiencies 
with the Interfund Loan and Federal Grant Balances. OIA has committed 
$400,000 of Technical Assistance funds to assist the GVI with their 
audit. OIA has asked the Virgin Islands to provide us with a detailed 
scope of work. To date, we have not received the aforementioned 
documentation.
    Question. If the Congress, agreed to the Administration's proposal 
to allow the Virgin Islands to retain all of the excise tax on rum, 
should there be a requirement that this revenue be de dicated to 
reducing the Islands' budget deficits?
    Answer. DOI believes that the additional revenue from the retention 
of rum excise taxes should be linked to the reduction of their budget 
deficit, while providing some flexibility to address immediate 
concerns.
                             american samoa
    Question. What, if anything, has the American Samoa government done 
to address the issue of unpaid medical bills to Hawaiian hospitals?
    Answer. According to a recent letter from Governor Sunia to the 
Office of Insular Affairs, the American Samoa Government (ASG) has paid 
out over $5,000,000 for unpaid bills in the last year to medical 
hospitals in Hawaii. The ASG Treasurer and his staff have been writing 
letters to the creditors in an effort to reconcile billing statements 
with original invoices. ASG has instituted a payment schedule with 
those creditors who have completed a reconciliation. The OIA has not 
received from ASG a list of which creditors they have reconciled with 
and to what extent the payment schedules it has instituted will satisfy 
those creditors.
    Question. What role has OIA played in trying to resolve this 
problem? What recommendations does the agency have to expedite 
resolution of this issue?
    Answer. OIA has worked closely with the ASG to resolve the problem 
of unpaid medical bills to Hawaii hospitals. In efforts to assist ASG 
resolve this issue, OIA has recommended that hospital officials 
investigate alternative financing, including funding efforts to explore 
the use of private and government sponsored medical insurance. In 
addition, OIA has repeatedly recommended that the Medical Center 
Authority increase hospital fees. The current fee for an out-patient is 
$2.00 and the in-patient fee is $7.50 a day; yet, the estimated daily 
medical cost to the hospital per patient is approximately $400.00 per 
day. OIA has also suggested to hospital officials that it allocate a 
portion of its operations subsidy to revolving accounts with certain 
medical providers or suppliers to enable the Medical Center to purchase 
pharmaceutical and medical supplies without interruption. 
Unfortunately, the hospitals are a few of the many vendors who are owed 
substantial amounts of money from ASG. The OIA has had several 
discussions with medical providers in and out of Hawaii to get an 
accurate accounting of ASG's debts related to medical services.
                         coral reef initiative
    Question. The agency proposed to spend $1,000,000 on the Coral Reef 
Initiative in fiscal year 2000. How will these funds be allocated to 
various projects? What specific projects will be funded?
    Answer. OIA will use the $1,000,000 to fund the highest priority 
needs for coral reef protection identified by the insular areas in the 
U.S. Islands Action Plan (Plan). The Plan, developed in 1997, 
identifies approximately $3,000,000 of high priority actions and needs 
for protecting and managing coral reefs in the insular areas. These 
activities range from research and development of restoration 
techniques to education and outreach on management and protection of 
coral reefs in local communities. Several of the priority projects 
identified in 1997 have been initiated with current OIA funding. For 
example, in fiscal year 1999, OIA funded research to develop techniques 
for the mass culture of coral larvae, a ``coral reef road show'' to 
educate villages about the value of coral reefs, and development of a 
CD-ROM for use in Guam's public and private schools. OIA is sponsoring 
a workshop to revise and update the Plan in conjunction with the 1999 
Coastal Zone Management meeting in July. The updated Plan will likely 
contain similar themes, with specific requests incorporating the 
lessons learned from recent projects and addressing recent events that 
have affected the health of coral reefs in the insular areas. OIA 
funding for fiscal year 2000 will be allocated to those projects that 
are given the highest priority ranking in the revised Plan and are 
deemed both feasible and potentially successful in achieving the goals 
put forth in the Coral Reef Initiative.
    Question. What other agencies is OIA working with on this 
initiative? How does OIA's role fit with these other agencies?
    Answer. OIA works closely with the Geological Survey, Fish and 
Wildlife Service, and National Park Service within the Department, as 
well as the other Federal agencies that are members of the Coral Reef 
Task Force (e.g., NOAA, EPA, Department of State, USAID), to develop 
and implement coral reef protection programs. OIA plays a key role in 
the coordinated Federal effort to conserve coral reefs, with staff 
serving on the Coral Reef Task Force and chairing the Task Force's 
working group on Ecosystem Science and Conservation. These interagency 
groups are the principal mechanisms for coordinating the Federal effort 
to address the dramatic decline of coral reefs worldwide: 
representatives from the various agencies work together to identify 
priority actions and coordinate funding decisions. OIA is one of the 
leaders in this Federal effort and works with its partners to avoid 
overlap and ensure that different agencies' projects are complementary.
    OIA also plays a unique role in the Federal effort to conserve 
coral reefs in that it is the only agency specifically authorized by 
Congress to provide the territories with technical assistance to manage 
and protect their natural resources. This authority is significant, 
considering that ninety-five percent of the Nation's estimated 
1,786,500 acres of coral reefs and associated habitats are located in 
the insular areas. Over the past few years, OIA has worked with NOAA 
and the island governments to develop strategies and plans, laid out in 
the U.S. Islands Action Plan (Plan), to address coral reef protection 
and management for each island as part of the U.S. Coral Reef 
Initiative. At its recent meeting, the Coral Reef Task Force adopted a 
resolution that the projects identified in the updated version of the 
Plan would be given priority consideration for receiving any new 
Federal funds appropriated for the coordinated coral reef effort. OIA 
will play a critical role in this process, sponsoring a workshop to 
update the Plan and providing direct funding to implement the 
priorities that are identified. In addition to its direct assistance, 
OIA also plays an important role in facilitating the interaction of 
insular area representatives and Federal agencies, highlighted by the 
Task Force's decision to invite the governors of the Commonwealth of 
the Northern Mariana Islands, Guam, American Samoa, Puerto Rico, and 
the U.S. Virgin Islands to become full members of the Coral Reef Task 
Force.
                            brown tree snake
    Question. How much has been spent to date by OIA on the Brown Tree 
snake program? What are expected expenditures over the next three 
years?
    Answer. As of May 1999, $5.6 million has been obligated on the 
Brown Tree snake program. Our fiscal year 2000 budget request for the 
Brown Tree snake program totals $2.6 million. We have not yet developed 
estimates for this program for fiscal years 2001 and 2002.
    Question. What progress is being made in research on biocontrols 
and other methods to control or eradicate the snake? When will this 
research result in on-the-ground application?
    Answer. Improved traps and barriers are two examples of research 
into controls that have already resulted in ``on-the-ground'' 
application. We expect significant improvements in barrier design to be 
placed in operation this year and have set aside $300,000 for barrier 
construction. Some of the other critical research still needs more 
testing before we can begin application. This includes the use of 
fumigants and toxicant, that require both testing and regulatory 
approvals. The use of heat and electronic sensors are still in early 
research stages, as is development of artificial attractants. 
Artificial attractants, as a substitute for live bait in traps (usually 
mice), is extremely important for ultimately detecting small snake 
populations and delivery of toxicant or biocontrols. In the area of 
biocontrols, most of our research to date has been on viruses, and we 
are now looking at ways to upset the reproductive process. We are many 
years away from field testing in this area. Biocontrols may represent 
the ultimate ``silver bullet'' that will allow eradication of snakes 
over large areas, but it is a long-term process that must be subjected 
to serious epidemiology studies and environmental safeguards.
    Question. What other agencies is OIA working with on the Brown Tree 
Snake?
    Answer. In addition to the Department of the Interior, the Brown 
Tree Snake program relies on efforts from the Departments of Defense, 
Agriculture, Commerce, and Transportation. We also work with State 
agencies in Hawaii, Guam, and the Northern Mariana Islands. Within the 
Department of the Interior, program efforts involve the Biological 
Resources Division within USGS and the Fish and Wildlife Service, as 
well as OIA and the Assistant Secretary for Policy, Management and 
Budget.
    Question. What is the nature of OIA's role in connection with these 
other agencies?
    Answer. OIA's major role is to fund research and operational 
efforts and make sure the work is performed as agreed; to coordinate 
interagency efforts by developing a Memorandum of Agreement and 
arranging meetings and briefings with signatories; and to brief and 
advise the Assistant Secretary for Policy, Management and Budget on 
priorities and needs for current and future years. The Assistant 
Secretary for Policy, Management and Budget is the principal manager 
for this interagency effort. We enter into reimbursable support 
agreements with the USGS for research, with the Fish and Wildlife 
Service for planning and support, and with the USDA for research and 
control efforts on Guam. We issue and manage annual brown tree snake 
control grants to Guam, the Northern Mariana Islands, and the State of 
Hawaii. For the last three years, we also have administered grants to 
the Smithsonian Institution (National Zoo) for research they are 
performing on snake viruses.
                           impact assistance
    The agency proposes taking $5,400,000 in capital improvement grants 
to CNMI for the next three years and giving it to Guam as impact 
assistance.
    Question. How was the amount of funds for capital improvement 
projects to CNMI initially established? Was it done by mutual agreement 
between CNMI and the United States?
    Answer. The special representatives of the President and the 
Governor of the CNMI initially established the amounts of funds when 
negotiating the third Agreement of the Special Representatives of 
Future Federal Financial Assistance for the Northern Mariana Islands. 
The agreement was signed on December 17, 1992.
    The Agreement called for Federal and Commonwealth contributions of 
$120,000,000 each during a seven-year period (1994-2000) and contained 
a schedule for matching ratios. The Federal matching ratio was to be 71 
percent in 1994, and would fall to 29 percent in 2000. The 
Commonwealth's contributions complemented the Federal share.
    The Third Agreement was never carried out in this format. Because 
Congress did not act on the new Agreement until 1996, the CNMI 
continued to receive $27,720,000 in annual Covenant grants in fiscal 
year 1993, fiscal year 1994 and fiscal year 1995. The grants were 
administered as if the Third Agreement was in effect, with CNMI 
providing matching funds of 20 percent, 26.6 percent, and 40 percent.
    The enactment of Public Law 104-134, the fiscal year 1996 Omnibus 
Appropriations Act, changed the original amounts and the matching 
ratio. To approximate the $240 million program stated in the Agreement, 
Congress mandated Federal and Commonwealth shares of $77 million each, 
and added the amount of the Federal grants and matching funds already 
in effect.
    Question. Is it fair to change these amounts unilaterally? How was 
the amount of the reduction determined?
    Answer. The amounts were already changed unilaterally in the 1996 
legislation. The decision to shift funding from the CNMI to Guam was 
made possible by the large balance of undisbursed CNMI Federal grant 
funds. The CNMI has to date expended none of the grants made available 
to it in fiscal year 1996, fiscal year 1997, fiscal year 1998 or fiscal 
year 1999. It has disbursed approximately $24 million of the $71.5 
million in Federal funds granted to it in fiscal year 1993-1995. The 
Administration believes grant funds can be used more effectively in 
Guam. CNMI can utilize unspent balances to maintain its large 
construction program.
    Question. Doesn't CNMI also face significant impacts as a result of 
the Compact?
    Answer. The Compact immigration impacts faced by the CNMI are 
significant, but not on the same scale as Guam.
    One of the rationales the agency gives for taking capital 
improvement money from CNMI is the difficulty CNMI has in meeting the 
matching requirements for use of these funds.
    Question. Has the recent appropriation by the CNMI of $23 million 
for capital improvement projects changed the agency's position? Will 
the recent completion of the Capital Improvement Plan by CNMI help the 
CNMI government with meeting matching requirements and getting projects 
done?
    Answer. The lack of matching funds is an issue of recent vintage. 
The CNMI has matching funds in the bank for the Federal grants made to 
it in fiscal year 1993-95. It has nevertheless only expended $24 
million of the $71.5 million of the Federal funds.
    The barrier to using fiscal year 1996-1999 Covenant grants was the 
CNMI's failure to develop the Capital Improvement Plan. The plan is 
required by the Third Agreement and Public Law 104-134. Governor Pedro 
Tenorio's administration was the first to seriously address the 
planning requirement. With some technical assistance provided by the 
Department, the CNMI created a task force and completed a very good 
plan in December 1998. This allows the CNMI, after appropriation of the 
local matching funds, to begin work on projects.
    The completion of the plan has no effect upon the Department's view 
of local matching funds. The Department administers the matching 
requirement using grant management procedures. When funds are needed to 
pay for a project's accrued expenses, the Department pays half the 
total amount expended, as reported by the CNMI. This is a self-policing 
process. If the locally appropriated funds are not available in the 
bank, the CNMI cannot pay its contractor and the project stops. We have 
confidence in the financial managers of the CNMI that they would not 
initiate a project for which they could not pay. The real issue 
concerning local appropriations is the viability of the local revenues 
that support them. The CNMI's economic situation is difficult, and it 
remains to be seen if all of the projected revenues will be collected.
                        prior service trust fund
    The Subcommittee is concerned about the financial condition of the 
Prior Service Trust Fund. The Subcommittee has been told that within 
the next few years the fund will not have adequate resources to pay all 
beneficiaries.
    Question. What is the agency's position concerning this issue?
    Answer. The prior service benefits program was not included in the 
negotiated Compact agreements implemented in 1986. Congress decided to 
continue this program and added $8 million to the 1986 appropriation 
for that purpose. Although the $8 million was less than had been 
requested, the legislative history spoke of a cut-off date for new 
registrants and the actuary for the program stated that $8 million 
would be sufficient based on assumptions at the time. Management and 
total control of the program was turned over to an independent body 
working on behalf of the four involved insular governments. Management 
chose to continue signing up beneficiaries, incurring high programmatic 
and administrative costs in so doing. When the Department of the 
Interior was informed of the cost overruns, the additional cost had 
risen to $15 million against a program initially funded at $8 million. 
The Department has considered funding for the program in the last three 
budgets, but the program has not been of sufficient priority to be 
included in the final request to Congress.
    Question. How much money would it take to fix this problem?
    Answer. If appropriated for fiscal year 2000 in a single lump sum, 
it would require approximately $20 million. If appropriated in annual 
amounts only, the funding required for fiscal year 2000 is $1.2 
million. That amount would have to be appropriated at a gradually 
decreasing rate over the next 45-50 years.
    Question. Does the agency plan to request funds in the future to 
address this issue?
    Answer. There are no specific plans to request funds, but the issue 
could be reconsidered in future budget deliberations.
                            hawaiian impacts
    The agency's fiscal year 2000 budget indicates that the Compacts 
have had large impacts on Hawaii. No funding for Hawaii is provided in 
the agency's budget.
    Question. Does OIA have the authority to provide funds to states 
like Hawaii for impact assistance? If not, what statutory or other 
changes would need to be made?
    Answer. The Compact of Free Association Act of 1985 clearly 
contains authority for appropriations to the State of Hawaii for impact 
assistance.
    Question. What is the estimated impact on Hawaii of the Compacts? 
What is it expected to be over next five years? How does the Department 
plan to deal with the impacts of Compacts in future Compact 
negotiations?
    Answer. As reported in OIA's impact report of March 1999, Governor 
Cayetano stated that the primary impact in Hawaii was in education, 
health, and welfare. Estimated costs for programs of the State of 
Hawaii in these areas to serve Micronesian migrants was about $10 
million in the last year (1997-98 school year). With the Micronesian 
migrant population rising, that cost is expected to increase over the 
next five years. A new census of Micronesians in Hawaii to be conducted 
by the Office of Insular Affairs and the Census Bureau in 1999 will 
better determine the rate of growth.
    The Department plans to deal with impact through increased emphasis 
on education, training, and health care in the freely associated states 
in future Compact negotiations. This will help to reduce the rate of 
migration and increase the contribution that future migrants can make 
to the receiving areas.
                                  gpra
    Question. What specific steps has the Director taken as head of the 
agency to achieve performance-based management within the agency, as 
required by the Government Performance and Results Act?
    Answer. Adjustments were made in OIA's organizational structure so 
that it aligns with our strategic goals. This makes it easier to tie 
organizational performance goals to individual performanc e standards.
    Question. How are the agency's senior executives and other key 
managers being held accountable for achieving results?
    Answer. The strategic goals and performance goals are directly 
linked to organizational structure and managerial responsibilities so 
that accountability for achieving organizational performance goals is 
now linked to individual performance standards and appraisals.
    Question. How is the agency using performance information to manage 
the agency?
    Answer. We do not yet have adequate performance information to 
relate performance data to man agement decisions, other than 
anecdotally.
    Question. How did program performance factor into decisions about 
the funding the agency requested in fiscal year 2000? Please provide 
examples.
    Answer. There are very few activities in OIA that receive 
discretionary funding, therefore program performance measures were not 
a significant factor in budget decisions.
    Question. What specific program changes has the agency made to 
improve performance and achieve the goals established in the agency's 
strategic and annual plans?
    Answer. The operations and maintenance improvement program 
(Maintenance Assistance funding) has been redesigned to emphasize past 
performance in the awarding of future grants. The timeliness by which 
insular governments develop work plans and begin and complete project 
implementation has become a criteria in awarding additional grant 
money. Similar methods are being considered for other technical 
assistance activities. We are currently examining the American Samoa 
operations grant to develop specific performance standards that will 
meet conditions of the grant.
    Question. How does the agency's budget structure link resource 
amounts to performance goals?
    Answer. The budget line items fit cleanly into our performance 
goals. Only our administrative funds are prorated among multiple goals. 
This makes for a very clear linkage between the budget and the annual 
performance plan.
    Question. What, if any, changes to the account and activity 
structure in the budget justification are needed to improve this 
linkage?
    Answer. No changes are needed.
    Question. Does the agency's fiscal year 2000 Results Act 
performance plan include performance measures for which reliable data 
are not likely to be available in time for the agency's first 
performance report in March 2000?
    Answer. Yes. Much of the data OIA relies upon comes from the 
insular governments and neither the data needs nor a method for data 
collection have been fully defined. It is a significant challenge to 
develop meaningful performance measures that can be collected and 
interpreted uniformly among seven insular governments with 
significantly differing data collection and reporting capabilities.
    Question. If so, what steps is the agency planning to improve the 
reliability of these measures?
    Answer. The agency is focusing some of its technical assistance 
resources on improving insular data collection, analysis, and 
reporting. OIA hopes to make a concerted effort in fiscal year 2000 to 
reach agreement with the insular governments on necessary performance 
measures so that uniform baseline and performance data can be 
collected.
    Question. How will the agency's future funding requests take into 
consideration actual performance compared to expected or target 
performance?
    Answer. In our technical assistance activities, it is unlikely that 
future funding requests will be tied directly to performance measures. 
This is because our technical assistance is provided on a discretionary 
basis to seven different insular governments. Therefore, performance is 
more likely to be a consideration in the allocation of discretionary 
funding among the governments rather that the total needs reflected in 
the budget. We are striving to develop some direct linkages between the 
American Samoa operations budget and their performance in achieving 
mutually agreed performance standards.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
             fish and wildlife service--wolf questionnaire
    Secretary Babbitt, last December I sent you a letter regarding a 
Fish and Wildlife Service questionnaire that was sent to hunters who 
received valid Elk permits from the New Mexico Department of Game and 
Fish. I asked that you personally review the survey because I was sure 
you would agree that it was accusatory, threatening, and totally 
inappropriate for a United States agency to send to its citizens.
    The questionnaire was supposedly trying to elicit information 
regarding recent shootings of reintroduced wolves in New Mexico. Among 
the dreadful tone of the questionnaire, I found it disturbing that the 
FWS chose to target hunters who were not otherwise under suspicion 
except for the fact that they were legally hunting in an area where 
reintroduced wolves have been found shot. I recognize that the Fish and 
Wildlife Service has an obligation to investigate the recent shooting 
of reintroduced wolves. I have no sympathy for those, if any, who are 
taking out their frustration with wolf introduction by killing these 
animals. Such individuals should be dealt with to the full extent of 
the law. However, I feel this document produced by your Department is 
outrageous and deplorable in its own right.
    I will submit this questionnaire for the record. However, I will 
briefly give a few examples of how the document arguably violates 
numerous fundamental Constitutional rights. The cover letter, from a 
Fish and Wildlife Special Agent, implicitly threatens that failure to 
return said survey would invite a Special Agent's personal meeting with 
the recipient. A sample of the questions, after the recipient is told 
to write in pen and make no corrections, includes inquiries into ``Did 
you shoot the wolf'' to asking why the FWS should believe the 
recipients' answers, to a direct entrapment question asking how much 
would you pay for a wolf--a taking of an endangered species.
    I did hear from Assistant Secretary Barry and Fish and Wildlife 
Director Clark that the questionnaire, while shocking, was not unusual 
in certain circumstances to elicit information from suspects in a 
criminal investigation, but it ``might not be proper'' for mass 
distribution. The FWS issued a statement that, despite appearances, 
answers were voluntary and the FWS would appreciate any information 
hunters in the area had that would aid the investigation. I would point 
out that perhaps is the tack the FWS should have taken to begin with, 
especially considering the volatility of the issue of wolf 
reintroduction.
    Question. I asked that you investigate the decision-making chain of 
command responsible for this questionnaire. and consider removing the 
responsible parties from their current positions. What investigative 
actions have you taken regarding this situation, and what actions 
subsequent to the investigation have you taken?
    Answer. The Assistant Secretary--Policy, Management and Budget 
requested that the Office of Managing Risk and Public Safety, Law 
Enforcement and Security Team (LEST) conduct research to determine the 
legitimacy of the SCAN/VIEW technique and whether other agencies were 
using this investigative tool. The LEST determined that ``Statement 
Content Analysis'' is taught and used by numerous Federal and State 
agencies. These include the Federal Bureau of Investigation, the United 
States Secret Service, and the other 71 agencies which receive staff 
training at the Federal Law Enforcement Training Center.
    The questionnaire mailed to New Mexico hunters was used according 
to the guidelines presented to Federal law enforcement officers during 
their training on the SCAN/VIEW technique. The Special Agent received 
approval from his immediate supervisor and concurrence from the Deputy 
Assistant Regional Director for Law Enforcement prior to mailing the 
questionnaire.
    Both the Fish and Wildlife Service and the Department are concerned 
about the questions that have been raised by the use of this technique. 
Therefore, the use of mailed questionnaires has been suspended within 
the Department pending further review.
    Question. Has the Department of Interior defined its policies so as 
to ensure such an inflammatory document will no longer be ``mass 
mailed'' to general ``suspects'' in Department in vestigations?
    Answer. The use of the SCAN/VIEW technique by mail has been 
suspended until such time as the Law Enforcement and Security Team is 
able to conduct further research and make recommendations. The LEST has 
not undertaken further review of the use of mailed questionnaires as of 
the date of this response.
                 fish and wildlife fws--silvery minnow
    Secretary Babbitt, New Mexico, like Arizona, is an arid state. I 
note that folks within the Beltway are primarily unaware of the 
critical need for water in the West. With lack of snowpack and 
precipitation, New Mexico is facing a severe drought this summer. In 
fact, parts of the Rio Grande river, which historically has gone dry at 
times, may dry up as early as this week. The traditional stresses of 
water users are only compacted by litigation regarding the needs of the 
endangered silvery minnow.
    I am deeply concerned about the impacts of laws such as the 
Endangered Species Act, no matter how well-intentioned, on a desert 
state like New Mexico. A recent Tenth Circuit Court of Appeals ordering 
of immediate critical habitat designation for the Rio Grande silvery 
minnow only dramatizes the growing conflict between the federal 
Endangered Species Act and water for Rio Grande users. I can only hope 
that the potential needs of this silvery minnow will not deplete 
reservoir holdings on which Albuquerque and Santa Fe depend for 
drinking water.
    A recent Notice of Intent to sue by the Forest Guardians and others 
threatens to force the release of stored water in any of the Heron, El 
Vado, Abiquiu, or Cochiti reservoirs to ``maintain the riparian habitat 
necessary for the survival'' of the silvery minnow and the willow 
flycatcher. I am concerned about water necessary for the survival of 
New Mexicans, their well-being and way of life.
    In the lawsuit forcing immediate critical habitat designation, you 
argued that the Department did not have the data necessary to determine 
water amounts needed for the fish. Fish and Wildlife Service Director 
Jamie Rappaport Clark stated in an affidavit to the Court that the FWS 
must comply with NEPA requirements and perform an economic analysis of 
the impacts of designation. An EIS would likely be needed, which would 
require more time for habitat designation. The ESA requires that the 
FWS, when designating critical habitat, take into consideration the 
economic impacts of specifying any particular area as critical habitat.
    Question. Without scientific data available for the silvery 
minnow's water needs nor a reliable economic analysis available, won't 
the Department need additional time to follow the NEPA process?
    Answer. The FWS believes that the needed scientific data is 
available to allow an estimation of the Rio Grande silvery minnow's 
water needs. The Recovery Plan for this species has been drafted and is 
under internal review. Included in the plan are descriptions of the 
conditions needed in the Rio Grande River watershed throughout the year 
for the survival and recovery of the species. This plan will soon be 
available in draft form to the public for review and comment. At this 
time, the FWS believes that the primary constituent elements of habitat 
required to sustain the Rio Grande silvery minnow include:
  --stream morphology that supplies sufficient flowing water to provide 
        food and cover needed to sustain all life stages of the 
        species;
  --water of sufficient quality to prevent water stagnation (elevated 
        temperatures, decreased oxygen, carbon dioxide build-up, etc.); 
        and
  --water of sufficient quantity to prevent formation of isolated pools 
        that restrict fish movement, foster increased predation by 
        birds and aquatic predators, and congregate disease causing 
        pathogens.
    In February 1999, the U. S. District Court of New Mexico ordered 
the FWS to designate critical habitat for the Rio Grande silvery minnow 
within 30 days. The FWS responded to the Court with a request for 
reconsideration of the specified time frame. In that request, we 
explained to the court that critical habitat designation was not 
possible within 30 days, and that completing the required analyses and 
complying with the National Environmental Policy Act (NEPA), including 
opportunity for meaningful public involvement, would require a minimum 
of 8 months, and that if an Environmental Impact Statement (EIS) were 
required, an additional 12-18 months would be necessary. Critical 
habitat designation, while providing little or no additional benefit to 
most listed species, is a time and resource intensive process, 
particularly within the Tenth Circuit, where the court has ruled that 
critical habitat designations require compliance with NEPA.
    The Court responded to our request for reconsideration with an 
order that extended the deadline for completing the designation to 120 
days (June 23, 1999). The FWS is working to meet the court-ordered 
deadline and will complete the designation to the best of our ability 
within the time allotted by the court. The FWS believes that for highly 
imperiled species, which are restricted to very specific, localized 
habitats, such as the Rio Grande silvery minnow, no additional 
protection is gained by designating critical habitat. Protection is 
already afforded to the species by virtue of being listed as an 
endangered species under the Endangered Species Act of 1973, as 
amended.
    Question. Isn't a full EIS a likely outcome for designation along 
the Rio Grande?
    Answer. For most species, no additional protection is gained by 
designating critical habitat; the needed protection is already afforded 
to the species by being listed under the Endangered Species Act. 
Therefore, the FWS believes that it is unlikely that we will determine 
that designation of critical habitat will have a significant 
environmental impact (a determination which would necessitate an EIS). 
However, the draft environmental assessment (EA) and economic analysis 
were released on April 7, 1999, and are currently being reviewed by the 
public. The comment period closed on May 7, 1999. If comments and 
information received during that period cause us to determine that an 
EIS is necessary, the FWS will work with the Department of Justice to 
determine how that factor affects the current Court order.
    Question. Are the Interior Department' s agencies working together 
in this process, since Bureau of Reclamation's operations are 
implicated in the litigation?
    Answer. Yes, the FWS has been working closely with the Bureau of 
Reclamation, to ensure that the Bureau is in compliance with the 
Endangered Species Act, and that the Rio Grande silvery minnow and its 
habitat are protected. The FWS and the Bureau have been working 
cooperatively for the last few years to conserve the silvery minnow and 
take necessary actions to restore important habitats for listed species 
along the Rio Grande. Both agencies have been engaged in the section 7 
consultation process under the Act. Through that process, we have been 
able to develop reasonable approaches to implement proposed projects 
while minimizing project impacts to listed species.
    Question. Isn't it true that the little scientific data available 
indicates that the minnow needs more water than the River can provide, 
even without consideration of the needs of human users?
    Answer. No, the FWS does not have any data to indicate that the 
minnow requires more water than the Rio Grande can provide. The major 
threat to the Rio Grande silvery minnow is the loss of habitat. This 
loss of suitable habitat has been caused by changes in hydrology 
throughout its historical range.
    This species was historically one of the most abundant and 
widespread fishes in the Rio Grande basin, occurring from Espanola, New 
Mexico, to the Gulf of Mexico. It was also found in the Pecos River, a 
major tributary of the Rio Grande, from Santa Rosa, New Mexico, 
downstream to its confluence with the Rio Grande. It is now completely 
extirpated from the Pecos River and from the Rio Grande downstream of 
Elephant Butte Reservoir. Throughout much of its historical range, 
decline of the silvery minnow may be attributed to modification of 
stream discharge patterns and channel dewatering by impoundments, water 
diversion for agriculture, and streamchannelization.
    Decline of the species in the Middle Rio Grande probably began in 
the early part of this century with the construction of Elephant Butte 
Dam; eventually there were five major main stream dams constructed 
within the minnow's habitat. These dams allowed manipulation and 
diversion of the flow of the river. Often this manipulation resulted in 
the drying of river reaches and elimination of fish.
    Prior to extensive habitat alteration and the resulting flow 
modification, it is likely that portions of the river naturally dried 
periodically during drought conditions. However, the overall flow 
throughout the range of the species was sufficient to provide for the 
needs of the species at that time. Present day water management can be 
altered to provide sufficient water and thus sufficient habitat for 
this species.
    Question. How can critical habitat be designated without 
consideration of all water user needs along the river?
    Answer. The designation of critical habitat requires public 
participation and an examination of the economic impacts attributable 
to the designation. The public comment period for the proposed 
designation of critical habitat, the draft EA, and the draft economic 
analysis closed on May 7, and the FWS is reviewing the comments.
    One of the purposes of the comment period is to ensure that the FWS 
has not overlooked any considerations involving water user needs along 
the river. If the FWS finds that a particular need has been overlooked, 
this omission will be corrected when the FWS makes a final 
determination regarding the court-ordered designation of critical 
habitat for the Rio Grande silvery minnow.
    It is also important to recognize that the FWS believes that 
designation of critical habitat will have little or no impact above and 
beyond the effects that accrued from listing the species as endangered. 
This is because the prohibitions associated with critical habitat are 
duplicative with those associated with the listing. Section 7(a)(2) of 
the Act requires Federal agencies to ensure that activities they 
authorize, fund, or carry out are not likely to jeopardize the 
continued existence of a listed species or to destroy or adversely 
modify its critical habitat.
    Implementing regulations (50 CFR Part 402) define ``jeopardize the 
continued existence of'' a species and ``destruction or adverse 
modification of'' critical habitat in virtually identical terms. Thus, 
for most species, actions satisfying the standard for adverse 
modification are nearly always found to jeopardize the species 
concerned, and in most cases the existence of a critical habitat 
designation does not materially affect the outcome of consultation.
    This is often in contrast to the public perception that the adverse 
modification standard sets a lower threshold for violation of section 7 
than the jeopardy standard. In fact, biological opinions that conclude 
that a Federal agency action is likely to adversely modify critical 
habitat but not to jeopardize the species for which it is designated 
are extremely rare historically and have not been issued in recent 
years. The Rio Grande silvery minnow is a highly imperiled species and 
the FWS believes that the measures needed to ensure the survival and 
recovery of this species will be the same, with or without the 
designation of critical habitat.
    Because of the duplicative nature of the adverse modification and 
jeopardy standards, critical habitat designation provides little or no 
value to the species in question, and comes at the expense of higher 
priority conservation efforts. However, the FWS is being inundated with 
citizen lawsuits for our failure to complete the process, and we have 
been challenged on numerous ``not prudent'' critical habitat 
determinations (meaning that the designation of critical habitat was 
determined to be not prudent for that species).
    The consequence of the critical habitat litigation activity is that 
we are utilizing much of our very limited listing program resources in 
litigation support defending active lawsuits and Notices of Intent 
(NOIs) to sue relative to critical habitat, and complying with the 
growing number of adverse court orders. In the meantime, our efforts to 
respond to listing petitions, to propose listing of critically 
imperiled species, and to make final listing determinations on existing 
proposals are being significantly delayed. There are species not yet 
listed in Regions or geographic locations where litigation support has 
and will continue to consume much of our funding resources.
    For example, in Hawaii a single court order remanded 245 ``not 
prudent'' critical habitat determinations. There are other species in 
Hawaii that are not yet listed and are literally facing extinction 
while precious resources are being depleted on critical habitat 
litigation support and the reexaminations of critical habitat prudency 
determinations for species already listed. Litigation over critical 
habitat issues for species already listed and receiving the Act's full 
protection has precluded or delayed many listing actions nationwide.
                 surplus land disposal/inholder relief
    Mr. Secretary, a very large portion of the President's proposed 
budget includes funding for a ``Lands Legacy Initiative,'' which 
predominantly considers land acquisition throughout the Natural 
Resources agencies. I worked diligently with the Administration last 
year for legislation on federal acquisition and management of a unique 
piece of property in New Mexico, and I appreciate the value of public 
ownership of special property. Over 30 percent of New Mexico is in 
federal ownership. However, I have always advocated federal maintenance 
of the property the government already owns, and providing relief to 
those who have waited years for federal purchase of their property.
    Question. What percentage of the funding for land acquisition in 
your proposed budget would go towards the purchase of existing 
inholdings from willing sellers?
    Answer. It is hoped that $249.4 million of BLM, FWS, and NPS 
proposed federal LWCF acquisitions, after negotiations with landowners, 
will go toward the purchase of existing inholdings at the appraised 
value from willing sellers, including the management funding needed to 
effect those acquisitions. None of the funds included in the fiscal 
year 2000 budget request are presently designated for the acquisition 
of land from non-willing sellers. Excluded from the DOI total request 
of $295.0 million is the $45.6 million grant to the State of Florida 
for the Everglades.
    However, it is important to note that the term inholdings for NPS 
technically refers only to pre-FY 1960 tracts within unit boundaries. 
Requested funds for these NPS inholdings/exchanges total $4.0 million 
in fiscal year 2000. The balance of the NPS funds is $122.9 million 
that will be used for acquisition of tracts within recently authorized 
(post-FY 1960) boundaries within NPS units.
    One hundred percent of the acquisitions proposed in the 2000 BLM 
budget request are within BLM managed or Congressionally designated 
special areas.
    Question. Do you have an inventory of inholdings available and 
awaiting purchase by the Department?
    Answer. The inventory of inholdings available and awaiting purchase 
for BLM, FWS, and NPS follow:
    The most recent November 1998 land acquisition list compiled for 
the Bureau of Land Management indicates that 825,720 acres within 71 
project areas, located in ten States are identified for acquisition. 
The estimated cost in 1998 dollars to acquire these properties is 
$664,365,000. Identified land and interest in land may be acquired by 
purchase, exchange, and/or donation.
    The Fish and Wildlife Service has 2,662,000 acres remaining to be 
acquired with Land and Water Conservation Fund monies at 148 refuges. 
The total cost is estimated to be $3.157 billion.
    The post-fiscal year 1999 acquisition requirements of the National 
Park Service as of March 9, 1999 are composed of $256,829,000 for 2,281 
tracts with 29,013 acres for inholdings and another 7,903 tracts with 
1,039,945 acres for $1,097,280,350 for recently authorized areas (after 
fiscal year 1960) within NPS unit boundaries. These total 10,184 
tracts, 1,068,958 acres, and $1,354,109,350.
    These NPS numbers reflect a change to the February 17, 1999 list 
submitted to the Committee because of re-evaluation of acquisition 
needs at two projects that resulted in a net increase of $1,239,000. 
The Lake Mead updating of estimates resulted in an increase in costs of 
$1,439,000. Great Basin was removed from the list due to mining claims 
that were invalidated and no longer in need of being acquired and 
resulted in a reduction of $200,000.
    I also worked very hard with the Administration last year on 
legislation which would facilitate disposal of surplus federal property 
and provide relief for inholders. My legislation would allow the 
proceeds from sales of disposal property by DOI and the Forest Service 
to be used for purchase of inholder properties from willing sellers who 
have been waiting to sell to the Federal government. You would be able 
to purchase these properties without coming to Congress each time.
    Question. Do you support this proposed legislation?
    Answer. The Administration supports the concept of the proposed 
legislation. The Department will continue to work with your staff to 
develop a mutually beneficial piece of legislation that will make the 
sale and acquisition of Federal lands easier. The Administration, as 
part of the Budget, is developing similar legislation that would allow 
receipts from land sales to be used to acquire lands adjacent to or 
surrounded by land now managed by the Department of the Interior.
                          southwestern drought
    Secretary Babbitt, when the Forest Service appeared before the 
Subcommittee last week, I had a discussion with Chief Dombeck about the 
Forest Service being behind in its forest management activities 
nationwide, such as prescribed burns that could help mitigate fire 
danger in our natural forests. In the Southwest, we are looking down 
the barrel of what could be one of the worst drought years ever. I know 
the Department of Interior agencies have to be concerned about the 
drought potential as well.
    Chief Dombeck indicated that the Forest Service has been working 
with a drought commission set up by the State of New Mexico. He also 
committed to working with this commission and with other federal 
agencies on a comprehensive strategy to address the upcoming drought. 
This line of questioning goes to the activities Department of the 
Interior agencies can undertake regarding drought and fire danger in 
the Southwest.
    Question. Please tell me what specific measures are being taken, or 
can be taken, to mitigate fire danger in New Mexico this fire season?
    Answer. The Interior fire management bureaus, in cooperation with 
their interagency partners, have provided severity funding to augment 
initial attack capability. These resources include pre-positioning of 
additional fire crews, staffing engine modules seven days a week, and 
early activation of firefighting resources. To date, the Interior 
bureaus have approved $943,000 for severity activities in New Mexico. 
Plans have been made to activate fire prevention teams to increase 
public awareness of the severe conditions and provide public education 
on measures to reduce unwanted fires. Past examples of such actions 
include having UPS distribute flyers when making deliveries in remote 
areas, public announcements, and internet postings.
    In New Mexico, the Department of the Interior has focused much of 
the hazardous fuel reduction projects on local community protection. 
For example, intensive projects have been conducted on Horse Mountain 
in Catron County, and outside the communities of Pinos Altos and 
Timberon as well as in Organ Mountains to protectadjacent subdivisions.
    Question. Explain what assistance you will need from Congress, 
especially in appropriations, to address fire danger and other drought-
related disasters this year.
    Answer. In the 1997 appropriation, Congress provided $100 million 
in emergency funding to cover unusually high suppression and emergency 
preparedness costs in severe wildfire years. In 1999, about $94 million 
of this funding remains available; $50 million of it contingent on a 
future declaration of emergency by the President. Drought conditions 
throughout many areas in the U.S make it increasingly likely that at 
least some of this contingency funding will need to be used during this 
year's fire season. At the present time, it appears that this funding, 
combined with regular 1999 Wildland Fire Operations appropriation, will 
be adequate to cover these additional emergency needs. We will monitor 
this situation on a regular basis throughout the year and request 
additional funding as necessary.
    Question. Is the Department involved in fire assessment work in 
conjunction with other agencies--particularly USDA's Natural Resources 
Conservation Service and FEMA?
    Answer. The Department is working closely with the U.S. Forest 
Service and the States to assess the current fire situation. The land 
management agencies are working together in the Southwest Fire 
Management Board (Geographic Area Coordination Center), and the 
Southwest Strategy Drought Task Force. The agencies coordinate with the 
National Resources Conservation Service via the Southwest Strategy 
Group and with FEMA through New Mexico State Forestry, a member of the 
Southwest Fire Management Board.
    Question. What can the Department specifically contribute to the 
comprehensive strategy the Forest Service is putting together to 
prepare for the drought?
    Answer. We are a full cooperating participant with the Forest 
Service in drought strategy planning. Severity planning and actions 
outlined above are routinely implemented on an interagency basis.
                            litigation costs
    Question. There has been a question on my mind for quite some time 
as I look at the work of the public lands agencies of the Department of 
Interior and the U.S. Forest Service that have a significant presence 
in the West. That question is: How much money has been spent in New 
Mexico and Arizona on environmental lawsuits?
    Answer. We estimate that the Department of the Interior has spent 
about $3.6 million over the last few years in defending environmental 
lawsuits arising in New Mexico and Arizona under the Endangered Species 
Act and the National Environmental Policy Act. It should be noted that 
a number of these cases were brought, not by environmental 
organizations, but by state and local governments, irrigation 
districts, and interest groups such as the cattle growers associations 
in the two states. Based on the information provided by each bureau and 
office, a breakdown of these costs from fiscal year 1997, 1998, and the 
first half of 1999 is as follows:

------------------------------------------------------------------------
                                               Fiscal years--
          Bureau/office           --------------------------------------
                                       1997         1998         1999
------------------------------------------------------------------------
Office of the Solicitor..........    $291,8000     $256,800     $107,300
Bureau of Reclamation............       72,000       20,000       12,000
Bureau of Land Management........       65,000      120,000       87,000
Fish and Wildlife Service........    1,040,000    1,040,000      520,000
                                  --------------------------------------
      Totals.....................    1,468,800    1,436,800      726,300
------------------------------------------------------------------------

    An additional $226,700 has been spent defending lawsuits under the 
Takings Clause of the Fifth Amendment. These lawsuits involve matters 
growing out of the regulation of oil and gas development in relation to 
other resources, such as other mineral resources and cave resources. A 
breakdown of these costs from fiscal years 1997, 1998, and the first 
half of 1999 is as follows:

------------------------------------------------------------------------
                                               Fiscal years--
          Bureau/office           --------------------------------------
                                       1997         1998         1999
------------------------------------------------------------------------
Office of the Solicitor..........       $3,500       $4,200       $6,900
Bureau of Land Management........       35,900      113,500       62,700
                                  --------------------------------------
      Totals.....................       39,400      117,700       69,600
------------------------------------------------------------------------

    Question. In these lawsuits, how much has been awarded to the 
plaintiffs?
    Answer. Except in the lawsuits under the Takings Clause of the 
Fifth Amendment, these cases involve requests for declaratory and 
injunctive relief. The amounts awarded are therefore limited to court 
costs and attorney fees. A total of $590,300 was awarded during this 
period (FY 1997-99). No takings cases pending during this period have 
yet gone to judgment, so no determinations as to liability or damages 
have been made.
                        bureau of indian affairs
    Secretary Babbitt, I have been impressed with the cooperation from 
your office in addressing the problem of deteriorating BIA elementary 
and secondary schools. Last year this Subcommittee asked for a report 
on the extent of the problem and a five year plan to address the 
problem. When Assistant Secretary Gover testified before this 
Committee, he told us that this report would be reviewed soon by the 
BIA Central Office and OMB.
    Question. What is the status of this review of the planning effort? 
Do you have an estimate of when this Subcommittee will have this 
information?
    Answer. In Senate Report 105-277, the Bureau was directed to 
develop an alternative administrative plan to complete the repair, 
renovation, and reconstruction (including new construction) of all 
education facilities in five years on an annual basis. The effort to 
estimate the cost of replacing or repairing/renovating the schools in 
the Bureau school system has been completed. The Department plans on 
submitting the five-year alternative administrative plan to the 
Committees before the end of May, 1999.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
                        lands legacy initiative
    One big area of concern for me is the Administration's $1 billion 
land grab, more commonly called the Administration's Lands Legacy 
Initiative.
    Question. Why are you proposing to acquire more public lands when 
you are not spending enough to maintain existing public lands?
    Answer. The Department believes that among its responsibilities, it 
needs both to continue to address the deferred maintenance needs and to 
acquire important lands that are increasingly subject to both 
development and cost inflation. Through the 5-year plans, DOI is 
addressing the highest priority critical health and safety projects and 
critical resource protection projects. Through the Lands Legacy 
Initiative and its proposed full funding of the Land and Water 
Conservation Fund, the public will be able to enjoy lands for 
recreation, historical and cultural education purposes through use of 
the receipts from the sale of oil and gas on Federal lands.
    Question. How much of this $1 billion initiative is related to in-
holdings versus new purchases of land?
    Answer. Responses for each of the three DOI land-managing bureaus 
follow:
    The Bureau of Land Management's proposed acquisitions under the 
President's Lands Legacy Initiative include the acquisition of 357,000 
acres of Catellus Corporation ``checkerboard'' inholdings within the 
California Desert at a cost of $28.9 million (these acquisitions 
include critical desert tortoise habitat and inholdings within 
Congressionally-designated Wilderness Areas). Inholding acquisition 
within the Congressionally-designated Upper Missouri National Wild and 
Scenic River corridor, an area of national significance (including the 
nearly pristine route of the Lewis and Clark National Historic Trail), 
at a cost of $5 million, is also proposed. All ten of BLM proposed 
acquisitions, totaling a request of $43.9 million, are within BLM 
approved or Congressionally designated special areas and face imminent 
conversion from agricultural use to rural residential subdivision.
    The Fish and Wildlife Service defines an inholding as any lands not 
in Federal ownership within an approved project. All of the $73.6 
million in lands proposed for acquisition are considered to be 
inholdings.
    Except for $45.6 million to be granted to the State of Florida for 
acquisition related to the restoration of the Everglades, the portion 
of the Land Legacy Initiative designed for Federal land acquisition 
within the National Park System will be used to acquire only those 
high-priority, non-Federal lands which are located within the 
authorized boundaries of units of the System. It is important to note 
that the term inholdings for NPS technically refers only to pre-fiscal 
year 1960 tracts within unit boundaries. Requested funds for these NPS 
inholdings/exchanges total $4.0 million in fiscal year 2000. The 
balance of the NPS funds is $122.9 million that will be used for 
acquisition of tracts within recently authorized (post-fiscal year 
1960) boundaries within NPS units.
    Question. Since you stated that you can accomplish this Initiative 
under current laws, what specific statutory provisions authorize it?
    Answer. The President's Budget recognizes that several existing 
authorized programs in the Departments of the Interior, Agriculture, 
and Commerce serve conservation purposes similar in nature to those 
authorized to be funded out of the Land and Water Conservation Fund. 
What is proposed for fiscal year 2000 is that this be done through the 
appropriations process. For fiscal year 2001 and thereafter, the 
President has indicated a desire to work with Congress on legislative 
authority that would provide a permanent source of funding to meet the 
Lands Legacy Initiative goals.
    Additionally, there will be regular coordination and information 
sharing among the Federal interagency team to ensure that the programs 
and funding are efficiently deployed.
                              pilt funding
    Along the same lines about the Administration's lack of adequate 
funding for land in their trust, I understand the Administration once 
again is proposing to provide insufficient PILT funding to the states.
    Question. Why does the administration continue to avoid fulfilling 
this responsibility to our counties?
    Answer. The Department understands the phrase ``avoid fulfilling 
this responsibility to our counties'' to refer to the disparity between 
appropriated funding levels and those authorized by Congress in the 
1994 amendments to the PILT Act. In fact, the Administration has 
consistently submitted what it considers to be good faith budget 
requests for the PILT program within the constraints imposed by 
discretionary funding caps. That support is reflected in a funding 
increase of nearly 25 percent from implementation of the amended PILT 
Act in 1995 to the present budget request. That level of increase is 
greater than many of the programs for which the Department is 
responsible, among them remediation of hazardous waste sites, 
management of cultural and historic resources on the public lands, and 
various on-the-ground management improvements.
    The proposed fiscal year 2000 budget for PILT is $125 million, the 
same as the amount agreed to by the House and Senate in passing the 
Department's 1999 appropriation. In addition to PILT, other program 
revenues are paid directly to States and counties for their use. 
Moreover, the Administration is proposing a program to stabilize at a 
predictable and high level payments to counties and States in which 
harvest of timber on Federal land takes place. This proposal will 
complement other cooperative arrangements involving State and local 
government that are included in the Lands Legacy initiative.
    Question. Why is the Department proposing to expand holdings of 
public lands while not providing sufficient payments to reimburse 
states and counties for the reduced amount of taxable lands upon which 
they depend for their economic base?
    Answer. The Lands Legacy initiative will allow the Department to 
help fulfill some of its underlying stewardship responsibilities in a 
manner that improves the quality of life for all people. This will be 
accomplished by protecting the Nation's open spaces for recreation and 
wildlife, and by preserving historic and cultural resources for future 
generations. As discussed above, the Department is limited in proposing 
large funding increases for PILT by limitations on discretionary 
spending that constrain the Department's entire request. However, in 
fiscal year 2000 the public lands will generate an estimated $1.4 
billion in receipts from various sources including the sale of land and 
materials, grazing fees, timber sales, recreation use fees, and mineral 
leasing operations. In part, these receipts supplement PILT payments as 
nearly one half of these receipts is shared with the states and 
counties. Additionally, the BLM's contributions to state and local 
economies goes well beyond PILT payments and revenue sharing, 
particularly when one considers the impacts of tourism on economic 
development and the benefits that communities derive from conservation 
efforts.
    Question. I presume you believe in making full payment to local 
communities for land withdrawn from their tax base by the Federal 
government. If so, what are you doing to ensure this is done?
    Answer. The Department of the Interior fully understands that PILT 
payments are an important source of income for many counties, as are 
other revenue sharing programs. However, an increase for PILT was not 
included in the President's fiscal year 2000 budget request, and the 
Department would not support additional funding for PILT at the expense 
of BLM operating funds or other Administration priorities. Increased 
funding for BLM operations supports programs that provide significant 
services, resources, and tangible benefits to the public. Federal 
payments to counties and States supplement those benefits in supporting 
the health of local economies.
                maintenance and capital improvement plan
    I am glad to see that the Department of the Interior has developed 
a 5-year Maintenance and Capital Improvement Plan among its bureaus. 
This is an important step to restore deteriorating assets of our 
national lands.
    Question. What is the Department's value of its total long-term 
maintenance backlog?
    Answer. According to data collected in response to the fiscal year 
1998 Federal Accounting Standards Advisory Board's Standard Number Six, 
DOI's estimated unmet deferred maintenance needs range from $7 billion 
to $16 billion. Better estimates will become available as the 
Department and bureaus begin the multi-year cycle of condition 
assessments proposed in the fiscal year 2000 budget.
    Question. How much of this backlog will be addressed by your fiscal 
year 2000 request?
    Answer. The fiscal year 2000 President's Budget for BLM includes a 
request for $12.7 million in the Management of Lands and Resources and 
$2.6 million in the Oregon and California Grant Lands accounts for 
deferred maintenance work. All of these funds are targeted to project 
work that will reduce deferred maintenance. In addition, approximately 
$2.2 million of the construction request and $4.2 million of BLM's 
portion of the fire facilities request would be directed to reducing 
the deferred maintenance needs. Bureau-wide $21.7 million in reduced 
deferred maintenance needs will be addressed.
    The USGS expects that the $1.5 million request for each year of 
fiscal year 2000 to fiscal year 2004 will address $5.628 million or 
approximately eight percent of the USGS health and safety deferred 
maintenance needs.
    The U.S. Fish and Wildlife Service currently proposes to target 
$605 million of the most critical health, safety, and natural resource 
protection needs.
    The fiscal year 1999 FWS appropriations and special Title V funding 
will reduce the targeted critical maintenance needs by 15 percent. The 
President's fiscal year 2000 Budget includes $64.5 million in 
maintenance, equipment replacement, and construction projects which 
will reduce the most critical needs by another 10.7 percent. The FWS 
Five-Year Maintenance and Capital Improvement Plan includes another 
$236.5 million to address critical current deferred maintenance and 
equipment replacement needs over the 2001-2004 fiscal years. Also, 
annual maintenance funding will help reduce the long-term problem by 
correcting smaller maintenance projects to keep them from growing 
larger.
    The NPS anticipates addressing approximately $112 million in 
deferred maintenance as a result of its fiscal year 2000 proposal, as 
contained in the 5-year Plan. During the life of the 5-year plan as 
currently proposed, a total estimated at $704 million would be devoted 
to deferred maintenance.
    With the requested BIA funding level for fiscal year 2000, the 
deferred maintenance will be reduced by $25.3 million for Facilities 
Construction and Repair and by $23.3 million for Resources Management 
construction.
    Question. What is your planned schedule to fully address this 
existing long-term maintenance backlog of existing public lands and 
facilities?
    Answer. Rather than developing a schedule to address the full 
existing long-term maintenance backlog, the Department and bureaus in 
fiscal year 2000 have determined that the best use of available funding 
is to first address the highest priority critical health and safety and 
critical resource protection projects in a 5-year plan that will be 
updated annually. These lists submitted to the Congress set out the 
priority work; and accomplishments will be reported on a project-by-
project basis after the conclusion of the fiscal year.
                      grizzly bear reintroduction
    I am really concerned about the eagerness of your Department to 
consider listing species as ``threatened or ``endangered'' under the 
Endangered Species Act. For example, you proposed listing of the 
Mountain Plover and the Black-tailed Prairie Dog without sufficient 
scientific data on the populations of these species. Also you continue 
to list the grizzly bear even though there is convincing evidence that 
they can survive and prosper. Finally, I understand you have numerous 
additional species to consider for designation as ``threatened'' or 
endangered''.
    Question. What scientific basis do you have for continuing to 
introduce the grizzly bear in the Bitterroot-Selway area in light of 
data that shows the bear has a less than one in one million chance of 
going extinct without this introduction effort?
    Answer. The recently released report on the probability of 
extinction of Rocky Mountain grizzly bears actually identifies a wide 
range of extinction probabilities, based on different assumptions 
(Boyce 1999) Without establishment of a Bitterroot population, the 
estimates for probability of extinction ranged as high as 3 in 1,000. 
Establishment of a Bitterroot population reduces the probability of 
extinction by 88-99 percent in different cases. The report concludes 
that ``adding additional areas . . . greatly improves the probability 
of existence and therefore the effectiveness of conservation for the 
grizzly bear.'' The projection of one in one million was based not on 
today's circumstances, rather it was based on future projections once 
all five grizzly bear ecosystems in the Rocky Mountains are recovered.
    Question. What does it take to demonstrate that grizzly bears are 
not endangered and should be delisted?
    Answer. Population numbers in all of the ecosystems, with the 
exception of the Yellowstone ecosystem, need to improve considerably 
before the goals established in the Grizzly Bear Recovery Plan can be 
attained. Once recovery goals are reached in each ecosystem, a status 
review of each population and a re-analysis of the five listing factors 
will be necessary steps leading to delisting. At this time, only the 
Yellowstone Ecosystem grizzly population is under study for potential 
delisting.
    Question. How do you involve the states in your review of proposed 
designations?
    Answer. It is our policy to coordinate all Endangered Species Act 
activities closely with state fish and wildlife agencies, because they 
possess important expertise and broad trustee and jurisdictional powers 
on fish, wildlife, and plant species. We published a Notice of 
Interagency Cooperative Policy Regarding the Role of State Agencies in 
Endangered Species Act Activities in the Federal Register (Vol. 59, No. 
126, page 34274), that explains our procedures.
    Question. How many other candidate species is the Department 
working on now for consideration as ``threatened'' or ``endangered?''
    Answer. As of April 30, 1999, the FWS has a total of 154 species 
(72 animals and 82 plants) that are candidates for listing. A candidate 
is defined as a species for which we have on file substantial 
information on biological vulnerability and threats to support a 
proposal to list as threatened or endangered.
                       domestic energy industries
    I am concerned about your Department's view of limiting economic 
development of our domestic energy industries (such as oil, natural 
gas, and coal) given record low oil prices, record layoffs in these 
industries, and record shut-down of wells.
    Question. What is the Department doing, beyond granting lease 
extensions, to enhance production of our domestic energy industries?
    Answer. The Department has not granted any lease extensions for 
onshore wells, or any other wells for that matter. The Department, as 
well as many in the oil and gas industry, does not support granting 
lease extensions. The Department believes that a lease term of 10 years 
is ample time for a company to decide whether to drill or not.
    The Department has, however, recently given operators of stripper 
oil properties the option of suspending operations on those stripper 
properties for up to two years, as long as the price of West Texas 
Intermediate crude oil is below $15 bbl. If this option is exercised, 
then the operator pays no minimum royalty or rentals and the lease 
stays in force during that time period, thus preserving a very valuable 
domestic resource until better economic conditions exist.
    Question. What is your policy on access to public lands for energy 
exploration and/or development?
    Answer. As you know, the Department operates federal lands under a 
multiple-use mandate. This means that the Department policy must 
balance multiple and sometimes competing uses for federal land. Given 
this fact, the Department and the Administration have actively 
supported and advocated many measures that have contributed favorably 
to the economic competitiveness of the domestic oil and gas industry 
over the past six and one half years. These measures include support 
for the Royalty Fairness and Simplification Act, Deepwater Royalty 
Relief, repeal of the Alaska North Slope export ban, and heavy and 
stripper oil royalty rate reductions on Federal lands. Also, the 
Department of the Interior is working jointly with the Department of 
Energy (DOE) to replenish the Strategic Petroleum Reserve with 28 
million barrels of Federal royalty-in-kind oil from the Gulf of Mexico, 
which will enhance our nation's energy security.
    Question. Has the Department of the Interior given any thought to 
expanding the royalty relief program to all uneconomic oil wells which 
are beyond 15 barrels per day?
    Answer. The Department has been approached by industry concerning 
expanding its royalty rate relief threshold above 15 barrels per day. 
Today, on an individual basis, producers may request relief from the 
BLM if they can demonstrate that producing under current conditions is 
uneconomic. To grant royalty relief across-the-board for all uneconomic 
wells would require a comprehensive analysis of the costs and benefits 
of such an expansion of the program.
                         crown butte agreement
    I am concerned that the Administration is once again trying to 
avoid its commitment in the Crown Butte agreement to transfer $10 
million of Federal mineral rights to the State of Montana following the 
Crown Butte Settlement. This settlement recognizes the need to 
compensate the revenue lost by the State of Montana following the 
Administration's interference with a proposed mine location. Despite 
previous promises, the Administration does not want to honor their 
agreement with the State of Montana.
    Question. What actions is the Department of the Interior taking to 
honor this commitment?
    Answer. The Department of the Interior is complying with Section 
503(a) of the fiscal year 1998 Omnibus Appropriations Act, which 
requires the Secretary of the Interior to negotiate with the Governor 
of Montana on the conveyance of ``$10,000,000 in federal mineral 
rights.'' Only if such negotiations are not successful does the statute 
contemplate the possible conveyance of the Otter Creek tracts. The 
Secretary has met with Governor Racicot of Montana to discuss 
implementation of this section. Governor Racicot has expressed interest 
in the Otter Creek tracts but has not responded to the Secretary's 
efforts to discuss other options. The Secretary will continue to pursue 
negotiations with Governor Racicot until the statutory time frame for 
negotiations expires on January 1, 2001.
    Question. What action do you propose I take to satisfy my state's 
needs, short of specific mandates in your appropriations?
    Answer. Any assistance that the Montana delegation could offer in 
bringing the State of Montana to the table to negotiate the transfer of 
$10 million in federal mineral rights is appreciated.
    Question. What is objectionable about the Otter Creek site?
    Answer. The Administration objects to the transfer of publicly 
owned mineral assets in Montana to the State. Section 503 sets an 
unacceptable precedent by requiring compensation to a State for a 
transaction between the Federal Government and a willing seller. This 
is why the President included in his fiscal year 2000 budget request a 
proposal to repeal Section 503. Transferring the Otter Creek tracts 
could be particularly troublesome in opening an undisturbed area to 
mineral development with consequential environmental disruption and 
local controversy. Transferring other assets (including mineral 
resources in more developed areas) would result in fewer ecological 
impacts, while still providing the State with the ``federal mineral 
rights'' called for in the 1998 appropriation.
    Question. What is your preferred alternative site that you have 
proposed to the Governor and why is it preferred?
    Answer. The Secretary of the Interior is willing to consider 
conveying an income stream from producing federal oil and gas leases to 
the State of Montana. We have identified a number of properties that 
could produce an income stream to satisfy the terms of the statute.
    Question. What actions do you believe the state and the Department 
need to take now to finalize this deal?
    Answer. The deal cannot be finalized until the State indicates a 
willingness to reopen negotiations.
    Question. What happens if the state and the Department come to an 
impasse?
    Answer: Under terms of Section 503, the Secretary and the State of 
Montana must reach agreement on the mineral rights to be transferred by 
January 1, 2001. If no agreement has been reached by that date, and if 
Section 503 has not been repealed, the Department will fulfill the 
requirements of the law.
                       montana mineral withdrawal
    Recent mineral withdrawal of 430,000 acres of public lands in 
Montana has raised a lot of attention and you have told Montana's 
governor that coal extraction is no longer needed in eastern Montana.
    Question. Why is the Administration continuing to lock out 
prospective and economically viable activities on public lands?
    Answer. The area in question (430,000 acres) is entirely on lands 
administered by the U.S. Forest Service in Montana. BLM is responsible 
through the Federal Land Management and Policy Act for accepting and 
processing Forest Service withdrawal proposals and forwarding those 
proposals to the Secretary for approval of a Public Land Order. 
Generally, BLM defers to the managing agency (U.S. Forest Service) to 
respond to questions about its management activities.
    Question. What is the Administration's ultimate objective on 
hardrock mining and how do you propose to implement it?
    Answer. The Administration seeks to encourage the environmentally 
responsible development of mineral resources. The Administration also 
seeks to ensure the public receives a fair return for public land 
resources. The Administration recognizes the importance of mineral 
development to local communities, particularly in the West, as well as 
to the nation's economy. The Administration balances the need to make 
lands available for mineral development with its responsibility to 
ensure such development is conducted in an environmentally sound 
manner.
    Question. Finally, why was this action not pursued through the 
traditional forest planning process.
    Answer. The U.S. Forest Service is responsible for developing and 
implementing Forest Plans. As such, the Secretary of Agriculture and U. 
S. Forest Service would be the appropriate land management agency to 
discuss forest planning matters.
                    onshore oil and gas regulations
    Question. I understand that proposed revisions to BLM's Onshore Oil 
and Gas regulations and a proposed new rule on royalty appeals would 
institute new fees on the industry that the Department does not 
currently collect. Why do you believe now is an appropriate time to 
levy new fees on an ailing domestic industry? What impact do you 
believe will occur on the industry with these new fees?
    Answer. While most of the proposed onshore oil and gas regulations 
do not represent a change from current policy or procedures, the 
changes that are proposed generally lessen the administrative burden on 
industry. Two changes proposed by the BLM will add new fees. The new 
geophysical fair market value fee is designed to provide the public a 
fair return for the use of its resources. The optional idle well fee is 
designed to provide a low-cost alternative to a bond increase in order 
to prevent future liabilities from operators who do not comply with 
requirements. Economic analysis on the idle well fee does not indicate 
a significant cost burden on industry. The Department believes this fee 
balances the economic realities faced by operators with the Federal 
Government's obligation to protect public resources.
    The Minerals Management Service, which has responsibility for 
royalty appeals, has proposed a regulation that would charge fees for 
processing such appeals. The Department does not view the charging of a 
modest fee to process appeals as burdensome on industry. Charging a fee 
to process appeals supports the Department's general cost recovery 
policy, though the proposed $150 fee in no way covers all appeals' 
costs. In addition, the fee may help discourage frivolous appeals of a 
sound onshore royalty policy.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
    In July of 1995, the Department issued a proposed draft rule to 
remove the Peregrine Falcon from the Endangered Species list. In August 
of 1998, the Department issued a proposed final rule to remove the 
Peregrine Falcon from the Endangered Species list. With nearly 1,200 
species being added to the Endangered Species list, the Peregrine is 
one of only a few that have been recovered.
    Question. What is the status of the de-listing of the Peregrine 
Falcon?
    Answer. The comment period on the draft rule has closed and the 
field office is addressing comments and preparing the Final Rule 
package.
    Question. When will the de-listing be accomplished?
    Answer. The Final Rule is expected to be approved and published in 
the Federal Register in August 1999.
    Question. What is the status of the other species included in your 
May 1998 announcement which addresses a more aggressive de-listing 
strategy?
    Answer. The American peregrine falcon, Dismal Swamp southeastern 
shrew, and Lloyd's hedgehog cactus are all close to being delisted. The 
FWS anticipates completion of the final rule to delist these three 
species by the end of fiscal year 1999. The FWS also has several 
species that are in various stages of being proposed for delisting or 
reclassified to threatened. These include such species as the Douglas 
County population -Columbian white-tailed deer (delisting), Aleutian 
Canada goose (delisting), brown pelican (delisting), bald eagle 
(delisting), and gray wolf (delisting and reclassification).
    The following table includes the expected delisting actions for the 
next two years.

  POSSIBLE FWS DELISTING AND RECLASSIFICATION ACTIONS FOR FISCAL YEARS
                              1999-2000 \1\
                              [May 5, 1999]
------------------------------------------------------------------------
                                Action being     Lead       Reason for
           Species             considered \2\   region        action
------------------------------------------------------------------------
American peregrine falcon....  FD............        1   Recovery.
Columbian white-tailed deer    PD............        1   Recovery.
 (Douglas Co. pop.).
Hoover's wooly star..........  PD............        1   Recovery & New
                                                          Information.
Tinian monarch (a bird) \3\..  PD............        1   Recovery.
Tidewater goby...............  PD............        1   Recovery & New
                                                          Information.
Chamaesyce skottsbergii var.   PR>T..........        1   Taxonomic
 kalaeloana.                                              Revision.
Eureka Valley dune plants \2\  PR>T..........        1   Recovery.
Santa Cruz cypress...........  PD............        1   Recovery.
Truckee barberry.............  PD............        1   Taxonomic
                                                          Revision.
Guam broadbill & Mariana       PD............        1   Presumed
 mallard.                                                 Extinct.
Brown pelican (Gulf Coast      PD/FD.........        2   Recovery.
 pop.).
San Marcos gambusia (a fish).  PD............        2   Presumed
                                                          Extinct.
Johnston's frankenia.........  PD............        2   New
                                                          Information.
Yuma clapper rail............  PD............        2   Recovery.
Gray wolf....................  PR>T/PD.......        3   Recovery.
Bald eagle...................  PD............        3   Recovery.
Missouri bladder-pod.........  PR>T..........        3   Recovery & New
                                                          Information.
Running buffalo clover.......  PR>T..........        3   Recovery & New
                                                          Information.
Dwarf-flowered heartleaf.....  PD............        4   Recovery & New
                                                          Information.
Large-flowered skullcap......  PR>T..........        4   Recovery & New
                                                          Information.
Dismal Swamp southeastern      FD............        5   New
 shrew.                                                   Information.
Robbin's cinquefoil..........  PR>T..........        5   Recovery.
Heliotrope milk-vetch........  PD............        6   Recovery.
Aleutian Canada goose........  PD............        7   Recovery.
Spectacled eider (Arctic       PD............        7   New
 Russia pop.).                                            Information.
Grizzly bear (Yellowstone      PD............        6   Recovery.
 ecosystem).
Lloyd's hedgehog cactus......  FD............        2   New
                                                          Information.
Arizona hedgehog cactus......  PD............        2   Taxonomic
                                                          Revision.
------------------------------------------------------------------------
PD=Proposed Delisting Action
FD=Final Delisting Action
PR>T=Proposed Reclassification (Endangered to Threatened)
\1\ This list is not intended to be comprehensive. Delisting or
  downlisting actions may be processed for species other than those
  appearing on this list.
\2\ The action actually proposed or finalized may differ from that
  currently being considered.
\3\ Although the FWS has received a petition requesting delisting of
  this species, the possible delisting or downlisting action is a FWS
  initiative rather than a result of the petition.

                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                 harpers ferry national historical park
    The Harpers Ferry National Historical Park suffered severe damage 
in 1996 and 1997 from flooding and ice storms.
    Question. What damage remains to be repaired from these events?
    Answer. Harpers Ferry Historical Park has four remaining repair 
projects as a result of the flood and storm damage occurring from two 
major weather events in 1995-1996. In fiscal year 1999, Congress 
appropriated $400,000 to complete the repairs to three of the four 
remaining projects. These three projects are the roof and doors of the 
Stephenson, Anderson, and Wager buildings, the John Brown Fort, and the 
cotton mill on Virginius Island. The fourth, and last, storm project, 
is the repair and replacement of roofs on four buildings on Marmion 
Row.
    Question. How much will it cost to complete the repairs?
    Answer. The estimated cost to complete the repairs caused by the 
most recent storm is an additional $600,000. This will repair and 
replace the roofs on four buildings on Marmion Row. These four 
buildings are the Harper House (Bldg 1A), the Wager House (Bldg 1B), 
and two Mormion Tennant Houses (Bldgs 1C and 1D).
    The West Virginia Division of Highways has begun the replacement of 
the U.S. 340 bridge over Shenandoah River at Harpers Ferry.
    Question. What is the impact of this construction on the Park?
    Answer. A wider and longer bridge will replace the existing bridge, 
which is scheduled to be removed when the replacement bridge is 
completed. This bridge replacement project has been the subject of 
extensive environmental review, and all necessary measures to mitigate 
the effects of the bridge on the park have been taken. The National 
Park Service, West Virginia State Historic Preservation Officer, and 
the Advisory Commission on Historic Preservation continue to monitor 
progress of the bridge construction to assure that the terms of 
mitigating the impact of the bridge upon the National Historical Park 
are fully implemented.
    Question. When will the bridge work be completed?
    Answer. The West Virginia Department of Highways is projecting a 
completion date of December, 2000.
    Question. Is the Park incurring any extra costs because of this 
construction?
    Answer. The park has been able to absorb all costs related to the 
new bridge within existing operating funds. The bridge contract is 
comprehensive and all funding necessary to establish new rights of way, 
to repair park roads, and to reforest park lands from construction 
activities is included in the bridge contract undertaken by the State 
of West Virginia. One issue that has surfaced, however, between the 
Town of Harpers Ferry, the West Virginia Department of Highways, and 
the NPS that was not included in the specifications of the bridge 
replacement contract, is the relocation of the Town's waterline and 
extension of the waterline to service the park. Discussion is underway, 
but a cost estimate has not been prepared. It cannot be determined at 
this time what, if any, cost to relocate the waterline might have to be 
funded by the NPS.
    In fiscal year 1999, $8 million was appropriated to the NPS for 
land acquisition matching grants to help preserve Civil War battlefield 
sites, of which $1 million was for Harper's Ferry.
    Question. What is the status of the effort?
    Answer. Currently, the Civil War Trust is taking the lead in trying 
to preserve the School House Ridge Battlefield at Harpers Ferry. The 
Civil War Trust has recently discussed purchase of 233 acres of the 
battlefield from the estate of Dixie Kilham. The estate holds one of 
the most significant Civil War properties on School House Ridge. An 
appraisal of this property has been ordered by the Trust and a 
negotiation with the Executrix of the estate continues. The Trust 
expects to make an offer when the appraisal is complete. This property 
is adjacent to the 56-acre parcel purchased by the Civil War Trust in 
1993 and donated to become part of Harpers Ferry National Historical 
Park in 1998. The Civil War Trust has been in contact with members of 
the West Virginia State Legislature, regarding West Virginia Civil War 
sites and creating a Civil War Discovery Trail linking sites within the 
State.
    Question. What group is providing the matching funds?
    Answer. In order to acquire the property, the Civil War Trust is 
seeking partners to raise the matching funds. As yet no specific 
nonprofit organization has been identified, but negotiations continue 
with various funds sources such as the Conservation Trust.
    Question. Does this effort have the support of the county and 
residents of Harpers Ferry?
    Answer. The Mayor of Harpers Ferry has gone on record stating town 
residents favor preservation of the battlefield and want to maintain 
the quality of life the community derives from the town's historic 
setting. Many Jefferson County Commissioners have stated publicly they 
favor protection of the battlefield. However, commissioners find 
themselves caught in a dilemma wanting national resources protected, 
yet fielding requests from local developers to build on the 
battlefield.
    Question. What group will be the most likely owner of these lands 
in the short-term and the long-term?
    Answer. The battlefield is currently a mixture of Federal 
Government and privately owned lands. If additional private lands are 
acquired, they will most likely be held by private nonprofit 
organizations or by private land developers.
    Question. What are the greatest threats to preserving and 
maintaining the rich history of the Harpers Ferry area?
    Answer. The greatest threat to preserving and maintaining the rich 
history of the Harpers Ferry area is the impact of development on 
nationally significant battlefield lands. School House Ridge is the 
State of West Virginia's most significant Civil War battlefield and an 
integral part of Harpers Ferry's history. Harpers Ferry is threatened 
by three factors. First, a lack of coordinated strategy to protect the 
battlefield. Secondly, a lack of greater nonprofit organization 
involvement in West Virginia's number-one battlefield issue. And the 
third factor is the proposed placement of yet another housing 
development on the battlefield.
    Without the protection of the School House Ridge battlefield from 
housing development and similar intrusions, the attractiveness of the 
park to the visiting pubic will be greatly diminished.
           harpers ferry center for interpretation and design
    Question. What services are provided to the National Park Service 
by the Harpers Ferry Center for interpretation and design?
    Answer. The Harpers Ferry Center (HFC) plans, designs, and produces 
interpretive media to the 378 units of the National Park System, 
consisting of the following:
    Publications.--park brochures, handbooks, maps, and posters that 
provide visitors with important park information, such as significance 
and health and safety information.
    Museum and Visitor Center Exhibits.--graphics, text and significant 
objects, usually encased and placed within visitor centers or museums 
to help interpret significant park themes.
    Audiovisual Programs.--films, videotape and videodisk productions, 
sound tracks, interactive video products, and computer-driven graphic 
programs. In addition, HFC provides installation, repair and 
replacement services for audiovisual equipment throughout the National 
Park System.
    Wayside Exhibits.--outdoor text and graphic panels. Historic 
Furnishings: historic structures such as rooms or entire buildings that 
are furnished with original or replicated objects appropriate for the 
time period being interpreted.
    Conservation.--treatment and preservation of historic, 
ethnographic, or natural objects included in exhibits.
    Interpretive Planning.--the development of plans that establish the 
modes of interpretation most appropriate for each park, including 
program priorities, staffing, and the recommended types of interpretive 
media.
    HFC staff handle most planning and design work, although there is 
increasing reliance on the use of contractors. Virtually all production 
(exhibits, exhibit cases, wayside exhibits and many audiovisual 
products and historic furnishing replicas) is carried out by 
contractors.
    Question. How would you characterize the importance and usefulness 
of these services?
    Answer. Harpers Ferry Center makes a major contribution to the 
mission of the National Park Service by enhancing, expanding, and 
establishing professional standards to support the parks' interpretive 
and educational missions thus creating a better informed and more 
appreciative park visitor. The payback for this is greater support for 
the preservation and protection of the invaluable natural and cultural 
resources for which the agency is responsible.
    A distinguishing characteristic of the National Park Service is 
that not only does it preserve and protect natural and cultural areas 
but it also undertakes the task of educating the public about these 
places. The National Park Service believes it is important that the 
public understands the significance of these places in the natural 
world or in the history of the Nation, how they function, and why they 
are important to all Americans. This responsibility is carried out with 
the full realization that park visitors are generally in a hurry and 
park interpretive staff may only have their attention for a small 
fraction of any travel day for personal-service interpretation, such as 
guided talks and theater presentations.
    It is important to be able to condense a large amount of 
information and encapsulate it in a compelling and accurate manner. 
This is done through the employment of ``interpretive media,'' in the 
form of park brochures, handbooks, and posters, museum exhibits trail 
or wayside exhibit panels, and audiovisual programs. The Harpers Ferry 
Center is responsible for providing these media to the parks and thus 
helping to ensure the success of each park's educational/interpretive 
mission.
    Question. How has the role of the Center for the National Park 
Service evolved over the past ten years?
    Answer. During the 1960s, the National Park System underwent an 
explosive growth in the number of new areas and visitation. It became 
apparent by 1964 that the National Park Service was unable to keep pace 
in either volume or quality of its interpretive and educational 
programs and media, such as films, exhibits, and publications. The 
National Park Service was hampered by the fact that its interpretive 
design professionals were stationed in various offices scattered around 
the nation. In 1964, the NPS Director created a new office, the 
Division of Interpretation and directed its first chief to fix the 
problem. The solution was to bring together all NPS planning and design 
specialists in museum and visitor center exhibits, artifact 
conservation, historic furnishings, audiovisual products and services, 
and publications under one roof and thus consolidate their efforts. 
This idea led to the creation of the Harpers Ferry Center, which opened 
its doors in March 1970.
    The National Park Service leadership chose Harpers Ferry, West 
Virginia as the location for the new interpretive center in order to 
co-locate with the new Mather Training Center. The Mather Training 
Center's primary purpose was the training of park interpreters, and NPS 
saw significant value in having frequent interaction between those 
National Park Service employees charged with the delivery of 
interpretive programs and those employees who developed media programs 
to support them.
    In 1970, the National Park Service was more centrally organized 
than it is now. Then HFC had near-total control over certain funding in 
such a manner that parks were required to fulfill their interpretive 
media needs, such as slide programs, motion pictures, audio programs, 
outdoor exhibit panels, museum exhibits and publications, at HFC. In 
addition, HFC was a full service facility, responsible for the 
planning, design, and fabrication of all interpretive media products.
    By 1976, the Harpers Ferry Center had 136 employees. Its total 
budget was $12,388,000. By 1986 these numbers had increased in parallel 
with the growth of the National Park System to 229 employees with an 
annual budget from all funding sources of $14,500,700. This increase 
occurred in spite of the decision to eliminate the exhibit fabrication 
shop and accomplish this work through contracts with private sector 
firms. The HFC workforce reached its maximum level of 264 in 1993.
    Question. Please provide a table showing the total funding received 
by the Center from each of the various types of sources (direct 
appropriations, reimbursements from other parks, reimbursements from 
non-NPS sources).
    Answer. The information is shown below: 
    [GRAPHIC] [TIFF OMITTED] T06AP22.001
    
    Question. What is the total of full-time staffing level anticipated 
in fiscal year 2000 for the Harpers Ferry Center?
    Answer. It is anticipated that HFC will utilize 187 FTE.
    Question. What part of this staff is supported by direct 
appropriation versus reimbursements from individual parks for specific 
work performed by the Center on behalf of the park?
    Answer. Of the 187 FTE, an estimated 57 percent (107.5 FTE) is 
funded from direct appropriations; and 43 percent (79.5 FTE) is funded 
from project or park funding.
    Question. Please provide a table showing the staffing level of the 
Harpers Ferry Center for each of the past ten years divided between 
those supported by direct appropriation, those supported by 
reimbursements from other park units, and those supported by other 
sources.
    Answer. The information follows:

                                                 FISCAL YEAR FTE
----------------------------------------------------------------------------------------------------------------
           Fund source              1989   1990   1991   1992   1993   1994   1995   1996   1997   1998    1999
----------------------------------------------------------------------------------------------------------------
Direct Appropriation.............    126    136    133    133    131    126    120   98.5   98.5   106.5   107.5
Park Reimbursable................    107     96    103    131    119     84     79   60.5   61.5    68.5      73
Non-Park Reimbursable............     11    8.5      9      6     14     11      7      5      5       5     6.5
----------------------------------------------------------------------------------------------------------------

    Question. What other preservation, interpretive, and design 
activities are undertaken by the National Park Service outside those at 
the Center?
    Answer. Some parks, especially the larger ones such as Yellowstone 
or Grand Canyon NPs are able to undertake certain levels of 
preservation, interpretive and design activities on their own, or with 
assistance from the HFC.
    In several instances the parks' cooperating associations are able 
to produce interpretive products, such as publications, maps, and 
videotapes for sale in the parks. When parks undertake to produce their 
own interpretive media, they are to incorporate the standards in terms 
of appearance and accuracy set by HFC and they can rely on assistance 
from the HFC.
    Smaller parks are generally unable to produce their interpretive 
media and thus have greater reliance on HFC. The Harpers Ferry Center 
is not staffed to meet all needs however, and these parks must either 
get on the HFC priority work list or obtain contract assistance and 
advice from the center to meet their needs.
    The NPS Historic Preservation Training Center handles a good deal 
of preservation work, but it is carried out on structures. The Denver 
Service Center also arranges for preservation work on park structures, 
but not on individual exhibits or objects. The NPS Archeological 
Centers at Tallahassee, Santa Fe, Lincoln, Nebraska, and Tucson handle 
preservation work on archeologically recovered artifact material.
    Some interpretive planning work is carried out by the various 
Service's Regional Offices, but it is generally in the form of 
assisting parks to carry out interpretive planning.
                     new river gorge national river
New River Parkway
    Question. What is the status of the New River Parkway?
    Answer. According to the West Virginia Division of Highways 
(WVDOH), a final Environmental Impact Statement (EIS) is being 
completed based on comments that have been received from the public 
meetings that were held on the draft EIS in April and May of 1998. The 
office is also addressing comments from State and Federal agencies.
    Question. When will the final EIS be completed?
    Answer. The EIS is scheduled to be completed in June 1999.
    Question. What preferred alternative will most likely be included 
in the final EIS?
    Answer. The WVDOH believes that Alternative 2A/2D will be included 
in the final EIS. This alternative provides for a bridge crossing from 
West Virginia Highway 20 just upstream of Sandstone to the west side of 
the river, following the existing location of West Virginia Highway 26 
to the Hinton New River Bridge.
    Question. Does the National Park Service agree with this preferred 
alternative?
    Answer. Provided the terms of the Memorandum of Understanding are 
followed, the National Park Service does agree with this alternative.
    Question. What funds have been appropriated to date for the New 
River Parkway?
    Answer. According to the West Virginia Division of Highways, $17.6 
million was included in the Surface Transportation and Uniform 
Relocation Assistance Act of 1987 as a demonstration project.
    Question. What funds remain on hand for the New River Parkway?
    Answer. The WVDOH states that approximately $9 million is 
available.
    Question. What is the total construction cost associated with the 
expected preferred alternative?
    Answer. The total construction cost, according to the WVDOH, is 
approximately $40 million.
    Question. What concerns does the National Park Service have 
regarding the development and construction of the preferred 
alternative?
    Answer. The National Park Service listed several concerns in the 
June 30, 1998, Department of the Interior comment letter on the Draft 
EIS for this project. The most critical issues were excerpted and are 
now contained in the Memorandum of Agreement which is to be signed by 
the National Park Service, West Virginia Department of Highways, 
Federal Highway Administration, and the New River Parkway Authority. 
This will ensure, for example, that there are no impacts to wetlands, 
that all land between the road and the river is acquired by the Highway 
Department in fee or less-than-fee (easements), and that the proposed 
recreation facilities are developed.
    The draft EIS notes that a significant increase in traffic is 
expected due to the parkway's eventual link with I-64, and that 
development pressures could quickly degrade the very resource values 
for which the national river was established. If these pressures are 
not controlled, the outstanding visual qualities of this 9-mile 
corridor could be forever lost, rendering the parkway ``just another 
road,'' rather than a scenic parkway.
Thurmond
    I understand that the retaining wall of the parking lot next to the 
Thurmond depot is failing.
    Question. What would be the likely result of the failure?
    Answer. If this failure occurs, the entire parking lot could 
possibly be jeopardized, and could possibly affect the foundation of 
the Thurmond Depot, now used as a National Park Service visitor center 
since its restoration in 1995. The distance from the retaining wall on 
the riverbank to the depot is about 50 yards.
    Question. What will it cost to repair the retaining wall?
    Answer. The current estimate is $800,000.
    Question. Are the properties along Commercial Row now stabilized? 
If not, what remains to be done?
    Answer. No, these properties are not stabilized. The final report 
on Commercial Row stabilization was recently completed by the Denver 
Service Center but has not yet been seen by the park staff. All of the 
stabilization work remains to be done on this structure.
Grandview
    Question. Has the final development concept plan for Grandview been 
completed and released? If not, when do you anticipate that this will 
occur?
    Answer. The final development concept plan was released from the 
Denver Service Center in late April, 1999.
    Question. What are the most pressing needs at Grandview?
    Answer. The most pressing needs at Grandview are: (1) 
Implementation of the Turkey Spur project, which involves the 
conversion of roads to trail and the construction of a parking lot at 
the trailhead; and (2) infrastructure improvements, including 
replacement of existing lines at Grandview as the sewage treatment 
system inherited from the State park system does not meet code. The 
park awaits the anticipated future extension of a municipal sewer line 
from Shady Springs, and although water service is available from Shady 
Springs, the 40 to 50 year-old water lines within the park fail 
frequently and must be replaced.
Fayette Station Bridge
    I understand that the Fayette Station Bridge has been open to 
traffic for several months.
    Question. What kind of use is the bridge receiving from vehicles?
    Answer. According to the WVDOH, the bridge was opened to traffic in 
October, 1998, and as a result has not yet operated through a primary 
travel season. The Highway Department will be evaluating bridge usage 
during this upcoming travel season.
    Question. Can you characterize usage on a percentage basis from 
individual visitors, commercial river operators, other tourist groups, 
and park staff?
    Answer. No. Bridge usage will be evaluated during this upcoming 
travel season.
    Congress appropriated $200,000 to the Park Service in fiscal year 
1998 for planning interpretive exhibits along the road, including 
turnouts for vehicles.
    Question. What is the status of this work?
    Answer. The park is working with WVDOH to develop a design plan to 
upgrade scenic pullouts and install interpretive signage in this 
corridor.
    Question. What, if any, additional funds are needed to complete 
this work?
    Answer. Until the design plan is completed, this is unknown.
    Additional road improvements are needed to the road leading to and 
from the bridge in order for buses to make use of the bridge.
    Question. Are funds available for this road improvement work?
    Answer. The WVDOH states that the Transportation Act (TEA-21) 
designates $1 million for improvements associated with the operation of 
Fayette Station Road. To date, approximately $650,000 is still 
available for use on this roadway, including improvements to 
accommodate buses.
    Question. What is the status of this work?
    Answer. On May 6, 1999, the WVDOH will be meeting with local 
elected officials, the National Park Service, representatives from the 
whitewater industry and other affected parties to discuss any 
additional improvements on all the roadways directly affected by and or 
leading to the new bridge.
Kaymoor
    Question. What remains to be done at the Kaymoor tipple site to 
safeguard visitation and the rail system?
    Answer. Since the laying down of the tipple in March 1999, there is 
no longer any danger of the structure falling onto the CSX railroad 
tracks. The NPS contractor has also fenced the site to protect visitors 
from the remaining hazards. All that remains is the installation of 
interpretive waysides, which will tell the Kaymoor story to visitors 
who arrive on site as passengers on commercial raft trips, as private 
boaters, or as trail hikers/mountain bikers.
    Question. Are there other dangerous sites in New River Gorge 
National River that require fencing, the posting of signs, partial or 
full demolition, or other actions to safeguard visitors and park staff?
    Answer. Possibly. In 1998, the National Park Service acquired the 
Nuttalburg Tipple and conveyor as part of a 1021-acre tract purchased 
from the Nuttall Estate. Although an official inspection has not yet 
been done, initial assessment by park staff indicates that the 
condition of Nuttalburg structures are even worse than those at 
Kaymoor. It is quite likely that at least partial demolition, fencing 
and signs will be necessary.
                 national conservation training center
Training
    Question. What types of courses are offered at the training center?
    Answer. The NCTC offers a variety of courses designed for 
conservation professionals, both technical and non-technical. Program 
areas include Wildlife, Aquatic Resources, Environmental Conservation, 
Computers, Management and Supervision and Employee Excellence. Course 
topics range from ecosystem conservation to fish health, geographic 
information system applications to conservation leadership. A copy of 
NCTC's annual catalog of course offerings is provided for the 
Committee's reference.
    Question. How many different courses did the training center offer 
in 1998?
    Answer. The NCTC offered approximately 250 different course 
sessions in fiscal year 1998.
    Question. How many different courses does the training center 
anticipate offering in fiscal year 1999?
    Answer. The NCTC expects to offer approximately 250 different 
course sessions by the end of fiscal year 1999.
    Question. What are the most popular courses?
    Answer. Among the most popular courses that required multiple 
sessions in the past year were:
  --The IMPACT course that brings in FWS managers and project leaders 
        from across the country for a week of leadership training.
  --The academy courses for new refuge, ecological FWS and fisheries 
        employees.
    In addition, courses related to Endangered Species Act topics have 
long waiting lists of FWS and non-FWS students. The NCTC ``An Approach 
to Ecosystem Conservation'' course and our geographic information 
system and new technology courses have also been very popular.
    Question. Please provide a table showing the number of students 
that attended NCTC class during 1998 (and anticipated for 1999), 
breaking out Fish and Wildlife FWS students, other DOI students, and 
non-DOI students as well as students for non-NCTC courses given at the 
training center.
    Answer. The following table shows student statistics for the NCTC 
for fiscal year 1998 and estimated statistics for 1999. The increase in 
attendance reflects increased awareness of NCTC and the increase in the 
number of on-site dormitories (third lodge opened in March, 1999) to 
house students.

------------------------------------------------------------------------
                                                     Fiscal years--
                                               -------------------------
                   Students                                      1999
                                                    1998      estimated
------------------------------------------------------------------------
NCTC Training--FWS participants...............        4,300        4,500
NCTC Training--other DOI participants.........          100          150
NCTC Training--non DOI participants...........        1,110        1,200
Other events--FWS Participants................          750          800
Other events-non FWS Participants.............        4,000        4,900
                                               -------------------------
      Totals..................................       10,260       11,550
------------------------------------------------------------------------

    Question. What percentage of classroom use is for non-Fish and 
Wildlife sponsored classes?
    Answer. In fiscal year 1998, approximately 49 percent of NCTC usage 
was for non-FWS sponsored training and activities. During fiscal year 
1999, the non-FWS usage is about 46 percent.
    Question. Do you anticipate that percentage changing in the next 
several years? If so, how and why?
    Answer. The increase in on-site accommodations, (the March, 1999 
opening of the third lodge), offers more opportunity for non-FWS 
entities to conduct training at NCTC. Thus we expect the percentage of 
these non-FWS users to in crease somewhat in the future.
Dormitories
    Question. Even though the third dormitory at the National 
Conservation Training Center has been opened only a few weeks, is there 
already a need for a fourth dormitory at the center?
    Answer. All beds in the new lodge are booked into calendar year 
2000. If a fourth lodge was built, current demand indicates it would be 
fully utilized. The NCTC was designed to accommodate 250 daily users, 
thus another lodge would bring us closer to design capacity. However, a 
fourth lodge is not included in the fiscal year 2000 budget request.
    Question. Would a fourth dormitory unduly compete with private 
sector facilities in the Shepherdstown area, or is the need for rooms 
beyond the capacity or interest of the local establishments in 
Shepherdstown?
    Answer. No. Presently 20-30 NCTC participants stay offsite each 
week in nearby hotels. In addition, the NCTC turns away approximately 
80 people per week due to lack of onsite lodging, since some parties 
are unwilling to hold events at the NCTC without onsite lodging. A 
fourth lodge would address a portion of that demand and still leave a 
number of people using offsite lodging. However, the Department's Five 
Year Construction Plan does not include a fourth dormitory at this 
time. Our primary focus is on resolving health and safety issues at 
current facilities.
                 canaan valley national wildlife refuge
    Question. What types of public outreach activities are the Fish and 
Wildlife Service conducting to ensure that the input of local residents 
is taken into consideration as the FWS continues to develop the refuge? 
Who is participating in these activities?
    Answer. In 1994, the Preliminary Station Management Plan for Canaan 
Valley NWR was completed with input from local residents. The station's 
hunt plan was developed with public input and approved in November 
1997. Current outreach activities consist of exchanging information, 
working with the refuge friends group (Friends of the 500th), 
developing personal contacts, providing public presentations, and 
providing news releases to the local media.
    Additionally, the Refuge Manager is a member of the following local 
groups: the Tucker County Chamber of Commerce and Rotary Club, and the 
Gateway Project Environment/Recreation Committee. The Refuge is 
scheduled to initiate a Comprehensive Conservation Plan in 2001 to 
address how the refuge will be managed in accordance with the Refuge 
Improvement Act of 1997. Local residents will be encouraged to 
participate in theplanning process.
    Question. Is more public outreach needed?
    Answer. Yes. The Canaan Valley NWR plans to hire an Outdoor 
Recreation Planner before the end of fiscal year 1999 for conducting an 
expanded public outreach and environmental education.
    Question. Please describe the status of land acquisition for the 
Canaan Valley National Wildlife Refuge.
    Answer. Within the past 14 months, the FWS has acquired 
approximately 1,550 acres with a total cost of about $5 million at 
Canaan Valley NWR. There are currently seven properties under option at 
a cost of $1,783,100; all properties are expected to close by the end 
of fiscal year 1999. Appraisals for three other ownerships totaling 
approximately 600 acres are expected in early June with an estimated 
value of $2.6 million. In addition, 13 other willing sellers have been 
identified and appraisals are being initiated on these 13 tracts, which 
have an estimated value of $2.5 million.
              ohio river islands national wildlife refuge
    Question. When will the comprehensive conservation plan for Ohio 
River islands be completed and available?
    Answer. The draft Environmental Assessment and Comprehensive 
Conservation Plan will be available for public review and comment 
during August, 1999. The FWS expects to release the final document in 
December, 1999.
    Question. What kinds of invasive species threaten the natural 
species and ecosystems of the Ohio River Islands National Wildlife 
Refuge?
    Answer. The underwater habitats are being invaded by zebra mussels 
which have an adverse impact on native freshwater mussels. In addition, 
over 40 percent of the refuge's upland habitats contain invasive plant 
species including Japanese knotweed, Russian knotweed, mile-a-minute, 
purple loosestrife, multiflora rose, and garlic mustard. These invasive 
species are altering native plant communities, halting natural 
succession to flood plain forests, and reducing the habitat value for a 
variety of migratory bird species.
    Question. What other kinds of threats are there to the refuge--its 
species and ecosystems?
    Answer. Additional threats to the refuge include: unnatural erosion 
due to locks/dams on river, sand and gravel dredging, sedimentation, 
non-point source pollution, oil spills, and lack of public 
understanding of the Ohio River resources.
    Question. What is the most pressing or dangerous threat to the 
refuge?
    Answer. The most pressing threats to the refuge are erosion and 
sand and gravel dredging.
    Question. What is the current staffing level of the Ohio River 
Islands National Wildlife Refuge?
    Answer. There are currently five permanent employees at the Ohio 
River NWR.
    Question. Is this different from the full authorized staffing 
level? If so, what funds would be required to bring the staffing level 
at Ohio River Islands up to its full authorized level?
    Answer. The station's most recent authorized staffing chart, 
approved in 1993, contains five full time employees. Since that time, 
the refuge has grown in size and the issues that the refuge faces are 
more complex. The FWS recognized this, and as a result, the Ohio River 
Islands NWR Comprehensive Conservation Plan was initiated, one of the 
earliest in Region 5. When the CCP is completed, a new staffing chart 
that reflects the station's needs, as identified in the CCP, will be 
completed. The Refuge Operations Needs System will be updated at that 
time to reflect the needs identified by the CCP, and any additional 
potential positions will be prioritized through the RONS system.
    Question. Does the President's budget request for fiscal year 2000 
request sufficient funds to bring staffing at Ohio River Is lands up to 
the full staffing level?
    Answer. Yes. The President's budget request for the Ohio River 
Islands NWR is $455,000, with an additional $38,000 for invasive 
species control. A portion of these funds may be used to hire a 
Maintenance Worker to conduct the invasive species control work.
    Question. What kinds of recreational opportunities are present at 
the Ohio River Islands National Wildlife Refuge?
    Answer. The refuge provides a variety of wildlife dependent 
activities to include fishing, hunting (archery deer, small game, 
waterfowl), photography, environmental education, interpretation, and 
wildlife observation. Non-consumption use visitation is by far the 
highest.
    Question. How do you measure visitation at a refuge that consists 
of a series of dispersed islands that extend for miles in a major 
river?
    Answer. Visitation occurs throughout the year with highest period 
of use from May through September. Staff, volunteers and seasonal help 
record levels on public use data sheets incidental to their fieldwork. 
Outreach efforts are also conducted on weekends. Accurate estimates of 
use, considering the unique features of the refuge and current staff 
levels, are very difficult to ascertain.
    Question. What is the status of land acquisition activities at Ohio 
River Islands?
    Answer. The current balance of funds previously appropriated for 
land acquisition at Ohio River Islands NWR is approximately $2.2 
million. Land acquisition activities with this funding are currently 
centered on seven islands and associated mainland tracts comprising 
approximately 340 acres valued at approximately $655,000. These 
acquisition projects are all in different stages of the acquisition 
process which encompasses appraisal, negotiations, and pre-acquisition 
site assessment. Acquisition efforts to expend the remaining funds will 
focus on mainland embayments once planning is completed.
    Question. How many islands (or portions of islands) remain to be 
acquired? How many acres do these islands constitute? How many high-
priority sites have been identified for mainland acquisition? How many 
acres do these sites constitute?
    Answer. Nine islands remain to be acquired, totaling approximately 
1,000 acres (including underwater acreage). Approved in 1995, the 
Embayment/Wetland Expansion Package (5,400 acres) included 100 high-
priority mainland sites located in the states of Ohio, West Virginia, 
Kentucky, and Pennsylvania. Pending completion of the Comprehensive 
Conservation Plan in 1999, there are 18 sites, totaling 1,825 acres, 
with an estimated cost of $3 million, identified for the first phase of 
acquisition for the Embayment/Wetland Expansion Package. However, 
funding for the Ohio Rivers NWR for land acquisition is not included in 
the fiscal year 2000 President's Budget, due to higher priorities 
elsewhere. These parcels will be evaluated and considered in future 
budget requests.
                    national fish hatcheries program
    Question. Has the fisheries program received the same level of 
fixed cost support as the rest of the Fish and Wildlife Service during 
the past ten years in the President's budget request? If not, why not?
    Answer. The term ``fixed costs'' usually refers to those expenses 
that the FWS has no management control over, such as annual federal pay 
and retirement adjustments and payments to other federal agencies for 
rent, unemployment compensation, and workmen's' compensation. These are 
presented in the budget as ``uncontrollable costs.''
    Over the past ten years, all FWS programs have received the federal 
pay and retirement adjustments that have been proposed by the 
Administration and approved by the Congress. The personnel compensation 
and benefits portion of the Fisheries and other program budgets have 
been adjusted by the percentage increase proposed and enacted for 
salaries of federal employees. The FWS budgets for other uncontrollable 
costs, such as GSA space rent, in a centralized FWS wide administrative 
support account.
    The FWS's personnel compensation and benefit expenses are the 
largest ``fixed costs'' components and comprise about 55 percent of its 
operating budget. The annual federal pay and retirement adjustments 
assure that other program operating resources do not have to be used to 
absorb these uncontrollable cost increases.
    Question. I understand that the Fish and Wildlife Service is 
emphasizing restoration and recovery of native aquatic species in the 
current and future plans for the hatchery program. What will be the 
impact of this emphasis on existing and traditional hatchery 
operations, such as support to Indian Tribes in stocking fish?
    Answer. In order to be as effective as possible with available 
funding, the Fish and Wildlife Service is focusing its National Fish 
Hatchery System on the restoration and recovery of native aquatic 
species and management activities that maintain aquatic resources in a 
healthy condition. The FWS will work in partnership with Tribes to 
redirect support in stocking fish to restoration and recovery of native 
species or to identify alternative mechanisms to continue support for 
fish stocking activities.
    Question. What percentage of your hatchery operations are currently 
being spent on native species? What percentage of your hatchery 
operations are currently being spent on threatened and endangered 
native species? What changes do you anticipate in these percentages 
over the next five years?
    Answer. Approximately 91 percent of hatchery operations funding 
currently is spent on native species, including the approximately 11 
percent spent on threatened and endangered species. The Fish and 
Wildlife Service expects these percentages to increase over the next 
five years.
    Question. What, if anything, needs to be done to expand, increase, 
or refocus the hatchery system to restore and recover more species and 
their habitats?
    Answer. The Fish and Wildlife Service will continue the development 
of its National Fish Hatcheries, Fish Technology Centers, and Fish 
Health Centers as integrated aquatic resource centers that facilitate 
and contribute to watershed restoration partnerships. This will include 
the development of a ``Standard of Excellence'' for the operation of 
the National Fish Hatchery System that addresses considerations such as 
maintaining genetic diversity, fish health, best science and 
technology, wild stock interactions, and evaluation and monitoring. 
Needs associated with this effort will be documented in the FWS's 
Fisheries Operational Needs System (FONS).
    Question. Which if any, of the hatcheries are currently under-
utilized? Which, if any, of the hatcheries are ill-suited to 
participate in future hatchery operations of the Fish and Wildlife 
Service? Why are these hatcheries ill-suited?
    Answer. Only the Harrison Lake National Fish Hatchery in Virginia 
and the Berkshire National Fish Hatchery in Massachusetts are currently 
under-utilized, the result of reduced production related to shifts in 
priorities. However, both of these facilities have the potential to 
contribute more in the restoration of coastal and riverine species. The 
FWS has not yet determined which, if any, hatcheries would be ill-
suited to participate in future hatchery operations.
    Question. Do you have any plans to close (or transfer) any 
hatcheries? Are you looking into the possibility, of having to close 
(or transfer) additional hatcheries?
    Answer. As the Fish and Wildlife Service focuses its National Fish 
Hatchery System on the restoration and recovery of native species, the 
Service will work in partnership with its partners and stakeholders to 
identify, over time, alternative mechanisms to continue support for 
other hatchery activities, such as cost reimbursement, transfer, or 
redirection. Closing a hatchery would be a last resort.
    Question. If hatcheries are refocused on recovery and restoration 
of native species, then shouldn't they receive funding from the 
Ecological Services budget? Or shouldn't that portion of the hatchery 
budget devoted to restoration and recovery efforts be included in the 
Ecological Service's budget activity?
    Answer. No, the endangered species recovery program funding is used 
for a very specific purpose: the development, implementation and 
monitoring of recovery plans. All other FWS programs--and all other 
Interior Department programs--implement these recovery plans. The most 
effective way for the Fish and Wildlife Service to use its appropriated 
funds to restore and conserve aquatic resources is through integrated 
program partnerships, such as are now occurring. All program areas are 
responsible for contributing wherever they can to the restoration and 
recovery of native species, be it through the management actions taken 
on a Refuge, the Partners habitat restoration program in Ecological 
Services, or the use of the National Fish Hatchery System as a recovery 
and restoration tool. The best solution is for all FWS programs to be 
adequately funded to carry out their part of the partnership; the 
concern is not where the money is in the FWS's budget, but the 
aggregate level of funding and the effectiveness of the Program in 
working in an integrated manner to meet the FWS's responsibil ities in 
aquatic resource conservation.
                         leetown science center
    Question. The fiscal year 1999 appropriations for Interior and 
related agencies included $250,000 to plan and design a replacement of 
the heating and air conditioning system at the National Fish Health 
Research Laboratory (NFHRL) of the Leetown Science Center. What is the 
status of that work?
    Answer. As part of the HVAC system design work, engineers from the 
Division of Engineering of the Fish and Wildlife Service inspected the 
laboratory on March 25, 1999. The inspection confirmed that the HVAC 
system is inefficient and beyond its useful life. The inspection also 
revealed serious problems with the building's roof and ceiling 
structures. The engineers advised that repairs to the roof may be a 
higher priority than repairs to the HVAC. Engineering design for the 
HVAC system, roof and ceiling will be complete by the end of fiscal 
year 1999.
    Question. How much additional funding will be required to complete 
the new heating and air conditioning system for the National Fish 
Health Laboratory?
    Answer. Based on the inspection report, repairing the HVAC system 
and installation will cost $700,000; the roof repairs will cost 
$350,000; and ceiling repairs will cost $150,000.
    Question. Are these funds included in the President's fiscal year 
2000 budget request?
    Answer. The President's fiscal year 2000 request does not include 
funds for these repairs. However, USGS has begun to address these kinds 
of maintenance issues in the $1.5 million increase requested for 
Maintenance and Capital Improvement within the restructured Facilities 
activity. For fiscal year 2000, the bureau's highest priority deferred 
maintenance projects (health and safety issues) were targeted before 
the extent of this problem was discovered.
    Question. The fiscal year 1999 appropriations for Interior and 
related agencies included a $775,000 increase for Leetown Science 
Center programs aimed at fish health studies in the Chesapeake Bay, 
fish passage research, and acid mine drainage. Please describe the 
importance and goals of these research efforts.
    Answer. The President's fiscal year 1999 Budget included an 
increase of $775,000 for the Leetown Science Center: $500,000 was 
provided to address problems related to fish passage, $200,000 to 
investigate fish health problems in Chesapeake Bay and $75,000 to 
develop and test new technology to address problems related to acid 
mine drainage. The projects are described below.
Fish passage--$500,000
    This work provides data used by the Fish and Wildlife Service, 
Bureau of Land Management, National Park Service and the Forest Service 
to provide for effective fish passage in the rivers managed by them. It 
will provide data for the FERC re-licensing of dams on more than 300 
sites in the Mid-West and in the Northeast and to aid resource managers 
in restoring threatened fish, such as Atlantic salmon, and endangered 
fish, such as shortnose sturgeon. The research will design and test 
structures to improve passage of anadromous and other migratory fish. 
It will determine the specifics of passage requirements for migratory 
fish in terms of their biological, habitat and design needs to get them 
past man-made structures in rivers. The research will determine 
population genetic structure as it relates to fish biodiversity as 
affected by dams and mitigation of diversity problems. It will 
determine the nature of fish restoration problems as evidenced by lack 
of passage in rivers.
Chesapeake bay fish health--$200,000
    The Chesapeake Bay is one of the most valuable estuaries on the 
east coast, in terms of recreational and commercial use of natural 
resources. In recent years, outbreaks of Pfiesteria have produced fish 
kills and may be linked to health concerns for watermen. Joint USGS/BRD 
and State of Maryland analyses from fish kill and disease events 
suggest fungi and bacteria may have been the primary infectious agents 
that caused lesions in striped bass, white perch, bullheads and other 
estuarine fish species in Chesapeake Bay in 1998.
    The research seeks to determine the relationship between fish 
health, fungal infections, and Pfiesteria. Preliminary results indicate 
a fungal infection may be the primary cause for fish lesions in the 
Chesapeake Bay making the fish more susceptible to Pfiesteria and 
harmful algal blooms. The research will investigate the relationship 
between fish health and microbial loading in terms of 
immunosuppression, fungal response, and the development of lesions, and 
the role of nonpoint source runoff from agriculture and other sources 
on microbial loading in the Chesapeake Bay. It will compare the 
prevalence of lesions and their occurrence in tributaries to nutrient 
and sediment loading and contrast it with riparian zone condition.
Acid mine drainage--$75,000
    This study supports OSM (Clean Streams Initiative), NPS (2,500 
abandoned mine land (AML) sites), BLM (several hundred thousand AML 
sites), USFS (20,000-50,000 AML sites), USGS (statement of mutual 
intent), EPA (Mine Drainage Initiative), States (Departments of 
Environmental Protection) and the mining industry (hardrock and coal).
    Study objectives include laboratory scale tests to identify metal 
hydrolysis reaction rates, sludge volume, density and settling 
characteristics, and identification and development of the least cost 
method for metal sludge separation and thickening. The research will 
explore new methods of polymer addition to accelerate sludge settling 
using a porous bed reactor. It will compare metal precipitate 
characteristics and handling costs identified in the field using the 
LSC and standard mine drainage treatment methods. Finally it will 
create decision support models(software) to be used by managers to 
predict best treatment practices to form, separate, and concentrate 
metal precipitates from acidic mine drainage. The software will 
incorporate LSC process simulation models currently under development 
with models to be developed that follow precipitate formation both with 
and withoutpolymer addition.
    Question. What is the status of these research efforts?
    Answer. Study plans have been completed for work on fish passage. 
Field and laboratory studies are currently underway since fish have 
begun their annual migration. Initial studies are focused on Atlantic 
salmon in the Connecticut River and shad in the Susquehanna River.
    Work on acid mine drainage technology has begun. The Appalachian 
Fruit Research Station (USDA) in Kearneysville, West Virginia is 
collaborating with the Leetown Science Center to investigate the 
potential for using sludge produced by the AMD treatment process to 
benefit agriculture. Studies are also underway regarding minimizing the 
environmental effects of the acidic water and sludge associated with 
the treatment process
    Field work on fish health problems in Chesapeake Bay will begin the 
first week of June. Cooperative agreements with Universities in 
Virginia and Maryland to assist in the data collection are in place.
    Question. Were these funds requested as part of the President's 
fiscal year 1999 budget request? Were these funds requested as base 
increases, reflecting long-term (multi-year) research needs?
    Answer. Yes. These funds were requested as part of the President's 
fiscal year 1999 Budget. The initial study plans were based on multi-
year proposals ranging from three to five years with ``level'' funding 
for each year.
    Question. Does it make sense to halt these research efforts after a 
single year? Why does the President's fiscal year 2000 budget request 
propose to stop these research efforts after a single year of funding?
    Answer. These efforts could continue under the Integrated Science 
line item--some may be specifically identified as DOI Science 
priorities and others such as Chesapeake Bay efforts may be included in 
the Place-based Studies component--rather than under the Biological 
Research and Monitoring line item. To the extent any project/study 
decreases do occur, they would reflect the fact that DOI bureaus have 
identified higher priority research needs for fiscal year 2000.
               kanawha-new river water-quality assessment
    Question. What is the status of the Kanawha-New River National 
Water-Quality Assessment study?
    Answer. The Kanawha-New River National Water-Quality Assessment 
(NAWQA) study is on schedule, and USGS has published four technical 
reports and made six presentations at scientific meetings as of April 
30, 1999. A team of nine technical staff is based in Charleston, West 
Virginia. All planned environmental-quality samples were collected 
during fiscal years 1996-1998, and the team is now reviewing and 
archiving the resulting data and preparing interpretive reports.
    Eleven reports, in addition to the four mentioned, will be 
published during fiscal year 1999 and fiscal year 2000. The USGS is 
working on the first five reports for publication this year, and the 
remaining six reports will be started within six months.
    Question. What are the main components of the study?
    Answer. The study focuses on surface-water quality as it is 
affected by coal mining, disposal of human and animal waste, and 
industrial activities; and on ground-water quality as it is affected by 
agricultural activities, coal mining, and disposal of human and animal 
waste. All work was completed within the context of the nationally-
consistent NAWQA sampling design.
    The team investigated ground-water quality down hill from surface 
coal mines that have been fully reclaimed to present reclamation 
standards. This component included the Kanawha and Monongahela River 
basins in West Virginia and parts of western Pennsylvania.
    In conjunction with other sampling within the NAWQA program, the 
Kanawha-New River NAWQA team measured changes in water quality over the 
past 20 years in streams at about 180 sites in West Virginia and 
Pennsylvania. USGS samples collected during 1979-1981 were compared to 
the latest samples in order to evaluate the regional effects of water-
quality laws, upgrades to wastewater treatment and mining practices.
    USGS' standard sampling in the Kanawha-New River study area 
included eight surface-water sites in West Virginia, and three more 
surface-water sites in Virginia. Ground water was sampled from one 
aquifer of the Appalachian Plateau in West Virginia, and another 
aquifer in the Blue Ridge in North Carolina and Virginia. Biological 
sampling was done for fish and benthic insects at all the surface-water 
sites; and one-time sampling for fish and insects was also done at an 
additional ten sites in West Virginia.
    Beyond the sampling activities that have been concluded, NAWQA will 
continue to sample some surface-water sites in West Virginia. The USGS 
will maintain sampling at two locations through 1999 and subsequent 
years of low intensity phase sampling. The two sites for continued 
monitoring are: the Kanawha River near Windfield and the Clear Fork 
near Whitesville, both in West Virginia.
    Question. When will the study be completed?
    Answer. A summary report for the first data-collection cycle will 
be completed by September 30, 2000.
    Question. What results or findings have come out of the study to 
date?
    Answer. Fecal bacteria are rare in ground water from domestic wells 
in West Virginia, if the wells are constructed according to current 
design standards. Earlier studies had shown frequent fecal 
contamination of domestic wells but did not distinguish between 
properly and poorly constructed wells.
    Several non-native fish species have been found in areas of the New 
River basin where they were not previously known. These fish have been 
found upstream from both Kanawha Falls, a natural barrier to fish 
migration since the last Ice Age, and upstream from dams. The New River 
has had a fish community that is distinct from the communities in both 
Atlantic Slope and Ohio River basins. The evidence indicates that 
people continue to transport non-native fish past these barriers.
    Values of pH are generally lower and concentrations of sulfate, 
iron, and manganese are generally higher in ground water from wells in 
the southern coal province of West Virginia than in the northern coal 
province. These facts are surprising because acid mine drainage is much 
more common in the northern coal province than in the southern 
province.
    Streams in central West Virginia and western Pennsylvania are 
becoming less acidic. The median pH at summer base flow in streams 
increased about 0.5 unit from 1980 to 1998. Alkalinity of the streams 
also increased and was reflected in decreased concentrations of iron 
and manganese. These effects would be expected as active mines comply 
with discharge permit limits and as the worst cases of acid drainage 
from abandoned mines are controlled. Median concentrations of sulfate 
increased, however, reflecting the cumulative effects of continued 
mining.
    Typical radon concentrations in ground water near reclaimed surface 
coal mines in West Virginia and western Pennsylvania are about half the 
concentrations measured in similar wells not close to mines. Median 
radon concentrations in domestic wells in the Blue Ridge in North 
Carolina and Virginia are six times the formerly proposed Maximum 
Contaminant Level (300 picocuries per liter) permitted in public 
drinking-water supplies. At the present time, there is no Maximum 
Contaminant Level for radon, so whether the levels found are a health 
concern cannot be determined now.
    Question. What statements, if any, can these results be used to 
make regarding the impact of mine reclamation a ctivities on water 
quality?
    Answer. Reclamation activities at active and abandoned mines are 
successful in eliminating the most severe impacts on water quality and 
have produced region-wide improvements. Even under current regulations, 
however, the total load of dissolved solids in streams, particularly of 
sulfate, appears to be increasing in proportion to the amount of land 
disturbed by mining. Mine reclamation and controls on active mining 
have been fairly effective in controlling acid mine drainage and metal 
pollution. However, the continuing increase in the amount of area 
disturbed by mining appears to be leading to increased levels of 
sediment and dissolved solids in streams.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    For several years, I have secured funding for two partnership 
programs, one around Lake Champlain and one along the Connecticut 
River, that fund just this type of project--ones that bubble up from 
the community. Although I understand you were under considerable budget 
restraints, I was dismayed that funding for these two programs was cut 
by more than half last year. Vermonters found it even odder since the 
Connecticut had just been named an ``American Heritage River'' and Lake 
Champlain was still basking in the glory of being promoted to ``Great 
Lake'' status.
    Question. If there is not adequate funding in the National Park 
Service Rivers, Trails, and Conservation Assistance Program, what other 
Department of the Interior programs would be able to make up the short 
fall?
    Answer. The issue of funding availability is not the only issue in 
this instance. In general, the NPS does not intend that the Rivers, 
Trails, and Conservation Assistance (RTCA) Program fund projects on a 
long term basis. Rather, the intent is to work with partners on a short 
term basis, assisting in the creation of a vision and stimulating non-
federal involvement. After the project is on a firm foundation, it is 
intended that the resources of the RTCA be redirected to assist in 
initiating other partnership projects.
    Other NPS operational programs--such as national trails and wild 
and scenic rivers--provide limited funding through cooperative 
agreements to partners, but are usually designated for specific 
collaborative projects and initiatives over a short period. Given the 
fact that a heritage corridor study is underway for the Lake Champlain 
corridor, authorizing funding for it as a national heritage corridor 
could open the door to specific appropriations for that corridor, 
similar to funds which now assist the nine heritage areas established 
in 1996 under Public Law 104-333.
    There have been no funds specifically authorized to support the 
designated American Heritage Rivers (AHR), but the partnership council 
overseeing AHR activities along the Connecticut River is examining many 
potential sources of funding, Federal and otherwise. The National Park 
Service is willing to continue to assist in the identification of good 
projects for the Partnership Program and to provide some assistance in 
its administration, but it is more appropriate to look to other 
agencies and private organizations and foundations to continue its 
funding.
    Question. What is the status for the feasibility study for a Lake 
Champlain Heritage Corridor, and does the Department have funding set 
aside for new corridors that are recommended by the Department?
    Answer. The study is nearing completion and will be available for 
public comment in September, 1999. The Department of the Interior funds 
Heritage areas authorized by Congress. Therefore, no funds are set 
aside at this point.
    Question. In Vermont, I have secured funding to start two pilot 
projects to integrate social, economic and natural resource data using 
Geographic Information System technology and build a Web-based 
interactive tool that can help planners assess the impact of 
development on the local watershed, fish and wildlife habitat and open 
space. These pilots will also help state, federal agencies and local 
agencies prioritize land conservation and wildlife habitat protection 
projects. This tool will finally allow citizens and planners to 
visualize the potential land use and environmental changes in their 
community. The U.S. Geological Survey fiscal year 2000 request includes 
$10 million to expand the National Spatial Data Infrastructure through 
a Community Federal Information Partnership to enhance local 
government's ability to use spatial data for land use planning. How 
will the Department select communities to participate in the grant 
program and how many do you expect to be selected?
    Answer. The Community/Federal Information Partnership (C/FIP) is an 
interagency initiative to advance the National Spatial Data 
Infrastructure through partnerships with communities. C/FIP is designed 
to support community-based activities similar to those that you 
describe. Currently, the planned method for selecting participating 
communities will be through a consolidated multi-agency Request for 
Proposals (RFP) announcement to be developed by the Federal Geographic 
Data Committee (FGDC) member agencies. To date, six Federal agencies 
have proposed to be a part of the C/FIP program. The RFP will be issued 
through the FGDC and will describe the overall objectives and 
parameters of the initiative. In addition, each member agency will 
describe its mission specific program components and criteria as part 
of the announcement. The FGDC anticipates that a number of both large 
and small projects will be funded under this announcement and that 
these funds will be leveraged with matching grants. The USGS goal is to 
direct approximately two-thirds of appropriated funds to competitive 
grants and one-third to agency programs to make data more accessible to 
communities. However, they cannot project at this time how many grants 
will be issued or how many communities will be involved.
    The proposed C/FIP initiative is contingent on Congress providing 
fiscal year 2000 appropriations. However, planned C/FIP proposal 
timelines are as follows: October to December 1999--RFP announced; 
January to March 2000--Application period; and April to June 2000--
Review of proposals and announcement of awards.
    Question. Has the Department worked with the State of Vermont on a 
Gap Analysis project or is one under consideration?
    Answer. The Department has a very productive partnership with the 
State of Vermont in conducting a Gap Analysis project that is scheduled 
for completion this September. The project is being implemented jointly 
with the State of New Hampshire through the Vermont Cooperative Fish 
and Wildlife Research Unit at the University of Vermont. Already, 
preliminary products from the Vermont project are being used in 
ecological reserve selections. This work is based on GAP land cover 
maps and a sophisticated analysis of landscape features linked to 
biological diversity. Cooperators that have shared in the costs of the 
project include the Vermont Fish and Wildlife Department, the Silvio O. 
Conte Refuge, The Nature Conservancy, and the Green Mountain National 
Forest.
    Question. A great deal of concern has been generated in Vermont by 
your fiscal year 2000 USGS budget proposal to eliminate support for 
gaging activities in the Lake Champlain basin. Instead, your budget 
request proposes the gaging be supported by ``alternative funding 
arrangements'' with Federal, State and local agencies. Has the 
Department identified other funding for this program and have you 
formed agreements with any other Federal agency to cover the cost of 
the gaging activities? How did the Department select Lake Champlain for 
this reduction? Where are the gaging stations that are identified for 
an increase in the fiscal year 2000 budget?
    Answer. The USGS has been involved in discussions with 
representatives of the Lake Champlain Basin Program, the State of 
Vermont, and the U.S. Environmental Protection Agency regarding 
possible alternative funding arrangements that would allow gaging 
activities in the Lake to continue into fiscal year 2000 and beyond. 
However, to date none of the involved organizations have been able to 
offer funds that might allow these activities to continue. USGS 
undertook these gaging activities as part of a water quality study 
which was funded under the auspices of the Lake Champlain Special 
Designation Act. The study began in 1990 and was planned to last for 
five years. USGS has continued to operate the gaging stations for four 
years beyond that time frame, but within the proposed budget 
constraints it is impossible to continue this work in fiscal year 2000 
in the absence of funding support from other agencies.
    The gaging stations that will be identified for an increase in the 
fiscal year 2000 budget are part of the Real-Time Hazards Initiative. 
This initiative is aimed at improving USGS's ability to deliver real-
time streamflow information, to ensure that the National Weather 
Service has current data for flood forecasting and warning, and to help 
emergency response agencies concentrate their efforts where they are 
most needed. USGS is involved in discussions with the National Weather 
Service and other Federal agencies, to determine where real-time 
information, provided through improved telecommunications equipment, is 
most urgently needed to protect at-risk communities from the threat of 
floods.
    When we passed the Lake Champlain Special Designation Act in 1992, 
one of the most important issues was restoration of native fish and 
wildlife habitat in the watershed. The Fish and Wildlife Service made a 
long term commitment to this goal by becoming one of the lead federal 
partners in the Lake Champlain Basin Program. Unfortunately, due to 
budget cuts to the Lake Champlain Office operations budget over the 
past few years, I do not believe the Fish and Wildlife Service has been 
able to meet its commitment. Considerable pressure is growing in 
Vermont to speed up the time line for restoration of Lake Champlain.
    Question. At what budget level could the Fish and Wildlife Service 
fully meet the commitments made in the Lake Champlain Action Plan? If 
that Plan was accelerated by 10 years what level of the funding would 
be needed for the Lake Champlain Office?
    Answer. Increased annual operational funding for the Lake Champlain 
Fish and Wildlife Resources Complex (including the Lake Champlain 
Office and Pittsford National Fish Hatchery) to $1,500,000 and 23 FTE's 
(an increase of $500,000 and 7 FTE's above current budget amounts) 
would allow the FWS to carry out the following program expectations on 
Lake Champlain:
    Provide Federal leadership implementing the Nonindigenous Aquatic 
Nuisance Prevention and Control Act in the Lake Champlain watershed. 
($200,000/3 FTE)
    Carry out a private lands program with increased emphasis on 
restoring habitats impacted by invasive species and that is fully 
integrated with all aspects of U.S. Department of Agriculture Farm Bill 
activities in the Lake Champlain watershed. ($75,000)
    Make a substantial contribution to damage assessment and 
restoration activities associated with contaminated habitats. ($50,000/
1 FTE)
    Carry out an aggressive, focused program of habitat assessment and, 
where feasible, restoration associated with current fish stocking and 
assessment. ($100,000/1 FTE)
    Become a fully engaged partner in Lake Champlain imperiled species 
inventory and restoration efforts, particularly as they relate to the 
threat from invasive species. ($50,000/1 FTE)
    Implement a Geographic Information System program that includes 
data layer creation and biological modeling, and that is fully 
integrated with all aspects of the present mission. ($25,000/1 FTE)
    If the Plan was accelerated by 10 years our best estimate is that 
an additional $250,000 and 4 FTE's would be required for a total of 
$1,750,000/27 FTE's. It is difficult to project a difference in 
restoration accomplishments that could be realized under enhanced 
funding and staffing between 10 years and a longer time frame. For 
example, to fulfill the FWS's role in developing and implementing a 
nonindigenous species management plan, the FWS will help implement a 
public decision-making process on the long-term management of sea 
lamprey, provide technical support to zebra mussel monitoring, and 
identify and implement control of purple loosestrife. In these cases, 
our actions and the costs associated with them will depend on 
information that is not currently available.
    Lake Champlain is an interstate and international water body, and 
conservation of the Lake's fish and wildlife is an important FWS 
function. In fiscal year 2000 the Lake Champlain Fish and Wildlife 
Resources Complex will have a combined budget just under $1,000,000/16 
FTE's, most of which will be used in the Lake Champlain watershed. 
Approximately $800,000 of this funding is found in the FWS's Fish and 
Wildlife Management Assistance and Hatchery Operations budgets and 
$200,000 is in the FWS's Partners for Fish and Wildlife Program budget. 
The Missisquoi National Wildlife Refuge, New England Ecological 
Services Field Office, New York Ecological Services Field Office and 
the U.S. Fish and Wildlife FWS Law Enforcement Agent stationed in Essex 
Junction, Vermont, are also part of the FWS's capability on Lake 
Champlain. Along with representatives from our Regional Office in 
Hadley, Massachusetts, these programs are involved in implementation of 
the Lake Champlain Special Designation Act through the FWS's Lake 
Champlain Ecosystem Team.
    However, this level of funding is not included in the President's 
Budget request and is not a priority of the Department.
    Question. The U.S. Fish and Wildlife has been working on a new 
regulation for falconry that would affect educational falcon institutes 
like the one in Manchester, Vermont. When does the FWS expect to 
release the draft regulation? Is the FWS still considering the creation 
of a new class of permits specifically for educational facilities that 
would allow students to handle falcons but not require individual 
permits for each student?
    Answer. The FWS plans to issue a scoping notice to seek public 
comment on the continued permitting of falconry schools in the U.S. The 
FWS anticipates that this notice will be published in the Federal 
Register later this year. The falconry school in Vermont is one of only 
two in the U.S., and both are permitted under a general education 
permit. Although current FWS regulations specify that students at these 
schools may practice falconry, and that each student must have a 
falconry permit, the FWS will consider all comments received on 
amending the falconry regulation to create a new class of falconry 
permits for schools.
    Question. In addition to the Champion lands, what other parcels are 
available for acquisition within the Silvio O. Conte National Wildlife 
Refuge and what is the total acquisition cost of those parcels?
    Answer. In addition to the Champion lands, which totals 26,000 
acres, the following acquisition opportunities have been identified for 
fiscal year 2000. These tracts total 3,298 acres, with an estimated 
cost of $3,200,000. (Note. Two of these projects--Mt. Tom and Dead 
Man's Swamp--which total some $1.4 million are within the Silvio O. 
Conte NWR boundaries but are too far south to be considered within the 
planning areas of the Administration's ``Northern Forest'' focus area).
    Nulhegan Basin, Vermont (Est. $545,500).--Opportunities exist to 
protect approximately 421 acres of inholdings within the special focus 
area (LAPS rank 45). The FWS also estimates that willing sellers of 
eight of the cabins located in the 26,000 acre acquisition proposed 
will be identified.
    Connecticut River mainstream, Vermont (Est. $375,000).--Within this 
special focus area, there are opportunities to protect approximately 
400 acres of Spruce-fir-tamarack swamp, 100 acres of Cedar swamp, and 
300 acres of flood plain forest with sites with good possibilities for 
restoration (LAPS rank 43).
    White River, Vermont (Est. $300,000).--Opportunities exist to 
protect approximately 400 acres of known and restorable sites in flood 
plain communities within this special focus area, including flood plain 
forest, calcareous riverside seeps, river shore sand and gravel, and 
riverside grasslands (LAPS rank 39).
    Connecticut River Macrosite, Vermont (Est. $20,000).--This special 
focus area includes an estimated 40 acres of riverside outcrops and 
grasslands which support populations of the federally endangered 
Jesup's milk vetch (LAPS rank 38).
    Williams River, Vermont (Est.$15,000).--Approximately 50 acres of 
marsh have been identified for protection in this special focus area 
(LAPS rank 37).
    West River, Vermont (Est. $537,500).--There are several acquisition 
opportunities within this special focus area. Approximately 100 acres 
of wetlands and associated upland buffer have been identified that 
support the federally endangered northeastern bulrush. Another 50 acres 
of flood plain and cobble shores are suitable for restoration. An 
additional 900 acres of dry oak forests, red pine forests, and pitch 
pine-oak-heath rocky summit communities could also be protected (LAPS 
rank 35).
    Mt. Tom, Massachusetts (Est. $352,000).--The special focus area 
hosts 32 species rare in the watershed, including 18 rare plants, seven 
rare amphibians and reptiles, three rare invertebrates and four rare 
bird species. Development pressures are real and increasing. A 
coalition of local groups is working on a permanent protection 
initiative. The Refuge contribution to this would be purchase of a 
conservation easement on a 252 acre parcel (LAPS rank 24).
    Dead Mans Swamp, Connecticut (Est. $1,055,000).--This special focus 
area in Cromwell, Connecticut, consists of freshwater marsh, flood 
plain forest and an accreting sand spit along the river. Many species 
of wading birds and waterfowl use the marsh while the flood plain 
forest provides migratory bird stopover and nesting habitat. Several 
rare bird species including the sora rail, black rail, least bittern, 
American bittern, piedbilled grebe, and yellow-breasted chat have been 
found at this site. The accreting spit hosts over \1/3\ of the adults 
of the Connecticut meta-population of Puritan tiger beetles, a 
federally threatened species. The three priority parcels contain 
approximately 285 acres. The FWS is already assisting one nearby 
landowner with a habitat enhancement project (LAPS rank 10a).
    Question. On April 9, 1999, the Fish and Wildlife Service released 
the draft Indiana Bat Revised Recovery Plan for comment. After the 
comment period is closed, how long does the FWS expect before a final 
Revised Recovery Plan is released?
    Answer. The time to complete the recovery plan is largely dependent 
on the number and significance of comments received, if a public 
hearing is requested, and the extent of changes that the recovery team 
will need to make to the plan. Since the comment period is still open, 
the FWS can not accurately predict how long this process will take. 
However, a reasonable estimate would be 12 to 24 months after the close 
of the comment period on June 8, 1999.
    Question. The Department requested a $2 million increase for the 
Partners for Wildlife Program in fiscal year 2000. How will the Fish 
and Wildlife Service distribute this increase if it is included? Will 
the Fish and Wildlife Service give any preference for those areas that 
do not have a large refuge land presence and instead rely on the 
conservation of private lands for habitat restoration? What is the 
current allocation of Partners for Wildlife funding?
    Answer. For fiscal year 2000, the FWS has requested an additional 
$2,047,000 for the Partners for Fish and Wildlife Program to increase 
the number and quality of habitat restoration projects for migratory 
birds, anadromous and inter-jurisdictional fish, threatened and 
endangered species, and other federal trust species. A portion of these 
funds is targeted to three geographically-based, cross-program 
initiatives: Mississippi River Basin Partnership ($370,000); the High 
Plains Partnership ($400,000); and the Restoring Habitat and Passage 
for Native Fish ($525,000). These funds will be distributed as follows:
  --Mississippi River Basin Partnership: Allocations will be 
        distributed based on (1) information received from the Regions 
        on project opportunities in high priority ecosystems within the 
        Basin, and (2) the Regions' capabilities (i.e., past 
        accomplishments, waiting list, and partnerships) to implement 
        projects in a timely manner.
  --High Plains Partnership: The FWS assumes that projects will be 
        implemented in all 10 High Plains States (MT, ND, SD, WY, NE, 
        KS, CO, NM, OK, and TX). The amounts allocated will be based on 
        (1) information received from the Regions regarding resource 
        (species and habitat) priorities within the High Plains and 
        project opportunities available to address those priorities, 
        and (2) the Regions' capabilities (i.e., past accomplishments, 
        waiting list, and partnerships) to implement projects in a 
        timely manner.
  --Restoring Habitat and Passage for Native Fish: In planning this 
        fiscal year 2000 budget initiative, the FWS ranked proposed 
        projects on the following selection criteria: ability to result 
        in measurable on-the-ground results, cost-effectiveness, cross-
        program coordination, prompt implementation and completion, 
        partnerships (i.e., financial and technical), and the 
        interdisciplinary approach to habitat restoration and watershed 
        health. The projects that were selected are: Blitzen River 
        (OR), Arkansas-Red Rivers Watershed (OK, KS, TX), Western Lake 
        Erie Wetlands (OH), Tar-Neuse-Roanoke Ecosystem (NC, SC, GA), 
        Lamprey river (NH), Upper Columbia River Basin (MT, WY), and 
        Chester Creek (AK). The Partners for Fish and Wildlife Program 
        will support the following projects: Blitzen River ($168,000); 
        Arkansas-Red Rivers Watershed ($84,000); Western Lake Erie 
        ($113,000); and Upper Columbia River Basin ($160,000).
    The FWS also requests an additional $1,008,000 to accommodate the 
backlog of landowners waiting to participate in the Partners for Fish 
and Wildlife Program. Of this general increase, $1 million will be 
allocated to Regions based on their capabilities (i.e., past 
accomplishments), commitment (i.e., waiting list and partnerships), and 
need (i.e., high priority habitats with restoration potential). The 
remaining $8,000 will be used in Region 1 for the removal of barriers 
to fish passage in support of the President's Pacific Northwest Forest 
Plan.
    No specific preference is given to areas with or without a high 
refuge land presence. Rather funding is allocated based on several 
factors, including federal trust species needs and priorities; the 
ability to provide ecologically-sound, cost-effective, and demonstrable 
benefits on the ground; and partnership involvement.
    A following table shows the fiscal year 1999 allocations made by 
the Partners for Fish and Wildlife Program.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         Region
                                                              ------------------------------------------------------------------------------------------
                                                                    1            2            3            4            5            6            7
--------------------------------------------------------------------------------------------------------------------------------------------------------
Technical Assistance.........................................     $441,000     $264,000     $965,000     $811,000     $411,000     $812,000      $10,000
Habitat Restoration..........................................    1,513,000    1,193,000    2,860,732    2,180,000    1,351,000    2,571,500      159,000
Private Landowner Assist.....................................       21,800       17,200       41,000       31,300       19,400       37,100        2,200
Fishery Habitat Restoration..................................       57,600       45,500      108,800       82,800       51,300       98,100        5,900
Clean Water/Watershed........................................      388,000      388,000      388,000      388,000      388,000      388,000      312,000
WA State Ecosystem...........................................    1,483,000  ...........  ...........  ...........  ...........  ...........  ...........
Klamath River................................................    1,225,000  ...........  ...........  ...........  ...........  ...........  ...........
WA Salmon Enhancement........................................    1,050,000  ...........  ...........  ...........  ...........  ...........  ...........
Nevada Biodiversity..........................................    1,000,000  ...........  ...........  ...........  ...........  ...........  ...........
Hawaii ESA Conservation......................................      250,000  ...........  ...........  ...........  ...........  ...........  ...........
Vermont Partners.............................................  ...........  ...........  ...........  ...........      150,000  ...........  ...........
Alligator Snapping Turtle....................................  ...........  ...........  ...........      100,000  ...........  ...........  ...........
Missouri Chutes/Sandhills....................................  ...........  ...........  ...........  ...........  ...........       64,000  ...........
                                                              ------------------------------------------------------------------------------------------
      Totals.................................................    7,429,400    1,907,700    4,363,532    3,593,100    2,370,700    3,970,700      489,100
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. The Fish and Wildlife Service requested a $135,000 
increase for the operations budget of the Silvio O. Conte National 
Wildlife Refuge to implement wildlife and habitat surveys. Given the 
public interest and sheer size of the land acquisition, there will be a 
high expectation for a Fish and Wildlife Service presence and 
management of the land. In addition, with the large number of 
inholdings and roads throughout the area, safety will be a concern. 
Will $135,000 be adequate to manage the 26,000 acres of land when the 
Fish and Wildlife Service takes ownership this year?
    Answer. Yes. In addition to the requested $135,000 operational 
increase, the station has committed $50,000 of its base funds for 
operation of the Nulhegan Basin Division of the Silvio O. Conte NFWR. 
Additional funds will be available from the FWS's TEA 21 highway 
program and refuge maintenance program. These funds would allow 
initiation of inventory and planning programs and provide for 
administration of the funds allocated for road and bridge maintenance.
    With the official opening of the Marsh-Billings-Rockefeller 
National Historical Park, visitor traffic through the Park facilities 
will significantly increase, exposing the buildings, exhibits, and over 
500 pieces of artwork to increase risk from fire. When the Park Service 
assumed responsibility for these facilities an evaluation of the fire 
and security systems recommended an immediate upgrade of the fire 
detection and suppression system. Currently, the only sprinkler system 
on the property is in the basement of the Billings Mansion. Although 
the Committee urged the Park Service to address this problem in the 
fiscal year 1999 Interior appropriations bill, Marsh-Billings did not 
receive funding for this project out of the fiscal year 1999 repair and 
rehabilitation budget.
    Question. Why was Marsh-Billings not selected for funding and will 
they receive funding to make these repairs in the fiscal year 2000 
budget?
    Answer. The fiscal year 1999 and fiscal year 2000 Repair and 
Rehabilitation program addresses the highest priority health and safety 
projects identified and ranked as part of the Department's Five Year 
Plan. While this project has merit, only the highest priority projects 
were selected for fiscal year 1999 and fiscal year 2000 funding.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid
    Question. Many of Nevada's rural counties are limited in their 
ability to fund essential services due to an overwhelming dominance of 
Federal land ownership and resulting inadequate tax base. Yet, funding 
for Payment In Lieu of Taxes (PILT) is projected at the same level as 
1999. Why was no increase in PILT planned?
    Answer. The Administration has consistently submitted what it 
considers to be good faith budget requests for the PILT program within 
the constraints imposed by discretionary funding caps. That support is 
reflected in a funding increase of nearly 25 percent from 
implementation of the amended PILT Act in 1995 to the present budget 
request. That level of increase is greater than many of the programs 
for which the Department is responsible, among them remediation of 
hazardous waste sites, management of cultural and historic resources on 
the public lands, and various on-the-ground management improvements.
    The proposed fiscal year 2000 budget for PILT is $125 million, the 
same as the amount agreed to by the House and Senate in passing the 
Department's 1999 appropriation. In addition to PILT, other program 
revenues are paid directly to States and counties for their use. 
Moreover, the Administration is proposing a program to stabilize at a 
predictable and high level payments to counties and States in which 
harvest of timber on Federal land takes place. This proposal will 
complement other cooperative arrangements involving State and local 
government that are included in the Lands Legacy initiative.
    Question. Will PILT be considered as part of the Land Legacy 
Initiative to offset the impacts of land acquisition by the Federal 
Government?
    Answer. Under the fiscal year 2000 President's budget proposal 
submitted to the Congress, there was no permanent funding authority 
included as part of the Land Legacy Initiative for PILT. However, any 
``entitlement land'' acquisitions made by the Federal government 
pursuant to the Land Legacy Initiative may qualify the affected local 
units for possible payments or additional payments under PILT.
    Question. Last year, the Bureau of Land Management faced a 
significant workload in order to review existing grazing permits for 
environmental adequacy. This year, I have heard similar concerns from 
constituents. Is the agency making progress in reducing the backlog? 
Will the $2.5 million included in the fiscal year 2000 budget request 
for the BLM result in elimination of the backlog?
    Answer. The backlog in renewing grazing permits or leases is 4,120. 
By the end of March 1999, the BLM has completed required reviews on 
1,244 permits and leases. The rate of completion is accelerating as the 
Field Office staffs are now fully engaged in this priority work; we 
expect the rate of completion to continue to increase throughout fiscal 
year 1999. The workload in permit renewal reviews for fiscal year 2000 
is 2,241.
    The proposed increase of $2.5 million in the fiscal year 2000 
President's Budget, when combined with existing BLM resources, will 
provide sufficient resources to compile the data necessary to complete 
the environmental reviews of the balance of permits expiring in fiscal 
year 1999 and those expiring in fiscal year 2000. The BLM expects to 
have the backlog completed by the end of the fiscal year 2000 and be 
able to keep pace with expiring permits in 2001 and beyond.
    Great Basin National Park continues to suffer from inadequate 
employee housing, and the temporary solution of renting room from a 
local truck-stop/casino has been unsatisfactory for all involved. I 
understand some funding targeted for the construction of replacement 
housing at the park has been held up pending completion of a 
Servicewide housing needs assessment.
    Question. When will this assessment be completed and funds made 
available to Great Basin National Park?
    Answer. The Needs Assessment contract identified a need for housing 
16 seasonal employees, supporting at least the need to replace existing 
NPS trailers with housing for up to 8 seasonal employees. If the Park 
were also no longer to lease additional units from the private sector 
(an alternative not yet decided upon), then the need for housing would 
be increased to accommodate all 16 seasonal employees as identified by 
the contracted study.
    However, the NPS is still completing additional Congressional 
requirements prior to resuming the trailer replacement construction 
program. As indicated to the House Appropriations Subcommittee, the NPS 
will complete its Servicewide Housing Needs Assessment and report back 
to both the House and Senate Committees before resuming any housing 
construction. The report is anticipated by July of this year.
    Great Basin NP is scheduled to begin planning to replace the NPS 
trailers with previously appropriated housing funds, after approval 
from the Appropriations Committees is obtained. Once this design is 
completed, and final prioritization of all Service-wide trailer 
replacement projects is determined, construction funds would then be 
made available. Prior to any on-site construction, the NPS will explore 
all feasible alternatives, and will select the appropriate mix of 
housing for the seasonal employee needs of the park.
    Question. Can I anticipate funding adequate to meet the needs of 
the Park?
    Answer. The current proposed project at Great Basin National Park 
is for the replacement of 4 NPS trailers for 8 seasonal employees, 
consistent with the findings of the contracted Housing Needs 
Assessment. Dependent upon Servicewide priority and funding 
availability, this project may be scheduled for funding in fiscal year 
2000.
    The proposed funding for trailer replacement from the housing 
initiative may not meet the total housing needs of the park as it does 
not take into consideration the units which the park is currently 
leasing from the private sector. If the NPS were to discontinue its 
current leasing practice, the potential need increases to 16 
seasonalemployee bedrooms.
    Question. Over 50 percent of the proposed increase for funding in 
the Wild Horse and Burro program ($600,000 out of a total proposed 
increase of just under $1.1 million) is targeted for burro management 
in the California desert. Assuming that the increased funding request 
must also cover increases in fixed costs, what sort of progress can I 
expect toward meeting program goals in Nevada, which supports the 
greatest population of wild horses?
    Answer. BLM continues to focus on the Wild Horse and Burro (WH&B) 
program in Nevada. Over 46 percent of the total animals to be removed 
in fiscal year 1999 will come from Nevada. Over 32 percent 
(approximately $5,000,000) of the available funds are being spent 
directly and indirectly to support Nevada's WH&B program. BLM will 
continue to place emphasis on the Nevada WH&B program now and in the 
future.
    Nevada BLM continues to make progress evaluating Herd Management 
Areas (HMA) and issuing decisions establishing Appropriate Management 
Levels (AML). Nevada BLM plans to establish AML through monitoring and 
evaluation on all HMAs by fiscal year 2001, thereby enabling BLM to 
remove excess animals from all HMAs. Another area of emphasis that BLM 
initiated in fiscal year 1999 and will continue into fiscal year 2000 
is the broad based field studies of the immuno-contraceptive vaccine. 
BLM vaccinated 761 mares this past winter with the one shot vaccine 
that prevents the mares from foaling for one year. In fiscal year 2000, 
BLM will concentrate broad based field studies of the immuno-
contraceptive vaccine in Nevada by vaccinating 1,500 to 2,000 mares. 
BLM anticipates that the one shot, two year vaccine will be available 
for these field studies. Wide-spread application will be dependent on 
available fiscal year 2000 funding.
    Despite the emphasis BLM is placing in Nevada on establishing AML, 
use of immuno-contraceptive vaccine, and population control through 
removals the effort is inadequate at reducing the populations. In fact, 
at the current recruitment rate, removal rate, and adoption rate, the 
number of HMAs that are at AML will decrease as populations increase on 
the range. Though faced with significant challenges in Nevada, BLM is 
optimistic about the potential of immuno-contraception as a mechanism 
for helping to control wild horse populations and reach Appropriate 
Management Level in the long term.
    Question. Appropriations language for fiscal year 1999 for the 
Bureau of Land Management directed $50,000 for the protection of the 
Sloan Petroglyphs in BLM's Las Vegas District. What progress has been 
made by the BLM in protecting these resources?
    Answer. Under contract with the Harry Reid Center at the University 
of Nevada-Las Vegas, the BLM has recorded all rock art images at the 
Sloan Petroglyphs site. This two-phase inventory effort resulted in the 
meticulous recordation and mapping of over 1,700 rock art images, which 
now constitutes the largest and most detailed petroglyph site record in 
Nevada. BLM has also entered into a site stewardship agreement with the 
Harry Reid Center for the monitoring by volunteers of the Sloan Canyon 
area. In addition, the BLM has initiated regular weekend patrols of the 
canyon by BLM Law Enforcement Rangers. The BLM's Las Vegas Field Office 
is now preparing a contract for the development of a Cultural Resource 
Management Plan to guide development of on-site and off-site management 
prescriptions for Sloan Canyon. These plans will be compatible with the 
Wilderness Study Area Interim Management Plan guidelines that currently 
exist for this area. The contract will be awarded later this summer, 
and work is scheduled to be completed in fiscal year 2000.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                 mandan on-a-slant and lewis and clark
    This leads to the question of how the Park Service and others are 
planning to tell the story of a critical part of the success of the 
Lewis and Clark voyage--the role of Native Americans.
    Question. What steps are you taking to ensure participation of 
Native Americans in Lewis and Clark activities, including 
interpretation of the voyage from the native viewpoint?
    Answer. The National Park Service has an on going dialogue with 
Native American Indian Tribes regarding the Lewis and Clark National 
Historic Trail and the telling of the interpretive story relating to 
the trail. Specifically, the NPS is leading a Department of the 
Interior initiative to conduct government to government ``listening 
sessions'' with all Native American Indian Tribes associated with the 
Lewis and Clark National Historic Trail. These meetings are intended to 
provide the NPS with specific input from Native American Indian Tribes 
regarding the telling of the Lewis and Clark story.
    The Three Affiliated Tribes of Ft. Berthold (Mandan, Hidatsa and 
Arikara) have a museum on their reservation.
    Question. What kinds of assistance would be available to ensure 
that this facility is ready for Lewis and Clark activities?
    Answer. The NPS entered into a Cooperative Agreement with the Three 
Affiliated Tribes in 1998 to begin a planning process for the Lewis and 
Clark Bicentennial. Through the Challenge Cost Share program, the NPS 
provided the Three Affiliated Tribes with funding for basic planning. 
The NPS will continue to provide assistance to the Three Affiliated 
Tribes for Lewis and Clark projects through the Challenge Cost Share 
program as Lewis and Clark related projects are developed and proposed.
                lewis and clark national historic trail
    The fiscal year 2000 budget request for the National Historic 
Trails program includes $1.174 million for the Lewis and Clark National 
Historic Trail--an increase of $300,000 over fiscal year 1999. North 
Dakota received a portion of these funds. These funds would augment 
existing agreements by which sites along with the Lewis and Clark route 
are operated, to ensure that additional staff for coordination of 
bicentennial activities, media liaison, and technical assistance to 
federal, state, local, and private interests.
    I can't stress strongly enough the importance of these partnership 
agreements--especially their continuation and enhanced funding. Again, 
these are relatively small dollar activities which provide great 
leverage in obtaining state, local, and private funds.
    Question. Can you provide me with a breakout of how these 
additional funds would be specifically used if appropriated by 
Congress?
    Answer. A portion of the additional $300,000 for fiscal year 2000 
will be used for partnership agreements ($140,000). Funding the 
greatest number of requests possible will require that the available 
funds be distributed proportionately to ensure the best and widest use 
of the funds. The remainder of the additional request for fiscal year 
2000 ($160,000) will be used to support two positions for planning and 
technical assistance. These funds will enable us to provide technical 
assistance to Federal, state, and other interests that are developing 
major visitor and interpretive facilities and programs focusing on the 
expedition.
    Question. What activities are planned for North Dakota sites with 
these added funds?
    Answer. In North Dakota, the three affiliated tribes were 
instrumental in the success of the Lewis and Clark expedition. In 
recent meetings with American Indians in the Pacific Northwest, 
Intermountain Area and Great Plains (at New Town, North Dakota), it was 
found that assistance is needed in developing their existing and 
proposed cultural heritage centers, museums, and interpretive programs. 
In part, the requested technical assistance positions will be used to 
assist American Indian endeavors in North Dakota, as elsewhere.
    A request was made of the Associate Regional Director of Cultural 
Resource Stewardship and Partnerships in the Midwest Region earlier 
this year to increase the funding level of the North Dakota Lewis and 
Clark Bicentennial to $70,000 per year from $35,000.
    Question. Can you tell us the status of that request?
    Answer. NPS has been able to partially meet the request. A 
cooperative agreement modification with the North Dakota Lewis and 
Clark Bicentennial Foundation dated February, 1999, obligates $35,000 
for general support (public outreach, resource monitoring, volunteer 
support); plus $22,000 for two challenge cost-share projects to develop 
a living history program at Fort Mandan and develop four interpretive 
displays on Lewis and Clark animals at the zoo in Bismarck.
                  lewis and clark bicentennial project
    Three of the ten sites in the NPS Bicentennial project are in North 
Dakota and are slated for budget increases in the fiscal year 2000 
budget:

Fort Union Trading Post.......................................   $84,000
Knife River Indian Village....................................    97,000
Theodore Roosevelt National Park..............................   135,000

    These additional funds respond to expected and actual increases in 
visitation (it's already up 45 percent at Knife River over the previous 
year), increased maintenance needs (many buildings at Fort Union need 
work), and the need for more staff and interpretation and planning. 
Apparently, the bulk of the increase indicated for Theodore Roosevelt 
National Park ($115,000 of the $135,000), however, is intended to pay 
for the position of a Lewis and Clark coordinator who most likely will 
not even be located in North Dakota.
    Question. Is this accurate?
    Answer. Yes. This position will primarily be a liaison to Federal, 
State, tribal, and local partners, and needs to be located near good 
air transportation access to many points along the Trail. It may also 
play a key role in carrying out the NPS plans to conduct the Corps of 
Discovery II for the Bicentennial.
    The Corps of Discovery II is a traveling classroom/exhibit that 
will travel across the country following the Lewis and Clark journals. 
It will be a combination of mobile museum exhibits and live 
interpretations. In addition, Internet sites, distance learning 
technologies, and onsite research will be used to tell the story of the 
expedition. This will all be accomplished in partnership with other 
Federal and State agencies and with local communities and Native 
American groups.
    Question. If so, do you know at this time where this individual 
will be located?
    Answer. The Lewis and Clark bicentennial project will staff a 
coordinator/liaison person for the entire bicentennial project, and 
there will be a superintendent of the Corps of Discovery II Project. 
The coordinator/liaison position will most likely be located in Omaha. 
At this time, the NPS is not sure where the superintendent of the Corps 
of Discovery will be located.
    With the importance of the pending Lewis and Clark Bicentennial 
Commemoration, and the need to have the current staff located more 
centrally on the Lewis and Clark Trail, the Midwest Region has split 
out the Lewis and Clark Trail Office from the Ice Age Trail Office 
located in Madison, Wisconsin and co-located it with our central office 
in Omaha. The Omaha location is central along the Lewis and Clark Route 
stretching from Washington D.C. to the Oregon/Washington Coast. It was 
economically the least expensive means of providing administrative and 
technical support to the office; offers good airline accessibility as 
well as proximity to large population areas from Sioux City to Kansas 
City.
    At present we are formulating how best to address the needs of 
trail management and preparing for a major interpretive effort in the 
proposed Corps of Discovery II, 200 Years to the Future. The location 
of the coordinator has not been determined. It is, however, anticipated 
that this individual will travel extensively addressing Trail issues 
from coast to coast along the entire Lewis and Clark Route.
            leafy spurge at theodore roosevelt national park
    At the same time, a real and urgent need exists at Teddy 
Roosevelt--the need to combat the exotic, non-native and invasive plant 
known as leafy spurge. The Department understands the need for funds to 
combat this plant. I understand that you originally requested $285,000 
for this purpose but that you ultimately lost this battle. In response 
to a question for the record from last year's hearing before this 
subcommittee, you indicated the unmet funding need of $275,000 for this 
same purpose. Leafy spurge was introduced to the North Great Plains in 
the early part of this century. It is discovered in the Theodore 
Roosevelt National Park in 1968 and, by 1970, covered 32 acres. Left 
unchecked, leafy spurge doubles its coverage every ten years. Today it 
has spread to more than 4,000 acres--over 10 percent--of the south unit 
of the park. Park employees have heroically combated this plant on an 
ad hoc basis using the few funds the director and others are able to 
scrape together from savings in other area. But they need a strong and 
effective federal response to stop the spread of this plant, which is 
devouring habitat for the bison, elk, wild horses, and other large 
animals in the park.
    Question. Are there not additional resources you can find to combat 
this invasive and destructive plant?
    Answer. The park continues to dedicate resources to this effort 
within available funds. Given funding constraints, a park base 
operating increase is not being requested for this effort, though the 
park is taking advantage of a partnership with the Department of 
Agriculture in its five year effort to fight leafy spurge within the 
entire Little Missouri River watershed.
    Question. Will you work with me and this subcommittee to identify 
some added resources, which we could use to fight this battle?
    Answer. Issues such as the invasive species problems at Theodore 
Roosevelt National Parks and other parks in the system are part of the 
genesis behind the Service's Natural Resource Initiative, as presented 
in the fiscal year 2000 President's Request. All resource issues in the 
NPS would not be solved immediately as a result of this initiative, but 
rather be addressed over time as budgetary allowances and priorities 
dictate. We continue to explore all possibilities. For example, in 
fiscal year 1997, the U.S. Congress provided a total of $4.8 million 
over five years to the U.S. Department of Agriculture, Agricultural 
Research Service in Sydney, Montana to fight leafy spurge within the 
entire Little Missouri River Watershed that covers a four state area. 
Theodore Roosevelt National Park is one of many partners in the team 
that is attacking leafy spurge on a coordinated, biologically-based 
Integrated Pest Management Program. Some of these funds are going 
directly to the park to help their efforts. It is important to attack 
exotic species on an areawide effort, as the one described above. We 
are extremely interested in developing more partnerships between 
Departments and other agencies if this could be useful in addressing 
the problem.
                  fish and wildlife service--easements
    The U.S. Fish and Wildlife Service has for many years actively 
pursued the purchase of wetlands easements within the State of North 
Dakota. During this time, there has been a continuing frustration with 
the lack of flexibility that wetlands easements offered. Most recently, 
there have been lawsuits filed in the state by producers who had 
easements on their land. The result of these lawsuits established that 
the FWS had overextended its interpretation of its easement authority.
    Question. What is the USFWS currently doing to develop a more 
flexible policy on wetlands easement purchases?
    Answer. The FWS is complying with the court order to map all North 
Dakota wetland easements upon request of the landowner, as well as any 
wetland easement where there is a potential easement violation.
    Question. Will you have adequate funding to meet these needs?
    Answer. The FWS is using available funds to respond to the court 
order. The amount available for mapping wetland easements has resulted 
in an extensive backlog of landowner requests and an inability to 
adequately respond to their needs. The FWS is attempting to prioritize 
these requests to the greatest extent possible.
                fish and wildlife service--birding guide
    The Fish and Wildlife Service continues to develop its refuge 
resources in ND making it one of the pre-eminent wildlife areas in the 
country. North Dakota is also one of the nation's top birding states. 
The fiscal year 1999 Interior Appropriations bill authorized the 
Service to create a Birding Guide to North Dakota.
    Question. What is status of the creation of this guide?
    Answer. The FWS's Bismarck, ND office is working with your staff to 
determine exactly what type of guide is most appropriate. The existing 
``North Dakota Wildlife Viewing Guide'' is being reviewed for potential 
updating and reprinting. The FWS has worked with the State and others 
to put the guide together and make distribution throughout the state.
    Question. What are the FWS's plans to use the guide to help promote 
ND's refuge system?
    Answer. Additional copies of the existing ``North Dakota Wildlife 
Viewing Guide'' as revised will be provided to all North Dakota refuges 
as well as appropriate visitor centers and contact points throughout 
the State. This should provide birding information about North Dakota 
refuges to the visiting public and therefore promote the Refuge System.
                       payments in lieu of taxes
    For many years, there has been a growing concern about the PILT 
funds which various local entities receive from the Federal government. 
I have strongly supported increasing those payments.
    Question. What is the percentage of payment in North Dakota in 
relationship to the actual taxes that would have been paid on that 
land?
    Answer. The fiscal year 1998 PILT payment to counties in North 
Dakota totaled approximately $594,359. The BLM does not collect data or 
make estimates on the level of property taxes that would have been 
collected on these lands if they were not in Federal ownership.
    Question. What is your plan for future budget requests?
    Answer. The Department of the Interior fully understands that PILT 
payments are an important source of income for many counties, as are 
other revenue sharing programs. However, an increase for PILT was not 
included in the President's fiscal year 2000 budget request, and the 
Department would not support additional funding for PILT at the expense 
of BLM operating funds or other Administration priorities. Increased 
funding for BLM operations supports programs that provide significant 
services, resources, and tangible benefits to the public. Federal 
payments to counties and States supplement those benefits in supporting 
the health of local economies. The Administration will continue to 
submit budget requests that promote resources and services derived from 
the public lands, and will likewise continue to support the PILT 
program.
                 tribally controlled community colleges
    I want to commend you and the Administration for the increase that 
has been recommended for the Tribally Controlled Community Colleges. As 
you are well aware, the colleges depend on funding from the BIA for 
their core operations which is crucial to maintaining accreditation. I 
am convinced that education is the key to improving living conditions 
and providing employment opportunities on our reservations, and I have 
personally witnessed how the tribal colleges have literally turned 
around the lives of many of the students. I appreciate the support and 
recognition of the Administration for the Tribal Colleges and I hope 
the Subcommittee can meet the level you have suggested.
    Mr. Secretary, you may recall that in this Subcommittee's fiscal 
year 1999 report, we requested that you review the current needs of all 
major post-secondary schools serving primarily American Indian students 
and recommend plans for improving their facilities. We had also asked 
that the review include cost estimates and a reasonable federal share 
for meeting these costs for tribally controlled community colleges and 
other vocational and art education institutions. Just from my own 
personal experience, I know that the facilities' needs at the tribal 
colleges are great, and it is extremely important that your report 
include a substantive and comprehensive analysis that can be used as 
the basis for developing a strategy for funding these facilities 
nationwide.
    Question. Can you provide the Subcommittee with a status report on 
the review we requested? I urge you to submit the review as soon as 
possible so that we can consider it as part of the fiscal year 2000 
budget deliberations.
    Answer. The Bureau's Facilities Management and Construction Center 
(FMCC) and the Office of Indian Education Programs are developing a 
survey instrument to obtain cost estimates for the facilities 
construction needs for each of the TCCCs, the Crownpoint Vocational 
Technical Institute, and the United Tribes Technical College. The 
survey is expected to be sent to the institutions by the end of June, 
1999, with final responses received by August. At this time, FMCC will 
formalize the data and submit a report to the Committees on its 
findings.
                        bia school construction
    I am certain you would agree with me that our first priority on 
school replacement should be addressing the needs of the schools that 
need help the most, regardless of the financial wherewithal of the 
tribe.
    Question. Are you and the Department committed to working with me 
and the Congress to arrive at a funding mechanism--whether it be 
through bonds or otherwise--to fully meet the repair and replacement 
needs of our most derelict schools?
    Answer. The Department is committed to working with you and the 
Committee to reach a resolve to remedy the repair and improvement needs 
of the schools in Indian Country so that our Indian students do not 
have to attend schools or other educational facilities with conditions 
rivaling those found in Third World countries.
    Question. If Congress and the Administration are ultimately unable 
to develop a workable bonding initiative for BIA-funded schools--and I 
am not assuming that this will be the case--is it the Administration's 
intention that the $30 million included in your budget for defeasing 
the principle on bonds should be used to otherwise repair and replace 
BIA schools?
    Answer. In the event that the Bonding Initiative was not enacted 
but the $30 million was appropriated, these discretionary funds could 
be utilized for high priority Bureau School Replacement construction 
and FI&R projects.
    Question. The Administration's fiscal year 2000 budget request 
actually recommends a decrease in the line-item for repair (Facilities 
Improvement and Repair) of BIA schools from $40 million in fiscal year 
1999 to $36 million in fiscal year 2000. Given the $754 million repair 
backlog why did you propose a decrease in this area?
    Answer. The Bureau's fiscal year 2000 request for education 
construction funding is the highest since 1992. Quite often, replacing 
a school is a more cost effective measure than FI&R. The replacement of 
the Seba Dalkai and Fond du Lac schools will produce a reduction in the 
maintenance backlog, because those costs are foregone by replacement.
    Also, the $30 million requested in the President's Budget for the 
bonding initiative would result in a significant reduction in the 
maintenance backlog overall. Current budgetary limitations on 
appropriations preclude a major infusion of funds due to the existing 
and competing overwhelming needs and requirements on a Bureau-wide 
basis. Ideally, if new construction is possible to reduce the backlog, 
it will have a corresponding reduction on FI&R needs.
    Question. The March 29, 1999 Federal Register request that BIA-
funded schools needing to be replaced submit an application by July 16 
in order to be placed on a new priority ranking list. How many schools 
does the BIA plan to place on this new priority list? Will all schools 
needing replacement be placed on this list? Will you be sending to 
Congress a specific plan for funding the constructio n projects placed 
on this new list?
    Answer. The Bureau plans on adding approximately 15 schools to the 
existing list of 4 unfunded replacement schools. This will result in 
the publication in the Federal Register of a fiscal year 2000 priority 
list consisting of 19 schools; this plan assumes full funding for Seba 
Dalkai School and Fond du Lac School as requested in the 
Administration's fiscal year 2000 budget.
    All schools needing replacement will not be placed on the priority 
list that will be published in the Federal Register. The primary reason 
is that the physical condition of buildings, demographic and enrollment 
conditions at schools are likely to change while awaiting 
appropriations for the 19 schools planned for inclusion on the list. 
Because of these changing conditions, the Bureau feels schools not on 
the list should be given the opportunity to re-compete based on the 
conditions of the schools at the time new applications are re-solicited 
by the Bureau. The Bureau plans on providing the Congress with the 
prioritized list of all schools needing replacement. This list, 
however, will not constitute the Bureau's official list for funding 
purposes; the list published in the Federal Register will serve this 
purpose.
    The schools on the published priority list will be included in the 
Bureau's Five-Year Deferred Maintenance Plan. All 19 schools on the 
list may or may not be included in the Five-Year Plan; inclusion will 
depend on anticipated out-year funding levels for education facilities 
construction.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. I am pleased to see that the Department's budget includes 
$36 million to acquire over 437,000 acres of inholdings in the 
California Desert. Can you comment on the importance of this 
acquisition, and why the funding should be appropriated this year?
    Answer. The Wilderness Conservancy, utilizing private funds, will 
contribute a total of $25.5 million ($20.5 million in cash and $5.0 
million in donated land) to be matched by $36.0 million from the Land 
and Water Conservation Fund, requested by the President in the fiscal 
year 2000 budget request. In total, 487,000 acres of land in the 
California Desert will be transferred to the BLM and NPS for protection 
and management. The urgency of this request rests in the increasing 
pressures that jeopardize the integrity of the resources of this unique 
region, some of which is critical habitat for threatened and endangered 
species. There is concern that the proximity of certain in-holdings to 
rapidly expanding rural/semi-urban areas will result in further 
residential development, which is already occurring at a rapid pace in 
the Desert. Further, mineral development on many of the inholdings is 
on the rise, particularly where plans of operation exist and 
determinations for operations are favorable to the claimant. In both 
cases, road development to access private lands in support of these 
operations increases the threat to the Desert's natural and biological 
resources.
    The Wildlands Conservancy will donate to the National Park Service 
the former Catellus lands it acquired at Joshua Tree National Park. As 
part of the Department's $36.0 million budget request for the 
California Desert, the NPS fiscal year 2000 budget request for land 
acquisition includes $7.1 million to acquire the 86,425 acres of 
Catellus property located in Mojave National Preserve. BLM requests 
$28.9 million in its budget.
    The willingness of the Catellus Corporation to sell its inholdings 
at the low rate negotiated by the Wildlands Conservancy and the 
Department is based on the timely appropriation of the entire $36.0 
million requested in the President's budget. Postponement or delay of 
that appropriation could jeopardize the current agreementwith Catellus.
    Question. The Lands Legacy Initiative proposes funding for many 
worthy programs, but I have heard concerns that the Administration is 
proposing funding for activities not authorized by the Land and Water 
Conservation Fund Act of 1965. Why has the Administration proposed 
splitting up the LWCF amon g so many different programs?
    Answer. The President's budget recognizes that several existing 
authorized programs in the Departments of the Interior, Agriculture, 
and Commerce serve conservation purposes similar in nature to those 
currently funded out of the Land and Water Conservation Fund, and 
proposes to fund them out of OCS receipts deposited to the Fund. 
Moreover, the Administration's view is that the expertise of these 
agencies should be brought to bear to achieve the initiative's 
objectives.
    Accordingly, increased funding is provided for Interior, 
Agriculture, and NOAA, in addition to existing programs in a variety of 
other agencies. Together these programs provide a variety of tools that 
could be applied to the individual resource issues.
    A bill that I am sponsoring, as well as bills that Senator Landrieu 
and Senator Boxer are sponsoring, would provide significant new 
resources for the Urban Park and Recreation Recovery (UPARR) Program.
    Question. Given the broad bipartisan support for reviving the UPARR 
program, why has the Administration chosen to request only $4 million 
for the program?
    Answer. It was envisioned that $4 million would stimulate 
resurgence in the updating and refocusing of urban park and recreation 
Recovery Action Programs (RAP) to identify open space and outdoor 
recreational opportunities. Information derived from the RAPs, plus the 
quantity and quality of the rehabilitation grant applications, may 
provide better justification for potential future funding.
    Question. What is the status of the Headwaters management plan? 
When will the Bureau of Land Management begin the planning process, and 
when will the process be completed?
    Answer. Since the acquisition of the Headwaters Forest, the public 
expectations and interest in the area have been high. The BLM has 
redirected funding to implement interim management guidelines and to 
provide for limited public access (immediate on-the-ground needs, such 
as access, barriers, and parking facilities) during the summer of 1999.
    BLM and the State of California will initiate a cooperative long-
term management planning process in October 1999. This cooperative 
effort will include Federal, state, and local governments along with a 
broad spectrum of public interest groups. The management plan will be 
subject to formal review procedures, including public meetings, 
pursuant to the National Environmental Policy Act and the California 
Environmental Quality Act and is expected to be completed in 2001.
    Question. BLM has announced that it will co-manage Headwaters with 
the State of California. How will this be coordinated?
    Answer. The BLM and the State of California have signed a 
Memorandum of Understanding to guide the future planning and management 
of the Headwaters Forest Reserve. The MOU assigns the BLM as the 
designated Federal manager of the Reserve and assigns the California 
Department of Fish and Game as the designated State lead for the 
Reserve. Together, both agencies will manage the Headwaters Forest for 
fish and wildlife habitat and other ecological values on a partnership 
basis on behalf of the citizens of the United States.
    Question. What is the status of the Pacific Lumber timber harvest 
plans that were grandfathered into Headwaters agreement? What is your 
understanding of the State's view on these THPs, and when will Pacific 
Lumber be able to implement these timber harvest plans?
    Answer. BLM's understanding is that the State of California's 
Department of Forestry and Fire Protection is working with the U.S. 
Fish and Wildlife Service, the State of California Department of Fish 
and Game, the National Marine Fisheries Service, and Pacific Lumber on 
this issue. The State of California's Department of Forestry and Fire 
Protection is responsible for approving THPs on private lands. BLM is 
not involved in this issue and therefore is unable to provide 
additional information on the matter.
    Question. What are your plans to overhaul the records management 
system for Indian trust accounts?
    Answer. The plaintiffs in the Cobell v. Babbitt have requested that 
we produce all records (title reports, leases, probate orders, etc.) 
related to their individual trust accounts, including those of their 
predecessors dating to the original trust patents issued in the late 
1800's. Judge Lamberth ruled Secretaries Babbitt and Rubin and the 
Assistant Secretary-Indian Affairs in contempt due to our failure to 
produce all trust fund documents for five named plaintiffs and their 
predecessors in interest. The judge assigned a Special Master, Mr. Alan 
Balaran, to oversee the discovery process and administer document 
production compliance with court orders and related matters. The costs 
to produce documents for the five named Plaintiffs and their 
predecessors in interest based on the Government's definition of 
predecessor is estimated to be $13 million. The definition of 
predecessor remains before the Special Master for decision. The 
Solicitor has advised that the definition advocated by the Plaintiffs 
would add thousands of individuals to the definition. If Plaintiffs 
prevail, the costs to produce these documents will increase by tens of 
millions.
    In accordance with the American Indian Trust Fund Management Reform 
Act of 1994, the Special Trustee is charged with trust fund reform 
oversight. Mr. Thomas Thompson is currently serving as the Acting 
Special Trustee while the Administration conducts a search to fill the 
post permanently. In April 1997, the Special Trustee submitted his 
``Strategic Plan to Implement the Reforms Required by the American 
Indian Trust Fund Management Reform Act of 1994''. Notwithstanding the 
Secretary's reservations about certain aspects of the Strategic Plan, 
the Secretary and the Special Trustee agreed that selected trust system 
improvements and data clean up efforts in the Strategic Plan should 
proceed. The approach selected to implement the Secretary's decisions 
on portions of the Special Trustee's Strategic Plan is centered on 13 
major Sub Projects outlined in the Department of the Interior's High 
Level Implementation Plan. This Plan outlines the comprehensive, 
coordinated, inter-Bureau effort to correct the many well-documented 
problems associated with the Department's management of Indian trust 
funds. Implementation of this Plan will cost $136 million through 
fiscal year 2000.
    Presently, the Office of the Special Trustee and the Bureau of 
Indian Affairs are developing and implementing two systems--the Trust 
Funds Accounting System and Trust Assets Account Management System--
which will facilitate management of trust funds and trust land 
transactions. Records management considerations are being incorporated 
into the information system development. For example, all existing 
electronic information systems will have their data and documentation 
scheduled under the Federal Records Act requirements.
    In addition, the Secretary's High Level Implementation Plan 
contains a Records Management Sub Project to resolve Indian Affairs 
long standing records management weakness in the Bureau. The scope of 
the Sub Project includes Indian Affairs records policy, management, 
storage, access, control and disposition and electronic records-
keeping, including imaging technology. The Sub Project was further 
refined based on a recent study of the Bureau and Office of Special 
Trustee's (OST) records management activities. The recommendations and 
actions to be taken to implement each of the recommendations that 
resulted from the study have been provided to the Subcommittee. While 
OST has requested $7.4 million in fiscal year 2000 to reform Indian 
Affairs records management, senior officials from the BIA, OST, and the 
Department will share in the responsibility of overseeing the reform 
efforts.
    Question. What is BIA doing to compensate the Native Americans 
whose trust accounts have been lost?
    Answer. In November, 1997, the Department submitted its 
recommendations for settlement of disputed Tribal trust fund accounts 
to the Congress. The recommendations were based on the Tribal 
Reconciliation Project, a five-year, $21 million study of Tribal 
accounts undertaken by Arthur Anderson, LLP under the supervision of 
the Department. The Department drafted legislation and, after a series 
of consultation meetings with Tribes, submitted the proposal to the 
Congress. The Administration's proposal envisioned immediate payment of 
known errors, a good faith settlement offer to all Tribes with trust 
accounts that did not accept the good faith settlement offer, and 
finally, litigation for those circumstances where a settlement could 
not be reached. It was introduced by Congressman Miller by request on 
April 30, 1998 (H.R. 3782). A joint hearing of the Senate Indian 
Affairs Committee and the House Resources Committee was held on the 
proposal on July 22, 1998. The Inter Tribal Monitoring Association 
(ITMA) offered its own proposal as well. The 105th Congress ended 
without the adoption of any Tribal settlement legislation. Departmental 
officials have met several times this year with ITMA representatives to 
discuss principles for a new consensus settlement bill. The Department 
invites active involvement of the Congress in developing Tribal Trust 
Funds settlement legislation.
    The administration of Individual Indian Monies accounts for 
individual Indians is the subject of the Cobell v. Babbitt et. al. 
litigation. While Plaintiffs in this lawsuit contend that they have 
claims for recovery of ``lost'' funds and/or for damages for alleged 
mismanagement of trust lands (or other assets), this lawsuit does not 
involve a claim for monetary relief. Lawsuits for such claims have yet 
to be filed.
    Question. How does the BIA propose the money from the Class Size 
Reduction program be distributed?
    Answer. The Bureau is working with the Department of Education 
(Department) on the distribution methodology for the Class Size 
Reduction program funds. The Department is currently requiring that 
these funds be distributed to schools based on enrollment and level of 
poverty. As BIA's 185 schools qualify for the free and reduced lunch 
program and as high poverty schools the Bureau is working with the 
Department to re-evaluate its distribution method.. In addition, the 
Bureau funds many schools with small enrollments due to the isolation 
and rural conditions where Bureau schools are located. If funds are 
distributed based on enrollment, the Bureau will have some schools 
receiving only $900, which is not sufficient to effect a reduction in 
class size. The Bureau is recommending that the funds be distributed 
equally to each school. This would result in each school receiving 
approximately $20,000 which in some locations is sufficient to hire a 
beginning teacher. The Bureau will continue to work with the Department 
on this issue.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                       united states park police
    As Chairman of the Criminal Justice Oversight Subcommittee of the 
Senate Judiciary Committee, I believe it is important that Federal law 
enforcement activities receive appropriate funding and resources. As 
you know, vital services to Federal, state, and local law enforcement 
in the D.C. area are provided by the United States Park Police. Some of 
this assistance, including the essential Park Police Aviation Unit, is 
provided only by the Park Police.
    Question. Do you believe that the Park Police is an important 
aspect of Federal law enforcement and that its funding needs should be 
met?
    Answer. The NPS strongly supports the important mission of the 
United States Park Police and believes it to be an important aspect of 
Federal law enforcement. The Park Police are significantly represented 
in the President's fiscal year 2000 budget with a proposed operating 
increase of $2.661 million (excluding pay, pension, and other increased 
uncontrollable cost requests). This funding will be used to address 
training and staffing needs, support the Aviation Unit, and provide for 
communication enhancements. Park Police funding needs are included in 
the President's budget to the maximum extent possible within available 
funding allowances after being considered along with other priority NPS 
needs.
    Question. It is my understanding that, since 1996, the Park Police 
budget requests to the National Park Service have been cut 
considerably. Are you aware of the extent to which Park Police funding 
requests have not been approved by the Park Service?
    Answer. Since fiscal year 1996, all operational funding for the 
Park Police has risen by about $15 million (or 26.3 percent), from $57 
million in fiscal year 1996 to a requested $72 million in fiscal year 
2000. This change represents an 18.5 percent increase in constant 
dollars over this period. The emphasis the Service places on adequate 
funding for the Park Police is evidenced by the request in fiscal year 
2000: increases in operating funds for the Park Police total almost $4 
million, with the Park Police pension fund also slated for a $1.1 
million boost.
    The NPS, under the fiscal constraints facing all government 
agencies, has had to weigh Park Police needs against all other 
requirements. The Park Police funding requests are considered carefully 
within current funding constraints, and as priorities dictate, as set 
by the National Leadership Council of the NPS.
    Regarding upgrades to the communication system, funding in the 
fiscal year 2000 Construction and Major Maintenance Appropriation, 
Special Programs budget activity, has been earmarked to address the 
initial short-term needs for communications systems of the Park 
Police--preventative system maintenance, adjustment of telephone line 
interfaces, training of communications staff, analysis of the radio 
system, and initial narrowband conversion issues. The requested amount 
is $255,000 and is a portion of a larger $2.5 million Servicewide 
request for narrowband conversion.
    Question. I understand that the communications system of the Park 
Police is particularly dated and antiquated. What plans are being made 
to upgrade the communications system?
    Answer. The National Telecommunications and Information 
Administration (NTIA) has directed the Department of the Interior to 
convert all of its current VHF frequencies to narrow band equipment, 
with all equipment to be converted before 2005. A recent study 
performed by the National Park Service Radio Managers and Office of 
Information Resource Management staff identified the following short-
term USPP needs: improve the system's preventative maintenance; adjust 
telephone line interfaces and augment and better train communications 
staff; contract an engineering firm to analyze the radio system; and 
provide alternatives to correct cited problems including the conversion 
to narrowband operations and the availability of commercial services 
and leasing options. The cost of the initial short-term needs has been 
estimated at $255,000, and is part of the $2,500,000 included in the 
fiscal year 2000 Construction and Major Maintenance appropriation 
request.
    Long-term needs include implementing the results of the engineering 
study to include newer ``trunking'' technology and the increase of 
technical staff to include the New York and San Francisco Field 
Offices. The study further recommended installation/implementation of a 
Computer Aided Dispatch system to (1) improve Park Police response 
time, (2) allow for the automatic identification of callers, and (3) 
improve officer location information. The cost to implement the long-
term needs is estimated at over $13 million and will be addressed 
through funding proposals over a number of years.
    Question. It appears that some Park Police districts and 
facilities, such as D-1 and Glen Echo Horsebarn, have particularly 
antiquated communications apparatus and are difficult to reach at times 
except through telephone. What is being done to improve the 
communications equipment for these facilities in particular?
    Answer. The NPS is concerned about the need to improve the 
communications equipment in Park Police districts and facilities 
system-wide. District One and the Glen Echo Horsebarn are not special 
cases.
    A recent study performed by the National Park Service Radio 
Managers and Office of Information Resource Management staff identified 
the following short-term United States Park Police needs: improve the 
system's preventative maintenance; adjust telephone line interfaces and 
augment and better train communications staff; contract an engineering 
firm to analyze the radio system; and provide alternatives to correct 
cited problems including the conversion to narrowband operations and 
the availability of commercial and leasing options. The cost of the 
initial short-term needs has been estimated at $255,000, which is 
proposed for funding in fiscal year 2000.
    Reliable communications equipment is vital for all law enforcement 
officers. The U. S. Park Police, along with needs at all NPS sites, 
will be upgraded to comply with a National Telecommunications and 
Information Administration (NTIA) mandate which has directed the 
Department of the Interior to convert all of its current VHF 
frequencies to narrowband equipment, with all equipment to be converted 
by 2005.
    Long-term needs include implementing the results of the engineering 
study to include newer ``trunking'' technology. It was further 
recommended that a Computer Aided Dispatch (CAD) system be implemented 
to improve Park Police response time, automatic identification of 
caller, and improved officer location information. The cost to 
implement the long-term needs is estimated at over $13 million and will 
be addressed through funding proposals over a number of years.
    The United States Park Police have identified this funding need in 
the National Park Service's Operation Formulation System (OFS) Program, 
an official database of unfunded budgetary needs.
    Question. I understand that the Park Police has a long-term 
personnel shortfall and currently employs almost 150 officers less than 
its authorization of about 700 officers. Do you see this shortfall as a 
problem and are there any efforts being made to address this issue?
    Answer. There is no authorized staffing level. The NPS believes, 
however, that an on-board strength level of 625 officers is needed. 
Accordingly, the National Park Service's budget request for fiscal year 
2000 includes an increase of $1.861 million which, coupled with 
$500,000 provided in fiscal year 1999, would establish a base amount 
dedicated to funding two recruit classes annually. The $2.361 million 
would be used to cover salary costs for 48 park police cadets per year 
during their training, travel, lodging expenses, initial uniform, 
equipment issuance, applicant physicals, background investigations, and 
incidental costs incurred at the Federal Law Enforcement Training 
Center, Brunswick Georgia. At the conclusion of training, the new 
officers will fill existing funded vacancies, and allow attainment of 
essential staff levels by fiscal year 2001. The funding for the recruit 
classes would continue to remain available for two more recruit classes 
every year, as needed.

                          subcommittee recess

    Senator Gorton. I thank you very much. The subcommittee 
will stand in recess subject to the call of the Chair.
    [Whereupon, at 11:35 a.m., Thursday, April 22, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]

                       DEPARTMENT OF THE INTERIOR

                       Bureau of Land Management
Prepared Statement of Gregory E. Conrad, Executive Director, Interstate 
                       Mining Compact Commission
    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the subcommittee regarding the views of the 
Compact's member states concerning the fiscal year 2000 Budget Request 
for the Office of Surface Mining (OSM) within the U.S. Department of 
the Interior. In its proposed budget, OSM is requesting $50.6 million 
to fund Title V grants to states for the implementation of their 
regulatory programs and $169.2 million for state Title IV abandoned 
mine land (AWL) program grants. Our statement will address both of 
these budgeted items.
    The Compact is comprised of 18 eastern and mid-continent states 
that together produce some 60 percent of the Nation's coal as well as 
important noncoal minerals. Participation in the Compact is gained 
through the enactment of legislation by the member states authorizing 
their entry into the Compact and they are represented by their 
respective Governors who serve as Commissioners. The Compact's purposes 
are to advance the protection and restoration of land, water and other 
resources affected by mining through the encouragement of programs in 
each of the party states that will achieve comparable results in 
protecting, conserving and improving the usefulness of natural 
resources and to assist in achieving and maintaining an efficient, 
productive and economically viable mining industry.
    Over the past several years, the Commission has alerted the 
subcommittee to an alarming and potentially debilitating trend in Title 
V grant funding. As you know, these grants support the implementation 
of state regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs. Ever since fiscal year 1995, the 
appropriation for these grants has either decreased or remained 
stagnant. Once again this year, the Office of Surface Mining has failed 
to provide any increase for Title V grants, despite the states' 
projected need for additional moneys to meet actual program expenses.
    Each year, OSM requests and receives increases in its budget to 
meet ``uncontrollable costs'' (such as workers' compensation, 
unemployment compensation, retirement costs and pay rate increases) and 
``fixed overhead costs''. In estimating its projected program operating 
costs, the states face these same annual increases, in addition to 
increased costs associated with the escalating cost of travel and 
replacement of equipment (especially vehicles and computers). And yet, 
for five federal fiscal years, we have received no increases in the 
grants that are supposedly intended to support our programs.
    All of this finally caught up with the states and OSM in fiscal 
year 1999. Facing a flat-line appropriation once again, OSM attempted 
to allocate fiscal year 1999 Title V grant moneys based on a formula 
that allegedly took into account past program spending (otherwise known 
as ``obligations''). Pursuant to this allocation formula, some states 
saw reductions in their grant amounts in the 20-30 percent range 
compared to their estimated needs and to their fiscal year 1998 amounts 
As a result of those reductions, some states faced mandatory lay-offs 
of state personnel and others had to deal with another year of being 
unable to replace worn out vehicles used by inspectors in the field. 
More specific examples of the impact of reduced grant amounts are as 
follows:
  --``Undoubtedly, we will have to curtail some important activities. 
        What these activities will be is unclear. Do we stop our 
        efforts to make advances in technology? Should we cut back on 
        successful compliance assistance and pollution prevention 
        efforts? Do we maintain a work force that will have fewer 
        vehicles or do we reduce the work force below the program 
        minimums in order to purchase badly needed vehicles? These 
        difficult decisions will be made as prudently and 
        compassionately as possible with the goal of maximizing our 
        environmental responsibilities.''
  PA Department of Environmental Protection (FY 1999 grant allocation 
        reduced 22.25 percent below state estimate.)
  --``With decreased federal support, it is apparent that an acute 
        problem may develop. If federal funding for the coal regulatory 
        program continues at the proposed federal fiscal year 1999 
        level, by state fiscal year 2001, the Division of Mining and 
        Reclamation will have exhausted its cash balance to less than a 
        three-month operating reserve. The only way to avoid this 
        crisis at the present time would be to expend state funds only 
        to the extent that they are matched by federal funds. At 
        present federal funding levels, this would mean reducing our 
        overall projected program expenses by approximately $700,000 
        annually. Such a reduction would potentially reverse all of our 
        progress in program development and support to date, and may 
        result in a reduction in staffing of up to 15 FTE. Obviously, 
        such a reduction would be catastrophic to our primacy 
        program.''
  Ohio Department of Natural Resources (FY 1999 grant allocation 
        reduced 22.4 percent below state estimate.)
  --``Salary funding reductions have been made to Bureau of Mines 
        personnel decreasing the estimated time that can be dedicated 
        to working on regulatory issues. Cuts were made to 
        administration and inspection personnel salaries. Personnel 
        will have less time to support the program and all cross 
        training of inspectors has been totally cut. Travel funds have 
        been reduced resulting in fewer opportunities to attend 
        necessary meetings and training sessions. Purchases of some 
        necessary equipment that was scheduled to be replaced during 
        this fiscal year will be delayed. Six computers have failed the 
        Y2K compatibility tests and were scheduled to be replaced or 
        upgraded this year.''
  Maryland Department of the Environment (FY 1999 grant allocation 
        reduce 31.3 percent below state estimate.)
    The examples of the impacts of OSM's fiscal year 1999 Title V grant 
allocations go on and on. To OSM's credit, the agency has agreed to 
seek a supplemental appropriation to shore up state grants and we would 
urge you to approve such a request. As important, however, is the need 
to reverse the debilitating trend that has resulted in the dire 
circumstances now facing the states in fiscal year 1999. We therefore 
urge you to increase the budgeted amount for Title V grants in fiscal 
year 2000 to $55.4 million, which is what the states have projected 
their actual needs to be in fiscal year 2000. To the extent that states 
face anticipated shortfalls in fiscal year 1999 and assuming that a 
supplemental appropriation for fiscal year 1999 fails, the amount of 
funding needed for fiscal year 2000 may increase by an additional $1.2 
million in order to make the states whole.
    It is critical that you understand the basis for the states' 
estimates of program costs for fiscal year 2000. Those estimates, which 
are not reflected in OSM's budget justification document but which are 
attached to this statement, are based on actual projected costs and are 
not inflated to anticipate a reduction by OSM to achieve budget target 
levels. The states have been instructed by OSM to provide their best 
estimates based on anticipated actual program costs. The states provide 
OSM with two estimates, one at 18 months out which is used to prepare 
the initial budget proposal and another at 3 months out just prior to 
submission of the Department's final budget to OMB. These latter 
numbers are as accurate, credible and realistic as possible and reflect 
the true program costs and funding needs of the states.
    For years now, we have tried to impress upon OSM and your 
subcommittee the value and importance of these estimates and the 
necessity of meeting the states' funding needs. In fiscal year 1999, 
the folly of failing to do so has resulted in significant negative 
impacts on state regulatory programs. It will require all of the 
states' fiscal ingenuity and belt-tightening efforts, together with 
some difficult trade-offs, to manage our programs and resources in such 
a way that we can achieve the same level of performance that has been 
expected from us in the past. We are especially concerned about the 
impacts of this funding crisis on OSM's evaluation of state programs 
pursuant to federal oversight. How ironic it would be for the states to 
receive something less than the high marks we have consistently 
received from OSM due to reduced grant funding.
    It is especially frustrating for the states to be faced with this 
dilemma this fiscal year when OSM has finally heard our pleas about the 
need to increase Title IV (AML) grants. We obviously support this 
increase and strongly endorse OSM's plan to continue these increase 
over the next few years until the AML program is funded at a level 
commensurate with fee receipts. The states are prepared to deliver the 
expected benefits and services to our customers under the Title IV AML 
program in a cost-effective and efficient manner and welcome the new 
opportunities presented by increased AML funding. The inventory of 
existing AML problems clearly presents the states with a challenge to 
direct whatever AML grant moneys are available to the remediation of 
these remaining problems. The states welcome that challenge and stand 
ready to proceed expeditiously as moneys continue to be allocated from 
the Trust Fund.
    However, it must be kept in mind that the key to avoiding future 
AMLs is an effective Title V regulatory program that assures active 
mining will occur in a controlled and environmentally responsible 
manner. Adequate Title V grants are the lifeblood of effective state 
regulatory programs. Should states be unable or unwilling to operate 
these programs due to funding constraints, the federal government will 
be faced with the burden of operating regulatory programs at a 
substantially increased cost. Further, without Title V programs in 
place, states are unable to access Title IV funds, in spite of OSM's 
proposed increases. In the final analysis, it behooves everyone--OSM, 
the Congress and the states--to commit the resources necessary to 
assure strong and effective state programs that will achieve the 
purposes and objectives of SMCRA, thereby protecting the environment 
where active mining operations occur and enhancing the environment 
through remediation of past problems associated with abandoned mines.
    OSM has proposed an amount of $11.6 million for technology 
development and transfer, which includes improving and expanding the 
services and technical systems provided to states. We wholeheartedly 
endorse this commitment by OSM to strengthening and enhancing state 
programs. In this regard, one of the most successful programs of 
technical support for the states undertaken by OSM is the development 
of the Technical Information Processing System (TIPS). TIPS assists the 
states in making technical decisions associated with permit reviews; 
performing cumulative hydrologic impact assessments; quantifying 
potential effects of coal mining; quantifying revegetation success; 
assisting in the design of AML projects; and preparing environmental 
assessments and environmental impact statements. This function will be 
particularly important given several pending issues such as mountaintop 
removal/valley fills, blasting and subsidence. TIPS will also be 
critical in the ongoing efforts by the states to develop effective 
electronic permitting functions. We are hopeful that funding will be 
available to replace or update the current TIPS workstations, many of 
which are in dire need of attention.
    We also urge the subcommittee to continue its support of OSM 
funding for states to attend OSM technical training sessions. Given 
state budget constrains as detailed above, travel to these valuable OSM 
training sessions is impossible without federal funding. OSM's 
technical training program is one of the shining stars of the federal 
program and is an excellent example of how OSM can best support the 
states in the implementation of their programs. This program is also a 
stellar example of state/federal cooperation in achieving the goals of 
SMCRA.
    We are also hopeful that OSM, as part of its commitment to 
technical services, will continue to support funding for the Computer-
Assisted Library Search Service, which benefits both the mineral 
producing states and the public. The system provides searches to yield 
complete and accurate data in minutes, thereby eliminating the need for 
staff manually search through volumes of documents. As implementation 
of SMCRA becomes more and more complex, the need for this service has 
increased. The states, in particular, have become reliant on the 
system's ability to assist us with the implementation of our programs 
and to address the myriad compliance actions that attend enforcement of 
our programs.
    Finally, we urge continued funding for the Small Operators 
Assistance Program (SOAP). This program is critical to the permitting 
of remining operations by small operators, especially the costs 
associated with background water quality assessments, overburden 
analysis, and probable hydrologic consequences (PHC) predictions. 
Without financial assistance to undertake these expensive analyses, 
small operators will be unable to submit quality permit packages for 
potential remining operations. This will, in turn, result in additional 
burdens on state and federal AML program funds as remining operations 
will be unavailable to correct problems that currently are on the AML 
inventory.
    Thank you for the opportunity to submit this statement on OSM's 
fiscal year 2000 budget request. Should you have any questions or 
require additional information, please do not hesitate to contact us.

  STATES' FISCAL YEAR 2000 TITLE V REGULATORY GRANT REQUESTS (MAY 1998)
------------------------------------------------------------------------
                                                          OSM revised
                                                          estimate (as
                                                        listed in OSM's
               State                  State request          budget
                                                         justification
                                                           document)
------------------------------------------------------------------------
Alabama...........................         $1,029,275           $929,722
Alaska............................            178,872            161,571
Arkansas..........................            179,871            162,474
Colorado..........................          1,977,084          1,785,858
Illinois..........................          2,482,102          2,242,030
Indiana...........................          2,098,457          1,895,492
Iowa..............................            164,352            148,456
Kansas............................            115,481            104,312
Kentucky..........................         13,050,259         11,788,022
Louisiana.........................            187,128            169,029
Maryland..........................            583,986            527,502
Mississippi.......................            132,072            119,298
Missouri..........................            459,947            415,460
Montana...........................          1,035,810            935,625
New Mexico........................            630,159            569,209
North Dakota......................            542,130            489,695
Ohio..............................          2,307,000          2,083,864
Oklahoma..........................            999,991            903,271
Pennsylvania......................         11,365,156         10,265,904
Texas.............................          1,446,392          1,306,495
Utah..............................          1,670,163          1,508,623
Virginia..........................          3,245,664          2,931,739
West Virginia.....................          8,027,870          7,251,405
Wyoming...........................          1,506,671          1,360,944
                                   -------------------------------------
      Totals......................         55,415,892         50,656,000
                                   =====================================
Shortfall in state requested funding.................          4,759,892
------------------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of Timothy H. Quinn, Acting General Manager, 
           Metropolitan Water District of Southern California
    The Metropolitan Water District of Southern California 
(Metropolitan) submits the following comments for the record regarding 
fiscal year (FY) 2000 funding for activities by the Bureau of Land 
Management (BLM) with regard to its participation in the Department of 
the Interior's Colorado River Salinity Control Program. The 1984 
amendments to the Colorado River Basin Salinity Control Act (Act), 
direct the Secretary of the Interior to develop a comprehensive program 
to minimize salt contributions to the Colorado River from federally 
owned lands administered by the BLM.
    Metropolitan is a wholesale water supplier responsible for meeting 
the supplemental needs of the 16 million residents and the associated 
economy within its service area on the coastal plain of Southern 
California. The Colorado River continues to meet more than one-half of 
these supplemental water needs, and Metropolitan is vitally concerned 
that the quality of this irreplaceable water supply be maintained.
    Metropolitan requests that Congress allocate $5.2 million of the 
Management of Land and Resources appropriation, Land Resources 
activity, Soil, Water, and Air Management subactivity for fiscal year 
2000, for BLM's continued participation in the Colorado River salinity 
control program. This level of funding is necessary to meet the 
salinity control activities schedule that seeks to maintain the water 
quality standards adopted by the seven Colorado River Basin States and 
approved by the U.S. Environmental Protection Agency. The Colorado 
River Basin Salinity Control Forum, the interstate organization that 
coordinates the Basin states' salinity control efforts, supports this 
level of funding. Use of these funds would be for immediate 
implementation of salinity control measures through improvements in 
rangeland management.
    Due to geological conditions, the land within the Colorado River 
Basin is composed largely of soils heavily laden with salts. Large 
portions of these lands are federally owned, and are managed by the BLM 
for a variety of uses: recreation; road building and transportation; 
oil, gas and mineral exploration and production; and most 
significantly, grazing. As a result, man has induced and accelerated 
the natural erosion processes. When such soils and rocks heavily laden 
with salt are eroded, much of the resulting silt is carried along in 
the Colorado River and its tributaries--sometimes for long distances. 
Ultimately, the silt settles in the streambed or on the flood plain. 
The salts, however, are dissolved in the water and remain in the 
stream, appearing in the water supplies of downstream users. The 
accumulative nature of these salts causes more severe water quality 
impacts the farther downstream each succeeding use occurs.
    The rangeland management programs of the BLM have demonstrated that 
they can bring about some of the most cost-effective salinity control 
actions available. While effective at reducing unnecessary salt 
addition to this important water supply source, these actions are 
environmentally oriented as they are designed to prevent erosion, 
enhance wildlife habitats, and increase grazing opportunities. The BLM 
has studied hundreds of watersheds in the States of Colorado, Utah, and 
Wyoming as potential sites for implementation, and has selected several 
locations where promising control measures could be implemented within 
a very short timeframe. Such measures are projected to have an early 
beneficial impact on the salinity of Colorado River water received by 
downstream users.
    Metropolitan believes it is essential that your Subcommittee 
support the allocation of the recommended funding of $5.2 million for 
the BLM's activities on Colorado River salinity control for fiscal year 
2000. Your assistance and support to ensure continued funding of the 
Colorado River Salinity Control Program now and in the future will 
continue the progress already achieved by this model of 
intergovernmental cooperation.
    We appreciate your support and stand ready to work with you and 
your Subcommittee. Please contact Brad Hiltscher, Metropolitan's 
Legislative Representative in Washington, D.C. at (202) 296-3551 if we 
can answer any questions or provide additional information.
                                 ______
                                 
    Prepared Statement of the Coachella Valley Mountains Conservancy
    The Governing Board of the Coachella Valley Mountains Conservancy 
appreciates this opportunity to submit testimony in support of a $5 
million appropriation to the Bureau of Land Management for acquisitions 
in the Santa Rosa Mountains National Scenic Area. The Conservancy was 
established by the California Legislature in 1991 to acquire and hold 
in trust open space in the mountainous lands surrounding the Coachella 
Valley, and to provide for the public's enjoyment and use of those 
lands consistent with the protection of cultural, scientific, scenic, 
and wildlife resources.
    The Scenic Area is the mountain range that forms the backdrop of 
the Coachella Valley cities, including Palm Springs, Cathedral City, 
Rancho Mirage, Palm Desert, Indian Wells, and La Quinta. The mountains 
rise quite steeply from the desert floor to an alpine environment atop 
San Jacinto Peak at 10,800 feet. The resource values in the mountains 
run the gamut from scenic and wildlife to cultural and recreational. 
The Scenic Area is of great importance to the Coachella Valley's 
economy, and hundreds of thousands of people who come to the desert 
each year for vacation enjoy our mountains, and, in so doing, 
contribute to the local economy.
    The Conservancy would like to inform you about two partnerships. 
The first partnership is the local, state, and federal partnership that 
has been working for years to protect the National Scenic Area. The 
attached chart shows the magnitude of this partnership. Since 1990 the 
state of California has provided over $20 million for acquisition and 
the local communities nearly $10 million, including $3.9 million since 
January 1st for a key acquisition in Andreas Canyon. BLM has 
contributed over $11 million in LWCF money in that time period. This is 
a partnership that you can be proud of having supported, and you can be 
confident that your continued support will again leverage state and 
local contributions. With the listing of the peninsular bighorn sheep 
as an endangered species last year, we are in ever-greater need of 
acquisition funding to protect the National Scenic Area, which is home 
to the magnificent bighorn sheep. Land acquisition activities are 
accelerating in an effort to avert conflicts over the bighorn sheep and 
to enhance protection for the species.
    The Conservancy and BLM are currently talking with nine key 
landowners about the acquisition of their property. Together their 
holdings total 13,830 acres, the total value of which is in the range 
of $19 to $26 million. Five of these landowners are committed willing 
sellers at an estimated cost of $3.4 million, and the BLM's remaining 
fiscal year 1999 LWCF money will initiate these acquisitions. 
Appraisals are currently being conducted on these properties. Of the 
other four landowners, three have indicated a strong interest in 
selling, contingent upon the purchase price being determined and how 
quickly the acquisitions could occur. The value of their land is in 
excess of $10 million. The final landowner has not yet indicated 
whether or not he wants to sell. The requested $5 million appropriation 
would complete the pending projects and enable BLM to initiate one or 
more of the other willing seller acquisitions. The Conservancy is 
optimistic that state funds will be available in the coming fiscal year 
to provide a significant state contribution toward those acquisitions.
    The second partnership is the southern California NCCP cooperative 
effort. Representatives from NCCP efforts in five counties meet monthly 
to share information and provide mutual support for each other's 
efforts. Collectively, these NCCP plans comprise the core of a 
bioregional conservation plan for all of southern California. This is 
certainly one of, if not the most, most comprehensive and proactive 
planning efforts in the nation. We also request your support for the 
funding needs of our NCCP partners, namely, $10 million in acquisition 
funds for the San Diego Wildlife Refuge, $2 million in acquisition 
funds for Otay Mountain, and $2 million in NCCP planning funds. To meet 
other needs in the area, as well as in other areas of the country, we 
support $80 in Cooperative Endangered Species Act funding and full 
funding for the LWCF program.
    In conclusion, the Conservancy would like to update you on some of 
the successful acquisition efforts in the Scenic Area. We are pleased 
to report the completion of a partnership acquisition by the BLM and 
the City of Palm Desert, in which each contributed $1.25 million to 
acquire the C.C. Myers property. Also, as alluded to earlier, the 
County of Riverside recently committed $1.9 million and the Agua 
Caliente Band of Cahuilla Indians committed $2 million to acquire the 
Andreas Cove Development Company property at the mouth of Andreas 
Canyon. The Conservancy purchased 91 acres and the Friends of the 
Desert Mountains have 213 acres in escrow, using Adopt an Acre program 
contributions from community members and corporate sponsors.
    Land and Water Conservation fund money has been well spent in the 
Santa Rosa Mountains National Scenic Area because of these 
partnerships. The money is an investment in more than land. It is an 
investment in a model of local, state, and federal agencies working 
successfully together, and with diverse private sector groups. The 
Coachella Valley has an excellent history of such cooperative efforts 
in land acquisition and in preparing successful plans to deal with 
endangered species issues. That cooperation is alive and well today; in 
fact it is healthier than ever. An LWCF appropriation is a key 
ingredient in the recipe for the success we have had and are continuing 
to enjoy. The Conservancy hopes this Subcommittee will support an LWCF 
appropriation as you have in the past.
                                 ______
                                 
     Prepared Statement of Rollin D. Sparrowe, President, Wildlife 
                          Management Institute
    Chairman Gorton, the Wildlife Management Institute, founded in 
1911, is a non-profit organization staffed by experienced resource 
management professionals dedicated to improving the management of 
wildlife and wildlife habitat.
                funding for wildlife and range programs
    We at the Institute are very concerned about the lack of funding 
for the Bureau of Land Management, particularly its wildlife and range 
management programs. The BLM manages the largest area of public lands 
in the United States (264 million acres), and 162 million acres is 
rangeland in the western States. We are concerned that the President's 
requests for the Wildlife and Fisheries program ($34.688 million) and 
Rangeland Management ($67.217 million) are inadequate. These two 
programs have been underfunded and understaffed for so long that the 
staff are taking a perverse pride in doing without. The number of BLM 
wildlife biologists, for example, is lower than it was almost 20 years 
ago--275. The Forest Service, which is also understaffed, has 376 FTE's 
and needs 454 FTEs. Furthermore, those biologists currently working for 
the BLM are frequently pulled into the office to work on grazing 
permits and other paperwork, and are unavailable for on-the-ground 
work.
    We strongly support the President's request for $4.3 million to 
conduct interdisciplinary grazing permit reviews and to complete 
integration of the standards and guidelines into local land-use plans. 
We hope this new funding will alleviate some of the staffing and range 
managment problems we have seen in the past. We also support the 
proposed minimum $3.5 million increase for control and eradication of 
invasive weed species, $1.092 million increase for the wild horse and 
burro management program, and $740,000 increase for riparian 
management.
   sage grouse, lesser prairie chicken, and black tailed prairie dog
    Although we strongly support the BLM's Wildlife and Range Programs 
throughout the nation, we are very concerned about the condition of 
wildlife habitat in the Great Basin and Southwest, where the BLM and 
other federal land management agencies are facing a major wildlife 
crisis. In addition to the nearly 100 species already listed or 
proposed for listing under the Endangered Species Act, several others 
are on the verge of being listed including the sage grouse, the lesser 
prairie chicken, and the black-tailed prairie dog. The demise of these 
species is but one signal that major habitat problems in these two 
regions are not adequately addressed.
    The State of Utah recently listed sage grouse as a Sensitive 
Species, and the decline of the sage grouse is not limited to Utah. In 
a February 1999 letter addressed to the directors of three federal land 
management agencies, the Western Association of Fish and Wildlife 
Agencies states that, ``The Association is very concerned about current 
population trends of sage grouse. Nearly all populations appear to have 
declined significantly over the past 20 years. Reasons for declines in 
sage grouse populations are varied and complex, but most seem directly 
related to habitat loss, fragmentation and degradation . . . . Without 
adequate resource consideration for sage grouse and a proactive habitat 
enhancement program that includes compatible sagebrush steppe 
management actions and programs, it is unlikely that sage grouse 
management goals and viability can be achieved. As you may know, there 
are already preliminary inquiries being made by some members of the 
public to list sage grouse under the Endangered Species Act.''
    One area of particular concern is the sage grouse population in 
southwestern Wyoming where extensive development of new oil and gas 
fields is planned. Thousands of new wells with attendant roads, 
pipelines, and other facilities are planned in sagebrush habitat from 
the Green River to Pinedale. In combination with other types of habitat 
loss, this new development could result in the listing of sage grouse. 
We are concerned that environmental assessments do not adequately 
address habitat for sage grouse and other wildlife. In the Pinedale 
area, Sublette antelope and mule deer populations have declined, and 
hunting seasons have been shortened as a result. Loss of preferred 
habitat may slow or prevent their recovery.
    The U.S. Fish and Wildlife Service decided that the lesser prairie 
chicken should be listed but precluded under the Endangered Species 
Act. This species' habitat is mostly east of BLM lands and on private 
land; however, lesser prairie chickens occupy remnants of their range 
in New Mexico, Texas, Colorado, and Oklahoma. Again loss of habitat is 
the suspected cause of this species decline. Lesser prairie chicken 
habitat has been converted to agricultural land, and overgrazing and 
``control'' of shinnery oak have also had adverse effects. BLM 
biologists in New Mexico have been working on grazing plans to resolve 
some of these problems.
    The black-tailed prairie dog, once widely distributed, now occupies 
less than 1 percent of its former range, and its population has 
declined to about 2 percent of historic numbers. Causes of its decline 
are again multiple: disease, poisoning, conversion of its habitat to 
favor livestock, and unregulated shooting. Tied closely to this species 
is the already listed black-footed ferret.
    The listing of these three species under the Endangered Species Act 
would almost certainly affect grazing, mineral development, and 
recreational use of both public and private lands. To reiterate, the 
nation would be far better served if the needs of these species were 
met before they become listed.
             wildlife and fish habitat program initiatives
    The BLM's Fish and Wildlife Habitat Management Program has 
identified three internal initiatives that should improve wildlife 
habitat in the Great Basin and the Southwest Desert: $16 million for a 
Great Basin Shrub-steppe initiative, $16 million for the Southwest 
Desert Initiative, and $6.8 million for a Riparian and Wetlands 
Initiative. The Wildlife Management Institute supports these 
initiatives and would like to see them fully funded with increases in 
the agency's budget, rather than funded at the President's request 
level. The BLM manages 40 million acres of shrub-steppe habitat in the 
Great Basin and Intermountain West. Wildlife habitat in this area has 
deteriorated because of many causes, including altered fire regimes, 
overgrazing, and oil and gas development. Now, about one third is 
dominated by annual grasses and noxious weeds. The Southwest Desert and 
riparian areas are also at risk because of a variety of reasons 
including altered fire regimes and overgrazing by domestic livestock, 
wild horses, and burros.
    The Fish and Wildlife Habitat Program has identified about $26 
million dollars worth of projects that will NOT be funded in the 
President's budget request. Of this amount, $20 million worth of 
projects are in the Great Basin, Southwest Desert, and in riparian 
areas and wetlands. For example, unfunded projects for sage grouse 
include prescribed burns in timber and sagebrush-grasslands, sagebrush 
management, expanded monitoring of sage grouse, studies of the effects 
of oil and gas development on sage grouse, controlling cheatgrass, 
delineating key nesting habitats and controlling livestock in these 
areas, inventorying sage grouse habitat, improving grazing management, 
and improving riparian brood-rearing areas. In New Mexico, the BLM 
plans to leave a Challenge Cost Share program for the lesser prairie 
chicken on the table because the agency does not have enough money to 
match private funds. There are other unfunded projects as well for elk, 
desert bighorn sheep, Dall sheep, moose, management of wild horses and 
burros, and projects to reduce conflicts between wildlife and domestic 
livestock.
                             riparian areas
    The BLM has completed an inventory of most of its riparian areas, 
and about half are in need of immediate action to prevent them from 
further deterioration. Riparian areas are not only important for fish, 
they are important for wildlife. In the desert Southwest, for example, 
stream banks are oases for wildlife and a birdwatcher's paradise. In 
the Great Basin, sage grouse, elk, deer, and many other species are 
dependent on riparian areas. The agency has identified $8 million in 
unfunded projects for riparian and wetlands restoration.
                               rangelands
    The BLM has inventoried about half of the 162 million acres of 
rangelands that it manages, and only 36 percent is in ``late seral'' 
(good ) or ``potential natural community'' (excellent) status. The 
remainder needs work. In the Great Basin, the agency has identified 
tens of thousands of acres that need to be burned because they are 
pinyon-juniper or juniper or cheatgrass dominated lands. The incursion 
of pinyon pine and junipers into previous grass and shrub habitat 
reduces watershed function, wildlife habitat, and livestock forage and 
increases conflicts between wildlife and livestock. Improved livestock 
management and habitat restoration are needed on these lands. About 62 
million acres has some cheatgrass or medusahead wildrye and is at risk 
of being dominated by these two invasive weeds. The agency admits that 
it does not have the staff to implement a large restoration program.
                         seeking common ground
    Seeking Common Ground was established to lessen conflicts between 
livestock and wildlife by improving range habitat and increasing the 
availability of water. Seeking Common Ground is an ideal example of 
local people solving local problems on federal and private land in the 
national interest. All projects approved for funding under Seeking 
Common Ground must be cooperative projects between federal and State 
agencies, ranchers, and non-governmental organizations.
    An estimated $500,000 is needed for these projects, equally divided 
between the U.S. Forest Service and the Bureau of Land Management. In 
the past, the BLM has taken the funding for this program from other 
underfunded programs. This program should be funded with add-on moneys 
to avoid distortions within the agency's other wildlife and range 
programs.
                          challenge cost share
    We support the BLM's Challenge Cost Share Program; however, any 
amount earmarked for Challenge Cost Share should also be a budget add-
on. The BLM has such a lean budget that earmarks for specific programs 
under past budgets have caused distortion in the agency's other 
programs.
    Challenge Cost Share Programs can substantially increase funding of 
habitat improvement programs. For example, the U.S. Forest Service has 
been able to match each federal dollar with almost $2.5 of non-federal 
funds. The BLM has Challenge Cost Share dollars on the table because 
the agency did not have staff or matching funds.
    In conclusion, we are very concerned about funding for the BLM, 
particularly its wildlife and range management programs. Under the 
Federal Land Policy and Management Act, the BLM has the responsibility 
for managing habitat for all wildlife--a responsibility equal to that 
of managing a vast amount of the nation's mineral estate. It appears 
that the President's budget request is inadequate to meet this agency's 
obligations to the nation.
    Mr. Chairman, we would be pleased to work with you, the Committee, 
and staff to provide further documentation and to help avert a future 
wildlife crisis on much of the nation's public land.
                                 ______
                                 
Prepared Statement of Gerald R. Zimmerman, Executive Director, Colorado 
                       River Board of California
    Your support and leadership are needed in securing adequate fiscal 
year 2000 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. This 
program is carried out as a part of ecosystem and watershed management 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act.
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Much of the lands that 
are controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to man-induced and accelerated erosional 
processes from which soil and rocks, heavily laden with salt have been 
deposited in various stream beds or flood plains. As a result of this 
disposition, salt is dissolved into the River System causing water 
quality problems downstream.
    Congress has charged federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity measures available. In keeping with the 
Congressional mandate to maximize the cost-effectiveness of the 
salinity control program, the Colorado River Board is requesting that 
Congress appropriate and the administration allocate adequate funds to 
support the BLM's portion of the Colorado River Basin Salinity Control 
Program.
    The President's proposed budget has included $641 million in BLM's 
budget for Management of Lands and Renewal Resources. The Colorado 
River Board of California, the state agency charged with protecting 
California's interests and rights in the water and power resources of 
the Colorado River System, formally requests that Congress appropriate 
$5,200,000 of these funds for the Colorado River Basin salinity control 
activities as recommended by the Colorado River Basin Salinity Control 
Forum.
    The Colorado River is, and will continue to be, a major and vital 
water resource for California. California's Colorado River water users 
are presently suffering economic damages estimated at about $750 
million per year due to the river's salinity, and those damages are 
expected to increase significantly by the turn of the century without 
further salinity control measures being implemented. Preservation of 
its quality through an effective Salinity Control Program will avoid 
the additional economic damages to river users in California.
    The Board greatly appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance and 
leadership in securing adequate funding for this vital program.
                                 ______
                                 
  Prepared Statement of Jack A. Barnett, Executive Director, Colorado 
                   River Basin Salinity Control Forum
    This testimony is in support of funding for the Bureau of Land 
Management for activities that assist the Colorado River Basin Salinity 
Control Program. The Bureau of Land Management (BLM) budget, as 
proposed by the Administration, supports ecosystems and watershed 
management. The activities needed to control salts being contributed 
from the BLM lands are a part of ecosystem and watershed management. 
Because the budgeting process lumps all activities together, we can 
only presume that there are adequate dollars in the President's budget 
to move ahead with the water quality enhancement and protection 
programs needed in the Colorado River drainage to ensure that salts in 
excess amounts are not contributed to the river system. Our analysis 
indicates that the Bureau of Land Management needs to specifically 
target the expenditure of funds in the amount of $5,200,000 for 
activities that help control salt contributions from BLM managed lands 
in the Colorado River Basin in fiscal year 2000. The Forum simply 
supports the President's Budget because we presume, but cannot discern, 
that adequate funds will be expended on this needed water quality 
effort.
    Although the Forum has not been able to determine from limited 
budget documents how appropriated funds will be spent, we are much 
encouraged by recent efforts by the Bureau of Land Management. A 
salinity coordinator for the basinwide program has been selected. 
Salinity coordinators in each of the state offices have been 
identified. There has been a meeting to help coordinate a basinwide 
effort that involved the basinwide salinity coordinator and the state 
representatives. The Bureau of Land Management should move to identify 
salinity control goals under the Government Performances and Results 
Act (GPRA) and report to Congress each year its accomplishments. The 
Forum is receiving more meaningful reports from BLM representatives. 
The success of the Bureau of Land Management in controlling erosion 
and, hence, salt contributions to the Colorado River and its 
tributaries is essential to the success of the Colorado River Basin 
Salinity Control Program and the adherence to water quality standards 
that have been adopted by the seven Colorado River Basin states and 
approved by the Environmental Protection Agency. The Forum submits this 
testimony in support of adequate funding so that the Bureau of Land 
Management programs can move ahead at a pace that is needed to meet 
these water quality standards.
                                overview
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and the Bureau of Reclamation were given the lead federal role 
by the Congress. This testimony is in support of funding for a portion 
of the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture, and to a sister 
agency of the Bureau of Reclamation--the Bureau of Land Management. 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept, in 
addition to proceeding to implement their own salinity control efforts 
in the Colorado River Basin.
    Since the Congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation recognizes that the damages to United States' water 
users alone may soon be approaching $1 billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of a program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 1996 Review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that the numeric criteria will be exceeded 
and damage from the high salt levels in the water will be even more 
widespread in the United States.
                             justification
    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the Bureau of Land Management is heavily laden with salt. Past 
management practices, which include the use of lands for recreation; 
for road building and transportation; and for oil, gas, and mineral 
exploration have led to man-induced and accelerated erosional 
processes. When soil and rocks heavily laden with salt erode, the silt 
is carried along for some distance and ultimately settles in the 
streambed or flood plain. The salts, however, are dissolved and remain 
in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling pick-up of salt 
from public lands. The Western Water Policy Review Advisory Commission 
report finds this to be true. Congress charged federal agencies, 
including the BLM, to proceed with measures to control the salinity of 
the Colorado River, with a strong mandate to seek out the most cost-
effective options. It has been determined that BLM's rangeland 
improvement programs can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the Bureau of Reclamation and by the Department of 
Agriculture. They are very environmentally acceptable, as they will 
prevent erosion, increase grazing opportunities, increase dependable 
stream runoffs, and enhance wildlife habitats.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the Bureau of Land Management's portion of the Colorado River 
salinity control program as set forth in the adopted plan of 
implementation.
             details concerning the requested appropriation
    After conferring with BLM officials, the Forum believes there needs 
to be spent in fiscal year 2000, by the Bureau of Land Management, 
$5,200,000 for salinity control. We are particularly concerned that the 
appropriation titled Management of Lands and Renewable Resources is 
adequately funded. The Forum also requests that a specific amount, 
$800,000, be marked for the Colorado River Basin Salinity Control 
Program as has been the direction from the Committee in the past.
    The Forum believes that although it is commendable for the 
administration to formulate a budget that focuses on ecosystems and 
watershed management, it is essential that funds be targeted on 
specific subactivities and the results of those expenditures reported; 
this is necessary for accountability and for the effectiveness of the 
use of the funds. The Forum requests that the Committee require 
accounting, perhaps through GPRA, by the Bureau of Land Management in 
such a way that the results of their salinity control activities in 
connection with the expenditures of funds can be reviewed and measured.
                                 ______
                                 
  Prepared Statement of Hon. Jim Geringer, Governor, State of Wyoming
    This testimony supports fiscal year 2000 funding for the Bureau of 
Land Management (BLM) to carry out Colorado River Basin salinity 
control activities. You will soon receive testimony from the Colorado 
River Basin Salinity Control Forum (Forum) on behalf of the seven 
Colorado River Basin States that is being submitted by the Forum's 
Executive Director, Jack Barnett. The State of Wyoming concurs in the 
fiscal year 2000 funding request and justification statements for BLM 
funding set forth in the Forum's testimony.
    The State of Wyoming is one of the seven member states represented 
on the Forum and the Colorado River Basin Salinity Control Advisory 
Council. The Council was created by Section 204 of the 1974 Colorado 
River Basin Salinity Control Act, Public Law 93-320, and like the 
Forum, is composed of gubernatorial representatives of the seven 
Colorado River Basin states. Both the Council and Forum serve important 
liaison roles among the seven states, the Secretaries of the Interior 
and Agriculture and the Administrator of the Environmental Protection 
Agency (EPA). The Council is directed by statute to advise these 
federal officials on the progress of the federal/state cost-shared, 
basin-wide salinity control programs, and annually recommends to the 
Federal agencies what level of funding it believes is required to allow 
the Program to meet its objective of assuring continuing compliance 
with the basin-wide water quality standards.
    The Council met most recently in October, 1998 and developed 
funding recommendations for fiscal years 2000 and 2001 based on the 
progress the Programs are making in managing and reducing the salt 
loading into the Colorado River System. Based on analyses made by the 
Bureau of Reclamation and the Forum and after conferring with BLM 
agency officials, the Council recommends that the BLM expend $5,200,000 
in fiscal year 2000 to accomplish activities that BLM either has 
underway or should initiate in order to further control the 
concentrations of salinity of the Colorado River.
    It is particularly important that the BLM's line-item for 
Management of Lands and Renewable Resources be adequately funded. We 
further request that the specific funding amount of $800,000 be marked 
for the Colorado River Basin Salinity Control Program as has been the 
direction to the BLM from the Committee in past years. Section 203(b) 
of the Colorado River Basin Salinity Control Act as amended directs the 
Secretary of the Interior to develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by the Bureau of Land Management. This is both important 
and appropriate because the BLM is the largest manager of land in the 
Colorado River Basin (53 million acres of public lands in the Colorado 
River Basin above Yuma, Arizona) and because salt loading reductions on 
BLM-managed rangelands can be done more economically than some of the 
methods available to and projects being implemented by the Bureau of 
Reclamation and the Department of Agriculture.
    The Council and Forum recognize the major role that the BLM can 
have in the Colorado River Basin salinity control effort if more 
attention, effort and focus by the BLM is brought to bear on 
controlling salt discharges from the federal lands it manages. Great 
opportunity exists to decrease salt loading from BLM-managed lands to 
the river system. The Secretary of the Interior is directed by the 
Colorado River Basin Salinity Control Act to give preference to those 
salinity control efforts which reduce salinity at the least cost per 
unit of salinity reduction, e.g. in the most cost-effective manner. The 
Forum and Council have aggressively urged, and will continue to 
encourage, the BLM to identify, plan and develop additional projects 
that will remove, or prevent the loading of, a greater tonnage of salts 
from the River system.
    The State of Wyoming wishes to emphasize the statement found in the 
Forum's testimony that while we are not opposed to BLM's budgetary 
process of focusing on ecosystem and watershed management, it remains 
essential that the expenditure of funds be directed to specific sub-
activities and that the accounting for expenditures be done in such a 
manner that monitoring can take place on how the funds were used, what 
resources were benefitted and which natural resource concerns 
addressed. Wyoming and the other member states of the Forum have been 
frustrated by BLM's approach of identifying where funds are allocated 
as opposed to what purposes or how they are used to accomplish specific 
activities, objectives and benefits. The same difficulty exists with 
regard to accounting for how allocated funds have been expended. The 
BLM is simply unable at the present time to indicate how much money it 
is spending or where it is being spent to achieve salinity control 
benefits. For this reason, the Forum expressed in its testimony a 
strong desire to have the Congress direct the BLM to implement or 
modify its existing accounting practices to enable the Basin States to 
understand how much money this agency is allocating, and what results 
are being obtained, in carrying out its mandate for implementing a 
comprehensive program to minimize salt contributions from lands it 
administers. Thank you for your consideration of this statement.
                                 ______
                                 
   Prepared Statement of Constance D. Holmes, Senior Vice President, 
                   Policy National Mining Association
    The National Mining Association's (NMA) \1\ member companies 
account for approximately three-fourths of the coal production in the 
United States, over one billion tons annually, and the vast majority of 
mined minerals including iron ore, copper, gold, silver, uranium lead, 
zinc, and phosphate. The purpose of this statement is to present the 
mining industry's views on fiscal year 2000 programs for the following 
agencies: Office of Energy Efficiency and Renewable Energy, Office of 
Fossil Energy, Energy Information Administration, U.S. Geological 
Survey, the Office of Surface Mining, the Bureau of Land Management, 
Advisory Council on Historic Preservation and the Forest Service.
---------------------------------------------------------------------------
    \1\ The NMA has not received a federal grant, contract, or 
subcontract in fiscal years 1999, 1998, or 1997.
---------------------------------------------------------------------------
                        office of fossil energy
    An underlying reason for the strength of the United States economy 
is low-cost energy and especially the availability of electricity 
generated by coal, now approximately 56 percent of total. Much of the 
existing utility generating capacity is now reaching the end of its 
useful life and the challenge as we move into the 21st century will be 
the simultaneous replacement and expansion of our generating system 
with technologies that use our domestic fossil resource base while 
minimizing both environmental impacts and generating costs. The 
Department of Energy's past R&D activities in the area of coal research 
and coal generation provide a good basis for the technologies that will 
be required to maintain and expand use of coal while addressing 
existing and possibly more stringent environmental standards. The 
addition of a possible requirement to reduce emissions of carbon 
dioxide adds yet another dimension. But, while great strides have been 
made, improvements in both environmental performance and efficiency 
must continue. NMA supports maintaining DOE's R&D activities at least 
at the levels proposed in the fiscal year 2000 Budget request. These 
activities are targeted at technologies that will be required in the 
near term (from now until 2010) and in the long term (post 2010).
    During the near term, the results of the Clean Coal Technology 
program will begin to be seen. This program has been a highly 
successful industry and government partnership designed to demonstrate 
a new generation of innovative coal processes. NMA is concerned about 
the fiscal year 2000 request for a $246 million deferral in the Clean 
Coal Technology program. This deferral could jeopardize future funding 
of two projects in particular, which remain to be completed under this 
program--the Clean Energy Demonstration Project (an IGCC and fuel cell 
project planned for southern Illinois) and the combined steelmaking and 
power generation project planned for Geneva, Utah.
    Other near term projects which NMA supports (which are an outgrowth 
of the Clean Coal Technology program) include the funding for low 
emission boiler system and the work ongoing on pressurized fluidized 
bed combustion, primarily at the Wilsonville Power System Development 
plant.
    Over the longer term, the continuing use of coal as a valuable 
resource may depend upon the results of two major research areas 
undertaken by DOE.
    Vision 21.--Vision 21 is developing the power plant of the future 
and is, for coal, a cornerstone of DOE's long term program. The goal is 
a 60 percent efficient power plant with the flexibility to produce 
power from coal along with premium fuels and chemicals while 
incorporating industrial process heat generation to boost overall 
thermal efficiencies to as high as 85 percent while reducing carbon 
emissions by more than 62 percent. Vision 21 will take advantage of and 
expand many of the technologies developed in the Clean Coal program 
(for example, PFBC and IGCC). Over the last year preliminary studies 
have been undertaken and now that they are complete, it is important to 
move rapidly into the design and development of key modules for this 
new fleet of power plants. This is a long term program and the work 
that DOE is proposing for fiscal year 2000 Vision 21 effort is critical 
if the technologies being developed under this program are to be 
available in the post 2010 time period.
    Carbon Sequestration.--Equally important for the continuing 
availability of affordable electricity is development of a suite of 
technologies that will capture, or sequester, carbon emissions. It is 
uncertain at this point (and possibly unlikely) that carbon 
sequestration would be required, but carbon sequestration technologies 
will require several years to develop and research must be expanded now 
to have these technologies available should they be needed. NMA 
supports DOE Fossil Energy's request to increase the research dollars 
available for carbon sequestration work from $6.1 million in fiscal 
year 1999 to $9 million in fiscal year 2000. The three-pronged 
approaches--traditional research, enhancing sinks and searching for 
``breakthrough'' technologies are a solid and reasonable approach. We 
would advocate however, that this program is of sufficient importance 
to support funding above the $9 million requested by the 
Administration.
    Coal Research and Development.--The NMA requests significant 
continuing funding for coal preparation and direct and indirect 
liquefaction. Advanced coal preparation technologies promise to reduce 
the cost of continued use of coal in traditional applications in large 
industrial and electric utility boilers. Development of cost-effective 
liquefaction technologies will open new opportunities for high quality 
coal use in both turbines for power and the production of liquid fuels. 
These systems are not only critical as an insurance policy against the 
disruption of imported oil to the U.S., but they are a necessary 
investment in establishing an economically viable liquid fuels program.
    National Laboratories and Cooperative R&D Programs.--The Department 
of Energy should continue its emphasis on making maximum use of its 
existing research facilities, including those national laboratories 
that traditionally have not been active in fossil energy. The National 
Laboratory system is an important complement to the future of the coal-
based generation through advancing R&D Programs for more efficient 
combustion technologies.
            office of energy efficiency and renewable energy
    The Mining Industry of the Future Program.--The research priorities 
developed through this industry/government partnership will offer 
important direction to the Department of Energy, industry and the 
Congress as the research agenda needed to take the mining industry to 
the 21st Century. The mining industry has completed a statement 
defining the goals that the mining industry should attain by 2020 in 
six areas: exploration and characterization of resources; extraction; 
processing; utilization; environment and health and safety. A 
technology roadmap has been completed which defines research 
requirements in some detail and the first solicitation has been issued 
for proposals in each of the above areas. In 1999 two-additional 
roadmaps will be completed looking in more detail at requirements in 
extraction and in processing. NMA solicits the subcommittee's 
continuing support for the mining industry portion of this program and 
requests support for the increase in funding requested by DOE for this 
program. This request is for $3 million in fiscal year 2000.
                   energy information administration
    In addition to its value to the Nation, the functions performed by 
the Energy Information Administration (EIA) are of significant 
importance to the mining industry. EIA's unbiased analysis and 
independent short and long term forecasts form a basis for reasoned and 
responsible policy decisions by the Congress, the DOE and other 
government agencies on both the federal and state levels. EIA's 
independence and objectivity are especially important as the Nation 
considers the effects of new initiatives such as utility restructuring 
and climate change policies on our energy system, and our dependence on 
foreign sources of energy. EIA's energy data collection and 
dissemination responsibilities are essential to our industry's ability 
to evaluate production and market trends and to make investment 
decisions, which benefit the Nation. Unfortunately, over the past 
several years funding levels for EIA have been level or declining. Over 
the longer term this is counterproductive and will adversely affect the 
level, accuracy and timeliness of the information provided to industry 
and policy makers. We urge the subcommittee to support current levels 
of funding as a minimum, and increase the amount available to EIA if at 
all possible.
                        office of surface mining
    The Abandoned Mine Land (AML) program receives funding from coal 
operators and its purpose is to provide for the ``no-fault'' 
reclamation of sites disturbed before the passage of SMCRA and not 
reclaimed to the Act's standards. NMA supports OSM's objective of 
funding the AML program at a level commensurate to fee receipts by 
2003. In fact, OSM should have been requesting funding all along at the 
level of annual receipts. However, NMA encourages the Subcommittee to 
insure that increased expenditures are used for ``on the ground'' 
reclamation, not AML administration
    NMA is concerned by the lack of adequate funding for states under 
the Title V grant program. NMA has long supported state primacy. The 
history of SMCRA has shown that this aspect of SMCRA is working. States 
have long ago manifested both the expertise and the will to manage 
strong surface mining programs. OSM has recently evidenced its desire 
to partner with the states. The Subcommittee should recognize this 
effort by increasing state funding.
            bureau of land management and the forest service
    National Mining Association members are engaged in extensive 
exploration for and development of minerals on public lands. These 
lands are the cornerstone of the Nation's mining industry. In turn, 
mining operations on public lands generate taxes and employment. In 
many cases, mining is the major source of employment and tax revenues 
in rural communities.
    Industry continues to work with the Western Governors' Association 
pursuant to a memorandum of agreement to identify and work toward the 
elimination of disincentives to the cleanup of abandoned hardrock mines 
in the West. It appears, as one reviews the BLM, USGS and Forest 
Service's proposed budgets that these agencies intend to allot 
significant amounts of money to the cleanup of abandoned mines in 
historic mining districts. These funds are hidden, however, within 
programs and initiatives such as the ``President's Clean Water 
Initiative'' and various watershed initiatives. States and industry are 
unable to find matching federal funds for on-the-ground cleanup in this 
morass of jargon and duplicative programs.
    Regarding the President's ``Lands Legacy Proposal,'' NMA agrees 
with the Chairman's assessment that ``It is simply irresponsible to 
take on new land responsibilities and give grants to cities, states and 
private institutions when we cannot afford to adequately take care of 
our primary federal responsibilities--the public lands.'' The Forest 
Service's Mineral's and Geology program is a victim of similar de facto 
budget reductions. The Forest Service budget justification shows 
continued reductions in the Minerals and Geology budget; however, the 
Washington headquarters' overhead increases and the field allocations 
decrease. This headquarters' overhead is not used for the Minerals and 
Geology Management program; it is allocated to the agency's national 
programs referred to as National Commitments that have little or 
nothing to do with the effective operation of the minerals program.
    The results of these funding shortfalls in the field are extended 
Environmental Impact Statement reviews (sometimes as long as 8 years), 
delays in mine plan processing, and inadequate federal compliance 
monitoring. These ``National Commitments,'' like the proposed ``Lands 
Legacy Proposal,'' are not peculiar to the Forest Service. The same 
type of actions are occurring in the BLM where the agency continues to 
expend resources to promulgate revisions to its Surface Management 
rules even though the Governors from affected states consider the 
proposal duplicative of existing state mining and other environmental 
programs and the National Academy of Sciences is currently studying the 
adequacy of existing rules.
    The mining industry, as well as other natural resource industries, 
is faced with increasing impediments to exploration and use of federal 
lands. Withdrawals of land from exploration by executive fiat coupled 
with NEPA review and permitting delays, are resulting in a marked 
decline in domestic exploration and development activity on BLM and 
Forest Service lands. With major mining companies scaling back U.S. 
exploration activities, the Nation's ability to continue to produce 
domestically the 46,000 pounds minerals annually consumed per citizen 
is jeopardized.
                         u.s. geological survey
    Federal Investment in geoscience research and information continue 
to pay enormous dividends and the rationale for continued support of 
geoscience remains strong. The Geological Survey's role in mineral 
exploration, identification of geological hazards and mapping offers 
important support to the mining industry. NMA supports maintaining 
these programs at current, or expanded levels. In addition, the Survey 
is the only source for most of the United States' statistical data on 
mining and mineral's commodities. This information provides the basis 
for informed policy decisions by government and is extensively used by 
other government agencies, by Members of Congress and by state and 
local governments, as well as by industry, academia and nongovernmental 
organizations. NMA is concerned that funding for the data and 
information functions has been declining since this area of 
responsibility was transferred to the Survey. Staff levels and mining 
expertise have declined significantly which affects the timeliness and 
accuracy of the data. NMA strongly advocates that the Survey increase 
the funding allocated to data and information while continuing to make 
use of expertise available from state geologists.
               advisory council on historic preservation
    The Advisory Council on Historic Preservation (ACHP) recently voted 
to finalize their rules amending their regulations implementing Section 
106 of the National Historic Preservation Act. This action was taken 
despite the Council's public announcement several weeks earlier that 
they were withdrawing their proposed regulations and would pursue non-
regulatory guidance on Section 106. NMA commented on the Council's 
proposed rule in November 1996, stating that the Council's ``. . . 
attempt to expand its limited role under Section 106 in a manner that 
transcends its statutory authority pervades almost the entire rule.'' 
NMA recommends that the ACHP be prohibited from further implemention of 
revised Section 106 rules until it has fulfilled its statutory 
responsibilities and provided meaningful notice and comment to the 
public.
                                 ______
                                 
            Prepared Statement of the Ornithological Council
    The Ornithological Council consists of ten leading scientific 
ornithological societies--the American Ornithologists' Union, 
Association of Field Ornithologists, Seccion Mexican Consejo 
Internacional para la Preservacion de las Aves (CIPAMEX), Cooper 
Ornithological Society, Pacific Seabird Group, Raptor Research 
Foundation, Society of Canadian Ornithologists, Society of Caribbean 
Ornithology, Waterbird Society, and Wilson Ornithological Society--that 
together have a membership of nearly 6,500 ornithologists. It is our 
mission to provide scientific information about birds to legislators, 
regulatory agencies, industry decision makers, conservation 
organizations and others, and to promote the use of that scientific 
information in the making of policies that affect birds and the science 
of ornithology. A number of the ornithologists who belong to our member 
societies are either USGS Biological Resources Division (BRD) 
researchers or employees of the land management and natural resource 
agencies served by BRD.
    We appreciate the opportunity to submit this written testimony to 
the Senate Appropriations Subcommittee on Interior and Related 
Agencies.
    The Ornithological Council supports the administration's requested 
increases for:
  --USGS DOI Science Support--$30 million from new funds
  --USGS Place-based Studies--$2.4 million
  --USGS BRD--$1 million for the National Biological Information 
        Infrastructure
  --U.S. Fish and Wildlife Service Office of Migratory Bird 
        Management--$2.38 million for migratory bird conservation and 
        monitoring and $288,000 for permit regulatory reform and 
        management improvements
  --U.S. Fish and Wildlife Service Division of Refuges--$5.34 million 
        for wildlife protection and $5.03 million for habitat 
        improvement
  --U.S. Forest Service--$37.2 million for forest and rangeland 
        research
    In addition, we recommend allocations above the administration's 
request as follows:
  --USGS BRD--$15 million/year for three years, allocated to the 
        Science Centers
  --USGS BRD--$3.5 million for continuation of Species and Habitat 
        research and $2.0 million for clean water initiative research 
        initiated in fiscal year 1999
  --USGS BRD--$1 million for the Cooperative Research Units
  --USGS BRD--$4 million for the National Biological Information 
        Infrastructure
  --USFWS--$10 million for migratory bird management
  --U.S. Forest Service--$410,000 for rangeland and grassland ecology 
        research
    Together, these increases total $119,548,000. This amount is 
insignificant compared to the economic value of maintaining the 
resources or the cost of recovery from mismanagement. For instance, 
according to the 1996 National Survey of Fishing, Hunting, and 
Wildlife-Associated Recreation, expenditures related to wildlife 
watching in that year totaled $29.2 billion. Hunting and fishing 
generated $71.9 billion in revenue.
  funding for the usgs biological resources division, fiscal year 2000
    Before commenting on specific aspects of the proposed budget for 
BRD, we would like to bring to the attention of the Committee the 
current status of funding for the BRD Science Centers, where the 
research is actually conducted.
Deteriorating capacity of the BRD Science Centers
    It is becoming increasing difficult for BRD to conduct biological 
research because the Science Centers do not have adequate base funding. 
The BRD budget declined from a peak of $161 million in FY1994 to a low 
of $139 million in fiscal year 1996. The fiscal year 2000 request of 
$161.9 million is, therefore, approximately $37 million below the 
fiscal year 1994 level (adjusted for inflation at 3 percent per year). 
This inadequate funding has resulted in a deterioration of the capacity 
of the BRD Science Centers to conduct the research assigned to those 
Centers. Without sufficient base funding, the Science Centers rely on 
either cyclical funding or contractual funding with agencies outside 
the Department of Interior (DOI). Cyclical (year-to-year) funding is 
inappropriate for most biological research, which typically spans 
several years. If funding is not assured in advance for the anticipated 
duration of the project, the research cannot be planned. Contractual 
work for agencies outside the DOI (such as the Environmental Protection 
Agency or the Department of Defense) precludes the researcher from 
conducting BRD research, as the research time is necessarily allocated 
to projects that have funding.
    Some Science Centers have essentially no base funding. Even those 
with the highest levels of base funding have experienced severe 
reductions that impede their research programs. At the extreme end of 
the scale, the Columbia Environmental Research Center, which has a 
national mission of expertise in environmental toxicology and 
chemistry, and a regional mission of ecosystem science for large rivers 
and other ecosystems in the Central Region of the USGS, is operating 
almost entirely on cyclical and contractual funding. Nearly 98 percent 
of its funding goes to fixed costs.
Funding BRD at more than the requested level
    The Ornithological Council supports the fiscal year 2000 Budget 
Request for BRD, and in fact encourages the Committee to consider 
appropriating a total of $21.26 million more than was requested. An 
increase of $15 million per year, over the next three years, should 
bring BRD back to the fiscal year 1994 enacted level, adjusted for 
inflation, by fiscal year 2002. All or substantially all of this money 
should be directed to the base funding of the Science Centers.
    We also encourage continued funding of programs that were included 
in the fiscal year 1999 enacted appropriations. These include $3.5 
million for Species and Habitat research and $2 million for Clean Water 
Initiative research. Biological research projects typically require 
several years of data collection, because biological systems vary from 
year to year. Conditions in any single year are not adequate to support 
conclusions about the status of a species, of habitat, or of any other 
component of the system. Therefore, to plan and conduct biological 
research, there must be a reasonable assurance that funding will 
continue for the anticipated duration of the project. We recognize the 
importance of the projects that will be supported by the requested 
increases (amphibian research and monitoring, research in the Hawaiian 
Archipelago and on coral reefs) but these new initiatives should be 
funded in addition to the existing programs, rather than supplanting 
them.
    We are also concerned about the proposed decrease for employee 
travel and training ($760,000). Improving the delivery of information 
from BRD to its partners requires that BRD scientists travel to 
professional conferences, training sessions, and scientific 
presentations. BRD scientists work closely with individual resource 
managers in the federal and state public land and natural resource 
management agencies. There is no substitute for this personal 
interaction, whether on-site or at regional meetings.
Uncontrollables
    In the past, BRD has been required to offset increases in 
uncontrollables with decreases in research programs. This practice is 
unacceptable. We support the requested increase for $3.757 million for 
uncontrollables and urge Congress to instruct USGS not to require 
reductions in research programs to offset increases in uncontrollables.
New funding for the DOI Science Support and Place-based Studies 
        programs
    The requested budget for BRD includes funds that are actually 
designated for two USGS multidisciplinary programs--$3.8 million for 
Place-based Studies and $9.5 million for the new DOI Science Support 
program. The Ornithological Council supports these programs but 
believes that they should be funded with new funds rather than by 
designating funding from the four USGS divisions. This is particularly 
true with regard to BRD funds, which represent only 15 percent of the 
overall USGS budget request and which is the smallest of the four 
divisional budget requests.
Cooperative research units
    The Cooperative Research Units have proven to be extremely 
effective at addressing the information needs of BRD partners. We 
support funding of $13.68 million ($1 million over the requested 
amount), which will allow full staffing of all existing Cooperative 
Research Units for the first time. It will also provide a small 
increase in base operating funds of $5,000 per unit, although this is 
little compensation for 20 years of level base funding.
Community/Federal Information Partnerships
    Land use planning is central to local and state agencies. These 
partnerships are needed to complete the GAP (Gap Analysis Program) in 
all 50 states, which will give the state and local partners the 
information and tools needed for land use planning and resource 
management. We support the requested increase of $3 million for this 
program.
National Biological Information Infrastructure (NBII)
    There is an astonishing amount of biological data generated by 
federal, state, and private researchers, but it must be managed and 
made accessible to resource managers. BRD is providing much-needed 
leadership in the delivery of information to resource managers through 
the NBII. Private conservation organizations, academicians, and others 
can share their information through this system. However, as noted by 
the President's Committee of Advisers on Science and Technology 
(PCAST), the NBII is inadequate in its current form (Teaming with Life: 
Investing in Science to Understand and Use America's Living Capital, 
March 1998). PCAST concluded that with adequate support (which it 
estimated at a minimum of $40 million per year for five years), NBII 
could be of use to industry, education, policy makers, and management 
agencies. We support the requested increase of $1 million for NBII and 
recommend that the fiscal year 2000 funding for this program be 
increased to $5 million.
  u.s. fish and wildlife service, office of migratory bird management 
                                 (mbmo)
    The Ornithological Council supports the requested $2.75 million 
increase for migratory bird management. The management of waterfowl 
populations (through Adaptive Resource Management) has shown that 
resource management can be very effective if there is adequate 
information about the status of wild bird populations. The fundamental 
information needed for sound resource management is derived from 
monitoring. The requested increase for MBMO will allow for only a 
fraction of the needed monitoring of the populations of 836 bird 
species. It will also support the development of 60 science-based bird 
conservation plans and provide technical assistance to natural resource 
managers on public lands.
    The information needs for migratory bird management far exceed the 
amount requested by the administration. We recommend that MBMO funding 
be increased by an additional $10 million above the requested increase.
    We also strongly support the requested increase of $288,000 for 
permit management. MBMO issues 40,000 permits annually with a total 
budget of $712,000. These 17 different types of permits issued by the 
MBMO are prerequisites for almost all research conducted on wild birds. 
Over the past few years, funding for the Permits Office has been 
limited to the point that regulatory revisions have taken years to 
complete and implement. Over the past several years, ornithologists 
have had difficulties obtaining permits due to the inability of MBMO to 
finalize regulatory and procedural improvements. MBMO has been more 
than willing to seize opportunities for regulatory reform (including 
two matters that are pending; one of these has been pending for nearly 
four years), but MBMO has been too short of staff to conclude these 
efforts.
    This additional funding will allow MBMO to hire two full-time 
permit evaluators and a national permits coordinator, streamline the 
permitting process, revise guidelines to a plain-language format, and 
complete regulatory revisions.
          u.s. fish and wildlife service, division of refuges
    The application of scientific informationis critical to sound 
resource management. When BRD was created, all the research-graded 
scientists were transferred from the DOI resource management agencies. 
In many public land units, such as the National Wildlife Refuges, there 
are no scientists who can apply research findings to resource 
management. BRD scientists do provide technical assistance, but it is 
unrealistic to expect the small number of BRD scientists to be able to 
provide substantial assistance to the hundreds of federal and state 
wildlife refuges, parks, and other public lands. Therefore, it is 
necessary to have ``management scientists'' based on these public 
lands. We support the requested increase of $5.34 million that will put 
a total of 39 full-time employees, including biologists, hydrologists, 
and botanists on National Wildlife Refuges for wildlife management 
projects. We also support the requested increase of $5.03 million that 
will add 36 full-time scientific personnel for habitat management 
projects. These increases are needed to allow FWS to comply with the 
directive of the National Wildlife Refuge System Improvement Act of 
1997 to ``ensure that the biological integrity, diversity, and 
environmental health of the System are maintained for the benefit of 
present and future generations of Americans.''
                          usda forest service
    The Ornithological Council is generally supportive of the Forest 
Service's requested increase of $37.2 million for forest and rangeland 
research. Proper management of forest and rangeland resources is 
dependent upon scientific information. The administration's overall 
request supports a rigorous, well-balanced program to obtain that 
information. We are particularly supportive of the requested increases 
for research pertaining to:
  --threatened, endangered, and sensitive species ($10 million)
  --non-native invasive species ($5 million)
  --inventory and monitoring ($4 million)
  --global climate change ($6 million)
    Finally, we recommend that the 12 percent decrease in the rangeland 
and grassland ecology research program be reversed in fiscal year 2000 
($271,000) and supplemented by an additional 6 percent ($139,000) to 
account for two years of inflation, for total funding of $2.66 million.
                                 ______
                                 
 Prepared Statement of Holly E. Hazard, Executive Director, Doris Day 
                             Animal League
    The Doris Day Animal League is a non-profit, member supported 
national animal advocacy organization located in Washington, D.C. On 
behalf of our 278,000 members and supporters, we respectfully present 
to the subcommittee our concerns about the Wild Horse and Burro Program 
(the Program) as managed by the Bureau of Land Management (the Bureau).
    In 1971, Congress charged the Bureau with preserving America's wild 
horses via passage of the Wild Horse and Burro Act. The Act declares 
that ``wild free-roaming horses and burros are living symbols of the 
historic and pioneer spirit of the West . . . [who] shall be protected 
from capture, branding, harassment or death.''
    We are gravely concerned that the Bureau is failing to fulfill this 
mandate, and instead is engaging in scientifically and ecologically 
questionable practices, under the guise of multiple-use land 
management, which heavily favor private ranching interests over the 
protection of our nation's wild horses. Further, we are concerned that 
the Bureau is aware of the Program's shortcomings, but is unwilling or 
unable to conduct a candid review of its Program, due to threats of 
legal action from private ranchers who wish to keep their livestock on 
Bureau lands.
    While it is true that the Bureau has reduced the number of 
livestock allowed on some of its land in recent years, the overall 
picture is one that gives preference to private ranching interests. The 
systematic removal of horses and burros from the range over the past 
several decades has depleted the nation's wild horse herds from 303 to 
approximately 186, and herd areas continue to be ``zeroed out''. 
Although no solid figures are forthcoming from the Bureau, the ratio of 
cattle to wild horses on Bureau land is estimated at 50:1. This means 
there are millions of cows and at best, thousands of horses.
    There has been much debate on the ``overpopulation'' of wild horses 
and burros on Bureau managed lands, particularly in Nevada, where the 
Bureau estimates 21,946 horses live. Because the ``appropriate 
management level'' for Nevada has been set at 13,042, the Bureau 
asserts it must round up and remove approximately 8,904 ``excess'' 
horses. However, the ``appropriate management level'' is a 
fundamentally subjective figure established in the context of a system 
which is strongly influenced by ranching interests, and which is used 
to justify the removal of wild horses so that a disproportionately 
large number of privately owned cattle may remain on public lands. In 
fact, one Bureau employee admitted that the ``appropriate management 
level'' for horses could be increased in certain areas without causing 
damage to the range, but the Bureau will not do so, for fear of legal 
retaliation by ranchers.
    While some claim that it would be economically devastating to 
reduce the number of livestock on public lands so that more wild horses 
could remain in the wild, it should be noted that less than 3 percent 
of American beef is produced from federal rangelands. Further, 
livestock grazing on federal lands contributes less than 1 percent to 
annual incomes in Western states. In contrast, the highly subsidized 
grazing permit system by which ranchers graze their livestock on public 
lands costs American taxpayers approximately $50 million every year.
    Compounding these issues is the public's lack of trust in the 
Bureau and its policies. At the core of this mistrust is the absence of 
good information and data with which the Bureau might reassure its 
constituents that it is acting in the best interest of all involved. 
Not only has the Bureau been unable to provide figures on the numbers 
of cattle and wild horses on its land, but there is even a question as 
to how many ``herd management areas'' are under the Bureau's 
jurisdiction. Roundups of wild horses are being conducted in the 
absence of current population data and environmental assessments, and 
there is a lack of suitable homes to which gathered horses may be 
adopted. Under current law, the availability of these homes is a 
prerequisite to any roundup, yet the roundups continue as horses 
languish in holding facilities with no hope of a permanent home.
    In short, the Bureau is spending millions of taxpayers dollars 
every year on a program which is based on entrenched ideologies and 
arbitrary assumptions, not facts. Such practices do not engender the 
good faith of the American people. Failure to regain the public's trust 
on this issue may ultimately result in calls for the program to be 
released from federal control to the states, a move which would surely 
lead to the demise of the wild horse.
    We understand that the Bureau is in a difficult position where it 
must appease a diverse group of interested parties. However, until the 
Bureau is willing to invest the time and resources in gathering good 
data with which to reassure its constituents that its policies are 
sound, both ranchers and wild horse advocates will continue to suspect 
that the Bureau favors ``the other side'', a situation which detracts 
from the good work of the Bureau. We, therefore, propose that the 
following language be included in the fiscal year 2000 Department of 
Interior Appropriations Act:
    ``Wild Horse and Burro Program--The appropriations herein shall be 
used for program, herd, and habitat management, including: (1) herd 
population and distribution censuses; and (2) range assessment and 
management; and (3) habitat restoration and improvement; and (4) 
adoption compliance monitoring. Further, roundups of excess wild horses 
and burros from the range shall be based on data no more than three 
years old, and also shall be subject to the potential availability of 
appropriate homes to which the animals may be adopted.''
    We ask this Congress to ensure that our own government is not 
perpetuating a regulatory system which will ultimately lead to the 
elimination of the very animals it has been charged to protect. 
America's wild horses are our national heritage and treasure, and must 
be treated as such. Thank you for your consideration.
                                 ______
                                 
                United States Fish and Wildlife Service
      Prepared Statement of the American Sportsfishing Association
    This American Sportfishing Association (ASA) statement addresses 
the President's fiscal year 2000 budget request for the U.S. Fish and 
Wildlife Service (FWS), Bureau of Land Management (BLM), and U.S. 
Forest Service (USES). Of specific interest to ASA are the FWS programs 
dealing with federal fish hatcheries, and anadromous fish restoration 
including fish passage and relicensing of hydroelectric dams. We are 
also concerned with the Fisheries Management programs within the BLM, 
as well as the USFS's Inland and Anadromous Fisheries Habitat 
Management programs.
    ASA is a non-profit trade association whose nearly 500 members 
include fishing tackle manufacturers, boat builders, state fish and 
wildlife agencies, angler organizations, sportfishing retailers, and 
the outdoor media. For over 50 years, ASA and its predecessor 
organizations have promoted the conservation of fisheries resources and 
environmental measures that improve the aquatic environment in order to 
ensure the enjoyment of healthy fisheries by America's more than 50 
million anglers.
    In this time of tight Federal budgets and concern for the interests 
of the American taxpayer, it is important to note that when it comes to 
the management of our nation's aquatic resources, the sport fishing 
industry strongly supports the principal of user pays--user benefits. 
Anglers currently contribute $500 million each year in fishing license 
fees to state fishery management agencies and another $250 million in 
special federal excise taxes and duties on fishing goods and taxes on 
boat fuel. These federal user fees flow through the Aquatic Resources 
Trust Fund. Thus, anglers directly pay for much of the fishery 
management in the country. In addition, according to the Bureau of the 
Census surveys, over $3 billion is generated each year in federal 
income taxes from the 1.2 million jobs directly associated with 
sportfishing activities. These angler-generated federal Treasury 
receipts are noted in the context of the fact that 800 million acres of 
the United States are federal lands. This land base, with its 
associated lakes, streams, rivers and estuaries, supports a large 
proportion of this recreational and economic activity. Growth in this 
economic sector is dependent upon proper stewardship of the habitats 
and natural resources managed by federal agencies. With this 
understanding, ASA applauds the modest budget increases sought in the 
fiscal year 2000 budget and requests Congressional support for these 
efforts. For a few items, we seek Congressional support for amounts 
exceeding the Administration's request.
     fiscal year 2000 u.s. fish and wildlife service budget request
    Fisheries--National Fish Hatchery System.--Over many decades of 
guiding Federal water development projects, Congress has dependably 
authorized mitigation facilities and activities to replace lost natural 
fisheries. The premise has been that federally-funded activities that 
impair naturally sustaining fisheries to provide unrelated societal 
benefits such as hydropower and flood protection, must be mitigated. 
Congress has frequently relied, at least in part, on the use of fish 
production technology. This responsibility has fallen to the FWS's 
National Fish Hatchery System. Without the mitigatory hatchery 
activities public recreation valued at $5 billion annually would be 
seriously jeopardized. In addition, the Fish Hatchery System assists in 
the restoration of imperiled fish species and in restoring 
interjurisdictional fisheries, such as those in the Great Lakes. Over 
the last several years, the FWS has engaged in a careful review of its 
hatchery facilities and has transferred or closed those facilities not 
fulfilling priority federal obligations.
    Today, this system of federal facilities is in poor and declining 
condition. The FWS's hatchery program has a conservative backlog of 
maintenance work totalling $218 million, an 86 percent increase over 
last year's already forbidding figure of $117 million. The conservative 
$218 million backlog for hatcheries includes $97 million in deferred 
maintenance. This backlog is not a list of ``like to do things''. 
Rather, the backlog in maintenance and construction is having direct 
impacts upon the quantity and quality of the fisheries resources being 
produced. To characterize the extent of the problem, the FWS has $800 
million in hatchery assets. An annual maintenance budget of $10.2 
million, as requested in the FWS in fiscal year 2000, equals just over 
one percent of assets. Industry standards run two to four percent just 
to maintain facilities, not to retire maintenance backlogs. This 
request represents a $0.25 million decrease from the 1999 appropriation 
for hatchery maintenance.
    For another perspective on the hatchery maintenance and 
construction backlog, one should review private industry facility care 
standards. One standard industry condition index is known as the 
facilities condition index (FCI). This industry measurement is simply 
derived by dividing the maintenance and construction backlog by total 
asset value. In the case of the FWS hatchery system, this index equals 
27 percent. In the corporate world, anything over 10 percent is 
considered to be in poor condition.
    It would take an additional investment of $72 million to bring the 
hatcheries to an FCI of 10. In fiscal year 1999, the FWS was allotted 
$7.4 million to undertake these deferred maintenance projects, reducing 
the critical needs by about 9 percent. Meanwhile, maintenance 
requirements over the last year nearly doubled, resulting in a 
substantial net increase in maintenance backlog. In spite of this dire 
situation, the FWS has requested $250,000 less for deferred maintenance 
funding in fiscal year 2000. In addition, no increase was requested for 
annual maintenance. We warned that an appropriation in the amount 
sought last year by the FWS would result in even greater financial 
backlogs in future years. Unfortunately, these predictions have become 
manifest. Therefore, ASH requests Congress to provide $15 million to 
begin to address the top priority construction maintenance backlog at 
the National Fish Hatchery System.
    In addition to the facility care request, it should be noted that 
even greater production demands are being placed upon the system. This 
is true for both the quantity and quality of the fish being produced. 
For example, the proposed Atlantic salmon and Southwest ecosystem 
restoration programs will require extensive use of cultured species. 
These increasing production requirements necessitate an increase in 
hatchery operations funding. The one million dollar proposed increase 
is welcomed as the operating budget for the Federal Fish Hatchery 
System has been essentially flat for many years. However, to take a 
good step in restoring operational capacity of these facilities, ASA 
requests an additional $10 million for hatchery product scoping, 
evaluation, and for increased production.
    Fisheries--Anadromous Fish Management.--The FWS is engaged in 
important anadromous fisheries restoration and management work. For 
most of these programs, the FWS has asked for the same funding as 
appropriated in fiscal year 1999. We applaud the $600,000 increase for 
Atlantic salmon restoration and the addition of $900,000 to support 
fish passage work. In the next 15 years, the licenses for over 550 
hydropower dams will expire. When these dams were built years ago, few 
measures were taken to protect fish and wildlife, including in far too 
many cases, inadequate or no provisions for fish passage. The 
relicensing process now underway will provide a unique opportunity for 
the FWS to include fishery safeguards in the new licenses. Legally-
mandated hydropower dam relicensing activities constitutes a great 
burden, but also an enormous opportunity, for fisheries resources. 
Considering the enormous workload now faced by the FWS with power 
facility relicensing through FERC, the requested increase of $900,000 
may well not be fully adequate. While the additional $1.7 million 
allocated for FERC relicensing will help, to take full advantage of the 
fish passage opportunities associated with relicensing, ASA would 
request a minimum of $3.2 million in new funding dedicated for fish 
passage work and recommends a total of $9.8 million for anadromous fish 
management.
    Fisheries--Fish and Wildlife Management Assistance.--Although, the 
FWS is seeking to double its budget for aquatic nuisance species (ANS) 
management, we fear that this is inadequate to address this growing 
problem. Introductions of exotic species have had significant effects 
on native fish populations. According to the Office of Technology 
Assessment, exotic species have directly contributed to the listing of 
44 species of fish as threatened or endangered. Not only do exotic fish 
compete directly with native fish for resources, but exotic plants and 
animals also degrade critical native fish habitat. We applaud FWS for 
taking a leading role in ANS management. However, we foresee 
increasingly larger sums of money having to be spent on future control 
and remediation of new introductions and species already present. For 
example, since 1980, over $120 million in Federal and state funds have 
been spent on controlling exotic aquatic plants in Florida alone. We 
urge a greater allocation of funds aimed at preventative measures such 
as outreach programs and implementation of state and regional ANS 
management plans. ASA requests an additional $5 million be directed to 
carry out ANS preventative measures.
    The $700,000 sought for southwest ecosystem restoration will 
provide for increased riparian fish habitat through voluntary 
cooperation with local stakeholders. We fully endorse this community, 
incentives driven approach. Restoration acts along the Mississippi 
River basin, including fish passage structures and revegetation of 
river and stream banks, are also worthy of the $275,000 increase over 
fiscal year 1999. These new requests totalling an increase in $3.75 
million, plus the additional $5 million for ANS, and the Fish and 
Wildlife Management Assistance full request of just over $16 million, 
are fully supported by ASA.
               fiscal year 2000 bureau of land management
    Recreational fishing is a major activity on public lands managed by 
BLM, resulting in approximately 400 million angler days and generating 
nearly $200 million annually in economic benefits. Because the public 
lands managed by the Bureau of Land Management provide so many 
opportunities to America's recreational anglers, ASA strongly supports 
the President's budget request for an additional $4.3 million over 
fiscal year 1999 enacted level for the Bureau in fiscal year 2000. We 
have the greatest interest in the following areas:
    Fisheries Management.--BLM manages 174,000 miles of fishable 
streams and 2.6 million acres of fishable lakes and reservoirs. In 
order to manage these fishery resources, the President requests $10.5 
million in fiscal year 2000 for fisheries management, a very modest 
increase of $979,000 over fiscal year 1999's enacted level. Management 
activities focus on the maintenance and restoration of habitat for both 
anadromous and resident species. Challenge cost share programs 
constitute a major portion of this effort. Programs such as Bring Back 
the Natives, provide direct angler benefits by increasing habitat for 
native species and through access improvement projects. Most of the 
roughly $1 million increase for fiscal year 2000 is tied to three 
specific programs: (1) Tundra to Tropics, (2) FERCHydro Power 
Relicensing, and (3) the Clean Water Action Plan. These efforts will 
develop better water quality assessment capabilities in Alaska, offer 
opportunities to provide for increased fish passage, and improve 
fishery habitat. Despite the increases, funds for these three programs 
are only half of what is required according to agency prepared 
opportunity documents.
    Threatened and Endangered Species.--The President has requested 
$18.9 million in fiscal year 2000 for threatened and endangered 
species, roughly the same amount as requested the previous year. With 
the requested funding level, the Bureau will restore riparian habitat 
which should directly impact coho salmon, Lahontan cutthroat, and 
desert pupfish among others. However, according to BLM field office 
funding needs, the current budget comes up short $400,000 for 
anadromous fisheries and $730,000 short for recreational fisheries 
management. An additional $4 million is requested by the BLM field 
offices for special status aquatic species.
    Livestock Permit Renewal.--The Bureau has requested an additional 
$2.5 million to address the large number of grazing permits/leases that 
expire in 2000. These permits must be reauthorized in the coming years 
in order to fulfill BLM's NEPA requirements. Failure to fully support 
this measure will mean greater numbers of permits to review in future 
years and will open the Bureau to litigation, thus compounding the 
already formidable task. For fishery interests, this translates into 
less attention being focused on critical fisheries issues. Fishery 
habitat has been adversely affected by inappropriate grazing through 
increased sedimentation, vegetation loss, and riparian erosion. These 
new permit renewals afford BLM the opportunity to ensure that land use 
practices are in-line with environmental quality standards. ASA 
strongly encourages Congressional support for this much needed increase 
to the livestock permit renewal program.
    Standard and Guidelines Implementation.--ASA fully supports the new 
BLM standards and guidelines that promote wise stewardship of 
rangelands. These locally developed standards and guidelines, which 
call for improvements in watershed and riparian management, will help 
to protect and restore valuable fishery habitat. As such, we would like 
to see these standards and guidelines implemented as quickly as 
possible. Therefore, ASA supports the $1.8 million to be spent on 
standards and guidelines implementation.
    BLM Fish and Wildlife Staffing.--We are very concerned that at 
current staffing levels, the Bureau and its field staff will be unable 
to meet the program and statutory requirements it must meet. At current 
staff levels, biologists are often forced to divide their time between 
on the ground, program implementation efforts and other program 
requirements, which may or may not provide direct fish and wildlife 
benefits. Evaluations, by BLM, of staffing needs have shown that the 
Bureau is lacking in staff to accomplish program goals. A recent work 
force evaluation showed that with its current level of staffing in 
fisheries, BLM is staffed at only 50 percent of its 1993 identified 
need level. At this staff level, the Bureau is only meeting 
approximately half of its identified programmatic needs on an annual 
basis.
    Another indicator of the chronic work force problem sheds light on 
the great need for increased staffing, particularly in the fisheries 
program; there is a total of 65 fisheries biologists to manage all 
aquatic resources on BLM land, at that level there is one biologist to 
manage approximately 3,000 stream miles and 30,000 acres of lake. Some 
states have no fishery biologists at all, which has directly led to the 
deplorable state of a great number of these fisheries.
    This staff deficiency will become especially pronounced in the 
upcoming year as BLM must address a significant backlog of grazing 
permits and reauthorize FERC hydropower dams, both of which will divert 
staff away from critical fishery needs. It is imperative that BLM be 
provided both the adequate staff and additional operating funds needed 
to implement its base programs if it is to be effective in managing 
aquatic resources on public lands which support both fish populations 
and the sportfishing opportunities they offer. In order to begin to 
address the critical shortfall in staffing, ASA urges that new staff 
positions and associated operating funds be appropriated for BLM field 
positions.
          fiscal year 2000 u.s. forest service budget request
    National Forest System--Inland and Anadromous Fisheries Habitat 
Management.--Of the various federal landholders, the USFS is the 
largest provider of public outdoor recreation. This recreation can have 
a significant economic impact. It was recently estimated at nearly $110 
billion annually. For recreational fishing, we estimate that 10 million 
freshwater anglers fish each year on USFS lands. This activity results 
in over $8.5 billion in annual economic activity and supports over 
94,000 full-time jobs. ASA enthusiastically supports the President's 
proposed increase of 37 percent over fast year's USFS budget.
    The $31 million proposed for anadromous fisheries management and 
the $26 million for inland fisheries are tied to several key 
initiatives which include improving user access and recreational 
facilities, protecting threatened and endangered species, and restoring 
degraded habitat and water flows. These significant increases over last 
year's budget will help the USFS continue to improve it's management of 
the 2.3 million acres of lakes, ponds, and reservoirs as well as the 
197,000 miles of perennial stream on national forest lands. We believe 
that these projects supported by the funding increases are necessary to 
offset the lack of significant progress made on fishery habitat in the 
past five years when USFS budgets have remained fairly static.
    Road Maintenance.--Finally, ASA is deeply concerned over the 
rapidly declining condition of the road system on USFS lands. 
Currently, there is an $8 billion backlog on road maintenance. Aquatic 
resources are being seriously damaged by sedimentation that flows off 
of these roads. We note, and strongly support the Service's request for 
an additional $22. 6 million for road maintenance and decommissioning.
                                summary
    We have the opportunity to create new jobs in tourism and 
manufacturing sectors of the sportfishing industry. This potential can 
be realized by improving management of our federal lands and, in the 
process, creating more sportfishing opportunities from improvements in 
our aquatic resources. Mr. Chairman, it is paramount that we continue 
to invest in these programs to provide the basis for our future 
economic strength, and to benefit the millions of Americans who enjoy 
water-based recreational activities.
                                 ______
                                 
           Letter From Roger Simmons, Consul General, Canada
                                        Seattle, WA, April 9, 1999.
Hon. Slade Gorton,
Chairman, Senate Interior Appropriations Subcommittee,
U.S. Senate, Washington, DC.
    Dear Senator Gorton: As the Pacific Northwest begins to implement 
new strategies and programs for the recovery of endangered Pacific 
salmon and steelhead, Canada stands ready to help.
    I am pleased to submit as public testimony to your 7 April, 1999 
Field Hearing a study by Dr. Marvin Shaffer, natural resource economist 
and consultant to the Government of Canada. Dr. Shaffer and his team 
have analysed data for a number of Pacific salmon stocks and conclude 
that reducing the ocean harvest of salmon is proportionately as 
important, and in some cases more important, than in-river efforts to 
improve habitat, productivity and survival.
    Shaffer's work lends scientific weight to a simple point: 
successful salmon recovery will require significant, sustained 
reductions in harvest as well as the recovery and protection of 
habitat. Without a new Canadian-U.S. agreement on harvest, hundreds of 
millions of dollars spent on habitat may never produce the desired 
result-more fish returning to spawn in our rivers and streams. Better 
harvest management must be an integral part of any comprehensive, cost-
effective salmon recovery effort.
    The Georgia Basin/Puget Sound region faces a significant challenge 
as we seek to restore the wild salmon, and in every challenge there is 
an opportunity. This is an opportunity for our two countries to put a 
contentious issue behind us and work together toward a future of ever 
greater cooperation.
            Sincerely yours,
                                             Roger Simmons,
                                                    Consul General.

                             [News Release]

    Canada-U.S. Agreement Under Pacific Salmon Treaty Key to Salmon 
                                Recovery
    Ottawa/Seattle/Washington.--Canada's Minister of Fisheries and 
Oceans, David Anderson, and the Minister of Foreign Affairs, Lloyd 
Axworthy, today released a report prepared by natural resource 
economist Marvin Chaffer which concludes that sustained reductions in 
salmon ocean harvests are as important for salmon recovery as in-river 
programs to improve salmon productivity and survival. The report also 
identifies Canada-United States agreements under the Pacific Salmon 
Treaty (PST) as the principal means for achieving long-term control 
over salmon interceptions.
    ``The report makes it clear that successful salmon conservation 
requires both the benefits of in-river habitat rehabilitation and 
effective harvest management,'' said Mr. Anderson. ``This study 
reinforces the need for Canada and the U.S. to work together to find a 
cooperative approach to conservation and the better management of 
salmon stocks for the future of Pacific salmon stocks from Alaska to 
Northern California.''
    ``The report provides more evidence that a Canada-U.S. agreement on 
Pacific salmon harvest arrangements is crucial to salmon conservation 
all along the West Coast,'' said Minister Axworthy. ``Canada and U.S. 
officials continue to work toward a long-term, coastwide agreement on 
conservation and fair sharing of Pacific salmon. I look forward to 
reviewing the progress with U.S. Secretary of State Albright at our 
next meeting in April.''
    The report, Pacific Northwest Salmon Recovery Efforts and the 
Pacific Salmon Treaty, was commissioned by the Canadian Government last 
year to provide an independent analysis of the relative importance of 
harvest management and freshwater productivity for conserving salmon. 
Release of the study today comes at a time of increasing concern about 
conservation of Pacific salmon on the West Coast of Canada and the 
United States.
    Attached is an Executive Summary of the Shaffer Report. The entire 
Report is available on the Department of Foreign Affairs and 
International Trade website at: http://www.dfo-mpo.gc.ca./communic/
Reports/shaffe__e.htm
    The Consulate would be pleased to arrange interviews with Dr. 
Shaffer.
                           executive summary
    This study concludes that sustained reductions in ocean harvest of 
endangered Pacific salmon stocks are proportionately as important, in 
some cases more important for salmon recovery than costly in-river 
programs to improve habitat, productivity and survival.
    The Pacific Northwest is currently investing an extraordinary 
amount--over $500 million U.S. per year--for salmon recovery. With more 
Endangered Species Act (ESA) listing pending and new program reviews, 
this amount could readily double to over one billion per year, or more, 
in the near future.
    Salmon recovery efforts to date have concentrated almost 
exclusively on in-river programs. A clear implication of this study is 
that harvesting control, which is orders of magnitude less costly, is 
as important and potentially effective for salmon recovery.
    A large percentage of Pacific Northwest salmon are vulnerable to 
fishing effort in Canadian and Alaskan fisheries. Historically, 
exploitation in these fisheries has generally exceeded that in the 
southern U.S. Measures to control, on a sustained long term basis, 
interception of endangered Pacific Northwest salmon in these fisheries 
are critically important to the success of recovery efforts. They 
should be an integral part of any comprehensive, cost-effective salmon 
recovery program. Pacific Salmon Treaty negotiations provide the 
principal means for achieving long term control of interceptions.

    Note: Marvin Shaffer (Ph. D. Economics) has been a consulting 
economist for the past two decades. He is also a former CEO of the 
British Columbia Transportation Authority and negotiator for British 
Columbia on the power benefits owed to B.C. under the Columbia River 
Treaty.
                                 ______
                                 
Prepared Statement of Ken Poynter, Executive Director, Native American 
                        Fish & Wildlife Society
    Mr. Chairman and Distinguished Committee Members: My name is Ken 
Poynter, Executive Director of the Native American Fish & Wildlife 
Society (Society) and an enrolled member of the Passamaquoddy Tribe of 
Maine. I would like to thank you, on behalf of the Society, for the 
opportunity to provide testimony to the Appropriations Subcommittee on 
the Interior. I will be requesting appropriations from the Department 
of the Interior, Bureau of Indian Affairs (BIA), Wildlife & Parks 
budget (under Other Recurring Programs) for continued funding at the 
organization's fiscal year 1999 level of $488,000.
    The Society is a national non-profit organization dedicated to the 
sound management and prudent use of tribal fish and wildlife resources. 
The organization serves as a network among tribes throughout the 
country, including Alaska and provides training and technical 
assistance to tribes in natural resource enhancement, planning, 
research and management.
    The Society includes a membership of over 200 tribes, which 
includes 63 Alaskan Native villages and non-profit corporations, as 
well as over 1,900 individual members and numerous regional Commissions 
and Native organizations who are supportive of tribal fish and wildlife 
development and of the Native American Fish & Wildlife Society. All 
Society members share the common goal of protecting tribal sovereignty 
in the management and use of fish and wildlife resources.
    Due to our effective method of providing technical assistance, 
periodic trainings, educational opportunities, information disbursement 
and the general support provided to our members and non-members alike, 
the Society has achieved a strong and diverse level of support. An 
obvious measure that emphasizes the increased recognition, reliance and 
support that the organization is experiencing is evident by the 
unprecedented growth in memberships over the past twelve months. Tribal 
memberships have increased 54 percent since April 1998, increasing from 
136 member tribes to the current number of 204. Individual memberships 
have increased 58 percent in the same period going from approximately 
1,200 to over 1,900 at this writing. Our substantial support and pro-
active programs attest to the positive impact the organization has made 
in Indian Country, including Alaska. It is important to mention, and 
please note for the record, due to our large tribal membership base, 
the funding received through the federal appropriations process serves, 
at a minimum, 204 separate tribal governments on an annual basis.
    Over the past twelve months, the Society has provided technical 
services and assistance to over 200 tribes, 25 non-governmental 
organizations, 20 states and 14 different federal agencies in the areas 
of fish and wildlife management, education and environmental 
protection. Seven regional conferences, including one in Alaska, are 
held annually in conjunction with associated regional specific 
technical work group meetings. In addition to the regional conferences, 
the Society holds an annual national conference. The national meeting 
offers a forum for attendees to address pertinent national issues, 
participate in relevant work related sessions and an opportunity to 
expand their individual networks. It also provides Conservation Law 
Enforcement personnel in attendance the opportunity to participate in a 
forty-hour in-service training.
    In addition to the above listed benefits and regular Society 
events, the organization sponsored numerous training sessions and 
natural resource related workshops throughout the country. These 
Society supported training sessions have become a mainstay of the 
organization and are a good example of our effort to assist Native 
resource management endeavors and address an unmet need. These funded 
education sessions provide Native resource managers, as well as 
others:, opportunities to learn new management skills and techniques or 
refresh old ones and represent, in most cases, the only occasion 
available to foster their knowledge.
    These training sessions are identified and scheduled regionally by 
Society members. This method of identifying and scheduling trainings 
allows members to conduct sessions that they feel are most pertinent to 
their needs and held at the most convenient time and location. As a 
result of utilizing this form of training identification, sessions tend 
to be regional specific and collectively diverse. For example, the 
following list represents the natural resource management sessions 
conducted in the last twelve month period: Fisheries Management 
Workshop, Environmental and Water Resources Management? Native Species 
Management, Federal Funding and Technical Assistance Opportunities, 
Hazardous Materials First Responder Awareness Level Training, 
Endangered Species Act, Diseases of Importance in Southeastern 
Wildlife, Noxious Weed Control Methods, Range Management, Fisheries 
Management Workshop, Lake and River Electro-fishing Techniques, Fishery 
Sampling Techniques, Water Quality Assessment, Micro-invertebrate 
Surveys in Fisheries, Livestock Disease Intrusion, Tribal Big Game 
Commission Workshop, SO 3206 (Endangered Species Act) and the US Fish & 
Wildlife Service Native American Policy, Habitat Restoration and 
Enhancement, Eco-cultural Tourism, Elk Ranching and Aquatic Nuisance 
Species.
    Due to the fact that protection is such an important aspect of any 
natural resource management plan, the Society has a large number of 
Conservation Law Enforcement personnel as members and supporters. 
Subsequently, this particular group has separate and profession-
specific training needs and have participated during the last twelve 
month period in the following sessions: Migratory Bird Treaty Act, 
Authority/Non Native-Native American Jurisdictional Issues, Range/
Firearm Techniques, Eagle Protection Act? The Lacey Act and Tribal 
Codes? Search and Seizure, Range/Firearm Qualification, Interviews and 
Interrogations, Crime Scenes/Collection of Evidence, Road Blocks, 
Covert vs. Overt Operations, Illegal Wildlife Trade, and the Endangered 
Species Act and Environmental Laws. Collectively, over 2,000 people 
participated and benefitted from the training sessions listed above.
    In conjunction with the various Society conducted activities listed 
thus far, four quarterly newsletters (with a circulation of over 1,900 
each), an annual report, promotion publications, informational 
management brochures and other management reports and publications were 
distributed nationwide. In order to maximize the federally appropriated 
funds received by the organization, some of the above listed events, 
publications and benefits were subsidized by forming partnerships and/
or signing Memorandums of Understanding (MOW) with other entities.
    Currently, the Society has signed a national MOU, as well as one 
regional MOU agreement with the U.S. Forest Service and one regional 
agreement with the U.S. Fish and Wildlife Service. In addition, the 
organization anticipates entering into a national MOU with the U.S. 
Department of Agriculture Animal and Plant Health Inspection Service 
and a national Memorandum of Agreement with the U.S. Fish and Wildlife 
Service.
    These co-sponsorships illustrate the organization's Board of 
Directors continued efforts to assist Congress, when and where 
possible, in reducing the federal budget. It is important for the 
Subcommittee to realize that our continued growth, increased support to 
members and tribes and our constant pursuit to develop partnerships and 
cooperative working relationships with other entities is evidence of 
our desire to identify innovative ways to stretch the funds that we are 
allocated. Although the cost of doing business increases on an annual 
basis and we continue to experience unprecedented tribal and individual 
membership growth, we continue to maintain our resolve to not ask 
Congress for additional funds and constantly pursue opportunities to do 
more, year after year, at the same funding level we have received since 
1994.
    The Native American Fish & Wildlife Society represents a wealth of 
experience and information regarding management of fish and wildlife 
resources on Indian lands. Society members embody a diverse group of 
lay people, fishery biologists, wildlife biologists, foresters, 
conservation law enforcement of ricers, and land use managers and 
planners who currently manage tribal land bases throughout the country, 
including Alaska.
    Members of the Society are involved in technical initiatives 
sponsored by the Society, as well as development of tribal technical 
fisheries, wildlife and recreation management initiatives critical to 
the preservation and protection of tribal resources. In addition, the 
Society continues to respond to the needs of its members in the area of 
technical assistance, training and program support.
    The concept of the Society is based on the necessity for an 
organization to assume a leadership role to maintain the technical 
proficiency of tribal fish, wildlife and natural resource programs. 
Because of its organizational structure, the Society is able to 
efficiently respond to specific requests from tribes for technical 
assistance regarding the development, enhancement and wise use of their 
natural resources.
    Collectively, American Indian tribes have a land base of 
approximately 94,000,000 acres, that includes thousands of miles of 
streams and rivers, and 730,000 lakes and impoundments. The wise use 
and management of these vast resources will only ensure that they 
remain intact for many generations to come. Because our work is so 
important, it is essential that we continue to receive funding so that 
we can carry on our goal to empower and improve the general welfare of 
Indian people through charitable, educational, and other fish and 
wildlife related activities.
    The Society is currently the only national Native American 
organization that provides technical assistance to American Indian 
tribes, federal, state and local governments as well as private 
industry to develop and implement sound policies, ordinances, 
regulations, and laws to protect, preserve, conserve and prudently use 
and manage fish, wildlife and other natural resources. The organization 
continues to develop pro-active budgets year after year to assist 
tribes in their awesome responsibility to adequately manage the 
substantial natural resources in their care as listed above.
    The Society continues to be appreciative of the broad, on-going, 
support we have and especially for the funding received for fiscal year 
1999. To further illustrate both the support and the recognized 
necessity for the continued existence of the Society, I feel it 
necessary, for the record, to recapitulate the unprecedented and 
bipartisan support we received back in fiscal year 1995. That year, the 
Society was one of many federally funded entities that automatically 
received over a 50 percent cut in their federal appropriation and the 
only organization that had a full reinstatement of the initial 
requested amount by both the House and Senate. The continued funding at 
the restored $488,000.00 level each year since is further proof of the 
ongoing support we have from Congress and the dollar value it places on 
the beneficial services we continue to provide.
    Once again, our intent is not to ask for additional funds to meet 
the increased costs of providing the programs we have developed, but to 
express our appreciation to the Subcommittee and our supporters for the 
faith they continue to show in our ability to accomplish our stated 
goals. We would also like to thank the Subcommittee for the opportunity 
to continue our important work while we assist our newly created 
Foundation in raising the 10 million dollar goal we have set for the 
permanent endowment that will eventually enable us to be self-
sustaining and not reliant on federal funding. On behalf of the 
organization, I would like to reiterate, and remind, the Society's 
promise to the Subcommittee of our commitment, and diligent effort, to 
work with our Foundation Board of Trustees in securing the permanent 
endowment in as timely manner as possible.
    Our contention at this time, and until we reach our goal of self 
sufficiency, is that Congress should view the federal funds 
appropriated to the Society as an investment which will be offering a 
return in the future via a planned small grants program to augment 
tribal natural resource management efforts. It is crucial that the 
Society continue to receive our current level of funding so that our 
important work with tribes, states, federal agencies and the private 
sector is not disrupted or diminished while we continue to work towards 
self sufficiency.
    To reiterate our request to the Appropriations Subcommittee on the 
Interior, the Society is requesting a Total of $488,000.00 for fiscal 
year 2000.
    In addition, the Society encourages legislation that allows tribes 
to participate in Federal Aid Funding and including tribes in any 
proposed future legislation addressing the Federal Aid program.
                                 ______
                                 
Prepared Statement of Mary Beth Beetham, Senior Associate, Defenders of 
                                Wildlife
    On behalf of our nearly 300,000 members and supporters Defenders 
thanks you for the opportunity to provide testimony concerning our 
fiscal year 2000 appropriations priorities. Although we come before you 
to request funding, we fully understand the constraints of the 
Subcommittee's 302(b) allocation. We continue to work aggressively--as 
we have for the past two years--with the Public Lands Funding 
Initiative, a broad coalition of more than 100 conservation and 
recreation groups, to increase the Subcommittee's 302(b) allocation so 
that funding is available to protect our nation's refuges, parks, 
forests, other public lands, wildlife, fish and plants.
                     u.s. fish and wildlife service
    Endangered Species: Defenders urges full funding of the President's 
fiscal year 2000 $114.9 million request for the Fish and Wildlife 
Service's (FWS) four main endangered species accounts: Candidate 
Conservation ($8.3 million), Listing ($7.5 million), Recovery ($56.7 
million), Consultation ($37.3 million), and the ESA Landowner Incentive 
Program $5 million). We also urge full funding of the $80 million 
request for the Cooperative Endangered Species Fund, discussed under 
Lands Legacy, below.
    The Candidate Conservation increase is needed for status surveys on 
approximately 300 species, development of an additional 50 Candidate 
Conservation Agreements (CCAs) in fiscal year 2000, and necessary 
monitoring of CCAs to ensure biological improvement of covered species 
and reduction of threats. Although properly designed CCAs can 
contribute to species conservation, Defenders opposes their improper 
use to preclude scientifically-based listing determinations.
    The Listing increase is needed to process the more than 200 
additional candidates and proposed species expected to require the 
Act's protection in fiscal year 2000. Moreover, 90 percent of listed 
species still do not have critical habitat designation (even though 
required by law). We continue to oppose the Administration's request 
for statutory language to cap the listing program and their new request 
to cap funding for critical habitat activities, which we believe is an 
attempt to avoid court ordered listing decisions and critical habitat 
designations.
    The Consultation increase will help address the growing Section 7 
consultation workload (more than 40,000 actions projected for fiscal 
year 2000) and continually expanding use of Habitat Conservation Plans 
(HCPs--more than 500 new and ongoing HCPs projected for fiscal year 
2000) as well as provide some funding to ensure that both consultations 
and HCPs are based on sound science and subject to monitoring for 
effectiveness and compliance. While Defenders is not opposing funding 
for new HCPs, we continue to believe that the current FWS HCP process 
has significant problems requiring regulatory modifications. A major 
study by 119 independent scientists released two months ago drew the 
same conclusion reached by a 1998 Defenders report on HCPs. Led by Dr. 
Peter Kareiva at the University of Washington, the group developed a 
massive detailed database and found that many HCPs are seriously flawed 
because critical information is missing, and because HCPs do not take a 
precautionary approach for protecting species when that information is 
missing. Without needed modifications, HCPs are likely to exacerbate 
threats to listed species.
    The Recovery request will help address the backlog of more than 300 
species without recovery plans as well as recovery implementation and 
monitoring for the more than 1300 listed species expected by the end of 
fiscal year 2000, a 42 percent increase just since 1995. Recovery is 
the goal of the Act yet recovery implementation continues to be 
critically underfunded. According to FWS estimates, less than 20 
percent of listed species have had even 25 percent of their recovery 
objectives met.
    The following are Defenders' highest priories for specific recovery 
programs. To help restore the wolf to the northeast, $100,000 is needed 
for preparation of NE recovery plan and economic and other necessary 
feasibility studies. For the successful red wolf program in North 
Carolina, $850,000 will support continued captive propagation, 
monitoring, and establishment of a new recovery site. FWS needs 
$796,000 to continue Mexican wolf restoration which will include 
providing funding assistance to the White Mountain Apache Tribe for a 
full time tribal biologist; funding for field biologists to both AZ and 
NM Fish & Game Depts; increased outreach in high-use areas; and 
increased law enforcement made necessary by numerous wolf killings. For 
the Northern Rockies wolf recovery program, $1.1 million will allow 
monitoring, public education, and cooperative agreements with the Nez 
Perce tribe and states (which will receive most of the FWS allocation), 
while $80,000 (NPS) will pay for management of the program in 
Yellowstone National Park. At least $500,000 is necessary for recovery 
efforts in WY, MT, SD and AZ for the endangered black-footed ferret, 
thought to be extinct in the wild except for reintroduced populations. 
Finally, $1.02 million is needed for the grizzly recovery program which 
covers 30,000 square miles in four states and includes an EIS on 
grizzly recovery in the North Cascades. Successful reintroduction of 
threatened grizzly bears into the Bitterroot ecosystem of central ID 
and W. MT could increase grizzly bear numbers and range in the lower 48 
states by nearly one third. Defenders opposed language in the fiscal 
year 1999 bill prohibiting reintroductions and will work to ensure that 
$115,000 of the grizzly recovery budget will be will be used for 
initiation of reintroductions in fiscal year 2000.
    Migratory birds.--FWS is responsible for 58 game and 778 non-game 
migratory bird species protected under the Migratory Bird Treaty Act of 
1918. At the very least, we support the President's fiscal year 2000 
budget request of $21.8 million for critical activities such as 
conservation plan implementation, monitoring, and use of scientific 
information in designing management strategies. Projects funded with 
increases will include: monitoring population trends of nearly 500 
species for which insufficient information exists; development of 
regional management plans for more than 50 species of migratory 
shorebirds; work with landowners in the southwest to benefit grassland 
and riparian birds (e.g. southwestern willow flycatcher, Bells vireo, 
and grassland sparrows); and collaborative efforts with partners to 
benefit forest breeding birds in the lower Mississippi River Basin.
    International Affairs.--Under General Administration, Defenders 
endorses the request for International Affairs which helps support U.S. 
international leadership in the conservation of wildlife and 
biodiversity, particularly through implementation of the Convention on 
International Trade in Endangered Species (CITES). We suggest an 
additional enhancement of $400,000 (split evenly between International 
Wildlife Trade/International Wildlife Conservation Laws and technical 
assistance within that line item) for personnel and/or contracts to 
enable FWS to assist the CITES Secretariat and Parties and those of 
related agreements in developing improved systems and standards to 
prevent international conflicts of interest and for improving 
cooperation and efficiency in law enforcement.
    National Wildlife Refuge System (NWRS) Operations and 
Maintenance.--We deeply appreciate the Subcommittee's support for the 
Refuge System and its leadership in providing significant fiscal year 
1998 and fiscal year 1999 O&M increases. Defenders continues to be a 
proactive member of the Cooperative Alliance for Refuge Enhancement 
(CARE), a diverse coalition of 18 environmental, hunting, fishing, and 
recreation groups. CARE has reviewed FWS expenditures of the fiscal 
year 1998 increases and has concluded that these funds were used as 
intended, i.e. to reduce the overwhelming O&M backlog. Unfortunately, 
due to the magnitude and duration of the O&M funding deficit, continued 
increases will be needed for at least the next four years to address 
the $722 million in operations needs and the $526 million maintenance 
backlog. CARE has updated its Refuge restoration plan which recommends 
yearly increases of $65 million from fiscal year 2000 to fiscal year 
2003, necessary to bring the Refuge System into a state of health by 
its 100th anniversary. We therefore ask an additional $37.7 million 
over the President's request to meet the CARE fiscal year 2000 target 
of which $36.35 million should be focused on operations increases which 
have not kept pace with those for maintenance. Operations increases are 
critically needed to carry out the requirements of the new National 
Wildlife Refuge System Improvement Act and to implement the directives 
of the first ever National Wildlife Refuge System conference, including 
inventory and monitoring (which requires additional biological staff); 
implementation of new compatibility regulations that depend heavily on 
the best available science; and the development of Comprehensive 
Conservation Plans. The recent Fish and Wildlife Service document 
``Biological Needs Assessment, National Wildlife Refuge System Division 
of Refuges, July 1998'' documents the severe shortage in biological 
staffing. Examples of projects that will not be funded even at the 
President's level include: expansion of endangered masked bobwhite 
quail introduction at Buenos Aires NWR (AZ); monitoring and protection 
of threatened piping plover nesting areas at Des Lacs NWR (ND); and 
restoration of bottomland hardwood forests to benefit neotropical 
songbirds at Patoka River NWR (IN).
                          u.s. forest service
    Major priorities for Defenders are funding increases for two 
extremely important areas that support species conservation in the FS 
budget: research and habitat management for threatened, endangered, and 
sensitive (TE&S) species. Sufficient funding for these programs will be 
key to implementing the recommendations of the Committee of Scientists 
which emphasize the need for species research, assessment, and 
monitoring.
    Defenders strongly supports the important $10 million increase 
requested to fund TE&S research under Forest and Rangeland Research 
Wildlife, Fish, Water, and Air program. Currently, this program is so 
grossly underfunded that 70 percent of meager TE&S research funds are 
invested in fewer than 10 species or groups of species. Of the 2500 
sensitive species on FS lands, FS scientists are studying only 54; vast 
information gaps exist for a whole array of sensitive species such as 
forest carnivores (lynx, wolverine, marten, fisher), bats, plants, 
amphibians, mussels, and crayfish. Just a few examples of critical 
research projects to be supported by this funding follow. The Southern 
Research Station will investigate factors responsible for successful 
reproduction of freshwater mussels which are experiencing an extinction 
crisis (over 70 percent of 297 native taxa imperiled). The Rocky 
Mountain Research Station will develop monitoring techniques and 
habitat management guidelines to maintain prey base for lynx, 
wolverine, and fisher (given that lynx is likely to be listed in the 
near future this information is critical to provide basis for a 
recovery plan). To benefit coho, chinook, and steelhead, cutthroat, 
redband and bull trout, the Pacific Northwest Station will develop 
landscape level conservation options including priorities for 
restoration and protection of habitat. And the Pacific Southwest 
station will examine effects of introduced fish and estrogen-mimicking 
compounds on the northern red legged frog and seven associated species.
    Defenders also strongly urges funding of the President's requested 
$5 million increase for TE&S Habitat Management under the Wildlife and 
Fisheries Habitat Management line item. This investment in TE&S habitat 
is cost effective. As the Committee of Scientists recently reported, 
habitats on FS lands serve as important ecological anchors; 
conservation and recovery efforts consequently have benefits that 
extend far beyond FS lands to state and private lands. The increase 
will: support a 10 percent increase in survey and monitoring efforts in 
both terrestrial and aquatic habitats; support restoration of 19,000 
acres of terrestrial and 36 miles of stream habitat; and fund 
development of conservation strategies and agreements for an additional 
31 sensitive species and implementation of recovery plans for 7 
additional T&E species. A 10 percent increase in public use benefits is 
expected, including increased viewing and interpretation opportunities. 
Unfortunately, even at the requested level, only one-third of the 
identified funding need (approx. $97 million) for TE&S habitat 
management will be met. Projects that will go unfunded at the request 
level include: reduction of road density in grizzly habitat on Lolo NF 
(MT) to reduce disturbance and displacement of bears; removal of heavy 
metal contamination from the Little Blackfoot River to benefit 
cutthroat and bull trout on Helena NF (MT); and surveying followed by 
habitat improvement projects such as prescribed burning to benefit 
prairie fringed orchid, prairie chickens and other sensitive species on 
Custer NF and Sheyenne National Grassland (ND).
          u.s. geological survey biological resources division
    Defenders continues to believe that BRD has never recovered from 
funding reductions imposed upon it in fiscal year 1996 and subsequent 
years. Even at fiscal year 1999 funding levels of $162.5 million, BRD 
is still below its fiscal year 1995 base level of $166 million which, 
adjusted for inflation, would now total approximately $200 million. 
USGS has also made several budget restructuring proposals for fiscal 
year 2000 including a new budget activity, Integrated Science, that 
would fund DOI agency science priorities and place-based studies. The 
move towards integrated science is the right step in addressing 
ecosystem level interdisciplinary--and many other--research needs. 
However, we are concerned that $13.3 million of the proposed $47.7 
million for Integrated Science is coming out of the BRD base, and that 
some increases for fiscal year 2000 projects are being funded out of 
decreases in important research just initiated in fiscal year 1999, 
e.g. a $5.5 million decrease for Species and Habitat Protection and 
Clean Water and Watershed Restoration. We therefore recommend that BRD 
retain in its base the $13.3 million proposed for transfer and that an 
increase of $13.3 million in new money be provided to compensate for 
the funding that would have come from BRD base to meet the Integrated 
Science request level of $47.7 million. We are also concerned that 
certain details about the Integrated Science activity, including 
methods for determining priorities and allocating funding, have not 
been made clear and must be made so as soon as possible; moreover, USGS 
needs to commit to meeting DOI agency needs and the Director must be 
held accountable for doing so.
    Defenders maintains its strong support for the Gap Analysis Program 
(GAP), a collaborative effort involving 48 states and more than 500 
business, non-profit, state, local, and Federal agency organizations to 
map our nation's biological diversity and areas currently managed for 
its protection. We also continue to believe that insufficient resources 
have been made available for efficient transfer of GAP data to users 
and integration into on-the-ground conservation planning and therefore 
strongly support the requested BRD increases of $3 million ($10 million 
USGS-wide) for National Spatial Data Infrastructure Community/Federal 
Information Partnerships (C/FIPS) and $1 million increase for National 
Biological Information Infrastructure. In particular, the C/FIPS would 
help states deliver GAP data and help people use the information in 
making daily decisions about land use. We note that in order for the 
data to be useful, it must be in a form conducive to informing 
decisions about management and policy.
                        bureau of indian affairs
    Defenders endorses and wishes to highlight funding for one worthy 
program under BIA Resources Management, the Cheyenne River Sioux (SD) 
Prairie Management Plan, part of a cooperative multi-agency effort and 
the tribe's response to requirements to recover the black-footed 
ferret. Phase I of the project, now completed, has improved the prairie 
ecosystem and decreased overgrazing on the Cheyenne River Sioux 
Reservation. The goals of Phase II, now being initiated, include: 
black-footed ferret reintroduction, prairie dog ecosystem management, 
range management, bison management, and public education. The tribe 
needs $2.5 million in fiscal year 2000 and $2 million/yr for 4 
subsequent years to implement Phase II of the Plan.
      lands legacy/land and water conservation fund (multi-agency)
    Defenders strongly supports full funding of the President's Lands 
Legacy Initiative, a total of approx. $800 million under the 
Subcommittee's jurisdiction: $413 for federal LWCF (DOI/FS), $80 
million for the Cooperative Endangered Species Fund (FWS); $150 million 
for grants to states and others for land acquisition (DOI); $50 million 
for state open space planning grants (DOI); $50 million for Forest 
Legacy (FS); $40 million for urban forestry (FS); $10 million for smart 
growth revolving loan program (FS); and $4 million for Urban Parks and 
Recreation Recovery (NPS). The election last November demonstrated that 
Americans readily support expanded protection of open space and habitat 
and creation of more outdoor recreation opportunities, as Lands Legacy 
proposes. Voters approved 72 percent of 240 state and local ballot 
initiatives designed to provide funding for these purposes. We believe 
Congress needs to step forward and provide federal funding to mirror 
and assist these state and local efforts--redeeming the original 
promise to fully fund the Land and Water Conservation Fund which is 
currently owed $12 billion in unallocated funding. Defenders is proud 
to be on the board of Americans for Our Heritage and Recreation (AHR), 
an organization--representing thousands of LWCF stakeholder across the 
nation including urban, state, recreation, industry, and environmental 
groups--dedicated to revitalizing the LWCF.
    We wish to highlight several components of Lands Legacy. First, the 
$413 million for federal land acquisition will move forward a number of 
high priority projects in our Refuges, Forests, Parks, and BLM-managed 
special areas, such as Pinhook Swamp, a corridor linkage between 
Northwest Florida's Osceola National Forest and Georgia's Okeefenokee 
National Wildlife Refuge. Second, the substantial increase in funding 
for the Cooperative Endangered Species Fund will give states badly 
needed resources to move forward with candidate conservation, recovery, 
and HCP efforts, for land acquisition to support both HCPs and species 
recovery. But even the requested $20 million increase for HCP land 
acquisition falls far short of the projected current yearly need of 
approx. $140 million that would benefit hundreds of species such as 
Karner blue butterfly, Florida scrub jays, Key deer, and marbled 
murrelets. Third, the $150 million for land acquisition grants is a 
needed step toward revitalizing the State-side of LWCF and will give 
states and local entities help in preserving dwindling vestiges of 
habitat and greenspace. And fourth, open space planning ($50 million) 
is a critically needed tool to help states address the threat of sprawl 
more cost effectively and strategically; comprehensive conservation of 
habitat must be an integral component of any such open space planning 
process.
    Finally, we would like to offer an excellent example of a 
comprehensive, forward looking effort, strongly supported by Defenders, 
that could be funded under Lands Legacy. A broad cross-section of 
interests in eastern Pima County (AZ), one of the fastest growing 
regions in the U.S., has joined together to request funding for both 
Saguaro National Park West expansion (approved by Congress in 1994 
without a funding source) and Pima County's Sonoran Desert Conservation 
Plan (SDCP). For fiscal year 2000, at least $10 million is needed to 
complete the Park expansion and another $40 million to help launch 
SDCP. This request includes acquisition of critical habitat for the 
endangered cactus ferruginous pygmy-owl by supplementing state and 
local funds for habitat acquisition in and around remnant old-growth 
ironwood forests northwest of Tucson. Up-front acquisition of this 
sensitive habitat would contribute to a pro-active private-public 
partnership to conserve this area of rich ecological and scientific 
value and jumpstart SDCP's development and implementation.
                 everglades restoration (multi-agency)
    As national co-chair of the Everglades Coalition, Defenders 
strongly supports full funding for Florida Everglades Watershed 
Restoration, a total of $151.5 million (FWS $11 million, NPS $131.5 
million, USGS $8.6 million, and BIA $0.4 million). Everglades land 
acquisition, research, construction and management are investments into 
the future of the economy and environment of South Florida. These funds 
are vital for carrying out the first phases of the most ambitious and 
critical ecosystem restoration project in history. Defenders feels that 
the conceptual plan for the project provides a flexible and effective 
blueprint for restoration. In recent weeks, improvements have been made 
which accelerate achievement of ecosystem benefits. We applaud those 
changes and congratulate the federal and state partners for their 
willingness to incorporate our suggestions. Thank you, Mr. Chairman.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States
    We appreciate the opportunity to provide testimony to the Interior 
and Related Agencies Subcommittee on several funding items of great 
importance to the Humane Society of the United States (HSUS) and its 
6.7 million members and constituents. As the largest animal protection 
organization in the country, we urge the Committee to address these 
priority issues in the fiscal year 2000 budget.
                         endangered species act
    The HSUS supports a strong, efficient, and effective Endangered 
Species Act (ESA) and the full measure of the Administration's $195 
million request. Adequate funding early in the protection process--
before more drastic measures are necessary for species survival--will 
facilitate the fulfillment of the ESA's crucial mandate and reduce 
potential conflicts. Full funding is necessary for scientific 
assessments of wildlife populations, purchase of critical habitat 
threatened by development, recovery planning, on-the-ground 
conservation projects, and improved enforcement to curtail the illegal 
trade in endangered species parts.
 rhino and tiger conservation act, african elephant conservation act, 
                  and asian elephant conservation act
    The HSUS supports the Administration's request of $1 million for 
each of three crucial foreign endangered species programs: The Rhino 
and Tiger Conservation Act, The African Elephant Conservation Act, and 
The Asian Elephant Conservation Act. The HSUS is very concerned about 
previous incidents and future opportunities for funds from these 
conservation programs to be allocated to promote trophy hunting, trade 
in animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, and entertainment to meet the demand of the 
public display industry--under the guise of conservation for these 
endangered animals.
       law enforcement division of the fish and wildlife service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology is 
essential if law enforcement is to have any hope of effectively 
enforcing the nation's endangered species trade laws. To that end, The 
HSUS requests an additional $12.764 million above the Administration's 
request of $39.95 million for the U.S. Fish and Wildlife Service Law 
Enforcement Division. Of that amount, $2.764 million is specifically 
requested for the Clark R. Bavin Wildlife Forensics Laboratory for the 
purchase of additional equipment and forensic science personnel. 
Adequate support for law enforcement and the forensics lab is essential 
to discourage the widespread trade in exotic animals and protect viable 
populations of wildlife before they are pushed to the brink of 
extinction.
                    land and water conservation fund
    The HSUS strongly recommends that the Committee restore full 
funding for the Land and Water Conservation Fund, including funding for 
the state grants program which has not received any money since 1995. 
LWCF has been responsible for the acquisition of nearly seven million 
acres of parkland and open space and the development of more than 
37,000 parks and recreation projects. It was an inspired act of 
Congress that created LWCF and a visionary step to make $900 million in 
Outer Continental Shelf Revenues available annually for this critical 
fund. Providing full funding for LWCF's federal and stateside programs 
this year will make a tremendous difference in protecting habitat and 
resources that are vital to animals and people.
        wild horse and burro program/fertility control research
    Although progress has been made, there remain serious deficiencies 
in the Bureau of Land Management's Wild Horse and Burro program. We 
believe that this is an extremely important and valuable program. 
America's wild horses are a public trust greatly beloved by the 
American people, and any indication that these animals are being 
threatened or mistreated generates loud public outcry. The HSUS 
recommends that the Administration's budget request of $19.97 million 
for the Wild Horse and Burro program be fully funded. Within the 
program, however, we recommend that $400,000 be shifted from the 
adoption program to on-the-ground management of horses and their range, 
especially wild horse monitoring, range monitoring, and habitat 
restoration. Restoring the ecological health and productivity of the 
public lands is a goal on which everyone can agree.
    The BLM currently spends more than $1,100 for each wild horse that 
is removed from public lands and processed through the Adopt-a-Horse 
program. Even at that level of spending, the Bureau cannot guarantee 
humane treatment and adequate care to the 7,000 or more wild horses 
adopted each year. The HSUS believes that fertility control, if used as 
part of a scientifically-based and equitable range management plan, can 
reduce human-caused stress on wild horses, improve care for animals 
entering the adoption program, and reduce the costs of wild horse and 
burro management.
    Funds appropriated by Congress in fiscal year 1993-1998 have 
brought immunocontraception to the brink of practical application to 
western wild horses. Field tests in 1992 and 1995 led to a one shot 
immunocontraceptive vaccine that reduced pregnancy rates in treated 
animals for one year by at least 85 percent. Five new field tests were 
begun in 1997-99, with the objectives of making the vaccine easier to 
use in the field, extending the length of vaccine efficacy to two 
years, and testing models that predict how much contraception reduces 
horse population growth. Since every foal not born potentially saves 
the Bureau over $1,100 in adoption costs, the vaccine is highly 
economical, even in the research phase. Delays in releasing funds over 
the past four years have significantly slowed research progress. 
Consequently, we request $350,000 in fiscal year 2000 to support 
further research in and initial application of wild horse 
immunocontraception. These funds would allow the continuation of the 
five field tests and put in place the means to begin management 
application. Each application reduces the number of horses that enter 
the Adopt-a-Horse program, and thereby recovers much of the cost of the 
research.
    The HSUS also offers the following recommendations for 
modifications to the Wild Horse and Burro Program that will help 
alleviate the problems that currently trouble it.
    (1) Stop the elimination of horse populations from established herd 
areas, stop local reductions in populations that threaten the viability 
of many herds, and enlarge wild horse populations where the land can 
sustain them. Where they are necessary, wild horse removals should be 
part of a comprehensive plan to restore range condition, and should be 
matched by real removals of livestock.
    (2) Assure the public a voice in wild horse management decisions. 
The BLM has been using the ``full force and effect'' regulation, which 
was primarily intended for emergencies, to effectively remove the 
public's voice in decisions on wild horse management.
    (3) Implement the recommendations of the Pierson and Culp reports, 
and the recommendations emerging from the Wild Horse and Burro Advisory 
Council.
    (4) Use qualified volunteers where possible, and enhance the system 
for screening potential adopters, performing post-adoption compliance 
checks, and investigating what factors lead to successful, long-term 
adoptions.
    These reforms will benefit the program in general, the animals 
themselves, and the public. The HSUS looks forward to continuing to 
work with the BLM on this issue.
            animal control initiative on native reservations
    The HSUS urges the Committee to designate $750,000 of the Bureau of 
Indian Affairs' Law Enforcement Initiative (or some other account the 
Committee deems appropriate) for a project to improve animal control 
services on several Native American reservations where public health 
and safety are currently jeopardized by the lack of such services. Over 
the last decade, some Native American Nations have developed animal 
control programs and ordinances, but their struggling programs are 
severely underfunded. Other Native American Nations have no animal 
control programs at all. Poor and non-existent animal control programs 
pose not only serious problems for the animals on reservations, but 
also immediate public health and safety threats to the human residents.
    Dog bites have become a serious hazard, particularly for children. 
More than 4.7 million individuals are bitten by dogs each year in the 
United States, leading to injuries and transmission of rabies and other 
diseases. The problem is particularly acute in Native American Nations. 
A 1996 report by Navajo Nation Animal Control stated that, ``in 1990, 
the Indian Health Service announced that approximately 2,000 
individuals were treated for dog bites'' on that reservation. A 
fatality associated with a dog attack occurred last month on the 
Blackfeet reservation, and dog attacks on other reservations have led 
to severe injuries and death for children and adults over the past 
several years.
    Recognizing this problem, The HSUS has begun providing direct 
services to several Native Nations. Since 1991, HSUS has worked with 
the Navajo Nation, and during 1998, HSUS worked with local animal 
control agencies to deliver basic humane services, including spaying/
neutering and vaccinations, to more than a dozen reservations in 
Montana, North Dakota, and South Dakota, providing over 45 days of 
clinics. In 1999, HSUS hopes to expand its program to provide some 
assistance to more than 20 reservations in Montana, North Dakota, South 
Dakota, California, Oregon, Washington, New Mexico, Arizona, Colorado, 
and Utah.
    However, to address the full range of public health issues 
associated with free-roaming, proliferating, and unvaccinated canine 
populations on Native lands, and to do so in a way that will achieve 
long term results rather than just providing stopgap aid, federal 
assistance is needed. The funding requested would help several Native 
Nations begin to establish their own effective animal control programs. 
The proposed initiative would include training (workshops for animal 
control personnel about safe animal capture, handling, and 
vaccinations); animal sterilization and other veterinary services; 
humane education (instruction on how to deal with roaming animals, 
proper animal care, and responsible pet ownership); grants to Native 
Nation animal control agencies for facilities improvement or 
construction; and, if appropriate, legislation (helping communities 
develop effective local animal control laws). The requested funding 
could be allocated as follows:
  --$310,000 to provide ``mobile clinic'' services throughout the 
        Nations for spaying/neutering and vaccinations. This amount 
        would cover at least 75 days of scheduled clinics, including a 
        $200 per day honorarium for 3 veterinarians. This honorarium is 
        necessary to recruit local veterinarians who could then be 
        called upon for annual follow-up services.
  --$270,000 to help establish animal control programs and facilities. 
        Less than 10 percent of western Native Nations have formalized 
        animal control programs, and even fewer have animal control 
        facilities. This funding would be used to train Native 
        personnel in safe animal capture and handling, humane 
        euthanasia, and how to run an effective shelter. It would also 
        be used to assist communities in developing effective animal 
        control laws and humane education programs for schoolchildren, 
        as well as to develop and print Native American directed 
        educational materials on bite prevention and proper animal 
        care. And it could help reservations begin building or 
        improving their animal care facilities.
  --$100,000 to provide proper equipment for animal control personnel, 
        including gloves, nets, cat boxes, leashes, and portable cages, 
        and for the spay/neuter clinics, including a portable 
        anaesthesia machine, spay packs, surgery tables, instrument 
        stands, syringes, needles, pharmaceuticals, and other medical 
        supplies.
  --$70,000 to hire two full time Native Nation coordinators, who would 
        work exclusively on animal care issues affecting the 
        reservations and ensure that the program was running smoothly.
    This initiative would go a long way toward addressing serious 
public health and safety problems associated with animal control on 
reservations, in a way that is humane and effective on a long-term 
basis. The HSUS urges the Committee to make this much-needed modest 
investment.
    Again, we appreciate the opportunity to share our views and 
priorities for the Interior and Related Agencies Appropriation Act of 
fiscal year 2000. We hope the Committee will be able to accommodate 
these funding requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 
Prepared Statement of Christine Stevens, Secretary, Society for Animal 
                         Protective Legislation
    The Society for Animal Protective Legislation requests an increase 
in appropriations of $12.764 million for the Law Enforcement Division 
of the U.S. Fish and Wildlife Service for fiscal year 2000. As major 
criminal activity has increased year by year in the trade of wildlife 
parts and products, it is urgent that the needs of Law Enforcement be 
provided with the tools and the staffing without which the David and 
Goliath nature of the battle will be ceded to the Goliath of organized 
crime.
    I would like to begin by citing the urgent need for new 
technological instruments for the Clark R. Bavin Wildlife Forensics 
Laboratory.
    The Triple Quadrupolar Mass Spectrometer will enable the skilled 
scientists and technicians at the laboratory to identify specific 
biological and organic chemicals. Examples of its' diverse power 
include: (1) determining the unique sequence of amino acids which make 
up proteins found in muscle tissues for speedy identification of 
wildlife species and (2) providing the scientists the ability to 
19fingerprint' complex organic chemical mixtures from illegal chemical 
dump sites or oil spills and pinpoint the specific source of the 
materials. (Cost: $250,000 to $300,000)
    A second extremely valuable piece of equipment much needed by the 
Forensics Laboratory is the High Resolution Mass Spectrometer which 
would allow the scientists to look at chemical isotopes from bone, 
feathers, fish scales, mollusk shells, etc. This instrument will allow 
the scientists to estimate time of death as well as determine the 
geographic location the sample came from.
    A good example of its' use for determining where a sample 
originates from is the U.S. Fish and Wildlife Service case last year 
involving a multi-million dollar Asian pearl industry which used 
illegally harvested endangered shellfish from the Mississippi River. 
These shells were smuggled out of the United States and sold to the 
Asian pearl industry. The shells were then ground up into 19seed 
nuclei' around which artificial pearls form. The High Resolution Mass 
Spectrometer would have allowed scientists to pinpoint the location the 
shells were illegally taken from--even down to a specific river 
drainage, and strengthen the case against the criminals involved. 
(Cost: $750, 000 to $1,000,000)
    The Fourier (pronounced For-E-A) Transform Mass Spectrometer is 
another important detective device which performs macro-molecular 
analysis as well as DNA and protein sequencing. These techniques are 
especially valuable in the analysis of medicinal products purporting to 
contain minute amounts of Rhino horn or Tiger bone powders. Other 
analytical techniques involve rapid species identification based on 
protein differences found in hemoglobin in blood and myoglobin from 
muscle tissue samples. (Cost: $500,000)
    Additionally, the new, powerful tools of DNA analysis in matching 
tissue samples from poaching cases, and in identifications of species 
and species-hybrids are increasingly opening up new areas of forensic 
capability and allowing the scientists to analyze blood and tissue 
evidence that previously could not be processed. These expanded 
capabilities have placed new demands for casework on the Laboratory. To 
keep up with these demands the Lab needs the following instruments:
    Two automated multi-probe work-stations which would allow the 
scientists to place DNA samples through a selected sequence of 
automatic analytical processes. (Cost: $50,000 each)
    Two Cytoflour multi-well plate readers to instantaneously, and 
accurately quantify flourescent-labeled strands of DNA. This will 
provide a precise measurement of the DNA for subsequent analysis. 
(Cost: $22,000 each)
    An ABI 310 capillary electrophoresis DNA sequencer would greatly 
expand the Lab's capability in answering both species and hybrid 
identifications of wildlife. (Cost: $100,000)
    Finally, communications with U.S. Fish and Wildlife Inspectors at 
border ports is vital to the ongoing investigative assistance provided 
by the Lab. One goal to enhance this communication is to place 50, 
state-of-the-art laptop computers in the hands of Wildlife Inspectors 
around the U.S. These computers will allow them to securely connect to 
the Lab using smartcard technology and encryption software to access 
on-going casework, investigative and research data. This technology 
will greatly enhance their investigations and ultimately the service of 
the Lab. (Cost: $150,000)
    The nature of the casework at the Clark R. Bavin Wildlife Forensics 
Laboratory has become more complicated and detailed as new 
investigations involving threatened and endangered exotic wildlife 
trade species are initiated. Some of the analytical techniques are 
adaptations from human forensics which are modified and applied to 
wildlife cases. Because of the diversity of evidence found in wildlife 
crime, many other techniques are completely new, cutting edge forensic 
technologies developed from scratch.
    With this changing casework and technology, additional personnel 
are needed. Two senior forensic scientists, 8 forensic specialists and 
2 technicians will greatly assist the mission of the Laboratory. 
(Salaries and benefits $570,000)
    The instruments and personnel needs I have described will 
accomplish two main goals: (1) they will allow scientists to more 
rapidly analyze evidence and speed up the investigative and judicial 
process and, (2) they will greatly assist the scientists in developing 
new forensic techniques to answer the difficult questions--including 
species identifications, cause of death, origin of sample--questions 
involved with the multi-billion dollar world trade in threatened and 
endangered wildlife.
    It is estimated that there are approximately 3000 forensics 
laboratories worldwide, all focused on solving crimes against one 
species-humans. The Clark R. Bavin Wildlife Forensics Laboratory stands 
as one laboratory whose mission is to solve crimes against the other, 
silent species of the world. Support of this Lab is vital to our 
commitment to the countless generations who follow us and the hope that 
they can enjoy the world's wildlife as we do now.
                                 ______
                                 
    Prepared Statement of Ted James, Planning Director, Kern County 
   Planning Department; Steven J. Arita, Environmental Coordinator, 
  Western States Petroleum Association; Manual Cunha, Jr., President, 
   NISEI Farmers League; Les Clark, Vice President, Independent Oil 
Producers Association; and Mike Chase, Endangered Species Coordinator, 
                        Kern County Farm Bureau
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior Appropriations Bill for fiscal year 2000.
    First, the Coalition supports the Department of Interior's fiscal 
year 2000 budget request for the Cooperative Endangered Species 
Conservation Fund--especially funding for HCP land acquisition. The 
Coalition urges the Subcommittee to appropriate maximum funding for 
land acquisition.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP, which is in the final stages of development and 
expected to be completed within the next 8-10 months. The Coalition 
requests that the Subcommittee appropriate the maximum possible amount 
for this program, so that the funding pool can accommodate our request 
and need. We are confident that the plan's merits and urgency support 
this request.
    Kern County's program is unique from other regions in the nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 13 wildlife 
species and 14 plant species listed as threatened or endangered under 
federal law. The potential for conflict with the federal ESA is great 
in Kern County because of the extensive agricultural and oil and gas 
production activities which occur. Since Kern County is the top oil 
producing county in the nation and one of the leading agricultural 
counties, potential conflicts with the ESA and their resolution through 
a proactive conservation program has significant national importance.
    In recognition of the conflicts posed to economic growth by federal 
and state endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish & Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Department of Oil & Gas and Geothermal Resources, California Department 
of Fish & Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and Federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, agricultural, ranching, water 
conveyance and other industry activities to continue. Preparation of 
the KCVFHCP began in 1989 and involved a number of federal, state and 
local government agencies, as well as the oil and gas industry, 
agricultural, utilities and environmental groups.
    Kern County's Valley Floor Habitat Conservation Plan (KCVFHCP) is 
one of the largest and most diverse endangered species conservation 
programs under development in the nation encompassing over 3,110 square 
miles. The program embraces many of the conservation approaches that 
have been advocated by the Department of Interior, in that it 
represents a significant departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it is based on a system of 
trading habitat credits in an open market. In that regard, the KCVFHCP 
is considered to be a state-of-art conservation plan that will address 
compliance with the ESA for multiple threatened and endangered species. 
This innovative and state of the art system, for the first time, 
provides landowners with real incentives and more importantly, the 
ability to choose how best to manage their own private property.
    The Coalition appreciates the Subcommittee's consideration of its 
request, as well as Subcommittee's support of the Kern County HCP.
                                 ______
                                 
   Prepared Statement of Harry Wilde, Sr., Co-Chair, Lower Yukon and 
Gilbert Huntington, Co-Chair Upper Yukon, on Behalf of the Yukon River 
                     Drainage Fisheries Association
                                abstract
    The Yukon River Drainage Fisheries Association (YRDFA) requests an 
appropriation of $150,000 to operate a public information and education 
campaign concerning the U.S./Canada Yukon River salmon treaty 
negotiations and the operations of the Yukon River Panel. Funds would 
be transferred from the U.S. Fish & Wildlife Service to the YRDFA 
through a Cooperative Agreement entered into under the authority of the 
Fish and Wildlife Coordination Act [16 USC 661-667 (e) (1970)] and 
under the authority of legislation to be introduced later this spring 
reauthorizing the Yukon River Salmon Act.
                              introduction
    Since 1985 the U.S. and Canada have engaged in annual negotiations 
to conclude a long-term treaty for the management of chinook and fall 
chum that spawn in Canada. During the 1990s there were informal 
agreements on harvest targets and spawning escapements and from 
February 1995 through March 1998, a formal Interim Agreement was in 
place between the two countries. During the 1990s, with the exception 
of the unforeseen salmon crash of 1998, spawning escapements were 
steadily being built back up to agreed-upon levels.
    While management cooperation between the two countries has had some 
success, there is a serious need to improve public information and 
education concerning U.S./Canada Yukon salmon issues to the 15,000 
rural residents living in the 42 different Yukon villages in Alaska. 
All of these villages are extremely isolated, accessible only by small 
plane or riverboat. There are no daily newspapers, limited and poor TV 
reception and only a few scattered public radio stations.
    It is these rural villagers who will be the most affected by an 
eventual treaty with Canada. Salmon, including Canadian-origin chinook 
and fall chum stocks, are the backbone of both their traditional 
subsistence fishery and their small commercial fishery. Decisions 
concerning Canadian-origin stocks have major impacts on how many salmon 
each family may harvest and how much fishing income a commercial 
fisherman might earn. These fishermen must not only be fully informed 
about the ongoing process but must be able to communicate with and 
provide feedback to the U.S. delegation negotiation team (a.k.a, the 
U.S. section of the Yukon River Panel and its Advisory Committee as 
well as agency personnel of the U.S. Fish & Wildlife Service, the U.S. 
Department of State and the Alaska Department of Fish & Game.
    Unless the residents and fishermen of the Yukon River understand 
the costs and benefits of the Panel process and a future proposed 
treaty with Canada, it will be very difficult for United States Panel 
members and negotiators to move forward on negotiations. Without 
adequate public information and participation mistrust will build 
between the rank-and-file and the people who represent them.
    a u.s./canada yukon river salmon information & education program
    In 1998 and now in 1999, the U.S. Fish & Wildlife Service has, at 
the direction of the U.S. section of the Panel and the negotation 
delegation, entered into cooperative agreements with YRDFA in the 
amounts of $10,000 and $50,000, respectively, to assist the agencies in 
educating the public about the ongoing negotiations with Canada. Funds 
were, and are being, utilized to pay for an annual 4-day fishermen's 
meeting and for informational newsletters distributed to nearly 3,000 
recipients.
    For fiscal year 2000 the YRDFA would use the funds to expand its 
comprehensive public information & education program in consultation 
with the U.S. Fish & Wildlife Service and the Alaska Department of Fish 
& Game. Potential activities include: Quarterly newsletter and periodic 
mailings distributed to:
  --1,500 subsistence salmon fishing households
  --950 commercial salmon fishing permit holders
  --100 contacts in state and federal agencies
  --42 ANCSA village corporations
  --42 IRA/Traditional village councils
  --12 salmon processing/smoking operations
  --8 media outlets
  --15-minute radio programs distributed on Alaska Public Radio Network 
        Fishermen's meetings in selected villages in the lower, middle 
        and upper Yukon
    Through such a comprehensive effort the fishermen and women of the 
Yukon will be fully informed and involved in working with the Yukon 
River Panel and the various agencies in charting the future of the 
Yukon River.
    Anticipated annual expenditures of a fully-funded Information & 
Education Program are as follows:

YRDFA staff support...........................................   $50,000
Fishermen's Meetings (travel & per diem)......................    60,000
Radio programs (contractual)..................................    16,000
Newsletters (production & distribution).......................    24,000

         the yukon river drainage fisheries association (yrdfa)
    The Yukon River Drainage Fisheries Association was formed in 1990 
to unite lower river and upper river commercial and subsistence 
fishermen of the Yukon River and its tributaries within Alaska. As such 
it represents Yup'ik Eskimo, Athabascan Indians and white homesteaders. 
It is governed by a 16-member Board of Directors with seats apportioned 
according to the six (6) commercial fishing management districts of the 
Yukon, the coastal villages, the Koyukuk River tributary. and the Yukon 
Flats A primary goal of the YRDFA is to seek consensus solutions to the 
various management, conservation and allocation issues on this vast and 
complex river system.
    The YRDFA hosts a 4-day Annual Meeting in a different village each 
year and publishes an occasional newsletter. The Association also 
sponsors ad hoc village meetings concerning local and subregional 
issues. It works on a regular basis with biologists of the Alaska 
Department of Fish & Game and the United States Fish & Wildlife Service 
to craft management plans that help to assure sustained yield of 
various stocks while meeting subsistence harvest needs and providing 
for commercial harvests. YRDFA then presents these consensus plans for 
formal regulatory approval by the Alaska State Board of Fisheries.
    The YRDFA is the only organization that works with and unites all 
the diverse fishermen on the river. It knows the best ways to 
communicate with and foster the participation of these fishermen.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 

                         National Park Service

    Prepared Statement of the Coachella Valley Mountains Conservancy
    The Governing Board of the Coachella Valley Mountains Conservancy 
appreciates this opportunity to submit testimony in support of a $5 
million appropriation to the Bureau of Land Management for acquisitions 
in the Santa Rosa Mountains National Scenic Area. The Conservancy was 
established by the California Legislature in 1991 to acquire and hold 
in trust open space in the mountainous lands surrounding the Coachella 
Valley, and to provide for the public's enjoyment and use of those 
lands consistent with the protection of cultural, scientific, scenic, 
and wildlife resources.
    The Scenic Area is the mountain range that forms the backdrop of 
the Coachella Valley cities, including Palm Springs, Cathedral City, 
Rancho Mirage, Palm Desert, Indian Wells, and La Quinta. The mountains 
rise quite steeply from the desert floor to an alpine environment atop 
San Jacinto Peak at 10,800 feet. The resource values in the mountains 
run the gamut from scenic and wildlife to cultural and recreational. 
The Scenic Area is of great importance to the Coachella Valley's 
economy, and hundreds of thousands of people who come to the desert 
each year for vacation enjoy our mountains, and, in so doing, 
contribute to the local economy.
    The Conservancy would like to inform you about two partnerships. 
The first partnership is the local, state, and federal partnership that 
has been working for years to protect the National Scenic Area. The 
attached chart shows the magnitude of this partnership. Since 1990 the 
state of California has provided over $20 million for acquisition and 
the local communities nearly $10 million, including $3.9 million since 
January 1st for a key acquisition in Andreas Canyon. BLM has 
contributed over $11 million in LWCF money in that time period. This is 
a partnership that you can be proud of having supported, and you can be 
confident that your continued support will again leverage state and 
local contributions. With the listing of the peninsular bighorn sheep 
as an endangered species last year, we are in ever-greater need of 
acquisition funding to protect the National Scenic Area, which is home 
to the magnificent bighorn sheep. Land acquisition activities are 
accelerating in an effort to avert conflicts over the bighorn sheep and 
to enhance protection for the species.
    The Conservancy and BLM are currently talking with nine key 
landowners about the acquisition of their property. Together their 
holdings total 13,830 acres, the total value of which is in the range 
of $19 to $26 million. Five of these landowners are committed willing 
sellers at an estimated cost of $3.4 million, and the BLM's remaining 
fiscal year 1999 LWCF money will initiate these acquisitions. 
Appraisals are currently being conducted on these properties. Of the 
other four landowners, three have indicated a strong interest in 
selling, contingent upon the purchase price being determined and how 
quickly the acquisitions could occur. The value of their land is in 
excess of $10 million. The final landowner has not yet indicated 
whether or not he wants to sell. The requested $5 million appropriation 
would complete the pending projects and enable BLM to initiate one or 
more of the other willing seller acquisitions. The Conservancy is 
optimistic that state funds will be available in the coming fiscal year 
to provide a significant state contribution toward those acquisitions.
    The second partnership is the southern California NCCP cooperative 
effort. Representatives from NCCP efforts in five counties meet monthly 
to share information and provide mutual support for each other's 
efforts. Collectively, these NCCP plans comprise the core of a 
bioregional conservation plan for all of southern California. This is 
certainly one of, if not the most, most comprehensive and proactive 
planning efforts in the nation. We also request your support for the 
funding needs of our NCCP partners, namely, $10 million in acquisition 
funds for the San Diego Wildlife Refuge, $2 million in acquisition 
funds for Otay Mountain, and $2 million in NCCP planning funds. To meet 
other needs in the area, as well as in other areas of the country, we 
support $80 in Cooperative Endangered Species Act funding and full 
funding for the LWCF program.
    In conclusion, the Conservancy would like to update you on some of 
the successful acquisition efforts in the Scenic Area. We are pleased 
to report the completion of a partnership acquisition by the BLM and 
the City of Palm Desert, in which each contributed $1.25 million to 
acquire the C.C. Myers property. Also, as alluded to earlier, the 
County of Riverside recently committed $1.9 million and the Agua 
Caliente Band of Cahuilla Indians committed $2 million to acquire the 
Andreas Cove Development Company property at the mouth of Andreas 
Canyon. The Conservancy purchased 91 acres and the Friends of the 
Desert Mountains have 213 acres in escrow, using Adopt an Acre program 
contributions from community members and corporate sponsors.
    Land and Water Conservation fund money has been well spent in the 
Santa Rosa Mountains National Scenic Area because of these 
partnerships. The money is an investment in more than land. It is an 
investment in a model of local, state, and federal agencies working 
successfully together, and with diverse private sector groups. The 
Coachella Valley has an excellent history of such cooperative efforts 
in land acquisition and in preparing successful plans to deal with 
endangered species issues. That cooperation is alive and well today; in 
fact it is healthier than ever. An LWCF appropriation is a key 
ingredient in the recipe for the success we have had and are continuing 
to enjoy. The Conservancy hopes this Subcommittee will support an LWCF 
appropriation as you have in the past.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    The National Conference requests a withdrawal from the Historic 
Preservation Fund of $150,000,000 for fiscal year 2000.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Historic       Compare FY
                                                                      FY 2000     preservation's    1999 actual
                                                  FY 1999 actual  administration     request at    with FY 2000
                                                                       budget      $150 million       request
----------------------------------------------------------------------------------------------------------------
Heritage grants:
    Restoration grants (thru States/CLGs).......  ..............  ..............         $43.478        +$43.478
    HBCU........................................          $8.422         $15.022          15.022          +6.600
    Save Americas Treasures.....................          30.000          30.000          30.000  ..............
    NHL Grants..................................  ..............           1.500           1.500          +1.500
    Congressional add-ons for 8 properties......           8.750  ..............  ..............          -8.750
                                                 ---------------------------------------------------------------
      Heritage grants subtotal..................          47.172          46.522          90.000         +42.828
                                                 ---------------------------------------------------------------
Core Programs at the State and local levels.....          31.394          31.394          50.000         +18.606
Tribal Historic Preservation Offices andtribal             2.596           2.596          10.000          +7.404
 grants.........................................
                                                 ---------------------------------------------------------------
      Grand Total...............................          81.162          80.512         150.000         +68.838
----------------------------------------------------------------------------------------------------------------

    The purpose of the National Conference testimony is to focus on the 
request for the national historic pres ervation program operation 
through the State Historic Preservation Offices: $93.478 million 
($43.478 million for restoration grants and $50 million for core 
activities).
                                why now?
    The strength of the United States' economy, the elimination of the 
deficit, and the willingness of the Administration and the Congress, on 
a bipartisan basis, to consider increasing the outlays from the 
Historic Preservation and Land and Water Conservation Funds has 
encouraged the National Conference to ask for what the Nation's 
historic resources need. For two decades, the Historic Preservation 
Fund has operated at a fraction of its potential because the off shore 
oil lease revenues were used to balance the budget. Since financial 
conditions have improved, the off shore oil lease revenues can and 
should be di rected to their intended purpose.
         the nation's heritage is more than the federal estate
    The heritage of the United States exists beyond the boundaries of 
the national park system and the larger federal estate. The heritage of 
the United States also exists beyond museum settings and park 
preserves. Comprehensive conservation of our his tory requires the 
comprehensive approach embodied in the National Historic Preservation 
Act.
    National policy must provide for stewardship of heritage both in 
the parks and in the rest of the nation. Federally owned and non-
federally owned historic places merit equal treatment and equal concern 
and equitable funding.
  states, not federal agencies, accomplish the national preservation 
                                program
    The framers of the national preservation program decided to 
``hire'' the States to fulfill the provisions of the National Historic 
Preser vation Act. This scheme has an added cost-cutting benefit as the 
States contribute half the expense. When a State Historic Preservation 
Officer recommends a property for nomination to the National Register, 
advises a developer on a rehabilitation, or con sults with a federal 
agency on a project the SHPO is conducting the national preserva tion 
program, is acting for the federal government. Without the SHPOs 
federal employees would bear the responsibility. The Historic 
Preservation Fund allocations to State historic preservation programs 
pay for the federal responsibility for the na tion's heritage, a 
federal responsibility equal to the national parks.
  adverse effects of limited funding: unplanned, unbalanced decisions
    Except for the period under the Heritage Conservation and 
Recreation Service, the broad national preservation program has been 
underfunded. This situation is not without consequences. The chart on 
page one of this testimony graphically illustrates one result. Funding 
for restoration projects has become targeted, categorical, and 
restricted to a narrow applicant pool. This situation undermines the 
goals of the national program including the need to provide opportunity 
and resources to all the diverse manifestations of our heritage, with 
decision making and administration shared with the federal government's 
partners at the State and local level. Advocates for preserving 
endangered sites are frustrated and understandably pursue other ave 
nues including special grants and separate authorizations. Full funding 
of the Historic Preservation Fund will provide equal access to 
resources for all Americans, and for the properties important to all 
Americans, reducing the need for new programs and emergency grants.
    One measure of the current situation is the fact that although the 
National Historic Preservation Act directs the Secretary to expend no 
more than 10 percent of the Historic Preservation Fund in directed 
grants, 60 percent of the fiscal year 1999 Historic Preservation Fund 
was allocated and administered at the federal level.
    In the State offices, the benefits of the national program are 
selectively offered depending upon the resources available. With 
support for the federal program declin ing in adjusted dollars for 
twenty years, hard choices have to be made. Few offices, for example, 
are able to provide assistance to individuals or neighborhoods that 
want to be listed on the National Register of Historic Places, which is 
the heart of the national program. Those that can afford to hire a 
consultant may succeed, but many worthy sites are not recognized. 
Similarly, while the historic rehabilitation tax credits are a great 
success story, the bulk of our heritage which is not in com mercial use 
needs equal treatment through the matching grants established by the 
Historic Preservation Fund.
    The most expensive consequence of chronic under funding has to do 
with historic sites survey and the coordination of federal activities 
with impacts on his toric places. Under funding has limited 
comprehensive historic site survey coverage. Therefore, federal 
agencies and applicants for federal assistance deter mine, usually 
through consultants, what sites their project will impact. Exacerbat 
ing this situation is the old fashioned methodology for maintaining 
historic site locational information. Limited Historic Preservation 
Fund allocations mean no resources to digitize historic site 
information, creating increased planning periods and project costs.
                         uses of hpf increases
    Increases in Historic Preservation Fund allocations to the national 
preser vation program will go for known historic resource needs. The 
precise definition of these needs is found in National Park Service-
approved historic preservation plans for each State, developed with 
public participation by the citizens of each State.
    An existing National Park Service formula exists for the allocation 
of ``core programs'' funding among the States. The Park Service allo 
cates Historic Preservation Fund withdrawals over $50 million based on 
a competi tive grants process among the States. Local governments, 
official partners in the national preservation program, will benefit. A 
minimum of 10 percent goes to certified local government as well as 
half of the HPF withdrawal over $65 million. Initial expectations are 
that the competitive grants would focus on restoration grants for 
endangered National Register properties and digitizing inventory 
information.
    The core program increases will support underfunded activities such 
as technical assistance in survey, National Register nominations, and 
enabling more local governments to become official partners in the 
program. The burdens of the existing program on the State Historic 
Preservation Offices are increasing because of growing popularity of 
the programs and further delegation of federal responsi bilities. For 
example, the number of rehabilitation tax credit projects has been 
growing by 15 percent per year. Public education is another high 
priority. Importantly, Historic Preservation Fund increases will allow 
for a major advance in digitizing historic site survey information 
resulting in both better protection for significant properties and 
expedited consultation for federal projects.
                        save america's treasures
    Save America's Treasures grants for fiscal year 2000 should be 
allocated on a competitive basis through the States which have the 
capability to generate match award subgrants in an expeditious manner. 
Further, the intent of the National Historic Preservation Act (Section 
101(e)(3)) is that the Historic Preservation Fund go to States, Indian 
tribes and local govern ments. The Historic Preservation Fund is not 
for federal agency expenses which should be funded through their 
regular budgetary processes (Section 110).
                     historic preservation benefits
    The benefits of the national historic preservation program make 
Historic Preservation Fund ap propriations a sound investment. The 
federal dollar invested in a historic preservation project goes a long 
way. First, it is matched at a 1:2 ratio (based on historic 
experience). Second, it is a one-time federal in vestment. Unlike 
national parks which require on-going federal expenditures in 
perpetuity, the responsibil ity for maintenance and the protection of 
the federal investment rests with the owner. In each case, heri tage is 
preserved. The cost to the federal government, however, is very 
different.
    Historic Preservation Fund dollars are further leveraged by 
programs in the private sector such as the federal historic 
rehabilitation tax credits, administered by the State Historic 
Preservation Officers. Owners of commercial properties on the National 
Register of Historic Places invested $2 billion in their buildings in 
fiscal year 1998 using this program, which ensures that the work 
maintains the historic character of the structure.
    The data and expertise created by the national program may be 
regarded as an ``infrastructure'' for heritage with many potential 
uses, including the economic development opportunities of heritage area 
initiatives, and cultural tourism programs, one of the fastest growing 
indus tries in the world. Quality of life issues are high on the list 
of factors corporations consider when relocat ing, and communities 
successfully include heritage as a strategy in attracting new jobs and 
reasonable growth.
    Participation in the national historic preservation program, when 
adequately funded, is open to everyone and is voluntary. Residents and 
property owners make decisions about their community's future. The 
Historic Preservation Fund gives them the option of having expert 
advice on assessing historic char acter, on alternative preservation 
techniques.
    The national preservation program offers an alternative to exurban 
sprawl by rebuilding and reinvesting in existing communities, 
encouraging people to appreciate the character and benefits of living 
in an historic community. Historic districts, because of the pride and 
interest of residents in their community, are safer and maintain their 
value.
    Non-quantifiable benefits exist as well. Historic neighborhoods and 
business districts are livable places where people want to be. ``New 
urbanists'' in the architecture and planning professions work to re-
create the scale of historic communities. Celebration in Florida, 
Kentlands in Maryland bringing substantial profits to their developer 
clients.
    Finally, historic preservation provides a real-time education for 
all Americans in the lessons and values of our history. The Historic 
Preservation Fund is the tool box that allows Americans to identify and 
protect that history for now and forever.
                                 ______
                                 
Prepared Statement of Stephen A. Janger, President, Close Up Foundation
    Mr. Chairman, distinguished members of the Subcommittee, my name is 
Stephen A. Janger and I am president of the Close Up Foundation. It is 
a privilege for me to submit this testimony with regard to our work in 
the Pacific Islands to provide quality civic education experiences for 
students and educators.
    Before I begin to discuss our fiscal year 2000 funding request, I 
want to express, on behalf of all of us at Close Up, our gratitude for 
the support this Subcommittee has shown for the Foundation's efforts to 
enhance and expand civic education opportunities in the Pacific 
Islands. The funding provided by this Subcommittee to the Office of 
Insular Affairs has made it possible for Close Up to reach thousands of 
students and educators. Without the Subcommittee's support, we know we 
would have had to significantly curtail the educational and training 
experiences we have provided Pacific Islanders.
    For the past sixteen years, the Close Up Foundation has been 
involved in a variety of civic education activities in the Pacific 
Islands. With support from Congress, there are now students and 
educators participating from American Samoa, the Commonwealth of the 
Northern Mariana Islands (CNMI), the Federated States of Micronesia 
(FSM), Guam, the Republic of the Marshall Islands, and the Republic of 
Palau. In addition to having a special relationship with the United 
States, the unique global positioning of the Pacific Islands makes it 
critical that citizens in this region have the tools and understanding 
that are necessary to support democratic institutions. Close Up's 
twenty-eight years of conducting civic education programs place us in 
an ideal position to assist Pacific Island entities with education and 
training activities that will foster an interest in and an appreciation 
of the need for informed citizen involvement in the emerging 
democracies of the Pacific region.
    We are aware of the budgetary pressures confronting the 
Subcommittee, but we believe for a relatively small investment of 
federal funds Close Up returns the investment many times over with 
significant contributions to the current and future generations of 
emerging Pacific democracies. Therefore, we respectfully request $1.0 
million in fiscal year 2000 funding for Close Up's Pacific Islands 
programs.
             close up foundation's pacific islands programs
Washington high school program
    Although Close Up is much more than students on the Hill, most 
people associate Close Up with civic education programs for high school 
students. Through hard work and considerable support from communities 
across the country, we have experienced tremendous success during the 
last twenty-eight years in providing quality, hands-on, civic education 
experiences to a diverse group of students and educators. Our program 
diversity is exemplified by the participation of Pacific Island 
students and educators. Their presence helps to enhance the experience 
of many of our participants most of whom begin their week with little 
knowledge of people from other regions of the country (and world), only 
to end the week amazed at the similarities, shared interests, and new 
understandings created during their program week.
    For the past several years, we have conducted three Washington High 
School Program options to meet the education needs of the Pacific 
Island participants. Each of the three options included a week in 
Washington on Close Up's program. In response to the desires of Pacific 
educators, we plan to eliminate one of the three program options--the 
Pacific Basin program--and offer two program options in fiscal year 
2000.
    One of the fiscal year 2000 options for the Pacific participants 
includes: a week in Washington on the ``core'' Close Up High School 
Program; a two-day trip to Williamsburg to explore the roots of 
American democracy; a visit to Philadelphia to examine the U.S. 
Constitution, its origin, and its impact on Pacific constituents; and, 
a visit to New York City, where students study the cultural and 
political implications of America's diverse citizenry.
    The other option is the ``core'' Washington High School program 
expanded to eight days. This program was created to respond to an 
approximate 25 percent reduction in funding in fiscal year 1997. Rather 
than significantly reduce the number of students who could participate, 
four Pacific Island entities decided to offer an eight-day program. 
This program has been well received. This program option basically 
provides an extra day and a half for Pacific Island students to work on 
activities specifically devoted to the Pacific Islands and their 
relationship to the U.S. government.
    In preparation for Close Up's current program year, we have been 
offering the three program options from previous years. We learned for 
certain after the first of the year that we would be facing a 33 
percent reduction from the $750,000 we received in fiscal year 1998 (to 
a level of $500,000) for this part of the program. Since program 
planning begins a year ahead of time we felt we must go forward with 
our commitments and offer all three options in fiscal year 1999, even 
if it means fewer participants in each program. Should the Foundation's 
fiscal year 2000 appropriations request be funded, we plan to offer the 
two program options preferred by Pacific educators and increase 
measurably from the fiscal year 1999 level the number of students and 
educators taking part in those programs.
    Each year, the overall program experience reaffirms our commitment 
to provide quality civic education programs to the Pacific Islands. The 
positive voices of appreciation of our programs, heard from every 
participating Island, strengthen our resolve to continue to strive to 
provide these often life transforming opportunities for the students 
and educators of the Pacific Islands.
Teacher training and teacher institute
    In early 1998, Close Up completed an extensive nine-month civic 
education/social studies needs assessment for the Pacific Islands. A 
consistent theme in both the formal and informal discussions with 
Pacific educators was the need for teacher training. As a result of the 
needs assessment and a follow-up proposal the Foundation submitted to 
the Office of Insular Affairs (OIA), the Foundation was awarded a 
supplemental grant of $231,600 of which $149,600 was allocated for a 
Teacher Training Institute.
    The Foundation conducted a ``Training of Trainers'' Institute in 
early December of 1998. The ``Training of Trainers'' (ToT) included 
forty-three educators from six Pacific entities; six from American 
Samoa, six (6) from CNMI, fifteen (15) from FSM, five (5) from Guam, 
five (5) from the Republic of the Marshall Islands, and six (6) from 
the Republic of Palau. From all accounts, the ToT was a huge success. 
One of the participants described the session as the best training 
program he had ever attended. This ToT was the beginning of creating a 
reservoir of educators who can work with others on their islands to 
improve the level of instruction for Pacific Island students.
    In last year's testimony, we expressed the hope that we would 
receive funding enabling us to conduct a ToT. We also stated our belief 
that a second and subsequent ToT would be necessary to reach an 
adequate number of educators. Given the timing of the supplemental 
grant award, the actual dates the 1998 ToT was conducted, and the 
expected reduction in a fiscal year 1999 grant, it is not possible for 
the Foundation to conduct a full ToT Institute in 1999. We continue to 
be, however, firm in our belief that teacher training activities are a 
vital element to building an educational system staffed by quality, 
self-reliant, self-assured educators. In the Pacific Islands, Close Up 
is one of the few groups trying to address this critical need. Should 
we be fortunate enough to receive fiscal year 2000 federal funding, we 
would therefore anticipate allocating some of the funding to teacher 
training activities.
    Although training activities conducted in the Washington area offer 
unique resource advantages, we support the Pacific educators' belief 
that island-specific training conducted ``on-site'' can also be 
productive and useful. Although more limited in scope than other ``off-
site'' training, there are home field benefits to be derived from this 
training approach. Specifically, it provides an arena where our ToT 
graduate participants can assist in the on-site training, technical 
assistance and evaluation.
Civic education materials
    Returning to the needs assessment conducted by the Foundation, one 
disconcerting finding was the alarming continuing need for current 
civic education and other materials. Although the specific needs varied 
from island to island, all of the entities had significant needs for 
materials.
    Part of the fiscal year 1998 supplemental grant of $52,000 we 
received is dedicated to helping reduce the shortage of materials in 
the Pacific Islands. Because the timing of the supplemental grant award 
and the ToT Institute, the production and distribution of materials 
will take place in the current fiscal year. Subsequent to discussions 
with staff at the OIA, the timeline for production and dissemination of 
the materials was extended to the first semester of the 1999 academic 
year.
    The Foundation has collaborated with Pacific educators to develop 
island-specific social studies resource books. These books, known as 
the Civic Achievement Award Program (CAAP) books, are designed to 
connect history, government, geography, economics, culture, and current 
events with responsible citizenship. Since these books are tailored 
specifically to the island entities, their additional distribution will 
help mitigate some of the need for civic education materials.
    A second way the Foundation can help alleviate the materials needs 
of the Pacific Islands is to reformulate into a comprehensive text all 
of the CAAP materials for the Pacific region. Funds were provided in 
the fiscal year 1998 supplemental grant for this activity. Work on this 
text is currently underway and this resource book is expected to be 
available for use in the fall semester of 1999. We will continue to 
assess the civic education materials needs in the Pacific to determine 
if supplemental island-specific publications are critically needed.
Local programs
    Close Up's Washington teacher program enables Pacific teachers to 
return to their islands and use their enhanced professional skills to 
help all of their students--not just those who came to Washington. 
Armed with new classroom skills and confidence, many of these returning 
teachers have worked to develop government studies programs at the 
local level. These programs create a significant multiplier effect of 
learning for their students and their communities. The Foundation uses 
a small amount of the funding it receives to help teachers and other 
community members to develop and conduct these local programs.
    Mr. Chairman, the Close Up Foundation has always considered it a 
privilege to work with students and educators from the Pacific Islands. 
We are proud of the programs we have conducted during the past sixteen 
years, and believe we have had a significant impact on the civic well-
being of the Pacific Islands. As I stated earlier, we recognize that 
much of our Pacific work would not have been possible without the 
support of this Subcommittee. We believe our plans for fiscal year 2000 
will continue to contribute measurably to the Pacific Islands and to 
the understanding and value Pacific Islanders place on democracy and 
democratic institutions. Therefore, we strongly believe that our work 
continues to justify your support. We would be happy to respond to any 
questions and to provide any additional programmatic or budgetary 
detail. Thank you very much.
                                 ______
                                 
 Prepared Statement of Michael P. Kenny, Executive Officer, California 
Air Resources Board; Barbara Patrick, Member, Board Supervisors of Kern 
 County and Member, California Air Resources Board; Manuel Cunha, Jr., 
President, NISEI Farmers League; Les Clark, Vice President, Independent 
   Oil Producers Agency; Catherine H. Reheis, Managing Coordinator, 
                  Western States Petroleum Association
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Coalition on PM-10/PM-2.5, we are 
pleased to submit this statement for the record in support of our 
fiscal year 1999 funding request of $100,000 for the California 
Regional PM-10/PM-2.5 Air Quality Study.
    The San Joaquin Valley of California and surrounding regions exceed 
both state and federal clean air standards for small particulate 
matter, designated PM-10/PM-2.5. The 1990 federal Clean Air Act 
Amendments require these areas to attain federal PM-10/PM-2.5 standards 
by December 31, 2001. If the proposed PM-2.5 standards are adopted, 
they would have to be attained 2-3 years later. Attainment of these 
standards requires effective and equitable distribution of pollution 
controls that cannot be determined without a major study of this issue.
    According to EPA and the California Air Resources Board, existing 
research data show that air quality caused by the PM-10/PM-2.5 problem 
has the potential to threaten the health of more than 3 million people 
living in the region, reduce visibility, and impact negatively on the 
quality of life. Unless the causes, effects and problems associated 
with PM-10/PM-2.5 are better addressed and understood, many industries 
will suffer due to production and transportation problems, diminishing 
natural resources, and increasing costs of fighting a problem that begs 
for a soundly researched solution.
    PM-10/PM-2.5 problems stem from a variety of industry and other 
sources, and they are a significant problem in the areas that are 
characteristic of much of California. Typical PM-10/PM-2.5 sources are 
dust stirred up by vehicles on unpaved roads, and dirt loosened and 
carried by wind during cultivation of agricultural land. Soil erosion 
through wind and other agents also leads to aggravation of PM-10/PM-2.5 
air pollution problems.
    Several aspects of the research are important to federal agencies 
and programs within the purview of the subcommittee's jurisdiction, 
including the Park Service. Based on consultation with federal agency 
officials who work closely with the PM-10/PM-2.5 issue in the San 
Joaquin Valley Region, the Coalition requests funding for the following 
agency:
  --Park Service ($100,000).--The U.S. Park Service have a substantial 
        stake in the PM-10/PM-2.5 issue. Park Service officials in the 
        California region are concerned about the sources and types of 
        PM-10/PM-2.5 particulate matter, including secondary emissions, 
        that are coming into park areas from the San Joaquin Valley. 
        There is a need for an assessment of the effect of PM-10/PM-2.5 
        emissions on different elevations of terrain. The Park Service 
        is concerned about the transport of Valley emissions into 
        outside areas under Park Service jurisdiction, especially as 
        these emissions have an effect on vegetation and visibility in 
        park areas. Park Service officials are concerned about the 
        possible contribution of prescribed and forest fires on the PM-
        10/PM-2.5 problem, as well as the effect of PM-10/PM-2.5 
        particulate matter on human and other animal life, vegetation, 
        land management, and area lakes and streams.
    The importance of this study on PM-10/PM-2.5 is underscored by the 
need for more information on how the federal Clean Air Act Amendments 
standards can be met effectively by the business community, as well as 
by agencies of federal, state and local government whose activities 
contribute to the problem, and who are subject to the requirements of 
Title V of the Clean Air Act. There is a void in our current 
understanding of the amount and impact each source of PM-10/PM-2.5 
actually contributes to the overall problem. Without a better 
understanding and more information--which this study would provide--
industry and government will be unable to develop an effective 
attainment plain and control measures.
    Our Coalition is working diligently to be a part of the effort to 
solve this major problem, but to do so, we need federal assistance to 
support research and efforts to deal effectively with what is 
essentially an unfunded federal mandate.
    Numerous industries, in concert with the State of California and 
local governmental entities, are attempting to do our part, and we come 
to the appropriations process to request assistance in obtaining a fair 
federal share of financial support for this important research effort. 
In 1990, our Coalition joined forces to undertake a study essential to 
the development of an effective attainment plan and effective control 
measures for the San Joaquin Valley of California. This unique 
cooperative partnership involving federal, state and local government, 
as well as private industry, has raised more than $24 million to date 
to fund research and planning for a comprehensive PM-10/PM-2.5 air 
quality study. Our cooperative effort on this issue continues, and our 
hope is that private industry, federal, state and local governments 
will be able to raise a final $4.6 million this year to complete the 
funding for this important study.
    To date, this study project has benefited from federal funding 
provided through USDA's, DOD's, Interior's and EPA's budgets--a total 
of $13.3 million in federal funding with $200,000 in funding from the 
National Park Service for fiscal years 1998 and 1999. State and 
industry funding has matched this amount virtually dollar for dollar.
    With the planning phase of the California Regional PM-10/PM-2.5 Air 
Quality Study complete, a number of significant accomplishments have 
been achieved. These interim products have not only provided guidance 
for completion of the remainder of the Study and crucial information 
for near-term regulatory planning, they have also produced preliminary 
findings which are significant to the Department of Interior's (DOI) 
interests.
    The Study is significant to DOI interests for a number of reasons. 
The San Joaquin Valley experiences some of the most severe PM episodes 
in the nation. The information being collected by the PM study is 
essential for development of sound and cost-effective control plans. 
The potential impacts of emissions from unpaved roads under U.S. Forest 
Service, National Park Service, and Bureau of Land Management 
jurisdiction are also a concern, as well as emissions from prescribed 
burns and wildfires. In addition, previous studies have demonstrated 
that significant amounts of fine particles and their precursors from 
the San Joaquin Valley can be transported form the Valley into the 
Sierra Nevada Mountains, impacting sensitive forest areas and reducing 
visibility in national parks. Effective control plans for the San 
Joaquin Valley, based upon the results of the PM study, will help 
address the potential impacts of emissions from sources under the DOI 
jurisdiction and mitigate visibility and forest impacts through the 
reduction of transport from the Valley.
    To this end, the PM study is expending significant resources to 
provide an improved understanding of emission sources within the San 
Joaquin Valley and Sierra Nevada Mountains, and transport both within 
the Valley and into the Sierras. A preliminary field monitoring program 
was conducted during the fall and winter of 1995/96. Extensive air 
quality and meteorological measurements were collected. This database 
is being analyzed to address a number of questions, including: (1) the 
sources contributing to elevated PM-10 and PM-2.5 concentrations, (2) 
the zone of influence of specific sources, and (3) wind flow patterns 
and transport routes between the Valley and surrounding areas. 
Preliminary results indicate that urban sites within the Valley and 
rural sites located in the Sierras have equivalent concentrations of 
secondary ammonium nitrate, suggesting this pollutant is regional in 
nature. At urban sites contributions from local combustion sources are 
then superimposed upon this regional background resulting in elevated 
urban concentrations.
    The results of these analyses are being used to design large scale 
field monitoring programs to be conducted in 1999 and 2000. These field 
programs will address both the annual and 24-hour PM-10 and PM-2.5 
standards. Surface and aloft monitoring of air quality, meteorology, 
fog, and visibility will be conducted at a cost of over $12 million. 
Final plans for these field studies are being developed, and will be 
carried out by numerous contractors over a broad are an encompassing 
Central California, the Sierra Nevada Mountains, and the Mojave Desert. 
Substantial resources will also be devoted to developing improved 
emissions estimates. A database of the field study results will be 
completed in 2001, with air quality modeling and data analysis findings 
available in 2002. This timeline is ideally positioned to provide 
information for federal planning requirements as part of the new PM-10/
PM-2.5 national ambient air quality standards.
    The Department of Interior's prior funding and participation have 
enabled these projects to occur. Continued support by DOI is essential 
to implement a full scope of transport and emissions assessment 
projects and to ensure that DOI concerns are met.
    In summary, for fiscal year 2000, our Coalition is seeking $100,000 
in federal funding to support the continuation of this vital study by 
the Park Service in California. We respectfully request that the 
Appropriations Subcommittee on Interior and Related Agencies provide 
these funds in the appropriation bill for fiscal year 2000, and that 
report language be included directing the full amount for California. 
This will represent the final year of funding requested from DOI.
    The California Regional PM-10/PM-2.5 study will not only provide 
vital information for a region identified as having particularly acute 
PM-10/PM-2.5 problems, it will also serve as a model for other regions 
of the country that are experiencing similar problems. The results of 
this study will provide improved methods and tools for air quality 
monitoring, emission estimations, and effective control strategies 
nationwide. Consequently, the beneficial results of this study will 
contribute to national policy concerns as well.
    The Coalition appreciates the Subcommittee's consideration of this 
request for a fiscal year 2000 appropriation of $100,000 to support the 
California Regional PM-10/PM-2.5 Air Quality Study. DOI's past 
contributions have helped ensure the success of the study. The 
coalition thanks you for your support of this important program.
                                 ______
                                 
           Prepared Statement of the City of Miami Beach, FL
    Mr Chairman and Members of the subcommittee, the City of Miami 
Beach, Florida appreciates the opportunity to present testimony on two 
important initiatives for which we are seeking Federal assistance.
 north shore open space park /north beach recreational corridor project
    The City of Miami Beach, Florida, seeks your support for funding to 
create the North Beach Recreational Corridor Project, an 
environmentally sensitive recreational greenway which will interconnect 
a series of park facilities distributed throughout the City s 
residential North Beach District and to tie into a regional network of 
recreational trails/alternative transportation routes.
    The City s North Beach District is predominately occupied with 
multi-family residential developments including the majority of the 
City s low and moderate income families. Like most areas in Miami 
Beach, the North Beach District was developed in the 1930's and 40's as 
a resort community. At that time, automobiles were of little use or 
concern to Miami Beach visitors. As a result, very few parking 
facilities were developed in the area. Today, the shortage of available 
parking seriously impedes public access to area parks and beaches. The 
lack of facilities for bicycles and other forms of alternative 
transportation, which are extremely popular in Miami Beach, forces 
riders, etc. into city streets, creating many hazardous situations.
    The North Beach Recreational Corridor will provide a continuous 
route throughout the entire North Beach District interconnecting and 
improving public access to public parks, the beaches and other 
recreational, cultural and educational facilities.
    The main recreational destination along the corridor will be the 
City s North Shore Open Space Park. The 35 acre facility is the largest 
park in Miami Beach and is a highly treasured natural resource. Under 
the City's plan, great emphasis will be placed on the preservation and 
enhancement of the park's natural ecosystems which include the beach 
shoreline, a sand dune system and a native coastal hardwood hammock. 
New native vegetation plantings are proposed between the back dune and 
coastal hammock areas, linking the two habitats and creating a stronger 
dune community. Clear cutting of exotic nuisance plant species will 
strengthen native plantings and help create a visual link from land to 
sea. An expanded interpretive center is proposed to improve public 
access to the highly successful Sea Turtle Hatchery program and other 
nature education programs and activities. This unique combination of 
natural resources and public facilities will offer the community an 
``environmental classroom'' that will be highly conducive to the 
exploration and understanding of the barrier island ecosystem 
indigenous to Miami Beach.
    In addition to the North Shore Open Space Park, the Corridor will 
also connect with the Altos Del Mar Park, Band Shell Park, Ocean 
Terrace Park, and the 64th Street Park facilities which offer a wide 
array of recreational and cultural amenities. The Corridor will also 
connect with eight beach access areas to enhance public access to the 
beaches and to encourage park-beach cross utilization. Seven regional 
parking facilities will also be connected to the recreation trail to 
help improve recreational facility access for our residents and 
visitors.
    The estimated cost of the project is $7.1 million. The City has 
secured $3.1 million from a Park Improvement Bond Program and an 
additional $840,000 in ISTEA Enhancement Funds. An appropriation of 
$3.2 million from the Department of Interior would provide the 
additional funds needed to allow this valuable regional recreational 
enhancement project to become a reality.
                 miami beach black box theater project
    In recent years, Miami Beach has emerged as a force among world 
cities in the performing and visual arts. More than 700 cultural 
organizations are now based in Miami-Dade County, with Miami Beach as 
the preeminent destination for performances and exhibitions. This 
city's unique character is reflected in creative, multi-cultural 
expression through the arts. Residents and millions of annual visitors 
take part in the cultural arts of Miami Beach. Cultural tourism is 
rapidly growing as Miami Beach's impact on the arts is being felt far 
beyond the island. Influences from the Caribbean and Central and South 
America are a vital part of the city's cultural life, not surprising 
given its geographic location and history as an arts community. While 
adding immeasurably to the quality of life in the city, the arts and 
entertainment industries are recognized as a powerful economic engine, 
critical to the next phase of development.
    With such phenomenal growth in recent years, Miami Beach cannot now 
adequately accommodate its cultural institutions. Performance 
facilities are limited and in high demand. The City of Miami Beach 
Cultural Arts Council is besieged with requests for expanding, 
improving, and creating performance spaces. Collaborative efforts 
between the private and public sectors are underway, most notably in 
developing the city's new multimillion dollar cultural campus.
    Vital to the cultural life of Miami Beach is a ``black box'' 
theater--an adaptable performance space for theater productions. 
Several small theater companies are based in Miami Beach, and have 
survived despite inadequate performance space and spiraling rents. 
Community meetings have focused attention on the urgent need for a 
community black box theater, preferably in the city's cultural 
district, though other locations are being considered.
    This grant request for $1 million would contribute significantly 
toward creating an important cultural resource for Miami Beach. South 
Florida's annual Theaters of the Sun Festival and scores of plays, 
readings, and rehearsals could take place in a modern, safe, 
accessible, and adaptable performance space. The city's community 
theater companies, so important to the cultural fabric of Miami Beach, 
would finally have the ``home'' that for too long has been elusive.
    No existing space in Miami Beach meets the needs of the resident 
theater companies. A black box theater is essential if independent 
theater is to flourish in this city. Small, experimental theater 
companies contribute to the community in ways that commercial touring 
groups cannot. The City of Miami Beach has a tradition of supporting 
its artists. The black box theater project is a high priority and, when 
realized, will be a jewel not only for Miami Beach but for theater-
lovers everywhere.
    Again, the City of Miami Beach thanks you for this opportunity to 
present our appropriation requests and for your consideration of these 
important initiatives.
                                 ______
                                 
   Prepared Statement of Hon. Sharpe James, Mayor, City of Newark, NJ
    Mr. Chairman and members of the Subcommittee, thank you for giving 
us the opportunity to submit testimony about a project under your 
jurisdiction that is critical to the people of Newark, New Jersey. 
Newark is truly at a crossroads: we are a City with all of the problems 
of many major urban centers, but we are also a City with vast 
potential. We have begun to turn the corner--there is a renewed 
vitality and sense of optimism in Newark.
    Vibrant revitalization is ongoing in our downtown. The successful 
opening of the acclaimed New Jersey Performing Arts Center (NJPAC) in 
1997--which includes a new public plaza open space; an adjacent 
waterfront development along the Passaic River--which is scheduled to 
begin construction by the US Army Corps of Engineers later this year; a 
minor league baseball stadium where the Newark Bears will begin to play 
this summer; and a planned state of the art sports and entertainment 
complex, all are changing the face of Newark. But the renaissance of 
our City cannot just happen in the downtown business and arts center; 
it must include the residents and their neighborhoods in meaningful, 
substantive ways.
    Newark is the largest City in New Jersey, with 275,221 residents in 
1990, and ranks sixty-third in the nation in population. Newark's 
twenty-four square miles of land makes it the smallest of the country's 
top one hundred cities, with the fifth highest population density in 
the nation. Much of our land is taken up by Newark International 
Airport, higher education and medical facilities, and other 
institutional uses, increasing the density of our actual ``livable'' 
space. The median family income, according to the 1990 Census, was only 
$25,816--as opposed to $47,589 for the State--and our population is 
five years younger than the State average. Twenty-nine per cent of our 
population was under the age of 18, and twenty-six percent lived below 
the poverty line. For people living in these conditions, the 
availability of open space and recreation areas is an important and 
necessary asset.
    Fundamental to the goal of bringing Newark back is the 
revitalization of its neighborhoods. Key to this improvement is the 
revitalization of municipal parks in some of our poorest and most 
densely populated areas, in full partnership with neighborhood 
residents and community based organizations. Toward this end, the City 
of Newark seeks the assistance of this Subcommittee in securing funding 
to execute a plan to revitalize neighborhood municipal parks. Projects 
have been selected in each of the City's five wards, with specific 
strategies developed for each. The City of Newark will make every 
effort to match dollar for dollar federal support through its operating 
and capital budgets, staffing and in-kind services. Support is also 
expected from the private sector, including foundations, corporations 
and individuals.
    With federal support, the City's Department of Neighborhood and 
Recreational Services will embark on a community partnership for parks 
strategy, currently being tested in the largest municipal park, Jesse 
Allen Park. Signs will be posted in each park, and a local grassroots 
campaign with advertising will be coordinated to invite all 
neighborhoods surrounding each of the thirty-five small city parks to 
collaborate and make theirs a community park according to the 
established process. In each of the cases described below, a ``riends 
Of'' park association is being formed of citizens who live around the 
park, and anchoring community institutions, such as schools, the faith 
B based community, community development groups, and local agencies. 
Each association will be helped by the City to form a board, create by-
laws, and become a 501c3 non-profit organization. Each group will be 
expected to get at least 10 percent of the surrounding neighborhood 
residents to join the association and donate at least one dollar, and 
will participate in joint orientation and training with peers from 
similar groups city-wide.
    The City will award additional funds for that particular park, 
which the AFriends <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ac5ecca">[email&#160;protected]</a> group will help to administer to execute 
improvements and create programming. It is anticipated that funding 
will be in the amount of $1,000 per acre of park, plus matching with 
various foundation and corporate partners who have expressed strong 
interest in aiding the resurgence of parks and neighborhoods.
    The City administration will maintain its current efforts and 
services, such as lawn mowing, trash removal and basic landscaping. In 
addition, our comprehensive strategy will include support from other 
municipal departments. The Engineering Department will address capital 
needs. They will develop comprehensive physical plans and drawings for 
each park, to be compiled in consultation with the community group. 
Federal support will be utilized to match municipal capital investment 
in improvements.
    The Police Department has pledged to create walk-ride units of 
officers who patrol in and between specific parks, and organize police 
youth and adult athletic leagues to compete in the parks. They will 
also train watch groups who undergo association training. The Newark 
Public Information Office will coordinate the communications and media 
strategy, both for initial outreach and with each association in 
determining its own campaign direction and format.
    The four largest parks in Newark are not City-owned, but are 
operated by the County. The Essex County Department of Parks and 
Recreation has agreed to work to implement a similar system in its 
facilities located in Newark so that a common bond and interconnected 
strategy can strengthen and multiply existing efforts. In fact, the 
Weequahic Park Association, one of the City's most active community 
groups, can serve as a model of what neighborhood involvement can do to 
improve park facilities. In addition, a common reservation system will 
be implemented between the City and County to simplify the process for 
organizations wishing to reserve fields and parks for events, programs, 
or ongoing leagues.
    The specific parks that have been identified for participation in 
the demonstration project and the unique strategies for each are 
briefly described below.
    Riverbank and Independence Park in the East Ward.--These parks are 
in the crowded Ironbound section, where the neighborhood has very 
little open space. The City is working with local groups to develop the 
designated park area near the Passaic River with jogging trails, soccer 
fields, and new open space.
    Jesse Allen Park in the Central Ward.--This park is adjacent to one 
school and near several others. It was recently the focus of several 
discussions and meetings with community groups. It is in the heart of 
the City's poorest area, and has been subject to repeated vandalism. 
The City and the newly formed Jesse Allen Park Association are working 
jointly to develop and execute a plan that includes the refurbishment 
of ballfields, a revitalized playground, a new concert area, and 
security measures.
    Kasberger Field in the North Ward.--These playing fields and 
recreation area are virtually hidden in the neighborhood in North 
Newark. It has attracted the attention and interest of many little 
league groups who want to help fix up the facility for ongoing use. A 
security fence, lighting and better drainage have been identified as 
vital needs.
    Boylan Center and West End Park in the West Ward.--Boylan is the 
only City recreation Center in the West Ward, and West End is the only 
municipal park. Both need landscaping, furniture and signage to better 
serve their local area populations.
    Mildred Helms Park and St. Peters Recreation Center in the South 
Ward.--Mildred Helms is a long narrow park in the heart of a dense 
residential neighborhood. It adjoins an elementary school, but is 
littered with crack vials, debris and broken glass, and has broken 
playground equipment. Despite this condition, the area children play 
there daily, as it is the only open space in the immediate area. This 
is a site where neighborhood organizing will potentially enable 
substantial change in the environment. St. Peters is a complex 
including basketball courts, a pool and a center building on the other 
side of the ward. This facility, too, is in need of community support 
to overcome chronic vandalism and return it to full utilization.
    The City of Newark is seeking the support of this Subcommittee for 
a $5 million allocation to help to implement the City's overall 
strategy for park and neighborhood revitalization. Based on community 
partnerships and a sense of pride and ownership, the children of Newark 
will truly have the opportunity to be a part of the Citys renaissance.
    The consideration of this proposal is deeply appreciated. Newark, 
New Jersey is looking forward to your support of this exciting project 
and its innovative partnership.
                                 ______
                                 
Prepared Statement of James Meadows, Executive Director, Presidio Trust
    Thank you, Mr. Chairman, for this opportunity to bring the 
Committee up to date on activities of the Presidio Trust as we continue 
the process of transforming the magnificent Presidio of San Francisco 
into a financially and environmentally self-sustaining unit of the 
national park system.
    As you know, Congress established the Presidio Trust as a wholly-
owned federal corporation in 1996. The mission of the Presidio Trust is 
two-fold: to preserve and enhance the Presidio as an outstanding 
national park in an urban area while ensuring that it becomes 
financially self-sufficient by 2013. The Trust's 7-member Board of 
Directors, appointed by President Clinton, was sworn in on July 9, 
1997. I have served as Executive Director of the Trust since January 
1998, and have, in conjunction with the Board, shaped the development 
of the Trust as it assumed administrative jurisdiction and operational 
control of the park's non-coastal areas, including over 500 historic 
landmark buildings. The Trust completed the process of becoming a fully 
functioning federal executive agency on October 1, 1998.
    The Trust submitted its Financial Management Program to Congress, 
in accordance with the Trust's authorizing legislation, on July 8, 
1998. The Program projects a decreasing reliance on federal funding 
support for the Trust over the next 13 years. The Trust also submitted 
its 1998 Year-End Report to Congress at the end of December. I am 
pleased to inform you that the Trust is making substantial progress 
toward achieving the goals outlined in the Financial Management Program 
and reiterated in the Year-End Report.
    Since assuming jurisdiction over the majority of the Presidio's 
land and facilities on July 1, 1998, the Presidio Trust has moved 
assertively to complete the transition of administrative jurisdiction 
and associated operational responsibilities from the National Park 
Service. The Trust has also instituted operational reforms, including a 
complete preventive maintenance program, and initiated an aggressive 
leasing program.
    Funds provided by this Committee in fiscal year 1999 have been 
absolutely critical to our efforts to bring buildings and associated 
infrastructure into leasable condition. We are particularly grateful to 
this Committee for its support of $20 million in Treasury borrowing 
during fiscal year 1999. These funds will enable the Trust to prepare 
approximately 500 housing units for lease this year. Treasury borrowing 
is also funding the rehabilitation of other historic housing units as 
well as significant infrastructure and historic building improvements 
on the Presidio's Main Post. These improvements are tied to leasing 
activity that is currently underway and will begin to establish the 
sustained revenue flow that will ultimately enable the Trust to become 
financially self-sufficient. Revenue generated from leasing Presidio 
buildings will comprise 97 percent of the income necessary for the 
park's operation and ongoing renovation.
 completing the transfer of presidio operations from the national park 
                                service
    One of the Trust's main objectives in fiscal year 1999 has been to 
assume Presidio operations from the National Park Service while laying 
a foundation for an enduring and productive partnership. By October 1, 
1999, the Trust will have assumed management control of all 
administrative functions, fire prevention, maintenance, utilities 
operations and construction. The Trust also entered into a Memorandum 
of Understanding with the United States Park Police to provide law 
enforcement throughout the Presidio. To accomplish its share of 
managerial responsibility, Congress provided the Trust with $14.9 
million in fiscal year 1999. The National Park Service received the 
remainder of the approximately $25 million in operating funds provided 
for the Presidio.
    In fiscal year 2000, the Trust will have assumed responsibility for 
all administrative functions in the part of the Presidio that is under 
its jurisdiction (Area B). Accordingly, the Administration has 
requested $24.4 million for Presidio Trust operations in fiscal year 
2000. As indicated in the Trust's Financial Management Program, funding 
requests for successive years will decrease annually until the Trust 
has achieved complete financial self-sufficiency by fiscal year 2013.
                        streamlining operations
    The Trust believes that, to achieve its dual missions of park 
preservation and financial self-sufficiency, it must take steps to 
consolidate and streamline Presidio operations and reduce cost. The 
Trust's Financial Management Program projects at least 20 percent in 
reduced operating costs by fiscal year 2013. Already, the Trust has 
found significant savings by eliminating expensive maintenance 
contracts, instituting a preventive maintenance program, repairing 
infrastructure and implementing energy conservation measures.
    Some examples of steps the Trust has taken to reduce costs are:
  --Implementation of the ``Total Maintenance System,'' a computer 
        application that optimizes work order processing and response, 
        reduces cost, tracks preventative maintenance and enhances 
        warehouse management.
  --Repair of leaks throughout the Presidio's water delivery system, 
        creating savings of 80,000 gallons each day and $700,000 each 
        year.
  --Pressure grouting of sewer lines and manholes, achieving saving of 
        $300,000 a year in wastewater treatment costs.
  --Achievement of a 20 percent decrease in overall energy use in the 
        park.
  --Design of a one-stop compliance and permitting process, further 
        implementing a process to ensure compliance with the National 
        Environmental Policy Act and the National Historic Preservation 
        Act--the process will also be accessible through the Trust's 
        web site.
    In addition, the Trust views its leasing program as a key to 
reducing operating costs. Leasing unoccupied historic buildings will 
begin to reverse the deterioration caused by several years of vacancy. 
Since assuming jurisdiction from the National Park Service, the Trust 
has also ensured that heat is maintain in vacant buildings to prevent 
damage caused by mildew and excessive dampness.
capital improvements necessary to establish a sustained revenue stream 
                       to support park operations
    Congress provided the Trust with authority to borrow up to $50 
million from the federal Treasury. The Trust is seeking appropriations 
authority to borrow $20 million of that total in fiscal year 2000. 
Borrowed funds will be used to continue the upgrade of key buildings, 
utilities and infrastructure essential to the Trust's aggressive 
leasing program. Concurrent with this rehabilitation, the Trust will be 
finalizing arrangements for the replacement of the 900,000 square foot 
Letterman Hospital Complex with a new privately-funded complex designed 
to add value to the park, both programmatically and financially.
    Leasing of historic Main Post buildings will provide another 
opportunity for the Presidio to create an educational, environmental, 
artistic and technological village while generating adequate income to 
support the park. In recent months, the Presidio Trust negotiated 
leases with the San Francisco Film Institute for two buildings in the 
Presidio's historic Main Post--the former Sixth Army Headquarters and 
the Presidio Theatre. The Film Institute will use the buildings for 
post-production work, classes and workshops and screening of films from 
around the world.
    A mix of nearly 100 non-profit and for-profit organizations 
responded to the Presidio Trust's 1998 Request for Qualifications for 
twelve historic buildings on the Main Post. The Presidio Trust is 
currently in negotiation will several preferred tenants. Treasury 
borrowing authorized in fiscal year 1999 and fiscal year 2000 will be 
used to make building and infrastructure improvements needed to support 
Main Post leasing initiatives.
    New tenants will join the 31 organizations currently leasing space 
on the Presidio including the Federal Emergency Management Agency, the 
Golden Gate National Parks Association, the Corporation for National 
Service, Alexa Internet and the Thoreau Center for Sustainability.
    The Trust also plans to enter into lease negotiations in fiscal 
year 2000 with organizations proposing to deconstruct and replace, or 
reuse, the other large hospital complex in the park--the Public Health 
Service Hospital. The Board of Directors and staff are currently 
evaluating responses to a Request for Qualifications issued for reuse 
of the site. This area of the park will need infrastructure upgrades in 
order to allow for productive reuse of the hospital site. Treasury 
borrowing in fiscal year 2000 would also be used for this purpose.
    Housing will provide over half of the projected lease revenue in 
fiscal year 2013, the first year of Trust financial self-sufficiency. 
However, much of the park's 1,119 housing units are in need of 
renovation and repair. The Trust is using funds provided by Treasury 
borrowing to bring both historic and non-historic housing units into 
leasable condition. Our experience to date has been that such units are 
very marketable, given the extremely tight housing rental market in San 
Francisco. The Trust is currently bringing approximately 42 units of 
non-historic housing into leasable condition each month. More extensive 
renovation, required for many of the historic homes, will also be 
completed on some units this year, and will be continued into next 
year. In fiscal year 2013, the Trust projects that revenue from housing 
will total nearly $21 million in 1998 dollars.
    The Trust also seeks to create a balance between jobs and housing 
at the Presidio by giving priority for housing to Presidio-based 
employees of tenant organizations. This policy will enable the Trust to 
reduce traffic congestion in the park and provides a strong incentive 
for organizations to locate at the Presidio given the scarcity of 
housing in the San Francisco area.
 encouraging the use of private capital to improve and enhance the park
    There is tremendous potential at the Presidio for using private 
capital to rehabilitate and enhance park facilities. To encourage the 
use of private capital in the improvement of federal facilities, 
Congress provided the Trust with authority to guarantee loans used for 
this purpose. The Trust proposes to use loan guarantees in fiscal year 
2000 as it begins to negotiate with entities that will need to incur 
debt in order to rehabilitate buildings. Because of the low risk 
calculated for these guarantees (and therefore the low subsidy cost 
required), the Trust is proposing that the subsidy cost of the program 
be provided from within the Trust's operating appropriation. While the 
Trust does not need additional funds for this program, it does require 
appropriations authority to enter into the guarantees. The 
Administration's request therefore includes authority to enter into 
guarantees with the subsidy cost included in the Trust's operating 
budget request.
    This authorization would allow the Trust sufficient flexibility in 
structuring lease arrangements so that it can obtain the greatest 
benefit for the Presidio and the federal government.
    Another source of private capital for park improvements has been 
philanthropy. Work is currently underway to transform over 100 acres at 
Crissy Field from a derelict jumble of asphalt and chain link fencing 
to a stunning shoreline park with views of San Francisco Bay and the 
Golden Gate. The $27 million project is being financed without the use 
of federal funds, primarily through philanthropy. The project involves 
the largest single gift of funds ever made to the national park system. 
At completion in fiscal year 2000, the restored Crissy Field will 
feature hiking and biking trails, a restored 20-acre wetland, an 
education center where students will learn about natural and historic 
features, and restoration of the original grassy Army airfield. The 
project is being managed by the Golden Gate National Parks Association 
in cooperation with the National Park Service and Presidio Trust.
                  expediting environmental remediation
    Part of the challenge in reuse of the Presidio involves taking 
steps to ensure that environmental remediation of the post occurs 
quickly and in accordance with the Trust's leasing and reuse 
priorities. Because of its tremendous potential impact on the Trust's 
ability to establish streams of revenue to support operations and 
rehabilitation, the Trust is moving aggressively in negotiations with 
the Army and others to ensure that the cleanup is expedited. The Trust 
seeks innovative solutions to the complex issues of remediation that 
will result in a cleanup that is protective of human health and the 
environment, complementary of the Trust's reuse priorities and cost-
effective. It is essential that sufficient funding be provided through 
the Department of Defense to ensure the completion of this program.
                               conclusion
    In closing, Mr. Chairman, I would like to thank you and members of 
the Committee for your support of the legislation that created the 
Presidio Trust and for your continued funding support. We are committed 
to providing you with a streamlined, cost-effective operation, 
declining need for appropriated dollars and a successful base 
conversion and a national park site that is preserved, enhanced and 
interpreted for current and future generations.
                                 ______
                                 
           Prepared Statement of the City of Gainesville, FL
    The Depot Project includes the reconstruction of approximately two 
(2) miles of Depot Avenue from SR 331 to US 441 and the development of 
the Depot Wetlands Park. The Depot Avenue portion of the project is 
intended to address current safety and capacity issues and includes the 
construction of two travel lanes, turn lanes, curbs, sidewalks and 
landscaped medians. Depot Avenue traverses Gainesville from west to 
east, approximately \1/2\ mile south of, and parallel to, SR 26 
(University Avenue). Its western terminus is at the eastern edge of the 
campus of the University of Florida and its associated student housing 
development, and its eastern terminus is at SR 331 in Southeast 
Gainesville. It skirts the southern edge of downtown Gainesville at its 
mid-point, and its intersection with SR 329 (Main Street) is considered 
to be the southern ``gateway'' to Downtown.
    Depot Avenue is located adjacent to the existing Depot Avenue Rail-
Trail, which is an 8' wide asphalt bike trail. It alternately connects 
an existing recreational park and the proposed Depot Wetlands Park, 
residential areas, commercial areas, and industrial land uses along its 
length. The redesign of the road will address these varying conditions 
and will also provide for the involvement of the neighborhood residents 
it serves.
    The enhancement of Depot Avenue will encourage increased 
utilization of mass transit, bicycle and pedestrian modes of travel and 
increase accessibility to a major public heritage and recreation 
destination for the community. The City of Gainesville's RTS 
Transportation Center is located on the north side of Depot Avenue 
directly south of the core of Downtown Gainesville. The Transportation 
Center is a multi-modal transportation hub for the Regional Transit 
System, Greyhound, Amtrak and the Bicycle Commuter Facility.
    The enhancement of Depot Avenue will also provide infrastructure 
and improved safety while accessing from downtown and the University of 
Florida area to the Porters Community, just west of SR 329 (South Main 
Street) and Southeast Gainesville. The Porters Community lies within 
Census Tract 2, which extends north of University Avenue, and Southeast 
Gainesville lies within Census Tract 7. Census Tract 2 is approximately 
37.7 percent African American and Census Tract 7 is approximately 75.6 
percent African American (Census, 1990). Approximately 35.1 percent of 
all families in Census Tract 2 are in poverty and approximately 31.6 
percent of all families in Census Tract 7 are in poverty (Census, 
1990). The socio-economic conditions of these areas include high crime 
rates, sub-standard housing, and lack of services and investment. The 
enhancement of Depot Avenue provides for safer access to the higher 
employment areas of Gainesville, including downtown and the University 
of Florida, improving physical infrastructure, including drainage 
improvements, lighting and streetscaping, and providing safe bicycle 
and pedestrian facilities that connect both east and west Gainesville 
to Downtown.
    The Depot Avenue Project will provide for beautification, and 
encourage redevelopment and infill in the urban core of Gainesville and 
its adjacent areas. This enhancement will provide a region-based 
incentive for reducing sprawl development in the Gainesville 
Metropolitan Area by providing an alternative east-west corridor to SR 
26 that allows for maximum use of alternative transportation. As a 
consequence, this project will increase mobility while minimizing 
pollution and congestion associated with the use of single occupant 
vehicles.
    The Depot Wetlands Park is a proposed 22-acre Stormwater Wetlands 
Restoration Park that will serve as the stormwater management facility 
and developed urban recreational park that will serve many adjacent and 
nearby residential neighborhoods.
    As part of the stormwater management component of the project, the 
facility is intended to provide water treatment for the Depot Avenue 
Project as well as the Central City District portion of the watershed 
that is located upstream of the facility. This project is in the 
planning stages as the centerpiece of a USEPA and Florida DEP funded 
Brownfields pilot project.
    Once constructed the Park will serve as a hub for several existing 
and planned rail trail bikeways. The Depot Project provides linkages to 
the Depot Avenue Rail-Trail that links with the Waldo Road Rail-Trail, 
the proposed Downtown Connector Rail-Trail that links with the 
Gainesville Hawthorne Rail-Trail, and the proposed 6th Street Rail-
Trail. This trail system provides connections between the Downtown 
area, the University of Florida campus, many residential neighborhoods, 
and other municipalities. The trail system serves not only recreational 
users but also serves as an alternative transportation facility.
    The Depot Park is home to the Historic Train Depot Building that 
was recently purchased by the City of Gainesville for purposes of 
rehabilitation. The Old Gainesville Depot was built in 1907, and was 
placed on the National Register of Historic Places in 1996. The City of 
Gainesville was founded as a rail hub linking Fernandina Beach on the 
east coast of Florida to Cedar Key on the west coast in the mid-1800's 
and uses a train symbol as its official seal. The Old Gainesville 
Depot's under-roof, otherwise open loading docks will provide open 
vistas to the adjacent Stormwater Park. The Depot building will house a 
unique mix of destination-oriented cultural and commercial uses 
supportive of redevelopment in the Depot Area, the Depot Park, the 
rail-trail system, and the RTS Transportation Center. The historic 
Depot building's unique character and location will serve to make it 
both a lively destination hub for the neighborhood and a catalyst for 
further redevelopment of the area south of downtown. The building is a 
standing testament to and a significant visual emblem of Gainesville's 
rich history. It is also an historic symbol of transportation choice 
that is particularly appropriate to its envisioned new uses, the 
Stormwater Park, the adjoining rail-trail and its nearby connections 
that are being developed, and to the RTS Transportation Center that 
will be built across the street. The restoration of this building in 
conjunction with the restoration of the 22-acre Depot Park is expected 
to provide a major community destination and regional ``eco-tourism'' 
attraction for the community.
    The City's Electric Utility is in the process of designing a 
repowering plan for the historic Kelly Power Plant located adjacent to 
the Transportation Center, Depot Historic Structure and the Stormwater 
Wetlands Restoration Park. The planning firm of Dover, Kohl and 
Partners has recently completed a community-planning process held in 
conjunction with the repowering project. This community-planning 
process included the entire Depot Avenue area adjacent to Downtown. The 
City encourages citizen participation in the community-planning process 
and actively provides opportunities for participation in the planning 
of public infrastructure such as the Depot Avenue Project.
    The Depot Avenue Project will include property and right-of-way 
acquisition, design and construction activities at a cost of 
approximately $18.8 million. The Depot Wetlands Park includes property 
acquisition, design, remediation and construction activities at a cost 
of approximately $10.0 million.
                                 ______
                                 
   Prepared Statement of Peter J. Ward, Chairman, United States Park 
           Police Labor Committee, Fraternal Order of Police
    Mr. Chairman, and members of the Subcommittee, on behalf of the 
members of the United States Park Police Labor Committee, I welcome the 
opportunity to present testimony concerning the fiscal year 2000 budget 
request of the United States Park Police.
                              introduction
    The United States Park Police was established in 1791. In 1882, 
Congress gave the USPP powers equal to those exercised by the DC 
Metropolitan Police Department. Since that time, the mission of the 
USPP has expanded substantially in its scope and its importance to the 
citizens of the United States generally, and the national security and 
law enforcement infrastructure specifically. Today, the USPP operates 
principally out of the National Capital Region as well as in the New 
York and San Francisco Regions. We are charged with primary law 
enforcement responsibility for all national parks properties, including 
22 percent of the land area of the Nation's Capital. Within the 
National Capital Region, we are primarily responsible for patrolling 
such facilities and/or their adjacent areas as the National Security 
Agency, NASA, CIA, Department of State Security building, Camp David, 
and more.
    Through Memoranda of Understanding, the USPP actively and regularly 
supports more than eighty federal, state and local law enforcement and 
public security agencies with specialized expertise and equipment. 
Specifically, the Park Police Aviation Section supports Secret Service, 
BATF, DEA, DC MPD, and others on presidential security, drug 
interdiction and eradication, crime suspect apprehension, medical 
evacuation, emergency river rescue, etc. The USPP has five specially 
trained and equipped SWAT teams and a special environmental crime unit. 
Two of the five SWAT teams are authorized for the National Capital 
Region, but only one is active due to resource limitations that prevent 
funding of any of the vacancies in the second. We are truly a ``full-
service'' police department, running the gamut of police duties from 
routine patrolling to investigating homicides.
    One could argue that the USPP has become a victim of its own 
success. Too often, when competing for scarce federal funds, an agency 
which is successful in its mission is deemed to be adequately funded, 
regardless of the budgetary strain that may lie beneath the surface. I 
believe this is the case with the USPP. We have watched our mission 
continually expand, even as our funding has failed to increase at the 
same rate as our mission. While we are proud of our record, we are 
increasingly concerned about our ability to continue that success at 
current funding levels. This situation, as I will emphasize repeatedly, 
may come to have consequences for the safety of visitors to USPP-
patrolled facilities, for the security of certain other national 
security related agencies, and for the morale and safety of our 
officers.
    To illustrate our concern, I would point out that current 
international political dynamics have increased our concern regarding 
the possibility of terrorist-related activities against certain high-
profile national assets within our jurisdiction. Simply put, this is 
not the time for the USPP to be understaffed or under-equipped.
    Another excellent case-in-point is the upcoming anniversary of the 
North Atlantic Treaty Organization, and the festivities to celebrate it 
this year. Obviously, a significant portion of this event will take 
place on or near park service land, and as always, USPP will have a 
major role in providing security. When our FY'99 budget was being 
prepared, no one contemplated this unexpected drain on our resources, 
yet we are tasked with finding a way to do it, and we will. However, 
continual pressure to divert more and more money to ever-expanding 
operations has left significant holes in other areas of our budget.
    President Clinton has requested $1.39 billion for NPS operations in 
fiscal year 2000, a net increase of $102 million over the fiscal year 
1999 enacted level. The budget proposes a $25 million increase to 
address operational needs at 90 parks and the United States Park 
Police. While NPS budgets have increased over the last several years, 
funding for the Park Police has failed to adequately provide for 
operational readiness. This situation has created specific needs to 
correct areas of concern such as basic equipment deficiencies, 
recruitment and retention issues and upgrading our Information 
Technology into the 21st century. We believe that two areas must be 
addressed in the fiscal year 2000 appropriations, the funds to initiate 
the mandated conversion of our communications equipment to a narrow 
band frequency, and increasing and retaining the number of sworn 
officers to meet authorized strength requirements.
Personnel shortages affecting visitor and officer safety
    Our patrol responsibilities have continued to expand in areas of 
primary jurisdiction as the National Park Service acquires new 
property. These properties are often turned over to the Park Service 
with no additional funding appropriated for patrol functions by the 
United States Park Police. Recently in the National Capital Region we 
have added the FDR Memorial, The Korean War Memorial, the Pennsylvania 
Avenue Corridor and the Georgetown Waterfront Park. Due to heightened 
security concerns, we have increased coverage of our nation's treasures 
such as the Washington Monument and Lincoln Memorial. In San Francisco 
we have added the Presidio to our patrol functions, a complex of 1480 
acres, and in New York's Gateway National Recreation Area additions 
include the Statue of Liberty, Ellis Island and Fort Wadsworth. These 
added patrol functions have strained the officers on the street. In the 
downtown area regular plain clothes anti-crime, bicycle, horse mounted, 
SWAT and motor scooter patrols have been either eliminated or severely 
curtailed in order to provide basic coverage. This has a direct effect 
on our ability to provide high profile patrols, which protect visitors 
in our Nations Capital. The combination of these added responsibilities 
with an ever-increasing attrition rate and the fact that at this moment 
over 180 officers are currently eligible for retirement brings the 
situation near to crisis proportions. In order to provide adequate 
levels of police service, an additional 110 officers are needed to fill 
presently authorized but vacant positions. Without proper dedicated 
funding to fill these positions, severe consequences such as the lack 
of visitor protection, decreased officer safety and morale, and a lack 
of deterrence to terrorist threats in and around our National treasures 
could occur. We believe that a 4-year commitment commencing with fiscal 
year 2000 at an approximate cost of $2.3 million per year should 
correct these deficiencies by fiscal year 2004.
Communications and equipment shortfalls
    Presently, there is a Congressionally-mandated multi-agency 
interoperability standard for Land Mobile Communications. The 
requirements for that standard include encryption ability, and a plan 
to share critical communication. The existing United States Park Police 
radio system does not permit either of these two goals to be realized. 
Since the United States Park Police cannot currently encrypt their 
radio system, inclusion in the interoperability plan at this time would 
compromise any interagency Land Mobile Radio communications sharing 
plan. This has a direct effect on our ability to provide such mission 
functions as protection of the President, Vice President and visiting 
Heads of State and Dignitaries. With the present capabilities, the 
United States Park Police are unable to meet the requirements of the 
Department of the Interior multi-agency interoperability standard.
    The National Telecommunications and Information Administration 
(NTIA) has mandated that all Federal agencies conform to a digitally 
encrypted narrow band radio system. The United States Park Police use a 
wide band un-encrypted two-way radio system. This system was purchased 
in the 1975 fiscal year. Although certain upgrades and repairs have 
occurred, the core of the system and it's technology are severely 
outdated. It is not possible to convert our present system to the 
mandated narrow band encrypted type required by NTIA.
    Concerns about the abilities of the radio system also have a direct 
effect on Officers' morale. Patrol officers consider a properly working 
communications system as one of the many tools required providing for 
proper officer safety. Although we work in urban areas, our daily 
patrol functions might find us in a relatively isolated area, with 
other law enforcement assistance further away than what an unfamiliar 
person might think possible in the urban environment. The consensus 
among USPP Officers is that the present system is unreliable. The 
officers base this conclusion on the high number of instances where 
they encounter difficulty transmitting and receiving information 
because of high and low pitched background noise, static, poor sound 
quality and dead spots in coverage areas. A lack of confidence in our 
telecommunications system may not only effect the officers decision-
making process in an enforcement action, but is directly related to the 
safety of the officer should a situation escalate. We are requesting 
$350,000 for an engineering study to assess the needs to bring the 
Force communications system up to date and in compliance with the 
mandated technological changes.
    The United States Park Police programs base funds for the 
maintenance of a separate equipment replacement program and therefore, 
is not authorized to use the region's equipment replacement fund. Years 
of budget reductions and cost absorptions within our base funds have 
depleted our equipment replacement program. This has resulted in less 
than minimal replacement of our fleet of motorized vehicles, outdated 
radio equipment, substandard information technology equipment, as well 
as the severe curtailment of our repair program. In order for the 
United States Park Police to maintain an adequate fleet of motorized 
vehicles and other related equipment, a base increase will be required 
to address our most critical needs and provide future base funding to 
allow for a suitable and timely replacement/repair of required 
equipment. Officers' morale can be greatly effected when our uniform 
and related equipment replacement program has no funds to purchase 
essential equipment. For example, when the manufacturer of bullet proof 
vests only guarantees it's ballistic protection level for a period of 
five years, an officer wearing a vest that is ten years old can not 
understand why the force has no money to purchase a replacement. The 
force has requested $2.3 million to alleviate the most critical 
equipment shortfall needs.
Employee retention and morale
    Pay and benefit issues have had a significant impact on the 
recruitment of qualified applicants including minorities and women as 
well as the retention of experienced sworn officers. Inconsistent 
interpretations of pay legislation by the Office of Personnel 
Management, adjusted or `diet colas' resulting in colas to our 
employees below the level received by other government employees, 
increases in salaries and benefits among the local, state and county 
police departments, and competition with other Federal agencies for 
applicants have eroded our ability to hire and retain qualified 
employees. The lack of funding for additional recruit classes to fill 
existing vacancies has created a crisis situation for our force. Our 
non-retirement attrition rate continues to rise. Since 1995, 59 
officers have resigned to seek employment elsewhere--26 of those in 
1998 alone. Add to this the 77 officers who retired in the same period, 
and our inability to hire new officers to offset our attrition rate is 
quite clear given our present funding levels. Considering the fact that 
180 officers are eligible to retire today, we must have the necessary 
funding to prevent our ranks from becoming dangerously low. Our 
inability to successfully hire and maintain officers also directly 
affects our inability to fulfill the Department of Interior's 
requirements for implementing its programs to improve diversity in the 
workplace. We were unable to meet the Government Performance Review 
Acts diversity goals due to lack of funds for a third recruit class in 
1998. In December of 1998 MCC consulting conducted a focus group study 
by interviewing 71 Officers and Sergeants. The number one reason for 
our high attrition rate was cited as pay and benefits issues. 
Specifically, officers cited the disparity of pay in comparison to 
local law enforcement agencies, the need to compress the steps required 
for an officer to reach the top pay scale in their grade, the `diet 
colas' mandated by OPM's interpretation of pay issues, lack of raises, 
tiers of pay and low technicians pay.
    Many of you will remember the fiscal year 1998 Treasury, Postal and 
General Government Appropriation legislation which provided 
simplification for the pay scales of Secret Service Uniformed Division. 
This correction removed a great deal of uncertainty and inequity from 
that agency's pay structure, and I believe that Congress was wise to 
take that step. We would ask you to consider providing similar relief 
to our officers, who now suffer from many of the same problems that the 
1998 Treasury Postal bill sought to cure. Such a good-faith effort, 
which could be accomplished for a relatively small amount of money, 
would pay rich dividends in terms of improving officer morale.
    However, if the USPP is to continue to attract and retain the 
caliber of officers that our mission demands, we will need our salaries 
to become competitive with those provided by other police forces in 
nearby areas. Inasmuch as budgetary realities have forced the USPP to 
do more and more with fewer and fewer resources, the ability to attract 
and retain quality personnel is a critical issue. We believe our agency 
is at a deficit in terms of equipment and technology; what prevents 
this problem from becoming a crisis is the quality of the officers out 
there on the job. Without quality personnel, no amount of technology, 
equipment or other investment will succeed at an increasingly difficult 
mission.
    Mr. Chairman, those of us who serve in the U.S. Park Police are 
proud do so; we believe we fulfill a critical mission in protecting 
some of our country's most valuable assets. We are proud of the job we 
do, and we believe that this nation and its taxpayers deserve the best 
we can give them. As we watch our force's readiness erode, the simplest 
solution for most of us would be to find comparable employment with 
another police force; it is certainly available. But many of us have 
invested a lot in the Park Police and we believe in the importance of 
its mission. For that reason, I urge you to consider our requests and 
help us keep the USPP as a strong and ready protective force.
    Thank you, Mr. Chairman.
                                 ______
                                 
 Prepared Statement of Jean Hocker, President, the Land Trust Alliance
    The Land Trust Alliance (LTA) is the national organization serving 
the country's more than 1,200 land trusts--primarily local and regional 
conservation nonprofits that work with private landowners to protect 
natural areas and other green space through voluntary methods. We are 
pleased to submit this testimony on fiscal year 2000 appropriations, 
focusing on four federal programs land trusts have used to protect 
places that are important both to their communities and to the nation 
as a whole.
    We urge the committee to provide increases over last year's funding 
for the Forest Legacy Program of the USDA Forest Service, the North 
American Wetlands Conservation Fund (NAWCF), the National Fish and 
Wildlife Foundation, and the state grants program of the Land and Water 
Conservation Fund (LWCF).
    Each of these programs provides funds requiring a non-federal 
match, so that they leverage federal dollars with state, local, and 
private money. Each builds and rewards partnerships between federal, 
state and local governments, and between government agencies and the 
private sector. In a very real sense, these programs are investments. 
They are very good investments. They purchase assets of growing value, 
attract the participation of new partners, and leverage every dollar 
you put in with one or two or three from other sources.
    In November 1998 voters passed 124 local and state referenda to 
provide new funding for land conservation. 84 percent of all such 
measures on the ballot passed. Many of these were explicit tax 
increases, demonstrating voters' willingness to raise their own taxes 
to invest in protecting land resources in their communities. This 
subcommittee has done great work in supporting federal help for such 
efforts. We hope that your colleagues will provide you with the 
resources you will need to meet the public demand for conservation of 
open space in this era of American prosperity.
 recommendation: increase the forest legacy program to $50 million in 
                            fiscal year 2000
    The Forest Legacy Program supports the purchase of interests 
(primarily permanent conservation easements) in environmentally 
important timberland to protect it from conversion to non-forest uses--
usually meaning development. Forest Legacy conserves timberland for 
traditional uses, including forestry and provides willing landowners 
with an alternative to selling environmentally and economically 
important timberland for development. For federal outlays of $21 
million, the program has acquired permanent conservation easements 
valued at $34 million. The cost of purchasing those lands outright 
would have been at least $60 million, and probably considerably higher.
    Demand for this program is growing. Last year, Utah, Indiana and 
Delaware came into the program. This year, Tennessee will qualify. 
North Carolina and Virginia are in the process of applying. Montana and 
South Carolina have expressed interest as well. Increasing the Forest 
Legacy Program to $50 million annually will provide the resources it 
needs to function effectively on a national scale.
    For most federal programs, such an increase would require years of 
ramp-up. But because state government agencies take much of the 
responsibility for implementing this program, and because the states 
have already identified $90 million of projects, Forest Legacy is fully 
capable of using $50 million in fiscal year 2000.
    In Vermont, a $342,000 Forest Legacy grant resulted in a 
conservation easement on 2,281 acres of timberland owned by Wagner 
Woodlands-Atlas Timber. The donation of a $200,000 conservation 
easement to The Vermont Land Trust provided the matching non-federal 
component of the project. The landowner will continue to manage these 
lands for timber production, and the public will be assured of 
permanent access for hunting, fishing, hiking, snowmobiling, and cross-
country skiing. According to Hank Swan, general partner of Atlas 
Timber, ``I see this purchase to be a win-win situation. Atlas is able 
to continue its primary mission of sustained yield management and 
harvest of forest products, while still insuring public use.'' Through 
innovative projects such as this, Forest Legacy is proving its value as 
the only federal program designed to help conserve the nation's private 
forestland base.
  recommendation: provide $20 million for the north american wetlands 
                           conservation fund
    Congress created the North American Wetlands Conservation Fund to 
conserve wetlands critical for the survival of waterfowl and other 
migratory birds. The program works cooperatively with nonprofit 
organizations and state fish and wildlife agencies in the US, Canada 
and Mexico by providing matching grants for the protection, restoration 
or enhancement of wetlands. This is a competitive grants program in 
which the merits of projects are recommended by the North American 
Wetlands Conservation Council and approved by the Migratory Bird 
Commission.
    As a recently-appointed member of the Council, I have been 
profoundly impressed by the amount of work its NGO members invest in 
this program, and by the program's effectiveness in soliciting cost-
effective, biologically targeted proposals.
    From fiscal year 1991 through June 1998, 593 projects in Canada, 
Mexico, and the US, involving over 960 partners, have been approved. 
The Fund has contributed $249 million; project sponsors and their 
partners have contributed $517 million. Approximately 4.4 million acres 
of wetlands and associated uplands have been acquired, restored, or 
enhanced in the US and Canada, and conservation in 24 million acres of 
Mexico's biosphere reserves has been improved through conservation 
education and management projects.
    In Washington State, the Columbia Land Trust received a $50,000 
grant to complete a $240,000 acquisition of a 50-acre wetland at the 
western entrance to the Columbia Gorge National Scenic Area. Working in 
partnership with local, state, and federal agencies, Columbia Land 
Trust will restore the wetland. The site is an important stopover for 
migratory birds using the Pacific flyway and the Columbia River 
corridor.
    The $20 million we have requested for the fund is more than the 
Administration requested--but this amount is needed to assure that the 
program would have as much funding in fiscal year 2000 as in fiscal 
year 1999, when it benefited from non-appropriated funds deriving from 
a penalty levied on a private party in an oil spill case.
recommendation: provide the national fish and wildlife foundation with 
  $8 million from the fish and wildlife service; $3 million from the 
   forest service; and $2 million from the bureau of land management
    The National Fish and Wildlife Foundation is another source of 
matching grants that effectively leverage federal dollars for 
conservation and help recruit the involvement of the private sector in 
meeting federal wildlife management goals. By seeking private donations 
and matching contributions, the Foundation has been able to generate 
more than $3 of investment in conservation projects for every $1 you 
have appropriated for their challenge grant programs. LTA has been a 
grateful recipient of challenge grants, for our work in building 
effective land trusts fully capable of protecting habitat and other 
critical open space.
    In Maine, the Coastal Mountains Land Trust received a $25,000 
challenge grant from the Foundation. It matched this with $75,000 of 
nonfederal funds to acquire 225 acres along the Ducktrap River to 
protect prime spawning and nursery habitat for the most genetically 
pure strain of wild Atlantic Salmon in the US. The Foundation presses 
applicants to bring a higher match to the table, and to focus their 
projects for maximum benefit to fish and wildlife. Projects such as 
these are the result.
  recommendation: increase the appropriation from the land and water 
   conservation fund and allocate $150 million for the state grants 
                                program
    Since its inception, the Land and Water Conservation Fund (LWCF) 
has been a crucial element in the conservation of the land and water 
resources of the nation. LTA supports the Administration's fiscal year 
2000 LWCF budget request, and we are particularly supportive of the 
state grants component of that request.
    State LWCF grants leverage federal dollars and reflect community 
priorities in land conservation and recreational facility enhancement. 
This program provides the clearest opportunity for this subcommittee to 
create partnerships with the state and local government initiatives for 
land protection we referred to earlier.
    The Society for Protection of New Hampshire Forests worked closely 
with their state government to acquire key additions to state parks and 
state forests when they came up for sale. In 1979, they acquired a 146 
acre inholding in Mt. Cardigan State Forest. In 1980, they acquired 89 
acres adjacent to Monadnock State Park. In 1987, they acquired 490 
acres surrounding Lovewell Mountain for Pillsbury State Park. In each 
case, state grants from the LWCF were a key component of the 
acquisition of these lands for the public.
    The state grants program, historically very successful in promoting 
community and nonprofit involvement in conservation activities, 
deserves your support.
                               conclusion
    On behalf of the nation's more than 1,200 land trusts, thank you 
for considering the views of the Land Trust Alliance as you make your 
funding decisions for the coming fiscal year. It could make a 
difference on the land for generations to come.
                                 ______
                                 
   Prepared Statement of Robert Perschel, Chairman, Northern Forest 
                                Alliance
    Mr. Chairman and members of the Subcommittee, I am Bob Perschel, 
Chair of the Northern Forest Alliance, a coalition of more than 40 
state, regional and national organizations dedicated to the protection 
and stewardship of the 26 million acres of forests that span northern 
New York, Vermont, New Hampshire and Maine. Together we represent the 
interests of more than one million people. Thank you for your continued 
interest in the issues facing the Northern Forest region and for this 
opportunity to speak to you today regarding fiscal year 2000 
appropriations.
    The Northern Forest is the largest remaining continuous wild forest 
East of the Mississippi. Its 26 million acres blanket Maine, New 
Hampshire, Vermont and New York and hold the headwaters of all of the 
Northeast's greatest rivers and the mountains, lakes and forests that 
define the northeastern region of the country. It provides economic and 
environmental benefits that go well beyond state lines.
    This vast forest is facing a time of extraordinary transition: over 
the past few months more than four million acres of mountains, rivers, 
lakes, ponds and woodlands have changed hands including more than 15 
percent of the entire state of Maine and vast tracts in Vermont and the 
Adirondacks. Land sales of this scale speak to deep forces for economic 
and social change that will have a defining impact on the future of the 
region. Unless we act now to conserve the vast unfragmented forests 
that underpin our economy and way of life, the region and country will 
lose an irreplaceable resource of national significance--the last and 
largest wild forest in the East.
    Unfortunately, the states lack sufficient public funding to take 
immediate action to secure the future of their economies, communities 
and environment. Other than New York, the Northern Forest States do not 
have large enough populations or economies to generate land protection 
funding on the level needed to secure this vast resource of national 
importance.
    People and policy makers across the Northern Forest and surrounding 
states have spoken clearly to the urgent need to take action to protect 
the vast forests. Echoing this call the Clinton Administration has 
recognized the Northern Forest as one of the nation's top conservation 
priorities in the President's Land Legacy Initiative and fiscal year 
2000 budget. These actions reflect the fact that the Northern Forest is 
a mainstay of the economy, ecology and culture of the Northeast; is a 
vast region at risk; and is of great importance to the 70 million 
people that live within a day's drive of the region.
    The Northern Forest Alliance again requests that this committee 
lead Congress in supporting two critical national programs: the Land 
and Water Conservation Fund (LWCF) and the Forest Legacy Program. This 
position is consistent with the recommendations of the Northern Forest 
Lands Council, which called for full funding of LWCF and $25 million 
per year for the Forest Legacy Program for the Northern Forest states. 
It also resonates on a national level, where, in last fall's elections, 
Americans across the country expressed deep concern for the environment 
and the need to curb urban sprawl and protect dwindling open space.
    A fully funded and revitalized Land and Water Conservation Fund 
would serve the people and communities of the Northern Forest and the 
country well. This well tested, but often-neglected program has an 
impressive legacy and has been responsible for the acquisition of 
nearly seven million acres of open space and the development of more 
than 37,000 parks and recreation projects. Though the fund receives 
$900 million from federal offshore oil and gas receipts each year, 
Congress has diverted the majority of these funds in recent years and 
completely eliminated funding for the critical state and local programs 
most useful in the Northern Forest region.
    Funding the federal Forest Legacy Program is also of critical 
importance to the Northern Forest states and the nation as a whole. 
Productive, privately owned forestlands are expected to provide a 
growing percentage of the nation's timber needs. At the same time, 
however, the USDA has found that the country is losing over 550,000 
acres of productive forestland each year to fragmentation and 
development. If adequately funded, the Forest Legacy Program could play 
a vital role in ensuring that our nation's private forestlands continue 
to support rural forest-based economies and a healthy environment.
    We need your leadership to ensure that Congress passes a 
comprehensive initiative that revitalizes the Land and Water 
Conservation Fund and related programs that fully serves the country's 
long-term interests. To enable the Land & Water Conservation Fund 
(LWCF) to live up to its original intent and promise, Congress should, 
at a minimum, guarantee to:
  --Full and permanent funding for the Land and Water Conservation Fund 
        at least $900 million annually.
  --An equitable allocation of LWCF funding for LWCF's federal and 
        state components including.
  --A competitive state-grants process for projects and lands of clear 
        national significance allocated outside of the population-based 
        formula. This provision is essential to land protection in the 
        Northern Forest where we have large holdings of clear national 
        significance in states with small populations.
  --Funding the Forest Legacy Program at a national level with $25 
        million per year for the Northern Forest region and at least 
        $50 million nationally.
  --A revived Urban Parks Recovery Program and Historic Preservation 
        Fund funded at $150 million on a permanent annual basis.
  --Funding for Wildlife Conservation at $350 million in permanent 
        annual grants to states for habitat conservation and species 
        protection.
    To meet urgent needs to protect the prime recreation and 
conservation lands described below, we respectfully request a fiscal 
year 2000 appropriation for the Northern Forest region of:
  --LWCF State Grants: $26.2-$51.2 million
  --LWCF Federal Program: $9.5-$10.3 million
  --Forest Legacy Program: $41.8-$67.8 million
    In the 20-state, Northeastern Region:
  --Rural Development through Forestry: $5 million
  --Stewardship Incentive Program: $3.5 million
    Without these appropriations, unwanted development and forest 
fragmentation will compromise public values, reduce timber production 
and related jobs, fragment wildlife habitat, cut off public access and 
degrade water quality in a region of immense national importance.
       Fiscal Year 2000 Northern Forest Appropriations Priorities
                       lwcf state grants program
National Lead Lands, New York: 11,200 acres--$ undetermined
    This 17-mile-square area contains 5 other smaller undeveloped lakes 
and ponds. Its public acquisition would be an important addition to the 
High Peaks Wilderness Area, consolidating current public holdings and 
buffering the remote southern High Peaks.
Green River Reservoir, Vermont: 12,000 acres--$650,000
    The Green River Reservoir is unique for its size, its extensive, 
undeveloped shoreline, and the role of surrounding lands as working 
forest and recreation area.
Long Trail, Vermont: 745 acres--$184,000
    Six important parcels must be purchased to secure Vermont's Long 
Trail, the nation's oldest long distance hiking trail. Private sale of 
these parcels could threaten public access to the trail, and jeopardize 
one of Vermont's premiere recreation tourism attractions.
Various, Maine: up to 1 million acres--$25-$50 million
    LWCF State Grants must augment state money to make it possible to 
permanently protect some of the critical undeveloped shoreline on 
Maine's best loved lakes and rivers, Specific acquisition details are 
not yet available, but funding from both LWCF State Grants and Forest 
Legacy is essential to complete important conservation projects under 
negotiation.
Moose River, Maine: 4,531 acres--$400,000
    An easement would close a large gap in river protection along the 
Moose River ``Bow Trip'' a popular family canoeing route, and would 
protect Number 5 Bog and an adjacent jack pine stand, recognized as a 
National Natural Landmark.
                          lwcf federal program
Lake Umbagog, New Hampshire/Maine: shoreline +55--$3 million
    Lake Umbagog National Wildlife Refuge provides critical wildlife 
habitat, scenic beauty, and recreational opportunities. Sixty percent 
of the lake's shoreline has been protected.
Pondicherry, New Hampshire: 600-800 acres--$50,000-$250,000
    The Pondicherry property is packed with important bird and wildlife 
habitat, outstanding recreational opportunities, educational sites, and 
sweeping vistas sought by artists, residents and visitors.
Champion Lands, Vermont: 26,000 acres--$6.5-$7 million
    The Nulhegan Basin, and island of northern habitat left behind by 
retreating glaciers, lies within the northern portion of the watershed 
and has been identified as high priority area for protection.
                         forest legacy program
E. Branch Fish Creek, New York: 30,000-40,000 acres--$5.6 million
    The Fish Creek watershed in the heart of New York's Tug Hill 
provides drinking water, wildlife habitat, free flowing scenic rivers, 
and forests of valuable timber.
Domtar Lands, New York: 105,000 acres--$6 million
    An easement on the Domtar lands would protect from development and 
fragmentation an extensive forest and aquatic landscape. Funding from 
the Forest Legacy Program can ensure that a large, high-quality timber 
producing forest continues to contribute to the region's forest 
economy.
Green River Reservoir, Vermont: 5,760 acres--$800,000
    The Green River Reservoir is unique for its size, its extensive, 
undeveloped shoreline, and the role of surrounding lands as working 
forest and recreation area.
Various, Maine: up to 1 million acres--$25-$50 million
    Federal funding is critical to help protect special places like: 
Moosehead Lake/Roach River Watershed and the Allagash Wilderness 
Waterway.
Nicatous Lake, Maine: 21,000 acres--$3-4 million
    Nicatous Lake, listed as one of Maine's Finest Lakes, has 
outstanding wildlife, scenic, and shoreline resources, significant 
fisheries, and cultural features
E. Br. Mattawamkeag River, Maine: 11,281 acres--$840,000
    The East Branch project encompasses important water resources, 
productive timberland, and 15.2 miles of undeveloped shoreline that 
protects the area's water supply.
Mattawamkeag Lake, Maine: 4,195 acres--$490,000
    Mattawamkeag Lake scores high for public recreation assets, scenic 
values, and fish and wildlife habitat, and includes 12.7 miles of 
shoreline. The Maine Interconnecting Trail System crosses the parcel, 
which is adjacent to state land.
Champion Lands, New Hampshire: 18,000 acres--$ undetermined
    An as yet unknown amount of federal funding from LWCF State Grants 
and/or the Forest Legacy Program may be needed to help complete 
acquisition or easements on the New Hampshire acreage.
    Mr. Chairman, protection of these outstanding places represents a 
tremendous opportunity to conserve places of extraordinary natural and 
public value. It would also represent the continued commitment of 
Congress to work with the people of Maine, Vermont, New Hampshire and 
New York to protect the irreplaceable resources of the Northern Forest 
for future generations of Americans. Thank you for considering this 
request.
                                 ______
                                 
                    United States Geological Survey
           Prepared Statement of the University of New Mexico
                     center composition and details
    The renovated building will house the faculty, staff, students and 
research facilities of the Sevilleta Long Term Ecological Research 
Program (LTER). This program, funded by the National Science Foundation 
(NSF) for the last decade, performs research on a wide variety of 
topics relating to environmental aspects of the Southwest. The LTER 
research group also conducts numerous collaborative research programs 
with the National Park Service (NPS), the US Geological Service (USGS), 
the US Fish and Wildlife Service (USFWS), the US National Aeronautics 
and Space Administration (NASA), the US Air Force (USAF), the USDA 
Forest Service (USFS), the Centers for Disease Control and Prevention 
(CDC), and the National Institutes of Health (NIH). NSF intends to 
continue to fund this LTER program for many decades as well as increase 
the research and education capabilities at each LTER site. The 
collaborative model that will be realized by the programs brought 
together in the renovated building is a model that NSF will support and 
use to exemplify how interdisciplinary research should be accomplished 
at other universities. This model also will obtain increased support 
from NASA efforts to use LTER sites to validate satellite imagery 
because of abilities of LTER programs to develop the comprehensive 
understanding of complex environmental systems needed for NASA 
objectives.
    The primary mission of the Sevilleta LTER is to integrate research 
on biological responses to climate dynamics. To accomplish this, the 
LTER scientists collaborate with the researchers from the government 
agencies listed above to address problems ranging from drought effects 
to human disease epidemics. For example, LTER collaborative programs 
have: Worked with USGS scientists to identify 60-yr drought cycles in 
the Southwest allowing predictive capabilities for the next major 
drought (2005-2015); Identified environmental changes and species 
responses to the El Nin/La Nin cycles that also provides greater 
predictive power for planning future management strategies for dealing 
with wet/dry periods; Examined the effects of wildfires on ecosystems, 
and provided USFWS and USFS managers with detailed data for fire policy 
development and management; Evaluated biodiversity in five NPS National 
Monuments (Bandelier, El Malpais, Petroglyphs, Pecos and Capulin 
Volcano) and in two Air Force bases (Kirtland AFB and the Melrose 
Range, Cannon AFB); Identified environmental factors associated with 
disease outbreaks in the Southwest, most notably, Hantavirus and 
Bubonic Plague. This research has led to better Public Health warning 
systems and prevention policies, and has spawned long-term research col 
laborations with CDC and NIH.
    All of the research/management efforts described above rely on 
close cooperation with primarily DOI agencies, and integrate those 
relationships with other government agencies at Federal, State and 
local levels. Private groups (e.g., private ranchers collaborating with 
the Sevilleta LTER Program) are also included in the research and 
management programs. In addition, a ``Schoolyard LTER Program'' has 
been established that connects schools in Albuquerque to the LTER 
databases and organizes environment research and education in areas 
along the Rio Grande corridor, emphasizing wise water resource use and 
careful management planning for human development.
    All of these programs will be based in the renovated building. The 
close proximity of the LTER personnel to those of the USGS and 
educational coordinators will promote even greater collaborations 
through daily contact and interactions. The availability of the 
specimen-based collections of the Museum of Southwestern Biology (MSB), 
the high-tech research computer laboratories, and the Geographic 
Information System laboratory, will allow the collaborative 
relationships to continue to grow and flourish. Such multidisciplinary 
groups will be needed to solve large-scale problems related to climate 
change, human land use and development, biodiversity, emerging 
diseases, and natural resource management. This multidisciplinary 
approach coupled with access through the computers of the LTER Network 
Office to SuperComputer facilities, other US field stations and 
laboratories, and International LTER Networks will allow a global 
recognition and demonstration for Sevilleta research results.
    The Long-term Ecological Research Network plays a key role in 
improving our understanding of the function and maintenance of the 
nation's ecosystems. Coordination and support for activities of the 
LTER Network is one of the responsibilities of the LTER Network Office, 
located at the UNM under a cooperative agreement with the NSF. At 
present, the LTER Network Office is located in temporary quarters on 
the south campus of UNM. The distance separating the office from main 
campus is an obstacle to close collaboration between LTER staff and the 
various academic departments. Through the proposed renovation, the 
network office will have access to high speed computer links and 
superior computing power and the other occupants will have direct 
access to the expertise in bioinformatics, remote sensing, geographic 
information systems, computer networking, and desktop publishing that 
exists in the network office.
    The proposed Center for Integrated Environmental Research will 
provide opportunities to develop innovative partnerships among the 
occupants of the facility and a broader research and management 
community. The network office occupies the nexus of a communications 
network that involves the 21 LTER sites, 16 other countries belonging 
to the International LTER network, sites in the Global Terrestrial 
Observing System (GTOS), and over 200 field facilities of the 
Organization for Biological Field Stations. High-speed connections to 
the nation's computing backbone are essential for the LTER Network 
Office to fulfill its central role in the coordination of these 
research networks as well as to provide access to the computational 
power of our supercomputer centers. The promise of such advanced 
connectivity was one of the reasons that the NSF opted to locate the 
network office at the UNM. The proposed renovation will allow the 
Network Office to provide cutting-edge computer and information 
resources to our collaborating networks.
    By the combination and juxtaposition of the outstanding research 
programs projected to occupy the new facility, we see a unique 
opportunity in bring together leading edge capabilities in computing, 
communications, and informatics to benefit and drive advances in 
environmental science. Complex issues confronting scientists and policy 
makers require interdisciplinary collaboration and synthesis at much 
larger spatial and temporal scales than are typical in traditional 
studies. In this complex research environment, there is a tremendous 
need by today's scientists for training and trained individuals in 
informatics, data management, and computational biology. More 
importantly actual training in multidisciplinary research has been 
almost totally lacking. Synthetic, data intensive projects will be even 
more common in the future. The synergy provided by creation of this 
center will provide a model for the nation in these areas.
    The research and teaching collections of the Museum of Southwestern 
Biology (MSB) are among the most extensive in the world and constitute 
an invaluable resource for addressing some of the most serious problems 
facing society today. These span a wide range of disciplines from 
global change to public health and make it possible for UNM biologists 
to conduct research and educate students in areas of critical 
importance to the nation and the rest of the world. The research 
materials and the specimen-based databases of the MSB are integrally 
related to the Sevilleta LTER Program, the national LTER network and 
the ecologically based data that they maintain. The MSB is a National 
Biodiversity Research Resource Center based on the ranking of its 
collections, service to the scientific community, size, and quality of 
research and collections management staff. The MSB contains collections 
of national and international significance in all vertebrate classes, 
invertebrates, plants and genetic materials.
    The vast potential of these resources cannot be overestimated. All 
collectively represent an enormous bank of genetic diversity and hold 
the promise of playing an increasingly critical role in education and 
research in biodiversity, genetics, human health, global change, and 
many other areas of comparative biology. In addition, few facilities 
have the potential of crossing so many disciplinary lines of research. 
For example, MSB researchers are currently using historical samples 
from the collections to investigate questions concerning the ecology 
and evolution of emerging diseases such as Hantavirus and Bubonic 
plague. Studies are underway to understand the extent to which these 
pathogens have co-evolved with their mammalian hosts, how they function 
as a member of the natural ecosystem, where they occur, and what is the 
extent of their diversity in nature. Thus, this single research effort 
involves ecologists, systematists, medical researchers, geneticists, 
data managers, public health workers, and molecular biologists.
    The MSB has a wide array of current research activities underway 
that will be enhanced by these new facilities. Much of the ecological 
and bioinformatics work of UNM's Center for the Study of Emerging 
Viruses will be housed in this facility as part of the MSB. This 
research is aimed at understanding the ecology, epidemiology, and 
treatments for newly discovered viruses that pose significant health 
threats to humans. Examples include hantaviruses and arenaviruses, 
which are transmitted by rodents and cause life-threatening diseases to 
people world-wide. Much of the research in New Mexico dealing with 
emerging viruses is funded through this center.
    The MSB is also a partner with the University of Kansas and the San 
Diego Supercomputer Center in a major Knowledge and Distributed 
Intelligence project funded by the NSF to link databases from existing 
research programs in environmental sciences including the LTER Program 
with the museum biodiversity databases from around the world. The 
program has four main thrust areas:
    (1) Enabling technology for (a) access to and integration of 
heterogeneous biocollections, taxonomic and environmental data; (b) 
visualizing species distributions, terrain and climate data for 
computational geospatial analysis; (c) predictive modeling of 
biodiversity phenomena; (d) utilizing the high bandwidth research 
network for multispecies distribution models while gathering on-the-fly 
data from distributed biocollection databases;
    (2) Enabling research on complex problems in biodiversity and 
environmental emerging threats that are currently intractable, thereby 
creating a modeling community of systematists, ecologists, and 
computational scientists;
    (3) Enabling education of the next generation of biodiversity 
informatics scientists, bringing the results of knowledge networking to 
K-12 students and the public; and,
    (4) Enabling collaborative technologies by understanding the 
synergistic behavior among investigators, organizations and communities 
across Internet-mediated networks and new levels of information flow.
    The U. S. Geological Survey, Biological Resources Division (USGS, 
BRD) maintains a field station of the Midcontinent Ecological Science 
Center on the campus of the University of New Mexico. This field 
station supports the mission of the BRD in working with others to 
provide the scientific understanding and technologies needed to support 
sound management and conservation of the nation's biological resources. 
The field station primarily emphasizes arid lands issues and has been 
located in the Biology Department since 1974 and has been an integral 
part of the Biology Department's programs in biodiversity, systematics, 
and arid lands ecology since that time. Current projects include a 
variety of management-related research on Department of Interior lands 
in the Southwest as well as projects aimed at providing new information 
on biodiversity and the health of Ecosystems including studies on 
global climate change.
    At present, the vertebrate collections, that are a responsibility 
of this unit, are housed in substandard space with little or no room 
for either research or expansion. (300 sq. ft.), and three other 
employees relegated to table space around the periphery of museum 
collections. There is insufficient light, computer hookups, file space, 
storage space, and privacy for the accomplishment of planned tasks. 
Completion of the Center for Integrated Environmental Research would 
provide greatly enhanced space for collections and personnel and 
provide a greatly improved atmosphere for research within the 
Biological Resources Division, with other USGS divisions, and with 
other planned co-occupants of the Center.
    Additional information at:

    http://biology.usgs.gov/or at www.mesc.usgs.gov/arid__lands.html.
    http://biology.unm.edu/herb/msb.htm
    http://sevilleta.unm.edu
    http://lternet.edu
    UNM Contact: Terry Yates, Chair, Department of Biology (505) 277-
2496    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8afef3ebfeeff9caf9effce3e6e6effeeba4ffe4e7a4efeeff">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of Peter H. Evans, Director, Colorado Water 
                           Conservation Board
                          summary of testimony
    The Colorado Water Conservation Board supports the activities of 
the United States Geological Survey's Water Resource Investigations 
program in Colorado and throughout the western United States. We 
respectfully request that Congress appropriate funds to this program 
greater than those identified in the President's proposed budget for 
fiscal year 2000. Only funding significantly above the proposed amounts 
will permit the Survey's Water Resources Investigation programs to 
continue the important work of collecting basic hydrologic water 
quantity and quality data and performing the high quality analytic work 
necessary to manage Colorado's scarce water resources.
                              introduction
    This statement is submitted by Peter H. Evans, Director of the 
Colorado Water Conservation Board. The Board is the state agency 
charged with promoting the development and protection of Colorado's 
water resources, planning and preparation for the prevention of floods, 
and the protection of instream flows. Given these responsibilities, the 
Board is especially interested in high quality, continuous, and 
reliable data on streamflows and expert analysis of water resource 
issues. The United States Geological Survey has been an invaluable 
partner in the Board's work since its creation in 1937.
    Colorado sits atop the Continental Divide and contains the 
headwaters of most of the principal river systems of the southwestern 
United States and the High Plains. We must share water resources which 
originate in Colorado with all of our neighboring states and the 
Republic of Mexico. The administration of interstate and international 
water allocation is highly dependent on accurate, unbiased, uniform 
hydrologic data. The United States Geological Survey has served the 
western states and the nation well over the last 100 years in providing 
this essential information. The continuity and quality of the data 
collected is truly an invaluable national asset, and should be 
recognized and maintained as such.
              water resources investigations appropriation
    The overall redirection of priorities apparent in the 
Administration's budget proposal for the United States Geological 
Survey in fiscal year 2000 will cause serious problems for many years 
into our future. While some of the changes are most likely due to 
budget restructuring, such as the separation of overhead and 
administrative costs from program costs, there also appear to be 
significant real reductions in the traditional water data collection 
and analysis programs on which Colorado relies. We support 
restructuring of the Survey's budget to better document and separate 
overhead from program costs, but only to the extent such restructuring 
is truly program neutral. We urge the Interior Appropriations 
Subcommittee to carefully scrutinize the proposed budget to ensure that 
there are no program cuts masked by the restructured accounting. Beyond 
the restructuring, we observe a shift away from traditional Survey 
functions such as water resource programs in favor of biological and 
ecosystem programs. While the study of amphibians, coral reefs, and 
other habitats is important, it is not within the traditional role and 
expertise of the Geological Survey and a large expansion into these new 
areas should not be accomplished at the expense of the more established 
aspects of the Survey's mission.
    Most specifically, we are concerned about proposed reductions in 
funding for the Survey's Federal--State Cooperative Program which is 
critical to maintaining the Federal--non-Federal partnership in the 
nation's water resources program. In Colorado, we rely on the local 
USGS districts to help identify and develop solutions to local water 
resource problems and data needs through the cost shared Cooperative 
program. The strength of the Federal--State Cooperative and stream 
gaging programs has always been their relevance to both local and 
basinwide needs. In a program where we fund fifty percent of the 
project costs, we make sure the money is spent solving real problems. 
We work with the local District personnel to jointly identify water 
resource problems then tailor the projects and stream gaging networks 
accordingly. Many times a problem perceived to be only local in nature 
proves to be also significant nationally. The Cooperative program has 
been instrumental in identifying these problems. The recent Survey 
report, ``A New Evaluation of the USGS Streamgaging Network,'' (USGS 
Report to Congress, dated November 30, 1998) cites the critical needs 
of the existing streamgaging network, and for additional water data and 
information gages for flood forecasting and warning, water quality and 
regional characterization of changes in flow. Reductions in the 
Cooperative program is contrary to recommendations in that report since 
reducing the amount of federal support will have a negative effect on 
the partnerships necessary to better understand the nation's rivers and 
streams.
    The Administration's proposed reductions in certain USGS Water Data 
Collection and Management activities will cause similar long-term 
problems. In particular, the infrastructure resources research program 
is helping to identify and evaluate alluvial groundwater resources in 
the South Platte Basin, and the watershed modeling studies which can be 
of both general and specific help as Colorado places increased emphasis 
on such models. Both of these important activities appear slated for 
budget cuts apparently designed to support newer Survey interests.
    There are many critical efforts underway in Colorado and throughout 
the basins we share with neighboring states that demonstrate the 
important role that the Water Resources Investigations programs play in 
managing the scarce water resources of the arid West.
  --Cost shared studies funded through the Federal/State Cooperative 
        Water Program underway or recently completed are addressing 
        issues raised in the litigation between Colorado and Kansas 
        over the use of the Arkansas River. The scientific analysis of 
        well pumping measurement methods conducted by the Survey should 
        provide a basis for improved cooperation between the states and 
        more efficient administration of the limited water supply in 
        the Arkansas Basin. Water users in Colorado will also benefit 
        from efforts to understand and quantify transit losses on the 
        Purgatoire River and investigations of recent high water table 
        conditions between Pueblo and the Colorado-Kansas stateline.
  --Increasing competition for water supplies in Colorado has led to a 
        demand for sophisticated water resource management models or 
        decision support systems. New modeling tools being developed by 
        Colorado for the San Luis Valley, the Colorado River Basin, and 
        the Platte River Basin rely heavily on extensive databases of 
        water information which would not have been possible without 
        the existing USGS records of historical streamflows and 
        groundwater measurements. Many of the stations at which the 
        Survey collected this data are funded through the Federal/State 
        Cooperative Water and/or the Hydrologic Networks and Analysis 
        programs. In addition to historical and ongoing data collection 
        the Survey is also participating in development of key model 
        components in areas where their expertise is particularly 
        valuable.
  --The Colorado River Basin Salinity Control Program is a coordinated, 
        basinwide approach to the reduction of salinity in the Colorado 
        River. To formulate a cost-effect salinity control program, it 
        is essential that both the quantity and quality of the Colorado 
        River be accurately understood. Sophisticated computer analysis 
        will allow us to project into the future and determine the 
        amount of salinity control that is needed, but only if we have 
        accurate, continuous data to start with. The federal agencies, 
        the seven basin states, and water users implementing salinity 
        control measures need timely, reliable data and analysis to 
        plan for the most cost-effective program possible. The 
        Geological Survey has proven its ability to provide the 
        necessary information and is a respected partner in the overall 
        control strategy.
                               conclusion
    We support and urge appropriations for the United States Geological 
Survey, Water Resource Investigations programs sufficient to maintain 
historical levels of basic hydrologic data collection and analysis. 
These programs serve an essential interstate function which the Survey 
has performed with a high degree of integrity and professionalism. 
These basic services should not be sacrificed in a effort to branch off 
into new areas. The western states and the nation will not be well 
served by a fragmented and decentralized data collection program. 
Unwarranted reductions in these longstanding basic data collection and 
analysis programs would be shortsighted and contrary to the national 
interest. We urge you to restore, increase and rebalance the level of 
funding provided for the USGS data collection activities. These funds 
are of critical importance to agencies such as ours across the country. 
Thank you for your consideration of this statement.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 18 years ago by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.
                     u.s. fish and wildlife service
    The President's fiscal year 2000 budget request for the U.S. Fish 
and Wildlife Service includes an increase of $1.5 million for the 
Mississippi River Basin Partnership, a new multi-program initiative 
designed to address the growing need for habitat restoration and 
associated activities in the large mid-continent area that drains the 
Mississippi, Ohio, and Missouri Rivers. The UMRBA strongly supports 
this new initiative, which will augment the Service's base programs 
that have been struggling to meet the most basic needs in the region.
    Ecological Services.--The fiscal year 2000 budget request for 
Ecological Services totals $198,750,000 nationally. Funding from this 
account supports the field offices in Rock Island, Illinois; the Twin 
Cities, Minnesota; and Marion, Illinois, that do most of the ecological 
services work on the Upper Mississippi River (UMR) and tributaries. In 
fiscal year 1999, approximately $340,000 in base funding was used to 
support the important UMR work of these offices. In fiscal year 2000, 
Ecological Services is scheduled to also receive $750,000 of the $1.5 
million funding proposed for the Mississippi River Basin Partnership. 
The funds will support critical work throughout the entire basin, 
including restoration of bottomland hardwood wetlands and degraded in-
stream habitat, early consultation on water resource development 
projects, and work with partners to address nonpoint and point source 
pollution impacts on habitats and wetlands.
    The UMRBA supports both the base funding for Ecological Services 
offices on the UMR, as well as the additional funds that are to be made 
available through the Mississippi River Basin Partnership. In addition, 
the UMRBA urges Congress to provide support for the following specific 
UMR efforts through earmarked increased appropriations of:
  --$1 million to support the Habitat Needs Assessment in cooperation 
        with the U.S. Army Corps of Engineers;
  --$500,000 to support water quality related studies;
  --$2 million over 5 years for habitat restoration in UMR watersheds, 
        in coordination with the Clean Water Action Plan; and
  --$1 million for relocating the endangered Higgin's eye pearly mussel 
        that is threatened with extinction due to the spread of the 
        invasive zebra mussel.
    Refuges and Wildlife.--The U.S. Fish and Wildlife Service 
administers 249,000 acres of land and water on the Mississippi River 
from the most northerly unit near Wabasha, Minnesota to the most 
southerly unit near Grafton, Illinois. This stretch of the river 
includes the Upper Mississippi River Wildlife and Fish Refuge, 
Trempealeau National Wildlife Refuge (NWR), Mark Twain NWR, and 
Clarence Cannon NWR. The existence of this extensive national refuge 
system is, in part, the reason that in 1986 Congress designated the 
Upper Mississippi River System as a ``nationally significant commercial 
navigation system and a nationally significant ecosystem.''
    The UMRBA supports the President's fiscal year 2000 budget request 
of $265.3 million for Refuge Operations and Maintenance, which reflects 
an increase of $27 million over the fiscal year 1999 funding level. 
From this amount, the refuges on the Upper Mississippi River are 
expected to receive a minimum of $5.621 million. This total includes 
base funding of approximately $3.1 million, plus additional funds for 
base and backlog maintenance, visitor facilities, invasive species 
control, and equipment replacement. Also included is a $1 million add 
for the UMR Refuges. UMRBA recommends that this add be allocated 
through the Refuge Operating Needs System (RONS). Funding through RONS 
will allow the enhanced level of spending to be used for increased 
survey and census work, moist soil management, wetland restoration, 
operation and maintenance of Environmental Management Program projects, 
visitor services, environmental education, and an enhanced refuge base 
of eight new positions.
    In addition, the UMRBA believes that funding for land acquisition 
for river refuges should be accelerated. None of the acquisitions 
scheduled in fiscal year 2000 through the Land and Water Conservation 
Fund are associated with refuges on the Upper Mississippi River. The 
Mark Twain NWR acquisition needs (80,000 acres) are currently ranked 
#24 out of 140 projects ranked by the Fish and Wildlife Service. The 
Upper Mississippi River Wildlife and Fish Refuge acquisition needs 
(35,000 acres) are ranked #82.
    Also, the UMRBA supports funding of $2 million from the Service's 
Construction account for an Upper Mississippi River Interpretive Center 
as part of the Mississippi River Museum in Dubuque, Iowa. Over $8 
million in private funds has already been secured for this facility, 
which will offer educational and interpretive services for the Upper 
Mississippi River National Wildlife and Fish Refuge.
    Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fishery Resource Offices. Fish stocking is 
done from the Genoa National Fish Hatchery in Genoa, Wisconsin and fish 
health concerns are addressed by the Fish Health Center in Onalaska, 
Wisconsin.
    The UMRBA supports the important work done by these offices and 
thus supports the funding increases which are proposed for the 
Fisheries Account in fiscal year 2000. Of the $79.8 million total 
proposed for Fisheries, approximately $600,000 in base funding is 
anticipated to be provided for the fisheries work on the Upper 
Mississippi River. In additional UMRBA strongly supports the funding 
which will be allocated to Fisheries from the $1.5 million total for 
the Mississippi River Basin Partnership. In particular, $275,000 is 
scheduled for work with partner agencies on fish passage; habitat 
restoration; and assessments of paddlefish, lake sturgeon, and 
freshwater mussels.
                         u.s. geological survey
    While the fiscal year 2000 budget request for the U.S. Geological 
Survey (USGS) reflects an overall net increase of $40 million over 
fiscal year 1999 funding levels, it is difficult to accurately assess 
the impacts of this change due to the fact that the USGS budget has 
been reorganized. Some of the restructuring, such as separating 
overhead costs from program costs is a welcome change. However, the 
UMRBA is concerned that the overall effect of this restructuring 
appears to be a shift to more centralized Department of Interior budget 
categories such as ``science support,'' at the expense of local 
district data collection efforts and federal-state cooperative 
activities. In addition, there are several specific research and 
monitoring programs in the Water Resources Division (WRD) and 
Biological Resources Division (BRD) that are of particular concern to 
the UMRBA.
    Biological Research.--The Biological Research and Monitoring budget 
of BRD is targeted for a reduction of $3.5 million in the Species and 
Habitat Protection account. Among the research projects slated for 
elimination is the grassland habitat research which was being done, in 
part, by the Upper Midwest Environmental Sciences Center (UMESC). The 
UMESC research initiated in fiscal year 1999 ($150,000) was evaluating 
the link between changes in wet meadow habitats and the dramatic 
decline of song bird populations. This research was focused on national 
refuge lands throughout the region and is thus of interest to UMR 
biologists. The UMRBA recommends that funding for this research be 
restored.
    Similarly, BRD funding for the Clean Water Initiative is proposed 
to be cut by $2 million, $350,000 of which was to have supported on-
going research by UMESC concerning biological impacts of nutrients. In 
particular, studies were underway to assess how the pooled portions of 
the UMR function to mitigate delivery of nitrogen and phosphorous to 
the Gulf of Mexico. This research is of interest, not only because of 
its relevance to Gulf hypoxia, but also because of increasing concern 
about the more local impacts of excessive nitrogen. In particular, 
there is growing evidence that nitrogen is affecting the quality of 
backwater fisheries habitat on the Upper Mississippi River. UMESC had 
begun to evaluate the beneficial impacts that the Corps of Engineers' 
experimental water level drawdowns may have on nitrogen concentrations. 
This research is critical to making wise management choices on the 
river and UMRBA thus recommends that funding for this work be 
reinstated in BRD's budget.
    The UMRBA supports the proposed $4 million increase in the BRD 
budget for amphibian research and monitoring. Because amphibians are 
considered good indicators of overall ecosystem health, it is important 
to understand the scope and severity of their decline and factors 
causing their deformity. A portion of this national amphibian research 
initiative will likely be conducted by UMESC. While we understand that 
the amphibian monitoring and research will be focused on federal lands, 
we expect the results to also be useful to the states, as they fulfill 
their natural resource management responsibilities.
    Water Resources Investigations.--The WRD budget for its National 
Water Quality Assessment Program (NAWQA) is of great interest to the 
UMRBA. Of the 51 study units currently underway nationwide, 4 are 
within the UMR basin: the Upper Mississippi, Eastern Iowa, Lower 
Illinois, and Upper Illinois River Basins. NAWQA study unit activities 
are guided by liaison committees composed of federal, state, and local 
water management agencies, as well as universities and citizen groups. 
Thus the study results are of use for a broad variety of management 
decisions. For example, the Missouri Department of Natural Resources 
uses NAWQA surface water data for monitoring compliance with Missouri's 
water quality standards. UMRBA urges Congress to make adequate funds 
available to complete work in the ongoing NAWQA study units and plan 
for reactivating efforts in the first set of study units begun in 1991, 
two of which are the Ozark Plateaus unit in Missouri and the Red River 
of the North study unit in Minnesota. The periodic reactivation of 
study units is a vital part of the NAWQA methodology.
    Also of interest to the UMRBA is funding in the Toxic Substances 
Hydrology account. Among other things, this budget category supports 
ongoing research on the occurrence, distribution, movement, and fate of 
agricultural chemicals in surface and groundwater systems of the 
Midwest corn and soybean producing areas. Within the budget account for 
Hydrologic Research and Development there are two interdisciplinary 
studies of particular interest for which UMRBA also supports funding. 
The first is a study of nitrogen transformation and transport in the 
Mississippi River Basin. While scientists believe that hypoxia in the 
Gulf of Mexico is related to nitrogen from the Mississippi River, it is 
unclear to what extent various sources of nitrogen contribute to the 
problem. The second study of interest focuses on carbon, nutrient, and 
sediment storage in lakes, reservoirs, and wetlands in the Mississippi 
River basin.
    The Hydrologic Networks and Analysis budget category includes a 
proposed increase of $400,000 for ongoing USGS study efforts related to 
the Gulf hypoxia/Mississippi River issue. UMRBA supports this funding, 
which will be used in fiscal year 2000 to provide better spatial 
definition of nutrient production and to improve the scientific methods 
for identifying nutrient sources and associated land uses. Also, as 
part of the USGS Atmospheric Deposition Program, scientists are 
attempting to estimate the relative significance of atmospheric 
nitrogen inputs in the Mississippi River drainage area. All of these 
various studies related to questions surrounding the relationship 
between Gulf hypoxia and nutrients in the Mississippi River Basin are 
of great interest to the UMRBA states. The effectiveness of alternative 
management actions will depend, in large part, upon whether we have 
accurately evaluated the cause/effect relationships and appropriately 
targeted the source of the problem. The states are deeply concerned 
about both the scientific and policy questions associated with the 
hypoxia/Mississippi River nutrients problem. The UMRBA has recently 
requested an extension of the review period for the scientific 
assessments which USGS and other federal agencies prepared under the 
auspices of the Committee on Environment and Natural Resources (CENR). 
We expect that both those studies and all future assessments done by 
USGS will be better coordinated with state scientists and policy 
makers.
    The UMRBA is also deeply concerned about the proposed cuts in the 
USGS Federal-State Cooperative program. While some of the proposed 17 
percent reduction in fiscal year 2000 can be attributed to the budget 
restructuring, there are $2.5 million in real program reductions. In 
the Federal-State Cooperative program, USGS provides funding for 
stream-gaging and interpretative studies which is matched by nonfederal 
cooperators. In 1998, $5.56 million was provided by USGS for Coop 
program activities in the five UMRBA states. However, local cooperators 
provided in excess of the required match, contributing $7.7 million. 
Clearly, this is a popular and useful program in our region. In 
addition, it is ironic that a recent USGS report to Congress on the 
stream gaging network cites the critical need for additional gages for 
flood forecasting and warning, water quality, and regional 
characterization of flow changes. Despite this recognized need, the 
USGS budget proposal for fiscal year 2000 recommends reducing federal 
support for monitoring the nation's rivers and streams. We urge 
Congress to restore and increase the level of funding for the Federal-
State Cooperative program.
                                 ______
                                 
    Prepared Statement of John E. Ebel, Ph.D., Director, the Weston 
                     Observatory of Boston College
    Mr. Chairman and members of the Subcommittee, I am the Director of 
Weston Observatory, a seismological and geological observatory that is 
part of the Department of Geology and Geophysics at Boston College, and 
I am also a Professor of Geophysics at Boston College. I am pleased to 
have this opportunity to submit testimony regarding the great 
importance of the National Earthquake Hazard Reduction Program (NEHRP) 
for earthquake hazard mitigation both in the northeastern United States 
as well as throughout the country as a whole. Weston Observatory has, 
as one of its missions, the goals of studying the earthquake activity 
in New England and vicinity and of using the results of that research 
to encourage earthquake hazard reduction activity throughout the 
region. Past NEHRP funding to Weston Observatory has provided the means 
by which my staff and I have been able to carry out this vital work, 
and future funding is essential if our ambitious plans for new 
earthquake mitigation activities are to be achieved.
    In this testimony, I will present three reasons why NEHRP funding 
should continue to be fully funded, and in fact should be substantially 
increased if possible. First, I will describe how past and current 
NEHRP funding has led to a major improvement in our understanding of 
the earthquake hazard and risk in the northeastern U.S. Second, I will 
explain how NEHRP has in the past, and continues today, to stimulate 
the public in the northeastern U.S. to take earthquake mitigation 
measures. Finally, I will explain some new Weston Observatory plans to 
develop systems for providing vital earthquake information and 
assessments in better and faster ways. Continued NEHRP funding is vital 
to the work not only of Weston Observatory but also of university and 
government research groups working throughout the country on seismic 
hazard and earthquake loss mitigation.
    (1) Long-term, dedicated, instrumental earthquake monitoring in the 
northeastern United States during the past two decades has led to a 
significantly better understanding of the earthquake hazard and risk in 
this heavily populated region of our country. Furthermore, continued 
earthquake monitoring in the years ahead will add substantially to our 
understanding of the earthquake threat in this region.
    I believe that the rapidly growing body of scientific and 
engineering studies and reports produced during the past two decades on 
earthquake hazard, earthquake risk and earthquake engineering in the 
northeastern U.S. attests convincingly to this statement. However, let 
me here give a few specific examples of the kinds of information about 
earthquake hazard (particularly about past earthquakes) that modern 
instrumental monitoring gives us.
    Instrumental earthquake monitoring has revealed that the area in 
New England that has experienced the largest number of small 
earthquakes since 1975 is located in central New Hampshire, roughly 
from Lake Winnepesaukee south about 25 miles to near Concord. The 
earthquakes trend roughly in a north-south direction, parallel to the 
Merrimack River in that area. We know from historic records that the 
pilgrims of Massachusetts, Rhode Island and Connecticut experienced a 
very strong and frightening earthquake in 1638. The most likely 
epicenter for this event in 1638 is somewhere in central New England. 
The modern earthquake band in central New Hampshire could be very late, 
``left over'' aftershocks of the strong 1638 earthquake. The length of 
this zone of current seismic activity is consistent with an earthquake 
of magnitude 6.5 to 7.0 in 1638, roughly the strength of the 
earthquakes that hit the San Francisco Bay area in 1989 and Northridge, 
California in the Los Angeles area in 1994. If such an earthquake were 
to occur today, it would be capable of causing damage to cities and 
towns in New Hampshire, Massachusetts, Vermont and Maine. Further 
seismological and geological studies are needed to find the direct 
geological evidence to confirm this theory for the location and size of 
the 1638 earthquake. Even without this confirmation, there is certainly 
strong circumstantial evidence for the occurrence of an earthquake of 
major magnitude in New Hampshire in 1638.
    In another example, on January 10 and 14, 1999 several small 
earthquakes (magnitudes between 2 and 3) took place. These shocks were 
centered near the town of Amesbury in northeastern Massachusetts, just 
a couple miles south of the New Hampshire border. The earthquakes were 
felt by local residents in both Massachusetts and New Hampshire, and 
they caused considerable concern among the population there. There was 
a strong earthquake (felt throughout all of New England) that was 
centered in this area in 1727; it is known as the Newburyport 
earthquake because that is the town that experienced the greatest 
damage during that 1727 event. From a scientific point of view, the 
1999 earthquakes are of extreme interest because the felt effects of 
these earthquakes were very similar to those of the aftershocks of the 
1727 earthquake. The modern residents reported that the 1999 
earthquakes were accompanied by very loud ``booms'' and were generally 
fairly noisy. This same type of description also was recorded in 
contemporary accounts for many of the aftershocks experienced shortly 
after the 1727 earthquake. The area over which the 1999 events were 
felt is very similar to the felt areas for the 1727 aftershocks. 
Finally, Amesbury is only about 5 miles from Newburyport. This evidence 
all suggests that the 1999 earthquakes are in the same place where the 
1727 earthquake was centered, strongly indicating the epicenter of that 
historic earthquake. With the modern, precise epicenter, we now have a 
locality where further seismic monitoring and geologic investigations 
should help us find the fault that was active in 1727, which has not 
yet been discovered.
    Finally, during the past two years, there have been several small 
earthquakes that have been detected from offshore of Cape Ann, 
Massachusetts. These are of great importance because they may be 
indicating the epicentral area of the 1755 earthquake. The 1755 event 
was a major earthquake that was felt from Nova Scotia to Maryland, and 
it caused damage in Boston, Portsmouth, New Hampshire and Portland, 
Maine. The epicenter of the 1755 earthquake, and therefore the fault on 
which it took place, is unknown, since the historic descriptions of 
that earthquake only suggest that the epicenter was probably somewhere 
offshore of Cape Ann. Thus, the continued detection of offshore 
earthquakes is vital if we are to identify the active fault on which 
this important historic earthquake took place, a fault that continues 
to pose a major seismic hazard to Boston today.
    (2) Long-term instrumental earthquake monitoring stimulates the 
public to engage in earthquake mitigation activities.
    I have been affiliated with Weston Observatory and Boston College 
for over 18 years, and there is no doubt in my mind that public 
awareness of the earthquake threat in the northeastern U.S. has 
increased substantially during those 18 years. I am also convinced that 
the federally-supported regional earthquake monitoring has directly led 
to this increased public awareness. I say this for several reasons. 
First, reporters, governmental officials, and members of the general 
public now generally are aware that we have earthquakes in New England 
and adjacent areas. In interviews, I am no longer asked questions like, 
``We really don't have earthquakes here, do we?'' Rather now, a more 
typical question is, ``I know we have little earthquakes, but do they 
mean that we could have a big one?'' Most persons recognize and 
correctly identify earthquake shaking when they feel it. Many are eager 
to provide Weston Observatory with information about what they felt in 
the hopes that the information will help our research. In 1981, people 
seemed much more skeptical that the northeastern U.S. was prone to 
damaging earthquakes. Today, there is little skepticism about the fact 
that earthquakes do take place in the region. I attribute much of this 
increased awareness to the steady, high-quality earthquake monitoring 
that has been carried out in this region since 1975. Several 
earthquakes are felt each year somewhere in New England, and press 
coverage and public interest are always high when earthquakes are felt. 
Regular access to reporters of earthquake monitoring facilities like 
Weston Observatory and of the local scientists studying the earthquake 
activity reinforces in the public mind that the earthquake activity is 
a hazard that needs to be taken seriously. Public reports of scientific 
research results on the earthquakes in the region also get widely 
reported and attract significant attention. It is the presence of 
continuous earthquake monitoring and the regular flow of information 
from that monitoring that has caused many to undertake earthquake 
hazard mitigation activities.
    Increased awareness of the earthquake hazard through seismic 
monitoring has certainly helped to encourage state and local officials 
to adopt seismic resistance in their building codes. New buildings, 
highway bridges, landfills, and waste treatment plants are now being 
designed and built in this region with some level of seismic 
resistance. The willingness of engineers to design to earthquake 
standards and of building inspectors and code officials to enforce 
those standards is due to the increased awareness of the earthquake 
threat in the region. This activity will undoubtedly lead to decreased 
losses in future earthquakes.
    The federally-supported earthquake monitoring and studies based on 
that earthquake monitoring have led to better earthquake planning at 
the state level in New England. As an example, a few years ago some 
colleagues and I at Weston Observatory wrote a report on the seismic 
hazard of the state of Vermont. That report was based largely on 
results gathered from the modern earthquake monitoring. There is now an 
ongoing project in Vermont to create a detailed map of the soils of 
Chittenden County, the most populous county in the state, using 
information gathered by the USGS and by the office of the Vermont state 
geologist. That map will be incorporated into the computer program 
HAZUS (from FEMA) by local planners to assess which parts of this most 
populous county in Vermont would experience the strongest shaking in 
future earthquakes. This information will then be used by state and 
local government officials in their earthquake hazard loss mitigation 
planning. To me, this project demonstrates how well earthquake 
monitoring by Weston Observatory dovetails with related efforts by FEMA 
and the USGS, with the end result being a New England state initiating 
its own study to mitigate the effects of strong earthquakes.
    (3) Increased funding for earthquake monitoring and for earthquake 
research is needed to improve the speed, quality, and usefulness of 
earthquake information to government officials and to the public. 
Increased federal funding over current levels is required if Weston 
Observatory is to successfully create information systems for the rapid 
dissemination of earthquake epicenters, magnitudes, felt areas, damage 
areas, and ground motions immediately following the occurrences of felt 
and damaging earthquakes.
    Weston Observatory is extremely supportive of current USGS 
initiatives to create near real-time earthquake information systems 
and, where practical, real-time earthquake warning systems. The USGS 
report ``A Plan for Implementing a Real-time Seismic Hazard Warning 
System'' calls for the development of a rapid notification system, 
where information on the epicenter, magnitude, felt and damage areas 
are issued within a few seconds to a few minutes after a strong 
earthquake occurs. The USGS draft report ``An Assessment of Seismic 
Monitoring in the United States: Requirement for an Advanced National 
Seismic System'' notes that such a warning system can only be developed 
if there is a significant infusion of new federal funds to upgrade and 
operate new seismic stations throughout the U.S. The goals of a near 
real-time earthquake information system for the New England region is 
achievable with the proper investment of funding, and Weston 
Observatory is already developing plans for such a system. The 
potential of such a system to assist emergency service agencies to cope 
with the effects of a large earthquake is enormous once such a system 
is in place. However, the development of such a system requires an 
investment in new technology as well as in research to develop and test 
the system.
    At the present time, when a felt or damaging earthquake takes place 
anywhere in New England, inquiries are sent from police, fire, or local 
emergency managers to their state emergency management agency. That 
agency contacts the Massachusetts Emergency Management Agency (MEMA) 
which in turn telephones Weston Observatory for verification of an 
earthquake and information about the event. Once Weston Observatory has 
a location and magnitude, that information is telephoned to MEMA, who 
relays it to the emergency management agencies in the other New England 
states. At Weston Observatory, all of the earthquake data from the 
regional seismic stations is gathered via internet or telephone and 
then read by a seismologist, who then locates the earthquake and 
computes its magnitude.
    Weston Observatory is currently developing plans for an automated 
system where the earthquake data from the seismic stations are 
automatically transmitted to Weston Observatory (via the Internet) and 
an initial estimate of the epicenter and magnitude is computed in a 
near real-time system without human intervention. Our goal is to 
develop a system that is sufficiently reliable that earthquake 
information such as an automatically-determined epicenter and magnitude 
would be sent in near real-time directly to MEMA and to the other New 
England state emergency management agencies through the Internet or 
through a beeper service. Weston Observatory is further interested in 
developing a system whereby maps with initial estimates of the felt and 
possible damage areas of earthquakes are automatically generated from 
the earthquake epicenter and magnitude, and these maps can also be 
automatically sent to MEMA and other agencies shortly after an event 
occurs. Because earthquakes in the northeastern U.S. are felt and have 
the potential to cause damage over very large areas (including many 
different states in a single earthquake), such an automated system 
would be of great value in helping emergency managers decide where 
emergency services are most immediately and critically needed following 
an earthquake. Systems similar to this are already operational in 
California, where a much greater number of seismic stations and a 
higher level of dedicated funding have enabled such systems to be 
developed.
    I believe that the automated earthquake information system 
described here can be developed for New England over a time period of a 
few years with the proper investment in new and improved earthquake 
monitoring stations and in the necessary research to complete the 
development and testing of the system. While some experience and 
software from such systems already implemented in other parts of the 
U.S. can be adapted for our system in New England, the particular 
geographic locations of our earthquakes, of our seismic stations, and 
of the way the seismic waves transmit through the geology of the region 
require that parts of a New England system must be created from 
scratch. We already have the plans and rudimentary tests of some 
components of such a system, but much more work is needed to make an 
automated earthquake information system, monitored by Weston 
Observatory, a practical reality in the New England area.
    As a participant in a USGS workshop that helped prepare the draft 
report ``An Assessment of Seismic Monitoring in the United States: 
Requirement for an Advanced National Seismic System'', I strongly urge 
that the recommendations of this report be implemented through 
increased federal funding for earthquake monitoring throughout the 
country. Improved near real-time earthquake information systems will 
undoubtedly stimulate much new earthquake loss mitigation activity in 
those areas of the country in which they are implemented. The rapid 
speed of modern communications along with the experience gained in 
operating near real-time earthquake information systems will make it 
possible for new earthquake warning systems to be developed. The goal 
of all of these efforts is to develop the capabilities to minimize 
earthquake disasters in the same way that hurricane, flood and storm 
warnings save lives and losses when those other kinds of natural 
disasters strike. Our country will benefit enormously from the 
implementation of a new Advanced National Seismic System.
                                 ______
                                 
                        Bureau of Indian Affairs
  Prepared Statement of W. Ron Allen, President, National Congress of 
                            American Indians
                              introduction
    Good morning Chairman Regula, Vice-Chairman Dicks and distinguished 
members of the Appropriations Subcommittee on Interior. Thank you for 
the opportunity to present testimony regarding the President's Budget 
Request for fiscal year 2000 Indian programs and services. My name is 
W. Ron Allen. I am President of the National Congress of American 
Indians (NCAI) and Chairman of the Jamestown S'Klallam Tribe located in 
Washington State.
            the president's fiscal year 2000 budget request
Department of Interior
            Bureau of Indian Affairs
    The President's fiscal year 2000 budget calls for $1.9 billion to 
be allocated to the BIA, an increase of $155.6 million over the fiscal 
year 1999 enacted level. The budget contains a request of $1.7 billion 
for the Operation of Indian Programs (OIP), a modest increase of $110 
million over the fiscal year 1999 enacted level. Another component was 
the request of $716 million for Tribal Priority Allocations (TPA), a 
$17 million increase over fiscal year 1999. However, as important as 
these increases are to tribes, and despite the apparent commitment to 
tribal self-sufficiency, self-determination and self-governance shown 
by the Administration in its budget request, this increase still falls 
short of providing adequate funding for critically needed tribal 
programs.
    Although the Administration's budget request for fiscal year 2000 
includes a $17 million increase in TPA over fiscal year 1999, this 
increase is inadequate to meet the vital needs of tribal governments. 
TPA budget activity includes the majority of funds used to support on-
going services at the local tribal level, including such programs as: 
housing, law enforcement, child welfare, education, natural resources 
management and other tribal government services. TPA gives tribes the 
flexibility to prioritize funds among these programs according to their 
unique needs and circumstances.
    Over the past two decades, very little funding has been added to 
TPA to allow exercise of self-determination and self-governance. 
Further, in fiscal year 1995, TPA was drastically cut and critical 
tribal programs and services were severely impacted. Since then, tribal 
governments have increasingly fallen behind in their ability to provide 
services in their communities. These budget reductions clearly are 
contrary to and undermine the successes tribal governments have 
achieved.
    Funding levels to TPA have yet to be restored to the fiscal year 
1995 level. The small increases to TPA over the past few years have not 
been adequate to keep pace with inflation. The failure of the 
Administration to include a significant increase in overall TPA for 
fiscal year 2000 continues to hinder tribal governments' ability to 
provide for the essential needs of their communities.
    Mr. Chairman, at the very least, the President's requested TPA 
increase must be supported by Congress. The enormous tribal program 
responsibilities associated with this budgetary category include the 
direct tribal operation of programs. Although the President's requested 
funding level for this budgetary category will help tribes address 
these needs, Congress is urged to increase the TPA budget category well 
beyond its current enacted level.
    Also of concern within the BIA is the issue of contract support 
costs. The moratorium imposed by Congress in fiscal year 1999 on any 
new or expanded contracts, compacts or grants under Pub. L. 93-638 
hampered many tribes' ability to continue their move towards self-
determination. The President's fiscal year 2000 budget request for 
contract support costs includes a very modest increase of $6.4 million 
to address the Bureau's continuing contract support cost shortfall, 
plus $5 million for the Indian Self-Determination Fund to address the 
contract support cost needs of tribes taking on new BIA programs. These 
sums are woefully inadequate to make any meaningful inroad into a 
shortfall that continues to penalize tribes which elect to operate BIA 
programs under the Self-Determination Policy. They are also 
insufficient to cover the contract support costs associated with the 
new fiscal year 1999 tribal law enforcement initiatives to be 
transferred to Tribes in fiscal year 2000.
    Per NCAI Resolution #MRB-98-036, Congress and the Administration 
are respectfully urged to reconsider these sums in fiscal year 2000 to 
finally close the gap in contract support cost funding. Although 
Congress is encouraged to support the President's increase, at a 
minimum, it is still just a small step in moving tribes back into the 
position of operating, on their own, the important programs which serve 
their communities.
    Another major area of concern is BIA construction funding. The $174 
million request called for in the President's budget must be supported 
by Congress. As we reported to Congress last year, our schools, health 
facilities, courts, police and fire departments all have facilities 
that are in desperate need of repair and/or replacement. Included in 
this request is an increase of $30 million for school construction. 
This will allow tribal communities the ability to address the vital 
needs of their children and improve the environments in which they 
learn. NCAI also supports the President's budget request for continued 
new funding for Public Safety and Justice construction.
    Further, many tribal communities are still awaiting much needed new 
construction project funding to rehabilitate or replace a variety of 
facilities, including high cost projects such as dams, power plants and 
other infrastructure renovations. The President's budget requests $22 
million for the repair of high hazard dams on Indian lands. As reported 
by the BIA, these dams pose significant threat of loss of life, and at 
minimum, significant economic damage, both on and off Indian 
reservations. The Federal government is responsible for the maintenance 
of these structures and is ultimately liable for any damage which may 
occur as a result of their hazardous condition.
    Each year, BIA facilities face increased safety hazards which must 
be addressed through proper maintenance and re-engineering projects 
that all require adequate levels of funding. The President's request of 
$174 million for BIA construction projects is a laudable first step.
    As reported to Congress last year, the management of Indian trust 
lands is in dire need of reform. The BIA manages over 55 million acres 
of land, 170,000 individual tracts of land, 100,000 active leases, 
350,000 land owners, and 2 million owner interests. According to the 
BIA, the allocation of new resources is designed to ``close the books 
on Indian trust management problems as we enter the next century by 
completing the replacement of core trust management systems, including 
the complete cleanup of all trust records in the Trust Asset and 
Accounting Management System (TAAMS).'' NCAI supports the fiscal year 
2000 budget request of $100 million for the Office of Special Trustee, 
which will provide $65.3 million for continued implementation of the 
Trust Management Improvement Project.
    The Administration and Congress' attempts to empower tribal 
governments to assume more management responsibilities over tribal 
program and service operations, create tribal jobs and develop 
sustainable economies that lead Indian Country into greater self-
sufficiency are very commendable goals, and ones that are clearly 
shared by tribal governments. However, without adequate federal 
appropriations these objectives will not be achieved. Increased funding 
for programs and services under the BIA budget must be provided to 
ensure that the basic needs of this nation's first citizens are 
adequately met and our collective goals for a stronger economic base in 
Indian Country are fully realized.
            Economic Development
    Under the Indian Financing Act of 1974, as amended, guaranteed 
loans, direct loans, and grants were established for economic 
development in Indian Country. Unfortunately, since 1996 the grant 
programs and the direct loan programs have not been funded. As a 
result, the only program remaining under this Act is the guaranteed 
loan program.
    Economic development conditions on reservations are dire. With 
welfare reform in full force, sustainable economic development is even 
more essential. Tribes need to develop economic development plans to 
reduce the severe impacts on tribal members and tribal governments. 
However, raising capital to start businesses on reservations is very 
difficult. Under the Indian Financing Act (IFA), grant money was used 
for technical assistance, but more importantly grant money was used as 
leverage for other federal programs. For example, the Department of 
Agriculture has a loan program that guarantees from 70 percent to 90 
percent of the loan. Even though a majority of the loan is guaranteed, 
many Indian individuals and tribes still have difficulty raising the 10 
to 30 percent equity needed to secure the loans. If the IFA grant 
program was still in existence, it could be combined with other federal 
loan programs allowing greater participation by individual Indians and 
tribes. Therefore, through NCAI Resolution #GB-98-004, NCAI requests at 
least $20 million be appropriated to reestablish the IFA grant program.
    Through NCAI Resolution #MRB-98-080, NCAI also requests that 
Congress appropriate $10 million specifically for funding the BIA 
Office of Economic Development for the purpose of providing training 
and technical assistance for the development and expansion of 
reservation business.
            Indian Education
    NCAI commends the Administration for its continual investment in 
Indian education. President Clinton has proposed a total investment of 
$503.6 million for BIA school operations, an increase of $27.5 million 
over fiscal year 1999. This increase in school operations allows the 
BIA to educate approximately 12 percent of the American Indian K-12 
population and will cover additional costs for teachers, 
transportation, and operations resulting from the growing student 
population in Indian Country. Of the $1.4 billion request for the 
hiring of 100,000 new teachers, the President proposes to spend $6 
million to recruit, hire and train BIA teachers in order to reduce 
class size in the early grades. The fiscal year 2000 school operations 
budget supports the President's Executive Order 13096 on American 
Indian and Alaska Native Education which commits to improving the 
academic performance and reducing the dropout rate of Indian students.
    The recent Indian Education Executive Order also cites the need for 
creating strong and safe environments for Indian students. To help meet 
this goal, and in accordance with the President's call for 
modernization of our schools, the Administration has requested $108.4 
million for BIA education construction, a significant increase of $48 
million over fiscal year 1999. This increase will assist in the 
replacement and repair of some of the 185 BlA-funded schools on 
reservations where 53,000 Indian students are currently learning in 
facilities that present serious health and safety threats. According to 
the Inspector General's office, Indian schools were in significantly 
worse shape than even inner city schools. Included in this increase is 
a new $30 million Indian School Construction Bonding Initiative which 
will provide critically needed funds for addressing the growing backlog 
of health and safety deficiencies, which currently exceeds $800 
million, at BlA-funded elementary and secondary schools. Although NCAI 
urges Congressional support for S. 7, the Public Schools Excellence 
Act, as it would allow tribes to utilize the funding to issue qualified 
school construction bonds or other taxable bonds to replace or repair 
BlA-funded schools, this measure and other various school bonding 
proposals continue to lack bipartisan support. Therefore, NCAI 
recommends that the federal government, which is responsible for the 
education of American Indian and Alaska Native students attending BlA-
funded schools, authorize and appropriate sufficient funds to complete 
all Indian education construction requests.
    The remaining $78 million in school construction funds will assist 
in replacing older, unsafe, and dilapidated schools, including the 
replacement construction of Fond du Lac Ojibway School in Minnesota and 
Seba Dalkai School in Arizona. NCAI fully endorses the notable funding 
increase request for school construction; however, with two-thirds of 
the education facilities over 30 years old, and more than one-quarter 
over 50 years old, the backlog continues to grow. Therefore, by NCAI 
Resolution #MRB-98-084, NCAI calls upon the Congress to support a 5-
year construction plan of the Department of Interior to eliminate the 
deferred maintenance backlog of need by increasing education facilities 
construction, repair, and maintenance budgets for fiscal year 2000 to 
fiscal year 2004 and to fully fund BIA-funded school construction 
within the next five years.
    The following are NCAI's fiscal year 2000 budget recommendations 
for the following BIA Indian education programs.
    Tribal Priority Allocations (TPA): 1. Adult Education. This program 
continues to be one of the most underfunded Indian education areas by 
the federal government. For fiscal year 2000, the Administration 
proposes $2.6 million for Adult Education; however, the need is $5 
million to adequately fund tribally-based adult education programs. The 
BIA estimates that approximately 20,000 Indian adults who did not 
finish high school participate in the program in order to obtain their 
General Educational Development (GED) degree.
    2. Johnson-O'Malley (JOM) Program. The fiscal year 2000 request is 
$18 million, the same as fiscal year 1999. The funding need for this 
program should not be less than $25 million in order to provide 
supplemental educational services for 272,000 American Indian students 
in 23 states.
    3. Scholarships. The fiscal year 2000 request of $29 million for 
undergraduate scholarships for American Indians has increased only $2 
million since 1996 and does not allow for the increase in the number of 
Indian students wishing to enter college or the increase in tuition 
costs which are out pacing inflation. The needs of Indian students 
pursuing post-secondary education are often neglected, especially when 
critically-needed programs are cut or eliminated such as the Department 
of Education's Office of Indian Education Fellowship Program.
    Generally, the needs of American Indians tribal higher education 
programs have not been funded at stable and/or adequate levels, and 
inadequacy of funding is becoming more problematic under the TPA 
system. Therefore, per NCAI Resolution #MRB-98-075, NCAI calls for the 
increase in TPA allocation nationally for higher education.
    Other Programs: 1. Indian School Equalization Program (ISEP) 
Formula. The President's fiscal year 2000 request is $312 million for 
this program, which provides formula-based funding for 185 BIA-
operated, grant, and contract elementary and secondary schools. The 
requested amount would provide $3,199 per Weighted Student Unit (WSU) 
compared to $3,125 per WSU in school years 1997-98. NCAI supports a 
funding level of $3,500 per WSU and request an funding increase to meet 
this level.
    2. Student Transportation. The fiscal year 2000 request for student 
transportation is $38.8 million, a $4 million increase over fiscal year 
1999. In fiscal years 1997-98 the BIA-funded transportation cost was 
$1.98 per mile with 15,197 miles (School Year 1996-1997) driven for day 
and boarding schools. According to the latest School Bus Fleet 
information, the national average for student transportation costs in 
school year 1993-94 was $2.94 per mile for public schools. Therefore, 
the BIA-funded schools, which are located primarily in rural, isolated 
areas, are at least $.96 below the national per mile average.
    3. Tribal Departments of Education. The fiscal year 2000 budget 
request, as in years past, does not include funding to assist tribes in 
planning and developing their own centralized tribal administrative 
entities as authorized by Pub. L.103-382, the Improving America's 
Schools Act. Per NCAI Resolution #MRB-98-003, NCAI recommends at least 
$3 million for tribal departments of education to accomplish the 
original intent of the 1994 Act. This would be appropriate given the 
recent trend to convert more and more schools from BIA to tribal 
control.
    4. Tribal Colleges/Post Secondary Schools. The President's fiscal 
year 2000 request for Tribally-Controlled Community Colleges is $38.4 
million, a $3 million increase over 1999. NCAI supports $40 million 
which would provide for an additional $7 million for TCCC Operating 
Grants.
    5. Post Secondary Schools. The fiscal year 2000 request is $14.3 
million and is an increase over fiscal year 1999 of $2.5 million. The 
request includes funding for Southwestern Indian Polytechnic Institute 
(SIPI) and Haskell Indian Nations University. No longer in the post 
secondary schools category is the United Tribes Technical College 
(UTTC). NCAI requests that the amount for Haskell be increased to $10 
million since it is the only national institution dedicated solely to 
the post secondary needs of Indian students.
            Public Safety and Justice
    Of critical importance in the fiscal year 2000 BIA budget request 
is public safety on reservations. As this Committee is well aware, 
tribal governments are in desperate need of resources to combat crime 
within their communities. Last year, Congress provided $20 million to 
the BIA to begin addressing the law enforcement needs of Indian 
Country. This year, the Administration is requesting another $20 
million increase for the continuation of this ``multi-year'' 
Presidential Initiative. Along with the increase in BIA funding for 
Indian Country law enforcement comes a requested $124 million in the 
Department of Justice for law enforcement on reservations. NCAI also 
supports the President's proposed increase of $2.6 million for tribal 
courts. Adequate funding for tribal courts is critical to ensuring the 
quality of Indian Country law enforcement efforts through a 
strengthened tribal judicial system.
            Trust Funds Management
    The President's fiscal year 2000 budget request includes $100 
million for the Office of the Special Trustee for American Indians 
(OSTAI), a significant increase of $60.5 million over the current 
enacted level. Over $88 million of this proposal targets OSTAI program 
operations, with $65.3 million of that figure directed at further 
implementing the Trust Management Improvement Project. According to the 
BIA, this project includes a complete overhaul of the Trust Asset and 
Accounting Management System (TAAMS) currently used to manage trust 
asset accounts.
    Other proposals include a $10 million continuance fund for the 
Indian Land Consolidation project and a reclassification of over $2 
billion in tribal trust funds to the ``non-budgetary'' status, similar 
that of Individual Indian Monies (JIM) accounts. This reclassification 
serves to specifically acknowledge tribal ownership over these trust 
fund accounts, while affecting no change to the Secretary's obligations 
to service them.
    We recommend the President's budget increase to help the OSTAI 
improve the Secretary's management of these accounts and to meet his 
goal of correcting a 70-year-old Indian trust fund mismanagement 
problem. However, the recent turn of events surrounding the Special 
Trustee's resigning under protest over the Secretary's decision to 
rearrange administrative authority over trust funds management is of 
major concern to tribes. The Secretary's actions seem to usurp 
Congress' intent to provide the Special Trustee with more independent 
authority over trust fund management activities. Proper management of 
Indian Trust Funds continues to elude the federal government, even 
though Congress and the Administration have attempted to correct this 
dysfunction.
    Total reform of the current trust fund management system may be the 
only formidable solution at this point. However, legislation introduced 
in the 105th Congress as H.R. 2732, the Tribal Trust Fund Settlement 
Act of 1998, failed to propose adequate solutions to the mismanagement 
of outstanding trust accounts. This prompted the NCAI General Assembly 
to adopt NCAI Resolution #GRB-98-054, which opposes H.R. 2732 and urges 
Congress and the Administration to meet further with tribes to 
formulate legislation that will fairly and fully compensate tribes for 
the damages they have suffered due to the federal government's 
mismanagement practices over outstanding trust fund accounts.
    NCAI strongly encourages the Congress and the Trustee to work more 
collectively with tribes to find an end to these mismanagement 
practices and begin reconciling outstanding accounts. The longer we 
wait, the more assured it is that the overwhelming amount of mismanaged 
and unidentified trust fund accounts will never be reconciled. 
Therefore, it is in the best interest of all parties that the 
reconciliation of IIM and trust land asset accounts are resolved 
immediately. NCAI urges Congress and the Administration to stay 
committed, as tribes are, to achieving these goals:
            Indian reservation roads
    Funding for the Indian Reservation Road (IRR) program, which funds 
the construction and maintenance of public roads that provide access to 
and within Indian reservations, Indian trust lands, restricted Indian 
land and Alaska Native villages, is of critical importance to Indian 
Country. On average, only $500 per mile and in some cases as little as 
$80 per mile is available for Indian roads maintenance. In comparison, 
an average of $2,200 is spent on maintaining other federal roads, and 
an average of between $2,500 and $4,00 per mile is spent by states. The 
BIA has only been appropriated $25 million a year for maintenance of 
all reservation roads in the United States. As a result of insufficient 
funding, many roads in Indian communities are not sufficiently 
maintained and have to be shut down during the winter or become 
impassable other times throughout the year. The deteriorating road 
systems negatively affect the health and economic viability of all 
tribal communities.
    Mr. Chairman, the Congress should fund the IRR program at an 
absolute minimum of $300 million annually, as has been recommended by 
both the tribes and the BIA. This would begin the process of addressing 
the backlog of road construction projects. NCAI also urges Congress to 
provide $15 to $20 million annually for Indian reservation bridge 
construction and repair programs. These funds should come from the 
national bridge repair program and not from the IRR allocation. 
Finally, as a matter of policy, tribes should be provided direct access 
to the various federal discretionary programs, such as scenic by-way 
funding, highway safety, mass transit, and other programs.
            Agriculture
    In 1986, the BIA and the Department of Interior were directed to 
submit to the Congress a report on the effectiveness of Federal and 
tribal agriculture and range programs on the national level. This 
report was developed through direct consultation with tribes and was 
submitted to Congress in September of 1986. The ``Indian Agriculture 
Working Group'' was established by the BIA consisting of tribal 
representatives with experience in agriculture and ranching. After a 
review of all the national agriculture polices was conducted and 
hearings were concluded, thirty-two recommendations were submitted to 
the BIA. Subsequently, nearly all of these recommendations were 
included in H.R. 1425, the American Indian Agricultural Resource 
Management Act (AIARMA), which was enacted into law as Pub. L. 103-177.
    The purpose of AIARMA is to require the Secretary of the Interior 
to provide for improved management of Indian agricultural lands by 
working with Indian tribes to carry out numerous programs. AIARMA 
required that an independent assessment of Indian agriculture land 
management practices be conducted as well as final regulations be 
enacted within 18 months of the law being passed; to-date, neither have 
been completed. Other articles include: a preference to Indian 
operations for issuance and renewal of agricultural leases, the 
establishment of an Indian and Alaska Native agricultural education 
assistance program, and the development of a ten-year agriculture 
resource management plan for each tribe's land.
    The primary purpose of Pub. L. 103-177 was to establish a policy 
for the BIA for management of Indian trust lands. As a basis for that 
policy, a need assessment to determine necessary budgeting and staffing 
targets was required. To this date, no assessment has been completed. 
Until this is done, Congress and the Departments will not have a clear 
direction in their responses to the Indian demand of rectifying this 
problem.
    In 1994, the appropriated budget for this Act was $1 million 
dollars, ultimately increasing to $16 million by 1998. To this date, no 
funds have been appropriated for this act. The need for agricultural 
assistance in Indian Country is immense and a land management plan is 
imperative. Therefore, NCAI urges Congress to provide the funds to 
fully support Pub. L. 103-177.
    In 1996, another essential act was passed. The Food Agriculture 
Improvement Reform Act (Pub. L. 104-127), set forward an opportunity 
for an Indian borrower who is facing foreclosure, to transfer the loan 
to either the BIA or the borrower's respective tribe. Such transfers 
are not available under the present BIA policy. At this time, 
approximately 60,000 acres of Indian trust lands are in danger of being 
moved out of trust status through foreclosure. To prevent this, the 
regulations under Pub. L. 104-127 must be promulgated immediately. NCAI 
therefore requests that the appropriate actions be taken.
            BIA General Assistance Program
    The 1996 Interior Appropriations Bill included language which 
capped BIA General Assistance (GA) program expenditures. Such 
inadequate and limited appropriations have forced BIA and tribal social 
service programs to cut caseloads, leaving many potential recipients 
unserved. The enactment of recent welfare reform legislation (Pub. L. 
104-193) places increasing strain on this program. As tribal members 
exhaust benefit time limits in Temporary Assistance for Needy Families 
(TANF) programs, many urban families will return home to their 
reservation and their family support network. They will also apply for 
GA, as they are no longer eligible to receive TANF. Without increased 
funding, GA cannot serve currently eligible tribal members in desperate 
need of support, let alone accommodate newly eligible recipients.
    For the last several years, the BIA has been in the process of 
revising 25 CFR Part 20, ``Financial Assistance and Social Service 
Program,'' which regulates, among other programs, the General 
Assistance program. In June 1998, the BIA made available a working 
draft of the regulations and met with tribes in Green Bay, Wisconsin, 
for a day and a half to introduce the draft to tribes and to hear 
initial comments. In this forum, tribal leaders and social service 
directors voiced concerns about the dramatic impact the proposed 
revisions would have on tribal communities. Participants strongly 
objected to the lack of tribal input into the draft, the late release 
of the draft, and the lack of advanced notice for the introductory 
meeting. By far, the most substantial compliant was the lack of tribal 
consultation for regulations which propose to dramatically reduce the 
safety net program, General Assistance, which serves Indian people.
    To date, no consultation plans have been released. Tribal 
communities are greatly concerned that the lack of adequate 
consultation on the part of the BIA will lead to a lack of 
understanding of tribal needs. Tribes anticipate that the 
administration will propose draft regulations that reduce the ability 
of tribal communities to sustain tribal members who are in need. For 
example, draft proposals that would make the General Assistance program 
unavailable to persons who have been sanctioned or terminated from an 
applicable TANF (Temporary Assistance for Needy Families) program for 
any reason, including an inability to find employment, are strongly 
objected by tribes.
    Tribal communities already manage scarce resources and stretch 
those as far as possible. Further reductions in program funding and 
proposed program restrictions in a recently released draft of the 
revised 25 CFR Part 20 serve to undermine the Congress' intent of the 
General Assistance program and seriously threaten the quality of life 
in tribal communities. NCAI Resolution #GRB-98-003, calls upon the BIA 
to increase consultation and negotiations with tribal leaders over any 
proposed changes to 25 CFR Part 20, prior to any proposed social 
service regulations being forwarded to the Office of Management and 
Budget for clearance on publication in the Federal Register as a Notice 
of Proposed Rule Making.
                               conclusion
    Mr. Chairman, we urge the Congress to fulfill its fiduciary duty to 
American Indians and Alaska Native people and to uphold the trust 
responsibility as well as preserve the Government-to-Government 
relationship, which includes the fulfillment of health, education and 
welfare needs of all Indian tribes in the United States. This 
responsibility should never be compromised or diminished because of any 
Congressional agenda or party platform. Tribes throughout the nation 
relinquished their lands as well as their rights to liberty and 
property in exchange for this trust responsibility. The President's 
fiscal year 2000 budget request acknowledges the fiduciary duty owed to 
tribes. We ask that the Congress to maintain the federal trust 
responsibility to Indian Country and continue to aid tribes on our 
journey toward self-sufficiency. This concludes my statement. Thank you 
for allowing me to present for the record, on behalf of our member 
tribes, the National Congress of American Indians' initial comments 
regarding the President's fiscal year 2000 Budget. I will be happy to 
answer any questions you may have at this time.
                                 ______
                                 
 Prepared Statement of Hilton G. Queton, Executive Director, American 
                Indian Graduate Center, Albuquerque, NM
    Mr. Chairman and Members of the Subcommittee: The American Indian 
Graduate Center (AIGC) of Albuquerque, NM is pleased to submit 
testimony in support of the Bureau of Indian Affairs' (BIA)--Special 
Higher Education Scholarship Program (SHEP). AIGC, since 1969, has been 
the only national scholarship program dedicated to serving American 
Indians and Alaskan Natives in graduate study. AIGC, as current 
contractor for the SHEP program, is respectfully requesting $3.5 
million for the BIA's graduate scholarship program in the fiscal year 
2000 Budget. This amount would allow AIGC to provide financial 
assistance to 600 students in the 1999-2000 academic year.
                               background
    AIGC is a national, non-profit Indian organization established in 
1969 to assist American Indian and Alaskan Native students needing 
financial aid for graduate school. Nearly 90 percent of all SHEP funds 
goes directly to program services, and 10 percent or less is for 
administrative costs. The American Indian Graduate Center also raises 
funds from private sources for fellowships.
    There have been over 8,000 students served by this program in 30 
years. For the 1996-97 academic year, AIGC awarded 276 students with 
$1.3 million. In fiscal year 1996 Congress reduced our funding by 50 
percent, from $2.6 million to $1.3 million. The fiscal years 1998-1999 
funding remained at $1.3 million. Due to the devastating cut in 
funding, AIGC was unable to assist any new applicants for the fiscal 
year 1997. AIGC could only fund continuing students that year. There 
were over 1410 requests for applications from new students for the 
1998-99 academic year, AIGC was able to fund 245 of the requests. Many 
of these students not funded by AIGC were unable to continue their 
graduate education and will probably never be able to continue. The 
increasing numbers of students will substantially reduce the amount 
each student receives. This, coupled with the increased cost of 
education will have a significant impact on the student's ability to 
remain in school. As the Indian undergraduate student population 
increases, this program will not be able to assist them in advancing 
their skills without increased funding. Former recipients of this 
program, such as Lorraine Edmo, Executive Director of NIEA and former 
Assistant Secretary, Ada Deer, are successful leaders in the Indian 
community that have benefited from this program.
    The American Indian Graduate Center, Inc is governed by an eight 
member all Indian board of directors that are from all areas of the 
country, who attend meetings on a volunteer basis and contribute to the 
organization as well. A listing of the current board members is 
attached.
    The report in ``Indian Nations at Risk: An Educational Strategy for 
Action,'' issued by the Department of Education in October of 1991 
stated: ``An increase in funding to train Native educators for 
elementary, secondary, and university teaching and other Professions in 
science. mathematics. law. engineering, and medicine. business. the 
social sciences. and related fields is a national Priority,'' is needed 
for the tribal communities throughout the country. These will be 
trained, Indian professionals who are not only critical to the well-
being of American Indian communities, but to the country as a whole. We 
all know that Education is the key ingredient to self-sufficiency.
                 current funding and student statistics
    For the current 1999 fiscal year the contract amount is $1,187,000. 
The following is a breakdown of the number of BIA students and their 
fields of study from the 1997-98 academic year and preliminary figures 
for the 1998-99 academic year.

                      1997-98 ACADEMIC YEAR--FINAL
------------------------------------------------------------------------
                                                              Number of
                       Field of study                          students
------------------------------------------------------------------------
Business...................................................           26
Education..................................................           41
Engineering................................................            6
Health.....................................................          111
Law........................................................           90
Natural Res................................................            4
Other......................................................           42
Number of Males............................................          131
Number of Females..........................................          190
Total Tribes Represented...................................           97
Total Colleges Represented.................................          148
Masters Candidates.........................................          123
Doctorate Candidates.......................................          194
Dual Degree Programs.......................................            4
                                                            ------------
      Total................................................          321
------------------------------------------------------------------------


                   1998-99 ACADEMIC YEAR--PRELIMINARY
------------------------------------------------------------------------
                                                              Number of
                       Field of study                          students
------------------------------------------------------------------------
Business...................................................           25
Education..................................................           20
Engineering................................................            4
Health.....................................................           72
Law........................................................           71
Natural Res................................................            2
Other......................................................           51
Number of Males............................................           98
Number of Females..........................................          147
Total Tribes Represented...................................           96
Total Colleges Represented.................................          129
Masters Candidates.........................................          110
Doctorate Candidates.......................................          130
Dual Degree Programs.......................................            5
                                                            ------------
      Total................................................          245
------------------------------------------------------------------------

    Applicants to AIGC must apply for campus-based aid through the 
federal financial aid process. AIGC limits assistance to only a portion 
of a student's unmet need. The unmet need last academic year was $3.9 
million compared to this year's unmet need of $6.7 million. The average 
award this 1998-99 academic year was only $3,980, which represents a 
small percentage of their costs. Over the last three years there has 
been a reduction in our maximum award from $8,000 to $4,000 because of 
the increasing number of eligible applicants and escalating college 
costs.
    We have administered the SHEP at a cost-effective level for the 
past ten years. The low overhead costs are due to a well-trained staff 
and the use of modern computer technology. This has enhanced our 
ability to service our students. We have perfected our methods of 
delivering services, office procedures and internal systems. We are 
confident we can continue to successfully administer the Special Higher 
Education Grant Program in a highly efficient manner.
                            summary request
    The American Indian Graduate Center asks that the Senate fund the 
Special Higher Education Grant program in the BIA budget for $3.5 
million in fiscal year 2000. This funding level would bring the program 
to a level of funding comparable to fiscal year 1995. It would allow an 
additional 300-graduate scholarship awards to be made and also allow us 
to raise the average fellowship to $5,000 each. AIGC is the only 
national non-profit scholarship entity, which funds American Indians 
and Alaska Natives in all fields of study. There is no other 
organization that Indian people can turn to for funding for graduate 
school, other than the health fellowships provided by the Indian Health 
Service. INS only funds those graduate students in health fields.
    We appreciate this committee's past support and we want you to know 
that your efforts will help to ensure a pool of skilled professionals 
who can return to their communities and work on improving the economic 
conditions on Indian reservations and urban Indian communities.
                                 ______
                                 
             Prepared Statement of the Rosebud Sioux Tribe
    The Rosebud Sioux Tribe is a federally recognized Indian Tribe 
located in south central South Dakota. The Rosebud Sioux Reservation 
was established in 1887 as the homelands of the Sicangu Lakota band of 
the Great Sioux Nation. The reservation is home to over 31, 680 tribal 
members residing both on and off the reservation.
    For many years the Rosebud Sioux Tribe has considered the education 
of tribal members to be a major priority. As a result of establishing 
education as a high priority Rosebud Sioux Tribal members have the 
highest education level of any Indian tribe in the United States. 
(U.S.Census Bureau, 1990) This could not have been accomplished, nor 
can it be maintained without the support of federal dollars.
    Ninety percent of Rosebud tribal children attend public schools 
located in five public school districts located on the reservation and 
in the former reservation areas which have significant tribal 
populations. Over three thousand tribal children are enrolled in these 
public schools. All of these schools rely on Impact Aid to provide 
basic education services to tribal children. Title IX (Indian Education 
Act) funds, Title I funds and Johnson-O'Malley funds provide 
significant services to Rosebud tribal children.
    An additional six hundred tribal students attend one tribal school 
established under the authority granted by Public Law 100-297. St. 
Francis Indian School relies totally on federal dollars from the Bureau 
of Indian Affairs/Office of Indian Education Programs for their basic 
funding.
    Drop-out rates and student achievement are two concerns that the 
Rosebud Sioux Tribe continues to struggle with. One third of all tribal 
children attending school will drop-out before they reach the tenth 
grade. One half of the ninth graders will fail one or more classes 
during their first year of high school. Only one third of the Seniors 
graduating each year are achieving at grade level. Tribal children 
cannot read at grade level. Adult literacy is a primary problem. Only 
sixty percent of tribal parents will ever attend Parent-Teacher 
Conferences.
    Schools serving tribal children encounter many problems that are 
the result of extreme poverty. Violence, alcohol/substance abuse, and 
lack of basic needs are the results of poverty. Tribal children often 
do not have their basic needs for food, shelter and clothing met, thus 
are less likely to be able to learn. Health problems are prevalent 
because of poor living conditions, and inadequate health care compounds 
the problems. Attendance becomes a problem for many children. Parents 
spend a great deal of time trying to access resources to take care of 
their families' basic needs, thus do not have the time or energy left 
to be involved in their child's education. Economic conditions have a 
devastating effect on the lives of tribal children.
                     title vii, impact aid program
    Todd County School District is the primary provider of education 
for 2,150 tribal children. Todd County School District operates eight 
elementary schools, one middle school and one high school. Funding for 
the Todd County School District comes in the form of state aid, local 
taxes and federal sources. Todd County School District relies heavily 
on Impact Aid funds from the Department of Education because over one 
million acres of land in Todd County are non-taxable Indian and federal 
lands. It is estimated that Todd County School District could only 
operate for three months without Impact Aid dollars and other federal 
sources derived from providing education services to tribal children.
    The Rosebud Sioux Tribe urges Congress to support the President's 
2000 Budget Request for $684 million for Impact Aid. We also urge 
Congress to maintain the 1.25 weighted student unit that is in the 
current formula for federally impacted Indian schools.
    Johnson-O'Malley Programs and Title IX Programs are important 
programs that assist students in succeeding in school. The supplemental 
funds are used to connect schools to tribal families, to provide 
tutoring for tribal children in need of additional help, and to provide 
culturally relevant education services that alleviate the alienation 
that tribal children encounter in schools. Without the services that 
these programs provide to tribal children far more students would drop-
out of school or fail in their studies. Tribal families would have 
little involvement in or connection to their children's education. 
These two programs could be considered equalizers that permit tribal 
children to ``belong'' in their schools and allow tribal parents to 
design programs that they feel their children need to stay in school 
and to succeed in their studies.
    The Rosebud Sioux Tribe supports the President's fiscal year 2000 
Budget Request for the Office of Indian Education at $77 million. 
Formula grants to LEA's are important to children attending public 
schools, but we were pleased to see that funding was also requested for 
Special Programs for Indian Children and National Activities. The 
Rosebud Sioux Tribe would like to see funding restored to $83 million 
with funds for all authorized Indian Education Act programs, including 
Adult Education, American Indian Fellowships with full funding to 
NACIE, as well as the Tribally Controlled Colleges Executive Order.
    Six hundred tribal children attend the one tribal school located on 
the Rosebud Reservation. St. Francis Indian School is funded under the 
authority granted by Public Law 100-297. St. Francis Indian School 
operates totally on federal dollars. St. Francis Indian School is a K-
12 school. Although St. Francis Indian School has a new facility, when 
the students moved into the new facility it was already too small, thus 
overcrowding is a problem for the school. They have tried to solve the 
problem with portable classrooms, however this cannot be a permanent 
solution. The service area of the tribal school is the entire 
reservation and the former reservation area, because of this service 
area, St. Francis Indian School buses travel in excess of 2,000 miles 
per day transporting students to school. Transportation costs for St. 
Francis Indian School are enormous. It is difficult to maintain safe 
buses because of the number of miles traveled each day, thus the 
Student Transportation funds provided by the BIA/OIEP are extremely 
important to St. Francis Indian School. Individual Student Equalization 
Program (ISEP) provides the base funding for St. Francis Indian School. 
The current formula is $1,200 less than the average student cost rate 
in the state of South Dakota, yet the school is attempting to provide 
quality education services, high standards and excellent, well-trained 
teachers. If tribal children attending tribal and BIA schools are to 
have equal opportunities for high quality education, then the federal 
government must live up to its treaty obligations and provide equitable 
funding that will allow tribal and BIA schools to perform with high 
standards.
    The Rosebud Sioux Tribe supports increases in the fiscal year 2000 
Presidential Budget for BIA/OIEP programs, especially the ISEP formula 
funds and the school construction funds requested by the President.
    The Tribal Priority Allocation (TPA) provides funds for education 
in the form of scholarships, adult education, adult vocational training 
and supplemental funds to Tribally Controlled Community Colleges.
    Scholarships for tribal students are extremely important to the 
Rosebud Sioux Tribe. If we are to have a trained workforce capable of 
competing in the 21 Century, we need tribal members with college 
degrees. In fiscal year 1999 the Rosebud Sioux Tribe was unable to fund 
over 100 tribal members who applied for scholarships because of the 
lack of sufficient funding for scholarships. Scholarships are an 
important source of funding for tribal students because most tribal 
families do not have financial resources or credit histories which 
support student loans. Very few tribal students are able to obtain the 
benefits of the U.S. Department of Education's loan programs. The 
current unmet need for the Rosebud Sioux Tribe is $400,000.
    The Rosebud Sioux Tribe asks that Congress provide $30 million for 
Scholarship funds in the Tribal Priority Allocation.
    Although the Rosebud Sioux Tribe has a high educational level, the 
Tribe relies heavily on Adult Education programs to provide GED 
diplomas to those tribal members who have dropped out of school before 
receiving a high school diploma. Welfare Reform has compounded the 
number of people needing a GED. The fiscal year 2000 Budget request for 
the TPA has a slight decrease for Adult Education, however, with the 
elimination of Adult Education funding in the Indian Education Act 
funding, the amount requested in the BIA/TPA is insufficient to meet 
the needs of Rosebud Sioux Tribal members. The current unmet need for 
the Rosebud Sioux Tribe is $150,000.
    The Rosebud Sioux Tribe requests that Congress $5 million in the 
fiscal year 2000 Bureau of Indian Affairs budget for Adult Education 
programs.
    The Johnson-O'Malley Program is extremely important to tribal 
children. The JOM Program assists tribal students with supplementary 
programs, designed by parents, to prevent drop-outs, increase academic 
performance, provide home-school coordination, and work with substance 
abuse problems. These are problems that are partially the 
responsibility of the Bureau of Indian Affairs, yet the BIA fails to 
provide sufficient funding for the program year after year. The current 
unmet need for the Rosebud Sioux Tribe is $177,000.
    The Rosebud Sioux Tribe requests that Congress provide $24 million 
for the Johnson-O'Malley Program in fiscal year 2000.
    The Adult Vocational Training Program is a highly necessary program 
for tribal students wanting to attend a vocational training school, 
however this program has always been gravely underfunded. Welfare 
Reform has created an increased need for this program. It will now be 
necessary for tribes to assist former welfare clients in becoming 
employable within a very short time span. Vocational programs provide a 
means of quickly helping people gain skills to become employable. The 
current unmet need for the Rosebud Sioux Tribe is $312,000.
    The Rosebud Sioux Tribe requests that Congress provide $14 million 
for Adult Vocational Training in the Tribal Priority Allocation of the 
Bureau of Indian Affairs.
    Tribal nations have long desired to improve education for their 
children. Recently, many tribes have developed Tribal Education Codes 
in order to regulate education within their tribal nations. In order to 
administer and implement Tribal Education Codes tribes have developed 
Tribal Education Departments to provide functions similar to State 
Departments of Education. Although both the Bureau of Indian Affairs/
Office of Indian Education Programs and the U.S. Department of 
Education are authorized to provide funding to Tribal Education 
Departments, neither agency has done so. The Rosebud Sioux Tribe has a 
dire need for funding for their Tribal Education Department. Since 
1991, the Rosebud Sioux Tribe has requested funding from the Bureau of 
Indian Affairs at a level of $225,000. The Rosebud Sioux Tribe is 
hereby requesting that Congress provide funding for Tribal Education 
Departments in both the Bureau of Indian Affairs budget and in the U.S. 
Department of Education budget. The current unmet need for the Tribal 
Education Department of the Rosebud Sioux Tribe is $225,000.
    The Rosebud Sioux Tribe requests that Congress provide $4 milllion 
in funding for Tribal Education Departments within the Bureau of Indian 
Affairs Tribal Priority Allocation.
    Tribal College funding has always been a primary concern for the 
Rosebud Sioux Tribe. Sinte Gleska University, the Rosebud Sioux Tribe's 
tribal college, has had a tremendous impact on education on the Rosebud 
Sioux Reservation. In order to continue the development and delivery of 
services from the University, it is necessary for them to have 
sufficient funds to operate.
    The Rosebud Sioux Tribe is requesting that funding for Tribally 
Controlled Community Colleges (Schnyder Act) funding in the Tribal 
Priority Allocation be increased. The current unmet need for Sinte 
Gleska College is $3 million. We also urge Congress to increase the 
Tribal College basic funding within the Bureau of Indian Affairs /
Office of Indian Education Programs budget.
    The President has requested $48 million for school construction 
bonds for tribal schools. The Rosebud Sioux Tribe supports this budget 
request, and humbly requests that Congress provide the funding 
requested.
    The President has also requested funds for a class size reduction 
initiative and has requested funds to train and put 1,000 new teachers 
in tribal and BIA schools. The Rosebud Sioux Tribe supports this 
initiative, however, without additional school construction there will 
be no classrooms in which to place the new teachers.
    The Rosebud Sioux Tribe is requesting that Congress provide funding 
to the Rosebud Sioux Tribe to construct a new tribal school, which will 
serve 400 students in grades K-12. This facility is needed to 
accommodate the projected growth in student populations over the next 5 
years and to attempt to provide appropriate high quality tribal 
education to tribal students. Current schools will not have the space 
to accommodate the growth in the Rosebud Sioux Tribe's population, nor 
have they been successful in educating tribal children.
                                 ______
                                 
Prepared Statement of Earl Havatone, Chairman, Hualapai Tribal Council 
                               of Arizona
    The Honorable Slade Gorton, Chairman of the Sub-Committee and all 
distinguished Senate members, on behalf of the Hualapai Tribe, we 
appreciate the opportunity to request additional funding from the 
Department of Interior budget for our tribal projects which total 
$11,075,069. We are pleased to report that Hualapai, with your past 
support, has nearly completed an aggressive integrated Tribal 
management initiative, which has resulted in progressive management of 
our social services, and the environment, including the protection of 
cultural resources, and the sustainable development of our unique 
natural resources.
    However, funding priorities set by the Department of Interior are 
not always responsive to the unique circumstances of the Hualapai 
Tribe. We are requesting Congress for additional funding which will 
assist the Hualapai in achieving a higher degree of economic 
independence and well-being. We simply ask bipartisan support to 
prepare the Tribe for the 21st Century and true self-determination. In 
light of the recently reported projections of an $8 billion dollar 
federal surplus, there is now a means to satisfy some of the critical 
needs that the Tribe has testified about in the past ten years. The 
following programs need your attention and additional support:
    BIA. Housing Improvement Program, $250,000.--This program requires 
additional funding to repair and renovate existing homes that were 
built in the 1970's or later.
    BIA-Indian Child Welfare Act Program, $150,000.--Additional funding 
is needed in this program to employ one (1) legal advocate and 
logistical support to protect our children.
    BIA-Johnson O'Malley, $150,000.--This program supports educational 
services, incentive programs, educational community projects and youth 
programs currently enrolled in four (4) off-reservation school 
districts.
    Headstart $500,000.--This program provides early childhood 
instructional education, medical screening and health maintenance for 
our most valuable resource our children.
    Elderly Program (Title III & XX & Title VI) $115,069.--This program 
provides hostel services, cultural activities and congregate food 
services for our elderly.
    Comprehensive Health Program $450,000.--This program needs 
additional funding for three (3) contract programs: Alcohol Program, 
Community Health Nurse Program and Mental Health Program. We need 
funding to combat the high rate of alcoholism and drug abuse among our 
youth. In addition, we have a high rate of diabetes including an 
increasing amount of dialysis patients, which necessitates the 
increased funding needs for diabetes prevention education.
    Ambulatory Care Clinic $2,500,000.--The Hualapai Tribe needs 
funding to construct an ambulatory health care facility, including 
equipment, staff and logistic support. The current CDBG/HUD funds are 
not adequate to address the needs of our Tribe.
    IHS Emergency Medical Services $400,000.--Additional funding is 
needed for 24 hour, seven days a week medical services for our 
community.
    Women's Infant & Children (WIC) $25,000.--We need additional 
funding to provide for infant nutritional program and other medical 
aid.
    Family Violence $80,000.--We need funding to provide protective 
services for abused women and children that are placed in shelters and 
safe houses.
    BIA-Roads Maintenance and Repair $500,000.--The Tribe is 
responsible for approximately 300 miles of reservation roads. We need 
$200,000 for operation and maintenance, and $300,000 to replace 
equipment that is antiquated beyond repair.
    BIA-Structure Fire Program $90,000.--This program has been 
retroceded to BIA operations due to inadequate funding, and is in need 
of additional funding.
    Selected BIA-Consolidated Tribal Government Programs (CTGP) (not 
including Natural Resources discussed below) $1,000,000.--Funding is 
needed for existing CTGP programs of Higher Education, Tribal Work 
Experience, Tribal Court, Adult Vocational Training, Tribal Operations, 
Summer Youth Programs.
    Natural Resources Department $850,000.--Our Natural Resources 
Department is in dire need of a facility in order to integrate all of 
the its management, administration and services. The departmental 
offices of Agriculture, Cultural Resources, Forestry, Environmental 
Services, Water Resources, Wildlife Fisheries and Parks and 
Environmental Protection are now located in substandard buildings that 
are or will be condemned. The Tribe is requesting $600,000 to build an 
``Earthship Complex Facility'' that will house all departmental offices 
in a central location in order to provide better service to tribal 
members, Federal, State and local governments. With funding support 
from the EPA, the Tribe has completed the first ``earthship'' of this 
complex, constructed with tribal natural resources (timber and 
flagstone) as well as recycled tires and cans encased in earth with 
passive solar applications, solar panels. A small investment of 
$600,000 will provide an environmentally sound demonstration project 
that can be used as a model for other tribes and the general public to 
follow nationwide.
    We submitted to the Phoenix BIA Area Office a funding request for 
our Natural Resources General 638 Contract, which includes $900,000 for 
start up costs. However, we only received $15,000 from the BIA, and per 
the recommendation of Phoenix Area Of lice, we have resubmitted our 
request. For tribal management of nearly 1,000,000 acres of the 
reservation lands, the Tribe needs a congressional earmark of $250,000 
for our Natural Resources program, which is the funding equivalent of 
$0.25/acre. The BIA funded the contract for $6,000 in fiscal year 1997 
and $10,000 in fiscal year 1998 & fiscal year 1999. This funding 
averages about $0.008/acre which is a ridiculously low average compared 
to the average of $1.50/acre that Federal agencies receive for their 
land management.
    We need the $250,000 to staff and administer the Tribe's on-going 
coordination and cooperation efforts relating to land management with 
more than 25 Federal, State and local and private entities. Without a 
specific earmark for Natural Resources, the Tribe will be forced to 
rely on limited program dollars to fund this function.
    BIA-Water Resources $675,000.--In late 1991, the Hualapai Tribal 
Council initiated a program to quantify and manage our scarce water 
resources through a 638 contract. Survival in the desert Southwest is 
entirely dependent upon reliable water resources and sound water 
management. Yet, the 638 funding criteria for fiscal years 2000-2001 
does not adequately address this pressing need. In fact, we have not 
received an allocation for fiscal year 1999, and we fear that our water 
resources program may soon be without funding to carry out the needed 
work.
    We request $675,000 this coming year to continue our water 
assessment and to begin to litigate/negotiate our water rights on the 
Colorado River and in the Gila River adjudication.
    Wildlife Fisheries and Parks Department $1,215,000.--The projected 
fiscal year 2001 budget of the Hualapai Wildlife Fisheries and Parks 
Department is $1,215,000 and is not likely to be funded within the 
BIA's fiscal year 2001 allocations. The Tribe is responsible for the 
management and protection of one million acres within the Grand Canyon. 
The amount we are requesting will be used to complement the management 
goals of the Grand Canyon National Park, including expanding and 
enhancing recreation opportunities and visitor services. Funds are 
needed to supplement existing available resources for the Hualapai 
Wildlife, Fisheries and Parks Department, and will be used accordingly:

                                                                  Amount
Native Fish Rearing Facility Construction.....................  $490,000
Biological Survey and Training Education......................    75,000
Peach Springs Canyon Recreation Facilities....................   250,000
Base Program/Wildlife, Fisheries & Parks......................   400,000

    Forestry $675,000.--Ninety percent of the funding for our 638 
Contract Forestry Program has come from unbended forest development 
congressional add-on monies. This source of funding was appropriate 
when our main emphasis was in forest development, but we have shifted 
the direction of our forestry program since the completion of our 
Forest Management Plan.
    The Hualapai Tribal Forest Management Plan (1987-1996) includes an 
annual budget of $675,000 for all forestry activities, including: 
$375,000 for timber sale preparation and administration, $125,000 for 
management plans and inventories, and $175,000 for forest development.
    We respectfully ask that Congress fulfill the intent of the 1990 
Indian Forest Management Act (PL 101-630) by funding the activities 
outlined in our BIA-approved Forest Management Plan. Accordingly, we 
request an annual appropriation of $675,000 earmarked through the 
Tribal Priority System for the Hualapai timber sale and management plan 
programs administered through our Forestry Program.
    Agriculture $500,000.--We plan in the next 3 years to begin 
repairing our reservation boundary fence, which is approximately 228 
miles long. We need $100,000 to fund the beginning phase of this 
project as well as continual funding to complete the project. We also 
propose to rebuild the Tribal Stockyard, which was originally built in 
the 1950's and which requires $150,000 for restoration purposes. We 
need a congressional earmark of $500,000 for support of the Hualapai 
Agriculture Program.
    Cultural Resources $250,000.--Pursuant to the Native American 
Graves Protection and Repatriation Act of 1990 (25 U.S.C. 3001 et 
seq.), the Hualapai Tribe has been receiving and responding to 110 
different repatriation inquiries from museums across the country that 
have items that may belong to the Tribe. To preserve and protect our 
cultural resources that we repatriate under Federal law, we need funds 
to construct a temperature-controlled facility to house these 
materials. The funding will also be used for support staff and office 
space for our growing Cultural Resources Department.
    BIA Environment Trust Resources $750,000.--We need funds to 
reconstruct a waterline soldered with lead and to provide a long-term 
base for the environmental programs. This waterline is the only 
secondary backup domestic source of drinking water for the town of 
Peach Springs and its reconstruction is estimated to cost $350,000. The 
Environmental Services & Environmental Protection Programs are new 
tribal programs that we created to address the staggering backlog of 
NEPA compliance documents required for all federally funded programs. 
We need an additional $400,000 to provide base funding for the Tribe's 
top ten environmental priorities. The Tribe has nearly completed a 
Tribal Environmental Review Code (with 13 subtitles) through an ANA 
Grant. The Tribe has also identified and assessed the entire 
reservation wetlands and watersheds through an EPA Grant. And, we have 
begun a non-point pollution control program through EPA and ADEQ. The 
primary concern that we have with these sources of funds is that they 
are competitive grant projects. Without a continuing base funding from 
the BIA Trust Resource Account funds, our environmental programs will 
cease to exist and we will be unable to protect the environment for 
future generations to come. Therefore, we respectfully request that 
funding be set aside for the Hualapai Tribe Environmental Protection 
Program in BIA Trust Resources in the amount of $750,000.
    The Hualapai Tribe is very proud of the extraordinary progress it 
has made in less than a decade with what amounts to a relatively modest 
Federal trust investment. We are confident and dedicated to the goal 
that a small tribe, surrounded as we are by bountiful natural 
resources, can achieve a goal of self-determination. We believe that we 
will achieve our goal with your assistance, and we appreciate the your 
consideration of our written testimony. Thank you.
                                 ______
                                 
 Prepared Statement of Vincent Randall, Chairman, Yavapai-Apache Nation
    Thank you for the opportunity to provide this testimony on the 
fiscal year 2000 Appropriations Bill for the U.S. Department of 
Interior, Bureau of Indian Affairs.
    The Yavapai Apache Nation supports the President's Budget for 
fiscal year 2000 for the Bureau of Indian Affairs and for the Indian 
Health Service.
    Our tribe particularly supports the continued and increased funding 
of the initiative on Law Enforcement in Indian Country. The need for 
improved law enforcement services in Indian Country has been widely 
documented showing that Indian citizens living on the reservations do 
not receive even the minimum level of law enforcement services taken 
for granted in non-Indian communities. For example, with an estimated 
population of 1,430,000 in Indian Country, the police officer to 
citizen ration (2.9 officers per 1,000 citizens) would require at least 
4,290 police officers, an increase of 50 percent over the current 
number of 2,000 sworn officers in Indian Country. There is a need for a 
large infusion of financial resources to make public safety in Indian 
Country comparable to the rest of America. The budget increase in 
fiscal year 2000 is the second year of the four-year initiative.
    The Bureau of Indian Affairs' Law Enforcement Initiative was 
formulated in partnership with the Department of Justice (DOJ) to 
ensure maximum usage of the Federal dollar. Working together, the BIA 
and DOJ's respective budget requests complement each other to ensure 
that efforts are not duplicated and funding can be provided to tribes 
on a more expansive basis. It is essential that the next step of the 
improvements to law enforcement be funded in the fiscal year 2000 
appropriations act.
    We also want to bring to your attention the critical need for Road 
Construction and Road Maintenance funding for Indian lands. Tribes can 
not be successful in economic development without adequate 
transportation systems. While the Bureau of Indian Affairs has received 
a slight increase nationally in road construction funds from the 
Transportation Efficiency Act for the 21 Century (TEA-21), the funding 
for tribes under the jurisdiction of the BIA Phoenix Area Office has 
decreased by more than 50 percent from the funding provided under the 
Intermodal Surface Transportation Efficiency Act (ISTEA). The funding 
for the BIA Phoenix Area was reduced from $26 million per year to $16 
million per year. The Yavapai Apache Nation has immediate needs for 
street improvements and new street construction.
    BIA Road Maintenance funds are also critically inadequate to 
provide even the most basic maintenance of the roads and streets in 
Indian Country. Highway standards are not being met on the large 
majority of reservation roads. Tribes do not receive any of the Highway 
Users Roads Funds (HURF) collected through taxes collected by States 
and Counties on the sale of motor fuels even though the tribes and 
tribal members pay such taxes. The Yavapai Apache Nation's streets 
continue to deteriorate from lack of maintenance. A review of the 
funding process for BIA Roads Maintenance program might be of benefit.
    We do appreciate your listening to our concerns and your efforts to 
improve standards of living in Indian Country.
                                  _____
                                 
Prepared Statement of Thomas Siyuja, Chairman, Havasupai Tribal Council
    Thank you for the opportunity to provide this testimony on the 
fiscal year 2000 Appropriations Bill for the U.S. Department of 
Interior, Bureau of Indian Affairs.
    The Havasupai Tribe supports the President's Budget for fiscal year 
2000 for the Bureau of Indian Affairs and for the Indian Health 
Service.
    Our tribe particularly supports the continued and increased funding 
of the initiative for Law Enforcement in Indian Country. Fiscal year 
2000 is the second year of the four-year implementation period. The 
need for improved law enforcement services in Indian Country has been 
widely documented showing that Indian citizens living on the 
reservations do not receive even the minimum level of law enforcement 
services taken for granted in non-Indian communities. Our tribe will 
certainly benefit from improvement in law enforcement services.
    Our Tribe is working hard to improve our academic standards at the 
Havasupai School. However, we can not do so unless we can attract and 
retain qualified teachers and school administrators. We do not have 
adequate housing available for teachers which is the primary cause 
ofturnover exceeding 100 percent per school year. We are a remote 
location and all tribal housing is occupied, usually with extended 
families, in overcrowded conditions. We propose to demolish two 
antiquated and condemned buildings and replace them with two 4-plex 
apartment type units. These two units will meet all of our housing 
needs for the non-local school staff.
    We request a one-time appropriation in the BIA Office of Indian 
Education Programs in the amount of $1,200,000 to demolish two existing 
buildings and replace them with two 4-plex apartment buildings. The 
schematics, drawings, and cost estimates have been developed and 
provided to the BIA.
    We also want to bring to your attention the critical need for Road 
Construction and Road Maintenance funding for Indian lands. Tribes can 
not be successful in economic development without adequate 
transportation systems. While the Bureau of Indian Affairs has received 
a slight increase nationally in road construction funds from the 
Transportation Efficiency for the 21 Century (TEA-21), the funding for 
the tribes under the jurisdiction of the BIA Phoenix Area Office has 
decreased by more than 50 percent from the funding provided under the 
Intermodal Surface Transportation Efficiency Act (ISTEA). The funding 
for the BIA Phoenix Area was reduced from $26 million per year to $16 
million per year.
    BIA Road Maintenance funds are inadequate to provide even the most 
basic maintenance of the roads and streets in Indian Country. Highway 
standards are not being met on the large majority of reservation roads. 
Tribes do not receive any of the Highway Users Roads Funds (HURF) 
collected through taxes collected by States and Counties on the sale of 
motor fuels even though the tribes and tribal members pay such taxes in 
most States. The Havasupai Tribe requests the Interior Appropriations 
Subcommittee review the need for Roads Maintenance funding and the 
resultant deterioration of most reservation roads and streets.
    We do appreciate your listening to our concerns and your efforts to 
improve standards of living in Indian Country.
                                 ______
                                 
Prepared Statement of James M. Tutt, President, Crownpoint Institute of 
                       Technology, Crownpoint, NM
    This testimony addresses appropriations to the U.S. Department of 
Interior, Bureau of Indian Affairs, Activity: Special Programs and 
Pooled Overhead, Subactivity: Community Development. This testimony 
also addresses the separate category of BIA Contract Support, which we 
understand automatically accompanies community development 
appropriations.
    On behalf of the students and the community served by the 
Crownpoint Institute of Technology in Crownpoint (CIT), New Mexico, I 
thank you, Chairman Gorton, and the Members of this Subcommittee who so 
kindly provide the opportunity for outside witnesses to present written 
testimony and recommendations.
    The focus of CIT's testimony is the national education funding 
policy of the Bureau of Indian Affairs carried out under appropriations 
made by the Interior Subcommittee. First, I want to express our 
appreciation to this Subcommittee for enabling the operation of 
tribally controlled vocational education, as well as other tribal 
educational institutions. However, we believe that this Subcommittee 
may not be aware of the absence of a fair policy in the distribution of 
the funds that Congress appropriates for this purpose.
    Currently, the Congress through the Interior Subcommittees 
appropriates more than $2 Million for the operation of postsecondary 
tribal vocational education institutions. For fiscal year 2000, the 
Administration budget request is $2.3 Million for Adult Vocational 
Training to tribally controlled vocational institutions. There are only 
two such institutions in the nation, and that total number has remained 
unchanged for two decades. It is also our understanding that an 
automatic indirect cost, or contract support, accompanies this 
appropriation. This indirect cost equates to approximately 23 percent 
of the base appropriation. Although it originates from a separate 
category of the BIA budget, it automatically adds funds to the direct 
appropriation and augments those limited finds.
    CIT recognizes the generosity of the Congress in its appropriations 
to tribally controlled vocational education but wishes to bring to the 
subcommittee's attention the urgent fact that the entire appropriation 
for postsecondary, vocational training is earmarked to one institution, 
the United Tribes Technical College in Bismarck, North Dakota. The 
Crownpoint institute of Technology (CIT) in Crownpoint New Mexico is 
one of the only two tribally controlled postsecondary vocational 
institutions in our nation. CIT and UTTC are analogous as tribally 
chartered postsecondary vocational education institutions and identical 
in eligibility under the law that funds only one of the two 
institutions. While we recognize that Congressional appropriations must 
have limits, it is discriminatory and violates Congress' own education 
policies to totally exclude one tribal institution, and arbitrarily 
earmark the entire appropriation to another institution that is serving 
the exact same function for Indian students, just from another tribe in 
a different State.
    The Crownpoint Institute of Technology is equally eligible under 
the law that authorizes the appropriation of these funds to the United 
Tribes Technical College in North Dakota. The authorizing law cited is 
the Adult Indian Vocational Training Act (Public Law 84-959). There is 
nothing in this brief 1956 law that would preclude CIT from also 
benefiting, or for that matter, that would justify favoritism to only 
one eligible institution. The Indian Adult Vocational Training Act 
authorizes ``the sum of $3,500,000 for each fiscal year, and not to 
exceed $500,000 of such sum shall be available for administrative 
purposes.'' This authorization would seem sufficient to generously 
contribute training funds to two eligible institutions.
    This ``Indian Adult Vocational Training Act'' is clearly intended 
to fund the costs associated with ``. . . institutional training in any 
recognized vocation or trade'' to help ``adult Indians who reside on or 
near Indian reservations obtain reasonable and satisfactory 
employment.'' CIT's mission is identical to that set forth in this law.
    CIT has outstanding success statistics. CIT is the only vocational 
institution on the Navajo Nation. It primarily serves the Navajo 
population, but is open to and welcomes non-native students as well. In 
past years, CIT has retrained displaced uranium workers from nearby 
towns as just one example of its service to the non-native communities. 
Currently, CIT enrolls 437 students. Of the student body, 51 percent 
are men and 49 percent are women. The average student age is 26, 
although the range has been from age 18 to 64. CIT also offers a small 
day care center for these single parent students, but because of budget 
constraints cannot fully meet the need for day care services.
    CIT is fully accredited by North Central Association of Colleges 
and Schools; the same accrediting agency utilized by dominant society 
educational institutions. CIT offers rigorous educational training 
programs developed to respond to high-demand employment opportunities. 
CIT's programs culminate in one-year certificates or two-year Associate 
degrees. There is only one primary difference between CIT and dominant 
society vocational educational institutions, and this difference is 
that CIT is geographically accessible to reservation residents and 
offers a culturally sensitive learning environment that includes such 
features as instructors bilingual in English and Navajo is the everyday 
spoken language of this region.
    The Crownpoint Institute of Technology (CIT) is also a tribally 
chartered postsecondary institution. Founded in 1979 as the Navajo 
Skill Center, the institution changed its name in 1986 to more 
accurately reflect its evolution from a jobs training center into a 
full-fledged vocational technical college, during which period CIT 
earned fill accreditation from North Central Association of Colleges 
and Schools. CIT offers thirteen certificate vocational and technical 
programs, as well as two-year programs culminating in Associate 
Degrees. These programs are. Administrative Assistant, Accounting , 
Building Maintenance, Carpentry, Computer Technology, Culinary Arts, 
Electrical Trades, Environmental Technology, Heavy equipment Mechanics, 
Legal Advocate, Natural Resources, Nursing Assistant and Veterinary 
Assistant.
    The Crownpoint Institute of Technology is equally eligible under 
the law that authorizes the appropriation of these funds to the United 
Tribes Technical College in North Dakota. The authorizing law cited is 
the Adult Indian Vocational Training Act (Public Law 84-959). There is 
nothing in this brief 1956 law that would preclude CIT from also 
benefiting, or for that matter, that would justify favoritism to only 
one eligible institution. The Indian Adult Vocational Training Act 
authorizes ``the sum of $3,500,000 for each fiscal year, and not to 
exceed $500,000 of such sum shall be available for administrative 
purposes.'' This authorization would seem sufficient to generously 
contribute training funds to two eligible institutions.
    This ``Indian Adult Vocational Training Act'' is clearly intended 
to fund the costs associated with ``. . . institutional training in any 
recognized vocation or trade'' to help ``adult Indians who reside on or 
near Indian reservations obtain reasonable and satisfactory 
employment.'' CIT's mission is identical to that set forth in this law.
    CIT has outstanding success statistics. CIT is the only vocational 
institution on the Navajo Nation. It primarily serves the Navajo 
population, but is open to and welcomes non-native students as well. In 
past years, CIT has retrained displaced uranium workers from nearby 
towns as just one example of its service to the non-native communities. 
Currently, CIT enrolls 437 students. Of the student body, 51 percent 
are men and 49 percent are women. The average student age is 26, 
although the range has been from age 18 to 64. CIT also offers a small 
day care center for these single parent students, but because of budget 
constraints cannot fully meet the need for day care services.
    CIT is fully accredited by North Central Association of Colleges 
and Schools; the same accrediting agency utilized by dominant society 
educational institutions. CIT offers rigorous educational training 
programs developed to respond to high-demand employment opportunities. 
CIT's programs culminate in one-year certificates or two-year Associate 
degrees. There is only one primary difference between CIT and dominant 
society vocational educational institutions, and this difference is 
that CIT is geographically accessible to reservation residents and 
offers a culturally sensitive learning environment that includes such 
features as instructors bilingual in English and Navajo is the everyday 
spoken language of this region.
    The Crownpoint Institute of Technology is also a tribally chartered 
postsecondary institution. Founded in 1979 as the Navajo Skill Center, 
the institution changed its name in 1986 to more accurately reflect its 
evolution from a jobs training center into a full-fledged vocational 
technical college, during which period CIT earned full accreditation 
from North Central Association of Colleges and Schools. CIT offers 
thirteen certificate vocational and technical programs, as well as two-
year programs culminating in Associate Degrees. These programs are. 
Administrative Assistant, Accounting, Building Maintenance, Carpentry, 
Computer Technology, Culinary Arts, Electrical Trades, Environmental 
Technology, Heavy equipment Mechanics, Legal Advocate, Natural 
Resources, Nursing Assistant and Veterinary Assistant.
    CIT programs are overseen by Boards of Advisors who are industry 
officials and community leaders involved with the economic sector and 
in particular with private industry. This consistent involvement of the 
economic sector partially explains the fact that CIT boasts a job 
placement average of 87 percent, an average that has been consistently 
near and sometimes above this rate for eight consecutive years.
    A further statistic that CIT is proud to report is that as an 
additional result of our structure that involves Advisors from the 
economic sector, over 61 percent of our known graduates are employed in 
private industry. (Because of budget realities, CIT does not have the 
resources to track 100 percent of its graduates over twenty years. Our 
research evidences that in general, nearly all CIT alumni who have 
relocated distantly have done so for employment reasons). CIT 
instructional programs are very much in touch with where the jobs are, 
and CIT continues to tailor its program offerings to economic demand. 
Partially as a result of the successful job placement reputation that 
CIT has earned over the years, CIT's student retention averages 95 
percent which is also far above the national average for even dominant 
society's best vocational institutions.
    Because of funding constraints, the institution cannot accept all 
applicants and must turn away an average of 200 students each year. The 
primary reason is the shortage of adequate housing. Although the town 
of Crownpoint is one of the reservation's activity centers, it is still 
extremely small and excess housing is virtually non-existent. CIT is a 
campus-based institution, with one dormitory that houses all students. 
This situation creates a particular hardship for married and single-
parent applicants, who because of family responsibilities are sometimes 
those most urgently in need of job training. Nearly one third of CIT 
students are single, head-of-household with an average of three 
dependents.
    CIT's average applicant has had no education or training beyond 
high school, and therefore has no salable job skills. Over one third of 
CIT students have not completed high school, and as part of its 
instruction, CIT offers GED and remedial education on an as-needed 
basis in order to equip these students with the learning skills to 
successfully make the transition to CIT's postsecondary programs. Over 
50 percent of the individuals who enroll in CIT's remedial and high 
school equivalency courses complete the course and earn their GED 
diplomas. CIT offers rigorous vocational technical programs of 
excellence in a culturally responsive academic environment. Nearly all 
CIT students speak English as a second language as Navajo is the 
everyday spoken language of most of the reservation. Nearly all CIT 
students come to the institution from an environment where no 
employment prospects exist for them. Their backgrounds have largely 
been absent any opportunities to learn specialized job skills that can 
empower them to achieve meaningful employment opportunities. Without 
the educational and training opportunities offered by CIT, most of 
these individuals and their dependents would have no alternatives but 
to begin or remain on welfare subsistence. At least 20 percent of CIT 
students seek their livelihoods through maintaining livestock and 
remaining on their traditional lands. CIT is able to assist these 
individuals in achieving an improved quality of life for themselves and 
their families through its Veterinary Assistant and Environmental 
programs.
                                 ______
                                 
 Prepared Statement of Bruce Wynne, Chairman, Spokane Tribe of Indians
    Mr. Chairman, and Members of the Subcommittee, on behalf of the 
Spokane Tribe of Indians, I am pleased to submit this testimony on the 
proposed fiscal year 2000 budget for the BIA and IHS.
    The Tribe is located in Eastern Washington, has 2,267 members and a 
Reservation of 156,000 acres. While the Spokane Tribe was historically 
a fishing tribe, we now rely primarily on timber for tribal income.
                        bureau of indian affairs
    General.--The Spokane Tribe supports the overall increase of $155.6 
million over the fiscal year 1999 enacted level for the Bureau of 
Indian Affairs.
    Tribally Controlled Community Colleges.--We support the President's 
proposed increase of $7.1 million for funding for the Tribally 
Controlled Community Colleges. This money will be used to increase 
operating grants for the 26 Tribally Controlled Community Colleges, for 
a proposed fiscal year 2000 level of $38.4 million. We believe this 
minimum amount is necessary to maintain stable and productive colleges 
on Indian reservations. The Spokane Tribal College is in its early 
stages of development. We are proud of our accomplishments to date and 
look forward to full participation in the tribal colleges program in 
the near future.
    We are hopeful that this Subcommittee, despite the funding 
limitations for all domestic discretionary programs in fiscal year 
2000, will be able to give priority consideration to funding for tribal 
colleges, as was urged in the recent ``sense of the Senate'' provision 
as Section 312 of the Senate fiscal year 2000 budget resolution. S. 
Con. Res. 20 appropriately notes that although funding for tribal 
colleges received an increase in fiscal year 1999, tribal colleges 
faced an actual per-student decrease in funding over fiscal year 1998, 
and per student funding for tribal colleges is only about 63 percent of 
the amount given to mainstream community colleges.
    Tribal Priority Allocation (TPA).--The Spokane Tribe supports the 
proposed net increase over the fiscal year 1999 enacted levels of $17 
million in TPA funding for fiscal year 2000. This would bring total TPA 
funding in fiscal year 2000 to $716 million. The TPA funding is the 
lifeblood of tribal governments. It is the money tribes receive to 
support services for their people. The United States' obligation to 
provide funds for tribal health, education and welfare programs is part 
of the treaty guarantees made to tribes by the United States in return 
for the cession of millions and millions of acres of land. We 
especially support the proposed $6.1 million increase for contract 
support for on-going contracts. Our tribal contracts support costs are 
now funded at only 80 percent. We also support the proposed $2.1 
million for the Tribal Work Experience Programs.
    Decreases in prior years in TPA funding have left tribes actually 
losing in terms of adjustments for inflation. Mr. Chairman, we use 
these TPA funds for many purposes, including tribal government 
infrastructure, services for children and the elderly, scholarships, 
education, courts, law enforcement, adult vocational education, 
training, agriculture and forestry. The funds must be stretched very 
thin for all programs. The services the Tribe is expected to deliver 
versus the amount of our contracts for these programs does not fulfill 
the BIA's trust responsibility. In addition, the introduction of 
Welfare Reform has placed an unexpected burden on our Education 
programs.
    We ask the Subcommittee to support the President's proposed 
increases for TPA and to add more , if possible, to this account which 
targets spending at the local level. An across-the-board ten percent 
increase over the President's budget proposal would be of great benefit 
to all tribes nationwide.
    Upper Columbia United Tribes (UCUT).--The proposed budget would 
increase the UCUT program by only $10,000. An increase of at least 
$350,000 is critically needed for this important program.
    The UCUT program serves the vital interests of the five tribal 
entities in the geographic region above the Grand Coulee Dam (the 
Confederated Colville Tribe, and the Coeur d'Alene, Kalispel, Kootenai 
and Spokane Tribes). Operations of hydroelectric facilities, as well as 
contamination from mining, industrial and sewage facilities, 
agriculture and other development, continue to have devastating impacts 
on the UCUT Tribes' cultural, fish and wildlife and water resources. 
UCUT appropriations are used to implement, monitor and evaluate natural 
and cultural resource plans, and to coordinate management activities 
with state, federal and other tribal governments.
    In fiscal year 1999, the Confederated Tribes of the Colville 
Reservation formally joined UCUT, adding the interests of 8,000 more 
tribal members and 1.4 million additional acres of Reservation lands to 
the realm of UCUT concerns. Combined, the five UCUT tribal entities 
represent 16,221 tribal members and 1,905,879 acres of land resources. 
The Tribal Councils of UCUT have reinforced UCUT's mission to address 
not only fish and wildlife, but also cultural matters, water resources, 
and economic development issues common to all the UCUT members Tribes. 
The UCUT Tribes participate actively in regional intergovernmental 
forums related to UCUT mission topics, and need funding sufficient to 
continue and expand the UCUT mission.
    The President's budget request of $310,000 does not include even an 
inflationary increase over the fiscal year 1999 enacted level. Further, 
the fiscal year 1999 UCUT appropriation was actually less than the 
previous year's funding. A significant increase is needed now to insure 
that the Tribes can maintain their fish and wildlife activities, as 
well as to cover the expanded mission of issues crucial to protection 
of cultural and water resources as required by numerous federal laws. 
Assessed funding needs for this program are just over $650,000. This 
includes base funding of $100,000 for each Tribe and a modest budget of 
$150,000 to cover the costs for a central office to coordinate, provide 
policy analysis, and serve as a liaison for the member tribes.
    Law Enforcement Programs.--The Spokane Tribe strongly supports the 
proposed increase of $20 million for BIA law enforcement programs. This 
is the second year of the Department of the Interior's joint program 
with the Department of Justice on the Law Enforcement Initiative in 
Indian County. The increase will be used for personnel, equipment and 
detention services, all badly needed at Spokane.
    While we know that funding for the Justice Department programs for 
Indian law enforcement programs is not in the Subcommittee's 
jurisdiction, we do want to express our support for the President's 
proposed increases in those programs as well, which will provide 
additional resources for investigation and prosecution of crime in 
Indian Country, programs to address alcohol and substance abuse 
programs in Indian Country, the improvement of tribal courts, 
construction of correctional facilities, and police education and 
training in Indian Country.
                         indian health service
    The Spokane Tribe supports the proposed increase for fiscal year 
2000 totaling $170 million over the fiscal year 1999 enacted level for 
the Indian Health Service. Virtually every program operated by the IHS 
is seriously underfunded and has been for years. We urge the Congress 
to begin to provide the funding needed to address the critical health 
needs of Indian people by supporting the Administration's fiscal year 
2000 request.
    The Spokane Tribe of Indians is also concerned about the 
regulations that limit a tribe's ability to contract Indian health 
programs in urban areas. Tribes such as ours that are located near a 
major urban area have tribal members residing in the urban areas who 
are unable to receive services from IHS because there is no urban 
Indian health care provider. The Spokane metropolitan area has been 
without formal care and service for the past several years. The Spokane 
Tribe would like to have the ability to contract this service from IHS, 
through a special waiver, if necessary.
    Finally, we wish to call to this Subcommittee's attention the need 
for funding to state and local governments for health care services to 
pass through and be provided directly to the tribes that will provide 
the services to people in our communities.
    The Spokane Tribe also supports the testimony of the Northwest 
Portland Area Indian Health Board in its entirety. Thank you very much.
                                 ______
                                 
  Prepared Statement of Robert Clark, Executive Director, Bristol Bay 
                           Area Health Corp.
    The Bristol Bay Area Health Corporation (BBAHC) submits this 
statement on the Administration's proposed fiscal year 2000 Indian 
Health Service budget. In summary, our recommendations are:
  --Fund mandatory costs increases for inflation, pay and population 
        growth, for which the Administration has requested $34.7 
        million for inflation and pay raises and IHS estimates the need 
        at $93 million (not including increases for population growth);
  --Fully fund contract support costs, which IHS estimates there is 
        over a $100 million shortfall;
  --Increase funding for the Community Health Aide Program for Alaska 
        by $20 million;
  --Increase the leasing authority for Village Built Clinics by lifting 
        the cap of 170 allowable leases;
  --Provide $10 million to fund Patient Travel for Alaska programs; and
  --Funding for patient transport vehicles and vehicle storage 
        buildings.
                               background
    The BBAHC is a private, non-profit corporation organized in June 
1973 by the Alaska Native villages of the region. BBAHC serves more 
than 8,000 year-round residents and 34 villages within the Bristol Bay, 
Calista and Koniaq regions--three of Alaska's twelve regions as divided 
under the Alaska Native Claims Settlement Act of 1971. The region is 
46,573 square miles, an area nearly the size of the state of New York 
and larger than nineteen of the ``Lower 48'' states. BBAHC's health 
care services include hospital services, family medicine, and other 
preventative and community health care.
    In 1980, BBAHC became the first Native organization in the United 
States to assume full management of an Indian Health Service operation 
and health services program under the Indian Self-Determination and 
Education Assistance Act. The BBAHC-administered Kanakanak Hospital is 
accredited by the Joint Commission on the Accreditation of Healthcare 
Organizations. BBAHC became a member of the Alaska Tribal Health 
Compact in 1994, and since that time has administered health programs 
under Title III of the Self-Determination Act.
                        mandatory cost increases
    As you are no doubt aware, inadequate funding for mandatory cost 
increases over the past several years has forced tribal and IHS health 
programs to redirect funding from other urgently needed health care 
services, thereby restricting the extent of services we would otherwise 
be able to provide. In Alaska, we feel the impact of inadequate 
mandatory cost increases acutely as a result of our higher costs of 
living. For example, the cost of living in Dillingham is 20 percent 
higher than the average cost of living in the lower 48 states, with the 
cost of living in the villages averaging 5 percent higher than 
Dillingham.
    The proposed fiscal year 2000 IHS budget would provide tribal and 
IHS programs $34.5 million for pay costs and inflation.\1\ However, 
this amount does not include population growth. So a more reasonable 
figure for built-in costs is $146 million. We also note that the IHS 
figures for shortfall for mandatory pay raises is calculated for 
federal employees only--it does not include funding for persons hired 
directly by BBAHC or other tribal health care providers. We at BBAHC 
estimate that under the fiscal year 2000 request, we will be forced to 
absorb $1.25 million.
---------------------------------------------------------------------------
    \1\ According to the IHS budget justification document, their 
estimated shortfall of $92.9 million is the combined need for pay costs 
and inflation. IHS based the figure on 2.1 percent non-medical and 3.8 
percent medical inflation rates and a 4.4 percent pay raise. No funding 
was requested for population growth, which is estimated at 2 percent 
per year.
---------------------------------------------------------------------------
    If Congress does not provide additional funds for mandatory cost 
increases in fiscal year 2000, BBAHC and other tribal health care 
organizations will have to make some hard choices. An example of a kind 
of health service reduction we may have to make is in the purchase of 
specialized health services, such as OB-GYNs and other health care 
specialists who are not on the permanent staff of the hospital in 
Dillingham. We purchase the specialized services of these medical 
personnel to come to our hospital for special need patients.
                         contract support costs
    We are encouraged that the Administration's proposal for IHS 
contract support costs provides an increase of $35 million. However, 
BBAHC strongly urges Congress to consider the recommendation of the 
Alaska Native Health Board which seeks full funding of the estimated 
contract support shortfall of over $100 million. This amount takes into 
account those tribes currently receiving contract support as well as 
those on the waiting list (or queue). Without additional funds, tribes 
will continue to be denied their right to assume local control over 
federal Indian programs, such as health care, or be financially 
penalized for electing to exercise that right.
    BBAHC also concurs with the Alaska Native Health Board in calling 
on Congress to refrain from imposing systemic changes to the contract 
support process before several ongoing efforts have been completed. 
These efforts--a General Accounting Office report on IHS and BIA 
contract support that is due in June 1999, a federal-tribal workgroup 
effort on contract support led by the National Congress of American 
Indians, and an IHS workgroup on contract support--may provide Congress 
a fresh approach to establishing a fair and equitable process for the 
distribution of contract support.
    The BBAHC also opposes any legislative provision which would 
restrict a tribe's ability to contract, such as the moratorium on new 
and expanded contracts enacted in fiscal year 1999, or any other 
similar legislative mandate. Finally, we request that Congress require 
the IHS to report the need for contract support in an accurate and 
timely manner.
                 community health aide program increase
    BBAHC is working with the Alaska Native Health Board and others to 
update the report on the Community Health Aide program, CHA/P in 
Crisis. The report findings on problems faced by the CHA/P include 
below-standard salaries, high attrition rates, and lack of support and 
training. The program has been a model system for delivery of low cost 
primary care to patients residing in the rural areas of Alaska. The 
trained CHA/P personnel act as primary care physicians and emergency 
care staff, primarily in the remote areas of Alaska--several hundred 
miles away from any physician-based facility. Although the program 
received some increase in funding several years ago, it is again on the 
verge of crisis unless funds are provided to meet the increased costs. 
As you are no doubt aware, the alternative to this system of care would 
be very costly, both in terms of dollars and in patient care.
    BBAHC concurs with ANHB and others in making the following 
recommendations to Congress: raise CHA/P salaries to a standard of $20 
per hour, increase funding for training centers and for support costs 
in the village clinics. We too urge full support of the CHA/P program 
by to including at least $20 million in the fiscal year 2000 Indian 
Health Services Budget for these essential services.
                  village-built clinic leasing program
    Through the leasing authority of the Alaska Area Native Health 
Service (AANHS) under the Village-Built Clinic leasing program, BBAHC 
has two outstanding requests for clinic leases, one for a clinic at 
Portage Creek and the other for a clinic at South Shore Aleknagik. 
According to the AANHS it has, as of 1997, reached the 170 lease limit 
it is authorized to fund.
    Additional funds are needed for making upgrades, modifications and 
additions to existing village-built clinics and where appropriate, 
replace existing clinics. For example, modifications to provide more 
square footage is essential. Currently, due to space limitations in the 
village clinics, during periods when visiting doctors are using the 
clinics to attend to patients, clinic staff have at times needed to 
perform on-going clinic services from their homes. These much-needed 
improvements, which could be funded through a new program similar to 
the Maintenance and Improvement Program, are above and beyond the realm 
of the current leasing program.
    We strongly urge that the AANHS Village-Built Clinic leasing 
program be increased from 170 to at least 180, and that a commensurate 
increase in funding be appropriated for the additional leases. These 
clinics are vital to enabling the Community Health Aide Practitioners, 
doctors, dentists and others to provide health services to village 
residents.
                             patient travel
    The BBAHC, as well as other Alaska Native health care providers, is 
faced with a critical and expensive component of health care in 
Alaska--patient access to health care. Although the Community Health 
Aid Program and physician assistants provide basic health care at the 
village level, those who need a doctor's care and other procedures must 
travel by air to those services. Additionally, there are related costs 
such as lodging and meals. Consequently, up to 40 percent of rural 
Alaska Natives needing diagnostic services or treatment deferred having 
it done because of costs for airfare, cab fare, and lodging. (Access to 
Care: Crisis for Alaska Native, 1991.) Even with the new Alaska Native 
Medical Center in Anchorage providing limited accommodations for family 
members accompanying a patient, it is not enough to house all those in 
need.
    Therefore, we urge that Congress provide for the Alaska health care 
programs an increase of $10 million for patient travel. This is the 
need in excess of that covered by various third party coverage which is 
also tapped where/when appropriate.
                       patient transport vehicles
    Federal Aviation Administration regulations now require that 
landing strips be located further from villages than in the past. 
Previously, airplanes landing strips that were located on the edge of 
villages or in villages were in danger of hitting power lines. With the 
safety regulations in place, the distance of airstrips from village 
clinics is 7 miles in our area. This has resulted in our no longer 
being able to simply transport a patient from an airplane to the clinic 
by hand carrying, sled or a small vehicle. We are also concerned that 
lack of proper transport vehicles will became an issue for JCAHO 
accreditation.
    For these reasons, we need vehicles in which to transport patients 
to and from airstrips, airports, village clinics. We also need heated 
buildings in which to store the vehicles. Our estimate for the cost of 
16 patient transport vehicles, including shipping costs and heated 
buildings in which to store them is $1.4 million.
    Thank you for the opportunity to share our concerns on the health 
needs of people in the Bristol Bay Area in Alaska and of Native people 
throughout the nation.
                                 ______
                                 
  Prepared Statement of Ronald J. Wopsock, Chairman, Tribal Business 
 Committee of the Ute Indian Tribe of the Uintah and Ouray Reservation
                              introduction
    My name is Ronald J. Wopsock. I am Chairman of the Tribal Business 
Committee of the Ute Indian Tribe of the Uintah and Ouray Reservation 
in Utah. I am providing this written testimony in support of the 
Department of the Interior's proposed appropriation for the Ute Tribe's 
water settlement. The proposed appropriation of $27.5 million is a 
portion of the Bureau of Indian Affairs' ``Indian Land and Water Claim 
Settlements'' appropriation and is in partial fulfillment of the 
obligations and promises made by the United States to the Ute Tribe in 
1965 and reconfirmed by Congress in 1992. Those obligations and 
promises are set forth in the Ute Indian Rights Settlement, Title V of 
the Central Utah Project Completion Act, Public Law 102-575, 106 Stat. 
4600, 4650 (Oct. 30, 1992). The purpose of the Settlement is, in part, 
to settle long-outstanding claims held by the Tribe relating to the 
failure to construct features of the Central Utah Project (``CUP'') 
contemplated in the September 20, 1965 Agreement between the Tribe, the 
United States and the Central Utah Water Conservancy District 
(``CUWCD''). The proposed fiscal year 2000 appropriation is to 
partially fund the Tribal Development Fund authorized in section 506 of 
the Settlement.
    The Ute Indian Tribe is pleased with the opportunity to present its 
views to this distinguished Subcommittee. The Tribe looks forward to 
working with the members to assure passage of the proposed 
appropriation, which will provide a critical step in completing the 
funding of the Tribe's Water Settlement; funding that is vital to the 
economic development of the Tribe and its members.
                          the ute indian tribe
    The Ute Indian Tribe is made-up of three bands, the Uintah, 
Whiteriver and Uncompahgre. The Reservation is made up of two separate 
reservations: the Uintah Valley Reserve established in 1861; and the 
Uncompahgre Reserve established in 1882. Together they encompass nearly 
4.5 million acres of Indian trust, fee and federal land. Approximately 
1,000,000 acres of Reservation land is held in trust for the Tribe.
    Approximately 3,300 tribal members live on the Reservation. They 
suffer from the highest unemployment rate in the entire Uintah Basin. 
While the Reservation is blessed with oil and gas resources, employment 
opportunities are limited. Other ``modern'' employment opportunities 
are proscribed by the lack of additional economic development. The 
Tribe and a few tribal members do engage in agricultural enterprises 
which provide only limited economic returns. Fish and wildlife 
resources are extremely important to the Tribe and could, if properly 
developed and managed, offer greater economic opportunities.
    As I previously noted, in 1965 the Tribe, United States and CUWCD 
entered into what is commonly referred to as the Deferral Agreement. In 
that Agreement, the Tribe deferred the development of over 15,000 acres 
of tribal land, thereby making available up to 60,000 acre-feet of 
water annually to assure a sufficient water supply for the Bonneville 
Unit of the CUP. That Unit is the principal component of Utah's water 
supply future. It is one of the most complex and expensive 
transmountain diversion projects ever built by the Bureau of 
Reclamation. The project diverts water, including the 60,000 acre-feet 
made available by the Tribe, from the streams in the Uinta Basin and 
transports the water westward across the Wasatch Mountains to Salt Lake 
and Utah counties. In exchange for its substantial and essential 
contribution, the Tribe was to receive a substitute water supply from 
storage in two large dams proposed as the final units of the CUP. The 
dams were never built and the replacement water never delivered. If the 
Settlement is fully funded no later that January 1, 2005, the 60,000 
acre-feet of tribal water will continue to be transported annually 
across the Wasatch Mountains. If not, the Tribe can demand the return 
of the water.
                    the ute indian rights settlement
    The Ute Indian Rights Settlement was passed by Congress and signed 
by the President in October, 1992. The facts surrounding this 
Settlement make it distinct from other Indian water settlements. The 
United States had a contractual obligation to the Tribe which it failed 
to fulfill. The Settlement represents substitute consideration for the 
dams promised in 1965, not enticement to enter a settlement of the 
Tribe's water right claims. Below is a brief summary of the status of 
the appropriations previously made by Congress as authorized in the 
Settlement, and the work the Tribe has undertaken with those funds.
    Section 504--Farm Assistance Programs.--Congress has fully funded 
the Tribe's farming programs, found in section 504 of the Settlement. 
The Tribe has utilized those funds to: (a) complete a tribal feedlot, 
which is now in operation and employs 4 full-time and 5 part-time 
tribal members; (b) provide assistance to over 100 small farm and ranch 
operations owned and operated by tribal members; (c) improve the water 
delivery system in the Uintah Indian Irrigation Project by piping open 
ditches and installing sprinklers; and, (d) establish a tribal farming 
co-op which provides equipment and on-farm labor to small tribal 
farmer. Overall, the Tribe's agricultural operation employs 13 full-
time tribal members.
    Section 505--Stream Habitat, Environmental and Recreational 
Improvements.--Section 505, which provides funds for various stream and 
habitat improvement projects, has been partially funded. The Tribe has 
used a portion of these funds to establish an Aquatics Department that 
has actively undertaken stream and fishery habitat improvements and has 
developed extensive in-house data collection and technical review 
capabilities. The Tribe also has implemented several big game programs 
designed to enhance and properly manage the Tribe's wildlife resources. 
The Fish and Wildlife Department, including the Aquatics Department, 
employs approximately 35 full or part-time tribal members in activities 
directly related to programs funded under section 505. The remaining 
amounts approved under Section 505 are not included in the fiscal year 
2000 appropriation.
    Section 506--Economic Development Programs.--Appropriations for the 
``Tribal Development Fund'', the largest and most important program in 
the Settlement, began in fiscal year 1997 and continued in fiscal year 
1998 and 1999 at an appropriation level of $25.0 million. The entire 
amount of the proposed fiscal year 2000 appropriation (less penalties) 
is for the Tribal Development Fund under Section 506. The purpose of 
the Fund and economic projects undertaken by the Tribe are described 
more fully below.
                      the tribal development fund
    Section 506 of the Settlement establishes a Tribal Development Fund 
``to be appropriated [in] a total amount of $125,000, 000 to be paid in 
#T3three annual and equal installments. . . .'' (Due to inflation 
factors statutorily applied to the 1992 authorization, the authorized 
amount has increased over the past seven years to approximately $145 
million.) In fiscal years 1997-1999, Congress made $25.0 million 
appropriations for the Tribal Development Fund. However, these 
appropriations did not meet the statutory requirement of equal one-
third installments. Instead, Congress decided to reduce the 
appropriations and ``adjust'' future appropriations in accordance with 
section 506 (b). That subsection provides that an adjustment will be 
made by the Secretary which represents the interest income ``that would 
have been earned on any unpaid amounts'' if Congress failed to fully 
fund the Development Fund in three annual and equal installments. As a 
result, the fiscal year 1998 and 1999 appropriations included $4.7 
million in penalties. The fiscal year 2000 appropriation includes an 
approximate $5.08 million penalty.
    The Settlement limits the Tribe to spending only the interest 
derived from the Development Fund on it economic projects. The Tribe 
also is required, under section 506, to prepare a Tribal Development 
Plan setting forth its economic development projects. That Plan must be 
approved by two independent financial consultants approved by the 
Secretary.
    Following receipt of the fiscal year 1998 appropriation, the Tribe 
retained its financial consultants and began a broad review and 
analysis of potential on-Reservation economic development programs. As 
a result of that process, the Tribe has completed the construction of a 
much needed full service grocery store, centrally located on the 
Reservation, and a mini-mart and truck stop. Both are now in successful 
operation and employ approximately 47 tribal members.
    The Tribe cannot fully evaluate, develop or implement a 
comprehensive plan to both create and foster additional economically 
viable enterprises on the Reservation or invest in outside economic 
ventures until the Development Fund is fully funded. It is vital, 
therefore, that funding be completed as quickly as possible to allow 
the Tribe to determine with some accuracy the amount of interest that 
will be available for economic development on an annual basis. The 
Tribe can only develop a comprehensive, well-planned economic 
development program when it knows the amount available to the program 
for economic investment on a year-to-year basis.
              the proposed fiscal year 2000 appropriation
    Congress clearly recognized and understood in 1992, that the 
Development Fund should be fully funded as quickly as possibly to 
foster economic development on the Reservation. The Fund is a critical 
component of the Tribe's efforts to secure economic self-sufficiency in 
the future. That process cannot be fully implemented until funding is 
complete. The proposed appropriation of $27.5 million represents a 
small increase over the fiscal year 1999 appropriation, which was $25 
million.
    There are several fiscally related reasons for supporting the full 
$27.5 million appropriation recommended in the budget. First, funding 
at that level will assure that the January 1, 2005 deadline is met; 
funding at reduced levels, $25 million for example, risk that this 
deadline will not be met. Second, the overall budget for Indian Land 
and Water Claim Settlements continues to be reduced, this year by 
approximately $480,000.00, even with the small increase in the Tribe's 
Settlement appropriation. This is because several other settlements 
were completed in fiscal year 1999. Thus, there is a good opportunity 
to provide funding for the Ute Settlement, bring it closer to 
completion, while providing an overall budget reduction for the Indian 
Land and Water Claim Settlement.
    Finally, the United States is required to pay a penalty for its 
failure to fully fund the Tribe's Development Fund in three equal 
annual installments. It makes good long-term (and short term) sense to 
make the full $27.5 million appropriation because failing to do so 
costs the United States additional money. The fiscal year 1997, 1998 
and 1999 funding levels were less than required under the Settlement. 
As a result, the fiscal year 1998 appropriation included a $1.5 million 
penalty and the fiscal year 1999 appropriation include a $3.2 million 
penalty. It is estimated that the fiscal year 2000 appropriation will 
include a $5.08 million penalty. The more the fiscal year 2000 
appropriation is reduced, the greater the penalty in subsequent years.
    It is important to recognize in reviewing this proposed 
appropriation that $27.5 million falls well short of what was clearly 
anticipated and promised by Congress in 1992. It does not amount to a 
full one-third of the overall authorization and it does not replace the 
shortfalls from previous years. At the proposed rate, the Tribe's 
Settlement will not be fully funded until fiscal year 2003. Until then, 
the Tribe can initiate only limited economic development programs that 
will fall well short of the economic development envisioned by Congress 
and essential to the Tribe and its members.
                               conclusion
    On behalf of the Tribal Business Committee of the Ute Indian Tribe, 
I would like to express my gratitude to the Subcommittee for this 
opportunity to present the Tribe's statement in support of the proposed 
$27.5 million water settlement. The Tribe and the United States have 
worked together for many years to realize the economic benefits 
promised when the Tribe provided water to assure the completion of one 
of the West's grandest water development projects--the Central Utah 
Project. We are now close to completing what has been a long process. 
The proposed appropriation of $27.5 million is a critical step in 
bringing this matter to a close and fulfilling the obligations 
undertaken by the United States in 1965 and reaffirmed by Congress in 
1992.
    Thank you.
                                 ______
                                 
Prepared Statement of Hon. Daniel Tucker, Vice Chairman, Sycuan Band of 
                            Mission Indians
    Mr. Chairman and members of this Committee, I am Daniel Tucker, 
Vice Chairman of the Sycuan Band of Mission Indians, located in 
southern California. I thank this Committee for selecting me to present 
oral testimony on the fiscal year 2000 Budgets for the Bureau of Indian 
Affairs and Indian Health Service.
    The Sycuan Band of Mission Indians, a Federally recognized Tribe, 
was created by Executive Order in 1875, and allotted a one square mile 
reservation. We were organized under Articles of Association approved 
by the Secretary of the Interior on August 18, 1972. The Sycuan Band 
consists of 104 Tribal members, approximately fifty percent are under 
the age of 18. For the last 125 years we have occupied the same one 
square mile plot of land.
    We have utilized the minimal amount of land available to us to 
develop gaming enterprises. As a so-called gaming tribe, we have made 
advances in our social, economic and health care initiatives for our 
people. However, it has come at great expense as we are continually 
thwarted in our efforts to achieve economic self-sufficiency due to the 
vacillating federal policies, state political interests and corporate 
profiteers who wish to eliminate our pre-Constitutional status as 
sovereign nations.
   publication of interior's gaming procedures for tribal governments
    In November 1998, the citizens of the State of California passed 
State Proposition #5 (approving a model Compact) by a margin of 63 
percent to 37 percent which protected the rights of Indian tribes to 
pursue gaming ventures. We hope this action by the people sent a clear 
message to this Congress and the Administration that the American 
people support our rights as legitimate governments, and that Federal 
policy and subsequent appropriations should be reflective of the 
peoples mandate for fairness to Indian people in California and 
elsewhere.
    The moratorium which prohibited the publication of the Department 
of the Interior's Gaming Procedures for Tribal Governments expired on 
March 31, 1999. Unfortunately, individuals continue to threaten our 
financial resources as evidenced by the Senate version of the fiscal 
year 1999 Supplemental Appropriations bill (S. 544) that contains a 
rider which would undercut the Secretary's ability to go forward with 
the Class III gaming procedures. We are pleased that the U.S. House of 
Representatives' companion measure (H.R. 1141) does not contain such a 
provision.
    We request that as the Committee with jurisdiction over Indian 
appropriations matters, you will not consider any such appropriations 
rider in the fiscal year 2000 appropriations measure.
                        bureau of indian affairs
    The Bureau of Indian Affairs Tribal Priority Allocations (TPA) 
Workgroup has been meeting steadily throughout this past year to 
develop recommendations to the Congress for the TPA budget process. 
Tribes have developed meaningful solutions and we hope this Committee 
will give fair consideration to their viewpoints when their final 
report is submitted.
Redistribution of TPA funding
    The Congress included a provision in the fiscal year 1999 
appropriations bill which allowed for ``prosperous'' tribes to return 
their TPA shares to the BIA for redistribution to other tribes. The 
Sycuan Band of Mission Indians strongly believes that tribes who elect 
this option should be allowed to determine where its respective shares 
are redistributed.
Redistribution of TPA authorized on an annual basis only
    Furthermore, any such tribe that agrees to have its shares 
redistributed should consent to the redistribution on an annual basis 
only. Thus, the tribe is able to protect its right to access TPA 
funding in future years should its economy suffer, especially in light 
of the aggressive outside efforts to corrupt tribal gaming enterprises.
TPA redistribution to be treated as non-recurring funds
    In the event TPA shares are redistributed to another tribe, those 
funds should be identified as non-recurring, and therefore, not 
eligible to be included in another tribes base funding.
                         indian health service
    More than 20 years ago, we established a medical clinic on our 
reservation. Sycuan has a 638 Contract with IHS to provide health care 
to any American Indian in need of medical attention. However, in order 
to maintain a quality of service to our patients, it has become 
necessary for the Tribe to subsidize our operating budget for the 
facility. The basic service area consists of East San Diego County, 
however, patients throughout the greater San Diego area are treated. 
The total number of patients served annually is in excess of 3,000 
individuals. This includes the eighteen area Tribes, as well as a 
number of non-Indians. Although we have been able to subsidize our 
clinic's budget so far, cuts in IHS funding are always a concern.
    We are pleased that the Administration has submitted a budget to 
Congress that increases funding by $170 million. Although this is far 
short of the IHS/Tribal/Urban Budget Formulation Committee's $8 billion 
dollar estimated need, and is also far less than the $500 million 
increase requested by the Secretary of the Department of Health and 
Human Services, we hope the Committee will take action to ensure an 
increase in funds for Tribal managed health facilities, programs, 
services and activities.
Contract support costs
    The Administration and the Congress have both recognized the need 
to increase contract support costs funding as well. However, the amount 
requested by the Administration does not meet the costs needed to bring 
tribes up to the level of funding needed to adequately sustain health 
care operations. Direct and Indirect funding should be increased to 
bring tribes up to par with other Federal health care programs, 
equitable to the per capita costs for patient care other citizens 
enjoy.
Funding to support the elevation of the IHS director
    We also ask this Committee to include funding necessary to support 
the elevation of the Director of the Indian Health Service to the 
position of Assistant Secretary for Indian Health. The salary for this 
position must be commensurate with the pay received by other Assistant 
Secretaries within the Department.
           bureau of indian affairs and indian health service
Moratorium on new and expanded programs
    For fiscal year 1999, Congress passed a moratorium on new and 
expanded contracts, compacts, grants and cooperative agreements. This 
action was contrary to long-standing Federal Indian policy. The Indian 
Self-Determination and Education Assistance Act (ISDEAA), Public Law 
93-638, authorizes tribes to exercise their right to contract or 
compact and to receive full funding for the programs contracted or 
compacted by an Indian tribe, including necessary contract support 
costs. In fiscal year 1999 Congress reversed its policy which can only 
been viewed as bad faith to the Indian people. We implore the Committee 
to object to any such provision that may be proposed for fiscal year 
2000.
    In conclusion, I urge this Committee to give priority consideration 
in budget allocations to the strengthening of Tribal governments, the 
delivery of services directly to Indian people, and the development of 
Tribal infrastructures and economies.
    Thank you.
                                 ______
                                 
 Prepared Statement of Jason L. Joseph, Chairman, Sauk-Suiattle Indian 
                                 Tribe
    My name is Jason L. Joseph, Chairman of the Sauk-Suiattle Indian 
Tribe of Washington State, presenting our written testimony by 
summarizing our tribal requests and concerns. It is an honor to present 
to you the needs and concerns of the Sauk-Suiattle people. The requests 
for increases are to be added to the base budgets in the fiscal year 
2000 on the following priority.
                 tribal level appropriations priorities
    (1) +$190,000 to Tribal Budget Base for Government Operations in 
the BIA TPA Tribal Government Account for a planner/grants writer, a 
business development/management assistant, office equipment. This is in 
addition to the $160,000 minimum received in FY-98 by the Tribe per 
appropriations language for every tribe. Request 100 percent Indirect 
Costs;
    (2) +$250,000 for Law Enforcement & return it to TPA: to secure 
office space, hire and purchase equipment for two officers, a 
Probation/Truant Officer, detention facilities with necessary equipment 
to allow short term holding facilities, in the BIA TPA, Public Safety 
and Justice, Law Enforcement Tribal Agency Account.
    (3) +$200,000 for Tribal Budget Base to support Tribal Court; 
Prosecutor, Public Defender, Court Clerk and for Court Operations. to 
be added to BIA TPA, Public Safety and Justice, Tribal Courts Budget 
Base;
    (4) +$375,000 to develop economic enterprises, added to BIA Tribal 
Government Account;
    (5) +$200,000 for Cultural Resource funding with continual funding 
as there was not a formal anthropological study done which is specific 
to Sauk-Suiattle. Also, for Land Acquisition Study to determine a land 
base for the Tribal Members to return to their Ancestral Home, to 
identify economic development initiatives that could generate Tribal 
revenue for jobs and to decrease federal dependency. To be added to the 
BIA Office of Trust Responsibility Account;
    (6) +$30,000 Increase Higher Education scholarships in the BIA 
Education Scholarship Account;
    (7) +$75,000 to Tribal Base for Indian Child Welfare for 
administrative staff and additional counselors to work with children 
and dysfunctional families, in the BIA TPA for Human Services, ICWA 
Account;
    (8) Place current new 13 acres land adjacent to the Tribe's 
Administrative Office into Trust land status, which will not to be used 
for gaming. Also, the Caskey Lake 50.8 acres land, 3 miles from the 
reservation to be transferred into trust land status;
    (9) Request title for the Tenas Creek and Suiattle Cemetery lands, 
plus two additional 15 acres surrounding the two cemetery parcels. This 
is necessary to clear up the ownership, multiple jurisdiction and joint 
responsibilities that now exists. These are sacred sites that need 
protection. It will clear up the US Forest Service, BIA, or Sauk-
Suiattle ownership.
    (10) +$350,000 replace 360,000 gallon cement domestic Water Storage 
Tank for health & safety.
                   regional appropriations priorities
Support affiliated tribes of northwest indians
    1. For Northwest Portland Area Indian Health Board fiscal year 2000 
request on appropriations
    2. Contract support increase funding of $100 million by NWPAIHB
    3. Oppose pro-rata distribution of fiscal year 1999 contract 
support funds, oppose $5 mil. cut in CHR
    4. For Sovereign Immunity, against taxation, for Land-Into-Trust
Support northwest indian fisheries commission
    1. Contract Support Costs (Indirect Cost) Funding at 100 percent
    2. BIA Forest Development, Woodland Management, Northwest Forest 
Plan $3.0 Million and from this amount, ``Jobs in the Woods'' 
initiative of $400,000
    3. Washington Tribal Shellfish Management, Enhancement, and 
Enforcement Funding to Implement Tribal Treaty Rights through the 
Establishment of Base Shellfish Operations $1.95 Million.
    4. Salmon restoration funding
    5. Timber, Fish and Wildlife Module $4 million
National appropriations priorities
    1. Support the Administration's Request of $1.9 billion for BIA and 
$2.8 billion for IHS
    2. Full Funding of Contract Support Costs for BIA & Indian Health 
Service. Remove the fiscal year 1999 `638 contracting moratorium. 
Oppose proposed $5 mil. cuts in CHR program
    3. BIA Tribal Priority Allocations request of $716 million, plus 
the small and Needy Tribes Appropriation minimum.
    4. Elevate IHS Director to Asst. Sec.; Increase IHS funding for 
HIV/AIDS, Diabetes--inflation, increase of medical costs, related 
medicines, breast & cervical cancer
    5. Law Enforcement funding at $20 Million
    6. Increase tribal court funding to $58.4 Million as authorized 
under the Indian Tribal Justice Act, PL 103-176. Reauthorize Act as 
resources are needed. (Pres. $2.6 mil)
                    background, small & needy tribe
    The Sauk-Suiattle Indian Tribe has 235 members and is signatory to 
the Treaty of Point Elliott in 1855. A land survey was conducted to 
establish a reservation base for our Tribe but, never finalized due to 
the untimely death of the surveyor. We were a land less tribe prior to 
1980 when we purchased 23 acres of land for our reservation near our 
original homelands in the foot hills of the Cascade Mountains. As a 
small tribe, our needs are magnified, as the basic tribal government 
support resources just aren't available. All the operations are under 
grants and contracts, as there are no tribal funds, meaning shortfalls 
and reductions cannot be covered by the Tribe.
                      priority requests-narrative
    Increase in Core Tribal Government Staff.--The Tribe has had a 
great turnover in its core management positions (General Manager and 
Accountant) due in large part to unstable and inadequate funding plus 
the Tribe's remote location. This has kept the Tribe from progressing. 
The Tribe requests a $190,000 appropriation increase above the $160,000 
minimum appropriated in fiscal year 1998 to the BIA Tribal Priority 
Allocations, Tribal Government, Other Aid to Tribal Government Budget 
Base for a planner/grants writer, a business development and management 
assistant and office equipment. To include 100 percent contract support 
costs.
    Increase in BIA Law Enforcement.--The Tribe has only one police 
officer, jail facilities are hours away. The Tribe needs a second 
officer and a truant/probation officer to provide services to the 
community. The Tribe requests a $250,000 increase, to be added to the 
BIA Tribal Priority Allocation, Public Safety and Justice, Law 
Enforcement Tribal/Agency Budget Base, so that the Tribe can hire and 
equip. two officers, a radio system, a probation/truant officer, office 
space, detention facilities with necessary equipment to act as a short 
term holding facility. The Tribe requests the law enforcement funds be 
returned to the TPA from the special account within BIA.
    Increase BIA Tribal Courts.--The Tribe requests that $200,000 be 
appropriated for Tribal Court, added to BIA Tribal Priority 
Allocations, Public Safety and Justice, Tribal Courts Budget Base, for 
Tribal Court operations and staffing (\1/2\ time judge, court clerk, 
prosecutor, defender).
    Increase Economic Development Enterprise.--The Sauk-Suiattle Indian 
Tribe is focused on developing economic self-sufficiency. However, the 
current trend of cuts far outweighs the actual portion of federal 
monies utilized by the tribes, and heavily impacts Congressional 
recognition of the need to meet Treaty and trust responsibilities.
    The Sauk-Suiattle Indian Tribe has initiated a planning process to 
develop economic enterprise that will provide long term financial 
stability, employment for Tribal members, reinforce the need for 
education for Tribal members, and allow the Tribe to assume true Self-
Determination and financial independence. Since these efforts require 
dedicated time to expedite results, the Tribe requires stable 
``economic incubation'' funding for a period of 3 years in order to:
    (1) hire a business manager/planner to focus on the effort,
    (2) develop a complete business plan,
    (3) initiate a viable financial enterprise(s), and
    (4) develop sufficient capital to ``stand alone''.
    (5) developing business codes
    The tribe has calculated a three (3) year cost of $375,000 for this 
project to reach a return on the investment, including the necessary 
``seed'' capital to begin the actual enterprise and meet all 
anticipated ``incubation'' costs. The U.S. Government benefits as a 
result of a decreased financial need of the Tribe, as well as the 
benefits of employed Tribal members not requiring the current level of 
governmental assistance.
    Also, Tribal Economic Enterprises will employee those members of 
the larger Community outside the Reservation currently unemployed as a 
result of the economic downturn in forest product work. The local 
community was designated a depressed timber community.
    Cultural Resource Funding & Special Appropriation for Land 
Acquisition Study.--The Sauk-Suiattle Tribe has 235 members, 20 houses, 
one services building and no vacant suitable land for the creation of a 
Tribal economy. The Tribe currently has an unemployment rate of over 65 
percent and over 80 percent of employment age tribal members make less 
than $7,000 a year. With a land base the Tribe could provide 
employment, generate Tribal revenue, decrease dependence on federal 
funds and enable Tribal members to return to their ancestral home. The 
Tribe requests a special appropriation of $200,000 to the BIA for the 
Sauk-Suiattle Tribe to perform a land acquisition feasibility study on 
identified sites, including the possibility of a land trade between the 
U.S. Forest Service, and the Washington Department of Natural Resources 
to decrease land acquisition costs. There are also several thousand 
acres of unresolved Tribal allotments which should be factored into 
study. These lands (5,000 + acres) were allotted to Tribal members and 
then taken without compensation in 1897 when the Mt. Baker--Snoqualmie 
National Forest was created.
    Increase Higher Education Scholarships.--The Tribes current 638 
contract with BIA only provides funds for 20 percent of the Tribal 
members seeking higher education. The Tribe requests that BIA Portland 
Area Office scholarship funding be increased by $30,000 to provide 
educational opportunities to Sauk-Suiattle Tribal members to attain 
their higher education. Our base budget includes less than $4,000 in 
funds, even with more than half of the population of college age.
    Increase in BIA Indian Child Welfare.--Half the Tribe's population 
is 18 or younger and 75 percent of the children on the Reservation have 
received KEYBOARD A services. Because of the Reservation's small 
population base and remote location, which requires high travel time, 
the Tribe does not receive comparable operating funds such as other 
Tribes. Sauk-Suiattle requests that a $75,000 appropriation be added to 
the Tribe's base budget through the BIA Tribal Priority Allocations, 
Human Services, Indian Child Welfare Act account to (1) provide for 
added counseling services, and (2) management to work with children and 
dysfunctional families.
    Land into Trust.--There are two parcels of land that the Tribe 
wishes to be put in trust status. The first, the new 13 acres adjacent 
to the current reservation. Second, 50.8 acre Caskey Lake, lake and 
swamp approximately 3 miles from the reservation. The Tribe has No 
intention, nor is it feasible due to location to use these parcels for 
Gaming. It may be utilized for other enterprise to create jobs that 
will benefit the Tribe and the local non-Indian community. The Tribe 
submitted requests in July 1998 to have the Secretary, DOI transfer the 
lands from fee to trust status.
    Tribal Cemetery Plots.--Sauk-Suiattle Tribe requests title to the 
``Suiattle Cemetery'' and the ``Tenas Creek Cemetery'' lands, plus 
additional 15 acres of surrounding lands for each cemetery, to clear up 
the question of ownership, multiple jurisdictions and joint 
responsibilities. The ownership, trust or protective authorities and 
general administrative responsibilities are not clear, whether it is 
the US Forest Service, Bureau of Indian Affairs (BIA), Sauk-Suiattle 
Indian Tribe or US Navy. The properties are actually owned by the US 
Forest Service, the BIA has trust responsibility and the Tribe works 
jointly with these two entities to manage and upkeep the sites. The US 
Navy without notifying the appropriate authorities just assumed the 
area was available for their training maneuvers, which caused extensive 
damage to the graves of our people. These are sacred sites and need 
protection. Prior allotments of tribal members in area was 5,000+ 
acres.
    Water Storage Tank.-- the current 360,000 gallon domestic drinking 
water Cement Tank leaks. The tank was lined, but still leaks. Acidity 
in the water is the cause of the leaking of the high rates of lead and 
copper into the drinking system. The tank is 15 years old, is 60 feet 
high and 20 feet across. The pipes also need replacing.
    We urge that Congress remember our small tribal governments, our 
management problems and needs, and support them in with sufficient 
appropriations. We urge funding for tribes, their programs and their 
developments be given the highest priority. Thank You.
                                 ______
                                 
  Prepared Statement of David Lopeman, Chairman, Squaxin Island Tribe
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Squaxin Island Tribe, I thank you for this opportunity to provide 
testimony on the fiscal year 2000 Bureau of Indian Affairs (BIA) and 
Indian Health Service (IHS). The following concerns and recommendations 
of the Squaxin Island Tribe are common, not only to us, but to Tribes 
both in our region and throughout the Nation.
                   summary of appropriation requests
Tribal specific
    1. Support for $97,500 for the Squaxin Island Shellfish Management
Regional
    1. Support for $1,950,000 for 20 Western Washington Tribes and the 
Northwest Indian Fisheries Commission for Tribal shellfish harvest 
management, enforcement and enhancement to implement Tribal treaty 
rights through the establishment of base shellfish operations
    2. Support for $1.247 million BIA, Resources Management, Endangered 
Species initiative
    3. Support for $3.0 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative
    4. Support for $3.1 million for the Northwest Tribal Ecosystem 
Management initiative
    5. Support additional funding of $4.0 million for the Timber-Fish-
Wildlife Agreement to implement tribal obligations under new state and 
private forest practices, rules and regulations pertaining to ESA 
obligations
    6. Support the development of a displaced fishers ``Jobs-in-the-
Woods'' program and a gear and vessel subsidized payment account
Self-governance and other national issues
    1. $12.1 million increase for Diabetes Programs
    2. $12.1 million increase for Substance Abuse/Alcoholism Programs
    3. $7.2 million increase for Health Promotion/Disease Prevention 
efforts
    4. $3.6 million increase for Emergency medical Services
    5. $2.3 million increase for Tribal Environmental Health Programs
    6. $15 million increase for Cancer screening and treatment, 
principally for breast and cervical cancer
    7. $19.5 million increase for Dental programs
    8. $7.1 million increase for Mental Health programs
    9. Replace the proposed $5 million cut in the Community Health 
Representatives program
    10. Support the Administration's request for a $170 million 
increase for the IHS budget
    11. Support the replacement of funding for the Indian Health 
Service's recruitment and retention program and the physician's pay 
program
    12. Address the funding and service disparities in Indian Health 
Programs by providing level of need funding for Indian Health Programs
    13. Support the BIA Tribal Priority Allocations request of $716 
million as well as the Small and Needy Tribes Appropriation minimum
    14. Increase Tribal Court funding to $58.4 million
    15. Support the full funding of Contract Support Costs (CSC) and 
the distribution methodology for CSC funds recommended by the National 
Congress of American Indians
    16. Remove the fiscal year 1999 appropriation moratorium on PL 93-
638 contracting and compacting
                     narrative summary of requests
Tribal specific
    Support $97,500 for the Squaxin Island Shellfish Management. The 
Squaxin Island Tribe was a plaintiff in the court case which reaffirmed 
the Treaty rights of the Tribes in Washington State to harvest 50 
percent of the shellfish product, and to act as co-managers of the 
shellfish resources. This involves management of both inter-tidal and 
sub-tidal species of shellfish.
    For the past two years, we have been expanding our management of 
this very important resource to the Squaxin Island Tribe. Currently we 
manage the resource for about 150 Tribal harvesters who harvest 
shellfish for subsistence and commerce as has been the case since the 
Treaty was signed in 1854. To date our expanded enhancement and 
management efforts have been directly funded by Tribal dollars.
    Once again, the appellate court has upheld the District Court's 
decision, and strengthened the tribal claims. Our experience has shown 
that in order to be an effective co-manager of this resource, we need 
to be able to participate in management, enhancement, and enforcement 
activities. As managers of this resource, we will need to continue to 
expand our management capacity. This will involve specialized training 
and equipment for our harvesters, our management staff, and our 
enforcement staff.
Regional
    Support request of $1,950,000 for 20 Western Washington Tribes and 
the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations. 
Additional funding to tribal programs are necessary to address these 
needs. Western Washington tribes request an additional $1,950,000 be 
added to tribal fisheries management contracts as permanent base 
funding. This would provide basic infrastructure for each tribe of 
$97,500. This would cover only the basic level of management and 
enforcement needs.
    Support for $1.0 million BIA, Resources Management, Endangered 
Species initiative. As Tribes that are potentially impacted by the 
proposed listing of pacific salmon under the terms of ESA, funds are 
needed for biological review, listing decisions, conferencing, 
consultation and recovery planning to prepare for the changes in 
harvest, hatchery and habitat practices in response to the ESA process.
    Support for $3.0 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative. We support the BIA request of $3,000,000 for 
continued implementation of the President's Northwest Forest 
Development Plan, ``Jobs in the Woods'' Initiative and the designation 
of $400,000 for the Tribal-State of Washington Wild Stock Restoration 
Initiative (WSRI). WSRI is essential to developing a habitat inventory 
base from which restorations projects can begin. This work will extend 
the effectiveness of the limited funds for restoration by providing an 
effective tool for prioritization and design of projects.
    Support for $3.1 million for the Northwest Tribal Ecosystem 
Management initiative. This amount is needed to support the 
coordination and cooperative monitoring effort by the Tribal co-
managers for the protection and restoration of salmon populations, 
consistent with ESA, the Clean Water Act, Natural Resource Conservation 
Service's obligation for salmon recovery, and the Forest Service 
obligations under the Northwest Forest Plan.
    Support additional funding of $4.0 million for the Timber-Fish-
Wildlife Agreement to implement tribal obligations under new state and 
private forest practices rules and regulations pertaining to ESA 
obligations. This amount is needed to allow tribes to effectively 
participate in monitoring and adaptive management processes that are 
integral to the TFW process.
    Support the development of a displaced fishers ``Jobs-in-the-
Woods'' program and a gear and vessel subsidized payment account. Such 
a program would provide meaningful work and a liveable wage for tribal 
members who are adversely impacted due to low fish populations. Such a 
program coupled with a program which provides support to fishers for 
gear and vessel payments during low fish harvests will prevent 
disastrous foreclosures and economic conditions for tribal fishers and 
related businesses.
Self-governance and other national issues
    We support providing the requested increases for the Indian Health 
Service programs as this will begin to close the vast disparity between 
Indian health care and promotion programs and those of the rest of the 
American population. As a group, Indian people have the lowest life 
expectancy of any other group in this country. The trust relationship 
and the government-to-government relationship which exists between the 
Federal Government and Tribal Governments dictates that Native 
Americans and Alaska Natives be provided health care programs which are 
commensurate with the highest quality health care available in this 
country.
    We support providing the requested increases for the Bureau of 
Indian Affairs programs as this will provide tribes with the funds to 
improve and expand their governmental and administrative 
infrastructures so as to be fully responsive to the unique and diverse 
cultural, political, economic, social and health and welfare needs of 
their constituents.
    We support the provision of full funding of Contract Support Costs 
(CSC) for the BIA and the IHS. CSC is an important part of the federal 
resources transferred to Tribes under Self-Determination and Self-
Governance which support vital managerial and administration functions 
essential to any government or business. Further, we support the 
distribution methodology recommended by the National Congress of 
American Indians as this appears to be the most equitable way to manage 
the gross under funding of CSC.
    We support the lifting of the moratorium on contracting and 
compacting as this is a serious affront to tribal sovereignty and a 
serious breach of the government-to-government relationship which 
exists between the federal government and tribal governments as 
established through treaties, legislation, case law, and executive 
orders.
    We support the requests and recommendations of the Northwest 
Portland Area Indian Health Board, the Northwest Indian Fisheries 
Commission, and the Northwest Intertribal Court System. These consortia 
assist us in an efficient and cost effective manner, thus insuring the 
tribes and the federal government that scarce funds are wisely managed. 
Please consider their requests as you consider our individual 
submissions.
    In closing, the Squaxin Island would like to emphasize the long 
list of unmet needs that are evident throughout Indian country We are 
doing everything we can to work with the limited resources available to 
us. The health care of Indian people cannot remain at such a deplorable 
level. We are entering the next millennium, yet Indian people remain as 
the highest risk population in the Nation.
    On February 20, 1998, the U.S. President announced a ``New Racial 
and Ethnic Health Disparities Initiative''. Unfortunately, the 
Administration's initiative is inconsistent with the priorities 
presented by Indian country under the Secretary's consultation policy. 
Funding was removed from our hospitals and clinics line items to 
provide funding for Departmental initiatives. Thus, we look to this 
Committee to correct the gross negligence of our consultative input on 
the part of the Administration.
    In addition, there are three legislative measures which will 
warrant your support during this session of Congress. Each of these 
bills, if passed, will improve the quality and delivery of health 
services to Indian People. Should these items come before you, possibly 
in your capacity on another Committee of Congress, please support these 
measures. And, should you have questions, we would welcome the 
opportunity to address your inquiries. They are:
  --Support H.R. 1167, a bill to make Self-Governance a permanent 
        tribal option in the IHS
  --Support H.R. 403, a bill to elevate the IHS Director to the level 
        of Assistant Secretary, with commensurate pay increase, and 
        keeping the Office of Tribal Self-Governance as a part of, and 
        co-located within that elevated office
  --Support the re-authorization of Public Law 94-437, The Indian 
        Health Care Improvement Act, with provisions to address the 
        funding needs and authorities of contracting and compacting 
        Tribes
    The Committee's support for our requests is much appreciated and on 
behalf of the Squaxin Island people, I thank you for your continued 
efforts.
                                 ______
                                 
        Prepared Statement of Tim Ballew, Chairman, Lummi Nation
    The Lummi Nation is located in the Pacific Northwest of Washington 
State, serving a population of over 4,000 members. The Lummi Nation is 
a fishing community. We have depended on the resources from the oceans 
and the rivers for generations. We are one of the first Tribes to enter 
into Self-Governance. We are proud to say that we are in the tenth year 
of implementation. The following document presents the Lummi Nation's 
funding priorities, as well as regional and national concerns and 
recommendations for your consideration. Further, the Lummi Nation 
strongly opposes any bill, language or legislative rider which 
undermines Tribal sovereignty and our ability to advance our 
governmental responsibilities based on the long standing government to 
government relationship.
                 tribal-specific appropriation requests
    +$1,300,000 to Support Water Negotiations--$300,000 for attorney 
fees, $400,000 for on reservation technical studies, and $600,000 for 
Nooksack River Basin technical studies (Tribal Government Services and 
Water Resources Accounts)
    +$750,000 for Water and Sewer Infrastructure Planning--Provide the 
IHS Sanitation Facilities Construction Program with funds to support 
the planning for upgrading our water and sewer system (IHS Division of 
Facilities & Environmental Engineering (DFEE)
    +$700,000 Increase to Lummi Nation Hatchery--Bureau's Hatchery 
Operation Program Maintenance and Repair Program
$1,300,000.--Support water negotiations summary
    The Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping stone toward a final settlement of the on-
reservation water rights conflicts, which were and still are, 
attributable to the non-Indians disregard for treaty-reserved water and 
fishing rights in the Nooksack River Watershed. Many difficult issues 
remain to be resolved which will require significant technical studies 
and legal consultation before a final agreement can be signed. To 
complete this work the Lummi Nation is requesting $1.3 million during 
fiscal year 2000: $300,000 to defray legal consultation costs, $400,000 
for on-reservation technical studies, and $600,000 for technical 
studies in the Nooksack River Basin. Recommendation: Support the 
increase in the Water Rights Negotiation/Litigation, Attorney fees and 
technical studies.
$750,000.--Support water and sewer infrastructure planning summary
    The Lummi Water and Sewer System services Indian and non-Indian 
residents with a Board of Indian and non-Indian residents elected by 
both the Tribal and non-Tribal community. The System was built in 1983 
and is 16 years old. Currently, the facility is at over 85 percent 
capacity. The Lummi Nation is not in the position to undertake this 
level of planning without assistance from the Indian Health Service. 
Both short and long term planning needs to begin immediately. The 
Nation requests that funds be identified in the IHS/DFEE Sanitation 
Facilities Construction Program to support the planning of a water 
delivery and sewage treatment system infrastructure for the existing 
and projected population of the Lummi Indian Reservation . 
Recommendation: Direct IHS/OEHE to fund Lummi Nation Need for Water and 
Sewer System Planning Request.
$700,000.--Increase to lummi nation hatchery
    The Lummi Nation hatchery is a fully operational hatchery that is 
30 years old this year. The hatchery provides employment and income 
opportunities for many families. The hatchery supplies oyster and clam 
seeds to most of the Northwest Washington Tribes and private growers. 
With the recent Supreme Court decision to uphold the shellfish ruling, 
there will be an increased need both by treaty and non-treaty growers 
for oyster seed and clam seed enhancement projects. These dollars will 
benefit both the Tribal governments and Washington State. 
Recommendation: Request that $350,000 be added to the BIA Hatchery 
Operational Program for the Lummi Nation.
                           regional requests
    The Lummi Nation is an active member of the NWIFC and we support 
the following requests. We further emphasize the Committees 
understanding of the impact of the Endangered Species Act to a tribal 
fishing community. Adequate base funding must be provided for tribal 
participation in ESA activities and the DOI Secretarial Order must be 
fully implemented. Further, emphasis and consideration efforts are 
needed to assist the families whose livelihoods have been devastatingly 
affected. Today, Tribal members are losing their boats which was their 
only source of income.
  --Support for the $3.0 million Bureau of Indian Affairs, Forest 
        Development, Woodland Management, Northwest Forest Plan, ``Jobs 
        in the Woods'' Initiative.--The WSRI is essential to developing 
        a habitat inventory base from which restoration efforts can 
        begin. The remaining $2.6 million from this initiative will 
        allow tribes throughout the Pacific Northwest to continue to 
        conduct watershed analysis and watershed restoration in 
        watersheds within their Usual and Accustomed Areas.
  --Support additional funding of $4.0 million for the Timber-Fish-
        Wildlife Agreement to implement tribal obligations under new 
        state and private forest practices rules and regulations 
        pertaining to ESA obligations.--This is required for tribes to 
        actively participate in state forest practice rules and 
        regulations that have an effect on listed salmon populations. 
        Tribes, as a result of their co-management status, are deeply 
        involved in this management forum. Tribes have a high level of 
        skills and technical capabilities that would greatly facilitate 
        a successful outcome. Tribes will need additional funding to 
        participate in monitoring and adaptive management processes 
        that are a cornerstone to the TFW process.
  --Support for the development of displaced fishers ``Jobs in the 
        Woods'' program and a gear/vessel subsidized payment account.--
        This program is needed to assist displaced tribal fishers. This 
        could provide meaningful jobs and income to tribal members, as 
        they are restricted from harvest opportunities due to low fish 
        abundance. A program that provides support to tribal fishers 
        for gear and vessel payments in absence of revenues from 
        harvest is essential in order to preclude catastrophic bank 
        foreclosures.
  --Support for the $1.95 million Western Washington tribal shellfish 
        management, enhancement, and enforcement funding request to 
        implement tribal treaty rights through the establishment of 
        base shellfish operations.--The Tribes request an additional 
        $1,950,000 for tribal fishery management contracts to be added 
        as part of permanent base. As tribal shellfish programs develop 
        and expand, other issues affecting the shellfish resource have 
        been identified. For instance, very little data and technical 
        information exists for many of the fisheries now being jointly 
        managed by state and tribal managers. This lack of information 
        can impact the fisheries and resources as a whole.
    Although tribes are addressing the basic management 
responsibilities in their shellfish fisheries, it is clear that more 
needs to be done to adequately address resource concerns for the 
benefit of all fishers, Indian and non-Indian alike.
  --Contract Support Costs.--the IHS fiscal year 2000 shortfall in 
        contract support costs totals $109.8 million. Congress should 
        appropriate adequate contract support cost funds to eliminate 
        this shortfall.
  --Contract Health Services.--Contract Care has lost $245 million in 
        unfunded inflationary cost increases and increased costs due to 
        population growth since fiscal year 1992. We support the 
        request of the NWIHB to address and correct this diparity in 
        Indian Country compared to contracted health service providers 
        for non-Indians.
  --Restore CHR funding and grant inflation and pay cost increases. The 
        Indian Health Service should not cut $5 million from this 
        widely supported program. $5 million plus $1.7 million for a 
        total of $6.7 million should be restored to this line item to 
        maintain current services.
    We continue to support the requests and recommendations of the 
Affiliated Tribes of Northwest Indians, Northwest Portland Area Indian 
Health Board and the Northwest Indian Fisheries Commission.
                           national requests
IHS
  --Support the Administration's request for a $170 million increase 
        for the IHS budget
  --Address the funding and service disparities in Indian Health 
        Programs by providing level of need funding for Indian Health 
        Programs
  --Support the Full funding of Contract Support Costs
  --$12.1 million increase for Diabetes Programs
  --$12.1 million increase for Substance Abuse/Alcoholism Programs
  --$7.2 million increase for Health Promotion/Disease Prevention 
        efforts
  --$3.6 million increase for Emergency Medical Services
  --$2.3 million increase for Tribal Environmental Health Programs
  --$15 million increase for cancer screening and treatment, 
        principally for breast and cervical cancer
  --$19.5 million increase for Dental Programs
  --$7.1 million increase for Mental Health Programs
  --Support the replacement of funding for the Indian Health Service's 
        Recruitment and Retention Program and the Physician's Pay 
        Program
  --Support The National Congress of American Indians recommendation 
        regarding the distribution methodology for Contract Support 
        Cost funds
BIA
  --Support the request for $108.4 million for education construction
  --Support the BIA Tribal Priority Allocations request of $716 million 
        as well as the Small and Needy Tribes Appropriation minimum
  --Remove the fiscal year 1999 moratorium on PL 93-638 contracting and 
        compacting
    We continue to support the requests and recommendations of the 
National Congress of American Indians, the National Indian Health 
Board, and other National Indian requests before this Subcommittee in 
the fiscal year 2000 Appropriations.
    In addition, there are three legislative measures which will 
warrant your support during this session of Congress. Each of these 
bills, if passed, will improve the quality and delivery of health 
services to Indian People. Should these items come before you, possibly 
in your capacity on another Committee in Congress, please support these 
measures. And, should you have questions, we would welcome the 
opportunity to address your inquiries. They are:
  --Support H.R. 1167, a bill to make Self-Governance a permanent 
        tribal option in the IHS
  --Support H.R. 403, a bill to elevate the IHS Director to the level 
        of Assistant Secretary, with commensurate pay increase, and 
        keeping the Office of Tribal Self-Governance as a part of, and 
        co-located within that elevated office
  --Support the re-authorization of Public Law 94-437, The Indian 
        Health Care Improvement Act, with provisions to address the 
        funding needs and authorities of contracting and compacting 
        Tribes
    I appreciate your consideration of the fiscal year 2000 requests 
and recommendation of appropriations for the BIA/IHS, on behalf of the 
Lummi Nation. Thank you.
                                 ______
                                 
  Prepared Statement of Billy Frank, Jr., Chairman, Northwest Indian 
                          Fisheries Commission
    On behalf of the Northwest Indian Fisheries Commission member 
tribes, I want to thank the Subcommittee for the opportunity to present 
testimony on our fiscal year 2000 fisheries and habitat management 
needs that fall within the Bureau of Indian Affairs budget.
           summary of fiscal year 2000 appropriations request
    In general, the NWIFC supports the Administrations appropriation 
request that is presently before the Subcommittee. Specifically, the 
NWIFC requests funding and direction which will achieve the following 
for fiscal year 2000:
  --Provision of Contract Support Funding at 100 percent levels 
        necessary for existing and emerging programs;
  --Support for the $1.247 million Bureau of Indian Affairs, Resources 
        Management, Endangered Species Initiative line item;
  --Support for the $3.0 million Bureau of Indian Affairs, Forest 
        Development, Woodland Management, Northwest Forest Plan, ``Jobs 
        in the Woods'' Initiative line item and from this amount a 
        designation of $400,000 for the Wild Stock Restoration 
        Initiative;
  --Support additional funding of $4.0 million for the Timber-Fish-
        Wildlife Agreement to implement tribal obligations under new 
        state and private forest practices rules and regulations 
        pertaining to ESA obligations;
  --Support the development of a displaced fishers ``Jobs-in-the-
        Woods'' program and a gear/vessel subsidized payment account; 
        and,
  --Support for the $1.95 million western Washington tribal shellfish 
        management, enhancement, and enforcement funding request to 
        implement tribal treaty rights through the establishment of 
        base shellfish operations
                              introduction
    Twenty-five years ago, the U.S. v. Washington case was decided by 
the federal court system. This decision, respecting the treaty rights 
of our member tribes, propelled major changes in fisheries management 
in the Pacific Northwest. These changes have not only fundamentally 
altered the legal, political, social and economic institutions of the 
State of Washington, but have also fostered a nationwide quest for 
tribal self-determination and self-governance led in part by the 
Northwest tribal leadership. These parameters affect both the way 
tribes perform fisheries management, as well as how we approach the 
federal system during the budget/appropriations and legislative 
processes.
                       tribal and nwifc programs
    We are at a turning point in natural resource management in the 
Pacific Northwest.
    We have made great strides in institutionalizing tribal management 
consistent with tribal values, treaty rights and federal court 
decisions. We have developed great professional capabilities and policy 
respect as we proceed through the various processes. We are efficient 
and effective, but we are still far short of where we would like to be 
in our capabilities. And, while we have efficiently organized our tasks 
and assigned responsibilities between our tribal community to extend 
our collective efforts, the management obligations are many. New and 
highly difficult complexities abound, many precipitated by the demands 
of the Endangered Species Act (ESA) and the Clean Water Act (CWA). We 
are challenged now with three separate ESA listings of threatened 
salmon populations and over 666 water bodies listed under Section 303 
(d) of the CWA. To meet this challenge, we will need all of our 
existing funding and additional new resources.
    Over the past decade, tribes have been able to secure new monies 
for additional responsibilities. However, over the same time, tribes 
have seen other monies they once received for other duties diminish, 
either through inflation or through the elimination of program and 
support funding. And in this process, Indian natural resource 
management capacity has been unfairly affected. With a small base, any 
cuts to tribal resource programs have profound impacts to tribal 
management. Therefore, we strongly urge the Subcommittee to guard 
against any diminishment of the tribal program funding base, and do all 
it can to strengthen and enhance the Bureau's Trust, Tribal Priority 
Allocation and Self-Governance Program funding. We also ask that the 
Subcommittee will ensure that the Western Washington-Boldt 
Implementation and the Pacific Salmon Treaty base budgets will be fully 
funded for this coming year.
        contract support funding is essential to tribal programs
    We continue to have concerns that the Bureau of Indian Affairs has 
failed to fully request Contract Support Funds for tribal programs. We 
are also concerned that Congress has not fully appropriated their 
necessary funds. An artificial cap upon the funding pool for indirect 
cost reimbursements places a huge burden on tribal fisheries programs. 
Such a failure has led tribal programs to reduce direct funding for 
indirect, mandated purposes. The net effect has been a loss of program 
purchasing power and program staff capability. For the NWIFC in fiscal 
year 1999, we have planned for a $250,000 contract support shortfall. 
What this means is that we are not spending that amount for direct 
services from our Fisheries Management or Pacific Salmon Treaty 
Contracts, but rather are allocating that to cover necessary 
administrative costs not provided due to the indirect shortfalls. We 
have been, and will be forced to continue to reduce our programs to 
cover these costs as mandated by law. Such a burden cannot be borne by 
tribal programs again this year or into the future without onerous 
results. In addition, the actual level of contract support is not 
determined until late in the fiscal year making cash flow management 
extremely difficult.
wildstock restoration initiative/watershed restoration/northwest forest 
               plan/endangered species act implementation
    In late February, a number of species of Pacific Salmon were 
``listed'' by the National Marine Fisheries Service as ``threatened'' 
under the terms of the Endangered Species Act (ESA). This ESA listing 
process will likely trigger a cascading chain of events, culminating in 
significant changes to harvest, hatchery and habitat practices for the 
region and its inhabitants.
    Tribes will be affected by this federal process. As fisherman, the 
listing raises serious questions about the status of the stock and pose 
a threat to the individuals opportunity to continue to harvest this 
salmon, a treaty-secured resource. As governments, the ESA process 
places inordinate demands upon the tribes as co-managers of the 
resource. Biological Reviews, Listing Decisions, Conferencing, 
Assessments, Opinions, Consultation, and Recovery Planning are just a 
few of the series of loops tribes will now be forced to participate in 
just to ensure their treaty protected fisheries. The tribes harvest 
opportunity and management certainty will be placed in severe jeopardy 
by these actions without additional funds to manage through the risks 
imposed by this federal mandate.
    It is partly for these reasons that the tribes have worked very 
hard over the years to bring about positive and effective change in 
resource management. Unfortunately, the process has overtaken tribal 
efforts, and new obligations are upon us. That is why we are asking for 
additional funding beyond our base program.
    We would like to support the new initiative developed by the Bureau 
of Indian Affairs which would enhance the Bureau and tribes' abilities 
to respond to the ESA process. This amount is for $1.247 million, and 
is an effort to meet the ESA process obligations by enhancing tribal 
and bureau capacity building.
    We are also requesting that the Subcommittee continue to provide 
$400,000 for the Wild Stock Restoration Initiative from the $3.0 
million Bureau of Indian Affairs, Forest Development, Woodland 
Management and the Northwest Forest Plan ``Jobs in the Woods'' 
Initiative line item. The WSRI is essential to developing a habitat 
inventory base from which restoration efforts can begin. The remaining 
$2.6 million from this initiative will allow tribes throughout the 
Pacific Northwest to continue to conduct watershed analysis and 
watershed restoration in watersheds within their Usual and Accustomed 
Areas. This approach is identical to last year's request, which the 
Subcommittee supported.
                timber-fish-wildlife agreement expansion
    Finally, we are supporting additional funding to tribes for 
expansion of the Timber-Fish-Wildlife program that cooperatively and 
collaboratively allows tribes to actively participate in state forest 
practice rules and regulations that have an affect on listed salmon 
populations. Tribes, as a result of their co-management status, are 
deeply involved in this management forum. Tribes bring to the table a 
very high level of skills and technical capabilities that if 
appropriately funded, would greatly facilitate a successful outcome. 
Tribes will require additional funding to participate in monitoring and 
adaptive management processes that are a cornerstone to the TFW 
process. That is why we are seeking an additional $4.0 million for 
expansion of this program to implement new forest practice rules and 
programs within the State of Washington. On a related note, tribes are 
also watching closely the Commerce, Justice and State Subcommittee on 
Appropriations treatment of the Department of Commerce Coastal Salmon 
Restoration Initiative of $100 million. Without these monies as well, 
the tribes ability to work through the TFW process will be severely 
constrained.
    There is also a strong need for a program to assist displaced 
tribal fishers. A ``Jobs-in-the-Woods'' like program that employs 
tribal fishers will provide meaningful jobs and income to tribal 
members as they are restricted from harvest opportunities due to low 
fish abundance. A program that provides support to tribal fishers for 
gear and vessel payments in the absence of revenues from harvest is 
essential in order to preclude catastrophic bank foreclosures. Such a 
program should be a combination of grant and/or loan packages that 
reflects the economic status of tribal fishers.
                    shellfish management initiative
    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell clams and oysters were collected from 
shoreline areas. Other shellfish species, such as crab and shrimp, were 
also gathered for subsistence and commercial uses. Shellfish harvesting 
was as important to tribal traditional life and commerce, as was 
fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850's, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts have arisen, 
and the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the federal courts system. Now after five years in the courts, 
the tribal rights to harvest have been clarified, when the Supreme 
Court just this month denied cert. and let stand the decision of the 
9th Circuit Court. Tribes have steadily moved forward during this time 
in implementing their treaty rights to harvest their share of the 
resource. Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. The chaos predicted by some non-Indian 
groups concerning tribal access to private tidelands has not 
materialized. Tribes have fully cooperated with landowners when 
attempting to access privately owned tidelands under the rules set by 
the Court.
    As tribal shellfish programs develop and expand, other issues 
affecting the shellfish resource have been identified. For instance, 
very little data and technical information exists for many of the 
fisheries which are now being jointly managed by state and tribal 
managers. This is particularly true for many free swimming and deep-
water species. This lack of information can not only impact fisheries 
and the resource as a whole, but makes it difficult to assess the 
treaty/non-treaty sharing arrangements. Additionally, intertidal 
assessment methodologies differ between state and tribal programs, and 
can lead to conflicts in management planning.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree regarding shellfish sanitation. 
This agreement establishes the interaction of the state department of 
health and the tribes in developing and implementing shellfish 
sanitation programs designed to protect the public health. The 
implementation of the decree has revealed to both the state and the 
tribes that the presence of biotoxins in shellfish is dangerously 
unacceptable, and threatens the viability of both the state and tribal 
fisheries. Additional research and monitoring of this biotoxin is 
necessary to prevent illness and death that may result from consuming 
toxic shellfish.
    The significant value of deep-water shellfish fisheries has 
increased illegal harvesting. Enforcement of these fisheries, at both 
the state and tribal levels, are not adequate to fully enforce these 
fisheries. Tribes and state enforcement agencies are addressing 
problems by coordinating patrols, but additional monitoring of harvest 
is needed to effectively manage these fisheries.
    Though tribes are addressing the basic management responsibilities 
in their shellfish fisheries, it is clear that more needs to be done to 
adequately address resource concerns for the benefit of all fisheries, 
Indian and non-Indian alike.
    Additional funding to tribal programs is needed to address the 
aforementioned issues. Western Washington tribes request the 
Subcommittee to add an additional $1,950,000 to tribal fishery 
management contracts as part of the permanent base. This would provide 
approximately $97,500 per tribe, and allow a very modest amount for 
coordination activities. This request is supported by a wide range of 
individuals, organizations, and governments and is necessary to 
effectively manage the shellfish resource.
                               conclusion
    We appreciate the Subcommittee's continued support for the tribes 
and the NWIFC as we implement our co-management responsibilities. It 
takes funding resources to make our management system work, but the 
returns to our efforts are many. Tribal communities depend on fisheries 
for their cultural, social and economic livelihood. Because of our 
tribal management capabilities, in large part supported by this 
Subcommittee, we do feel that we are making some progress in protecting 
our resources. However, the challenges are great, and we must continue 
our effort with renewed vigor. We thank you for your attention to our 
needs. We leave you with supporting documentation for our requests. We 
are available to meet with you and your staff at your leisure.
                                 ______
                                 
   Prepared Statement of W. Ron Allen, Tribal Chairman and Executive 
                  Director, Jamestown S'Klallam Tribe
    Mr. Chairman, on behalf of the Jamestown S'Klallam Tribe, I thank 
you for the opportunity to express our concerns and requests regarding 
the fiscal year 2000 Bureau of Indian Affairs and Indian Health Service 
budgets. The following document presents the Jamestown S'Klallam 
Tribe's funding priorities, as well as other regional and national 
concerns and recommendations for your consideration.
                         overall recommendation
    The Jamestown S'Klallam Tribe strongly recommends that the 
Subcommittee not consider any provisions or legislative riders which 
undermine Tribal sovereignty and our ability to advance our 
governmental capacity based on long-standing Federal/Tribal relations 
and Federal Indian law and policy. Further, the Tribe strongly opposes 
any moratorium on self-determination contracting and self-governance 
compacting. Any such moratorium is a direct assault of tribal 
sovereignty by eliminating the rights of tribal governments to contract 
or compact for programs and services for their respective communities.
                tribal-specific appropriation priorities
    1. $45,000 increase in IHS Services appropriations plus full 
funding of related contract support costs for the Jamestown S'Klallam 
Tribe IHS Self-Governance base budget;
    2. $260,000 one-time funding for development of a community on-site 
sewage disposal system;
    3. $600,000 one-time funding for the purchase of land adjacent to 
our existing reservation and;
    4. $30,000 increase in BIA Tribal base funding for unfunded 
Operations & Maintenance programs.
                 regional requests and recommendations
    1. Support all requests and recommendations of the Affiliated 
Tribes of Northwest Indians, Northwest Portland Area Indian Health 
Board, and the Northwest Indian Fisheries Commission.
           self-governance and other national considerations
    1. Restore and expand $1,000,000 increase to the DOI Office of 
Self-Governance for planning and negotiation grants;
    2. Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $23,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    4. Provide $146,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services; and,
    5. Support all requests and recommendations of the National 
Congress of American Indians.
                tribal-specific appropriation priorities
Increase In IHS services for Jamestown S'Klallam self-governance base--
        +$45,000
    We are now in our sixth year of implementation of Self-Governance 
with the Indian Health Service (IHS). During that time, we have 
negotiated for a majority of the IHS programs and services and have re-
designed our Tribal health services into a comprehensive Tribal managed 
care program. As a small Tribe managing a new and innovative program, 
it is critical that we maintain stable base funding levels to ensure 
successful implementation of our managed care program and to provide 
critical health care services to our members.
    When the IHS Contract Health Services (CHS) budget was first 
compacted under Self-Governance in fiscal year 1996, the Jamestown 
S'Klallam Tribe was able to stretch the funding into a guaranteed 
benefit package for Tribal members. This was accomplished through 
aggressively coordinating existing state, federal and private health 
coverage. This Managed Care Program, which has achieved great success 
in improving access at a lower cost, was created in a post-health 
reform environment which, unfortunately, no longer exists. Since state 
and national health reform plans evaporated in 1997, the cost of 
purchasing and providing health care services has again begun to 
escalate more rapidly (after a temporary slowing of medical inflation). 
Tribal programs will not be able to sustain CHS programs in this 
environment unless IHS funding keeps pace with medical inflation.
    A 4-year analysis of our Tribal CHS funds vs. medical costs reveals 
a growing and worrisome discrepancy between the cost of services and 
CHS budget allocation. Program costs increased at an annual average of 
27.0 percent over the three fiscal years, while CHS increased at an 
annual average of only 1.3 percent.
    Our Tribal program simply cannot afford to continue to absorb these 
costs. The Tribe requests the Subcommittee to direct IHS to restore 
mandatories in order to address the rising cost of providing health 
care services and to increase our Self-Governance base budget by 
$45,000 to provide for adequate medical and general inflationary (as 
well as related contract support costs) needed to maintain our current 
Tribal health program.
Development of a community on-site sewage disposal system--+$260,000
    As documented by IHS, the Tribe's existing wastewater facilities 
are severely impaired. Our location adjacent to Sequim Bay, our limited 
land base and the limited capacity of that land, have all combined to 
create a situation where our systems are failing where they are and we 
have to move them to a more suitable site. When one of our septic drain 
fields failed, we were required to shut down our Tribal Community 
Center facility it served. Yet, when we applied for money to fix it, we 
were told that because it was not being used, it was not a public 
health threat and therefore did not qualify for emergency funding. 
These facilities serve our Children, our Elders and even the non-Tribal 
community. To apply for funding from IHS, we would be put on a national 
waiting list; the earliest possible money-in-hand to fix the septic 
system would be in the year 2000. To qualify for Rural Utilities 
funding through USDA, we would have to serve non-Indian residences off 
reservation land. We do not qualify for other funding sources because 
our small reservation does not have residences. We are required to have 
a functioning sewage disposal system to serve our Tribal facilities, 
but do not have access to the $260,000 necessary to ensure that 
requirement.
    Last year, before our septic system failed, we were awarded 
$277,733 from HUD to construct a community well to serve our Tribal 
facilities. Even so, this was $57,000 less than we needed-HUD simply 
ran out of funds. We cannot count on additional funding from HUD to fix 
our septic system, and we cannot continue to operate with a 
substandard, poorly functioning system. Therefore, we request the 
Subcommittee to fund $260,000 so that we can relocate our wastewater 
disposal system away from the sensitive resources of Sequim Bay and 
provide our facilities with a consolidated, fully functioning sewage 
system.
Establishment of tribal land base--+$600,000
    For the past 8 years, the Tribe has requested the Subcommittee's 
assistance in securing additional land to add to our existing 
reservation. This request remains unfunded and we again appeal to the 
Subcommittee for your consideration of funding for this land 
acquisition. In the 1870's, Tribal members rejected a relocation policy 
(urged on by white settlers) to move them from their historical lands 
to another Tribe's reservation. In 1981, the Jamestown S'Klallam Tribe 
achieved federal recognition. Since that time, we have been attempting 
to undo the effects of this injustice, which had devastating social, 
economic, and cultural impacts for on the Tribe. We strongly believe 
the United States government has an obligation to assist the Tribe in 
correcting these negative impacts. One way this situation can be 
addressed is for the Congress to assist us to increase on our meager 
reservation land base; a base that would have been substantially larger 
had it not been for the 100-year wait for our recognition.
    A contiguous ten (10) acre site still remains available for 
purchase at approximately $600,000. This land acquisition would allow 
us to expand our facilities to meet the steadily increasing demand for 
services by our Tribal members. Our Tribe is now at a critical juncture 
in this rapidly evolving situation. We need Congressional assistance to 
purchase the adjacent property which is essential for logical and 
efficient growth management of the Tribal operations. If the Tribe does 
not acquire the tract and a third party purchases and develops the 
land, we will obviously be blocked from any further practical expansion 
of our reservation base due to the geographic conditions of this area. 
In addition, the likelihood of a price escalation for this acreage 
exists.
Increase in BIA tribal base funding for operations & maintenance--
        +$30,000
    Federal programs with jurisdiction over water and wastewater 
facilities and/or funding (EPA, IHS, HUD) require that a formal 
operations and maintenance program be adopted and implemented. These 
facilities require a certified operator employed by the tribe, ongoing 
monitoring and maintenance, and equipment reserves at an estimated 
annual cost of $30,000. O & M programs are not funded by the agencies 
requiring them, nor are they eligible for funding under any program; 
thus, they are an unfunded mandate. If we are to meet the requirements 
for successful operation of our facilities, we must request an 
additional $30,000 annually.
                 regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
Self-Governance And Other National Considerations
  --Restore and Expand $1,000,000 increase to the DOI Office of Self-
        Governance for planning and negotiation grants.--Funding for 
        Self-Governance negotiation and planning grants was deleted 
        from the DOI Self-Governance office last year. However, Tribal 
        participation in the Self-Governance initiative continues to 
        increase. In fiscal year 1999, a total of $209 million in 
        funding has been obligated and transferred from the BIA to 209 
        Tribal governments under Self-Governance. The proposed 
        restoration of funding includes award of ten (10) $50,000 
        planning grants and ten ($50,000) negotiation grants.
  --Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
        documented need.--CSC funds are required for Tribes to 
        successfully manage their own programs. While the 
        Administration's budget request for fiscal year 2000 includes a 
        modest increase for CSC, it is woefully inadequate to make any 
        meaningful inroad into a shortfall that continues to penalize 
        Tribes which elect to operate BIA and IHS programs under the 
        self-determination policy. Additional CSC appropriations are 
        needed to implement the self-determination and self-governance 
        policy as supported by Congress. We urge the Subcommittee to 
        fully fund CSC for Tribes similar to how other contractors are 
        funded within the federal government.
  --Provide a minimum of $23,000,000 in BIA Tribal Priority Allocation 
        (TPA) General Increase for inflationary adjustments.--Although 
        the Administration's budget request for fiscal year 2000 
        includes a $17.0 million increase over fiscal year 1999, the 
        request contains no general increase for TPA. This activity 
        includes the majority of the funds used to support on-going 
        services at the local Tribal level including such programs as 
        housing, education, natural resources management and Tribal 
        government services. At a minimum, the requested amount will 
        provide for a modest 3 percent inflation adjustment for 
        existing Tribal programs and services.
  --Provide $146,000,000 for IHS mandatory, inflation and population 
        growth increase needed to maintain existing health care 
        services.--These costs are unavoidable and include medical and 
        general inflation, pay costs and staff for recently constructed 
        facilities. IHS and Tribal programs have been forced to absorb 
        these costs over the past 8 years. In an analysis conducted by 
        the Northwest Portland Area Indian Health Board, the 
        compounding effect of multi-year funding shortfalls from (FY 
        1993-FY 1999) have resulted in $1.2 billion in real resources 
        lost! If unfunded, these cost increases will result in further 
        health service reductions in our Tribal communities.
    In conclusion, we strongly recommend increased funding levels 
within the BIA and IHS budgets for critically-needed existing programs. 
It is truly unconscionable and outrageous for Tribal governments who 
have struggled to secure decent housing, health care, and other 
programs for its people to suffer further reductions in funding. This 
funding is an obligation stemming from solemn commitments of the U.S. 
to Indian people to provide basic health, safety, education and 
economic security. We appreciate this Subcommittee's continued support 
and urge that Tribal government operations be afforded the highest 
priority in your appropriation decisions.
                                 ______
                                 
     Prepared Statement of Kerry L. Sublette, Sarkeys Professor of 
 Environmental Engineering, University of Tulsa, Director, Integrated 
               Petroleum Environmental Consortium (IPEC)
    It is proposed that $750,000 be appropriated from the Bureau of 
Land Management (Energy and Minerals), or other account that the 
Committee may deem appropriate, to fund a program to train Native 
American tribal authorities (1) to remediate environmental damage 
resulting from past spills of crude oil and produced water brine and 
(2) to train other tribal personnel in the same skills.
 ``train the trainer''--expanding environmental know-how among native 
                               americans
    Historically much of the oil and gas produced in Oklahoma has come 
from Indian land. In the culture surrounding the early days of oil and 
gas production there were few environmental regulations or concerns. 
This past lack of proper environmental practice resulted in damage that 
is still visible and problematic today. The most persistent problem is 
the contamination of soil and groundwater from past spills and 
discharge of produced water brine. Historic brine spills are seen today 
as scars on the land, devoid of vegetation, and highly eroded. Because 
of the age of these spills most of the companies responsible are no 
longer in business. Historic brine scars not only represent a loss of 
use of land but also a continuing source of pollution of valuable 
surface waters and groundwater. These brine-impacted sites contain salt 
and runoff and drainage from these sites jeopardizes public and private 
sources of drinking water. The sole solution to this continuous source 
of salt pollution is remediation. Many Oklahoma tribes occupy lands 
scarred by past brine spills. The salt in these scars threatens tribal 
recreational and drinking water sources.
    Today when oil or brine is spilled on Indian land, many times no 
one is held responsible for the cleanup. When a responsible party can 
be identified there is frequently bureaucratic confusion about the 
proper course of action. The Bureau of Indian Affairs, the state 
regulatory agencies, the Bureau of Land Management, and the 
Environmental Protection Agency all have regulatory and enforcement 
responsibilities, but it is unclear where one agency's responsibility 
ends and the other begins. The result is contaminated tribal land with 
no clear path to remediation and restoration.
    In response to these problems tribal organizations, such as the 
Inter-Tribal Environmental Council (ITEC) in Oklahoma, have been formed 
to inform and assist member tribes in dealing with environmental damage 
produced by past and current spills of produced fluids (oil and brine) 
on tribal lands. These organizations are terribly underfunded and in 
critical need of training in remediation, well plugging, and well 
inspections.
    Through its technology transfer program for the domestic petroleum 
industry, the Integrated Petroleum Environmental Consortium (IPEC) can 
provide some of this training. However, what tribal organizations 
really need is the self-sufficiency that will come from having their 
own environmental specialists and trainers. IPEC proposes to provide 
these organizations with an in-depth training program in environmental 
know-how related to these oil and gas related problems resulting in the 
education of Native American environmental specialists. Further IPEC 
proposes to give these specialists the skills and resources to allow 
them to train others in methods of remediation of oil and brine spills 
and pollution prevention.
    The remediation of crude oil spills and brine scars does not 
require expensive instrumentation or highly specialized equipment. The 
major equipment required is simply earth-moving equipment. Most tribes 
have equipment of this type currently used for road work and other 
municipal projects. Therefore, remediation of oil and brine spills is 
not economically beyond the reach of the tribes. By ``training the 
trainer'' IPEC extends its reach beyond the classroom into the tribes 
building self-sufficiency within the tribes to solve environmental 
problems on tribal lands and protect precious natural resources. Teach 
a student and you have reached one student, train a teacher and your 
reach is boundless.
    Specifically the requested appropriation will be used to provide 
intensive classroom and field training to tribal authorities using oil 
and brine-impacted sites on tribal lands as field laboratories. Tribal 
personnel will obtain valuable hands-on experience in site assessment 
and characterization, spill control, and remediation using both 
established technology and new innovations that offer greater cost 
effectiveness and environmental protection. As a deliverable from this 
project IPEC will develop a curriculum, field training manuals, and 
audio-visual aids that can be used by trained tribal personnel to 
provide training to others. Of course a student does not become a 
teacher by simply acquiring information. Therefore, the program will 
also incorporate training to develop teaching skills. IPEC will also 
incorporate dialog between tribal personnel and regulatory agencies and 
oil and gas producers as an integral part of the program to promote the 
development of a mutually beneficial relationship between the tribes 
and the industry.
    IPEC will draw on faculty from member institutions as well as its 
partner organization the Waste-management Education & Research 
Consortium (WERC) to provide instructors for the proposed training 
program. Undergraduate and graduate students in science and engineering 
from these same institutions will participate in the program as 
mentors, teaching assistants, and participants in field projects. It is 
often said that the best way to learn is to teach. Therefore, an added 
benefit to the proposed project is the additional field training that 
IPEC and WERC institution students will obtain from their 
participation.

                               about ipec
    The Integrated Petroleum Environmental Consortium (IPEC) is an 
environmental consortium of the University of Oklahoma, Oklahoma State 
University, the University of Tulsa, and the University of Arkansas at 
Fayetteville. Funded as an EPA Research Center, the mission of IPEC is 
to increase the competitiveness of the domestic petroleum industry 
through a reduction in the cost of compliance with U.S. environmental 
regulations. This mission is accomplished through a vigorous research 
program for the development of cost-effective technologies to address 
environmental problems having the greatest economic impact on the 
domestic industry and ``how to'' focused technology transfer to the 
industry. IPEC is advised by an Industrial Advisory Board (IAB) 
composed of environmental professionals, state regulators, and 
independent operators who review all research proposals for relevancy 
to IPEC's mission. This Board is dominated by the upstream independent 
sector of the industry. IPEC is also advised by a Science Advisory 
Committee (SAC), composed of leading environmental experts from 
academia and government laboratories, that reviews all research 
proposals for scientific quality. IPEC also sponsors the annual 
International Petroleum Environmental Conference as its principal 
technology transfer flagship.

                               about werc
    The Waste-management Education & Research Consortium (WERC) was 
established in 1990 by the Department of Energy to expand the nation's 
capability to address waste management issues through education, 
technology development, and technology transfer. WERC member 
institutions are New Mexico State University, the University of New 
Mexico, the New Mexico Institute of Mining and Technology, Dine 
Community College, Los Alamos National Laboratory, and Sandia National 
Laboratories. Environmental education serves as the cornerstone of 
WERC. All WERC member institutions provide services to support 
undergraduate and graduate degree programs, environmental 
certifications, workshops, and conferences. WERC also operates four 
specialty environmental laboratories providing services to WERC 
institutions and the community; these are the Soil-Water Testing 
Facility, the Environmental Radioactive Monitoring Laboratory, the 
Hobbs Oil Water Experimental Facility and the Navajo Drylands 
Environmental Laboratory.
                                 ______
                                 
 Prepared Statement of Karen Dixon Blazer on Behalf of Association of 
            Navajo Community Controlled School Boards, Inc.
    Mr. Chairman and Members of the Subcommittee: My name is Karen 
Dixon Blazer. I appear on behalf of the Association of Navajo Community 
Controlled School Boards (ANCCSB), whose members operate BIA-funded 
schools on the Navajo Reservation under contracts or grants from the 
Bureau of Indian Affairs. My testimony focuses on the need to 
adequately fund BIA school operations and facilities in order to 
improve the educational opportunities for Indian children.
    ANCCSB has placed highest priority on the need to eliminate the 
backlog in the construction and repair of BIA schools and to provide 
full funding for administrative cost grants.
                     school construction and repair
    ANCCSB supports the priority ranking of new school construction 
projects. The BIA budget request, however, does not fully honor the 
priority list. The Bureau properly asks for funding for a new Seba 
Dalkai School, which is 9th on the priority list. But then it skips 
over the 12th school--Shiprock Alternative--which would be next in line 
for funding (as the 10th and 11th schools have already been funded), 
and requests an appropriation for Fond du Lac, the 14th ranked school. 
The BIA budget justification admits that Shiprock will finish the 
design stage in September of this year; thus Shiprock will be ready to 
begin construction in October. We ask the Subcommittee to correct this 
error by providing construction funding for Shiprock in fiscal year 2 
000.
    ANCCSB continues to be seriously concerned about the tremendous 
backlog in replacement school and dorm funding. A December, 1997 
General Accounting Office report regarding Indian school conditions 
found that our school facilities are in poorer physical condition than 
other schools nationally. They found that 62 percent of BIA schools 
have at least one building in need of extensive repair or replacement, 
compared to only 33 percent nationally and to 38 percent of inner-city 
schools. In the GAO study, the BIA reported that the cost of the total 
inventory or repair needed for BIA education facilities was $754 
million. The size of this backlog increases daily, as construction 
costs continue to rise.
    Yet the BIA's budget seeks funding for only two new schools, and 
even more disturbing, actually seeks a reduction of $4 million for 
education facility improvement and repair. We find this unconscionable.
    The BIA's $30 million proposal for issuance of ``bonds'' will not 
cure the backlog. For that proposal even to be implemented, Congress 
must first enact the Administration's massive national school 
modernization initiative, a small part of which would provide $200 
million in tax credits for tribal schools if tribes are able to issue 
bonds for school construction. Since the proposed BIA bill language 
says the bonds would not be guaranteed by the Federal Government, the 
ability of most tribes to even issue a bond is highly doubtful.
    ANCCSB supports Senator Pete Domenici's position that the best way 
to alleviate the Indian school construction and repair backlog is to 
fully appropriate the needed funding over a 5-year period. We ask you 
to make this commitment now. As ANCCSB has previously testified, there 
is compelling evidence which shows a strong link between student 
achievement and the learning environment. But many Indian children are 
forced to attend school in buildings which are dilapidated and unsafe.
                       administrative cost grants
    Administrative Cost Grants enable tribes to exercise their self-
determination rights guaranteed by acts of Congress. We need the 
Committee's careful attention to the BIA's budget justification 
regarding these Grants because to us it makes no sense. Note the 
following:
  --In the current School Year (SY98-99), 116 schools are operated by 
        tribes and receive AC Grants. BIA reports that it supplied only 
        89.54 percent of the amount required by law for these AC Grants 
        using the $42,160,000 supplied in fiscal year 1998. (This 
        program is ``forward funded''.)
  --In fiscal year 1999, Congress did not increase the budget for AC 
        Grants; it remained at $42,160,000. These are the funds that 
        will supply AC Grants in SY99-2000. BIA's budget says 129 
        schools will be operated by tribes in SY99-2000 and then 
        estimates that it will be able to supply 94 percent of the 
        amount required by law. This makes no sense. How can the 
        percentage of need met increase when there will be 13 more 
        eligible schools but no additional funding to cover their AC 
        Grant needs?
  --In the fiscal year 2000 request, BIA reports that 10 more schools 
        will convert to tribal operation in the Navajo Nation alone in 
        SY200-2001 (the school year covered by the fiscal year 2000 
        budget)--which brings the total to 139 schools. BIA asks for 
        $5.5 million to cover the AC Grant needs for these 10 schools. 
        But it does not tell you how much of the system-wide AC Grant 
        need it will be able to cover with this additional funding. If 
        it were enough to supply 100 percent of the statutory formula, 
        BIA would have said so. The only conclusion we can draw is that 
        we will get far less that what the law requires. Obviously, 
        when more schools are eligible for AC Grants, each will suffer 
        a reduction from the full amount needed.
    Please ask BIA how much will be needed to cover 100 percent of the 
AC Grant needs of the 139 schools that will be tribally-operated in 
SY2000-2001 and appropriate the full amount needed.
    ANCCSB also urges the Committee to delete the BIA's bill language 
which places a cap on the amount of funds that can be used for AC 
Grants. This language is designed to overcome a decision from the 
Interior Board of Contract Appeals that Congress meant what it said 
when it directed that schools receive 100 percent of their AC Grant 
formula amount. This BIA language breaks faith with the schools that 
the Interior Department should be fully supporting.
                   facilities operation & maintenance
    We are puzzled why BIA wants to split the ``facilities operation 
and maintenance'' budget into two separate accounts--``operations'' and 
``maintenance''. The Bureau's justification merely says it wants to 
``prevent co-mingling'' of funds and to ``increase accountability for 
maintenance expenditures.'' The agency does not explain, however, what 
the problems are with the current system, nor how this proposed change 
in budget organization will ``cure'' any perceived problem.
    If the Bureau wants to achieve some specific accounting objectives 
with regard to the Bureau-operated schools, it has the authority now to 
do so. But the separation of this budget category into two parts will 
not give BIA control over whether funds provided to contract and grant 
schools are spent for ``operation'' or ``maintenance''. The directives 
applicable to use of funds by contract and grant schools are set out in 
the Indian Self-Determination Act and the Tribally Controlled Schools 
Act, not by how the BIA decides to organize its budget request. 
Frankly, it does not make sense for BIA to dictate from its Central 
Office how the whole system should use its operation and maintenance 
funds. Local school boards must have the ability to decide how best to 
allocate scare resources to respond to the conditions and circumstances 
of their own buildings.
    The more important issue, however, is that the combined request for 
``operation'' and ``maintenance'' remains woefully inadequate to meet 
facilities needs. Last year, a draft of the BIA budget contained a 
brutally frank acknowledgment that the budget request was so low that 
``all BIA funded schools will experience lower operating budgets and 
continued deterioration of physical plant conditions, and will 
perpetuate unsafe conditions for students and school staff.'' (The four 
paragraph analysis of the facilities O+M budget was deleted from the 
justification before it went to Congress, so you did not get to see 
it.) The fiscal year 2000 budget request is only slightly more than 
last year's.
    At best, the combined $79 million requested for facilities is 33 
percent below the needed amount, according to the BIA's FACCOM formula. 
We ask the Committee to appropriate $118 million to fully fund 
education facilities needs.
                         student transportation
    ANCCSB commends the Bureau for continuing its efforts to bring 
funding for student transportation into line with the national average 
expenditures in public schools--but we're not there yet. BIA estimates 
that the fiscal year 2000 budget request will enable it to provide 
$2.19/mile in SY2000-01. By comparison, the national average was $2.92/
mile six years ago (SY93-94). It is no wonder that schools must 
continue to divert ISEP formula funds to cover transportation costs.
    We ask that the transportation budget be increased by $6.2 million 
to at least bring the rate per mile to the six-year-old national 
average of $2.92.
                   indian school equalization program
    In 1991, a BIA Task Force recommended that the weighted student 
unit (WSU) be funded at $3,499. For the school year beginning nine 
years later (SY2000-01), the BIA's budget request is still more than 
$200/WSU short of that target.
    It is our goal to provide a high quality education for Navajo 
children to provide the tools they need to compete in today's world and 
become tomorrow's leaders. Our schools do a praiseworthy job with the 
resources they have, but we constantly look forward to the day when we 
can provide our children with educational opportunities that are more 
comparable to those enjoyed by other children in this country. For 
this, we must look for ISEP formula funding increases.
    We question the Bureau's budget priorities. For example, BIA seeks 
$7.3 million to fund 90 FTEs for ``agency/area technical support''. 
This works out to an average of $81,700 per person. Similarly, the $4.4 
million for ``education program management'' (part of BIA General 
Administration) will support 49 FTEs--an average of $89,100. By 
contrast, many of our schools can barely pay veteran teachers with 
masters' degrees a $30,000 per year salary. Is a Central Office 
bureaucrat really worth three times more than a classroom teacher?
    Please provide at least a $10 million increase for ISEF for SY 
2000-01.
                    tribal departments of education
    Every state in the Union has a state department of education 
supported with public funds provided by its state legislature. Congress 
is the ``state legislature'' for the BIA system schools. But if any 
tribe wants to have a tribal department of education, it has to pay for 
this out of tribal resources, as Congress provides no recurring funding 
for this vital operation. The Navajo Nation has funded its own 
department of education since its inception in the late 1950s because 
our tribal leaders place a high priority on education of our young 
people.
    We strongly support the National Indian Education Association's 
recommendation that Congress supply recurring funding to support 
operation and development of tribal departments of education. If you 
must look to other budget accounts to find funds for this effort, we 
suggest you start by moving moneys from the ``agency/area technical 
support'' and ``education program management'' budgets mentioned above.
    Mr. Chairman and Members of the Committee, thank you for your 
consideration of these requests and for your interest in the welfare of 
Indian children in the BIA school system.
                                 ______
                                 
Prepared Statement of Phillip Belone, Executive Director, Ramah Navajo 
                   School Board, Inc., Pine Hill, NM
    Mr. Chairman and Members of the Subcommittee: My name is Phillip 
Belone. I am the Executive Director of the Ramah Navajo School Board, 
which is responsible for providing educational services to children on 
the Ramah Navajo Reservation in New Mexico. My statement describes the 
critical need for an additional permanent facility to address severe 
overcrowding at the Pine Hill School on the Ramah Navajo Reservation.
                         facilities background
    Historically, the Ramah Navajo community relied on the county 
public school system and the Bureau of Indian Affairs to meet our 
educational needs. Then, in 1968, the Gallup-McKinley County School 
District closed its public high school in Ramah. Because our community 
is so isolated, this action left most parents with no choice but to 
send their children to boarding schools far from home.
    Concerned that their children were being forced to leave their 
homes to attend school, our local tribal government officially 
established a school board in 1970. At that time, there was no formal 
Indian self-determination policy in place. Nevertheless, the Ramah 
Navajo community leaders took it upon themselves to meet and explore 
ways to develop a community school. They made trips to Washington to 
lobby for a school--at a time when such an activity was largely unheard 
of. Through their persistence and the just nature of their cause, they 
succeeded in getting Congress to listen to, and eventually support, 
them. Ever since then, Ramah Navajo has been a leader in Indian self-
determination and has served as a model for other tribal governments. 
In fact, it was these grassroots efforts at Ramah Navajo that formed 
the basis for the enactment of the Indian Self-Determination and 
Education Assistance Act of 1975.
    The founding Board members successfully lobbied Congress for funds 
to start their own school system in 1970. This funding allowed the 
Board to renovate the defunct Ramah High School and to begin providing 
educational services to the community.
    In 1972, the Board again received school construction funding so 
that the Ramah Navajo Chapter could build a more centrally-located 
facility in Pine Hill. Phase I construction, which took place during 
the 1975-1976 school year, resulted in three buildings (high school, 
elementary school, and gymnasium) that were designed to meet the 
educational needs of 284 students. That first year, we had no running 
water on campus, and electricity was generated by locomotive diesel 
engines.
    Phase II construction, which was completed in 1979, helped to build 
a kindergarten facility, a library, and our transportation 
infrastructure. However, only two classrooms were added during this 
phase, which was not enough to address the fact that enrollment was 
exceeding building capacity.
    Due to our ever-increasing enrollment, in 1990, we constructed 
multi-purpose and middle school additions, for a total of eight 
classrooms. The additional space allowed us to meet health and safety 
standards and to alleviate overcrowding. Unfortunately, this situation 
did not last long.
                       student enrollment trends
    Since school year 1992-1993, our Pine Hill student population has 
climbed from 371 to 575 students. Our soaring enrollment figures, as 
illustrated in the graph below, has led to severe overcrowding. We are 
using every available space for classes, including converted office 
space, a teachers' lounge, and our student library, which means that 
elementary school students are not able to use it.
                        health and safety issues
    Over the last decade, our increased student enrollment has created 
several health and safety issues. Our current square footage per 
student has caused an increase in communicable diseases, transmittable 
viruses, and bug infestation, among other things.
    Safety concerns, such as a lack of proper fire evacuation routes, 
is also a growing problem.
    As you are aware, student achievement is directly related to a 
student's learning environment. In our situation, overcrowding is 
affecting the ability of our school to provide high-quality educational 
services to our children. Therefore, we request that you support our 
request to construct a new permanent facility for the students at the 
Pine Hill School.
                            funding request
    Based on current space and safety requirements, we immediately need 
six additional classrooms. We are seeking $1,237,160 to construct an 
8,643-square foot facility that would provide six 871-square foot 
classrooms and teachers' workrooms. The building would be a steel 
structure with a brick veneer in order to provide fire resistance while 
blending with our existing structures. Each classroom would be wired 
for computer technology and would contain ample storage space for both 
teachers and students. The cost estimate for the project follows:

Architect/Engineering.........................................   $75,000
Waste Treatment/Site Utilities................................   125,000
Construction ($120/square foot)............................... 1,037,160

    Should we receive funding for this project, we anticipate that we 
could complete construction within 18 months. We have included with our 
testimony a proposed floor plan for the building.
    Children who attend class in the library or in the tiny room that 
was once a teachers' lounge are not receiving a satisfactory education. 
Student motivation suffers, student achievement suffers, and student 
self-esteem suffers. The children of our community have the right to an 
education that is equal to that received by other children in this 
country.
    In the past, we have successfully worked with Congress to meet our 
educational facility needs. We urge the Subcommittee to provide us with 
our funding request so that this fruitful relationship will continue. 
Thank you for your consideration of our request, and we would be happy 
to provide the Subcommittee with any additional information.
                                 ______
                                 
  Prepared Statement of Burton Apache, President, Alamo-Navajo School 
                                 Board
    Mr. Chairman and Members of the Committee: My name is Burton 
Apache. I am president of the Alamo-Navajo School Board. I am here to 
testify about the BIA school operations and IHS budgets for fiscal year 
2000.
    Despite its name, the Alamo-Navajo School Board does much, much 
more than run a school. Our 10-square mile reservation is isolated in 
south-central New Mexico, far away from what we call ``big Navajo.'' 
Because of our remote location, the School Board is authorized by the 
Navajo Nation Council and the Alamo Chapter--which is a political 
subdivision of the Navajo Nation--to administer the education, health 
care, road maintenance, and community programs that serve the nearly 
2,000 members of our community.
                           school operations
Facilities operations and maintenance
    The 185 BIA-funded schools rely on the Facilities O&M account to 
maintain a enormous inventory of federally-owned buildings that runs 
the gamut from schools, dorms, administrative offices, staff housing, 
and gyms to bus garages and repair ships, storage units, fire stations, 
and utility systems.
    Funding for facilities operations and maintenance has grown 
increasingly inadequate over the years. In fiscal year 1992, we 
received 95.78 percent of need. Last year, an internal draft of the 
fiscal year 1999 BIA budget justification admitted that a $77 million 
appropriation would not meet more than 68 percent of need and would, at 
best, enable a major portion of schools to operate ``at a bare minimum 
of need.'' Even more alarming is the fact that the final fiscal year 
1999 O&M funding level was even less than that, at $75.2 million.
    For fiscal year 2000, the BIA has requested only $79.1 million for 
facilities O&M, $51.83 million for operations and $27.28 million for 
maintenance. This will only supply about 67 percent of the level that 
we need to properly operate and maintain our facilities, especially 
given the fact that another 793,711 square feet will be added to the 
facilities inventory in fiscal year 2000.
    By the time that system-wide ``off the top'' expenses are deducted, 
we only receive about 30 to 40 percent of the funds needed to cover our 
costs. Since we cannot run a school without paying our utilities, we 
are forced to drastically reduce or eliminate minor repairs, routine 
preventative maintenance, unscheduled maintenance, and facility systems 
upkeep.
    As any homeowner knows, failing to maintain a structure decreases 
its value, comfort and livability, and leads to earlier and more 
expensive repairs or replacement. The same goes for schools, as the 
General Accounting Office confirmed in 1998 when it reported that BIA 
schools are in worse physical condition and have more unsatisfactory 
environmental conditions compared to other schools in the country.
    So, where do we turn when we absolutely need to make repairs? We, 
like most schools, take funds from our basic instruction account to 
make up the essential part of our facilities shortfall. I would guess 
that Congress intends that these dollars be used to educate Indian 
children and to provide their dorm services, but we just cannot do that 
until our basic operations and maintenance are fully funded.
    Therefore, we ask that you increase facilities operations and 
maintenance funding to $118 million.
Administrative cost grants
    With Administrative Cost Grants, tribes or tribal organizations 
that operate schools are provided funds for related administrative 
overhead services and operations which are necessary to meet the 
requirements of law and prudent management. When 100 percent of these 
costs are not funded, we are again forced to use funds that are 
intended to provide classroom instruction for students.
    In the current school year, 116 schools are operated by tribes and, 
as such, receive AC Grant funding to help them cover their 
administrative costs. BIA reports that it supplied only 89.54 percent 
of the amount required by federal law for these AC Grants, using the 
$42.16 million appropriated in fiscal year 1998.
    In fiscal year 1999, AC Grant funding was frozen at $42.16 million, 
despite the fact that another 13 schools will be operated by tribes in 
SY 1999-2000. BIA's budget says that it expects to supply 94 percent of 
the AC Grant amount required by law. I do not understand how, they can 
be at this level if there are 13 more schools but no additional 
funding.
    In the fiscal year 2000 budget request, BIA reports that ten more 
schools will convert to tribal operation in Navajo Nation alone in 
school year 2000-2001. BIA has requested $5.5 million to cover the AC 
Grant needs for these schools. However, I am concerned that existing 
grant schools will still receive far less than what the law requires.
    The budget also keeps the current appropriations rider that caps 
the amount of BIA funds that can be used for AC grants to the amount 
appropriated. This language is intended to overturn a 1997 decision by 
the Interior Board of Contract Appeals that said that the BIA violated 
the law by failing to pay the Alamo Navajo School Board and the 
Miccosukee Tribal School the full amount of AC grant that was required 
by federal law. We initiated this suit because the BIA underpaid our AC 
grant by more than $386,000 over a four-year period.
    We ask that you delete the proposal to extend the current cap for 
another year and instead fully fund AC grants at 100 percent of need, 
as required under the authorizing statute.
                            fire protection
    Several years ago, there were numerous news reports on the lack of 
fire protection at BIA-funded schools on the Navajo Reservation. 
Immediately after, the BIA authorized schools to use facilities O&M 
funds for fire services. We have received some minor equipment, like 
fire suits, and some volunteer training, as a result. But we still have 
not seen any additional funding for services or any truly significant 
improvements in fire protection.
    As a result, we still have only one fire truck. As we reported a 
few years ago, this vehicle is more than a quarter of a century old, 
and it carries only 500 gallons of water. This is the only fire truck 
on our reservation, which is the size of the District of Columbia, and 
we are expected to use it to protect $25 million in federal facilities 
and 1,800 homes.
    In its construction budget, the BIA requests funding to purchase 
new fire trucks for five specific locations. We were hoping that Alamo 
Navajo would make the list, but we did not. Our need for a new fire 
truck is critical. Therefore, we urge the Subcommittee to add us to the 
list of locations that would receive a new truck.
    BIA estimates that $200,000 will be needed for each of the 
locations identified in the budget. Frankly, if Alamo Navajo does the 
purchasing itself, we probably could obtain what we need for 
approximately $150,000.
                             health issues
Contract support shortfall
    We urge the Subcommittee to provide full funding for IHS contract 
support costs.
    A cornerstone of federal policy under the Indian Self-Determination 
and Education Assistance Act has been that Indian tribes not be 
penalized for electing to exercise their right to assume local control 
over federal Indian programs. In fact, the law requires that that 
tribes and tribal organizations receive an amount of funding equal to 
what the federal agency would have expended in its direct operation of 
a program, plus the amount necessary to cover certain administrative 
and overhead costs, also known as contract support costs.
    The estimated current contract support shortfall is $93 million for 
tribes that receive contract support and those who are on the waiting 
list. This figure may change as final negotiations take place and when 
the moratorium on IHS contracting is lifted.
    As the Subcommittee knows, a General Accounting Office report on 
IHS and BIA contract support is due in June, and an NCAI-led work group 
on contract support and a similar IHS work group are currently 
finishing their respective examinations of contract support policy 
issues.
    We urge the Subcommittee not to change the contract support system 
prior to completion of these reports and to fully fund contract support 
at 100 percent of need.
Community health representatives/public health nurses
    The IHS budget proposes to reduce the Community Health 
Representatives (CHR) program by $5 million. We urge the Subcommittee 
to reject this ill-conceived idea and to keep funding at the fiscal 
year 1999 level.
    We understand that the Administration has explained that the 
proposed cut is a result of budget constraints and a decision to 
increase funding for public health nurses at the expense of the CHR 
program. Stated quite simply, at Alamo Navajo, we need both CHR and 
public health nurse services.
    We have had a public health vacancy at the Alamo Navajo Health 
Center for eight months. This position is critical to our service 
delivery system, because the public health nurse is the focal point for 
the clinic's medical providers to refer patients for specialty 
appointments, home visits, continuum of care issues, and compliance 
with prescribed therapy. Unfortunately, public health nurses are hard 
to come by, especially in a remote area like ours.
    We also need our CHRs as part of our service delivery system. CHRs 
are local residents who bridge the gap between the clinic and the 
community. Because we often have to hire ``outsiders'' as public health 
nurses, CHRS become cultural liaisons and case managers that provide 
access to community homes, translation services, appointment delivery 
and coordination, transportation, and general patient follow-up.
    Currently, we have four CHRs and a budget of $69,436. The proposed 
$5 million cut to the CHR program would reduce the Alamo Navajo CHR 
budget by $10,549. We would not be able to meet salaries and benefits 
for our CHRs, and the meager support costs we have (about $9,000) would 
be eliminated. In order to keep about $10,000 in support funds, which 
basically cover training and vehicle costs, we would have to eliminate 
one of our four positions. Frankly, we doubt whether the proposed 
public health nursing increase would offset the loss to Alamo-Navajo. 
In fact, we expect that our ability to support the existing public 
health nurse position and community health services with our CHR staff 
would be cut by 25 percent.
                               conclusion
    As always, we appreciate having this opportunity to tell the 
Subcommittee about the needs and concerns of the Alamo-Navajo 
community. We look forward to working with you.
                                 ______
                                 
Prepared Statement of Scott Hunsinger, Director, Non-Academic Programs, 
                   Shiprock Alternative Schools, Inc.
    Mr. Chairman and Members of the Committee: My name is Scott 
Hunsinger. I am the Director of Non-Academic Programs for Shiprock 
Alternative Schools, Inc., located within the Navajo Nation, in 
Shiprock, New Mexico. We are seeking the Subcommittee's support in 
righting a wrong that has been perpetrated in the BIA's education 
construction budget request for fiscal year 2000.
    The fiscal year 2000 BIA budget does not request funding for our 
school. This glaring omission means that the BIA has failed to honor 
its own new school construction priority list in making school 
construction funding decisions. Shiprock had every reason to expect 
that we, as number 12 on the priority list, would be next in line to 
receive a construction funding request. Much to our dismay, this did 
not occur.
                           the priority list
    In December 1991, the BIA solicited new school construction 
applications from schools in its system so that it could add additional 
schools to the bottom of its existing priority list. At that time, the 
priority list consisted of 11 schools.
    Shiprock filed its application for the construction of a new K-12 
facility in January 1992, within the application deadline. A year 
later, the BIA published in the Federal Register a consolidated 
priority list consisting of the original 11 schools, plus five new ones 
ranked in order from 12 through 16. Shiprock was ranked number 12.
    Significantly, the BIA's announcement indicated that, although it 
planned to change the process for new school construction applications, 
schools on the consolidated priority list would ``be retained, in 
order, on the list.''
    For the past 10 years, the BIA has requested and Congress has 
funded the construction of schools on the priority list as they 
finished their pre-construction planning and design phases. When the 
fiscal year 1999 appropriations bill was enacted, 10 of the first 11 
schools had been funded for construction.
    The fiscal year 2000 budget request seeks construction funding for 
two schools. Quite appropriately, one of them is the Seba Delkai 
School, which is the only school of the 11 on the original priority 
list that has not been funded for construction.
    As number 12 on the priority list, Shiprock should have been the 
next in line to receive a funding request. Instead, the fiscal year 
2000 budget request passes us over and instead recommends funding for 
school number 14--the Fond du Lac Ojibway School.
    Both the Shiprock and Fond du Lac projects are in the design phase 
which immediately precedes construction. Shiprock is scheduled to 
complete design by September 1999, a fact that the BIA acknowledges in 
its budget justification. Therefore, we will be ready to start 
construction in October, when fiscal year 2000 begins, if Congress 
provides us with construction funds.
    The entire concept of the priority list is that schools will be 
funded for construction in the order of their ranking, so long as they 
are at the proper stage of design development. Shiprock is right on 
target with our design schedule. Yet we have been inexplicably passed 
over in favor of a lower-ranked school.
    It seems that we were not funded primarily because our project is 
larger and, therefore, more expensive than the Fond du Lac project. Our 
construction costs are an estimated $25 million, to serve 450 students, 
compared to $14.3 million, to serve 280 students. Frankly, the fact 
that our project costs more should not cause BIA to ignore its very own 
priority rankings, especially since we can begin building this year. 
This kind of action breaks faith with us and damages the integrity of 
the entire priority ranking system.
                              the solution
    Shiprock is entitled to have its position on the priority list 
honored through the appropriation of construction funding in fiscal 
year 2000. This could be achieved in a number of ways.
    First, the BIA could amend its budget request and Congress could 
agree to provide the needed funds.
    Second, Congress could unilaterally appropriate additional 
resources for new school construction and direct that the funds be used 
for Shiprock.
                           the shiprock story
    Shiprock Alternative Schools, Inc. currently operates an 
alternative high school with 188 students, an elementary program with 
215 students, a residential facility for 94 students, and a special 
education program for approximately 20 students with severe multi-
handicapping conditions. Despite the fact that we have been operating 
out of converted dormitory buildings since the school's inception in 
1976, these programs have achieved great success.
    The alternative high school was established in order to serve the 
at-risk youth who were experiencing social and academic problems in a 
conventional academic setting. Throughout the school's history, we have 
been the school of last resort for high school students who have 
dropped out, who have child care needs, or who have had disciplinary 
problems. For these individuals, our school provides a second chance 
for them to complete their high school education. We are very proud of 
the graduation rates achieved by these students, which has averaged 30 
students each year over the past three years.
    Our elementary program is based on the principles of early 
intervention and prevention, focusing on the academic and social needs 
of individual students through a blend of conventional and traditional 
Navajo educational approaches. Class sizes are kept to a minimum to 
encourage maximum student-teacher interaction and individual attention. 
The elementary program has been so successful that we simply cannot 
accommodate all of the students who wish to participate and must keep a 
waiting list each year. This has all been accomplished through strong 
instructional leadership, as well as active parent participation and 
teacher dedication.
                          shiprock facilities
    Our buildings are 50-year old dormitories converted for educational 
use through the removal of an abundance of interior walls to create 
classroom space. The resulting space used for the educational programs 
is a known fire and safety hazard, summarized in a 1988 facility code 
compliance survey and a BIA inspection validation report that stated 
that the buildings were originally designed as dormitories and are not 
safe or suitable for use as educational occupancies. The age of these 
facilities has also created a situation whereby constant maintenance 
and repair is required in order to keep the buildings operational.
    Over 10 years ago, BIA inspectors advised that our facilities could 
not be effectively or cost-efficiently remodeled or repaired to meet 
code requirements and, therefore, should be replaced. This was formally 
acknowledged by the BIA in 1993 when our school was ranked number 12 on 
the new school construction priority list.
                               conclusion
    On behalf of Shiprock Alternative Schools, I thank you for your 
past support of Indian education. I hope that the Subcommittee will 
work with us to correct the completely unfair situation that I have 
talked about today. I would be happy to provide the Subcommittee with 
any additional information or answer any questions.
                                 ______
                                 
  Prepared Statement of Preston McCabe, President, Pinon Chapter, the 
                             Navajo Nation
    Mr. Chairman and Members of the Committee: My name is Preston 
McCabe. I am president of the Pinon Chapter of the Navajo Nation and 
president of the Pinon Community School Board. I appreciate the 
opportunity to testify again this year about the need to provide the 
full amount requested for IHS facilities construction and to adequately 
fund BIA education programs.
                             health clinic
    We urge the Subcommittee to fully fund the Administration's $42.53 
million budget request for health care facilities construction. By 
doing so, you will help to make our dream of building our desperately-
needed health center--which is number three on the clinic construction 
priority list--one step closer to reality.
    Our community, which is comprised of Pinon and seven other Chapters 
of the Navajo Nation, has been without an adequate health care 
facilities for decades. For 18 years, there were virtually no 
infrastructure improvements in our area because of the issues 
surrounding the Navajo-Hopi boundary dispute. Once the boundary issues 
were worked out in 1979, funding shortfalls prevented us from providing 
adequate health care services to our people.
    The 11,000 members of the Pinon community currently use what is 
known as a ``health station.'' It was built in 1959 and operates only 
three days per week, providing minimal nursing support, pharmacy, lab, 
and dental services. The nearest doctor is at least 50 miles away.
    The IHS and this Subcommittee have for several years recognized the 
need for a full-fledged clinic in Pinon. In 1992, the IHS approved a 
project justification document for it. After the design work was halted 
in September 1997 because of insufficient funding, we finally have been 
able to resume the project using the $1.037 million appropriated for 
the clinic last year.
    This funding will be sufficient to complete design work and put to 
us on line to receive phase one construction funding in fiscal year 
2001. Therefore, we ask that you fully fund the fiscal year 2000 
request for health care facilities construction so that we can continue 
to move toward accessing the basic medical services that are so long 
overdue.
                           school operations
    The Administration should be congratulated for proposing increases 
to the School Operations account, especially for the Indian Student 
Equalization Program and for Student Transportation. However, we would 
like to raise our concerns about the Facilities Operations and 
Maintenance budget, as well as several other issues affecting Pinon and 
other BIA-funded schools.
Facilities operations and maintenance
    For the first time, the BIA school facilities Operations and 
Maintenance account is separated into two line items. We are extremely 
troubled by the combined funding levels for these two accounts.
    The ``operations'' line item request is $51.83 million and the 
``maintenance'' request is $27.29 million, for a total of $79.1 
million. This amount is approximately $4 million more than the current 
funding level, and it simply is not enough to keep up with new 
inventory and to maintain existing buildings.
    The BIA expects that 793,711 square feet of new education 
facilities space will be added to its inventory in fiscal year 2000. 
The BIA estimates that the average cost of operations and maintenance 
funding is $4.25 per square foot. This means that, to fund the new 
square footage, an additional $3,373,271.75 would be needed just to 
keep pace. This leaves about $500,000 that could reasonably be 
considered an increase in terms of dollars that could be used to 
improve the current operations and maintenance for existing facilities.
    The BIA budget justification for fiscal year 2000 states that ``the 
General Accounting Office conducted a review of the Bureau's facilities 
management program in the first quarter of fiscal year 1998. Their 
findings support the need for increased funding for facilities 
operation and maintenance as essential to reducing the deterioration 
rate of facilities and avoiding higher costs in the future.''
    I could not agree more. It does not make good economic sense for 
the federal government to build new schools and dormitories, such as 
the $16 million dorm construction project we recently completed, and 
then fail to provide enough funding to keep them in good condition. We 
request that you provide at least $100 million for facilities 
operations and maintenance so that the federal government's investment 
in our children can be enjoyed by future generations.
Administrative cost grants
    In the current school year, 116 schools are operated by tribes and, 
as such, receive AC Grant funding to help them cover their 
administrative costs. BIA reports that it supplied only 89.54 percent 
of the amount required by federal law for these AC Grants, using the 
$42.16 million appropriated in fiscal year 1998.
    In fiscal year 1999, AC Grant funding was frozen at $42.16 million, 
despite the fact that another 13 schools will be operated by tribes in 
SY 1999-2000. BIA's budget says that it expects to supply 94 percent of 
the AC Grant amount required by law. I do not understand how, though, 
if there are 13 more schools but no additional funding.
    In the fiscal year 2000 budget request, BIA reports that ten more 
schools will convert to tribal operation in Navajo Nation alone in 
school year 2000-2001. BIA has requested $5.5 million to cover the AC 
Grant needs for these schools. However, I am concerned that existing 
grant schools will still receive far less than what the law requires.
    We also strongly object to the BIA's proposal to continue the 
current appropriations language which places a ``cap'' on the amount of 
BIA funds that can be spent on AC Grants to the amount appropriated for 
the year. This language subverts the Interior Department's legal 
obligation to pay AC Grants to contract and grant schools at 100 
percent of the amount determined by the statutory formula.
    We ask that you reject this language and instead provide the 
resources needed to fully fund the federal government's obligation to 
pay 100 percent of Administrative Cost grants to schools.
Classroom expansion
    The BIA has requested $36.01 million for Facilities Improvement and 
Repair, which is a $4 million decrease from the current funding level. 
This cut is completely unjustified, given that the BIA itself estimates 
that the backlog of repair and improvement needs is approximately $734 
million.
    At Pinon, we are in desperate need for additional classroom space 
and therefore request that we receive funding for three portable 
classrooms.
    We currently have 84 students enrolled in our kindergarten program, 
and we anticipate that this number will jump to 100 next year. However, 
our current classroom space in our four rooms is sufficient for only 90 
students, according to BIA regulations.
    In addition, our Navajo Culture and Language program is currently 
being conducted in an empty bedroom in our dorms because we have no 
classroom space.
Program expansion
    We urge the Subcommittee to lift the current moratorium on program 
expansion for BIA-funded schools.
    Many of our dormitory residents are bussed to a state-funded public 
school. Often, the public school is unable to meet their unique 
education needs, putting them on a path toward failure. We would like 
to offer these at-risk students an Alternative Education program that 
is tailored to meet their special needs. However, we cannot do so as 
long as the current ban on new program starts is in existence.
Education technology
    Finally, I wanted to bring to the Subcommittee's attention a matter 
that has frustrated our efforts to make our students ready to meet the 
technological challenges of the new millennium.
    The fact of the matter is that the BIA is far behind in providing 
cabling, internet access, hardware, and software upgrades to schools. 
For example, over a year and a half ago, the BIA arranged to have local 
area network (LAN) cabling installed so that we can make the internet 
available to our elementary and high school students. Despite repeated 
requests to the individual who is supposed to do the work and supply 
the cable, the installation has not been done.
    We do not want to wait indefinitely to provide our students with 
internet access. Therefore, we request that you include report language 
instructing the BIA to finish the job immediately by directly providing 
schools with the funding that has already been appropriated for this 
critical purpose.
Student transportation
    We are pleased that the BIA has requested a $3.74 million program 
increase for student transportation, which will provide a total funding 
level of $38.84 million. This proposed increase will allow a payment 
rate of $2.29 per mile. While this rate is 19 cents more than the 
current rate, it is still far below the national average.
    The national average for school transportation was $2.92 per mile 
three years ago--so we are still running below public school 
transportation funding, despite the fact that the roads our buses 
travel on are usually in much worse shape. That just does not make 
sense. I ask that you increase the BIA budget request for student 
transportation to a level that can provide at least the national 
average of $2.92 per mile that public schools receive.
                               conclusion
    Mr. Chairman and Members of the Committee, thank you for your past 
support of Indian education programs and of the Pinon Community School. 
We hope that this testimony will receive the same thoughtful 
consideration that you have given us in prior years and we would be 
pleased to provide you with any additional information about our 
priorities and concerns.
                                 ______
                                 
  Prepared Statement of George Cukro, Executive Director, Black Mesa 
                            Community School
    Mr. Chairman and Members of the Committee: My name is George Cukro. 
I am the executive director of the Black Mesa Community School, a 
kindergarten through grade eight Grant school located in an extremely 
rural area on the Navajo Nation in northern Arizona.
    The Black Mesa Community School opened in 1976 in used trailers 
that had been converted into small classrooms. Later, the Bureau of 
Indian Affairs constructed a small building with four classrooms, a 
library/conference room, an all-purpose room with a kitchen, a small 
office, and two student bathrooms. This facility was designed for 80 
students--but our average student population since 1991 has been 100 
students.
    In recognition of the fact that the condition of our facilities has 
limited our ability to provide students with a full range of 
educational opportunities, the fiscal year 2000 BIA budget request 
includes funding for six additional modular classrooms for our school. 
These portable units will be used as follows:
  --Two additional classrooms to reduce the student/teacher ratio in 
        classes that are currently combined across grades because of 
        overcrowding
  --One classroom for gifted and talented students
  --Two pre-vocational training rooms for our middle school students
  --One computer classroom for technological training
    Unfortunately, our employee housing inventory simply is 
insufficient to meet the needs of the eight new employees that we 
expect to hire in the coming year. Currently, our school currently 
employs 26 staff members. Of these people, eight reside in employee 
housing because of our geographic remoteness and lack of adequate off-
site housing. Our inventory consists of eight trailer units, ranging 
from 12 to 30 years old. As you can see, there is a need to construct 
additional housing units and modernize our oldest units, so that we can 
house the employees that we will require to fully staff our new 
classrooms.
    To meet this need, the Black Mesa Community School requests that 
the fiscal year 2000 Interior appropriations bill authorize a transfer 
of $400,000 in BIA school operations funds provided to us in prior 
years to help us finance critical employee housing needs.
    You may recall that you included this type of appropriations 
transfer authority to the Cibecue Community School in the fiscal year 
1998 Interior appropriations act. Much like the Cibecue Community 
School, the Black Mesa Community School has been able to save 
approximately $1.3 million over the past eight years through careful 
financial planning and management. We are now seeking to use a portion 
of these funds ($300,000 in reserve Indian Student Equalization Program 
allocations and $100,000 in surplus Operations and Maintenance funds) 
to meet anticipated employee housing needs.
    We are not asking for any additional funding or that the 
Subcommittee set any kind of precedent so that we can address this 
situation. Instead, we are asking that you provide us with the same 
assistance that you provided to the Cibecue Community School in its 
attempt to meet its critical facility needs.
                           school bus garage
    The BIA has requested $36.01 million for Facilities Improvement and 
Repair, which is a $4 million decrease from the current funding level. 
This cut is ludicrous, given that the BIA itself estimates that the 
backlog of repair and improvement needs is $734 million.
    For example, at Black Mesa we are in desperate need of a metal 
garage for our school buses. There is simply nowhere to repair or store 
our buses. For minor servicing, we must travel 25 miles each way on an 
unpaved road filled with 12-inch ruts, mud, snow and ice. For major 
repairs, the trip is 150 miles.
    If we had a metal garage, we could save substantial wear and tear 
on our already fatigued buses by storing them indoors and servicing 
them on-site.
                               conclusion
    Mr. Chairman and Members of the Committee, thank you for your past 
support of the Black Mesa Community School's need for additional 
classroom space. We hope that this testimony will receive the same 
thoughtful consideration that you have given us in prior years and we 
would be pleased to provide you with additional information about our 
priorities.
                                 ______
                                 
Prepared Statement of Wallace Tsosie, Board Member, Greasewood Springs 
                         Community School, Inc.
    Mr. Chairman and Members of the Committee: My name is Wallace 
Tsosie. I am a board member of the Greasewood Springs Community School, 
Inc., located on the Navajo reservation. My testimony today focuses on 
the need to provide additional funding for BIA-funded school 
operations.
    The Greasewood Springs Community School serves the educational 
needs of 349 students in grades kindergarten through grade eight. Since 
July 1, 1996, our school has been operated by a local Board of 
Directors through a Grant from the Bureau of Indian Affairs pursuant to 
the Tribally Controlled Schools Act, Public Law 100-297.
    First of all, I would like to take this opportunity to commend the 
Administration for its proposed increases to the Indian Student 
Equalization Program, Student Transportation, and Administrative Cost 
Grants. However, there remains much more that must be done if the 
children who attend BIA-funded schools are to be on a level playing 
field with public school students throughout America.
                 facilities operations and maintenance
    The Facilities Operations and Maintenance account is separated into 
two line items in the fiscal year 2000 budget request, a decision that 
the BIA says was based on a February 1998 Interior Department report on 
facilities maintenance issues.
    The ``operations'' line item request is $51.83 million, while the 
``maintenance'' request is $27.28 million, for a combined total of 
$79.1 million. This is but a small increase over the fiscal year 1999 
funding level of $75.2 million--which, in turn, was nearly $2 million 
less than the BIA had asked for. Even that original request was far 
below the amount needed to properly operate and maintain facilities.
    Last year, an internal draft of the fiscal year 1999 BIA budget 
justification admitted that a $77 million appropriation would not meet 
more than 68 percent of need, and would, at best, enable a major 
portion of schools to operate ``at a bare minimum service level.'' This 
part of the budget justification was deleted from the final version.
    The fiscal year 1999 narrative also stated that the average cost of 
O&M funding is $5.00 per square foot--but this year's justification 
says that the average cost is only $4.25 per square foot. I just do not 
understand how O&M costs could have declined by 15, or any other, 
percent!
    In fiscal year 1998, Congress approved $3.14 million for the 
construction of a new gymnasium at the Greasewood School. This funding 
fulfilled a promise made by the BIA more than a decade ago, and will 
allow us to finally fix our serious overcrowding and safety problems. 
Unfortunately, without adequate O&M funding, the gym's useful life will 
be significantly reduced--which means a lower return on the investment 
of tax dollars you put into it.
                       administrative cost grants
    AC Grants provide funds to tribes or tribal organizations operating 
schools in lieu of contract support. They are designed to enable tribes 
and tribal organizations to operate contract or grant schools without 
reducing direct program services to students. Tribes are provided funds 
for related administrative overhead services and operations which are 
necessary to meet the requirements of law and prudent management. When 
100 percent of our costs are not funded, we are forced to use 
critically-needed dollars which should be used to provide classroom 
instruction to students.
    In the current school year, 116 schools are operated by tribes and, 
as such, receive AC Grant funding to help them cover their 
administrative costs. BIA reports that it supplied only 89.54 percent 
of the amount required by federal law for these AC Grants, using the 
$42.16 million appropriated in fiscal year 1998.
    In fiscal year 1999, AC Grant funding was frozen at $42.16 million, 
despite the fact that another 13 schools will be operated by tribes in 
SY 1999-2000. BIA's budget says that it expects to supply 94 percent of 
the AC Grant amount required by law. I do not understand how, though, 
if there are 13 more schools but no additional funding.
    In the fiscal year 2000 budget request, BIA reports that ten more 
schools will convert to tribal operation in Navajo Nation alone in 
school year 2000-2001. BIA has requested $5.5 million to cover the AC 
Grant needs for these schools. However, I am concerned that existing 
grant schools will still receive far less than what the law requires.
    Furthermore, the budget retains the current appropriations language 
which places a ``cap'' on the amount of BIA funds that can be spent on 
AC Grants to the amount appropriated. This language is designed to 
overturn the Interior Department's legal obligation to pay AC Grants to 
contract and grant schools at 100 percent of the amount determined 
through a statutory formula. We strongly urge that the Subcommittee 
reject this language.
                         student transportation
    We are encouraged that the BIA has requested a $3.74 million 
program increase for student transportation, for a total funding level 
of $38.84 million. The budget narrative states that school bus mileage 
will increase by approximately 600,000 miles in SY 2000-2001 and that 
the proposed increase will allow a payment rate of $2.29 per mile, 
which is 19 cents more than the current rate. However, the projected 
payment rate is still far below the national average of $2.92 reported 
for public schools for school year 1993-1994.
    Our reservation has primitive road conditions, with our buses 
covering 253 unpaved and 289 paved miles every day. We are in dire need 
of four-wheel-drive buses which would allow us to get students to 
school and back home safely. Our transportation budget is hit 
especially hard during the winter months, when bad road conditions mean 
that our buses break down on a regular basis.
    We also need a garage or repair facility to deal with these 
breakdowns. For example, every single tire repair must be taken to 
Holbrook, which more than 50 miles away. This is time-consuming and 
quite expensive. In addition, we would like to install a diesel fuel 
pump at the school because the Greasewood Trading Post, the closest 
fuel outlet, is so costly.
    Finally, additional transportation funding would allow us to 
increase the number of bus drivers we employ. Right now, we are always 
short of adequate bus drivers, which leads to transportation problems 
for students.
                               conclusion
    Mr. Chairman and Members of the Committee, thank you for 
considering these requests and for your attention to the welfare of 
Indian children at the Greasewood Community School.
                                 ______
                                 
  Prepared Statement of Martha Garcia, President, Ramah Navajo Chapter
    Mr. Chairman and Members of the Committee: My name is Martha 
Garcia. I am President of the Ramah Navajo Chapter, a community located 
in the west central mountains of New Mexico. My testimony today focuses 
on providing the resources to fund the acquisition of the Bond Ranch by 
the Ramah Navajo Chapter, as well as our support for increased law 
enforcement, Tribal Priority Allocations (TPA), and contract support 
funding.
    The Ramah Navajo Chapter is a certified chapter of the Navajo 
Nation government with over 3,000 members. Our community has a land 
base of 154,553 acres, which is comprised of a ``checkerboard'' of 
trust land, individual allotted land, and fee land purchases by or for 
the Chapter. As a governmental entity of the Navajo Nation, the Chapter 
has been authorized since 1986 by the Navajo Nation to contract Bureau 
of Indian Affairs programs pursuant to Public Law 93-638. The Chapter 
currently operates programs and services previously administered by the 
BIA under a Model Contract through our Consolidated Tribal Government 
Programs. In addition, the Ramah Navajo School Board, Inc., a non-
profit organization in our community, operates five TPA--and 
educational--programs under a Model Contract.
    Our mission is to nurture the well-being and growth of our 
community and its people by promoting the development of comprehensive 
community services, programs and opportunities; by encouraging the 
development self-sufficiency through self-determination; and, by 
maintaining respect of our traditional values of cultural heritage and 
family.
        the bond ranch acquisition economic development project
    The Ramah Navajo Chapter requests $1.7 million to purchase the Bond 
Ranch and to establish a tribal ranch on that land. The Bond Ranch is 
located in the Ramah Navajo Community and is surrounded and adjacent to 
tribal trust land and Individual Indian Allotments.
    Records indicate that the Ramah Navajos settled and continuously 
occupied the land on which the Bond Ranch is located since the 1500s.
    In 1863, the United States waged an intensive war against the 
Navajo people. During this period, a number of Ramah Navajo families 
were exiled to Fort Sumner, New Mexico. In 1868, however, a treaty 
between the United States and the Navajos allowed the people to return 
home. The Ramah Navajo families returned to their homes in Ramah.
    In the late 1800s, Mormon missionaries established a settlement in 
Ramah. They eventually pushed the Ramah Navajos out of productive 
farming areas and into land covered with volcanic rock. As more non-
Indian settlers moved into the area, more lands were taken from the 
Ramah Navajo people.
    Beginning in 1920, some Ramah Navajos were allotted land, which 
created a small land base for our people.
    In the 1940s, the New Mexico and Arizona Land Company began selling 
large quantities of land and, in order to preserve the use of these 
lands for the Ramah Navajos, the Picuris and Pojoaque pueblos purchased 
55,000 acres. In 1951, the Navajo Nation purchased this land from the 
pueblos for the continued use by the Ramah Navajos.
    In the late 1930s, the Bond family acquired a ranch on these lands, 
which was used for a sheep and cattle ranch and a bean farm. While the 
sheep ranch and bean farm ceased operations in 1950, the cattle ranch 
continues to operate today on 12,320 acres--or 19.25 sections of open 
grazing land--which is comprised of both deeded and state-leased lands. 
In June 1997, the Bond family publicly offered the ranch for sale at a 
price of $150 per acre for the deeded land, for a total purchase price 
of $1.464 million.
    The Ramah Navajo Chapter would benefit greatly by purchasing the 
Bond Ranch. The Chapter intends to use it for such economic development 
projects as a cattle and sheep ranch and a hydroponic greenhouse. 
Purchasing the Ranch also would allow us to consolidate some of the 
currently ``checkerboarded'' land in our community. We have actively 
explored grant opportunities from federal agencies to purchase the 
Ranch but so far have come up with nothing. Therefore, we request that 
direct funding for the Ranch be provided in the fiscal year 2000 
Interior Appropriations bill.
           additional law enforcement funding is badly needed
    A recent Bureau of Justice Statistics report on crime in Indian 
Country presented a disturbing picture of violence on our reservations. 
BJS reported that the rate of violent victimization is more than double 
the national average. American Indians between the ages of 18 and 24 
experience the highest per capita rate of violence of any racial group 
considered by age--about one violent crime for every four people in 
this age group.
    At the Ramah Navajo Chapter, we have not been immune from crime and 
violence. We have alcohol-related crimes. We have murder. We have 
assaults.
    One reason for our rising crime rate is a lack of a police 
presence. We have nine law enforcement vehicles in our inventory, and 
all of them have over 100,000 miles on them. The rough terrain of our 
community means that our vehicles experience faster than average 
deterioration and higher than normal maintenance costs. We have funding 
to replace four of them this year, but we need additional funding to 
replace the other five.
    In addition, we only have nine law enforcement officers available 
to patrol a 150,000-acre area. Clearly, we must increase our police 
force if our people are to feel safe and secure.
    The budget request would provide a total of $137.8 million for the 
President's Initiative on Law Enforcement in Indian Country, including 
a $20 million program increase to fund the Bureau's portion of this 
joint effort with the Department of Justice.
    We strongly urge the Subcommittee to fully fund this request. While 
the Ramah Navajo Chapter supports the Justice Department Indian Country 
Law Enforcement Initiative, we are concerned that the DOJ funding is 
provided primarily through discretionary grants. We must ensure that 
law enforcement funding gets to all tribes that are in need, not just 
those with good grant writers.
    According to the BIA's budget justification, the additional law 
enforcement funds will continue to focus on core law enforcement 
issues, including hiring additional Bureau and tribal law enforcement 
personnel, ensuring that new employed personnel are trained and 
certified, connecting additional law enforcement programs to the INLINE 
system for statistical reporting, and vehicle replacement for those 
vehicles with mileage of 100,000 miles more.
    We ask you to ensure that the hiring of law enforcement officers 
and providing police vehicles are made the top priorities in the 
expenditure of these additional dollars.
                  tribal priority allocations funding
    In keeping with our goal of gaining self-sufficiency through self-
determination, the Chapter in 1986 began contracting under Public Law 
93-638 programs previously run by the BIA. Through TPA funding, we are 
able to tailor our budget and to prioritize our programs to address the 
unique circumstances of our community, which suffers from an extremely 
high poverty level.
    Today, our unemployment rate is over 70 percent. Over 60 percent of 
our community members live in substandard homes, which often lack 
electricity, water, and wastewater facilities. Over 65 percent of our 
BIA-maintained roads are in poor conditions.
    Furthermore, due to welfare reform, we are being forced to provide 
additional financial assistance to those Chapter members who are simply 
unable to find work in our community, which simply does not have an 
economic base.
    As you can imagine, current TPA funding levels have not been enough 
to meet our housing, social services, community development, and 
scholarship needs.
    The budget request includes a $17 million increase in TPA spending, 
but this is simply not enough to meet our governmental needs. In fiscal 
year 1995, TPA funding was cut drastically and, since then, tribal 
governments have increasingly fallen behind in their ability to provide 
services in their communities.
    TPA funding still has not been restored to the fiscal year 1995 
level and has not even kept up with inflation. We urge the Subcommittee 
to restore TPA funding to the fiscal year 1995 level, adjusted for 
inflation, so that we can meet our governmental responsibilities at the 
local level.

                      contract support shortfalls
    Every year, the BIA's budget request for contract support costs has 
been significantly less than the amount needed by tribal governments to 
effectively administer programs under the authority of the Indian Self-
Determination and Education Assistance Act.
    For fiscal year 2000, the proposed contract support budget is 
$121.34 million, or $6.1 million over the fiscal year 1999 level. The 
Administration acknowledges that, even with such an increase, the 
amount ``will only maintain approximately the existing percentage level 
of support for contracting Tribes.'' The BIA estimates that the fiscal 
year 2000 shortfall will exceed $23.2 million, or 16 percent.
    The Ramah Navajo Chapter lacks other tribal resources and is 
totally dependent on federal funds to operate its programs. In November 
1998, the Chapter ran out of money due to contract support shortfalls 
that arose because the BIA had failed to pay 100 percent of negotiated 
indirect costs for several years.
    So that we could alleviate our immediate cash flow crisis, we had 
no choice but to negotiate with the BIA to receive our fiscal year 1999 
Tribal Priority Allocations funds earlier than planned. However, this 
band-aid approach does not address the fundamental problem of the 
federal government's failure to meet its obligation under the law to 
fully fund contract support.
    Another problem is the timing of contract support distributions. At 
the Albuquerque Area Office, the BIA distributes final contract support 
funding on or near the last day of the fiscal year (September 30). This 
restricts tribes from managing their contract support funds in a 
prudent manner. The Ramah Navajo Chapter operates on a calendar year 
and receives no funding for the fourth quarter. For the last two years, 
our funding levels were capped at between 75 and 80 percent. Receiving 
word on or near the last day of our third quarter that we are not going 
to receive any additional contract support dollars for the year makes 
it extremely difficult to manage our cash flow responsibly.
    For these reasons, the Ramah Navajo Chapter urges the Subcommittee 
to consider the following positions with respect to contract support 
funding:
    1. The federal government must consider the fact that, as long as 
Tribes exercise their rights to operate programs under the authority of 
the Indian Self-Determination and Education Assistance Act, there will 
be a need to fully fund contract support.
    2. The federal government must comply with existing court decisions 
and fund the contract support costs of other federal agency programs 
associated with Public Law 93-638 and the BIA must increase contract 
support funds for those federal agencies that do not pay contract 
support at the approved and negotiated indirect cost rate.
    3. The BIA should distribute contract support funds when Tribal 
Priority Allocation funds are allocated and distributed so that 
contractors will know their funding levels and be able to manage their 
funding more prudently.
    4. The Interior Department should increase its staff at the Office 
of the Inspector General in order to more quickly process indirect cost 
proposals and negotiate indirect cost agreements.
                               conclusion
    On behalf of the Ramah Navajo Chapter, I would like to thank the 
Subcommittee for its consideration of our requests and for its 
willingness to support programs which benefit our Chapter and Indian 
country as a whole.
                                 ______
                                 
Prepared Statement of Young Jeff Tom, President, Mariano Lake Community 
                   School, Inc. of the Navajo Nation
    Mr. Chairman and Members of the Subcommittee: My name is Young Jeff 
Tom. I am president of the Mariano Lake Community School Board, which 
operates a kindergarten through grade six Bureau of Indian Affairs-
funded Grant school located in the mountains of western New Mexico. My 
testimony focuses on the urgency in meeting the education construction 
and administrative cost needs of BIA-funded schools in fiscal year 
2000.
    Our school was built in 1952 and was one of the first schools 
established in the Eastern Navajo Agency. A total of 264 students from 
the communities of Mariano Lake and Pinedale attend our school, which 
is located in the Great Continental Divide Mountain Range, 
approximately 30 miles from Gallup and 25 miles from Crownpoint, New 
Mexico.
    Of our total enrollment, 63 children in grades one through three 
live in our dormitory. Every Friday afternoon, these children are 
bussed home, where they are picked up again on Monday morning. Our day 
school students are those who have access to county and paved roads. 
They are picked up and brought to school by 8:00 each morning, at which 
time they are provided with breakfast. They are bussed home at 2:30 in 
the afternoon.
                           facilities issues
    Mariano Lake Community School has the following facilities 
inventory:
  --Dormitory--Good condition; renovated in 1991
  --Main building housing administrative offices, food services, six 
        classrooms--Good condition; renovated in 1991
  --Facility maintenance building--Good condition; renovated in 1991
  --Portable kindergarten classroom--Temporary classroom housing 40 
        students; located outside main building
  --Four portable classrooms housing grades four through six--No 
        bathroom facilities for sixth grade
  --Transportation services trailer--Poor condition
  --Employee housing--Two duplex apartments for teachers and one house 
        for principal; all built in 1954 and in poor condition
  --Computer laboratory/staff offices--Poor condition; built in 1954
  --School library--Too small to hold books, materials, audio-visual 
        equipment
    We have been trying for more than ten years to have a gymnasium 
built for our students. This was expected to be done as Phase II of the 
Mariano Lake construction plans, which commenced in the 1980's. To 
date, however, the BIA has not honored its commitment to completed our 
gym project. Without a gymnasium or even a multi-purpose facility, our 
students have to use the school's dining room for physical education 
class. Since these classes are held while food is being prepared, the 
amount of dirt and dust that they generate has become a health and 
safety concern.
    Our top facilities priorities are to construct a gymnasium and to 
replace our portable classrooms with a permanent building. However, 
unless Congress increases the BIA's education construction budget 
request, we will be waiting a long time for these goals to be realized.
    As the Subcommittee knows, the BIA has requested only $36.01 
million for Facilities Improvement and Repair, which is a $4 million 
cut from the current funding level. Given that the BIA itself estimates 
that the backlog of repair and improvement needs is $734 million, I 
cannot imagine why more funding was not requested. The Subcommittee 
should immediately correct this situation and increase FI&R funding to 
a level that will make a serious dent in the backlog.
    The BIA has asked for $30 million for a ``school bond'' initiative 
that is tied to the President's multi-billion dollar initiative for 
school construction nationwide through the use of tax credits. A 1.5 
percent share of this initiative would be reserved for tax credits for 
tribal school construction, but this would require participating tribes 
to issue bonds, sell them in the bond market, and apply to the 
Secretary of the Interior for money from the $30 million fund to pay 
back principal.
    Frankly, we believe that few tribes with school construction needs 
would be able to issue or market these bonds, especially since they 
would not be guaranteed by the United States. Thus, this is not a good 
solution to the pressing need for new facilities in Indian country.
    We believe the wiser course is to use this $30 million to help 
reduce the known backlog of school construction and improvement items 
already registered with the Bureau, such as our gymnasium project. We 
urge the Subcommittee to keep this $30 million in the construction 
account and use it for actual construction projects instead of the bond 
initiative.
                       administrative cost grants
    In July 1998, our board made the decision to convert our school to 
grant status so that we could exercise more local control over 
education, a philosophy that seems right in line with the Congressional 
Majority's education policy.
    Frankly, the fact that Administrative Cost Grants are not fully 
funded makes it extremely difficult for us to exercise our right to 
operate educational programs at the local level. Under federal law, AC 
Grants are supposed to provide tribes and tribal organizations with the 
resources they need to cover the administrative overhead and 
operational expenses that are part and parcel of running a BIA-funded 
school.
    In the current school year, 116 schools are operated by tribes and, 
as such, receive AC Grant funding to help them cover their 
administrative costs. BIA reports that it supplied only 89.54 percent 
of the amount required by federal law for these AC Grants, using the 
$42.16 million appropriated in fiscal year 1998.
    In fiscal year 1999, AC Grant funding was frozen at $42.16 million, 
despite the fact that another 13 schools will be operated by tribes in 
SY 1999-2000. BIA's budget says that it expects to supply 94 percent of 
the AC Grant amount required by law. I do not understand how, though, 
if there are 13 more schools but no additional funding.
    In the fiscal year 2000 budget request, BIA reports that ten more 
schools will convert to tribal operation in Navajo Nation alone in 
school year 2000-2001. BIA has requested $5.5 million to cover the AC 
Grant needs for these schools. However, I am concerned that existing 
grant schools will still receive far less than what the law requires.
    The only way to make sure that tribal governments have the real 
ability to exercise their right to operate their own education programs 
under Public Law 100-297--and to provide high-quality educational 
services--is to fully fund AC Grants at 100 percent of the statutory 
formula.
                               conclusion
    I appreciate having the opportunity to share the views of the 
Mariano Lake Community School with the Subcommittee and look forward to 
working with you to meet the educational needs of Indian children 
across the country.
                                  _____
                                 
    Prepared Statement of Jacob Lonetree, President, Ho-Chunk Nation
    Good afternoon Chairman and members of the Committee. My name is 
Jacob LoneTree; I am President of the Ho-Chunk Nation in Wisconsin. I 
would like to thank the Committee for the opportunity to testify before 
you today.
    The Ho-Chunk Nation, with 5,956 members, has a very limited trust 
land base spread through seventeen counties in the State of Wisconsin. 
Although the Nation has provided increased economic opportunities for 
its members in recent years, we still have a long way to go in this 
regard. Moreover, the long-term effects of generations of poverty among 
our people are still very much with us today. This is particularly so 
with respect to health care. Our people suffer from alarming rates of 
diabetes, heart disease, alcoholism, and cancer. Perhaps the most 
devastating is diabetes. Currently 29.1 percent of Ho-Chunk tribal 
members have been diagnosed with diabetes. This statistic is even 
higher for members over 40. In this age group, 39 percent of our 
members are diabetic. Even more alarming, we recently learned that 40 
percent of our 2-4 years old are classified as obese. Obesity is, of 
course, the leading risk factor in diabetes. Improving the health 
status of our members is a top priority for the Nation. In support of 
that goal, I have issued a Presidential Proclamation designating 1999 
to be the Ho-Chunk Nation Year of Fitness.
    The Nation is a member of the Tribal Nations Joint-Venture 
Coalition for Health Facilities. The Coalition is urging Congress to 
appropriate $15 million in funding for the Tribal-IHS Joint Venture 
Program authorized under Section 818 of the Indian Health Care 
Improvement Act. This Program is intended to provide funding for 
equipment and staff to operate a health care facility constructed by an 
Indian tribe in exchange for a no-cost, long-term lease in favor of the 
Indian Health Service. The Program was used successfully in the past 
for facilities in Oklahoma and Oregon, but has not been funded since 
fiscal year 1993. If funded properly, this Program could save the 
federal government millions of dollars in construction costs, provide 
Indian people and tribes with resources to address extremely important 
health care needs, and stimulate economic development in historically 
deprived areas of Indian country.
    The Nation, in hopes of funding for the Section 818 Program, has 
already shouldered the significant financial burden of building a 
vitally needed health facility for Nation members in Baraboo, 
Wisconsin. The Nation has expended over $14.5 million to construct the 
Ho-Chunk Nation House of Wellness or ``Wanaisguni Hocira.'' We are 
delighted to report that we completed Phase I of the facility and 
opened for business in December of 1998. We are now in the process of 
completing Phase II of the facility. Phase II will consist of a 
facility for community activities to improve the health and well being 
of our members. We believe that in order for our communities to be 
healthy, we have to provide our members with opportunities to engage in 
healthy activities. Phase II of the facility will provide these 
opportunities.
    The House of Wellness is the only tribally or IHS operated health 
facility within 80 miles. In undertaking to build this facility, the 
Nation is filling a void that has never been met in this area. Before 
this facility was constructed many tribal members were forced to seek 
medical attention at the Ho-Chunk Health Care Center near Black River 
Falls which the Nation also built. This is a round trip distance travel 
of 160 miles. Critical optical and dental services, which were provided 
to members as part of contract health services, were provided on a 
limited basis based on a medical priority. We simply have not been able 
to meet the demand for these services. Significantly, tribal members 
were not receiving important preventive medical services, such as pap 
smears, breast cancer screening and diabetes screening.
    Phase I of the House of Wellness provides a broad range of out-
patient services, including health, laboratory, pharmacy, x-ray, 
dental, substance abuse, mental health, nutrition, health education, 
and community health nursing. We currently have a staff of thirty, 
including two doctors, two nurses, two nurse practitioners, one x-ray 
technician, and one dentist. The facility is planned to accommodate 
2,500-3,000 patients annually. The Nation seeks $3 million of the 
requested Joint-Venture funding for staffing and operation costs of 
this facility.
    We understand that the Indian Health Service in its budget request 
to the Office of Management and Budget requested $15 million for the 
Tribal-IHS Joint Venture Program. Unfortunately, the Office of 
Management and Budget did not maintain this funding when it passed the 
INS budget back to the Agency despite specific direction by the House 
Appropriations Committee last year requesting that this Program be 
reinstituted. The Joint Venture Program is an economical and innovative 
way to meet the overwhelming health care needs of Indian people.
    We urge the Committee to demonstrate that federal policy supports 
this tribal initiative, by including $15 million for the Tribal-IHS 
Joint Venture Program, and including $3 million for the Ho-Chunk Nation 
Wanaisguni Hocira in Sauk County, Wisconsin.
                                 ______
                                 
 Prepared Statement of Chairman William F. Yallup, Sr., Yakama Indian 
                                 Nation
                     appropriation policy concerns
    Fully Fund Agency BIA and INS Programs at Authorized Levels: the 
local BIA agency is unable to perform its most basic trust 
responsibilities at the current level of depressed funding. We ask the 
committee to fully fund these programs at their authorized FTE levels. 
We are specifically concerned about the following programs, which we 
request be funded at the Agency level at the amounts indicated:
    BIA Natural Resources Program: Request an additional $921,000. This 
program includes the functions of Real Estate Services, Land Services 
(including Environmental and Treaty Rights Protection), and Wapato 
Irrigation Project Billing. Trust responsibilities include: (a) leasing 
and distribution of income (>1300 active leases), (b) acquisition and 
disposal of real property, including fee to trust conversions, probates 
and wills, (c) farm /conservation planning for more than 2800 
allotments on more than 100,000 acres with crop market value in excess 
of $70 million, (d) multiple resource management on approximately 1.1 
million acres of range and forested land including six major watersheds 
affected by the ESA listing of steelhead and salmon, (e) natural and 
cultural resource protection and enhancement, (f) environmental and 
Treaty rights protection for the reservation and the ceded area, and 
(g) billing (>8400 accounts) and collections ($6,000,000 annually) for 
the 175,000 acre Wapato Irrigation Project.
    BIA Road Maintenance and Transportation Planning Program: Request 
$1,750,000. This program has the responsibility for all road 
maintenance and transportation planning on the 925 miles of primary 
road and 2,325 miles of secondary road located on the reservation. This 
chronically underfunded program's function is key to the governmental 
infrastructure and its ability to both provide services to the 
constituency and move goods to market.
    BIA Forestry Program: request an additional $940,000. This program 
is the heart of the tribe's economic base, administering forest harvest 
on 675,000 acres of commercial timberland. The program includes forest 
planning and inventory (including pre-sale planning, forest inventory, 
and a GIS and Silvicultural Lab), and forest management (including sale 
administration, contract preparation and compliance, and collection and 
distribution of proceeds). The program has been historically 
underfunded to the point of being unable even to fulfill its authorized 
level of FTE's.
    BIA Higher Education Scholarships: request an additional $150,000. 
The Bureau of Indian Affairs Scholarship program has not and is not 
being adequately funded. Although the scholarship need is rising, the 
Administration's funding request is declining. The increased 
scholarship need reflects the rising cost of a college education and 
the larger number of Indian students accepted into college. A key to 
economic development and self-sufficiency is a college education. 
Inadequate scholarship funding thwarts the successful efforts of Indian 
tribes to better prepare our youth for college and it sends the wrong 
message to students.
    INS Contract Health Services: request an additional $947,000. The 
primary requirement for Contract Health Services to provide assistance 
is the availability of funding. Contract Health Services currently 
receives $3,213,264 for patient care each fiscal year with no 
adjustment for increases in population and inflation. Increasing 
numbers of eligible patients continue to require medical and dental 
services. Health care costs are constantly increasing and alternate 
sources of payment are decreasing. The present budget is expended at an 
average rate of $80,000 per week, which only covers 75 percent of the 
year, and will prevent the delivery of needed assistance to eligible 
patients for the last 3 months of fiscal year 2000.
    Direction to Interior and Related Agencies: We ask that you direct 
the Bureau of Land Management, Forest Service, Natural Resources 
Conservation Service, National Marine Fisheries Service, and the Fish & 
Wildlife Service to enter into cooperative agreements or Public Law 93-
638 contracts with the Yakama Nation as provided under Public Law 103-
413 to fund coordination, participation, and project implementation 
under the many ESA recovery plans. Each of the federal agencies has had 
several years to implement authorized programs to provide for healthy 
and sustainable fisheries. As an effective alternative, the Yakama 
Nation urges you to direct these agencies to fund the Tribe's 
restoration program to reach that goal.
    Self-determination Contract Support: Request $750,000. This year, 
indirect costs are expected to be funded at less than 90 percent. The 
shortfall is a guaranteed out-of-pocket cost to the Yakama Nation of 
$750,000 in fiscal year 2000, which we will incur performing functions 
for and on behalf of the Federal government. We urge the Committee to 
fully fund the contract support budget for both the BIA and the IHS so 
that these federal contract obligations may be fulfilled.
    Leavitt Act Collections: The Wapato Irrigation Project (WIP or 
Project) is one of the largest Indian irrigation projects operated by 
BIA. It is located entirely within the exterior boundaries of the 
Yakama Indian Reservation in Yakima County, Washington. The Project 
diverts approximately 600,000 acre-feet of water annually from the 
Yakima River, and irrigates approximately 142,000 acres of arable land 
within the Yakama Indian Reservation. Approximately 55 percent of the 
arable land (78,000 acres) is held in trust for individual Indians and 
the Yakama Indian Nation by the United States. Most of the Indian 
owners lease their lands to non-Indians. The remaining 64,000 acres 
(approximately 45 percent) are owned by non-Indians. In 1993,102,000 
acres were farmed by non-Indians, 13,000 acres by Indians, and 27,000 
acres were idle.
    Since 1993, the idle lands within the WIP have increased, placing 
the burden of meeting Project maintenance and operations expenses upon 
``productive'' lands. The WIP has been arbitrarily designated by BIA as 
one of the few ``self-sufficient'' Indian irrigation projects, wherein 
O&M costs are assessed directly against the landowner, without the 
assistance of federal appropriations. In addition to the problem of 
``idle'' lands being assessed, many properties within the Project are 
classified as ``productive'' despite having marginal agricultural 
value, and are not easily leased by the BIA. The O&M assessment upon 
both such unproductive properties has accumulated over the years to the 
detriment of the Indian owners, who have no means to pay. The 
threatened debt collection by BIA jeopardizes the health, safety and 
welfare of the Yakama people.
    The Yakama Indian Nation requests that actions be taken to defer 
further collection proceedings under the Leavitt Act, and to exempt 
Indian landowners within WIP from O&M assessments, past and future. We 
further request that annual appropriations be designated to offset WIP 
O&M costs that would be assessed against Indian properties. Annual 
appropriations would relieve the now unreasonable burden placed upon 
Indian property owners, and would permit necessary repairs in order to 
assure the reliable and safe delivery of services.
    Agricultural Enterprise Program: Request $1,125,000. This new 
economic development program is designed to capitalize on the value-
added approach to resource utilization outlined in the YIN strategic 
plan. Instead of leasing out valuable farmland to other producers, the 
YIN is now actively involved in growing, harvesting, marketing, and 
distributing agricultural products on approximately 1,200 acres of 
tribal land. This effort has been completely financed by the YIN. This 
request will be used to consolidate the land base with several key 
acquisitions, prepare the fields, and develop a diversified crop 
management plan to enhance the program's production, distribution, and 
marketing goals.

                         specific funding items
    1. Support of Wapato Irrigation Project (WIP) Conservation Plan 
implementation under Title XII of Public Law 103-434, Yakima River 
Basin Water Enhancement Project: Request $3,000,000, non-reimbursable. 
Implementation of the WIP Conservation Plan and the Toppenish Creek 
Corridor Plan will provide for precise control, measurement and 
conservation of irrigation water distribution on the Wapato Irrigation 
Project and the restoration of critical habitats. These funds are 
needed under the tenets of the act for the installation of turnout 
measurement structures, piping of small lateral canals, and improvement 
of water measurement and management programs.
    2. Repair of the Wapato Irrigation Project (WIP) facilities: 
Request $5,000,000, non-reimbursable. WIP is the largest irrigation 
district in the Yakima Basin and is the largest operated by the Bureau 
of Indian Affairs (BIA). The importance of WIP to the local, regional, 
and national economy cannot be overstated, and it is jeopardized by the 
need for repairs. Capital improvements of WIP facilities required for 
basic project delivery services include: safety improvements, drop 
structures, power generation facilities, bifurcation structures, and 
pumps. Attention to this matter is urgent.
    3. Forest Development Program: Request $1,250,000. In order to 
continue sound forest management practices while protecting the welfare 
of our People, we ask continued funding at the previous year's level of 
$600,000 plus an additional $650,000. We have severe spruce budworm 
infestation in 300,000 acres and need to thin an additional 200,000 
acres. This backlog threatens the funding of our entire Tribal 
Governmental structure. This need has been acknowledged by the BIA 
Central Forest Office and the GAO recently issued a report documenting 
the insufficiency of the current level of funding (GAO/ACED-91 -53, 
March 1991) for forest development.
    4. Water Resources Management: Request $450,000. The Yakama Nation 
Water Resources Management Program was initiated to ensure Tribal 
technical involvement in all water resource management projects 
addressing ground and surface waters. The current water crises facing 
the Yakima Basin makes this an ongoing need. These funds will insure 
that the United States Government fulfills its trust responsibility to 
the Yakama Nation.
    5. Fish and Wildlife Resource Management: Request $1,496,000. We 
ask for continued funding of the fish and wildlife program at last 
year's level of $546,000 plus an additional $950,000. $400,000 of new 
money will address ongoing technical and managerial processes at the 
reservation, county, state, and regional levels relative to ESA 
listings, salmonid enhancement, watershed restoration and management, 
and co-management of big game resources. $150,000 of new money will 
expand the Northern Spotted Owl inventory and monitoring project, the 
workload of which has increased by 75 percent in the last three years 
due to the spruce budworm epidemic. $400,000 of new money will fund 
YIN's involvement in the FERC relicensing process for 28 non-federal 
dams in YIN's Ceded Area in the next 10 years.
    6. Educational Needs: Request $602,000. This request supports the 
Johnson O'Malley/Title IX Supplemental Education program (JOM). JOM is 
an integral part of tribal member secondary education, which allows 
increased parental participation and family involvement in the 
education processes supported by YIN's JOM programs. YIN will operate 
22 reservation, rural, and urban JOM programs in support of 3,010 
students during the fiscal year 2000 cycle. Money spent in education 
for the tribe now will ultimately save money in social services later. 
Over the years many Indian students have benefited academically, 
culturally and socially from JOM programs. We request that the funding 
and student count caps, which were frozen through the Tribal Priority 
Allocation Process (TPA) at $152/student in 1995, be removed. Actual 
costs incurred are $200/student to adequately serve our 22 JOM 
programs, yet, due to the increased numbers of students enrolling in 
these programs since 1995 (an average of 18 percent per year), our 
effective spending level has been reduced to $96/student under the 
caps. Increased funding must be allocated to reflect true need based on 
the number of actual students.
    7. Law and Justice/Public Safety Operations: Request $850,300. The 
Yakama Nation provides routine and emergency law enforcement services 
to a service population of approximately 9,005 Tribal members, and 
ancillary services to 35,000 nonmembers. These tribal services include 
enforcement of criminal and civil codes, fish & game law enforcement, 
natural resource protection, animal control, probation, and 
investigation and prosecution of criminal cases in the Tribal Court. 
YIN provides these services 24 hours a day, 7 days a week on 
approximately 1.4 million acres. The Yakama Nation Tribal Courts have 
an ongoing need for access to legal periodicals and case histories. 
This request covers $425,300 in additional funds to meet our basic 
operational needs, $200,000 in additional funds to set up the Court law 
library, and $225,000 in additional funds for 4 new line officers.
    8. Law and Justice Facility: Request $26,000,000. The Yakama Nation 
operates a police department, jail, and Tribal Court system. These key 
elements of our Tribal governmental infrastructure have never been 
adequately funded, and the current jail facility, constructed 35 years 
ago as a temporary structure, is in a near condemnation state. Tribal 
sovereignty requires that we be able to function at the level of other 
non-tribal government entities and this will not be possible without 
this facility. The Tribe has renovated the existing structures out of 
its own funds but an adequate building will cost $26,000,000 and is 
beyond our capabilities. With the current emphasis on law and order it 
is important that Indian Tribes be included in nationwide 
infrastructure rebuilding programs.
    9. Noxious Weed Control: Request $150,000. The diverse economy 
supported by the Yakama Indian Reservation is extremely vulnerable to 
the epidemic proliferation of noxious weeds currently occurring in the 
western United States. Over 200,000 acres of irrigated farmland and an 
adjacent 600,000 acres of grazing land are potentially jeopardized. The 
severity of the situation was recognized by President Clinton in his 
February, 1999 Executive Order in which he recommended additional 
funding to combat the spread of noxious weeds. This request will be 
used to enhance the on-going tribal program dealing with this problem 
on reservation lands.
    10. Spruce Budworm Epidemic Emergency Package. Request $8,225,000. 
The YIN administrative forest is currently experiencing a Spruce 
budworm infestation of epidemic magnitude and a related buildup of 
Douglas fir bark beetles. This forest health problem presently impacts 
approximately 300,000 acres, or roughly \1/2\ of the Yakama Reservation 
forest, presenting the possibility of a landscape level wildfire at 
worst and extreme loss of income from unsalvaged timber at best. The 
YIN situation is currently the worst Spruce budworm epidemic in the 
western United States. Because this situation threatens not only the 
economic well being of the YIN, but the entire forest products industry 
of central Washington as well, the YIN Tribal Council declared a state 
of emergency in September, 1999. This request is concentrated in three 
areas; (1) repair of the primary transportation road required to remove 
the salvaged timber, (2) planning, conditioning, and implementing 
alternative timber sales, consistent with all ESA, NEPA, and tribal 
guidelines, in those areas impacted by the infestation, and (3) 
aggressive pre-commercial thinning in conjunction with overstory 
removal to disrupt the budworm's life cycle.
    If this emergency package is fully funded, it eliminates the need 
for the above requests for $150,000 for Spotted Owl inventory under 5. 
Fish and Wildlife Resource Management, and the new $650,000 under 3. 
Forest Development.
                                 ______
                                 
     Prepared Statement of the Confederated Tribes of the Colville 
                              Reservation
    On behalf of the Colville Business Council for the Confederated 
Tribes of the Colville Reservation, I am pleased to have the 
opportunity to testify before the House Subcommittee on Interior and 
Related Agencies on fiscal year 2000 Appropriations.
                        bureau of indian affairs
Inchelium public ferry
    The Tribes strongly support the Administration's request of 
$456,000 for the ferry boat which transports people across Lake 
Roosevelt and request an add-on of $195,000 for this important program. 
We further ask the Committee to prohibit the BIA from allocating 
funding needed for the ferry boat to other tribes in the Portland area. 
This funding is for a unique purpose and any attempt to reallocate this 
money according to a tribal shares distribution plan or otherwise would 
be detrimental to the people of the Colville Tribes.
    The ferry serves an isolated community of the Reservation and 
provides the only reasonable means of transportation to and from the 
community. In fiscal year 1998, over 200,000 individuals used the 
ferry. Lack of funding for the ferry would severely impact the social, 
economic and educational well-being of the Inchelium community. Many of 
our enterprises, professional staff, teachers, and other community 
members utilize this ferry to provide needed services to our people.
School construction.
            Paschal Sherman Indian School
    Paschal Sherman Indian School, located on the Colville Indian 
Reservation near Omak, Washington is over 100 years old and is in 
desperate need of replacement. This school is critical to providing 
educational opportunities for Indian children throughout the northwest 
region. Many of these children have encountered severe economic and 
social conditions and Paschal Sherman has provided them with the 
opportunity to learn. Over 175 students participate in a well-balanced 
curriculum emphasizing the culture and traditions of the Colville 
peoples. In 1985, Paschal Indian school ranked 3rd on the BIA school 
replacement list. However, because the school board accepted the use of 
modular buildings, the school was taken off the BIA priority list. The 
life of those modular buildings has now expired and they pose 
significant safety hazards to our children.
    For over fifteen years, Paschal Sherman has been housed in a 
multitude of temporary facilities. Administrative offices, classrooms, 
gymnasiums and dormitories are all in poor structural condition. Some 
buildings have been condemned. The continued safety and operation of 
the school for the well-being of the children is a major concern to the 
Colville Business Council. Additional funds are required for the 
construction of new facilities and to address the backlog of repair 
work for the existing facility.
    Paschal Sherman represents just one of the many schools that make 
up the $1 billion backlog in education facilities construction. This 
massive problem must be addressed by a commitment from both Congress 
and the Administration, to address this problem in five years. Thus, 
the Colville Tribes strongly support the Budget Committee's 
recommendation that BIA school construction be funded at $308 million. 
This is the only way that $1 billion the severe backlog in education 
facilities needs will be addressed.
            President's Bonding Proposal
    While the Colville Tribes support the Administration's efforts to 
develop innovative solutions to the $1 billion backlog that now exists 
in BIA education facilities construction, the President's bonding 
proposal is not likely to work to address the overwhelming needs in 
Indian country. As we understand the President's proposal, if it were 
enacted it would authorize $11 billion in school construction bonding 
authority, financed through tax credits to investors. Of this amount, 
$200 million in bonding authority would be provided to the BIA for BIA 
and tribal schools. And for those schools on the BIA priority list, the 
Budget proposes $30 million to pay the principal of an estimated $75 
million in bonds.
    However, for those schools that are not now on the BIA priority 
list, the obligation to repay the bonds would rest with the Tribal 
governments. The reality is, that most tribes including the Colville 
Tribes do not have the resources to issue and repay public bonds. If we 
had the resources to undertake this type of financing we would have 
sought out private financing on our own.
    In essence, the federal government is asking Indian parents and the 
Indian children to pay for the cost of building and repairing these 
federal schools. The federal government assumed the responsibility to 
educate Indian children. Simply because many tribes have stepped in 
under the Self-Determination Act to operate most of these schools--and 
in fact have had better results in terms of higher test scores than 
when the BIA operated these schools--does not make these schools any 
less of a federal responsibility. The BIA/Tribal school system is one 
of two school systems that are solely a federal responsibility. The 
other is the Department of Defense school system. It is unlikely that 
the federal government would ask the Department of Defense families to 
pay for the cost of building and repairing their schools. The federal 
government should not ask Indian parents to assume this burden.
    Thus, while we appreciate the President's effort to resolve this 
staggering problem, the Colville Tribes do not support the bonding 
proposal. We urge the Committee to again direct the BIA to develop a 
proposal that will address the existing backlog in five years.
    Law Enforcement. The Colville Tribes have experienced dramatic 
increases in crime on the reservation. In fiscal year 1998, the Tribal 
Police ``calls for service'' totaled 8090. This is an average of 22 
calls per day. Insufficient resources make it difficult to staff 
officers in each of the four main districts. Accordingly, response 
times may exceed several hours due to the remoteness and poor road 
conditions between communities.
    Nationally, Indian people face substantially higher rates of 
exposure to criminal activity than any other population group. The 
steady increase in gang activities on the Colville Reservation is of 
particular concern to the Colville Tribes. Tribal Police Services are 
severely challenged by the need for additional funding to handle these 
increases and for additional safety and equipment purposes. Moreover, 
the increase in crime rate impacts associated law and order services 
including courts, jail and juvenile detention facilities, prosecutors, 
public defenders, probation and parole. In light of this great need, 
the Colville Tribes strongly support the requested increases for both 
the BIA and DOJ for the second year of the Administration's Law 
Enforcement Initiative in Indian Country.
    Detention Facility Construction. The Tribal jail was condemned 
several years ago. The Tribal jail is now third on the list of 
replacement facilities. We are in desperate need for the funding to 
complete the design phase of this project. In 1994, we completed 20 
percent of the design phase. However, no money has been dedicated to 
this purpose since then.
    Because our jail was condemned, we are forced to contract with 
local jurisdictions for the incarceration of our prisoners. The cost of 
contracting for this service is over $40 a day for each prisoner. This 
is more than the cost of a night's stay in some local hotels. 
Nevertheless, in order to maintain peace and protect the people of the 
Reservation from convicted criminals, we must bear this cost. It is 
clear that replacing the facility is a far more cost effective way to 
incarcerate the convicted criminals. We urge the Committee to include 
the funding to complete the design phase of this facility.
    Towards this goal, the Tribes support the $34 million requested in 
the Department of Justice budget for detention facilities. In addition, 
we ask that the Committee direct the Department of Justice to spend 
this funding according to the existing BIA law enforcement facility 
priority list. It is the duplicative for the DOJ to establish a new 
priority list for these facilities, when one already exists.
                         indian health service
    Community Health Representatives. We strongly oppose the 
Administration's proposed $5 million cut in the CHR program. The CHR 
program provides a vitally important link between the people in our 
communities and the medical facilities and providers that serve them. 
The CHRs at Colville provide a wide range of key services, including 
monitoring patients, administering the WIC program, and providing 
patient education. The CHRs are often the first to respond to medical 
emergencies. Beyond this, CHRs are trusted community members who are 
able to bring many tribal members, particularly the elderly, into 
contact with health care providers--in situations where those tribal 
members would in many cases otherwise not receive needed medical care. 
Those who seek to cut funding for the CHR program must be unaware of 
the fundamental role the CHRs play in helping our people access the 
medical care they need. We urge the Committee to provide a $10 million 
increase nationwide to the CHR program.
    Mental Health and Substance Abuse. The Tribes are very concerned 
that the Administration has not requested any increases in mental 
health funding. The overall health and welfare of our tribal membership 
is undermined by extremely high rates of alcohol and substance abuse. 
The demands placed upon the Children and Families Services, Youth 
Residential Shelters, Mental Health and Alcohol/Substance Abuse 
programs have increased as a result of the decline in the overall 
health of the Tribal members. Again, the major emphasis must be placed 
on the root problem--alcohol and substance abuse in the community. This 
is a major contributing factor in the increased need for many kinds of 
counseling services. For example, the Tribes have very high statistics 
relating to intensive child abuse risk and preventable death rates for 
children. Much of this, along with other problems we face, is directly 
related to alcohol or drug abuse in the homes. The Tribes strongly 
support increased funding for substance abuse programs and mental 
health programs.
    Contract Health. The Tribes strongly support the Administration's 
$24 million increase for contract health care. At Colville alone, we 
have an active user population within the Colville Service Unit, which 
includes Chelan, Douglas, Ferry, Grant, Lincoln, Okanogan, and Stevens 
counties of 6,732.
    Contract health care has a long history of being massively under 
funded. This year's budget will still only provide for only 60 percent 
of the total contract health needs throughout Indian country. Last 
year, the IHS recorded over 14,500 payment denials for services that 
were not within operating medical priorities. This translates into 
serious deficiencies at the Colville Indian Reservation and means that 
only ``emergency'' treatment can be received throughout most of the 
fiscal year.
    The insufficient funding for contract care health funding leads to 
a lack of doctors, limited treatments and lack of early intervention 
and diagnosis. While in the long run it is much more costly to provide 
medical service for ``after the fact'' illnesses than to provide 
preventative types of health care services, we are not in a position to 
address the long term health needs of our people in this way. Funding 
is available only for emergencies. Moreover, the problems associated 
with the lack of contract health care funding will only escalate in the 
upcoming years as more geriatric services are required for elderly 
Tribal members returning home to the Colville Reservation to retire.
    Health Facilities. There are three IHS facilities on the Colville 
Reservation. The most recent of these was built over twenty years ago 
and the oldest was built in 1934. These clinics provide care to over 
27,000 patients annually. However, while the personnel at the clinics 
do an outstanding job at all of these facilities the Colville Tribes 
encourage the Committee to increase facilities maintenance and 
construction funding. The clinic in Omak is housed in a 1,698 square 
foot double-wide mobile home, which was converted into the clinic in 
1974. This clinic sees over 2000 patients a year. It is critical that 
this facility be replaced with another facility in order to provide the 
best level of care possible to the Tribal members of the Colville 
Reservation.
    Contract Support. Contract support dollars provide the Tribes with 
the administrative support for all of the contract functions assumed 
from the IHS. These dollars enable the Tribes to provide the mandatory 
financial, purchasing, personnel and other administrative support 
systems required by law. Over the past several years, the Tribes have 
received substantially less than the rates negotiated with the Office 
of the Inspector General. The reason for this shortfall is the 
substantial under funding of this function in the IHS budgets. For this 
reason, the Colville Tribes support the $35 proposed increases in 
funding for contract support within IHS.
    Thank you again for the opportunity to testify.
                                 ______
                                 
 Prepared Statement of Donald Moore, Sr., Chairman, Bad River Band of 
                     Lake Superior Chippewa Indians
    Mr. Chairman and members of the Committee. I am Donald Moore, Sr., 
Chairman of the Bad River Band of Lake Superior Chippewa Indians, of 
Wisconsin. I appreciate this opportunity to provide the Committee with 
the Band's testimony on fiscal year 2000 appropriations.
                         indian health service
    Community Health Representatives. We strongly oppose the 
Administration's proposed $5 million cut in the CHR program. The CHR 
program provides a vitally important link between the people in our 
communities and the medical facilities and providers that serve them. 
The CHRs at Bad River provide a wide range of key services, including 
monitoring patients, administering the WIC program, and providing 
patient education. The CHRs are often the first to respond to medical 
emergencies. Beyond this, CHRs are trusted community members who are 
able to bring many tribal members, particularly the elderly, into 
contact with health care providers--in situations where those tribal 
members would in many cases otherwise not receive needed medical care. 
Those who seek to cut funding for the CHR program must be unaware of 
the fundamental role the CHRs play in helping our people access the 
medical care they need. We urge the Committee to provide a $10 million 
increase nationwide to the CHR program.
    Contract health services. The need for health care services has 
risen dramatically at Bad River--with our user population increasing 
from about 1100 in 1991 to about 3,739 today. But funding has failed to 
keep pace. With contract care funding of $740,000, this means we have a 
per patient allocation of $198 for contract care services--a good 
indication of just how meager these funds are. As a result of funding 
limitations, contract care must be limited to emergency care only. This 
creates great hardship among our people--who must suffer with illness 
and pain until it becomes life-threatening. This is no way to treat our 
people. The Budget calls for a $24 million increase in contract health 
care. We support the increase, and urge the Committee to do all it can 
to fully fund contract health care.
     Diabetes. At Bad River, diabetes continues to be a major problem. 
We appreciate that Congress has targeted resources to this diabetes 
programs in Indian country. Starting last year, we received a small 
grant to address diabetes issues at Bad River. With this grant, we have 
been focusing on our children and youth--providing a wide range of 
education, nutrition and fitness programs to help our next generation 
understand what can be done to deter or prevent the problems of 
diabetes. To be successful, these programs must be continued over time. 
We urge the Committee to continue to do all it can to continue to fund 
tribal programs to combat diabetes.
    D. Dental services. Our dental program is able to pay only for 
emergency dental work for adults. With a current budget of $104,400 our 
dental program has a long list of persons waiting for dental services, 
for which no funds are available. Often, the inability to obtain needed 
dental work for elders makes it difficult for them to eat--which in 
turn leads to further medical problems. We need an additional $200,000 
to provide services to those now waiting for needed dental care.
    Funding for Tribally-Constructed Health Clinic. In 1995, the Band 
took the initiative, using Tribal and grant funds, to build a new 
$500,000 health clinic on our Reservation. This replaced a tiny clinic 
that was located in a community building. While the new facility has 
enabled us to provide additional needed services, including pharmacy, 
the IHS has not provided us with the staffing and equipment costs 
needed to utilize our facility in full. We urge Congress to provide 
funds, as authorized under the Indian Health Care Improvement Act, for 
IHS to provide needed staff and equipment in tribally constructed 
health care facilities, including for Bad River.
                            law enforcement
    Crime in Indian country--including at Bad River--is a serious and 
growing problem. The Administration's Law Enforcement Initiative calls 
for a $20 million increase over last year for BIA/tribal law 
enforcement across Indian country. It also includes $124 million to 
enhance Department of Justice law enforcement efforts, including 
additional funds to support tribal courts, and to provide grants to 
tribes for additional police personnel (COPS grants). All of this is 
very much needed, and we urge the Committee to give priority to funding 
for law enforcement in Indian country.
    At the same time, we are concerned that the Administration's 
initiative may not address our situation at all, since we have not been 
included in prior funding of law enforcement officials. In fact, the 
Bad River Band has no Tribal police force at all on our Reservation. 
The Tribe currently has only one available source of law enforcement 
personnel. Under an agreement with Ashland County, the Tribe 
contributes $57,000 per year for law enforcement services. In return, 
the County assigns a single county sheriff, who is supposed to provide 
law enforcement, but only on a part time basis. That sheriff does not 
even live on the Reservation, and he is only present on the Reservation 
during certain limited hours. On most days, after 3 P.M., during the 
very hours when most crimes are committed, there is no police personnel 
at all on the Reservation.
    During 1997 (the most recent year for which statistics are 
available), the sheriff responded to 439 calls on the Reservation. We 
need Tribal police on the Reservation--both to provide a visible 
presence as a deterrent and to respond to crimes that do occur. But 
general increases in law enforcement funding do not help us if none of 
the money is directed to our needs. To establish a minimum primary law 
enforcement presence the Tribe requests an earmark of $125,000 to hire, 
train and equip two tribal police officers.
                               education
    Mashkisibi School. At Bad River, we have taken the initiative to 
address the needs of those children who have had difficulties in the 
public school setting--by establishing the Mashkisibi School, an 
alternative school for grades 9-12. The School, established in 1995, 
serves 20 to 30 students each year. These are students who would drop 
out if public school was their only option. The Mashkisibi School seeks 
to engage these students by integrating Ojibwa language and culture 
into all aspects of the curriculum, and by focusing on the practical 
impact of all areas of learning. The School has demonstrated 
considerable success, keeping these children in school, and helping 
them thrive. In its short time in existence, the School has had 22 
graduates, of whom 5 are now in college, 2 in the armed services and 9 
are otherwise employed. These are individuals who, without the 
availability of the Mashkisibi School, almost certainly would never 
have completed high school.
    While we have been able to begin the School on a shoestring, to be 
able to survive, we will need federal support. To operate the school--
providing salary to our fine staff--we need $135,000 for fiscal year 
2000. And, to have a proper facility for our School, we need $350,000. 
We recognize that there is currently a moratorium on new BIA funded 
schools. But, in this case, where the Band has stepped in to educate a 
segment of the student population that was not otherwise receiving the 
services needed to keep them in school, an exception should be made. We 
urge your support for the Mashkisibi School.
    Other Tribal Education programs. The Band runs a Higher Education 
Grant Program--to provide scholarships to needy tribal members to 
attend college. While this is vital to the future of the Tribe, with 
current funding, we have been able to meet the need of only 72 percent 
of our students. The President's budget calls for a reduction of over 
$919,000 in the Higher Education Grant Program, compared with last 
year's level. This reduction, which we oppose, would further limit the 
number of tribal members who will be able to advance their education 
and return to the Reservation with skills to enhance the quality of 
life in our communities.
    The Band also runs an Adult Vocational Training Program, which 
provides grant funds for vocational training, and a Direct Employment 
Assistance Program, which provides assistance to tribal members to meet 
basic needs as they begin employment. Increases of at least 25 percent 
are needed in both of these worthy programs. The Johnson-O'Malley 
program is a key to the success of many of our students in the public 
school system. This program provides needed counseling and support 
services--and study skills training--to about 490 students. This year, 
the President is proposing to cut JOM again--this time by $611,000. We 
urge Congress to reject such a cut, and restore full funding for the 
JOM program.
                      natural resources management
    Our natural resources are key to our cultural and economic survival 
as a people. Wild rice, deer and walleye are central to our lives, and 
subsistence use of these resources is widespread and increasing. Proper 
management and enforcement efforts are more critical than ever to 
preserve the integrity of our Treaty rights and resources for members 
of the Band. We face population growth on the Reservation and in 
surrounding communities, increased environmental threats and ever-
increasing equipment, supply and personnel costs. Despite these 
pressures, we have had no increase in our Tribal Management and 
Development Program (formerly called Fish and Game) for several years. 
To keep pace, and to provide the kind of enforcement and management 
that are necessary to protect our resources for future generations, we 
request an additional $300,000 for fiscal year 2000. We also support 
full funding for the Circle of Flight program and BIA Fish Hatchery 
Maintenance.
                           land consolidation
    We are very pleased that Bad River was selected to participate in 
the Land Consolidation Pilot Project established under last year's 
Omnibus Appropriations Act. At the same time, we recommend that the 
bill language on the pilot project be amended to provide that the 
participating tribes have the right to determine how best to use the 
funds to address the problems of fractionation.
    At Bad River, the United States allotted about 97 percent of our 
Reservation lands. The legacy of allotment is a Reservation that is 
badly checkerboarded, in a manner that creates a jurisdictional 
nightmare. To give you a sense of the problem, there are more than 
30,000 interests in trust lands on our Reservation of less than 2 
percent. Effective management and use of lands that are so badly 
fractionated is essentially impossible. Fractionated land ownership 
significantly impedes economic development of our Reservation land 
base.
    We supported enactment of a pilot program to assist tribes in 
purchasing fractionated interests in trust lands. And, we were 
delighted to have been selected to participate. But, we have been 
disappointed in the way the BIA has determined it will proceed. The BIA 
has set up the pilot project in a manner that unduly limits the role of 
the tribes. We had expected the pilot project to provide needed funds 
directly to the participating tribes, to allow the tribes to determine 
and implement their own policies and priorities for addressing 
fractionation. For example, we expected we would be able to identify 
critical parcels that the Band would purchase from willing individual 
Indian sellers. But, rather than allowing the tribes to devise their 
own approaches, the BIA is controlling the process.
    According to the BIA, all that Bad River will receive under the 
pilot program is $8,000. That money is to be used by the Band to assist 
the BIA in notifying potential sellers of the program, and other 
administrative tasks. The BIA itself is retaining $250,000 for 
administrative costs. And, the BIA has mandated that only parcels of 
less than 2 percent interests may be purchased. The Band has no role at 
all in selecting which particular parcels or interests should be 
purchased to advance tribal conservation or economic development goals. 
If a critical parcel from the Band's perspective is a 3 percent 
interest, no purchase of that interest is possible, according to the 
BIA.
    We believe that the Land Consolidation Pilot Project can provide a 
real opportunity to begin to address the fractionation problem. But for 
the project to succeed, tribes must not be excluded from determining 
how best to address the problem locally. To assure a proper role for 
the tribes, we urge the Committee to amend the bill language to provide 
that tribes may contract for the pilot project under Public Law 93-638. 
Consistent with the policy of Self-Determination, we feel strongly that 
the tribes, not the BIA, are best situated to make decisions on how to 
use Pilot Project funds to purchase fractionated interests and to help 
restore the Reservation land base.
                                 ______
                                 
 Prepared Statement of Tom Maulson, Chairman, Lac du Flambeau Band of 
                     Lake Superior Chippewa Indians
    Mr. Chairman and members of the Committee, my name is Tom Maulson, 
and I am the Chairman of the Lac du Flambeau Band of Lake Superior 
Chippewa Indians, located in Wisconsin. I am here to testify on behalf 
of the Tribal membership, to discuss their issues, concerns and needs.
    As a Chairman of a Sovereign Nation, it is my responsibility to 
emphasize that the United States is obligated by Treaties and Executive 
Orders to provide critically needed social, education, health and 
governmental services to all federally recognized Indian Nations in 
exchange for all the land and peace our forefathers provided. It is 
this special relationship between the Indian Nations and the United 
States that provides the proper understanding of my appearance here 
today, and our work with this Committee, the Congress and the 
Administration on fiscal year 2000 appropriations. With this in mind, 
Mr. Chairman, I would like to turn to some specific health care, 
education, law enforcement and natural resource issues arising out of 
the President's fiscal year 2000 budget.
                              health care
    Community Health Representatives. The CHR program provides a 
critical link between our people and their health care providers. Our 
CHR staff is trained and knowledgeable with regard to key medical needs 
of our people. They perform important functions including outreach 
patient education, administration of medication, and changing 
dressings. Our CHRs also provide services to new mothers dealing with 
post partum issues, child immunizations and other matters. In this, we 
have seen great success--as our child immunization rate at Lac du 
Flambeau is now 91-94 percent.
    In addition, our CHRs have earned the respect and trust of the 
members of our community. While many of our people, especially the 
elderly, are often reluctant to address medical problems, our CHRs are 
very effective in seeing that our people access proper health care. 
Without CHRs many of our people simply would not seek or obtain needed 
medical care. We strongly urge the Committee to reject the 
Administration's proposed $5 million reduction, and to restore full 
funding to the CHR program.
    Physician pay. Another key health issue is physician pay. At Lac du 
Flambeau, we have seen the difference retaining quality doctors can 
make. In the last year, for example, we have succeeded in hiring a 
woman physician, with family practice and OB experience. This 
physician, who is from the Turtle Mountain Chippewa Tribe, is also a 
graduate from the INMED program at the University of North Dakota. This 
physician's manner and expertise have restored the faith of many of our 
people in the medical care we provide at our clinic.
    While the system has worked in providing us with this fine 
physician, we are concerned that we may be unable to retain her over 
time, unless we can provide her with adequate pay. Among other things, 
our physician, like most young doctors, has substantial loans from 
medical school which she must repay. Unless we can help her and others 
address their loan repayment costs, we run the risk of losing the best 
available doctors to the private sector. For this reason, we are 
extremely concerned that the President's budget calls for $5.9 million 
less than would be required merely to pay mandatory increases under the 
Pay Act. We urge the Committee to redress this and provide full funding 
for physician pay. This will protect the government's investment in 
Indian doctors, and will help tribes like Lac du Flambeau recruit and 
retain the quality doctors our people need and deserve.
                            indian education
    I am encouraged by the fact that education is a primary focus of 
the President's budget. Educating the Band's future leaders, educators, 
health care providers, natural resource specialists, and administrators 
is one of the top priorities of ours as well. At the Lac du Flambeau 
Public School, our student population is 95 percent Native American, 
yet less than 2 percent of the teaching staff is Native American. The 
effort to recruit Indian teachers, the Band feels, is a priority. The 
President requests $10 million, to recruit and train 1,000 new Indian 
teachers, to serve in public school districts with high concentrations 
of Indian children. We recommend that the recruitment and training 
program be flexible enough to allow applicants to be trained by the 
local educational agencies and serve as interns in the schools they 
will be teaching. In addition, we urge the President and Congress to 
make this an ongoing educational initiative--one year is simply not 
enough to make up the deficits we face.
    The Band believes that the more time our children are in school the 
better chance they will be successful. The budget proposes $600 million 
to enhance after school and summer school programs across the country. 
The Band requests that $100 million of this amount be set aside for 
Indian Country.
                         tribal law enforcement
    In 1998, the Tribal Police Department logged 25,000 man hours 
answering 4,515 complaints. Our 11 member Police Department consists of 
10 full time officers and 1 administrator responding to calls ranging 
from domestic violence to juvenile cases including runaways, burglary, 
fraud, battery and vandalism. The officers have issued 650 citations 
for underage drinking, truancy, curfew and traffic violations, to name 
a few. The work load for the Tribal Police Department has also 
increased dramatically, since a Tribal/State/County Agreement has been 
enacted making it imperative to enforce all laws, codes and ordinances 
24 hour per day. The Tribal Police not only respond to tribal 
complaints but also provide services to the non-Indian community. Our 
Police Department also aids surrounding community police departments 
(Oneida and Iron County Sheriffs and Woodruff, Minocqua and Eagle River 
Police Departments).
    Currently, our budget for Law Enforcement is $220,300, but the 
Band's need is $550,000. To address this shortfall, the Band requests 
an increase of $329,700. We urge you to support the President's 
proposed budget which seeks a $20 million increase for BIA/Tribal law 
enforcement programs and $124 million within the Department of Justice 
budget for targeted law enforcement programs such construction of jails 
and retention centers and the COPS Grants Program.
                           natural resources
    In past testimony, I have emphasized that the natural resources of 
the Lac du Flambeau Band are our most valuable and significant asset--
apart from our children and elders. Our natural resources provide the 
people with cultural, spiritual, subsistence, social and economic 
opportunities. Our Reservation is located in the heart of Wisconsin's 
tourism and sportfishing region. Tourism and related industries provide 
a livelihood for Indians and non-Indians alike. The land, the water, 
the air and all the animals and plants that live along with us on this 
land, help make us what we are as a people. We need adequate funding to 
fulfill our responsibilities to keep these resources clean and 
available for the generations to come.
    Wildlife and Parks. The Band has a very comprehensive Natural 
Resources Department and dedicated staff with considerable expertise in 
natural resource and land management. Our activities include raising 
fish for stocking, conservation law enforcement, collecting data on 
water and air quality, developing well head protection plans, 
conducting wildlife surveys, administering timber stand improvement 
projects and more on the 92,000 acre reservation. We urge this 
Committee to increase the Wildlife and Parks budget by $10 million 
nationwide and set aside $200,000 for Lac du Flambeau ($100,000 for 
Tribal Fish Hatchery Operations and $100,000 for Tribal Management and 
Development). The Wildlife and Parks budget has not increased since 
1990 and an increase will help maintain our current staff and critical 
natural resource programs.
    Circle of Flight. The Circle of Flight Program (also known as the 
Wetlands and Waterfowl Management Program) is dedicated to preserving 
and rehabilitating our Nation's wetlands and waterfowl populations. 
Wetlands are important in providing flood control, clean water and 
recreation. Waterfowl are an important source of food for tribal 
members and also support hunting opportunities for many up and down the 
Mississippi Flyway. Twenty reservations, the Great Lakes Indian Fish 
and Wildlife Commission, 1854 Authority and Fond du Lac Ceded 
Territory, with reservation and ceded territory land base of more than 
61 million acres, have identified $975,000 in funding needs for fiscal 
year 2000. We urge the Committee to continue to support this initiative 
and increase the President's budget by $398,000 for this very worthy 
program.
    Forestry. Within our reservation we have 45,000 acres of forested 
land that supports hunting and gathering opportunities for tribal 
members, as well as logging. Proper management of the forest is 
essential to sustain our subsistence lifestyle and to provide economic 
growth for the Band. The Forestry Program, consisting of 2 foresters 
and 2 technicians, conducts broad management activities including tree 
planting, prescribed burning, timber road design and maintenance, 
timber sale administration and integration with wildlife management. We 
strongly request that an additional $70,000 be earmarked for the Lac du 
Flambeau Forestry Program tosupport a program that has not received any 
new funding since fiscal year 1991.
    Tribal Historic Preservation. In 1996 the Band assumed Tribal 
Historic Preservation Office status (THPO) through the National 
Historic Preservation Act. We are one of 17 Tribes in the Nation to 
assume the duties of the State Historic Preservation Office for all 
lands within the exterior boundaries of the reservation. The 
President's budget includes a $2,595,000 for THPO'S. We urge the 
Committee to increase the budget to $10 million to address the needs of 
the tribes already in the program, and for additional tribes that are 
assuming Historic Preservation Office status. Also, the Committee 
should be made aware that there is a disparity in funding between State 
Historic Preservation Offices (SHPO) and Tribal Historic Preservation 
Offices (THPO). For example the smallest SHPO receives $250,000 while 
the tribe with the largest land base, the Navajo Nation (with a land 
base larger than West Virginia's), only receives $89,000. The Band 
supports the National Association of Tribal Historic Preservation 
Officers' request of $275,000 base funding for each THPO. Since the 
tribes by law have the same responsibilities as states in this regard, 
funding for tribes should be sufficient to enable tribes to meet those 
responsibilities.
    Land Consolidation. The Band supports the President's request for 
$10 million for the Land Consolidation Project but would respectfully 
request that the tribes be authorized to administer the project through 
a Public Law 93-638 contract. The tribes, not the BIA, should determine 
how best to address the problems of fractionation of trust lands. The 
Band currently is participating in the Pilot Project. To fully 
implement this project, an increase of $60,000 to support the Land 
Management Department is requested.
            great lakes indian fish and wildlife commission
    The Band supports the President's request of $3.56 million for the 
Great Lakes Indian Fish and Wildlife Commission, as well as the 
Commission's additional request of $206,000 for radio replacement and 
to implement the U. S. Forest Service Memorandum of Understanding. The 
requested funds are essential for implementing the Band's off 
reservation hunting, fishing and gathering rights in the ceded 
territories.
                         contract support costs
    Contract support is the final issue I would like to discuss. The 
President's TPA budget includes $121,338,000 for Contact Support which 
is an increase of $6,109,000 over last year's level. But even the BIA 
admits that this will only meet up to 84 percent of the total contract 
support needs in Indian Country. For the Self-Determination policy to 
work as Congress has envisioned and mandated, full contract support 
costs must be provided to tribes in connection with programs they 
administer. The Band urges Congress to fully fund contract support.
    Thank you. Miigwetch.
                                 ______
                                 
 Prepared Statement of Spike Bighorn, the Assiniboine and Sioux Tribes 
                  of the Fort Peck Indian Reservation
                      tribal priority allocations
    The Tribal Priority Allocations system is intended to give tribes 
an additional measure of flexibility in determining how to use 
available funds to best meet local needs. The Administration has 
requested an increase of $36.3 million for programs under TPA. While we 
support this request it would still fall far short of allowing the Fort 
Peck Tribes to meet the needs of our people in key areas including, 
education, agriculture and tribal courts. We urge the Committee to do 
all it can to increase TPA above the level requested by the President.
Education ($983,000)
    We urge the Committee to support the education needs of Indian 
people. The President's budget requests $28.6 million for scholarships 
for Indian students to attend accredited post-secondary schools, a 
decrease of $919,000 from last year. Obtaining a degree in higher 
education--particularly for those individuals from families that have 
not previously sent anyone to college--takes courage and often 
considerable personal sacrifice. We believe it is our responsibility to 
support the efforts of our people to attend college. The Tribes provide 
scholarship funds available through the BIA program. However, the 
current levels of funding are already far too inadequate. For example, 
this year the Tribes have identified 230 students who are eligible for 
scholarship benefits for higher education but who cannot be served 
because of lack of funding. The BIA itself reports that the level of 
unmet requests for scholarships nationwide has increased steadily over 
the last three years and currently stands at an estimated $26.6 
million. The decrease in funding will eliminate the opportunity of 
higher education for many tribal members. This is tragic, as it 
diminishes the number of educated Tribal members who would return to 
our communities to work with our youth, our elders and otherwise 
enhance the well-being of the Tribes. Furthermore, education is key in 
moving people off of welfare and into the workforce.
    We are also disappointed that the BIA budget request of $18.08 
million for the Johnson O'Malley program is $600,000 less than the 
fiscal year 1999 amount as it reduces even more the already meager 
resources provided to support culturally relevant education for Indian 
students attending public schools. We estimate that the Johnson 
O'Malley Program is currently underfunded by an $974,000 at Fort Peck.
    The Tribes request $983,000 to meet the funding needs of the 
Tribes' Education Department. This request is consistent with past 
funding levels, but we emphasize that, with a total estimated need of 
$2,467,900, this amount is adequate to meet only about 25 percent of 
total education needs for tribal members on the Reservation. For 
example, the Tribes have identified 100 students eligible for the 
Tribes' adult vocational scholarships and 75 individuals eligible for 
the Tribes' employment assistance program who are not served due to a 
lack of funding.
Water resources ($20,000)
    The Fort Peck Water Resources Department is charged with managing, 
conserving, developing, and protecting the water rights of the Fort 
Peck Tribes. To accomplish this mandate, the Tribes are conducting a 
feasibility study for the North Sprole Irrigation Project. This project 
will allow the Tribes to make beneficial use of their water rights and 
their land by building the necessary infrastructure to pump water from 
the Missouri River and irrigate 15,000 acres of farmland. Because this 
project would assist the Tribes in utilizing their natural resources 
and would provide employment to tribal members during all phases of its 
development, it is an important component of our overall plan for 
economic development. The Tribes request an additional $20,000 to fund 
the core functions of our Water Resources Department.
Agriculture ($1.291 million)
    The President's budget requests $19.347 million for BIA agriculture 
programs, an increase of $619,000 over last year. The Tribes support 
additional resources for agricultural needs, of which Fort Peck has 
many. The Fort Peck Tribes' Natural Resources Program recently took 
over management of the Fort Peck Agency's agriculture program under a 
self-determination contract. The Natural Resources program is 
responsible for natural resource management planning on approximately 
4,500 leases and for the administration of 92 range units, encompassing 
362,132 acres. Currently, the Tribes receive only $184,314 to 
administer the program which pays only existing staff and vehicle 
support and maintenance--but provides no funds for essential range 
improvements or other key needs. Long-term underfunding of the 
agriculture program has created substantial need at Fort Peck for 
improvements.
    The Natural Resources Program requires $1,140,000 for range 
improvements. Currently, the 92 range units are underutilized due to 
the lack of water developments and cross fencing. These funds are 
needed to build 200 miles of cross fences, drill 80 water wells, repair 
20 stock dams, and to develop 40 springs. Also, during the summer of 
1998, the area on the Reservation north of Brockton, Montana was hit 
with a flash flood, which breached the Colgan dam located on the Poplar 
River. Natural Resource Conservation Service engineers have conducted a 
site visit and put the preliminary cost estimate to repair the dam at 
$35,000. Finally, the Tribes sorely need a new range inventory. 
Currently we must rely on stocking rate data that is outdated and 
obsolete as it was generated in the last range inventory conducted in 
the 1970's. We estimate that it will cost approximately $116,000 per 
year for three years for the new range inventory. This amount includes 
funding for four additional FTE.
Tribal courts
    The Fort Peck Tribes support the BIA's request for approximately 
$11.4 million for tribal courts and the DOJ's $5 million requested 
increase for the Indian Tribal Court Program within DOJ. Historically, 
tribal courts have been under funded and overworked. Despite the 
commitments of the BIA and DOJ to fund tribal courts, these amounts 
will only begin to address the historical deficiencies in funding. 
Critics of the tribal court system fail to understand that without 
adequate funding, tribal courts can not operate at their full 
potential. The Fort Peck Tribes urge this Committee to support even 
higher funding for tribal courts, to make up for the many years when 
the needs of these important tribal institutions were not met.
    law enforcement and detention facility operations and management
    The President's budget requests a $20 million increase over last 
year for BIA/tribal law enforcement for the second year of the 
President's Indian Country Law Enforcement Initiative. The President's 
budget also requests $124 million increase for the DOJ targeted law 
enforcement program. The Tribes strongly support the President's effort 
to enhance law enforcement in Indian country.
Tribes' police department ($1.4 million)
    At Fort Peck alone, we have an estimated $1,400,908 million need in 
our Police Department though funding levels fall far below that amount. 
Our Reservation covers 6,000 square miles. We have a population of 
13,000 living on the Reservation. We currently have 15 officers on the 
force. We require about 44 officers to meet the President's goal of 2.9 
officers per 1000 persons and to provide adequate staffing in each of 
the Reservation law enforcement districts. Although our officers are 
well trained and dedicated, there are simply not enough of them to meet 
the day-to-day law enforcement needs of our community. Eleven 
dispatchers serve the Police Department, but we require at least 6 
additional persons to adequately serve the Reservation. We also require 
funding for a statistician. Documenting the number of accidents, 
highway deaths, arrests, and other statistics is essential to improving 
the quality and responsiveness of the Police Department. This job is 
currently performed by the police captain, a person who already has 
enormous responsibilities. Also, the Tribes have been recently required 
to meet additional requirements for conducting background checks of and 
providing training to law enforcement personnel. As a result, the 
Police Department requires an additional staff person to administer 
these new requirements.
    In addition, our Police Department is in desperate need of 
equipment. It currently has only 8 police cars. We would like to have 
at least 11 more cars--one per officer. Because our officers must cover 
a large geographic area, the police cars endure an enormous amount of 
wear and tear. This fact, coupled with the small number of cars, 
results in a dangerous situation where we lack adequate and reliable 
transportation for our officers. Our Department also needs additional 
equipment such as car radios, bulletproof vests, roll bars and 
protective shields.
    Last year Congress appropriated $20 million in new funds for the 
law enforcement budget of the Bureau of Indian Affairs. While 
approximately 56 percent of the law enforcement programs are operated 
by tribes pursuant to self-determination contracts and self-governance 
compacts, the Bureau allocated approximately 61 percent of these funds 
(excluding the $1.84 million allocated for training of officers of BIA 
and tribal programs) to BIA central office and BIA-run programs and 
only about 38 percent to the tribal programs. Fort Peck received none 
of these additional funds for law enforcement or corrections. The 
Tribes request the Committee to direct BIA to distribute all increases 
fairly among BIA and tribally-operated programs.
Detention facility operations and management ($1.431 million)
    The BIA has indicated that it will allocate $4 million of the $20 
million additional law enforcement funds for corrections officers. We 
urge the Committee to direct the BIA to allocate a portion of those 
funds to meet the Tribes' need of $1,431,757 for staffing and equipment 
at the Tribes' two detention facilities.
    Last year through the DOJ, the Tribes received a grant to do the 
necessary upgrades and repairs to the Tribes' youth detention facility. 
While the facility will now be brought into compliance with applicable 
codes, there is still a significant need in staffing and operation and 
maintenance for this facility. We also need additional staffing at the 
adult facility. Adequate staffing is critical to the success of the 
Tribes' correction system. Being understaffed grossly limits the 
ability to ensure compliance with mandated detention standards, the 
security of the facility, and the safety of the inmates, staff, and 
visitors. It also results in increased employee workloads which in turn 
causes high turnover, low staff morale, and poor facility maintenance. 
Without adequate staffing we are unable to provide inmate programs 
which contributes to an abnormally high recidivism rate. Moreover, 
understaffing can increase the risk of litigation arising out of living 
conditions in the facility.
                         indian health service
    The President's budget requests a total of $2.8 billion for overall 
IHS services and construction. This is a $170 million increase over the 
fiscal year 1999 level, which makes a significant improvement over the 
President's request last year. The health indicators in Indian 
communities consistently demonstrate higher infant mortality, teenage 
suicide, accident, alcoholism, diabetes, and heart disease rates among 
Indian people when compared with other minorities and the general 
American population. Unfortunately, current levels of IHS funding to 
Indian communities fail to meet health cost inflation rates from year 
to year. Yet, money directed to health care, especially preventative 
care, such as routine checkups and health education, clearly improves 
the quality of life and helps avoid more expensive health care costs in 
the future. The increase in the President's budget is a modest step 
toward improving long-term health care in Indian country but falls far 
short of adequately addressing the substantial unmet health needs of 
Indians.
                            tribal colleges
    We support the Administration's request of $31.311 million for 
tribal colleges which is a $7 million increase over last year. This 
request is consistent with the President's Executive Order on Tribal 
Colleges, which supported enhancing federal support to tribal colleges 
and universities nationwide. The twenty-six tribal colleges are 
important institutions to remote tribal communities. On our 
Reservation, we operate the Fort Peck Tribal College, a fully 
accredited institution, offering Associate Degrees in arts, science and 
applied sciences. We also offer a vocational certificate for our 
students. We have a current enrollment of 356 students. In 1998, 
thirty-one of our students graduated.
                                 ______
                                 
    Prepared Statement of Fond du Lac Band of Lake Superior Chippewa
    Mr. Chairman, Members of the Committee, the Fond du Lac Band of 
Lake Superior Chippewa would like to thank you for this opportunity to 
present our testimony on fiscal year 2000 appropriations for the 
Department of Interior and Related Agencies.
    The Fond du Lac Band occupies a Reservation in north-eastern 
Minnesota. The Fond du Lac Reservation was established by Treaty with 
the United States on September 30, 1854 and encompasses approximately 
110,000 acres of land that the Band occupied from time immemorial. 
There are currently about 3,350 members of the Fond du Lac Band, of 
this \2/3\ live on the Reservation.
fond du lac ojibway school--$14.316 million for new school construction
    The Band strongly supports the Administration's request of $14.316 
million for construction of the Fond du Lac Ojibway School. Funding for 
construction of this facility is desperately needed. We are ready to 
begin construction as soon as the funds are appropriated.
    The existing Ojibway School is a grant school under the Tribally 
Controlled Schools Act of 1988 (Public Law 100-297, Title V, Part B; 
the ``Tribally Controlled Schools Act''). The School serves 
approximately 382 children in grades K-12. The existing buildings are 
very old and decrepit. We have had to use four temporary portable 
buildings to house the Middle School (Grades 6-8) and a library. These 
buildings are in violation both of applicable building codes and BIA 
space guidelines. The 1992 BIA Construction Validation Report stated 
that, ``The building poses a clear and immediate danger to its 
occupants. To not replace the facility could be construed as negligence 
in the event a fire occurred. Any attempt to continue to use this 
facility on other than a short-term interim basis, is imprudent.''
    We have equally serious problems with the buildings for the primary 
school. As a result of continual spring flooding of the main building's 
basement, a septic tank system's back-up that flooded the pre-
kindergarten classroom's restroom, and leaking roofs, the primary 
school buildings are contaminated with high levels of fungal growth. 
This growth has caused significant health problems for our students and 
our teachers. The overall condition of the school is so poor that the 
school was placed on an Accredited Warned Status by the North Central 
Association of Schools in April, 1995.
    Notwithstanding these facility handicaps, the school has been able 
to provide high quality education to the students it is able to admit. 
The Fond du Lac Community, School Board, Reservation Business 
Committee, Education Administration and Staff have continually sought 
to improve Indian Education since the inception of the Ojibway School. 
The involvement of the community has been instrumental to the existence 
of the school. With the help of tribal, state and federal programs, the 
Ojibway School has evolved into a leader in tribal education.
    Nevertheless, children cannot strive to be the best if they are in 
an environment that threatens their health. Fond du Lac children have 
the right to go to school in a place where they can learn and grow to 
become whatever their hearts desire them to be. However, right now they 
are going to a school where their health is threatened and their safety 
is at risk.
    The Administration has requested the dollars to complete the 
construction of this school by June 2000. There is no reason why Fond 
du Lac school children should continue to be at risk. We urge this 
Committee to support the Administration's request and include the $14.3 
million necessary to complete the construction of the Fond du Lac 
Ojibway School in the fiscal year 2000 Appropriations bill.
    Additional Education Program Needs.--The Band strongly supports the 
Administration's request for Indian Education programs including: 
$319.890 million on for the Indian School Equalization Program (ISEP); 
$38.8 million for Student Transportation; and the $79 million for 
Facilities Operation and Maintenance. This funding is necessary to 
ensure that the 185 BIA and tribal schools throughout the country will 
be able to meet the performance goals set out by the President's Call 
for Action for American Education in the 21st Century. The fate of 
Indian people in the 21st Century rests with the education and success 
our children. Thus, it is critical that this Congress support the 
requested funding for school operations.
law enforcement--$350,000 for law enforcement officers and $100,000 for 
                               equipment
    In 1997 the Minnesota Supreme Court issued a decision in which it 
held that certain traffic regulations including speeding, driving 
without a license, and driving without insurance are ``civil-
regulatory'' in nature and under Public Law 280 unenforceable by state 
police officers on the Reservation. The ruling, known as the Stone 
decision, left a jurisdictional void with regard to law enforcement on 
roads within Indian Reservations within the State. The Fond du Lac Band 
has undertaken to fill this void by establishing our own Tribal police 
force. In addition, last year the Fond du Lac Band worked with the 
local law enforcement agencies and entered into a cross-deputization 
agreement to ensure the maximum amount of law enforcement services for 
the Fond du Lac Reservation and its citizens. However, because we have 
limited financial resources, we have significant unmet needs in this 
area. At Fond du Lac, we need $350,000 for police officers and staff 
and $100,000 for equipment to adequately ensure the safety of the 
Reservation population.
    We strongly support the Administration's $144 million request of 
additional funding for the Indian County law enforcement Initiative. 
However, we are concerned that the BIA does not intend to provide 
tribes located in Public Law 280 States with any of the additional $20 
million earmarked within the BIA law enforcement program. In light of 
the Stone decision, we ask this Committee to direct the BIA to change 
its policy as to tribal police departments located in Public Law 280 
states.
    In addition to the requested funding for more police officers in 
Indian country, we support the Administration's request to support the 
other components of our justice system, in particular the tribal 
courts. We support the $13.6 million request in the BIA's budget for 
tribal courts and the $5 million in the Department of Justice's budget 
to continue funding for the DOJ's Tribal Courts Initiative.
                  natural resource protection programs
Off-reservation resource protection needs--$200,000
    Under Treaties with the United States made in 1837 and 1854, the 
Fond du Lac Band reserved rights to hunt, fish and gather rights on the 
lands that the Band ceded to the United States. The Band's rights under 
these treaties have been recognized and upheld by the federal courts--
most recently the United States Supreme Court. On March 24, 1999, the 
Supreme Court issued a decision expressly reaffirming the Chippewas' 
hunting and fishing rights in the 1837 Ceded Territory.
    Under well-established law, in exercising these off-reservation 
treaty rights, the Band must also take steps to ensure proper use and 
management of the natural resources. As to the 1837 Ceded Territory, 
this means the Fond du Lac Band is responsible for Fond du Lac Band 
members' hunting, fishing and gathering activities over approximately 
3,000,000 acres of land. The Band has adopted a code and resource 
management plans to protect the exercise of treaty reserved rights and 
the resources, and these plans have been approved by the federal court. 
The Band, however, needs to ensure that it can sufficiently staff this 
work--which requires the assistance of game wardens, fish and wildlife 
biologists, technicians, and related equipment. To do this, we are 
seeking an additional $200,000 to be added to the Bureau of Indian 
Affairs base budget and earmarked for Fond du Lac and the 1837 Ceded 
Territory.
On-reservation needs--$135,000
    It is essential that the Band properly manage its resources in 
order to meet the demand of an increasing population. Established by 
the Treaty of 1854 with the United States, the home of the Band is 
110,000 acres in northeastern Minnesota. The waters, wildlife, wild 
rice, and forest resources of our Reservation are vitally important to 
the members of the Band, as these resources provide the foundation of 
our culture, subsistence, employment, and recreation. The Fond du Lac 
Reservation includes some 3,200 acres of lakes, 1,900 acres of wild 
rice lakes and associated wetlands, 66 miles of cool water streams, and 
17,500 acres of forest. The increasing resident population is placing 
all resources under great stress.
    The loss of wild rice lakes and wildlife habitat, and the decline 
of forest biodiversity are of great concern to the Band. Therefore, we 
are seeking an additional $135,000 for our natural resources and 
forestry program to enable us to address the challenges we face in this 
critical area. The main area of concern is the Aquatic Resource 
Protection and Restoration. It is imperative that we continue to 
protect these resources for the future generations on Fond du Lac by 
the implementation of anti-degradation monitoring program with emphasis 
on mitigation of contaminants.
                               conclusion
    The needs at Fond du Lac and throughout Indian Country remain 
massive. Your support to preserve the current BIA funding request is 
critical to maintain current program levels. Your consideration for our 
additional funding requests will enable us to improve the delivery of 
services to Band members and help ensure that all citizens within the 
8.5 million acres in central and northeastern Minnesota enjoy adequate 
protection of all resources. Thank you.
                                 ______
                                 
  Prepared Statement of Larry Ivanoff, Chairman, Alaska Native Tribal 
                           Health Consortium
    The Alaska Native Tribal Health Consortium, based in Anchorage, is 
the newest tribal health organization in Alaska, and the largest tribal 
health organization in the United States of America.
    We are a statewide non-profit consortium of Alaska Native tribes 
and tribal health organizations, operating as a co-signer to the Alaska 
Tribal Health Compact, and responsible for management of the statewide 
health service programs formerly provided by the Alaska Area Native 
Health Service. Our responsibilities include management of area-wide 
tribal support services, area-wide environmental health and engineering 
functions, and the Alaska Native Medical Center. Our fiscal year 1999 
anticipated revenue from the Indian Health Service is approximately 
$100 million, and from all sources is approximately $150 million. Our 
service area includes approximately 105,000 Alaska Natives and American 
Indians.
    From our perspective, it is essential that the United States 
Congress apply a small portion of the government's budget surplus to 
address the long-standing deficiencies in the operating and capital 
budget of the Indian Health Service, beginning in fiscal year 2000. We 
join our sister organization, the Alaska Native Health Board, in 
requesting that the I.H.S. recurring budget be increased by 20 percent 
in the coming fiscal year.
    We note that the Department of Health and Human Service's fiscal 
year 2000 request to the Office of Management and Budget would have 
provided a 17 percent increase for the agency. While the 
Administration's formal request to Congress reflects only a 7.6 percent 
increase for fiscal year 2000, we acknowledge that this is the most 
significant increase proposed in many years. These requests are well-
justified and warrant serious Congressional consideration.
    Nationally, it is well-recognized and documented that the Indian 
Health Service budget only addresses between 50-60 percent of the 
health service needs of the I.H.S. beneficiaries, and that Alaska 
Natives and American Indians who live outside of I.H.S. service areas 
are served at a significantly lower level. The overall Indian Health 
Service budget levels must address considerations for built-in costs 
such as federal/tribal employee pay increases, inflation in medical 
services, increased costs of medical technology, and population 
increases. Failure to provide for these costs means that the real 
appropriations levels for Indian Health Service and tribal health 
programs are gradually reduced from already inadequate levels.
    There are several specific health conditions and program areas 
which warrant special consideration and attention in the fiscal year 
2000 appropriations process:
    Sanitation Facilities Construction.--While funding from all federal 
and state sources has increased overall for water and sanitation 
projects needed in Alaska Native villages, it is essential to maintain 
or increase the Indian Health Service contribution in this area over 
the next ten years. More than 100 rural communities have inadequate 
sanitation services.
    Health Facilities.--Even though Alaska's high-profile projects have 
been addressed (Alaska Native Medical Center and Maniilaq Medical 
Center) in recent years, there remain several rural Alaskan hospitals 
and health centers that require replacement on an urgent or high prior 
ity basis. These include the St. Paul Health Center, the Metlakatla 
Health Center, and the Barrow Hospital. Continued Congressional support 
for projects on the I.H.S. facilities priority list is essential.
    Patient Travel.--Tribal health providers in Alaska continue to face 
significant shortfalls in their ability to provide financial assistance 
to allow Alaska Natives who live in remote isolated communities to 
obtain access to basic primary and specialty medical services. We 
endorse the Alaska Native Health Board's proposal for an earmarked 
increase of $10 million for Alaska Native patient travel support.
    Behavioral health services.--Over half of the 180 Alaska Native 
villages do not have community-based mental health or substance abuse 
treatment services. In most communities services are available only 
from itinerant professionals on an infrequent basis or through 
referrals to urban-based programs. There is growing concern for 
prevention and treatment services for inhalant abusers in rural Alaska.
    Maternal/child and elderly services.--Our epidemiologists are 
advising that, due to demographic changes, our requirements for 
maternal/pediatric services are likely to increase between 25-30 
percent in the next five years, outstripping the current capacity of 
our hospitals and primary health care centers. Similarly, demands for 
medical services for Alaska Native elderly will also increase between 
25-30 percent over the next five years.
    Cancer prevention and treatment.--Unfortunately, both behavioral 
and environmental factors are resulting in significant increases in 
cancer rates among Alaska Natives statewide. It is essential that 
prevention, screening, and treatment services all be enhanced by tribal 
health providers in Alaska.
    Telehealth services.--Initial funding was approved by Congress in 
the fiscal year 1999 I.H.S. budget for the first year actiities of the 
Alaska Federal Health Care Access Network, a four-year $28 million 
project designed to interconnect all Alaska Native health care 
locations, Veterans Administration health sites, military health sites, 
and State public health nursing sites with telemedicine capabilities. 
Continuing support of Congress for the second and subsequent years for 
this project is essential.
    Community Health Representative services--We are concerned that the 
Administration has proposed a reduction of $5 million in the CHR 
services appropriation. Over 100 CHR's in Alaska provide critical 
direct patient services and support for primary care operations. We 
urge the Committee to maintain current levels of appropriations for 
this program.
    In addition to these health services concerns, the Alaska Native 
Tribal Health Consortium shares with most other tribal health providers 
a serious concern that Congress this year address the issue of 
providing adequate tribal contract support cost funding.
    The Consortium has assumed responsibility for managing a $100 
million Indian Health Service program, and has determined a contract 
support requirement of approximately $15 million, of which $3 million 
is for start-up costs. As of this date we are managing this agreement 
with no contract support; our current negotiations with the Indian 
Health Service for award of our fiscal year 1999 allocation will at 
best only meet 70 percent of our full contract support requirement. 
These funds are essential to support our administrative infrastructure, 
including such vital functions as board operations, legal services, 
audit services, strategic planning activities, employee benefits, 
information systems, financial management systems, etc.
    We understand that the total national contract support cost 
shortfall is approximately $103 million. We encourage your attention to 
upcoming reports from the General Accounting Office, an I.H.S. 
workgroup, and an workgroup organized by the National Congress of 
American Indians; these reports will provide the full scenario 
concerning tribal contract support requirements and, hopefully, 
solutions to this serious matter.
    Finally we would like to take this opportunity to address several 
related matters relevant to the long-term viability of the Indian 
Health Service and tribal health programs nationally.
    First, Congress must soon attend to the reauthorization of Public 
Law 94-437, the Indian Health Care Improvement Act, which expires in 
September, 2000. This act provides essential authorities for most of 
our health initiatives. Alaska Native tribes and tribal health 
organizations are prepared to offer our resources in support of a 
comprehensive review and refinement of the act.
    Second, we urge your support for passage of HR 1167, Title V of the 
Indian Self-Determination and Education Assistance Act, which will 
provide permanent authorization for Tribal Self-Governance. More than 
95 percent of Alaska Native tribes have been successful in implementing 
this initiative, and need Congress' assurance that this it will be 
supported on a long-term basis.
    Third, we urge action to extend the authorities provided through 
the Medicaid/Medicare Direct Reimbursement Demonstration project on a 
permanent basis to all tribal health providers nationally. The two 
tribal health organizations in Alaska who have participated in this 
project have found it to be beneficial in improving their financial 
operations.
    Finally, we urge action on legislation which will elevate the 
position of the Director of the Indian Health Service to the level of 
Assistant Secretary in the Department of Health and Human Services. 
Such action will be consistent with the status of the Bureau of Indian 
Affairs within the Department of Interior, and will ensure that the 
Indian Health Service has sufficient visibility and authority within 
the DHHS structure to achieve its mission.
    On behalf of the Board of Directors of the Alaska Native Tribal 
Health Consortium, I want to express my thanks to the members of the 
committee for the opportunity to present these concerns and 
recommendations, and for your commitment to supporting us in our vision 
to seek the highest possible health status for our people.
                                 ______
                                 
  Prepared Statement of Jaime Pinkham, President, Intertribal Timber 
                                Council
                                summary
    Mr. Chairman, I am Jaime Pinkham, President of the Intertribal 
Timber Council. I submit this testimony with the following requests 
regarding the Bureau of Indian Affairs fiscal year 2000 Forestry 
program:
    (1) Add $1,950,000 to strengthen B.I.A. forest and woodland 
management planning capability.
    (2) Re-establish separate Forestry Program Elements in Non-
Recurring Programs Resources Management.
    (3) Add $3 million for a new integrated resources management 
program line item.
    (4) Add $2 million to T.P.A. forestry activities for acreage 
increases, and
    (5) Note that $750,000 will be needed in each of fiscal years 2001 
and 2002 for the statutorily required Indian forest land assessment.
                 intertribal timber council background
    The Intertribal Timber Council (I.T.C.) is a twenty three year old 
organization of seventy forest owning tribes and Alaska Native 
organizations that collectively possess more than 90 percent of the 7.5 
million timberland acres and a significant portion of the 9.4 million 
woodland acres that are under B.I.A. trust management. These lands are 
vitally important to their tribes. They provide habitat, cultural and 
spiritual sites, recreation and subsistence uses, and through 
commercial forestry, income for the tribes and jobs for their members. 
In Alaska, the forests of Native corporations and thousands of 
individual allotments are equally important to their owners. To all our 
membership, our forests and woodlands are essential to our physical, 
cultural, and economic well-being, and assuring their proper management 
is our foremost concern.
                 a crisis in forest management planning
    Mr. Chairman, today only 50 percent of the 5.6 million acres of 
tribal commercial timberlands in B.I.A. trust have current B.I.A. 
approved management plans. Yet B.I.A. approved management plans are 
required in statute and regulation for the harvest of Indian trust 
timber. A November 13, 1998 opinion from the Interior Solicitor's 
Office holds that ``Indian trust timber may not be harvested until an 
approved forest management plan has been established.'' This lack of 
approved plans threatens to withhold up to 340 million board feet of 
Indian trust timber from the market, potentially depriving tribes of 
millions of dollars of vitally needed revenue and hundreds of timber 
harvest related jobs. This situation is directly attributable to the 
B.I.A.'s lack of forest management planning capacity, a situation that 
is growing worse. While last year only 40 percent of the total 17 
million forest acres held in B.I.A. trust was covered by approved 
management plans, for this year it has fallen to just 35 percent.
    This decline has been caused by (1) substantially reduced Forestry 
T.P.A. funding, (2) a 7.5 percent increase in forest acres under trust 
management since 1992, (3) greatly increased complexity in management 
planning requirements, (4) no increase in Forest Management Inventory 
and Planning funds since fiscal year 1991, (5) inflationary erosion of 
purchasing power, and (6) since 1995, the reduction by roughly half of 
the B.I.A. Central and Area Office Forestry personnel who provide the 
planning expertise for the great majority of smaller forested 
reservations.
    To assure that the most basic rudiments of forest planning can be 
provided tribal forestlands, we request that $1,950,000 be added as 
follows to increase B.I.A.'s forest management capability: (A) add 
$300,000 to the Area Office Forestry budget for four additional 
professional foresters, add $150,000 to the Central Office Forestry 
budget for two additional professional foresters, (B) add $1 million to 
Forest Management Inventory and Planning, and (C) add $500,000 to 
Woodlands Management.
    We further request that $3 million be added for integrated resource 
management planning, and that $2 million be added directly to forestry 
activities in T.P.A. for management on increased forest trust acres.
    Each of these requests are discussed in further detail below, as is 
notification that $750,000 will be needed in each of fiscal years 2001 
and 2002 for the second independent assessment of Indian forests.
 add $300,000 to area forestry and $150,000 to central office forestry 
            for additional professional forester capability
    Between fiscal year 1995 and today, B.I.A. Area Office Forestry 
personnel have been reduced from about 25 to about 15. In the same 
time, Central Office Forestry personnel have been reduced from about 19 
to about 10. Although reduced by roughly half from fiscal year 1995 
levels, these personnel are called upon to try to provide the 
professional and scientific expertise required for the successful trust 
planning and management of 17 million trust forest acres, most of which 
is on ninety eight reservations with economically viable forests 
throughout the United States. They are trying to do this at a time when 
forestlands are being recognized as never before for their biological 
significance and are also being intensely scrutinized and challenged on 
many aspects of their management, particularly on commercial 
utilization. Yet, with or without current plans, many tribes have 
little choice but to rely on the commercial use of their forest for at 
least some portion of essential tribal revenues.
    Of the 98 reservations with economically viable timberlands, many 
with smaller forests have no resident professional forestry personnel. 
And the great majority of the 98 reservations do not have personnel 
with the specialized expertise necessary for the development of a 
forest management plan. So those tasks, by necessity, fall upon the 15 
Area Forestry personnel spread throughout the B.I.A.'s twelve Area 
Offices (with several Area Offices harboring only a single forester), 
and upon the five foresters in the Central Office's Branch of Forest 
Resources Planning. It is, quite simply, well beyond any realistic 
expectation that such limited manpower can develop, review, and oversee 
implementation of management plans required by law for the 98 
reservations. In fact, the Branch of Forest Resources Planning has been 
forced by staff reductions to eliminate its general forest planning 
capability, and today principally provides only inventory analysis.
    Today's request for six additional personnel is an exceptionally 
modest plea to begin the restoration of the B.I.A. forest planning 
capability, because tribal forests, without plans, are open targets for 
mismanagement or legal challenge, either of which would diminish or 
interrupt what for many tribes is a critical source of essential 
operating revenue.
       add $1 million to forest management inventory and planning
    The Forest Management Inventory and Planning (FMI&P) budget covers 
the special one time projects needed in the renewal of forest 
management plans, such as remote sensing, mapping, inventory, 
management and implementation planning, and environmental assessments. 
Funds for these planning activities are not provided in a reservation's 
regular, on-going forestry budget, and the FMI&P funds meet those needs 
by rotating throughout reservations as their forest management plans 
need renewal. These funds are particularly needed for those smaller 
tribal forests where there are few or no forestry personnel. But since 
fiscal year 1991, when the program was increased to $1.5 million, these 
funds have basically remained flat (est. fiscal year 2000: $1.593 
million), failing to keep pace with inflation, the expanded land base, 
or planning's increasingly complex requirements.
    One particular example where additional FMI&P funding is needed is 
N.E.P.A. compliance. As of the end of fiscal year 1998, approximately 
57 percent of Category 1 forests (commercial forests of more than 
10,000 acres or a one million board foot A.A.C.) were without current 
environmental assessments, exposing those tribes to potentially dire 
consequences because B.I.A. is unable to comply with N.E.P.A. 
requirements. One of the larger tribal forests, that of the Navajo 
Nation, has been shut down for several years because of challenges to 
planning and N.E.P.A. assessments. For the smaller Category 2 forests 
(commercial forests of less than 10,000 acres and less than a one 
million board foot A.A.C.), only one third have environmental 
assessments.
    To begin to correct these deficiencies, the I.T.C. requests an 
FMI&P increase of $1 million for fiscal year 2000. B.I.A. estimates 
that FMI&P needs a $6.1 million annual increase.
                 add $500,000 for woodlands management
    We also request once again an increase of $500,000 for B.I.A. 
Woodlands Management, a doubling of the Administration's requested 
level. Mr. Chairman, in 1988, the B.I.A. Division of Forestry was 
formally assigned responsibility over the 9.4 million acres of tribal 
woodlands, including 4.4 million acres with commercial capability. At 
that time, B.I.A. data indicated $3 million was needed to properly 
initiate trust management of woodlands. $500,000 was provided, and has 
essentially stayed at that level ever since. Today, those funds cover 
the costs of woodlands managers at three Area Offices in the Southwest 
and fund a very limited number of on-the-ground projects. Only twenty 
seven percent of these woodlands have formal management plans, and only 
47 percent have rudimentary inventories. With little or no firm data, 
the three Area Woodlands Managers are relying on rough estimates and 
guesswork in trying to cover the millions of acres within their 
responsibility. Yet woodlands are intensively used across a wide range 
of activities, particularly for subsistence and small economic 
undertakings. An additional $500,000 would allow a greater degree of 
inventory and planning, a few additional personnel for increased 
oversight, and the implementation of an increased percentage of the 
annual backlog of submitted projects.
   re-establish separate forestry program elements in non-recurring 
                     programs resources management
    Mr. Chairman, we also request that the three separate Forestry 
Program Elements in Non-Recurring Programs Resources Management be re-
established. Those elements, Forest Development, Forest Management 
Inventory and Planning, and Woodlands Management, have been in place 
for years describing very necessary specific programs. In its fiscal 
year 1999 budget request, B.I.A. lumped then together into a single sum 
simply entitled ``Forestry''. We protested, noting that lumping such 
funds together greatly reduces the Bureau's accountability for those 
programs, and that allowing their expenditures to be shifted around at 
the Bureau's discretion effectively eliminates those programs as 
accountable, discreet activities. Further, the co-mingling of those 
funds presents confusion and difficulty in any 638 contracting or 
compacting that tribes might seek for those activities. When we 
objected to the Bureau, they noted that the combining of those funds 
was just to make the budget simpler. They acknowledged our concerns and 
said the separate Program Elements would be re-established for fiscal 
year 2000. Yet, in the fiscal year 2000 B.I.A. request, they remain 
combined. Accordingly, we ask that the Committee re-establish them.
         add $3 million for funds for a new i.r.m.p. line item
    Mr. Chairman, integrated resource management plans are considered 
essential in the current management of natural resources, and 
particularly in complex forest ecosystems. Everywhere you look, whether 
it is the forest industry, state forestry, or federal forestry on 
B.L.M. and U.S. Forest Service lands, you see an intense focus on 
comprehensive ecosystem management. Everywhere, that is, except the 
Bureau of Indian Affairs. Despite a special trust obligation for tribal 
resources, the B.I.A. has only one person responsible for integrated 
resource management plans. Otherwise, it has no program and no funds 
for this standard modern management tool. Yet, among all Federal 
agencies, I.R.M.P.s are most appropriate, and needed, for tribal trust 
lands. The Indian people live on and from their land. And our 
population is rapidly expanding, placing our lands under increasing 
pressure. As noted in the 1994 Indian Forest Management Assessment Team 
(I.F.M.A.T.) report, tribes are progressive, dedicated stewards of our 
land, but the severely limited planning resources available to us are 
precluding options and flexibility. Moreover, with increased national 
attention to landscape-wide comprehensive management, the absence of 
tribal I.R.M.P.s will cause management blank spots in the broader 
fabric of surrounding land. B.I.A. has estimated an annual need of $15 
million over ten years for I.R.M.P.s for all tribes. And on Indian 
forestlands alone, the I.F.M.A.T. report noted that $94 million is 
needed annually to bring B.I.A. other-than-direct timber production 
management activities up to parity with the U.S. Forest Service. Yet, 
B.I.A. has next to nothing. Accordingly, we request the establishment 
of a new I.R.M.P. line item in Non-Recurring Programs, Resources 
Management, and that it be funded at $3 million to begin to address 
these shortcomings.
 add $2 million to t.p.a. for forestry activities for acreage increases
    Since fiscal year 1992, Indian forestland under trust management 
has increased from 15.9 million acres to 17 million acres today, a 7.5 
percent increase. Total Forestry funding in T.P.A., including Self-
Governance transfers, has actually declined from $26.8 million in 
fiscal year 1992 to $26.7 million requested for fiscal year 2000, 
without factoring in any loss for inflation. To reflect the costs of 
these increased acres at the Agency level where the actual day-to-day 
management activities take place, the I.T.C. requests that the fiscal 
year 2000 budget for forest activities in Tribal Priority Allocations 
(estimated at $26,665,000 including Self-Governance) be increased by 
7.5 percent, or $1,999,875, with direction that the increase be 
distributed according to acreage increases. This request at least 
allows the current level of regular forestry funding to accommodate 
increased acres.
note that $750,000 will be needed in each of fys 2001 and 2002 for the 
           statutorily required indian forest land assessment
    Finally, Mr. Chairman, we wish to alert you that the B.I.A.'s 
fiscal years 2001 and 2002 budgets will each have to provide $750,000 
for the second independent assessment of Indian forest lands, which we 
roughly estimate will cost $1.5 million over the two years. The 
National Indian Forest Resources Management Act (Public Law 101-630) 
requires that the Interior Department provide for the assessment every 
ten years, starting with its November 28, 1990 enactment. After a one 
year lag for planning, the first assessment was commenced in fiscal 
year 1992 and the report was issued in November, 1993. Pursuant to the 
Act, the Secretary is to provide for the second assessment on the Act's 
tenth anniversary on November of 2000, which will be fiscal year 2001. 
While no action is necessary at this time, the assessment is 
exceptionally important in providing a comprehensive independent review 
of the status and management of Indian forestlands across time. It is, 
we believe, so important to the Indian trust beneficiaries that we want 
to bring it to your attention now, so that you will be aware of it.
    Mr. Chairman, that concludes my remarks. Thank you.
                                 ______
                                 
    Prepared Statement of Dee Ketchum, Chief, Tribal Council of the 
              Delaware Tribe of Indians, Bartlesville, OK
                              introduction
    The Delaware Tribe of Indians, a federally-recognized tribal 
government located in eastern Oklahoma, appreciates this opportunity to 
provide written testimony on fiscal year 2000 funding for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). The Delaware 
Tribe provides this testimony to make three basic points.
    First, we want to thank the Congress for fully funding the ``new 
tribes'' account in fiscal year 1999. This had a direct and positive 
impact on our Tribe which received a share of this funding as a result 
of the BIA's 1996 reaffirmation of our Tribe's federally-recognized 
status. We've accomplished many things with our first two years of 
funding; we ask that you fund the full amount requested for the fiscal 
year 2000 ``new tribes'' account for our third of three years of 
funding.
    Second, we wish to thank the Congress for adopting language in the 
fiscal year 1999 appropriations act which removed a potential for 
confusion created by an fiscal year 1992 appropriations proviso that 
could have been interpreted to undermine our Tribe's authority to fully 
and efficiently administer federally-funded programs. As to the related 
Committee report language, the Delaware Tribe wishes to inform you of 
the efforts we have made in the past year to comply with the 
Committee's directives regarding the need to cooperatively develop, 
with two other Indian Tribes and the BIA, arrangements by which Federal 
funds are administered so as to avoid duplication of funding and 
services.
    And finally, the Delaware Tribe wants this Committee to understand 
how unyielding and counterproductive is the fiscal year 1999 moratorium 
the Congress placed on new contracts under Public Law 93-638, as 
amended, especially for a Tribe like Delaware which is poised to 
rebuild and regain the tribal infrastructure it once had.
              background on the delaware tribe of indians
    The Delaware Tribe of Indians has had a long and rich history of 
relations with the United States. In 1778, the Delaware became the 
first tribe to be granted recognition by the United States. By 1866, 
most of the Delawares had moved from the northeastern U.S. to Kansas. 
In 1866 our ancestors signed a treaty providing for their removal to 
Oklahoma. Since 1866, the Delaware Tribe of Indians have continuously 
maintained an elected tribal government in Bartlesville, Oklahoma and 
engaged in direct, government-to-government relations with the United 
States. In the early 1970's, the Delaware became one of the first 
tribes to contract with the BIA and the Indian Health Service, assuming 
tribal administration of programs previously run by Federal 
bureaucrats.
    In 1977 the U.S. Supreme Court expressly affirmed that the Delaware 
Tribe of Indians of eastern Oklahoma has `` . . . maintained a distinct 
group identity, and they are today, a federally recognized tribe.'' 
Delaware Tribal Business Committee v. Weeks, 430 U.S. 73, 77 (1977). 
Nevertheless, in 1979, an acting BIA Deputy Commissioner issued a 
letter on behalf of the Cherokee Nation of Oklahoma purporting to end 
the Delaware Tribe of Indians' direct relationship with the United 
States. For the next 16 years, the BIA refused to resolve the confusion 
that its 1979 letter caused. That uncertainty ended in 1996 when, after 
careful legal review by its Office of the Solicitor, the Interior 
Department expressly reaffirmed the Delaware Tribe of Indians, 
Bartlesville, Oklahoma, as a federally-recognized Indian tribe. And the 
authority of the Delaware Tribe to administer some federally-funded 
programs was fully resolved by the Congress in the fiscal year 1999 
appropriations act.
                         ``new tribes'' funding
    We ask that you fully fund the Administration's request for ``new 
tribes'' funding in fiscal year 2000. While we are not a ``new'' tribe, 
our status has only recently been reaffirmed and we thus qualify for a 
third year of funding under this account. We have used our ``new 
tribes'' funding of approximately $160,000 per year to revise our 
existing tribal constitution, establish core governmental and 
programmatic control systems, and administer service programs for the 
benefit of our members. With these and other grants program funding, 
the Delaware Tribe has successfully established a Tribal Economic 
Development office, Tribal Grants and Contracts office, and the 
Delaware Child Care Development Project. The Tribe has been working 
closely with the city of Bartlesville and local industry to foster 
economic development activities that will boost our area's lagging 
economy.
 report of the delaware tribe's efforts to facilitate its provision of 
                            direct services
    We are particularly grateful for the Congressional confirmation of 
the Delaware Tribe's authority to deal directly with the BIA to provide 
services to our tribal members under the Indian Self-Determination Act, 
Public Law 93-638, as amended. The accompanying report language 
directed that the BIA work with our Tribe as well as with the United 
Band of Keetoowah Indians and the Cherokee Nation of Oklahoma to 
develop a plan to prevent an increase in the demand for additional 
funding, to avoid duplication of services, and to not lose cost 
efficiencies related to economies of scale as separate service delivery 
mechanisms are established among our three Tribes. In addition, the 
report asked the BIA to report by April 1, 1999 on a plan that will 
coordinate the identification of geographical areas in the areas 
occupied by our three Tribes which are eligible for trust land 
applications. We have not seen the BIA's report. However, we would 
like, first, to comment on the concerns of the Committee expressed 
above and, second, to provide the Committee with our own direct report 
on the activities we have taken as a Tribe in response to the 
Committee's directive.
    No Demand for Additional Funding if Delaware Provides Direct 
Services to its Members.--Because of several unique factors, we believe 
the process of establishing a separate service delivery system will 
not, in and of itself, create demand for additional funding. First, the 
Delaware Tribe proposes only to provide traditional federal Indian 
services to our own members. Currently, the Cherokee Nation has 
contracted with the BIA to provide certain federal services to all 
66,000 Indians, regardless of tribal affiliation, residing within a 14-
county service area in Northeastern Oklahoma. Twenty years ago the 
Delaware Tribe established a five-county service area for its members, 
which lies within the 14-county area. We propose only to continue to 
provide services for our 2,450 members who reside in our five-county 
area. Our members comprise, at most, only 3.7 percent of the population 
served by Cherokee with BIA funds. At the point that Delaware chooses 
to exercise its right to contract with BIA to provide certain services 
to its own membership within that five-county area, the BIA would need 
only shift to Delaware a maximum of 3.7 percent of the funding now 
provided to the Cherokee Nation, whose funding agreement would be 
reduced by a corresponding amount. There would be no double funding nor 
any demand for additional funding. Even contract support costs would be 
roughly the same because the Cherokee Nation's demand would necessarily 
be reduced as corresponding contract support funding is provided to 
Delaware.
    No Duplication of Services If Delaware Provides Direct Services to 
Its Members.--Our Tribal service area has remained the same since the 
early 1970's. Since that time, the Tribe has successfully administered 
its own Housing Authority with U.S. Department of Housing and Urban 
Development funds, its own job training program (JTPA) with U.S. 
Department of Labor funds and several other federally-funded programs 
within its service area without any measurable negative impact upon, or 
overlap with, the benefits provided to other Indians in the same area 
by the Cherokee Nation. There is no evidence of any duplication of 
services as a result of our operation of these programs alongside 
similar programs operated by the Cherokee Nation. At the same time, 
however, we acknowledge the problem presented by the fact that the 
Cherokee Nation does not prohibit dual-enrollment of an Indian 
otherwise eligible for membership in both the Cherokee Nation and 
another Tribe such as ours. We thus understand the concern raised by 
the Committee and are working with the BIA to develop an administrative 
mechanism to ensure that no duplication of services occurs.
    No Cost Inefficiencies If Delaware Provides Direct Services to Its 
Members.--The Delaware Tribe has always recognized that health care is 
best delivered in a consolidated fashion. Because of basic economies of 
scale, we have no intention of pursuing a separate contract for IHS 
hospital funding. Our Delaware health needs are already severely 
underfunded and we are committed to maximizing every possible benefit 
from the limited health funding provided to Indians in our service 
area. At the same time, and based on the same principles, the Delaware 
Tribe has a continuing concern with the way the Cherokee Nation has 
been administering many of these programs. We believe that the Cherokee 
Nation operation is actually too large, with its huge size encouraging 
inefficiency rather than efficiency and permitting open discrimination 
in the provision of services. In recent years, we have heard public and 
private stories about nothing but waste, misappropriation, and poor 
judgment being exercised by the Cherokee Nation program managers and 
its government. The Cherokee Nation headquarters is located some two 
and a half hours from the Delaware Tribe's headquarters in 
Bartlesville, which fact greatly limits many Delawares ability to 
obtain services from the Cherokee Nation programs.
    Report of BIA and Inter-Tribal Planning.--Our Tribe has attempted 
to diligently work with the two other Tribes and the BIA as requested 
by the Committee in order to develop a plan responsive to the concerns 
of the Committee. More than one year ago, the Delaware Tribal Council 
traveled to the Cherokee Nation to meet with Cherokee representatives. 
At that time, the Delaware Tribe submitted a proposal to the Cherokee 
to settle the issues of funding administration and territorial 
jurisdiction. Within that proposal, the Delaware requested that the 
Cherokee agree that the Delaware be able to provide services to 
Delaware tribal members not otherwise enrolled with the Cherokee Nation 
who reside within the traditional five-county area. Further, the 
Delaware requested that the Cherokee agree that the Delaware should be 
able to exercise territorial jurisdiction over lands owned by the 
Delaware Tribe and its members, not otherwise enrolled with the 
Cherokee Nation, in a limited three-county area of Washington, Nowata, 
and Rogers. Within the three county area, it would be presumed that the 
Delaware Tribe and its members would also be eligible to take land into 
trust. The Delaware proposal clarified that at no time would the 
Delaware be providing services to Cherokee tribal members or other non-
Delawares, and that the Delaware Tribe would never exercise 
jurisdiction over lands owned by the Cherokee Nation or any Cherokee 
tribal members or other non-Delaware Indians.
    In response, the Cherokee Tribal Council requested that the 
Delaware Tribe prepare a report on the federal programs that the 
Delaware intended to contract within the proposed service areas and the 
number of people to be served. The Cherokee also requested that the 
Delaware prepare a report of the lands owned by the Delaware Tribe and 
Delaware tribal members in the three-county area. We prepared and 
delivered these reports by July, 1998, with copies to the BIA Muskogee 
Area Office and to the Interior Department's Self-Governance Office. To 
date, the Cherokee Nation has failed to respond, comment upon, or even 
acknowledge receipt of these reports we prepared at their request. 
Further negotiations have not been possible given the internal strife 
that has overwhelmed the Cherokee Nation. We hope the Cherokee 
elections next month will lead to a new willingness and ability on the 
part of the Cherokee leadership to renew negotiations with the Delaware 
Tribe.
    Nevertheless, the Delaware Tribe has continued to respond to the 
Committee's directive by meeting with BIA Muskogee Area Office 
officials to develop proposals to provide services and identify a 
jurisdictional area for the Delaware Tribe. Most recently, the Delaware 
Tribe has adopted the Bureau's suggested process of affirmative 
19selection' by Delaware tribal members to receive services from the 
Delaware Tribe as opposed to the Cherokee Nation. The Delaware Tribe 
intends to utilize this 19selection' process in contracting a limited 
number of education programs for fiscal year 2000 until such time as 
the Tribe can implement a constitutional prohibition on dual 
enrollment. The Delaware Tribe is not aware of any objections that the 
Keetoowah might have with the Delaware proposals, consistent with the 
longstanding good-will that has existed between the Keetoowah Band and 
the Delaware Tribe. To our knowledge, the Keetoowah Band has never 
expressed any interest in providing federal services to Delaware 
members nor in exercising jurisdiction over Delaware members or our 
lands.
         temporary moratorium on self-determination contracting
    The Delaware Tribe has in recent years been making great progress, 
against equally great odds, to regain the operational status it 
possessed less than a generation ago. The primary purpose of the ``new 
tribes'' funds the Delaware Tribe has received is to develop procedures 
for the Tribe to be able to enter into contracts under the Indian Self 
Determination Act, Public Law 93-638, as amended. The temporary 
moratorium placed by Congress on new fiscal year 1999 contracts raises 
the specter of unintended, drastic consequences for a Tribe like 
Delaware which is poised to rebuild and regain the tribal 
infrastructure it once had. While the Delaware Tribe can certainly 
appreciate the concerns of the Committee that rising contract support 
costs pose a significant challenge, we believe a blanket moratorium 
generates more harm than good. We urge the Committee to not place a 
similar moratorium on new fiscal year 2000 contracts but instead focus 
its efforts on the development of a more precise and uniform way to 
project and manage contract support costs. The Delaware Tribe has 
worked hard to prepare ourselves to again directly serve our own 
people. A substantial investment has been made in our Tribe, by our 
members, by our leaders, by the BIA, and by the Congress. Extending the 
moratorium to fiscal year 2000 would waste these efforts. It would 
substantially set back the plans we have to dramatically improve 
services to our members within available appropriations. It would 
further legitimize and retrench the present service delivery system 
that is so cost inefficient and wasteful. The Delaware Tribe deserves 
better, and the opportunity to demonstrate its ability to do better for 
itself. Continuing the moratorium into fiscal year 2000 would force a 
halt to the progress achieved to date by the Tribe and frustrate its 
ability to pursue progress in future years. We urge the Committee to 
undertake a more narrowly targeted approach in its continuing efforts 
to manage contract support costs in fiscal year 2000.
                               conclusion
    The Delaware Tribe is proud of our government-to-government 
relationship with the United States. We will jealously guard this 
relationship, as it is absolutely vital to our continuing existence. 
The Delaware Tribe is striving to run our tribal government and deliver 
tribal services in the most efficient manner possible. We offer this 
testimony in that spirit. Thank you for this opportunity.
                                 ______
                                 
 Prepared Statement of Dr. Kenneth E. Quickel, Jr., President, Joslin 
                            Diabetes Center
    Mr. Chairman, thank you for this opportunity to present testimony 
for the hearing record. As President and CEO of Joslin Diabetes Center, 
I would like to present the Committee with some facts about Joslin, 
diabetes in the US, and the status of Joslin's progress toward 
compliance with the directive in the fiscal year 1999 Appropriations 
Act regarding ``cooperative efforts'' with the Indian Health Service.
    The purpose of this statement is to request $1 million for 
implementation of the cooperative effort between Joslin Diabetes Center 
and the Indian Health Service for fiscal year 2000.
                         joslin diabetes center
    Joslin Diabetes Center is located in Boston, Massachusetts, and is 
the oldest and largest diabetes clinic and research facility in the 
world. Details on Joslin's accomplishments are attached in the fact 
sheet ``Joslin Diabetes Center''.
                                diabetes
    Diabetes and the complications from diabetes are wrecking havoc on 
Americans, particularly the Native American population and other 
minorities, and now comprise one of the most expensive and damaging of 
the diseases that plague mankind. The far reaching aspects of this 
disease are discussed in the attachment ``Diabetes''.
                     fiscal year 1999 ihs directive
    The Statement of the Managers Accompanying the conference Agreement 
for fiscal year 1999 contained the following:

    ``2. Of the funds available to the IHS for diabetes programs, the 
Service should fund cooperative efforts with the Joslin Diabetes Clinic 
in Boston to non-invasively screen for undiagnosed diabetes and 
diabetic retinopathy in Indian communities. The Committees understand 
that such a program would be similar to programs the Joslin Clinic is 
conducting with the Department of Defense and the Veterans 
Administration and that the managers of existing diabetes programs 
within IHS have expressed an interest in working with Joslin.''

    To date, we have met with IHS officials several times. IHS 
representatives have traveled to Boston to tour our facility and meet 
with our physicians and research scientists. One of the visitors 
volunteered to undergo the non-invasive eye screening for diabetes, the 
heart of the Joslin Vision Network (JVN). Our report was that he had 
``young eyes''.
    All of the contacts we have had have resulted in positive outcomes 
and have advanced us toward the point of compliance with the fiscal 
year 1999 directive of a cooperative effort. The Committee staff has 
assisted both IHS and Joslin in working toward the selection of a 
location and deployment of equipment and personnel to the site in the 
near term. Funds for the project have not yet been obligated, but we 
understand that there are efforts underway to identify funding sources 
in the current fiscal year.
    We are confident that we will be able to commence a joint project 
during the current fiscal year. The exchange of information concerning 
Joslin's specific medical protocol and how the JVN could best be 
utilized within the Indian Health Service system has been a necessary 
first step. Decisions and related factors on the selection of the most 
appropriate site for the initial deployment are now underway. When we 
have developed the jointly approved plan, we will brief the Committee 
on our proposal to comply with the Committee's directive for fiscal 
year 1999 cooperative effort between the Joslin Diabetes Center and the 
Indian Health Service.
                               conclusion
    Mr. Chairman, continuation of this cooperative effort for a full 
year will cost $1 million for the expenses of both the Indian Health 
Service and the Joslin Diabetes Center. We respectfully request that 
you carefully consider the potential program benefits from this modest 
investment for fiscal year 2000 funding.
    Thank you again for this opportunity to submit this statement for 
the hearing record.
                                 ______
                                 
Prepared Statement of Hon. George E. Bennett, Chairman, Grand Traverse 
            Band of Ottawa and Chippewa Indians of Michigan
    The Grand Traverse Band of Ottawa and Chippewa Indians is 
presenting this testimony to help guide the Committee in its 
consideration of the fiscal year 2000 appropriation for the Bureau of 
Indian Affairs and the Indian Health Service. As a Self-Governance 
Tribe, our ability to continue to successfully administer federal 
programs is largely impacted by the budgetary process and our ability 
to inform Congress, in a government-to-government setting, of our 
views. While we cannot testify in person before this Committee, we send 
this written testimony to provide you with our views on the fiscal year 
2000 budget request for Tribal programs.
    We are a sovereign Indian Nation located in the Northwest corner of 
what is now the State of Michigan. Our people have resided in this 
place for many centuries and, as is our tradition, we send you 
greetings from our people. We provide this testimony with good thoughts 
and prayers that the Creator will bless the work of this Committee and 
that your actions will benefit the people of this country. We pray that 
you will hear the needs of Indian people and find answers to the needs 
as stated in this testimony.
          the administration's fiscal year 2000 budget request
    The United States of America has been built on lands that were 
secured by Treaties from the Native people of this land. Those 
Treaties, the United States Constitution, over 5000 laws, Presidential 
executive directives, and many Supreme Court decisions evidence a 
unique relationship between Indian Tribes and the United States 
Government. No other group of people in this country has this unique 
relationship. This relationship provides for a Trust Responsibility 
owed by the United States to Indian Tribes. Each year the 
Administration requests funding for programming that is geared towards 
meeting the trust responsibility the United States owes to Indian 
Tribes and to Individual Indians.
    The Administration's fiscal year 2000 Budget provides for an 
increase in both the Indian Health Service budget and the Bureau of 
Indian Affairs budget. With respect to the requested $170.1 million 
increase in the Indian Health Service budget $144.6 million is for 
items such as personnel and pay-related cost increases, staffing at new 
facilities, initiatives for women's health and alcohol and substance 
abuse prevention and treatment, contract support funding and the Indian 
Health Care Improvement Fund. The remaining $25.5 million increase is 
for Indian Health Facilities. The Tribe generally supports all of the 
increases the Administration has requested for fiscal year 2000 for 
both the Bureau of Indian Affairs and the Indian Health Service and 
asks that this Committee view them favorably.
          remaining unmet health care needs in indian country
    The increases the Administration seeks for the Indian Health 
Service, while positive, simply are not sufficient to meet the needs on 
Indian Reservations across this country. To look at why these increases 
are insufficient, we only need to look at the last 20 years of Indian 
funding.
    In 1983, annual funding to Indian Nations was cut from $3.5 billion 
to $2.0 billion in the federal budget. Tribes were devastated and have 
never recovered from that severe cut. In 1988, the Senate Select 
Committee on Indian Affairs directed that a study be conducted of the 
federal budget. This study was intended to show that Indian Tribes were 
receiving a fair share of the United States budget. Instead, to the 
Committee's surprise, the report showed that there was $3,000 for every 
non-Indian in this country in the federal budget and $2,300 for every 
Indian. (See: report of Congressional Reporting Service, Library of 
Congress, Senate Select Committee on Indian Affairs, Budget views and 
costs fiscal year 1989, March 1988.) Years later, this gap in funding 
still exists.
    This past month, we lost three of our members on our reservation. 
One was 41 years old, one was 47 years old and one was 55 years old. 
These are ages of death for third world countries, not the United 
States of America. All three of these people were taken much too early. 
It is time that this country provides health services to Native 
Americans at the same level as non-Indians. Federal statistics paint a 
thorough picture on the need for equitable funding. The most dramatic 
case involves the neglected health of Indian people. The infant 
mortality rate for Indian people is 15 per 1,000 lives--nearly double 
the average of the rest of the U.S. population. The alcoholism death 
rate for Indian people is 38.4 per 100,000 population--six times the 
rate for other races in this country. The diabetic mortality rate for 
Indian people is 31.7 per 100,000 compared to 11.9 for all other races.
    It is no coincidence that these trends have taken place as fewer 
medical professionals are available in comparison to a decade ago as 
the budget for Indian Health continues to be reduced in real dollars. 
In 1982, for example, there were 99.7 doctors for every 100,000 
Indians. By 1994, the rate of doctors dropped to 89.7. Similar 
reductions were seen in the number of nurses in Indian country. 
Meanwhile, during the same period, per capita annual expenditures 
through Indian Health Service was $1,153, which was nearly two-thirds 
lower than the rate of $3,111 for all other races in this country.
    This funding gap contributes to an already existing backlog of 
unmet health care needs for Indians. For example, the funding our Tribe 
receives from the Indian Health Service is only enough to meet 20 
percent of our health care needs. We attempt to cover the 80 percent 
shortfall by using Tribal revenues which would otherwise go to other 
pressing governmental needs, such as Housing, Water System, Sewage 
Treatment Plant, and Law Enforcement . Unfortunately, we simply cannot 
meet all of the health care needs of our membership.
    The fiscal year 2000 Budget request provides an increase of 
$170,100,000, which will allow the Indian Health Services budget to 
keep up with the services offered in the fiscal year 1999 Budget. This 
is not enough to make any gains into this under-funded program that is 
so important to the health of Indian people. The National Indian Health 
Board, after several years of work, developed a real dollar-assessment 
of the need for health services in Indian Country. The National Indian 
Health Board determined that an 8 billion-dollar budget is needed to 
meet the health needs of Indian people.
    The budget proposed for fiscal year 2000 is $2,412,387,000 which is 
far short of the need. While we realize the current budgetary climate 
makes it difficult to fund the actual need, we believe that a bold 
attempt to come closer to the needs budget can be accomplished by 
Congress. With only 25 per cent of the need for health service met 
through the budget, it makes Indian people the least funded for health 
services in this country.
    At a meeting of the National Congress of American Indians this 
winter we asked the Secretary of Health and Human Services about this 
issue. She told us that only Congress can dictate a change in this 
budget and she feels that Congress will not increase the Indian Health 
Service budget to meet these needs. We believe that answer is 
unacceptable to our children, to our elders, and to our membership who 
suffer from the lack of health services due to the shortage of funds in 
the Indian Health Service budget.
                                closing
    We respectfully ask that this Committee recommend a one billion-
dollar increase to the Indian Health Service budget for fiscal year 
2000. Additional funding is needed to provide for the unmet needs in 
Dental Health for both our children and our adults. Dentists who work 
on our children have told us that the long neglected dental care has 
created other health problems for our adults and they can see this 
continuing with our children. A full time dentist at the Tribe would 
allow for the wrap around health care needed by our membership. Funding 
is also needed for specific health programs such as diabetes and 
alcoholism, which create additional health problems when untreated. 
Prescription drug costs have continued to rise much faster than 
budgets. Physician and Hospital services are dramatically under-funded 
and being forced to managed care, with limited funding, means that the 
Tribe is often in the position of limiting health service dollars to 
emergency needs only. Additional funding is needed in each of these 
categories and the one billion-dollar increase would assist Tribes with 
these needs. While this increase would only meet a little over fifty 
per cent of the need for health services in Indian Country, it would 
provide sufficient funds to allow for progress to be made in the health 
care of Indian people. We leave you with good thoughts, and prayers for 
the work that you do for Indian people and all the people of this land. 
Thank you for providing us this opportunity to address these needs.
                                 ______
                                 
   Prepared Statement of Hon. Stephanie Rainwater-Sande, President, 
                      Ketchikan Indian Corporation
    Thank you for this opportunity to provide testimony on the fiscal 
year 2000 budget request for both the Bureau of Indian Affairs (BIA) 
and for the Indian Health Service (IHS). Ketchikan Indian Corporation 
(KIC) is a federally-recognized tribal government created under the 
Indian Reorganization Act (I.R.A.). The KIC constitution was approved 
by the Secretary of the Interior in 1940. We currently have 4,162 
members, and our enrollment has been growing each month.
    In 1976, we were one of the first Indian Tribes to assume, under 
the newly enacted Public Law 93-638, the Tribal operation of programs 
run by the BIA. In 1993, KIC was one of several tribes in Alaska that 
first participated in the BIA Tribal Self Governance demonstration 
program. Since then, we have managed our BIA-funded programs with 
increased flexibility and an equal measure of increased accountability.
    In 1997, we achieved our goal of securing a Self Governance Compact 
with the IHS. We are now constructing a 35,000 square foot, five story 
health clinic totally financed through the operations of Ketchikan 
Indian Corporation. KIC has been able to maximize the beneficial impact 
of this federal funding at the local and community level through self-
governance.
    Through self-governance, we have shifted the focus of our welfare-
assistance programs more towards Tribal employment and training. It was 
determined that wholesale distribution of General Assistance grants to 
Tribal members was a poor solution to a continuing problem. This was 
resolved by the KIC Tribal Council in 1993; years before the same idea 
was initiated by the Federal Government. There was and still is a need 
to develop academic and employment skills with the ultimate goal of 
permanent, full-time employment.
    In 1997, KIC established a Housing Authority by acting as a HUD 
Indian Housing Block Grant recipient. This Native American Housing 
Assistance and Self Determination Act (NAHASDA) grant totals nearly one 
million dollars annually.
    Tribal self-governance has strengthened our administrative and 
management control systems, allowing the Tribe to invest back into our 
programs. This increased tribal economic activity is also a direct 
benefit to all of the area communities that have been hit hard by the 
closing of so many of the timber industry facilities and the down-turn 
in regional commercial fishing.
    KIC's various enterprises continue to grow and provide employment 
opportunities for Tribal members and revenue for Tribal governmental 
programs. Even though we continue down the evolutionary road of self-
determination, we must all recognize the tremendous magnitude of unmet 
need that still exists. These hardships must be bridged with federal 
funding while still working toward increased self-sufficiency.
             fy-2000 indian health service compact funding
    KIC agrees with the Alaska Native Health Board that there is a need 
for additional patient travel funding in Alaska. Our position is that 
another ten million dollars for this use should be designated for the 
Alaska State Compacts. The burden of travel expense is much higher in 
the expansive and rugged geographical terrain of Alaska. Ketchikan is 
located in the rural Southeast portion of the State where the only 
access to IHS hospital facilities and specialty services is by air 
travel. This has become a tremendous burden on our IHS Compact dollars. 
In 1998, there was an expenditure of $110,610 for 197 patients. So far 
in 1999, the total is $64,000 for 146 patients. This expense takes away 
other services or programs that could be offered by the Tribe from 
Compact dollars. This travel expense could filter down to the patient 
if these dollars were expended early; in fact, causing patients to 
delay a needed medical trip for lack of money could have tragic 
consequences.
    We urge you to keep these concerns in mind during budget 
deliberations. We appeal that Congress will continue working toward 
bridging the health care discrepancy between the general population and 
that of Native peoples.
    We ask this Subcommittee to support the legislative efforts in 
Congress to fund all contract support at 100 percent, and that this is 
fulfilled in a timely manner. Eliminating the statutory cap on the 
amount of IHS contract support funding is crucial for this complete 
funding.
    We ask that you do not extend Section 328 the moratorium on new or 
expanded Self Governance Compacts and Contracts within the Interior 
Department and IHS.
    We request that you eliminate the three-year moratorium on new IHS 
contracts with Alaska Natives Villages or Village Corporations within 
the area served by an Alaska Native Regional Health Entity. KIC rejects 
the concept of using any type of moratorium as a tool to manage-self 
determination or self-governance compacting.
    We ask that you not extend Section 314 of the FY-1999 Omnibus 
Appropriations Act, which attempts to limit liability of the IHS and 
BIA for past failures to fulfill their contract support obligations to 
tribal contractors.
    We also ask that you support legislation making self governance 
permanent for IHS under a new Title V of the Indian Self Determination 
and Education Assistance Act. This Act has been a cornerstone of 
federal policy for Indian tribes to exercise their rights to assume 
local control over federal Indian programs. This Act has permitted 
tribes to exercise greater cost efficiencies and maximizes the benefit 
of each appropriated dollar.
    The self-determination and self-sufficiency fostered by Public Law 
93-638 is the key to our survival as an Indian tribe. Inflationary and 
mandatory pay costs have had a devastating effect on our program 
budgets; these include commissioned officer salaries as well as direct 
hires.
    Population growth is a large part of the equation. The methodology 
used to determine our Compact budget is based on the 1990 census, which 
gave our number to be 1,566. Our current membership is now 4,162. At 
the present time we have over 6,000 active patient medical charts. We 
have seen a patient load increase of sixty five percent from fiscal 
year 1998 to fiscal year 1999 year to date. Although we have been able 
to remain stable and absorb these increases through good management and 
scheduling, our Health Clinic personnel are beginning to reach their 
limits. The methodology of funding these costs has proven to be 
completely inadequate; it has created shortfalls that have been 
absorbed by the Tribe or by other IHS programs. Of the 127 million 
dollar shortfall identified by the IHS for FY-99, only 60 million 
dollars were appropriated. Congress must identify a more logical 
response and methodology of keeping up with this inflationary 
shortfall.
    An increase in funds is needed beginning in fiscal year 2000 to 
alleviate this detrimental erosion of the Indian health care system. We 
cannot maintain the same level of services next year with the same 
amount of service dollars we received in fiscal year 1999.
                      bia contract support funds.
    We share the concerns of other tribes that the inability of the 
Bureau to fund 100 percent of identified contract support costs serves 
as a disincentive to increased contracting or compacting of federal 
programs. In the last five years, approximately 80 percent of the 
tribal indirect costs have been funded. This shortfall greatly reduces 
the ability of the Tribe to administer its Compact, management and 
administrative costs. Inadequate funding clearly weakens and negatively 
impacts the delivery of all program services.
    The Tribe fully supports the Tenth Circuit Court Ramah decision 
that it is wrong for the BIA to dilute its indirect cost burden by 
including in the indirect cost base federal programs that do not 
contribute fully to the indirect cost pool. KIC urges that the system 
of BIA shortfall management be modified to reflect some of the 
strengths of the IHS system, including that aspect which protects 
tribes from reductions over the prior year's base, and thus promotes 
stability within the tribe. Congress and all agencies should continue 
the past effort to fully fund contract support costs through the ISD 
Fund. The BIA should recognize direct contract support costs associated 
with particular programs under tribal operation. Section 106(k) rules 
of the Indian Self-Determination Act should be clarified by Congress to 
reflect that all the indirect cost pool is included in the application 
of this rule. Currently OIG is questioning the appropriateness of 
applying this rule to indirect cost expenditures. This is because 
currently this section only applies to funds paid under the ISDA. The 
indirect cost pool is compromised of other funds as well.
    A Tribal Priority Allocations (TPA) Workgroup has been formed in 
response to section 129 of the fiscal year 1999 appropriations. This 
section directed BIA to present a report to the appropriations 
committee, by April 1, 1999. The report would include distribution of 
funds and recommendations on how TPA funds should be allocated in the 
future. There have been many options and dialogue concerning tribal 
revenues, relative needs, regional consortia, and whether or not TPA 
funds should be transferred from prosperous tribes to more needy 
tribes. This has been just some of the dialogue so far.
    It is the position of Ketchikan Indian Corporation that the 
allocation method remain the same. Spread the general increases 
proportionately to all tribes. Let the contractors or compactors 
administer their TPA as they chose; do not use a need-based formula. 
Prosperous tribes can be encouraged to return their TPA and incentives 
can be given to do so.
                               conclusion
    The BIA and IHS funding for tribal programs falls far short of 
tribal needs. The growth of funding for Indian programs has not kept 
pace with the overall growth in federal spending, or even with 
increased costs faced by tribes and agencies due to inflation. We, as 
do other tribes, use our own resources to supplement our TPA funding to 
address the shortfall. KIC believes self-governance has worked in a 
positive, proactive, synergetic direction.
    Our tribal members are excited about this new chapter in our 
tribe's history, the growth of tribal enterprises that provide 
employment opportunities for tribal members and revenue for tribal 
governmental programs.
    We thank you for this privilege to provide written testimony. 
Please do not hesitate to let me or my staff know if we can provide any 
further information of value to the Subcommittee in its deliberations.
                                 ______
                                 
 Prepared Statement of Hon. Boris R. Merculief, President, St. George 
           Island Traditional Council, St. George Island, AK
    Mr. Chairman, Members of the Committee, on behalf of my people I 
thank you for this opportunity to provide this testimony today on 
Indian Health Service and Bureau of Indian Affairs issues.
    My name is Boris Merculief and I am the elected President of the 
St. George Traditional Council. The St. George Traditional Council is 
the only federally-recognized tribal government entity on St. George 
Island and, pursuant to democratic elections, represents all of St. 
George's resident Aleuts.
    We are a small Aleut community located on a remote Pribilof island 
that has been our homeland for generations. We have about 150 year-
round residents on our 44 square mile Island. Our homeland is located 
approximately 800 miles south and west of Anchorage in the middle of 
the Bering Sea.
    Through the years, severe weather and a sparse natural environment 
have made our life on St. George island quite harsh. But in recent 
decades the realities endured by the Aleut families on St. George have 
been made even harsher by the actions of the United States government. 
I speak of the sudden and complete shutdown in 1973, by Federal law, of 
our harvesting of fur seals on St. George, a trade that for more than a 
century had been the main livelihood and cultural centerpiece of our 
Aleut community of St. George. Suddenly, in the name of wildlife 
protection, fur seals became untouchable and our Aleut community 
unwelcome on our Island. We Aleuts were declared expendable. The 
implicitly stated policy of the United States was to remove us from our 
homeland, our Island. We have refused to leave.
    For decades before, my forebears and other St. George Aleuts had 
survived on a modest and sustainable local economy based on sealing. We 
jealously protected our fur seal population. We depended on a well-
managed, healthy and populous fur seal population for our own 
livelihood. We cared for the fur seals. We were committed to the best 
of management and conservation. But somehow this was not enough, and 
outsiders who never understood our Aleut way of life, our culture, our 
values, and our history determined from afar that a complete ban an all 
harvesting of fur seals was necessary for the survival of the seal 
population. That verdict doomed the human families who have for decades 
shared St. George with the fur seals and other wildlife. We now have no 
local economy to speak of. We are increasingly a welfare economy 
dependent on cash assistance from outside our Island.
    We believe there was no sound, rational basis for placing a 
complete ban on our fur seal trade over two decades ago. With proper 
management, the herd was not at risk. Regardless, today the only danger 
confronting the seals is produced by the ban. Meanwhile, the male fur 
seal population has swelled so much that they are killing each other in 
territorial and hormonal spats rivaled only perhaps by the Serbs and 
the Kosovars. We Aleuts, who have been pauperized by an uninformed and 
callous Federal policy from afar, are now consigned to sit in 
dependency and watch our once valuable and healthy resource go to waste 
all around us while we teeter on the edge of survival.
    I recite this background for two purposes. One, this is history 
that has been made in my and your lifetimes. These wrongs must be 
redressed in our lifetimes. Second, it places our appropriations 
request in its real and practical context.
    I lead the Traditional Council which is the Indian Tribe on our 
Island. When the 1966 and 1983 Acts which affect our Island were 
passed, the Traditional Council was the original and only governmental 
entity on St. George Island. Since then, the City of St. George has 
been organized to represent both Aleuts and non-Natives who have 
recently moved to the Island and Tanaq, the Village Corporation, was 
organized under the Alaska Native Claims Settlement Act to represent 
St. George Aleut shareholders born before 1971 regardless of where they 
live.
    Over the past several years, the Traditional Council has engaged in 
a discussion with other Pribilof Island entities and with our Alaska 
congressional delegation on how best to gain a fair resolution of our 
claims against the United States for the harm it has caused our people 
and our Island by taking away our entire means of livelihood. To this 
day, Federal agencies micro-manage much of our Island for purposes 
having nothing to do with our people who have inhabited the Island for 
more than a century.
    Some of our claims could be resolved through the annual 
appropriations process, and we ask that you give special consideration 
to them for the following reasons.
request no. 1: transfer ownership of the ``cottage c'' facility for use 
                       with our ihs health clinic
    The St. George Traditional Council manages a tribally-operated 
health Clinic funded by the Indian Health Service (IHS). Ours is the 
only health facility and provider on St. George Island. Due to our 
remote Island location, and often extreme weather conditions that 
regularly preclude travel off of our Island, all residents and visitors 
depend on our Clinic for vital health services. Our health clinic 
serves everyone, regardless of whether they are Aleuts or other Alaska 
Natives.
    Our health clinic facility is dangerously dilapidated and IHS's 
many promises of a replacement clinic have not been kept. At present we 
have two health professionals stationed permanently on our Island. 
Periodically, IHS physicians and other medical professionals travel to 
our Island to provide specialty services at our clinic. These 
professionals must be housed while they are on our Island. The travel 
costs plus the high per diem charges we must pay for overnight 
accommodations at the only hotel on our Island have sharply limited the 
medical services we can obtain. The lone, 10-room hotel on St. George 
charges $130 per night, sorely taxing our scarce operating budget.
    Meanwhile, across the street from our clinic is a mostly unused and 
empty National Oceanic and Aeronautic Administration (NOAA) facility. 
Known as ``Cottage C'', this facility is not a cottage but a 4,800 
square foot building that has three floors containing seven bedrooms 
and three baths. In previous years it served as the Island's hospital. 
It is now only used by National Marine and Fisheries Services (NMFS) 
about 10 percent of the year, typically by supervisory personnel when 
they visit our island. In light of this minimal use, the cost to NOAA 
in maintaining this facility cannot be justified.
    When the Federal government pulled out of St. George Island in 
1983, various Federal agencies transferred to the City of St. George 
and Tanaq facilities and staff quarters. However, as the entity 
responsible for all medical care on St. George Island, the St. George 
Traditional Council has no quarters to house the visiting medical 
personnel.
    IHS has notified us that we are slated to receive new primary care 
recurring funds as part of the Alaska Native Medical Center (ANMC) 
Rural Anchorage Service Unit. These funds will be used to increase 
family physician, dental, optometry and audiology visits to our Island 
in an effort to reduce our backlog of basic health needs. However, a 
substantial amount of these funds will have to be diverted to lodging 
costs unless we are transferred the ownership of ``Cottage C''. We want 
to maximize the funds available for those medical visits. Not only 
would a transfer of Cottage C to the St. George Traditional Council 
reduce the amount of funding NOAA currently expends for its 
maintenance, but it would increase the amount of IHS funding which can 
be used towards these basic specialty health services.
    In addition to serving as temporary staff housing, ``Cottage C'' 
could also serve as temporary or overflow space for our existing clinic 
in-patient load. Our present clinic only has two beds. A couple years 
ago, when there were 8 to 10 fishermen injured in an accident, we were 
forced to lay them in the hallways. Fortunately, our local people 
contributed bedding and other bedside care until we could get a medical 
evacuation plane into our landing strip. Daily air service is no longer 
provided to our Island and inclement weather routinely makes landing or 
takeoff of charter medical evacuation aircraft impossible.
    We ask this Subcommittee to set in motion the immediate transfer of 
``Cottage C'' to the St. George Traditional Council for its use for 
public health purposes. On at least three separate occasions, we have 
requested of NOAA and NMFS that they transfer this property to us, but 
have been refused. We need the help of the Subcommittee to get this 
facility transferred to us immediately.
   request no. 2--special add-on or earmark to repair our ihs clinic.
    Our existing IHS Clinic is facing major structural deficiencies 
that require immediate attention. Much of the plumbing system has been 
destroyed, the central heating system is inoperable, and the clinic 
rests on a bad foundation that is causing structural damage. We are 
faced with an emergency need for funds to rebuild our clinic. We may 
well have to abandon our clinic in the very near future.
    Our clinic building was transferred to the Traditional Council in 
1986 along with a grant of $90,000 from NOAA to fix it up. NOAA 
proposed the transfer of the clinic on a take it or leave it basis. The 
Council received an additional $150,000 from a special Federal fund and 
contributed another $200,000 of its own funds to help bring the clinic 
into useable condition. Since then, severe weather conditions and a 
poor design have caused the clinic's foundation to settle. The settling 
has crushed the sewage piping under the building's foundation, 
preventing some toilets from draining or flushing. The hot water pipes 
feeding the central heating system for the clinic have now rusted away, 
leaving us with no central heat for the past two years. Instead, we now 
must use space heaters. There is growing concern that leaking sewage is 
tainting our limited supply of fresh water. None of the electrical 
wiring throughout the clinic is grounded. Wiring itself is far from 
adequate for modern-day health equipment, and there is significant 
asbestos contamination. These conditions would not be tolerated 
anywhere else in America! Yet the IHS continues to defer, delay and 
ignore our clinic repair or replacement requests.
    An inspection completed on September 20, 1996, by an Environmental 
Health Specialist from the Public Health Service (PHS) listed 
recommendations (Attachment A) of which the most significant was the 
need to build a replacement clinic. The cost estimate for this 
construction was $980,000, based on an engineering report at that time. 
However, on March 19, 1999, we had an engineering firm evaluate our 
clinic and update the estimate (Attachment B). The 1999 report of the 
independent engineering firm concerns us greatly. We may be without any 
clinic facility in the very near future.
    According to Section 204 of the Fur Seal Amendments Act of 1983 16 
U.S.C. 1151, the Secretary of Health and Human Services is obligated to 
provide medical and dental care. The Secretary has delegated that 
responsibility to the Indian Health Service but has not allocated the 
necessary funds to IHS to even minimally carry out the Secretary's 
special statutory obligation. Indeed, the statute requires the 
Secretary to maintain existing and construct new health facilities on 
St. George Island.
    Accordingly, we ask this Subcommittee to add-on or earmark 
sufficient funds to repair or replace our health clinic facility on an 
emergency basis given the serious deterioration and public health 
hazard that our clinic has become.
              request no. 3--repair of residential housing
    Housing is critically scarce on our Island, as a result of the 
growing demand and the Federal agencies' destruction of inhabitable 
dwellings of residents who chose to leave the Island in the 1970s.
    We recently conducted a community housing survey. Since 1978, only 
nine (9) BIA-funded and eight (8) HUD-funded houses have been built. No 
new residential housing has been constructed on St. George Island since 
1985, except for two houses built by the school district. The last time 
that any housing was repaired with Federal assistance was in 1976. 
Residential housing in our community has not received proper 
maintenance work for twenty years (Attachment C). Asbestos and lead-
based paint are widespread. Most of us inherited these homes from the 
days when our families were Federal employees who were compensated in 
part by Federal housing. When the United States ended our status as 
Federal employees, closed down our fur seal harvest, and pulled out of 
our Island, we were left with deteriorated houses that suffered from 
years of Federal neglect and lack of maintenance.
    One Federal official, in defending the Federal withdrawal in 1976, 
wrote that home maintenance functions ``would be better handled by some 
individuals or the Corporations who may wish to set up home 
construction and building--supply businesses such as are available in 
most other communities'' (Attachment C). Most other communities have an 
economy. We do not. Without a functioning economy, our people have no 
money to repair their dilapidated homes.
    When these Federal homes were transferred to our residents, the 
United States deeded over seriously flawed facilities under conditions 
that accelerated their wear and tear. The effects of salt water 
infiltration provide a good example of the nature of our home 
maintenance problems. Throughout the 1980s, salt water infiltrated our 
fresh water supply. Finally, in about 1990 we got a new fresh water 
system that kept the salt water at bay. However, during the preceding 
ten years, the salt water had seriously damaged our residential 
plumbing pipes and our residential furnaces. We have fresh water again. 
But we are left with an inoperable infrastructure. Once again, it seems 
the Federal agencies dumped problems on the local people and ran. This 
problem has now become acute for our families.
    We feel the uncertainty of our economic future may not be able to 
provide adequate compensation to the residents to fix the problems 
inherited when the property was transferred from the Federal 
government. If the deferred maintenance is taken care of, this will 
remove one more stumbling block in our path to the development of a 
self-sustaining economy on our Island. Consequently, we have prepared a 
detailed list of houses with estimated repair costs (Attachment D) and 
propose these housing funds be administered by the Council. This 
approach would allow the Council to address life endangering situations 
as well as maintain management and control necessary to get the jobs 
done.
    Accordingly, we request that this Subcommittee add-on or earmark 
sufficient funds to the Bureau of Indian Affairs to be transferred to 
the Traditional Council through our tribal Self-Governance agreement, 
under the auspices of the Aleutian Pribilof Islands Association in 
accordance with Title IV, Public Law 93-638, as amended, for the 
purpose of meeting these emergency housing repair needs.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                              introduction
    On behalf of the 32 Tribal Colleges which comprise the American 
Indian Higher Education Consortium (AIHEC), we thank the Subcommittee 
for allowing us this opportunity to present our appropriations request 
and justifications for the 26 tribally-controlled colleges funded under 
Public Law 95-471, ``The Tribally-Controlled College or University 
Assistance Act.'' This program, also known as the ``Tribal College 
Act,'' is administered by the United States Department of Interior, 
Bureau of Indian Affairs, Office of Indian Education Programs. Although 
AIHEC is seeking full funding for the Act's authorized programs, we 
realize that this request must be obtained over time. We ask that the 
Subcommittee fully support and build upon the President's Budget 
Request of a $7.1 million increase for Titles I and II in fiscal year 
2000 (FY00). Specifically, we request an increase of $10 million over 
fiscal year 1999 funding for Titles I and II, which provide core 
operational funding for 26 colleges. Additionally, we seek Title III 
funding at $2 million for endowments; Title IV funding at $2 million 
for economic development; $1.8 million under the facilities renovation 
authority of the law; and $214,000 for technical assistance. The total 
amount requested under this Act is $46,234,000.
    AIHEC was founded in 1972 by six of the first tribally-controlled 
community colleges. Today, AIHEC is a cooperatively sponsored effort on 
the part of 32 member institutions throughout the United States and 
Canada, all of which are fully accredited (with the exception of three 
institutions that are accreditation candidates). The Tribal Colleges 
were chartered by their constituent tribes over the last 30 years to 
bring greater access to higher education opportunities to American 
Indians living on remote and economically disadvantaged reservations. 
Since their creation, the Tribal Colleges have been addressing the 
problems and challenges of our welfare system. Throughout their 
history, Tribal Colleges have provided GED and other college 
preparatory courses.
    Our mission requires us to help move American Indian people toward 
self-sufficiency and help make American Indians productive, tax-paying 
members of American society. Fulfilling that obligation will become 
increasingly difficult as more and more welfare recipients turn to the 
Tribal Colleges for training and employment opportunities. Tribal 
Colleges serve over 25,000 students each year, offering primarily two-
year degrees, with a few colleges now offering four-year and graduate 
degrees. Together, they represent the most significant and successful 
developments in American Indian education history, promoting 
achievement among students who would otherwise never know educational 
success.
    Please note that AIHEC's membership also includes institutions of 
higher education funded under separate authorities, and AIHEC fully 
supports their independently submitted Interior Appropriations 
requests. These include Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute; the Institute of American 
Indian Arts; and United Tribes Technical College.
                   background and funding disparities
    The Tribally-Controlled College or University Assistance Act of 
1978 provides funding for the operating budgets of one qualifying 
institution per tribe based on an American Indian enrollment formula. 
The Act does not provide funding for non-Indian students, although 
Tribal Colleges serve an increasing number of non-Indian students, 
approximately 18 percent of Tribal College students are non-Indians 
from the surrounding rural communities, with little or no funding for 
these students coming from the state or Federal government. Federal 
appropriations have never reached the levels authorized under Title I. 
Funding for the colleges was first authorized at $4,000 per full-time 
equivalent Indian student, or Indian Student Count (ISC). In 1998, this 
level was raised to $6,000 per ISC, to more closely reflect the true 
cost of higher education at a community college. Due to a combination 
of inadequate appropriations and dramatic enrollment growth at the 
colleges, funding for the Tribal Colleges has never reached either of 
these levels. In fact, even with the fiscal year 1999 increase of $1.4 
million, the colleges suffered a decrease of $53 per Indian student and 
are still funded at less than half of the level authorized, or $2,964 
per full-time Indian student.
    Compounding the existing funding disparities is the fact that 
Tribal College enrollments have increased dramatically--the 26 Tribal 
Colleges funded under this Act now serve 22,000 students every year. 
Additionally, funding for Tribal Colleges, insufficient from the 
outset, has not even kept pace with inflation--in fiscal year 1999, the 
Title I Tribal Colleges received only $133 more per Indian student than 
they received in 1981. This represents an increase of only four-percent 
over an 18-year period. When inflation is factored in, the payment's 
value actually decreased by $1,261 (from $2,831 to $1,570) since 1981.
    Tribal Colleges, in many ways, are victims of their own successes--
the dramatic enrollment increases recorded by the colleges, coupled 
with a growing number of Tribally-Controlled Colleges, have forced 
Title I colleges to slice an inadequate pie into incredibly small 
pieces. The Carnegie Foundation for the Advancement of Teaching, in two 
separate studies praised the Tribal Colleges, for providing access to 
students, strengthening communities and rebuilding cultures. The first 
recommendation of the most recent report, requested full funding for 
the Tribally-Controlled College or University Assistance Act. Pointing 
to the significant enrollment gains posted by the colleges--Title I 
Tribal Colleges reported a 270 percent increase from 1981 to 1998--the 
report called on the Administration and Congress to fund the colleges 
at fully authorized levels.
    Our request for an $8.3 million increase for Title I would amount 
to only $3,827 per full-time Indian student, which is still 
significantly less than the average amount under which mainstream 
community colleges operate. It is also significantly less than the 
authorized amount of $6,000 and just a modest increase over the current 
Indian student allocation of $2,964.
    Tribal Colleges have survived on a patchwork of smaller, 
competitive, short-term grants that supplement the insufficient Titles 
I and II operational funding. This is not a stable way of funding 
Tribal Colleges, but these institutions have little choice. Several 
colleges have faced serious struggles because of this funding 
instability, and accrediting agencies are warning the colleges about 
the hazards of relying too heavily on ``soft money.'' Unlike most state 
institutions, the Tribal Colleges are young, as most were founded 
within the past 25 years. They have not built the funding reserves that 
are common at older institutions. The lack of reserves actually forced 
two of the colleges to cease operations during the government furloughs 
and the budgetary impasse of 1996. Therefore, it is more important than 
ever that the Tribal College Act achieve what it was designed to do: 
provide for the operational support of Tribal Colleges.
    While mainstream institutions are able to fall back on a foundation 
of stable state support, Tribal Colleges are located on Federal trust 
territory, and the states have no obligation to fund them. They receive 
little or no funding from the states in which they are located. It is 
important to note that Tribal Colleges are reliant on the Federal 
government for their operational funding. Tribal Colleges are also 
inequitably served by state block grants, and are frequently neglected 
in block grant distributions, as the recently passed welfare reform 
block grants demonstrate.
    Tribal Colleges cannot rely on local tax base revenue. Although 
Tribes possess the sovereign authority to tax, high reservation poverty 
rates, the trust status of reservation lands, and the lack of a strong 
reservation economy diminish the creation of a reservation tax base.
    Indian gaming is not a viable funding source for Tribal Colleges. 
The vast majority of the reservations served by Tribal Colleges are 
located in extremely remote and economically disadvantaged areas. 
Therefore, gaming has not been a significant or stable source of income 
for the majority of the colleges. In addition, gaming tribes should be 
held to the same standard as states, which are not required to share 
their gaming revenue with other states, nor are they penalized for the 
success of their lotteries or gambling.
    Tribal Colleges are a direct result of the special relationship 
between American Indian tribes and the Federal government. Tribal 
Colleges are founded and chartered by their respective American Indian 
nations, which hold a special legal relationship with the Federal 
government, actualized by numerous treaties, Supreme Court decisions, 
and prior Congressional action. Tribal Colleges serve communities in 
the most rural areas of our nation. For Tribal College students, both 
Indian and non-Indian, higher education would otherwise be 
inaccessible. Tribal Colleges do not discriminate based on race or 
ethnicity. They are simply and effectively removing barriers that have 
long prevented equal access to higher education for reservation 
communities.
         further justification and high priority areas of need
    AIHEC recognizes the Congressional goal of achieving a balanced 
budget, and we applaud this effort. Within that framework, AIHEC would 
like to highlight the following justifications and target highest 
priority areas of need for increased funding for Tribal Colleges.
Justifications
    1. Tribal Colleges provide access to critical postsecondary 
education opportunities that would otherwise be out of reach. Most 
American Indian reservations are located in extremely remote areas, and 
their populations are among the poorest in the nation. For many 
American Indian communities, the nearest mainstream institution is 
several hours away, making attendance virtually impossible. The cost of 
attending a mainstream institution is usually prohibitively high, 
especially when tuition, travel, housing, textbooks, and all other 
expenses are considered. Unemployment on the reservations served by 
Tribal Colleges can reach 86 percent, and over 90 percent of Tribal 
College students qualify for need-based federal financial aid.
    2. Tribal Colleges are producing a new generation of highly trained 
American Indian contributors: Teachers, tribal government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals. Most of these new professionals are the first in their 
families to attend college. By teaching the job skills most in demand 
on their reservations, Tribal Colleges are laying a solid foundation 
for tribal economic growth, with benefits for nearby off-reservation 
communities. Most Tribal College graduates remain in their tribal 
communities, applying their newly acquired skills and knowledge where 
they are most needed. For example, 87 percent of Little Big Horn 
College (Crow Agency, Montana) graduates have found employment within 
the Crow Agency reservation community.
    3. Tribal College students and faculty also contribute to our 
nation as a whole, by participating in our national community of 
researchers, scientists, authors, artists, and teachers. Despite a lack 
of adequate funding, Tribal Colleges have established centers for 
research and education that are contributing in revolutionary ways. 
Many Tribal Colleges conduct economic development research, investigate 
new land uses and encourage tribal entrepreneurship. Each college has 
completed a detailed economic development plan that strongly justifies 
the need for the economic development appropriation (Title IV) 
requested in this testimony.
    4. Tribal Colleges meet the strict standards of mainstream 
accreditation boards, and offer top-quality academic programs. For 
example, Turtle Mountain Community College, located in Belcourt, North 
Dakota, and several other Tribal Colleges have been granted a ten-year 
accreditation term--the longest term allowed for any higher education 
institution.
    5. Tribal Colleges serve as highly effective bridges to mainstream 
four-year postsecondary institutions. A recent survey of Tribal 
Colleges indicated that an average of 40 percent of graduating students 
transfer to four-year institutions, compared with a national average of 
22 percent. A case study compared students who transferred from Salish 
Kootenai College in Pablo, Montana, with American Indian students and 
found the Tribal College students were better prepared for the 
challenges of mainstream four-year institutions and were more likely to 
complete Bachelor's degree programs.
    6. Tribal Colleges serve as community centers, providing libraries, 
tribal archives, career centers, economic development centers, public 
meeting places, child care centers, nutrition and substance abuse 
counseling, and a broad range of other vitally needed facilities.
    7. Tribal Colleges have become centers for American Indian language 
and cultural research, preservation, and revitalization. Many Tribal 
Colleges now serve as tribal archives, and offer courses in tribal 
history, literature, government, language, kinship, and other aspects 
of American Indian culture.
High priority areas of need
    Like mainstream institutions, these institutions strive to fully 
develop their institution and to expand services to address the needs 
of their increasing student bodies. If each college received full or at 
least the increased core operational funding in FY00, Tribal Colleges 
could focus on some of their high priority areas of need, such as (1) 
maintaining accreditation by stabilizing their core operational budgets 
and beginning to build upon existing programs (now, due to low funding 
levels, the colleges must piecemeal their core budgets together) (2) 
improving instructional capabilities and enhancing student support 
services; (3) expanding library services and collections, and 
establishing a tribal archive; (4) facilities maintenance and 
improvement, and enhancing laboratory facilities; (5) expanding 
technology through purchasing computers and establishing Internet 
access; (6) expanding child care facilities; and (7) constructing 
community or cultural centers.
    building on the president's budget request for fiscal year 2000
    The President's Budget Request reflects a $7.1 million increase for 
the operational grants funded under Titles I and II of this Act. 
Although we are very appreciative for this increase request and 
acknowledge that it will be helpful to the 26 institutions funded under 
this Act, it reflects only a beginning to what must be a sustained 
commitment. The gross funding disparities described above have caused 
considerable hardship on the colleges. Only when full funding is 
appropriated will equal educational opportunities begin to exist for 
American Indian peoples, giving the Tribal Colleges the opportunity to 
ensure that the quality of their educational services, which they have 
struggled so hard to achieve, are not compromised.
                               conclusion
    In light of the justifications presented in this statement and the 
even further enrollment increases that will result from welfare reform, 
we strongly urge the Subcommittee to increase funding for Tribal 
Colleges. Fulfillment of AIHEC's FY00 request will strengthen the 
mission of these colleges and the enormous, positive impact they have 
on their respective communities. This funding will help ensure that our 
colleges are able to properly educate and prepare thousands of American 
Indians for the workforce of the 21st century. Without the Tribal 
Colleges to serve as the means for moving from welfare to work, much of 
the reform accomplished by the Congress will fail throughout Indian 
Country. As demonstrated in this statement, Tribal Colleges have been 
extremely responsible with the Federal support they have received over 
the last 18 years. These institutions have proven themselves as a sound 
Federal investment, and we ask for your continued support.
    Thank you again for this opportunity to present our funding 
requests. We respectfully ask the Members of this Subcommittee for 
their continued support and consideration of our fiscal year 2000 
appropriations request.
                                 ______
                                 
   Prepared Statement of Olney Patt, Jr., Chairman, Tribal Council, 
     Confederated Tribes of the Warm Springs Reservation of Oregon
    Mr. Chairman, I am Olney Patt, Jr., Chairman of the Tribal Council 
of the Confederated Tribes of the Warm Springs Reservation of Oregon. 
Our phone number is 541-553-1161. My testimony, which I submit today 
for the Subcommittee's hearing record, addresses the proposed fiscal 
year 2000 budgets for the Bureau of Indian Affairs, the Indian Health 
Service, and the National Park Service with the following requests and 
comments:
    (1) We request that the $20 million increase for B.I.A. law 
enforcement be doubled, that those funds be available to tribally 
operated law enforcement programs, and that $500,000 be specifically 
designated for Warm Springs.
    (2) We request the designation of $3.5 million in B.I.A. 
Construction as a federal match in building a new elementary education 
facility at Warm Springs.
    (3) We support the $250,000 B.I.A. request for Columbia River 
fishing access site management, and ask that those funds be 
contractible for law enforcement.
    (4) With regard to the Indian Health Service Budget, we request:
    That I.H.S. ``Special Pay'' be dedicated to providing full pay to 
federal employees and installations;
    That $5 million be restored to the Community Health Representatives 
program;
    That Contract Health Services funding be increased beyond the 
requested 3.5 percent;
    That $13 million be added to the requested amount for the 
Catastrophic Health Emergency Fund; and
    That the overall I.H.S. budget be increased to reflect population 
growth and medical inflation increases.
    (5) We support the $200 million in the National Park Service budget 
request for the Land Legacy Initiative.
    The items below are listed according to priority. We wish to 
emphasize that the top two priorities for the Confederated Tribes of 
Warm Springs remain the first two items, both of which are very basic 
for any community: law enforcement and education.
    (1) We strongly urge that the requested $20 million increase for 
B.I.A. law enforcement funding be at least doubled, ask Congress to 
assure B.I.A. law enforcement funds can be used for all tribally 
operated law enforcement programs, and request that at least $500,000 
be designated specifically to provide law enforcement services at Warm 
Springs.
    The Warm Springs Reservation is exempt from Public Law 280 state 
criminal jurisdiction, so law enforcement on our Reservation rests with 
the Federal and Tribal governments. B.I.A. provided law enforcement on 
our Reservation up to the 1950s, but starting in the termination era, 
withdrew its support. Since that time, except for some support for our 
corrections facility and investigations branch, our Tribe has covered 
the full cost of public safety on our Reservation. Recently, declining 
tribal revenues and population increases have severely strained our 
capability to bear this burden. Now, at any one time, we can only 
afford two patrol officers to cover the entire 1,000 square mile 
Reservation, which, while mostly rural or even remote, is bisected by 
one busy highway and adjacent to another busy highway--this one a major 
drug route--to the east. Consequently, we share the high crime rates 
that are all too common in Indian Country. In response to this national 
crisis, B.I.A. initiated a law enforcement improvement effort in fiscal 
year 1999, and while we were able to access some of those funds to take 
part in a Central Oregon law enforcement and drug interdiction effort, 
B.I.A. restricted the use of fiscal year 1999 funds for additional 
patrol officers to only those law enforcement programs operated 
directly by the Bureau itself. Tribal programs, such as ours, could not 
get what we needed most: additional patrol and corrections officers. 
Now, for fiscal year 2000, B.I.A. is requesting another $20 million law 
enforcement increase, which still falls far, far short of the pressing 
law enforcement needs in Indian Country, so we ask that the requested 
increase be at least doubled. And to make sure that those funds can be 
put to their most effective use, we ask that Congress assure they be 
available to tribal law enforcement programs for patrol and corrections 
officers. We further ask that at least $500,000 be dedicated for patrol 
officers, equipment, and support personnel at Warm Springs, so that the 
B.I.A. can fulfill the trust responsibility it has avoided for more 
than forty year on our Reservation by meaningfully contributing to our 
law enforcement.
    (2) We request the designation of $3.5 million in B.I.A. 
Construction as a federal match in building a new elementary (k-6) 
education facility at Warm Springs.
    In 1960, when the B.I.A. ceased directly providing education to 
Warm Springs children, it turned over its facility, a former boarding 
school, to the local school district. Today, that facility is still the 
principal school on our Reservation, despite its age and severe under 
sizing. Today, even with many Warm Springs Elementary School students 
in modular units, our growing school population requires that children 
in 6th grade and above be bussed to the town of Madras, which can take 
an hour and a half one way. Clearly, a new school is needed at Warm 
Springs, but the local school district can only afford half the $7 
million cost. Accordingly, we request that the balance of construction 
funding be provided in the B.I.A. Construction budget. B.I.A. has 
informed us there is no legal impediment to their funding construction 
of a school at Warm Springs, and with a local match and local coverage 
of operational expenses, it is a good example of fiscal cooperation.
    (3) We support the $250,000 B.I.A. request for Columbia River 
fishing access site management in the ``Other Recurring Programs, 
Resources Management'' budget, and request the funds be contractible 
for law enforcement.
    After U.S. construction of Bonneville Dam in the 1930s inundated 
traditional tribal treaty fishing sites on the Columbia River, the U.S. 
repeatedly pledged to create 400 acres of new sites ``in lieu'' of 
those submerged. However, only five sites totaling about 40 acres were 
provided, and they became very crowded and run down. Finally, in 1988, 
Public Law 100-581, Title IV, authorized the Corps of Engineers' 
renovation of existing sites and development of twenty six new sites, 
totaling not more than 400 acres. Upon each site's completion, the 
Corps turns it over to B.I.A. to be managed in trust. The turn-over 
procedures were memorialized in a June, 1995 memorandum of 
understanding between the Corps and B.I.A., including Corps agreement 
to provide a lump sum for each site's initial operation and 
maintenance. For its part of the M.O.U., the B.I.A. pledged to provide 
$250,000 for administration of the sites, including law enforcement. 
Several of the new sites have now been turned over to B.I.A. and are 
already being intensively used by tribal fishermen. We ask that the 
B.I.A. O&M funds be provided, that they include use for law 
enforcement, which is critically needed at these crowded sites quite 
distant from the reservations, and that the funds be subject to Self-
Determination Act contracting, so that the funds may be more 
effectively and efficiently used by the tribes themselves.
    (4) Indian Health Service Budget:
    We ask that Congress direct that any ``Special Pay'' funds 
appropriated to the Indian Health Service be dedicated to providing 
full pay to federal employees and installations.
    ``Special Pay'' is an element of the Indian Health Service budget 
intended to fully address pay and benefits for I.H.S. Physicians and 
Dentists working at I.H.S. operated locations, such as the Wellness 
Center at Warm Springs. There has, however, been discussion about 
redistributing this pay among all I.H.S. funded health activities, 
including programs that, through contract or compact, are not directly 
operated by the I.H.S.. This would diminish the availability of those 
funds to cover the employment obligations owed I.H.S. Federal 
employees, diverting the funds from their intended purpose, either 
depriving Service employees of the pay and benefits they are owed or 
forcing the reduction of staff (and services) at IHS operated 
facilities such as ours.
    The Community Heath Representative (CHR) Program should have its $5 
million restored.
    This program serves as a vital link between our elders and the 
Indian Health Clinics and Hospitals. CHR's are mostly Tribal employees 
who are trained in health prevention and health screening techniques. 
Sometimes our elders are resistant to seeking health care when it is 
most needed, and CHRs have the ability to communicate with them and to 
encourage and assist them in obtaining the necessary help.
    Contract Health Services (CHS) funds need a substantially larger 
increase than the purposed 3.8 percent in the President's Budget. The 
CHS funds represent 15-20 percent of the total Health Services account 
in the IHS budget. This program has been under-funded since 1992, and 
medical inflation has further diminished the CHS purchasing power since 
then. A 3.8 percent increase won't even meet current medical cost 
increases, let alone begin to address the backlog of unaddressed need 
for this large and vital part of the I.H.S. budget.
    Add $13 million to the Administration's request for the 
Catastrophic Health Emergency Fund. Within Contract Health Services is 
a $12 million subactivity for the Catastrophic Health Emergency Fund 
(CHEF). The fund is a lifesaver for Indian health programs. Its purpose 
is to fund catastrophic health care cases with large expense (over 
$19,000). The Catastrophic Health Emergency fund is an important source 
of funds for programs that experience high cost cases. These cases 
place a tremendous financial and ethical burden on a Service Unit or a 
tribe if the case occurs near the end of the year after the Fund has 
been exhausted. A high cost case at a small Indian health program can 
wipe out resources for other routine health care needs. The $12 million 
proposed for fiscal year 2000 is less than was appropriated in fiscal 
year 1992 (even without factoring for inflation). In fiscal year 1998, 
501 cases seeking a total of $9,850,000 in CHEF assistance went unpaid. 
The actual need is certainly greater than $9 million because the fund 
is depleted well before the end of the Fiscal year. Every year, tribes 
know that, in the last quarter of the year, claims are not likely to be 
approved, and many programs simply do not submit claims. $13 million 
should be added to the CHEF fund.
    Increase the IHS budget to reflect population growth and medical 
inflation increases.
    Overall the Indian Health Service has been underfunded in two major 
areas: 1. population growth and 2. medical inflation costs. The 
population of Native American and Alaskan Natives has increased without 
a corresponding increase of IHS Health care dollars. And medical 
inflation has increased at 6-10 percent per year without any IHS budget 
increase, seriously eroding the purchasing power of our health care 
dollars.
    (5) We support the $200 million added to the National Park Service 
budget for state and tribal participation in the Land and Water 
Conservation Fund as part of the Interior Department's Land Legacy 
Initiative.
    The issue of declining salmon habitat points out the increasing 
importance of the ability of states, local, and (subject to 
authorization) tribal governments to secure open land for conservation 
purposes, and these funds will be of great help by reinvigorating the 
so-called ``stateside'' of the Land and Water Conservation Fund.
    Mr. Chairman, that concludes my remarks. Thank you.
                                 ______
                                 
         Prepared Statement of Norton Sound Health Corporation
    NSHC Priority Budget Items. The Norton Sound Health Corporation 
(NSHC) submits this statement on the fiscal year 2000 Indian Health 
Services budget and makes the following requests:
    (1) Provide appropriations to fully fund mandatory cost increases 
and increase level of need funded for Alaska Natives/American Indians;
    (2) Community Health Aide Program increase for Alaska of $20 
million;
    (3) Patient travel increase for Alaska of $10 million;
    (4) Facilitate alternative financing for Norton Sound hospital and 
other facilities construction projects.
    (5) Fully fund contract support costs;
    (6) Support $4 million budget request for Alaska Telemedicine 
project;
    (1) Fully Fund Mandatory Cost Increases and Increase Level of Need 
Funding.--The NSHC requests the Subcommittee to recommend funding for 
all mandatory cost increases incurred by the IHS and tribal health care 
providers, including medical and non-medical inflation, mandatory pay 
increases, and population growth. Although the Administration's fiscal 
year 2000 budget request includes $34.5 million for built-in costs, 
this amount would only partially fund pay raises and inflation. But 
this amount is far less than the $93 million IHS conservatively 
estimates is needed to fund inflation and built-in costs for just 
fiscal year 2000. And the IHS estimate of $93 million does not include 
increased costs for population growth.
    The chronic underfunding of built-in costs since fiscal year 1996 
for tribal and IHS health programs has required us to absorb an ever-
increasing amount of mandatory cost increases has limited the amount 
available for direct health care services for our people. In fiscal 
year 1997 and in the subsequent fiscal year 1998, Norton Sound Health 
Corporation experienced audited losses of $1.9 million and $1.8 
million, respectively. We are projecting another loss of approximately 
$600,000 in this current fiscal year 1999 if something is not done to 
increase our available funding for operations. These losses relate 
primarily to the inflationary costs we have had to absorb for salary 
increases to remain competitive in our recruitment of health care 
workers, the above normal costs relating to patient travel and medivac 
transports, and the decrease in alternate sources of payors (revenues) 
for Native Indian Health Services beneficiaries. We are seeing an 
increasing decline in the private insurance and medicaid coverage for 
Native eligibles which results in a transfer of costs from these 
alternate payors to the Indian Health Services compact. Our 
Administration and the Board of Directors have done all that we can to 
reduce expenses including: cutting back on Board meetings, eliminating 
administrative support staff, seeking lower cost facility lease 
alternatives, taking our phone system in-house, enacting a reduction in 
force (RIF) of certain programs, eliminating our substance abuse 
program, eliminating our Self Governance Office, eliminating our grant 
writer office, eliminating our health education program, cutting out 
training and reducing travel for staff, delaying pay increases, cutting 
back on employee benefits and streamlining certain departments in order 
to reduce administrative supervisory costs. All this has been done with 
much pain and has resulted in a truly ``barebones'' operation. If we do 
not see some relief soon, we will have no choice but to begin to cut 
out our primary care services including patient travel, village clinic 
care, the number of physicians and other practitioners as well as other 
extreme measures.
    We are hoping that the momentum of support we have seen over this 
past year from the President's office and Congress for Native Health 
programs will prevent this from happening. We support the National 
Congress of American Indians' efforts to bring the level of funding for 
the Indian Health Services to a par with health care expenditures for 
typical United States citizens. We also support the Indian Health 
Services attempt to quantify this disparity, through the report by the 
Level of Need Workgroup, in response to Congressional inquiries into 
this grave matter. The Level of Need Workgroup's preliminary report 
(final report due out in May 1999) states that the net risk adjusted 
annual costs of a typical Blue Cross/Blue Shield benefits plan for 
Indian/Alaska Native beneficiaries is greater than $3,000 per person. 
This compares with the personal services funding received of only 
$1,350 per Native user. We request that the Congress look closely at 
this report in considering the fiscal year 2000 budget and consider a 
phase-in funding approach over the next three to five years to bring 
parity in health care for the underserved first citizens of our great 
country.
    We are equally concerned that any proposed efforts to institute 
across the board budget cuts for federal agencies exclude the Indian 
Health Services in light of the demonstrated unmet health care needs in 
Indian country. We urgently request that the Congress consider the 
Indian Health Services separately when contemplating any such action in 
the ensuing months of budget deliberations.
    (2) Community Health Aide Program increase of $20 million.--Norton 
Sound Health Corporation is currently working with the Alaska Native 
Health Board to update the report on the Community Health Aide program, 
CHA/P in Crisis. This report identifies problems including below-
standard salaries, high attrition rates, and lack of support and 
training. The Alaska Health Aide program is a model system of 
delivering low cost primary care to patients residing in Rural Alaska. 
This program saw some relief in funding several years ago; however, it 
is now on the brink of another crisis if increased costs are not met. 
We ask that Congress consider raising CHA/P salaries to a standard of 
$20/hour, to increase funding for training centers and for support 
costs in the village clinics. These trained quasi-professionals act as 
primary care physicians and emergency care staff in mostly remote areas 
of Alaska, several hundred miles away from any physician-based 
facility. The alternative to this system of care would be very costly, 
in terms of dollars and in patient care. We urge full support of this 
program with phased-in funding to include at least $20 million in the 
fiscal year 2000 Indian Health Services Budget.
    (3) Patient Travel increase of $10 million.--We ask for an increase 
of $10 million for patient travel for Alaska. Physical access to care 
is a critical and expensive component of health care in Alaska. While 
the community Health Aid Program and physicians assistants provide 
basic health care at the village level, many services and procedures 
are not feasible in village clinics. The majority of rural Alaska 
Natives who need a doctor's care must travel by air to receive these 
services; the current average cost for travel between the village and 
Nome is $250 round trip and between Nome and Anchorage is $650 round 
trip. Medivac costs for critical care patients average $2,500 between 
Nome and the villages and $6,300 between Nome and Anchorage, not 
including medical escort costs, supplies costs and any airline standby 
charges. In addition, there are other related costs, i.e., hotel, food 
and ground transportation. The 1991 report, Access to Care: Crisis for 
Alaska Natives found that 40 percent of patients who need treatment or 
diagnostic services deferred it due to the costs for air fare and 
lodging. Of note is that the new Alaska Native Medical Center has some 
accommodations for family members accompanying patients to their 
facility in Anchorage, but it by no means can house all those who need 
it. Nome has no patient quarters available for village patients or 
escorts seeking care at our regional hospital.
    (4) Facility Construction Costs for the Norton Sound Regional 
Hospital.--As we testified last year, one of NSHC's greatest needs is 
the replacement or renovation of the severely overcrowded Norton Sound 
Regional Hospital. Originally constructed in 1948 and since expanded, 
the hospital is filled with code violations and safety deficiencies 
which include unsafe wiring and plumbing, inadequate ventilation, and 
structural problems due to foundation movement. Although we have 
completed an application for a new hospital, it appears that IHS 
construction funding will not be forthcoming for a very long time, 
given the backlog for funding the Indian Health Services Facilities 
Construction projects. The NSHC has continued to explore alternative 
funding through borrowing the necessary funds from private sector 
sources. In order to do this, however, we must be assured of stable IHS 
funding for lease of the space to deliver health services.
    The Indian Self-Determination Act, as amended, and the Indian 
Health Care Improvement Act (Sec. 804) was intended to provide for this 
situation by requiring IHS, at the request of a tribe, to lease 
tribally-owned facilities that are used for the delivery of health care 
services. We have been prohibited from obtaining financing in this way, 
however, by an Office of Management and Budget policy which requires 
the entire costs of a long-term lease to be scored in the first year. 
This policy makes it cost prohibitive for IHS to lease space.
    We were disappointed that in spite of the fiscal year 1999 House 
Appropriations Report request to IHS that its fiscal year 2000 budget 
address alternative construction options, such as reinstituting a joint 
venture facilities construction program, cost-sharing arrangements and 
the enhanced use of third-party collections for improving aging 
facilities, it failed to do so. We understand that IHS had proposed $15 
million for join venture projects, but that it did not make it into the 
final Administration request. We must continue to work together to find 
a sensible way to achieve the goal of providing health care in a safe 
and adequate environment.
    Norton Sound Health Corporation strongly urges Congress to provide 
authorization for establishment of a loan program to fund renovation 
and expansion of existing facilities and construction of new facilities 
owned and/or operated by Tribes. The program could include direct loans 
and loan guarantees over a multi-year period. Management of the program 
could lie outside of the Indian Health Services if necessary.
    (5) Funding for Contract Support Costs Shortfalls.--While the NSHC 
appreciates the Administration's request for an additional $35 million 
in contract support costs, it is still considerably less than the 
amount needed. The IHS estimates the current shortfall in contract 
support is $93 million, although that amount may be reduced pending 
final negotiations and lifting of the moratorium on new and extended 
contracts. Thus, the NSHC fully supports the Alaska Native Health Board 
recommendation of full funding for the IHS contract support costs, in 
furtherance of the well-established federal policy to encourage tribal 
self-governance. Additionally, we urge that Congress allow the 
completion of the National Congress of American Indians-led national 
review of contract support policy and refinement of distribution 
methodologies before instituting any changes to the current system.
    We request the Subcommittee to work with the Department of Health 
and Human Services to assure that sufficient funds for contract support 
costs are included in the fiscal year 2000 budget.
    (6) Alaska Telemedicine Project.--The NSHC urges that Congress fund 
the Administration's budget request of $4 million (the same amount as 
appropriated in fiscal year 1999) for the Alaska Federal Health Care 
Access Network (AFCAN). The AFCAN is a multi-year telemedicine and 
telehealth technology project which will connect over 200 federally 
funded health care facilities (including tribal clinics, tribal 
regional hospitals and clinics) to facilitate the sharing of clinical 
and patient information.
    Thank you for your consideration of our recommendations and for 
your attention to matters affecting the health of Alaska Natives and 
Native people throughout the nation.\1\
---------------------------------------------------------------------------
    \1\ The Norton Sound Health Corporation (NSHC) is the provider of 
health care services to more than 6,000 Native and 2,100 non-Native 
residents of the Bering Straits Region in northwest Alaska. NSHC, 
headquartered in Nome, is the only source of health care, excluding one 
private dental practice, in a region, which encompasses more than 
25,000 square miles. NSHC serves and is controlled by 20 Native 
villages within the Bering Strait Region. We provide a wide array of 
health care services, from preventive services to the operation of an 
intermediate care nursing facility and the Norton Sound Regional 
Hospital.
---------------------------------------------------------------------------
                                 ______
                                 
     Prepared Statement of Robert E. Kenahan, Tribal Police Chief, 
                       Narragansett Indian Tribe
    On behalf of the Narragansett Indian Tribe, I am pleased to present 
the Tribe's statement concerning the fiscal year 2000 budget of the 
Department of the Interior, Bureau of Indian Affairs. On December 30th, 
1998, history was made in my home State of Rhode Island when the 
Narragansett Tribe selected me as the Tribe's first appointed Police 
Chief. In addition to that honor, I was also pleased that my swearing-
in ceremony was attended not only by tribal members but by local 
dignitaries such as former U.S. Attorney Sheldon Whitehouse and current 
U.S. Attorney Meg Curran. Their attendance spoke well of the 
government-to-government relationship that all tribes seek to 
strengthen with the United States. It is my hope, and the hope of this 
proud Tribe, that working together, we may forge a strong and 
meaningful relationship with our State and Federal counterparts in the 
law enforcement field.
    The Narragansett Tribe urges Congress to increase the President's 
fiscal year 2000 budget request of $138 million for BIA law 
enforcement. This is $42 million over the fiscal year 1999 level. Of 
this increase, however, $20 million would be a program increase, with 
the remaining balance for built-in costs. We believe that the program 
increase should be double that.
    I would not be here before you today if it were not for the 
existence of a COPS FAST Grant through the Department of Justice which 
augments the Tribe's Public Law 93-638 funding. I am a Korean War 
veteran and retired Rhode Island State Police Sergeant with nearly 40 
years experience in law enforcement; 21 years as a uniformed officer, 
detective and police liason with the State Attorney General's office 
and 18 years in the security business, rising to become Vice President 
of Pinkerton's Security.
    As head of the newly formed Narragansett Tribe Police Department I 
wish to apprise you of the current working conditions. I ask for your 
assistance to provide additional funds to the BIA budget to make the 
Narragansett Tribe's, as well as other tribal law enforcement programs, 
more effective and self-reliant. As a law enforcement professional, I 
truly believe that funds spent in law enforcement are funds well spent. 
An effective law enforcement program can save lives and make a 
difference in the community. It is an essential component of any 
community's infrastructure. Without adequate law enforcement services 
and a judicial system, Indian tribes cannot hope to attract economic 
development to their reservations to improve the living conditions of 
their members and break the cycle of dependence on Federal 
appropriations.
    The Tribe is appreciative of the Administration's program increase 
of $20 million dollars over the fiscal year 1999 enacted level for Law 
Enforcement and $2.5 million increase in Tribal Courts to carry out the 
Presidential Initiative on Law Enforcement in Indian Country, a joint 
effort by the BIA and Justice to combat rising crime rates in Indian 
Country and improve public safety. Although these increases are 
significant, I associate myself with the remarks of Assistant 
Secretary-Indian Affairs, Kevin Gover, who stated that ``Indian Country 
needs in every program are massive'' as well as the remarks of Thomas 
Leclaire of the Office of Tribal Justice who stated that Tribal and BIA 
law enforcement agencies have insufficient staff and lack the 
facilities and basic communications and intelligence gathering 
technology required to address the law enforcement needs which exist in 
Indian country today. Our program is typical. Our fiscal year 2000 
proposed BIA funding for law enforcement is $69,000. Our need is more 
than seven times that at roughly $500,000.
    Using the Narragansett Tribe's Law Enforcement program as an 
example, I would like to illustrate just how critical increases in 
Federal appropriations for Law Enforcement in Indian Country are. As a 
former State Police Sergeant, the conditions which I and the other 
Narragansett Tribal police officer operate under are hazardous, 
inefficient and simply unacceptable.
    1. Three Additional Officers are Required to Meet Minimal Law 
Enforcement Needs ($250,000).--At the present time, the Narragansett 
Police Department consists of one patrol officer (Derrick Johnson) and 
myself. We have one patrol vehicle that my patrolman and I must share 
which is not adequately equipped to perform regular duties. The 
reservation consists of approximately 2000 acres, some parcels of which 
are not contiguous. We must patrol the Narragansett Church, Longhouse, 
Four Winds Community Center, Administration Building, out-patient 
health center, housing site and an additional 1500 acres of fee 
property. We patrol for trespassers, abandoned vehicles, illegal 
hunting and fishing and must respond to any emergencies. A full patrol 
takes two and one half to three hours.
    Although we are on-call 24 hours a day, evening and weekend patrols 
are limited and are performed on an ad hoc basis. At a minimum, we 
require an additional three officers, with BIA Police Academy training 
and other law enforcement training, to provide the Tribe's 2000 members 
with adequate law enforcement services. We have had preliminary 
discussions with the Tribe's health department on the subject of 
developing a family violence program, but that too requires that we 
have adequate law enforcement staff.
    In a matter of weeks, the Tribe's reservation will host summer 
campers and an annual Pow Wow which attracts thousands of spectators. 
We have two ponds on our reservation--Deep Pond and School House Pond--
and at present we do not have adequate safety ropes and buoys in the 
event an emergency situation arises. Our existing police force cannot 
handle the number of people we anticipate will come onto the Tribe's 
reservation and our resources are already stretched to their limit.
    2. Office Space and Equipment are Inadequate ($250,000).--The 
Tribe's Law Enforcement program occupies a 10' x 10' cubicle in the 
Tribe's Administration Building. Patrolman Johnson and I must excuse 
ourselves to a private office if we receive a confidential call. Any 
complainant is in full view of the entire office. Privacy and 
confidentiality are important in law enforcement and the lack of both 
inhibits our ability to effectively serve the tribal community. In 
addition to the Tribe's reservation, we also patrol another 1500 acres 
of fee property owned by the Tribe. We do not have a secure radio 
frequency to communicate with and without better equipment, I cannot 
maintain constant radio contact with Officer Johnson throughout his 
patrols. This is not safe and I view this situation as unacceptable. We 
have applied for an FCC license to utilize our own frequency and hope 
to secure the license in the near future. I hope that the Narragansett 
Tribe can access fiscal year 2000 funds for upgrading our radio 
equipment.
    We would also like to acquire a law enforcement office trailer 
which could be housed on the reservation behind the Tribe's 
Administration Building. When properly equipped, including support 
staff, this facility would allow us to better perform our job. In 
addition, we need an additional patrol vehicle and part time dispatcher 
so that both Officer Johnson and I can respond to calls. We recognize 
that improvements in our program must be incremental, based on our 
limited budget, but to be credible to the community we serve, we must 
demonstrate improvement in our law enforcement program each day.
    3. Negotiating a Memorandum of Understanding with State 
Officials.--We have made considerable progress in negotiating a joint 
memorandum of understanding with State of Rhode Island and local 
officials concerning areas of mutual concern. I am confident that we 
will resolve remaining differences in the near future. One issue which 
we must resolve with the State is on the issue of tribal access to 
State criminal background check information (BCI), using the RILETS 
system. Access to this data may prove lifesaving. It is critical that 
an MOU be in place soon. My life, the life of Officer Johnson, and the 
lives of the Tribal community we serve may be at risk without it. Only 
through joint cooperation will the Narragansett Tribe and its non-
Indian neighbors break down barriers of mistrust. Despite our great 
need, I am committed to making the Tribe's law enforcement program the 
best it can be.
    In addition to providing a breakdown of our law enforcement funding 
needs, I am including Uniform Crime Statistics for 1997 for the State 
of Rhode Island of arrests of Native American Indian or Alaska Natives 
as well as the Department of Justice's Standard Compliance Process for 
a safe and effective police department which lists the essential 
components required for a start up law enforcement program.
    In closing, I hope you will assist the Narragansett Indian Tribe 
through increased appropriations. All successful undertakings have the 
same ingredients--determination by those involved and the resources to 
get the job finished. We have the determination. Give us the resources 
and we will finish the job of making Narragansett Law Enforcement an 
example of a well run law enforcement program.
                                 ______
                                 
    Prepared Statement of Clarence Alexander, Chairman, Council of 
                     Athabascan Tribal Governments
    The Council of Athabascan Tribal Governments (CATG),\1\ a tribal 
consortium of ten Athabascan Indian Villages in the Yukon Flats, 
Alaska, makes the following recommendations on the fiscal year 2000 
Interior and Related Agencies Appropriations bill:
---------------------------------------------------------------------------
    \1\ The Council of Athabascan Tribal Governments is a Tribal 
Organization (consortium) of ten Athabascan Indian villages in the 
Yukon Flats, Alaska. The CATG was formed in 1985 during a gathering of 
the Chiefs. Each federally recognized tribe elects its chief according 
to tribal constitution. The Chiefs make up the membership of the CATG. 
The CATG is recognized as a non-profit Tribal Organization for the 
purposes of administering federal, state, and private foundation grants 
and contracts as authorized by the Chiefs. The CATG administrative 
office is located within the Yukon Flats region of the village of Fort 
Yukon.
---------------------------------------------------------------------------
  --Repeal of the 3-year moratorium contained in the fiscal year 1999 
        Interior Appropriation Act which prohibits Alaska Villages from 
        entering into new contracts with the Indian Health Service. We 
        oppose any institution of limitations on tribal contracting 
        under the Indian Self-Determination Act.
  --Allocation of $200,000 in the Fish and Wildlife Service budget for 
        the Council of Athabascan Tribal Governments to work with 
        USF&WS in assuming some of the services and functions on the 
        Yukon Flats National Wildlife Refuge.
  --Allocation of $200,000 within the Fish and Wildlife Service budget 
        for the Council of Athabascan Tribal Governments to work with 
        USF&WS on the Comprehensive Conservation Plan for the Yukon 
        Flats National Wildlife Refuge.
  --Full funding for IHS and BIA contract support.
    In order to appreciate our budget recommendations--which focus on 
utilization of our own people's knowledge and talents--we provide a 
brief description of our physical environment and our efforts to make 
better lives for ourselves through assumption of activities previously 
done only by outsiders.
    The Gwich'in Athabascan Indian population, of Alaska, occupies 
about 55,000 square miles in the Northern Interior of Alaska on the 
Yukon River drainage--this is 11,000 square miles larger than the state 
of Pennsylvania. The villages are scattered over the vast valley called 
the Yukon Flats--half of them above the Arctic Circle. Villages at the 
Western end of the valley begin the down river transition to the 
Koyukon Athabascan culture. The population in the Yukon Flats, is about 
1,460. All the villages in the valley are isolated--only winter trails 
and rivers connect them. The closest urban center, Fairbanks, is about 
an hour's flight from most villages. Commuter airlines provide the only 
transportation and mail service to Fairbanks. And, although people 
travel between villages by river in the summer, snow machine and dog 
sleds in the winter, they travel, most often, by air. Communication 
between communities is by telephone, facsimile, mail and a 5,000 watt 
public radio station, Gwandak Public Broadcasting, located in the 
largest community--Fort Yukon.
    The Benefits of Indian Self-Determination Contracting Extend Beyond 
BIA and IHS Programs.--Since 1985, more than one hundred jobs have been 
brought back to the Yukon Flats through the Indian Self-Determination 
and Education Assistance Act, Public Law 93-638 contracting process. 
Many of these jobs were previously held in Fairbanks. Many more 
resulted from our efforts to leverage 638 funds to develop additional 
programs and projects. These jobs represent permanent full time 
employment through the tribes and the tribal consortium we started 
together.
    Approximately $6 million per year is being brought into the Yukon 
Flats because of Public Law 93-638. Add to this the impact of leveraged 
EPA grants, locally contracted water and sewer grants, and locally 
contracted airport improvement grants, and other programs and you will 
find another one to two million dollars. Finally, the capacity of 
tribes to run 638 contracts and maintain clean audits has prepared them 
to take on responsibility for housing under the Native American Housing 
Assistance and Self-Determination Act--something they would not have 
had the confidence to do ten years ago or even five years ago. The 
effect of the stability provided by the 638 process snowballs once the 
tribe is comfortable with the responsibility. We invite you to tour our 
offices and the tribal offices in each village to see this yourself.
    Because of the build up of contracting in the Flats and the 
stability of our administration, the Council has been able to take on a 
$700,000 telecommunications project due to go on line by May, 1999. We 
formed a partnership with the University of Alaska and AT&T to make 
this happen. The project will enable us to save money on telephone and 
fax, provide an intra-net for telemedicine, internet access and dial-up 
access in all of our villages. We couldn't have done this without being 
Self-Determination Act contractors first and having the stability and 
experience created through that process.
    The experience of tribal contracting also results in tribal 
emphasis on development and employment of local human resources. 
Children are observed as potential candidates for higher education and 
future employment with the tribe. Youth are encouraged to return home 
with the skills that they learn ``outside'' to build their homes and 
their lives within the community. In the 1980's, people said our 
villages were dying. Today the population is growing and there is a 
returning sense of purpose and hope.
    We learned from other villages who led the way to contracting in 
Alaska. Many other communities have followed our example. Many more now 
want to follow this path. With all these accomplishments would it have 
been better to be paying our six to ten million dollars for welfare 
instead? How many more suicides would we have had? How many more people 
suffering from substance abuse? We would rather see our people in 
meaningful employment with a future and hope for their children. We 
have learned how to accomplish this. We seek opportunities to continue 
the process.
    Alaska-Specific Health Moratorium.--The fiscal year 1999 Interior 
Appropriations Act contains a provision which prohibits Alaska villages 
who are served by a regional health program from entering into new or 
expanded contracts with the IHS for 3 years (through September 30, 
2002). This is an incredibly counterproductive and discriminatory 
policy, and we urge you to repeal it.
    By statute, tribes in Alaska enjoy the same rights as in the rest 
of the Nation. But the foundations of the Indian Self-Determination and 
Education Assistance Act, inherent tribal rights and authority, and 
informed local decision making are being undermined in Alaska by a 
moratorium that denies tribes in Alaska the same rights as other tribes 
throughout the nation. It dictates to tribes in Alaska who will provide 
health care to their tribal members. Only in Alaska, have we been told 
to adhere to ``economies of scale'' and that we must accomplish this 
through regional entities. This should not be a congressional decision.
    We realize that the primary purpose of IHS and other health care 
programs is the provision of quality health care. However, health care 
also is a very large ``industry'' in this nation and it does provide 
billions of dollars for millions of jobs. In reviewing the Alaska 
situation, we believe that even if every single tribe were to contract 
for locally provided services over the next ten to fifteen years, the 
effect would be to slowly increase the contract support costs a maximum 
of 15 to 20 million dollars per year. Yes, there is a cost for 
increasing local tribal control over locally provided services through 
the Indian Self-Determination and Education Assistance Act health 
contracting--but it has also been demonstrated by the Indian Health 
Service and tribes that there is a direct relationship between tribal 
contracting and an increase in the quality of health services provided.
    Because of our contracting, our regional health clinic is fully 
staffed for the first time in many years. We no longer depend on 
outside agencies to provide temporary Health Aides in our villages. 
Instead, we have more consistent service because we use our own trained 
workers. We encourage and assist our workers to take distance learning 
classes while on the job and to pursue careers as physician assistants, 
dentists, and doctors. We train people on the job and, if they have to 
leave their community, they have skills to work wherever they go.
    Our tribes have also demonstrated improvement in BIA services 
because of local the Indian Self-Determination and Education Assistance 
Act contracting, and that experience enables the tribes to assume 
responsibility for other programs as well. Out of 43 tribes in the 
Interior of Alaska, only seven tribes in the Yukon Flats and two others 
have fully taken over Public Law 93-638 BIA contracts to provide 
services. These tribes have painstakingly built their administrative 
capacity, and are seeking to assume responsibility for programs as they 
feel prepared to do it. For instance, CATG administers some health 
programs on a regional basis, while other health services--particularly 
those in the preventive and substance abuse areas--are likely 
candidates for village-level contracting. It is unjust to deny them the 
same opportunities open to tribes across the nation to contract for a 
portion of their health services as well. We ask that there be no more 
Alaska specific riders on appropriations or other bills that limit 
tribal authority. We ask that there be no legislative riders that set 
precedents which limit tribal opportunity while posing as solutions. We 
ask that the Alaska-specific moratorium on IHS contracting be lifted.
    Tribal Administration of Activities in the Yukon Flats National 
Wildlife Refuge.--The Council of Athabascan Tribal Governments has been 
steadily building capacity in the area of Natural Resources Management. 
Each of the tribal governments in the Yukon Flats has a Natural 
Resources Office and there is also a regional department at CATG. The 
CATG has proposed taking on responsibility for some of the programs, 
functions, services and activities on the Yukon Flats National Wildlife 
Refuge. These lands constitute a large part of the homelands of the 
Gwich'in and Koyukon people who have lived as part of this land for 
thousands of years. Tribal eligibility to take on this responsibility 
exists in law and the Yukon Flats National Wildlife Refuge has been 
listed as one of the non-BIA programs within the Department of Interior 
eligible for tribal management. We refer you to the October 21, 1997 
Federal Register notice in which was published the Interior Secretary's 
Non-BIA Programs Available for fiscal year 1999 Self-Governance 
Agreements--specifically listed is Alaska National Widlife Refuges 
(statewide). The notice also lists eight programs with potentially 
contractible elements. Within this list, numerous opportunities exist 
for our area. Our biologist has identified the following as areas in 
which CATG could contract: habitat management, wildlife survey/studies, 
visitor services/visitor center operations, acquisition/appraisals, 
comprehensive conservation planning, wetland restoration projects, 
building site restoration, fire management, subsistence management, 
contaminants monitoring, cultural resources planning, archaeological 
surveys, cooperative fisheries management and restoration agreements, 
fish collection and tagging.
    Following a recent meeting between CATG and the Regional Fish and 
Wildlife Service Office, USF&WS has agreed to provide us a listing by 
the end of April of activities it is now carrying out which it believes 
could be contracted by CATG. This is an encouraging development.
    And we are also encouraged by legislation, S. 748, introduced on 
March 25, 1999 by Senator Murkowskiwhich is designed to increase the 
hiring and contracting with Alaska Natives by federal agencies in 
Alaska. Senator Murkowski states in his introductory remarks:

          ``Legislation already exists for contracting with and hiring 
        Alaska Natives. Sections 1307 and 1308 of the Alaska National 
        Interest Lands Conservation Act and the Indian Self-
        Determination and Education Assistance Act are clear on these 
        matters. The problem is that the law have been largely ignored. 
        . . . Mr. President, the National Park Service, The Bureau of 
        Land Management, the Fish and Widlife Service, and other 
        agencies within the Interior Department have an opportunity to 
        hire and contract with local Alaska Natives who were born and 
        live near and in our parks,hazards, they know about living and 
        working in arctic conditions. Given the evels of unemployment 
        in the area, it makes absolutely no sense not to hire these 
        individuals.''

    While the tribes in the Yukon Flats have been able to attain 
employment of about 20 percent of the workforce, the YFNWR poses an 
economic opportunity which could bring this to 40 percent within a few 
short years. We ask that Congressional support be given to this project 
and that funding be allocated in the amount of $200,000 to enable CATG 
to work in partnership with USF&WS and demonstrate our capacity to do 
the work. The budget includes technical staffing, office support and 
travel to develop and design implementation methodologies for contracts 
programs, functions, activities and services.
    Yukon Flats Comprehensive Conservation Plan.--We are deeply 
concerned that the USF&WS has delayed revision of the Comprehensive 
Conservation Plan for the Yukon Flats National Wildlife Refuge until 
July 2006. This is approximately 14 years after the original plan was 
put in place. The Service has indicated that this is due to the small 
planning staff and that because there are 16 national Wildlife Refuges 
in Alaska, the planning process has been prioritized. The CATG has the 
capacity to carry out many aspects of Comprehensive Conservation Plan 
planning process and would like to contract with USF&WS to do this 
work. The CATG requests an allocation of $200,000 to undertake this 
task in collaboration with the Fish and Wildlife Service. Funding would 
be used for technical staffing, office support and travel for planning 
staff to work with the Fish and Wildlife Service in designing and 
implementing the Comprehensive Conservation Plan.
    Thank you for your consideration of our concerns.
                                 ______
                                 
 Prepared Statement of Stan Rice, Jr., President, Board of Directors, 
                         Prescott Indian Tribe
    The Yavapai-Prescott Indian Tribe appreciates the opportunity to 
address the issue of fiscal year 2000 Appropriations Bill for the 
United States Department of Interior, Bureau of Indian Affairs. The 
Tribe has reviewed President Clinton's Budget for fiscal year (FY) 2000 
for the Indian Health Service and the Bureau of Indian Affairs and 
fully supports the requests made in the President's budget regarding 
these two departments.
    The Yavapai-Prescott Indian Tribe particularly supports the 
continued, and increased, funding of the initiative on Law Enforcement 
in Indian Country. Fiscal year 2000 is the second year of the four-year 
implementation period. The need for improved law enforcement services 
in Indian Country has been widely documented demonstrating that Indian 
citizens residing on Reservations do not receive the minimum level of 
law enforcement services taken for granted in non-Indian communities. 
For example, with an estimated Indian Country population of 1,430,000, 
the police officer to citizen ratio (2.9 officers per 1000 citizens) 
would mandate at least 4,290 police officers, an increase of 50 percent 
over the number of 2000 sworn police officers in Indian Country.
    An example that reflects the Yavapai-Prescott Indian Tribe involves 
the creation of our new Tribal Police Department. Recently, the Tribe 
developed its own Tribal Police Department, with the assistance of a 
Department of Justice Community Oriented Policing Services grant. We 
are sure that you are aware of the high cost of establishing a police 
department. While we gladly received grant funds for the police 
officers' salaries, the Tribe was financially responsible for the 
purchasing of all equipment associated with the new police department. 
It proved to be very expensive and we are still acquiring equipment for 
our Tribal Police Department. Continued, and additional, funding for 
Law Enforcement in Indian Country will guarantee the Tribe the 
opportunity to receive funding or pursue grant funds to continue the 
development of the Tribal Police Department.
    The Bureau of Indian Affairs' Law Enforcement Initiative was 
formulated in partnership with the Department of Justice (DOJ) to 
ensure maximum usage of the Federal dollar. Working together, the BIA 
and DOJ's respective budget requests complement each other, to ensure 
that efforts are not duplicated and funding can be provided to Tribes 
on a more expansive basis. It is essential that the next step of the 
improvements to law enforcement be funded in the fiscal year 2000 
Appropriations Act.
    We would also like to bring to your attention the critical need for 
Road Construction and Road Maintenance funding for Indian lands. Tribes 
cannot be successful in pursuing or developing economic development 
without adequate transportation systems. While the Bureau of Indian 
Affairs has received a slight increase nationally in road construction 
funds from the Transportation Efficiency Act for the 21st Century (TEA-
21), the funding for the tribes under the jurisdiction of the BIA 
Phoenix Area Office has decreased by more than 50 percent from the 
funding provided under the Intermodal Surface Transportation Efficiency 
Act (ISTEA). The funding for the BIA Phoenix Area was reduced from $26 
million per year to $16 million per year. This cut drastically 
curtailed the number of projects that could be developed by Native 
Americans in the BIA Phoenix Area Office.
    The Yavapai-Prescott Indian Tribe has one street, Slaughterhouse 
Canyon Street, to construct over the next five (5) years at a cost of 
four (4) to five (5) million dollars. The BIA has advised us that our 
fair share of the TEA-21 funds for the next five years totals only 
$143,000. Obviously, at this rate, it will take the Tribe forty (40) 
years before we can build this single street. This is totally 
inadequate and does not meet the actual needs of our Tribe.
    The Tribe requests a one-time appropriation of $1.2 million to 
construct the Slaughterhouse Canyon Street. This street will provide an 
alternative route around the most dangerous intersection in Prescott 
and will be utilized by Tribal members and Prescott city members. It 
will also serve as access to our planned Tribal museum and various 
administrative and commercial development on our Reservation. This road 
is instrumental to the economic stability of the Tribe and its Tribal 
members.
    BIA Road Maintenance funds are also critically inadequate to 
provide even the most basic maintenance of the roads and streets in 
Indian Country. Highway standards are not being met on the large 
majority of Reservation lands. Tribes do not receive any of the Highway 
Users Roads Funds (HURF) collected through taxes collected by states 
and counties on the sale of motor fuels, even though the Tribes and 
Tribal members pay such taxes in most states. The Yavapai-Prescott 
Tribe receives only $10,000 per year from the BIA for maintenance and 
upkeep of all the streets and roads on our Reservation. As a result, 
they continue to deteriorate which makes the road construction 
investments short-lived, not to mention the dangerous driving 
conditions that develop because of the deteriorated condition.
    If you require additional information, please contact me at 520-
445-8790, ext. 33. The Yavapai-Prescott Indian Tribe appreciates your 
listening to our concerns and problems, and also, appreciate your 
efforts to improve the standards of living in Indian Country.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe is requesting the following funding amounts for 
fiscal year 2000 which are specific to the Nez Perce Tribe:
  --$150,000 through the BIA for the Nez Perce Tribe to conduct a 
        feasibility study and economic impact analysis to build a 
        Cultural Center in conjunction with the Lewis and Clark 
        Bicentennial;
  --$737,050 under the BIA's water rights negotiation and litigation 
        program within Indian Rights Protection for negotiation and 
        litigation of the Snake River Basin Adjudication;
  --$450,000 for our Gray Wolf Recovery Program through the Fish and 
        Wildlife Service;
  --$385,000 through the BIA's Indian Child Welfare Grant Program, 
        Welfare Assistance Program and 638 Contract Administration 
        Costs for Tribal Social Services Programs;
  --$200,000 through the BIA for Tribal involvement in the Federal 
        Energy Regulatory Commission's re-licensing of Idaho Power's 
        Hells Canyon Complex; and
  --$1.2 million for equipment and $3.3 million for staffing through 
        IHS under a joint venture arrangement
    In addition to the Nez Perce Tribe's specific requests, the Tribe 
supports the following increases set out in the President's fiscal year 
2000 budget requests for tribal programs in the Bureau of Indian 
Affairs, Indian Health Service and other agencies of the Department of 
the Interior:
  --support for the $20 million increase requested for BIA law 
        enforcement;
  --support for the $5 million increase for fiscal year 2000 to expand 
        the Indian Land Consolidation Pilot Project through the Office 
        of Special Trustee;
  --support for the increase of $17 million for the Tribal Priority 
        Allocation account in the BIA over the fiscal year 1999 enacted 
        level;
  --support for the fiscal year 2000 increase of $170 million for IHS, 
        which does address pay-related cost increases, population 
        growth, and staffing at new facilities;
  --support for $500,000, through the Fish and Wildlife Service, for 
        consultation with tribes as part of the Secretarial Order 
        related to tribal treaty rights and the ESA; and
  --support for the $250,000 requested for Columbia River fishing 
        access sites built by the Army Corps of Engineers.
         lewis and clark bicentennial observance--bia, $150,000
    With the upcoming Lewis and Clark Bicentennial, the Nez Perce wish 
to tell their own story of the Corps of Discovery led by Lewis and 
Clark. The Nez Perce saved the Lewis and Clark expedition from 
starvation, as well as giving them food and supplies for their journey. 
Despite the contributions of the Nez Perce, only individual states have 
been funded to prepare for the upcoming Bicentennial. The Tribe would 
like to be included in the observance to help people recognize our 
efforts to the Lewis and Clark expedition and our contributions to the 
Pacific Northwest.
    The Nez Perce Tribe, working with the State of Idaho, through the 
Governor's Committee on the Lewis and Clark Bicentennial, have agreed 
to jointly support the development of a Nez Perce Cultural Interpretive 
Center to be located on the Nez Perce Indian reservation. The State has 
ranked this project number two as part of their overall strategic plan 
for the Lewis and Clark Observance. We have already spent a significant 
amount of our own funds on a preliminary study that dealt with the 
development of the architectural design and potential site locations. 
Based on this study, the Tribe has designated Tribal land for the 
Cultural Center. The Cultural Center will include an exhibit specific 
to the Corps of Discovery and their interaction with the Nez Perce 
people.
    The Nez Perce Tribe is requesting $150,000 for fiscal year 2000, 
through the BIA, to go towards the second phase which will provide a 
more detailed economic analysis for the Cultural Center, as well as 
provide support staff in developing a comprehensive strategy for the 
Lewis and Clark Observance with other local, state and federal 
agencies.
   snake river basin adjudication negotiations funding--bia, $737,050
    The Nez Perce Tribe has been involved in the Snake River Basin 
Adjudication (SRBA), the largest water rights adjudication in the 
country, since that proceeding was statutorily mandated by the Idaho 
Legislature in 1987. The SRBA is a general stream adjudication in which 
all the water rights in the Snake River basin (approximately 185,000 
claims) will be determined. The Snake River basin encompasses 
approximately two-thirds of the geographic area of the State of Idaho, 
and much of the basin lies within the aboriginal territory of the Nez 
Perce Tribe. We are represented in this proceeding by our in-house 
counsel and the Native American Rights Fund in Boulder, Colorado.
    In December of 1998, the SRBA Court ordered the parties to the Nez 
Perce claims into mediation. For fiscal year 2000, the Nez Perce Tribe 
is asking that $737,050 be made available in the BIA's Indian Rights 
Protection account for Water Rights Negotiation and Litigation to 
enable the Tribe to continue its participation in the SRBA. These funds 
will cover the cost of vital, on-going work by fisheries, economic, 
historical, and engineering experts, as well as necessary attorney 
costs and overhead expenses.
                  wolf recovery program--fws, $450,000
    The Nez Perce Tribe is in its fourth year of participation in the 
Wolf Recovery Program with the U.S. Fish and Wildlife Service (FWS). 
Through a contract with the FWS, the Tribe produced and is implementing 
a Service-approved recovery plan for the Gray Wolf in Central Idaho, 
which requires documentation of ten breeding pairs for three 
consecutive years. The 35 wolves released in 1995-1996 have grown into 
a population of 12 packs containing a minimum of 115 animals and ten of 
those packs produced a total of 51 pups in 1998.
    The Nez Perce Tribe appreciates the support that Congress gave the 
program by mandating a funding increase for fiscal year 1998, which put 
the program up to $300,000. However, due to the large population 
increase, the program remains underfunded. The wolf population consists 
mainly of young animals which have started to disperse, and have even 
shown up 230 miles away in Oregon. The dispersing animals can be 
expected to seek unoccupied territory to settle in, and will now begin 
to affect people and communities, that were previously not impacted by 
the wolf recovery effort. The funding shortfall threatens the Tribe's 
ability to adequately monitor movements of the wolves scattered 
throughout 15 million acres and beyond, investigate depredations, trap 
and collar animals, document reproduction, purchase additional collars 
and radios, gather data on food habits, and answer questions about the 
impact of wolves on ungulates and cattle.
    The ranchers and citizens of Idaho, and surrounding states, have 
every right to expect the Tribe and the FWS to monitor these wolves, as 
well as provide services and support. For the reasons set out above, 
the Nez Perce Tribe is requesting an increase of $150,000 for a total 
of $450,000 for fiscal year 2000 for the Tribe's Wolf Recovery Program, 
through the FWS.
             tribal social services program--bia, $385,000
    The Nez Perce Tribe has contracted from the BIA, through a 638 
contract, to run the Social Services Program, which administers many 
different tribal assistance programs. Since that time, services to 
individuals on the reservation have increased threefold, while the 
funding levels for contract support costs have decreased each year. The 
Tribe's established share for contract Administration costs for fiscal 
year 2000 is $132,000, $2,500 less than last year. Since the funding 
levels are not keeping up with the increasing numbers of children and 
people needing assistance, this seriously jeopardizes the Tribe's 
Social Services Department from updating equipment, hiring more staff 
and adequately meeting the needs of their members and the assistance 
programs they operate.
    Indian Child Welfare and BIA Welfare Assistance are just two Social 
Service's programs the Tribe operates. The Indian Child Welfare Program 
tries to prevent the break up of Indian families, as well handle child 
abuse and neglect cases, court interventions and foster care placement. 
Due to the Tribe's share for the Indian Child Welfare Program being 
$52,495 for fiscal year 2000, there is only one child welfare worker to 
provide services to the 75 families and children in crisis that 
currently receive services under this program. The BIA Welfare 
Assistance Program the Tribe runs services 430 cases under this 
program, yet it will only receive $124,000 for fiscal year 2000, $2,500 
less than fiscal year 1999. For these reasons, the Tribe is requesting 
an increase of $28,000, for 638 contract Administration costs, an 
increase of $22,505 for Indian Child Welfare, and an increase of 
$26,000 for Welfare Assistance, for a total funding level of $385,000 
for fiscal year 2000, through the BIA.
                  ferc dam relicensing--bia, $200,000
    The Hells Canyon Complex is a series of three dams (Hells Canyon, 
Oxbow, and Brownlee) owned by Idaho Power Corporation on the Snake 
River along the Oregon-Idaho border. The Federal Energy Regulatory 
Commission (FERC) is empowered to license all non-federal dams, 
including the Hells Canyon Complex. These licenses last 50 years and 
are subject to terms imposed by FERC, including the development of 
protection, mitigation, and enhancement measures to address all aspects 
of dam impacts, including effects on cultural sites, wildlife, and 
fisheries. Rather than pursuing a traditional relicensing process which 
involves considerable litigation, Idaho Power has elected to create a 
collaborative process to involve many stakeholders throughout all 
phases of the relicensing process.
    Hell's Canyon has significant historic, cultural, and natural 
resources important to the Nez Perce Tribe, and so the Tribe has been a 
participant in the relicensing process since it ensued in 1996. Other 
than travel reimbursement funds from Idaho Power, there has been no 
direct funding available to the Tribe to participate in the FERC 
process. Funding provided to the Tribe would ensure continued 
participation in the relicensing, and would allow Tribal technical 
representatives to work with resource groups that design studies 
focused on dam impacts and assist Idaho Power in the development of 
protection, mitigation, and enhancement measures. For these reasons, 
the Tribe is requesting $200,000 for fiscal year 2000, through the BIA, 
to participate in the FERC relicensing of the Hells Canyon Complex.
                joint venture funding--ihs, $4.5 million
    Congress recognized that the existing system for funding the 
replacement of health care facilities under the IHS Facilities Priority 
Construction List does not work for most tribes. It is difficult for 
our Tribe to make that priority list due to the criteria the IHS 
utilizes for new facility construction. Congress has authorized ``Joint 
Venture'' programs under the IHS which provides that tribes who 
construct their own facilities with their own resources could count on 
the IHS to provide staffing and new equipment, as long as the tribe 
provides the facility under a no-cost lease agreement to IHS.
    The Nez Perce Tribe has elected to construct replacement clinics at 
Kamiah and Lapwai, Idaho, as both clinics have been designated in need 
of replacement. Both clinics are too small and are experiencing severe 
maintenance problems. The Tribe will provide the land and construction 
costs. The Nez Perce Tribe seeks funding from IHS for staffing and new 
equipment for these facilities, which we hope to be completed by the 
end of fiscal year 1999. The estimated cost for start-up equipment for 
both of the facilities is $1.2 million and the annual recurring amount 
is $3.3 million.

                        items of general support
BIA law enforcement
    Due to this Subcommittee's funding increase in fiscal year 1999 for 
BIA Law Enforcement, the Nez Perce Tribe was able to increase its 
patrol officers from 6 to 12. Despite this increase, we are still short 
of the minimum 17 patrol officers it would take to perform patrol 
duties around the clock. Also, we still do not have the manpower to 
staff a Communications-Dispatch center that would require a staff of 7, 
or an Adult and Juvenile Detention Center, which would require a staff 
of 13. Since the Nez Perce Tribal Police Department provides normal and 
emergency services to both Indians and non-Indians citizens within the 
Reservation, the Administration's request for a $20 million increase 
for BIA Law Enforcement is badly needed. For these reasons, we strongly 
urge additional funds be provided to tribes, through the BIA, for law 
enforcement, to be used for personnel, equipment and basic detention 
services within the BIA's Special Programs and Pooled Overhead account.
Indian land consolidation program
    We support the $5 million increase, for a total of $10 million for 
fiscal year 2000, the Administration has requested through the Office 
of Special Trustee, for expansion of the BIA's Indian Land 
Consolidation Program. Currently, only three tribes are involved in the 
pilot program this year which was set up to help tribes consolidate 
fractionated interests in Indian trust lands. With an increase of $5 
million in fiscal year 2000, this will allow for more tribes to 
participate in this program to address the ever-increasing problem of 
trust land fractionation.
IHS cost increases
    We support the $174 million increase for fiscal year 2000 the 
Administration has requested for Indian Health Service over the fiscal 
year 1999 enacted level. The Administration's fiscal year 2000 request 
recognizes the yearly rising costs associated with Indian health 
facilities by targeting $34 million for population growth and pay-
related cost increases, and an additional $8.6 million for staffing at 
new facilities. Pay-related costs and population growth increase each 
year and yet, usually get overlooked in the funding process. Also, as 
tribal populations grow, the need for new facilities and people to 
staff those facilities increase as well.
Tribal priority allocations (TPA)
    We appreciate that the Administration continues to provide 
additional resources through the Tribal Priority Allocations account to 
assist tribal governments to address basic necessities and critical 
services within our communities. The President's fiscal year 2000 
budget proposes an increase of $17 million over the fiscal year 1999 
enacted level. While much of this proposed increase is for specific 
programs, rather than a general increase to base funding of all tribes, 
we support additional funds for TPA in fiscal year 2000.
In-lieu sites
    We also support the $250,000 requested by the BIA to implement the 
terms of the 1995 Memorandum of Agreement between the BIA and the Corps 
of Engineers for Columbia River fishing access sites built by the 
Corps. In that Memorandum, the Corps committed $250,000 annually for 
the costs of law enforcement, operation and maintenance, training and 
other maintenance needs.
ESA secretarial order
    The Nez Perce Tribe supports the $500,000, through the Fish and 
Wildlife Service, the Administration has requested for consultation 
with tribes as part of the Secretarial Order addressing the 
relationship of tribal treaty rights and the Endangered Species Act.
    Thank you for your consideration of the Nez Perce Tribe's 
appropriation requests for fiscal year 2000.
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) located in 
Portland, Oregon submits the following recommendations regarding the 
fiscal year 2000 Bureau of Indian Affairs and Indian Health Services 
Budgets and those agencies data-gathering efforts as they relate to 
child welfare and childrens mental health services. Our comments will 
focus on the following budget items and requests:
    1. Increase by $3.0 million ($15.9 million) the BIA fiscal year 
2000 Budget Request relating to the Indian Child Welfare Act under the 
Tribal Priority Allocations (TPA) budget category.
    2. Restore historic funding of Indian Child Welfare Act (ICWA), 
Title II off-reservation grant programs ($2.0 million) which was funded 
through fiscal year 1996 under the Special Projects and Pooled Overhead 
portion of the BIA budget, but is not identified in the 
Administration's request for fiscal year 2000.
    3. Require the BIA and IHS to provide more detailed information all 
programs that provide funding/services for children. This information 
is needed to accurately identify the need for these programs and how 
BIA and IHS budget requests respond to that need. The recommendations 
pertain to the tribal ICWA, Title II grant programs under TPA and the 
IHS Mental Health and Social Services and Contract Health Services 
budget categories (specific recommendations described below and in the 
conclusion section of testimony.)
                         organizational profile
     The National Indian Child Welfare Association is based in 
Portland, Oregon and provides a broad range of services including, (1) 
training and technical assistance for tribal and urban Indian child 
welfare professionals, (2) consultation on mental health and child fare 
program development, (3) by request, facilitation of child abuse and 
neglect community prevention activities and (4) analysis and 
dissemination of public policy information that impacts Indian children 
and families. NICWA does not receive any BIA or IHS funds. We have a 
strict policy that prohibits us from applying for or receiving any 
funds that would otherwise benefit tribal programs. Our constituents 
are tribal governments and urban Indian child welfare programs 
throughout the United States. Our organization works closely with the 
Affiliated Tribes of Northwest Indians and National Congress of 
American Indians as well as having members of the Indian Child Welfare 
Committees of both organizations. This will be our seventh year in 
providing both oral and written testimony to the Subcommittee.
                             measuring need
    Under TPA tribes are essentially provided a block grant from which 
they must fund a broad variety of services. Under this system, tribes 
must make decisions about which services they can fund and at what 
level. This often involves transferring funding from one financially 
strapped service to another, even though both services are overwhelmed 
by the human need they face. The BIA looks at this transfer as a 
measure of decreased need, which they use when developing their budget 
request. This provides only an artificial measurement of need. Using 
this method, Congress and the Administration will never know what the 
actual need for any program under TPA is and how well appropriated 
funds are doing in trying to meet that need.
    Data provided to Congress should accurately describe human need, 
not just budget priorities. Amazingly, the BIA has been allowed to 
provide only superficial data to justify budget requests. For example, 
it is virtually impossible to know how many clients receive child 
welfare services, what kind of services are provided, what the outcomes 
were from services provided and how need for child welfare services 
compares to the level of services being funded. One improvement made by 
the BIA is the inclusion of data in their justification regarding child 
abuse and neglect referrals from 1992-1996 and the impact of continued 
high rates of poverty and unemployment in Indian Country upon referrals 
for child abuse and neglect--increasing referrals (see page BIA-55). 
The caseload data on page BIA-56 is a potentially helpful addition, but 
the numbers only reflect the need that was met through the provision of 
services. The numbers provide no comparison to the actual or unmet need 
for these types of services. This explains why the caseload numbers for 
Child Welfare Assistance have remained the same for several years. The 
number by itself is virtually meaningless, unless you can compare it to 
the actual number of placements needed, not just those funded. The 
implication here is that the BIA is meeting all of the need, which 
could not be further from the truth, especially when you consider the 
information on page BIA-55.
    Another important factor in determining the need for child welfare 
funding is tribal access to other program services and funding. Of the 
top four federal sources of child welfare funding guaranteed to states 
under the Social Security Act (Title IV-B subparts 1 & 2, Title IV-E 
and Title XX) tribes only have guaranteed access to one, Title IV-B 
subpart 1 Child Welfare Services, and the amounts of funding available 
from this source for tribes are extremely limited (approximately $5.0 
million projected for fiscal year 2000). Tribes, unlike states, have no 
authority to access the full array of federal funds that are needed to 
provide comprehensive child welfare services.
    This situation, combined with dwindling state resources, lack of 
state expertise in serving Indian families and states' reluctance to 
enter into agreements for the provision of services in Indian 
communities based on financial and jurisdictional issues, has created a 
serious crisis for tribes in their efforts to protect their children 
and establish permanency and stability for those children who need 
help. It is worth noting that the BIA has developed a mistaken and 
sometimes cynical sense of what opportunities are available for tribes 
who are trying to piece together child welfare services. At a BIA 
meeting in early February, where the needs of tribes were being 
reviewed, it was suggested that the BIA also include in their analysis 
those programs that could benefit Indian children, but excluded tribes 
from eligibility. The response from Deborah Maddox, BIA Director of 
Tribal Services, was that tribes could form agreements with states to 
access these federal programs, but that many tribes did not want to. 
This is an absurd statement. Tribes across the country are interested 
in or actively pursuing these types of services agreements, but are 
often met with reluctance by state governments. For several years now, 
NICWA and other tribal advocates have attempted to get the BIA to work 
more closely with the Administration for Children and Families in an 
effort to get greater access to federal child welfare and stimulate 
tribal/state agreements, but the BIA continues to act as if there is 
nothing to be done. We think that more can and should be done by the 
BIA in this area.
                     tribal child welfare programs
    Our first observation is that the program description contained in 
the BIA budget justification for Indian Child Welfare Act services is 
misleading (see page BIA-53) in that it makes the program sound much 
more substantial than it really is. In reality, the funding from this 
program only allows the vast majority of tribes enough money to fund a 
social work position or two and the basics needed to keep an of rice 
running (utilities, phone, fax, office supplies). More comprehensive 
services that provide clothing and shelter are rarely provided with 
these funds. The primary purpose of the tribal grant program is to help 
tribes respond to child abuse and neglect referrals, strengthen 
families where child abuse or neglect is present and address the 
permanency needs of children who have been removed from their homes. We 
all wish the program were more extensive, but $13 million doesn't go 
very far for 558 tribes.
    Until fiscal year 1993 tribes had been forced to compete for child 
welfare funding from year to year. This competitive process was 
extremely disruptive and in most years only allowed approximately 50 
percent of the tribes nationwide to receive any child welfare funding. 
Improvements in the grant process and small increases to ICWA in 
previous years and greater access to Title IV-B funding have enhanced 
tribal access to child welfare funding, but there is still a need to 
continue efforts to make more funds available to address child abuse 
and neglect. Efforts should include a more careful and accurate 
analysis of the child welfare needs of tribes by the BIA for purposes 
of budgetary recommendation. This analysis should be based on more than 
just population figures and how tribes are able to prioritize their 
limited TPA funds. It should include data on types of services 
provided, how many children and families receive these services, number 
of out-of-home placements of Indian children, type of out-of-home 
placement, length of time in out-of-home care, and numbers of children 
who are able to secure permanence through reunification, guardianship, 
kinship/relative care or adoption.
    Other factors that deserve careful analysis include tribal access 
to other child welfare funding or services and the relative costs of 
providing basic child welfare services on tribal lands. This is 
meaningful data that can provide Congress with an accurate definition 
of need.
    The most recent research on risk assessment of child abuse for 
Indian children indicates that 34.4 percent of Indian children are at 
risk for abuse or neglect (1993 National Indian Justice Center Study on 
Indian child maltreatment funded by the Indian Health Service). Many 
other documented indicators of the need for these services are also 
highly visible in many Indian communities such as extreme poverty and 
high rates of substance abuse.
                 off-reservation icwa, title ii grants
    Off-reservation programs can provide a number of important services 
to both tribes, states, and individual Indian children and families. 
The ICWA does not make a distinction between who should benefit from 
the act and is designed to protect Indian children and families 
everywhere. Arguably, Indian children living outside of their tribal 
community are some of the most vulnerable Indian children to stressors 
that are linked to risk for abuse and neglect. These off-reservation 
programs, where they have been able to exist, can provide key linkages 
to tribes when their members become involved in state child welfare 
systems. All of which are designed to meet the purpose of the Indian 
Child Welfare Act. Some common services that these programs can provide 
include:
  --At the request of tribes, provide case advocacy or other services, 
        such as foster care, to tribal children who do not live on the 
        reservation and whose tribe may not even be in the state.
  --Act as a resource to state agencies, courts and private agencies by 
        providing training on how to provide more cost-effective 
        services.
  --Recruiting and licensing Indian foster and adoptive families, an 
        activity that states often do not have resources for and are 
        not successful at.
    Off-reservation programs have suffered from the instability of 
inadequate funds and a competitive grants process. Historically, 
funding levels for off-reservation ICWA programs have been between $1.5 
to $2.0 million. This has enabled the BIA to minimally fund about 40 
programs a year which serve 65 percent of the Indian population that 
live primarily in urban settings. These programs have also tried to 
access private foundation funding and state contracts to supplement 
their ICWA grants. However, these funds have been increasingly 
difficult to secure, especially in light of increased competition for 
these resources due to reductions in state and federal funding.
    We also know that many of these children may be served by state 
child welfare agencies at some point. Because of the small number of 
off-reservation ICWA programs operating in the United States, many of 
these children in urban areas are at great risk for not receiving 
needed services or protections. This seems especially relevant when you 
consider the budgetary problems that states are experiencing that 
result in minimal resources for staff training and services in general.
                         mental health services
    One of the best assessments of the current status of mental health 
services for Indian children is contained in a report that NICWA 
published in 1996 entitled, ``American Indian Children's Mental Health 
Services: An Assessment of Tribal Access to Children's Mental Health 
Funding and a Review of Tribal Mental Health Programs.'' We have 
provided a complimentary copy for the committee to review. The report 
details issues affecting access to mental health services, current 
funding sources, an original survey of tribal mental health providers, 
profiles of four tribal mental health service systems, barriers to 
access of mental health services and compilation of recommendations for 
improving access to services.
    Three issues we believe are of great importance to the committee's 
consideration of our request are (1) IHS system of mental health 
service delivery is primarily geared to adults (see statistics on page 
4 and 15-17 of the report and IHS-45), (2) it is difficult, if not 
impossible, to identify how much of the IHS funding under the Mental 
Health and Social Services and Contract Health Services budget 
categories go to mental health service, particularly mental health 
services to children and (3) IHS admits in their own budget request 
that they are not able to meet the current need with available 
resources (see page IHS-45). Our best sense, based on findings in our 
report, is that children receive few mental health services funded by 
IHS. We therefore recommend that the committee require IHS to provide 
data detailing the level of funding from Mental Health and Social
    Services and Contract Health Services that supports mental health 
services for Indian children.
                               conclusion
    Tribal child welfare programs are a valuable resource shown to be 
extremely effective in protecting Indian children and strengthening 
Indian families. A study in 1988 commissioned by the Department of 
Health and Human Services and Department of Interior entitled, ``Indian 
Child Welfare: A Status Report,'' revealed that tribal programs 
outperformed the BIA and state child welfare programs, notwithstanding 
the limited funding available to tribes. Specifically, Indian children 
in substitute care had shorter stays in foster care and higher rates of 
permanency when served by tribal programs. In 1994 the Office of 
Inspector General issued a report entitled, ``Opportunities for ACE to 
Improve Child Welfare Services and Protection for Native American 
Children,'' which clearly showed that most states were either not 
willing or able to share federal funds for child welfare services with 
tribes. This clearly demonstrates that tribes, when provided 
opportunity, are able providers of child welfare services, while 
currently not being able to depend on state funding sources or 
services.
    We must also take into consideration other factors which impact the 
ability of tribes and off-reservation programs to protect their 
children and give them a sense of permanence. Because of welfare reform 
and recent child welfare reform, states have additional pressures to 
target their resources carefully. This will most likely mean that 
states' historic reluctance to provide services on tribal lands will 
continue and possibly get worse. If tribes are not given the adequate 
resources, then Indian children will likely continue to be the most 
unprotected class of children in this country with the least access to 
services that help provide permanency.
    The National Indian Child Welfare Association requests that the 
subcommittee recommend the requests we have made in our testimony. They 
are as follows:
  --Increase by $3.0 million ($15.9 million) the BIA fiscal year 2000 
        Budget Request relating to Indian Child Welfare Act by under 
        the Tribal Priority Allocations (TPA) budget category.
  --Restore historic funding of Indian Child Welfare Act (ICWA), Title 
        II Off-Reservation grant programs ($2.0 Million) which was 
        funded through fiscal year 1996 under the Special Projects and 
        Pooled Overhead portion of the BIA budget, but is not 
        identified in the Administration's request for fiscal year 
        2000.
  --Require the BIA to provide adequate child welfare data to Congress. 
        Some examples of this data are types of services provided, how 
        many children and families received these services, number of 
        out-of-home placements of Indian children, type of out-of-home 
        placement, length of time in out-of-home care and number of 
        children who are able to secure permanence through family 
        reunification, guardianship, relative/kinship care or adoption.
  --Require the IHS to provide data detailing the level of funding from 
        Mental Health and Social Services and Contract Health Services 
        budget categories that supports mental health services for 
        Indian children.
    Please consider these requests carefully and help tribal 
governments and off-reservation ICWA programs continue to offer proven, 
effective programs for Indian children and families.
                                 ______
                                 
Prepared Statement of Kenneth C. Hansen, Chairman, Samish Indian Tribe 
                          of Washington State
    On behalf of the members of the Samish Indian Nation I would like 
to first thank the committee for the opportunity to submit written 
testimony. This request is directed at two programs under the 
jurisdiction of the Department of Interior Bureau of Indian Affairs. 
The Samish Indian Nation requests the Congress to legislatively re-
establish all of the Samish Treaty Rights, which will be at no cost to 
the government. Secondly, the Samish Indian Nation hereby requests that 
money be appropriated for the purchase and establishment of a land base 
sufficient for the wants and needs of the Samish people, with 
authorization to take such land into trust status as a reservation. The 
cost of this land acquisition could vary but would not exceed ten 
million dollars. As chairman of the Samish Indian Nation I am 
submitting this testimony to you without the assistance of any 
Washington DC based legal or lobbying firm. The fact that we have no 
resources to pay for those professional services does not negate the 
seriousness of our requests. We are concerned that we have no one to 
knock on your doors and focus attention to our needs. It is my sincere 
hope that you, as members of Congress, will elevate our request and 
give it the attention that it so rightly deserves.
    Samish is in the worst of all possible worlds. We won a decision in 
the courts on re-recognition. With recognition should come our original 
treaty rights, and the reservation promised in that treaty. However, we 
have been unsuccessful in getting the legal assistance to pursue re-
instatement of treaty rights. We have no land, no treaty rights. 
Housing and Urban Development funding is based on past housing, which 
we do not have. The Public Law 93-638 contracting moratorium was 
passed, just as Samish was beginning the contracting process, which has 
put the Tribe another year behind other tribes in program and economic 
development. When you are already 30 years behind, additional delays 
are unconscionable.
    Let me tell you the story of the small administrative error that 
created 30 years of untold hardship and grief for members of the Samish 
Indian Nation. The error was the inadvertent omission of the Samish 
Indian Tribe from the list of Federally recognized tribes prepared by 
the Bureau of Indian Affairs in 1969, in spite of the fact that Samish 
was on the draft list first prepared in 1966. No one was able to 
explain, legally or otherwise, how or why it happened. It took 26 years 
of struggle to expose the truth.
                             treaty rights
    The home territory of the Samish Indian Nation, since the beginning 
of time, is an area approximately 70 miles north/northwest of the city 
of Seattle in an area that is now referred to as the San Juan Islands. 
We are members of the Coast Salish Language group, as are the 
neighboring tribes. Further, like our neighboring tribes, we were party 
to the Treaty of Point Elliott which was negotiated in 1855 and 
ratified by the Senate in 1859 (12 Stat. 927). In 1931 the U.S. Court 
of Claims held in the Duwamish et al Indians v. U.S. that the Samish 
were a party to the Treaty of Point Elliott, as did the Indian Claims 
Commission in Docket 261 that the Samish Tribe were the successors in 
interest to the treaty signing Samish.
    These two judicial entities had no apparent legal difficulty in 
recognizing Samish's lawful claim to exercise its Treaty rights. 
Although the tribe was never given their reservation land base, it was 
promised under the treaty of Point Elliott, we were none the less 
afforded the opportunity to exercise our treaty rights on the same 
basis as neighboring tribes. Many of our members held BIA issued ``Blue 
Cards'', which allowed them to exercise their hunting and fishing 
rights without a license from the State of Washington.
    As Department of the Interior administrative law judge David 
Torbett held in 1994, and later reaffirmed by federal district court 
Judge Thomas Zilly in 1995, that the Samish have always been a 
federally recognized tribe and appeared on the list of federally 
recognized tribes prepared by the BIA in 1966. As Bureau employees 
later testified, they had no idea how the Samish ``fell off'' the list 
of recognized tribes when it was published in 1969.
    In 1974 we intervened in U.S. v. Washington, the Boldt fishing 
rights case. This was litigation aimed at determining who should be 
able to exercise treaty rights. The federal government opposed our 
intervention because they said we were not a recognized tribe. This 
determination was not made based on published standards, federal 
witnesses later testified that it was a seat-of-the-pants decision made 
on a personal level. In 1979, by the then aging and ill Judge Boldt 
signed proposed findings of fact submitted by the Justice Department, 
without any changes or alterations, and held that the Samish as a non-
recognized tribe were not eligible to exercise their treaty rights. In 
1981 the Ninth Circuit Court of Appeals in San Francisco overturned 
Judge Boldt's decision, but then substituted their own six-point 
criteria to determine if a tribe was eligible to exercise its treaty 
rights. The factual record on appeal was not fully developed to address 
these new criteria. Rather than remand the case to the lower federal 
court to develop new evidence, the Ninth Circuit applied the new 
criteria to the old evidence and held that Samish was not eligible to 
exercise our treaty rights.
    The U.S. Supreme Court denied certiorari only when the U.S. 
Solicitor General, Rex Lee, promised that if the Samish Tribe were 
successful in obtaining political recognition then the United States 
would have to take a new look at the case. The time for that new look 
is now. By satisfying the standards for recognition the Samish Indian 
Nation has necessarily satisfied the criteria for exercise of treaty 
rights.
    We are requesting that the Congress either include language in the 
Interior Appropriation legislation to either:
    1. Restore our full treaty status and all treaty rights under the 
Treaty of Point Elliott. This is our preference. This option would save 
the cost of endless years of litigation and appeals.
    2. Request the Bureau of Indian Affairs and Department of Justice 
to immediately file in federal district court to reopen the Samish 
portion of the proceedings of U.S. v. Washington.
                            land acquisition
    This is a very simple issue, with a very simple solution. Samish 
was promised a reservation under the Treaty of Point Elliott, and no 
such reservation was ever created. Without a land base our people have 
been forced to relocate further and further away from the heartland of 
Samish territory. We are seeking from Congress fiscal year 2000 
appropriations language that includes up to ten million dollars for the 
acquisition of lands for residential, cultural and, economic 
development purposes within the land acquisition boundaries as set 
forth by resolution number 99-01-07, passed by the Samish Indian Nation 
Tribal Council on January 18, 1999. And we further request that the 
Secretary of the Interior be authorized to take such land immediately 
into trust as a reservation for the Tribe.
    We request that the Congress direct the Department of the Interior 
to immediately commence working with the Samish Indian Nation to create 
a homeland sufficient for the social, educational, cultural and 
economic needs of the Samish people. This can be accomplished through 
land purchases, land trades with state, other federal and private 
individuals.
    The Samish Indian Nation is dedicated to learning from the mistakes 
that other tribes have historically made in creating their tribal 
communities. This is a once in a millennium opportunity for this tribe, 
to do it right from the very beginning; to create an attractive 
community that will seek to bring back members of the Samish Indian 
Nation from all walks of life, from all educational backgrounds, and 
from all income levels. The Tribe is committed to creating a healthy 
community from the very beginning. With a land base that will allow the 
creation of a healthy and balanced community the Tribe can prevent the 
replication of avoidable mistakes.
                               conclusion
    The two requests that we have made in this testimony are simple, 
clear, and concise. The Samish Indian Nation is morally, legally, and 
equitably entitled to these requests. They are not complicated. They 
represent the initial two priorities that the Samish Indian Nation has 
to regain our full tribal status. We did not create this situation that 
we find ourselves in, but we have always responded to it with great 
dignity and truth. Unfortunately most of the time we were never given 
the same courtesy by the staff of the Department of the Interior or the 
Bureau of Indian Affairs. The federal government's conduct even 
resulted in their Solicitor, Mr. Scott Keep, being held in contempt by 
Judge Thomas Zilly. We are simply asking congress to step up to the 
plate and work with us while we attempt to heal our people and our 
Tribe from what was simply an administrative error. Thank you for your 
attention to these requests and if you have any questions or require 
additional information please contact me through the tribal offices at 
360-293-6404.
                                 ______
                                 
 Prepared Statement of Victor R. Preston, Chairman, Susanville Indian 
                               Rancheria
    We appreciate the opportunity to express our concerns concerning 
the fiscal year 2000 President's Budget Request for the Indian Health 
Service and the Bureau of Indian Affairs. The Susanville Indian 
Rancheria (SIR) provides health care to more than 2,000 Native American 
beneficiaries located in Lassen County in Northern California. Since 
1986, when the SIR first began contracting with the Indian Health 
Service (IHS) and the Bureau of Indian Affairs (BIA), we have 
continuously improved the quality, quantity, and scope of health care 
services and other services to eligible Native Americans located in our 
service area. The increasing levels of all services that we have been 
able to provide are directly related to the amount of resources which 
Congress makes available both to the IHS and the BIA.
    The SIR's aim is self-sufficiency and independence while promoting 
cooperation and collaboration with other Tribes, organizations, local, 
state, and Federal sectors of the larger society. Moreover, there is 
the expressed determination to preserve what is possible of a precious 
heritage and cultural identity. The SIR has contracted for over 
thirteen years under the Indian Self-Determination and Education 
Assistance Act, P. L. 93-638 with both the IHS and the BIA.
    Two historic events between the U. S. Army and the SIR were 
commemorated during a ceremony on July 30, 1997. The first event was 
the transfer of Army property to the SIR which occurred as a result of 
the 1995 Base Realignment and Closure process (BRAC). The second event 
was the four-way partnership created between the Madigan Army Medical 
Center, the Sierra Army Depot in Herlong, California, the SIR, and the 
local government. This partnership allows the SIR to provide health 
care services not only to the SIR population but to active and retired 
military personnel and the local population who reside in this remote 
area of Lassen County. This was the first such agreement in the Nation 
and the SIR was the first tribe ever to have Army property transferred 
under the BRAC process.
    A major achievement of the transfer of some of the facilities at 
the Sierra Army Depot to the SIR was the establishment of a Youth 
Regional Treatment Center (YRTC). Since the original enactment of the 
Indian Alcohol and Drug Abuse Prevention and Treatment Act of 1986, the 
California Plan was developed by the Tribes who have been waiting and 
working toward the establishment of such facilities. With the transfer 
of the facilities from the Department of the Army, we are on the verge 
of finally realizing these efforts for the Indian population of 
California. Since fiscal year 1993, Congress has appropriated $17.4 
million for the construction of YRTCs in other areas and the SIRs 
acquisition of the facilities does not require construction funds. When 
finally developed and staffed, the YRTC will house and treat 30-50 
Native American youths between the ages of 12--18 during their 
respective cycles of at least 120 days. These youth will be referred 
from other participating tribes in California through a state-wide 
clinical referral team. To accomplish this effort, the SIR received 
over 50 Tribal resolutions and letters of support from throughout 
California. The YRTC will be the only family-oriented residential 
facility in California and possibly the IHS. This will provide for on-
site direct involvement of the family in the treatment process. By all 
accounts, family-oriented residential treatment is the most effective 
approach in the treatment of substance abuse.
    While we are aware of and understand the President's concerns 
relating to the new initiatives he is proposing for the Native 
Americans, we find it hard to comprehend the reduction of current 
health services to our people to fund these initiatives. By not 
providing for the mandatory costs increases (inflation), the current 
level of inadequate services will result in cuts to direct services. 
The Indian Health Service is the primary source of health care to our 
people whether directly or by contracting with Tribal Organizations. As 
a Tribal Contractor in a rural and somewhat isolated part of the 
country, we are constantly straining to meet the needs of our people 
against the ever-shrinking resources available. It is important and 
necessary to at least maintain the current level of services that is 
provided to Native Americans, plus inflation.
    This is especially true in the state of California. The recently 
completed Health Report from the Congressionally mandated California 
Indian Policy Commission finds a global funding shortfall of $56 
million for health services in California. Another study funded by the 
Administration for Native Americans finds that California has the 
lowest adjusted per capita expenditure within the entire IHS. In 
addition, an IHS conducted Health Services Inventory conducted in 1993 
reported that California had a ``Mean Level of Needs (services) being 
met'' of 31 percent compared to the IHS average of 58 percent.
    With this, other studies, and reports in mind, we believe that 
there is a greater need to maintain current services and combat the 
effects of alcoholism, mental health, unemployment, diabetes, drug 
abuse, suicide, and violence that are epidemic among Native Americans. 
New initiatives are needed but not at the expense of existing programs.
    As Congress begins the appropriations process for fiscal year 2000, 
the SIR aggressively seeks support from the Subcommittee in reversing 
the decline in funding for the Native American programs that we have 
experienced since fiscal year 1996. In general, we believe that the 
President's fiscal year 2000 budget has taken a positive step in that 
direction in some areas. We are concerned, however, that even the 
Administration's request for certain essential tribal programs and 
services provided through the BIA and the IHS remain seriously 
inadequate. Accordingly, tribal budgets are insufficient to meet the 
most basic needs of tribal populations.
    With this in mind, we would propose that the Subcommittee take the 
following actions regarding the IHS and BIA fiscal year 2000 Budget 
Requests as outlined in priority order on the attached pages.
           susanville indian rancheria--indian health service
    1. We propose an increase of $52.2 million for mandatory cost 
increases (inflation).--The subcommittee needs to provide the 
inflationary cost increase required to maintain the fiscal year 1999 
level of services. Currently, the Indian Health Service per capita 
health care expenditure is approximately one third that of the U. S. 
civilian resident. To further erode this by not providing for inflation 
does not reflect the Federal government's responsibility to promote the 
health of the American Indian and Alaska Native people, communities, 
and culture by providing quality curative and preventive medical care. 
In some cases, the IHS is the only source of care available in remote 
locales. The Tribes as well as the IHS have continually lagged behind 
the health care inflation rates for a number of years and have seen the 
level of services decrease because of this fact. Because of the 
remoteness of Indian clinics the cost of services becomes an increasing 
burden on Tribal leadership as resources are being taxed to the limit. 
The rate of inflation is exceeding the resources available to IHS and 
Tribal contractors and, therefore, services have to be reduced.
    If, as the President has stated in the past, IHS is the only source 
of medical care available on remote reservation lands, does he expect 
the continuation of the same level of services as the previous year 
while planning to propose new program initiatives? By not providing for 
mandatory cost increases it will continue to erode the available 
resources available for the delivery of health services. The effect is 
twofold in that qualified medical personnel will not continue to work 
nor can be hired for salaries that are below those of their 
counterparts in the private sector and, in order to pay for the raises, 
resources used for health care are diverted from providing services and 
a reduction of the level of services being provided is the end result.
    Tribal contractors benefit from this increase because IHS provides 
some of the resources to them and that enables them to provide pay 
raises and to better hire qualified medical personnel. Remote 
locations, the lack of proper medical equipment, and the lack of 
personnel are problems faced daily by Native American health care 
providers. To continue this trend is to further erode the health status 
of these people.
    We, therefore, request that the subcommittee provide the resources 
required for the mandatory cost increase--$52.2 million.
    2. We propose the restoration of the $5 million reduction in 
community health representatives (CHR).--The CHR program is a vital 
link to the delivery of health services for the Susanville Indian 
Rancheria. We are located in a isolated, rural community with a lack of 
adequate roads and health care services. The CHR program provides us 
the opportunity to reach out to our Tribal members on a one-on-one 
basis and provide not only transportation services but nutrition, food 
delivery, well-baby care, etc.. We understand that some Tribal 
Officials believe that this program may not be vital to them and, if 
reductions are required this is the program to be reduced. These 
officials are not located in locations such as the SIR and other 
organizations and have determined it is not a priority. But it is a 
priority for Tribal organizations such as ours.
    We, therefore, request that the $5 million reduction be restored 
for the Community Health Representatives program.
    3. We propose an increase of $21 million for the youth regional 
treatment centers (YRTC).--One of the major causes of health care 
problems among the Native American population is alcoholism and 
substance abuse especially among the youths of the reservations. To 
combat this issue, the IHS and Tribes have been hard at work 
establishing Youth Regional Treatment Centers (YRTC). When first 
conceived, as a result of the Indian Alcohol and Drug Abuse Prevention 
and Treatment Act in 1986, the projected cost for operating these 
facilities was $22 million per year. The IHS base program contains 
approximately $11 million. All Tribes and the IHS involved in these 
facilities realize that, to fully function, there needs to be 
appropriated an additional $21 million due to the various levels of 
services being provided at each facility. If these facilities are to 
make a difference and provide the Native American youth of today with 
the ability to live to be an adult, such an increase would ensure a 
long and productive life.
    We, therefore, request a program increase of $21 million for 
operational costs be provide for the Youth Regional Treatment Centers.
    4. We support the proposed increase of $35 million for contract 
support costs.--Total funding requirements for Contract Support Costs 
for fiscal year 2000 is $309 million of which there is available $203.7 
million. This leaves a shortfall of $105 million. The Self-
Determination process is being delayed due the constraints on the funds 
available.
    In fiscal year 1997, concern was expressed that the IHS depiction 
of the shortfall would be misunderstood as resulting from unwarranted 
indirect cost escalation. It does appear that the Appropriations 
Committee has also misunderstood this issue. The Committee struck the 
request for shortfall, and concerned with the rapid increase in 
contract support costs, directed the IHS to work with Tribes, the BIA, 
the IHS, and the Office of the Inspector General (IG) of the Department 
of the Interior to see what could be done to contain costs. The IG 
issued a preliminary report that found the increases were not due to 
unwarranted indirect cost escalation, but were mainly due to increased 
compacting and contracting activity among the Tribes. It is essential 
that tribes waiting to compact or contract be given some hope of 
receiving the funding needed to make Self-Determination hopes a 
reality. There is also a possibility that recent court decisions and 
continuing unmet needs might result in the retrocession of compacts and 
contracts back to the IHS which would create an even bigger problem for 
the Committee in the future.
    We, therefore, request that an increase of $35 million be provided 
for the Indian Self-Determination Fund.
    The President's budget provides for an increase of $155.6 million 
over the fiscal year 1999 enacted level. While we support the increases 
proposed we would like to note that they do not restore certain 
programs such as the Tribal Priority Allocation (TPA). The small 
increases to TPA over the last several years have failed to keep up 
with inflation.
    The major concern we have is that the California Tribes be treated 
on an equitable basis when distribution of funds and these increases, 
if appropriated, are made by the BIA.
    We, therefore, request that the proposed budget for the BIA be 
appropriated as presented. We also request that special set-aside funds 
for individual Tribes be carefully scrutinized and funded only in cases 
of dire emergencies.
                                 ______
                                 
  Prepared Statement of David M. Gipp, President; and Charles Murphy, 
        Board President and Chairman, Standing Rock Sioux Tribe
          united tribes technical college: making a difference
    For thirty years United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from the Great Plains and throughout the 
nation. An inter-tribally controlled educational institution,\1\ UTTC 
was assisting Indian people in moving from public assistance to 
economic self-sufficiency long before the 1996 welfare reform act. Our 
job placement rate in 1997 was 96 percent. The request of the Board of 
the United Tribes Technical College Board for the fiscal year 2000 
Bureau of Indian Affairs budget is:
---------------------------------------------------------------------------
    \1\ The college is owned and operated by five federally-recognized 
tribes situated wholly or in part in North Dakota. These Tribes are the 
Spirit Lake Sioux Tribe, the Sisseton-Wahpeton Sioux Tribe, the 
Standing Rock Sioux Tribe, the Three Affiliated Tribes of the Fort 
Berthold Reservation, and the Turtle Mountain Band of Chippewa. Control 
of the institution is vested in a ten-member board of directors 
comprised of elected Tribal Chairpersons and Tribal council members.
---------------------------------------------------------------------------
  --$2,538,000 in BIA funds for UTTC, which is $157,000 over the 
        Administration's request. It is also the same as the fiscal 
        year 1998 Senate mark.
  --Increased BIA funding for contract support costs. We annually 
        absorb approximately $100,000 in contract support costs.
  -- Additionally, we ask Congress to encourage the BIA to place more 
        emphasis on job training and vocational/technical education. 
        The Adult Vocational Training program, funded at $9.9 million 
        in fiscal year 1999, is but a shadow of its former self. There 
        is no BIA leadership or advocacy for job training or 
        vocational/technical education at the central or area levels. 
        United Tribes Technical College, whose budget is located in the 
        ``Special Programs and Pooled Overhead/Community Development'' 
        portion of the BIA budget suffers from at best a lack of 
        interest from persons who work with that portion of the 
        budget.who primarily work on BIA-administered accounts. Other 
        tribally-based colleges are in the ``Other Recurring/
        Education'' portion of the budget.
    United Tribes Technical College.--A Unique Inter-Tribal Educational 
Organization. United Tribes Technical College is the only inter-
tribally controlled, campus-based, postsecondary vocational institution 
for Indian people. We are chartered by the five tribes in North Dakota 
and operate under an Indian Self-Determination contract with the BIA. 
We currently enroll 310 students from 36 tribes and 17 states. In 
addition, we serve 115 children in our pre-school programs and 128 
children in our elementary school, bringing the population for whom we 
provide direct services to 593. In some years our students come from as 
many as 45 tribes.
    Occasionally people assume that UTTC is funded under the 
authorization for the other tribally controlled postsecondary 
institutions--the Tribally Controlled Community Colleges Act (TCC). We 
do not receive funding through the TCC Act, an Act which authorizes 
funding for only one tribal college per tribe. In North Dakota, each 
tribe has chartered a tribal college under the authority of the TCC 
Act. Additionally, the tribes in North Dakota jointly administer United 
Tribes Technical College which, in turn, serves Indian students from 
all over the nation.
    UTTC was incorporated in 1968, long before most of today's tribal 
colleges were established. However, we have much in common with the 
other tribally-controlled colleges and are an active part of the 
American Indian Higher Education Consortium (AIHEC). What distinguishes 
us from the other tribally-controlled colleges is that we are chartered 
and controlled jointly by multiple numbers of tribes and that our 
primary focus is postsecondary vocational education. Additionally, our 
campus-based family housing is unique.
    Educating Students and Placing Them in Jobs.--We are proud of the 
education, skills and services provided by UTTC for our students and 
their families over the past thirty years. And we are proud that this 
education is taking placing in a tribal setting, where our students and 
their families can maintain and strengthen their tribal heritage. We 
have had a job placement rate exceeding 80 percent sustained over the 
last 10 years, and in 1997 had a job placement rate of 96 percent. This 
success is all the more gratifying in light of the background of our 
students, most of whom come from tribal areas where poverty and 
unemployment are the norm. A large proportion of our students are from 
the fourteen tribes in the Dakotas, where unemployment among Indian 
people is chronic. BIA Labor Force data reports the percentage of 
potential Indian labor force on and near reservations in the Aberdeen 
Area (North Dakota, South Dakota, Nebraska) who are jobless is 71 
percent. Of those persons who are employed salaries are so low that 33 
percent are living below the poverty guidelines. (Source: Interior 
Department 1997 Labor Market Information On the Indian Labor Force.)
    UTTC Course Offerings and Coordination with Other Educational 
Institutions.--UTTC offers 8 Certificate and 13 Associate of Applied 
Science degree programs.\2\ Entrepreneurship and new technology skills 
are being integrated into appropriate curricula. Recently we expanded 
our business program. And our newest program is a two-year degree 
program in injury prevention which was established in September of 
1998. We are the first tribal college to have this course of study. The 
course trains students for injury prevention specialist jobs, and to 
try to change the culture of injury in Indian country. The program 
offers classes including Introduction to Injury Prevention, Prevention 
of Traffic-Related Injuries, and Prevention of Injuries Due to 
Violence.
---------------------------------------------------------------------------
    \2\ One-year certificates are: Office Technology; Automotive 
Service Technician; Construction Trades Technology with options in 
Carpentry, Electrical, Plumbing, and Welding; Early Childhood 
Education; Criminal Justice; Hospitality Management: Food & Beverage 
Specialization; Medical Secretary.; and Welding Technician.
    Two-year Associate of Applied Science (A.A.S.) degrees are offered: 
Arts/Marketing; Automotive Service Technology; Construction Trades 
Technology with options in Carpentry, Electrical, Plumbing and Welding; 
Criminal Justice; Early Childhood Education; Health Information 
Technology; Hospitality Management: Food & Beverage Specialization; 
Office Technology with emphasis in computer applications or accounting; 
Practical Nursing; Small Business Management; Welding Technology; 
Dietetic Technician, and Injury Prevention.
---------------------------------------------------------------------------
    The death rate among Indian injuries is 2.8 times that of the total 
U.S. population (Source: Indian Health Service fiscal year 1999 Budget 
Justification book). Reducing the incidence of injuries in Indian 
country is an area of focus for both the IHS and the Surgeon General. 
We received assistance through the IHS to establish our Injury 
Prevention Curricula.
    All programs are accredited through the North Central Association 
of Colleges and Schools at both the certificate and two-year degree 
granting levels. During the last re-accreditation process (1996), the 
NCACS authorized UTTC to begin developing curricula for four-year 
degrees.
    UTTC has transfer and articulation agreements with other colleges 
so our graduates can transfer to four-year schools from areas including 
Licensed Practical Nursing, Criminal Justice, Business and 
Entrepreneurship and Health Instruction. We have been a member of the 
Interactive Video Network of North Dakota's colleges, universities and 
tribal colleges since 1994. This is expanding the educational 
opportunities for our students.
    Job Training and Economic Development.--UTTC is a designated Indian 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Job Training Partnership Act program and 
an internship program with private employers. And, thanks to a grant 
from the Kellogg Foundation, we are assisting tribes and tribal members 
in the Aberdeen Area with rebuilding buffalo herds.
    Coordination with State Welfare-to-Work Efforts.--UTTC is working 
in cooperation with the state of North Dakota on welfare reform. We are 
serving state-referred Temporary Assistance for Need Families (TANF) 
recipients who are able to participate in our Cooperative Education 
internship program with private employers. By attending UTTC, these 
TANF recipients can meet their work, training and volunteer 
requirements. And we are providing child care for 60 children of state-
referred TANF recipients.
    We take exception to the 12-month statutory limit on the length of 
time a TANF recipient can be enrolled in a vocational education course 
and still be eligible for TANF. This limits TANF recipients to taking 
one-year certificate courses at UTTC. Our experience shows that the 
students who graduate from a two-year, rather than a one-year, course 
have significantly higher earning power. Many of our students come to 
UTTC planning to take a one-year course, and then, finding themselves 
in a supportive environment and seeing the economic benefit of the 
longer course, decide to work for the two-year degree.
    Serving Families Contributes to Education and Job Placement.--We 
believe that a primary reason for UTTC student success is that we serve 
the students' social, academic and cultural needs. Many of our students 
are the first generation in their family to attend college and for many 
it is their first experience in living away from home. Many students 
are on public assistance and many have families of their own. Some of 
our services are:
  --Early childhood services for 155 children, ages birth to five years 
        and an additional 41 elementary children for extended care.
  --The Theodore Jamerson Elementary School (grades K-8) serving 128 
        Indian students;
  --A health clinic whose services includes immunization, health 
        education, eye and dental exams, and referrals to other health 
        care providers;
  --Family housing and dormitories for solo parents and for students 
        without children;
  --A local transportation system for students for school activities 
        and necessary appointment e.g., (doctor appointments) outside 
        the campus. Most UTTC students do not have cars.
    UTTC Seeks Non-BIA Funds.--UTTC is aggressive in seeking non-BIA 
funding for special needs. For example ,we combined Department of 
Agriculture, Economic Development Administration and state Community 
Development Block Grant funds and replaced our aging water, sewer and 
gas systems in 1997.
    Our elementary school received a competitive Department of 
Education grant for computer technology, and was one five BIA-system 
schools to receive this funding. We also received a Kellogg Foundation 
grant to develop buffalo management skills for the tribes and their 
members throughout the Aberdeen Area, as they attempt to rebuild herds 
of buffalo decimated more than 100 years ago.
    The above mentioned grants are highly competitive, restrictive, 
one-time grants, and they cannot provide for day-to-day operations. We 
cannot survive without the basic operating funds which come through the 
Bureau of Indian Affairs.
    UTTC Funding History and Current Needs.--BIA funding has not come 
close to meeting our cost-of-living and other needs. From fiscal year 
1990 through fiscal year 1999, BIA funding for UTTC increased on the 
average 3.9 percent annually (from $1,708,000 in fiscal year 1990 to 
$2,310,000 in fiscal year 1999).
    The operating and purchasing strength of our budget has diminished 
by some 20 percent since 1990. Utility costs are especially difficult. 
Electricity expenses have risen about 20 percent per unit and the per 
unit gas costs have increases approximately 113 percent during this 
decade. We have been able to partially offset utility rate increases by 
implementing stringent conservation measures such as improved 
weatherization and reductions in building temperatures. However, energy 
consumption cannot be further reduced because of our location and the 
harsh winters in the northern plains.
    While we are not proposing a large increase in BIA funding for 
UTTC, below are some of our financial needs of which we want you to be 
aware:
  --Housing.--We need new and rehabilitated campus housing so that we 
        can increase student enrollment. We have an ongoing waiting 
        list for enrollment, which currently stands at 200. The primary 
        reason for not admitting a potential student is lack of 
        housing.
  --Salaries.--We were able to provide a cost-of-living increase for 
        our employees last year However, our faculty still receive 
        salaries that are lower than in any state college system. North 
        Dakota salaries for higher education faculty are the lowest in 
        the nation--but the average faculty salaries at UTTC are even 
        lower than those in the North Dakota state system.\3\
---------------------------------------------------------------------------
    \3\ Source: Integrated Postsecondary Education Data Systems (IPEDS) 
Report of the U.S. Bureau of the Census and the Department of Education 
Office of Education Statistics.
---------------------------------------------------------------------------
  --Maintenance and Repair of Historic Buildings.--Lack of available 
        resources has also meant a limitation on the repair and 
        maintenance of physical facilities, many of which are of 
        historic significance. The College occupies the old Fort 
        Lincoln Army Post, and many people visit our campus to see 
        these buildings. Other than the more recently constructed 
        skills center and the community center, UTTC's core facilities 
        are 90 years old. Estimates for new facilities total over $12 
        million, according to a 1993 U.S. Department of Education 
        report to Congress. Continuing a course of nonrepair will 
        ultimately prove more costly as the repairs will be greater. 
        Fire and safety reports document our repair needs.
  --Emergency Repair.--Emergency repair on both single and family 
        student housing, instructional facilities and support 
        facilities exceeds $100,000. This amount will obviously not 
        cover major renovations or new facilities. Funding is also 
        needed for maintenance and repair related to damaged caused by 
        inclement weather including blizzards and extremely low 
        temperatures.
    Neither UTTC nor other tribal colleges receive funding through the 
BIA for maintenance and repair nor for construction. We believe that 
this situation should be corrected. A good starting point would be to 
make some maintenance and repair funding available to the tribal 
colleges.
  --Contract Support Costs.--The fixed and related costs approved under 
        our annual Indirect Cost proposal to the U.S. Inspector General 
        have decreased in recovery by over $100,000 annually, with 
        another expected loss of $110,000 for fiscal year 1998 and at 
        least that much in fiscal year 1999. We are in dire need of 
        adequate recovery for this year, as well as prior years. In 
        fact, we have an unrecovered contract support cost of 
        $1,089,000 over the past ten years. UTTC's absorption of these 
        built-in costs has damaged our capability to provide program 
        services to our students and faculty.
  --Technology.--We need funding for updating our computers and 
        hardware to maintain and our capabilities for distance learning 
        programs for our campus-based students and students at other 
        locations. We have been working with the Denver Indian Center 
        to provide UTTC classes, via distance learning. to the Indian 
        population in the Denver area. Thus far we have three classes 
        on-line and are expecting to begin operations soon.
  --Course Offerings/Student Services.--We would like to change some of 
        our courses to better meet new market demands. For example, we 
        want to expand the allied health professions. We also need to 
        expand our diagnostic capabilities in tribal-specific areas and 
        also in the areas of literacy and math-science background. This 
        would allow us to improve student remediation services. 
        Finally, we want to make improvements in our student follow up, 
        career development, and job market research efforts.
    Thank you for your consideration of our request. We need your 
assistance to ensure that the unique educational opportunities offered 
by United Tribes Technical College will be available for what we hope 
will be an increasing number of Indian and Alaska Native students and 
their families next year and in the future.
                                 ______
                                 
   Prepared Statement of Hon. Robert Guenthardt, Tribal Ogema (Chief 
      Executive), Little River Band of Ottawa Indians of Michigan
    This testimony provides the views of the Little River Band of 
Ottawa Indians of Michigan on the President's Budget Request for fiscal 
year 2000 for the Bureau of Indian Affairs. The Tribe is requesting 
that the Committee either provide an add-on of $355,500 to the fiscal 
year 1999 Tribal Priorities Allocation (TPA) enacted level, or that the 
Committee direct the BIA to make this money available to the Tribe out 
of regular TPA funding. The Tribe is also requesting Committee support 
for the request of the Chippewa-Ottawa Treaty Management Authority for 
additional funding for Little River for negotiations and implementation 
of the U.S. v. Michigan treaty fishing settlement.
    The Little River Ottawa is a relatively small Tribe which was 
restored and reaffirmed to Federal recognition by Congress in 1994. 
Because the Tribe's restoration Act was passed in September of 1994, 
the Tribe did not receive funding in fiscal year 1995. The Tribe first 
received BIA ``New Tribes'' funding in fiscal year 1996. Unfortunately, 
the Tribal enrollment figure used to submit appropriations requests was 
the number of BIA-approved enrollment files (650), rather than the 
Tribe's projected enrollment of 2,000. The Tribe's fiscal year 1996 New 
Tribes funding was $330,000. In comparison, other newly restored/
reaffirmed Tribes with comparable enrollments received in excess of $1 
Million Dollars in New Tribes funding. Little River's New Tribes 
funding level was increased from $330,000 to $671,000 in fiscal year 
1997; however, even this increased level was half of that received by 
similarly situated Tribes.
    This funding inequity hindered the Tribe's ability to fulfill the 
purposes of the ``new tribes'' program. Nevertheless, in the few years 
since Congress restored the Little River Ottawa to federal recognition, 
Tribal leaders have made the best use of the limited resources 
available to fulfill their governmental responsibilities and to use the 
tools of self-determination. In July 1998, the Tribe's membership 
approved a new Constitution, which establishes three (3) separate 
branches of Tribal government: Legislative (Tribal Council), Executive 
(Tribal Ogema), and an independent Tribal Judiciary. The Tribe has 
utilized, or is utilizing, monies received under the Michigan Indian 
Land Claims Settlement Act (Pub. L. 105-143) to purchase nearly 2,000 
acres of former Reservation land for community and economic 
development. The acquisition of these properties has dramatically 
increased the Tribal government's regulatory and law enforcement 
responsibilities. Many Tribal families are returning the Reservation in 
anticipation of new jobs and housing. Importantly, the Tribe's 
Constitution assures Tribal members and non-members alike, access to 
the Tribal Courts to vindicate rights secured under the Tribe's 
Constitution and enforcement of Tribal laws. As Committee members are 
well aware, providing and maintaining a competent Tribal forum for 
members and non-members does not come cheap.
    As noted previously, the Bureau did take some steps to correct the 
Tribe's funding inequities in fiscal year 1997, when the Tribe's New 
Tribes funding level was adjusted from $330,000 to $671,000. In fiscal 
year 1998, Minneapolis Area Office received approximately $1.9 Million 
Dollars in additional TPA monies to be re-allocated in the Area. 
Unfortunately, those increased funds were allocated based upon each 
Tribes' current funding and Little River's share only amounted to 
$48,696. The addition of these funds, however, did bring the Tribe's 
total appropriation for fiscal years 1998 and 1999 to $724,166.
    The Tribe is doing its part to develop a responsible, competent 
Tribal government. Long-term maintenance and support for these 
essential governmental responsibilities requires adequate Tribal 
Priorities Allocation funding from the Bureau of Indian Affairs.
    A number of these important programs--most notably Tribal Courts, 
Law Enforcement, Tribal Council and Social Services--are dramatically 
underfunded. The Tribe's unmet needs in these very critical areas can 
be met with surprisingly little funding--approximately $400,000. This 
increase will permit the Tribe to maintain its existing programs at the 
minimum levels established in previous fiscal years and provide the 
Tribe with a base budget to develop and maintain a independent, 
competent Tribal Judiciary and related law enforcement on the Tribe's 
Reservation.
    This is the second year the Tribe has asked the Congress for 
assistance in correcting the mis-calculation of the Tribe's TPA 
distribution. We ask for this Subcommittee's assistance in making sure 
the BIA corrects this problem in fiscal year 2000. Specifically, the 
Tribe is requesting that the Committee either provide an add-on of 
$355,500 to the fiscal year 1999 enacted level, or that the Committee 
direct the BIA to make this money available to the Tribe out of regular 
TPA funding.
    With the federal dollars it have received, the Tribe has now hired 
a core staff and has developed several programs to address the service 
needs of tribal members. The Tribe has established its Court, its 
governmental offices, a health clinic, a community center and has begun 
to reacquire land within its historic Reservations. Unfortunately, this 
progress may be short-lived. Unless we have a funding increase in 
fiscal year 2000, the Tribe will have to cut back or eliminate many 
programs.
    The Tribe also has Court-ordered responsibilities for management, 
regulation and enforcement activities related to Treaty-reserved 
fisheries on the Great Lakes. The Congress has recognized its unique 
obligation to fund Tribes sufficiently to protect Treaty resources. 
Since the early 1980's Congress has appropriated recurring funds 
through a separate line-item for the Chippewa-Ottawa Treaty Fishery 
Management Authority to permit its member Tribes to carry out their 
responsibilities for Great Lakes treaty fishery conservation and 
management, as well as meeting their obligations under a Consent Order 
entered in the treaty rights litigation U.S. v. Michigan. The terms of 
the settlement embodied in the Consent Order and the current efforts to 
negotiate a successor a agreement are a testament to the Tribe's 
willingness to work with the State and its user groups to reach 
accommodations on these controversial matters.
    In 1998, Little River became a member of the Chippewa-Ottawa Treaty 
Fishery Management Authority and a party to U.S. v. Michigan. The Tribe 
intends to be a full partner in the management and protection of the 
Great Lakes fishery resources and is assuming its Court Ordered 
responsibilities under the Consent Order. To date, however, Congress 
has not provided the Treaty Management Authority with the financial 
resources necessary to provide Little River with the funds it needs to 
carry out its regulatory and enforcement responsibilities. The 
Chippewa-Ottawa Treaty Fishery Management Authority will be requesting 
additional funding to allow the Little River Ottawa to assume these 
responsibilities. As is the case with the other 1836 Treaty tribes who 
are party to U.S. v. Michigan, these funds are appropriated through a 
separate recurring line-item in addition to each of the member Tribes' 
TPA allocations. With the expiration of the current Consent Order in 
the Year 2000, actual appropriation of these funds for Little River in 
the Year 2000 is essential to protection of Little River's treaty 
resources.
    Mr. Chairman, the Tribe believes this situation has reached a 
critical state. In fact, and I do not say this lightly, our very 
survival as a tribal government depends upon adequate funding provided 
to us by the Bureau of Indian Affairs from appropriations made by the 
Congress. We are willing to assume and carry out our responsibilities 
as a government; however, those responsibilities require a minimum 
level of funding. What we currently have is simply not enough. If we 
can be provided and assured the minimum level we ask for, we are 
willing to use those resources to do the rest, and the best, for our 
people.
    We thank you for any help you can offer to ensure that our funding 
needs in fiscal year 2000 will be met.
    Thank you again for the opportunity to bring this important matter 
to the attention of the Members of the Subcommittee.
                                 ______
                                 
  Prepared Statement of William Old Chief, Chairman, Blackfeet Tribe, 
                      Blackfeet Indian Reservation
    Mr. Chairman and Distinguished Committee Members: My name is 
William Old Chief, Chairman of the Blackfeet Tribe, government of the 
Blackfeet Indian Reservation, Montana. I would like to respectfully 
thank you for the opportunity to present written testimony to the 
Senate Committee on Appropriations Interior Subcommittee. I am 
requesting appropriation funding for the Blackfeet Tribe, funding 
administration shall be directed through the Department of the 
Interior, Bureau of Indian Affairs (BIA), Wildlife and Parks. Listed by 
priority, they are: $4,700,000.00 to construct a Trout Fish Hatchery 
facility; $275,000.00 annual 638 Self-Determination contract for 
hatchery operations; $100,000.00addendum to the existing Blackfeet Fish 
and Wildlife Public Law 93-638 Self-Determination Contract which is 
currently funded at $100,000 annually, the addendum will bring the 
total to $200,000annually; $50,000.00 addendum to the existing 
Blackfeet Threatened and Endangered Species Program Public Law 93-638 
Self-Determination contract, which is currently funded at $120,000 
annually, the addendum will bring the total to $170,000 annually.
    The Blackfeet Indian Reservation (BIR) is located in central 
Montana and shares borders with Glacier National Park to the West and 
Canada to the North. The BIR land base encompasses 1.5 million acres of 
forest, range and farm lands. The Blackfeet Tribe consists of 
approximately 15,000 members, of which 8,500 members reside on the 
reservation. Non-Tribal residents of the reservation number 
approximately 2,500 individuals.
    The BIR recreational fisheries habitat and resource is extensive 
and provides an integral role within the structure of the natural 
resource. The assemblage of BIR aquatic wetlands consist of 19,668 
acres of glaciated pothole basins that range in size of less than an 
acre to lakes of more than 2,000 acres. Approximately 35 lakes still in 
a Pre-Columbus state provide 13 square miles of blue ribbon trout fish 
habitat.
    The Blackfeet Tribe has clearly identified the need for a Trout 
Fish Hatchery on the Blackfeet Indian Reservation, and has initiated 
inter-agency cooperative measures for the preparatory planning and 
development of a facility. The proposed hatchery would exclusively 
support lake systems in Indian Country, and would serve to attain 
maximum biologic potential for growth, angler success, and production. 
The hatchery requirement stems from an effort to secure the integrity 
of the Tribal Fisheries resource and provide for its' future growth 
potential. The establishment of a resident hatchery will offer the 
Tribe a multiple of opportune economic advancements and make possible 
the desire to obtain a positive level of self-reliance and effective 
self-governance. The hatchery will foster associative social and 
economic interests and productively address the commercial expansion of 
Tribal and Non-Tribal based affiliate private businesses. The Tribe 
envisions a sustained recreational fisheries supported internally by 
existing Tribal conservation management trust efforts.
    The Blackfeet Tribal lake fisheries have historically produced 
trophy trout in impressive numbers and have been said to be the fly 
fishermens' best kept secret in the Northwest. Because of this 
recognition, the revenue generated through sales of Tribal fishing 
permits is substantial and provides an important source of income for 
the Tribe and supports many local and state private enterprises. Tribal 
fishing permits are sold on and off the BIR, which effectively promotes 
business to many local and surrounding Montana rural communities. 
Revenue from permit sales goes to provide conservation law enforcement 
and management for the Tribes' fisheries. Peak sales of permits earned 
the Tribe $201,000 in revenue for fiscal year 1996. Although it is not 
a significant amount on a national scale, in an arena of a stressed 
agriculture economy this relief is notably substantial. Once in 
operation Hatchery production would enable the Tribe to maximize 
fishery growth potential and increase service supply to stimulate 
expansion of recreational fishery commerce.
    Trout stocking for the Tribal lakes has been conducted annually by 
the U.S. Fish and Wildlife service, and for many years the Tribe has 
enjoyed benefits derived from this trust responsibility. The Tribe 
deems the stocking program to be successful in many categories, but has 
grown strongly concerned by recent yearly disruptions that have placed 
the Tribal fishery in jeopardy. The Tribe received a maximum 
supplementation of 800,000 trout in fiscal year 90', since that time 
the Tribe has seen a disturbing decline in lake fish stocking rates. 
fiscal year 1998' stocking rates for Tribal lakes were approximately 
300,000 trout. The impact to the Tribe has been a serious deficiency in 
angler success and a 35 percent reduction in fishing permit revenues. 
The Tribe receives the bulk of fish for the lakes from Creston Hatchery 
U.S. Fish and Wildlife Service. The Tribe expects additional disruption 
to the lake stocking rates when Creston interrupts production to meet 
quality standards to the dam structure that supports the Hatchery. Also 
the USFWS has adopted a new policy of raising only native endemic 
species in federal hatcheries, the effect of this transition will 
disrupt production and stocking rates as well. The Tribe appreciates 
the requirements of the comprehensive public trust responsibility and 
empathizes with the ensuing reduction in services due to budget 
concerns, yet the serious plight of the Tribes' natural resource 
interests lends further justification to acquire a Tribal Hatchery. The 
advent of these developments expedites existing Tribal desires to 
realize self-reliance in this area of Trust responsibility and secure 
Tribal interests.
    The Blackfeet Tribe has worked cooperatively with the U.S. Fish and 
Wildlife Service and the Bureau of Reclamation to thoroughly examine 
preliminary hatchery considerations. Interior agency technical 
assistance has enabled the Tribe to ensure the best management 
practices and address collective natural resource parameters to assure 
environmental and biologic quality control. The Tribe is confident in 
the planning direction arrived by the collaborate process and is 
affirmed that procurement for quality production will be attained.
    The hatchery facility design will address current fish culture 
practices to ensure quality biologic production and maintain species 
integrity. To accomplish this goal all fish production will be 
accommodated indoors. Water supplies will be treated in two manners. 
The fish egg hatching facility will utilize filter systems that will 
range down in size to one-half micron mesh followed by ozone injection, 
and finally ultra violet exposure. The larger building that will house 
older developed fish, will filter the water for larger colloidal 
suspended sediment and be exposed to ultra violet light. These methods 
will suppress bacterial and viral introduction with a high degree of 
certainty. The egg hatching facility water amount requirement is less 
but demands intensive treatment because of the high disease 
susceptibility of younger fish. An enclosed hatchery building will 
provide water quality by diminishing the formation of solar radiated 
algae and bacteria. The use of smooth fiberglass tanks in a darkened 
surrounding will reduce injury complicated by the stressful environment 
of an enclosure. Indoor rearing of the fish imparts a preservation of 
survival escape behavior needed once the fish is released in their 
natural habitat, this decreases mortality rates and increases mature 
populations in the wild. The Hatchery will have a 50 year operational 
capacity and will have the future potential to provide Fish to the 
other Federally recognized Tribes residing in Montana.
    The Tribe shall utilize a three phase production approach for the 
hatchery. Phase one shall include the engineering and design details to 
conform to facility production fish requirements. Phase two shall be 
further defined on the basis of phase one to construct the Hatchery. 
Phase three shall involve operational OMB performance to achieve 
progressional development. The Tribe has explored and examined plans 
for a host of contingencies pertinent to the hatchery for five years. 
The parameters and requirements for phase one have been logistically 
defined. Phase one will require a expert consulting design to refine 
and document a final product that will allow the Tribe to shift to 
phase two and phase three.
    The Great Plains Tribes have consistently been regarded in terms of 
their relationship with the buffalo. Primarily this is true for the 
Blackfeet Tribe, yet culturally the Blackfeet honored all animal 
species with equal repect and reverence. In particular, although not a 
diet staple the fish plays a very significant historical and 
contemporary spiritual role for the Blackfeet. Consumption of fish is 
performed first to honor particular spirits before the commencement of 
all Blackfeet spiritual ceremonies. In addition, the advent of western 
society has placed subsistence burdens on the people of the Blackfeet 
Tribe since the late 1880's. To offset their adversity the Tribe has 
incorporated fish more frequently into daily diets, and like the horse, 
fish have evolved to portray a active culturally important role to the 
society structure. In short, the Blackfeet Tribe has a substantial 
invested interest in the procurement of the best stewardship for the 
Tribal natural resources fisheries.
    The Blackfeet Tribe receives an annual Public Law 93-638 contract 
to conduct fish and wildlife conservation management for purposes that 
include law enforcement, management operations, project work, and 
administrative support. The intent of this contract continues to be 
fulfilled by theBlackfeet Fish and Wildlife Department (BFWD). The 
Tribe enjoys increased fish and wildlife resources and distinguishes an 
expansion in responsibility, concurrently as the BFWD has matured, the 
need for additional funding to support operational performance and 
function is essential to meet management requirements. The Tribe takes 
great pride in the success that past funding has allowed. Part of that 
success is made possible and is demonstrated by the Tribes' well 
established fish and wildlife conservation code. To meet future 
resource responsibilities with competence and credibility the Tribe 
must attend to enlarge it's capabilities. Funding to meet these natural 
resource requirements would empower the Tribe to self-sufficiently 
administer new incursions of responsibility.
    The BIR provides extensive habitat for a wide variety of fish and 
wildlife species. Many species are listed within the Endangered Species 
Act or are candidate concerned species. The BFWD must provide the 
protection aspect of management for these ESA species. Big and small 
game species including non-game species proliferate on the BIR. Fish 
and wildlife fauna include: Grizzly Bears, Black Bears, Grey Wolves, 
Elk, Moose, Whitetail and Mule Deer, Mountain Goat, Mountain Lion, Big 
Horn Sheep, Antelope, Bald and Golden eagles, Osprey, Piping plovers, 
Ferruginous Hawk, Northern Goshhawk, Harlequin Ducks, Trumpeter Swans, 
Whooping Crane, Lynx, Swift Fox, Red Fox, Bull Trout, Westslope 
Cutthroat Trout, Beavers, Otters, all members of the weasel 
family(wolverines), and coyotes. The BIR's pothole system plays a very 
important role for waterfowl and migratory birds( Trumpeter swans ). 
The BFWD responsibility is for the management of all species within the 
BIR's 1.5 million acres of habitat, additional funding would work 
directly to adequately secure that interest.
    The Blackfeet Threatened and Endangered Species (TES) program is 
one of several programs within the BFWD. Initially the duty of the TES 
program was to conduct research on grizzly bears and grey wolves on the 
BIR. TES responsibilities have expanded out of necessity to encompass 
more management efforts as well as other species that are listed as 
threatened or endangered. The current mission of the TES program is to 
gather information on the habits and distribution of grizzly bears, 
wolves, and other federally threatened and endangered wildlife species 
or species of special concern that occur on the BIR, to assist in their 
management, and to develop plans for future management of those 
species. The goals of the program include the following: (1) to provide 
information to resource managers that will enable them to avoid or 
lessen negative impacts to threatened or endangered species as they 
conduct their respective management activities, (2) to provide 
training, education, and employment opportunities to Tribal members in 
the field of wildlife biology, and (3) to assist BIR residents in the 
management of nuisance or depredating grizzly bears, wolves, or other 
predators.
    The TES program works closely with the U.S. Fish and Wildlife 
Service and other federal, state, and Tribal agencies in cooperative 
interagency efforts to manage all threatened and endangered species. 
Some of the accomplishments to date include a habitat enhancement 
project for the threatened piping plover, a Tribal Bear management 
plan, near completion of a grizzly bear cumulative effects analysis 
model that will help managers throughout the ecosystem determine and 
mitigate effects on grizzlies of planned activities, a livestock 
carcass redistribution program that reduces conflicts between bears and 
ranchers, implementation of food storage guidelines for rural residents 
and campers to reduce bear conflicts, and garbage management 
guidelines, including acquisition of nonfederal funding for bear proof 
garbage dumpsters on much of the BIR. We work in close cooperation with 
a private conservation organization that reimburses ranchers for 
livestock that are killed by wolves or grizzly bears. The quality of 
our TES program is equitable to similar state or federal programs.
    TES current level of funding is not adequate to meet federal 
mandates or maintain quality service. Much of our equipment is over 10 
years old and needs replacement. Costs for operations have increased 
while our budget has remained the same. Grizzly Bear and wolf 
populations are increasing on the BIR and require more management 
effort. More wildlife species are being listed as threatened or 
endangered, requiring our attention. The TES mission dictates an 
additional human resources, and support equipment to meet our 
increasing demands to facilitate Tribal Self-Determination.
    The Blackfeet Tribe wishes to emphasize an imbalance in the federal 
funding distribution of fish and wildlife initiatives in Indian 
Country. The Pacific Northwest and Great Lakes region receive 85 
percent of funds while Tribes in the remainder of the country rely on 
the remaining 15 percent. The Great Plains region includes 80 percent 
of Indian Country trust land mass. The Blackfeet Tribe does not dispute 
nor wish to disrupt present funding allocations elsewhere, we only wish 
to express a desire to obtain a measure of equity in funding accruement 
to adequately address unmet natural resource needs.
    The Blackfeet Tribe appreciates previous support as it has assisted 
the BFWD to meet challenges and see to the best interest of the fish 
and wildlife resource. The sustained commitment demonstrated by the 
House and Senate strongly confirms a sincere pledge to promote 
Blackfeet self-sufficient efforts and fosters realization of tangible 
measures towards Self-Determination.
                                 ______
                                 
      Prepared Statement of the Bering Sea Fishermen's Association
                                abstract
    The Bering Sea Fishermen's Association (BSFA) requests the Senate 
Appropriations subcommittee on Interior and Related Agencies to 
continue to direct base funding of $805,000 plus an additional $700,000 
to BSFA to conduct salmon research and restoration projects in the 
Arctic-Yukon-Kuskokwim (A-Y-K) region of Alaska. As in previous fiscal 
years, base level funding of $805,000 is already available and 
identified for this research effort within the BIA's Wildlife & Parks, 
Tribal Management and Development program. Additional funding is 
requested to respond to the 1998 Federal fisheries disaster in western 
Alaska. BSFA will continue to work with appropriate regional Native 
non-profit organizations and village councils in the design and 
implementation of these projects.
bsfa's arctic-yukon-kuskokwim salmon investigations program: monitoring 
                   and restoring the salmon resource
    In response to drastic declines in salmon returns, in fiscal year 
1994 the Congress authorized a Bureau of Indian Affairs appropriation 
of $800,000 to BSFA to conduct salmon monitoring, research, restoration 
and enhancement projects in western Alaska. Since that time from fiscal 
year 1995 through fiscal year 1999 the BIA has maintained a base level 
funding of approximately $800,000 to $805,00 in its budget to support 
what is known as the Arctic-Yukon-Kuskokwim Salmon Investigations 
program. This base level funding has been placed in the Wildlife & 
Parks, Tribal Management & Development section of the budget. With the 
exception of fiscal year 1995 funding, each year the Congress has 
directed that the full $800,000-$805,000 be directed to the Bering Sea 
Fishermen's Association (BSFA) so that one single entity is responsible 
for administering the overall A-Y-K salmon research effort. Each year 
BSFA has consulted with agencies such as the Alaska Department of Fish 
& Game (ADF&G) and the United States Fish & Wildlife Service (USF&WS) 
as well as various regional Native non-profit organizations and village 
councils to create cooperative research projects. BSFA then 
subcontracts with these Native regional organizations and village 
councils for recruitment and supervision of a crew leader and local 
villagers and field equipment and supplies. In many cases, the ADF&G or 
USF&WS also provides in-kind support of personnel or equipment.
    The goals of these projects are to:
  --fill a gap in the scientific database not covered by existing 
        agencies;
  --assure sustained yield management of salmon stocks;
  --develop tribal capabilities in salmon management and research, and;
  --provide information to assist management in providing for 
        subsistence salmon needs of rural Alaskan villages.
    Using this Congressional appropriation BSFA has funded all or a 
significant portion of the cost of the following projects:
Arctic (Kotzebue Sound & Norton Sound)
    Sikasuilaq Springs chum salmon hatchery: annual operational costs 
(fiscal year 1994)
    Kobuk River chum salmon abundance test fishery (fiscal year 1994)
    Regional salmon spawning surveys (fiscal year 1996-fiscal year 
1999)
    Salmon catch (age-sex-length) sampling (fiscal year 1996-fiscal 
year 1999)
    Sockeye salmon habitat analysis & lake fertilization (fiscal year 
1994)
    Chum salmon habitat analysis & micro-hatchery construction (fiscal 
year 1994)
    Snake River salmon counting tower (fiscal year 1994-fiscal year 
1999)
    Eldorado River, Pilgrim River & North River salmon counting towers 
(fiscal year 1996-fiscal year 1999)
    Regional subsistence harvest surveys (fiscal year 1994-fiscal year 
1999)
    Public forums: project planning (fiscal year 1994-fiscal year 1999)
Yukon River
    Chum salmon micro-hatchery development (fiscal year 1994 & fiscal 
year 1995)
    Toklat fall chum salmon productivity analysis (fiscal year 1994-
fiscal year 1999)
    Pilot Station main river salmon counting sonar operations (fiscal 
year 1994)
    Anvik River terminal harvest test seine fishery (fiscal year 1994)
    Kaltag Creek salmon counting tower (fiscal year 1994-fiscal year 
1999)
    Nulato River salmon counting tower (fiscal year 1994-fiscal year 
1999)
    Tanana Village salmon abundance test fishwheels (fiscal year 1994-
fiscal year 1999)
    Mountain Village fall chum salmon abundance test fishery (fiscal 
year 1995-fiscal year 1999)
    Andreafski River coho salmon counting weir (fiscal year 1995-fiscal 
year 1999)
    Galena village fall chum salmon abundance test fishwheel (fiscal 
year 1995)
    Tanana River fall chum tag & recapture population estimate (fiscal 
year 1995-fiscal year 1999)
    Clear Creek salmon counting tower (fiscal year 1996-fiscal year 
1999)
    Pilot Station sonar local Native technician (fiscal year 1996-
fiscal year 1999)
    Nenana River salmon spawning surveys (fiscal year 1996-fiscal year 
1999)
    Lower Yukon (Emmonak) local Native fishery technician (fiscal year 
1997-fiscal year 1999)
    Public forums: subsistence management plans & project planning 
(fiscal year 1994-fiscal year 1999)
Kuskokwim River
    Eek Island salmon abundance gillnet test fishery (fiscal year 1994)
    Aniak River coho salmon counting sonar (fiscal year 1994)
    Nunivak Island salmon abundance study (fiscal year 1994 & fiscal 
year 1995)
    Chum salmon migration timing and spawning distribution study 
(fiscal year 1995)
    Kanektok, Takotna and Kwethluk salmon counting towers (fiscal year 
1996-fiscal year 1999)
    George River salmon counting weir (fiscal year 1996-fiscal year 
1999)
    Aniak River sonar local Native technician (fiscal year 1996-fiscal 
year 1999)
    Tatlawiksuk River salmon counting weir (fiscal year 1999)
    Public forums: inseason management and project planning (fiscal 
year 1996-fiscal year 1999)
Bristol Bay
    Wood River coho salmon counting tower (fiscal year 1994)
    For all of these projects BSFA has worked directly with and 
subcontracted with regional Native non-profit associations such as:
  --Kawerak, Inc. (Norton Sound)
  --Tanana Chiefs Conference (Yukon River)
  --Association of Village Council Presidents (Kuskokwim & Yukon 
        Rivers)
  --Kuskokwim Native Association (Kuskokwim River) and also with the 
        individual traditional/IRA councils of the villages of Emmonak, 
        Mountain Village, St. Mary's, Andreafski, Kaltag, Nulato, 
        Galena, Tanana, Kwinhagak and Takotna and as well as individual 
        fishermen.
    Through using the BIA appropriation as matching funds, BSFA has 
also leveraged several thousands dollars of project support from the 
Alaska Department of Fish and Game, the U.S. Fish & Wildlife Service 
and the Bureau of Land Management. Finally, these BSFA-administered 
projects were implemented with a low indirect rate of less than 15 
percent.
      fiscal year 2000 appropriation designation & research plans
    Although the program has helped to rebuild some of the individual 
salmon returns, most AYK salmon streams require continued monitoring 
and restoration efforts. Maintaining this appropriation is critical to 
ensuring effective salmon management so that sustained yield is 
maintained, tribal capabilities are developed and rural subsistence 
salmon harvest needs are met.
    As the committee may know the 1998 season saw widespread salmon run 
failures throughout western Alaska. Not only were chum salmon returns 
weak in the 1993 crash but chinook returns were unexpectedly poor and 
coho and sockeye returns were also below average. This unforeseen crash 
points out the need for research into freshwater and ocean survival of 
salmon in addition to the standard baseline studies of adult spawning 
escapement studies. Studies aimed at estimating total population are 
also warranted.
    Therefore BSFA requests a continued subcommittee designation to 
Bering Sea Fishermen's Association of the $805,000 budgeted for Arctic-
Yukon-Kuskokwim Salmon Investigations within the BIA's fiscal year 1999 
Wildlife & Parks, Tribal Management & Development budget section. We 
also urge the subcommittee to designate an additional $700,000 to BSFA 
to respond to the multispecies salmon run failure of 1998.
    If the additional $700,000 is secured BSFA would likely undertake 
some of the following studies to aid in the management and rebuilding 
of western Alaska salmon stocks. These studies would include sockeye 
salmon lake fertilization and expanded chum salmon incubation projects 
in Norton Sound; a chinook salmon population estimate and freshwater 
survival studies in the Yukon River; and expanded sockeye and coho 
escapement monitoring and a chinook population estimate in the 
Kuskokwim River.
    BSFA will continue to work with and contract with local and 
regional Alaska Native organizations and other appropriate entities as 
well as with individual fishermen. BSFA is the only group that 
represents and works with all fishermen (commercial and subsistence) 
and villagers throughout the entire Arctic-Yukon-Kuskokwim region. BSFA 
Board and staff are intimately familiar with salmon research needs in 
the A-Y-K region. Having BSFA as the single responsible program 
management entity will assure both the development of tribal 
capabilities and the fulfillment of the intent of Congress to rebuild 
salmon returns in an efficient manner.
    Thank you for this opportunity to submit written testimony 
concerning appropriations for the Bureau of Indian Affairs.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the Tribe's fiscal year 2000 request for $1,199,500 from 
programs in the Department of the Interior (DOI). The Tribe asks:
  --that Congress provide $1,000,000 from the Critical Ecosystem 
        Studies Initiative (CESI) account in the National Park Service 
        budget for the Seminole Tribe for activities related to the 
        Tribe's Everglades Restoration Initiative on the Big Cypress 
        Reservation;
  --that Congress provide $199,500 from the Bureau of Indian Affairs 
        for water quality studies, as a part of the Tribe's Everglades 
        restoration efforts.
    In addition to this specific request for the Tribe's programs, we 
request that Congress fund the CESI account at the same level it has 
been funded in the last two fiscal years, $12 million. The 
Administration cut the CESI account by one-third, despite the important 
research that it funds; such research helps support critical Everglades 
ecosystem restoration. The Tribe requests that Congress the restore the 
$4 million cut to the CESI account.
    The Tribe's Everglades Restoration Initiative is a comprehensive 
water conservation system designed to improve the water quality and 
natural hydropatterns in the Big Cypress Basin. This project will 
contribute to the overall success of both the federal and the state 
governments' multi-agency effort to preserve and restore the delicate 
ecosystem of the Florida Everglades. In recognition of this 
contribution, the Seminole Tribe's Restoration Initiative has been 
endorsed by the South Florida Ecosystem Restoration Task Force and has 
been found to be consistent with the recommendations of the Governor's 
Commission for a Sustainable South Florida.
    The Seminole Tribe has been working with the US Army Corps of 
Engineers (COE) and the USDA Natural Resources Conservation Service 
(NRCS) to identify programs that could fund the Tribe's Everglades 
Restoration Initiative. At this time, the western portion of the Big 
Cypress Reservation, along with a canal that transverses the 
Reservation, has been identified as a Critical Project under the 
authority of the Water Resources Development Act of 1996 (WRDA 1996). 
The NRCS has identified a number of Farm Bill programs suitable for 
funding the design, planning, and construction of the project on the 
eastern portion of the Reservation. The funds provided by the DOI have 
made it possible for the Tribe to do the research necessary to allow 
the COE and NRCS to complete final project designs. In addition, the 
Tribe continues to spend Tribal funds to advance the research and 
design and is prepared to provide the required cost share payments as 
required by the different federal programs.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's project addresses the environmental 
degradation wrought by decades of federal flood control construction 
and polluted urban and agricultural runoff. The interrupted sheet flow 
and hydroperiod have stressed native species and encouraged the spread 
of exotic species. Nutrient-laden runoff has supported the rapid spread 
of cattails, which choke out the periphyton algae mat and sawgrass 
necessary for the success of the wet/dry cycle that supports the 
wildlife of the Everglades.
    The Seminole Everglades Restoration project was designed to allow 
the Tribe to sustain ourselves while reducing impacts on the 
Everglades. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. We have already 
committed significant resources to the design of this project and to 
our water quality data collection and monitoring system. We are willing 
to continue our efforts and to commit more resources, for our cultural 
survival is at stake.
    In addition to addressing the ecosystem concerns related to the Big 
Cypress Reservation, the Tribe has been actively involved in the 
development of the ecosystem-wide restoration plan. The Tribe, as an 
active member of both the Governor's Commission for a Sustainable South 
Florida and the South Florida Ecosystem Restoration Task Force and 
Working Group, has worked cooperatively with our neighbors to design a 
sustainable future for all of South Florida.
            seminole tribe everglades restoration initiative
    The DOI, through the BIA, has provided the Tribe with $199,500 in 
each of the fiscal years 1994 through 1999. In addition, through the 
NPS, Interior provided the Tribe with $390,000 in fiscal year 1997 and 
$920,000 in fiscal year 1998. A $1 million appropriation was provided 
to both the Seminole and Miccosukee Tribes in the fiscal year 1999 
appropriation cycle; the Tribe is working with the Task Force and 
Everglades National Park to decide how to split the funding. The Tribe 
is using these funds to monitor and analyze the quality and quantity of 
water coming onto and leaving the Reservation and to conduct scientific 
studies to determine nutrient impacts. For example, the Tribe plans to 
study the assimilative capacity of the C&SF canals for nutrients, 
phosphorus in particular. The results of such monitoring and studies 
will be available to others studying Everglades degradation and 
developing plans to arrest the harm.
    The Tribe has also developed a conceptual plan that will enable us 
to meet new water quality standards essential to the cleanup of our 
part of the Everglades ecosystem and to plan for the storage and 
conveyance of our water rights. The appropriated funds have also been 
used to design the Tribe's best management practices program, with the 
assistance of the NRCS. We continue to use available funds to further 
the design and planning work necessary to implement our Everglades 
Restoration Initiative.
    The Tribe's Everglades Restoration Initiative is designed to 
mitigate the degradation the Everglades has suffered through decades of 
flood control projects and urban and agricultural use and ultimately to 
restore the nation's largest wetlands to a healthy state. Our 
Everglades Restoration Initiative will enable the Tribe:
  --to collect and monitor data to establish a baseline and to evaluate 
        performance of the overall system design;
  --to design and construct surface water management systems to remove 
        phosphorus, convey and store irrigation water, improve flood 
        control, and rehydrate the Big Cypress National Preserve;
  --to commit to the long-term operation and maintenance of new water 
        management systems; and
  --to design and implement comprehensive best management practices for 
        the Big Cypress Reservation.
    This project will enable the Tribe to meet proposed numeric target 
for low phosphorus concentrations that is being used for design 
purposes by state and federal authorities. It will also provide an 
important public benefit: a new system to convey excess water from the 
western basins to the Big Cypress National Preserve, where water is 
vitally needed for rehydration and restoration of lands within the 
Preserve.
    As discussed in the introduction, the Tribe will continue to work 
with the COE and the NRCS to satisfy the requirements of these 
agencies' respective programs. Once again, the funding requested in 
this testimony is crucial because such funds will allow the Tribe to 
continue to develop the data and design information that is required 
for the design, planning, and construction of the Everglades 
Restoration Initiative. In addition, the results of studies the Tribe 
helps pay for with both the CESI funds from NPS and the BIA funds will 
be applicable to other entities supporting Everglades restoration.

                               conclusion
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the federal government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the federal government is committed to 
Everglades restoration.
    The Seminole Tribe is ready, willing, and able to begin work 
immediately. Doing so will require substantial commitments from the 
Tribe, including the dedication of over 9,000 acres of land for water 
management improvements. However, if the Tribe is to move forward with 
its contribution to the restoration of the South Florida ecosystem, a 
substantially higher level of federal financial assistance will be 
needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the federal 
government to also participate in that effort. This effort benefits not 
just The Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
 Prepared Statement of Jimmie C. Begay, Executive Director, Rock Point 
                  Community School, the Navajo Nation
    Mr. Chairman and Members of the Committee: We, the representatives 
of Rock Point Community School wish to express our appreciation for 
this opportunity to share our concerns in connection with the education 
of our children and the education of the Native American students 
generally.
    Whereas the entire Nation is striving to achieve highest output of 
our education at secondary level in the world, we at Rock Point and 
American Indian students generally are far behind the national norm. We 
are unable to meet the average national standard to be achieved by the 
year 2000. We can neither hire nor retain properly trained and 
qualified teachers for want of adequate funds. Unlike most of urban and 
semi-urban schools in the USA, isolation in our case, and in the case 
of most of the schools on the Navajo Reservation is a major factor. 
Some incentives are required to hire and retain qualified teachers. 
Thus, we need some more funds to retain trained teachers, because the 
available funds to us are considerably less than the average national 
expenditure per student.
    Our main concerns are about funding for ISEP, Transportation, 
Administrative Costs, Operation and Maintenance and House for the 
School Staff members.
               indian school equalization program (isep)
    This appropriation provides for the direct classroom instruction. 
Funds provided per Weighted Student Unit (WSU) in SY 1998-1999 was 
$3,199. Estimated WSU dollar value in the School Year 1999-2000 is 
$3,238. If the appropriation provides according to the President's 
request, it will be estimated $3,285 for SY 2000-01. In 1991, an ISEP 
Task Force had determined that $3,499 is the minimum need per WSU. In 
the SY 2000-01, 9 years after the recommendation, it is still far short 
of the need at that time. Cost of classroom instruction including 
annual step increase and increased cost of more trained and qualified 
teachers is increasing at 6.23 percent per year. To meet the national 
goal of year 2000 is not possible with the amount available. If the 
$3,499/WSU recommended in 1991 is to be achieved in the SY 2000-2001, 
at least $336,606,000 needs to be appropriated in the fiscal year 2000 
budget.
    Here at Rock Point Community School, we are not left with enough 
finances to purchase updated classroom supplies, text or library books 
or purchase of innovative instructional materials including computers 
and relevant software.
    Since the economy of the nation is upwards with savings in the 
national budget, the investment in education, more particularly of the 
Native American students will be the most important investment. This is 
also important if Congress wants the Native American students to be at 
par with other students in the development of national manpower to meet 
the challenges of the 21st century.
    We, therefore ask that the appropriation for ISEP be not less than 
$336,606,000.
                     transportation of the students
    In all these past years, a considerable portion of ISEP funds which 
is for classroom instruction has been used to pay for the 
transportation of students, further aggravating the minimum needs of 
the classrooms. The national average expenditure for a mile of 
transportation in the School Year 1993-1994 was $2.92, but we received 
only $2.10 per mile in the current School Year. If we really do not 
touch dollars from classroom instruction for the transportation of 
students, appropriation should not be less than $48,330,000 to yield at 
national rate of six school years ago. Even then we will have to use 
some classroom instruction funds to make up for the rising cost of 
mileage and rental from GSA. President's budget request at $38.8 
million which will yield $2.35 per mile is still far below the need 6 
years ago.
    This does not include the cost of transportation for extra-
curricular activities, which is part of the total educational growth of 
the students. This cost eats away another substantial portion of our 
transportation budget, further eroding the dollars meant for classroom 
instruction.
    We ask that appropriation for this be not less than $48 million. 
This will be the most appropriate way of meeting the transportation 
costs, although we will still have to use some ISEP funds for 
transportation, but at lesser rate.
                       administrative cost grants
    One of the most pressing concerns is funding for the Administrative 
Cost Grants.
    In the SY 1999, there were 117 schools under grant or contract and 
only 68 operated by BIA. In the School Year 2000-01 there will be only 
56 schools operated by BIA, the rest 129 to be operated by Native 
American Communities. Out of this, at least 10 schools are projected to 
be grant schools only on Navajo Reservation. The administrative and 
technical support functions previously provided by BIA at Agency or 
Area level are now mostly the responsibility of the Contract and Grant 
schools. This is besides the usual contractual and administrative 
function for which this fund is allocated. But the Administrative Cost 
appropriation has remained almost the same for several years at $42.2 
million in spite of the increase of the number of grant and contract 
schools. The responsibility of managing the Bureau funded schools will 
fall 100 percent on the Native American communities by converting BIA 
operated schools to grant or contract schools in the years to follow. 
Except for one year, the need generated by the Admin Cost formula 
established in PL 100-297 has never been met at 100 percent.
    If Congress is seriously supportive of self-determination for 
education, appropriation at $47,610,000 for the School Year 2000-2001 
as asked by the Administration's budget will not be adequate. It must 
be at least $50 million to get closer to the needed amount for every 
school.
                      housing for school employees
    It is worth noting that there are only 52 units of housing at Rock 
Pont against an average of 130 employees. These units were built in the 
1960's and 1970's and constantly need repair and large amounts of 
maintenance. We do not have any other housing available in the 
community for renting nor there is any project for building houses for 
the community by the Tribal Housing Authority. The Community itself 
stands in need of housing for the growing population.
    Yet the President's budget has been reduced from last year's $3 
million appropriation to $2.5 million. We feel that Rock Point 
Community School's housing problem should be addressed as soon as 
possible in order to retain and recruit trained and qualified teachers. 
Housing may appear to be non classroom function. But it has direct 
impact on classroom instruction. If qualified teachers are not 
available for want of housing or are not retained because of poor 
living conditions, how can we improve the quality of instruction?
    At least an estimated $4 million will be needed to replace old and 
dilapidated housing units at Rock Point Community School alone. We ask 
you to increase the education housing budget.
                operation and maintenance of facilities
    There are two points we wish to submit to you. The BIA's budget 
request has separated the funding for ``operation'' and ``maintenance'' 
of facilities with the explanation that they want to avoid the ``co-
mingling of funds''. By this, BIA seems to be trying to dictate how 
much of its allowance a local school can spend for each. This is 
unnecessary and unwise. Circumstances differ widely at school 
locations. The local school board must have the flexibility to spend 
its facilities funds on operation and maintenance as its local needs 
require. We ask you to reject BIA's proposal to separate these two 
items.
    The more important issue is that the combined amount for facilities 
operation and maintenance remains at only about \2/3\ of the amount 
needed to properly operate and prudently maintain our facilities. As 
the Bureau itself acknowledges, our federally-owned facilities are 
deteriorating at a fast pace when there is not enough funding to fully 
maintain them. The United States has invested millions of dollars in 
building school facilities--such as the new Rock Point High School. It 
is in your interests as well as our to protect the federal government's 
investment and assure that the buildings are maintained so they can be 
enjoyed for their full useful life.
    We ask the Subcommittee to fund a combined ``facilities operation 
and maintenance'' budget at $118 million.
    Thank you for consideration of our requests.
                                 ______
                                 
 Prepared Statement of Hon. Tim E. Gilmartin, Mayor, Metlakatla Indian 
                               Community
    The Metlakatla Indian Community of the Annette Islands Reserve in 
southeast Alaska provides this statement on the fiscal year 2000 budget 
requests for the Bureau of Indian Affairs and the Indian Health 
Service.
    The industries which have in the past provided an economic base for 
the Metlakatla Indian Community--fishing and timber--are all but 
defunct. Our extremely depressed economy, combined with issues 
associated with our remote island location, lead us to bring to your 
attention our need for a health clinic and more law enforcement 
resources which meet our unique circumstances. Our Reserve is the only 
Indian reservation in the country with a maritime boundary. Thus, 
Metlakatla's law enforcement responsibilities include jurisdiction over 
not only the 1,500 to 2,000 residents and approximately 90,000 acres of 
uplands, but almost 50,000 acres of ocean waters as well.
    We respectfully request the Subcommittee to recommend:
  --IHS funding for design ($1.3 million) and construction of a health 
        center
  --Increased BIA funding for Law Enforcement, with special attention 
        paid to our unique law enforcement responsibilities
  --General increase in BIA funding for Tribal Priority Allocations
                      ihs fiscal year 2000 budget
    Annette Island Service Unit Health Center. We have a health care 
emergency in the Metlakatla Indian Community. Our only health care 
clinic--the Annette Islands Service Unit Health Center--is literally 
falling apart, posing real safety risks for our clients and employees. 
The state of our buildings is the sole reason we cannot meet the 
standards of the Joint Commission on Accreditation of Health Care 
Organizations. It has become a full-time job just to keep the health 
center buildings patched together enough to remain open. But we must 
keep the Metlakatla health center open since it is the sole source of 
health care on the Annette Islands Reserve.
    We desperately need $1.3 million for design of a replacement clinic 
and quarters and additional funding for construction. The total 
estimated cost for a clinic and quarters is $16 million.
    Modular Health Center.--Our health center consists of four modular 
buildings, which are set on pilings and are connected by open, elevated 
wooden walkways. They house a medical clinic (the oldest and largest of 
the buildings, and the one in the worst condition), a family services 
center, a dental clinic, and administrative offices. Over time the 
buildings have settled unevenly, posing an unsafe environment for 
people seeking health services (18,000+ visits per year).
    ``Not Suitable for Renovation''.--The Indian Health Service has 
classified our health center as not suitable for renovation due to 
structural limitations. Yet we continually scramble for funding to make 
emergency repairs which will allow us to continue to provide health 
services. Cost estimates for repairs necessary to achieve compliance 
with current fire, mechanical, electrical and life safety codes, as 
well as the Uniform Building Code and the Americans with Disabilities 
Act guidelines is over $1 million. Our Maintenance and Improvement 
funds are not adequate to meet these needs. Further, the buildings will 
never be able to be fixed for anything approaching long-term usage.
    Falling Walls and Other Repairs.--Indicative of the worsening 
structural condition of the clinic is that when the temperature drops 
below freezing and then warms up, the clinic walls drop and separate. 
Recently, the southeast wall of the Medical Records room dropped and 
separated 1\1/2\ inches, causing the floor to buckle in the Family 
Services building. All staff and equipment had to be displaced from the 
Family Services building for safety reasons. The x-ray room on the 
north end of the building was similarly affected this year when that 
wall dropped and separated. In that instance, we obtained a $13,000 
grant to lift the pilings and move the wall back in place. This is not 
a permanent fix, and, in fact, settling and cracking of the walls 
continue to this day.
    Other recent repairs include: replacement of domestic hot and cold 
water piping in the Medical and the Dental Clinics and a portion of the 
Family Service Building; insulation of the new piping; installation of 
a circulating pump to try to prevent pipes from freezing; repair of the 
waste piping in the crawl spaces; and replacement of the rotting 
emergency room and patient room floors.
    Sick Building Syndrome/ADA Noncompliance.--The IHS October 1996 
Deep Look Survey of our health center noted that some rooms have no 
heat and that ``no ventilation is provided to the facilities, resulting 
in very poor indoor air quality and sick building syndrome, especially 
in the clinic. The buildings get hot in the summer due to no air 
conditioning being provided. The problem is especially severe in the 
clinic where temperatures have reached over 38 degrees centigrade and 
the building occupants have passed out because of the heat.''
    Among the findings of the Deep Look Survey are: corridor widths, 
number of exits and toilet facilities are not in compliance with the 
ADA guidelines; waste piping systems are sloped in the wrong direction 
and sag in all buildings except the dental clinic; electrical systems 
in the clinic and administration buildings are not grounded; asbestos 
in the ceilings; and roofing and gutter systems need to be replaced. 
The most recent Deep Look survey, however, was done prior to the 
phenomena of the clinic walls dropping and separating.
    IHS Priority List.--The Annette Islands Service Unit Health Center 
is on the IHS construction priority list. The Administration requested 
$3.7 million in fiscal year 2000 for design of the Red Mesa and Pawnee 
clinics. Next on the list after them is St. Paul, Alaska and 
Metlakatla. St. Paul, whose service population includes a large non-
Indian tourist and fishing population, may be able to obtain design 
money from another federal agency. We ask Congress to provide enough 
funds in the fiscal year 2000 IHS budget to allow the Metlakatla Indian 
Community to design and begin construction of its desperately needed 
health center.
                      bia fiscal year 2000 budget
    Law Enforcement. The inherent difficulties associated with Indian 
reservation law enforcement, such as inadequate funding, poor equipment 
and facilities, and difficult working conditions, are compounded by the 
stark isolation of the Reserve. The Reserve is reachable only by boat 
or, weather permitting, by small float planes. It's small police force 
and limited court system are taxed heavily by the needs of the resident 
Indian population. Additionally, under federal law, except for 
fisheries enforcement, non-Indian residents and visitors are not 
subject to tribal criminal authority. The Islands have no resident 
state or federal law enforcement personnel or court system. Therefore, 
absent a crime taken seriously by state authorities, non-Indian 
criminal conduct is virtually free from jeopardy.
    Staffing.--Finding and keeping adequate manpower to properly staff 
Metlakatla's police force is a continual problem. The Community simply 
cannot meet the salary expectations of trained law enforcement 
personnel. Isolation, inadequate housing and high living costs add to 
this difficulty.
    Metlakatla's off-shore law enforcement responsibility is 
particularly under-manned and under-funded. Our maritime boundary 
extends 3,000 feet off-shore over the entire circumference of the 
islands, approximately 60 miles. The Community has never been able to 
fund more than a single, low-speed vessel and one officer to patrol the 
entire area. This level of enforcement is simply inadequate to meet the 
need. The principal beneficiaries of the absence of enforcement are the 
non-resident charter fleet who profit from Metlakatla's resources but 
pay no heed to its laws. Metlakatla needs more personnel and better 
vessels to do its job properly.
    In spite of the recent heightened interest in law enforcement 
problems on Indian reservations, many of Metlakatla's unmet or 
underfunded law enforcement needs continue to remain unaddressed due to 
the allocation priorities established by the Bureau. For instance, 
funding for our patrol boats should be considered on par with funding 
for squad cars, but it is not. We strongly urge the Subcommittee to 
support the Administration's requested increase of $20 million for the 
BIA Law Enforcement program and also ask that the BIA allocation 
priorities give fair treatment to the unique needs of the Metlakatla 
Indian Community.
    Tribal Priority Allocation. The Community was deeply disappointed 
that the Administration's fiscal year 2000 budget request did not 
include a general increase for Tribal Priority Allocations (TPA) 
funding. Instead, the Administration proposed targeted increases of $17 
million, of which less than $6 million is for programs or services for 
the benefit tribal members. The Community continues to experience major 
levels of unmet need in the areas of Education-Scholarships, Other 
Rights Protection (which we utilize for fisheries and boundary 
enforcement activities), Resources Management, and Aid to Tribal 
Government--categories which are not covered by the Administration's 
targeted increases.
    We urge that Congress provide a general increase in TPA funding to 
begin to address the disparity in funding of tribal programs as 
compared to funding provided to other governmental entities to provide 
similar governmental services.
    Contract Support. The Community supports the $6.45 million increase 
requested by the Administration. However, the Bureau estimates that the 
current on-going shortfall is about $24 million. We respectfully 
request that Congress fund at least the amount identified in the budget 
request, and defer action on policy and distribution methodologies 
until the National Congress of American Indians national workgroup on 
contract support completes its work on this matter.
    On behalf of the Metlakatla Indian Community, we appreciate the 
opportunity to provide our views to the Subcommittee regarding the 
Indian Health Service and Bureau of Indian Affairs budgets for fiscal 
year 2000. Metlakatla Testimony
                                 ______
                                 
         Prepared Statement of the Shoalwater Bay Indian Tribe
    The Shoalwater Bay Indian Tribe \1\ comes before the Interior 
Appropriations Subcommittee to tell you about the miscarriages, still 
births, and infant mortality that has dominated our lives since 1988 
and to ask for your assistance and guidance. Between 1988 and 1992 we 
had an infant mortality rate of 53 percent. Last year, 89 percent of 
pregnancies on our reservation ended in adverse outcomes, and we are 
concerned that this scourge may be spreading beyond our tribal 
boundaries and is becoming a regional problem. We ask that the fiscal 
year 2000 Indian Health Service budget provide:
---------------------------------------------------------------------------
    \1\ The Shoalwater Indian Reservation (as set aside by Executive 
Order on September 1866), is located in the coastal Pacific County in 
the state of Washington. This small, remote Reservation consisting of 
approximately 1,034 acres, including tidelands, is situated on Willapa 
Bay at North Cove. According to the 1997 Indian Labor Force Report, 30 
percent of the Shoalwater Bay labor force was unemployed. And of those 
who were employed, 19 percent were living below the poverty line.
---------------------------------------------------------------------------
  --$1,037,000 for the Shoalwater Bay Tribe for a range of preventive, 
        monitoring, testing and social intervention measures regarding 
        miscarriage and infant mortality. We attach a one-page summary 
        of items which comprise this appropriations request.
    Investigations into Shoalwater Bay Miscarriages and Infant 
Mortality.--There have been a number of investigations and 
recommendations from an array of agencies regarding the incidences of 
miscarriage, stillbirth, and infant mortality at Shoalwater. Below is a 
summary of these activities:
  --Joint Tribal/IHS/Washington Report (1994).--Investigations 
        conducted by the Tribe, Indian Health Service, and Washington 
        State Department of Health focused on three areas of concern in 
        response to emergency: (1) lack of adequate health care; (2) 
        the need to establish a Health Concerns Advisory Committee: and 
        (3) possible exposure of community members to environmental 
        toxins. As a result of the investigation, a report, The 
        Pregnancy and Infant Mortality Emergency of the Shoalwater Bay 
        Reservation, Washington State: A Joint Report of Findings 
        issued by the Shoalwater Bay Tribal Council, Indian Health 
        Service, and Washington State Department of Health--October 27, 
        1994 (SBIT/WA ST Joint Report), was released. This report 
        outlined recommendations to improve the quality and 
        availability of health care while also conducting a 
        comprehensive and definitive environmental health risk 
        assessment.
    In order to address the concerns over lack of access to adequate 
health care, the Tribe sought help at the local level, regional level, 
and finally the national level in Washington D.C. This resulted in a 
fiscal year 1995 Congressional appropriation of $250,000 to be used to 
establish a clinic on the tribal reservation and to provide mental 
health care services. These funds along with additional funding secured 
over a three-year period made it possible for the Tribe to assume local 
control of its health care needs. The Tribal Clinic and Health 
Department has continued to grow and now serves over 700 local Native 
Americans and employs 10 staff, including a full time physician, 
dentist, nurse, mental health professional and substance abuse 
counselor.
    The second area of concern identified by the report was the need 
for the Tribe to enlist outside expertise. Consequently, in 1994, the 
Shoalwater Bay Health Concerns Advisory Committee (SBHCAC) was formed. 
The task force consists of representatives from the Center for Disease 
Control (CDC), Indian Health Service (IHS), the Agency for Toxic 
Substances and Disease Registry (ATSDR), the Environmental Protection 
Agency (EPA), the American Medical Association (AMA), Washington 
Department of Health (WDOH), the University of Washington (UW), and 
independent epidemiologists. SBHCAC is still active and continues to be 
a guiding force in health-related actions taken by the Shoalwater Bay 
Tribe.
  --EPA Limited Assessment (1994-1995).--It had been suggested in the 
        SBIT/WA ST Joint Report that environmental pathways may have 
        been responsible for the Shoalwater Bay Indian Tribe's 
        reproductive health crisis. Consequently, Congress charged the 
        Environmental Protection Agency (EPA) with the responsibility 
        of performing a definitive environmental assessment of the 
        Reservation. However, because of budgetary constraints, EPA was 
        only able to do a very limited ``snap shot'' study which 
        resulted in the following list of strong recommendations 
        outlined by in Shoalwater Bay Indian Tribe--A Limited 
        Assessment: 1994-1995:
  --Screen ground water possibly contaminated by runoff from cranberry 
        bogs for pesticides and other organic compounds.
  --Monitor air quality during aerial pesticide application events.
  --Perform further studies of the long-term ecological impact of the 
        extremely toxic pesticide, carbaryl, routinely applied on 
        tidelands adjacent to the Reservation.
  --Work with shellfish farmers to develop less draconian methods of 
        controlling mud shrimp populations.
  --Monitor adjacent abandoned military site to better understand the 
        source, fate and impact of unusual bromo-and iodo-compounds 
        found at the site.
  --Augment and strengthen database for organomercury compounds (found 
        in pesticides) in local sediment samples.
  --Examine affect of carbaryl and glyphosate pesticides on the Willapa 
        ecosystem. Collect sediment samples immediately after spraying.
  --Perform an extensive study of the entire cranberry drainage area to 
        determine the extent of sediment contamination and destination 
        of contaminated sediment.
  --Perform in-stream monitoring, especially via aquatic bioassays to 
        determine cumulative effects of the use of different pesticides 
        and herbicides in cranberry growing area.
  --Because Tribal members consume relatively large amounts of fish and 
        shellfish, selective tissue analysis of some sustenance 
        organisms should be performed.
    Unfortunately, no funding was allotted to the Tribe to implement 
programs necessary to follow through on all these recommendations. The 
Shoalwater Bay Reservation is fairly isolated with the nearest 
laboratory facility 150 miles from the Reservation. Limited funding and 
isolation coupled with prohibitive costs of commercial lab testing have 
made it impossible to adequately address all the recommendations made 
by EPA. The most important issue relating to addressing environmental 
pollution on the Reservation is the further development of the Tribal 
Environmental Testing Laboratory. This will enable the Tribe to build 
the capacity to more closely follow EPA's recommendations by making it 
possible and affordable to put a comprehensive year-round monitoring 
plan in place.(Estimated funding requirements needed to initiate this 
project are outlined in the attached budget.)
    Presently, the Tribe has been able to establish only a few very 
limited environmental monitoring projects on the Reservation with 
assistance from newly formed relationships with agencies such as EPA 
and Administration for Native Americans (ANA). These projects include 
water quality monitoring of the cranberry drainage ditches known to be 
contaminated with pesticides, monitoring water quality and sediments 
from an abandoned military site suspected of having toxic materials 
buried there, and the monitoring of Tribal tidelands for the presence 
of pesticides and fecal coliform bacteria.
  --Centers for Disease Control (1998-1999).--Despite all these 
        efforts, the reproductive health crisis continues to plague the 
        Shoalwater Bay community. Members were devastated to learn that 
        health statistics collected from the Tribal Health Program 
        showed that, as of September 1998, 80 percent of the 
        pregnancies ending for the year-to-date had resulted in adverse 
        outcomes. By the end of the year, four more pregnancies were 
        lost to miscarriages, raising the incidence of adverse outcomes 
        for pregnancies ending in 1998, to nearly 89 percent.
    In November 1998 the Shoalwater Bay Tribal Council appointed a 
committee to investigate the situation on the Reservation, gather 
information on adverse pregnancy outcomes, and then to prepare a 
report. In December, the committee conferred with Pacific County Health 
Department and the SBHCAC. After a comprehensive analysis of clinical 
data was performed, the Shoalwater Bay Tribal Council and Pacific 
County Board of Commissioners jointly submitted a request for 
assistance from the Center for Disease Control (CDC).
    After reviewing the clinical data, CDC responded immediately by 
sending a team of epidemiologists to the Shoalwater Bay Indian 
Reservation to perform a study of alarmingly high occurrences of 
adverse pregnancy outcomes. The final report from CDC is not yet 
finished, but will be made available upon completion in mid-April.
    Based upon discussions with SBHCAC, CDC, and Pacific County Health 
Department, the Shoalwater Bay Indian Tribe determined that the 
following steps would best address the Tribe's reproductive health 
issues:
  --Implement high-risk pregnancy protocols in hopes of decreasing risk 
        of adverse pregnancy outcomes by allowing early identification 
        of pregnancy related problems. Initially this would have to be 
        done at a distance with UW and Tacoma General. The Tribe and 
        the County Health Department are working together to establish 
        the protocols in hopes of emulating the UW program in a 
        regional fashion.
  --Hire a community health nurse to provide in-home support, education 
        and ongoing monitoring of pregnant mothers and their families. 
        This person would also need to have an extensive grief 
        counseling background and be able to assist in identification 
        and coordination of community resources while providing general 
        health education and wellness promotion to all the community 
        members.
  --Implement a monitoring and data tracking system to track all Native 
        Americans and all Shoalwater Bay Tribal members as related to 
        pregnancies, chronic health conditions, and overall wellness. 
        Establish a data base of health information to serve as an 
        early warning system for negative health indicators that would 
        be coordinated with the Grays Harbor and Pacific County 
        monitoring systems to allow examination of data on a regional 
        basis for possible trends in local populations.
  --Implement psycho-social intervention including grief counseling and 
        obtain a contract for psychiatric consultations to assist 
        Tribal Clinic providers in care delivery.
  --Work with a local pathology lab to store frozen samples from 
        miscarriages to allow genetic testing and screening for 
        possible toxins. This would involve coordination with the 
        environmental testing of water, air and soil to identify 
        possible agents of contamination to test for in the tissue.
  --Support development of Tribal Environmental Testing Laboratory 
        (initiated in 1998), that will allow for routine testing of 
        water quality and sediments.
    This list is by no means definitive, and although health costs 
change rapidly, the Tribe has outlined its estimated funding needs in 
the attached budget.
                               discussion
    It is the hope of the Shoalwater Bay Indian Tribe that the 
strategies outlined above will provide the capacity to gain the 
information necessary to better understand the nature of the 
reproductive health crisis. By developing the means to monitor 
pregnancies and to perform tissue analyses, in the event that more 
losses do occur, a determination can be made as to the presence or 
absence of toxic compounds. Further, by developing the capacity of the 
Tribe to monitor its environment, those compounds isolated in tissue 
samples can be compared with the myriad of environmental pollutants 
routinely found in high concentrations on Shoalwater Bay Tribal land 
and in Tribal water.
    The Tribe realizes that it must continue to work closely with 
Pacific County Health Department to determine whether or not the 
problem is confined to the Reservation or if it is a regional problem. 
Furthermore, the Tribe recognizes that they must work closely with 
Federal, State, and local governments to find the resources necessary 
to develop a sound health care system. Moreover, the Tribe must acquire 
the necessary resources to ensure the success of the newly developed 
Tribal Environmental-testing laboratory (initiated in 1998). Finally, 
the Tribe realizes that it must follow-up on the recommendations made 
in the EPA report mentioned previously.
    The Shoalwater Bay Indian People realize that it will be difficult, 
if not impossible, to readily determine the cause for the loss of 
nearly an entire generation of Shoalwater babies. But what those 
outside the Tribe do not realize is that the survival of an entire 
nation--the sum total of its traditions and culture--is in danger of 
being lost forever. And although this tragedy, at times seems 
impossible to overcome, the Shoalwater People are determined. And 
consistent with the spirit exemplified by the Shoalwater Bay Indian 
Tribe, they will continue to fight for their survival in the same way 
their ancestors fought. But they need help.
                      shoalwater bay indian tribe
Budget addendum to testimony before the Interior appropriations 
        subcommittee
    1. Implement High Risk Pregnancy Protocols for all expectant 
mothers in the community. This would involve transportation to and from 
appointments in Tacoma or Seattle to visit OB-GYNs specializing in High 
Risk Pregnancies and deliveries. Since this cost is directly related to 
the number of pregnancies in the community each year, it is very 
difficult to estimate. Using $20,000 per pregnancy with possibly 10 
pregnancies per year plus $30,000 for a transportation program. The 
tribe will work closely with local providers to develop these protocols 
so that the mothers will be able to remain in the community and follow 
these protocols.--$230,000 estimated annually
    2. Tissue testing for genetic abnormalities and environmental 
toxins. We are still working with the SBHCAC to establish the protocols 
for this program. A relationship with the local pathology lab is being 
developed along with the list of toxins to begin testing for in the 
tissue samples.--$60,000 estimated annually
    3. Hire a full-time Community Health Nurse to provide in home 
health care and education to expectant mothers and their families while 
also addressing grief counseling needs when necessary. This could be a 
position funded cooperatively through the County Health Dept.--$60,000 
annually (includes salary, benefits)
    4. Implement a monitoring system of all Native Americans and non-
tribal community members in the service area through full utilization 
of the Patient Care Component module within the I.H.S. RPMS computer 
software system. This combined with an annual survey of all Shoalwater 
Bay Indian Tribal members would allow complete data collection of all 
health care information of community members. This information should 
allow us to identify health care trends within our community earlier so 
that an intervention can be coordinated.--$75,000 annual salary, 
benefits, and supplies
    5. Create and implement psycho-social intervention to include grief 
counseling and the purchase of psychiatric consultations with Tribal 
Clinic staff to assist them in mental health services referrals and 
care.--$52,000 estimated annually
    6. Support development of Tribal Environmental Testing Laboratory, 
which will enable the Tribe to perform routine monitoring over a three-
year period. This will establish the baseline for the clinical testing 
of tissue samples for the presence of environmental toxins. This 
includes testing of water quality and sediments for unacceptable levels 
of pesticides, herbicides and fecal bacteria.--$560,000 one time 
emergency add-on
Total request: $1,037,000 one-time emergency add-on and a recurring 
        add-on of $477,000
    Please note that the costs for number 1 and 2 are directly linked 
to the number of pregnancies that occur in a year. This money could be 
set aside at Portland Area Indian Health Services and drawn down as 
each pregnancy occurs. With the current funding level, the Tribe cannot 
provide these services and ensure there will be enough funding to 
provide services through the entire fiscal year for the remaining 
service population.
                                 ______
                                 
   Prepared Statement of Hon. Gerald J. Jones, Tribal Chairman, Port 
                         Gamble S'Klallam Tribe
    As Chairman of the Port Gamble S'Klallam Tribe from Washington 
State, I appreciate this opportunity to submit testimony regarding the 
President's fiscal year 2000 budget request for tribal programs in the 
BIA and IHS. This statement is presented on behalf of my fellow elected 
Tribal Council members and on behalf of the Port Gamble S'Klallam 
people.
    My testimony addresses four particular program areas for which the 
Tribe urges Congress to support funding increases in fiscal year 2000:
  --Shellfish and Endangered Species Funds. Request $420,000 for 
        implementation of the U.S. v. Washington shellfish decision and 
        for salmon recovery efforts necessitated by Endangered Species 
        Act listing of salmon runs in our treaty area.
  --Law Enforcement. Support proposed increases through BIA and DOJ for 
        additional tribal police personnel and tribal jail facilities.
  --Contract Support. Fully fund the BIA and IHS pools for funding 
        tribal contract support needs, as required by law.
  --Tribal Courts. Support proposed increases through BIA and DOJ, and 
        appropriate additional funds as authorized under the Indian 
        Tribal Justice Act of 1993.
    Before I address these four specific areas, however, I would like 
to say that the Port Gamble S'Klallam Tribe is very pleased with the 
number of significant proposed increases contained in the President's 
fiscal year 2000 budget request, including funding increases to the 
Bureau of Indian Affairs, Office of Special Trustee for American 
Indians, Indian Health Service, Department of Justice, and Office of 
Indian Education. While we are mindful that, overall, Congress has less 
money to appropriate among all federal programs in fiscal year 2000 
than in fiscal year 1999, we strongly urge this Subcommittee to put as 
many additional resources into tribal programs as possible.
    justification of port gamble s'klallam priorities: tribal level
Shellfish and endangered species
    In the fiscal year 2000 budget request, there are a number of 
proposed increases for the protection of endangered species and for 
salmon recovery efforts in the Department of the Interior and other 
federal agencies. The Tribe supports these increases. We also support 
the proposed $500,000 to the Fish and Wildlife Service for the 
Secretarial Order regarding the implementation of the Endangered 
Species Act (ESA) on tribal lands, resources and rights.
    The Tribe supports the small proposed increase of $136,000 in 
fiscal year 2000 for Western Washington Fisheries Management, for a 
funding level of almost $5 million. In addition, we request that 
$420,000 be added for the Tribe to implement the recent U.S. v. 
Washington shellfish decision and the salmon recovery efforts 
necessitated by ESA listing of salmon runs.
    The Tribe's natural resources program has only been funded to meet 
the minimum court ordered requirements to allow the tribal harvest of 
#T3salmon. This stems from a 1974 federal court decision which affirmed 
the Tribe's treaty right to harvest and manage salmon. The Tribe has 
developed and now operates a fisheries management program that meets 
the requirements of court decisions, implements joint Tribal, State and 
Federal management plans and agreements, and maintains consistency with 
tribal values.
    In 1997, the Tribe's treaty right to harvest shellfish was 
reaffirmed by the 9th Circuit Court of Appeals. However, the Tribe 
still cannot exercise this right unless it provides for the management 
and protection of the shellfish resource. The court decision requires 
the Tribe to collect and analyze data, conduct resource assessments, 
take measures to ensure the protection of public health and develop 
management plans with State agencies and private tideland owners.
    The Tribe now has the opportunity to utilize many species of 
shellfish, including deep-water animals such as crab, shrimp, and 
geoduck. Effectively managing these ``new'' shellfish resources, while 
providing for their protection, requires additional technical 
expertise. The additional shellfisheries will also require expanded 
enforcement efforts and capability. The opportunity is also available 
for the enhancement of tidelands to increase shellfish production. This 
will benefit both Indians and non-Indians.
    The Tribe cannot take advantage of the opportunity to harvest 
treaty resources unless we meet the court's requirements, and we cannot 
meet the requirements without additional funding. The Tribe has imposed 
a tax on the harvest of shellfish to fund a skeletal harvest program. 
This tax provides about $130,000 per year. This tax base cannot 
increase without opening new harvest opportunities. It is a ``Catch-
22'' situation for the Tribe.
    Of equal concern, two species of salmon in our treaty area were 
listed recently as ``threatened'' under the ESA. The ESA listing has 
broad implications for tribal and non-tribal management of salmon. As 
co-managers of the salmon resource, the Tribe wants to be involved and 
is legally required to be involved in the development and 
implementation of plans to protect and recover depressed stocks of 
salmon. Unfortunately, the Tribe has virtually no tax base to support 
these activities because there can be no harvest of these species.
    To continue the Tribe's salmon management program and the 
additional requirements of both the shellfish decision and the ESA 
recovery planning efforts, the Tribe needs an additional $420,000 to 
employee a shellfish biologist, salmon biologist with a background in 
ESA issues, three technicians and the necessary support services and 
equipment, in addition to the Tribe's contribution of the proceeds from 
our harvest tax.
Law enforcement
    Within the BIA's Special Programs and Pooled Overhead account is a 
proposed increase of $20 million for BIA Law Enforcement, for the 
second year of the joint Department of the Interior-Department of 
Justice Law Enforcement Initiative in Indian Country. The proposed 
increase will be for personnel, equipment and detention services. With 
an additional $3.3 million for uncontrollable costs for the BIA Law 
Enforcement Initiative and the transfer of law enforcement funding from 
Tribal Priority Allocations, the proposed fiscal year 2000 total for 
the BIA Law Enforcement Initiative is $141.3 million. We strongly 
support these requested additional resources for personnel and law 
enforcement services in Indian country.
    Although we know that the Department of Justice does not receive 
appropriations under this Subcommittee, we are aware that the fiscal 
year 2000 budget request proposes a total of $124.2 million through the 
Office of Justice Programs and other bureaus of the Justice Department 
as part of the joint DOJ-DOI initiative to improve law enforcement in 
Indian country. We hope that Congress will agree to provide the 
requested increases in fiscal year 2000 for additional attorneys to 
investigate and prosecute crime in Indian country; alcohol and 
substance abuse programs in Indian country; development and enhancement 
of tribal judicial systems; construction, renovation and repair of 
adult and juvenile correctional facilities and jails in Indian country; 
and education and training to police in Indian country. We strongly 
support these requested additional resources.
    The Port Gamble S'Klallam community has been confronted with a 
number of serious, new crime issues over the past couple of years, 
including illegal drugs and gang violence. Although our efforts to 
combat these problems have been undertaken in cooperation with local 
and federal law enforcement agencies, the Tribe continues to have a 
chronic shortage in police protection because there is not enough 
funding to provide salaries and equipment. To meet our goal of 24-hour 
police coverage on the reservation, we need a minimum total of six 
officers. Our level of need is $160,000 to fund additional officers, 
their equipment and training.
    In addition, the Tribe would like to begin the process of planning 
a tribal jail. Currently, we contract with neighboring counties for 
jail facilities. The nearest juvenile detention facility, more than an 
hour's drive from the reservation, is filled to capacity most of the 
time. Adult jail facilities are frequently full as well, posing a 
safety threat to our police officers and to the community. The Tribe 
needs $80,000 to plan a jail facility which could provide jail services 
to six area tribes, increase employment and generate revenue by renting 
jail space to local jurisdictions.
Contract support
    We request that Congress fully fund the BIA and IHS pools for 
funding tribal contract support needs. Full funding is imperative for 
tribal contractors to meet the incidental needs and expenses associated 
with the programs they have assumed on behalf of the federal 
government.
    As the court determined in #T3Ramah Navajo v. Lujan, tribal 
contractors are entitled to receive the full amount of funds necessary 
to meet the costs of supporting the federal programs they have assumed 
under contracts and compacts. Despite this decision, the 
Administration's fiscal year 2000 requests for contract support funding 
remain short of meeting the full needs of tribal contractors.
    As a Self-Governance Tribe, we have assumed the responsibility for 
delivering governmental services directly to the local community. Self-
Governance has been a dramatic success on our reservation. The Tribe's 
management of tribal programs has resulted in more cost effective and 
efficient delivery of services to the local community. Because of the 
contract support shortfall over the past six years, however, the gains 
we make in program delivery have been significantly diminished.
    If the shortfall continues through the upcoming fiscal year, our 
tribe will again be faced with making very difficult choices. Funds 
otherwise identified for a particular program must be used to cover the 
contract support shortfall. What makes the decisions all the more 
difficult is that cuts will be made to already underfunded programs, 
including daycare, education and senior citizen housing. As in years 
past, our food bank and emergency shelter programs face elimination 
again. The losers are the people to be served.
Tribal courts
    In the fiscal year 2000 budget request, additional resources are 
requested for tribal courts. We urge this Subcommittee to support the 
requested increase of $2.6 million within the BIA's Tribal Priority 
Allocations account for Tribal Courts. We also wish to express our 
support for the $5 million requested in fiscal year 2000 through the 
Office of Justice Programs in the Department of Justice to provide 
financial and technical assistance for the development and enhancement 
of tribal judicial systems.
    However, we also wish to call to this Subcommittee's attention our 
dismay that tribal judicial systems are so inadequately funded. 
Although some funds have been appropriated pursuant to the Indian 
Tribal Justice Act of 1993, those appropriations have been nowhere near 
the level of funds authorized under the Act. We urge this Congress to 
provide additional resources.
    The Port Gamble S'Klallam Tribe is proud of our tribal court, which 
is part of the Northwest Intertribal Court System. Our tribal 
enforcement and justice officials work in concert with federal and 
state law enforcement, prosecutors and courts to address the inter-
jurisdictional problems associated with enforcement of child abuse, 
drug crimes, and child support on the Reservation. The court hears 
cases in twenty subject matter areas, including criminal, civil, 
traffic, child welfare, juvenile, domestic violence, hunting, fishing, 
housing, and adult protection. Our tribal court staff is made up of a 
judge, prosecutor, court administrator, court clerk, court compliance 
officer and support staff. This work requires having personnel 
available on nights and on weekends as well as the during the work 
week. The court facilities require space and equipment for the 
confidential work of the court which cannot be shared by other tribal 
departments. We are nearly two hours from the nearest law library and 
must have an updated reference base including Internet access located 
on site for the court's use. The court must also provide an effective 
appellate system to ensure due process.
    There are those in Congress and elsewhere who believe that 
individual civil rights are compromised in tribal justice systems. 
While our court provides high quality justice and we see no evidence of 
violations of individuals' civil rights in our court, a chronic lack of 
funding in our court and in all tribal courts hampers the efforts of 
tribal governments to provide all the necessary judicial services to 
their people. Thank you for this opportunity to submit this testimony 
on fiscal year 2000 funding for tribal programs.
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    The National Indian Education Association (NIEA), the oldest 
national non-profit organization representing the education concerns of 
over 3,000 American Indian and Alaska Native educators, school 
administrators, teachers, parents, and students, is pleased to submit 
this statement on the President's fiscal year 2000 budget as it affects 
Indian education. NIEA has an elected board of 12 members who represent 
various Indian education programs and tribal constituencies from 
throughout the nation. The following is NIEA's funding recommendations 
for the BIA.
                         department of interior
Bureau of Indian Affairs (BIA)
    Within BIA's overall departmental framework are five categorical 
areas that contain education-related programs serving federally-
recognized Indian tribes. The programs serve Indian students in K-12, 
postsecondary, and adult education programs either through direct 
funding from the BIA or indirectly through allocations to tribes. These 
programs include: Tribal Priority Allocations; School Operations; 
Tribally Controlled Community Colleges; Special Programs and Pooled 
Overhead; and Education Construction. A separate line item for the 
Institute of American Indian Arts (IAIA) funds postsecondary programs 
for Indian students in the arts. In the following paragraphs, we 
discuss specific BIA education programs and provide recommended levels 
of funding. A separate one page table is provided which shows our 
numbers compared to previous years as well as the Administration's 
request.
            Tribal Priority Allocations (TPA)--$51,106,000
    Scholarships.--The fiscal year 2000 request is $28.6 million and is 
$919,000 less than fiscal year 1999. Since fiscal year 1994, 
allocations for tribal college scholarships have fallen from $31 
million to less than $29 million in the 2000 request. NIEA recommends 
$39 million for this scholarship program. Funding for Indian 
scholarships is one of the greatest need areas in Indian education and 
has declined significantly since fiscal year 1995. This trend needs to 
be reversed. The 1990 Census identified the majority of the Indian 
population as being under the age of 25 compared with 17 percent 
nationally. The BIA estimates that 9,800 students will be awarded 
scholarships through this program in fiscal year 1999 with an average 
award of $3,000. The reduced funding level means that more than 300 
students will be denied funding next year.
    Adult Education.--The fiscal year 2000 request is $2.6 million and 
is a reduction of $28,000 from fiscal year 1999. NIEA strongly 
recommends the program be funded at $4 million in fiscal year 2000. 
Next to Indian scholarships, adult education programs continue to be 
one of the most critically-needed areas in Indian communities. Adult 
education programs have a twofold purpose in allowing Indians adults 
who did not finish high school to obtain their General Educational 
Development (GED) degree and/or increase their life-coping skills. 
There is no other on-reservation source of funds for GED completion.
    Johnson-O'Malley (JOM) Program.--The fiscal year 2000 request is 
$17.5 million and is a reduction of $611,000 over 1999. NIEA recommends 
that the JOM program be funded at $24 million. Since fiscal year 1995, 
the funding for JOM has decreased by nearly $7 million. The JOM program 
provides supplemental educational services for 272,000 American Indian 
students in 23 states. NIEA continues to support a per pupil 
expenditure of $200, a number also supported by the National Johnson 
O'Malley Association.
            Other Programs, School Operations--$503,568,000
    The fiscal year 2000 budget request for School Operations is $27.4 
million over 1999. The $503.5 million investment in students attending 
BIA schools provides for a variety of basic educational services from 
early childhood to transportation and administrative costs associated 
with educating primarily reservation-based schools. The BIA educates 
about 10 percent of the American Indian and Alaska Native K-12 
population in the U.S. Below are the various education components 
within this category.
    Indian School Equalization Program (ISEP) Formula.--The President's 
fiscal year 2000 request is $319.9 million compared with the fiscal 
year 1999 actual of $306.2 million for this program. The increase of 
$13.7 million provides formula-based funding for 185 federally-operated 
and contracted schools serving 51,378 students. There are several types 
of schools funded with ISEP funds including BIA-operated, grant, and 
contract elementary and secondary schools. The fiscal year 2000 request 
reflects a 10 percent reduction in the student count from the prior 
year. While there was a decrease in student enrollment in school year 
1998-1999, the BIA expects an increase of 2.5 percent for school year 
1999-2000. The Weighted Student Unit (WSU) amount for school year 1998-
1999 is $3,199. The estimate for 1999 is $3,238 and $3,285 in 2000. 
NIEA continues to support a funding level of $3,500 per WSU--a number 
we have proposed since fiscal year 1993. The proposed $3,285 per WSU is 
still far below the average per student expenditure by public 
elementary and secondary schools, an amount reported by the Department 
of Education's National Center for Education Statistics (NCES) to be 
$7,317 per student in school year 1996-1997. In addition, enrollment 
for BIA schools has consistently grown from 39,911 in 1987 to 51,378 in 
1999. T3NIEA recommends $329 million for ISEP and $708,000 for ISEP 
Program Adjustments.
    Family and Child Education (FACE) Program.--The fiscal year 2000 
request is $5.5 million and is $83,000 more than 1999. The FACE program 
was first funded in 1992 and was designed to begin educating children 
at an earlier age through parental involvement at home and to 
coordinate FACE components. We request that the FACE program be funded 
at the fiscal year 1994 level of $7.5 million. Currently there are 22 
FACE sites, however the BIA could use a FACE program at each of its 
elementary schools if the program were sufficiently funded.
    Student Transportation.--The fiscal year 2000 request is $38.8 
million and is an increase of $4 million over 1999. In SY 1998-1999 the 
BIA-funded transportation cost is $2.10 per mile with over 14 million 
miles estimated to be driven. The latest national cost per mile was not 
available, however, in 1994, the national average was $2.92 per mile 
for public schools. Therefore, the BIA-funded schools, which are 
located primarily in rural, isolated areas, are at least $.82 below the 
national per mile average. For students in boarding schools, 
transportation funding is provided at the beginning and end of the 
school year and for one round trip home at mid-year. For students in 
day schools, daily transportation must be provided. NIEA recommends $41 
million for student transportation.
    Institutional Disabled.--The fiscal year 2000 request is $3.7 
million and is $7,000 less than 1999. Appropriations in fiscal year 
1999 provided for services to approximately 166 Indian children ages 5-
21 in 47 different institutions. These students require 24-hour 
institutionalized care. NIEA recommends $4 million.
    Facilities Operations and Maintenance.--The fiscal year 2000 
request is $79.1 million and is $3.8 million less than 1999. The 
request will provide for $51.8 million for operations and $27.3 million 
for maintenance costs for all Bureau-funded schools. In fiscal year 
1999, the Bureau will provide essential services for educational 
facilities consisting of 2,337 buildings containing approximately 17.6 
million square feet. NIEA recommends $90 million.
    Administrative Cost Grants.--The fiscal year 2000 request is $47.7 
million and is $5.5 million over 1999. For school year 1999-2000, the 
BIA will have 129 contract/grant schools and 56 Bureau-operated 
schools. Administrative cost grants enable tribes and tribal 
organizations to operate contract or grant schools without reducing 
direct program services to Indian students. The Navajo Nation has 
approved the conversion of 10 additional schools during school year 
2000-2001, therefore more funds are needed to cover these conversion 
costs. NIEA recommends $50 million.
    Area Agency Technical Support.--The fiscal year 2000 request is 
$7.4 million and is $240,000 over 1999. This funding provides technical 
support and program supervision through 24 education line officers for 
185 Bureau-funded elementary and secondary programs, and the 
scholarship and adult education programs. NIEA recommends $8 million.
    Tribal Departments of Education (TED).--Although no funding is 
provided in the President's budget, NIEA recommends at least $3 million 
for tribal departments of education. We believe that sufficient funding 
should be provided to assist tribes in planning and developing their 
own centralized tribal administrative entities to accomplish their 
goals in accordance with school reform and accreditation needs. This 
would be appropriate given the recent trend to convert more schools 
from BIA to Tribal control. Funding for tribal education departments 
has been endorsed by NIEA's membership as well as by the National 
Congress of American Indians (NCAI).
            Tribally Controlled Community Colleges--$38,411,000
    Tribal Colleges/Post Secondary Schools.--The fiscal year 2000 
request is $37.3 million and is $7.1 million over the 1999 amount. 
Included in the request is $114,000 for technical assistance and 
$977,000 for Endowment Grants. NIEA supports the American Indian Higher 
Education Consortium funding recommendation of an additional $10 
million for tribal colleges.
            Special Programs and Pooled Overhead--$15,670,000
    Postsecondary Schools.--The fiscal year 2000 request is $14.3 
million and is $1.4 million over fiscal year 1999. NIEA recommends $16 
million for the postsecondary schools program. The two postsecondary 
schools funded under this section include Haskell Indian Nations 
University and the Southwestern Indian Polytechnic Institute (SIPI). 
Haskell will receive $8.6 million and SIPI will receive $5.7 million if 
the request is approved. NIEA recommends $10 million for Haskell and 
$6.5 million for SIPI since both schools have experienced large 
increases in enrollments. Both schools provide a variety of educational 
opportunities for Indian and Alaska Native students at the community 
college and university level to prepare them to enter four-year 
colleges and universities or to find employment. From 1997 to 1998, 
enrollment at both schools increased by 350. The fiscal year 2000 
projection shows a major increase of nearly 500 Indian students.
    Special Higher Education Scholarships.--The fiscal year 2000 
request is $1.3 million, level with 1999. This amount has remained the 
same since 1996 and is totally unacceptable to NIEA. NIEA recommends $5 
million. Since fiscal year 1995 funding for BIA graduate scholarships 
have been cut in half. The reduction occurred at the same time the 
Department of Education, Office of Indian Education lost funding for 
its $2.6 million fellowship program for Indian students which served an 
average of 150 students. The BIA program is the primary funding source 
for American and Alaska Native graduate students and is totally 
inadequate to help these individuals meet the costs of an advanced 
degree. The program, which is administered by the American Indian 
Graduate Center (AIGC) of Albuquerque, New Mexico, has been underfunded 
for at least the last 20 years. For school year 1997-1998, the actual 
unmet need was $5.7 million. During the 1996-1997 school year, the 
program funded an estimated 378 students with an average award of 
$3,955. Because of reduced funding, scholarship awards are being 
drastically reduced while the demand for these limited scholarship 
funds increase. This program funds students in 27 states with 128 
tribes represented. No other federal graduate level scholarship 
program, specifically for American Indian students, currently exists.
            Education Construction--$108,377,000
    Replacement School Construction.--The fiscal year 2000 request is 
$69.9 million and is $52.4 million over 1999. As part of the fiscal 
year 2000 request is $30 million as recommended by the President's 
School Bonding proposal. NIEA supports the completion of all 
construction for all schools on the priority ranking list. The fiscal 
year 2000 funds are designated for the Seba Dalkai School in Arizona 
and the Fond du Lac School in Wisconsin. The priority ranking list 
contains 16 schools. To date, seven schools have been completed and are 
now occupied. Ten of the sixteen schools have been funded though the 
construction phase. The Bureau estimates that approximately $111 
million would be needed to complete the remaining six schools on the 
replacement school construction list.
    New School Construction Priority List.--NIEA has become aware of a 
situation involving Shiprock Alternative School which is apparently not 
on the list to be funded in fiscal year 2000, even though it should be 
next in the priority ranking list. The priority ranking list determines 
the order that new schools are to be built and should provide the 
baseline for annual appropriation requests. Shiprock was assigned 
position number 12 out of 16 on the priority list. The schools 
designated to be funded in fiscal year 2000 are Seba Dalkai (# 9 on the 
list) and Fond du Lac Ojibway School (#13 on the list). If this is 
indeed the case, we request that additional funds be made available for 
Shiprock Alternative. Schools assigned #10 (Sac and Fox Settlement 
School in Iowa) and #11 (Pyramid Lake High School in Nevada) are 
scheduled to begin construction in 1999. Bypassing a school on the 
priority list for budgetary reasons sets a negative precedent as the 
BIA works to establish new guidelines for a future priority list. These 
guidelines are due out this fiscal year.
    Education Facilities Improvement and Repair (FI&R).--The fiscal 
year 2000 request for Education Facilities Improvement and Repair is 
$36 million and is $4 million less than 1999. The FI&R program is 
focused towards eliminating critical health and safety hazards in 
Bureau education facilities. The estimated backlog of education repair 
needs, excluding quarters as of January, 1999, totals approximately 
$743 million. NIEA urges the Committee to consider additional, or 
supplemental funding, in order to clear up this situation. NIEA 
recommends $46.2 million.
    Indian School Construction Bonding.--The fiscal year 2000 request 
is $30 million and is included under the Bureau's Replacement School 
and is being proposed in the President's School Construction 
Modernization Initiative. The bonding initiative is designed to provide 
needy districts and Tribes with the authority to issue bonds to lenders 
who could claim a tax credit for the life of a bond in lieu of 
interest. It is estimated that the bonding authority could generate an 
estimated $75 million in construction authority. Past bonding 
initiatives have failed for various reasons and direct funding may be a 
better alternative for tribes and bureau schools since they are a 
federal responsibility equal to the better-funded Department of Defense 
schools. We feel that the proposal has some merit; however, an outright 
appropriation to fund the $740 million backlog is preferred.
            Institute of American Indian Arts (IAIA).
    The fiscal year 2000 request is $4.25 million and is level funded 
with fiscal year 1998 and fiscal year 1999. NIEA supports the fiscal 
year 2000 request for IAIA plus an additional $2 million for 
construction needs. This institution has been in existence for 35 years 
and is the only facility solely dedicated to the arts for American 
Indians and Alaska Natives. The request would support the core 
operations of the institute by providing funding for instruction, 
student support services, administration costs, and for operations of 
the IAIA museum. NIEA supports an appropriation of $6.25 million for 
IAIA.
    IAIA has been compared to other institutions in terms of cost per 
students. IAIA does not have its own facilities and leases space from a 
separate college and from a tribally-contracted school. The cost for 
housing the IAIA on the campus represents 18 percent of the total 
institutional budget. IAIA also operates a museum which houses the 
National Collection of Contemporary American Indian and Alaska Native 
Art, a collection of 7,000 pieces. There are no funds requested in the 
fiscal year 2000 budget for construction costs at IAIA. NIEA asks the 
committee to support an additional $2 million for IAIA's construction 
needs for a new campus. In the fiscal year 1999 appropriations bill, 
the IAIA was required to raise $500,000 in order to bring the 
appropriation of $3.75 million to $4.25 million. By mid-February 1999, 
IAIA had raised 80 percent ($395,000) of the $500,000 as requested by 
Congress. IAIA has made exceptional progress in obtaining private 
sector support and in 1990, a private donor in Sante Fe, New Mexico 
donated 140 acres of land that will be used for a future campus.

                                      BUREAU OF INDIAN AFFAIRS FUNDING--FISCAL YEARS 1996-2000 PRESIDENT'S REQUEST
                                                                [Educaton Programs Only]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Fiscal year
                             ---------------------------------------------------------------------------------------------------------------------------
                                                                                                                              Feb. 1, 1999
                                                        President's               President's   NIEA 1999     1999 Final          2000        NIEA 2000
                                  1996         1997       request    Actual 1998    request    recommended  appropriations    President's    Recommended
                                                            1998                      1999                                      request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bureau of Indian Affairs
 tribal priority allocation:
    Scholarships............  $26,285,000  $26,481,000  $29,524,000  $29,495,000  $29,036,000  $29,036,000    $29,509,000      $28,590,000   $39,000,000
    Adult Education.........    2,374,000    2,486,000    2,287,000    2,663,000    2,699,000    4,000,000      2,633,000        2,605,000     4,000,000
    TCCCs Supplement........      951,000      986,000      951,000    1,024,000    1,047,000    1,047,000      1,047,000        1,081,000     1,081,000
    JOM.....................   19,634,000   18,177,000   17,216,000   18,534,000   18,080,000   24,000,000     18,080,000       17,469,000    24,000,000
    Other--Eduction Design..    1,261,000    1,301,000      955,000    1,504,000    1,406,000    1,406,000      1,406,000        1,361,000     1,361,000
                             ---------------------------------------------------------------------------------------------------------------------------
      TPA Subtotal..........   50,505,000   49,431,000   50,933,000   53,220,000   52,268,000   59,489,000     52,675,000       51,106,000    69,442,000
                             ===========================================================================================================================
Other programs--school
 operations:
    ISEP (Formula)..........  262,833,000  285,739,000  296,272,000  293,703,000  308,518,000  329,000,000    306,230,000      319,890,000   329,000,000
    ISEP (Program                 150,000      150,000      154,000      154,000      708,000      708,000        656,000          663,000       708,000
     adjustment)............
    Early Childhood.........    5,471,000    5,471,000    5,471,000    5,471,000    5,513,000    6,500,000      5,503,000        5,586,000     7,500,000
    Student Transportation..   25,697,000   31,604,000   34,302,000   32,802,000   36,464,000   36,500,000     34,758,000       38,835,000    41,000,000
    Institutional Disabled..    3,432,000    3,732,000    3,737,000    3,737,000    3,741,000    3,741,000      3,740,000        3,747,000     4,000,000
    Facilities O&M..........   67,846,000   73,696,000   74,628,000   74,628,000   77,409,000   77,409,000     75,222,000       79,100,000    90,000,000
    [Facilities Operation     ...........  ...........  ...........  ...........  ...........  ...........  ..............     [51,825,000]  ...........
     Detail] ...............
    [Facilities Maintenance   ...........  ...........  ...........  ...........  ...........  ...........  ..............     [27,275,000]  ...........
     Detail] ...............
    Administrative Cost        36,560,000   42,160,000   44,710,000   42,160,000   46,690,000   48,290,000     42,160,000       47,690,000    50,000,000
     Grants.................
    Area/Agency T.S.........    6,897,000    6,966,000    7,032,000    7,032,000    7,142,000    7,142,000      7,117,000        7,357,000     8,000,000
    Tribal Departments of     ...........  ...........  ...........  ...........  ...........    3,000,000  ..............  ...............    3,000,000
     Education..............
    Substance Abuse/Alcohol   ...........  ...........  ...........  ...........  ...........  ...........  ..............         400,000       400,000
     Education..............
    School Statistics--ADP..  ...........      700,000      700,000      700,000      700,000      700,000        700,000          700,000       700,000
    Emergency Operations....      500,000  ...........  ...........  ...........  ...........  ...........  ..............  ...............  ...........
                             ---------------------------------------------------------------------------------------------------------------------------
      Other program subtotal  409,386,000  450,218,000  467,006,000  460,387,000  486,885,000  512,990,000    476,086,000      503,968,000   534,308,000
                             ===========================================================================================================================
Tribally controlled
 community colleges:
    Operating Grants........   26,320,000   26,320,000   29,320,000   28,820,000   34,320,000   36,320,000     30,220,000       37,320,000    40,220,000
    Technical Assistance....      114,000      114,000      114,000      114,000      114,000      114,000        114,000          114,000       114,000
    Endowment Grants........      977,000      977,000      977,000      977,000      977,000      977,000        977,000          977,000       977,000
                             ---------------------------------------------------------------------------------------------------------------------------
      TCCC Subtotal.........   27,411,000   27,411,000   30,411,000   29,911,000   35,411,000   37,411,000     31,311,000       38,411,000    41,311,000
                             ===========================================================================================================================
Special programs/pooled
 overhead--education:
    Postsecondary Schools...   11,732,000   12,383,000   12,682,000   12,682,000   12,921,000   16,200,000     12,921,000       14,333,000    16,000,000
    Special Higher Education    1,337,000    1,337,000    1,337,000    1,337,000    1,337,000    5,700,000      1,337,000        1,337,000     5,000,000
                             ---------------------------------------------------------------------------------------------------------------------------
      Education Subtotal....   13,069,000   13,720,000   14,019,000   14,019,000   14,258,000   21,900,000     14,258,000       15,670,000    21,000,000
                             ===========================================================================================================================
Education Construction:
    Replacement School         18,500,000    4,000,000   14,000,000   19,200,000   37,400,000  116,788,000     17,400,000       39,859,000    39,859,000
     Construction...........
    Indian School             ...........  ...........  ...........  ...........  ...........  ...........  ..............      30,000,000    30,000,000
     Construction Bonding ..
    Employee Housing........    3,000,000    3,000,000    3,000,000    3,000,000    3,000,000    3,000,000      3,000,000        2,507,000     3,000,000
    Facilities I&R..........   23,039,000   24,139,000   32,179,000   32,179,000   46,212,000   46,212,000     40,000,000       36,011,000    46,212,000
                             ---------------------------------------------------------------------------------------------------------------------------
      Education Construction   44,539,000   31,139,000   49,179,000   54,379,000   86,612,000  166,000,000     60,400,000      108,377,000   119,071,000
       Subtotal.............
                             ===========================================================================================================================
Institute of American Indian    5,500,000    5,500,000  ...........    4,250,000    3,188,000    4,250,000      4,250,000        4,250,000     6,250,000
 Art........................
                             ---------------------------------------------------------------------------------------------------------------------------
      BIA Grand Total.......  550,410,000  577,419,000  611,548,000  616,166,000  678,622,000  802,040,000    638,980,000      721,782,000   791,382,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                           Department Offices
                            Insular Affairs
   Prepared Statement of Hon. Ismael John, Senator, Nitijela of the 
  Marshall Islands; and Hon. Neptali Peter, Mayor, Enewetak Atoll on 
        behalf of the Enewetak/Ujelang Local Government Council
    Mr. Chairman and distinguished members of this Subcommittee: Thank 
you for providing this opportunity to the people of Enewetak to 
describe issues relating to food production and the environmental 
situation on Enewetak Atoll.
    Mr. Chairman, at the outset we wish to thank you, this 
Subcommittee, and the Congress for the $410,000 appropriation for 
equipment and manpower which was in addition to the $1.191 million 
program funding requested by the administration for fiscal year 1999. 
We have been informed that this Subcommittee desires a report on how 
the $410,000 was spent. The $410,000 was used (1) to purchase two 
backhoes and two flat bed trucks, (2) to fund the repair of a vessel 
essential for the shipment to Enewetak of food, material and equipment 
and , (3) is being used to fund additional manpower. It must be noted 
that there was an unexpected delay in availability of funding for these 
and other portions of the program. We understand that this delay was 
due to the belated enactment of the Interior Appropriations Bill. As a 
result of the delay, funding for the purchase of equipment and for 
additional manpower was not available to us until approximately mid-
December 1998. We purchased two Caterpillar backhoes from a dealer in 
Honolulu at the best price possible as soon as funding for such 
purchase was available to us. The Backhoes were shipped to Majuro, 
Marshall Islands in January 1999. All the equipment finally reached 
Enewetak in early March, 1999 and is now fully operational. Additional 
manpower has recently been employed to permit us to more quickly effect 
the rehabilitation of the soil, the continued planting of plants, and 
maintenance of same. A portion of the $410,000 was used to repair a 
vessel essential for food, material and equipment from Majuro to 
Enewetak. The repair of the vessel was critical to Enewetak for several 
reasons. First, the Enewetak motor sailer, the Wetak II, sank in May, 
1998. Second, the Marshall Islands national government drastically 
curtailed its shipping service to Enewetak. Consequently, we required a 
substitute vessel to provide for the shipment of food, material and 
equipment to Enewetak. We were fortunate to find a 104 foot twin screw 
vessel for sale by the University of Hawaii. We negotiated a good price 
for the vessel but it required repairs. The cost of the vessel was 
$100,000, and the repairs amounted to $250,000, for a total of 
$350,000. This is a good price for a vessel of this type. The vessel is 
now in outstanding condition, with much greater cargo and passenger 
capacity than the vessel it replaced. We financed a portion of the 
total cost of the vessel with insurance proceeds from the loss of the 
Wetak II. The insurance proceeds amounted to $180,000 leaving a balance 
of $170,000 for the vessel's repair. We requested that $170,000 of the 
$410,000 be made available for such repair costs. We explained the 
necessity of a vessel for our community and this program to the 
Department of Interior. We pointed out that the vessel is the lifeline 
which permits us to live on Enewetak. The Department of Interior 
acceded to our request and the vessel's repair has been completed this 
very week. The vessel will be in Majuro late this month in time for a 
necessary food and material shipment to Enewetak.
    Although we are very grateful for the $410,000 in addition to the 
$1.191 million for the core components of the program, we must point 
out that this type of additional funding is the type of funding 
required on an annual basis to permit the program to keep pace with 
inflation. For example, this program has essentially been level funded 
since 1986 at approximately $1.1 million. The purchasing power of the 
$1.1 million has been reduced to less than $700,000. Consequently, the 
program has taken a 35 percent cut in funding. A funding level of 
approximately $1.6 million would provide the same purchasing power as 
existed with respect to the $1.1 million provided in 1986.
    Another important issue to bear in mind is that our atoll continues 
to suffer the lingering ill effects of the 43 nuclear bombs exploded at 
Enewetak. All the land of Enewetak requires rehabilitation to support 
food bearing plants. Fifty percent of the land requires further 
radiological remediation. Enjebi needs to be resettled. In addition to 
such remediation, rehabilitation and resettlement, we need to be 
provided just and adequate compensation for the use of Enewetak by the 
United States. We have previously discussed these issues with members 
of this Subcommittee. In such discussions, we informed this 
Subcommittee that we were in the process of having scientists, 
engineers, agriculturalists, and appraisers determine the remediation, 
rehabilitation, resettlement, loss of use, and hardship costs. We 
expect all these items to be quantified this month and the experts' 
reports and testimonies to be presented to the Marshall Islands Nuclear 
Claims Tribunal. We will also present to you the findings of our 
experts. We believe that this Subcommittee shares our desire to provide 
adequate funding to finally resolve these outstanding issues and permit 
us to live our lives on Enewetak as God intended. Until such funding is 
provided, we request that funding for the present program continue. As 
we have stated many times, without the food, transportation, fuel, 
agricultural rehabilitation and maintenance that is funded by this 
program, we would not be able to live on Enewetak.
    We would now like to describe the program and its components, and 
the efforts we have made to make this program as effective as possible.
                 enewetak food and agriculture program
    The Enewetak Food and Agriculture Program enables us to live on 
Enewetak. It provides funding for imported food, continued agriculture 
rehabilitation, operation of a motor vessel which brings us the 
imported food, a nutrition education program, and an operation and 
maintenance component conducted out of a facility on Enewetak known as 
the field station.
    1. Efforts made to increase food production.--As we previously 
explained to this committee, we were unhappy with the state of the 
agriculture rehabilitation program when we inherited the program from 
the Department of Energy. Accordingly, in 1993 we had an assessment of 
our agriculture situation conducted. The purpose of such assessment was 
to determine the then current agriculture situation and to develop 
recommendations for increased food production. The recommendations 
included the hiring of a part time on-site agriculture consultant. The 
agriculture consultant began his work in 1993 and modified the 
recommendations somewhat. The most significant aspects of the 
agriculture rehabilitation program are the infusion of nutrients into 
the soil and the planting of buffer plants along the island's shore to 
protect the interior plants from salt spray. The infusion of nutrients 
into the soil is accomplished by digging trenches and placing organic 
material in the trenches along with a compost mixture of copra cake and 
chicken manure. This activity is extremely labor intensive and required 
the importation of copra cake and chicken manure. Although the work is 
progressing, additional funding is required to provide greater manpower 
and the necessary equipment, materials and supplies.
    2. Importation of food.--Imported food is required because of the 
poor soil condition of the land available to us and the radiation 
contamination of other lands. Since we have taken over the program we 
have increased the quantity of imported food by 35 percent without any 
increase in the overall program budget. We have accomplished this by 
utilizing bidding procedures for food purchases; elimination of 
transportation charges by use of our vessel; elimination of import tax 
on food; and reduction of other program expenses.
    3. Nutrition education program.--Since our people cannot rely on 
traditional foods we must import food, the nutritional value of which 
is unfamiliar to us. Several years ago we became aware that some of our 
people, particularly our children, suffered from malnutrition. 
Accordingly, we instituted a nutrition education program. We are 
pleased to report that we have been apprised by physicians that 
malnutrition among our children has been greatly reduced.
    4. Vessel.--The Wetak II , a fifty foot motor sailer, was used to 
primarily transport our imported food purchases and agriculture 
material from the region to Enewetak. Food and agriculture material was 
transported from Majuro, a distance of 600 miles from Enewetak. 
Unfortunately, the Wetak II sank in May, 1998. As described above, we 
have purchased, repaired, and refitted a replacement vessel. This 
vessel will provide us with much greater cargo and passenger capacity. 
The vessel is now in excellent condition and will provide the necessary 
lifeline for goods and materials for our community.
    5. Field Station.--Operation and maintenance of the entire program 
is conducted out of a facility referred to as the Field Station. The 
machinery and equipment required by the agriculture, food and 
transportation components of the program are kept at the Field Station. 
Field Station personnel provide all the required agricultural work; 
maintain, service, and operate the equipment required by the various 
components of the program; make payments and maintain books of 
accounts; and coordinate the procurement of food, material and 
equipment. The overall manager of the program is Johnson Hernest. Other 
management personnel include Samson Yoshitaro and Mathan David. The 
program employs 40 members of our community.
                               conclusion
    In closing, we thank the Congress for its past funding of the 
Enewetak Food and Agriculture Program and request that it provide 
funding for fiscal year 2000 in the amount of $1.6 million to offset 
the effects that inflation has had on the program these past 13 years. 
In addition, we look forward to discussing with the Congress the 
funding required to finally complete the remediation, rehabilitation, 
resettlement of Enewetak and to provide us the just and full 
compensation to which we are entitled for the damages we sustained as a 
result of the United States Nuclear Testing Program.
                                 ______
                                 
                       DEPARTMENT OF AGRICULTURE
                             Forest Service
  Prepared Statement of Steve Holmer, Campaign Coordinator, American 
                             Lands Alliance
  forest appropriations initiative (fy 2000) a budget to protect and 
                      restore the national forests
    Current Forest Service budget priorities are harming both the 
environment and the economy by emphasizing logging at the expense of 
activities that are needed to restore the environment and that provide 
greater economic returns. Clean water, fish and wildlife, and tourism 
on the National Forests all provide more jobs and economic value than 
logging. Yet, over one-third of the agency's budget is spent on 
logging, and only 11 percent of the budget is spent on recreation, fish 
and wildlife and watershed improvements combined.
    The Forest Appropriations Initiative proposes to redirect 10 
percent of the Forest Service budget away from environmentally harmful 
activities to fund restoration and land acquisition programs that have 
a higher overall benefit to society. Here is a brief summary of the 
Initiative:
                   logging and timber sale subsidies
    Congress should prohibit logging in old growth, roadless areas, and 
steep or unstable slopes. We support reducing the commercial timber 
sale subsidy by eliminating fiends in the timber sales management line-
item. The National Forest timber program is causing unacceptable 
environmental and economic harm. Old-growth, roadless areas, and 
critical riparian habitat for endangered salmon stocks are all still 
being clearcut on the National Forests. The timber program costs 
taxpayers anywhere from $300 million to $1.2 billion dollars each year 
depending on what economic analysis is used and none of these estimates 
include the cost of fixture restoration or road maintenance. 
Eliminating the Timber Sales Management line-item (which fiends less 
than \1/5\ of the total timber program) would save an estimated $196 
million.
                      roads and road construction
    We oppose all Finding for new roads. We oppose all Finding for road 
reconstruction until the agency completes long-term roads policy. We 
support $50 million for more road maintenance and obliteration. Limited 
road construction would be permitted to allow decommissioning of other 
roads and road reconstruction would be allowed to prevent imminent 
environmental harm.
    According to the Forest Service, only 18 percent of the road system 
is currently being maintained each year and tens of thousands of miles 
of road need to be decommissioned. The estimated cost for maintaining 
the National Forest road system is $568 million each year. Eliminating 
new construction and reconstruction would save an estimated $90 
million.
                   off-budget funds & county payments
    Congress should eliminate all off-budget funds to end the current 
incentive to log and to help restore agency accountability. County 
payments should also be decoupled to end the incentive for counties and 
schools to support excessive logging levels.
                               recreation
    We support a moratorium on new construction projects until the 
existing infrastructure maintenance backlog has been addressed. 
Proposes to eliminate the recreation fee-demonstration project. The 
Sierra Club, American Lands and over 75 other environmental groups 
oppose the imposition of recreation access and user fees on public 
lands for several reasons: opposition to payment of fees for use of 
public lands for which the public already pays taxes; the recreation 
fee demonstration program is the leading edge of the recreation 
industry's attempts to transform public land recreation into commercial 
enterprises; and the program creates an inappropriate incentive to 
build new facilities to generate more receipts for the agency.
                     fire ecology and forest health
    We propose to reallocate funds within the wildfire management 
program to increase funding for research, planning and manual 
treatments. We strongly oppose restoration and fuels reduction projects 
as part of a commercial timber sale. We oppose earmarked funding for 
the Quincy Library Group plan. We propose numerous prescriptions on how 
to improve and restore accountability to the fire suppression program.
                      stewardship and restoration
    We oppose the stewardship contracting language is this year's 
spending bill and the idea of trading National Forest trees for 
services. Congress should reject restoration projects as part of a 
commercial timber sale. We support non-commercial stewardship pilot 
projects using appropriated funds.
                   funding increases for restoration
    More funds are urgently needed to acquire threatened habitats, to 
maintain and decommission roads, and to provide the needed economic 
transition assistance for rural communities. The Appropriations 
Initiative calls for $398 million in additional spending.
                            invasive species
    We support a $25 million increase above last year's level. We 
propose numerous prescriptions to improve the program.
                            law enforcement
    We propose $3 million for a Timber Theft Cadre to investigate 
timber theft.
                        monitoring and inventory
    We propose a $30 million increase for monitoring along with a 
requirement that no project may be undertaken without adequate Finds 
for monitoring. We also support the Forest Service completing their 
inventory of eastern old growth.
                       fish and wildlife programs
    We endorse a $105 million increase for habitat protection and 
research.
                         watershed improvements
    We support a $20 million increase but opposes spending watershed 
improvements funds for timber sale management.
                       state and private forestry
    The Initiative proposes a $55 million increase for the Forest 
Legacy, Urban Forestry and Economic Assistance programs that help 
transition communities away from timber dependency.
                            land acquisition
    We support a $100 million increase for land acquisition.
          a budget to protect and restore the national forests
    We are proposing to cut $286 million from the road construction/
reconstruction and timber sales management line-items and we are 
proposing $398 million in increased spending for restoration and land. 
acquisition programs. This represents a shin of approximately 10 
percent of the agency's over-all budget that will benefit both the 
environmental and the economy.

                               PROPOSED CUTS IN THE FOREST SERVICE FY 2000 BUDGET
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                     Proposed
                                                                      FY 2000      Omnibus bill    decrease from
                            Line item                                 request         FY 1999         FY 2000
                                                                                                      request
----------------------------------------------------------------------------------------------------------------
Timber Sales Management.........................................        $196,800        $226,900        $196,800
Road Construction & Reconstruction..............................          96,400          98,000          90 000
                                                                 -----------------------------------------------
      Total.....................................................  ..............  ..............         286,800
----------------------------------------------------------------------------------------------------------------


                               PROPOSED INCREASES TO FOREST SERVICE FY 2000 BUDGET
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                     Proposed
                                                                      FY 2000      Omnibus bill    increase from
                            Line item                                 request         FY 1999         FY 2000
                                                                                                      request
----------------------------------------------------------------------------------------------------------------
Law Enforcement.................................................         $66,000         $66,000          $3,000
Wildlife Habitat Management.....................................          37,000          32,000          20,000
Inland Fish Habitat Management..................................          26,000          19,000          40,000
Anadromous Fish Habitat Management..............................          29,000          22,700          20,000
TES Species--Research...........................................          53,100          42,200          10,000
TES Species--Habitat Management.................................          31,500          26,500          15,000
Road Maintenance & Decommissioning..............................         122,000          99,800          50,000
Grazing Management..............................................          28,500          28,500          10,000
Monitoring & Inventory..........................................          88,000          80,000          30,000
Rangeland Vegmation Management..................................          36,500          28,500           9,000
Research: Insects, Diseases & Exotic Species....................          25,000          19,600          11,000
Forest Health Management (Invasives)............................          40,300          37,300           5,000
Urban Forestry..................................................          39,500          30,500          10,000
Forest Legacy...................................................          50,000           7,000          30,000
Economic Action Programs........................................          16,300          17,300           5,000
PNW Assistance..................................................           7,000           9,000          10,000
Land Acquisition................................................         119,200         119,100         100,000
Watershed Improvements..........................................          40,100          30,100          20,000
                                                                 -----------------------------------------------
      Total.....................................................  ..............  ..............         398,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
Prepared Statement of Craig Axfod, Program Director, Utah Environmental 
                                Congress
    The Following represents the written testimony of the Utah 
Environmental Congress (UEC) regarding appropriations for the Forest 
Service in the coming fiscal year. We appreciate your committee's 
willingness to accept written testimony at its April 13 hearing on this 
matter.
    The Forest Service is charged with mortaring 192 million acres of 
U.S. forest. These forests range from tropical rainforests in Puerto 
Rico to the more arid forests of the southwest. The UEC recognizes it 
is open a difficult challenge to manage such diverse habitats 
stretching from one end of the continent to the other. The UEC also 
believes having these forests under federal management is an 
opportunity.
    Traditionally America's national forests have been managed largely 
with the extractive industries in mind, particularly the timber 
industry. Billions of dollars have been spent and lost managing a 
timber program that amounts to nothing more than corporate welfare. 
Timber has been sold at below cost, and the taxpayer has picked up the 
tab for roads built solely for the purpose of taking timber out of the 
forest. In the long run the taxpayer also must pay for the maintenance 
or obliteration of these roads as well.
    Excessive logging and road construction has also fragmented or 
destroyed critical habitat for a variety of species. The Forest 
Service's 1995 report, criticized by the GAO in a later audit, stated 
that there were approximately 378,000 miles of roads crisscrossing 
America's national forests. Most, if not all of these roads, are 
contributing to the sediment-a/ion of many of the more than 200,000 
miles of fishable streams managed by the Forest Service. These roads 
have also been identified as a major contributing factor for massive 
landslides in the Pacific Northwest.
    The result of habitat loss and erosion caused by logging and the 
associated road construction is a loss of diversity that leads to the 
listing of species that otherwise might have thrived in a healthy 
forest. In addition, sedimentation hurts native fish populations and 
the fishing industry as streams become too warm or to muddy to smart 
native fish, and as sediment becomes deposited in the bottom of popular 
lakes. Mudslides often can cause damage to maintained state and local 
roads and bridges, as well as private property. The costs of these 
problems are not factored into the profit and loss statements provided 
to you by the Forest Service or the GAO, and they are tremendous;
    I stated earlier that the UEC believes having 192 million acres of 
forest under federal management is an opportunity. In spite of the past 
mismanagement described above, we do believe this to be so. It is an 
opportunity for our government to preserve for future generations the 
natural beauty and diversity on forests have to offer. These forests 
are the headwaters for our municipal and agricultural water supplies. 
They are the places where our families go to camp, hold reunion, or 
just spend a day hiking together. They are living laboratories where 
students of all ages can go to learn more about the natural world, and 
they are places with unique inherent qualities that should be protected 
just because they are.
    These Publicly owned forests are more valuable spiritually, 
aesthetically, biologically, and financially in their natural state, 
then they are as resources for extractive industries to exploit. While 
most of these benefits affect our quality of life in intangible ways, 
the financial benefit of managing forests for something other than 
timber, grazing, or mining is very clear. The Forest Service itself 
admits ``Outdoor recreation provides the largest contribution to 
national economic activity of any national forest program.'' (Report of 
the Forest Service, fiscal year 1997). Revenues to the treasury alone 
generated by recreation came to $45.2 million in fiscal year 1997. That 
is excluding income tax revenue generated by people employed by the 
recreation industry, an industry that directly benefits from the 
preservation of pristine forests and other wildlands. It has been 
estimated by the Forest Service that by the year 2000 recreation, 
hunting, and fishing in our national forests will contribute 38 times 
more income and create 31 times more jobs than logging within our 
national forests will.
    In light of the facts discussed above, the UEC calls on Congress to 
eliminate the government's timber sale program. This would save 
taxpayers more than $300 million a year. The funding could be 
redirected into retraining programs for workers in the timber industry, 
endangered species monitoring and protection, watershed protection, and 
road maintenance or obliteration programs. All funding for additional 
road construction should cease. The Forest Service has a multi-billion 
dollar backlog of roads in desperate need of maintenance. In recent 
testimony the Forest Service admitted only 18 percent of existing roads 
are being maintained to Forest Service standards. Why continue funding 
more road construction when there are not enough resources to maintain 
existing roads?
    The UEC has been told repeatedly that money is unavailable for 
adequate monitoring and law enforcement on the national forests. Money 
must be redirected into these aspects of the forest management program. 
The Forest Service is required under the National Forest Management Act 
to monitor the impacts of actions they carry out or approve. By 
redirecting some timber program and road construction funds into 
monitoring, there would be no excuse for not doing the monitoring 
required by law. Both the forests and the public would benefit by 
having solid scientific information available before management 
decisions are made. This weld have the added benefit of reducing 
administrative appeals and litigation.
    By funneling additional money into law enforcement programs costly 
impacts caused by illegal off-road vehicle use could be significantly 
reduced. In my state of Utah alone there are more than 11,000 miles of 
road within our six national forests. Public access to the backcountry 
is simply not an issue when so many miles of road are available. 
Illegal off road vehicle use contributes to erosion, destroys plant 
life, fragments wildlife habitat, and damages riparian areas. All of 
this damage ultimately must be paid for by the taxpayer who must bear 
the burden resulting watershed improvement projects and endangered 
plant recovery plans.
    I hope the committee will take the above mentioned concerns into 
consideration during its deliberations on the Forest Service's budget 
for fiscal year 2000. I ask that these comments be included in the 
official record.
                                 ______
                                 
Prepared Statement of Michael T. Goergen, Jr., Director, Forest Policy, 
                     Society of American Foresters
    Mr. Chairman, I am Michael Goergen, the Director of Forest Policy 
for the Society of American Foresters (SAF). The more than 18,000 
members of the Society constitute the scientific and educational 
association representing the profession of forestry in the United 
States. SAF's primary objective is to advance the science, technology, 
education, and practice of professional forestry for the benefit of 
society. We are ethically bound to advocate and practice land 
management consistent with ecologically sound principles. I am 
especially pleased to be here today to comment on the fiscal year 2000 
budget for the Department of Interior and Related Agencies. I wish to 
thank the subcommittee for its continued support of professional 
forestry, and its continued support of our priorities. I thank the 
Chair for the opportunity to testify on these important issues.
    The public policy activities of SAF are grounded in scientific 
knowledge and professional judgment. From this perspective we review 
proposed budgets for forestry and related natural resource programs to 
determine their adequacy to meet stated objectives and public needs.
                        the usda forest service
Forest inventory and analysis
    The current Forest Inventory and Analysis program provides 
accurate, comparable data across all forestlands in the United States. 
Local governments, journalists, environmental groups and private 
citizens, in addition to forestry professionals in every employer 
category, need and use this information. Understanding the condition of 
the nation's forests is critical for appropriate planning and 
sustainable management. We believe the subcommittee has recognized the 
importance of this program in the past, and will continue to do so in 
the future. The new draft strategic plan, created in response to 
Section 253(c) of that act and recommendations of the Second Blue 
Ribbon Panel, exemplifies the program's commitment to adapt for the 
changing needs of the forestry profession and the larger public 
interested in the forests of this nation. The draft plan we viewed 
integrates the Forest Inventory and Analysis program with the Forest 
Health Monitoring program. It reduces the current inventory cycle and 
explores ways to make the program more efficient. We look forward to 
the distribution of this plan in its final form.
    In reviewing the Administration's fiscal year 2000 proposed FIA 
budget, we are concerned that the 1998 legislative mandate for an 
annualized inventory program with timely reporting will not become 
reality. Especially when the Administration states in its fiscal year 
2000 Budget Justification that ``the inventory cycle will remain at an 
average level of 11 years.'' The proposed FIA budget of $25.8 million 
is 11 percent of the Forest Service's Research Budget and 0.9 percent 
of the agency's total proposed budget. To comply with the 1998 Farm 
Bill Research Title for FIA and to implement prioritized elements of 
the strategic plan, Congress must increase the FIA funding level and 
the Administration must place greater priority on the FIA program. To 
insure that the FIA Program obtains funding commensurate with its 
responsibility to conduct an inventory of our nation's forests, we 
recommend a separate line item in the Forest Service's budget for FIA.
    Although SAF has not seen the final dollar amount requested by the 
FIA program to implement the goals of this draft strategic plan, we 
realize that moving toward the new annualized inventories and 
increasing the range of data collected will create new expenses for 
this important program. In order to support these endeavors, we 
encourage the subcommittee to continue to support increased funding for 
this program. In addition to funding for the overall program we would 
like to see a separate line item in the National Forest System (NFS) 
budget to enable the collection of FIA data on the NFS. While Congress 
has given the NFS funds to implement the FIA program on its lands 
before, the Forest Service has not always been able to collect this 
data. The NFS has many priority issues to deal with. We are all aware 
of their need to address backlog after backlog, and the accountability 
issues from which the agency suffers are no stranger to this committee. 
FIA is a priority as well, and data from the NFS must be collected. We 
hope that by establishing a separate line item, and including 
appropriate report language, Congress will give the agency the 
opportunity to adequately fund its share of the FIA program, and 
address the priority ecological issues it must to ensure these forests 
for the next generation.
Addressing the ecological infrastructure backlog
    Much has been said about the backlog issues associated with the 
national forests. Whether it is forest health, deteriorating forest 
roads, endangered species, salmon habitat, recreation facilities, 
hazardous fuels, or any number of other issues, it is clear that the 
national forests desperately need attention. The Forest Service must 
address its ecological infrastructure backlog. Ecological 
infrastructures are those mechanisms that allow forest and other 
natural systems to function properly. Any one component of a system 
that is not functioning properly has the potential to impact other 
parts of the system. This is not always the case, but clearly there are 
examples in the national forests. Humans manipulate these processes 
sometimes acting as an equalizer, sometimes doing more damage. The key 
is allowing professional natural resource managers to put the 
infrastructure back in place.
    The Agency is attempting to deal with all these ecological 
infrastructure needs. They have mapped areas of forest health risk 
across the nation. They are addressing a very serious problem with the 
National Forest System road network. They are addressing wildland/urban 
interface issues. The most frustrating thing about all of these efforts 
is the estimated costs associated with addressing them. The Forest 
Service believes it will cost $8.6 billion to address the road backlog 
it faces. The Congressional Research Service believes it will cost $3.9 
billion to completely address the hazardous fuels buildup on the 
National Forest System. These figures do not include other ecological 
infrastructure issues that plague the National Forest System, such as 
the costs associated with restoring salmon habitat, enhancement of 
endangered species habitat, or a host of other problems. While these 
figures are astronomical and beyond what Congress can realistically 
fund, the Forest Service will receive money to address some of these 
problems and one problem should not be favored over the other by the 
Congress or the Administration. Forest Service managers know where the 
most critical problems are, they know how to address them, and they 
have the wherewithal to get the job done. The Forest Service should 
continue to develop plans and tools like the forest health risk maps, 
which Congress can study and consider. We believe this helps Congress, 
in their oversight role, fund backlogged work with confidence that the 
work will be completed. The Forest Service needs a reliable multi-year 
source of funding to address these issues, and the ability to set the 
priorities at the local level. The Agency also needs adequate and 
appropriate staff to carry out these activities.
    With that said, we feel the need to address the fiscal 
accountability challenges the Forest Service faces. This subcommittee 
is well aware of these challenges, as is the Forest Service. The SAF 
believes Congress, the Forest Service, and the Administration have 
tried to address these issues openly and with a commitment to solve the 
problem. There is frustration from everyone, including the SAF, that 
progress has not been faster. Many believe that the Forest Service 
should not be rewarded with increased appropriations when their 
perceived performance on this matter is less than satisfactory. While 
we understand that philosophy, our primary concern is for the health of 
the land. We hope that Congress, the Forest Service, and the 
Administration can find mechanisms that increase accountability and 
increase the health of the land.
Keeping a managed forest landscape
    It is important that the Forest Service and the federal government 
not waiver on their commitment to state and local forestry agencies and 
the 10 million private nonindustrial forestland owners of this nation. 
The Forest Service has a unique partnership with the state forestry 
organizations, a partnership which has the opportunity to improve the 
health of our nation's forests through technical assistance, inventory 
and monitoring, and protection from fires, insects, and disease on the 
490 million acres of non-federal forests. Due to limited funding, the 
State and Private Forestry programs have yet to fully meet their 
potential, however SAF supports these programs and hopes Congress will 
as well.
    We are concerned about the status of private forestland in this 
nation. State, county, private, and industrial lands are increasingly 
producing forest-related goods and services. The most dramatic change 
on these lands is the shift in production of timber. Approximately 94 
percent of all timber produced in the US is produced on non-federal 
lands. The volume of timber from national forests has decreased 
dramatically, from 12.7 billion board feet (bbf) to 3.4 bbf, over the 
past 12 years. Such reductions shift the burden of producing wood fiber 
to state and private lands in order to meet the nation's increasing 
demand for forest products. The federal government has some 
responsibility to protect and enhance the sustainable flow of forest 
products from state and private lands precisely because of the 
substantial decrease in production on Forest Service lands.
    We are seeing examples of increasing urban sprawl, forest 
fragmentation, and large managed private forests sold as smaller 
parcels to individual owners. As a nation we have decided that forests, 
both public and private, are important for economic, environmental, 
human health, and spiritual reasons. We express the importance and 
value of our forest resources through a variety of mechanisms, 
including legislation. Many federal statutes, including the Endangered 
Species Act, the Clean Water Act, the Clean Air Act and others, have a 
regulatory impact on the management of private lands. Other statutes, 
the Cooperative Forestry Assistance Act of 1978, and the 1990 Farm Bill 
Forestry Title, for example, take a cooperative, incentive based 
approach to nonfederal forests. These acts recognize the need for 
state, federal, and local cooperation to achieve resource benefits 
across the landscape, and they use a nonregulatory, incentivebased 
approach to achieve them. This cooperative approach is vital on issues 
that cross ownership boundaries, such as watersheds, forest insects and 
disease, and particularly wildfire.
    Adequate funding is essential if the program is to reach 
nonindustrial private landowners, only about 10 percent of whom have 
written management plans for their land. Even worse, the majority of 
timber sales on private lands go forward without the benefit of 
professional forestry advice. While this may seem like merely a problem 
of poor business practices, we in the forestry profession view it as a 
serious threat to the long-term sustainability of the nation's forest 
resources. Private land has public value. That is why we actively 
support programs that increase the amount of forestry advice available 
to nonindustrial private forest landowners. In addition to private 
sector consulting and industry efforts, extension programs, and other 
mechanisms, we believe the State and Private forestry programs can help 
both public and private sector foresters meet these challenges.
    We also strongly support funding for the Cooperative Fire 
Protection Programs. Wildfire does not respect political boundaries and 
the State Fire Assistance program allows for federal and state agencies 
to have a coordinated wildfire response. The program also helps state 
agencies comply with national safety and training standards which 
allows state crews to be deployed on federal fires and other disaster 
situations. The Volunteer Fire Assistance program is another strong 
cost share program that helps rural firefighters secure the latest 
training and equipment. Rural communities fight forest fires, and do 
not often have the resources to do so. This is particularly true as we 
see further development of wildland/urban interface fire issues. 
Cooperative Fire Protection Programs are critical to both forest health 
and the safety of our communities. We ask the subcommittee to consider 
strong funding levels for these programs.
Other research programs
    There has been a general clamor for increased funding for forestry 
research since the publication of the 1990 RPA program report, which 
identified improving scientific knowledge about natural resources as a 
high priority. The National Research Council's (NRC) 1990 report, 
Forestry Research: A Mandate for Change, found the knowledge required 
for sound forest management policies inadequate. The 1997 NRC report 
entitled Forested Landscapes in Perspective, which focused on the needs 
of nonindustrial private landowners, continued to report that 
information needs were not being met. SAF is concerned about the 
relatively stagnant research budget of the last few years, but was 
encouraged by recent modest increases, and we thank the committee for 
that support. These appropriations, however, represent a significant 
decline in constant dollars and have lead to the unavoidable loss of 
not only administrators but scientists with significant expertise in 
highly specialized areas.
    Natural resource management issues are more complex today than they 
ever have been in the past. To find solutions we need interdisciplinary 
research in the biological, physical, and social sciences. The Agency 
has done a good job, and could do more, to reduce overhead and put more 
research dollars to work in direct research projects. But if we 
continue to lose scientists and research dollars, we believe complex 
issues are unlikely to be resolved, and the future of the Forest 
Service research program will be in jeopardy. With recognition of this 
disturbing trend, we encourage the committee to increase the 
appropriation for Forest Service Research over fiscal year 1999 levels.
                     the bureau of land management
    The fiscal year 1998 Interior and Related Agency Appropriation Act 
(Public Law 10583) included language that expanded the use of the 
Bureau of Land Management's Forest Ecosystem Health and Recovery Fund 
(FEHRF). This was a welcome change and we thank the Committee for 
developing this change in authority. This legislation allows for 
broader forest ecosystem health and recovery activities as well as 
monitoring. The expanded authority for the FEHRF, combined with 
increased funding for prescribed burning, will provide BLM managers 
with the tools to improve forest and wildlife habitat on BLM lands.
    In spite of the funding available under the FEHRF to implement 
ecosystem health projects, the BLM lacks the ontheground personnel, 
within the Public Domain, necessary to plan and implement these 
important activities. Since 1981, the BLM Forestry Management program 
has experienced an inflation-adjusted 65 percent budget decrease, 
whereas the entire Management of Lands and Resources budget has 
experienced only a 10 percent decrease over the same time period. We 
believe the BLM needs to increase its forest management expertise in 
order to take full advantage of the FEHRF and effectively shift to a 
focus on forest restoration. Therefore we support an increase in 
funding for additional forestry personnel to plan and administer forest 
health improvement activities under the BLM Forestry Management 
program.
                 stewardship contracting pilot projects
    I would also like to thank this committee for its role in 
developing language in last year's appropriations bill that allowed the 
Forest Service to develop stewardship contracting pilot projects. 
Innovation is important in natural resources management. These pilot 
projects will give us an opportunity to learn how to accomplish forest 
management objectives in concert with community objectives, hopefully 
at a reasonable cost. This committee continues to show leadership in 
forest management and we hope SAF can continue to be a partner in that 
leadership.
                                closing
    In conclusion, we strongly support the BLM Forestry Management 
program and the Forest Service research, forest inventory and analysis, 
state and private, international, and road appropriations we've 
highlighted. Thank you, Mr. Chairman for the opportunity to share our 
views with you and the subcommittee today.
                                 ______
                                 
      Prepared Statement of Faith T. Campbell, Ph.D., Washington 
         Representative, on behalf of Frontera Audubon Society
    Frontera Audubon Society requests a total of $5 million from the 
Land and Water Conservation Fund (LWCF) in fiscal year 1999 for 
purchase of lands by the U.S. Fish and Wildlife Service for the Lower 
Rio Grande Valley National Wildlife Refuge in Texas.
    The Lower Rio Grande Valley National Wildlife Refuge protects 
incomparable biological values. The Lower Rio Grande Valley--an area as 
big as Delaware--is home to the greatest biodiversity for any similar-
sized area of the country. The 465 bird species that reside in or 
migrate through the Valley constitute half of all bird species found in 
the United States. Sixty of the bird species live in no other part of 
the country. More than 200 species of mammals, reptiles, amphibians, 
and fish also live in the Valley, as do 300 species of butterflies, and 
1,200 species of plants.
    Because less than 5 percent of the valley now is in natural 
vegetation, this biological treasurehouse is in danger. Twenty-one 
species are federally listed as endangered or threatened; an additional 
35 are considered to be imperilled in Texas. More than 100 of the bird 
species are listed by the Texas Partners in Flight program as ``species 
of special interest''.
    The Lower Rio Grande Valley NWR is the key to ensuring survival of 
the region's biodiversity--and the economic and other benefits people 
enjoy as a result.
    The Lower Rio Grande Valley NWR protects vitally important habitat 
remnants in 11 distinct biotic communities. Furthermore, the specific 
segments included in the Refuge are chosen to provide a corridor for 
the wildlife to use in moving among habitat remnants.
    When complete, the 132,500 Lower Rio Grande Valley NWR will 
constitute more than half of a planned 250,000 acre wildlife protection 
network that will include lands managed by state, county, and private 
conservation organizations as well as the Laguna Atascosa NWR. The 
planned complex will protect a modest 8 percent of the area of the four 
counties involved: Cameron, Hidalgo, Starr, and Willacy.
    The Lower Rio Grande Valley NWR is so important to protecting the 
Nation's biological diversity that it always ranks among the top 10 on 
the U.S. Fish and Wildlife Service's land acquisition priority list. 
This year, it ranks third.
    Despite the Refuge's importance, land acquisition has lagged in 
recent years due to low funding levels; only a few thousand acres could 
be purchased each year. Thus, as the Refuge approached its 20th 
anniversary since its creation, about one-third of the authorized lands 
and waters had not yet been purchased.
    As a result of the special land-acquisition appropriation (Title V 
of the fiscal year 1999 Land and Water Conservation Fund), heartening 
progress is being made this year. The Refuge has a total of $7.4 
million on hand for land acquisition--a mere $2 million through the 
regular appropriations process and $5.4 million through the special 
Title V. These funds should allow acquisition of something over 6,000 
acres (the need to buy increaasingly expensive water rights has 
somewhat reduced the amount of land that can be acquired with the 
available funds).
    Furthermore, the Refuge utilized duck stamp funds to purchase 
12,000 acres north of the Brownsville ship channel. This last parcel 
will probably be transferred to the nearby Laguna Atascosa NWR.
    If we exclude the parcel to be transferred, by the end of fiscal 
year 1999, the Lower Rio Grande Valley NWR should have acquired about 
84,000 acres.
    It is important that the Congress maintain the momentum from fiscal 
year 1999. Many of the two dozen landowners who have expressed interest 
in selling high-priority tracts to the Refuge have waited years for 
responses to their offers.
    Completing the Refuge is an urgent task. The lower Rio Grande 
valley is experiencing rapid economic growth stimulated by the North 
American Free Trade Agreement and winter ``snowbird'' tourism. Last 
year, it was reported that two out of ten metropolitan areas that are 
undergoing the most rapid growth in the entire nation are found in the 
lower Rio Grande valley--McAllen-Edinburg-Mission and Brownsville-
Harlingen-San Benito. This growth has two impacts. First, while 
agricultural land can be restored as wildlife habitat after purchase, 
land converted to housing, warehouses, or similar uses is no longer of 
potential value to the Refuge. Second, the rapid growth is raising the 
demand for water; the cost of water rights have doubled in just three 
years. The result is increased overall costs of land acquisition for 
the Refuge.
    At the same time, many farmers are leaving the occupation--and some 
of them wish to see their lands included in the Refuge. Allowing the 
Refuge to move rapidly on these offers will serve both biological 
conservation and the human needs of the Valley.
    Expansion of the Lower Rio Grande Valley NWR will benefit the 
region's economy as well as its biological diversity.
    Tourism is the third largest industry in Texas. This $25.4 billion 
business provides 446,000 jobs, $1 billion in state taxes, and $739 
million in local taxes. Nature tourism is the fastest-growing segment 
of the industry, and Texas is a prime beneficiary of this trend because 
the state is the number one birding destination in the United States.
    The Lower Rio Grande Valley is one of three ``birding hotspots'' in 
Texas. Nearly 100,000 birders visit the Lower Rio Grande Valley NWR 
each year. They spend $34.5 million and add $14.4 million to the local 
economy of McAllen. Harlingen's 1996 Rio Grande Valley Birding Festival 
generated $1.6 million in economic impact. At present, birders 
concentrate at the Santa Ana NWR--an older part of the Refuge located 
near Mission and Hidalgo. As other portions of the Lower Rio Grande 
Valley NWR are developed, more birders will be attracted to the 
additional opportunities, greater diversity of habitats, and less 
crowded conditions. The economic benefits will also be distributed more 
widely among towns in the Valley.
    Completion of the Lower Rio Grande Valley NWR is supported by the 
Lone Star Chapter of the Sierra Club, Texas Nature Conservancy, a 
chapter of the American Butterfly Association, Lower Laguna Madre 
Foundation, Native Plant Project, numerous botanical organizations and 
garden clubs, and Frontera Audubon Society. The Valley Chamber of 
Commerce and Chambers of Commerce of Brownsville, Harlingen, and 
McAllen recognize the importance of nature tourism, especially birders, 
to the Valley's economy and sponsor birding, butterfly, and other 
festivals. Texas Parks and Wildlife Department has purchased 5,500 
acres as part of the larger network of reserves. TPWD also supports 
birding competitions, such as the Texas Coastal Birding Classic and the 
Texas Coastal Birding Trail.
                                 ______
                                 
  Prepare Statement of Justin R. Ward, Senior Policy Specialist, the 
                   Natural Resources Defense Council
    The Natural Resources Defense Council (NRDC) urges Congress to 
approve $50 million in fiscal year 2000 appropriations for the Forest 
Legacy Program.\1\ Consistent with our deep commitment to land and 
natural resource conservation, NRDC strongly supports the 
Administration's proposal for a full and permanently funded Lands 
Legacy Initiative, which includes the Forest Legacy Program. We have 
endorsed the ``Resources 2000 Act'' introduced by Senator Boxer and 
Rep. Miller (S. 446, H.R. 798), which would provide permanent annual 
funding for the Land and Water Conservation Fund, Forest Legacy and 
other land protection programs.
---------------------------------------------------------------------------
    \1\ NRDC is a non-profit environmental membership organization with 
400,000 members and contributors nationwide. Since 1970, NRDC's 
scientists, lawyers and staff have been working to protect the world's 
natural resources and improve the quality of the human environment. 
NRDC has offices in New York, Washington, D.C., San Francisco, and Los 
Angeles.
---------------------------------------------------------------------------
    The loss of intact forest landscapes poses a serious threat to 
biological diversity and the environment. U.S. Department of 
Agriculture statistics reveal that more than half a million acres of 
private timberland are converted to development each year. Among other 
impacts, the resulting forest fragmentation degrades critical habitat 
for many resident and migratory birds and other species.\2\ Permanent 
conversion of forest lands also sacrifices an important resource for 
carbon sequestration to combat global warming.
---------------------------------------------------------------------------
    \2\ National Research Council, Forested Landscapes in Perspective: 
Prospects and Opportunities for Sustainable Management of America's 
Nonfederal Forests, pp. 59-60 (National Academy Press, Washington, 
D.C., 1998).
---------------------------------------------------------------------------
    Conservation easements represent a cost-effective tool for keeping 
private land in forest cover. In a growing number of cases in different 
regions of the country, the easement tool has been successfully applied 
on working forests, where easement terms are structured to permit 
commercial timber harvesting with conservation safeguards.\3\
---------------------------------------------------------------------------
    \3\ K. Slee, ``Evolving Easements on Working Forestlands,'' Vol. 17 
Exchange: The Journal of the Land Trust Alliance, pp. 5-8 (Spring 
1998).
---------------------------------------------------------------------------
    Created under the 1990 farm bill, the Forest Legacy Program has 
provided crucial financing for voluntary conservation easement 
transactions. The program now operates mainly under a system of federal 
grants to states for purchase of conservation easements on private 
forest lands. Federal funds cover 75 percent of the grants, with 25 
percent in matching support provided by states or other non-federal 
sources. Easements created under Forest Legacy Program grants allow 
private landowners to harvest timber on their property consistent with 
environmental stewardship principles and practices. Since the program's 
inception, more than 69,000 acres of working timberland have been 
enrolled as Forest Legacy lands.
    Low and unpredictable funding levels have prevented the Forest 
Legacy Program from achieving its potential. This year's $7 million 
annual program budget falls well short of the amount needed to fund the 
current docket of worthy grant applications. Low funding is a deterrent 
to adding to the list of 17 states currently active in the program.
    The Forest Legacy Program employs geographic priority-setting to 
assure that significant conservation benefits result from the public 
investment. Participating states identify and map ``Forest Legacy 
Areas'' on the basis of their important forest resource values 
threatened by permanent conversion, and the likely effectiveness of the 
Forest Legacy Program in protecting those values. Moreover, approved 
multi-resource management plans are required of all participating 
landowners. This requirement helps to guarantee good stewardship of 
forest soil and water quality, recreation, timber, scenery, fish and 
wildlife.
    Land managed for timber production under the Forest Legacy Program 
could be well-positioned to help meet growing demand for wood 
originating from certified, well-managed forests. For example, the 
Certified Forest Products Council (CFPC) was launched in 1997 as a non-
profit, voluntary business initiative dedicated to increasing the 
market for independently certified forest products in North America. 
The CFPC has a growing and diverse membership of corporate partners 
that includes large and small companies across the forest products 
value chain. For example, Nike Inc., Habitat for Humanity, The Home 
Depot, Colonial Craft, Berkeley Mills and Furniture Co., and the 
architectural firm of William McDonough & Partners are all CFPC 
members.
    In summary, the Forest Legacy Program represents an innovative and 
sensible vehicle for conservation partnerships linking the federal 
government, the states, and the private sector. Funding the program at 
the proposed $50 million level would help secure lasting protection for 
America's productive forest lands.
                                 ______
                                 
      Prepared Statement of the Southern Environmental Law Center
    The Southern Environmental Law Center (SELC) welcomes the 
opportunity to submit this statement to the Senate Interior 
Appropriations Subcommittee on the issue of fiscal year 2000 
appropriations and thanks the Subcommittee for its careful 
consideration of the topics covered.
    SELC is a non-profit public interest advocacy group providing 
comprehensive free legal services on environmental issues in the 
Southeast. SELC also studies environmental problems, monitors state and 
federal regulatory programs, and engages in public education 
activities. SELC is active in a six-state region that encompasses the 
Southern Appalachian Mountains, including Alabama, Georgia, North 
Carolina, South Carolina, Tennessee, and Virginia, with offices in 
Atlanta, Chapel Hill, and Charlottesville.
    Among other areas, SELC has expertise in management of the Southern 
Appalachian National Forests which is particularly relevant to the 
appropriations being considered by this Subcommittee. The Southern 
Appalachian states contain a special forest ecosystem with significance 
for the North American continent as one of the most ecologically 
diverse regions in the world. The 1996 Southern Appalachian Assessment 
(SAA) identifies no fewer than nine forest classes prevalent in the 
region and states that more species of trees are native to the Southern 
Appalachians than to any other northern temperate region of the globe. 
The region is also home to some of the most outstanding outdoor 
recreation opportunities in the nation and, since it is within a day's 
drive of one-half of the U.S. population, it draws numerous visitors 
from many other parts of the country. The SAA also identifies 190 rare, 
threatened, and endangered aquatic species within the Southern 
Appalachians.
    Decisions made within the context of the Forest Service budget are 
crucial to the effective protection of these unique resources. Budget 
items meriting specific scrutiny and action from this Subcommittee 
include commodity timber sales, road construction, off-budget trust 
funds, and county payments.
    First, the budget for commodity timber sales should be limited so 
as to end below cost timber sales and to prevent environmental damage. 
The Forest Service's timber program as currently practiced results in 
serious degradation of the unique resources of the Southern Appalachian 
region and is financially irresponsible. National Forest logging has 
damaged wildlife habitat and increased soil erosion and sedimentation 
in high quality streams. Below cost timber sales are particularly 
likely to occur in areas with steep slopes and higher elevations, which 
are conditions prevalent throughout the Southern Appalachians. At the 
same time, the program loses money. According to a 1998 General 
Accounting Office report, over the three years from 1995 to 1997, the 
costs of the Forest Service's logging program exceeded returns to the 
Treasury by $1.05 billion.
    The second area of concern, related to commodity timber sales, is 
the road construction budget. Funding for road construction in roadless 
areas should be eliminated, and overall funding for road construction 
should be reduced while the Forest Service develops its long-term 
transportation policy. Road construction is one of the most 
environmentally damaging activities practiced by the Forest Service 
because it contributes to water pollution and the destruction of 
wildlife habitat. Moreover, road construction continues to be linked to 
timber sales with ninety-five percent of new road construction on 
National Forests in recent years being completed for logging 
activities. All of this construction activity occurs in an obviously 
unsustainable fashion. In his State of the Forest speech for 1999, 
Forest Service Chief Dombeck identified a road maintenance backlog of 
$8.5 billion. This year's Forest Service budget should increase funding 
for legitimate maintenance and repair needs, which include 
environmentally necessary road re-construction and road obliteration.
    SELC's third area of concern focuses on the Forest Service's off-
budget trust funds. These funds are the Salvage Sale Fund, the Knutson-
Vandenberg (K-V) Fund, the Brush Disposal Fund, and the Roads and 
Trails Fund. These funds should be reformed by requiring that they be 
used for their original stewardship purposes, such as reforestation, 
and by removing any incentive for timber harvesting as a means of 
increasing agency revenue. An additional problem with these funds is 
their use by the Forest Service to escape Congressional oversight. 
Under current practice, the Forest Service captures significant amounts 
of money in these funds in the form of charges for indirect and 
overhead expenses. The result is that the Forest Service retains money 
that should properly be returned to the U.S. Treasury. This practice 
should be ended in order to return Forest Service activities to 
Congressional control.
    Finally, SELC recommends that this year's appropriations language 
should de-link payments to counties from National Forest timber 
harvesting revenues while ensuring that counties containing National 
Forest lands are adequately compensated for lost property tax revenue 
through a fully funded Payments in Lieu of Taxes (PILT) or comparable 
program. Many current and former county commissioners are now 
recognizing that this program forces county governments in the 
direction of non-sustainable positions on ecologically critical issues 
and creates significant funding uncertainty for rural schools, roads, 
and other infrastructure. Again, in his State of the Forest speech, 
Chief Dombeck advocated de-linking these payments and replacing them 
with a stable funding source that would hold counties harmless from 
fluctuations in the timber market.
    SELC stands ready to assist this Subcommittee by submitting, upon 
request, additional information on any of these Forest Service budget 
issues and, particularly, by providing information on the unique and 
important Southern Appalachian forest environment. We appreciate the 
Subcommittee's attention to these matters.
                                 ______
                                 
          Prepared Statement of Myrna Johnson, Director, ORCA
    ORCA is the trade association for the $8 billion human-powered 
outdoor recreation industry. Our members are manufacturers, retailers, 
and suppliers of backpacking, hiking, kayaking, canoeing, backcountry 
skiing and climbing equipment, as well as service providers for these 
activities. We urge the Committee to increase funding for recreation 
management and trails at the National Park Service, U.S. Forest 
Service, and the Bureau of Land Management, and to fully fund the Land 
and Water Conservation Fund. In addition, we urge the Committee not to 
extend the recreation user fee program beyond its scheduled fiscal year 
2001 end, and to urge you and the agencies to evaluate the 
demonstration programs with serious criteria before requesting or 
implementing a permanent program.
                             forest service
    We are deeply concerned about the Administration's proposed USDA 
Forest Service recreation budget for fiscal year 2000. As we enter the 
new millennium and a new era for the Forest Service, we believe it is 
incumbent on Congress to invest in recreation, the future of our 
national forests.
    The Forest Service itself estimates that in the year 2000, 
recreation will create 74.8 percent of the Gross Domestic Product 
generated from Forest Service land, yet recreation accounts for only 8 
percent of the Forest Service proposed budget for fiscal year 2000. We 
urge the Committee to increase that percentage to at least 15 percent 
in fiscal year 2000, as a first step in providing adequate funds for a 
very important player in the forest economy.
    The current investment does not match the role recreation plays, 
nor does it meet the needs of the growing number of recreationists 
using Forest Service land. The Forest Service indicates that 
recreational visits to national forests in 1993 totaled 859 million 
visits in 1996; they project that number to be 930 million visitors in 
1998.
    Yet the numbers of personnel providing recreation services and the 
resources available to manage for recreation is stagnant or declining. 
The numbers of recreation management personnel has decreased from 2309 
in fiscal year 1998 to 1934 in fiscal year 1999. The number is 
projected to hold steady for fiscal year 2000, but those FTEs will have 
less resources with which to do their job. Once again, we need to point 
out that this is not how we believe a growth area should be treated, 
particularly one that is heavily service-oriented. We know that in many 
regions, the recreation management staff is so small that there is 
little to no staff to write permits, and volunteers are relied on more 
and more to be in contact with the public when a professional touch is 
needed.
                         national park service
    Only a fraction of the National Scenic Trails under Park Service 
care are in place and the agency's successful Rivers, Trails, and 
Conservation Assistance program meets less than 50 percent of the 
demand for its services. These trails are the crown jewels of America's 
trail system, and need additional support.
                       bureau of land management
    BLM has seen significant increases in recreation while staff 
resources have decreased. This should be rectified.
                    land and water conservation fund
    We believe that providing funding for parks and open space at the 
federal and state levels via LWCF is the single best way to preserve 
America's great places and natural heritage, provide quality recreation 
opportunities for all Americans, invest in our children's health and 
quality of life, and implement solutions for urban sprawl--a natural 
resource concern that has the potential to dramatically change 
America's landscape. We urge this committee to fully fund the Land and 
Water Conservation Fund, both the federal and state sides of the 
program.
    Here are our specific requests for the fiscal year 2000 
appropriations bill:
    Forest Service Recreation management. $225 million for fiscal year 
2000. $170.3 million was appropriated in fiscal year 1998, but only 
$145 million was available for fiscal year 1999. The request for fiscal 
year 2000 is functionally $4 million less than 1999 because of 
uncontrollable costs, and $25 million less than 1998. This is not a way 
to treat a program that fits into the highest priorities for the 
agency.
    FS Trail maintenance. $35 million for fiscal year 2000. The 
Administration has requested $20.4 million; the fiscal year 1999 
appropriation was $18.4 million. The Forest Service has documented a 
backlog of $257 million in trail maintenance projects.
    FS Trails Construction/Re-construction: $30 million for fiscal year 
2000. $29.5 million was available in fiscal year 1999; the 
Administration has requested only 13.05 million.
    FS Wilderness Management: $50 million for fiscal year 2000. $29.5 
million is available for fiscal year 1999. The Administration has 
requested $36.5 million.
    FS Heritage Resources: $25 million for fiscal year 2000. $13.05 is 
available for fiscal year 1999. The Administration has requested level 
funding from last year.
    NPS Rivers, Trails and Conservation Assistance. $12 million. $7 
million was available in fiscal year 1999.
    NPS National Trails System. $7 million, up from $3.5 million in 
fiscal year 1999.
    BLM Recreation Management. Increase recreation management by $10.2 
million over the fiscal year 1999 appropriation.
    BLM Recreation Maintenance. Increase recreation management by $6.7 
million over fiscal year 1999 appropriation.
    Land and Water Conservation Fund. $900 million for fiscal year 
2000, including a fair share for the stateside program.
                  recreation fee demonstration program
    In addition, we believe last year's appropriations conference 
committee report and this year's forest service budget document come 
dangerously close to a breach of the promise made to the American 
people when the recreation fee demonstration program was created: that 
user fees would supplement, not supplant, current funding. We wish to 
let the Committee know that the initial support for the fee program 
within the ORCA membership is declining. One reason for declining 
support is that it appears that fees are not adding recreation funds to 
the mix, but rather making up for decreases in general funding or 
paying for little more than enforcement of the new fees.
    In fact, the FS budget document indicates that the appropriation 
levels they have requested are not enough ``to operate facilities and 
trails to meet full quality standards.'' One of their suggestions for 
meeting the shortfall is ``aggressive implementation of the Recreation 
Fee demonstration pilot.'' This ``aggressive implementation'' is 
disturbing to recreationists who do not want to be nickeled and dimed 
to death or charged multiple fees for access to particular recreational 
activities.
    We urge the committee to use the currently established 
demonstration program to fully evaluate the program for user support 
and for creating guidelines for successful and unsuccessful programs. 
We do not support additional extensions of the demonstration program, 
and seek a better accounting of what programs have and have not worked 
before moving ahead with a permanent program. The mere fact that the 
program raises money is not a good enough reason for continuing the 
program indefinitely.
    Thank you for the opportunity to provide this material for the 
record. If you have questions, do not hesitate to call.
                                 ______
                                 
Prepared Statement of Robert M. Evetts, President, National Association 
                    of Abandoned Mine Land Programs
    I am the current President of the National Association of Abandoned 
Mine Land Programs which represents twenty-three States and three 
Tribes that administer approved abandoned mine land reclamation 
programs. The Association was organized for the purpose of enhancing 
communication, coordination, and consistency between the States, Tribes 
and the Office of Surface Mining on issues related to Title IV of the 
Surface Mining Control and Reclamation Act of 1977 (SMCRA, Public Law 
95-87). I am pleased to represent the Association by providing comments 
to you regarding the proposed budget for the Office of Surface Mining 
(OSM) for the fiscal year 2000.
    The Abandoned Mine Land Program has successfully administered and 
aggressively pursued the abatement of mine hazards and the active 
reclamation of lands adversely affected by past mining activities 
across the United States. Many of these abandoned mine lands exhibit 
scars and environmental degradation which occurred more than 150 years 
ago. These scars and hazards were left unremediated to heal and abate 
themselves which they have not done.
    Congress acted in a responsible effort to remedy these abandoned 
mine land problems in 1977 when it enacted the Surface Mining Control 
and Reclamation Act. The Act established a program through which 
abandoned mine hazards and reclamation could be addressed without 
placing an increased financial burden on the citizens or negatively 
impacting the nation's debt. The plan would be funded by a tax on 
active coal production; the problems created by past mining activities 
would be directly or indirectly remediated by the same industry that 
created them.
    As background, coal producers across the nation have contributed in 
excess of $5.1 billion dollars in taxes and interest to the Abandoned 
Mine Land Trust Fund since fiscal year 1977. Under the Act, this amount 
less a stipulated amount to the United Mine Workers of America Combined 
Benefit Fund, should have been made available for AML reclamation. 
Unfortunately, annual appropriations have been considerably less than 
the states anticipated which is also inconsistent with the intent of 
the Act. This historical practice of under funding the AML program 
activities has resulted in an unappropriated AML Trust Fund balance 
which will exceed 1.5 billion dollars by the end of this year. This 
unappropriated balance is growing at the rate of more than 100 million 
dollars a year. It seems unconscionable to allow the accumulation of 
these dedicated funds to continue while serious health and safety 
hazards still exist and remain unabated.
    The Membership of the Association and I would like to express the 
following concerns regarding the President's proposed fiscal year 2000 
Budget:
                          aml program funding
    The proposed fiscal year 2000 budget is a commendable step in the 
right direction and we support the Administration's effort to increase 
AML funding. However, the proposed budget still perpetuates the 
practice of inadequate AML funding. The proposal would only appropriate 
approximately 55 percent of the fiscal year 2000 projected income to 
the Trust Fund, allowing the rapid and continued accumulation of 
unappropriated balances.
    The 26 member States and Tribes who administer Abandoned Mine Land 
Programs have an established record of accomplishments spanning the 
past 18 years. One of the primary contributing factors to the overall 
program success has been the ability of the individual states and 
tribes to establish program needs, prioritize projects and administer 
programs tailored to the needs of their respective states and tribes.
    The proposed increase of $25 million to reclaim abandoned mine 
sites that pose significant threats to human safety will, in fact, 
require a reprioritization of state projects in order to establish 
funding eligibility. This manipulation of funding is or could be 
detrimental to the objectives of the individual States and/or Tribes 
and places OSM in a ``controlling'' rather than an ``oversight'' role 
in the AML Program. This does not seem to coincide with the ``less 
government'' initiative advocated over the past few years. The proposed 
$25 million increase is directed to two types of projects which are 
almost one in the same: $22 million in support of the President's Clean 
Water Action Plan; and $3 million increase in funding for the 
Appalachian The Honorable Ralph Regula The Honorable Norman Dicks April 
9, 1999 Page Three
    Clean Streams Initiative ($2 million to eligible AML State/Tribal 
grants and $1 million in cooperative agreements for not-for-profit 
groups). Both of these programs are in support of the Clean Water 
Action Plan. This type of stipulated funding increase will not allow 
all of the program States/Tribes to compete for this funding on an 
equal basis. Not all states are faced with the same stream and water 
shed problems but all have priority 1 and 2 problems to remediate.
    The proposed increase in AML funding is part of the Administrations 
effort to fund the AML program at a level commensurate to fee receipts 
collected. This effort, though commendable, does not address the fact 
that the funding (fee collection) under the Act will end in 2004 unless 
extended. It would appear more logical that we should advocate an 
immediate and recurring appropriation which would be commensurate to 
the projected fee collection each year. This still would not address 
the current unappropriated AML Trust Fund balance of more than $1.4 
billion.
    The Surface Control and Reclamation Act was amended in 1990 to 
assure minimum program states a recurring funding level of $2 million. 
Stability in funding is an absolute necessity, especially when trying 
to establish long-term planning at the minimum funding level. Beginning 
in fiscal year 1995, appropriations fell 25 percent below the 
previously established $2 million funding level and have continued to 
be at $1.5 million through fiscal year 1999. We appreciate and are in 
support of the President's effort to restore the minimum state program 
funding to the $2 million level.
    The AML Trust Fund balance currently exceeds $1.4 billion. The 
Association is supportive of a recurring funding appropriation which 
would either substantially reduce or preferably bring the trust fund 
balance to zero by the end of the current fee collection, which is set 
to expire in 2004. This would allow for the States and Tribes to plan 
ahead to maximize their reclamation efforts prior to the end of the 
Program.
                                summary
    It is the belief of the National Association of Abandoned Mine Land 
Programs, as well as the public, that the AML program was created for 
the express purpose of addressing the serious health and safety 
problems which exist throughout the nation's coal fields. The 
reclamation of these sites should be performed in an expedient and 
effective manner. The AML program States and Tribes have demonstrated 
that they have effective programs in place and are capable of 
accomplishing these requirements, providing that adequate funding is 
available. Implementation of the coal production tax has provided 
obvious in-place funding. The Honorable Ralph Regula The Honorable 
Norman Dicks April 9, 1999 Page Four
    To further these goals, the Association respectfully requests that 
the subcommittee consider the following recommendations:
    1. Recommend that fiscal year 2000 appropriations for AML program 
activities equal or exceed the amount of anticipated fee collections to 
the AML Trust Fund in fiscal year 2000.
    2. Recommend increased funding level to adequately fund the 
Appalachian Clean Streams Initiative without impacting the State 
Reclamation Grant funding.
    3. Insure that the minimum program states receive no less than the 
$2 million level of funding as provided for in SMCRA.
    4. Institute a long-term management plan for the AML Trust Fund 
which would reduce it to a zero balance on or before the expiration of 
the fee collection period.
    The Association is appreciative of this opportunity to present its 
comments and recommendations on the OSM proposed fiscal year 2000 
budget. I would be glad to address any request for clarification or 
additional information that the Subcommittee or Committee may desire.
                                 ______
                                 
                          DEPARTMENT OF ENERGY
 Prepared Statement of Dr. Gerald P. Huffman, Director, Consortium for 
                    Fossil Fuel Liquefaction Science
                   cooperative research c1 chemistry
    C1 chemistry is the conversion of carbon-containing materials that 
contain one carbon atom per molecule into valuable transportation fuels 
and chemical products. In 1999, with the support of the U.S. Department 
of Energy, the Consortium for Fossil Fuel Liquefaction Science (CFFLS), 
a research consortium with participants from the universities of 
Kentucky, West Virginia, Utah, Pittsburgh and Auburn, initiated a new 
basic research program on C1 chemistry. The CFFLS is requesting $1.6 
million from the Department of Energy to continue this program in 
fiscal year 2000. This represents a modest increase over the $1.4 
million of funding provided for this program by DOE in fiscal year 
1999. The CFFLS research program on C1 chemistry is a cooperative 
program jointly sponsored by the DOE Energy Efficiency and Renewable 
Resources (EE) Office of Transportation Technology (OTT) and the DOE 
Fossil Energy (FE) Advanced Research and Environmental Technology 
(AR&ET) division. We are requesting $1.2 million from DOE EE OTT and 
$0.4 million from DOE FE AR&ET. The five Consortium universities will 
provide $0.25 of cost sharing for every $1.00 of federal funding, or 
$400,000, to support this research program in fiscal year 2000.
    The feedstocks for C1 chemistry include natural gas, carbon 
dioxide, methanol, and synthesis gas (a mixture of carbon monoxide and 
hydrogen). Synthesis gas, or syngas, is produced principally by 
reforming of natural gas, which is primarily methane, with steam. It 
can also be produced by gasification of coal, biomass, or organic 
wastes. Syngas is the source of nearly all of the hydrogen and methanol 
produced. It is also the primary source of many chemicals and can be a 
source of very clean transportation fuels. Because of new environmental 
standards now being promulgated, C1 chemistry is likely to become a 
major source of transportation fuel in the U.S. early in the next 
century.
    In cooperation with DOE, the Consortium has identified several 
research topics that will be emphasized in this program to help meet 
our national energy needs and environmental goals. The following areas 
have been identified as the most critical:
    1. Conversion of methanol and syngas into clean, oxygenated, 
transportation fuels.
    2. Conversion of natural gas into syngas.
    3. Conversion of syngas, natural gas and methanol into hydrogen.
    A brief summary of the CFFLS program for each of these research 
topics is given below.
    Transportation fuel.--A principal goal of the DOE in the 
transportation sector is to develop new sources of ultra clean diesel 
fuel for use in light trucks and sports utility vehicles, the use of 
which has increased dramatically in this country over the past several 
years. The Fischer-Tropsch (F-T) process is one option for the 
production of such diesel fuel. However, F-T plants are very large and 
expensive and there are conflicting views regarding the best technology 
for a F-T plant. Most F-T development is likely to occur abroad, 
converting cheap foreign natural gas into diesel fuel and importing it 
to the U.S. In contrast, the technology to convert syngas into methanol 
is a comparatively simple and relatively inexpensive technology. 
Currently, there are only two commercial F-T plants in the world. 
However, there are many operating methanol plants through out the world 
and in the U.S. Our research will therefore focus on reacting methanol 
and syngas to produce novel, oxygenated, diesel fuels that are superior 
to any now being produced. These diesel fuels have the potential to 
significantly increase mileage rates attained by trucks and sports 
utility vehicles, while markedly reducing emissions of fine particulate 
matter and sulfur and nitrogen oxides. Reduction of airborne 
particulate matter less than 2.5 microns in diameter (PM<INF>2.5</INF>) 
is a major goal of both the DOE and the EPA.
    Conversion of natural gas into syngas.--There is an abundance of 
remote natural gas, much of which is currently being wasted. The 
Alaskan oil fields represent a remote natural gas source in the U.S. 
that is not currently being utilized. Therefore, it is important to 
develop more effective technology to convert natural gas into syngas. 
This step is the costliest part of C1 chemistry. Most syngas is 
currently made by reforming natural gas (methane) by reaction with 
steam. However, there are several advantages to using carbon dioxide to 
reform natural gas to syngas.
  --Many natural gas sources in nature contain a significant percentage 
        (20-50 percent) of carbon dioxide in addition to methane.
  -- The resulting syngas has a more favorable hydrogen to carbon ratio 
        for the production of transportation fuels.
  --The reaction of carbon dioxide with natural gas to produce syngas 
        has the advantage of using significant amounts of carbon 
        dioxide in a productive manner.
    The CFFLS research will focus on the development of novel catalysts 
for reforming of natural gas with carbon dioxide that will have higher 
activities and longer active lifetimes.
    Hydrogen.--Research will focus on development of new nanoscale 
catalysts and processes to improve the conversion of syngas, methanol 
and natural gas into hydrogen free of carbon monoxide contamination. 
The high purity hydrogen produced from such conversion processes can be 
used in advanced, pollution free, power sources known as fuel cells, as 
well as for traditional uses (ammonia, refining, etc.). A long term 
goal of DOE is the development of high efficiency, pollution free 
vehicles powered by fuel cells. Because of our existing infrastructure, 
there are advantages to continuing to use liquid fuel in vehicles. One 
possible scenario is vehicles that use methanol as the primary fuel, 
with on board reforming devices to convert the methanol to the hydrogen 
required by fuel cells. Therefore, our program will investigate 
technology for producing hydrogen from methanol.
                  economic and environmental benefits
    Although it will require a long-term research effort, the practical 
benefits of the technology that could ultimately be developed from this 
research are substantial. Several potential economic and environmental 
benefits that could result from C1 chemistry research are briefly 
summarized below.
  --Utilization of remote natural gas (e.g., from the Alaskan oil 
        fields).
  --Domestic production of clean, high efficiency, diesel and other 
        transportation fuel.
  --Reduction of the U.S. trade deficit.
  --Reduction of emissions of fine particulate matter 
        (PM<INF>2.5</INF>).
  --Reductions of emissions of sulfur and nitrogen oxides.
  --Productive use of carbon dioxide, a greenhouse gas.
                       summary and budget request
    The Consortium for Fossil Fuel Liquefaction Science, a research 
consortium with participants from the universities of Kentucky, West 
Virginia, Utah, Pittsburgh and Auburn, has initiated a coordinated 
basic research program on C1 chemistry. The goal of the program is to 
develop technology to convert simple carbon feedstocks (natural gas, 
carbon dioxide, methanol and syngas) into valuable products, such as 
ultra clean, high efficiency transportation fuel, hydrogen, and 
chemicals. The Consortium is requesting $1.6 million from the 
Department of Energy to support this program in fiscal year 2000, a 
modest increase over the level of support provided in fiscal year 1999. 
The five Consortium universities will provide $0.25 of cost sharing for 
every $1.00 of federal funding, or $400,000 per year.
                                 ______
                                 
  Prepared Statement of Richard Bajura, Director; and George Fumich, 
 program advisor, National Research Center for Coal and Energy at West 
                          Virginia University
    Chairman Gorton and Members of the Subcommittee: This statement was 
prepared by Richard Bajura, Director of the National Research Center 
for Coal and Energy, and George Fumich, a Program Advisor for the 
Center. We appreciate your consideration of our statement regarding 
programs in Fossil Energy and Energy Conservation on the topic of 
alternative transportation fuels and chemicals.

        need for alternative transportation fuels and chemicals
    The expanding U.S. dependence on imported petroleum is detrimental 
to our energy security and to our balance of payments in foreign trade. 
Oil imports are projected to increase to a level of 60 percent of our 
total consumption by 2010. Approximately 98 percent of the fuels that 
power our nation's transportation sector are derived from petroleum-
based fuels.
    Emissions of carbon dioxide from the transportation sector are 
expected to increase by 50 percent over the next fifty years. Since 
1973, the year of the Oil Embargo, essentially all of the increase in 
U.S. highway fuel consumption has been due to trucks. Petroleum-based 
fuels are a major source of particulate emissions in heavy duty 
engines. In California, for example, heavy duty diesel trucks are only 
2 percent of the vehicles on the road, but account for 30 percent of 
the smog emissions and 70 percent of the particulate emissions.
    Research accomplished thus far indicates that by using indirect 
liquefaction technologies, alternative transportation fuels can be 
produced which are higher in energy content and environmentally 
superior to petroleum based fuels. The research area called C-1 
Chemistry offers much promise for the development of new fuels, fuel 
additives, and value added chemicals. C-1 Chemistry is based on using 
feedstocks which initially have only one carbon atom per molecule, such 
as methane [CH4], carbon monoxide [CO] and methanol [CH30H].
         programs of the office of transportation technologies
    Syngas produced from coal or natural gas, coupled with advanced 
research in C-1 Chemistry, can be the base from which the U.S. can 
build commercially viable co-production industries for producing 
alternative transportation fuels and value-added chemicals. In fiscal 
year 1999, your Appropriations Subcommittee on Interior and Related 
Agencies supported the Consortium for Fossil Fuel Liquefaction Science 
to initiate research in C-1 Chemistry under the Office of 
Transportation Technologies. This program is a cooperative effort 
between our Consortium, which has five member schools, the Office of 
Transportation Technologies, and the Office of Fossil Energy.
    We request your continued support for this program through an 
additional appropriation of $1.2 million in the fiscal year 2000 budget 
of the Office of Transportation Technologies. This research is 
particularly relevant to programs in heavy vehicle technologies in view 
of the contribution of such vehicles to the overall level of emissions 
from the transportation sector.
                programs in the office of fossil energy
    We believe it is in our national interest to develop advanced 
programs which will permit the cost-effective conversion of coal to 
cleaner liquid fuels, value added chemicals, and more advanced fuels 
such as hydrogen. Continued investments are required to reduce the cost 
of fuels and chemicals production and to encourage the industrial 
acceptance and early commercialization of viable co-production 
technologies in support of Vision 21 programs.
    In this regard, we are recommending additional funding of $2 
million for Fossil Energy programs in the area of Indirect Liquefaction 
research to a level of $9,659,000 for fiscal year 2000. We recommend 
that these funds initially be used to support research in C-1 
Chemistry, catalysis, and process development. Out year funding 
increases are recommended for reactor modeling, scale-up studies and 
fuels testing, followed later by performance studies in pilot plants 
and demonstration plants. This kind of research program is required to 
reduce the risk of commercializing indirect liquefaction plants, 
thereby encouraging investments by the private sector. This program can 
yield payback benefits through increased employment and reduced balance 
of payments deficits through the use of our vast coal reserves.
    Thank you for the opportunity to share our views with the 
Subcommittee. We would be pleased to provide additional information 
regarding these programs as needed.
                                 ______
                                 
    Prepared Statement of Ronald J. Pugmire, Ph.D., Associate Vice 
 President for Research, Professor of Chemical and Fuels Engineering, 
                           University of Utah
    In your considerations for the fiscal year 2000 budget, I recommend 
support for the Consortium for Fossil Fuel Liquefaction Science 
(CFFLS), a five-university research consortium with approximately 100 
participants from: the University of Kentucky, West Virginia 
University, the University of Utah, the University of Pittsburgh, and 
Auburn University. Over the past two years, the consortium has 
developed very promising technology for C1 chemistry.
    C1 chemistry is the conversion of feedstocks such as natural gas, 
carbon dioxide, and synthesis gas (a mixture of carbon monoxide and 
hydrogen) into hydrocarbon products. Synthesis gas, or syngas, is 
produced principally by reaction of natural gas with steam. It can also 
be produced by gasification of coal, biomass, or organic wastes.
    Because of new environmental standards now being promulgated, C1 
chemistry is likely to become a major source of transportation fuel in 
the U.S. early in the next century. Although there is a DOE program on 
Fischer-Tropsch synthesis, a form of C1 chemistry, there is currently 
no coherent national research program on the more innovative aspects of 
this important technology. To fill this void, the Consortium for Fossil 
Fuel Liquefaction Science, a research consortium with participants from 
the universities of Kentucky, West Virginia, Utah, Pittsburgh and 
Auburn, has initiated a basic research program on C1 chemistry. The 
Consortium has made a thorough study of C1 chemistry to determine which 
research topics should be emphasized to meet our national energy needs 
and environmental goals. The following areas have been identified:
    1. Conversion of natural gas into syugas. Novel plasma reactors and 
reaction of natural gas with carbon dioxide will be investigated.
    2. Conversion of syngas into clean diesel and other transportation 
fuels. We will investigate reaction of syngas with methanol to produce 
oxygenated diesel fuel that should be cheaper and better than Fischer-
Tropsch diesel fuel.
    3. Conversion of syngas into hydrogen. Catalytic processes will be 
developed to produce hydrogen that is free of carbon monoxide and can 
be used in fuel cells.
    4. Conversion of syngas into value-added chemicals. Direct 
synthesis of a number of value-added chemicals from syngas could 
markedly improve economics.
                  economic and environmental benefits
  --Utilization of 1.5 trillion cubic feet of natural gas per year with 
        a value of approximately $4 billion.
  --Production of 3 trillion cubic feet of hydrogen per year with a 
        value of approximately $7 billion.
  --Production of 1.5 billion barrels of diesel fuel per year with a 
        value of $60 billion.
  --Reduction of the trade deficit due to oil imports by up to $30 
        billion per year.
  --Reduction of U.S. emissions of carbon dioxide, a greenhouse gas, by 
        up to 400 million tons per year or approximately 10 percent.
  --Reduction of U.S. emissions of fine particulate matter and sulfur 
        and nitrogen oxides by approximately 10 percent.
    The CFFLS is requesting $1.5 million from DOE Fossil Energy in 
fiscal year 2000, with an aggregate of $0.75 million in cost-sharing to 
be provided by the five consortium universities. Your support for this 
important program is requested.
                                 ______
                                 
Prepared Statement of Gerald Holder, Dean; John W. Tierney, Professor; 
    and Irving Wender, Distinguished University Research Professor, 
                        University of Pittsburgh
    Because of new environmental standards now being promulgated and in 
the interest of increased efficiency, the Consortium For Fossil Fuel 
Liquefaction Science (CFFLS), consisting of participants from the 
Universities of Pittsburgh, Kentucky, Utah, West Virginia and Auburn 
have, after thorough study, been engaged in a basic research program on 
C1 chemistry. C1 chemistry involves the conversion of simple molecules 
such as natural gas, carbon dioxide, synthesis gas (a mixture of 
hydrogen and carbon monoxide) and methanol into environmentally clean, 
efficient transportation fuels as well as chemicals and polymers.
    There is currently no coherent national research program on 
innovative aspects of this expanding technology. Although DOE has a 
program on the conversion of synthesis gas to transportation fuels by 
the Fischer-Tropsch process, no such plants will be built in the lower 
48 states; instead, advantage is being taken of cheap natural gas 
converted to synthesis gas in distant countries. Indeed, to meet diesel 
fuel standards in California, Fischer-Tropsch diesel has been imported 
from a Royal Dutch Shell plant built in Malaysia.
    The CFFLS has developed a program on C1 chemistry that deals with 
the most important needs and aspects of this country. The program 
involves cheaper ways of converting natural gas, biomass or coal into 
synthesis gas, the conversion of two global warming gases, methane and 
carbon dioxide, into synthesis gas and the conversion of methane and 
hydrocarbons into pure hydrogen gas for use in fuel cells. Synthesis 
gas is the source of essentially all the hydrogen produced in the U. S. 
This country has a large capacity for the production of methanol, all 
produced from synthesis gas; diesel fuel of the highest quality, 
meeting environmental and efficiency requirements can be made directly 
from synthesis gas via the Fischer-Tropsch process or from methanol, 
and the CFFLS has a program to do this. The U.S. may look to the 
conversion of natural gas in turnkey plants to methanol which can then 
be used to meet our needs for the production of gasoline, diesel, jet 
fuels, lubricating oils, chemicals and polymers.
    While acknowledging the realities of the present budget austerity, 
the undersigned recommend and request your strong support for the much-
needed program and budget proposed for the Consortium.
                                 ______
                                 
   Prepared Statement of John M. Owens, Associate Dean for Research, 
                           Auburn University
    In the course of your deliberations for fiscal year 2000 
appropriations please be aware of the importance of current federal 
funding for research now under way at Auburn University through the 
Consortium for Fossil Fuel Liquefaction Science.
    This program is insuring the continuation of research on the 
conversion of domestic fossil fuel and wastes into transportation fuel 
and chemicals. The research is being carried out by an experienced team 
of faculty that has more than 50 years of collective experience with 
this technology. Reduced Federal and private funding has threatened the 
existence of this team and similar ones in the United States. Although 
significant funds are being provided by the State of Alabama for our 
work, they are insufficient to maintain a high quality program over the 
long term.
    Probably the most important products of academic research are the 
students produced for industry and government. Dramatic decreases in 
federal funding for such research are threatening the production of the 
next generation of scientists and engineers that will conduct essential 
research programs on the conversion of domestic fossil fuels into 
transportation fuels and chemicals.
    Research initiatives at Auburn are coordinated with other members 
of the Consortium (University of Kentucky, University of Utah, 
University of Pittsburgh, and West Virginia University) and focus on C1 
chemistry. C1 chemistry encompasses the conversion of feed stocks such 
as natural gas, carbon dioxide, and synthesis gas into clean 
transportation fuels, hydrogen and chemicals. It is likely that C1 
chemistry will be a major source of transportation fuel in the country 
early in the next century. We strongly support funding of this program 
in order to develop an important option in the solution of a national 
problem.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the Subcommittee, this testimony is 
submitted on behalf of the National Association of State Energy 
Officials (NASEO). The National Association of State Energy Officials 
is comprised of energy officials from 53 of the 56 State and Territory 
Energy Offices.. We are testifying in support of funding for the State 
Energy Program administered by the U.S. Department of Energy's (DOE) 
Office of Energy Efficiency and Renewable Energy.
    Specifically, NASEO supports funding levels of no less than the 
request contained in the President's fiscal year 2000 budget for State 
Grant programs, including, $37 million for the State Energy Program 
(SEP), $154 million for the Weatherization Assistance Program (WAP), 
and the budget request levels for the competitive energy partnerships.
    In addition, we support the administration's request for the 
buildings sector to implement the building code provisions of the 
Energy Policy Act of 1992 through state grants, and we support the 
proposed budget for the Energy Information Administration (EIA). Within 
EIA's budget, we support the continuation of the State Heating Oil and 
Propane Program. We also urge the Subcommittee to support at least 
level funding for the Municipal Energy Management Program.
    Mr. Chairman, it has been more than a year since the House Interior 
Appropriations Subcommittee held a hearing in which my colleagues from 
Ohio, New York, and California testified on what they believed the 
Subcommittee needs to make a priority for research, development, and 
deployment funding. NASEO members agree that in order for our nation to 
remain competitive in the global marketplace, we must have a balanced 
approach to energy policy, an approach that includes government support 
for both R&D and deployment activities. Consequently, we have 
established six working groups whose mission it is to develop Memoranda 
of Understanding between DOE and the states.
    In order to have successful R&D initiatives we must ensure that the 
research is necessary, information is shared, markets are prepared, and 
that technologies are viable. Market preparation and deployment are the 
linkages that provide feedback to guide R&D and increase its relevance 
to businesses and consumers. State Energy Offices should be involved 
early in this process, along with state research institutions, in order 
to improve the use of DOE- and laboratory-developed programs.
    You have received testimony from a number of individuals and 
companies who will tell you of the wonderful successes that they have 
accomplished as a result of funding from this Subcommittee. We would 
add that many of these individuals and companies either received direct 
financial assistance or technical assistance from their State Energy 
Offices as well. The assistance that they received from their State 
Energy Office was more than likely funded by federal appropriations, 
state appropriations, or remnants of oil overcharge refunds that are 
perpetuated through revolving loan programs. Without a strong network 
of State Energy Offices, the funding requests to this Subcommittee 
might see a dramatic rise. Moreover, the assistance provided by the 
states provides greater value and greater local relevance to these 
national efforts.
    Like the Subcommittee, requests for assistance to the State Energy 
Offices continues to increase. Many of the efficiency initiatives, and 
corporate R&D programs that have historically been funded by utilities 
and industry have all but evaporated due to electric utility 
restructuring, and State Energy Offices are feeling the pressure to 
support the continuation of these activities.
    To date, 15 states have passed electricity restructuring 
legislation, while five others have acted through their public service 
commissions. Most other states are considering electric utility 
industry changes. These changes began with Energy Policy Act of 1992, 
which permitted wide expansion in the number of market participants. 
The Federal Energy Regulatory Commission accelerated these changes 
through Order 888, opening the transmission grid.
    As part of this change, traditional franchised utilities attempt to 
compete on the basis of price with non-utility generators, while public 
benefits programs, such as energy R&D, energy efficiency, renewable 
energy, fossil energy R&D, and low-income programs have all suffered. 
This is a gap that must be filled in order to meet national, state, and 
local needs. The State Energy Offices, such as my own, have been 
filling that gap, albeit with diminished resources. In a restructured 
environment, energy efficiency and fossil energy R&D programs must 
adapt to the changing reality of the new electric utility industry in 
which franchised utilities are no longer major technology deployment 
partners. A long-term strategic plan--of the type you seek to build by 
prioritizing research, development, and deployment appropriations--must 
include provisions for this changing industry structure.
    At the state level, the types of activities we are planning must 
also take into consideration these new trends. We hope to work with 
you, Mr. Chairman, to recognize the importance of coordinating energy 
R&D with energy deployment activities. The type of programs we have 
successfully implemented, include linking DOE's industrial programs 
with our state activities and those of our industries.
    For example, the State of Ohio worked with Alumitech, Inc., in 
Cleveland (through a NICE3 grant, state assistance, and Alumitech 
commitments) to develop and install facilities that would separate 
aluminum, salt, and other useful aluminum recycling by-products. 
Alumitech is now able to prevent energy losses and resource losses from 
by-products of the aluminum industry through the utilization of all 
components in the manufacturing process.
    In the state of Washington, the energy office coordinated and 
provided financial assistance to the City of Seattle and Boeing 
Corporation for a joint waste-to-energy project whereby effluent from 
Seattle's Renton treatment facility is used to heat and cool Boeing's 
Customer Services Training Center. This project has reduced the need 
for new generation capacity by 20 megawatts.
    States are also a great source for financing of school and hospital 
efficiency retrofits. A number of state and territory energy offices 
operate their own revolving loan programs for schools and hospitals 
including: Wyoming, Alabama, Tennessee, Maine, Indiana, Louisiana, the 
U.S. Virgin Islands, Maryland, Oklahoma, South Carolina, and Iowa. In 
Vermont, my office works with the state Superintendents Association to 
address energy efficiency problems in the public schools. The objective 
is to attain long-term benefits and develop sound management practices. 
By working through the Superintendents Association we are able to gain 
quick and widespread approval for the program and ensure that it is 
responsive to local needs.
    In addition to schools and hospitals retrofit programs, State 
Energy Offices operate a number of other buildings programs. The 
buildings industry represents 8 percent of our GNP, 36 percent of our 
energy consumption, with over $232 billion in energy bills annually. 
However, the diverse and local nature of the buildings industry, makes 
this a challenging sector to impact on a national level. Thus, it is 
critical to maintain the state-based delivery mechanisms for national 
buildings programs. Fortunately, many states have excellent track 
records in delivering results in this area.
    Iowa, Montana, Alabama, Louisiana, Florida, Idaho, Mississippi, and 
Wisconsin all operate state buildings programs designed to increase the 
efficiency facilities through the installation of energy efficient 
equipment. A number of states, including Iowa, Florida, Nebraska, North 
Carolina, West Virginia, Massachusetts, and Tennessee, partner with 
local governments to finance community-wide energy efficiency planning. 
The Department of Energy also provides technical assistance to this 
effort and, in some instances, federal appropriations are made 
available to assist.
    Lighting is an area where DOE's research efforts have aided in 
developing a host of new, super efficient products. State Energy 
Offices are preparing the markets for these new products by conducting 
pilot programs that demonstrate the savings potential for new ballasts 
and lamps. Michigan, Guam, Puerto Rico, and Wisconsin have all 
conducted their own market transformation programs which incorporate 
the use of new lighting technologies in state buildings, commercial 
buildings, single-family homes, and in public areas such as parks.
    In the past year, Minnesota, Delaware, Kansas, Nevada, Hawaii, and 
Louisiana have all utilized federal appropriations to update their 
state's building codes. The improvements in Louisiana alone will save 
$4 million in energy costs and reduce carbon emissions by 113 million 
pounds within 10 years.
    While buildings activities are a focus of a great number of 
programs, I am sure that you are quite familiar with their 
transportation efforts as well. From alternative fuels programs in 
Indiana, West Virginia, and Nebraska to transportation management 
projects in California, Washington, and Oregon, states are very 
effective in reducing our dependency on imported oil. In Oregon alone, 
the state has reduced the number of miles traveled by participants in 
their pilot telecommuting program by 4.1 million miles.
    NASEO also strongly supports the so-called Special Projects, known 
as competitive energy partnerships. These competitive programs, which 
provide matching funds to states in a variety of areas within 
buildings, transportation, and industry, allow State Energy Offices to 
conduct joint projects with industry and other partners. At your 
request, this is the first year that it is separately funded out of 
each division's accounts. It has been a dramatic success.
    We are pleased that since the summer of 1998, State Energy Offices 
in California, Colorado, Wyoming, Utah, Kansas, New Mexico, and Texas 
have focused some of their attention on making oil production a more 
cost effective business. Energy related oil extraction costs for 
independent producers can exceed 50 percent of the total costs of 
production. This combined with recent low oil prices has resulted in 
extremely tough times for small producers. In response, NASEO and the 
states developed a project with DOE's Offices of Fossil Energy and 
Energy Efficiency and Renewable Energy to provide technical assistance, 
testing, and financing for cost-effective energy improvements in the 
oil fields. The technical assistance and testing is being conducted 
utilizing federal and state appropriations and the financing utilizes 
private-sector capital. Our goal is to strengthen domestic producers 
and the associated service industry--providing both economic and energy 
security benefits.
    In addition to the ongoing work with the Office in the oil and gas 
industry, a number of State Energy Offices are working with Fossil 
Energy's coal division on activities relating to domestic clean coal 
technologies and international opportunities for exports of U.S. coal 
technologies. This work includes the expansion of our successful Peer 
Exchange Program into the international arena for advanced coal 
technology development. This new direction for State Energy Offices and 
the Office of Fossil Energy appears to be quite successful, and we look 
forward to additional partnerships in the future.
    Finally Mr. Chairman, it is important to recognize that both the 
energy R&D and deployment programs cannot operate effectively without 
accurate, sufficient, and timely energy data from the Energy 
Information Administration. This is especially true in light of 
electricity restructuring and the addition of an array of new market 
participants. Therefore, we encourage the Subcommittee to support 
funding for the Energy Information Administration. We have worked 
closely with EIA, and they are an effective partner providing real-time 
data and information.
                               conclusion
    In conclusion, we would like to remind the Subcommittee of the 
critical role that State Energy Offices play in the delivery of energy 
efficiency programs and a variety of other energy programs, in spite of 
the relatively small federal investment in the program. Our success is 
based upon our ability to directly meet the needs of taxpayers, small 
business people, farmers, and industry. We support at least the request 
of $37 million in funding for SEP for fiscal year 2000--a small price 
to pay for continued success.
                                 ______
                                 
        Prepared Statement of the General Electric Power Systems
    This testimony is submitted on behalf of General Electric Power 
Systems (GE) for the information of the Committee during its review of 
the Department of Energy's fiscal year 2000 budget requests. GE 
strongly supports the Administration's request for $41.8 million for 
the Advanced Turbine Systems (ATS) program, including $32.590 million 
for major systems development, within the Fossil Energy budget account. 
DOE's funding request signifies the important contributions that ATS 
technology will make to the nation's energy security and environmental 
objectives. GE appreciates the strong Congressional support that has 
been so critical to the success of the ATS program, and welcomes this 
opportunity to update the Committee on the progress of the ATS research 
and development effort.
                    ge-doe ats cooperative agreement
    In March 1998, GE and DOE executed a modified Cooperative Agreement 
providing for GE's continued, cost-shared participation in the ATS 
program. The modified Cooperative Agreement reflects the continuing 
commitment of GE and DOE to the ATS program. The central goal of the 
ATS program--producing technology by 2000 that is ready for commercial 
application--is unchanged. DOE's fiscal year 2000 funding request 
represents the last major increment of Federal funding for the ATS 
program.
    The modified GE-DOE Cooperative Agreement, which extends through 
December 2000, eliminated the planned demonstration phase of the ATS 
program and extended the technology validation phase. Demonstration of 
the ATS technology will be the responsibility of industry at the end of 
the technology validation phase. Under the restructured ATS program, GE 
will manufacture and perform a full-speed, no-load test on a 60 Hertz 
machine by the end of 1999 at GE's Greenville, South Carolina facility. 
DOE cost sharing is critical to this aggressive schedule.
                      benefits of the ats program
    The ATS program occupies a key position in the DOE's fossil energy 
research and development portfolio, and is an integral part of the 
evolving ``Vision 21'' concept for future highly efficient, clean power 
generation. Through the government's partnership with industry, the ATS 
program is well on the way to supporting the commercial introduction of 
the world's most efficient gas turbine, securing U.S. technological 
leadership in this critical technology area and producing important 
benefits to the nation:
    Energy Efficiency.--The goal of the ATS program is to achieve fuel-
to-electricity efficiencies of 60 percent or greater, resulting in 
significant reductions in fuel consumption.
    Lower electricity costs.--Fuel savings will, in turn, lower 
electricity costs, benefiting the competitiveness of U.S. industries in 
the world marketplace. The ATS program has had as its goal a 10 percent 
reduction in the cost of electricity produced relative to existing 
combined cycle power plants.
    Emissions reductions.--Natural gas fired gas turbines produce no 
particulates, ash, heavy metals, toxins, or sulfur oxides. 
Additionally, the ATS will achieve a significant reduction in emissions 
of oxides of nitrogen, and will further reduce carbon monoxide and 
hydrocarbon emissions relative to the current fossil fueled power 
generation base.
    Stimulating jobs retention and growth.--Tens of thousands of 
Americans already work to manufacture gas turbines and to provide key 
components. Manufacturing jobs in this industry already have been lost, 
and the remaining jobs are at risk because of stiff international 
competition. U.S. jobs depend on continued U.S. global leadership in 
turbine technology, which is supported by the ATS program.
                        the technical challenge
    Existing gas turbine technology benefited from the knowledge gained 
from years of national investments in military aircraft engine 
technologies. The need to meet high efficiency and low emissions 
requirements simultaneously for power generation systems in 2000 and 
beyond has necessitated the development of a steam--cooled turbine 
generation system--the first time that the industry has been called 
upon to develop a new technology specifically for power generation 
applications. Government has shared the risks inherent in meeting this 
technical challenge through the ATS program.
    GE's ``H System'' advanced turbine is an advanced combined-cycle 
system designed to break the 60 percent thermal-efficiency barrier 
while offering the lowest cost of electricity production with the 
lowest levels of emissions. Combined-cycle systems generate electricity 
from both a gas turbine and a steam turbine driven by steam generated 
from the gas turbine's exhaust. Where other gas turbines are air-
cooled, ATS combined-cycle power blocks are based on a unique 
technology platform in which the gas turbine buckets and nozzles are 
steam-cooled by an integrated steam system. Steam cooling of the 
turbine airfoils enables higher turbine inlet temperatures to be 
achieved without increases in combustor exit temperatures, resulting in 
low levels of NO<INF>X</INF> and significant improvements in 
efficiency. Efficiency gains also translate directly into reduced 
emissions of greenhouse gases. The ATS will also be a fuel flexible 
system; because of its higher thermal efficiency and output, the ATS is 
expected to substantially advance the economic viability of coal gas 
(IGCC) systems.
                         the market opportunity
    Industry and government working together can take on more risk, 
confront bigger technical challenges and speed the development and 
application of technologies which ultimately will gain market 
acceptance and provide potentially large energy, economic, 
environmental and strategic returns to the nation. The ATS program 
offers a prime example of how government technology leadership is 
helping to assure that advanced, efficient technologies are available 
to meet market demand.
    Industry's R&D risk/reward window is often more focused on the 
short-term than government's, which can address broader, national 
priorities that may not yet be adequately valued in the marketplace. 
Despite the important benefits of ATS technology, because of the 
continuing technical risks, today the market alone is not sufficient to 
bring this technology to the point of commercial acceptance. The likely 
users of this technology in the U.S., both utilities and independent 
power producers, are not in a position today to make multi-hundred 
million dollar investments in technologies and systems that are not yet 
proven by actual, full-scale operation. Domestic electric industry 
restructuring makes potential investors in new technologies more risk 
averse. At the same time, the increasing pace of electric industry 
restructuring makes the need for advanced, competitive power generation 
technologies more urgent, and the completion of the ATS program more 
timely. According to the Energy Information Administration, 81 percent 
of new U.S. demand for electric generation will be met by gas turbines 
in 2010. The ATS program will assure the availability of more 
efficient, lower emission domestic technology to meet this demand.
    The same key enabling technologies being developed through the ATS 
program are required for both international and domestic applications. 
With the support of the ATS Program, U.S. manufacturers will be better 
able to compete in the projected international market in electricity 
generating systems--a marketplace in which foreign competitors 
frequently receive significant assistance from their governments. 
Successful completion of the ATS program will position U.S. technology 
for immediate introduction into global markets, and will enable U.S. 
technology to surpass leading foreign competitors, solidifying U.S. 
market share in the worldwide market. U.S. success in the export of 
power generation technologies translates directly into jobs in the 
United States.
                     ge ats program accomplishments
    GE's work during the initial phases of the ATS program focused on 
the technologies and component developments necessary for high 
temperature operation, and validation of the technically-innovative 
steam cooling concept. To date, GE has:
  --Completed full-scale, steam-cooled, first stage nozzle cascade 
        design validation testing at ATS turbine design operating 
        conditions. The first stage nozzles and buckets are the most 
        critical high temperature components in the ATS. Testing 
        included combustion system mapping, as well as nozzle 
        aerodynamic, heat transfer, and low cycle fatigue validation.
  --Completed initial tests of the ``H'' series combustor design at the 
        component level, and in a full-scale combustion test stand that 
        permitted testing at full pressure, temperature, and flow 
        design conditions. GE's design for the gas turbine combustion 
        system permits its ATS to achieve high firing temperatures 
        while minimizing oxides of nitrogen, a key objective of the ATS 
        program.
  --Developed, with suppliers, single crystal casting technology to 
        provide the high temperature strength required for the very 
        large ATS machine turbine buckets and nozzles.
  --Completed tests of two builds of the \1/3\ scale H compressor, 
        which allowed operation of the compressor over its entire 
        speed/flow range, and validated the fundamental design of the 
        compressor.
  --Completed tests of elements of the steam cooling system, in both 
        component rigs and under utility field test conditions, along 
        with design of a particulate filter which has been fully 
        validated in testing at an operating combined cycle power plant 
        to resolve concerns about the effects of impurities in the 
        steam on the operation of the cooling system.
  --Developed manufacturing technologies essential for the success of 
        the ATS, including extensive development in thermal barrier 
        coatings (TBCs), which are critical to the steam cooling 
        design. Performed separately-funded tests to validate the 
        performance of TBCs in utility customers' current gas turbines 
        under actual conditions. Designed a robot to assure proper 
        application of TBCs. Improved the forging process to allow for 
        production of the largest gas turbine Inconel wheels ever made.
  --Developed testing processes to permit product quality to be 
        confirmed without necessitating destruction of expensive parts, 
        including nondestructive inspection techniques for single 
        crystal airfoil production, and new analytical tools to model 
        the startup and shutdown of the gas turbine component of the 
        combined cycle unit in greater detail than previously required.
                         recent accomplishments
    With fiscal year 1998 and 1999 funds, GE has continued development 
activity on its ATS engine, which remains on schedule for a full-speed, 
no-load demonstration test in December 1999, and has continued full-
scale combustion system development, with test results meeting ATS 
design goals. The initial 9H (50 Hz) full-speed, no-load test was run 
in the second quarter of 1998 at GE's Greenville, SC, manufacturing 
facility. The testing validated rotor dynamics and vibration levels; 
compressor airfoil aeromechanics; compressor airflow and efficiency; 
scale-up effects from the compressor rig testing; compressor and 
turbine running clearances; and the Mark VI control system. GE also has 
initiated the 7H (60 Hz) ATS design and manufacturing programs, using 
information derived from the 9H component and full scale testing 
programs. It is anticipated that fiscal year 2000 funding will be used 
to continue testing of full scale components and sub-systems. The 
manufacturing capability for the first test engines will be completed, 
and full-speed, no-load testing of H series engines will continue, 
setting the stage for the completion of the program in the fourth 
quarter of calendar year 2000.
                               conclusion
    Through R&D investments in programs like the ATS, the Federal 
government assists industry in taking on high risk, high payoff 
opportunities that challenge accepted technological limits. GE urges 
the Committee to continue to provide the resources necessary to 
complete the ATS program.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
    These written comments are submitted on behalf of the members of 
Coal Utilization Research Council (CURC). The CURC is an ad hoc group 
of electric utilities, coal producers, equipment suppliers, architect, 
engineering and consulting firms, state government offices and 
universities interested in the utilization of coal in a cost-effective 
and environmentally acceptable manner.
              introduction and summary of recommendations:
    These comments are derived from a strategic research and 
development (R&D) program--drafted and recommended by the CURC--for 
ensuring the utilization of our Nation's coal resources. The coal-based 
R&D program is described in a CURC technology ``roadmap'' by which R&D 
activities supported by the Department of Energy (DOE), as well as 
other private and government sectors, might be guided. (A copy of the 
roadmap is available upon request.)
    As the Congress considers the fiscal year 2000 budget request for 
the DOE's fossil energy program, it is requested that priority in 
funding be provided to those activities that directly further the R&D 
goals set forth in the roadmap. Consideration of future year programs 
and accompanying funding requirements should be guided by the roadmap 
as well.
    The CURC endorses the goals of DOE's Vision 21 program and supports 
the Department's efforts to establish programs in pursuit of those 
goals. In examining those goals, we have concluded that additional 
amounts of time--a minimum of five years--will be required to achieve 
the Vision 21 goals. Additional federal R&D funding might accelerate 
those development efforts. The CURC and DOE are actively engaged in 
collaborative discussions to develop consensus on implementation 
strategies and specific program content in order to achieve the Vision 
21 goals. The DOE has been very receptive in our mutual interests to 
insure that Vision 21 is consistent with CURC's technology roadmap.
    The DOE's coal R&D program should be structured and funded so as 
not to prematurely limit the number of technology options pursued. 
Because the future practical, economic and environmental viability of 
technologies cannot be assured today, the CURC recommends DOE pursue an 
aggressive, collaborative R&D program, focusing increased funding on a 
portfolio of technology options, as outlined in the roadmap, to 
increase the probability of success of DOE's overall investment. 
Emphasis on the need to sequester CO<INF>2</INF> and to develop 
technology solutions to address the risks of anthropogenic climate 
change is but one basis upon which to build technology options. Other 
important reasons to pursue a variety of options include the 
recognition that coal is among our most cost-effective fuels used to 
produce electricity. We will use coal well into the future to generate 
electricity-only from central station powerplants. We should also 
recognize the need to pursue development of highly efficient advanced 
coal combustion systems for use in domestic or overseas applications. 
These systems will achieve CO<INF>2</INF> reductions, or avoidance, 
through greatly improved conversion efficiency.
    The CURC also recognizes that the Offices of Fossil Energy and 
Energy Efficiency are each engaged in R&D that could benefit coal use. 
To ensure that government and industry resources are targeted 
effectively and managed coherently, the CURC encourages the DOE to 
ensure that programs supported by the Office of Energy Efficiency are 
managed in consultation with and supportive of the mission of Fossil 
Energy.
    The CURC makes the following specific recommendations with respect 
to the DOE's fiscal year 2000 budget request:
    1. The CURC advocates priority funding in R&D support for high-
efficiency coal-based generation technologies, including integrated 
gasification combined cycle, pressurized fluid bed combustion (PFBC), 
and fuel cells based on syngas. By focusing on technologies such as 
these with the potential for the highest efficiency, the nation can 
capture the greatest possible reductions in CO<INF>2</INF> emissions 
(and the smallest requirement for sequestration) while maintaining the 
ability to use its strategically important coal resource.
    As a general observation, the DOE's research program should focus 
on the following areas in which breakthroughs in performance and cost 
are achievable: In particular, near-term, high risk technologies which 
have significant increased performance or reduced cost potential; and 
longer-term, high risk technologies that might achieve significant 
efficiency improvements and cost reductions. As the CURC roadmap 
suggests, emphasis upon incremental improvements in the current state 
of the art should be secondary unless such improvements are part of the 
critical technology path for the advanced technologies identified in 
the roadmap.
    2. The CURC suggests that DOE insure coordinated attention is given 
to the technology needs for advancing the use of supercritical boilers, 
PFBC and other advanced coal combustion systems. In particular, it 
appears that DOE-supported work on steel alloys, ceramics and other 
materials needed to operate in high temperature, high pressure and 
changing combustion chemistry regimes should be better focused upon the 
needs of the electric power generation industry. The DOE-supported work 
on advanced materials should be specifically directed towards large 
power generation applications, particularly with reference to boilers, 
turbines and heaters, with special attention being given to the 
materials research needs for gasification, PFBCs and fuel cells. 
Industry's aim is to improve cost-competitiveness, efficiency and 
reliability.
    3. In addition, it has become increasingly clear over the last 
several months that countries like China and India have developed a 
renewed interest in advanced supercritical units and other advanced 
coal combustion systems, including PFBCs. The U.S. possesses a 
technology know-how advantage in this area and every effort should be 
made to assure that these more advanced technologies are made available 
to developing country markets. To this end, the CURC suggests that the 
DOE host a workshop to which a large cross section of industry, 
academia and the national laboratories should be invited. At this 
workshop, the technology requirements and opportunities offered by 
advanced pulverized coal systems need to be explained and explored. 
Workshop attendees should be invited to make recommendations to the DOE 
regarding various technology needs for these advanced direct combustion 
systems.
    4. With respect to the proposed Vision 21 program, the CURC is 
aware that the DOE has under consideration a proposed set of activities 
based upon the Department's fiscal year 2000 budget request as well as 
an additional set of activities that may need to be undertaken at a 
later point in time as funds are made available. If certain activities 
on the critical path of a technology's development are delayed, that 
critical path item could easily prohibit a technology from being 
considered for use or application when the market requires new or 
replacement power generation. In particular, it is important to 
determine that certain postponed or delayed activities will not 
adversely impact the timely development of hardware or know-how that 
may be key to success of a particular technology. It is imperative not 
to foreclose any promising clean coal technology options in the short 
term that are consistent with the Vision 21 program and CURC's 
technology roadmap.
    5. The CURC continues its support for technology development that 
will permit the cost-effective conversion of coal to cleaner fuels and 
chemical feedstocks. Successful technology development will permit the 
use of one of the world's most abundant fossil fuels in a manner that 
could provide useful products from coal to regions of the world that 
are in need of clean fuels and chemical feedstocks for industrial 
growth. In this regard, the CURC suggests increased investment in the 
Indirect Liquefaction program. Given the long-term importance of 
developing technologies to convert coal to other useful forms of energy 
and chemical feedstocks, increased funding in the Indirect Liquefaction 
program would be justified. Such additional funds should be targeted to 
developing two or three alternative co-production technologies that can 
be readied for possible commercialization by 2010. Specific areas for 
investment include basic research in catalysis and process research, 
reactor modeling, and scale-up and fuels testing.
                               background
    U.S. economic growth and worldwide sustainable development depend 
upon the availability of plentiful and relatively low cost supplies of 
energy and industrial feedstocks. Stable, affordable energy supplies 
can be best achieved and maintained if the marketplace has a variety of 
reasonable options from which to choose. A fuel-diversified economy 
provides a balanced approach to energy and the environment and 
practical, cost-effective protection against supply disruptions and 
price spikes resulting from domestic infrastructure problems or 
international crises.
    Coal is a critical component of the global energy portfolio and a 
cornerstone of U.S. energy and economic strength. Further, coal likely 
will play a growing role in the transportation and industrial sectors 
as technological advances make it economically possible to convert coal 
into high-grade, low polluting fuels and chemical feedstocks. Given 
these factors, coal is projected to remain vitally important to the 
global economy. Technology is the key to assuring that expanding coal 
use throughout the world can be achieved economically and with only a 
minimal impact upon the environment.
    Government and industry must work together to support an 
appropriate balance of short and long-term activities required to 
develop and commercialize technology which will permit the economic, 
efficient and environmentally compatible use of coal.
development of a coal-based technology roadmap to insure the continued 
                              use of coal
    The CURC has developed a coal-related set of technology roadmaps 
for continued funding of research to preserve the coal-based option in 
the United States. The objective of this industry-led collaboration has 
been to determine which technologies would be needed to maintain the 
viability of coal as a contributor to the U.S. energy generation 
portfolio as well as to the transportation and chemical feedstock 
sectors of our economy.
    CURC identified the following as examples of the types of 
technologies that need to be developed for coal to maintain an 
important role in supplying energy in the future:
    For advanced pressurized fluidized bed combustion designs, meeting 
these performance targets will require improvements in hot gas cleanup, 
in improved high-temperature gas turbines and associated combustors, 
and in the creation of higher efficiency steam cycles.
    For advance integrated gasification combined cycle, improvements 
will be needed in gas cleanup and turbine performance. Also, 
development will be needed on new turbines that eliminate the need for 
the steam cycle and on reducing the cost and improving the performance 
of air separation systems.
    Fuel cell development can greatly improve the performance of 
gasification approaches and while approaches based on the combustion of 
a solid fuel alone do not appear capable of meeting CURC-established 
performance targets for the year 2020, a fuel cell, gasification system 
could achieve significant environmental performance over standard, 
conventional pulverized coal units and thus be tremendously useful in 
applications abroad (e.g., India and China).
                               conclusion
    In the next century, for coal to remain a competitive source of 
energy for power generation and become a viable source of 
transportation fuels or chemical feedstocks, targeted and sustained R&D 
is essential. If technology is the key to coal's competitiveness, then 
coal research and development is the key to available technology. 
Technology that enables cost-competitive use of coal while assuring 
compliance with environmental standards will assure a maintenance of 
low cost power for the economy.
                                 ______
                                 
 Prepared Statement of James D. Mosman, Chief Executive Officer, State 
            Teachers' Retirement System, State of California
    Congress Should Appropriate the Funds Necessary to Fulfill the 
Federal Government's Settlement Obligation to Provide Compensation for 
the State of California's Interest in the Elk Hills Naval Petroleum 
Reserve
                                summary
    Acting pursuant to Congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Administration reached a settlement with the 
State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time.
    Following the settlement, the sale of the Elk Hills Reserve went 
forward without the cloud of the State's claims and produced a winning 
bid of $3.65 billion, far beyond most expectations. Last year, Congress 
appropriated the $36 million necessary to satisfy the Federal 
Government's obligation to make the first annual installment payment of 
compensation due in fiscal year 1999 to the State for its interest in 
the Elk Hills Reserve.
    The President's fiscal year 2000 Budget includes a request for an 
appropriation of the $36 million necessary to make the second annual 
installment of compensation due to the State under the settlement 
agreement. Congress should appropriate the $36 million to fulfill the 
Federal Government's obligation to make the second installment payment 
of compensation due under the settlement that Congress directed the 
Administration to achieve.
                               background
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education.
    Two of the tracts of State school lands granted by Congress to 
California at the time of its admission to the Union were located in 
what later became the Elk Hills Naval Petroleum Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.
          congressional direction to settle the state's claims
    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec.  3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)
             settlement reached that is fair to both sides
    Over the course of the year that followed enactment of the Defense 
Authorization Act mandating the sale of Elk Hills, the Administration 
and the State engaged in vigorous and extended negotiations over a 
possible settlement. Finally, on October 10, 1996 a settlement was 
reached, and a written Settlement Agreement was entered into between 
the United States and the State, signed by the Secretary of Energy and 
the Governor of California.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.
Federal revenues maximized by removing cloud of state's claim in 
        advance of the sale
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale.
    The Reserve thereafter was sold for a winning bid of $3.65 billion 
in cash, a sales price that substantially exceeded earlier estimates.
Proper compensation for the state's claims as congress directed
    In exchange for the State's waiver of rights to Elk Hills to permit 
the sale to proceed, the Settlement Agreement provides the State and 
its teachers with proper compensation for the fair value of the State's 
claims, as Congress had directed in the Defense Authorization Act.
    While the Federal Government received the Elk Hills sales proceeds 
in a cash lump sum at closing of the sale in February, 1998, the State 
agreed to accept compensation in installments stretched out over an 
extended period of 7 years without interest. This represented a 
substantial concession by the State. Congress had reserved 9 percent of 
sales proceeds for compensating the State. The State school lands' 
share had been estimated by the Federal Government to constitute 8.2 to 
9.2 percent of the total value of the Reserve. By comparison, the 
present value of the stretched out compensation payments to the State 
has been determined by the Federal Government to represent only 6.4 
percent of the sales proceeds, since the State agreed to defer receipt 
of the compensation over a 7-year period and will receive no interest 
on the deferred payments.
    Accordingly, under the Settlement Agreement the Federal Government 
is obligated to pay to the State as compensation, subject to an 
appropriation, annual installments of $36 million in each of the first 
5 years (FY 1999-2003) and the balance of the amount due split evenly 
between years 6 and 7 (FY 2004-2005). The State's compensation will be 
adjusted to reflect the Federal Government's final share of revenues 
once the determination of equity interests with the Federal 
Government's co-owner Chevron is finally made.
                  the money is there to pay the state
    The funds necessary to compensate the State have been collected 
from the sales proceeds remitted by the private purchaser of Elk Hills 
and are now being held in escrow for the express purpose of 
compensating the State.
the president has requested an appropriation of $36 million to fulfill 
 the federal government's obligation to pay the second installment of 
            compensation due under the settlement agreement
    In the Administration's Budget for fiscal year 2000, the President 
has requested an appropriation of $36 million to fund the second 
installment of compensation due to the State under the Settlement 
Agreement.
  congress should appropriate the funds due under the settlement that 
            congress directed the administration to achieve
    Congress should appropriate the $36 million requested by the 
Administration for fiscal year 2000 from the special Elk Hills 
compensation fund to fulfill the Federal Government's obligation to 
make the second installment payment of compensation due under the 
settlement that Congress directed the Administration to achieve.
                                 ______
                                 
 Prepared Statement of Dr. Donald L. Klass, President, Biomass Energy 
                          Research Association
    This testimony pertains to the fiscal year 2000 (FY00) request for 
appropriations by the Department of Energy (DOE), Office of Energy 
Efficiency and Renewable Energy (EERE), for the mission-oriented 
Agriculture Vision under the Industries of the Future (Specific) 
program within the Energy Conservation budget. This portion of DOE's 
request deals with research, development, and deployment (RD&D) for the 
production of chemicals from biomass feedstocks. The program is carried 
out by EERE's Office of Industrial Technologies (OIT).
    Specifically, BERA recommends that $10 million be appropriated for 
the Agriculture Vision program in FY00. The high priority activities 
and the dollar allocations recommended for each activity by BERA in 
FY00 are:
  --In-depth assessments of biomass feedstock production and needs for 
        the Agriculture Vision in collaboration with the U.S. 
        Department of Agriculture (USDA), and with independent 
        contractors if needed. $1,000,000.
  --Finalization and clear definition of the structure of the 
        Agriculture Vision and the critical pathway that meets the 
        overall objective of the program. $1,000,000.
  --Selection and initiation of the mission-oriented projects that have 
        the highest probability of contributing to the overall program 
        objective. $8,000,000.
  --Internal coordination and joint management of all DOE biomass 
        programs at DOE.
    The Biomass Energy Research Association (BERA) is a non-profit 
association in Washington, DC, founded in 1982 by researchers and 
private organizations that conduct biomass research. Our objectives are 
to promote education and research on the conversion of renewable virgin 
and waste biomass to energy, fuels, and chemicals that can be 
economically utilized by the public, and to serve as a source of 
information on biomass policies and programs.
    I would like to thank you, Mr. Chairman, on behalf of BERA's 
members for the opportunity to present the position of BERA's Board of 
Directors on the federal funding of the Agriculture Vision. Continued 
support of this program is essential to provide the stimulus to develop 
environmentally clean, indigenous resources that can displace fossil 
feedstocks and fuels, stimulate regional and national economic 
development and employment, reduce our dependence on imported oil, and 
help to reduce adverse climate and environmental changes.
                               background
    I have examined several reports on the Agriculture Vision program 
and the information presented by DOE in the request for appropriations. 
The overall goal of the Agriculture Vision is to develop the 
technologies necessary to displace 10 percent of the U.S. market for 
industrial chemical feedstocks with biomass for the production of 
organic commodity chemicals and chemical products by the year 2020.
    Two million dollars were appropriated in the Interior and Related 
Agencies Bill in fiscal year 1999 to start this program, and $4 million 
are requested by DOE for its continuation in fiscal year 2000. The 
``roadmap'' developed by OIT's Executive Steering Group (A Technology 
Roadmap for Plant/Crop-Based Renewable Resources 2020, February 1999) 
is expected to identify the major barriers to progress and to 
prioritize research areas. The selection of competitively awarded 
research contracts is in progress.
                            brief commentary
    The BERA Board believes that this program is very worthwhile. 
Successful implementation of the Agriculture Vision is expected to 
result in many regional and national benefits. Virtually all basic 
organic chemicals--including petroleum-and natural gas-derived 
chemicals and plastics--can be manufactured from biomass feedstocks. 
Utilization of agricultural and forest lands for production of 
renewable fossil feedstock substitutes will significantly improve 
economic growth and the environment. New markets will be opened for 
farmers and foresters, rural development and employment will increase, 
about 80 cents of every dollar spent on biomass in a given region will 
stay in that region, and biomass feedstock usage will help reduce 
federal farm subsidy payments and trade deficits. The use of biomass 
feedstocks will also help to reduce atmospheric pollutants such as 
sulfur oxides and unburned hydrocarbons that are emitted by 
conventional manufacturing plants.
                            recommendations
    The total fossil feedstock converted to organic chemicals in the 
United States today, in terms of barrels of oil equivalent (BOE), is 
roughly 1.26 million BOE/day. Ten percent of this value is 126,000 BOE/
day, while the corresponding process energy consumption is about 
136,000 BOE/day. BERA therefore recommends that the overall goal of the 
Agriculture Vision program be expanded to include the use of biomass 
energy, biofuels, and other renewable energy resources for process 
energy. In addition, reductions in process energy consumption through 
higher efficiency unit operations and process energy conservation 
should be part of this goal.
    The potential amounts of fossil feedstock and process energy 
displaced by biomass feedstock and biomass energy and biofuels should 
be estimated for each technology contract considered for the 
Agriculture Vision program before an award is made. This is essential 
to predict how large a contribution can be made by a given project 
toward achievement of the overall program goal, presuming the project 
is successfully completed and the technology is implemented by 
industry. This assessment, along with preliminary economic analyses, 
when applied to development of the Agriculture Vision, will help ensure 
the success of the program.
    In-depth assessments of the availability, logistics, chemical and 
physical properties, growth requirements and characteristics, and 
competitive uses and economics of existing biomass resources, including 
specific biomass species and agricultural residues, are required to 
properly structure the Agriculture Vision program and to select optimum 
biomass feedstocks. These assessments should include the energy and 
feedstock potential of new additions to biomass feedstock ``reserves.'' 
Note that the maximum economic transport distance of biomass to 
processing plants for conversion is about 50 to 75 miles. Note also 
that a one-quad block (489,000 BOE/day) of biomass energy (gross) 
produced by hypothetical biomass plantations, exclusive of the energy 
inputs needed for planting, growing, harvesting, and transporting the 
feedstock to the conversion plant gate, and converting it to organic 
commodity chemicals, requires about 10,000 square miles of biomass 
growth area, the equivalent of a square 100 miles on each edge. This 
assumes average biomass yields of 10 dry ton per acre per year, a yield 
level that is generally on the optimistic side in moderate climates. 
The in-depth assessments must therefore be concerned with the 
parameters outlined here and the design and net energy production 
efficiencies of integrated biomass feedstock production-transport-
conversion systems. DOE's EERE and its predecessor groups in DOE, the 
USDA, and others have performed such assessments. The results of this 
work should be incorporated into the assessment of the Agriculture 
Vision.
    In BERA's separate statement in support of EERE's mission-oriented 
biomass energy and fuels programs funded under the Energy and Water 
Bill, it is emphasized that all of DOE's biomass-related projects 
should be internally coordinated by joint management at DOE 
Headquarters. This includes EERE's power, transportation fuels, and 
biomass-related hydrogen programs, the basic academic biomass research 
program funded by DOE's Office of Science (formerly the Office of 
Energy Research), the biomass-related portion of OIT's Chemical 
Technology Vision 2020 program, and OIT's Agriculture Vision program.
                                 ______
                                 
Prepared Statement of Maj. Gen. Scott B. Smith (U.S. Army Ret.), Chief 
             Executive Officer, Western Research Institute
    On behalf of Western Research Institute (WRI), I request that the 
following statement be submitted as part of the record of proceedings 
for the Subcommittee's considerations of the Department of Energy's 
fiscal year 2000 fossil energy research and development budget request. 
The Cooperative Agreement Program represents a successful collaborative 
partnership between the U.S. Department of Energy, industry and WRI and 
has consistently and repeatedly met and exceeded the goals placed upon 
it by the Congress. Technologies developed at WRI during the past eight 
years will add measurably to the nation's energy reserves while 
providing a cleaner, healthier and safer environment. For the reasons 
explained below, we strongly urge that the Cooperative Agreement 
Program be supported at an annual level of $7.7 million, split evenly 
between Western Research Institute and the Energy and Environmental 
Research Center at the University of North Dakota.
   successful leveraging of federal funding with private cost sharing
    The Jointly Sponsored Research (JSR) Program emphasizes technology 
commercialization and continues to be successful and supported 
enthusiastically by WRI's industrial clientele. Since entering into a 
new JSR cooperative agreement with the Department of Energy on March 
26, 1993, WRI has put in place projects utilizing a total of 
$15,166,860 in USDOE funds. These funds have been combined with 
$21,047,823 in industrial funds to produce a $36,214,683 program. The 
use of fiscal year 1999 funds will produce a program valued at or above 
$40 million while using less than $18 million in USDOE funds.
    While it is always desirable to acquire an asset worth more than 
$35 million for a price of less than $16 million, these numbers 
substantially understate the true value of the program. What price does 
one put on the value of new technology that improves regional economies 
and enhances our quality of life?
    As this report illustrates, the technology developed during the 
past four years makes accessible billions of dollars of increased or 
enhanced energy reserves, as well as offers the possibility of a 
cleaner, healthier and safer environment. This means a safer and more 
secure energy and environmental future for us, our families and for 
future generations.
                   technology meeting national needs
    The Cooperative Agreement Program emphasizes technology 
commercialization consistent with the USDOE's mission to enhance the 
nation's energy security through increased efficiencies in exploration, 
production and utilization with minimal or no adverse environmental 
consequences. Technologies emerging from the program are consistent 
with this goal and include:
                         clean fuels from coal
    Thermo Ecotek announced in August 1995 the signing of an agreement 
to construct a 500,000 ton per year coal upgrading plant in the Powder 
River Basin of Wyoming. The plant cost $42 million and uses the 
Koppelman Series C Process. This process was successfully demonstrated 
by WRI and KFx Inc. in early 1994 using a pilot plant funded by 
matching funds from the USDOE JSR Program. WRI is presently working 
with KFx Inc. on projects to increase the throughput and reduce the 
cost of second generation plants that will use the improved version of 
the Koppelman Series C Process and to test foreign coals as feedstocks 
for the process.
      reduced environmental impact associated with oil production
    Tank bottom wastes from petroleum production are estimated to 
exceed 27,000,000 barrels in the U.S. alone with an accumulation rate 
of 2,800,000 barrels per year. Resource Conservation and Recovery Act 
(RCRA) regulations currently allow storage in permitted pits or tanks, 
but fewer and fewer permits are being approved. WRI developed and 
patented (US Patent No. 5,259,945) the Tank Bottom Recovery and 
Remediation (TaBoRR) process to address this problem. The method 
results in separation of water, a light hydrocarbon stream, a heavy 
hydrocarbon stream, and an inert, non-leaching, liquid-free solid. The 
process is currently undergoing testing in a 300-barrel-per-day process 
development unit, and negotiations are under way with a number of 
domestic and international companies for extended testing and 
deployment within operating fields.
             remediation of hydrocarbon-contaminated sites
    Thousands of sites in the US have subsurface hydrocarbon 
contamination, and many are contaminated with heavy oils. WRI developed 
the CROW process to mitigate such sites. JSR funding has supported 
field demonstrations of the technology at the Bell Lumber site in New 
Brighton, Minnesota, and the Pennsylvania Power and Light site in 
Stroudsburg, Pennsylvania. Installation and shakedown of all field 
equipment at both sites are complete. The PPL system has been fully 
operational for more than two years and has produced more than 42,000 
gallons of recovered oil. The owner estimates that the CROW process has 
reduced the cost of remediation by more than $1.3 million.
                    improved environmental monitors
    The determination or screening of environmental contaminants in the 
field using portable analytical methodologies or downhole real-time 
measurements is an area of great interest in the environmental 
industry. The TROLL (SP4000), which became commercially available in 
fiscal year 1996, is a fully submersible intelligent probe designed for 
monitoring water level and temperature. Using Windows-based software, 
the TROLL can be easily programmed in the office, car or field and 
connected either to a PC, which is used for programming and receiving 
stored data, or to other units via separately supplied wiring or 
telemetry.
                      increased health and safety
    PEAC is a hand-held computer system that provides first responders 
with fast, easy-to-use information for chemical spills and emergencies. 
The size of an emergency response area often dictates how limited 
resources are allocated. Evacuation distances vary greatly with spill 
and weather conditions. PEAC gives emergency responders the ability to 
determine protective action distances using actual conditions, which is 
crucial to resource allocation. Commercial PEAC units are being 
produced and sold. Discussions are ongoing regarding possible spin-offs 
of the technology and its possible modification to include chemical 
warfare agents.
 solving energy and environmental problems to improve our economy and 
                      enhance our quality of life
    Each of the five technologies brought to commercialization with the 
funds provided by the Cooperative Agreement Program contributes to the 
overall goals of the U.S. Department of Energy and the Nation. Each has 
broad applicability both within the United States and abroad, thereby 
helping to enhance the competitiveness of U.S. and western energy 
technologies in international markets and assisting in technology 
transfer. The Koppelman Series C Process is expected to generate 
markets for as much as 20 millions tons annually of low-sulfur coal and 
contribute substantially to the goal of increased production of U.S. 
energy resources and reducing the Nation's dependence on foreign energy 
supplies. The TaBoRR technology helps to minimize the impact of energy 
production and utilization on the environment while simultaneously 
recovering an estimated ten million barrels of usable oil. This 
technology is joined by the TROLL smart probe, CROW and PEAC 
technologies, all of which contribute measurably and substantially to a 
cleaner, healthier and safer environment. The total funding to bring 
these technologies to this stage of development was more than $35 
million, with the government's share of this being less than $16 
million. We certainly feel that these funds were well spent in solving 
energy and environmental problems to improve our economy and enhance 
our quality of life.
    In a high-technology global economy, technology development is 
crucial to the preservation and growth of the American economy and 
standard of living. Much of this technology and growth will come from 
companies that were small or nonexistent just a decade earlier. These 
emerging companies must rely on creative and innovative organizations 
such as Western Research Institute to assist them with their process 
and product development activities. It is a tribute to the wisdom and 
the foresight of the United States Department of Energy and the 
Congress that activities such as the Cooperative Agreement Programs 
exist to meet these crucial national needs.
    As we enter the second year of our present Cooperative Agreements, 
we have a sense of pride and accomplishment regarding what has been 
achieved during the program. We hope that as you read the enclosed 
materials you share our pride and spirit of accomplishment. Certainly, 
much has been done and done well. Technologies developed at WRI will 
add measurably to the nation's energy reserves, while providing a 
cleaner, healthier and safer environment. Yet much still remains to be 
done. Increasingly, the demonstration and commercialization of 
technology requires strong, coordinated and focused activities, often 
spanning several years. Accordingly, we find our industrial partners 
requiring multi-year commitments of time and funding. In turn, if 
meaningful projects are to be undertaken and technologies 
commercialized, there must be some assurance of long-term and 
dependable support. Ensuring that this support is available and put to 
good use in fueling our domestic economy is the challenge facing us 
all. We at Western Research Institute look forward to working with 
members of Congress to accomplish this extremely important and 
necessary task.
                                 ______
                                 
 Prepared Statement of Gary A. Styles, Manager, Planning and Analysis 
  Power Systems Development Facility, Southern Company Services, Inc.
                              introduction
    Mr. Chairman and Members of the Committee: This statement of 
Southern Company Services, Inc., (SCS) is in support of $20 million for 
the Wilsonville Power Systems Development Facility (PSDF) in the 
Advanced Clean and Efficient Power Systems Program in the U.S. 
Department of Energy (DOE) Fossil Energy R&D program for FY'2000. 
Specifically, the request is for $12 million in the high efficiency--
integrated gasification combined cycle (DOE Key 7) activities and $8 
million in the high efficiency--pressurized fluidized bed (DOE Key 6) 
combustion activities. This request is a $0.670 million increase above 
the Administration's FY'2000 budget request for these two activities. 
However, the $20 million total request is consistent with prior PSDF 
budget projections and SCS's negotiations with DOE.
    Southern Company, through SCS and its operating companies, supports 
and conducts research that will help the nation utilize its abundant 
coal resources while minimizing its environmental effects. As a result, 
SCS has participated in projects in both DOE Clean Coal Technology 
(CCT) program and the DOE Fossil Energy Research and Development 
program.
    The purpose of this testimony is thank this subcommittee for its 
past support for the PSDF and to request continued support for the PSDF 
for advanced coal gasification and pressurized combustion research.
                objectives of the psdf research program
    The objectives of the PSDF research program, in conjunction with 
other DOE research projects and programs, are to reduce technical risk, 
improve environmental performance (including a 25 percent reduction in 
CO<INF>2</INF> emissions), and reduce the cost of producing electricity 
from coal, our nation's most abundant fossil fuel resource. For many 
reasons, natural gas fired combustion turbines and combined cycle power 
plants are currently the most cost-effective electric power generating 
technologies in many areas of the United States. Natural gas fired 
power plants are projected to capture over 50 percent of new electric 
generation capacity over the next 10 to 15 years. This rapid expansion 
of usage will result in upward pressure on the price of natural gas. 
Also, many may remember that less than 15 years ago, electric utilities 
were prohibited by federal law from burning natural gas to produce 
electricity due to shortages of natural gas and its importance to 
domestic heating. During the current period of energy stability, we 
must not, as a nation, become complacent as we may face another energy 
crisis in the future. Our nation needs competitive, cost effective, 
clean, and efficient coal-based technologies to meet our future 
electric energy needs.
    The fundamental purpose of the PSDF is to support the national 
program to assure competition between energy resources and, thereby, 
keep electricity prices low. By identifying and resolving important 
technology integration issues at the PSDF, the reliability of first-of-
a-kind plants can be significantly improved prior to commercial 
applications.
    The Wilsonville PSDF is the only facility in the world where all 
the components of an advanced coal-fired power plant can be tested in 
an integrated system at a practical engineering scale prior to assuming 
the risk and cost of commercial applications. It has already provided 
vital support information to two CCT projects (Pinon Pine in Nevada and 
City of Lakeland in Florida) which should increase the likelihood of 
the success of these projects. The PSDF and other DOE fossil energy 
programs will allow U.S. electric utilities to maintain reasonable 
domestic energy prices and U.S. equipment suppliers to gain a 
technological advantage in electric power production that help increase 
competitiveness in foreign electricity markets. Maintaining low-cost 
electricity also helps constrain inflation and increase the 
competitiveness of U.S. goods.
    The PSDF will also play a key role in DOE's ``Vision 21'' program. 
Technology modules developed in the Vision 21 program, such as high-
temperature ceramic membrane air separation, can be tested in the 
integrated power generation system at PSDF prior to scale-up to 
commercial size.
    Coal currently accounts for over 90 percent of the U.S. combined 
energy reserves and supplies over 56 percent of the energy for electric 
power generation. Coal is still our nation's lowest cost fossil fuel. 
However, for coal to remain competitive, we must reduce the capital 
cost of new coal fired power plants by at least 20 percent while 
simultaneously increasing efficiency and improving environmental 
performance. Recent economic studies completed by the Electric Power 
Research Institute (EPRI), DOE, and SCS show that if advanced coal 
research projects and programs are successful, the capital cost for 
these plants can be reduced to less than $900/kWe. Based on the Energy 
Information Administration's (EIA) latest fuel cost estimates, coal can 
regain its competitive advantage by as early as 2007 if the $900/kWe 
capital cost is achieved.
    To accomplish these objectives, we must improve the reliability of 
individual plant components and optimize system integration and 
performance. Research to help these objectives can be accomplished most 
cost effectively at the PSDF. The PSDF is designed to be the U.S test 
facility to support the Clean Coal Technology program and advanced 
coal-based power generation development for the next five to 15 years.
   accomplishments of the psdf project during the first 30 months of 
                               operation
    Some of the PSDF project's most significant accomplishments through 
the end of 1998 include:
  --construction of the Kellogg, Brown and Root transport reactor train 
        was completed in May 1996 and the first coal fire in the 
        combustion mode began in August, 1996.
  --completed construction of the Foster Wheeler circulating PFBC 
        system in March 1998.
  --over 5,300 hours of fluid mechanical testing for the transport 
        reactor have been successfully completed including over 4,000 
        hours of operation on coal.
  --99.95 percent combustion efficiency at relatively low operating 
        temperatures.
  --over 99 percent sulfur removal with low limestone use.
  --insignificant erosion of refractory and pipes.
  --over 4,000 hours of testing and life assessment of high-
        temperature, high-pressure filter elements including over 3,000 
        hours at full operating temperature.
  --demonstrated easy startup and operation of the transport reactor. 
        Most early operating problems have been due to coal feed and 
        ash letdown systems but these have been essentially eliminated.
  --developed theoretical and practical solutions to the fluid 
        mechanics of the transport reactor system that will benefit 
        future power plant designs and current fluid-bed cracking 
        technology in the petroleum industry.
  --transferred operating experiences to the Pinon Pine CCT project.
  --completed initial commissioning and startup of the advanced low 
        NO<INF>X</INF> burner and combustion turbine system for the 
        Foster Wheeler train. Results have lead to better understanding 
        and redesign of this City of Lakeland burner.
                              future plans
    In 1999, the transport reactor will be operated in both the 
combustion and gasification modes and tests on improved particulate 
control devices will continue. Testing and development of improved 
solids feed and handling systems will also continue. Continued 
operation of the Foster Wheeler train is scheduled to begin in the 
second quarter of 1999 after return of the redesigned burner.
           description of power systems development facility
    The Wilsonville PSDF is a joint industry/DOE facility for 
engineering-scale testing and development of devices to remove 
particulates and other contaminants from hot gas in high-efficiency 
coal gasification and pressurized fluidized-bed combustion power 
plants. SCS and our industrial partners are supplying over $40 million 
in cost sharing to the PSDF project. The industrial partners, which 
represent a major portion of domestic electric power generation, power 
generation design and manufacturing, construction, and coal mining 
include: Kellogg, Brown & Root, Inc., Peabody Coal Company, Foster 
Wheeler Corporation, Southern Company, Rolls-Royce Allison, Southern 
Research Institute, Siemens-Westinghouse, Combustion Power Corporation, 
and the Electric Power Research Institute. Three of the industrial 
partners, Foster Wheeler, Kellogg, Brown & Root, and Siemens-
Westinghouse are also actively involved in CCT demonstration projects 
(Pinon Pine and City of Lakeland) that will enhance commercialization 
opportunities for technologies being developed at the PSDF. Southern 
Company, and its industrial partners in the PSDF, have financial 
incentives to see that technologies successfully developed at 
Wilsonville and other sites are effectively implemented in the market 
place.
    In addition to the Wilsonville, Alabama plant site, components for 
the facility are being developed at the following locations: Grand 
Forks, North Dakota (gasifier testing), Houston, Texas (gasifier 
development); Indianapolis, Indiana (combustion turbine development); 
Livingston, New Jersey (combustor development and testing); Menlo Park, 
California (filter fabrication); Orlando, Florida (gas turbine low-
NO<INF>X</INF> burner), and Pittsburgh, Pennsylvania (filter 
fabrication).
    To use new high-performance gas turbines in coal-based power 
plants, high-temperature, high-pressure gas cleanup must be perfected. 
When fully developed, these technologies will:
  --improve the efficiency of power generation from coal by over 25 
        percent compared to pulverized-coal power plants.
  --CO<INF>2</INF> emissions will be reduced by 25 percent as a result 
        of the increased efficiency.
  --lower the cost of electricity by over 20 percent;
  --be more acceptable to coal-based utilities than today's oxygen-
        blown coal-gasification combined-cycle designs; and
  --reduce pollutants by over 95 percent.
    The PSDF is the focal point for much of America's advanced electric 
power generation technology development and will continue to supply 
important technology into the twenty-first century. The PSDF currently 
contains four modules:
  --an advanced pressurized fluidized-bed combustor (``PFBC''), an 
        extremely clean method for burning coal;
  --a transport reactor gas source, an advanced type of coal gasifier 
        and pressurized combustor;
  --a hot gas cleanup module to test filters for removing fine 
        particles and other contaminates from coal-derived gases;
  --an advanced low-NO<INF>X</INF> burner-gas turbine module
    A fifth module, an advanced fuel cell, may be added to the project 
at a later date.
    At the PSDF, private developers are able to test innovative 
electric power system components--new combustors, improved cleanup 
systems, and advanced turbines and fuel cells--at a central location, 
saving the time and expense of building separate test facilities.
    The Wilsonville PSDF offers a number of advantages to the utility 
industry and to the nation by being able to address issues for the 
near-(five years), middle-(ten years), and long-term (fifteen years) 
management of technology risk:
  --The testing of hot gas cleanup systems addresses near-term 
        developmental needs, and the schedule of the PSDF is geared 
        towards providing support to CCT projects for advanced power 
        generation as these projects enter the design and operational 
        phases.
  --The advanced pressurized combustion process offers the potential of 
        a high-efficiency system for the mid-term that may be widely 
        used in repowering applications or in greenfield plants.
  --The transport gasifier/combustor has significant commercial 
        potential due to its compact size and resulting lower capital 
        cost.
  --The integrated gasification/fuel cell concept is a system that has 
        the potential to become the most efficient and environmentally 
        superior coal-based system available over the long-term.
                               conclusion
    The United States has always been a leader in energy research. 
Current DOE fossil energy research and development programs for coal 
will assure that a wide range of technology options continues to be 
available for future needs. We recognize the difficult choices that 
confront Congress when it examines the near-term effects of research 
programs on the Federal budget. We believe, however, that supporting 
advanced coal-based energy research today, in programs like the PSDF, 
will be a net plus for the economy, the federal government, and the 
American people in the future. For the foregoing reasons, SCS requests 
your continued support for the Power Systems Development Facility by 
including $20 million in funding in the Department of Energy's Fossil 
Energy Budget.
                                 ______
                                 
 Prepared Statement of Andrew G. Sharkey, III, President and CEO; and 
  Lawrence W. Kavanagh, Vice President, Manufacturing and Technology, 
                   American Iron and Steel Institute
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to contribute to the Subcommittee's hearing record again 
this year and to deliver the support of the American Iron and Steel 
Institute for continued funding of steel-related collaborative research 
programs. In previous years, these have been conducted under the 
auspices of the Office of Industrial Technologies (OIT) of the U.S. 
Department of Energy (DOE). In 1998, we began working with the Office 
of Building Technology (OBT), on the energy efficiency of steel 
framing, and this year we hope to expand our collaborative work to 
include the Office of Transportation Technologies (OTT), on the 
application of our safe, energy-efficient, lightweighting technology to 
trucks and sport-utility vehicles.
                   office of industrial technologies
The technology roadmap project: building on past successes under the 
        metals initiative
    The steel industry has long made collaborative research an integral 
part of its business strategies. A prime manifestation of that way of 
thinking has been our longstanding relationship with DOE and 
specifically the Office of Industrial Technologies.
    Our most recent success is the Advanced Process Control (APC) 
Program. Since 1993, APC participants--steel companies, other research 
organizations and a number of the national laboratories--working 
together have developed sensors which see, hear and feel steelmaking 
processes. The common goal of the APC projects is to reduce waste of 
time and energy by employing advanced measurement techniques and 
controls to assure that our steel products meet our customers 
specifications the first time, every time. Important discoveries have 
been made under the Advanced Process Control Program and these 
breakthroughs in ``smart steelmaking'' are now being applied in 
domestic steel plants. Detailed reports on each of the APC projects 
have been prepared regularly over the life of the program and we would 
be happy to provide the Subcommittee with any additional information it 
might desire.
    Building upon APC, AISI and OIT launched the Technology Roadmap 
Research Program in 1997. Through careful cooperation between the steel 
industry and DOE, we first developed the Technology Roadmap, a document 
that defines the breakthroughs necessary for steel to remain on the 
leading edge of technology application and therefore able to compete 
effectively in our global economy. The Technology Roadmap is divided 
into four critical areas:
    1. Process development,
    2. Product properties,
    3. Environmental performance and
    4. Recycling.
    The document has been translated into a five-year research program 
that is refocused annually on different sections of the Roadmap. In 
1999, we elected to focus on steel properties, environmental advances, 
joining technologies and process development and we look forward to the 
new challenges and opportunities this research will address.
    In closing this section of my statement, I wish to thank you, Mr. 
Chairman, and the entire Subcommittee for your faithful and yearly 
support for these programs. We strongly endorse this Subcommittee's 
funding of the DOE's Office of Industrial Technologies at the levels 
requested in the President's budget. Our industry remains committed to 
shouldering our share of the research funding and we look forward to 
continuing the fruitful partnership your steadfast support has made 
possible.
                 office of transportation technologies
Partnership for a new generation of vehicles (PNGV) and the 
        consideration of steel
    There is a widely held but false belief that to reduce weight in 
auto bodies, other materials must be substituted for steel. This was 
clearly disproved in 1998 when the steel industry demonstrated a 36 
percent weight reduction using conventional steels and automotive 
manufacturing practices under its Ultra-Light Steel Auto Body (ULSAB) 
program (described in detail in our 1998 testimony).
    Despite steel's accomplishments in designing lightweight steel 
vehicles, last year steel was again excluded from consideration by PNGV 
as a viable material for the car of the future. This is evidenced by 
PNGV Report Number 4 (April 1998) which was dismissive of steel. We 
have now been informed by PNGV officials that it is also unlikely that 
Report Number 5 (due second quarter 1999) will recognize steel, the 
incumbent automotive material, as a solution for the future.
    Our concern that alternate materials have been pre-ordained as the 
only viable materials for future auto bodies cannot be overstated. 
However, recent events might compel PNGV to consider steel. AISI has 
recently announced the ULSAB-AVC (Advanced Vehicle Concept) Program 
whose goal is the design of an auto body that meets the PNGV goals for 
weight reduction, recycling, safety, affordability and performance. 
ULSAB-AVC will explore new steels and technologies to bridge the gap 
between the 36 percent weight reduction of ULSAB and the PNGV goal of 
50 percent weight reduction, without sacrificing recycling, safety, 
affordability or performance.
    Mr. Chairman, we ask for the Subcommittee's careful oversight of 
PNGV to ensure that steel's case is heard and that we have a fair 
chance to compete with other materials in the market where steel 
remains--and with good reason--the material of choice.
Energy efficiency through downweighting of trucks: steel is ready to 
        help
    On the general topic of collaborative research on vehicles, we have 
worked on dozens of major engineering challenges with the Big Three U. 
S. automakers in the prototype supplier-customer collaboration known as 
the Auto/Steel Partnership, dating back to 1987. More recently, we have 
been deeply involved with the automakers and other materials 
industries--under the auspices of the United States Automotive 
Materials Partnership (USAMP)--in compiling a comprehensive ``lifecycle 
inventory'' of materials used in autos. Completion of this painstaking 
task will make new and important information available to the auto 
sector, enabling it to weigh as never before the environmental impacts 
of competing materials across their full life of mining, manufacturing, 
production, use, recycling and disposal.
    With respect to downweighting light trucks specifically, it has 
long been a priority of AISI to develop a lightweight steel design for 
this market of make-or-break importance to U. S. auto manufacturers. 
Our original Auto Weight Reduction Program (AWRP) included $1 million 
to conduct a light truck study with one of the automobile companies. A 
proprietary project was initiated with Ford in 1995 to achieve the 
weight target set for the MY 2000 Explorer. Preliminary analysis 
conducted by Porsche Engineering demonstrated that the weight goal 
could be met with a steel structure, at which time Ford took the 
research inside the company for completion.
    Building on that experience, the Auto Weight Reduction Program task 
force developed the Light Truck Structure (LTS) project. Under the LTS 
project, Porsche Engineering developed a conceptual design for a 
lightweight steel body for the light truck market that includes a 
modular body-in-white, a flexible-design modular frame and related 
chassis elements. The concept demonstrated the capability to modify 
both sport utility and heavy duty/extended cab options using steel. The 
total cost of the LTS study was over two million dollars. The design 
concept study took approximately fifteen months to complete and the 
results were presented to the auto companies and OEM suppliers in 1997.
    With our considerable experience and motivation toward 
downweighting trucks (and sport utility vehicles), we fully support the 
OTT's intended programs in this area beginning in fiscal year 2000. We 
ask that the Subcommittee set aside funds for this important research 
which the steel industry stands ready to cost-share.
                     office of building technology
Thermal Efficiency of Homes Framed in Steel; A Promising Beginning to a 
        new Partnership
    One Technology Roadmap project organized under our partnership with 
OIT has permitted us, for the first time, to work with the Office of 
Building Technology. AISI (in the form of its North American Steel 
Framing Alliance (NASFA)) has teamed with OIT, OBT, Oak Ridge National 
Laboratory and the National Association of Homebuilders Research Center 
to explore the thermal energy efficiency of homes framed in steel. The 
3-year project is comprehensive, including such things as air 
infiltration (steel houses are ``tighter'') and other heating 
efficiency factors.
    We hope that this new partnership with DOE, the national labs, the 
NAHB-RC and other federal agencies will not only yield results useful 
to the American homeowner but will inform the international 
homebuilding community as well. Other governments, including housing 
officials of the Peoples Republic of China, have shown strong interest 
in steel framed housing. We also hope there will be additional 
opportunities for this partnership and other partnerships to pursue 
other common goals together. For example, we are actively looking into 
the Office's new initiative in improving the energy efficiency of 
schools. School construction is yet another instance in which steel--
especially highly reflective roofing steel--offers outstanding 
qualities as a material responsive to the energy efficiency needs of 
the nation.
    Again, AISI urges careful and favorable consideration of the 
Department's requests for funds to pursue this legitimate line of 
public-private inquiry in building technologies.
    In summary, let us say that AISI and its member companies have had 
a very positive experience in working with the Office of Energy 
Efficiency and Renewable Energy (EERE) under Assistant Secretary Dan 
Reicher. EERE is a highly motivated and effective government agency. 
The OIT/AISI relationship came first and has matured into a productive 
collaboration and led to the additional opportunities represented by 
OTT and OBT projects. We strongly urge the Subcommittee's favorable 
response to the Department's request for additional funds to be matched 
and multiplied into additional achievements in the national interest.
    Thank you again, Mr. Chairman, for this opportunity to offer these 
comments. We stand ready to supply any additional information you, 
Subcommittee members, or Subcommittee staff might wish to have.
                                 ______
                                 
    Prepared Statement of the Petroleum Technology Transfer Council
    The Petroleum Technology Transfer Council (PTTC) appreciates this 
opportunity to submit testimony on behalf of the fiscal year 2000 
appropriations for the U.S Department of Energy (DOE). PTTC strongly 
supports Congressional funding for DOE's Office of Fossil Energy at the 
level requested in the Administration's budget or higher.
    PTTC is a national not-for-profit organization formed in 1994 by 
the independent oil and natural gas producing industry to accelerate 
the dissemination of exploration and production (E&P) technologies and 
help identify the highest-priority technical needs of industry. PTTC 
receives funding under a cost-shared grant from DOE's Office of Fossil 
Energy. These funds are matched by support from several state 
governments, universities, state geological surveys, and industry 
donations. Although PTTC's grant is administered through the National 
Petroleum Technology Office, funding comes from both the oil and 
natural gas programs of DOE. The Federal Energy Technology Center also 
provides multi-faceted support for PTTC activities related to natural 
gas resources.
    PTTC would like to make several key points in support of DOE's oil 
and gas programs under the Office of Fossil Energy:
     industry crisis heightens the need for access to technologies
    The U.S. petroleum industry is trying to survive its worst crisis 
in history--one that has had devastating effects on employment, 
production, and the basic infrastructure of this vital business. The 
following quotes from testimony presented by Steve Layton, President/
CEO of Equinox Oil Company, on behalf of the Independent Petroleum 
Association of America (IPAA) on January 28, 1999, before the U.S. 
Senate Committee on Energy and Natural Resources, summarize the 
importance of independent producers and the serious implications of 
today's crisis:
    ``The onshore lower 48 states account for about 60 percent of total 
domestic oil production. The Energy Information Agency has released a 
recent report that over 60 percent of this onshore lower 48 production 
comes from independents, a percentage that has increased by ten percent 
over the past decade. It reflects an irreversible trend. Major oil 
companies are leaving the onshore lower 48 states. . . . Consequently, 
the onshore is now the principal province of independent producers. In 
contrast to the majors, independents do not have the capital and other 
resources to carry them through protracted lean time. . . . At current 
prices, most--if not all--of the onshore lower 48 production is at risk 
of loss.
    ``The vital infrastructure of our industry is being shattered. . . 
. This loss of activity reflects the serious impact low oil prices will 
have on future production. . . . If we lose our onshore lower 48 
production, our reliance on foreign oil will increase from about 55 
percent to over 70 percent--Behind these numbers is a realization that 
jobs are being lost by the tens of thousands, skills that will not be 
recovered by the industry in the future. . . . IPAA analyzed the 
domestic oil industry based on economic multiplier factors associated 
with lost revenues. This analysis concludes that the domestic oil 
industry has lost 50,000 jobs or more from the current price crisis.
    ``Without this infrastructure it is not only the nation's oil 
industry at risk but its future natural gas use as well. This country 
has a vision of building a future on expanded use of clean burning 
natural gas. . . . It cannot happen without a healthy oil industry. Oil 
and gas are found together. They rely on the same tools, the same 
science, the same skills, and the same financial resources.''
    In response to the seriousness of the industry crisis, DOE formed 
an Oil Emergency Task Force last year that resulted in many initiatives 
that are proving beneficial to independents in the technology arena--
especially DOE's commitment to provide millions more in cost-shared 
programs to assist small independents with specific production 
problems. In addition, its pilot program to showcase new energy-
efficient technologies and motor replacements is showing promising 
results in several regions. Starting with a prototype in Texas, DOE's 
program to help move industry toward online permitting could save 
millions in administrative costs. PTTC also supports the other 
important programs in the fiscal year 2000 budget for DOE's Office of 
Fossil Energy.
    In trying to survive the crisis, the nation's small independent 
operating companies are also turning more and more toward PTTC's 
information network and local, inter-disciplinary referral system. In 
this way, independents are able to gain access to the results of DOE's 
research and development (R&D) programs to recover more domestic 
petroleum resources and slow the abandonment of marginal wells. An 
estimated 40 percent of U.S. marginal wells have already been shut 
down, and more are in jeopardy.
        industry and government should share in r&d investments
    At the same time that the major companies are moving overseas and 
independents are trying to weather the crisis conditions, industry 
investment in petroleum technology and R&D is being cut to the bone. 
Therefore, it is critical for DOE's Office of Fossil Energy to continue 
its important work in R&D and technology transfer activities. The focus 
on these programs should continue on advances in geosciences that can 
achieve the greatest return in deferring premature well abandonments 
and maximizing incremental oil and natural gas production.
    Public and private research projects continue to achieve advances 
in petroleum E&P technology that could yield significant national 
benefits in the form of increased domestic production, reduced oil 
imports, and increased public sector revenues. Both industry and the 
public sector gain from the development and application of advanced E&P 
technologies; thus, both should share in the investments. Government 
also has an essential stewardship role--to ensure that domestic 
resources are produced efficiently and with respect for the 
environment. To achieve these goals, industry and government must work 
together. PTTC is proud to be a prime example of how the federal 
government can work with industry and state governments in a successful 
partnership.
   effective technology transfer is essential to realize r&d benefits
    The full economic potential of new and existing technologies will 
not be achieved if producers are not aware of the technology, 
understand its economic potential, or feel comfortable with applying 
it. Nor will it be achieved if known resources are abandoned in the 
reservoir before the technology can be applied. Effective technology 
transfer is essential to achieve the full benefits of this potential 
and to sustain a viable domestic petroleum industry.
    Investments in research and technology are worth little if the 
results are not aggressively transferred and applied to produce more 
oil and natural gas. Some 80 percent of the potential benefits of 
improved technologies could be foregone without technology transfer. 
The government has already invested vast sums through the years in 
federally funded research at national laboratories, DOE laboratories, 
universities, and other R&D providers. To truly obtain value from this 
investment, it is critical to continue funding the technology transfer 
and related programs of DOE's Office of Fossil Energy.
               identifying industry's technological needs
    PTTC performs various technology transfer functions to inform 
producers of potential solutions to economically address their 
problems. Where answers are not available, PTTC reports the technology 
gaps and their relative urgency to the R&D community to help guide and 
focus the direction and priorities of public and private research. PTTC 
has helped DOE in targeting upstream R&D efforts on practical, short-
term projects with immediate applications in the field. As a result, 
informing users of new and on-going research projects accelerates the 
public and private R&D process. PTTC distributed a technology needs 
survey to industry in 1998, and will be releasing the results in an 
updated report by June 1999.
    Further, PTTC technology workshops serve as catalysts for bringing 
new partners into R&D consortia and other industry groups. An important 
benefit is that small independent operating companies (those without 
sufficient staff or budget for R&D) have new access to cost-efficient 
technologies to maximize the recovery of oil and natural gas reserves.
              technology transfer programs showing results
    In less than five years, PTTC has achieved its original goals--and 
gained the widespread credibility within the upstream petroleum 
industry that is vital to success. PTTC programs are set up to 
disseminate cost-effective technological solutions addressing a wide 
range of problems--exploration, drilling and completion, operations and 
production, reservoir and development, as well as environmental 
compliance. . . . Following are the most important accomplishments in 
expanding industry awareness and technology usage at the national and 
regional level:
  --Industry Crisis Action Plan.--PTTC initiated a crisis action plan 
        in Dec. 1998. Nearly 20 survival-oriented workshops, addressing 
        the economic margin, were held in early 1999, with more coming.
  --Technology workshops.--PTTC held 100 workshops last year and is on 
        track to hold just as many this year. Nearly 4,500 individuals 
        attended PTTC workshops in fiscal year 1998, with nearly 75 
        percent of those from industry. These workshops are held in 
        throughout the oil and gas producing areas to provide real-
        world information and solutions to address E&P challenges on a 
        variety of topics from 3-D seismic applications to produced 
        water disposal. To leverage limited resources, most PTTC events 
        are held with other organizations such as professional 
        societies and state/regional producers associations.
  --Workshops with DOE.--PTTC has sponsored many workshops to transfer 
        the results of DOE programs to independents, including DOE's 
        Reservoir Class Demonstration Project. In upcoming events, PTTC 
        will be releasing the outcome of DOE-funded research in 
        microbial enhanced recovery projects, and underground natural 
        gas storage, as well as a new coiled tubing field manual.
  --Distance Learning.--Some regions are exploring new technology 
        transfer mechanisms for disseminating workshops to those who 
        cannot attend, including on-line training resources and 
        webcasting--full audio and video transmission of workshops via 
        the Internet.
  --Regional resource centers.--Independents contact their local PTTC 
        resource center for a variety of services: (1) access to 
        information/data resources, (2) expert response to inquiries, 
        (3) demonstration and training for E&P software, (4) 
        information products, (5) help with understanding technological 
        problems and opportunities, (6) access to special purpose 
        databases, and (7) special outreach efforts.
  --E&P Software Training.--PTTC issued a Petroleum E&P Software 
        Sampler on CD-ROM last year that contains overview information 
        on 50 PC-based upstream software programs that have been 
        generously donated to PTTC resource centers by c ommercial 
        software vendors.
  --Internet websites.--With a national website plus 10 regional sites, 
        PTTC's electronic network is a key delivery system for oil and 
        gas information, data, case studies, calendars of events, and 
        technical summaries. Industry usage is increasing as the on-
        line technical content and search capabilities grow.
  --Newsletters.--The 16-page, quarterly national newsletter, PTTC 
        Network News, reaches nearly 6,000 readers (about half are 
        independent E&P companies). Regional newsletters also inform 
        thousands of local producers about technology transfer 
        activities and the results of DOE technical programs.
  --Case Studies/Reports.--PTTC has developed many producer-vendor case 
        studies and is releasing a new digest this summer with more 
        articles. In addition, an updated report is expected in June 
        1999 summarizing the technical information conveyed during the 
        best workshops held in the past two years.
  --Region-Specific Products.--Several regions have developed products 
        specific to local needs, such as the Louisiana Desktop Well 
        Reference on CD-ROM, which provides lease and production data. 
        The West Coast Region is developing a reservoir/field CD-ROM 
        with Lawrence Livermore National Laboratory and the state of 
        California. There are many similar examples in other regions.
                               conclusion
    Congress should continue to support an active DOE role in 
petroleum-related R&D and technology transfer through the Office of 
Fossil Energy, especially in light of the devastating effects of the 
recent industry crisis. Through technology transfer efforts, the value 
of DOE programs in these areas extends far beyond geoscience research. 
The results of federally funded research will reach operators in the 
field, where it can be used to preserve and expand our national 
resource base. The investment by DOE in technology transfer programs 
will be returned in multiples through incremental federal revenues from 
new projects and additional energy production that will be stimulated 
by effective technology transfer.
    As one successful example, PTTC delivers demonstrable and 
measurable benefits to the producing industry and to the nation. 
Additional information can be provided for the record from independent 
producers who have learned about new technological solutions through 
PTTC.
    Thank you for this opportunity to testify, and please let us know 
if PTTC can supply any additional information for the record.
                                 ______
                                 
        Prepared Statement of the Hydrocarbon Technologies, Inc.
                                foreward
    Mr. Chairman and members of the Sub-Committee, Hydrocarbon 
Technologies, Inc. (HTI) appreciates your prior support and invitation 
to testify with respect to the Fossil Energy Research and Development 
Programs and, in particular, restoring the appropriation for 
Hydroconversion (Direct Liquefaction) of carbon-based feedstocks to $3 
million.
    Today, we find our country entering the 21st century with major 
concerns for the environment with a focus on global warming but also an 
awareness that liquid hydrocarbons will continue as a major source of 
transportation fuels. As a nation of high-energy consumers, we must 
study and address these forecasts. Hydroconversion of coal, wastes, and 
renewables answers both the environmental concerns of global warming 
and reduces the potential for ground water pollution from landfills, 
while producing clean, high-mileage, and specialty transportation fuels 
and high value by-products.
    Direct Liquefaction (hydroconversion) is a high-efficiency (>75 
percent) process that adds hydrogen to low-value carbon feedstocks 
(coal, heavy oil, MSW, biomass) and removes sulfur, nitrogen, and other 
heteroatoms to directly produce ultra-clean fuels and chemicals. The 
overall energy consumed is a third that of other indirect conversion 
technologies. The Administration, in its subtle efforts to de-emphasize 
the use of coal, is reducing and closing down many of the programs that 
rely on coal. Coal is the most abundant and lowest-cost energy form in 
the United States; it can be utilized in an environmentally acceptable 
manner if the emissions reduction accomplishments of the last two 
decades can be improved and extended. High efficiency and low-cost 
emissions control can significantly reduce environmental concerns over 
the use of coal. This work needs to be given a higher priority over the 
support now going to existing, commercially proven energy sources.
    HTI, working with the United States Department of Energy (US DOE), 
is planning to improve the current coal/oil technology and expand its 
scope to include wastes and biomass leading to a more environmentally-
friendly, higher efficiency, lower cost technology. We are using the 
vast knowledge base attained through direct liquefaction 
(hydroconversion) R&D over the last 30 years and recent advances that 
can leapfrog the technology into the 21st century as a more 
environmentally responsive industry based on domestic raw materials.
    The area in which HTI will concentrate its efforts will be to 
develop this highly efficient, versatile technology to produce high-
value carbon products, specialty chemicals, and alternate fuels at a 
lower cost and smaller scale for wider application using diverse 
carbon-based feedstocks with coal in balance with the environmental 
objectives of the US DOE and the Environmental Protection Agency (EPA).
    Our vision is to create an energy industry based on technologies 
focused on zero emissions and the reduction and stabilization of 
harmful atmospheric gases, an industry that will protect the public 
interest while maintaining social progress.
                           program objectives
  --To provide a versatile, high-efficiency, variable feed, co-
        processing process for integration into a Vision 21 Concept 
        Modular Plant that will produce clean opportunity fuels at zero 
        emissions
  --To study and develop processes based on co-processing for the 
        conversion of renewable and waste energy sources into hydrogen, 
        clean fuels, and chemicals
  --To further the development of waste/coal/oil co-processing and 
        hydroconversion processes for refinery integration and for the 
        production of specialty fuels, carbon products, and chemicals 
        in an environmentally-benign manner
    Help is requested to provide sufficient funding to carry on R&D on 
the following concepts nurtured at HTI and DOE:
  --The Co-Processing (Hydroconversion) of Municipal Solid Waste (MSW), 
        waste plastics, and renewables with fossil fuels to produce 
        clean transportation and specialty jet fuels, chemicals, and 
        carbon products
  --The preparation of carbon products from fossil fuels--Ultra high 
        strength carbon fibers are produced from coal-derived liquids 
        and are used to produce durable, light-weight, structural 
        materials for automobiles and for military transport
  --R&D on breakthrough mass transfer reaction technology that will 
        result in more than a twofold performance improvement in Co-
        Processing (Hydroconversion) making it more competitive and 
        more environmentally responsive
  --A new technology for easily converting MSW and renewables to 
        hydrogen and synthesis gas for inclusion in a Vision 21 Modular 
        Plant
  --Carbon Dioxide, available in concentrated form from hydroconversion 
        processes, can be reduced and used in steel making, can also be 
        used for conversion to hydrogen and syngas and for conversion 
        to carbon and carbon monoxide for reforming
    HTI is requesting support for a budget of $3 million to be 
allocated for obtaining commercialization data and for work in the 
foregoing areas that transcend from hydroconversion to programs much 
wider in scope and programs that will provide solutions and direction 
to solve the environmental challenges of the 21st century. Help us to 
realize this vision of a new energy industry for the United States that 
does not compromise the environment.
                                 ______
                                 
      Prepared Statement of the Fuel Cell Commercialization Group
    The FCCG is an association of utilities and other energy users 
interested in the business potential of the Direct Fuel Cell Energy 
Plant for electric generation and customer service. The FCCG supports 
the development of this technology by providing market and operations 
experience and demonstration support to Energy Research Corporation's 
(ERC) technology development program. This technology was chosen in 
1988 as a result of ERC's outstanding response to a utility industry 
Notice of Market Opportunity.
                     direct fuel cell energy plant
    Fuel cells represent a superior option for FCCG members' compliance 
with all existing and anticipated environmental control legislation, 
including the Clean Air Act of 1990 and its mandates on acid rain 
pollutants. Since fuel is not combusted in ERC's Direct Fuel Cell 
Energy Plant, there are virtually no acid rain gases such as nitrogen 
oxide or sulfuric oxide exhausted. In fact, ERC's use of natural gas 
and unmatched high efficiency results in carbon dioxide emissions 22 to 
36 percent lower than any other fossil-fueled alternatives. Compared 
with coal-fueled power plants, whose efficiency can be an average of 37 
percent, stationary fuel cell power plants have demonstrated a 55 
percent performance efficiency in power production. This efficiency 
rating can be increased to 80 percent or higher through the use of its 
byproduct heat, which itself has many applications. Fuel cells combine 
these possible savings with lower maintenance needs due to the lack of 
moving parts. This clean, quiet, and efficient technology will be an 
excellent resource for distributed generation sited close to electrical 
customers. Only ERC has demonstrated its dedication by using a 
continuously operational advanced fuel cell energy plant to supply 
250kW of electricity to its company headquarters in Danbury, 
Connecticut.
                           industry requests
    Constituents in the utility and energy industries have seen 
distressing trends in previous appropriations of Congress for the 
Department of Energy's stationary fuel cell programs. The aggregate 
need for stationary fuel cell programs in fiscal year 1999 was 
underfunded by over $15 million. This affects the timeliness of 
industry access to fuel cell technology. Already, three FCCG members 
are negotiating for procurement of the Direct Fuel Cell Energy Plant. 
With constituents queuing up to purchase and commencing field trials, 
Congressional support of DOE stationary fuel cell programs is critical 
to enhancing market confidence and keeping the program on track.
    The DOE is currently supporting three fuel cell development 
programs contained in the line item for Fossil Energy natural gas 
budget line. The fiscal year 2000 aggregate need approaches $65 
million.
    We commend you and the Appropriations Committee for your past 
support. We ask that you recognize the growing importance of the DOE 
stationary fuel cell initiatives and appropriate the necessary $65 
million in fiscal year 2000.
    The completion of the Direct Fuel Cell Energy Plant will have major 
economic and environmental benefits, not only for utilities and 
electricity consumers in the U.S., but for the global energy 
marketplace.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the service 
organization representing the interests of over 2,000 municipal and 
other state and locally owned utilities throughout the U.S. 
Collectively, public power utilities deliver electric energy to one of 
seven electric consumers (about 40 million people) serving some of our 
nation's largest cities. The majority of APPA's member systems are 
located in small and medium-sized communities in every state except 
Hawaii. We appreciate the opportunity to submit this statement 
concerning fiscal year 2000 appropriations. The focus of our testimony 
will be on U.S. Department of Energy (DOE) programs within this 
Subcommittee's jurisdiction.
                     doe energy efficiency programs
    APPA supports the Administration's emphasis on DOE energy 
efficiency programs in its funding request for fiscal year 2000. We ask 
that this Subcommittee ensure these important programs continue to be 
among the options available to our nation's electric utilities as they 
strive to meet the increased competitive and environmental demands 
placed on them by the marketplace and society. While we realize the 
budget constraints you face, we ask for favorable action on the 
Administration's request in this area. DOE's energy efficiency programs 
received funding of $717 million in fiscal year 1995. Appropriations 
were cut 25 percent in fiscal year 1996 and were increased by nearly 9 
percent in fiscal year 1998. The Administration is proposing to further 
increase funding in fiscal year 2000 to approximately $838 million, 34 
percent above the fiscal year 1999 enacted level. Such increased 
expenditures are warranted because energy efficiency is becoming even 
more important in the context of changes occurring as a result of 
electric utility industry restructuring. Due to these changes, many 
utilities already have downsized or terminated some energy efficiency 
programs in order to reduce costs. Yet these programs can be very 
helpful in maximizing the overall progress made toward achieving a 
competitive, high-growth economy for our nation while maintaining the 
kind of environmental quality we all desire for the future.
    Partnership for a New Generation Vehicle--We urge the Subcommittee 
to fund DOE's PNGV program at the $143 million level requested by the 
President. It is important that these advanced technologies be 
available for application to both mobile and stationary sources. The 
availability of fuel cell technology for transportation is critical for 
cities and states that must achieve mandated federal air quality 
standards. The fuel cell vehicle is virtually pollution free and highly 
efficient. Even a 10 percent market penetration could reduce regulated 
air pollutants by more than one million tons a year and emissions of 
carbon dioxide by 60 million tons a year. (This would fulfill the U.S. 
commitment to bring its CO2 emissions back to 1990 levels.) It also 
would save 800,000 barrels of oil a day. One of APPA's members, the 
Sacramento Municipal Utilities District (SMUD), has done extensive 
research in this field because of the outstanding environmental and 
energy efficiency attributes of the technology.
    Community and Building Technologies.--APPA supports the 
Administration's request of $335.9 million to restore previous 
reductions to these energy partnership programs. Among them are 
#T3Rebuild America, designed to accelerate energy efficiency 
improvements in existing commercial and multi-family buildings, and 
DOE's Energy Partnerships for Affordable Homes Program, a collaboration 
of public and non-public groups working to make public and private 
housing more energy efficient and affordable. DOE can play a 
facilitating role in helping bring new technologies and standards to 
market. Examples of valuable DOE efforts in this regard include the 
Technology Introduction Partnerships (TIPS) program and Motor 
Challenge. TIPS, in particular, has been an important one for APPA 
member systems. Motor Challenge is a voluntary partnership between DOE 
and industry designed to promote adoption of motors and motor-driven 
equipment that increase energy efficiency, enhance productivity and 
improve environmental quality. By the year 2000 it is estimated Motor 
Challenge will generate energy cost savings of $1.2 billion and 
electricity savings of 25 billion kWh.
    Building Codes and Standards.--EPAct also requires each state to 
certify that it has reviewed its residential and commercial building 
codes to determine whether they meet energy efficiency targets. DOE is 
providing important technical assistance to encourage states to adopt 
such codes. We support the Administration's request that $26.7 million 
be provided to continue this program.
    Community Energy Systems.--District heating and cooling systems act 
as community energy systems by transporting waste energy (from local 
power plants, industrial processes and natural resources) to buildings 
to provide heating and/or cooling. In addition to reducing emissions of 
carbon dioxide and other pollutants, these systems enhance energy 
security and cost stability, stimulate community development and 
facilitate phase-out of ozone-destroying refrigerants. APPA member 
systems that receive information and technical assistance from this 
program include those located in Burlington, VT; Fairbanks, AK; San 
Antonio, TX; Holyoke, MA, and Lansing, MI. APPA recommends $5 million 
to provide: (1) an integrated information campaign to local and state 
governments and the private sector on the benefits of district energy, 
and technical assistance and cost-shared funding for community energy 
resource assessments and feasibility studies, and (2) research, 
development and demonstration in partnership with ongoing cooperative 
international efforts to reduce costs and improve efficiencies of 
district energy technologies.
    Municipal and Community Energy Management.--This program, within 
the Office of Building Technology, provides funding to municipalities 
for conducting a variety of projects that address energy-related areas 
of greatest concern to local governments. APPA recommends this program, 
operated by the Urban Consortium Energy Task Force (UCETF), receive 
$1.6 million, funding level to that provided in fiscal year 1998. UCETF 
is a program of Public Technology, Inc. (PTI), the non-profit 
technology organization of the National League of Cities, the National 
Association of Counties and the International City/County Management 
Association. Currently 22 jurisdictions, including many public power 
communities, are represented on UCETF: Albuquerque, NM; Austin, TX; 
Chicago, IL; Columbus, OH; Dade County, FL; Denver, CO; Greensboro, NC; 
Hennepin County, MN; Kansas City, MO; Long Beach, CA; Memphis, TN; 
Monroe County, NY; Montgomery County, MD; Orange County, FL; 
Philadelphia, PA; Phoenix, AZ; Portland, OR; San Diego, CA; San 
Francisco, CA; San Jose, CA; Seattle, WA, and Washington, D.C.
    Weatherization Assistance Program.--APPA wholeheartedly supports 
the Administration's budget request of $154 million for weatherization 
assistance, especially important to the working poor, elderly and 
disabled. The program helps more than 100,000 residents annually. 
Weatherization programs have the additional benefit of stimulating 
economic growth by increasing disposable income and creating jobs in 
the service sector. The DOE Weatherization Assistance Program has been 
especially effective at helping low income citizens afford their energy 
bills and at the same time reduce their energy usage. The funding 
increases requested for fiscal year 2000 should be provided to this 
valuable program to help alleviate the multi-year backlog of 
weatherization work requested locally.
    State Energy Conservation Program.--State energy offices work on 
nearly every energy efficiency issue. They encourage technology 
development, renewable energy, alternative fuels, energy emergency 
preparedness, energy facility siting, recycling, transportation 
efficiency programs, energy conservation and economic development, 
among other activities. State energy offices have been extremely 
successful in identifying the needs of local communities, businesses 
and consumers, and funding appropriate efforts to effectively transfer 
technology to constituents. With increased devolution of 
responsibilities to the states, this program offers the ideal 
combination of state-level implementation on a flexible basis with 
federal support. We ask that this Subcommittee favorably consider the 
Administration's request of $37 million for the State Energy 
Conservation Program. The program suffered a 50 percent cut in fiscal 
year 1996. The spending level requested for fiscal year 2000 represents 
an increase of nearly $4 million above the fiscal year 1999 enacted 
level.
          doe fossil energy research and development programs
    Fuel Cells.--Fuel cells have captured the interest of government 
and industry alike. Their modularity, high efficiency and negligible 
emissions of smog and acid rain precursors make fuel cells an important 
growth area deserving national priority. A consortium, including APPA 
member systems, along with the National Rural Electric Cooperative 
Association (NRECA), the Electric Power Research Institute (EPRI) and 
DOE, is co-sponsoring carbonate fuel cell research, testing and the 
first utility-scale demonstration of a carbonate fuel cell power plant. 
The direct fuel cell program consists of two major efforts--the Santa 
Clara Demonstration Project and the ongoing Product Design Improvement 
(PDI) cost-shared initiative.
    The first demonstration of an U.S.-developed fuel cell power plant 
has now begun operation in Santa Clara, CA. This 2-MW fuel cell unit 
has achieved a 44 percent efficiency level, a record for a fossil 
fueled power plant of this size, has recorded emissions below 
conventional detection limits and is providing valuable information on 
fuel cell power plant operations. APPA member systems participating in 
the consortium include the City of Santa Clara, Los Angeles Department 
of Water & Power, Sacramento Municipal Utility District, the City of 
Vernon, CA, the Salt River Project and Northern California Power 
Agency. The final phase of the development effort, the design and 
fielding of a pre-commercial unit has now begun. The 21 members of the 
Fuel Cell Commercialization Group (FCCG) support performance and cost 
targets for this final phase. In addition to those named as supporters 
of the Santa Clara project, APPA member systems comprising FCCG include 
Alabama Municipal Electric Authority, City of Anaheim (CA) Public 
Utilities Department, Florida Municipal Power Agency, City of Manassas 
(VA) Electric Department, City of Tallahassee (FL) Electric Department 
and Wisconsin Public Service Corporation. In fiscal year 2000, the 
cost-shared contract calls for DOE support in the amount of $41.4 
million. We urge Congress to fully fund this project so that progress 
can continue toward full commercialization.
    ``Industries of the Future--Specific.''--APPA strongly supports the 
fiscal year 2000 request of $74 million for this public-private 
partnership efforts which focus on developing technologies that cut 
energy use, emissions, and waste in multiple industries and provide 
cost-effective solutions to reduce greenhouse gas emissions. fiscal 
year 2000 efforts concentrate on a new biogasification initiative and 
accelerated development of a new electrode system for aluminum 
production. In addition, efforts with the Petroleum industry are 
revitalized after a period of reorientation to develop technology road 
map for future joint R&D.
    Energy Information Administration (EIA).--APPA supports the 
Administration request of $72.6 million to enable EIA to continue its 
important role in data collection and dissemination. With increasing 
competitiveness in the electric utility industry, it is critical that 
utilities, government, regulators and the public all have access to 
reliable data from EIA in order to monitor pricing and structural 
changes in the electric utility industry and their effects on 
competition.
                                 ______
                                 
  Prepared Statement of Dr. Frank Derbyshire, Director, University of 
              Kentucky, Center for Applied Energy Research
                              introduction
    In 1994, the Kentucky Coal Council and the University of Kentucky 
Center for Applied Energy Research began to work with the Department of 
Energy to develop a mechanism for accelerating the deployment of 
advanced coal-fired power generation plants. The basic concept involves 
using coal gasification as the cornerstone technology of a multiplex 
facility that will co-produce added-value products together with 
electrical power from coal. In this way, chemical and materials 
production can be integrated with power generation, attracting 
investment by a range of industries, and reducing the risks associated 
with the construction of a first of a kind plant. The scheme now forms 
an important component of the Department of Energy's Vision 21 
strategy.
    In testimony that I have provided over the last few years, I have 
asked this committee to support this initiative in order to facilitate 
the commercialization of advanced technologies for the production of 
environmentally friendly, efficient coal-fired power generation that 
have matured under the DoE Clean Coal Technology program. Today, I 
would like to update the committee on the status of our efforts to 
develop and advance the concept, and to request continued 
appropriations to the Department of Energy in order to sustain relevant 
programs over the next few years.
                     coal and the national economy
    Every credible forecast of future energy use indicates that coal 
will continue to remain the backbone of the American economy. The 
Energy Information Administration (EIA) projects that coal use in the 
United States (US) will increase by about 20 percent between 1996 and 
2015, while energy from non-fossil sources is predicted to decline over 
this period as a result of the retirement of nuclear plants. On a 
global basis, EIA projections forecast that coal use will increase by 
almost 50 percent from the current level of 5122 million tons annually 
to 7495 million tons in 2015. Only 10 percent of this increase is 
expected to occur in OECD countries and the former Soviet Union. In the 
developing world, coal use is forecast to increase by 100 percent.
    The annual coal production in the United States is around 1 billion 
tons per year and most of it is used to generate 56 percent of our 
electricity. While coal production levels over the last 20 years have 
increased, the number of people involved in coal mining has decreased 
by almost two-thirds and productivity has increased by almost the same 
proportion. Due to this increase in productivity, we have actually 
experienced declining energy costs. The cost of coal is the same now as 
in 1979, without correction for inflation. The low cost of coal-derived 
energy has had a buffering influence on the cost of competing forms of 
energy generation, and has helped to stabilize the cost of electric 
power.
    Although we must continue to emphasize the use of coal in the 
future, we also face environmental challenges. There are serious 
concerns over emissions from coal-fired power plants: oxides of sulfur 
and nitrogen; air toxics; fine particulates; and carbon dioxide. These 
emissions may have an adverse influence on human and animal health, and 
upon our environment, and the production of greenhouse gases, notably 
CO<INF>2</INF>, CH<INF>4</INF>, and N<INF>2</INF>, may potentially 
affect our climate.
    The solution to these regional and global problems lies in the 
development of new technologies, their implementation, and their export 
to developing countries. In this regard we fully support the principles 
that the Department of Energy has put forth in the Vision 21 Program. 
That is, ``the integration of emerging concepts for high-efficiency 
power production and pollution controls into a new class of fuel 
flexible electric generation facilities''. Vision 21 also offers market 
entry strategy for new concepts to co-produce high value fuels and 
chemicals from coal or other feedstocks.
                       the co-production concept
    Research and development fostered by the DoE's Clean Coal 
Technology Program has clearly demonstrated that integrated 
gasification combined cycle (IGCC) power generation can allow the 
production of clean electrical power from coal. The advantages of IGCC 
include: flexibility in fuel selection; advanced emissions control; 
improved thermal efficiency; and waste minimization. Low grade coals 
and/or waste materials can be utilized with up to 99 percent sulfur 
removal. NO<INF>X</INF> emissions are reduced relative to combustion 
processes, and the thermal efficiency is increased by as much as 35 
percent over conventional plants, with a concomitant reduction in 
CO<INF>2</INF> emissions per unit of power produced.
    To date, there has only been limited implementation of these 
technologies. Numerous studies have found that utilities recognize the 
potential advantages of advanced power generation technologies. 
However, they are unwilling to incur costs that adversely affect their 
competitive position, and with any emerging technology there is some 
technical risk associated with a ``first-of-a-kind'' plant. IGCC 
represents a fundamentally new technology, and there is limited 
experience of economics and operation at the commercial scale. As a 
consequence, decisions to build new base-load capacity, and the type of 
technology that will be employed, are being deferred as long as 
possible. The life of existing plants is being extended, and 
comparatively low cost natural gas turbines are being used to meet 
peaking power needs.
    The co-production concept is based upon the principle that coal 
gasification can be a common denominator in the production of electric 
power and the synthesis of chemicals and liquid fuels from coal. The 
ability of the gasifier to accept a range of feeds of varying quality, 
and to generate of a clean synthesis gas, creates the prospect of being 
able to produce a range of high-value chemicals and alternate fuels as 
well as electric power in the same plant. Technical and economic 
advantages can be realized through the development of such an 
integrated, multiplex operation. Available technologies allow 
considerable latitude in selecting the desired end product or range of 
end products. These include: methanol, acetic acid, and acetic 
anhydride; pure hydrogen and CO; a spectrum of fuels and chemicals that 
is attainable through Fischer-Tropsch synthesis; and carbon materials.
    We believe that this concept will facilitate the commercial 
implementation of both IGCC and chemical synthesis, and it is fully 
congruent with the programs and policies of Vision 21.
                  the kentucky pioneer energy project
    As a direct result of our endeavors in the Commonwealth of 
Kentucky, an Independent Power Producer, Global Energy, has decided to 
pursue the construction of a 400MW IGCC power plant, known as the 
Kentucky Pioneer Project. In a landmark agreement that was announced in 
February by the Governor Paul Patton, Global Energy has contracted with 
East Kentucky Power Cooperative (EKPC) for the lease of a site and for 
the sale of electric power. Thus EKPC, an established utility, has 
integrated a flexibly-fueled IGCC plant into its future power 
production planning needs. These developments move the Kentucky Pioneer 
Project from a working concept into the next phase of financing and 
permitting.
    The plant is intended to be the most efficient and environmentally 
advanced coal-based power plant in the United States. The three main 
components of the plant involve fuel preparation, gasification and gas 
clean-up, and power generation. The plant will be fuelled by a mixture 
of coal and municipal solid waste (MSW), although other recyclable 
fuels may also be considered for co-firing with coal. The use of MSW 
further lowers the amount of fossil fuel CO<INF>2</INF> emissions by up 
to 60 percent over that of a conventional coal fired power plant. The 
plant will convert over 1 million tons/year of MSW into clean gas.
    The gasifier was developed by British-Gas/Lurgi (BGL). It is a 
slagging gasifier that is the product of years of intensive development 
effort. Using the same technology, a coal/MSW-fed IGCC plant is in the 
latter stages of development in Scotland, and another is scheduled to 
go online in Germany this summer. The fuel versatility of the gasifier 
allows the production of clean energy while providing a solution to the 
environmental problems caused by the accumulation of solid wastes. The 
emissions from the plant will be close to zero: the gasifier byproduct 
is a hard, high density vitreous material that is inert and has 
attractive properties for different forms of construction.
    An important provision in Global Energy's plans is for the coupling 
of the power plant with a unit to use a slipstream of the synthesis gas 
to co-produce chemicals by Fischer-Tropsch synthesis. The eventual 
integration of Fischer-Tropsch (F-T) synthesis with the Kentucky 
Pioneer Energy Plant will be pursued as a second stage of development. 
In addition to low cost power, co-products would then include high-
value, high-purity chemicals, as well as ultra clean transportation 
fuels.
                              future needs
    The construction of the Kentucky Pioneer Energy Plant represents a 
major step forward in the development of a fully integrated, 
environmentally acceptable, energy-efficient power complex for the next 
millennium as described under Vision 21. It presents a unique 
opportunity to demonstrate the feasibility of the co-production 
approach as an incentive to the extensive commercialization of advanced 
technologies, and to providing solutions to other pressing 
environmental issues.
    At this critical stage, the continued involvement of the DoE and 
the sustainment of the Vision 21 program are pivotal to ensuring that 
this promising beginning translates into the realization of the long 
term goals. While IGCC and Fischer-Tropsch synthesis are proven 
technologies, the integration of these and other processes into 
flexible efficient systems have yet to be achieved. Supporting research 
and development on pertinent issues is essential to provide the 
assurances that the projected environmental and economic benefits that 
are promised by ventures such as the Kentucky Pioneer Plant can be 
brought to fruition.
    In this regard, we request that the Department of Energy's fossil 
fuel budget be strengthened in the areas of coal-based fuel 
preparation, gasifier byproduct management and utilization, synthesis 
gas clean-up, the production of added value materials from coal by 
synthesis gas conversion (specifically Fischer-Tropsch synthesis), and 
the use of heavy coal liquids for carbon materials synthesis in 
relation to the application and integration of these technologies in 
the co-production concept.
                                 ______
                                 
     Prepared Statement of the Energy Committee of the Council on 
         Engineering, American Society of Mechanical Engineers
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the views of the Energy Committee of the Council 
on Engineering, American Society of Mechanical Engineers (ASME 
International) regarding national energy needs, and to offer comments 
on appropriations for Fossil Energy and Energy Conservation programs at 
the Department of Energy.
    The 125,000-member ASME is an international engineering society 
focused on technical, educational, and research issues. The Energy 
Committee consists primarily of members representing eight technical 
divisions whose activities address energy technologies and energy 
resources.
             role of technology in meeting our energy needs
    Increased national and international concerns about the environment 
are placing higher demands on the performance of our energy systems. 
These demands force us to make choices that balance economic growth and 
environmental quality. Investments in science and technology, 
particularly basic research, are essential for enabling our nation to 
meet our needs for inexpensive energy that is produced and consumed in 
an environmentally friendly manner. Such investments stimulate the 
development of innovative technologies, conquer major science and 
technology challenges, and maintain our educational pipeline to ensure 
a supply of human capital to address future energy needs.
                recommendations concerning energy policy
    Energy R&D is one of ASME's three most important topics of concern 
according to a recent survey of our membership on public policy issues. 
Energy Committee members recommend support for an energy policy that:
  --maintains US competitiveness in the international marketplace and 
        preserves jobs in our energy extraction and manufacturing 
        industries;
  --ensures against energy disruptions due to external threats of 
        interrupted supplies or infrastructure failure;
  --provides low cost energy to maintain our economic growth;
  --includes strong programs to improve the efficiency of our 
        electricity generating systems and increase the efficiency of 
        energy use in the buildings, industrial, and transportation 
        sectors;
  --seeks technological solutions to concerns about global climate 
        change and the emission of pollutants associated with energy 
        use; and
  --protects the environment in all phases of the energy cycle from the 
        extraction of fuels to the ultimate disposal of the byproducts.
                     projected use of fossil fuels
    Fossil fuels have been the mainstay of the world's energy supplies 
for the past 150 years. It is well established that carbon dioxide 
concentrations have increased by 30 percent since pre-industrial times 
and that the energy industry contributes 80 percent of the 
anthropogenic emissions of carbon dioxide. Less well established is the 
cause and effect relationship between CO<INF>2</INF> emissions and 
global climate change and also the timing and magnitude of these 
changes with respect to our increased use of fossil fuels.
    Globally, energy use is likely to triple or quadruple in the next 
100 years to meet a growing world population and associated economic 
aspirations. Fossil fuels will provide the bulk of this new energy. 
Even with a 30-fold increase in the use of renewable energy 
technologies by 2050, fossil fuels will dominate the energy supply and 
demand well into the next century.
    ASME issued a general position paper on Technology Implications for 
the U.S. of the Kyoto Protocol Carbon Emission Goals in February 1999. 
Among the paper's conclusions was that the development and deployment 
of a broad suite of conversion and utilization technologies must be 
dramatically accelerated to meet the Kyoto goals. We also concluded 
that a time scale longer than that proposed by the Kyoto Protocol would 
be needed to achieve these goals, even with accelerated programs.
    To mitigate the potential consequences of increased carbon dioxide 
concentrations in the atmosphere, we believe it is prudent to look at 
ways to reduce CO<INF>2</INF> emissions by:
  --improving the efficiency of energy production and utilization;
  --moving to less carbon-intensive fuels; and,
  --capturing or sequestering carbon dioxide emissions
    Any climate change strategy will fail unless longer-term, advanced 
fossil energy technologies are part of the solution. Our fossil fuel 
programs must take a longer-term view, perhaps as far out as 2050. A 
shorter-term focus prohibits the development of effective technologies 
for the long-term use of fossil fuels. The Department of Energy's 
Comprehensive National Energy Strategy must include recognition of the 
inevitable increased use of fossil fuels by our international 
neighbors, such as China and India. We therefore urge your support for 
fossil fuel technologies which we can export internationally, thereby 
ensuring the vitality of our national energy industries while acting as 
responsible global citizens in promoting overall reductions in carbon 
dioxide emissions. We also note that meeting our future energy needs in 
a manner consistent with national and global well-being will require 
development of a broad suite of technologies ranging from renewables to 
nuclear energy, in addition to fossil energy. We advocate fuel 
diversity, both with respect to different types of fossil fuels and 
with respect to other energy generation technologies.
    We also support legislation such as S. 296, which would authorize 
the doubling of federal investments in civilian energy R&D over the 
next 11 years.
                         fossil energy programs
    We are disappointed that the Administration has recommended less 
fossil energy funding research this year compared to last year's 
appropriations. The Administration's budget is also $31 million less 
than recommended by the PCAST study on Federal Energy R& D for the 
Challenges of the 21st Century. ASME's Energy Committee last year 
issued a position paper analyzing the PCAST study, concluding that 
significant funding increases above the PCAST recommendations are 
required for fossil energy R&D.
    Given the current and projected dominance of fossil energy use 
compared to other fuels, small improvements in fossil energy technology 
can yield large environmental and economic benefits. We therefore 
recommend increased funding for the following fossil energy programs in 
excess of the Administration's budget request:
Vision 21
    We urge your continued support for this integrative program that 
makes efficient use of a wide range of fuel feedstocks to produce 
electricity, steam, chemicals, hydrogen, transportation fuels, and 
useful byproducts. With carbon sequestration, these Vision 21 plants 
can have virtually zero discharges, and thus eliminate concerns about 
increased carbon dioxide emissions. We recommend fiscal year 2000 
funding in the range of $50--$100 million for Vision 21 programs, with 
levels approaching $150 million in the out years. Funding for carbon 
sequestration should be increased to $25 million for fiscal year 2000 
with levels of $50 million per year in the out years.
Advanced research
    We also recommend advanced research to develop better materials, to 
develop newer advanced cycles using natural gas, coal, or syngas for 
energy production, and to produce liquid transportation fuels, which 
have fewer emissions.
Clean coal technologies
    We advocate the deployment of Clean Coal Technologies and urge 
consideration for programs which provide incentives for deployment of 
these technologies both nationally and abroad. We recommend investments 
in developing intermediate range turbines to increase the 
competitiveness of US manufacturers in this area.
Fuel cell R&D
    We are particularly disappointed in the Administration's proposed 
reduction in fuel cell R&D. These advanced technologies have the 
potential for providing major new power generation alternatives for the 
US and abroad. We recommend an additional $10 million for fiscal year 
2000.
Methane hydrates and oil R&D
    We recommend that research on methane hydrates be emphasized since 
these vast energy resources could provide a major source of natural 
gas, a less carbon-intensive fuel. We also recommend support for oil 
technology programs to assist our smaller producers to increase their 
production capability, thereby maintaining domestic employment and 
increasing our national energy security through enhanced recovery 
programs.
Climate change initiatives
    We recommend that government-wide initiatives in addressing climate 
change and carbon sequestration be coordinated under the Office of 
Fossil Energy.
                    programs in energy conservation
    Emissions of carbon dioxide are projected to increase in several 
energy sectors in the future, particularly the transportation sector, 
whose emissions are expected to increase nearly 50 percent over the 
next fifty years. At a strategic level, we recommend:
  --continued emphasis on developing more energy efficient 
        transportation vehicles and the increased use of alternative 
        fuels lower in carbon intensity which emit fewer pollutants;
  --research in new materials and vehicle designs to increase fuel 
        efficiency; and
  --continued cooperation of the Office of Transportation Technologies, 
        the Office of Industrial Technologies, and the Office of Fossil 
        Energy in developing new fuels and chemicals.
    We support for the Administration's funding request for the Office 
of Transportation Technologies.
    Energy Conservation R&D funding levels proposed by the 
Administration generally remain below those recommended by PCAST. The 
Energy Committee believes the potential for systemic efficiency 
improvement in the industrial sector is neglected in the DOE's Energy 
Conservation budget request, which proposes only a 3.1 percent increase 
compared to the 25-50 percent increases proposed for the other sectors. 
The Industries of the Future Program offers much promise in developing 
energy efficient processes which are also environmentally friendly. We 
support continued funding for these programs, especially in 
crosscutting areas such as advanced materials, combustion, and reduced 
carbon emissions. We recommend increased funding to a minimum of $180 
million for fiscal year 2000 for programs administered by the Office of 
Industrial Technologies.
    While the Energy Committee believes substantial increases in 
funding are necessary for the buildings sector, we are concerned that 
the proposed increases for building technology may invite expenditures 
that would be more prudently allocated by budget growth over a more 
extended period.
                                 ______
                                 
      Prepared Statement of the National Corn Growers Association
    Mr. Chairman and members of the Subcommittee, the National Corn 
Growers Association representing 30,000 corn growers in 48 states, 
appreciates this opportunity to provide the Subcommittee with our 
recommendations regarding the fiscal year (FY) 2000 Interior 
appropriations bill. Thank you for your leadership in ensuring that 
start-up funding for the agriculture vision, the ``Renewables Vision'', 
was included in the fiscal year 1999 Interior appropriations bill. This 
year, we, strongly, urge you to provide $10 million for the Department 
of Energy's PlanVCrop-Based Renewable Resources Vision 2020 research 
program (Renewables Vision) that is funded under the Industries of the 
Future (Specific) program within the Energy Conservation budget.
    The fiscal year 1999 Interior appropriations bill provided, 
approximately, $2 million to execute research in bio-based renewable 
feedstocks to support the Renewables Vision. The Administration 
includes $4 million for the program in the fiscal year 2000 budget 
request. While we appreciate the Administration's recognition of the 
importance of this program, we believe that $4 million is insufficient 
to accomplish the minimum objectives of the Renewables Vision.
                  background on the renewables vision
    To increase energy efficiency and boost long-term competitiveness, 
the U.S. agricultural, forestry, and chemical communities began 
working, in 1996, with the Office of Industrial Technology (OIT) at the 
Department of Energy (DOE) to develop a long-term, strategic vision 
based on increased utilization of renewable inputs for basic, chemical 
building blocks. In February 1998, the unique, broad-based coalition of 
growers, manufacturers, environmentalists, academicians, and state and 
Federal governmental agencies unveiled a long-term, strategic vision 
called the ``PlanVCrop-based Renewable Resources 2020'' (Renewables 
Vision). The coalition agreed to work towards achieving significant 
increases in the use of crops, trees, and agricultural wastes as 
feedstocks to produce a wide range of everyday consumer goods and 
industrial products.
    The vision is to provide continued economic growth, healthy 
standards of living, and strong national security through the 
development of planVcrop-based (often referred to as ``big-based'') 
renewable resources that are a viable supplement to non-renewable, 
diminishing fossil fuels. The principal goal of the Renewables Vision 
is for renewable big-products to capture 10 percent of the basic 
chemical building blocks market by 2020 and to achieve 50 percent of 
that market by 2050. Gaining 10 percent of the market would represent a 
five-fold increase from today's tiny market share of these basic, 
chemical building blocks. The Renewables Vision envisages supplementing 
petroleum with big-based renewables as sources of material inputs that 
can be used as industrial building blocks to create a wide range of 
consumer products.
    In addition to the principal goal stated above, vision goals 
include:
  --Establishing plant-based (i.e., crop, forestry, and processing) 
        systems with efficient conversion processes that allow an 
        economically viable and environmentally sensitive manufacturing 
        platform for selected products by 2020; and
  --Building collaborative partnerships among industrial stakeholders, 
        growers, producers, academia, and federal and state governments 
        to develop small-to large-scale commercial applications that 
        improve integration along the value-added processing and 
        manufacturing chain.
    Accomplishing these goals will help to cut costs, decrease our 
dependence on oil imports, reduce greenhouse gas emissions, increase 
recycling opportunities, and create world-class industries here at home 
and revitalize our rural economies.
    Due to the volatility in oil prices, the power of unstable oil 
exporting countries affects the price of gasoline and many consumer 
goods, such as plastics, given our ever-increasing reliance on imported 
oil. The U.S., currently, imports more than 50 percent of domestic 
petroleum consumption, and, by 2020, net imports are expected to grow 
to over 65 percent. To ensure sustainable economic growth, the U.S. 
needs a secure, long-term supply of durable, high-performance raw 
material inputs. Both renewable resources and non-renewable basic 
building block resources for industrial production will be needed in 
the future.
    While we have a finite supply of fossil fuels, we have abundant 
planVcrop-based resources, in the U.S., that are renewable over short 
periods of time (e.g., annual and perennial crops). Renewable 
materials, from American-grown crops, trees, and agricultural wastes 
can provide many of the same basic, chemical building blocks as 
petrochemicals, and can provide others that petrochemicals cannot. 
Using historical, average prices for corn and oil, the cost of carbon 
from corn approaches the cost of carbon from oil.
    To achieve the bold vision, we must begin laying the research 
foundation today. If we are to realize, fully, the potential for big-
based resources as a supplement to fossil fuels, we need new routes for 
more efficient processing and utilization as well as a whole range of 
plant-derived building blocks. New technologies require time to develop 
and implement. Now is the time for significant research and development 
on what renewable sources and novel processes might be available, and 
for beginning to develop selection criteria among the possible 
alternatives.
    After the Renewables Vision was unveiled in 1998, work on a 
technology roadmap began. Inputs were gathered from two workshops with 
scientific and marketing experts from a broad range of disciplines. The 
roadmap, published in February 1999, identifies performance goals and 
establishes a focused research and development agenda for developing 
the technologies needed to make the industry vision a reality. The 
technology roadmap identified research needs in four major research 
categories. For each of these categories, the top priority is--
  --Plant Science--understand gene regulation and control of plant 
        metabolic pathways;
  --Production--alter plants to produce components of interest rather 
        than heterogeneous seeds;
  --Processing--develop new separations methods--membranes, 
        distillation, etc.; and
  --Utilization--understand structure function relationships for plant 
        constituents (protein, starch, etc).
    We do not expect all of this research to be funded under the 
Interior appropriations bill. OIT funds will be for projects that 
address its mission of improving energy efficiency and environmental 
performance. Fulfilling the vision of a big-based economy will require 
vast resources from numerous public and private organizations. A 
coordinated, industry-led effort, operating under the auspices of the 
Industries of the Future program will help us achieve the goals of the 
Renewables Vision.
                   status of fiscal year 1999 awards
    The OIT, working with the industry partners, is in the process of 
distributing the fiscal year 1999 funds through a competitive 
solicitation. Industry executives have created an executive steering 
group to help guide the process and review potential areas of research. 
A request for proposals was issued in early February 1999. The deadline 
for submitting proposals is April 23, 1999.
    For fiscal year 1999, the focus will be on a few, selected 
priorities in the processing and utilization categories identified in 
the Technology Roadmap. All proposals must be ``multi-institutional'' 
(i.e., at least two organizations must be involved in the proposed 
research) and a 50 percent cost-share is required. It is anticipated 
that the DOE will award 3 to 6 cooperative agreements with total 
funding per project ranging between $200,000 to $600,000 per year for a 
two or three year period.
                               conclusion
    Increased population, coupled with rising demands for consumer 
products and finite fossil fuels, will require us to increase, 
substantially, the amount of bio-based feedstocks for industrial 
production if we are to meet these needs and demands. At the same time, 
we must decrease our reliance on unstable foreign oil supplies. We are 
at a unique place in history in that the tools are beginning to be 
available that will revolutionize the American and global economies and 
ensure that future demand is met with the increasing use of renewable 
resources as basic, chemical building blocks. Today, the 21St Century 
is referred to often as the ``Biology Century'' because genomics (i.e., 
the science of identifying the location and function of genes), coupled 
with biotechnology, is ushering in a new age of innovation in plant-
based technologies that will revolutionize the American and world 
economies. We will be able to meet the challenges of the 21St century 
much sooner if we focus our efforts towards the ambitious Renewables 
Vision and act now to fund much needed research.
    Multi-disciplinary research, along several different pathways, will 
be necessary to improve the performance of plant resources as raw 
materials. For the long-term success of the program, it is critical 
that research in the broad, major research categories, identified in 
the roadmap, be coordinated and integrated to ensure that progress is 
made on all fronts. With a significant increase in appropriations for 
the OIT Renewables Vision, funding could be provided for projects that 
address the highest priorities in each of the four major research 
categories listed in the roadmap, not just in plant utilization and 
processing. Support could begin for projects that show clear linkages 
across all of the major research categories in the roadmap.
    We, strongly, urge you to provide a minimum of $10 million for 
fiscal year 2000 for OIT to implement, more fully, the technology 
roadmap. The agriculture team at OIT has a unique research and 
development focus and a decision-making process that relies heavily on 
funding high priority research targets developed by industry partners. 
This funding will help to ensure that we can meet the ever-increasing 
world demand for basic, chemical building blocks by using plant and 
crop-based feedstocks. We look forward to working with you as we lay 
the foundation for renewable chemical building blocks.
                                 ______
                                 
 Prepared Statement of Conn Abnee, Executive Director, Geothermal Heat 
                            Pump Consortium
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present my testimony to you today. My name is Conn Abnee 
and I am the executive director of the Geothermal Heat Pump Consortium 
(GHPC). The Geothermal Heat Pump Consortium is a non-profit, public-
private partnership between the Department of Energy, electric 
utilities serving over one-half the residential meters in the United 
States, geothermal heat pump manufacturers, energy service companies, 
drillers and mechanical contracto rs. Well over 800 organizations are 
part of this effort, which is a central feature of the Administration's 
Climate Challenge Program.
    Under Climate Challenge, DOE and the private partners, pledged to 
move forward on a comprehensive program to dramatically boost consumer 
acceptance and installations of geothermal heat pumps in recognition of 
the tremendous energy savings to consumers and environmental benefits 
through reductions in greenhouse gas emissions. The private partners 
agreed to match DOE contributions on a two for one basis.
    To date, GHPC's program under its grant from DOE has focused on 
numerous activities designed to strengthen the industry=s 
infrastructure and jumpstart the technology into the marketplace. We've 
supported short-term R&D to generate better information about the 
benefits of geothermal heat pumps and to ensure more successful and 
cost-effective applications. For example, research on products used in 
the installation process resulted in an enhanced product that will lead 
to more cost-effective installations. We've co-funded market 
mobilization demonstration programs to help utilities and their 
subsidiary energy service companies learn how to deploy the technology 
during a period of rapid electric industry restructuring. Over 30 
projects have been successfully implemented throughout the United 
States. We've supported a training and technology transfer program to 
ensure a growing infrastructure of trained designers and installers. In 
1997, GHPC established six centers that have already trained over 1,000 
technicians. We also implemented a design assistance program to help 
customers, particularly schools and owners of commercial facilities, 
understand that geothermal heat pump systems are the most cost-
effective pollution prevention technology for their facilities. To 
date, over 80 percent of the projects that have chosen a heating and 
cooling system will use GeoExchange technology. Through these 
approaches, GHPC has played a lead role in increasing market deployment 
of geothermal heat pump technology.
          geothermal heat pumps: a unique renewable technology
    Geothermal heat pump technology, also known as GeoExchange, is a 
renewable technology that uses the Earth as a source and sink for 
energy to heat and cool buildings, and to heat water. GeoExchange 
systems do this through the use of direct connections to the ground or 
surface waters--usually closed water/antifreeze loops that transfer 
heat back and forth between the ground and a building without depleting 
or affecting groundwater resources. The loops consist of polyethylene 
piping, which are laid out in shallow vertical wells, horizontal 
trenches, or in ponds. GeoExchange systems can operate in virtually all 
climates and soils--tapping a resource that is right under our feet in 
our own backyards and parking lots.
    There are over 400,000 GeoExchange installations in North America 
to date. GeoExchange systems are used in homes and commercial 
applications, bringing economic benefits to businesses ranging from 
hotels and resorts, to large and small office buildings, to schools, 
and to restaurants and convenience stores.
    The GHPC and the DOE are beginning a new phase of the partnership 
with many of the fundamental building blocks necessary for market 
acceptance of this new technology being established and fundamental R&D 
having been completed. Over the last three years, the GeoExchange 
industry has shown remarkable growth, largely due to the programs put 
in place by the Consortium. Though GeoExchange technology represents 
less than one percent of the overall heating and cooling market, 
installations have increased by 20 percent in each of the three years. 
Through that success, the focus of DOE and the Consortium is shifting 
toward a more market segment specific program.
                          energy smart schools
    The Consortium's focused approach would target specific market 
segments in the commercial sector that can lead to continued growth in 
the industry and increased economic, energy and environmental benefits 
for the nation. Last fall, the Secretary of Energy announced the Energy 
Smart Schools program, an initiative to reduce school energy costs and 
redirect savings towards children's education. There is no heating and 
cooling technology in the market today that can demonstrate such 
significant energy cost savings and other benefits than GeoExchange. 
Even before this initiative was announced, the Consortium had been 
focused on working with school systems to show them how energy costs 
can be reduced with this technology. We have had remarkable success in 
gaining school system acceptance of our technology. There are now more 
than 500 school installations across the country using GeoExchange.
    We believe that the Energy Smart Schools program can have true 
success at achieving dramatic reductions in energy costs. Schools using 
GeoExchange are realizing savings of 25-40 percent annually on their 
heating and cooling bills. At Kittitas Middle School in Kittitas, 
Washington their GeoExchange system has led to a significant reduction 
in energy consumption and maintenance costs. In addition, the school is 
able to maintain constant temperatures in both the classrooms and the 
gymnasium, creating a pleasant environment for both staff and students. 
And the science and administration buildings at Whitman College in 
Walla, Walla both use GeoExchange systems.
    While we do not believe we are the only solution to reducing school 
energy costs, we do believe that the Consortium is ideally qualified to 
play a major role in the Energy Smart Schools program. Working with DOE 
to advance the Energy Smart Schools initiative is the logical outgrowth 
of our work over the past three years. But to be successful, it will 
require a well constructed, concentrated program with dedicated 
funding. To accomplish those goals, we are seeking an appropriation of 
$6.5 million in energy conservation building technology funds.
    With those funds, we will be able to build on our existing 
infrastructure and conduct a more comprehensive program to boost 
acceptance of this new technology and to increase installations in the 
commercial market, and especially the school market by conducting the 
following activities:
  --Market education
  --Strategic outreach to commercial customers, such as school 
        superintendents and school board officials
  --Design assistance and feasibility analysis
  --Training for engineers and architects
  --Design conferences and workshops with DOE
  --Business planning assistance for utilities and energy service 
        companies to promote GeoExchange without expensive rebates or 
        other subsidies.
    You may be interested to know that there is alot of GeoExchange 
activity in Washington. Other facilities that are saving significantly 
on their energy bills are the county jail and the Tower building in 
Yakima, Grant County Courthouse in Ephrata, the city hall in North 
Bonneville, the City Light building in Tacoma, and Prairie Electric's 
office building in Vancouver. In addition, there are numerous 
installation companies in the state that have increased their bottom 
line by incorporating GeoExchange technology into their business.
    Mr. Chairman, at the Consortium, we have gained valuable experience 
and demonstrated real success at moving toward the Administration's 
goals of dramatic reductions in greenhouse gas emissions. We look 
forward to helping school systems improve classroom comfort, make 
significant reductions in their utility costs related to heating and 
cooling and enabling them to redirect their investments into books and 
computers. Thank you for considering our request. We hope you will 
direct DOE's support for phase 2 of our program.
                                 ______
                                 
        Prepared Statement of the Council for Chemical Research
                                 issue
    The mission of the U.S. Department of Energy's Office of Industrial 
Technologies (OIT) is to help U.S. industries realize substantial 
improvements in energy efficiency, waste reduction, and productivity. 
OIT acts as a leading federal interface for the Nation's major process 
industries (chemicals, agriculture, aluminum, mining, forest products, 
steel, metal casting, glass, and petroleum refining). Focused by key 
technology roadmaps, OIT funds high-risk, cost-shared, industry-driven 
cooperative R&D through the partnerships of the ``Industries of the 
Future'' program. The leveraging of resources represented by this 
program is an important element to ensure the competitiveness of these 
industries in global markets.
                                position
    The Council for Chemical Research (CCR) believes that the full 
potential of the ``Industries of the Future'' program can be realized 
through appropriate funding levels deployed in ways that recognize the 
different nature of all the industries involved. In all cases, 
substantial leverage is obtained by catalyzing productive interactions 
between industrial, academic, and government laboratories. Leveraging 
may be accomplished by the development of technology roadmaps, 
investment in pre-competitive and crosscutting technologies, and the 
development and demonstration of advanced technologies beyond the 
normal risk profile of industrial companies themselves.
    CCR reaffirms its conviction that improved industrial technologies 
are critical to the Nation's future, that R&D aimed at long-term goals 
is essential, and that the chemical sciences and engineering play a key 
role in a broad range of new technologies for the Nation's major 
process industries. As a high-leverage contribution to these goals, the 
Council for Chemical Research fully supports the Administration's 
fiscal year 2000 request of $171 million for the Office of Industrial 
Technologies.
    Because of the complexity, size, and diversity of the chemical 
industry (more than 7,300 companies in SIC Code 28), CCR believes that 
additional and continuing activities to develop and renew the research 
agenda of Vision 2020 should be funded within the fiscal year 2000 
request. Specific research programs should be funded in areas where 
technology roadmaps have been developed, including polymers and other 
materials, catalysis, separations, bioprocessing, computational 
techniques, and advanced measurement and control.
                               rationale
    Industry uses more than a third of the energy delivered in the U.S. 
and spends tens of billions of dollars annually for pollution abatement 
and control. Seven industries account for 82 percent of the energy used 
in manufacturing: pulp and paper; steel; aluminum; metal casting; 
chemicals; petroleum refining; and stone, clay and glass. These 
industries also account for more than 80 percent of the air emissions 
and 90 percent of the waste produced by U.S. manufacturing. The Office 
of Industrial Technologies focuses on developing innovative 
technologies to assist major industry sectors in becoming more resource 
efficient and, by that, more productive and competitive, and less 
polluting.
    Despite its modest funding, the ``Industries of the Future'' 
framework plays a key role and exerts high leverage for the development 
of needed technologies. OIT's initiatives bring different perspectives 
together on the appropriate research agenda, stimulate collaborative 
programs, and help develop and demonstrate innovative technologies 
beyond the risk tolerance and horizons of the chemical industry today, 
but needed for Vision 2020. At the same time, ownership of the fully 
developed technologies will reside appropriately in the private sector, 
which will make the necessary investment when it is economically 
attractive.
                                 ______
                                 
 Prepared Statement of the Electric Vehicle Association of the Americas
                       introduction and overview
    This testimony is presented on behalf of the Electric Vehicle 
Association of the Americas (EVAA), a national non-profit organization 
of electric utilities, automobile manufacturers, state and local 
governments and other entities that have joined together to advocate 
greater use of electricity as a transportation fuel. Recently, the EVAA 
consolidated with the Electric Transportation Coalition (ETC), and our 
new organization, headquartered in Washington, D.C., is now the single, 
united voice for the use of electricity in the transportation sector. A 
membership list of the newly combined EVAA and ETC is attached.
    A principal activity of the EVAA is to encourage the adoption of 
incentive-based policies and programs to support the development of a 
widespread and sustainable market for electric modes of transportation 
for use in on-road and off-road applications. Electric vehicles (EVs) 
provide significant environmental, energy security and energy 
efficiency benefits. For example, EVs offer significant reductions in 
VOCs and NO<INF>X</INF>, the major precursors to ozone. In addition, 
widespread use of energy efficient EVs would help to reduce 
transportation-related greenhouse gas emissions. Finally, EVs can be 
domestically produced from a wide variety of fuel feedstocks. This 
domestic orientation offers an important energy security advantage at a 
time when the U.S. is importing more than one-half the oil it consumes.
    After many years of research and development, all of the world's 
major automobile manufacturers, as well as several independent small 
businesses, have EVs available to the marketplace. Not surprisingly, 
these vehicles are expensive. Until greater volumes are achieved, the 
price of EVs is likely to remain high. The EVAA urges the Congress to 
assist industry by helping to reduce the cost to the early purchasers 
of EVs. By increasing the number of vehicles sold or used, the price of 
these emissions-free modes of transportation will decrease. In addition 
to federal government assistance to Agrow the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1209111e190e0f3c">[email&#160;protected]</a> of EVs on the 
road, the EVAA also supports current DOE programs that will result in 
the testing and demonstration of products, the improvement of 
components for EVs, particularly batteries, and the cost reductions 
attained by these R&D activities.
    More specifically, the EVAA believes the role of the federal 
government is essentially four-fold: to continue to participate with 
industry in efforts to advance electric transportation technologies 
through programs like the United States Advanced Battery Consortium 
(USABC); to join industry in the test and evaluation of the latest EV 
technologies through programs like the Department of Energy (DOE) Field 
Test and Evaluation Program; to work with communities and industry to 
facilitate deployment of the infrastructure required to support the 
convenient and safe operation of EV; and, to use the purchasing power 
of the federal government to initiate the market for EVs by acquiring 
commercially-available products for federal agency fleets.
    The EVAA urges the Subcommittee to provide funding to a number of 
DOE programs essential to the development of EVs. The partnership of 
the federal government will help industry successfully introduce clean 
transportation technologies to the market, and will further the 
national policy objective of increasing clean, domestic and alternative 
fuel use.
                     industry goals and objectives
    Four years ago, the ETC adopted a strategic business plan to assure 
the successful commercial launch of electric vehicles. The ``EV Ready 
Market Launch Framework'' calls for the building of a partnership among 
the automobile industry, the electric utility industry, the federal 
government, and several key communities around the U.S. to establish 
the basis for a long-term and sustainable market for EVs. The goal of 
the plan is to demonstrate the viability of EVs through the successful 
deployment of up to 5000 EVs in eleven urban areas. To achieve this 
goal, the Framework focuses on insuring the purchase and placement of 
vehicles and preparing the infrastructure systems in eleven target 
communities to support EVs. Under the plan, ``infrastructure'' is 
defined to encompass not only charging systems, but also financial and 
non-financial incentives, training, code and standard modifications, 
and public awareness. The six principal elements of the Framework are:
  --Initiation of a commercial demonstration of up to 5000 electric 
        vehicles in up to eleven urban jurisdictions;
  --Government (federal, state and local) purchase agreed-upon number 
        of vehicles in each urban area;
  --Utilities in selected areas purchase agreed-upon number of vehicles 
        and secure investment of up to $2,000 per vehicle for charging 
        infrastructure;
  --Vehicle manufacturers make available, and support the sale of, 
        electric vehicles;
  --Seek to ensure that one-half of the vehicles placed into the eleven 
        urban areas are equipped with advanced batteries and/or other 
        enabling technologies; and,
  --Seek a $10,000 per vehicle government incentive for EV purchases.
          role of doe in meeting industry goals and objectives
    A number of the on-going DOE EV-related programs are providing 
critical support to the success of this efficient and clean 
transportation technology. These DOE programs complement and augment 
other work that is being undertaken by industry separately or in 
partnership with other federal agencies. If fiscal year 2000 
appropriations for these DOE programs are significantly reduced or 
eliminated, the requirements for funding would fall to other parties 
who may not be able to increase investments even further in order to 
move this technology into the marketplace. The important DOE programs 
supporting EV development include the following:
             the united states advanced battery consortium
    The Coalition supports funding for the USABC at the $11 million 
level requested by the Administration. The USABC is a battery research 
and development program critical to the advancement of EVs. Full-size 
battery packs and their components, such as cells and modules, are 
being developed through research contracts and then tested by the 
developers, U.S. automobile companies, and national laboratories. 
Battery packs also have been installed in prototype EVs being operated 
at electric utilities and testing facilities of U.S. automobile 
companies. It is important to note that without the limited federal 
assistance already invested, the advancements in battery technology 
accomplished to date through the USABC probably would not have been 
achieved. Individually, companies cannot, or are unwilling to, make the 
significant investment required to conduct advanced battery research. 
Largely as a result of the USABC partnership, all of the major 
automobile manufacturers have announced that nickel metal-hydride 
batteries will be offered in 1999 EV models.
    An increase in FY2000 funding for the Electric Vehicle R&D program 
will fund research, development and validation testing of lithium-based 
batteries and initiate a third phase development with the USABC. An 
important goal for the Electric Vehicle R&D program in FY2000 is to 
complete extended testing of USABC long-term, lithium-polymer batteries 
to determine battery life and safety under accident conditions.
     funding for the hybrid propulsion systems development program
    The EVAA supports the efforts of industry and the federal 
government to develop affordable hybrid vehicles with high fuel economy 
and ultra-low emissions. DOE's Hybrid Systems R&D fiscal year 2000 
goals include testing to meet high power energy storage requirements, 
demonstration of improvements in fuel efficiency, and reductions in 
particulate and oxides of nitrogen emissions. The long-term goal of the 
hybrid propulsion systems development program continues to be 
development of a production prototype hybrid electric vehicle that will 
meet the PNGV goal of 80 miles per gallon in 2004.
       funding for the vehicle field test and evaluation program
    The Electric Vehicle Association of the Americas adopted specific, 
targeted goals in 1998 to assure adequate penetration of EVs in key 
target markets throughout the United States. One key sector targeted 
for EV acquisitions is federal agency fleets. The U.S. Department of 
Energy, through the Secretary of Energy Federico Pena, committed to 
facilitate the purchase and use of up to 500 EVs in these federal 
fleets. With assistance from EVAA and the Edison Electric Institute, 
the DOE has initiated a Federal Electric Vehicle Acquisition (FEVA) 
Program as a means to assure that the federal government reaches its 
commitment to acquire 500 EVs. The FEVA Program is targeted to the 
placement of EVs in federal agency fleets operating in key Market 
Launch communities. To achieve this end, electric utilities have 
stepped forward to ``manage'' EVs that have been acquired by the DOE. 
Each participating utility is managing up to 5 EVs that are being 
placed into the fleets of participating government agencies. In 1998, 
awards were issued to six electric utilities that are participating in 
the program: the Potomac Electric Power Company, Southern California 
Edison, San Diego Gas and Electric Company, Virginia Power, Georgia 
Power, and Boston Edison. The electric utilities in these areas are 
providing the service and supporting infrastructure for the vehicles. 
Some of the Vehicle Field Test and Evaluation Program monies are used 
to fund the costs associated with the lease or purchase of the EVs used 
in the program, or to fund the administrative costs associated with 
each electric utility's program. The vehicles are managed by the local 
utility and are loaned B free of charge B to interested federal 
agencies. Once those federal agencies use the vehicles they are then 
encouraged to place orders to acquire their own EVs. The Department of 
Energy will assist those federal agencies by supporting the difference 
in costs to the agency associated with the EV.
    The FEVA Program is bringing results. For example, 20 federal 
agencies in Washington, D.C. have been loaned Ford Electric Rangers, 
including the Departments of Energy and the Interior, the Environmental 
Protection Agency, the Smithsonian, the Architect of the Capitol. As a 
direct result of the FEVA program, federal agencies in the Washington, 
D.C. area are procuring EVs for use in their fleets.
    Importantly, the Vehicle Field Test and Evaluation Program also 
provides funding to federal agencies to cover the incremental cost for 
purchase or lease of an electric vehicle. As of this writing, federal 
agencies throughout the U.S. have requested funding from the Department 
of Energy to cover the incremental cost of approximately 150 EVs that 
the agencies are seeking to place in their fleets. While these orders 
are encouraging, much more should be done. Indeed, federal law (Public 
Law 102-486) requires federal fleets to transition to alternative fuels 
and these fleet conversions have been far short of statutory 
requirements. Department of Energy must be encouraged to do more.
    With 500 EVs as the target, the EVAA urges the Congress to insure 
that the Vehicle Field Test and Evaluation Program has sufficient 
funding to accomplish the following:
  --adequate financial resources to support federal agency requests to 
        provide funding to cover the incremental cost differences for 
        as many as 350 EVs purchased or leased by these federal 
        agencies, with contracts for these vehicles to be made before 
        the end of this calendar year;
  --appropriations to support up to 5 additional Market Launch 
        communities to participate in the on-going FEVA program, which 
        includes the acquisition of up to 30 EVs for use by the 
        participating utilities, as well as support of those utilities 
        for the costs incurred in administering the program; and,
  --appropriations adequate to support the efforts of the U.S. Postal 
        Service as more fully described below.
    Earlier this year, the United States Postal Service (USPS) issued a 
solicitation for 500 electric powered carrier route vehicles in 1999, 
with options for another 5,500 additional vehicles. The contract for 
the first 500 EVs is valued at approximately $17 million, or $34,000 
per unit. The USPS represents an important guaranteed market for EVs 
and the Department of Energy should be encouraged to provide adequate 
funding to cover the incremental costs for these vehicles.
    The Administration's fiscal year 2000 budget request includes $4 
million for the Vehicle Field Test and Evaluation Program. The key to 
successful deployment of this new technology is now widespread use. The 
greater the number of vehicles, or use of EV components, the more 
likely we will be able to reduce costs and increase consumer 
confidence. Therefore, EVAA requests an increase of $2.5 million to the 
Vehicle Field Test and Evaluation Program to fund the incremental costs 
of EV acquisitions like those planned by the United States Postal 
Service. Further, DOE should consider supporting large scale 
demonstrations of electric bikes and scooters in municipal government 
operations (e.g., police departments.) Not only will this improve air 
quality, and increase exposure of the technology to potential new 
customers, these types of programs assist in bringing down the cost of 
batteries--a major barrier to the successful commercial launch of 
electric modes of transportation. Whereas the Vehicle Field Test and 
Evaluation Program is slated to fund a variety of EV-related activities 
at the Department of Energy, EVAA believes the funds could be best 
utilized by meeting the goals and commitments that industry and 
government agreed to under the EV Market Launch Framework (i.e., the 
placement of a significant number of electric vehicles in the federal 
fleet.)
    Further, to expedite the acquisition of EVs by federal agencies, 
innovative leasing arrangements should be encouraged. For example, EVAA 
applauds General Services Administration (GSA) efforts to provide a 
``pass through'' lease program with the federal agencies. Through this 
program, GSA signs a lease with the participating automobile 
manufacturer, and the federal agency interested in leasing an EV then 
signs a lease with GSA. This allows the federal agencies to continue 
their relationship with GSA, an agency the federal agencies have worked 
with for many years.
            other department of energy programs of interest
    In addition to the programs outlined above, the Association also 
supports funding to a number of other AFV programs administered by the 
DOE.
    To assure that the marketplace is prepared and receptive to new 
forms of transportation like EVs, the Association encourages full 
funding, at the levels requested by the Administration, of DOE's 
programs designed to create an infrastructure for alternative fuel 
vehicles, including EVs, and to build public awareness and confidence 
in these new modes of transportation. These funds include $10.7 million 
for the Clean Cities program to support the demonstration of 
alternative fuel and advanced vehicle technologies and $2 million for 
the EPACT Replacement Fuels Program to track and improve compliance 
with EPACT alternative fuel vehicle programs. Further, EVAA supports 
the $41.4 million in funding being requested by the Administration for 
continuation of research and development on fuel cell technologies that 
can be incorporated into advanced transportation technologies. These 
various activities by DOE encourage investment by industry and help to 
build market acceptance for alternative fuel vehicles.
                               conclusion
    Recent highly publicized examples of successful AFV models have 
highlighted the possibilities associated with these DOE programs. While 
these recent successes demonstrate the progress being made with regard 
to AFV technologies, now is the critical time to use partnerships with 
the federal government to develop markets for these products and reduce 
the costs associated with these cutting edge technologies. The DOE 
programs mentioned in this testimony are essential to bringing 
affordable EVs to the public, and the EVAA strongly urges the 
Subcommittee's support.
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
                              introduction
    The Business Council for Sustainable Energy (BCSE) is pleased to 
offer its views on the role of government in support of energy 
research, development, and deployment (RD&D) as it relates to energy 
efficiency programs at the U.S. Department of Energy (DOE). The BCSE is 
a diverse group of companies and industry trade associations; our 
members include manufacturers, energy producers, suppliers, 
distributors, and energy service companies. The Council supports energy 
policies and programs that enhance the nation's economic, 
environmental, and national security goals through the rapid 
development and deployment of clean and efficient energy technologies.
    The Council supports the Administration's fiscal year 2000 request 
for energy efficiency programs. The BCSE believes that the least 
intrusive and most efficient means of addressing environmental 
challenges is to promote cost-shared government-industry partnerships 
to develop clean energy technological solutions. Expanded reliance on 
natural gas, energy efficiency, and renewable energy are the three 
pillars of a more secure and sustainable energy strategy that will help 
strengthen the U.S. economy and clean up the environment.
    The federal government's energy efficiency programs are as diverse 
as the activities that consume energy. Given their breadth, the BCSE 
will not attempt to address all of DOE's energy efficiency programs. 
Rather, we would like to focus on several programs that the BCSE 
believes illustrate the value of the federal government's energy 
efficiency effort.
                   gas turbine & engine technologies
    Microturbines are small (25 to 300 kilowatt) gas turbines derived 
from automotive and truck turbochargers, auxiliary power units for 
aircraft or tanks, and small jet engines. They are designed for 
distributed generation, combined heat, and power (CHP) and mechanical 
drive prime mover applications. Improvements in materials, ceramic 
components, and aerodynamic design can potentially increase efficiency 
to 35 to 45 percent. This is more efficient than power generated at a 
distant, central-station power plant which suffers losses as it is 
delivered through the electric transmission and distribution grid. By 
recovering exhaust heat, energy consumers can utilize microturbines in 
a CHP application and raise total fuel utilization efficiency to 
greater than 75 percent.
    Microturbines today can contribute to reducing emissions 
(NO<INF>X</INF> and CO<INF>2</INF>) associated with electric power 
generation. When fueled by natural gas from our domestic resource base, 
they currently emit NO<INF>X</INF> at 9 to 40 ppm, which is an 
improvement over the existing U.S. generation fleet. Emissions 
reductions technologies, such as catalytic combustion, offer the 
potential of near zero emissions levels. To achieve the environmental, 
efficiency, and cost-reduction goals of the program, the BCSE 
specifically seeks $2.5 million above DOE's current request of $2.5 
million for microturbine engine development research.
    Advanced reciprocating engine systems (ARES) are the leading 
customer choice for distributed generation and CHP applications in the 
300 to 3000 kilowatt size range and provide significant advances in 
efficient use of natural gas resources while minimizing environmental 
impact levels. This will result in annual NO<INF>X</INF> emissions 
reductions of 40,000 to 60,000 tons per year and CO<INF>2</INF> 
emissions reductions of 7.6 to 11.5 million tons. Estimated annual 
savings in unburned natural gas (from improved efficiency) are 
approximately 110 to170 billion cubic feet, which equals the annual 
energy consumption of approximately 1.4 million homes.
    The ARES program will position domestic natural gas engine 
manufacturers to compete effectively against foreign engine producers 
looking to enter the U.S. market as well as further promote and expand 
export markets for high-technology. The BCSE seeks $2 million for this 
research. DOE has not requested funding for this program.
                       alternative fuel vehicles
    Transportation is the fastest growing energy consuming sector. In 
1998, DOE reported that approximately two-thirds of all U.S. petroleum 
consumption was directly attributable to the transportation sector. The 
recent popularity of low fuel economy sport utility vehicles, pickup 
trucks, and vans used for personal transportation, coupled with an 
expanding economy, low fuel prices, increasing numbers of drivers, and 
increasing miles traveled by each vehicle continues to raise the 
nation's overall fuel consumption. Spurred by this increase in demand, 
total domestic petroleum use is expected to increase from approximately 
35 quadrillion btu in 1997 to approximately 48 quadrillion btu in 2020. 
Alternative fuel vehicles (AFVs)--including natural gas and electric 
vehicles--promise to reduce U.S. reliance on imported oil while 
virtually eliminating emissions of criteria air pollutants. The 
Administration has been very active in promoting its Partnership for a 
New Generation of Vehicles (PNGV).
                               batteries
    Advanced batteries are critical to the success of electric vehicles 
(EVs) and other alternative fueled vehicles. DOE has conducted 
research, in cooperation with the U.S. Advanced Battery Consortium that 
has led to significant improvements in battery performance for EVs. One 
of its singular accomplishments was the Ovonic Nickel-Metal Hydride 
(NiMH) electric vehicle battery developed by Ovonic Battery Co., a 
subsidiary of Council member Energy Conversion Devices. The Ovonic EV 
battery has met or exceeded the mid-term performance goals set by the 
Consortium, affirming the future market viability of EV technologies. 
Numerous cars powered by the batteries have far exceeded 200 miles in 
range in on-the-road test drives. The absence of highly toxic battery 
materials is another advantage of this technology. High volume 
production coupled with additional improvements in battery technology 
will enable the batteries to further improve performance as well as 
reach the Consortium cost goals.
    Notwithstanding the success of the NiMH EV battery program, DOE is 
focusing its battery research exclusively on lithium based battery 
technologies. We believe this to be a mistake. NiMH batteries have been 
developed which demonstrate excellent properties for hybrid electric 
vehicles. Yet another application of NiMH batteries is for high 
performance starting, lighting, and ignition (SLI) batteries. Increased 
use of power electronics coupled with the need to reduce vehicle weight 
and increase fuel efficiencies in conventional vehicles is creating 
demand for a low weight higher performing SLI battery. NiMH battery 
technology shows great promise in this application. Accordingly, the 
Council recommends that the battery R&D program be expanded to build 
upon the successful NiMH EV battery development program by including 
advanced research for NiMH batteries for EV and other vehicle 
applications.
                          natural gas vehicles
    Natural gas vehicles (NGVs) are certified to be up to 99 percent 
cleaner than traditionally fueled vehicles and can reduce emissions of 
carbon monoxide (CO) by 70 percent, non-methane organic gas by 89 
percent, nitrogen oxides (NO<INF>X</INF>) by 87 percent, and can 
produce 20 percent fewer greenhouse gases than traditionally fueled 
vehicles. In 1992, no original equipment manufacturers offered NGVs for 
sale and few NGV fueling stations were available. Today, over 50 NGV 
models are available and there are over 1300 NGV fueling stations open 
nationwide. Despite this impressive growth, the actual number of NGVs 
on the road is less than one-half of one percent of all registered 
vehicles. Additional research is required to reduce the initial cost of 
NGVs, which will encourage their widespread acceptance by the general 
public.
    While DOE has submitted substantial requests for the Partnership 
for a New Generation of Vehicles program over the past several years, 
the agency has continued to depart from its commitment to a joint five-
year research plan, developed in response to this Subcommittee's 
request in fiscal year 1997. Accordingly, the BCSE seeks to restore 
funding levels for priorities identified by the industry and DOE's 
five-year plan. DOE requested no funds for the light-duty vehicle 
portion of the plan. $2 million is needed for this program. The plan 
requested $11.1 million for medium and heavy-duty vehicle research, but 
the agency has requested only $8.9 million. The Council requests an 
additional $2.2 million for the program in fiscal year 2000.
                         fuel cell technologies
    Ballard Generation Systems, a BCSE member, will begin field trials 
on a 250 kilowatt natural gas Proton Exchange Membrane (PEM) at 
selected sites in the U.S. and internationally in 1999 and 2000. More 
fuel cell power plants of various power sizes will be available in the 
future to fill diverse power generation requirements. High-temperature, 
natural gas fuel cell systems that are presently under development may 
ultimately be able to achieve a 60 percent fuel-to-electricity 
conversion efficiency. This is extremely favorable compared with the 
average of 35 percent fuel-to-electric efficiency for the mix of 
generating equipment currently used to supply the nation's electricity.
    Another key to the successful commercialization of the PEM fuel 
cell vehicle will be the availability of a safe on-board hydrogen 
storage device. Energy Conversion Devices has been developing metal 
hydride alloys to provide a safe solid-state means of on-board storage 
of hydrogen in PEM fuel cell vehicles. Currently, DOE's support for on-
board storage devices for the PEM fuel cell is negligible. Given the 
importance of this component of the fuel cell system, we would urge 
greater funding levels for metal hydride storage systems for PEM fuel 
cell vehicles. These devices would also be the safest means of storing 
hydrogen in hydrogen powered internal combustion engine or hybrid 
vehicles as well as for use in fuel cells for stationary applications 
and or portable power.
    Further development of all fuel cell types must focus on refining 
system designs to reduce costs, improve performance, and minimize 
maintenance requirements while developing the manufacturing technology 
needed to achieve market pricing. In order for PEM fuel cell power 
plants to achieve full commercial status, the aforementioned challenges 
will need to be overcome. The lessons learned will make U.S. technology 
more competitive in the global marketplace.
    The Council supports the Office of Energy Efficiency and Renewable 
Energy's fiscal year 2000 request for PEM fuel cells and the Office of 
Fossil Energy's work on Molten Carbonate fuel cells (MCFC) and Solid 
Oxide fuel cells (SOFC). However, the BCSE opposes DOE's proposal to 
shift $4.95 million from the two MCFC teams and the SOFC program and 
move these funds to its new ``Vision 21'' Internal Gasification 
Combined Cycle (IGCC) program. Similarly, $5.1 million which the 
Department proposes to shift to ``Vision 21'' support activities within 
the Fuel Cell Development Program should be restored to the three 
principal contracts. Without separate funds, the MCFC and SOFC programs 
will, in DOE's own words, be ``stretched out.'' Additionally, the core 
fuel cell research underway is fundamental to any new applications in 
these technologies. Initiating new ``Vision 21'' fuel cell 
applications, while diminishing support for core fuel cell research, 
would appear to be imprudent. Consequently, the Council would like to 
see the funding returned to the original programs so that existing 
schedules can be honored and fundamental research can continue.
                  heat pumps, gas cooling & appliances
    Natural gas cooling technologies are especially energy efficient 
when measured on a life-cycle and/or full-cycle basis. The societal 
benefits of natural gas cooling accrue during the hours of the day and 
months of the year that correspond to the peak demand for electricity. 
The GAX heat pump, based on a generator-absorber heat exchange (GAX) 
cycle, is envisioned as the residential space conditioning technology 
of the future due to its energy efficiency (as much as a 40 percent 
improvement over existing technologies) and low maintenance costs. DOE 
is working with industry to develop commercially feasible GAX heat 
pumps, and a complete prototype was put into full operation at Oak 
Ridge National Laboratory in 1998. By investing in advanced gas cooling 
technologies, U.S. industries will be able to capture the growing 
domestic and global market for clean, efficient technologies. The BCSE 
supports these programs and places great emphasis on robust research 
for the GAX and large commercial chiller programs and systems 
integration of heating, ventilation, and air conditioning.
    The Council supports DOE's research and training programs on 
desiccant dehumidification devices. Desiccants offer the option of 
decoupling temperature from humidity loads on a building, thus applying 
exactly the amount of energy needed to satisfy each load independently. 
DOE is participating in the improvement of this potential new market by 
studying the properties of newly developed desiccant materials. Further 
materials characterization, combined with analysis of the effects of 
desiccant wheel structure and mass on desiccant equipment performance, 
offer the potential to improve desiccant system economic effectiveness.
    DOE should also continue its research and development of energy 
efficient appliances in residential and commercial buildings, 
particularly those that utilize alternative fuels. There is an inherent 
conflict between national increased efficiency requirements and 
consumers' desire for lower first-cost equipment. Increased-efficiency 
systems, while offering lower energy costs and (usually) lower life-
cycle costs, are increasingly more complex and more expensive than 
lower-efficiency equipment. Increased research is needed to solve this 
paradox between efficiency requirements and consumer desires.
    In addition to balancing the energy efficiency needs of new 
appliances with consumers' demands, DOE should educate consumers about 
the benefits of purchasing high-efficiency appliances, both to 
themselves and the nation as a whole through reduced energy 
consumption. Major appliance manufacturers such as Maytag have worked 
with DOE to help promote efforts to encourage consumers to replace 
older appliances with newer and more energy efficient models.
                        industrial technologies
    The BCSE supports DOE's Industries of the Future program and the 
agency's combustion research efforts. However, the Council believes 
that DOE should do more to develop advanced industrial boilers and 
heaters that increase efficiency and reduce emissions. Boilers and 
steam systems consume over 6.0 quads of energy with approximately half 
of that consumption represented by natural gas. A recent study by the 
Gas Research Institute, a Council member, documented that over 80 
percent of the Nation's boilers were purchased prior to 1978, with the 
bulk of the purchases made in the 1960s. The majority of these aging 
boilers are due for replacement during the next 15 years.
    The Super Boilers program (SBP), DOE's effort to replace these 
technologies, seeks to provide a 50 percent improvement in boiler 
efficiency over today's models. The Super Boiler will be 50 percent 
smaller, cost 25 percent less to manufacture and maintain, and will 
have emissions which meet regulations beyond 2025. The focus of the 
program is to develop a suite of enabling boiler and combustion 
technologies under a standardized, common technology platform that will 
allow low-cost manufacturing of packaged boilers that provide 
significant benefits over presently available technologies. From an 
environmental and equipment replacement standpoint, industry and DOE 
should coordinate their efforts to develop new steam generation 
technologies in the next 15 to 25 years and beyond. To meet this need, 
the BCSE seeks $2 million for SBP research. DOE has not requested any 
funding for this activity.
    The BCSE supports OIT's $1 million request for technical assistance 
activities for combined heat and power (CHP) technologies within the 
Crosscutting Industries of the Future (IOF) program. This initiative 
can address barriers and provide technical tools and expertise which 
demonstrate the successful industrial application of CHP technologies, 
strengthening awareness of and confidence in their development and 
deployment. Furthermore, in recognition of the value of CHP 
applications across industries, the Council supports the increased 
adoption and use of CHP within Industrial Distributed Generation 
activities in the Crosscutting IOF program.
                            utility programs
    DOE also has worked effectively with utilities and power 
authorities to promote energy efficiency. Through voluntary programs 
such as Climate Wise, DOE has obtained the commitment of utilities to 
reduce their emissions of greenhouse gases. Generally, activities that 
reduce emissions also reduce energy use. Climate Wise participants--
such as Council member Sacramento Municipal Utility District (SMUD)--
have premised their programs on sound economic principles. In fact, 
SMUD attributes its aggressive support for energy efficiency as a 
primary reason it has been able to stabilize its electricity rates.
                        standards and insulation
    DOE has played a constructive role in providing educational and 
technical support of building codes and standards such as the Model 
Energy Code and ASHRAE 90.1. These codes and standards--promulgated by 
private-sector organizations--ensure that our nation's housing reflects 
good building construction practices and is reasonably energy 
efficient. In addition, DOE is currently providing educational and 
technical support to help industry implement the guidelines. DOE also 
has provided valuable technical assistance to the polyurethane foam 
insulation industry, helping the industry to find substitutes for some 
blowing agents used in insulation installation. The new 
polyisocyanurate insulation performs as efficiently as the prior 
product.
                       federal energy management
    Finally, the BCSE is extremely supportive of the Federal Energy 
Management program (FEMP) efforts at reducing federal energy usage 
through the use of energy service performance contracting, reducing 
energy usage while minimizing up front capital outlays. The federal 
government spends over $3.0 billion annually to light, heat and cool 
the interior of buildings it owns and operates. FEMP's progressive 
program is a model of public/private partnership. Federal facilities, 
like those occupied by private industry, often can be economically 
upgraded and retrofitted, reducing the energy required to provide 
essential building energy services. The BCSE is proud that two of its 
members, Honeywell and Sempra Energy, won DOE competitive regional 
solicitations to perform this important work. We believe every agency 
of the federal government should increase its utilization of energy 
service performance contracts to take advantage of this approach for 
upgrading facilities and reducing energy expenditures.
                               conclusion
    The Council recognizes that the Administration's fiscal year 2000 
request for energy efficiency programs represent an increase over 
fiscal year 1999. However, the BCSE believes that the federal 
government's participation in cost-shared public/private partnerships 
aimed at developing cost-effective non and low-polluting technologies 
is the best and least intrusive manner for the government to address 
our environmental challenges.
                                 ______
                                 
   Prepared Statement of the National Association of Energy Service 
                               Companies
    The National Association of Energy Service Companies (NAESCO) 
appreciates the opportunity to submit the following written testimony 
in support of the U.S. Department of Energy's (DOE) fiscal year 2000 
budget request for energy efficiency contracting and other energy 
efficiency project support services.
    NAESCO is a trade association of energy service companies (ESCOs) 
and their trade allies, including utility and manufacturing companies. 
NAESCO's current membership of over 140 organizations includes firms 
involved in the design, manufacture, financing and installation of 
energy efficiency equipment and services in the private and public 
sectors, including Federal buildings.
    The thousands of energy efficiency retrofits installed by NAESCO 
member companies to date enable energy consumers to save an average of 
25 percent of their previous building energy costs. Energy Service 
Company projects can include non-energy renovations as well as measures 
to improve efficiency. These projects can be customized for each 
facility's particular needs. In addition, ESCOs assume the performance 
and technical risk so that repayment for project costs comes only from 
measured and verified energy savings generated by a successful, ongoing 
project. In this way, the cost of an energy efficiency project is paid 
entirely from energy savings, requiring no additional budget outlay to 
support the capital investment.
    The Federal Government is the single largest energy consumer in the 
world. In 1994, the Federal Government spent about $3.8 billion of 
taxpayer money for the energy it used in the buildings that it owns and 
leases. Competitively procured energy efficiency improvements, financed 
by the private sector, can reduce these energy costs by as much as $1 
billion per year through the use of Energy Savings Performance 
Contracts (ESPCs). The capital upgrades and energy cost savings offered 
to federal facilities through Energy Savings Performance Contracts come 
at no additional cost to the federal budget, or to American taxpayers.
    In line with the reasons and comments set forth below, NAESCO fully 
supports the DOE's budget requests for the Federal Energy Management 
Program (FEMP) and for the Rebuild America Program to promote and 
support competitive energy efficiency contracting in federal 
facilities.
   naesco supports doe's full budget requests for its federal energy 
           management program and its rebuild america program
    NAESCO believes that the budget requests for DOE's energy 
efficiency initiatives through the FEMP and the Rebuild America Program 
are relatively negligible when compared to the potential for savings to 
the Federal Treasury and the Treasury of each state and local 
government. The impact of DOE's efforts in these areas has been 
significant and deserves the continued support of the Committee.
naesco supports the department of energy's creation of the femp service 
network for the purpose of facilitating federal budget savings through 
                 energy savings performance contracting
    The DOE awards delivery orders for private sector energy efficiency 
investments in federal facilities under its Regional Energy Savings 
Performance Contracts (also referred to as ``Super ESPCs''), that have 
been awarded as a result of multiple competitive solicitations. In 
addition, federal agencies may procure private sector energy efficiency 
services for their facilities through individual Energy Savings 
Performance Contracts under the procedures set forth in the 1992 Energy 
Policy Act.
    Under the Regional ESPCs, the DOE's approval of a delivery order is 
required for the Energy Service Company to undertake actual 
implementation of the energy efficiency project. One of the most 
difficult issues faced by the Federal Energy Management Program in its 
efforts to facilitate private sector energy efficiency investments in 
federal facilities, has been the often significant delay between the 
initial Energy Savings Performance Contract award and the award of the 
delivery order itself. In general, the principal cause of delay has 
been the lack of trained contracting personnel.
    To address this problem, DOE's Federal Energy Management Program, 
during the past year, launched the ``FEMP Service Network.'' Through 
this program, which operates on a fee-for-service basis, FEMP technical 
and contracting experts provide support for individual Energy Savings 
Performance Contracts and for task orders under the Regional Energy 
Savings Performance Contracts. In launching these services, DOE's 
Federal Energy Management Program has made expeditious contracting 
support for energy efficiency projects for federal facilities a 
priority activity.
    The creation of coordinated fee-for-service technical and 
contracting support, such as that offered by DOE's FEMP Service 
Network, is a key step in the Federal Government's development of 
programs to facilitate the installation of energy efficiency upgrades 
in federal facilities. Therefore, NAESCO strongly recommends that the 
reimbursable methods authorized by Congress for the FEMP program be 
authorized immediately for all other agency ESPC contracting offices.
    NAESCO also notes that any language referring to ``the Economy Act 
provisions''--such as the language that the Air Force has interpreted 
to mean that they cannot use DOE contracts--in fact should not be 
considered germane to the use of one agency's ESPCs by any other 
agency. NAESCO encourages the Committee to support all efforts to 
expedite the award of delivery orders once the competitive 
solicitations have been concluded.
     in addition to the femp service network, doe's federal energy 
  management program provides critical training and other support for 
    competitive energy efficiency contracting in federal facilities
    The DOE Office of Energy Efficiency, Conservation and Renewable 
Energy, where the Federal Energy Management Program is located, has 
demonstrated leadership and initiative on a number of important federal 
energy efficiency fronts, most importantly:
    (1) the ongoing technical guidance and training of Federal energy 
managers with respect to the development of energy efficiency projects;
    (2) the formulation of standardized guidelines and procedures for 
quantifying the measured and verified energy savings resulting from the 
installation of energy efficiency measures; and
    (3) the development and dissemination of materials designed to 
educate both the public and private sectors regarding the availability 
and benefit of energy efficiency measures.
    In addition to the above, FEMP provides ongoing training for the 
over 3,000 energy managers and contracting officers in the Federal 
Government.
    The DOE's support in each of the above areas is essential to 
ensuring that individual facility Energy Savings Performance Contracts 
and the Regional Energy Savings Performance Contracts already awarded 
result in actual energy efficiency projects in federal facilities.
  naesco supports the department of energy's rebuild america program, 
designed to increase energy conservation in the state government, local 
                    government, and private sectors
    In keeping with its commitment to energy efficiency, the DOE's 
Office of Energy Efficiency, Conservation and Renewable Energy also has 
created the Rebuild America Program, which is removing the barriers to 
increased delivery of energy efficiency in the state government, local 
government, and private sectors by:
    (1) the ongoing technical guidance and training of state and local 
government organization representatives, as well as schools colleges, 
universities, and hospitals about how performance contracting works and 
how to acquire performance contracting services in order to achieve the 
building upgrades they need, and to have those upgrades paid for out of 
energy cost savings;
    (2) the development of multi-sector energy efficiency project case 
studies to help customers understand how they can use performance 
contracting to upgrade their buildings;
    (3) the identification of direct actions that can be taken to 
increase the implementation of energy efficiency measures by ESCOs and 
other providers, with or without the existence of utility industry 
restructuring; and
    (4) participating in inter-agency and inter-jurisdictional efforts 
involving DOE, EPA, State Energy offices and State Air offices to 
develop the necessary guidelines and authorities to allow energy 
efficiency to be a fully recognized compliance mechanism for air 
emissions reductions required by the U.S. Environmental Protection 
Agency under the Clean Air Act.
    The use of energy efficiency as an air quality compliance mechanism 
lowers the cost of achieving environmental objectives, while increasing 
the market based incentives for energy efficiency investments. DOE's 
efforts in this regard are especially timely now, since the ongoing 
restructuring in the electric utility industry is creating a situation 
where energy efficiency is becoming an ever more important vehicle for 
addressing energy demand and environmental issues.
                               conclusion
    NAESCO supports full funding for the DOE's Federal Energy 
Management Program and Rebuild America Program. These programs pay for 
themselves many times over by generating public budget savings through 
the promotion and implementation of competitive, performance-based 
energy efficiency contracting. FEMP program benefits accrue directly to 
the Federal Government and U.S. taxpayers. Rebuild America program 
benefits accrue to state and local governments and to U.S. taxpayers at 
the state and local levels.
    Thank you for the opportunity to provide these comments.
                                 ______
                                 
 Prepared Statement of Glenn Coontz, Vice Chair, Department of Finance 
    and Administrative Services, Urban Consortium Energy Task Force
    This testimony is submitted for the information of the Subcommittee 
during the consideration of the fiscal year 2000 budget requests for 
the Department of Energy (DOE). The Urban Consortium Energy Task Force 
(UCETF) appreciates this opportunity to update the Subcommittee on the 
progress of the applied energy research and development activities 
being undertaken through the DOE's Municipal Energy Management Program 
(MEMP).
    The UCETF is made up of local government energy policy makers and 
administrators from major urban areas around the United States. 
Currently, 24 jurisdictions are represented on the UCETF: Albuquerque, 
NM; Austin, TX; Chicago, IL; Columbus, OH; Dade County, FL; Denver, CO; 
Greensboro, NC; Hennepin County, MN; Kansas City, MO; Little Rock, AR; 
Long Beach, CA; Memphis, TN; Monroe County, NY; Montgomery County, MD; 
Orange County, FL; Philadelphia, PA; Phoenix, AZ; Portland, OR; San 
Diego, CA; San Francisco, CA; San Jose, CA; Santa Fe County, NM; 
Seattle, WA; and Washington, D.C. The UCETF is a subgroup of the Urban 
Consortium, an organization of the nation's largest cities and counties 
joined together to identify, develop, apply and transfer innovative 
approaches and technological solutions to common issues. The Urban 
Consortium is a program of Public Technology, Inc. (PTI), which is the 
non-profit technology organization of the National League of Cities, 
the National Association of Counties, and the International City/County 
Management Association.
    The goal of the UCETF is to act as the premier technology research, 
development and deployment organization dealing directly with the 
energy problems and needs of local government. The UCETF meets this 
objective, in part, by managing a competitive energy program with 
funding provided by the Department of Energy, Municipal Energy 
Management Program. The UCETF also undertakes a variety of technology 
transfer and solution deployment activities designed to widely 
disseminate the knowledge gained through the performance of local 
government energy projects to jurisdictions throughout the United 
States.
             the role of memp in meeting local energy needs
    Local governments are in the forefront of the nation's response to 
interrelated energy supply, clean air and climate change issues. Local 
governments have assumed leadership roles in energy efficiency 
programs, ranging from the introduction of advanced energy building 
retrofit and ``green building'' practices; to encouraging the use of 
alternative fuels to cut dependency on imported oil and reduce air 
emissions from the transportation sector; to developing and 
implementing local strategies to reduce emissions of greenhouse gases; 
to recognizing the importance of reducing energy usage, and creating 
local energy industries, for local economic growth and sustainable 
development. Larger urban governments in particular have been able to 
use energy policy and programs as tools to help reduce the cost of 
government and stimulate the local economy to produce more revenues 
that can be used to deliver priority services to local populations. The 
Municipal Energy Management Program directly increases the ability of 
local governments to identify, design and implement energy policies 
that support local economic objectives, including jobs growth and 
retention.
    MEMP creates a direct relationship between the Federal government 
and local governments on energy issues. It is the only Federal energy 
efficiency research, development and technology application and 
transfer program directed by local governments, which responds to the 
specific energy-related needs of local governments.
    As administered by the UCETF, MEMP leverages federal, state and 
local funds for the conduct of competitively-selected energy research 
and technology transfer projects. The UCETF develops an annual request 
for proposals for projects that will address the energy-related topics 
of the greatest common concern among local governments. The RFP is 
widely circulated through direct mailing and on the Internet to cities 
and counties across the nation. Between 50 and 60 proposals are 
typically submitted by jurisdictions around the United States in 
response to the annual competitive solicitation. Submissions are peer 
reviewed by local energy officials, and evaluated on the basis of their 
energy and dollar savings, innovation, job creation and economic 
development benefits, partnerships and cost-sharing, benefits to the 
environment, and overall benefit to the community. Selections are based 
on merit. Projects are conducted by local government staff, in 
furtherance of the UCETF/MEMP mission to improve the energy management 
capabilities of local governments. To encourage technology transfer, 
results are documented and disseminated broadly among state, city and 
county energy professionals. Although per-project funding is modest, 
MEMP funding frequently permits communities to undertake projects that 
would not otherwise have been conducted and to leverage other resources 
to address key energy issues. Project results are applied in 
communities to cut energy use and reduce costs.
    MEMP is cross-cutting, permitting local governments to address 
priorities in a variety of energy efficiency areas, including 
buildings, transportation, business and industrial energy efficiency, 
solar and renewable energy technologies and other energy use/power 
supply technologies. As energy concerns have evolved, so has MEMP. From 
its early focus on energy emergency response and creating an energy 
management capability in local governments, the program has grown to 
emphasize cutting edge technology advances that can save energy and 
money, assure environmental quality and enhance prospects for local 
economic growth. Today, the UCETF/MEMP program serves as a source of 
information and technical assistance to enable local government to 
address current issues, such as restructuring and change in the 
electricity industry, local responses to climate change, possible local 
government alternative/replacement fuel requirements, energy-related 
aspects of congestion mitigation and air quality improvement programs, 
and energy considerations in programs to combat sprawl and encourage 
smart growth.
    The MEMP program is a proven successful method to deliver and apply 
energy technologies to address community issues and to share energy 
information among communities around the country, thereby preparing 
local officials to respond to the energy and energy-related 
environmental issues in their own communities. More than 400 projects 
in over 60 different jurisdictions across the United States have been 
conducted through the UCETF/MEMP program over the years.
              the ucetf's 1998-1999 applied energy program
    The 1998-1999 UCETF program is supporting projects addressing 
energy and economic development; issues and opportunities for local 
governments in electric industry restructuring; and strategies for 
environmentally responsible local energy production and usage. All 
programs must demonstrate strong partnerships, which in many cases 
include cost-sharing, from the private sector and other government 
agencies, in order to maximize the successful application of project 
results. In addition, the program includes three projects to further 
develop and apply the results of prior UCETF projects. A summary of the 
energy technology development/application or technology transfer 
projects selected for inclusion in the 1998-1999 program is presented 
below:
    Energy and Economic Development.--Energy efficiency activities and 
the use of new energy technologies can contribute to creation of a 
sustainable urban environment. The UCETF 1998-1999 economic development 
unit is focusing on developing and sharing information on the benefits 
of energy efficiency/new energy technologies in communities, and on 
means of preserving the economic benefits of demand side management 
programs as the electricity market becomes more competitive. Clark 
County, NV, will conduct research to support new hydrogen 
transportation technologies, by studying a ``transition'' hydrogen 
technology--a hydrogen enriched lean burn modification to a standard 
compressed natural gas vehicle. The popular Denver, CO, cable 
television program, Earth Cafe, will be used to share the knowledge and 
experience gained through UCETF projects among more than 18 million 
potential viewers in communities across the nation. Barnstable County, 
MA, will examine the local government role in assuring that the 
economic benefits of demand side management energy efficiency programs 
remain available as competition is introduced into the electricity 
market. Seattle, WA, will promote and support market transformation in 
building practices in three communities in Washington state, to lead to 
greater implementation of sustainable building construction design.
    Utility Restructuring.--Again this year, significant attention is 
being devoted to issues involved in the introduction of increased 
competition in the electricity industry. This issue has the potential 
to significantly influence--for better or for worse--all local 
governments. But because of the breadth and complexity of the issues 
involved, many local governments are ill-prepared to deal with the 
demands of the changing marketplace. Through research projects in 
jurisdictions around the nation, and technology transfer activities, 
the UCETF is a leading national resource for communities on approaches 
to, and the implications for local governments of, coming changes in 
the structure of the electricity industry. San Francisco, CA, will 
evaluate the energy efficiency services being offered in the 
restructuring electric utility industry. The City will also develop 
guidance for local governments in evaluating the increasingly complex 
offerings of energy service companies and other energy service 
providers. Juneau County, WI, will assist Wisconsin counties in 
preparing for utility restructuring in the state by helping them 
aggregate electricity loads to reduce power prices. St. Louis County, 
MO, will determine the effects of utility restructuring on power 
prices, on-site electricity generation and new technology development.
    Energy Usage and Supply.--Local governments face continuing 
requirements to cut energy usage and costs, and search for 
opportunities to apply new technologies expressly suited to local 
climatic conditions that use local energy resources. Albuquerque, NM, 
will produce a guide book--based on the city's extensive experience 
with solar technology--to assist other communities in developing and 
deploying solar applications at typical public facilities and public 
housing projects. This project will contribute directly to achieving 
the goals of the President's Million Solar Roofs Initiative. Thousand 
Palms, CA, will undertake a project to deploy renewable energy in 
municipal transit buses by producing hydrogen using photovoltaic and 
wind generated electricity. Philadelphia, PA,was selected to build on 
its ground-breaking work to achieve energy savings through light 
emitting diode (LED) technology. The project would investigate the 
feasibility of integrating LEDs and photovoltaics in outdoor lighting 
applications. Chicago, IL, will analyze opportunities for obtaining 
electricity for use in multiple facilities from renewable energy 
applications rather than the local utility.
    Technology Transfer.--The UCETF is conducting three projects 
specifically designed to document and transfer lessons learned through 
local government energy programs. Portland, OR, will document its work 
in determining the most economic and efficient uses of surplus digester 
gas. This work will provide guidance to other communities investigating 
options for the use of methane fuel cells to produce electricity. 
Austin, TX, will develop an Internet and CD Rom course based on 
Austin's pioneering work in developing the ``green building'' concept. 
The course will explain the principles of green building, their 
application to design and construction, and how to demonstrate the 
benefits of green building to building occupants. Memphis, TN, will 
develop a communications protocol to link building electronic 
monitoring and control systems of different manufacturers, in order to 
maximize the effectiveness of the city's building automation network. 
The Memphis approach should be highly transferable to other communities 
facing similar needs.
    As part of the 1998-1999 core technology transfer program, the 
UCETF is continuing distribution of publications designed to address 
issues facing communities in electricity restructuring. In addition, 
the UCETF is developing new tools to transfer lessons learned in the 
areas of alternative transportation fuels and solar technology 
applications.
                               conclusion
    Local governments are a crucial component of the effort to maintain 
the United States as the world's leader in developing, applying and 
exporting sustainable, environmentally benign and economically 
competitive energy technologies. Through its participation in MEMP, the 
UCETF provides important opportunities for hands-on applied energy 
research in local communities, serving as an urban laboratory for the 
development and testing of new technology. The program is an effective 
means of delivering energy efficiency and renewable energy technologies 
to jurisdictions across the country. Efforts in recent years to broaden 
and diversify the UCETF/MEMP program have met with success, as the 
UCETF has built on its strengths in identifying and addressing the 
specific energy challenges facing the nation's communities.
                                 ______
                                 
             Prepared Statement of the Natural Gas Industry
    Mr. Chairman and Members of the Subcommittee: The Natural Gas 
Industry's Research, Development & Demonstration (RD&D) Initiative 
(hereinafter the ``Initiative'') is comprised of producers, pipelines, 
distributors, and research and trade organizations. We appreciate this 
opportunity to present our views on natural gas-related RD&D sponsored 
by the U.S. Department of Energy (DOE).
    The Initiative has worked closely with DOE and this Subcommittee 
over the years with the objective of advancing cost-shared projects 
that serve the national interest. Within the Interior Subcommittee's 
jurisdiction, DOE's fiscal year 2000 budget request for natural gas 
RD&D programs in the Office of Energy Efficiency and Renewable Energy 
(EERE) and Office of Fossil Energy (FE) totals $205 million. While this 
is only slightly lower than last year's request of $207 million it 
represents a 13 percent decrease from the fiscal year 1999 
appropriation approved by Congress. Yet, in stark contrast to these 
reductions, EERE's fiscal year 2000 overall budget request for RD&D 
represents a 23 percent increase over the fiscal year 1999 
appropriation. The Initiative is disappointed that DOE, and EERE 
specifically, continues to give greater emphasis in its budget requests 
to other programs, inconsistent with the levels approved by Congress. 
Thus, the Initiative has identified several natural gas RD&D programs 
that deserve additional attention.
    Consistent with the past, and our published Blue Book, listing RD&D 
rationales for the next five years, our top priorities for fiscal year 
2000 include: microturbines (seeking $2.5 million above DOE's request); 
advanced reciprocating engine systems (seeking $2 million above DOE's 
request); industrial combustion systems (seeking $2 million above DOE's 
request); fuel cells (seeking a shift of funds from Fossil Energy's 
various ``Vision 21'' activities back to the three existing research 
projects and agreed upon schedules); natural gas cooling and combined 
cooling-heating & power (seeking $2 million above DOE's request); 
natural gas vehicles (seeking $4.2 million above DOE's request); and 
natural gas supply (seeking $1 million above DOE's request). The 
specifics of each of these requests are presented below.
                   gas turbine & engine technologies
    Due to regulatory restructuring coupled with technology innovation, 
electric power in the U.S. will likely experience more change in the 
next decade than throughout its history. Microturbine (MT) technologies 
will emerge as one of the leaders in power production. Valuable 
attributes of MT's are modularity, the ability to be remotely operated, 
high reliability, and excellent power quality. This translates to 
maximum flexibility to consumers and opportunities in markets that 
require premium power.
    MTs are small (25-300 kW) gas turbines derived from automotive and 
truck turbochargers, auxiliary power units for aircraft or tanks, and 
small jet engines for drone aircraft. They are designed for distributed 
generation (DG), combined heat and power (CHP), and mechanical drive 
prime mover applications. Technology improvements in materials, ceramic 
components, and aerodynamic design can potentially increase efficiency 
to 35-45 percent. This is more efficient than power generated at a 
distant, central-station power plant which suffers losses as it is 
delivered through the electric transmission and distribution grid. By 
recovering exhaust heat, energy consumers can utilize MTs in a CHP 
application and raise total fuel utilization efficiency to greater than 
75 percent.
    MT's today can contribute to reducing emissions (NO<INF>X</INF> and 
CO<INF>2</INF>) associated with electric power generation. When fueled 
by natural gas from our domestic resource base, they currently emit 
NO<INF>X</INF> at 9-40 ppm, this is an improvement over the existing 
U.S. generation fleet. Emissions reduction technologies, such as 
catalytic combustion, offer the potential of near zero emissions 
levels. To achieve the environmental, efficiency and cost-reduction 
goals of the program, the Initiative specifically seeks $2.5 million 
above DOE's current request of $2.5 million for microturbine engine 
development research.
    Advanced Reciprocating Engine Systems (ARES) are another important 
technology for DG applications in a deregulating electric marketplace. 
Natural gas engines are the leading customer choice for DG and CHP in 
the 300 kW--3000 kW size range. These products offer significant 
benefits for small to medium-sized industrial customers, commercial 
building and retail customers, institutional customers (hospital and 
education), federal government and military facilities, as well as 
municipal, cooperative, and public electric utility companies. ARES 
provide significant advances in efficient use of natural gas resources 
while minimizing environmental impact levels. This will result in 
future avoided annual emissions for NOx of 40,000-60,000 tons per year 
and 7.6-11.5 million tons for CO<INF>32</INF>. Estimated annual savings 
in unburned natural gas (from improved efficiency) are approximately 
110-170 billion cubic feet. This equals the energy consumed annually in 
about 1.4 million homes.
    The ARES program will position domestic natural gas engine 
manufacturers to compete effectively against foreign engine producers 
looking to enter the U.S market as well as further promote an expanding 
export market for high-technology. The Initiative seeks $2 million for 
this research, DOE's has not requested anything for reciprocating 
engines.
                        industrial technologies
    The Initiative remains supportive of DOE's Industries of the Future 
program and DOE's on-going combustion research effort. The Initiative, 
however, again believes that DOE must do more to develop advanced 
industrial boilers and heaters that both increase efficiency and lower 
emissions. Boilers and steam systems consume over 6.0 quads of energy 
with about half of the fuel consumption represented by natural gas. The 
nation is faced with an aging boiler population. A recent GRI study 
documents that over 80 percent of these boilers were purchased prior to 
1978, with the bulk of the purchases in the 1960s. The majority of 
these aging boilers are due for replacement within the next 15 years.
    This effort, known as the Super Boilers program (SBP), seeks to 
provide 50 percent improvement in efficiency over today's installed 
boilers. The Super Boiler will be 50 percent smaller, cost 25 percent 
less to manufacture and maintain, and will have extremely low emissions 
that meet the ever-stringent emission regulations beyond 2025. The 
boiler marketplace is very diverse, with multiple manufacturers and 
designs; one technology concept will not fit all needs. It is the focus 
of this program to develop a suite of enabling boiler and combustion 
technologies under a standardized, common technology platform that will 
allow low-cost manufacture of packaged boilers that provide significant 
benefits over the currently available boilers. The timing is ripe, both 
from the environmental and equipment replacement standpoint, for DOE 
and industry to join forces on a crosscutting approach to develop new, 
leapfrog steam generation technologies to meet the competitive needs of 
the U.S. industry in the next 15 to 25 years and beyond. To this end, 
the Initiative seeks $2 million for SBP research. DOE has not requested 
any funding for this activity.
                        fuel cells technologies
    The Initiative is highly supportive of EERE's fiscal year 2000 
request for Proton Exchange Membrane fuel cells and Fossil Energy's 
work to date on Molten Carbonate Fuel Cells (MCFC) and Solid Oxide Fuel 
Cells (SOFC). The Initiative, however, opposes DOE's proposal to shift 
$4.95 million from the two MCFC teams and the SOFC program and moving 
those funds to its new ``Vision 21'' IGCC program. Similarly, $5.1 
million which the Department proposes to shift to ``Vision 21'' support 
activities within the Fuel Cell Development Program should be restored 
to the three principal contracts. Without both these funds, the molten 
carbonate and solid oxide programs will, in DOE's own words, be 
``stretched out.'' Moreover, DOE should not be permitted to rush into 
new fuel cell applications related to ``Vision 21'' while shortchanging 
the very core fuel cell research which is fundamental to any subsequent 
applications of either technology. Consequently, the Initiative 
specifically seeks to have the funding shifted (keeping the program 
whole at $40 million) back so that the existing schedules can be 
honored.
            gas cooling, heat pumps & appliance technologies
    The Initiative is supportive of DOE's fiscal year 2000 request for 
natural gas cooling technologies. However, there is a distinct 
opportunity to significantly conserve resources and reduce greenhouse 
gas by accelerating the use of combined cooling, heating and power 
(CCHP) systems in commercial buildings.
    Historically, research, development and commercialization efforts 
have been focused on individual equipment (e.g. cooling, thermal 
storage, ventilation air systems, power generation and cooling). CCHP 
for buildings now focuses on on-site fuel conversion making it possible 
to combine power generation and HVAC system optimization and 
integration with other innovation building technologies. This yields 
remarkable building-level energy efficiency gains and emission 
reduction achievements. The CCHP initiative goal is an additional 40 
percent efficiency improvement over and above improvements projected in 
other elements of the Buildings Program. To this end, the Initiative 
seeks $2 million for CCHP research. DOE has not sought funding for 
these activities. Specifically, we seek $1 million for design tools to 
optimize selection for new and retrofit CCHP systems, and $1 million 
for associated materials and manufacturing technology.
    Finally, DOE should place a greater emphasis on the direct use of 
natural gas for appliances in residential and commercial buildings. 
There is an inherent conflict between national increased efficiency 
requirements and the gas consumer's desire for lower first-cost 
equipment. RD&D is needed to reduce the high first-cost hurdle between 
efficiency requirements and consumer needs. However, the Initiative 
seeks no additional funding above DOE's request.
                          natural gas vehicles
    The United States remains critically dependent on petroleum as a 
transportation fuel. This dependence has contributed to significant air 
quality and energy security concerns. Natural gas vehicles (NGVs) offer 
proven, cost-effective solutions to both of these problems. NGVs are 
certified to be up to 99 percent cleaner than traditionally fueled 
vehicles and, when compared to average petroleum vehicles, reduce 
exhaust emissions of carbon monoxide (CO) by 70 percent, non-methane 
organic gas by 89 percent and nitrogen oxides (NO<INF>X</INF>) by 87 
percent, and produce 20 percent fewer greenhouse gases.
    While the availability of NGVs has grown dramatically over the past 
ten years, the number of actual sales has not. In 1992, no Original 
Equipment Manufacturers (OEMs) offered NGVs for sale, today there are 
over 50 models available. In 1992, there were a few NGV fueling 
stations, today there are over 1300 NGV fueling stations open for 
business nationwide. Despite the impressive growth in available NGVs 
and fueling infrastructure, the actual number of vehicles on the road 
today remains well under one-half of one percent of all registered 
vehicles (70,000). Research is still required, aimed at reducing the 
NGV's first cost, before the public will accept them as mainstream.
    Over the past few years, DOE continues to submit robust requests 
for the transportation sector, specifically the Partnership for a New 
Generation Vehicle program. However, DOE continues to depart from its 
commitment to the Comprehensive Program Plan for NGV research, which 
was developed in response to this Subcommittee's directive in fiscal 
year 1997. Accordingly, the Initiative must once again seek to restore 
funding levels for priorities identified by the DOE and industry 5-year 
plan. Specifically, no funds were requested for the Light Duty portion 
of the Plan. $2 million is needed there. The Plan calls for $11.1 
million for Medium and Heavy-Duty vehicle research, but DOE has 
requested only $8.9 million that is consistent with the Plan in this 
area. Thus, we are requesting an additional $2.2 million for Heavy Duty 
Vehicles.
                           natural gas supply
    Natural gas is domestically abundant today, and real gas prices are 
only half of what they were in the mid-1980's. Continuing gas supply 
technology advances are key to meeting projected levels and sustained, 
affordable prices for gas supply. These advanced supply technologies 
are of paramount importance to more than 8,000 independent producers, 
who drill 85 percent of the wells and produce 66 percent of the gas in 
the lower 48 states.
    The Initiative continues to support DOE's request for natural gas 
supply research. In fiscal year 2000, the Initiative particularly seeks 
$1 million for research on laser drilling technology. DOE sought no 
funding for this activity. Current estimates of future natural gas use 
indicate that drilling will take place in increasingly more difficult 
environments. Therefore, DOE should assess the opportunities to develop 
revolutionary drilling concepts such as the use of lasers. The benefits 
of laser drilling technology are penetration rates that are 10-100 
times faster than those achieved with conventional rotary drilling 
techniques.
                               conclusion
    The Initiative is giving great emphasis to developing comprehensive 
programs across end-use sectors that compliment each other and 
compliment electric deregulation efforts to provide cheaper energy to 
the end-user while reducing emissions, improving energy efficiency, 
quality, and reliability. We are striving to coordinate our efforts 
with federal and state research initiatives to enhance the benefits for 
each party and the natural gas consumer. Our combined efforts to 
advance natural gas technologies will create high paying American jobs 
and boost US competitiveness in the global marketplace. The Initiative 
greatly appreciates your past support and consideration of these 
proposals.
                                 ______
                                 
          Prepared Statement of General Electric Power Systems
    This testimony is submitted on behalf of General Electric Power 
Systems (GE) for the information of the Committee during its review of 
the Department of Energy's fiscal year 2000 budget requests. GE 
strongly supports the Administration's request for $41.8 million for 
the Advanced Turbine Systems (ATS) program, including $32.590 million 
for major systems development, within the Fossil Energy budget account. 
DOE's funding request signifies the important contributions that ATS 
technology will make to the nation's energy security and environmental 
objectives. GE appreciates the strong Congressional support that has 
been so critical to the success of the ATS program, and welcomes this 
opportunity to update the Committee on the progress of the ATS research 
and development effort.
                    ge-doe ats cooperative agreement
    In March 1998, GE and DOE executed a modified Cooperative Agreement 
providing for GE's continued, cost-shared participation in the ATS 
program. The modified Cooperative Agreement reflects the continuing 
commitment of GE and DOE to the ATS program. The central goal of the 
ATS program--producing technology by 2000 that is ready for commercial 
application--is unchanged. DOE's fiscal year 2000 funding request 
represents the last major increment of Federal funding for the ATS 
program.
    The modified GE-DOE Cooperative Agreement, which extends through 
December 2000, eliminated the planned demonstration phase of the ATS 
program and extended the technology validation phase. Demonstration of 
the ATS technology will be the responsibility of industry at the end of 
the technology validation phase. Under the restructured ATS program, GE 
will manufacture and perform a full-speed, no-load test on a 60 Hertz 
machine by the end of 1999 at GE's Greenville, South Carolina facility. 
DOE cost sharing is critical to this aggressive schedule.
                      benefits of the ats program
    The ATS program occupies a key position in the DOE's fossil energy 
research and development portfolio, and is an integral part of the 
evolving ``Vision 21'' concept for future highly efficient, clean power 
generation. Through the government's partnership with industry, the ATS 
program is well on the way to supporting the commercial introduction of 
the world's most efficient gas turbine, securing U.S. technological 
leadership in this critical technology area and producing important 
benefits to the nation:
Energy efficiency
    The goal of the ATS program is to achieve fuel-to-electricity 
efficiencies of 60 percent or greater, resulting in significant 
reductions in fuel consumption.
Lower electricity costs
    Fuel savings will, in turn, lower electricity costs, benefitting 
the competitiveness of U.S. industries in the world marketplace. The 
ATS program has had as its goal a 10 percent reduction in the cost of 
electricity produced relative to existing combined cycle power plants.
Emissions reductions
    Natural gas fired gas turbines produce no particulates, ash, heavy 
metals, toxins, or sulfur oxides. Additionally, the ATS will achieve a 
significant reduction in emissions of oxides of nitrogen, and will 
further reduce carbon monoxide and hydrocarbon emissions relative to 
the current fossil fueled power generation base.
Stimulating jobs retention and growth
    Tens of thousands of Americans already work to manufacture gas 
turbines and to provide key components. Manufacturing jobs in this 
industry already have been lost, and the remaining jobs are at risk 
because of stiff international competition. U.S. jobs depend on 
continued U.S. global leadership in turbine technology, which is 
supported by the ATS program.
                        the technical challenge
    Existing gas turbine technology benefited from the knowledge gained 
from years of national investments in military aircraft engine 
technologies. The need to meet high efficiency and low emissions 
requirements simultaneously for power generation systems in 2000 and 
beyond has necessitated the development of a steam-cooled turbine 
generation system--the first time that the industry has been called 
upon to develop a new technology specifically for power generation 
applications. Government has shared the risks inherent in meeting this 
technical challenge through the ATS program.
    GE's ``H System'' advanced turbine is an advanced combined-cycle 
system designed to break the 60 percent thermal-efficiency barrier 
while offering the lowest cost of electricity production with the 
lowest levels of emissions. Combined-cycle systems generate electricity 
from both a gas turbine and a steam turbine driven by steam generated 
from the gas turbine's exhaust. Where other gas turbines are air-
cooled, ATS combined-cycle power blocks are based on a unique 
technology platform in which the gas turbine buckets and nozzles are 
steam-cooled by an integrated steam system. Steam cooling of the 
turbine airfoils enables higher turbine inlet temperatures to be 
achieved without increases in combustor exit temperatures, resulting in 
low levels of NO<INF>X</INF> and significant improvements in 
efficiency. Efficiency gains also translate directly into reduced 
emissions of greenhouse gases. The ATS will also be a fuel flexible 
system; because of its higher thermal efficiency and output, the ATS is 
expected to substantially advance the economic viability of coal gas 
(IGCC) systems.
                         the market opportunity
    Industry and government working together can take on more risk, 
confront bigger technical challenges and speed the development and 
application of technologies which ultimately will gain market 
acceptance and provide potentially large energy, economic, 
environmental and strategic returns to the nation. The ATS program 
offers a prime example of how government technology leadership is 
helping to assure that advanced, efficient technologies are available 
to meet market demand.
    Industry's R&D risk/reward window is often more focused on the 
short-term than government's, which can address broader, national 
priorities that may not yet be adequately valued in the marketplace. 
Despite the important benefits of ATS technology, because of the 
continuing technical risks, today the market alone is not sufficient to 
bring this technology to the point of commercial acceptance. The likely 
users of this technology in the U.S., both utilities and independent 
power producers, are not in a position today to make multi-hundred 
million dollar investments in technologies and systems that are not yet 
proven by actual, full-scale operation. Domestic electric industry 
restructuring makes potential investors in new technologies more risk 
averse. At the same time, the increasing pace of electric industry 
restructuring makes the need for advanced, competitive power generation 
technologies more urgent, and the completion of the ATS program more 
timely. According to the Energy Information Administration, 81 percent 
of new U.S. demand for electric generation will be met by gas turbines 
in 2010. The ATS program will assure the availability of more 
efficient, lower emission domestic technology to meet this demand.
    The same key enabling technologies being developed through the ATS 
program are required for both international and domestic applications. 
With the support of the ATS Program, U.S. manufacturers will be better 
able to compete in the projected international market in electricity 
generating systems--a marketplace in which foreign competitors 
frequently receive significant assistance from their governments. 
Successful completion of the ATS program will position U.S. technology 
for immediate introduction into global markets, and will enable U.S. 
technology to surpass leading foreign competitors, solidifying U.S. 
market share in the worldwide market. U.S. success in the export of 
power generation technologies translates directly into jobs in the 
United States.
                     ge ats program accomplishments
    GE's work during the initial phases of the ATS program focused on 
the technologies and component developments necessary for high 
temperature operation, and validation of the technically-innovative 
steam cooling concept. To date, GE has:
  --Completed full-scale, steam-cooled, first stage nozzle cascade 
        design validation testing at ATS turbine design operating 
        conditions. The first stage nozzles and buckets are the most 
        critical high temperature components in the ATS. Testing 
        included combustion system mapping, as well as nozzle 
        aerodynamic, heat transfer, and low cycle fatigue validation.
  --Completed initial tests of the ``H'' series combustor design at the 
        component level, and in a full-scale combustion test stand that 
        permitted testing at full pressure, temperature, and flow 
        design conditions. GE's design for the gas turbine combustion 
        system permits its ATS to achieve high firing temperatures 
        while minimizing oxides of nitrogen, a key objective of the ATS 
        program.
  --Developed, with suppliers, single crystal casting technology to 
        provide the high temperature strength required for the very 
        large ATS machine turbine buckets and nozzles.
  --Completed tests of two builds of the \1/3\ scale H compressor, 
        which allowed operation of the compressor over its entire 
        speed/flow range, and validated the fundamental design of the 
        compressor.
  --Completed tests of elements of the steam cooling system, in both 
        component rigs and under utility field test conditions, along 
        with design of a particulate filter which has been fully 
        validated in testing at an operating combined cycle power plant 
        to resolve concerns about the effects of impurities in the 
        steam on the operation of the cooling system.
  --Developed manufacturing technologies essential for the success of 
        the ATS, including extensive development in thermal barrier 
        coatings (TBCs), which are critical to the steam cooling 
        design. Performed separately-funded tests to validate the 
        performance of TBCs in utility customers' current gas turbines 
        under actual conditions. Designed a robot to assure proper 
        application of TBCs. Improved the forging process to allow for 
        production of the largest gas turbine Inconel wheels ever made.
  --Developed testing processes to permit product quality to be 
        confirmed without necessitating destruction of expensive parts, 
        including nondestructive inspection techniques for single 
        crystal airfoil production, and new analytical tools to model 
        the startup and shutdown of the gas turbine component of the 
        combined cycle unit in greater detail than previously required.
                         recent accomplishments
    With fiscal year 1998 and 1999 funds, GE has continued development 
activity on its ATS engine, which remains on schedule for a full-speed, 
no-load demonstration test in December 1999, and has continued full-
scale combustion system development, with test results meeting ATS 
design goals. The initial 9H (50 Hz) full-speed, no-load test was run 
in the second quarter of 1998 at GE's Greenville, SC, manufacturing 
facility. The testing validated rotor dynamics and vibration levels; 
compressor airfoil aeromechanics; compressor airflow and efficiency; 
scale-up effects from the compressor rig testing; compressor and 
turbine running clearances; and the Mark VI control system. GE also has 
initiated the 7H (60 Hz) ATS design and manufacturing programs, using 
information derived from the 9H component and full scale testing 
programs. It is anticipated that fiscal year 2000 funding will be used 
to continue testing of full scale components and sub-systems. The 
manufacturing capability for the first test engines will be completed, 
and full-speed, no-load testing of H series engines will continue, 
setting the stage for the completion of the program in the fourth 
quarter of calendar year 2000.
                               conclusion
    Through R&D investments in programs like the ATS, the Federal 
government assists industry in taking on high risk, high payoff 
opportunities that challenge accepted technological limits. GE urges 
the Committee to continue to provide the resources necessary to 
complete the ATS program.
                                 ______
                                 
    Prepared Statement of David O. Webb, Vice President, Government 
           Programs Services Ccenter, Gas Research Institute
    The Gas Research Institute (GRI) appreciates the opportunity to 
submit testimony to the Interior and Related Agencies Subcommittee to 
present GRI's views and recommendations for fiscal year 2000 funding of 
gas-related research and development (R&D) programs within the 
Department of Energy's (DOE) Fossil Energy and Energy Efficiency 
programs. GRI generally supports the Administration's request for these 
programs. However, we are concerned that the gas-related request is $21 
million less than appropriated last year. GRI has recommended an 
increase of $7.5 million in four specific areas to strengthen the 
natural gas related research.
    GRI manages a comprehensive research, development and 
commercialization (RD&C) program for the natural gas industry. GRI has 
over 330 member companies representing producer, pipeline, and local 
distribution companies. GRI jointly plans and cofunds approximately 
$15-$20 million annually with DOE Fossil Energy and Energy Efficiency 
programs. Therefore, Congressional action on the DOE budget can impact 
these joint programs.
    For the past twenty years, GRI has been funded principally through 
a FERC-approved pipeline surcharge on interstate natural gas 
transactions. However, in recognition of the changing gas industry 
business environment, GRI will become a fully voluntarily-funded 
organization during the next six years. During that time, and 
thereafter, GRI will be seeking funding outside of the traditional 
FERC-approved surcharges in order to maintain and continue a viable R&D 
program for the gas industry and its customers. While GRI's methods of 
funding will change, GRI will continue to focus it research program on 
developing widely dispersed benefits to gas consumers through the 
development of new and improved technologies. In addition, GRI will 
continue to address the specific needs of the gas industry, our member 
companies and the interests of our new voluntary investors.
                       federal energy r&d policy
    The role of the federal government in funding energy R&D is 
critical as a basis for decision-making by industry as it competes in 
an ever increasingly competitive world market. Our technical world is 
becoming increasingly complex and as the cost of R&D grows, no single 
company or group of companies can afford the cost and risk associated 
with the development of many of the new energy technologies whose broad 
benefits flow predominately to the gas users, not the companies. 
Therefore, in times of declining budgets, government funds should be 
used primarily for investment that are expected to yield broad public 
benefits and, therefore, not likely to be undertaken by the industry 
unless government is a major participant in the funding.
    The government must continue to have the primary role and 
responsibility for funding and managing fundamental long-term basic 
research in energy because private companies are market driven and 
cannot capture the economic benefits of much of this research. Society 
receives large and continuing benefits from fundamental research, and 
since industry alone cannot fund the level of basic research necessary 
to achieve national goals and objectives, the government role in 
funding is critical.
    On the other hand, both government and industry have a joint 
responsibility to plan, conduct, and fund applied R&D to meet the 
nation's energy goals. Industry should be brought in early to assist in 
the planning, financing, and management of the applied research. The 
partnership of private industry in federally sponsored R&D accomplishes 
several goals:
  --Industry will use rigorous cost-benefit analysis to prioritize the 
        R&D.
  --If the federal research is aimed at top industry priorities, 
        industry will provide cofunding. If industry is not willing to 
        support a specific applied energy research program, government 
        should reevaluate its own role in that research.
  --Once industry participates financially and managerially in the 
        research, the commercialization path will be shorter because 
        industry will be committed to bringing the product or process 
        to the marketplace in order to benefit from the research.
  --When the project is ready for commercialization, industry is 
        already on board and has a vested interest in ensuring the 
        technology reaches the marketplace, thus ensuring success from 
        the government/industry investment.
  --Finally, costly duplication of research is eliminated.
                doe fiscal year 2000 gas-related budget
    The DOE fiscal year 2000 gas-related R&D budget request is 
generally supported by the gas industry acting through the Natural Gas 
RD&D Initiative. Industry support of this budget is evidenced through 
significant cost-sharing from the private sector. The research 
proposals set out by DOE will result in completion and 
commercialization of technologies which will contribute significantly 
to the nation's goals as we pursue all of our energy options. In 
addition, many of the products which result from this R&D are excellent 
candidates for export to other countries, thereby increasing the U.S. 
position in global competitiveness.
    Congress has recognized and needs to continue to recognize the role 
of government and industry in cofunding applied energy R&D and should 
give priority to those DOE research programs that are jointly funded 
with industry.
   recommended adjustments to the doe fiscal year 2000 budget request
    While GRI and the Natural Gas RD&D Initiative are supportive of the 
DOE fiscal year 2000 budget request for gas-related research and 
development, there are several adjustments GRI would recommend in order 
to further strengthen the natural gas-related R&D program and to 
address the important issues in the gas industry. These adjustments, if 
incorporated in the fiscal year 2000 budget, would receive the support 
and cofunding of GRI and the natural gas industry. The following 
recommendations are requested:
Development of laser drilling technology (fossil energy)--+$1 million
    Much of the technology developed for the drilling industry in the 
past few decades has focused on reducing cost primarily by drilling 
wells faster to minimize rig time. Laser drilling has the potential to 
revolutionize gas drilling in the 21st century. It offers the potential 
to increase the rate of penetration more than 10 times that of 
conventional rotary drilling techniques. It would ultimately reduce 
time and cost. This proposed joint industry/government initiative is a 
two-year program to investigate the potential of laser drilling 
systems.
Microturbine power generation (energy efficiency)--+$2.5 million
    Microturbines are small (25-300 kW) gas turbines which can 
significantly increase energy efficiency and reduce emissions. The 
potential worldwide market for microturbines is very large. Due to 
regulatory restructuring coupled with technology innovation, the 
electric power industry in the U.S. will likely experience more change 
in the next decade than throughout its entire history. Energy customers 
in their own search for improved energy service are recognizing that 
electricity can be produced and delivered more cost-effectively and 
cleaner than it is today. One of the emerging technologies that can 
help the U.S. realize this is the natural gas-fueled microturbines.
Advanced reciprocating engine systems (energy efficiency)--+$2 million
    The U. S. energy industry, natural gas reciprocating engine 
manufacturers, and other committed partners have participated in and 
are recommending expanding a joint industry-government partnership to 
develop breakthrough advancements in natural gas reciprocating engine 
technology. This challenging R&D effort will result in significant 
societal and economic benefits for the United States. Natural gas 
reciprocating engines are internal combustion piston engines which with 
breakthrough advancements would provide a clean, energy efficient 
system for use in the emerging distributed generation, combined heat 
and power, and combined cooling, heat, and power markets.
Superboilers (energy efficiency)--+$2 million
    The nation's commercial and industrial boilers are aging. Over 80 
percent of these boilers were purchased prior to 1978, with the bulk of 
the purchases in the 1960s. A major ``Super Boiler'' effort by the 
industry and federal government will seek to provide over 50 percent 
improvement in efficiency over today's installed units. In addition, 
this effort would result in units that will be up to 50 percent 
smaller, cost 25 percent less to manufacture and maintain, and will 
have extremely low emissions that meet the stringent emission 
regulations beyond the year 2025.
                                summary
    GRI encourages the Subcommittee to support the Administration's 
total request for gas-related R&D of approximately $224.5 million plus 
the above recommendations for additions of $7.5 Million. These 
recommended increases fill a need in the gas production industry as 
well as the distributed power generating market through the development 
of more efficient, clean options for the consuming public. The fiscal 
year 2000 DOE budget request for gas-related research is approximately 
$21 million lower than the fiscal year 1999 appropriation. The 
additions recommended will still result in lower gas-related funding in 
fiscal year 2000 than approved by Congress for fiscal year 1999, but 
will provide the much needed research in order to address the needs for 
a secure, efficient, and clean energy future. GRI strongly urges the 
Subcommittee to support the Administration's fiscal year 2000 gas-
related budget as well as the recommendations of the gas industry.

   DOE GAS-RELATED FUNDING UNDER THE JURISDICTION OF THE INTERIOR AND
                      RELATED AGENCIES SUBCOMMITTEE
                        [In millions of dollars]
------------------------------------------------------------------------
                                                     Fiscal year--
                                             ---------------------------
                                                   1999          2000
                                               appropriation    request
------------------------------------------------------------------------
Fossil Energy:
    Natural Gas Supply......................           27.0        25.8
    Fuel Cells..............................           44.2        37.7
    Gas Turbines (ATS Utility Scale)........           44.5        41.8
                                             ---------------------------
      Subtotal Gas-Related Fossil Energy....          115.7       105.3
                                             ===========================
Energy Efficiency:
    Industrial..............................           67.9        48.7
    Transportation..........................           34.4        31.2
    Buildings Technologies..................           12.2        20.5
    Power Technologies......................            3.0         5.5
                                             ---------------------------
      Subtotal Gas-Related Energy Efficiency          117.5       105.9
                                             ---------------------------
      Total Gas-Related (Subcommittee                 233.2       211.2
       Jurisdiction)........................
------------------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of Richard Morrow, Vice President, Southern 
California Gas Company, and Chairman of the American Gas Cooling Center
    I am Rick Morrow, Vice President of Southern California Gas 
Company, a division of Sempra Energy. I am hear today to testify on 
behalf of the American Gas Cooling Center, an association of natural 
gas utilities, manufacturers and others interested in promoting natural 
gas cooling as an alternative or enhancement to other air conditioning 
and refrigeration choices. The Center, of which I serve as Vice 
Chairman, is comprised of over 150 utilities, 50 equipment 
manufacturers, and almost 100 other national and international 
organizations.
    Our association has a long history of successful cooperative 
research, development and demonstration projects with the Department of 
Energy. More importantly, we believe the need is greater now than ever 
to develop and commercialize gas cooling technology that saves energy, 
reduces emissions and provides lower cost options to consumers and 
businesses.
    In response to that critical need, we are specifically requesting 
the Subcommittee to provide a total of $12.0 million to the Department 
of Energy's Building, State and Community Programs to co-fund natural 
gas cooling research, development and demonstration with our industry 
partners. This request represents a $1 million increase over the 
President's budget.
    Our request for increased funding is being driven by the many 
changes facing today's residential and business energy consumers. 
Deregulation of the energy industry is increasing customer choice for 
energy services, while environmental regulations banning CFC 
production, reducing greenhouse gas emissions and tightening indoor air 
quality standards will potentially increase their energy costs. 
Specifically, we expect that electric rates during summer electric 
peaks will remain high, and may even grow, while off peak electric 
rates may decrease.
    As the American energy industry becomes more horizontally 
integrated, utilities are no longer either gas OR electric. By way of 
example, my company recently merged with San Diego Gas and Electric and 
has a merger pending with KN Energy. Our company's interests have 
broadened, but our focus remains on providing the customer with the 
best energy solution.
    Fortunately, natural gas cooling technologies can often provide the 
most efficient and economical option for both our customers and for 
ourselves. Moreover, the latest generation of high efficiency turbines, 
micro-turbines, fuel cells, and other types of distributed generation 
can work in combination with these gas cooling technologies to 
dramatically increase overall energy efficiency. We are working with 
the Department of Energy's Roadmapping process to incorporate these 
combined cooling, heat and power (CCHP) systems into new and existing 
buildings resulting in potential energy efficiency improvements of up 
to 40 percent.
    For the residential consumer, the American Gas Cooling Center is 
working cooperatively with DOE to complete development of a natural gas 
fired heat pump, the generator absorber exchange cycle (GAX). DOE has 
been conducting research for almost a decade and private industry has 
become very involved in the past couple years. In fact, two consortia 
of gas companies now exist to bring GAX to the market. As in a previous 
gas heat pump commercialization effort (engine driven) for which the 
gas industry committed over $14 million, we are willing to do the same 
for the GAX, should it prove as efficient and cost effective as 
preliminary DOE estimates. This technology, when commercialized, will 
provide consumers with a lower cost, high efficiency alternative to 
provide heating and cooling in their home. Current priorities in the 
cost shared program include field test of multiple units and continued 
component cost reduction and efficiency improvements.
    We have numerous other projects that are either under development 
or yet to be funded that will provide similar benefits to those I have 
already mentioned. However, additional funding is needed to bring these 
technologies to the consumer and to integrate them into the design 
process for residences and commercial buildings.
    We are very involved in cost shared research on desiccant 
technology. Moisture removal has long been an issue for modern space 
conditioning systems. When U.S. standards increased efficiency of 
building envelopes, they negatively impacted indoor air quality, 
thereby increasing air conditioning loads. New ASHRAE standards require 
more outside air, thereby bringing in more humidity. Desiccants' 
ability to remove moisture introduced by increased ventilation, can 
provide a comfortable indoor environment more efficiently and 
economically than conventional means. The gas industry views desiccant 
technology as a real energy efficiency opportunity and is supporting 
research and development jointly funded by industry partners, the Gas 
Research Institute and the DOE. In fiscal year 2000 our priorities 
include testing the performance of liquid desiccant prototypes and 
field test of a desiccant air pre-conditioner that can be fully 
integrated with electric air conditioning, as well as continued R&D 
into indoor air quality implications.
    In addition to these two programs, the industry continues to 
support demonstration of the triple effect absorption chiller at the 
Clark County Municipal Center in Las Vegas, Nevada. This technology, 
aimed at the large commercial market, is approximately 20 percent more 
efficient than the best available technology. In 1999 funding was 
provided to finish prototype fabrication and fiscal year 2000 funds 
will be sued to cost share installation and evaluation.
    Our final priority is in line with our recent roadmapping 
activities at DOE that incorporate combined cooling, heat and power in 
building applications. Our activities in that capacity have already 
produced one early need-design guidelines and criteria for integrating 
on site power generation in buildings. Current building design tools, 
such as DOEII and Energy 10, do not include on site power generation. 
Effectively utilizing waste heat can increase efficiency of our 
buildings' systems by 40 percent. We would like to see the current 
design tools enhanced or new tools developed to address combined 
cooling, heat and power. This activity, obviously, reaches beyond 
natural gas cooling; however, we see systems integration as a key to 
increased use of natural gas in space conditioning.
    In conclusion, we are very excited about the many economic and 
environmental benefits that will accrue from the continued development 
and commercialization of natural gas cooling technologies for both the 
residential and business customer. To achieve these benefits, the 
American Gas Cooling Center encourages the Subcommittee to provide a 
total of $12.0 million to the Department of Energy's Building, State 
and Community Programs to co-fund natural gas cooling research, 
development and demonstration projects.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Prepared Statement of Michael Dickens, Chief Executive Officer, 
             Integrated Building and Construction Solutions
    My name is Michael Dickens. I am the CEO of IBACOS (Integrated 
Building And Construction Solutions), a founding partner in the 
Department of Energy's Building America Program.
    IBACOS is made up of more than thirty leading companies from the 
homebuilding industry, including equipment manufacturers, builders, 
design firms, and other parties interested in improving the overall 
quality, affordability and efficiency of our nation's homes and 
communities. Although we are located in Pittsburgh, PA, our membership 
is derived from across the country and our associated building product 
manufacturers include Carrier Corporation of Indianapolis, IN, GE 
Appliances of Louisville, KY, USG Corporation of Chicago, IL, Kohler 
Company of Kohler, WI, GE Plastics of Pittsfield, MA, Owens Corning of 
Toledo, OH, and IBM of Raleigh, NC Our Builder Network includes such 
large builders and developers as Pulte Homes of Bloomfield Hills, MI 
RGC of Newport Beach, CA, Classic Homes of Colorado Springs, CO and 
Case Enterprises of Tucson, AZ. Other builders and developers in PA, 
IN, CA, GA, and MD, also participate.
    We have been working with the Department of Energy's Office of 
Building Systems since the start of the Building America Program in 
1993 (?). Along with three other consortia, we represent over 70 
residential builders, developers, designers, equipment suppliers and 
community planners, who have a common interest of improving the energy 
efficiency and livability of America's housing stock, while avoiding 
any increase in home costs. In pursuit of this goal the four partners 
in Building America pursue common activities that will ultimately 
assist all home builders, such as systems integration R&D to improve 
energy efficiency, indoor air quality and durability of housing, 
thermal distribution R&D, incorporation of passive and active solar 
techniques, techniques that reduce material waste at building sites, 
use of recycled and recyclable materials, and building materials 
improvements.
    We at IBACOS are excited about preliminary research results on 
systems integration. One of the major hurdles in homebuilding has been 
the issue of putting the home together on the building site in a way 
that maximizes integration of the various components and equipment 
within a house. Systems integration allows an airtight house in which 
subsystems are used together to optimize the home's engineering and 
otherwise increase the overall energy efficiency and rationality of the 
home. There have been a number of concrete and encouraging results from 
research, development and demonstration activities in cooperation with 
the Federal government. In fact, IBACOS, as a part of the Building 
America Program, has been able to demonstrate to production builders 
such as RGC Homes of California that they can build homes that save 
more than 40 percent in energy costs while avoiding any increase in 
initial builder costs. The rate of technology transfer from the 
national laboratories and the industry to the marketplace requires 
additional demonstration opportunities and we are glad to be working 
with DOE towards this end.
    We view one of our most important functions, however, as creating a 
resource of proven homebuilding methods for the tens of thousands of 
small home builders across the country. Because the home building 
industry consists of almost one hundred thousand small builders, some 
of whom build only a few houses a year, it is very difficult to bring 
innovations to this community. Building America partners, such as 
IBACOS have the ability to diffuse information throughout the building 
community. We are working to significantly expand the active team 
membership of Building America, but, perhaps more importantly, we are 
diffusing information to hundreds of builders through participation in 
national conferences, technical committees and the internet. We are 
working towards directly transferring systems innovations for homes to 
over 100,000 production homes in the next four years, which could save 
consumers approximately $50,000,000 in annual energy costs.
    Our understanding is that the Department's Office of Building, 
State and Community Programs has reorganized the Residential Buildings 
program. We are encouraged by this reorganization and, as such, are 
supporting the entire residential budget area. We are glad to see the 
Department join programs that rightly belong together: Building 
America, with industrialized and manufactured housing energy efforts 
and the new Partnership for Advancing Technologies in Housing (PATH).
    As an interested stakeholder in PATH, I think it is important to 
understand the relationship that program has with the Building America 
Program. PATH is a government-wide effort to improve the way America 
builds housing stock and takes into consideration all aspects of 
homebuilding. For this reason, HUD, DOE, NIST, EPA, NIOSH, OSHA, 
Commerce and a number of other government entities are involved. DOE's 
role is specific: improve the energy efficiency and livability of 
America's residential buildings while incurring no additional first 
cost. We have had no small measure of success and are working with PATH 
on demonstration communities that incorporate the Building America 
principles.
    IBACOS is supporting all of these efforts for the simple reason 
that they belong together. We in Building America are using several 
types of industrialized housing in some of our test homes and field 
developmental programs, and we are working with PATH communities as a 
part of Building America.
    One of the PATH communities is in Tucson, AZ. IBACOS, through the 
Building America program is working with the developer and builders on 
a 2600-home sustainable new town called Civano. The first test homes in 
this community are proving to be at least 60 percent more efficient 
than comparable homes and are costing only $150 per home more up front, 
while saving hundreds of dollars annually on energy bills for each home 
owner. Other communities in which Building America is serving as a 
partner with developers, builders and PATH are Village Green in 
California, Playa Vista in California, Summerset in Pittsburgh, and 
emerging communities in Denver, CO and in Florida.
    IBACOS intends to fully participate in any ``housing of the 21st 
century'' road mapping activities. We feel very strongly that the 
integration of the systems into a home is as important, or even more 
important, than the individual pieces of equipment that are installed. 
We have proven the ability to work with builders to build single pilot 
homes and support them through early adoption in their production 
lines. Now, we are very excited about our work with community planning 
and larger scale projects. We look forward to continuing to work with 
DOE to try to bring energy efficiency to housing at no incremental 
first cost, while building markets for efficient equipment.
    DOE plays a critical role in bringing this research, development 
and deployment agenda to the marketplace. Because the home building 
industry is made up of so many builders, suppliers, and equipment 
manufacturers, it is virtually impossible for them to come together to 
perform common research without a third party such as the DOE. 
Additionally, there has been little incentive in the building area for 
builders to improve on energy efficiency for a number of reasons. 
First, energy and resource efficiency does not necessarily contribute 
to the bottom line of the builder; instead, it benefits the homeowner 
and the nation. Because the builder cannot directly recoup costs for up 
front investments through energy savings (since he does not own the 
home), he has little reason to spend more initially. For this reason, 
we are working to make a better home for no incremental costs with the 
belief that, eventually, energy and resource efficiency, durability and 
affordability will be business as usual in the homebuilding industry. 
DOE's role in bringing together the right entities and cost sharing 
common research is therefore invaluable in fulfilling the social goods 
aspect of improving our nation's building stock, while we work to 
reduce up front builder costs.
    We at IBACOS urge you to approve the DOE fiscal year 2000 budget 
request for the Residential Buildings Program. Along with the industry 
cost share in the program of at least one hundred percent, this program 
can significantly catalyze improvements in what has traditionally been 
a very fractionalized homebuilding industry.
    Thank you for your attention today.
                                 ______
                                 
  Prepared Statement of Eric L. Simpkins, Energy Research Corporation
    This testimony requests $19.5 million for the Energy Research 
Corporations portion of the U.S. Department of Energy's stationary fuel 
cell program within a $65 million budget for the overall stationary 
fuel cell program.
    This statement is provided in support of the U.S. Department of 
Energy's (DOE) Fossil Energy Fuel Cell Program. The DOE/ERC Cooperative 
Agreement (DE-FC21-95MC31184) defines that $19.5 million is needed in 
fiscal year 2000. Key activities for this period are to organize sub-
megawatt and megawatt field trials, conduct sub-megawatt field trials 
at customer sites, and realize continued progress in reducing the cost 
of producing and installing Direct Fuel Cell--energy plants.
    ERC expresses its appreciation to the Subcommittee for its support 
of the stationary fuel cell program and the U.S. developers during the 
fiscal year 1999 appropriations and conference process. Federal support 
for the program makes the impressive accomplishments of the DOE program 
possible.
                                summary
    Enduring support for the Direct Fuel Cell program by the Congress, 
the Administration, and the electric utility community is paying off. 
The final activities necessary to validate the technology, and complete 
the designs for a family of Direct Fuel Cell energy plants, are being 
completed. In 1997, the 2-megawatt Santa Clara proof-of-concept test 
was completed, providing the confidence to proceed, and the engineering 
information necessary for designing and building market-ready energy 
plants. ERC is proud to report another key milestone--the commissioning 
of a 250-kilowatt Direct Fuel Cell stack. The largest Direct Fuel Cell 
ever operated, it represents the building block for a family of energy 
plants that will begin entry into domestic markets late next year. We 
can also report that our German partner's fuel cell plant (containing 
the Direct Fuel Cell stack) will be made available for U.S. markets 
while, conversely, ERC's plant will be sold in Europe. Early adopters 
are queuing for acquisition of the first plants, and negotiations for 
field trials are underway in the U.S. and Europe. And significant 
progress has been made in rendering the Direct Fuel Cell energy plant 
affordable; the Direct Fuel Cell cost has been cut in half, and under 
the field trials initiative will be cut in half again.
                    evolving markets for fuel cells
    The process of restructuring of the electric utility industry is 
accelerating, making the case for completing the stationary fuel cell 
program promptly even more compelling. Over time this it is expected to 
lead to lower but more volatile electricity prices for larger 
customers, and potentially higher prices for smaller customers. Both 
volatility and higher prices for some consumers reflect continued 
dependence on the established grid, regardless of what entities 
generate, transmit and distribute electricity. Also, traditional and 
even newer central generation systems promulgate existing issues such 
as costly maintenance, environmental emissions, and lower than needed 
reliability. Dwindling capacity margins, from nearly 30 percent in the 
mid-1980's to less than 15 percent today, threatens power availability 
for everyone. This scenario bodes well for stationary fuel cell energy 
because fuel cells aggressively respond to each of these issues.
    Fuel cell energy plants are not large central generating systems. 
Because they are sited at the load center, dependence on the 
transmission & distribution grid is retired. Fuel cells are fuel 
flexible. Should the price of one fuel rise dramatically, another 
available fuel may be readily substituted until primary fuel prices 
again become affordable. Because fuel cells are a combustionless 
process, there is no rotating machinery. Consequently, operation and 
maintenance processes are vastly simplified and reduced in number, 
hence reliability will be greater than conventional systems. Lastly, 
smog producing emissions are at or below the limit of delectability, 
while greenhouse gas emissions are less than half those of traditional 
generation systems.
    The markets for stationary fuel cell energy plants are becoming 
increasingly stronger. New applications for distributed generation are 
being identified by user/buyers, accompanying a growing demand for 
field trials to gain operational familiarity and experience. ERC and 
its partners are conducting two projects that demonstrate the 
innovative applications for fuel cell generation developing in domestic 
markets:
  --An ethanol production facility in Nebraska, production-limited 
        because of the quantity of its process waste effluent, will be 
        employing an integrated high tech digester/fuel cell plant to 
        pre-treat the effluent. The methane by-product will be consumed 
        by the fuel cell to generate electricity and thermal energy 
        needed for the ethanol production facility. This enables 
        production capacity growth and increased competitiveness for 
        the ethanol producer, while realizing the benefits of on-site 
        fuel cell energy production.
  --An experimental greenhouse co-located with a county landfill in New 
        Jersey will use the fuel cell and landfill gas to generate 
        electricity and heat, as well as carbon dioxide needed for more 
        rapid plant growth. This reduces energy costs for the grower, 
        readies his produce for market faster, and productively uses 
        otherwise environmentally damaging landfill gas.
                      achieving planned objectives
    ERC is committed to completing the DOE/ERC Cooperative Agreement 
while establishing field trials that will validate the commercial 
viability of these highly efficient and affordable energy plants. This 
is the last pre-commercialization effort necessary to validate plant 
designs, manufacturing processes, on-site installation procedures and 
fuel cell operations. Toward this objective, several milestones have 
been achieved and reported to this Subcommittee. In 1997, we described 
in testimony the completion of the 2-MW Santa Clara (CA) proof-of-
concept test, which validated the carbonate fuel cell technology at a 
utility scale. Since that watershed event, design changes dictated by 
that test have been incorporated to optimize fuel cell performance and 
reduce cost. Last month, the pre-commercial version of a 250 kW Direct 
Fuel Cell stack (Figure 1) was commissioned at ERC's headquarters. 
Providing, virtually, an endless supply of electricity for corporate 
offices and engineering laboratories, this stack is the building block 
for a family of Direct Fuel Cell energy plants that will be available 
for domestic markets beginning in late 2000. A decade's investment in 
the Direct Fuel Cell by the Congress and our country is paying off as 
hoped, a testament to the enduring support of the Appropriations 
Committee, the Administration, and the electric utility industry.
    Optimizing the Direct Fuel Cell energy plant design to reduce cost 
is the thrust of our endeavors today. ERC believes the plant will 
achieve below market clearing prices of $1500 per kilowatt, established 
by the electric utility industry, upon reaching product maturity. This 
is a realistic expectation, validated through an independent audit by 
the DOE, in consideration of the progress since the Santa Clara proof-
of-concept test. The power output from a single Direct Fuel Cell stack 
has been doubled, while its durability has increased several-fold. The 
engineered improvements coupled with the development of integral 
relationships with our suppliers have reduced Direct Fuel Cell cost by 
half. It is anticipated that the cost will be halved again through 
completion of field trials that will begin later this year.
    In the effort to condition markets worldwide for the Direct Fuel 
Cell energy plant, ERC is aggressively developing strategic 
partnerships and alliances. The Fuel Cell Commercialization Group, a 
utility consortium established in the early 1990's for buying the first 
energy plants, has supported ERC's efforts with market education and 
systems level requirements definition. More recently, ERC have 
established a cross-licensing relationship with the MTU division of 
Daimler Chrysler, our strategic partner in Europe. Under this 
arrangement MTU will provide 200-kilowatt class fuel cell plant, that 
employs the Direct Fuel Cell, for U.S. markets, while ERC will make 
available its megawatt-class Direct Fuel Cell energy plants to MTU for 
sales in European markets.
    With the partnerships and alliances being developed, Direct Fuel 
Cell energy plants such as, nominally, the 3-megawatt plant (Figure 2), 
as developed by ERC, will be sold worldwide. Additional members of the 
family of Direct Fuel Cell products will include a 200-kilowatt, and, 
nominally, 1.5 megawatt plants.
                          plans for completion
    ERC is committed to completing the DOE/ERC Cooperative Agreement on 
the existing schedule. This is dependent upon receiving the 
Department's share of funding to support this schedule. ERC has 
exceeded its cost share commitment, and will continue to meet or exceed 
its share. We remain eager to launch the family of proven Direct Fuel 
Cell energy plants into markets worldwide.
    To meet this ambitious goal, ERC is conducting the tasks necessary 
to complete the work defined in the Cooperative Agreement. The 250-
kilowatt Direct Fuel Cell energy plant, generating electricity for our 
corporate headquarters facility, will continue operations throughout 
the summer. This unit is the largest operational advanced fuel cell 
energy plant in the U.S. today, representing the cooperative efforts of 
the Congress, Administration, and the electric utility industry in 
preparing the first advanced fuel cell for commercial markets. It 
validates the design of the prototypic commercial fuel cell stack that 
launches sub-megawatt and megawatt-class field trials.
    Field trials are being developed with U.S. and European utilities 
to showcase the Direct Fuel Cell, build user confidence in the multi-
level benefits of fuel cells, and attract the investment needed to 
establish a broad manufacturing capability. The first of these field 
trials will be conducted in Bielefeld, Germany beginning later this 
year, while negotiations are underway for the first domestic projects.
    Concurrently, ERC is focused on reducing the production cost of the 
Direct Fuel Cell, and simplifying overall energy plant design. As the 
Direct Fuel Cell approaches product maturity following field trials, 
the plant cost will cross the market clearing price line. Highly 
efficient electricity and heat generation, combined with super clean 
emissions, will offer users remarkable value. These flexible energy 
plants will engender a wide variety of uses including electric and gas 
utilities, reliability and power quality applications, rural and on-
farm generation, electric service for ships, landfill sites, industrial 
cogeneration, and environmentally sensitive areas.
                               conclusion
    The many changes in the electric utility industry are driving 
customer interest in new generation technologies. The Direct Fuel Cell 
technology has been proven in hundreds of thousands of hours of testing 
worldwide to meet specifications and the expectations of those 
interests that will use them to solve problems of cost, power 
reliability and availability. Early adopters are eager to apply fuel 
cells to solve existing challenges or preclude the impacts of electric 
utility industry deregulation. Its many benefits invite innovators to 
study applications never before considered.
    Bipartisan support has propelled the stationary fuel cell program 
through the many years of study, experimentation and testing. Today, at 
the threshold of market entry, continued support is needed to complete 
the task. ERC sincerely appreciates the work of the Subcommittee and 
the Department of Energy in behalf of the stationary fuel cell program. 
We request that the Direct Fuel Cell program be funded in fiscal year 
2000 at $19.5 million within a $65 million stationary fuel cell budget 
that represents the aggregate need of the U.S. developers.
                                 ______
                                 
                         OTHER RELATED AGENCIES
           National Foundation on the Arts and the Humanities
Prepared Statement of the Maxwell Museum of Anthropology, University of 
                               New Mexico
    Request: A one-time $3 million appropriation from the National Park 
Service to the University of New Mexico that will match private funds 
for the construction of a facility for the storage and research of 
archeological holdings located at UNM. These include the estimated 1.5 
million artifacts from the Chaco Culture National Historic Park, a 
UNESCO World Heritage Site also listed on the National Register of 
Historic Places. This research collection is held jointly by NPS and 
UNM.
    Background: The Maxwell Museum of Anthropology at the University of 
New Mexico houses and interprets a world-renowned and priceless 
collection of cultural materials from around the world. More than half 
of this collection focuses on the Anasazi (Early Pueblo) culture of the 
American Southwest centered in world-renowned Chaco Canyon, one of only 
two UNESCO World Heritage Sites in North America, which is managed by 
NPS.
    The Chaco holdings at Maxwell include archeological artifacts as 
well as the extensive archival inventory of field notes, reports, 
architectural descriptions and photographs that gives the artifacts 
cultural meaning and preserves their original locations of use. Since 
the 1930s, UNM and NPS have worked collaboratively on the archeological 
research, education, publication and curation of collections from this 
site. Significantly, it has been this long archeological collaboration 
that has provided much of the expertise and information that enabled 
the stabilization and long-term preservation of the unique architecture 
of Chaco Canyon, thus enabling it to become an important part of the 
nation's cultural heritage.
    In addition, under a regularly renewed Cooperative Agreement 
between NPS and UNM, the curatorial staffs of the Maxwell Museum and 
the Chaco Culture National Historic Park jointly curate the 
collections. In this regard, the missions of the agencies coincide and 
include the long-recognized need to store the collections in a facility 
that is adequately equipped to house them and to ensure their use by 
scholars and availability to the general public. The 1995 Cooperative 
Agreements states that ``The University and the Service will continue 
to work collaboratively towards the planning and implementation of 
long-range goals for the Collection e.g. the Inter-Agency/University 
Research facility.''
    The Maxwell Museum also houses major collections from all of the 
other prominent archeological cultures of the Southwest region as well 
as many other parts of the world, all of which will be consolidated in 
the proposed facility. The best known of these is the collection of 
Mimbres material of southwestern New Mexico that was recovered during 
the 1960s and 1970s by the Mimbres Project of the Maxwell Museum. This 
decade-long archeological salvage program excavated many of the 
surviving Mimbres sites during a time of rapid land development and 
looting, and in so doing, it added immeasurably to the understanding of 
this brilliant culture.
    The Maxwell holds many of the rare remains of the earliest human 
occupation of the Western United States, including artifacts of Clovis 
and Folsom hunters recovered from such famous early sites as Blackwater 
Draw, the Folsom site and Sandia Cave. These are accompanied by equally 
important paleolithic collections from the Old World that include some 
of the best documented collections from Western Europe and East Africa. 
Finally, the Maxwell holds major collections from the important 
Mogollon civilization of present-day Arizona and the Casas Grandes 
culture of Chihuahua, Mexico.
    Need: The UNM/NPS Chaco project and several others that have 
contributed to UNM's prominence in the fields of anthropology and 
archeology continue to grow. Given the growth over the past 70 years, 
the available space for storage and laboratory research has become 
increasingly inadequate both in quantity and quality. The more than 
five million artifacts currently held by the Maxwell are housed in five 
different buildings, none that entirely meets the stringent standards 
demanded by museum professionals and the NPS or by general federal (36 
CFR 79) guidelines. Environmental and climatic controls, fire detection 
and suppression, and security are less than optimal. Serious 
overcrowding has limited the access of scholars intent on research and 
of the general public seeking to view the remains of one of the world's 
great prehistoric civilizations. Thus the collection and its 
educational value are underutilized.
    New Building Project: The Maxwell Museum and the Chaco Culture 
National Historic Park, with the backing of their parent institutions, 
have jointly developed a plan to address these urgent needs by building 
a new curatorial and research facility adjacent to the Maxwell on the 
University of New Mexico campus. The goals of this project are to 
curate and preserve the archeological holdings; to make them available 
for study, interpretation and public exhibition; and to generate 
research and informational programs in accordance with the university's 
education mission and that of NPS to bring national heritage to the 
general public.
    In support of these goals, UNM has received a commitment of $3 
million toward the construction costs from a private donor. A further 
$3 million is required to complete the storage/research facility in 
accordance with preliminary plans completed by UNM-sponsored 
architects. Architectural plans and estimated costs accompany this 
document.
    The new facility will house the Maxwell Museum and Chaco Culture 
National Historic Park archeological artifacts, archives and related 
photographic documentation, thereby consolidating components stored in 
several different areas and benefiting users by having all materials 
related to Chaco Canyon stored in one location. The facility will 
conform fully to federal standards of curation required by 36 CFR 79 
and will accommodate the current collection as well as anticipated 
growth for the next fifty years. In addition to the collection storage 
areas, the facility will include research laboratories and work space 
for the curatorial staff from UNM and NPS; a teaching area, a research 
library and archive containing the Chaco Canyon-related materials; on-
line access to catalog data and Internet access at all workstations; 
and a conservation laboratory, visible storage for the most popular 
component of the collection (Southwestern pottery and basketry) and 
space dedicated for the use and study of the collections by Native 
Americans.
    Impact: The educational potential is almost unlimited, with the 
facility serving as a dynamic laboratory for archeological and cultural 
preservation training by NPS and UNM conservators and curators as well 
as a center for innovative public education, outreach and 
interpretation programs. K-12 students and the general public will 
benefit from the increased use of the collections in the Maxwell 
Museum's outreach, public and exhibition programs, which now reach more 
than forty thousand children, adults and senior citizens each year. The 
increased work space and laboratory facilities will encourage 
University students and professional scholars to conduct research on 
the artifacts and in the archives, thereby increasing the understanding 
of the history of Southwestern cultures and enhancing the public 
appreciation of the rich cultural resources of New Mexico and the 
Southwest.
    Because of its integral participation in the development of the 
research facility, the NPS will be able to expand its existing 
relationships with other federal agencies and with Native American 
tribes. For instance, the NPS has long maintained a close working 
relationship with the Navajo Nation Historic Preservation Division with 
regard to the examination and care of archeological sites located near 
Chaco Canyon on Navajo lands. This work is essential to the full 
understanding of the Chaco people in their regional context during the 
Anasazi period. This collaboration has been severely hampered by the 
inability of the NPS to store, analyze and curate the materials 
resulting from the work. The new facilities will resolve this problem. 
The central location of the facility in Albuquerque will also enhance 
the NPS ability to consult with its many affiliated tribes on 
collection use and NAGPRA compliance issues. Moreover, a major goal of 
the Maxwell Museum is to open its doors for training and participation 
of Native American people in museum management activities. The NPS is 
fully supportive of this goal and feels that the new center will 
further its ability to incorporate native views, perspectives and 
concerns into the planning of its collections management strategies.
    The presence of a major archeological research center on the UNM 
campus in close proximity to related disciplinary centers such as 
Biology, Earth and Planetary Sciences, Native American Studies and the 
Center for Southwest Research will facilitate interdisciplinary 
research. In the past eight decades, research on the Chaco Canyon 
collections has generated 45 graduate dissertations and theses. With an 
increased potential for inter-disciplinary education, even greater 
productivity is expected in the coming decades as the collection 
catalog (now at 90 percent) is completed and computerized information 
is made accessible. This increased research will greatly expand UNM's 
ability to develop innovative public programming, enhancing 
interpretive programs and exhibits in the Maxwell Museum and the Chaco 
Culture National Historic Park.
    In recognition of the importance of these collections for such 
future work, the Society for American Archaeology, which is the 
national professional body for archeology, solidly supports this 
project. The new research facility represents a rare example of a 
university--federal--private partnership in the vital area of 
collections care and management. It also pioneers the full integration 
of curation and education in a comprehensive mission that will provide 
unusual opportunities for both the academic community and the general 
public to expand their knowledge of the past and develop greater 
awareness of the richness and diversity of our national heritage.

                                                 SUMMARY BUDGET
----------------------------------------------------------------------------------------------------------------
                                                                       Federal grant
                                                              Cost         funds      Matching funds     Total
----------------------------------------------------------------------------------------------------------------
Consultant Fees: Architecture/Engineering................  .........     $202,366.50     $202,366.50    $404,733
Equipment:
    Furnishings..........................................   $225,000      112,500.00      112,500.00     225,000
    Data/Telecommunications..............................    200,000      100,000.00      100,000.00     200,000
                                                          ------------------------------------------------------
      Subtotal...........................................  .........      212,500.00      212,500.00     425,000
                                                          ------------------------------------------------------
Construction.............................................  4,761,563    2,380,781.50    2,380,781.50   4,761,563
Other:
    Project Contingency..................................    101,205       50,602.50       50,602.50     101,205
    Project Administration \1\...........................    307,500      153,750.00      153,750.00     307,500
                                                          ------------------------------------------------------
      Subtotal...........................................  .........      204,352.50      204,352.50     408,705
                                                          ------------------------------------------------------
      Total Budget Costs.................................  .........    3,000,000.00    3,000,000.00  6,000,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes UNM Utility Charges of $240,000 (4 percent of budget) to bring utilities to the site and to pay for
  increase in power supply.

                                 ______
                                 
Prepared Statement of Edward H. Able, Jr., President and CEO, American 
                         Association of Museums
    My name is Edward H. Able, Jr. I am President and C.E.O. of the 
American Association of Museums (AAM), the national museum organization 
that has helped America's museums and their staffs serve communities 
and families since 1906.
    For over 30 years, the Federal cultural agencies have provided 
invaluable financial assistance to museums of every kind, from art 
museums and aquariums to youth museums and zoos, in their mission to 
serve and educate the public. I urge you to bolster this effort in 
fiscal year 2000 by funding the National Endowment for the Humanities 
(NEH) and the National Endowment for the Arts (NEA) at the levels 
requested in the President's budget. In addition, I encourage you to 
substantially increase the Office of Museum Services (OMS) within the 
Institute of Museum and Library Services (IMLS) to $40 million. This 
increase would accommodate both the president's budget request of 
$10.45 million for new technology and leadership initiatives as well as 
the museum community's request of $6 million for a much needed boost 
for major programs, such as General Operating Support (GOS) grants, 
which have been level funded for several years. As my time is very 
limited, I will simply underscore the critical support the NEH and NEA 
provide museums, and will focus my attention on the importance to 
museums of OMS General Operating Support (GOS) funds. General operating 
support funds for museums, though fundamental, are very difficult to 
obtain from foundations or corporations, which generally prefer to fund 
higher profile programs. A museum's ability to serve its community well 
stems from the health of the museum's most basic operations. Funding 
for such operations are the most difficult to obtain.
                            the museum boom
    Over the past ten years museums have witnessed a huge increase in 
attendance. For evidence, we do not have to look further than down the 
street to the National Gallery of Art, which during the Van Gogh 
exhibition accommodated 5,339 visitors a day for a total of 480,496 
visitors. The new California Science Center had over 2 million visitors 
in the last year. There are more examples from 1998: An exhibition of 
Leonardo da Vinci's ``Codex Leicester'' at the Seattle Art Museum had 
2,916 visitors a day; ``Titanic: The Exhibition,'' drew approximately 
5,000 visitors a day for a total of about 830,000 visitors to The 
Florida International Museum in Saint Petersburg, Florida; and The New 
York Historical Society during ``Treasures from Mount Vernon: George 
Washington Revealed'' served 45,264 visitors in a three month period.
    This is not simply a blockbuster phenomenon. According to a recent 
and conservative AAM estimate, museums get 865 million visits per year 
compared with around 600 million only a decade ago. That's an 
impressive 2.3 million visits to American museums per day. More people 
visit American museums today than in any time in history. And this 
trend shows no sign of slowing down.
    This attendance boom is not just at our nation's biggest 
institutions. The Telfair Museum of Art, Savannah, Georgia, the oldest 
art museum in the South, has seen its attendance double over the last 
four years to 146,000 per year. And this increase in popularity is not 
just for art museums--museums of all types and sizes are being built, 
expanded, or renovated to serve the needs of children, families, and 
life-long learners. We estimate that $4.3 billion will be spent on 
museum construction between 1998 and 2000 and that more than 150 
museums will be built or expanded during the same period.
    So what are the reasons for this boom? While no doubt our healthy 
economy is a major contributor, the real reason for museums' popularity 
goes much deeper. Museums are now benefiting from the results of their 
efforts to reach out to communities and families, which was key among 
recommendations put forth to the field six years ago in AAM's landmark 
report Excellence and Equity: Education and the Public Dimension of 
Museums. This report urged museums to become social and community 
centers and to ensure that ``they are an integral part of the 
multifaceted human experience.''
    Museums have become what a recent supplement in the Washington Post 
dubbed ``The New Town Square,'' ``offering everything from jazz 
concerts to education forums'' while remaining places of learning for 
children, families and adults; of scholarly research; and quiet 
contemplation of beauty, our cultural heritage, and civilizations past 
and present. No doubt museums are succeeding because they invest 
tremendous resources to ensure that they are both intellectually 
understandable and that they meet real community needs.
    To demonstrate the impact of the Office of Museum Services at IMLS, 
I turn back to the Telfair Museum. The museum was awarded a 1998 OMS 
General Operating Support grant of $112,500 (GOS grants span two years) 
to help support market research to determine what Savannah wants from 
the museum and incorporate the findings into its new building and 
mission. According to the museum, this GOS grant will help take its 
service to the community ``to another dimension.''
                     needs resulting from the boom
    1. Infrastructure Stress.--More than ever, museums are being asked 
to be many things to many people. They greet this call with enthusiasm 
and a strong sense of responsibility. However, all this success places 
tremendous demands on infrastructure. With regard to art museums, for 
example, it costs an average of $38 per visitor while the average 
admission charge per visitor is $1.46. With the huge increases in 
attendance, the main reason for establishing the OMS in 1976--``to ease 
the financial burden borne by museums as a result by their increasing 
use by the public'' (Public Law 94-462, Title II, Museum Services 
Act)--has never been more true than today. According to a recent AAM 
survey, almost 90 percent of museums believe that ``funding to meet 
basic commitments'' is a critical need for the coming years, with 70 
percent ranking this issue first among their needs. Only 8 percent 
believe that the museum community has adequate resources to cope with 
the critical issues in the near future--especially funding issues.
    One of the hallmarks of GOS grants is their flexibility. While 
these awards cannot be used for construction or renovation, they can be 
used for a multitude of purposes from education programs, to 
collections care, to providing increased access to collections via 
technology. For example, the Utah Museum of Natural History in Salt 
Lake City received $112,500 that it will use in part to hire additional 
security guards to meet the demands of increased attendance. The museum 
had received state operating support funds, which allowed it to extend 
its hours, which in turn had led to increased use by the public. The 
museum also has an insect infestation problem, which threatens a very 
important ethnographic collection. The funds will be used to rent very 
large cold storage trailers to freeze the artifacts and eliminate the 
infestation. In addition, the collections storage room will be sealed 
and fumigated to ensure the long-term safety of the collection.
    Another example of GOS being used for critical collections care is 
the Bisbee Mining and Historical Museum in Bisbee, Arizona. This museum 
will use its $39,140 GOS grant in part to help preserve its highly 
regarded collection of 25,000 historic photographs, which are in need 
of proper archiving and storage. According to the museum, archival 
supplies are very expensive and it is especially difficult for small 
museums to find the resources to care for collections at the level of 
current professional standards. GOS is the only funding they can find 
for collections care.
    2. Education.--While education has long been critical to museums, 
in recent years it has moved to the forefront of their public service 
missions. Museums are a tool of learning for us all. They put us in 
touch with the past. They bring us information about history's 
successes and failures. Museums help us make real choices today as we 
learn to value who we are, where we came from, and what we have. For 
children, museums open new and wonderful doors to the universe. They 
broaden our children's horizons, enrich their lives and introduce them 
to new opportunities and experiences. Museums help young people to 
learn and grow for the future.
    We know from a recent OMS survey that museums in the U.S. spend 
$193 million annually on K-12 programs and provide nearly 4 million 
hours on educational programs such as guided field trips, staff visits 
to schools, and traveling exhibits in schools. 88 percent of America's 
museums now provide K-12 educational programming. Seventy percent of 
museums have at least one full-time paid staff who offers K-12 
educational programming. More schools everywhere recognize the value of 
museum resources and are taking advantage of them. Museums' commitment 
to education programs for schools is increasing: Over 70 percent of 
museums surveyed report an increase in numbers of students, teachers 
and schools served in the last five years.
    Museums use GOS funds to support their education missions, 
including expanding geographic outreach.--For example, the Museum of 
New Mexico in Santa Fe will use its $112,500 GOS grant to continue 
circulating its ``education van'' throughout the state. In this 
program, museum staff go through intensive planning (working with 
community leaders) to meet community needs. For example, staff worked 
with Navajo elders of Crownpoint who were concerned that their weaving 
traditions were not being passed on to future generations. Museum staff 
brought artifacts to study and held weaving, tutoring, and mentoring 
classes with the elders, to ensure this important tradition will 
continue. The ``education van'' has been to 30 communities in its first 
fourteen months of operation. According to the museum, this program 
would not have happened without IMLS funding, which attracted funding 
from five additional sources--giving yet another example of how 
relatively small amounts of Federal funding leverages significant 
public and private support at the state and local levels.
    For the Green Mountain Audubon Nature Center in Huntington, 
Vermont, which has an island sanctuary for endangered species on Lake 
Champlain, a GOS grant of $42,700 was ``a shot of whole blood.'' The 
museum was able to keep the educator it employed on a seasonal basis 
and work him into all of its on-site and outreach education programs 
throughout the year. The museum hopes to use this grant to build a 
constituency for their outreach program so it can stand on its own when 
the grant runs out--as happened at the Arizona State Museum, which 
received ESEA Title I funding from local schools to sustain a program 
begun with GOS funds.
    3. Technology.--Our country's museums house an enormous wealth of 
information for scholarly research and public education--more than 700 
million objects and associated documentation of our cultural, artistic, 
and scientific heritage. However, a museum at any one time has only 
approximately five to ten percent of its collection on exhibition, and 
access to objects in storage is necessarily restricted.
    Before the advent of the digital age, museums were only able to 
share their collections with the public in teaspoon amounts to on-site 
visitors. Now, however, museums are leaders in developing interactive 
exhibits and applying new technologies to increase their accessibility 
through distance education. ``Virtual visits'' and school programming 
via satellite, one and two-way video, over the Internet, or with a 
combination of these and other communications technologies, can 
supplement the more than 865 million actual visits each year to 
America's museums.
    A $60,439 GOS grant will allow the Sheldon Museum and Cultural 
Center in Haines, Alaska to hire a specialist curator to enter their 
entire collection, including local pioneer-transportation, mining, 
local industries, Tlingit and other northwest coast Native American 
artifacts, on computer for access by the public. For part of the 
grant's matching requirement, the museum was able to leverage a digital 
camera so they can sustain the process of providing the public on-line 
access to their collection.
    Similarly, the Hood Museum of Art in Hanover, New Hampshire is 
using part of its $112,500 GOS grant to fund full time staff for data 
collection and digitizing of their collection. The grant has enabled 
the museum to provide an impressive level of detail about its 
collection so that any student or faculty member at any time can access 
the collection for meaningful study. This effort has brought the museum 
into a closer relationship with students who are increasingly taking 
advantage of all of the museum's resources. The museum would not have 
been able to serve the students and faculty so well without this 
funding.
    But such examples are too few, too sporadic, and have only begun to 
scratch the surface--fewer than ten percent of the nation's museums 
have websites at this time. While 90 percent of the nation's teachers 
believe that using the Internet boosts student achievement and prepares 
students for a future requiring technological literacy, 60 percent of 
the teachers are concerned about the quality of on-line content. The 
president's budget calls for $5 million to make museum resources part 
of a National Digital Library for Education. This funding is part of a 
$30 million initiative to create a digital library that could be used 
in American classrooms and throughout the world. The library will 
include special collections from the Park Service and Smithsonian, math 
and science resources from the National Science Foundation, and through 
IMLS, books and museum collections.
    In addition, the president's budget calls for $7.6 million for OMS 
National Leadership Grants for Museums, such as Museums Online to help 
museums use technology to create regional electronic networks, support 
networked museums through training and technical assistance, share best 
practices in the development of educational resources and implement and 
upgrade Internet access at museums. These well-timed initiatives would 
provide much needed coordination and focus facilitating museums' 
efforts to provide distance education and increased access to their 
collections. We have made great strides in U.S. libraries in terms of 
information access and navigation. To be effective partners with our 
library colleagues, it's critical to make the same advances for museum 
collections, if we are to maximize their potential impact on the 
education of our youth.
    4. Other GOS Statistics.--While need has increased, the OMS has 
shrunk, despite an exemplary record. Funding has dropped dramatically 
since fiscal year 1995, when it was $28.7 million, to today's level of 
$23.4 million. This has meant that the General Operating Support 
program was able to fund only 20 percent of applications in fiscal year 
1998 versus 26 percent in fiscal year 1995, and down from a high of 
46.3 percent in fiscal year 1981. The 20 percent figure is very low 
when you consider outside peer reviewers determining that 59 percent 
were worthy of funding. While GOS grants can be used for multiple 
purposes, 88 percent of grantees use their awards to improve visitor 
services, while 94 percent enhance their educational programs.
    The proposed $40 million is modest relative to the demonstrated 
need. Funding all of the recommended applications would cost nearly $65 
million. Nevertheless, $40 million would significantly increase the 
ability of the agency to help a broader range of museums across the 
country to reach out to their publics and use the OMS award to leverage 
more private funding. The number of awards would increase significantly 
and while most of those additional awards would be small grants, they 
would have a strong multiplier effect on private and state funds for 
the recipient museums, given past experience. Additional funding would 
also help museums increase and enhance services to local school systems 
and other community organizations.
    In closing, the OMS is of enormous support to the museum field 
beyond providing GOS grants. OMS provides much needed funding for 
conservation, professional development, important leadership 
initiatives and awards which ``shine a spotlight'' on best practices 
and replicable programs, and also funds a critical program to improve 
individual museums' standards and performance--the Museum Assessment 
Program, which is produced by AAM. Let me just end by applauding the 
OMS as an incredibly efficient and effective agency. With its staff of 
20, OMS's total non-program costs--including research--are 6.3 percent 
of requested funding, less than its authorized cap of 10 percent. Over 
93 percent of all dollars go directly to museums.
    The public's expectations of museums are higher today than ever 
before, and they are likely to continue to rise. Museums are facing the 
challenge to meet and exceed these expectations. I urge you to answer 
this challenge in partnership with us and ask that you recommend 
funding for the Office of Museum Services (OMS) within the Institute of 
Museum and Library Services (IMLS) at $40 million and recommend funding 
for the National Endowment for the Humanities (NEH) and the National 
Endowment for the Arts (NEA) at the levels requested in the President's 
budget.
    Thank you for the opportunity to submit this testimony.
                                 ______
                                 
      Prepared Statement of the American Symphony Orchestra League
    On behalf of America's orchestras, the American Symphony Orchestra 
League urges the subcommittee to approve fiscal year 2000 funding for 
the National Endowment for the Arts at the level of $150 million, as 
requested in the President's fiscal year 2000 budget.
    Grants from the National Endowment for the Arts (NEA) play a key 
role in orchestras' efforts to bring musical performances of the 
highest quality to the largest possible number of Americans. Supported 
by a network of musicians, volunteers, administrators and community 
leaders, America's adult, youth, and college orchestras total more than 
1,800 and exist in every state and territory, in cities and rural areas 
alike. They engage more than 76,000 instrumentalists in playing 
positions, employ (with and without pay) more than 11,000 
administrative staff, attract more than 250,000 volunteers, and 
annually perform nearly 30,000 concerts to total audiences nearing 31 
million. The federal commitment to the arts, as embodied by the NEA, is 
irreplaceable to this multitude of individuals involved in the 
orchestra field.
    While the fiscal year 2000 request for the NEA represents a 
substantial increase in funding over the current level of $98 million, 
the President's request for $150 million is still well below the $167.4 
million in 1995 funding that preceded the drastic 40 percent cuts to 
the NEA in 1996. The NEA has since significantly restructured its 
grant-making process to make the most of the limited resources 
available to serve the cultural needs of our country, and has now 
further defined a method for serving those needs with additional 
funding, embodied in a proposal titled Challenge America.
                           challenge america
    Challenge America will provide support to state arts agencies and 
arts organizations for activities in five specific areas: Access to the 
Arts, Arts Education, Cultural/Heritage Preservation, Youth-At-Risk, 
and Community Arts Partnerships. Through these areas, the NEA seeks to 
reinforce its commitment to make the arts more central to American 
families and to strengthen the arts infrastructure in communities that 
are underserved by the arts.
                           access to the arts
    The NEA currently supports programs at the national, state, and 
local level that serve to increase access to the arts throughout the 
country. In response to concerns about the distribution of NEA funds, 
the agency created a new program, titled ArtsREACH, which is designed 
to encourage grant applications from arts organizations and community-
based coalitions in 20 states considered underrepresented by direct NEA 
grants. After a representative from the Sioux City Symphony Orchestra 
attended an ArtsREACH grants seminar, the Orchestra successfully 
applied for an fiscal year 1999 grant through the NEA's Creation & 
Presentation category.
    The $7,500 grant enables the Sioux City Symphony Orchestra to bring 
musicians to small communities whose residents are unable to travel to 
Sioux City for performances. The Orchestra is currently implementing 
the grant, which supports outreach concerts and educational residencies 
in neighboring communities in Iowa, Nebraska, and South Dakota.
    Through collaborations with local community centers, schools, 
churches, and educational institutions, the orchestra will perform four 
specialized concerts in rural areas. In one such collaboration, an 
unprecedented partnership between chamber players and the nearby 
Winnebago tribe will culminate in a performance that reflects Winnebago 
traditions. The outreach programs of the orchestra also focus on 
sending string musicians to schools for interactive sessions called 
Informances. Students in classrooms in rural Iowa, many of whom have 
never heard a stringed instrument performed in-person, can listen, 
learn, and test out the instruments of Sioux City musicians.
    Thanks to the recent grant, the Orchestra will expand education 
programs to reach a larger number of schools that have requested to 
participate in the Informances program. Likewise, the collaboration 
with the Winnebago tribe would not be possible without the support 
provided by the NEA and the additional community support the grant 
leverages. The Orchestra is currently attracting new funding through 
publicizing its NEA grant award in requests for contributions from 
corporate sponsors, individual donors, and subscribers, and through 
press releases and newspaper coverage.
                             arts education
    Results from the NEA-supported 1997 National Assessment of 
Educational Progress in the Arts demonstrate that arts literacy 
provides the creative and communications skills necessary for today's 
students to succeed in tomorrow's workplace. In its 34-year history, 
the NEA has maintained a strong commitment to promoting the benefits of 
early childhood learning in the arts, establishing arts education as a 
core subject in the K-12 curriculum, and supporting the lifelong 
learning opportunities offered by arts organizations.
    An fiscal year 1998 Education & Access NEA grant currently supports 
Arts in Community Education (ACE), an interdisciplinary education 
program of the Milwaukee Symphony Orchestra. In addition to requiring 
that participating schools employ at least one full-time music 
specialist, ACE integrates the arts into all subject matters, offering 
in-service training and a summer curriculum workshop to all 
participating teachers. Teachers then tailor the ACE curriculum for use 
in their own classrooms.
                     cultural heritage/preservation
    In order to preserve the rich traditions of our cultural heritage, 
the NEA supports projects that increase public awareness of and 
participation in uniquely American arts forms. Creative music and 
performance traditions are supported through the NEA's American Jazz 
Fellowships and National Heritage Fellowships, and through direct 
grants to arts organizations.
    An fiscal year 1998 Heritage & Preservation grant to the Atlanta 
Symphony Orchestra supported a showcase of works by African-American 
composers in a Martin Luther King, Jr. celebration. NEA-sponsored 
activities included: a January 1998 concert by the Atlanta Symphony 
with the Glee Clubs of Morehouse College and Spellman College; national 
and European broadcasts of the concert; production of compact discs of 
works by African-American composers; and performances and master 
classes for area college students.
                             youth-at-risk
    An NEA-supported publication, Art Works!: Prevention Programs for 
Youth & Communities, confirms that students who participate in 
organized arts activities are significantly less likely to abuse drugs 
or alcohol. Orchestra's programs for at-risk youth have further 
demonstrated that arts participants develop higher self-esteem, are 
more likely to remain in school, and are more likely to attend college.
    Orchestras across the country, in small rural communities and large 
urban centers, collaborate with teachers and community service 
organizations to identify students that may be at risk of substance 
abuse or gang activity, and offer learning opportunities for at-risk 
youth during the school day and afterschool, weekends, and summers. At-
risk youth who participate in music programs experience the joy of 
creativity, the discipline required to learn new skills, and the 
satisfaction of participating in a safe community of peers and mentors.
                      community arts partnerships
    Challenge America would support a collaborative effort to assist 
community renewal through the arts. These projects range from 
developing arts-related solutions for economic and social issues, to 
increasing public awareness of the importance of the arts. Long-term 
community arts partnerships have proven to stabilize arts organizations 
in their communities and, particularly in the case of orchestras, been 
key to audience development efforts.
    An NEA grant created a new community partnership in support of the 
Billings Symphony Orchestra. The Orchestra's outreach program for 
residents of rural, tribal, and urban southeast Montana and northeast 
Wyoming includes the Annual Free Youth Concert. An fiscal year 1998 NEA 
grant of $5,000 leveraged matching support from the Stillwater Mining 
Company, a first-time contributor to the Orchestra, and a significant 
employer in Montana. While the Annual Free Youth Concert is typically 
limited to one free performance by the full orchestra, the Stillwater 
Mining Company's contribution made possible a second free concert in 
January, raising the combined attendance to number more than 2,300.
    One audience member expressed his appreciation for the performance 
opportunity and for the Mining Company's support: ``Since my limited 
income does not allow me to attend concerts more regularly, I 
especially appreciate the efforts of the Stillwater Mining Company and 
other sponsors who make it possible for the community at large to 
attend the fine programs produced by the Symphony. Groups like the SMC 
who sponsor such things show that they care for the Billings community, 
and by so doing gain much support for what they desire to accomplish in 
their business.''
    The Symphony's outreach program also includes, Rural Rhythms, a 
partnership with four rural counties, through which the Billings 
Symphony Orchestra sends musicians as individuals and in pairs to 
perform in informal settings. After front-page promotion and coverage 
in the Rosebud County Press, one such performance attracted 15 percent 
of the Colstrip population, which numbers near 500. One Colstrip 
resident expressed her thanks: ``I just wanted to commend the Billings 
Symphony on their program that allows those of us who live in rural 
communities the opportunity to see and hear such wonderful musicians 
and ambassadors of the Billings Symphony.'' Another audience member 
commented, ``I believe you will have a few more Colstrip people attend 
the Billings Symphony after Tuesday night's performance . . .''
    In sum, the NEA grant to the Billings Symphony Orchestra has 
sparked a new partnership between art and industry, increased access to 
live performances, and helped the orchestra to build future audiences.
    The Challenge America initiative will devote $50 million in funding 
to provide crucial opportunities for community arts programs, such as 
those described above. In conceiving this initiative, the NEA consulted 
with the state arts agencies and other government agencies, 
representatives from arts organizations, and the private sector to 
forge an agenda that will further increase investments in the arts, 
ensure access to the arts, promote individual creative endeavors, and 
advance learning. On behalf of America's orchestras, we urge the Senate 
to approve $150 million in fiscal year 2000 support for the National 
Endowment for the Arts.
                                 ______
                                 
    Prepared Statement of B. Lester Abberger, III on Behalf of the 
                Federation of State Humanities Councils
    Mr. Chairman, members of the subcommittee, thank you for the 
privilege of speaking to you today on behalf of the state humanities 
councils. My name is Lester Abberger. I serve on the board of directors 
of the Florida Humanities Council and the Federation of State 
Humanities Councils. I live in Tallahassee, Florida where I work as the 
senior vice president of the Florida Water Services Corporation.
    I am here today on behalf of the National Endowment for the 
Humanities and more specifically the state humanities councils to 
advocate funding as requested in the fiscal year 2000 budget in the 
amount of $150 million for the NEH and $39.13 million for the Federal-
State Partnership.
    My involvement in the Florida Humanities Council began in 1989 when 
I was asked to participate in an ambitious experiment in participatory 
democracy called the ``Governor's Challenge Conference.'' Each year the 
governor of Florida and the Florida Humanities Council chose a topic to 
be discussed by regional and statewide citizens' groups throughout the 
state in a process that would culminate in a list of recommendations 
presented to the Governor and the state legislature. The year that I 
participated the topic was ``Medical Ethics: The Have and Have Knots of 
Health Care.'' Our group, composed of civic activists, medical 
professionals and business leaders, explored and debated the choices we 
face in the allocation of health care resources, terminal illness, 
long-term care for the elderly and health care education.
    The Governor's Challenge Conferences provided political leadership 
with thoughtful recommendations, rooted in the informed concerns of the 
various constituencies of the state and enlightened by the perspectives 
of the humanities. These public discussions allowed us to not only 
examine options in thoughtful ways but to inquire about the values 
implicit in the choices. The most distinctive aspect of these programs, 
however, was that they were rooted in the humanities. With the help of 
humanities scholars we looked at what philosophy, history, religious 
studies and literature tell us about the things that really matter most 
to us as individuals and as a society. In the medical community, where 
we often look to science and technology for solutions, we found that 
the perspectives of the humanities challenged our assumptions and 
opened our minds to entirely new possibilities.
    My story is not unlike those of Americans in every state who have 
been educated and enriched by the public humanities. For nearly 30 
years humanities councils in all 50 states have sponsored and funded 
programs that bring citizens together to discuss history, literature, 
ethics, culture and public policy. In my state, the Florida Humanities 
Council sponsored more than 900 public humanities programs last year--
programs for school teachers, business leaders, elected officials, 
senior citizens and families--all with a total budget of only $1.5 
million. I want to repeat this because I believe it is impressive and 
important. With a total budget of only $1.5 million--about one-third of 
which comes from the federal government--the FHC sponsored more than 
900 programs throughout the state in a single year.
    Many of these programs play a vital role in reaching out to the 
small rural towns, which often have no cultural or educational 
institutions of their own. In such areas, these programs may be the 
only opportunity residents have to participate in live programs that 
offer insight into their own history, to join a reading and discussion 
group, or to discuss issues of common concern. Last February, for 
example, more than 300 residents of Bartow, Florida turned out to hear 
two prominent Florida writers, one black and one white, talk about 
growing up in the segregated world of 1950's Florida. The discussion 
after the program was every bit as enlightening as the program itself, 
as the black and white residents talked about race relations in their 
community over the past 40 years.
    Such discussions are taking place in communities large and small 
throughout the country. Mississippi's ``Hometown Initiative'' has 
residents of Booneville, Clarksdale and Aberdeen researching and 
documenting their local histories. The Washington Humanities 
Commission's ``Inquiring Minds'' speakers bureau sent speakers to 400 
presentations to schools, libraries and community centers in 35 of that 
state's 39 counties. The Pennsylvania Humanities Council's Speaker 
Bureau requests have doubled in three years.
    Education is integral to the mission of all state humanities 
councils, and each council has carved out a niche in the educational 
system of its state, striving to ensure the highest possible quality in 
classroom teaching. School programs and teacher seminars bring a wealth 
of humanities resources into the classroom. In Louisiana, Summer 
Teacher Institutes have reached a quarter of the state's middle and 
high school humanities teachers, who in turn teach 300,000 students 
annually. These 4-6 week intensive training session are taught by 
college professors in humanities subjects identified by teachers. 
Programs in Florida, Illinois and Minnesota provide week-long 
residential seminars designed to provide outstanding teachers with the 
opportunity to recharge intellectually, network with other excellent 
teachers and study with distinguished humanities professors.
    Responding to mandates from the Georgia legislature and the state 
board of education that public schools provide character education, the 
Georgia Humanities Council has a new character education initiative. 
They have developed a resource center, sponsored a statewide conference 
and conducted two summer teachers academies designed to help teachers 
to use the great stories found in literature and history as a way of 
looking at the virtues and values passed down from generation to 
generation and which form the foundation of a civil society. The New 
Mexico Endowment for the Humanities provides an annual history teachers 
institute and also sponsors that state's National History Day 
celebration and competition.
    Several state councils have developed innovative interactive 
humanities websites and cd roms, and many are working with teachers in 
their states to help them integrate this technology into their 
humanities curricula. Programs such as the Texas Council's ``Teaching 
Humanities with Technology,'' are making certain that humanities 
teachers are not left out of the information age.
    At the heart of many humanities programs are children and families, 
and nowhere is this more evident than in the expanding number of 
literacy and family reading programs undertaken by state humanities 
councils. In several states, including California, Minnesota, North 
Carolina, Utah, Washington and Alabama, a program known as Motheread/
Fatheread is helping parents improve reading skills, build critical 
thinking ability and talk about literary themes and family issues. 
Through Motheread/Fatheread parents and children learn to appreciate 
reading, good books, and the questions and discussion that good books 
generate.
    The Vermont Humanities Council has been a pioneer in that state's 
efforts to combat illiteracy through ``Connections,'' a program that 
offers adult literacy students an opportunity to gather with their 
peers to discuss timeless themes and to make connections between the 
books they read and their own lives. This year the Vermont Humanities 
Council in partnership with the American Library Association and 27 
state humanities councils will offer ``Connections'' in 40 sites 
throughout the U.S. Through these exemplary programs and others 
elsewhere across the nation, humanities councils are helping parents 
improve reading skills while also providing opportunities for parents 
and children to examine their values, their relationship with each 
other, and their role in society.
    An effective way to extend the reach of limited resources is to 
develop productive partnerships, and this is an area in which state 
humanities councils are particularly skilled. An outstanding example is 
the partnership between the councils and the Smithsonian Institution 
Traveling Exhibition Service (SITES), which resulted in a program 
called Museum on Main Street, designed specifically to serve rural 
communities. This seven-year-old collaboration has made it possible for 
small towns in 22 states, including Alabama, Arizona, Georgia, Ohio and 
Washington, to host high quality, portable Smithsonian exhibits and 
build humanities programs around them. Typically the exhibit is 
displayed in a community historical society or museum, and a local 
planning committee, working with the humanities councils, plans 
activities that explore the culture and history of the community and 
surrounding area. In a number of participating sites, the audience for 
the exhibit has exceeded the population of the town itself, and 
participants in almost all cases report that the effects of the program 
on the host institution and the community far outlast the few weeks 
that the exhibit is displayed.
    Rural museums are just one of many settings in which councils have 
made it possible for citizens who would otherwise not have this 
opportunity to participate in substantive humanities programs. The 
Minnesota Humanities Commission, to cite another example, designed a 
program for the elderly in nursing homes. Using an anthology of 
readings they compiled, the council trains volunteers to read aloud to 
those who can no longer read on their own. The New Hampshire Humanities 
Council has conducted a program called ``A Backward Glance,'' which 
involved scholars also working with nursing home residents to read 
memoirs and then write their own, assisted by the scholars and also 
local high school students who were enlisted to help with compiling 
production of the written product. In South Dakota, humanities programs 
on reservations help Native Americans to record and preserve their 
native culture.
    Other programs use the humanities to help citizens cope with the 
often bewildering and rapidly changing world around them. The 
Pennsylvania Humanities Council recently conducted a program involving 
non-traditional audiences in the inner cities and rural districts of 
southwestern Pennsylvania in exploring, through community forums and 
discussions both face-to-face and on-line, the impact of communications 
technology on their lives and American society as a whole. Of the 1,200 
people who participated in this very successful program, more than half 
did not have college degrees; three-quarters had never before attended 
a public humanities
    The board of directors of the Florida Humanities Council and our 
counterparts in state councils are keenly aware of the changing nature 
of the non-profit sector. We know that a secure financial future relies 
on our ability to diversify and strengthen our funding base. Over the 
past several years councils have been systematically analyzing programs 
to make certain they fit our mission, exploring new markets and 
investigating areas of potential profitability. All of us are engaged 
in an organization-changing process that has helped us to generate 
earned income, to attract new partners and to renew our confidence in 
the vital role that the public humanities plays in clarifying issues, 
building connections and creating a sense of community.
    Our efforts are producing results, as nearly two-thirds of the 
councils are receiving state funding, with several receiving 
appropriations of more than $500,000. Over 90 percent of the councils 
have received funds from foundations, corporations and individuals. 
While all councils are working hard to build their resources through 
state appropriations, membership support, corporate and foundation 
grants and entrepreneurial ventures, the demand for our programs and 
services far exceed what we can supply, and the federal support is 
critical to all other fund-raising efforts.
    Community grants programs, which enable local communities to plan 
and fund their own local programs, have been seriously affected by 
budget cuts, and most councils have reduced both the size and number of 
grants they are making. Literacy and family reading programs are 
substantially under funded in most states.
    Speakers Bureau programs, through which citizens are able to engage 
with high-quality scholars on a wide variety of ideas, are often the 
only live humanities programs available to residents of small 
communities in remote areas. And yet, many states report that they 
spend their entire Speakers Bureau budget in the first half of their 
fiscal year. Kentucky is only able to fulfill 20 percent of the 
requests for speakers it receives. Minnesota has eliminated its 
Speakers Bureau program entirely because they could not adequately 
sustain it.
    Consequently, I am here today to ask youno, to implore you--to 
increase funding for the state humanities councils through the Federal-
State Partnership. Funding for the councils has been level for much of 
this decade; indeed, our purchasing power has eroded, yet, as I have 
tried to illustrate, our activities, demands and opportunities are 
great. We are meeting needs not only in public programming but also in 
education, teacher training, literacy and reading. Every dollar put 
into the Federal-State Partnership goes directly and expeditiously into 
the states and into programs that directly serve people. Even an 
additional $100,000 for the Florida Humanities Council, for example, 
could translate into 1,000 or perhaps even 1,100 programs rather than 
900, which would greatly benefit the civic and cultural life of 
Florida. It would allow us to expand the scope, breadth and geographic 
range of our efforts within each state. It would allow us to reach more 
of our people directly and personally with the programs that truly 
affect our values and our humanity.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Abberger, B. Lester, III, on behalf of the Federation of State 
  Humanities Councils, prepared statement........................   780
Able, Edward H., Jr., President and CEO, American Association of 
  Museums, prepared statement....................................   774
Abnee, Conn, Executive Director, Geothermal Heat Pump Consortium, 
  prepared statement.............................................   743
Alexander, Clarence, Chairman, Council of Athabascan Tribal 
  Governments, prepared statement................................   645
Allen, W. Ron, President, National Congress of American Indians, 
  prepared statement.............................................   543
Allen, W. Ron, Tribal Chairman and Executive Director, Jamestown 
  S'Klallam Tribe, prepared statement............................   580
American:
    Public Power Association, prepared statement.................   734
    Sportsfishing Association, prepared statement................   490
    Symphony Orchestra League, prepared statement................   778
Anderson, Ike, Deputy Assistant Secretary, Bureau of Indian 
  Affairs, Department of the Interior............................   129
Apache, Burton, President, Alamo-Navajo School Board, prepared 
  statement......................................................   588
Arita, Steven J., Environmental Coordinator, Western States 
  Petroleum Association, prepared statement......................   506
Axfod, Craig, Program Director, Utah Environmental Congress, 
  prepared statement.............................................   694

Babbitt, Hon. Bruce, Secretary of the Interior, Office of the 
  Secretary, Department of the Interior..........................   315
    Prepared statement...........................................   320
    Summary statement............................................   318
Bajura, Richard, Director, National Research Center for Coal and 
  Energy at West Virginia University, prepared statement.........   708
Ballew, Tim, Chairman, Lummi Nation, prepared statement..........   574
Barnett, Jack A., Executive Director, Colorado River Basin 
  Salinity Control Forum, prepared statement.....................   479
Beetham, Mary Beth, Senior Associate, Defenders of Wildlife, 
  prepared statement.............................................   497
Begay, Jimmie C., Executive Director, Rock Point Community 
  School, the Navajo Nation, prepared statement..................   673
Belone, Phillip, Executive Director, Ramah Navajo School Board, 
  Inc., Pine Hill, NM, prepared statement........................   587
Bennett, Hon. George E., Chairman, Grand Traverse Band of Ottawa 
  and Chippewa Indians of Michigan, prepared statement...........   628
Bennett, Hon. Robert F., U.S. Senator from Utah, opening 
  statement......................................................   190
Bering Sea Fishermen's Association, prepared statement...........   669
Bighorn, Spike, Assiniboine and Sioux Tribes of the Fort Peck 
  Indian Reservation, prepared statement.........................   614
Blazer, Karen Dixon, on behalf of Association of Navajo Community 
  Controlled School Boards, Inc., prepared statement.............   584
Burns, Hon. Conrad, U.S. Senator from Montana:
    Opening statement............................................   131
    Prepared statements........................................212, 317
    Questions submitted by.....................................294, 433
Business Council for Sustainable Energy, prepared statement......   749
Byrd, Hon. Robert C., U.S. Senator from West Virginia:
    Opening statements.....................................47, 189, 316
    Questions submitted by................................103, 298, 439

Campbell, Faith T., Ph.D., Washington Representative, on behalf 
  of Frontera Audubon Society, prepared statement................   699
Campbell, Hon. Ben, Nighthorse, U.S. Senator from Colorado:
    Opening statement............................................    46
    Questions submitted by.....................................165, 181
Chase, Mike, Endangered Species Coordinator, Kern County Farm 
  Bureau, prepared statement.....................................   506
Clark, Les, Vice President, Independent Oil Producers Agency, 
  prepared statements..........................................506, 515
Clark, Robert, Executive Director, Bristol Bay Area Health Corp., 
  prepared statement.............................................   562
Coachella Valley Mountains Conservancy, prepared statements....475, 508
Coal Utilization Research Council, prepared statement............   716
Cochran, Hon. Thad, U.S. Senator from Mississippi, prepared 
  statement......................................................     2
Confederated Tribes of the Colville Reservation, prepared 
  statement......................................................   606
Conrad, Gregory E., Executive Director, Interstate Mining Compact 
  Commission, prepared statement.................................   471
Coontz, Glenn, Vice Chair, Department of Finance and 
  Administrative Services, Urban Consortium Energy Task Force, 
  prepared statement.............................................   755
Council for Chemical Research, prepared statement................   745
Craig, Hon. Larry, U.S. Senator from Idaho:
    Opening statement............................................   224
    Questions submitted by.......................................   438
Cukro, George, Executive Director, Black Mesa Community School, 
  prepared statement.............................................   595
Cunha, Manual, Jr., President, NISEI Farmers League, prepared 
  statements...................................................506, 515

Derbyshire, Dr. Frank, Director, University of Kentucky, Center 
  for Applied Energy Research, prepared statement................   736
Dickens, Michael, Chief Executive Officer, Integrated Building 
  and Construction Solutions, prepared statement.................   768
Dombeck, Mike, Chief, Forest Service, Department of Agriculture..   187
    Prepared statement...........................................   201
    Summary statement............................................   197
Domenici, Hon. Pete V., U.S. Senator from New Mexico, questions 
  submitted by.......................................164, 177, 289, 427
Dorgan, Hon. Bryan L., U.S. Senator from North Dakota, questions 
  submitted by..................................................39, 460

Ebel, John E., Ph.D., Director, the Weston Observatory of Boston 
  College, prepared statement....................................   539
Electric Vehicle Association of the Americas, prepared statement.   746
Energy Committee of the Council on Engineering, American Society 
  of Mechanical Engineers, prepared statement....................   738
Evans, Peter H., Director, Colorado Water Conservation Board, 
  prepared statement.............................................   535
Evetts, Robert M., President, National Association of Abandoned 
  Mine Land Programs, prepared statement.........................   704
Feinstein, Hon. Dianne, U.S. Senator from California, questions 
  submitted by........................................42, 184, 311, 465
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   616
Frank, Billy, Jr., Chairman, Northwest Indian Fisheries 
  Commission, prepared statement.................................   577
Fuel Cell Commercialization Group, prepared statement............   733
Fumich, George, Program Advisor, National Research Center for 
  Coal and Energy at West Virginia University, prepared statement   708

Gainesville, FL, city of, prepared statement.....................   523
Garcia, Martha, President, Ramah Navajo Chapter, prepared 
  statement......................................................   597
General Electric Power Systems, prepared statements............713, 761
Geringer, Hon. Jim, Governor, State of Wyoming, prepared 
  statement......................................................   481
Gilmartin, Hon. Tim E., Mayor, Metlakatla Indian Community, 
  prepared statement.............................................   675
Gipp, David M., President, Standing Rock Sioux Tribe, prepared 
  statement......................................................   660
Goergen, Michael T., Jr., Director, Forest Policy, Society of 
  American Foresters, prepared statement.........................   696
Goerl, Vincette, Deputy Chief, Chief Financial Officer, Forest 
  Service, Department of Agriculture.............................   187
Gorton, Hon. Slade, U.S. Senator from Washington:
    Opening statements.............................1, 45, 129, 187, 325
    Questions submitted by............................62, 167, 239, 354
Gover, Kevin, Assistant Secretary, Bureau of Indian Affairs, 
  Department of the Interior.....................................   129
    Prepared statement...........................................   145
    Summary statement............................................   142
Guenthardt, Hon. Robert, Tribal Ogema (Chief Executive), Little 
  River Band of Ottawa Indians of Michigan, prepared statement...   664

Hamilton, Lee H., Director, Woodrow Wilson International Center 
  for Scholars...................................................     1
    Prepared statement...........................................    31
    Summary statement............................................    28
Hansen, Kenneth C., Chairman, Samish Indian Tribe of Washington 
  State, prepared statement......................................   656
Havatone, Earl, Chairman, Hualapai Tribal Council of Arizona, 
  prepared statement.............................................   554
Hazard, Holly E., Executive Director, Doris Day Animal League, 
  prepared statement.............................................   489
Heyman, I. Michael, Secretary, Smithsonian Institution...........     1
    Prepared statement...........................................    24
    Summary statement............................................    18
Hocker, Jean, President, the Land Trust Alliance, prepared 
  statement......................................................   527
Holder, Gerald, Dean, University of Pittsburgh, prepared 
  statement......................................................   710
Holmer, Steve, Campaign Coordinator, American Lands Alliance, 
  prepared statement.............................................   692
Holmes, Constance D., Senior Vice President, Policy National 
  Mining Association, prepared statement.........................   482
Huffman, Dr. Gerald P., Director, Consortium for Fossil Fuel 
  Liquefaction Science, prepared statement.......................   706
Humane Society of the United States, prepared statement..........   502
Hunsinger, Scott, Director, Non-Academic Programs, Shiprock 
  Alternative Schools, Inc., prepared statement..................   591
Huntington, Gilbert, Co-Chair Upper Yukon, Yukon River Drainage 
  Fisheries Association, prepared statement......................   507
Hydrocarbon Technologies, Inc., prepared statement...............   732

Ivanoff, Larry, Chairman, Alaska Native Tribal Health Consortium, 
  prepared statement.............................................   618

James, Hon. Sharpe, Mayor, City of Newark, NJ, prepared statement   518
James, Ted, Planning Director, Kern County Planning Department, 
  prepared statement.............................................   506
Janger, Stephen A., President, Close Up Foundation, prepared 
  statement......................................................   512
John, Hon. Ismael, Senator, Nitijela of the Marshall Islands, 
  prepared statement.............................................   690
Johnson, Myrna, Director, ORCA, prepared statement...............   703
Jones, Hon. Gerald J., Tribal Chairman, Port Gamble S'Klallam 
  Tribe, prepared statement......................................   681
Joseph, Jason L., Chairman, Sauk-Suiattle Indian Tribe, prepared 
  state- 
  ment...........................................................   568

Kavanagh, Lawrence W., Vice President, Manufacturing and 
  Technology, American Iron and Steel Institute, prepared 
  statement......................................................   727
Kenahan, Robert E., Tribal Police Chief, Narragansett Indian 
  Tribe, prepared statement......................................   643
Kenny, Michael P., Executive Officer, California Air Resources 
  Board, prepared statement......................................   515
Ketchum, Dee, Chief, Tribal Council of the Delaware Tribe of 
  Indians, Bartlesville, OK, prepared statement..................   624
Klass, Dr. Donald L., President, Biomass Energy Research 
  Association, prepared statement................................   720
Kohl, Hon. U.S. Senator from Wisconsin:
    Opening statement............................................   214
    Questions submitted by.......................................   183

Leahy, Hon. Patrick J., U.S. Senator from Vermont, questions 
  submitted by.................................................310, 452
Lewis, Robert, Deputy Chief, Research and Technology Development, 
  Forest Service, Department of Agriculture......................   187
Lonetree, Jacob, President, Ho-Chunk Nation, prepared statement..   601
Lopeman, David, Chairman, Squaxin Island Tribe, prepared 
  statement......................................................   571
Lyons, James R., Under Secretary, Natural Resources and 
  Environment, Forest Service, Department of Agriculture.........   187
    Prepared statement...........................................   195
    Summary statement............................................   190

Manning, Gloria, Acting Deputy Chief, National Forest System, 
  Forest Service, Department of Agriculture......................   187
Maulson, Tom, Chairman, Lac du Flambeau Band of Lake Superior 
  Chippewa Indians, prepared statement...........................   611
Maxwell Museum of Anthropology, University of New Mexico, 
  prepared statement.............................................   772
McCabe, Preston, President, Pinon Chapter, the Navajo Nation, 
  prepared statement.............................................   592
McDougle, Janice, Acting Deputy Chief, State and Private Forestry   187
Meadows, James, Executive Director, Presidio Trust, prepared 
  statement......................................................   520
Merculief, Hon. Boris R., President, St. George Island 
  Traditional Council, St. George Island, AK, prepared statement.   632
Miami Beach, FL, city of, prepared statement.....................   517
Moore, Donald Sr., Chairman, Bad River Band of Lake Superior 
  Chippewa Indians, prepared statement...........................   608
Morrow, Richard, Vice President, Southern California Gas Company, 
  and Chairman of the American Gas Cooling Center, prepared 
  statement......................................................   766
Mosman, James D., Chief Executive Officer, State Teachers' 
  Retirement System, State of California, prepared statement.....   718
Murphy, Charles, Board President and Chairman, Standing Rock 
  Sioux Tribe, prepared statement................................   660
National:
    Association of Energy Service Companies, prepared statement..   753
    Association of State Energy Officials, prepared statement....   710
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   509
    Corn Growers Association, prepared statement.................   741
    Indian Child Welfare Association, prepared statement.........   652
Natural Gas Industry, prepared statement.........................   758
Nez Perce Tribe, prepared statement..............................   649
Norton Sound Health Corporation, prepared statement..............   641

Old Chief, William, Chairman, Blackfeet Tribe, Blackfeet Indian 
  Reservation, prepared statement................................   666
Ornithological Council, prepared statement.......................   486
Owens, John M., Associate Dean for Research, Auburn University, 
  prepared statement.............................................   710
Patrick, Barbara, member, Board Supervisors of Kern County and 
  member, California Air Resources Board, prepared statement.....   515
Patt, Olney Jr., Chairman, Tribal Council, Confederated Tribes of 
  the Warm Springs Reservation of Oregon, prepared statement.....   638
Perschel, Robert, Chairman, Northern Forest Alliance, prepared 
  statement......................................................   529
Peter, Hon. Neptali, Mayor, Enewetak Atoll on behalf of the 
  Enewetak/Ujelang Local Government Council, prepared statement..   690
Petroleum Technology Transfer Council, prepared statement........   729
Pinkham, Jaime, President, Intertribal Timber Council, prepared 
  statement......................................................   620
Powell, Earl A., III, Director, National Gallery of Art..........     1
    Prepared statement...........................................    16
    Summary statement............................................    13
Poynter, Ken, Executive Director, Native American Fish & Wildlife 
  Society, prepared statement....................................   495
Preston, Victor R., Chairman, Susanville Indian Rancheria, 
  prepared statement.............................................   658
Pugmire, Ronald J., Ph.D., Associate Vice President for Research, 
  Professor of Chemical and Fuels Engineering, University of 
  Utah, prepared statement.......................................   709
Queton, Hilton G., Executive Director, American Indian Graduate 
  Center, Albuquerque, NM, prepared statement....................   549
Quickel, Dr. Kenneth E., Jr., President, Joslin Diabetes Center, 
  prepared statement.............................................   627
Quinn, Timothy H., Acting General Manager, Metropolitan Water 
  District of Southern California, prepared statement............   474
Rainwater-Sande, Hon. Stephanie, President, the Ketchikan Indian 
  Corporation, prepared statement................................   630
Randall, Vincent, Chairman, Yavapai-Apache Nation, prepared 
  statement......................................................   556
Reheis, Catherine H., Managing Coordinator, Western States 
  Petroleum Association, prepared statement......................   515
Reicher, Dan, Assistant Secretary of Energy, Office of the 
  Secretary, Department of Energy................................    45
Reid, Hon. Harry, U.S. Senator from Nevada, questions submitted 
  by.............................................................   458
Rice, Stan, Jr., President, Board of Directors, Prescott Indian 
  Tribe, prepared statement......................................   648
Richardson, Hon. Bill, Secretary of Energy, Office of the 
  Secretary, Department of Energy................................    45
    Prepared statement...........................................    48
    Summary statement............................................    48
Rosebud Sioux Tribe, prepared statement..........................   551
Seminole Tribe of Florida, prepared statement....................   671
Sharkey, Andrew G., III, President and CEO, American Iron and 
  Steel Institute, prepared statement............................   727
Shoalwater Bay Indian Tribe, prepared statement..................   677
Simmons, Roger, Consul General, Canada, letter from..............   494
Simpkins, Eric L., Energy Research Corporation, prepared 
  statement......................................................   769
Siyuja, Thomas, Chairman, Havasupai Tribal Council, prepared 
  statement......................................................   557
Smith, Maj. Gen. Scott B. (U.S. Army Ret.), Chief Executive 
  Officer, Western Research Institute, prepared statement........   722
Southern Environmental Law Center, prepared statement............   701
Sparrowe, Rollin D., President, Wildlife Management Institute, 
  prepared statement.............................................   476
Stevens, Christine, Secretary, Society for Animal Protective 
  Legislation, prepared statement................................   505
Stevens, Hon. Ted, U.S. Senator from Alaska, question submitted 
  by.............................................................   288
Stewart, Ron, Deputy Chief, Programs and Legislation, Forest 
  Service, Department of Agriculture.............................   187
Styles, Gary A. Manager, Planning and Analysis Power Systems 
  Development Facility, Southern Company Services, Inc., prepared 
  statement......................................................   724
Sublette, Kerry L., Sarkeys Professor of Environmental 
  Engineering, University of Tulsa, Director, Integrated 
  Petroleum Environmental Consortium (IPEC), prepared statement..   583

Thompson, Clyde, Deputy Chief, Business Operations, Forest 
  Service, Department of Agriculture.............................   187
Thompson, Thomas M., Acting Special Trustee for American Indians, 
  Office of the Special Trustee, Department of the Interior......   129
    Prepared statement...........................................   135
    Summary statement............................................   132
Thurmond, Hon. Strom, U.S. Senator from South Carolina, questions 
  submitted by...................................................   467
Tierney, John W., Professor, University of Pittsburgh, prepared 
  statement......................................................   710
Tom, Young Jeff, President, Mariano Lake Community School, Inc. 
  of the Navajo Nation, prepared statement.......................   600
Tsosie, Wallace, board member, Greasewood Springs Community 
  School, Inc., prepared statement...............................   596
Tucker, Hon. Daniel, Vice Chairman, Sycuan Band of Mission 
  Indians, prepared statement....................................   567
Tutt, James M., President, Crownpoint Institute of Technology, 
  Crownpoint, NM, prepared statement.............................   557

University of New Mexico, prepared statement.....................   532
Upper Mississippi River Basin Association, prepared statement....   537

Ward, Justin R., Senior Policy Specialist, the Natural Resources 
  Defense Council, prepare statement.............................   700
Ward, Peter J., Chairman, United States Park Police Labor 
  Committee, Fraternal Order of Police, prepared statement.......   524
Webb, David O., Vice President, Government Programs Services 
  Ccenter, Gas Research Institute, prepared statement............   764
Wender, Irving, Distinguished University Research Professor, 
  University of Pittsburgh, prepared statement...................   710
Wilde, Harry, Sr., Co-Chair, Lower Yukon, Yukon River Drainage 
  Fisheries Association, prepared statement......................   507
Wilker, Lawrence J., President, John F. Kennedy Center for the 
  Performing Arts................................................     1
    Prepared statement...........................................     6
    Summary statement............................................     3
Wopsock, Ronald J., Chairman, Tribal Business Committee of the 
  Ute Indian Tribe of the Uintah and Ouray Reservation, prepared 
  statement......................................................   564
Wynne, Bruce, Chairman, Spokane Tribe of Indians, prepared 
  statement......................................................   560

Yallup, William F., Sr., Chairman, Yakama Indian Nation, prepared 
  statement......................................................   602

Zimmerman, Gerald R., Executive Director, Colorado River Board of 
  California, prepared statement.................................   479


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page

Additional committee questions...................................   239
Administrative appeals...........................................   229
Allocation of funds:
    Among the regions............................................   303
    Criteria.....................................................   210
Beetles..........................................................   212
    Douglas fire.................................................   225
Budget:
    Accountability...............................................   188
    President's..................................................   202
    Resolution...................................................   187
    Restructuring................................................   189
    Structure reform.............................................   238
Carson National Forest drainage problem..........................   291
Clean water action plan..........................................   193
Crown jewel mine.................................................   235
Drought assessment...............................................   222
Education........................................................   219
Elk River limited partner land acquisition and donation..........   308
Environmental litigation.........................................   221
Financial accountability.......................................200, 252
Fire.............................................................   239
    Risk assessment..............................................   222
Forest:
    Access.....................................................210, 213
    Health and sustainability....................................   191
    Initiative, four corners sustainable.........................   290
    Management, balanced.........................................   217
    Plan development process.....................................   231
    Service Accountability.......................................   206
        Reorganization...........................................   296
    State and private............................................   254
    Stewardship contracts........................................   295
    Transitional management......................................   218
    Urban and community..........................................   193
General........................................................285, 294
    Administration...............................................   237
GPRA.............................................................   252
High-risk agency list............................................   237
Highland scenic highway landslides...............................   307
In-holdings......................................................   223
Interior Columbia Basin Ecosystem Management Plan.........225, 233, 283
Insects and disease..............................................   193
    Gypsy moth...................................................   214
Institute:
    Of Hardwood Technology Transfer and Applied Research.........   207
    Partnerships.................................................   208
Invasive species.................................................   227
Land:
    Acquisition priorities.......................................   223
    Legacy initiative............................................   191
    Management planning..........................................   283
Law enforcement..................................................   284
Legislative proposals............................................   264
Maintenance......................................................   194
    Multiple-use.................................................   201
Mining Act implications..........................................   237
Mining laws......................................................   238
    Interpretation of............................................   236
Monongahela National Forest......................................   209
    Radio system.................................................   303
    Watershed restoration needs of...............................   308
Natural Resource Agenda..........................................   203
New burn policy..................................................   294
New legislation for more revenues................................   297
Noxious weeds....................................................   226
Payments to states........................................194, 213, 217
Prescribed:
    Burns........................................................   227
    Fire.........................................................   228
Presidential priorities..........................................   195
Public involvement...............................................   225
Puget Sound map photographs...............................192, 234, 238
Record of decision authority.....................................   232
Recreation.......................................................   242
Regional office move.............................................   215
Research.........................................................   259
    Centers, West Virginia.......................................   306
Roadless moratorium..............................................   247
Roads..........................................................194, 211
    And mineral closures.........................................   295
    And timber sales.............................................   228
Rural community assistance.......................................   290
Seneca Rocks Visitor Center......................................   301
Smoke jumpers ceremony in Montana................................   296
Southwest conservation strategy..................................   291
Surplus land disposal/inholder relief............................   289
Sustainable forest management....................................   199
Timber harvests..................................................   199
    Program......................................................   282
Tongass:
    Land management plan.......................................229, 230
    Record of decision...........................................   215
Tongass Timber Reform Act........................................   216
U.S. Forest Service--litigation costs............................   292
    Southwestern drought.........................................   293
Watersheds.......................................................   198
    Improvements.................................................   209
Wood Education and Resource Center.............................207, 298

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

Accomplishments..................................................    62
Additional committee questions...................................    62
Boiler system, low emission......................................    68
Budget request, fiscal year 2000.................................    50
Carbon sequestration.............................................    65
Clean fuels research, advanced...................................   106
Climate change..................................................61, 119
    Activities...................................................   126
Coal technology, clean.........................48, 53, 54, 83, 114, 125
Economic regulation..............................................    54
Energy conservation..............................................    90
    Efficiency...................................................    50
    Information administration..................................54, 103
    Use measurement..............................................    60
Federal and private sector partnerships..........................    56
Federal Energy Management Program................................    93
Federal Technology Center......................................122, 127
Fossil energy research and development............52, 55, 103, 125, 114
    Natural gas..................................................    74
    Research--Coal...............................................   105
Fuel Cells......................................................77, 114
Great Plains gasification plant..................................    72
Indirect fired cycle.............................................    69
Industries of the future.........................................    98
Lighting and appliance standards.................................    92
Liquefaction:
    Direct.......................................................    66
    Indirect.....................................................    67
Metallurgical processes, advanced................................    83
Methane, coal mine...............................................   113
    Hydrates.....................................................   112
Naval petroleum and oil shale reserves...........................53, 88
Program direction................................................    82
Research and environmental technology............................67, 69
    Standards, building..........................................    90
    Technology development.......................................    71
Restructuring....................................................    64
    Electric power industry......................................    57
    Research--natural gas........................................   112
Rocky Flats......................................................    58
Science, security and energy: Powering the 21st century..........    49
Source measurement techniques, site versus.......................    65
Standards, appliance efficiency..................................   123
Strategic Petroleum Reserves.....................................52, 87
Technology, oil..................................................    79
    Ramjet.......................................................   103
    Transportation...............................................    96
Turbine systems, advanced........................................   102
    Programs.....................................................   113
Vehicles, alternative-fueled.....................................    59
Vision 21........................................................   110
Waste isolation pilot plant......................................    58

                       DEPARTMENT OF THE INTERIOR

                        Bureau of Indian Affairs

Additional committee questions...................................   164
Alcohol and substance abuse......................................   149
Budget summary, fiscal year 2000.................................   146
Construction.....................................................   148
    Education....................................................   149
Contract support.................................................   173
Environmental management.........................................   177
Fractionation legislation........................................   141
Ishi's remains...................................................   186
Law enforcement................................................150, 172
Organization.....................................................   146
Programs:
    Indian, operation of.........................................   147
    Land consolidation pilot.....................................   183
    Trust funds..................................................   184
Schools..........................................................   152
    Chief Leschi.................................................   169
    Construction bonding initiative..............................   167
    Grant, unlawful investments by...............................   171
    Improvement and repair.......................................   169
    More Teachers in Native American.............................   185
    Phased funding for construction..............................   152
Secretary's Trust Management Improvement Project.................   150
Special Initiatives..............................................   148
Tribal courts....................................................   149
Water rights litigation..........................................   176

                        Office of the Secretary

Additional committee questions...................................   354
Advisory Council for Historic Preservation, role of..............   329
Alaska projects..................................................   379
American Samoa...................................................   422
AML increases....................................................   384
Animas-LaPlata...................................................   336
Automated land and mineral record system.......................349, 364
BIA school construction..........................................   464
Biological Resources Division in USGS............................   350
Brown Tree Snake.................................................   423
Budget:
    Overview.....................................................   320
    Priorities...................................................   345
Bureau:
    Of Indian Affairs..........................................418, 433
    Of Land Management...........................................   364
Canaan Valley National Wildlife Refuge...........................   446
Canadian Lynx....................................................   335
Central HAZMAT...................................................   373
Coalbed methane permits..........................................   365
Commendation to Park Service employees...........................   341
Competition with the private sector..............................   388
Construction program reform......................................   394
    Projects.....................................................   413
Contract support on tribal contracts.............................   418
Contractor offsets...............................................   386
Corridor H.......................................................   326
Crown Butte Agreement............................................   437
Crown Jewel mine application rejection...........................   351
    Project......................................................   368
Dams.............................................................   352
    Removal......................................................   414
Deepwater issues.................................................   380
Departmental management..........................................   354
Destin dome......................................................   376
Determinations of eligibility....................................   329
    By the National Register of Historic Places..................   328
Domestic energy industries.......................................   436
Endangered species water needs...................................   330
Energy conservation..............................................   403
Equipment replacement............................................   415
Everglades land acquisition......................................   415
    Modified water delivery system...............................   413
External administrative costs....................................   405
Facility condition assessments...................................   404
FDR Memorial.....................................................   414
Fines............................................................   359
Fire.............................................................   367
Fish and Wildlife FWS--Silvery Minnow............................   427
    Service......................................................   391
        Birding Guide............................................   463
        Easements................................................   462
        Wolf Questionnaire.......................................   427
Five year plans..................................................   356
Focus on emerging biological problems............................   324
GAO report.......................................................   348
General..........................................................   374
George W. Beaver.................................................   339
Glen Echo Park...................................................   413
Government Performance and R354, 371, 382, 387, 389, 392, 415, 419, 426
Grazing permits..................................................   366
Grizzly bear reintroduction....................................339, 435
Harpers Ferry Center for Interpretation and Design...............   441
Harpers Ferry National Historical Park...........................   439
Hawaiian impacts.................................................   425
Historically Black Colleges and Universities.....................   412
Impact assistance................................................   424
Independence for functions of contract rate setting and audit in 
  the Department.................................................   363
Indian gaming....................................................   349
    Trust fund...................................................   336
Initiative:
    Appalachian streams..........................................   386
    Coral reef...................................................   422
    Lands legacy.................................................   321
    Natural resources............................................   397
Inspections......................................................   382
International activities.........................................   376
Kanawha-New River water-quality assessment.......................   451
Keeper responsibilities..........................................   327
Kempthorne bill..................................................   345
Land and Water Conservation Fund...............................359, 397
Leafy Spurge at Theodore Roosevelt National Park.................   462
Leetown Science Center...........................................   449
Lewis and Clark Bicentennial Project.............................   461
    National Historic Trail......................................   460
Litigation costs.................................................   432
Livability.......................................................   322
Lower Mississippi River 10-year plan.............................   343
Maintenance and Capital Improvement Plan.........................   434
Mandan on-a-slant and Lewis and Clark............................   460
Mandated use of critical habitat designation.....................   331
Marine Minerals Research Center..................................   377
Minerals Management Service......................................   374
Montana mineral withdrawal.......................................   437
Natchez Trace Parkway maintenance................................   342
National:
    Center for Preservation Technology and Training..............   410
    Conservation Training Center.................................   445
    Constitution Center..........................................   412
    Fish Hatcheries Program......................................   448
    Park Service.................................................   394
    Petroleum Reserve of Alaska................................334, 371
    Recreation and Preservation..................................   409
New Mexico drought...............................................   330
New River Gorge National River...................................   443
North Star project...............................................   333
Off-stream storage sites.......................................338, 339
Office of Insular Affairs........................................   421
Office of Surface Mining.........................................   384
Offsetting receipts..............................................   374
Ohio River Islands National Wildlife Refuge......................   447
Onshore oil and gas regulations..................................   438
Otter Creek......................................................   337
Park:
    Police.......................................................   400
    Service:
        Acquisition..............................................   416
        Housing..................................................   417
PILT funding.....................................................   434
Preble's Meadow Jumping Mouse....................................   335
Presidio.........................................................   401
Prior Service Trust Fund.........................................   425
Problem with offsets.............................................   346
Program coordination among the four agencies.....................   347
Recreation Fee Demonstration Program...........................347, 356
Reengineering....................................................   378
Refuge revenue sharing...........................................   392
Repair and rehabilitation........................................   399
Restoration......................................................   322
Restoring:
    Ecosystems...................................................   322
    Parks, refuges and public lands..............................   323
    Species......................................................   323
Rock Creek Parkway telecommunications tower......................   341
Royalty-in-kind..................................................   378
Safe visits to public lands......................................   324
Salmon recovery..................................................   353
Sand and gravel..................................................   379
Save America's treasures.........................................   411
Science..........................................................   323
Seven generations into the future and past.......................   325
Southwestern drought.............................................   431
Sportfish restoration grants to States...........................   391
State minimum funding............................................   386
Surplus land disposal/inholder relief............................   430
Taxes, payments in lieu of.......................................   463
Timeliness of approving projects funded with recreation 
  demonstration fee receipts.....................................   347
Tribal trust management improvement..............................   326
Tribally controlled community colleges...........................   463
U.S. Geological Survey...........................................   388
United States Park Police........................................   467
Valuation........................................................   375
Vanishing treasures..............................................   399
Virgin Islands...................................................   421
Water rights.....................................................   332
Wild horse and burro.............................................   370
Y2K..............................................................   404

                     Office of the Special Trustee

Additional committee questions...................................   164
Budget:
    Future requests..............................................   138
    Priorities...................................................   142
Fiscal year:
    1999 supplemental appropriations.............................   136
    2000 budget request..........................................   137
        Funding..................................................   137
GAO report.......................................................   139
IIM litigation...................................................   140
Land fractionation...............................................   140
Improvements, staff support for..................................   139
Trust:
    Functions, consolidation of..................................   138
    Indian, management reform progress...........................   135

             JOHN F. KENNEDY CENTER FOR THE PERFORMING ARTS

American College Theater Festival Participants, 1998.............    12
    University/College...........................................    12
Appropriated Funds, use of.......................................     8
Board of Trustees................................................     7
Budget request...................................................     1
Fiscal year 2000:
    Capital Repair Program.......................................     9
    Operations and Maintenance Program...........................     9
General Accounting Office (GAO) audit requirement................     9
History..........................................................     7
Income, sources of...............................................     8
Kennedy Center:
    Artistic programming.........................................    10
    Building.....................................................     8
    Education programming........................................    10
Performing Arts for Everyone.....................................    11

                        NATIONAL GALLERY OF ART

Art care funding.................................................    39
Attendance.......................................................    38
Budget request...................................................     1
Fiscal year 2000 request.........................................    14
Paul Mellon's bequest, restrictions on...........................    38

                        SMITHSONIAN INSTITUTION

Additional committee questions...................................    39
Affiliations program.............................................    18
Budget request...................................................     1
Capital accounts.................................................    22
Facilities, repair, restoration and alteration of................    23
Heyman's objectives, Secretary...................................    23
Internet access..................................................    19
Lewis and Clark..................................................    42
Museum of the American Indian....................................    39
National Air and Space Museum--Dulles center.....................    35
Outreach Programs................................................    19
Rural initiative.................................................    41
    Participating communities....................................    41
Smithsonian:
    Business ventures............................................    36
    Environmental research center................................    21
    Fiscal year 2000 budget request..............................    21
    Institution traveling exhibition service.....................    19
    Smithsonian research institutes..............................    20
Star-Spangled Banner preservation project........................    20
Visitorship......................................................    20
Washington, outreach to areas outside of.........................    40
Woodward and Lothrop building....................................    37

            WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

Budget:
    Reductions...................................................    34
    Request......................................................     1
Center:
    Activities at the............................................    32
    Where the, goes from here....................................    33

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
